<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2001</title>
<body><pre>[Senate Hearing 106-887]
[From the U.S. Government Printing Office]



                                                     S. Hrg. 106-887

  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2001

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 4578

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR AND 
RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2001, AND FOR 
                             OTHER PURPOSES

                               __________


                       Department of Agriculture
                          Department of Energy
                Department of Health and Human Services
                       Department of the Interior
                       Nondepartmental Witnesses

                               __________
                               
         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
62-781                     WASHINGTON : 2001

                                 ______

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                HARRY REID, Nevada
ROBERT F. BENNETT, Utah              BYRON DORGAN, North Dakota
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    DIANNE FEINSTEIN, California

                           Professional Staff

                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                            Christine Drager
                       Peter Kiefhaber (Minority)

                         Administrative Support

                             Joseph Norrell


                            C O N T E N T S

                              ----------                              

                        Wednesday, March 1, 2000

                                                                   Page

Department of Health and Human Services: Indian Health Service...     1

                       Wednesday, March 22, 2000

Department of Agriculture: Forest Service........................    39

                         Tuesday, April 4, 2000

Department of the Interior:
    Office of the Special Trustee................................   141
    Bureau of Indian Affairs.....................................   141

                        Wednesday, April 5, 2000

Department of the Interior: Office of the Secretary..............   207

                        Tuesday, April 11, 2000

Department of Energy: Office of the Secretary....................   333
Nondepartmental witnesses........................................   395
  

 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2001

                              ----------                              


                        WEDNESDAY, MARCH 1, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, and Dorgan.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                         Indian Health Service

STATEMENT OF MICHAEL H. TRUJILLO, M.D., M.P.H., M.S., 
            ASSISTANT SURGEON GENERAL, DIRECTOR
ACCOMPANIED BY:
        MICHEL E. LINCOLN, DEPUTY DIRECTOR
        KERMIT SMITH, CHIEF MEDICAL OFFICER
        GARY J. HARTZ, ACTING DIRECTOR, OFFICE OF PUBLIC HEALTH


               OPENING STATEMENT OF SENATOR SLADE GORTON


    Senator Gorton. This subcommittee hearing will come to 
order.
    We have here today Dr. Michael Trujillo, Executive Director 
of the Indian Health Service, and his colleagues, who I assume 
are prepared to testify on behalf of the Service's fiscal year 
2001 budget proposal. You are all welcome.
    The Indian Health Service for fiscal year 2001 is proposed 
at a level of $2.6 billion, an increase of $230 million, or ten 
percent above the current funding level. Of that amount, $125 
million is designated for maintaining current services, and 
$105 million is targeted for the improvement of the existing 
levels of health care and services.
    Many of the statistics on the state of Indian health are 
devastating compared to those of the U.S. population in 
general. To cite a few examples, the rate of alcoholism is 627 
percent greater, tuberculosis is 533 percent greater, and 
diabetes is 249 percent greater. A recent Harvard School of 
Public Health/Centers for Disease Control and Prevention study 
found that the lowest life expectancies in the United States 
for both men and women exist in the Indian communities. These 
rates are the lowest of any nation in this hemisphere except 
for Haiti.
    At the same time, the Service has a positive record of 
achievement. Gains have been made. The mortality rates for many 
diseases have decreased significantly. The IHS itself serves as 
a model public health organization for other countries around 
the world.
    This subcommittee will consider the Indian Health Service's 
request for increased funding carefully, recognizing that the 
needs are great. I have to tell you, however, Dr. Trujillo, 
that larger budget decisions must be made before this 
subcommittee begins its work, and those decisions will in large 
measure determine the degree to which we can provide additional 
assistance.
    We may very well in the Senate be dealing with a budget 
resolution in committee as early as next week, but the budget 
resolution must go through both the committee, the Senate, the 
House, and a conference committee before we get our allocation 
for this subcommittee and begin setting our own priorities.
    With that, we do have Senator Dorgan here, and I will defer 
to him for his opening statement.


               OPENING STATEMENT OF SENATOR BYRON DORGAN


    Senator Dorgan. Mr. Chairman, thank you. I will be 
mercifully brief. I wanted to thank you for the timely hearing, 
and to say that I really think we face a crisis in health care, 
housing, and education on Indian reservations in this country, 
and we must address all three.
    Last year, I convened a meeting with the Indian tribal 
Chairs from the Northern Great Plains with President Clinton 
and five Cabinet officers in the White House and talked about 
these issues, but we must do better.
    I know that the President's budget request includes a $1.2 
billion increase over the 2000 levels in a range of areas, but 
frankly, we still are not going to meet the needs that exist on 
Indian reservations, even with that budget request.
    If you go to an Indian reservation--I know, Mr. Chairman, 
you visit them, and other members of the subcommittee do--and 
take a look at housing, health care, and education needs, you 
cannot but conclude that we have a full-blown emergency and a 
full-blown crisis in these areas, especially in health service.
    The Indian Health Service, in my judgment, does an awfully 
good job with limited resources, but we do not come anywhere 
near having the opportunity to provide the kind of health care 
that other Americans have come to expect in many areas of the 
country.
    If you are ill or your child is ill, and you are living on 
an Indian reservation, and you go to some of the health 
facilities that I have seen, they do not have the resources to 
provide the kind of health care those families should be able 
to expect.
    I have talked on the floor of the Senate about Sarah Swift 
Hawk, who was a grandmother on a reservation in South Dakota, 
and on January 21 last year went to bed sleeping on a cot in a 
house with plastic over where windows should have been. Sarah 
had only a thin blanket and the only cot. The other two adults 
and two children huddled on the floor, and at 45 degrees below 
zero, that was the way they spent the evening. The next 
morning, regrettably, Sarah Swift Hawk, was found frozen to 
death in a house on an Indian reservation.
    Is this a crisis? Darn right, it is. In a range of areas, 
and that is in housing, but it is equally true in health care. 
I am trying to get some information, Mr. Chairman, about the 
formularies that are used to determine which drugs are 
available for use on Indian reservations for those people who 
have the need for prescription drugs.
    Are the latest and best prescription drugs available, or 
are they not, and if not, why not? Cost? Does it mean that it 
is too expensive to provide a drug that is the latest and best 
drug available for someone on an Indian reservation, some 
Indian child, or someone who has difficulty?
    I will not go on, but I just want to say that I view Indian 
health care as a crisis that must be addressed on an urgent 
basis, and it requires money. I know you cannot throw money at 
things, but it requires more resources than we have been 
willing to devote, more resources than the President has been 
willing to request, and we just must do better, Mr. Chairman.
    Senator Gorton. Thank you, Senator.


             SUMMARY STATEMENT OF HON. MICHAEL H. TRUJILLO


    Dr. Trujillo.
    Dr. Trujillo. Thank you.
    Senator Gorton. Your entire written statement, of course, 
will be put into the record.
    Dr. Trujillo. Yes. Good morning. Thank you very much for 
your opening comments, Mr. Chairman.
    Thank you for your comments, Senator Dorgan.
    I certainly concur with your assessments and your views, 
especially of the Aberdeen area, where I also used to live. 
Unfortunately, your description is sometimes the case with 
regard to housing. Economic opportunities and education play a 
major role in communities, individuals, and families.
    This morning, I am accompanied by three of my staff 
members. On your far left is Mr. Gary Hartz, who is in charge 
of environmental, sanitation, and also our health care 
programs; Mr. Mike Lincoln, who is the deputy director of our 
agency; and Dr. Kermit Smith, who is our chief medical officer 
for the agency. All of us have had field time, have come up 
through the ranks, and know the field, hospitals, tribal, and 
urban programs well.


                             ORAL STATEMENT


    We have submitted a written statement for the record, which 
you have, and to summarize our budget, as you had stated 
earlier, we have proposed a $229 million increase, which is 
approximately a 9.25 percent increase over the fiscal year 
appropriations of last year. Our budget authority is about $2.6 
billion.
    To put it in perspective, the Department of Health and 
Human Services budget authority is $421.4 billion. Its 
discretionary portion of that budget for the Department is 
$48.5 billion. That discretionary budget is about 10.8 percent.
    The Agency, the Indian Health Service, represents 0.6 
percent of the Department's overall budget authority, and 5.3 
percent of its discretionary budget, so we are a small portion 
of the entire Department of Health and Human Services budget.
    In our proposed budget, we also estimate collections from 
Medicare, Medicaid, and insurance----
    Senator Gorton. I would like to interrupt----
    Dr. Trujillo. Yes.
    Senator Gorton [continuing]. With a question right now. You 
are sort of an odd part of our appropriations bill here for the 
Department of the Interior, and we have a quote here that you 
are competing against the moose and the deer, parks, and all 
kinds of items that are very, very different.
    Do you, just as a personal opinion, think you might be 
better off with the Department of Health and Human Services 
budget, where you would be treated along with other health care 
activities in the United States? Would that be an advantage to 
you, or are you better off here with us?
    Dr. Trujillo. Well, sometimes it is advantageous that we 
know the moose and the deer well. We live with them on our 
reservations.
    There are pros and cons, of course, for remaining within 
the Interior side of the House or going with Labor, Health and 
Human Services and Education. In Labor, Health and Human 
Services and Education, we would certainly be with other health 
care and social programs within the Department; however, we 
also would be competing against perhaps an elephant and a 
rhinoceros when we are competing against NIH and CDC. They are, 
respectfully, large animals within the Department.
    They do assist Indian programs nationwide, and we are 
making inroads to assure that some of their funds will also go 
to American Indian and Alaska Native programs.
    But we also need to look at the committee members. Many of 
you who sit on the Interior Subcommittee are very familiar with 
Indian programs and Indian affairs. Whether that is true on the 
Labor, Health and Human Services and Education Subcommittee, I 
am not sure. I think some of you also sit on that subcommittee, 
too. But there are pros and cons.
    From my personal position, I feel quite comfortable with 
the relationships we have established over the years with both 
the House and the Senate subcommittees of the Interior. You 
know the budget well. You know us. You know the country. Tribes 
and urban groups also know you, and are respectful of that 
relationship. One thing that we can always build upon, is the 
positive aspect of our existing relationship.
    Senator Gorton. Senator Dorgan and I are flattered by that 
comment. Please go ahead with your statement.


                  HIGHLIGHTS OF THE PRESIDENT'S BUDGET


    Dr. Trujillo. I would like to highlight a few items in our 
proposed budget. In our clinical and preventive environmental 
programs, we are proposing a 7 percent increase, which is about 
$160 million.
    Our contract health services proposal, which pays for 
services that we obtain outside the Indian health program or 
tribal programs, is for a $41 million increase. Also, new 
staffing for some of our facilities is $12 million that will go 
primarily towards the Hopi health care program in Arizona and 
Talihina in Oklahoma.
    We have a category called health disparities, in which we 
have categorized a number of health diseases that we 
unfortunately have to contend with, such as cardiac, diabetes, 
cancer, and other diseases. We have made a proposal for a $35 
million increase in that particular large group of disease 
categories.
    The fund we utilize to help bring up health care programs 
which have not achieved all their services in the highest level 
is called a health equity or an Indian Health Care Improvement 
Fund. We proposed an $8 million increase in that particular 
category.
    We have to assess the salaries we pay our employees and 
employees in our tribal programs, because of inflation as well 
as the pay raises that come in the Federal programs. We attempt 
to keep salary parity with the other sectors of health care.
    We are also trying to assure that we have appropriate data 
systems, patient management information systems, and 
epidemiology data programs within our services, and we are 
proposing a $64 million increase. We also have authorization to 
fund and work with urban Indian health program centers, and in 
that category we are proposing a $3 million increase.
    In sanitation and health care facilities construction, we 
are proposing a $20 million increase, for a total of $162 
million. Most of that increase will be going toward several 
facilities: Fort Defiance, Winnebago, and Parker, Arizona. 
Hopefully there will be some grants to tribes to begin some 
small out-patient ambulatory care facilities.
    We also will be looking at some modular dental clinics, 
which we really need in the field, in Indian country, since our 
dental program is in great need of better facilities. This also 
includes some construction of sanitation systems.
    As Senator Dorgan pointed out, our health care facilities 
sometimes do not meet appropriate modern-day standards. In 
fact, the average age of Indian Health Service facilities 
across the Nation is 32 years old.
    Last, to help support those tribes who are taking over, 
managing, and administering their own health care programs 
through the self-determination effort, we are requesting an 
increase in our contract support cost funding. This fund is 
subject to appropriated and available funds within the budget 
and within the Congress for appropriation.
    We are proposing a $40 million increase in contract support 
cost funding to assist tribes who are taking over and managing 
their own health care programs.
    We have developed a new contract support costs policy with 
tribes this past fiscal year, which was published in January of 
this year. Now, all tribes will be able to benefit from this 
increase in contract support costs when they take over their 
health care programs under the Self-Determination Act.


           PER-CAPITA FUNDING, POPULATION GROWTH, FIXED COSTS


    Unfortunately, despite the increases that we see across-
the-board and those that you and I mentioned, our per-capita 
funding for American Indians and Alaska Natives across the 
Nation remains relatively low compared to other populations.
    In 1994 dollars, the per-capita was $1,093, and in today's 
dollars it is $1,254. That is quite a difference from what the 
average American throughout the Nation receives for health care 
costs and expenditures.
    Also, in spite of the increase in our budget and our 
present proposed budget, there is still a necessity for having 
some funding for population growth. We have a rapidly growing 
population, as well as new tribes coming into our system. In 
that category, we had originally proposed a $44.5 million 
budget for Population Growth.
    Inflation has really made substantial inroads in our 
programs, and the programs of tribes and urban Indians. Senator 
Dorgan mentioned the problem with pharmaceutical costs. In some 
cases, some of our pharmacy supplies have increased 25 percent 
over the past year-and-half, because of inflation and the 
increase costs for drugs necessary to treat very complex 
diseases that chronic patients have. We estimate, to come back 
to parity, would require approximately $64.5 million.
    Over the past several years, because of population growth, 
inflation, and pay costs that were not fully funded, we have 
had to absorb within the agency, tribes, and urban programs 
close to three-quarters of $1 billion. Funds to maintain the 
existing programs had to come from somewhere, and they came 
primarily out of health services, since we did not get those 
funding increases.
    This year we are faced, of course, with the rescissions of 
fiscal years 2000 and 2001, which impact upon all our programs 
across our budgetary scene.


                PARTNERSHIP WITH TRIBES AND URBAN GROUPS


    The budget, for your information, has been developed in 
partnership with tribal and urban programs. In fact, we have 
done that for the past 3 years. The budget that you see before 
you is based on many of the health priorities that were 
developed by the tribes and urban programs. Those priorities 
are alcohol and substance abuse, diabetes, and end-stage renal 
disease and its complications.
    There are also priorities in cancer, mental health, elder 
care, heart disease, injuries, and dental health. All those 
were considered in laying out the budgetary priorities, on 
where to concentrate to maintain services, and where to 
increase services in some areas.
    I personally have made numerous trips to the field. In 
fact, I spend about a third of my time in the field. Recently, 
I returned from visiting tribes in Louisiana and Mississippi, 
and I just returned this past Sunday night from a trip to the 
Northwest.
    In each of my trips, I continue to see pride from the 
staff, their creativity, and advances and what they are doing 
to deliver quality care and improve access to their population, 
despite the lack of resources, which has not come through time 
and time again.
    As you said earlier, unfortunately, we still face major 
problems in morbidity and mortality. We also face the 
remoteness at many of our sites and a lack of access to health 
services. The difficulty of just providing basic services on 
limited resources can sometimes severely impact individual 
patient care and families who come for services.
    As Senator Dorgan and you mentioned, I also see in my 
travels, the impact of poverty, the lack of employment and 
educational opportunities, poor housing, the lack of roads and 
transportation services, especially in the Aberdeen, Navajo, 
and Alaska areas. In addition, I also see individuals who do 
not see a productive life in their future.
    Finally, many times American Indians and Alaska Natives 
across the Nation unfortunately face discrimination and the 
negative effects of racism.
    What do our young American Indians and Alaska Natives see 
in the future? What is in the future for them and their 
children, and their children's children?
    Mr. Chairman, I am extremely respectful of the budgetary 
process and what has gone on prior to sitting here before this 
committee today, and the negotiations that will occur in the 
near future; however, I still am accountable as a health 
professional. I have spent most of my career in the field and I 
have seen the effects of a lack of resources.
    Earlier this year, the leaderships of tribal and urban 
programs presented a budget to the Secretary, as well as the 
Assistant Secretary for Management and Budget, Mr. John 
Callahan. In their budget, to bring parity to our American 
Indians and Alaska Natives health care programs across the 
Nation, it would take approximately $15.1 billion today. Today, 
we are proposing a budget of $2.6 billion. There is a slight 
gap between the two figures.
    I think, we and the Department and tribes have to fill the 
significant gap that will still exist, despite the increases 
that we may see from the budgetary process.
    We are trying to minimize the negative effects of the gap 
on Indian Health Service, tribal and urban programs by reaching 
out to foundations, universities, and other organizations to 
see how they may assist us in our efforts, and leveraging the 
relationship and funding from other Federal agencies, so that 
they also see the necessity and the responsibility to provide 
funding in programs for American Indians and Alaska Natives 
across the Nation.
    We are also working in any way we can with States and State 
Governors to make sure that we are all working in concert to 
provide American Indians and Alaska Natives appropriate 
resources and access to care that they are rightfully entitled 
to and to strengthen, collaboratively, the infrastructure of 
Indian communities so that they have a better economic base and 
better educational and social service systems, that they have 
better housing and judicial systems, and that we work towards 
continuity, consistency, and efficiency of their programs.
    I look forward to working with you and your staff this 
year, and in the next several months, to see what we all can do 
to bring immediate resources to American Indian and Alaska 
Native health care programs.
    I think we all need to correct the great disparities that 
exist in Indian country, as compared to the rest of the Nation. 
In this new millennium and in this new century we must work 
together to do things better than we have in the last century, 
and certainly the one previous to that.


                           PREPARED STATEMENT


    The Congress, the administration, and American Indian and 
Alaska Native tribes must work together in a meaningful manner 
so that Indian youth and all Indian people may look forward to 
a more fruitful and productive life, instead of poor economic 
conditions, poor education, the lack of other opportunities, 
and to see that they can also be healthy, productive citizens, 
not only for their communities in their Indian Nations, but to 
their States and to the Nation as a whole.
    Thank you, Mr. Chairman.
    [The statement follows:]

             Prepared Statement of Hon. Michael H. Trujillo

    Mr. Chairman and Members of the Committee: Good morning. I am Dr. 
Michael H. Trujillo, Director of the Indian Health Service (IHS). 
Today, I am accompanied by Michel E. Lincoln, Deputy Director, Dr. 
Kermit C. Smith, Chief Medical Officer, Gary J. Hartz, Acting Director 
of Office of Public Health, and Dr. W. Craig Vanderwagen, Director, 
Division of Clinical and Preventive Services, Office of Public Health. 
We are also accompanied by Dennis P. Williams, Assistant Secretary for 
Budget, Department of Health and Human Services. We are pleased to have 
this opportunity to testify on the fiscal year 2001 President's budget 
request for the Indian Health Service.
    As you know, the IHS has the responsibility for the delivery of 
health services to Federally-recognized American Indians and Alaska 
Natives (AI/AN's) through a system of IHS, tribal, and urban (I/T/U) 
operated facilities and programs based on treaties, judicial 
determinations, and Acts of Congress. The mission of the agency is to 
raise the physical, mental, social, and spiritual health of American 
Indians and Alaska Natives to the highest level, in partnership with 
the population served. The agency goal is to assure that comprehensive, 
culturally acceptable personal and public health services are available 
and accessible to the service population. The mission and goal are 
addressed through four agency strategic objectives, which are to (1) 
improve health status; (2) provide health services; (3) assure 
partnerships and consultation with IHS, Tribal, and Urban programs; and 
(4) perform core functions and advocacy.
    For the third year now, development of the IHS budget request 
originated at the health services delivery level. As full partners with 
the IHS in delivering needed health care to AI/AN's, Tribal and Urban 
programs participate at all levels of formulating the budget request 
and annual performance plan. The combined expertise of the IHS, Tribal, 
and Urban Program health providers, administrators, technicians, and 
elected officials, as well as the public health professionals at the 
Area and Headquarters offices, has resulted in a powerful statement of 
the health care funding needs for AI/AN people. The mission to address 
the disparities in health in the AI/AN population is tremendous and 
overwhelming at times. Comparing the 1994-1996 Indian (IHS Service 
Area) age-adjusted death rates with the U.S. All Races population in 
1995, the death rates in the AI/AN population is 7 times greater for 
alcoholism, 6 times greater for tuberculosis, 3.5 times greater for 
diabetes, and 3 times greater for unintentional injuries.
    The fiscal year 2001 President's budget request and performance 
plan represents a significant investment reducing the health 
disparities that prevail in the American Indian and Alaska Native 
population. It is consistent with the President's fiscal year 2001 
Native American Budget Initiative, the Agency's mission, the 
Department's strategic plan, and the Department of Health and Human 
Services' (DHHS) Initiative to Eliminate Racial and Ethnic Disparities 
in Health.
    The President proposes a total net increase of $230 million to the 
IHS budget in fiscal year 2001 above the fiscal year 2000 
appropriation. This request provides an additional $178 million for 
current service items including contract support costs, pay related 
increases and health care facilities construction. There are $104 
million in program increases for services and facilities. In addition, 
this request includes a $52 million decrease in non-recurring funds for 
health care facilities construction and a reduction in funding for 
medical equipment associated with non-recurring Y2K funding. These 
significant investments will continue to improve the IHS, Tribal, and 
Urban programs' capacity and infrastructure to provide access to high 
quality primary and secondary medical services, and basic preventive 
services, and begin to slow down recent declines in certain health 
status indicators.
    From a policy perspective, this budget request is perhaps the most 
strongly supported proposal in the Agency's history; it is based on 
both new and longstanding Federal policy and commitment for improving 
health status by assuring the availability of basic health care 
services for members of Federally recognized Indian tribes. The request 
supports the following four policy initiatives:
  --President's fiscal year 2001 Native American Budget Initiative, 
        which represents the largest Native American Budget Initiative 
        ever. In order to better serve Native American communities and 
        to honor the Federal government's trust responsibility to 
        tribes, the President's budget includes a total of $9.4 billion 
        for key new and existing programs that assist Native Americans 
        and Indian reservations. This total is an increase of $1.2 
        billion over fiscal year 2000--the largest increase ever. This 
        initiative brings together several agencies in order to address 
        the needs of Native American communities comprehensively, 
        including $2.6 billion for the Indian Health Service.
  --President's Race Initiative, specifically the HHS Initiative to 
        Eliminate Racial and Ethnic Disparities in Health,
  --Proposed Healthy People 2010 and its goal of achieving equivalent 
        and improved health status for all Americans over the next 
        decade,
  --DHHS Strategic Plan with goals to reduce major threats to health 
        and productivity of all Americans; improve the economic and 
        social well-being of individuals and families, and communities 
        in the United States; improve access to health services and 
        ensure the integrity of the Nation's health entitlement and 
        safety net program; improve the quality of health care and 
        human services; and improve public health systems.
    In addition, the Indian Health Care Improvement Act also reflects 
the reaffirmation of the U.S. government's commitment to Indian tribes 
to improve the health of their people. The Act states:

    ``The Congress hereby declares that it is the policy of this 
Nation, in fulfillment of its special responsibilities and legal 
obligations to the American Indian people to assure the highest 
possible health status for Indians and urban Indians and to provide all 
the resources necessary to affect that policy.''

    Furthermore, the President of the United States reaffirmed the 
significance of the ``government to government'' relationship between 
tribes and the Federal government in his Executive memorandum of April 
1994, concerning consultation with American Indian and Alaska Native 
tribal leadership.
    The primary policy basis for this budget request is eliminating 
health disparities between the AI/AN population and the general U.S. 
population. The request supports this intent by continuing to invest in 
access to the basic health services, including assuring that there are 
adequate facilities and medical equipment for the provision of health 
services, providing adequate support services to the tribal health 
delivery system, and holding the line against further loss of health 
status improvements or actual declines in health status.
    A major priority in the budget proposal is to restore access to 
basic health services. The IHS has demonstrated the ability to 
effectively utilize available resources to provide effective services 
and improve the health status of AI/AN people. However, this record of 
achievement has eroded in recent years in the face of competing 
priorities, including an increase in patient demand to provide more 
acute and urgent care treatment. Thus, to redress the declining access 
to essential individual and community health services, the Area IHS, 
Tribal, and Urban programs identified funding of personnel-related 
costs and increases associated with on-going services as their first 
priority for budget increases for fiscal year 2001. In an effort to 
maintain the current level of services, the budget request includes 
$60.675 million for pay cost increases which meets 100 percent of the 
projected costs; $11.720 million to fund the staffing and operating 
costs of those facilities that will open in fiscal year 2001 or have 
recently opened; a total of $65.237 million to fund the design and 
construction of replacement health care facilities including $2.513 
million for the Small Ambulatory Grant Program; and $40 million for 
Contract Support Costs.
    The replacement of existing clinics and hospitals is an essential 
component of supporting access to services and improving health status. 
In the long run this assures that there are functional facilities and 
medical equipment for the effective and efficient provision of health 
services. The average age of IHS facilities is 32 years. The budget 
request includes a total of $65.237 million for replacement of existing 
health care facilities. This amount will fully-fund the third and final 
phase of construction of the hospital at Fort Defiance, Arizona; the 
design of the Fort Defiance, AZ staff quarters; the second phase 
construction of the hospital at Winnebago, Nebraska in fiscal year 2001 
with final funding to complete construction in fiscal year 2002 through 
advance appropriations; the final phase of the construction of a health 
center at Parker, Arizona; the design of a health center at Pawnee, 
Oklahoma; and 3 modular dental units.
    Also critical is the provision of adequate contract supports costs 
necessary to support the health services provided by tribal health 
programs. These requested funds are necessary for tribal communities to 
assure that there are utilities, training, clerical staff, 
administrative and financial services needed to operate health 
programs. Without this contract support funding, these support services 
are either not available or must be funded from resources that would 
otherwise fund health service activities. This investment is consistent 
with the Administration's commitment to expand tribal participation in 
the management of Federally funded programs, and reinforces the 
principles of the Indian Self-Determination Act.
    The fiscal year 2001 budget includes an increase of $40 million 
over the fiscal year 2000 enacted level for contract support costs 
(CSC). This amounts to a 17.5 percent increase over the fiscal year 
2000 level. The increase is necessary to provide CSC funding for new 
and expanded tribal programs to be contracted in fiscal year 2001. The 
$40 million increase will first be used to provide CSC for new 
assumptions of IHS programs under self-determination agreements. No new 
contracts will be funded at a higher funding level than the minimum 
percentage funded for existing contracts in fiscal year 2001. To the 
extent the $40 million is not needed for new assumptions, it will be 
used to increase contract support cost funding for existing contracts.
    In fiscal year 2000, the IHS, in conjunction with the National 
Congress of American Indians and the Contract Support Cost Workgroup, 
consulted with Tribal leaders on solutions to the critical issues 
surrounding CSC funding. This effort involved in excess of 10 meetings 
with Tribal leaders and resulted in development of joint Federal/tribal 
recommendations that were incorporated into a new IHS policy on 
contract support costs. I formally adopted the new policy in January 
and will be implemented fiscal year 2000.
    The requests that I have just described provide a continued 
investment required to maintain and support the IHS, Tribal, and Urban 
Indian public health system to provide access to high quality medical 
and preventive services as a means of improving health status. The 
following proposals are intended to restore access to basic health 
services.
    The request includes $85.589 million to address health disparities 
by targeting the specific disease entities identified as priority areas 
by the IHS, Tribal, and Urban programs and responsible for much of the 
disparity in health status for the AI/AN population. Alcohol & 
substance abuse, diabetes, cancer, mental health, elder health, heart 
disease, injuries, dental health, maternal & child health, domestic/
community violence, infectious diseases, and emergency medical services 
are the specific health problems addressed with the funding proposed 
for health disparities. Proposed increases of $40.9 million for 
Contract Health Services, $3.961 million for Sanitation Facilities 
Construction, $2.027 million for Public Health Nurses, $3.339 million 
for Community Health Representatives, and $2.974 million for the Urban 
health program are also included in the health disparities funding 
request.
    Public health infrastructure is fundamental to these proposals. 
$18.974 million is requested for information/telecommunication systems-
tribal epidemiology centers, the Indian Health Care Improvement Fund, 
Maintenance & Improvement, and Facilities & Environmental Health 
Support as part of the overall program increases proposed by this 
budget. This request also includes a $2.1 million reduction in funding 
for medical equipment associated with non-recurring Y2K funding.
    The proposed approach to addressing the health disparities 
supported by this budget request strongly promotes the integration of 
clinical expertise from medical, behavioral health, and community 
health staff in order to address the top I/T/U health problems. The 
community-based public health model is strengthened by emphasizing 
prevention strategies throughout the clinical services activities as 
well as by expanding the community health programs and supporting 
partnerships with community resources such as public safety programs, 
schools, and other community-based organizations.
    The disparity in health status that the I/T/U's must address is 
formidable, particularly in terms of death rates. Comparing the 1994-
1996 Indian age-adjusted death rates with the U.S. all races population 
in 1995 reveals greater death rates, as much as 7 times greater, in the 
AI/AN population for alcoholism, tuberculosis, diabetes, unintentional 
injuries, suicide, pneumonia and influenza, homicide, gastrointestinal 
disease, infant mortality, and heart disease. Even more alarming, the 
most recent data documents that the mortality disparities for AI/AN 
people are actually worsening.
    Given these formidable challenges, the IHS and its partners are 
pleased to present this budget request for fiscal year 2001 as one that 
will improve access to basic health services and address the multiple 
health issues affecting AI/AN people. The request and associated 
performance plan represent a cost-effective public health approach to 
assure improvements in the health of AI/AN people. The request reflects 
the continued Federal commitment to enhance the IHS, Tribal, and Urban 
public health system so that it can again continue to make significant 
improvements in the health status of American Indian and Alaska Native 
people.
    Thank you for this opportunity to discuss the fiscal year 2001 
President's budget request for the IHS. We are pleased to answer any 
questions that you may have.

    Senator Gorton. Thank you for an eloquent statement, Dr. 
Trujillo.
    This is one of those typical days in the session. We are 
going to have a vote in just a very few minutes, and I have to 
leave for that. Senator Dorgan had to go to another meeting, 
and has left some questions that we will submit to you in 
writing. Senator Campbell has also asked for the same 
privilege, and I will have some as well----
    Dr. Trujillo. Yes.

                         CONTRACT SUPPORT COSTS

    Senator Gorton [continuing]. But there are a few that I 
would like to submit to you right now before we leave, and just 
get your thoughts on them.
    One has to do with the distribution of contract support 
dollars. We asked you in the current year's appropriations bill 
to continue to work with the tribes to come up with a fair 
distribution system, and you have issued new guidelines on 
that. Your response has been very, very prompt.
    Tell me a little bit about, within the constraints of our 
time, how you arrived at it, whether or not it is an ongoing 
process, and did you get both OMB and the Department of Health 
and Human Services to support you?
    Dr. Trujillo. Ever since last year's congressional 
language, we worked diligently with tribes on the contract 
support cost issue. We met with individual tribes and tribal 
organizations throughout the year, both in individual forums 
and in large national meetings.
    We also had a joint task force, a group of primarily tribal 
leadership and those who are very knowledgeable about the 
contract support cost issues, and we worked specifically with 
them and came up with proposed drafts of the new policy. The 
draft policy was then discussed in various forums and meetings 
with tribal leadership across the Nation.
    This took us approximately 9 to 10 months to do. I signed 
off in January on a new policy that both the tribes and the 
Indian Health Service agreed upon through compromise and 
working in all the aspects that we could. Now, tribes who are 
in the contracting and compacting process can receive 
distribution of the contract support cost dollars, and no tribe 
is above 100 percent. Each tribe can share in some of the 
distribution. At the present time, if they do not receive 
contract support costs or the full amount of their contract 
support costs, their health program dollars go toward the 
administrative and non-covered costs.
    We certainly understand that that funding is limited to 
appropriated funds, and that it is allocated on a year-to-year 
basis. However, as we go forward in our operations, 
approximately 41 percent of the Indian Health Service total 
budget is now managed and administered directly by tribes----
    Senator Gorton. And that percentage is increasing----
    Dr. Trujillo [continuing]. And that percentage is 
increasing. The increase is not specifically because of the 
changing rates or anything, but it is because of the increasing 
number of tribes who wish to take advantage of the self-
determination process.
    Senator Gorton. How many tribes have gone into new 
contracts?
    Dr. Trujillo. Over half of the 558 tribes have now entered 
into the self-determination process through contracting and 
compacting. Of course, it is the tribe's decision as to what 
they wish to do, whether to contract or remain within the 
Federal system.
    Senator Gorton. Are you going to work yourself out of a 
job?
    Dr. Trujillo. I believe we have come to consensus that we 
all need to work together in self-determination.
    The necessity of having a Federal representative in 
Washington and an agency to assist with advocacy of the budget, 
making sure that the process of self-determination is adhered 
to, and to have people at the table is critically important in 
the Federal program and within the Administration. If we are 
not there, we can be lost and be forgotten.
    Mr. Lincoln, would you like to add anything on the contract 
support costs policy?
    Mr. Lincoln. Mr. Chairman, I think it is critical to know 
that over this past year we had 10 Contract Support Cost 
meetings with various tribal groups. And as a result of those 
meetings, the National Congress for American Indians, who also 
had a contract support cost policy group, has endorsed the 
policy that Dr. Trujillo signed in January. We believe that it 
is a sound policy.
    Certainly, our general counsel, as we have had a number of 
lawyers work the words from every side one can think of, we 
find it is a policy that can be defended. As we allocate the 
fiscal year 2000 increase of $25 million, we will obviously 
gain more experience relative to the impact of the policy.
    Senator Gorton. Has the OMB signed off on it?
    Dr. Trujillo. Mr. Chairman, the OMB has expressed some 
concerns about the policy, but the policy is in effect at this 
moment.
    Senator Gorton. Thank you. I must say, I think your 
progress on this is exemplary. I get very few groups that sit 
before me when we have given them instructions 4 or 5 months 
ago and can tell me about any results. You have done very well 
on it.
    Dr. Trujillo. Well, thank you. It has also come with a 
great deal of effort from the tribes and those representatives 
who were part of the work group.

                          IMPACT OF RESCISSION

    Senator Gorton. You mentioned in passing the impact of the 
rescissions. Give me a little more detail on that. Has there 
been a real impact on operations from those rescissions? Did 
you just have the straight 0.38 percent, three-eighths of 1 
percent?
    Dr. Trujillo. We made a proposal and worked with the 
Secretary and the Assistant Secretary for Management and Budget 
in regard to the need in Indian country. They were receptive, 
in that we did not receive the full 0.38 percent, but rather a 
0.28 percent----
    Senator Gorton. 0.28 percent.
    Dr. Trujillo. Yes, 0.28 percent--versus other agencies 
within the Department. So we were looked upon a little bit more 
favorably in that respect.
    However, the effect of the rescission also was towards 
congressional earmarks and some specific increases; and some of 
those congressional earmarks are of necessity, and some 
facilities, sanitation and engineering projects were 
eliminated, as well as decreases in some of our clinical 
programs.
    Mr. Lincoln, would you like to mention a little bit more on 
that?
    Mr. Lincoln. Mr. Chairman, the amount of the rescission was 
$6.9 million. That equaled a 0.28 percent rescission. The 
instructions that were given from the White House and from the 
Office of Management and Budget caused some restrictions in how 
we would actually take those rescissions.
    So we do have information on a line-by-line item, on a 
subcategory item that we can make available to the committee, 
if you would like to see those.
    Senator Gorton. Well, we had dual concerns. We thought that 
the appropriation we made was important for you. We had to 
balance the budget, and cannot work with the President on that.
    I am really interested not so much in the accounting, as to 
whether or not there was any genuine suffering from the point 
of the view of the health services that you are providing.
    Dr. Trujillo. There are two persons who I would like to 
call on, Mr. Gary Hartz, who could mention a couple areas in 
facilities and engineering, and Dr. Smith, on some of the 
clinical effects that happened through the rescission.
    Mr. Hartz. The facilities got hit for about $1.6 million. 
In some of the projects that are set up for phased funding, our 
intent would be to catch up the differential in subsequent 
years to finish the phased funding for facilities. There were 
some places where the 8 percent was targeted at projects where 
funding in fiscal year 2000 was expected to be the end of the 
funding cycle.
    An example that quickly comes to mind would be the support 
for the Hopi quarters project, where the tribe was financing 
their construction costs. The Congress came to their support by 
helping them offset part of their loan, which then got hit by 
an 8 percent reduction.
    Dr. Smith. As far as the health services program is 
concerned, any decrease, of course, is always significant, in 
my mind, because of the current funding. We are particularly 
concerned about the Community Health Representatives program.
    This is the program for primary health care providers in 
each of our communities. As you are probably aware, over the 
years this program has been on the firing line, and yet I 
consider it very instrumental in the entire health care team 
that we have in our service areas.
    One of the other areas is diabetes, specifically the Joslin 
Clinic with whom we have established a relationship, took a 
minor cut. However, we had allotted money last year to start a 
program, so since we are just in the process of developing it, 
we will make some modifications in that program.
    Senator Gorton. Well, I have a parochial part of the 
question. There was a modest $23,000 reduction, an amount 
dedicated to the Shoalwater, in Washington State, for infant 
mortality research.
    Does that affect the study, or do you feel that you could 
do the study with a little bit less money?
    Dr. Trujillo. We thought that we can do the study with this 
amount of funding. The study was getting under way. We are 
still developing plans with the Shoalwater Tribe to address 
this, so we feel that we will be able to continue investigating 
this tragedy on the Shoalwater Reservation.

                    ELEVATION TO ASSISTANT SECRETARY

    Senator Gorton. One more thing, Dr. Trujillo, your own 
personal status as to whether or not the House ever gets 
through with making your position that of Assistant Secretary 
for Indian Health: Would that create a substantive improvement 
in your relationships with the Department and the 
administration in general, particularly on the budget?
    Dr. Trujillo. Mr. Chairman, I do believe it will. The 
administration, from the President to the Secretary, is 
supportive of this particular elevation of the Agency to the 
Assistant Secretary level.
    The ability to be at the table, as I mentioned earlier, is 
critically important. Especially when there are budgetary and 
priority issues to be set within the Department or in other 
Federal agencies, where only Assistant Secretaries are able to 
attend.
    I remember one time when I first arrived in Washington, 
there was a meeting of the tribal leadership with President 
Clinton at the White House. Assistant Secretaries were able to 
enter into the White House.
    The Assistant Secretary for the Bureau of Indian Affairs 
was able to enter onto the lawn of the White House and be a 
part of the meeting. But I was relegated to the theater to 
watch the program on TV. Unfortunately, I did not see all the 
proceedings because the TV died.
    So there are sometimes critical meetings that, 
unfortunately, I cannot attend. In this political atmosphere 
and in Washington, the title does make a difference. I believe 
the Assistant Secretary position will be a benefit nationwide 
to American Indians and Alaska Natives to give them a voice in 
very critical and important budgetary and priority decision 
meetings of the administration.
    Senator Gorton. Thank you. Thank you very much.
    I have other questions. I will submit them in writing.
    We now have the chairman of the full committee, who has a 
great deal to say. I do not know how much time is available, 
but at least a few more minutes longer. I defer to Senator 
Stevens.
    Senator Stevens. I am not sure that I can fulfill that 
obligation in the time we have available with the time we have 
left. Is the vote on now?
    Senator Gorton. Well, I guess the vote has started.
    Senator Stevens. I do welcome you here, Dr. Trujillo.
    Senator Gorton. I will let Senator Stevens complete the 
hearing.
    Thank you very much, Dr. Trujillo. I appreciate your help.
    Dr. Trujillo. Thank you.
    Senator Stevens [presiding]. I do have some concerns that I 
would like to express about the budget. The President's budget 
does call for a substantial increase, $229 million, in the 
Health Service.
    Of this amount, only $2.8 million as requested for alcohol 
and substance abuse, which I consider still to be the worst 
scourge that has hit our Native and Indian people, and I am 
painfully aware of the extent of that in my State.
    I am sure you know we have the dubious honor of having the 
highest per capita rate of fetal alcohol syndrome and fetal 
alcohol effect in the Nation. We have the highest rates of 
suicide for young native men now in the country, at seven times 
the national average. More than 70 percent, I am told, of those 
suicides are related to alcohol and perhaps the percentage may 
be even higher.
    I think we are at risk now of losing a whole generation of 
young Native leaders because of alcohol, and we have really not 
been able to get together on this. I have been talking to the 
attorney general's people about this for some time.
    When I was out in the West Coast last year, one of the 
leaders of a small village told me that when he leaves my town, 
as he called it, of Anchorage, he has to go through a metal 
detector, subject to being searched, to see whether he is a 
danger to other people on the aircraft.
    He said, ``We cannot search your people when they come into 
my town to find out if they are carrying drugs or alcohol.''
    The Constitution prevents unreasonable search and seizures. 
This morning on the television it was indicated that some 
people think if there is a suspicion that someone has a gun, 
that is enough to have the right to search that individual. 
They are asserting that, I believe, in one of the Supreme Court 
cases today.
    When we look at it, I think that the incidence of drugs 
that come from Colombia all the way out in the little villages 
in the West Coast of Alaska makes us suspect that people from 
outside of the village are bringing it in. We have to find some 
way to search for drugs and alcohol, and really clamp down on 
this.
    Our State gave those villages the right to vote to go dry. 
Thus, we have one State where you can actually, by local 
option, prohibit the possession of alcohol, but there is no 
authority to search the boxes, and the freight, and the 
suitcases that come into these dry villages, and that is from 
where it is coming. The Postal Service has cooperated on it, 
absolutely, but we have not been able to find the answer.
    I do hope that there will be some further appreciation of 
the real importance of alcohol and drug abuse as we look at 
your budget. I hope you will not be surprised if we reallocate 
some of that money to make certain that there is an emphasis in 
that area that should be there.
    I am also concerned over the President's budget request 
that the funding for new school construction under BIA be more 
than doubled to over $300 million, while at the same time he 
requests only a $14.8 million increase in Indian Health Service 
funding for hospital and health facility construction.
    I understand the need for more schools, but the backlog 
that you have in the IHS for hospitals and clinics is so severe 
now that I do not think we will have the ability to catch up if 
we do not do something about it now, and start. I hope also 
that the subcommittee will agree with me that we have to pay 
some attention to that.
    In my State, we took over the BIA schools, as you know----
    Dr. Trujillo. Yes.
    Senator Stevens [continuing]. And the allocation of so much 
money to BIA schools misses the fact that the State of Alaska 
took over the Alaska BIA schools, and left the health 
responsibilities to the Federal Government. We were assured at 
the time that funding for Native health would be maintained, 
and it has not been.
    So I hope to have the subcommittee's understanding for more 
equitable distribution of requested construction increases to 
help Alaska, which now has more tribes in it than the whole 
country put together, as a result of the decision by Ada Deer 
at BIA, to classify Alaska Native villages as tribes.
    There is a rising level of expectation among my Native 
people because of that action that is not met by this budget. 
As a matter of fact, the budget is a severe blow to those 
people who thought that they were going to have more 
recognition and funding when they were classified as tribes.
    I do think that there are also some problems about the IHS 
cost estimates and the backlog of construction. I do not want 
to get the GAO involved in this yet, but it does seem to me 
that IHS cost-to-construct estimates in Alaska are much higher 
than they need to be.
    We have another problem: because of the designation of all 
of our villages as tribes, there is now a growing feeling that 
each tribe should have its own hospital.
    In the south 48 that is probably pretty close to being 
true, but we have 227 to 247 villages that are now tribes, and 
it is just beyond our financial capability to do that. So we 
have already regionalized the State-wide service with the 
Native Medical Center in Anchorage, and I do believe that we 
have to get down to a point where we coordinate the delivery of 
health services on a regional basis in our State so it will be 
fair.
    I want to work with you on that, but this concept of 
dealing with almost 250 tribes in one State just will not work, 
as far as this budget is concerned.
    Dr. Trujillo. Yes.
    Senator Stevens. You cannot do it, and we cannot do it, and 
we have to find somebody to make that decision, as unpopular as 
it might be in my State.
    Three years ago I authored a provision that prohibits the 
villages from pulling out of regional health systems. It was 
required in order that there be stability in those regional 
facilities; otherwise, we would have faced the small clinics 
that had no capability in the modern sense, and isolated the 
regional hospitals that had the capability to deliver modern 
health care.
    I do think that there is some flexibility that is required 
in that legislation, and we all are going to be asked to think 
about that. I urge you to use caution on it, and I want the 
Congress to use caution on it.
    I want to thank you in your service for what you are doing 
to work with us. I do not think any area in which you work has 
unique isolation, the weather conditions, the geography, or 
really the isolation for some of your people, that we have in 
Alaska.
    Last, since we are so far behind in construction, I want to 
ask you to take a look at the concept of having a period of 
time in which we would authorize private construction of health 
facilities, and have IHS lease them back.
    I think we could get several hospitals and clinics done in 
a very short period of time if it was possible to use the funds 
of the various regional organizations, and to lease those 
facilities to provide health services that are the 
responsibility of IHS. Instead of waiting for the Federal 
dollars to become available for the construction, we would have 
them go ahead and construct and lease them the way we did post 
offices for several years when we were just so far behind we 
could not replace them.
    It is going to be an interesting year for us in reviewing 
your budget, because I have had a lot of people, and that is a 
long way to come, fly in here just to talk about the problems 
of health care in one or two villages, and there has been a 
whole series of people who have come in from the State to talk 
to me about what to do about this budget. I look forward to 
working with you.
    I promise you that I will not try to surprise you in any 
way, but I will have a lot of questions. I may give you a 
couple for the record, but I do not have them with me here 
today.
    The next committee meeting is scheduled for Wednesday, 
March 22nd, at 9:30, when we will hear from the Forest Service.
    Thank you very much.
    Dr. Trujillo. Thank you, Senator Stevens. I appreciate your 
comments very much, and I look forward to working with you and 
your staff. In fact, I hope to get up to Alaska in July and pay 
my annual visit for sure, to go to some of the areas that I 
have not been to yet, and I fully understand the problems 
that----
    Senator Stevens. I look forward to welcoming you, and I 
look forward to you having the classification of Assistant 
Secretary. I served in the administration for about 5 years in 
days gone by, and it makes a lot of difference.
    Dr. Trujillo. Thank you, Senator.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
              Questions Submitted by Senator Slade Gorton

                 DISTRIBUTION OF CONTRACT SUPPORT FUNDS

    The distribution of contract support dollars to tribes has been the 
single most debated issue for Congress and the IHS in recent years. In 
the conference report that accompanied the fiscal year 2000 
appropriations bill, IHS was directed to continue its work with the 
tribes in an effort to produce a distribution policy that would correct 
the wide disparities in the funding of existing contracts. In recent 
months, IHS has issued new guidelines for determining how contract 
support funds are to be distributed.
    Question. Please give us a brief overview of the new policy and 
what it will achieve in terms of greater equity among tribes?
    Answer. The current IHS contract support cost policy is titled IHS 
CSC Circular No. 2000-01. Under this policy CSC appropriations are 
divided into three separate pools of funding before it is allocated to 
tribes. Any funds appropriated for CSC associated with new or expanded 
contracts and compacts are placed into ``Pool No. 1.'' These funds are 
then allocated to all eligible awardees with new or expanded programs 
who have submitted a request for CSC prior to July 3rd of the current 
fiscal year. The pre-award and startup costs of all tribes with new or 
expanded programs are paid first, then the remaining funds are 
allocated to those tribes with new or expanded programs based on their 
overall level of CSC need funded. Those tribes with the greatest 
unfunded CSC estimates are funded first, up to the total of the need 
associated with their new or expanded programs, before funding is 
provided to other tribes. The goal is to raise the overall level of CSC 
funded to the highest possible level given the level of CSC funding 
appropriated for new or expanded programs.
    Funding for inflation and other salary-related and operating cost 
increases is placed in ``Pool No. 2.'' When appropriated by Congress. 
These funds are provided as an increase to all tribes with direct CSC 
funding based an inflationary factor. All tribes will receive an 
increase proportionate to their current direct CSC funding.
    Finally, ``Pool No. 3'' is intended to contain any funds 
appropriated by the Congress for existing contractors and compactors, 
for CSC for which tribes are eligible, based on indirect cost rates and 
other negotiated costs, which has not been funded. These funds are 
provided to all tribes on a pro-rata basis. Those tribes with the 
greatest ``CSC shortfalls'' receive proportionately greater increases 
than do those tribes with lesser ``shortfalls.''
    Question. This policy was adopted after lengthy consultation with 
tribes. What criteria did the tribes consider important in drafting a 
new policy? Is there consensus among the tribes in support of the 
revisions that have been made?
    Answer. The single most important factor to tribes was their 
recognition that full CSC funding is authorized by the Indian Self-
Determination and Education Assistance Act and the IHS policy should 
work toward that as a goal. Tribes who are not yet funded at 100 
percent of their CSC need should not have their funding reduced in 
order to provide that funding to other tribes.
    There was general consensus among tribes that this version of the 
IHS CSC policy reflected a vast improvement over prior policies. While 
there was general consensus that the policy represented a fair and 
equitable approach to allocating CSC in an environment where the 
Congress has failed to appropriate sufficient funds, this was not a 
unanimous consensus. Tribal Governments are as unique as states or 
individuals and total consensus among them is rare.
    Question. Is there are specific process for tribal consultation 
that you can describe to us? Did tribal consultation provide the 
opportunity for all tribes to contribute to the process?
    Answer. The process for tribal consultation on the IHS CSC Policy 
may be somewhat unique to this policy. The IHS maintains a relationship 
with tribal leaders, administrators, and technicians as a part of our 
standing ``CSC Workgroup.'' This workgroup has been in existence for 
over 10 years. The membership on this workgroup is open and voluntary. 
Therefore, it has been somewhat fluid and changing over the years. The 
IHS uses this workgroup as a means of discussion and advice concerning 
CSC issues. Drafts of the current IHS CSC Circular were first developed 
by this workgroup. It, and even a more technical sub-workgroup of this 
group, met some 10 times over the course of a year and a half to 
develop the final draft of the policy.
    The true government to government consultation process commenced at 
this point in that the final draft of the Circular was mailed to all 
elected tribal leaders and tribal health directors and IHS Area offices 
for comment and recommendations. The IHS also presented the draft 
Circular at regional and national meetings looking for tribal input. 
All tribes were given an opportunity for input. The comment period was 
even extended in order to provide additional time for tribes to 
comment. At the close of the extended comment period, the IHS CSC 
Workgroup convened again to recommend adoption or rejection of specific 
comments received. Subsequent to that meeting, a revised draft of the 
Circular was presented to the Director, IHS for signature.
    Question. Does the Department of Health and Human Services support 
the new policy?
    Answer. The Department expressed support for the implementation of 
the new policy in a letter, dated August 1, 2000, to Congressman 
Regula, Chairman of the Interior Appropriations Subcommittee.

              MORATORIUM LIFTED ON NEW CONTRACTS/COMPACTS

    Following a court ruling this past summer, which held that contract 
support funds are subject to appropriation, the two-year moratorium on 
entering into new contracts was dropped for fiscal year 2000. In 
addition, $12.5 million was included in a fund designated specifically 
to support the costs associated with new and expanded contracts and 
compacts.
    Question. To date, how many tribes have sought to enter into new 
contracts and compacts in fiscal year 2000?
    Answer. The Indian Health Service has received 50 requests from 39 
separate tribes or tribal organizations for new contracts and compacts 
in fiscal year 2000 and is now processing these requests for the 
purpose of funding contract support costs. Some tribes have multiple 
requests encompassing different programs or activities for which they 
have contracted.
    Question. What portion of the funds associated with new contracts 
do you expect to use in this fiscal year?
    Answer. It is projected that the full $12.5 million will be used to 
fund the 50 new contracted or compacted programs.
    Question. Looking toward the next few years, what can we expect in 
terms of numbers of tribes seeking new contracts and compacts and the 
amount of additional funds that will be required to support them? Do 
you expect a steady expansion of tribally operated programs or do you 
foresee a leveling off of activity?
    Answer. Generally, there should be a leveling off of tribal 
contracting and compacting activities. However, the Navajo Nation's 
plan to contract all of their health activities from IHS can and would 
increase CSC estimates for new contracts dramatically.

                 REQUEST FOR CONTRACT SUPPORT LANGUAGE

    The fiscal year 2001 IHS budget estimate includes a request for 
bill language specifying that the appropriation for contract support is 
available first for new and expanded contracts/compacts, which would 
receive contract support costs at the minimum percentage of need funded 
for existing contracts/compacts in fiscal year 2001. Any remaining 
portion of the total sum appropriated would be used for contract 
support costs of existing contracts/compacts.
    Question. Does this request support the policy that IHS has 
recently implemented? Please explain why this language is necessary.
    Answer. The language was included to ensure that sufficient funding 
was available to accommodate a major increase in new contracting (e.g., 
a proposal from the Navajo Nation) while leaving funding not needed for 
new contracts available to increase CSC funding for existing contracts. 
One of the difficulties of budgeting for CSC is uncertainty over the 
amount that will be needed to fund new contract proposals. The 
requested language would provide different levels of CSC funding for 
new and existing contracts. By contrast, the new policy funds tribes 
according to their total CSC need from both new and existing contracts.

                      FISCAL YEAR 2000 RESCISSIONS

    As part of the final agreement during last year's budget 
negotiations, a .38 percent across-the-board reduction was included in 
the fiscal year 2000 appropriations bill. The amount by which IHS 
activities were reduced was $6.8 million.
    Question. Are there activities that will feel an immediate impact 
from these reductions? Or can these decreases be absorbed with 
relatively little disruption to ongoing activities?
    Answer. In general, disruption of services had a more immediate 
impact in on-going activities and the least impact on new activities. 
There were some programs that felt an immediate impact. The most 
immediate impact was felt in the lease package for the Anchorage 
outpatient facility and in the Epidemiology Center at Northwest 
Portland Area Indian Health Board. New programs, such as the pharmacy 
residency program, were less dramatically impacted since there were no 
ongoing obligations adversely impacted in the way that the two 
activities above were impacted.
    Question. The 3 percent reduction of $1.5 million from the funding 
for community health representatives is the largest that IHS sustained 
for any one line item. This activity had been targeted earlier by the 
Administration for a proposed $5 million reduction in its fiscal year 
2000 budget. Congress restored that proposed reduction following 
numerous protests from tribes who consider these employees a vital link 
in their health care services. What impact, if any, will this 
rescission have on current operations?
    Answer. The rescission of $1,466,000 reduced the increase for the 
CHR program from $1,886,000 to $420,000. Approximately 1,600 CHR 
positions were supported in fiscal year 1999 and we estimate that the 
rescission will reduce this number by about 25.
    Question. Earmarked construction funds for projects such as the 
Hopi Health Care Center were also subject to reduction. This 
subcommittee would hope to restore some of those reductions in the 
coming budget cycle. Nevertheless, that will mean a delay in the 
availability of those funds for approximately one year. What impact, if 
any, will the delay have on these projects?
    Answer. For those construction projects that were reduced and are 
funded in phases, the fiscal year 2001 President's request includes the 
amounts to continue or complete the projects. There would be no 
significant impact expected for these projects if the rescission amount 
was restored after a 1-year delay. The rescissions to the Congressional 
earmarks would result in one less staff quarter constructed at the 
Zuni, NM location and $240,000 less for debt service for the Hopi tribe 
for providing staff quarters.

                           NEEDS-BASED BUDGET

    While the IHS request to Congress for fiscal year 2001 is $2.6 
billion, the needs-based budget assembled in conjunction with tribes at 
the beginning of the budget process totaled $15.1 billion.
    Question. Please describe the process that IHS uses to develop its 
needs-based budget?
    Answer. IHS utilizes area IHS/Tribal/Urban budget teams to develop 
and submit budget recommendations tied to specific area health and 
program priorities. These recommendations are used to develop proposed 
national needs-based budget by representatives of the area I/T/U budget 
teams. The National Indian Health Board, Tribal Self Governance 
Advisory Committee, National Council on Urban Indian Health and 
National Congress of American Indians formally adopt the national 
needs-based proposed budget. The IHS uses the budget recommendations as 
a basis for the submission of the formal budget request.
    Question. What particular issues of concern to tribes are not 
reflected in the budget proposal forwarded to Congress?
    Answer. The fiscal year 2001 budget request for Indian Health 
Service reflects the most important priorities identified by the tribes 
within the overall context of the proposed national budget.

                           MEDICAL INFLATION

    The consumer price index for medical care increased 3.6 percent 
between 1999 and 1998. While recent IHS figures point to a higher 
overall inflation rate of 5.26 percent for the same period, additional 
statistics demonstrate that the cost of professional care rose by 8.79 
percent; other professional care rose by 27.48 percent; and the cost of 
drugs rose by 7.95 percent.
    Question. Using the 3.9 percent figure authorized by OMB for the 
calculation of medical inflation, approximately what amount did IHS 
determine it would need to offset medical inflation in fiscal year 2001 
and prevent the erosion of current funding levels for its programs?
    Answer. Using the 3.9 percent factor, the total amount needed for 
medical inflation in fiscal year 2001 is $46,326,000. The fiscal year 
2001 request for IHS is $3.1 billion, a +$230 million increase over 
fiscal year 2000, including an increase of $125 million to maintain and 
restore access to basic health care services.
    Question. Was any portion of this amount factored into the final 
IHS budget request for fiscal year 2001 or will the agency expected to 
absorb the entire amount?
    Answer. The fiscal year 2001 President's budget request did not 
include any funds specifically to address inflationary cost increases 
although it did include $61 million for increased pay costs. Our budget 
request was formulated based on the goal of restoring access to health 
services, which addresses fixed costs such as inflation and pay, and on 
the goal of reducing the gap in health disparities between American 
Indians and Alaska Natives and other Americans. It is really the 
combination of this 2-pronged approach that allows us to improve health 
status. If the increase entirely covered fixed costs, increase funding 
would have come at the expense of needed program increases to address 
health disparities. Given the amount of additional funding requested 
(+9.6 percent over fiscal year 2000) we believe the distribution 
between fixed costs and program increases is appropriate.
    Question. On a related note, some of the fiscal year 2001 agency 
budgets received by this subcommittee propose to include amounts to 
meet the estimated 10 percent increase in health insurance coverage for 
federal employees, underscoring the escalating costs of providing 
health care. Was IHS able to include this calculation in its increase 
for staff benefits?
    Answer. Salary amounts were calculated on projected pay increases 
and benefits were calculated at fiscal year 2000 levels.

                           POPULATION GROWTH

    The Native American and Alaska Native population is growing at the 
rate of 2.2 percent annually. The budget request for fiscal year 2001 
makes no provision for a corresponding adjustment in health services 
funding to meet this additional demand and, in fact, the IHS has been 
absorbing these increases annually since fiscal year 1995.
    Question. Approximately how much would IHS require to meet the 
additional demands placed on the system? Have you had to refuse 
treatment to new patients?
    Answer. While the fiscal year 2001 Budget does not provide a 
specific earmark for population growth, it does provide an additional 
$125 million over the fiscal year 2000 enacted level to restore and 
maintain access to basic health care and an additional $105 million in 
program increases to help reduce health disparities. IHS estimates that 
its service population (i.e., American Indian and Alaska Native living 
on or near reservations) has been growing by 2 percent per year. Based 
on this growth rate, we estimate that IHS, tribal, and urban (I/T/U) 
health programs would require $44,543,000 to address natural population 
growth in fiscal year 2001. The I/T/U programs have not refused 
treatment to any eligible patients.
    Question. Does this calculation also take into account newly 
recognized tribes that enter the IHS system? If not, where are those 
needs factored in to the budget?
    Answer. This calculation only addresses the natural growth in the 
American Indian and Alaska Native population, i.e., births minus 
deaths. Health care for members of newly recognized tribes has 
historically been addressed with the appropriation for contract health 
services. The budget requests an additional $41 million (+10 percent) 
for contract health services including funding for newly recognized 
tribes.
    Question. When coupled with unfunded medical inflation, how much 
have IHS and tribal health programs declined in their ability to 
maintain a baseline of needed services?
    Answer. The total budget request for IHS is $3.1 billion, an 
increase of $1.0 billion (+51 percent) since fiscal year 1993. Much of 
this increased funding has covered the cost of medical inflation and 
increases in the population eligible for services. Since the number of 
outpatient visits provided by IHS and tribal health programs has 
increased steadily, the increasing demand for urgent care has taken 
priority over non-urgent primary services (e.g., well-child visits). 
The $230 million increase requested for fiscal year 2001 includes $105 
million to provide additional health services to Indian people, for 
example: continuing to increase the percentage of diabetes with good 
glycemic control; increasing water fluoridation compliance in the 
Southwest; and increasing the number of hospital emergency departments 
which identify and treat victims of family violence and neglect.

                         JOINT VENTURE PROGRAM

    Section 818 of the Indian Health Care Improvement Act authorizes 
the IHS to establish joint venture demonstration programs whereby 
tribes would acquire or construct a health facility and lease it back 
to the IHS at no cost for at least 20 years. The IHS would then take 
responsibility for providing the equipment, staff, operating and 
maintenance costs.
    Question. Three tribes were selected to participate in a 
demonstration program in fiscal year 1991, but no funding has been 
provided since that time to initiate additional projects. How 
successful have these first projects been?
    Answer. Three tribes were selected originally for the joint venture 
demonstration program of 1991, prior to the creation of the 
authorization under the Indian Health Care Improvement Act. Two tribes 
participated while the third tribe was unable to obtain financing. 
Funding appropriated in fiscal years 1991 and 1993, totaling 
$2,552,000, were used to equip the two joint venture demonstration 
projects; one in Poteau, Oklahoma, for the Choctaw Nation of Oklahoma, 
and one in Warm Springs, Oregon, for the Confederated Tribes of Warm 
Springs. These two projects achieved the following:
    a. The new additional spaces met the specifications of the tribes 
and the IHS at the time of construction. The constructed facilities are 
still fully accredited. Each new facility increased their capacity, so 
each health center was able to increase their services by 100 percent. 
The operating efficiency was improved. Waiting times were reduced 
significantly.
    b. The partnership in 1991 led to two new facilities, with minimal 
Federal Government outlay for construction. The new facilities operate 
with approximately the same level of staffing as if the government had 
constructed them.
    However, equipment funding in year 1 is only a small piece of the 
long-term financial commitment associated with Joint Venture. For 
instance, if Congress initially funds $15 million for equipment for 
Joint Venture projects in year 1, subsequent additional appropriations 
of about $22 million per year, to the total cost of $440 million for 20 
years, will have to be available to address the IHS responsibilities to 
staff and operate these facilities.
    Question. To what extent do you believe that cooperative programs 
of this kind would permit us to accelerate the construction schedule 
for much needed health facilities? Are tribes interested in exploring 
alternative options for constructing and operating facilities?
    Answer. Depending on how a Joint Venture program is administered, 
Joint Venture projects have the potential to complement the IHS Health 
Facilities Construction Priority System (HFCPS) by allowing the 
construction of more health facilities than could be built by using 
only IHS appropriations. The IHS understands that a number of tribes, 
including some on the current priority list, could feasibly commit 
their own resources for the JVCP. Likewise, it is envisioned that Small 
Ambulatory Grants would be for construction of health care facilities 
smaller than those eligible under the IHS HFCPS.
    Question. What annual amount does IHS estimate it would need to 
implement and sustain a joint venture program?
    Answer. A minimum of $2.5 million per year, under the facilities 
appropriation, would be required to provide equipment for selected 
tribally constructed health care facilities. Facilities funding is only 
a small piece of the long-term financial commitment associated with the 
Joint Venture Construction Program. Once the facility is built, IHS is 
responsible for its staffing and operating costs. If the Congress 
initially funds $15 million for equipment for Joint Venture projects, 
subsequent year appropriations of up to about $22 million per year 
would have to be available for the IHS to carry out its 
responsibilities to staff, operate and maintain the new facilities.
    Question. Both this year and last, IHS proposed to include funds 
for joint venture projects, but a request was not forwarded for the 
subcommittee's consideration. What were the reasons were given for not 
moving forward with this initiative?
    Answer. The President's fiscal year 2001 budget request is 
committed to supporting access to health care services and improving 
the health status of American Indian and Alaska Native people. This 
budget request provides a total of $65 million for Health Care 
Facilities Construction and includes investments for the ongoing 
construction of the replacement Fort Defiance Hospital and the Parker 
Health Center. In addition, the budget request includes funding for the 
second-phase construction of the Winnebago Hospital, the design of the 
Fort Defiance Staff Quarters, the design of the Pawnee Health Center, 
replacement dental units, and the Small Ambulatory Health Care Facility 
Construction Grants Program. Before moving ahead on any Joint Venture 
projects, IHS will need to examine the following issues:
    (a) Find a way to integrate and prioritize Joint Venture projects 
with the IHS Facilities Construction Priority List.
    (b) Ensure that long-term costs associated with staffing and 
operations are consistent with IHS standards for providing health care 
facilities and services to Federally-recognized American Indians and 
Alaska Natives and can be accommodated by future funding levels.
    (c) Assure that funding committed to Joint Venture projects 
addresses priority needs for health care facilities and the delivery of 
health care services with the highest relative need.

                         FACILITIES ROUNDTABLE

    The fiscal year 2000 conference report included a directive to 
revise the policy system that determines priorities for construction 
funding. This past August, IHS convened a working group to examine 
alternative methods for financing health care facilities that might 
give tribes options that are not available to them now.
    Question. Has there been any further consideration of how the 
current priority system for funding facilities construction might be 
redesigned to be of greater benefit to tribes? Please explain.
    Answer. The IHS is in the process of establishing a tribal 
workgroup that will review the current health care facilities 
construction priority system methodology. This workgroup will make 
recommendations to the IHS regarding changes necessary so that the 
prioritization process provides a greater benefit to all tribes. The 
Workgroup will also make recommendations, as well as develop standards 
and criteria, for evaluating health care facilities needs and 
developing a comprehensive inventory of needs for all IHS, tribal, and 
urban health care facilities in Indian Country.
    Question. Are there authorities that the IHS has in addition to the 
joint venture program that would permit the agency to widen its scope 
of construction projects?
    Answer. The Indian Health Care Improvement Act (IHCIA) provides 
several authorities, including the Joint Venture Program that permits 
the Agency and tribes to widen the scope of the construction program. 
Under Section 305, IHS is authorized to accept renovations and 
modernizations that a tribe makes to an IHS facility. This program is 
limited to IHS facilities operated under a 638 contract. Under Section 
306, the IHS may make grants to tribes for the construction, 
renovation, or modernization of small ambulatory health centers. In 
addition to these Authorities in the IHCIA, Congress last year gave IHS 
the authority to use the Indian Health Care Improvement Fund under the 
Services Appropriation for construction and acquisition of space for 
expanding programs.

                        CONTRACT HEALTH SERVICES

    Contract Health Service dollars enable IHS and tribal health 
programs to purchase from hospitals and private health care providers 
medical care and services that are not available within the IHS-
supported direct care system. In fiscal year 2000, $407 million was 
appropriated to support this activity. A $41 million increase is 
requested in fiscal year 2001.
    Question. The Contract Health Services program is especially 
critical in areas such as the Northwest, where there are no IHS 
hospitals. Do calculations for the distribution of CHS funds take into 
consideration the additional financial burden placed on CHS-dependent 
areas as opposed to those areas who do have IHS hospitals available for 
referral?
    Answer. The CHS Program uses a distribution methodology that is 
designed to provide equitable funding. The CHS distribution methodology 
was revised in fiscal year 1993 through a Resource Allocation Work 
Group (RAWG) that included tribal representatives to provide an 
allocation process that is more equitable and beneficial to its 
recipients. The RAWG CHS formula considers such factors as Workload, 
Years of Productive Life Loss (YPLL) and CHS dependency. The CHS 
dependency factor favors those Areas such as the Northwest that have no 
IHS direct care facilities and are more dependent on CHS to provide the 
needed medical care and is based on the percent of total inpatient 
admissions in the private sector. As an internal agency policy, funding 
is made to Areas on a recurring historical basis. Therefore, the 
revised CHS distribution methodology is only applied to new funding 
increases.
    The CHS methodology not only has prior approval and tribal 
sanction, but also has the capability to provide equity considerations 
by significantly structuring the formula drivers to support health 
indicators. Although this model is not perfect it begins to address the 
issues of funding inequity between Areas and gives additional support 
to those Areas that are highly dependent on CHS versus those that have 
direct services and comprehensive services.
    Question. The medical inflation rate experienced by IHS in making 
CHS payments is significantly higher than in the private sector. Was 
medical inflation a consideration in determining the funding increase 
requested for this program?
    Answer. The fiscal year 2001 budget request includes an increase of 
10 percent for contract health services approximately double the 5.3 
percent average annual cost increase reported for this program by the 
fiscal intermediary. Funding above the rate of inflation was requested 
to provide higher levels of care to Indian people and to address 
medical inflation and population increases which have not been fully 
covered in previous years.

                              HEADQUARTERS

    Question. How do you respond to those who see the role of IHS as 
evolving into that of a technical assistance agency for tribal 
operations?
    Answer. In 1996, the IHS Director adopted the recommendations of 
the IHS Indian Health Design Team (comprised of Tribal leaders and 
senior IHS officials) that provided a framework for the direction of 
the IHS, particular its headquarters operations and that of the area 
offices. The core functions are leadership, advocacy, broad health 
policy, networking with other governmental entities, Tribal 
consultation, budget formulation, and system performance evaluation. As 
Tribes have assumed management and operations of Indian health 
programs, the IHS will move to more of these core functions and for 
those Tribes that have elected to have the IHS to continue provide 
health care services, the IHS will balance the core functions with 
health care delivery.
    Question. Close to half of the IHS budget is now passed through 
directly to the tribes for programs that are contracted or compacted. 
What if any impact has this had on headquarters operations?
    Answer. The IHS headquarters operations have changed considerably 
over the past 6 years due to both the need to streamline to meet 
government-wide reinvention activities and the requirement to make 
resources available to Tribes contracting or compacting. In 1993 the 
total number of positions in headquarters was 893 and now, some 6 years 
later, headquarters staffing is at 460. In 1997, the Director, IHS, 
approved a headquarters reorganization plan that reduced the number of 
headquarters' offices from nine to three. These changes will continue 
as more Tribes opt to self-determine.

                           HEALTH DISPARITIES

    An increase of $85,589,000 is proposed to be spread among over more 
than 20 different programs in an effort to improve health services and 
access to health care in fiscal year 2001.
    Question. What are the agency's highest priorities for funding 
among these proposals?
    Answer. The increase of $85,589,000 is requested to address the 
most pressing health disparities between American Indian and Alaska 
Native people and other Americans. The priority areas included in the 
request were identified by IHS, Tribal, and urban health program 
representatives as being the appropriate blend of programs and 
disciplines (prevention, treatment, and health professional 
development) required to make any progress towards reducing the health 
status disparities.
    Question. Where could additional funds make the most significant 
difference in the provision of health care?
    Answer. The health problems addressed by the budget request were 
consistently identified as significant health problems across the IHS 
Areas. At the local health delivery level, however, the top health 
problems vary from community to community. For this reason, limited 
funding increases would have the most impact in those budget activities 
that provide the most flexibility for use and from which more 
communities would benefit. For example, contract health services 
funding addresses all of the health problems and all IHS and tribal 
programs would benefit.
    Question. The budget proposal appears to put an emphasis on further 
funding for diseases with a distinct behavioral component: diabetes, 
alcoholism and substance abuse, and mental health issues that are 
reflected in domestic violence, suicide and child abuse. What can you 
accomplish with the requested funding that you have been unable to 
achieve at current levels?
    Answer. Significant impacts have been documented in communities 
that have employed specific types of interventions in both prevention 
and treatment. In alcohol and mental health treatment, communities that 
have employed a continuum of care approach to the management of 
patients have had much greater measurable success. In these 
communities, there is a balance of services (including community 
prevention, ambulatory treatment, as well as inpatient treatment) 
available that can be tailored to patient needs with concise case 
management to assure that patients are able to maintain health 
functioning after treatment. The prevention programs with the greatest 
documented success are those which address youth and are built upon 
tribal values. The best documented example is the K'e project in 
Navajo. This program utilized family members, traditional medicine men, 
schools, and others in the community to nurture the embrace of 
traditional Navajo values in ``at-risk'' youth. The increase in funds 
will allow the agency to support these successes, many of which were 
developed under a limited term ``demonstration'' grant funding 
arrangement. In addition, increases in funds will allow the 
dissemination of these programs to other communities will require 
funding.

                                HIV/AIDS

    Last year, language was included in the fiscal year 2000 conference 
report regarding the need for increased surveillance and monitoring of 
HIV/AIDS among the Native American and Alaskan Native populations. 
Since that time, concerns continue to be expressed to the subcommittee 
that the extent of this disease may be far more widespread among Native 
Americans than current statistics might demonstrate.
    Question. Do you share the concerns that have been expressed to the 
subcommittee regarding the prevalence of AIDS within the tribal 
communities? Please describe what steps IHS intends to take to address 
the need for additional surveillance.
    Answer. The true prevalence of HIV infections in American Indian 
and Alaska Native communities is unknown at this time. There has been 
no comprehensive availability of screening surveillance since 1993. 
While many are concerned that the prevalence may indeed by greater than 
we are aware of, there is no evidence to support that assertion. During 
the last year, the IHS has been able to acquire additional funding 
support for HIV surveillance efforts from CDC and other Federal 
entities with Ryan White and other specific funds for HIV. The agency 
has recently acquired an HIV surveillance specialist from CDC and this 
expertise has been put to work examining the most effective means to 
re-establish screening surveillance activities in Indian Country. Other 
funds received from our Federal partners has allowed for more extensive 
outreach and education for populations at risk. There is significant 
risk factor cross-over with Hepatitis C (which may in fact be much more 
prevalent and lethal than HIV in American Indian and Alaska Native 
communities) education and prevention efforts and funding support from 
CDC in Hepatitis prevention will also assist in HIV prevention efforts. 
Increasing HIV awareness among tribal leaders has also benefited the 
agency's efforts at outreach and education.

                        MEDICARE/MEDICAID FUNDS

    Question. An adjustment in the rate structure in January 1999 
increased Medicare and Medicaid returns by 15 percent. How were these 
funds used to supplement IHS and tribal programs?
    Answer. These funds (+13 percent) are used to maintain facility 
safety and program standards to comply with Joint Commission on 
Accreditation of Hospitals and Organizations (JCAHO). Accounting 
records indicate that about 85 percent of the funds are used for 
personnel, medical and facility contracts addressing areas of concern 
identified by JCAHO and maintaining compliance. These funds have 
resulted in 100 percent of IHS and Tribal hospital facilities being 
accredited by JCAHO.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. Dr. Trujillo, I have long been concerned with the 
devastating impact of alcohol on American citizens generally, and 
American children specifically. Unfortunately, the American Indian and 
Alaska Natives (AI/AN) population served by the Indian Health Service 
(IHS) has been particularly hard hit. Indeed, as the budget 
justification for the Service indicates, mortality rates attributable 
to alcohol abuse among American Indians and Alaska Natives is 7.3 times 
that of the overall U.S. population, and alcohol abuse has been singled 
out by 11 of the 12 IHS Areas as a top health problem. Even more 
disturbing, though, is the effect of alcohol on American Indian youth. 
As your agency states, the ``severity and intensity of the problems in 
AI/AN youth appear to be more treatment intensive than in the general 
U.S. population,'' while ``most completed suicides are highly 
correlated with alcohol abuse.'' Yet, despite this conclusion, I note 
that, while the Alcoholism and Substance Abuse program contains a 
specific line item for ``Adult Treatment,'' no such line item exits for 
children.
    Please tell this subcommittee what efforts the Indian Health 
Service is taking to strengthen alcohol abuse programs directed at 
minors, and, more specifically, how much of the $2.8 million increase 
being requested for fiscal year 2001 for Alcoholism and Substance Abuse 
will be allocated directly to youth?
    Answer. The Indian Health Service expends funds for chemical abuse 
treatment and prevention youth programs in a variety of its budget 
categories not limited to alcohol and substance abuse including 
expenditures from hospitals and clinics and contract health service. 
However, within the alcohol budget activity there are identified funds 
for youth regional treatment centers and community based prevention 
targeting youth as well as outpatient treatment for youth. These 
investments in youth are itemized in the table on page IHS-61 of the 
President's budget submission. Specifically, there is $15,727,000 
invested in youth regional treatment centers. An additional $16,875,000 
is requested for community rehabilitation and aftercare for youth. 
There is approximately $4,000,000 proposed for community-based 
education for prevention from the alcohol activity. (There is an 
additional $11,000,000 investment in the health education activity, 
significant components of which will fund preventive measures targeting 
youth.) The IHS also has developed partnerships with the Department of 
Justice and the Substance Abuse and Mental Health Services 
Administration for programs targeting youth in detention or at risk 
youth that will increase available funding by an additional $5,000,000 
in 2001. The targeting of the funds requested has not been finalized 
since tribal programs will manage over 95 percent of the funds and 
consultation has not been completed on this matter.
    Question. The Indian Health Service has presented a very ambitious 
budget request with increases totaling $229 million. Within that 
request, you have identified over 20 different health disparities to be 
addressed with $85 million in program increases. These cover a very 
broad range of problems--from child health to elder health, from dental 
health to cancer research, and from health education to construction. 
While this subcommittee shares your concern about the health problems 
facing the American Indian and Alaska Natives community, the fact 
remains that there may not be enough funding to address all of the 
budget requests before us. Consequently, would you please share your 
thoughts on what the Indian Health Service considers the most urgent 
problems today, and which of those represent the highest priorities of 
the IHS?
    Answer. During the formulation process of this budget request, the 
local IHS, Tribal, and Urban Indian health program representatives 
focused on the need to restore access to basic health services and to 
reduce the health disparities that prevail between the AI/AN people and 
the rest of the U.S. This budget request represents the integrated 
clinical and public health [package] needed to address the needs 
identified as most critical in those areas by the I/T/U. Each component 
is equally critical in restoring and enhancing the clinical and public 
health capacity of the IHS/tribal/urban health delivery system. Even 
though small amounts are requested in many categories (e.g., cancer), 
the small amount provided allows the Agency and tribes to ``leverage'' 
resources in partnership with other entities. For example, the IHS has 
developed a youth and alcohol initiative with Department of Justice 
that has tripled the amount that IHS contributed to addressing this 
critical problem.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

            CLOSURE OF THE SIPI DENTAL CLINIC IN ALBUQUERQUE

    In September 1999, the IHS closed the dental clinic at the 
Southwest Indian Polytechnic Institute (SIPI).
    This dental clinic had been in operation since 1971, when the BIA 
and IHS jointly established a training facility for the dental 
assistant and laboratory technician training programs at SIPI, and to 
serve the Indian population of the Albuquerque area.
    Sometime in the mid 1980's there was a redesignation of this dental 
clinic, basically placing its funding under the authority of the 
Albuquerque Servicing Unit (ASU) of the IHS under the terms and 
conditions of the Public Law 93-638 Self-Determination Act. While a 
seemingly harmless move, the consequences of this new designation have 
now been made dramatically clear. Some 33,000 American Indians (24,000 
of them classified as ``urban Indians'' in Albuquerque) have lost a 
vital health service due to the recent reduction of available IHS 
funding as a direct result of the Self-Determination contracting by 
Jemez and Isleta Pueblos.
    The IHS has simply determined that the SIPI dental clinic would 
have to be sacrificed to meet the conditions of the new Self-
Determination contracts whereby Jemez and Isleta Pueblos would operate 
their own health services. I am not objecting to these contracts under 
the ``638'' program, but I am very concerned that so many American 
Indians in the Albuquerque area have lost this important service.
    Question. Do you have the authority to reverse the ``638'' decision 
made more than a decade ago, so that the SIPI Dental Clinic would not 
be subject to a loss of funds when more Pueblos decide to operate their 
own health programs?
    Answer. After a self-determination contract is awarded, there are 
only a very limited number of circumstances in which the Indian Health 
Service can ``reassume'' control or operation of a contracted program 
without the consent of the contractor (i.e., the Indian tribe or tribal 
organization). There are two types of reassumptions. A reassumption is 
considered an emergency reassumption if an Indian tribe or organization 
fails to fulfill the requirements of the contract and this failure 
poses, as an example, ``an immediate threat of imminent harm to the 
safety of any person . . .'' A reassumption is considered a non-
emergency reassumption if there has been, as an example, ``gross 
negligence or mismanagement in the handling or use of contract funds . 
. .'' Rules concerning reassumption can be found in part 900.246 to 
900.256 in chapter V of title 25 of the Code of Federal Regulations.
    Question. If this designation as a training facility cannot be 
reestablished, I would like to know why the large IHS Dental program 
increase of last year ($8 million) and the pending increase for fiscal 
year 2001 (another $8 million) could not be used to fund about $750,000 
necessary to keep the SIPI Dental Clinic open.
    Answer. The program increase for fiscal year 2000 has already been 
allocated to tribal and direct programs. The fiscal year 2001 dental 
program budget increase of $8 million that is in the President's budget 
was developed and agreed upon by IHS tribal and urban representatives. 
Of the $8 million dollar increase, $4.147 million will be used to pay 
for increases associated with on-going program operations such as 
salaries for tribal and direct programs. The remaining $3.257 million 
will be used to support the Secretary's fiscal year 2001 Health 
Promotion/Disease Prevention Initiative. Of those funds, $1 million 
will be used to hire new employees across all Areas. The share of the 
Albuquerque Area base budget is approximately 7.3 percent; therefore, 
$73,000 will be distributed to the Albuquerque Area for staff 
increases. The Area will determine what portion of these funds will go 
toward support of the SIPI dental clinic.
    Currently, the level of need funded in the Indian Health Service is 
approximately 60 percent. Hence, virtually all programs have 
significant portions of their population that go without dental 
services. While we agree that there is great need for dental care in 
Albuquerque, to single out that community at the expense of others is 
not equitable.
    I am well aware of the large effort made by a coalition of 
Albuquerque area urban Indians to inform you of this situation, and I 
am very disappointed in the seeming lack of interest from IHS 
headquarters in helping to provide the minimal dental services for over 
30,000 eligible Indian people in the Albuquerque area. They, in fact, 
could easily use about $2.2 million for the service level they once 
enjoyed. For example, in 1994, there were 5,240 dental patients served 
with 9 full-time dentists, 2 dental hygienists, and 27 assistants who 
supplied full lab support for partials, dentures, and bridges. By 1998, 
there were only 3 full-time dentists, no hygienists, and 9 assistants.
    Question. I will expect a plan of action from you in ample time for 
inclusion in this year's Interior Appropriations bill. Please include 
at least $750,000 to reopen the SIPI Dental Clinic, and a detailed 
explanation of how the IHS plans to continue dental care for current 
and expected dental patients.
    Answer. The IHS has no plans to close the SIPI dental clinic. IHS 
is currently forming a consortium to assure that dental services remain 
available to the Indian population that resides in Albuquerque. Dental 
services will be provided through the following network:
    1. A 3-chair clinic at University of New Mexico, which opened last 
month and has a sliding fee schedule.
    2. A 3-chair dental clinic at the First Nations Urban Indian Health 
Facility that will open in 4 months. First Nations has received state 
funds for clinic renovation and equipment installation and are 
currently seeking start up costs of approximately $250,000 to fund 
dental staff. Their plans include billing 3rd party providers as well 
as providing services on a sliding fee schedule.
    3. Two dentists providing care in the SIPI facility after May 1st.
    It is estimated that the shift dental care delivery will occur in 
May after Jemez and Isleta Pueblos contract for their share of the 
Albuquerque Service Unit Dental Program. Two IHS dentists will remain 
at SIPI to provide walk in services 3 days per week and services to 
children 18 yrs of age and below--5 days per week. IHS will contract 
with a local dentist to provide walk in services for the remaining 2 
days per week. As revenue increases, the services at SIPI will 
increase. Services for the urban Indians in Albuquerque will be reduced 
temporarily during this transition period; however, it is expected that 
they will exceed current levels in approximately 3 years.
    We have identified annual services costs at SIPI in these areas:

Current General Dentists/Orthodontic Personnel Costs..........  $469,570
Current Dental Assistants Personnel Costs.....................   277,674
Current Support Staff Personnel Costs.........................    93,370
Current Operational Support Costs.............................   133,003
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   973,617

                 FORT DEFIANCE HOSPITAL, NAVAJO NATION

    The fiscal year 2001 request for replacement of the hospital 
portion of the project is $40.115 million, including $1.4 million for 
design of the much needed staff quarters. Critical health service from 
gynecological and general ambulatory surgery, to adolescent psychiatric 
nursing and intensive care will be available in this new facility. The 
acute care program will have 36 beds, and 20 beds will be used by the 
adolescent psychiatric nursing unit.
    The original 1938 structure is functionally inadequate, and I am 
glad to see this funding in the President's IHS construction budget for 
2001.

                         SANITATION FACILITIES

    The most recent request in my office for major water system 
improvements came from Laguna Pueblo at an estimated cost of $2.5 
million. Zuni Pueblo and Acoma Pueblo have continuing water and waste 
water needs, as do many other New Mexico Indian reservations, including 
the Navajo Nation, Jicarilla Apache Tribe, Santo Domingo Pueblo, and 
many others.
    Question. Given an estimated backlog of about $1.2 billion for 
these types of water and waste water projects on Indian lands across 
this country, I would like to know why this year's increase is only 
about $4.5 million over last year's amount of $89.3 million?
    Answer. Although much has been done in terms of providing 
sanitation facilities (water supply, sewage disposal, establishment of 
operation and maintenance organizations, and solid waste disposal), an 
unmet need of approximately $1.753 billion still existed at the end of 
fiscal year 1999. This unmet need includes approximately 20,000 
existing Indian homes that do not have potable water in the home. A 
majority of funding to address the backlog goes to serve deficiency 
level 4 and 5 homes (homes without water, sewer or both). Over $29.1 
million of the $45.2 million appropriated for regular projects to serve 
existing homes in fiscal year 1999 went toward projects to serve homes 
at these levels. In fiscal year 2000, IHS plans to fund over $30 
million to serve homes in these same levels. The most recent cost 
estimate to address feasible deficiency level 4 and 5 needs is 
approximately $375 million. In 1999 the funding level for new and like 
new housing is at a level of need of approximately 70 percent. The 
funding for the backlog of facilities for existing homes has been 
historically funded at approximately 60 percent of the need, based on 
the goal of meeting all current feasible sanitation facilities needs 
for existing homes in 10 years (the need is approximately $70 million 
per year), with the proposed funding for the year 2000 it is expected 
that these levels of need will remain approximately the same. In the 
initial IHS request a $30 million increase for fiscal year 2001 was 
recommended but other budget priorities required that this be reduced 
to the present level.
    Question. Is there any attention given in IHS to the deteriorating 
conditions of so many water and waste water systems that are, in many 
cases, over 50 years old? I would like to know more about how IHS 
decides to set priorities for the sanitation facilities funds.
    Answer. The Indian Health Care Amendments of 1988 (Public Law 100-
713, Title III) require the IHS, starting in fiscal year 1990, to 
develop and begin implementation of a 10-year funding plan to provide 
safe water supply and sewage and solid waste disposal facilities to 
existing American Indian and Alaska Native homes and communities, and 
to new and renovated homes. In accordance with these requirements, the 
SFC Program annually estimates the total need to provide safe and 
adequate sanitation facilities for all Indian and Alaska Native homes 
and communities. Sanitation deficiencies are reported as proposed 
projects, or project phases. Each IHS Area develops priority lists in 
consultation with the tribes for projects to serve new and like-new 
homes and regular projects to serve existing homes. These projects 
represent the universe of need for existing homes eligible for IHS 
funding. Regular projects on the Area priority list are scored based in 
part on health risk, economic feasibility, tribal priority and the 
ability of the Tribe to operate and maintain the proposed facilities. 
However, some projects are prohibitively expensive to construct and/or 
operate, and therefore are considered to be economically infeasible and 
are not considered on the priority lists.
    Question. I would also like to ask if IHS participates in any 
economic development efforts that stress the importance of adequate 
sanitation infrastructure?
    Answer. IHS is authorized to serve Indian homes. While IHS does not 
provide funding for infrastructure serving economic development 
projects, at their request, IHS does work closely with the tribes in 
the review of water and sewer design plans for economic development 
infrastructure projects. When funds are provided by a Tribe for a 
system expansion to support economic development in a location with an 
active IHS sanitation facilities project, the agency can and has 
provided engineering and project management support to construct those 
additional facilities. IHS continues to work with the Tribes to seek 
contributions from other agencies such as the Department of Housing and 
Urban Development's (HUD) Community Development Block Grants and in 
acquiring loans and grants through the Rural Utility Service of the 
Department of Agriculture. The IHS recognizes that the provision of 
sanitation facilities also has other far-reaching, positive effects. 
The availability of such facilities is of fundamental importance to 
social and economic development. In turn, such development leads to an 
improved quality of life and an improved sense of well-being. IHS can 
participate in any project on a pro rata basis if eligible homes are to 
be served. IHS does not provide sanitation facilities for future homes, 
or unused excess capacity, unless there is a funding commitment to 
build the homes within the next year. In the course of designing a new 
facility, some future demand can be considered in the design and sizing 
requirements. IHS will mostly build flexibility into the design to 
accommodate future growth rather than build excess capacity.
    Question. Has the IHS become aware of its vital role in helping or 
hindering economic development plans that require minimal and standard 
capacities for handling water and waste water?
    Answer. Under the authority of Indian Sanitation Facilities Act 
(Public Law 86-121), the IHS provides essential sanitation facilities 
for Indian homes. The IHS sanitation facilities appropriations from 
Congress are predicated upon the number of Indian homes to be served. 
The IHS works with other agencies (HUD, Economic Development 
Administration (EDA)) in jointly funded projects where constructed 
sanitation facilities will serve Indian homes as well as non-
residential units. Those other agencies have the authority to provide 
tribes with funding to enhance or improve their economic development, 
which includes sanitation facilities. The IHS is currently discussing 
with EDA potential areas where both agencies may cooperate to the 
benefit of Indian tribes (see preceding question).

                          DIABETES INITIATIVES

    Dr. Trujillo, for the past three years, the Department of Health 
and Human Services has received a total of $60 million annually 
pursuant to the Balanced Budget Act of 1997 for diabetes initiatives. 
These funds will be available through fiscal year 2002 with the Indian 
Health Service receiving half the funding or $30 million per year for 
five years.
    I remain very concerned about the high incidence of diabetes in the 
nation, especially among Native Americans, Hispanics and other 
minorities.
    Question. Would you please provide the Subcommittee with an 
assessment of how the $30 million in annual funding has been utilized 
by the Indian Health Service for diabetes prevention and treatment?
    Answer. Using a non-competitive grant process, based on extensive 
tribal consultation, 333 tribal, IHS and urban programs have received 
funds through the 1997 Balanced Budget Act (BBA). These funds have been 
used by the Indian health care system for data improvement, direct 
clinical services, community prevention activities, the development and 
provision of diabetes education to patients, their families, their 
providers and communities. The funds have enhanced infrastructure and 
community capacity for diabetes care and education. A complete 
assessment of these activities is included in the Interim Report to 
Congress submitted to DHHS for approval in January 2000.
    Question. As I recall, Congress directed the IHS to do an interim 
evaluation of the program and provide a report this year. Will such a 
report be coming to Congress soon? Could you give me an anticipated 
date for it to be transmitted to Congress?
    Answer. The interim Report to Congress on the Special Diabetes 
Program for Indians has been completed. It was submitted to Congress in 
April 2000.
    Question. These issues may be addressed in the evaluation of the 
program, but how has IHS determined to best utilize the $30 million in 
annual funding?
    Answer. The IHS has conducted ongoing, extensive, nationwide tribal 
consultation activities in relation to the $30 million in funding. The 
IHS is committed to the belief that the answers to diabetes prevention 
and management lie within American Indian and Alaska Native 
communities. Prior to distribution of the funds, discussions began at 
the National Indian Health Board Consumer's Conference, and the 
Diabetes Advisory Workgroup was formed consisting of tribal leadership, 
American Indian physicians, and nationally recognized diabetes experts. 
Regional tribal consultations then occurred in every IHS Area. Results 
were compiled by the National Indian Health Board and reviewed by the 
Diabetes Workgroup, culminating in a set of recommendations to the IHS 
Director for grant funds distribution by Area. The IHS Director 
approved the Workgroup's recommendations with minor adjustments. The 
IHS Diabetes Program crafted a Request for Application (RFA) document, 
incorporating the basic public health principles of primary, secondary 
and tertiary prevention.
    The $30 million from the 1997 BBA has provided an opportunity for 
IHS, tribal and urban sites to implement innovative programs to address 
diabetes in AI/AN communities. Much good has come from this effort, yet 
it is only a start. Managed care organizations have published data in 
the diabetes literature indicating that the annual costs for caring for 
a person with diabetes are estimated at $5,000-$9,000. In contrast, IHS 
receives approximately $1,300 per capita to care for its patients. This 
is clearly not enough. Diabetes experts tell us that, on average, 
patients with diabetes are on 10-12 medications at one time. Many of 
these medications are expensive, as much as $5 per day. Pharmaceutical 
costs in IHS last year increased 25 percent. IHS simply cannot afford 
to provide the recommended standard of diabetes care at this level of 
funding.
    Question. Is the model diabetes program model being replicated 
among Native American Tribes? One of the earliest model programs was 
carried out by the Zuni Tribe as I recall.
    Answer. For 20 years, the IHS has relied on Model Diabetes Programs 
to demonstrate effective approaches to diabetes care, education and 
prevention in Native American communities. As IHS has expanded its 
programs through the 1997 BBA funds, the 19 Model Diabetes Programs 
have led the way in shaping the development of these new diabetes 
programs nationwide. The Model Diabetes Programs experiences, successes 
and ``lessons learned'' have been adapted by communities to fit their 
unique situations. These include clinical guidelines; program 
curriculums; training programs to providers, patients, families, and 
communities; diabetes tracking systems; materials; community capacity 
building; and technical expertise. The Zuni Diabetes Program was one of 
the first and most successful Model Diabetes Programs.
    Question. With the concern about diabetes being diagnosed more 
frequently in children, has IHS focused its prevention activities on 
this age group? What is the most effective way to reach children with 
prevention information?
    Answer. The IHS has collaborated with the CDC Division of Diabetes 
Translation to more clearly define the epidemiology of the problem of 
type 2 diabetes in children. Thirty six percent of the BBA grant 
programs indicate that they are placing a special emphasis on type 2 
diabetes prevention in adolescents, 27 percent are focusing on 
elementary school age children, and 19 percent are addressing the 
preschool age population. The IHS has also partnered with the Head 
Start Program on a Childhood Obesity Project; partnered with the 
Committee on Native American Child Health of the American Pediatric 
Association to develop diagnosis and treatment guidelines; serves on 
committees of the American Diabetes Association on type 2 diabetes in 
children; and has approached the Juvenile Diabetes Foundation regarding 
this problem. While we recognize the need to allow diabetes experts to 
nationally address these issues, IHS has aggressively pushed for this 
problem to remain at the forefront of diabetes agendas within many 
settings. The problem of type 2 diabetes in children is still too new 
to have learned what methods are best used for delivering prevention 
information to children and their families. The IHS Diabetes Program 
has recently hired an expert in children's issues to lead this 
prevention effort for the agency.
    Question. At this time with three years of funding, does IHS have a 
comprehensive program in place to assist all age groups affected by 
diabetes? What are the components of the program?
    Answer. The IHS maintains a comprehensive, global approach to 
diabetes, incorporating both clinical and public health approaches for 
prevention and treatment in all age groups. This approach includes 
surveillance activities, collection and analysis of quality process and 
outcomes data, complications tracking, all levels of prevention 
screening and treatment, family education, innovative approaches to 
nutrition education, clinical care, family interventions, promotion of 
physical activity programs, community activities and school based 
activities.
    For example, components of the program as a result of the 1997 BBA 
funds:
  --80 percent of grant sites are focusing on overweight people with 
        diabetes
  --50 percent of sites are emphasizing tobacco cessation programs
  --79 percent of programs concentrate on people with diabetes who have 
        high blood pressure (and thus are at higher risk for 
        complications)
  --76 percent of sites report more emphasis on patients with newly 
        diagnosed diabetes
  --68 percent of programs are targeting family members of people with 
        diabetes
  --37 percent of grant programs now focus on pregnant women and their 
        offspring
  --56 percent of sites are placing emphasis on overweight children
  --Nutrition counseling is provided in one-on-one sessions at 73 
        percent of programs, group sessions at 66 percent of programs, 
        and 43 percent of sites provide cooking classes. Over 50 
        percent offer nutrition classes to family members of people 
        with diabetes.
  --Grant sites offer physical activity programs in the form of walking 
        clubs (53 percent), aerobics classes (48 percent), sports teams 
        (30 percent), training of fitness leaders (31 percent) and 
        traditional games & activities (30 percent)
  --Diabetes teams were newly established (42 percent) or improved upon 
        (29 percent), diabetes registries were newly established (42 
        percent) and existing registries improved upon (48 percent), 
        and diabetes clinics were newly established (21 percent) or 
        improved upon (43 percent) as a result of the grant funds
    Many programs are demonstrating success in addressing certain 
problems within their own communities. Resources are lacking for 
replicating these successful strategies in AI/AN communities throughout 
the nation.
    Question. What is the Administration's proposed budget for diabetes 
prevention and treatment for the Indian Health Service in fiscal year 
2001, excluding the $30 million annual appropriation pursuant to the 
1997 Balanced Budget Act? How does that compare to fiscal year 2000?
    Answer. As described in our Congressional Justification on page 
IHS-34, the increase for fiscal year 2001 over fiscal year 2000 is 
$3,880,000.
    Question. Within the additional $7 million proposed for priority 
diseases, how much does IHS propose to devote to diabetes?
    Answer. Again as on page IHS-34, the increase is $3,880,000.
    Question. Have the Balanced Budget Act funds complimented existing 
agency budgets, or have they supplanted existing resources being 
devoted to this dangerous disease?
    Answer. The Balanced Budget Act funds have most certainly been used 
to complement existing activities. Over 85 percent of the 333 programs 
funded through the BBA are tribally operated programs, most of who were 
unable to fund diabetes-related activities prior to 1997. The same is 
true for the 34 funded urban Indian health programs who had no funds 
specifically earmarked for diabetes prior to the 1997 BBA. The BBA 
funds have not supplanted existing resources; rather, they have been 
used to enhance existing programs and/or develop new, innovative 
community-driven approaches to diabetes. However, our existing 
recurring resources devoted to diabetes are quite limited and the BBA 
funds have allowed for a significant expansion of access to prevention 
and treatment services. The need for these services will only increase 
as the diabetes epidemic continues.
    Question. What are the Department's plans to utilize the remaining 
funding in fiscal year 2001 and fiscal year 2002 in a comprehensive and 
coordinated fashion to prevent and treat diabetes?
    Answer. Five years is a very short time in the course of any 
chronic disease. The epidemic of diabetes in AI/AN tribes will not be 
contained or eradicated in the near future. The science of diabetes 
prevention is an emerging science, especially at the primary and 
secondary prevention levels. In the year 2002, the results of the 
large, NIH-funded, multi-center research trial of diabetes prevention, 
called the Diabetes Prevention Program (DPP), will be released. The 
DPP, which includes 4 American Indian study sites in Arizona and New 
Mexico, is designed to answer the question ``can type 2 diabetes be 
prevented in high risk individuals?'' If the results of this study 
suggest that pharmaceuticals or intensive lifestyle changes can prevent 
diabetes, then the IHS must be ready to launch a massive diabetes 
prevention program in all AI/AN communities. The impact of these 
results will be far-reaching, affecting the direction of all diabetes-
related clinical and community programming, including staffing and 
financial aspects. The cost will be prohibitive, even in an ideal 
setting. The infrastructure built, the community capacity developed, 
and the lessons learned from the 333 BBA grant programs will serve as a 
basis for implementing a comprehensive prevention strategy within IHS, 
tribal and urban programs. Thus, the final 2 years of the BBA grant 
process will be spent solidifying, strengthening, and expanding program 
infrastructure and community capacity.
    Over the next 2 years IHS will continue to:
  --bring grantees together to share and learn from each others 
        successes and mistakes at regional meetings;
  --facilitate the building of clinical and educational infrastructure;
  --promote the sharing of resources (particularly technical 
        expertise);
  --encourage the development of regional diabetes coalitions;
  --identify other outside funding resources;
  --promote the expansion of clinical and educational services, 
        partnering with tribal leadership, and incorporating 
        technological advances.
    Question. Within the Centers for Disease Control, an effort is 
underway to establish a National Diabetes Prevention Center, which will 
be located in Gallup, New Mexico. How is IHS partnering with CDC in the 
National Diabetes Prevention Center? I expect this program to make a 
significant contribution to the prevention and treatment of diabetes 
among the Navajo Tribe, Zuni Pueblo, and other Native American tribes.
    Answer. The IHS has served as an active participant thus far in the 
development of the National Diabetes Prevention Center (NDPC).
  --The IHS National Diabetes Program serves as a partner on the NDPC 
        Steering Committee
  --The Tribal Leaders Diabetes Committee, formed by IHS, advises the 
        NDPC and oversees the national expansion plan
  --The Zuni IHS, the Zuni Model Diabetes Program, and Gallup Indian 
        Medical Center are integral parts of the local partnership
  --The IHS National Diabetes Program has partnered with CDC and its 
        contractor to host regional meetings across the US to obtain 
        tribal input and guidance on the national direction and 
        expansion of the NDPC
  --The IHS provided nominations for the Center Advisory Board and 
        reviewed them with the other partners
  --The fully participated in providing input in the Forecast process 
        and evaluation of the NDPC structure (another CDC contract)
  --The IHS Diabetes Program has provided direct expertise to the 
        education and training proposal currently being designed by 
        NDPC. In fact, the IHS Diabetes Program's training curriculum 
        for health professionals will be used by NDPC to conduct this 
        training
  --The IHS is working closely and is in regular contact with the CDC 
        on the development and future direction of the NDPC.

                         MENTAL HEALTH SERVICES

    Dr. Trujillo, it's been awhile since last we were able to speak 
about the need in Indian country for mental health services. I am 
pleased to see the President's requested increase of $6.2 million for 
mental health services and that these resources will build on some 
important initiatives already underway at IHS.
    Question. Would you please tell the Subcommittee what progress IHS 
has made over the past three years on providing mental health services 
to Native American tribes and pueblos?
    Answer. Funding for mental health budget has increased by about 4 
percent annually between fiscal year 1997 and fiscal year 2000. Most 
improvements which have occurred are related to local innovations. 
Perhaps the activity with the most wide-ranging impact has been the 
suicide prevention activity emanating from the Jicarilla Apache Tribe 
of New Mexico. Because of a local outbreak of youth suicides a few 
years ago, the tribe initiated a program of prevention aimed at youth. 
The program quickly demonstrated a successful approach. This model was 
then disseminated to other AI/AN communities and is now in operation in 
over 80 tribal communities nation-wide.
    Question. What are the highest priority areas for IHS within the 
mental health program?
    Answer. The tribal budget formulation priorities within mental 
health include youth suicide prevention, domestic violence treatment 
and prevention, and the mental health needs of elders. The GPRA 
Objectives described on page IHS-51 of the President's Budget 
submission reflect these priorities.
    Question. How does IHS propose to allocate the proposed $6.2 
million increase to meet these priority needs?
    Answer. The IHS will allocate on the basis of equity and utilize an 
approach that has the support of tribal programs to support screening 
programs and comprehensive community based mental health care system.
    Question. The provision of health services is difficult at best in 
rural areas, such as on many Indian reservations. How is IHS delivering 
mental health services in rural areas? Within the budget request for 
information technology resources, will any be devoted to improving the 
delivery of mental health services in rural areas, such as through 
telehealth activities?
    Answer. The agency currently uses a range of approaches and 
providers to deliver mental health services. There are community mental 
health technicians who are often local people with limited specialized 
training that can provide many of the primary mental health counseling 
services in remote locations. These paraprofessionals are supported by 
counseling social workers and primary care medical providers who have 
skills and aptitudes in behavioral health. Specialized mental health 
providers such as clinical psychologists and psychiatrists are used in 
more complex cases as needed. The use of telehealth technologies is 
just beginning to emerge in rural environments. The availability of 
transmission media (broad band phone lines and satellite links) has 
limited the availability in many locations. The initial uses for these 
technologies in behavioral health includes teletherapy, but are more 
commonly used for training support in behavioral disciplines. The 
investments in information technology include small investments in 
telecommunications support.
    Question. This Administration has focused attention on interagency 
cooperation on many fronts. How is IHS working with other federal 
agencies, such as the Department of Justice, to help in the provision 
of health care and related support services?
    Answer. The agency has formed coalitions with a variety of Federal 
agencies both within DHHS and in other Departments. Within DHHS the 
Substance Abuse and Mental Health Services Administration has provided 
funding to many Native communities through its three centers. The 
Center for Substance Abuse Treatment has awarded almost $10M to states 
through block grants and directly to tribes for programs that address 
chemical abuse. This is critical support in the mental health arena 
since many AI/AN youth are dually diagnosed with both chemical abuse 
and a mental health diagnosis. The Center for Mental Health Services 
has developed an AI/AN specific program called Circles of Care that has 
brought an additional $10M to Native communities for mental health 
services. In addition, the Headstart programs and IHS work together to 
address prevention efforts with young parents. The agency has 
partnerships with other Departments such as DOJ that link funds for 
youth in detention with treatment services for the behavioral health 
problems that often contribute to the reason they are in detention 
(e.g., violent behaviors). Such arrangements have also been developed 
with the Department of Interior in its detention environments. The 
agency also works with BIA-Education to support prevention efforts. 
There are other smaller examples of partnerships with the Department of 
Education, and with the Department of HUD.
    Question. Is this a successful way to leverage federal resources to 
meet program needs? Are there additional partnerships that IHS is 
considering, especially in the mental health area?
    Answer. The service capabilities for mental health reside primarily 
in the agencies identified in the previous question (i.e., SAMHSA, DOEd 
and DOI), however, the scope of relations with DOJ may well expand in 
the next two or three years. Partnerships in researching mental illness 
and other behavioral concerns in AI/AN communities need to be developed 
further. Accordingly, the agency is pursuing partnerships with the 
National Institutes of Health who have research responsibilities and 
resources. Since economic health is so influential in determining 
mental health status, partnerships with the Department of Commerce are 
being developed.

              FISCAL YEAR 2000 ACROSS-THE-BOARD REDUCTION

    Dr. Trujillo, in last year's Consolidated Appropriations Act for 
fiscal year 2000 (Public Law 106-113), the President and the Congress 
agreed to an across-the-board reduction of 0.38 percent in 
discretionary programs as part of an effort to ensure that spending in 
fiscal year 2000 did not dip into the Social Security surplus. We were 
successful in that effort, but in the process the Department of Health 
and Human Services had to reduce program spending by $166.8 million in 
fiscal year 2000.
    It appears from the Administration's report on the implementation 
of the across-the-board reduction that most offices and programs within 
the Department took a part of the reduction with $6.8 million coming 
from the Indian Health Service--$4.8 million from Indian Health 
Services, and $2.0 million from Indian Health Facilities.
    Question. Dr. Trujillo, would you please provide the Subcommittee 
with the program, project, and activity details underlying the across-
the-board reductions in each program area for IHS?
    Answer. The fiscal year 2000 Interior Appropriations included a 
rescission of 0.38 percent across the board government-wide. The IHS' 
share is $6.8 million, or 0.28 percent, from the appropriation of $2.4 
billion and detailed in the table that follows.

                                           FISCAL YEAR 2000 RESCISSION
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year                       Percent
                             Program                               2000 enacted     Rescission       reduction
----------------------------------------------------------------------------------------------------------------
Services:
    Hospital/Health Clinics.....................................      $1,007.140         -$1.728           -0.17
    Dental Health...............................................          80.283          -0.221           -0.28
    Mental Health...............................................          43.294          -0.049           -0.11
    Alcohol/Substance Abuse.....................................          97.024          -0.200           -0.21
    Contract Health Services....................................         407.290          -0.534           -0.13
    Public Health Nursing.......................................          34.556          -0.104           -0.30
    Health Education............................................           9.654          -0.029           -0.30
    Community Health Reps.......................................          47.826          -1.446           -3.02
    Immunization AK.............................................           1.407          -0.005           -0.36
    Urban Health................................................          27.849          -0.036           -0.13
    Indian Health Professions...................................          30.728          -0.237           -0.77
    Tribal Management...........................................           2.418          -0.007           -0.29
    Direct Operations...........................................          51.145          -0.157           -0.31
    Self Governance.............................................           9.572          -0.041           -0.43
    Contract Support Costs......................................         228.781  ..............  ..............
                                                                 -----------------------------------------------
      Subtotal, Services........................................       2,078.967          -4.794           -0.23
Facilities:
    Maintenance & Improvement...................................          43.504         -$0.071           -0.16
    Sanitation Facilities.......................................          92.188          -0.071           -0.08
    Health Care Fac. Construction...............................          52.000          -1.607           -3.09
    Fac. & Environmental Hlth Support...........................         116.501          -0.219           -0.19
    Equipment...................................................          14.387          -0.057           -0.40
                                                                 -----------------------------------------------
      Subtotal, Facilities:.....................................         318.580          -2.025           -0.64
                                                                 -----------------------------------------------
      Total IHS:................................................       2,397.547          -6.819           -0.28
----------------------------------------------------------------------------------------------------------------

    Question. Did the Department follow the provisions of the 
Consolidated Appropriations Act that no program, project, or activity 
could be reduced by more than 15 percent?
    Answer. Yes. The IHS was treated fairly.
    Question. What was the maximum reduction taken from any program, 
project or activity?
    Answer. Funding for Community Health Representatives was reduced by 
3 percent, the largest percent reduction in IHS, because Congress 
provided 17 percent more funds for this program than the Administration 
requested.
    Question. Did the Department follow the guidance of OMB that:
  --reductions should be taken from the least critical funding 
        available to the agency;
  --reductions should be considered from funding above the President's 
        request;
  --no reductions should be taken that would require reductions-in-
        force (RIF); and
  --agencies should make targeted recommendations rather than across-
        the-board funding cuts?
    Answer. The broad breakdown of the $6.8 million reduction is as 
follows:
    $0.7 million was taken from Congressional earmarked projects:
      --Hospitals/Clinics was reduced by $346,000 for projects which 
            would benefit a specific Tribe, IHS Region or area of 
            concern.
      --Facility Construction was reduced by $320,000 for specific 
            construction projects.
    $6.1 million was taken from all line items, except for Contract 
Support Costs which was a high priority project and exempted from this 
reduction. The rescission was isolated, to the extent possible, to 
funds provided for inflationary cost increases.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan
    I continue to be concerned about unpaid balances owed by the IHS 
for Priority I contract health services provided by private health care 
providers. In particular, I am aware that the Lake Region Clinic in 
Devils Lake, ND, is still owed $44,000 by the IHS for services dating 
back as far as fiscal year 1996. These are services that the IHS 
authorized for Priority I medical services and the local Service Unit 
agrees that the federal government owes this money. Yet the Lake Region 
Clinic is being told the funds don't exist to pay them. In addition, 
the Lake Region Clinic is owed another $39,000 for fiscal year 1999 
claims that have been authorized and for which purchase orders have 
been obtained, but the IHS Fiscal Intermediary in New Mexico says that 
the funding hasn't been released. This may not be a lot of money for 
large health care providers, but for a relatively small clinic like the 
one in Devils Lake, this creates a serious financial burden.
    Question. Dr. Trujillo, in May of last year, you sent me a letter 
indicating that it would take about 60 days to reconcile the claims 
owed the Lake Region Clinic. You also stated that, ``The IHS has 
sufficient money available to pay the Lake Region Clinic.'' Can you 
explain to me why, nine months later, this money still hasn't been 
paid? Can I get your personal commitment that these claims will be paid 
as promptly as possible?
    Answer. The IHS met with the Lake Region Clinic to review claims 
and resolved the claims that were presented at that time for fiscal 
years 1996 through 1998. For the Lake Region Clinic, the total billed 
amount for 1,493 claims submitted for FYs 1996-1998 was $590,320. The 
IHS has paid or authorized payment for $452,229; the remainder was 
disallowed or paid by a third party. This information is reported by 
the IHS Fiscal Intermediary and includes all claims through February 
25, 2000.
    Very recently, the Clinic presented the additional claims totaling 
$44,000. The IHS has the funds to provide payment for the new claims 
from the Lake Region Clinic submitted for FYs 1996-98. However, since 
the staff at the Fort Totten Service Unit were not aware of the new 
bills until recently, sufficient time is needed to review and determine 
if they meet the IHS eligibility requirements relating to referrals, 
notification, and availability of third party resources.
    In past years, the Fort Totten Service Unit has held regular 
meetings with the health care providers including Lake Region Clinic to 
monitor the payment process. The Area Office has implemented a 
``Standards of Practice'' plan whereby the Service Unit assesses the 
amount that it is responsible for and develops a payment plan for any 
outstanding claims. Unfortunately, some payments have been affected by 
the recent conversion to a new accounting system. The IHS is working to 
ensure that any problems arising from the conversion are resolved in 
order to make payments in a timely manner.
    Question. I am also concerned that this is not an isolated problem. 
I am aware of another North Dakota IHS Service Unit that has $3 million 
in backlogged unpaid Priority I claims owed to a range of private 
health care providers. Does the IHS budget for fiscal year 2001 include 
funding specifically to pay these outstanding debts? How much does the 
IHS owe nationally for prior-year, authorized, Priority I contract 
health services?
    Answer. Currently, there is no backlog of priority one claims for 
the Ft. Totten facility. All bills submitted by Devils Lake vendors 
have been either approved for payment or denied.
    The IHS budget for fiscal year 2001 does not include any new 
funding that is specific for any prior year outstanding debts. All 
claims are paid through the IHS Area offices and the IHS fiscal 
intermediary contract with Blue Cross and Blue Shield and not 
segregated by the established priority levels.
    It is not unusual for claims to pend. In many cases, additional 
data is required before payment can be made. The information reviewed, 
such as diagnosis codes, patient/provider data, availability of third 
party resources, implementation of contractual requirements as well as 
any provider rate agreements, needs to be fully analyzed to assure that 
the most responsible use of the limited resources is achieved. By 
following these review practices the IHS is able to discount its 
payments by about 50 percent below the billed charges. At any given 
time there are a number of claims pending for all reasons in all 
locations for all priorities.
    Question. While I am glad that the fiscal year 2001 IHS budget 
includes a $41 million increase for contract health services, is this 
funding sufficient to pay for all anticipated Priority I contract 
health services in order to prevent future shortfalls?
    Answer. The increase is not sufficient to pay for all anticipated 
priority I claims. The increase will reduce the shortfalls in CHS 
funding experienced by IHS and tribal programs but services will still 
be deferred, and denials will still be issued for care not within 
medical priorities to eligible patients.
    Question. As I understand it, once sufficient documentation has 
been provided to the Service Unit by a private health care provider, 
the Service Unit has 5 days to either issue a denial or a purchase 
order. If the health care provider doesn't receive that decision within 
the required timeframe, is the IHS responsible for paying that claim? 
Is there any deadline imposed on the Service Unit for notifying the 
health care provider if sufficient documentation has not been received?
    Answer. For a claim to be considered viable all the necessary 
medical and demographic information must be at the service unit before 
the 5 day rule applies. Once the claim is determined viable, then a 
medical purchase order or denial must be issued for each bill received. 
The IHS will respond to a notification of a correct claim by a provider 
of a contract care service with either an individual purchase order or 
a denial of the claim within 5 working days after the receipt of such 
notification. If the SU fails to respond to a notification of a claim 
the IHS will accept as valid the claim submitted by the provider. In 
the case of the Fort Totten Service Unit, the interval from provision 
of service to the time the agency receives a bill has been 
significantly longer then the average across the system as has the time 
from service provision to issuance of a purchase order. In fiscal year 
1999, these intervals improved significantly and in fact are now 
shorter than the system wide intervals.
    Question. I also noted that, in the IHS' budget justification for 
fiscal year 2001, the number of reported deferred services has 
increased 42 percent from fiscal year 1994 to fiscal year 1998. As you 
know, when a patient waits to receive care on a deferred basis, the 
nature of the illness or injury is likely to worsen, and the cost of 
treating the condition increases. For instance, in 1993, the cost per 
case for deferred services was $176, and in 1997, this had risen to 
$257 per case. How much funding would be required to eliminate the 
deferral of contract care services? Is this amount incorporated in the 
fiscal year 2001 budget request?
    Answer. In fiscal year 1999 the reported number of deferred 
services was 85,025 cases, which totaled approximately $31.4 million. 
Deferred services are services for care that are lower in priority and 
not emergent or urgent that can be delayed until funds become 
available. The definition of urgent and emergent has also become 
increasingly rigorous as the resources have become more constrained. 
With the increasing demand for contract health services there are 
generally no funds available at the end of the year to meet this need. 
Refractions, routine mammogram, orthodontics, ultrasound examinations, 
arthroscopies, physical therapy, dental hygiene, organ transplants, and 
orthopedic services are some examples of cases that are deferred.
    Question. I am also concerned that Native Americans living in the 
Aberdeen Area are not receiving an equitable amount of IHS funding. 
Over the last decade, the service population of the Aberdeen Area has 
increased by 25,000 people, but it doesn't appear that the funding 
allocated to the Area or to local Service Units has kept pace with that 
growth. What method does the IHS use to allocate funding for Area 
Offices? For individual Service Units? Does that method take into 
account current needs and reliance on contract health services or is it 
based on historical costs?
    Answer. The CHS funding has not kept pace with the cost of medical 
inflation and population growth. The IHS distributes recurring funds 
using a methodology based on each Area's historical base. New funds or 
non-recurring funds are distributed according to an approved CHS 
distribution formula developed to provide equitable funding. The 
formula factors in elements that consider Workload, Years of Productive 
Life Loss and CHS dependency. The dependency factor is based on the 
percent of total inpatient admissions in the private sector and 
benefits CHS programs that have no direct care facilities and are 
totally dependent on CHS to provide the needed medical care. Each year, 
the methodology is reviewed and consideration given to adjusting the 
weights of each factor in the methodology. Since these factors are 
based on national averages Areas have the authority to use local 
averages and distribute funds according to Area need.
    The distribution at each Area for funding to the service units 
varies. The Aberdeen Area has a 3-tiered Formula approved by the 
Aberdeen Area Tribes. The formula multiplies user population times the 
amount designated for the type of facility:

Type of Facility:
    Large facility with extensive service available...........   $327.00
    Medium facility with less services available..............    377.00
    Ambulatory facility (8am-5pm availability)................    427.00

    The IHS just completed a Level of Need Funded (LNF) study as a 
means to address some of the funding deficiencies. The IHS is currently 
consulting with tribes on the study. If the LNF is accepted, it may be 
our source document for funding levels and a tool for working toward 
funding equity for all programs.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl

                  JOINT-VENTURE DEMONSTRATION PROGRAM

    There is tremendous backlog estimated at nearly $900 million on the 
IHS construction priority list. The fiscal year 2001 budget request 
addresses just 7 percent of this need. According to an IHS report 
issued last August, a tribe fortunate enough to get on the health care 
facilities construction priority list right now will have an estimated 
wait of 70 years before a facility is built. We can do better.
    Section 818 of the Indian Health Care Improvement Act (Public Law 
94-437) provides the authority for a Joint Venture Health Facilities 
demonstration program, an innovative program to leverage tribal funds 
to provide health care to Indian tribes. To date, two tribes funded the 
building of facilities through this program in the early 1990's. In 
addition to accelerating improved access to health care for the two 
tribes, reports indicate that these projects were built more quickly 
and at less cost than comparable federally-funded construction. Three 
Wisconsin tribes--the St. Croix Chippewa, the Oneida and the Ho-Chunk 
are now in a position to make one-time expenditures to build health 
facilities, but they need IHS to provide equipment and staffing. The 
Joint-Venture program could help them meet that need.
    Two years ago, the House report to the Interior bill included 
language directing that the fiscal year 2000 budget should address the 
advisability of re-instituting the Joint Venture Health Facilities 
program. That didn't happen last year and I am doubly disappointed that 
the Administration chose not to include this request in its budget 
submission this year. It is my hope that our Subcommittee will revisit 
this issue.
    Question. The last time IHS funded joint-venture health facilities 
was in 1993 in Oregon and 1994 in Oklahoma. In your view, were these 
projects successful? What is IHS' position on the Joint-Venture 
program? Don't you think it makes sense to be leveraging federal 
dollars with tribal funds, if they are fortunate to have funds?
    Answer. Previous joint venture demonstration appropriations in 
fiscal year 1991 and 1993, totaling $2,552,000 in the facilities 
appropriations, were used to equip two joint venture demonstration 
projects; one in Poteau, Oklahoma, for the Choctaw Nation of Oklahoma, 
and one in Warm Springs, Oregon, for the Confederated Tribes of Warm 
Springs. These two projects achieved the following:
    (a) The new additional space met the needs of the Tribes and the 
IHS at the time of construction. The constructed facilities are still 
fully accredited. Each new facility increased their capacity, so each 
health center was able to increase their services by 100 percent. The 
operating efficiency was improved. Waiting times were reduced 
significantly.
    (b) The partnership of this program allowed the new facilities to 
be provided more quickly and before they were on a priority list. This 
resulted in less Federal Government outlay for the construction of 
these facilities although the staffing and operating costs for these 
facilities would still be the same if IHS funded the construction. 
Involving the tribes in this manner, helps the development of long term 
health plans and infrastructure.
    Before moving ahead on any new administering a Joint Venture 
Program projects in the future, IHS will need to examine the following 
issues:
    (a) Find a way to integrate and prioritize joint ventures with the 
IHS Facilities Construction Priority Lists.
    (b) Ensure that long term costs associated with staffing and 
operations are consistent with IHS standards for providing health care 
facilities and services to Federally Recognized American Indians and 
Alaska Natives, and can be accommodated by future funding levels.
    (c) Assure that funding committed to Joint Venture projects must 
addresses priority needs for health care facilities and the delivery of 
health care services with the highest relative need.
    IHS will continue to work with Congress and the Tribes on how to 
best balance projects currently on the IHS priority lists and the 
potential of a Joint Venture Program.
    Question. Can you explain to me why we have seen no funding for 
this program?
    Answer. The fiscal year 2001 Budget is committed to supporting 
access to health care services and improving the health status of 
Native Americans. The Budget provides a total of $65.237 million for 
Health Care Facilities Construction and includes investments to fund 
the final phase of construction for the Fort Defiance, Arizona Hospital 
($38.715 million) and design of the staff quarters ($1.4 million), 
complete construction of the Parker, Arizona Health Center ($7.578 
million), second-phase construction of the Winnebago, Nebraska Hospital 
($12.286 million), design of the Pawnee, Oklahoma Health Center ($1.745 
million), modular dental units ($1 million), and Small Ambulatory 
Construction Grants ($2.513 million). These and other budget priorities 
precluded the inclusion of the Joint Venture Program in the President's 
fiscal year 2001 budget request.
    Question. What do you recommend to those tribes that are in a 
position to build facilities but do not have the funds to equip and 
staff them?
    Answer. We encourage tribes to continue addressing the health care 
needs of their communities. The IHS recommends for tribes to seek 
alternative financing through other agencies like the Department of 
Agriculture, Housing and Urban Development grants, and private 
foundations or to wait until funding is appropriated to IHS for 
equipment and staffing. Last year IHS held a Roundtable discussion 
where tribes shared information on how they were able to finance 
construction of their health care facility. The results of the 
Roundtable were documented and this valuable information is available 
to all tribes contemplating obtaining their own health care facility. 
We will continue to work with tribes and Congress on how to best 
balance projects currently on the IHS priority lists and the potential 
of a Joint Venture Program.

                          Subcommittee Recess

    Senator Stevens. So the subcommittee will stand in recess 
until 9:30 a.m., Wednesday, March 22, when we will receive 
testimony on the fiscal year 2001 budget requests for the U.S. 
Forest Service; Hon. Mike Dombeck, Chief, U.S. Forest Service 
and Hon. Jim Lyons, Under Secretary for Natural Resources and 
Environment, Department of Agriculture.
    [Whereupon, at 10:20 a.m., Wednesday, March 1, the 
subcommittee was recessed, to reconvene at 9:30 a.m., 
Wednesday, March 22.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2001

                              ----------                              


                       WEDNESDAY, MARCH 22, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, Domenici, Burns, 
Bennett, Byrd, Leahy, Dorgan, Kohl, and Craig.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF:
        JAMES LYONS, UNDER SECRETARY, NATURAL RESOURCES AND ENVIRONMENT
        MIKE DOMBECK, CHIEF
ACCOMPANIED BY:
        VINCETTE L. GOERL, CHIEF FINANCIAL OFFICER, DEPUTY CHIEF, 
            OFFICE OF FINANCE
        RANDLE PHILLIPS, DEPUTY CHIEF, PROGRAMS AND LEGISLATION
        JAMES R. FURNISH, DEPUTY CHIEF, NATIONAL FOREST SYSTEM
        JANICE McDOUGAL, DEPUTY CHIEF, STATE AND PRIVATE FORESTRY
        ROBERT LEWIS, DEPUTY CHIEF, RESEARCH AND DEVELOPMENT

               OPENING STATEMENT OF SENATOR SLADE GORTON

    Senator Gorton. This hearing will come to order.
    I am pleased to recognize our witnesses, Jim Lyons, Under 
Secretary for Natural Resources and Environment, of the USDA, 
and Mike Dombeck, Chief of the Forest Service, both of whom are 
familiar with this subcommittee, and have testified frequently 
in the past.
    Before we take up the Forest Service budget request for 
fiscal year 2001 let me make a few observations about the 
current fiscal climate in which the subcommittee must do its 
work.
    We are close, I think, to a debate over a budget resolution 
for 2001. That resolution is likely to recommend a non-defense 
discretionary spending level that is similar to this year's 
level, or has perhaps an inflationary increase, and is perhaps 
as much as $30 billion less than the administration's overall 
budget authority request. As a consequence, this subcommittee 
can expect that its allocation will be considerably less than 
what the President requested.
    I do not see how Congress is going to be able to provide 
more than $1 billion in increases proposed by the President for 
this year's Interior and related agencies bill. It is in this 
context that we look at the Forest Service budget today, as 
well as the budgets of all of the other entities that go within 
our jurisdiction.
    The President proposes to increase the agency's budget by 
about $230 million, or 8\1/2\ percent. I must tell you that I 
find the priorities in the budget troubling. The most 
significant increases, for example, are for research, $13 
million, the purchase of conservation easements, $30 million, 
land acquisition, $51 million, recreation, $49 million, and 
planning and monitoring, $65 million.
    I can and will support additional funds for public 
recreation on our national forests. I am also personally 
intrigued by the purchase of conservation easements, the 
retention of the property in private ownership, and its 
preservation in its present form which is often highly 
desirable.
    I do find it difficult, however, to support large increases 
for the Forest Service to do seemingly endless amounts of 
planning and to count various fungi and mollusks, while 
critical programs like fire preparedness, reconstruction and 
maintenance, and timber sales are slated for decreases. I hope 
that we will get an explanation for these priorities today.
    Perhaps the most significant aspect of this year's request 
is a massive restructuring of the budget. This proposed 
restructuring would reduce the number of line items in the 
National Forest System appropriation from 20 to 3. The need for 
this restructuring is suggested not only by the Agency, but 
also by the National Academy of Public Administration, which 
prepared a report on the Forest Service budget pursuant to 
congressional direction last year.
    According to both the Academy and the Forest Service, the 
current budget structure does not reflect the integrated nature 
of the agency's work. Indeed, agency personnel must often 
decide how to charge the total cost of a project with multiple 
benefits across 15 or more line items.
    The way the cost of a project is charged can become quite 
arbitrary, and the number of entries required in the agency's 
books overwhelms the agency's accounting system. The simplified 
budget structure and a new accounting principle advocated by 
the agency, called Primary Purpose, would mean that most 
projects would be funded from a single line item. Clearly, a 
simpler budget would make the accounting tasks much easier.
    I am sympathetic to attempts to improve the fiscal 
accountability of the Forest Service, and I have been 
encouraged by recent statements by the General Accounting 
Office that indicate that the agency is making progress on 
getting its fiscal house in order. There are, however, a number 
of aspects of the proposed restructuring proposal that I find 
questionable. Let me give a bit of detail on that subject.
    We have had great difficulty in agreeing to on-the-ground 
management objectives with the administration. In fact, I 
believe that many of my colleagues feel that the agency 
frequently ignores congressional direction or oversight. For 
example, the agency is now engaged in a major new rulemaking on 
roadless areas for which money was never requested in any 
budget.
    We are still trying to determine how much this effort will 
cost and what other critical activities are being neglected 
while personnel are diverted. It seems to me that in this 
environment providing the Forest Service with more discretion 
with respect to how it spends appropriated dollars may give 
Congress even less control over how the Service spends money 
and what is being accomplished.
    Another problem I see with changing the budget structure is 
that the NAPA report, which forms the basis for the proposal, 
contains other important recommendations that the Forest 
Service has not addressed.
    These other recommendations include the development of 
criteria that would do a better job of basing field allocations 
on agency priorities and establishing better links between 
annual performance and the agency's strategic goals and 
objectives. Since these issues have yet to be addressed, I am 
concerned about whether it is prudent to go forward on a 
piecemeal basis.
    Finally, I believe that the Agency's performance-based 
budgeting philosophy needs more work. As I understand it, the 
agency is asking the Congress to worry less about what pot of 
money funds are put into and more about what is being 
accomplished with the dollars. Accomplishments would be judged 
by performance measures developed by the Forest Service. The 
performance measures, however, that we have seen are seriously 
deficient.
    As the General Accounting Office found, most of them 
confused quantity with quality. For example, the performance 
measure for the hazardous fuels program is the number of acres 
treated. This measure encourages the agency's field offices to 
focus on the easiest and least costly areas to maximize the 
number of areas treated, and, thus, show high performance. Many 
of the top priority areas for fuel reductions, however, are in 
the urban interface where the cost of treatment is the 
greatest. Performance measures should be developed that show 
not only what the agency is doing, but also whether it is doing 
it well.
    Another problem with the performance measures is that there 
are many groups that measure their satisfaction with the Forest 
Service budget based on how much funding is included in the 
budget line items associated with their particular programs. 
The Forest Service has encouraged this approach.
    Many groups are not certain that the specific measures that 
are being proposed will provide them with the same quality of 
information they feel they currently get from the existing 
budget structure. It may be appropriate to establish a 
collaborative framework in which interested stakeholders can 
provide input on the development of performance measures.
    I hope the witnesses can address the concerns that I have 
raised today with respect to the budget restructuring proposal. 
I know we have struggled over differences on policy issues. As 
I said last year, however, we should all be able to work 
together to create a better budget structure that enhances the 
ability of the Service to account for appropriated dollars and 
to get work done on the ground.
    Now, my partner in this effort, Senator Byrd.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. I am going to be your partner, also, in 
sharing the concerns you have expressed. I will be very 
interested in hearing the explanations of the witnesses to 
those concerns.
    I will have some questions of my own dealing with those 
same concerns, but I would like to take the opportunity to say 
how much I look forward to working with you again, Mr. 
Chairman, this year on the Interior bill. It has been a 
pleasure thus far to do so.
    Again, I salute the chairman, who I think is as good as any 
chairman. He is effective, well prepared, and is as 
knowledgeable as any chairman with whom I have served, and I 
have been on this committee longer than anybody who has ever 
served. I am in my 42d year on this committee.
    So I thank you for the many courtesies that you always 
extend to me, and for the courtesies extended by your staff to 
my staff.
    These are all the hallmarks of the close relationships that 
we on the Appropriations Committee have developed. This bill 
could not become a reality without a commitment to work 
together, and the dedication of members like you. I thank you 
for that.
    Now, to the witnesses: Let me welcome Under Secretary Lyons 
and Chief Dombeck. You are here first and foremost, of course, 
to present the administration's fiscal year 2001 budget request 
for the Forest Service.
    At more than $3.1 billion, an increase of nearly 10 percent 
over fiscal year 2000 enacted levels, this budget presents an 
ambitious, some might say unrealistic, agenda for your agency. 
Beyond merely providing this committee with copies of the 
request, you are here to answer some questions on a range of 
topics that are important to the American people as a whole, 
and to our respective constituents, in particular.
    There are, as there have been in the past, some rather 
contentious issues facing the Forest Service today. Timber 
harvest, grazing on Forest Service lands, roadless areas, 
backlogs of watershed maintenance, and basic matters of agency 
accountability. Let me say that again--basic matters of agency 
accountability and efficiency, all of these and more bear 
looking into.
    As we proceed, I will have several questions of my own 
related to the Forest Service facilities located in West 
Virginia. I will be interested in knowing, for example, why the 
administration has chosen to stop funding the ongoing work of 
upgrading the antiquated radio systems at the Monongahela 
National Forest. I think a good argument can be made, and I 
fully intend to make it, that this project is not some 
frivolous pie-in-the-sky endeavor. On the contrary, a modern 
communication system is absolutely central to the safety and 
well-being of not only Forest Service personnel, but also the 
nearly 2 million Americans who will visit the Monongahela 
National Forest this year.
    As is customary, I will reserve my specific questions until 
after the witnesses have had an opportunity to offer their 
testimony. I look forward to hearing your statements. I trust 
that you are prepared to provide the American taxpayers with a 
full accounting of the activities of the Forest Service. Thank 
you.
    Senator Gorton. The chairman of the full committee, Senator 
Stevens.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Mr. Chairman, it is with great sadness 
that once again I come to this subcommittee as a former 
solicitor of the Interior Department to make the statement that 
I am going to make.
    I will try to get back, but we are having battles on the 
budget, as you well know, all of you, and I may not be able to 
get back. But I will say to our friends from the Forest Service 
that when I came here the cut from the Tongass was a billion-
and-a-half board feet a year, on a 100-year cutting cycle, a 
scientifically created one by your predecessors.
    We then entered into the Tongass Timber Reform Act, carried 
through by Congressman Udall, which cut that down to 450 
million board feet. This administration has now, through a 
series of actions, including the resolution of 30 
administrative appeals without public review, removed another 
100,000 acres from the timber base, and cut the allowable sale 
quantity by a third.
    With the roadless areas being proposed now for the Tongass, 
contrary to the provisions of the Jackson amendment to the 1980 
act that said there would be no more withdrawals of any kind in 
Alaska without congressional approval, there will be less than 
400,000 acres available out of a 17-million-acre forest for 
harvesting timber.
    We believe that the net result will be that the total 
amount available for sale in Alaska will be under 100 million 
board feet.
    Now, I cannot think of any time when an agency has been so 
derelict in its duty to maintain the concepts of the national 
forest. Mr. Chairman, I will oppose any increase of any kind 
for the Tongass this year.
    The proposal in the budget is to increase the number of 
people that come to Alaska to determine how much more of it 
should be set aside, not to determine what should be made 
available for those who make their livelihood off harvesting 
that timber.
    I would invite you sometime to come up to the Admiralty 
Island. Most people who came to Alaska in the seventies did not 
know that Admiralty Island was cut over in the sixties, and 
today it is a wilderness area.
    The regrowth capability of this forest is enormous, but 
this administration has now completely turned the Tongass 
National Forest into a national park, and I see no reason why 
we should continue to hire people from the Forest Service to 
run a national park.
    I cannot tell you the number of times I have been here 
before and complained about this or that, but this time we are 
at the bottom. You just cannot run a timber industry with 100 
million board feet out of a 17-million-acre forest, and I think 
you have been duplicitous, you have not followed the law, and 
as a matter of fact, if I was Solicitor of the Interior 
Department, I would proceed to somehow or another bring some 
action against you for invading their jurisdiction with your 
actions.
    You really have made Southeastern Alaska a national park, 
and I think there are a few people in Alaska that might welcome 
that, but very few, I am sorry to tell you.
    I will have some other suggestions about this budget as a 
whole. I do not believe that the Forest Service should continue 
to keep people on the payroll who are there to manage 
harvesting timber and overlay them with people who tell them 
they cannot harvest timber.
    It is going on all over the country, and this budget is way 
out of whack. Before we are through this year, I hope it is 
substantially lower than the request.
    Thank you very much.
    Senator Gorton. Senator Kohl.

                 OPENING STATEMENT OF SENATOR HERB KOHL

    Senator Kohl. Let me say that the atmosphere in Northern 
Wisconsin, when it comes to forest issues, is not nearly as 
charged as it is in the West. I wish the Forest Service paid 
more attention to the differences between the East, when it 
comes to forest issues in Wisconsin, and the West, especially 
when you formulate policy.
    Unlike Western States, although Wisconsin is heavily 
forested, 46 percent of our State, only 10 percent of our 
forest land is federally owned. In this context, imagine my 
surprise when representatives of Wisconsin's 72 counties came 
to me several weeks ago, and their number one issue of concern 
was the Roadless Initiative, even though only 8 to 10 counties 
may be directly affected by the proposals.
    If these counties are so vehement, I am concerned that 
relations with the Forest Service are seriously deteriorating, 
despite a good history of working together, even when there 
were disagreements. The counties have even considered suing the 
Forest Service.
    I believe that many of the concerns are a result of a lack 
of information about how this proposal will be implemented. I 
share the administration's desires to protect sensitive 
forestland, but we must do so in a way that is respectful of 
those who live in forest communities, recreational users, and 
those who rely on the forest for their livelihood. I will have 
questions at a later time.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman.
    Let me start by saying that my personal relationships with 
the witnesses here have been very good. I have found them to be 
responsive when we have had specific kinds of problems in Utah, 
and very anxious to answer my phone calls and talk through the 
issues, and I have to make sure the record reflects that, but I 
have no personal animosity. Indeed, I have personal gratitude 
to both Mr. Dombeck and Mr. Lyons and their staff for their 
willingness to work with us.
    I do have some of the same problems with the general 
policies of this administration with respect to the Forest 
Service that my colleagues have. I would not be responsive to 
the cries of anguish that have come out of Utah if I did not 
have those concerns.
    The only comment that I would make to add to those that 
have already been made with respect to the Roadless Initiative, 
and other comments, is this general philosophic comment that I 
want to get on the table. There is an assumption that if an 
area goes roadless, it is, therefore, protected, that if an 
area walls out human beings it is, therefore, protected, and 
the next assumption is, if it is protected, things get better.
    So behind that assumption is that man is a predator, and 
that man destroys wherever he goes, and that pure nature is 
benefitted if human beings can be walled away from it forever.
    We have an example in Utah, which Mr. Dombeck is familiar 
with, but which I need to get on the record before the 
subcommittee, which I think flies in the face of that. Because 
of certain management procedures during this administration 
with respect to certain portions of the Dixie National Forest, 
because of the 32-cent appeals, I guess it is now a 33-cent 
appeal, that have been honored as a group with nothing more 
than a letterhead and a stamp, puts in an appeal that stops 
everything until the appeal is handled, and thereby shuts down 
any kind of intelligent activity, from my point of view, we 
have beetle infestation in large parts of the Dixie National 
Forest, which infestation is killing the forest.
    If the Forest Service were managing the forest, it would be 
in better shape. Human beings do not destroy the forest when 
they enter it. Human beings do not interfere with benign 
nature.
    Nature many times can be anything but benign. Nature causes 
earthquakes. Nature causes avalanches. Nature causes eruptions 
of volcanoes, and nature causes beetle infestation that kills 
trees, and we have trees that are being killed because of the 
philosophy that says that human beings should not be allowed 
into the Dixie Forest to in any way interfere with nature, and 
then we are being told we cannot harvest those trees that are 
already dead, but still useable as timber.
    I think the whole rethinking of this notion that somehow 
protection means ignoring what is going on in nature is wrong, 
and the ultimate responsibility of the Forest Service, it seems 
to me, is to see to it that when you are through things are 
better than they were when you started, and there are certain 
portions of the National Forest in Utah where I have to look at 
it and say, when this administration is through, the forest 
will be in worse shape than it was when this administration 
started, and I find that very difficult.
    Now, I do not call up the kind of anger and excitement that 
my chairman from Alaska does, but I do think this is a 
philosophical point that could be applied in Alaska as well, 
and I would hope that this administration would think about 
that for a while.
    Again, as I say, the legacy that I would hope any 
management of the Forest Service would leave would be that at 
the end of its term the forests are in better shape than they 
were at the beginning of the term, and I can take you to places 
in my State where that is not true.
    With that, Mr. Chairman, thank you, and, again, I close as 
I began, I have no personal animosity towards either of these 
witnesses, because I have found them very approachable and 
helpful, but I do have that general philosophical point of view 
that I think ought to be on the record.
    Thank you, Mr. Chairman.
    Senator Gorton. Senator Leahy.

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman, and Secretary 
Lyons, Chief Dombeck, and your colleagues. I am happy to see 
you are here, probably happier than you are to be here, but 
thank you for coming up. I, too, have found that I have had 
calls or questions that have been answered very quickly. We are 
trying to give you the white-haired, bald-headed compliments 
here from both sides of the table.
    Chief, I want to single out one particular thing, because I 
may have to be at another hearing, and that is to commend your 
support in this year's budget for the Forest Legacy program.
    In my own State of Vermont, that is considered over 35,000 
acres, and it has created some very valuable partnerships 
between local, State, and Federal agencies, and in a little 
State like Vermont, 35,000 acres is a great deal, but the land 
conservation, as you know, is only one part of the picture if 
you are going to maintain viable continuing forested 
communities.
    I think you have to add economic assistance to those 
communities. That is an essential component to maintain the 
vitality of these royal areas.
    So I am concerned that the budget does not include a 
comparable level of support for economic development programs, 
such as the economic action programs, and the forest 
stewardship programs. In fact, the administration's request is 
a lot less than last year's.
    On one hand we have the Forest Legacy program, support for 
that, a very good thing, but we need more support for the 
economic action programs and the forest stewardship programs; 
otherwise, you do not have a balanced effort to preserve, not 
just the rural landscape, but a sustainable landscape in rural 
America.
    I want Chairman Gorton, Senator Byrd, and you, and others 
to know that a number of us are working on a letter, with 
Senator Bond, Senator Lugar, and Senator Murray. This is a 
letter that is going to have 40 signatures in support of 
increasing these economic development programs.
    The question I would have for you at some point in your 
testimony is whether you agree that the committee should 
continue to support these economic development programs, and 
what they do for the economic vitality. It is a careful balance 
that you have to work out, but unfortunately it is a balance 
that cannot be sustained without enough money into the 
community. So Slade and Bob, we will have this letter. We will 
be encouraging more in that area.
    I thank you for having this hearing.
    Senator Gorton. Senator Craig.

                OPENING STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Thank you very much, Mr. Chairman.
    Senator Kohl, let me address first of all the question and 
the comments you have just made, because they are so paramount 
in all that we are doing now with the Forest Service. I chair 
both of the forestry subcommittees of this Senate, and I must 
tell you that the roads initiative that your counties are 
concerned about is one that the West is all but ready to revolt 
over.
    The irony of this in the hearings that we have had with all 
of these gentlemen here is that when our States ask to be 
participants, and I believe now five or six State Governors 
have asked these gentlemen to become involved as cooperating 
agencies in trying to sort out these new relationships and 
potentially new designations of this roadless land, they were 
told no, even though this administration, over a good number of 
years has talked about the concept of cooperating agencies, and 
bringing States into the decision-making process.
    My State of Idaho has 8.2 million acres of this land that 
is being considered now. It is, without question, key to my 
State's future in so many ways, and yet my State is being told, 
stand back and stand down.
    Our State filed a lawsuit sometime ago, dismissed by a 
Federal judge, because the issue had not ripened enough, but 
the Federal judge at that time admonished the Forest Service to 
involve the States and the Federal--these gentlemen right here 
said no. The reason is they have a time schedule they must stay 
to. It is an agenda that has a great deal of politics tied to 
it, sadly enough.
    New lawsuits have been filed as this issue ripens, and more 
lawsuits will be filed, and we will look at a variety of 
aspects, and I will probably have to become a participant in 
most of those, because they are ignoring the impact of States 
out west.
    We have State lands that are tied up inside these Federal 
lands that could be locked away, and, of course, those lands 
directly involve State funding, State agencies, mostly schools, 
education, or denied access to them, or management of them. It 
could damage the economy.
    So that is one issue that I would very much like to visit 
with you about in detail, because it has neared a crisis 
situation in the West and in large public land States, but it 
affects all States that have U.S. forestlands, as the right of 
the State to somehow participate to some degree in the future 
land designations and uses of these forests.
    Mr. Chairman, my comments today will probably come mostly 
in questions, so I will spend most of the morning with you 
here, because there are some key questions. I have some of the 
very similar concerns that the Senator from West Virginia has 
expressed about this budget, and its priorities, and the 
accountability of this agency and their commitment to that 
accountability, and somehow their inability to get to that 
point. I think that is very important for us.
    There are a lot of other issues that I will be dealing with 
as we move through these questions, but thank you very much. We 
ought to hear from these gentlemen and get on with the 
questions.
    Senator Gorton. Senator Domenici.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Mr. Chairman, I am struggling to get a 
budget that has enough money in it for you to have something to 
appropriate.
    Senator Gorton. I hear you talking.
    Senator Domenici. I am not very preoccupied with this 
hearing, except on some drought issues and emergency issues, 
and in my turn I will ask about issues.
    Senator Craig. Mr. Chairman, I just wanted to correct the 
record, especially for Senator Kohl. His Governor has asked for 
cooperating agency status, and that has been denied. Thank you.
    Senator Gorton. We are going to have a vote fairly soon. We 
have a large number of members here, and with Senator Byrd's 
permission I am going to ask members like Senator Domenici and 
Senator Kohl, if you have a relatively small number of 
questions, we will let you go now, and then you will not have 
to come back after the vote is over.
    So I will start with you, and if it is all right with my 
colleagues, with Senator Domenici, who has this whole budget to 
do. We will hear your full statements, but it will be after we 
come back from the vote.
    So, Senator Kohl, please go ahead.
    Senator Kohl. Thank you, Mr. Chairman.
    My questions are on the Roadless Initiative. For the State 
of Wisconsin, of course, there are reports that 69,000 acres in 
the Chequamegon Forest are inventoried roadless areas, which 
will be affected by the Roadless Initiative. There seems to be 
some confusion about where these acres are actually located. 
When will we know exactly where these 69,000 areas are located?
    Mr. Dombeck. Senator, we have that information. In fact, 
after the hearing is over, I am traveling to Milwaukee to meet 
with the regional leadership team. So that information is on 
the Web. We have that mapped. Those areas have been 
inventoried. I think there is much confusion over where they 
are, and knowing where they are is not the issue, I do not 
believe.
    Senator Kohl. Thank you. Can you clarify what is meant by 
inventoried roadless areas? Are these areas truly roadless? For 
example, in phase one, one option identified is to prohibit 
road construction or reconstruction in roadless areas. If these 
areas are truly roadless, why would you need to prohibit 
reconstruction?
    Mr. Dombeck. The 69,000 acres on the Chequamegon and 
Nicholet National Forests were inventoried under the RARE I and 
RARE II exercises that occurred in, I believe, the late 
seventies. Some of those areas may have trails, other kinds of 
things that had never been classified, and have never been 
inventoried in any way.
    Senator Kohl. Will more forestlands beyond the 69,000 acres 
in Wisconsin be set aside when phase two of the Roadless 
Initiative is implemented? How many acres will be included in 
phase two? I know you may not have the exact numbers, but does 
anyone in the Forest Service have even an estimate?
    Mr. Dombeck. Let me point out that on the roadless proposal 
now, the proposals are in the process of being developed based 
upon the scoping meetings that we have had around the country.
    The current thinking, as this evolves, is that part two 
would basically be a local decisionmaking process. We would ask 
the local communities to take a look at what is important to 
them with regard to values, and then make that determination. 
It is just like the decision as to whether something is 
officially a road or needs to be decommissioned, or whatever. 
Those decisions all need to be made at the local level.
    There are some interesting facts with the Chequamegon and 
Nicolet, however, and that is that there is virtually no impact 
on timber volume. Essentially, these forests are roaded. In the 
Chequamegon and Nicolet we have--79 percent of these national 
forests are within a \1/4\ mile of an existing road. So it is 
an area of concern. We really have limited impact.
    Senator Kohl. I have heard from a number of people who are 
concerned that they were unable to attend meetings on the 
Roadless Initiative because they were too far away. Why were so 
many of the public comment sessions that were held during the 
scoping period located far from the affected forest 
communities, and will you make an effort to hold future 
meetings closer to the affected forest communities?
    Mr. Dombeck. Yes, we will. Of the 185 meetings that we 
had--and I believe we did have one on or very near every 
national forest--we are planning a two-staged approach.
    When the proposal is out there and all the information is 
available, there will be a round of public meetings--with a 
meeting on every national forest as well--to make sure people 
understand where the data are, the maps that are available. 
They can take a look at that information, take it back and 
digest it, and understand what it really means. Then, after a 
period of time, they can come back and comment on that 
information. So we are looking at extensive public involvement 
on an issue that has been very, very challenging for the Forest 
Service and, I think, for everyone here for a long, long time.
    If we can get this issue behind us, so we can dedicate more 
energy to areas of agreement, I think it will be to everybody's 
benefit.
    Senator Kohl. Last question. I have been following with 
interest the Path Initiative and Partnership for Advanced 
Technology for Housing Act. This initiative to speed the 
creation and use of advanced housing technologies will help 
make housing more affordable and attractive, while conserving 
our wood fiber resources.
    Since it was launched in 1998, PATH has earned the support 
of the major wood industry associations and the housing 
industry. The Forest Products Lab is taking the lead in this 
initiative, with its research in woodframe housing. More than 
30 universities across the country are poised to participate in 
PATH.
    The funding required to fully implement and maintain the 
Advanced Housing Research Center at the Forest Products Lab, so 
that all of the partner universities can participate is $10 
million annually.
    Does the Forest Service support PATH? Can you tell me why 
there is only $1 million in the budget for the PATH Initiative?
    Mr. Dombeck. We are very, very supportive of the PATH 
program. In fact, the part of the equation that we also need to 
spend more time on when we talk about supply and demand with 
timber is the efficiency of use. We currently now recycle about 
40 percent of our paper. Well, there is 60 percent more that we 
can focus on as we deal with the supply and demand issues.
    I am really proud of the work that is going on with the 
Forest Products Lab in Madison. Robert Lewis, our Deputy Chief 
for Research, is here, and is intimately familiar with that, 
and I will have him give you the details.
    Mr. Lewis. Thank you, Senator. The PATH program, we 
believe, is an outstanding one, and at the Forest Products Lab, 
as well as here in the Washington office, we have been working 
to develop that initiative.
    As you pointed out, we have been working with our partners, 
who are very much interested in advancing this. We have a 
request of $1 million of new money in the administration's 
budget.
    This is the first year of the initiative that we hope will 
pay good dividends down the line. You can be assured that we 
will continue to support it in out-year budget planning.
    Senator Kohl. Thank you, Mr. Chairman.
    Senator Gorton. Senator Domenici, we will let you have your 
questions, so that you can go on to other work, and at that 
point we will take a recess while we vote.
    Senator Domenici. I just have a question that relates to 
two things. It may be irrelevant, because Mexico may have 
received an onslaught of moisture in the last 2 days. If we got 
2 or 3 days, these questions will not be terribly relevant. But 
certainly last Friday, if you would have been here, they would 
have been very relevant, so I think they remain so.
    As you know, we are in a big drought in the Southwest. New 
Mexico and Arizona, in particular, are predicted to have very, 
very significant difficulties this year.
    You are behind schedule with reference to some of the 
mitigation activities regarding fire danger in the national 
forests, and I discussed this with you last year, but could you 
tell me what specific measures are being taken to mitigate fire 
danger in New Mexico, and in particular, Arizona and related 
States, and do you need some reserve money, if we do an urgent 
supplemental for such a thing as a drought emergency in this 
area?
    Mr. Dombeck. We will be taking a look at that. The drought 
situation is severe in the Southwest, and, in fact, the band of 
drought goes across Texas and into Florida. We have a tough 
situation. Thank goodness, just recently, Idaho and other 
places north have gotten more precipitation following the 
pattern as we had last year.
    We are allocating more fire prevention dollars. We have had 
continual increases from 1998, 1999, to 2000, and we are going 
to continue to do that. I might ask Janice McDougal, from our 
State and Private Forestry program who manages the fire effort, 
to give us some more details.
    Ms. McDougal. Senator, we have been paying very close 
attention to the drought conditions in the Southwest. We have 
not yet received a severity request from the region. This money 
would allow them to bring on the people they need just in case 
there is a severe outbreak of fire.
    We also understand that $150 million could be included in 
the supplemental package that is being developed for that.
    Senator Domenici. Has there been a request for that money?
    Ms. McDougal. Yes.
    Senator Domenici. Were you aware of that, Mr. Dombeck?
    Mr. Dombeck. Yes.
    Senator Domenici. Thank you. With reference to a National 
Drought Policy Commission, are you familiar with that----
    Mr. Dombeck. I am, Senator.
    Senator Domenici [continuing]. Do you represent the 
Secretary on that?
    Mr. Dombeck. Actually Deputy Secretary Rominger co-chairs 
that effort.
    Senator Domenici. Could I ask you, is your department 
concerned about what ought to be in that report, in terms of 
Forest Service emergencies that are caused by drought? As we 
look at the Federal law, drought as an emergency is one of the 
incidents of severe damage that has no real assistance 
provisions.
    You can run out of rural water wells, and it could be the 
equivalent of losing a sewer system or a water system, but we 
do not have any way of helping these people in a severe 
drought. Are you participating as a Department to get specifics 
in the National Commission's recommendations?
    Secretary Lyons. I will have to visit with Deputy Secretary 
Rominger on that specific point----
    Senator Domenici. Would you?
    Secretary Lyons [continuing]. Mr. Chairman. I will be glad 
to do that. I know Rich and I have talked both about the 
wildfire issues, as well as the potential impacts on 
agriculture.
    Senator Domenici. Would you put that in the record after 
you have consulted as to what you-all are thinking about in 
that regard?
    Mr. Dombeck. We will be pleased to do that, and we will 
send you a letter as well.
    Senator Domenici. I thank you. Thank you very much.
    Senator Gorton. We apologize, but as you know, we have a 
vote now. We will recess. When we come back we will allow both 
of you, invite both of you, to make your opening statements, 
and then go on with questions. Thank you.
    Senator Bennett [presiding]. The subcommittee will come to 
order. Senator Gorton has asked that we get started as he 
votes, and Senator Craig has a series of questions prepared.
    So, Senator Craig, we will recognize you.
    Senator Craig. Thank you very much, Senator Bennett.
    Jim and Mike, we are going to wait for your opening 
statements until the chairman and the ranking member return. I 
have a series of questions that I will ask for the record up 
until that time.
    First of all, Chief Dombeck, we have just sent down to you, 
as of yesterday, I believe, some revising efforts on our part. 
When I say ours, Senator Ron Wyden and myself, as it relates to 
the issue of the timber-dependent school district. We would 
hope to do markup by next Wednesday, and would like to have 
your comments back or reactions to that prior to that if we 
could. Is that something that we could expect you could respond 
to?
    Mr. Dombeck. Well, we hope to. We will sure make that a 
priority. As I have said in the past, I think that of all the 
issues that we are working on, that is one that I think that we 
are all hopeful that we can resolve some of the differences and 
move forward with. It is a very high priority for us.
    Senator Craig. Well, we are working from your language, so 
we hope that that is an effort to accommodate, so we can move 
this thing forward. I have a sense that we may be closer than 
some would like to have us at this moment, and if that is true, 
maybe some good policy could occur.
    Let me go on to ask questions. As you know, for the last 
several years, the Forest Service and the Idaho delegation has 
worked together to purchase conservation easements in the 
Sawtooth National Recreation Area.
    This program has worked well to protect the traditional 
ranching industry of the area, recognizing the private property 
rights, and conserving the beauty of the area, perhaps one of 
the crown jewels of the national forest system.
    It was unique when it was originally created, in that it 
was a combination of a natural area, and an alpine ranching 
valley, in an effort to maintain the pastoral setting that had 
become so well known in Idaho in that part of the West.
    This year, the administration requests $5 million for these 
easements; however, according to a March 13 letter by your 
forest supervisor, Bill Levere, $12.5 million in additional 
money is needed to purchase the easements for the current 
willing sellers. I guess, Jim, this is a question of you, 
because you and I have visited about this issue.
    I think we are all concerned of the bidding war that goes 
on out there over scenic easements, when we cannot keep current 
and respond to them, and get them acquired, as was the intent 
of the law and the original legislation that created the 
Sawtooth National Recreation area. I know that you had talked 
about a desire, as is mine, to try to get this problem out of 
the way sooner rather than later.
    I am not sure that we can do that this year, or are 
prepared to do it. Senator Crapo and I request that the $12.5 
million be included in the fiscal year 2001 budget. Is the 
Forest Service prepared to support that amount?
    Secretary Lyons. Well, Senator, let me take one step back 
and revisit our conversation, because I, too, share a desire to 
resolve these issues, and have worked very closely with you, 
your colleague, Senator Crapo, with the Sawtooth Society, 
Bethene Church, Senator Church's widow, and former Governor 
Andrews to try to pull these pieces together.
    I know Bill has made this estimate of $12.4 million. I 
cannot give you a point-blank estimate of what we are willing 
to support. I think the way to address this--and this is what I 
proposed to you previously and would like to pursue--would be 
for all of us to sit down at a certain time. I have actually 
asked my staff to look into a possible meeting in early May to 
get a handle of where willing sellers remain, the estimated 
property or, in this case, easement values, and the best way to 
get at that, whether it is $12.4 million, whether it is 
something less or more, whether we can do it in 1 year or 2 
years.
    My understanding is that not all the properties have been 
lined up, that is, not all the agreements have been reached.
    Senator Craig. That is correct.
    Secretary Lyons. My goal, and I know you share this, given 
our conversations, is to try and avoid the value-creep that 
comes of each last parcel awaiting its turn to come in line for 
acquisition easement. So I would suggest we sit down with the 
appropriate officials. I have talked to the lands staff at the 
Forest Service, if you are willing to do that with Senator 
Crapo----
    Senator Craig. Sure.
    Secretary Lyons [continuing]. And the colleagues in the 
Sawtooth Society. We figure out what it is going to take. Then 
I commit to work with you to try and secure the resources to 
make sure we can finish this once and for all. I know you, and 
Senator McClure, and others who were instrumental in the 
legislation, would like to see it completed.
    Senator Craig. Well, I am very willing to accept that 
initiative. I would like to get our hands around the issue and 
the values. We have already had phenomenal creep in values 
compared to what the original easements were purchased for, but 
then, of course, values have changed, in a real sense. So let 
me say, yes. Let us work on a date----
    Secretary Lyons. Very good.
    Senator Craig [continuing]. And see that we can come 
together to get that done. Of course, I would suggest sooner 
rather than later, as we work on this budget and the 
priorities. Hopefully, we can get more achieved this year than 
less, even if it is a 2-year cycle, and our effort to resolve 
takes that kind of time.
    On February 14, President Clinton asked Secretary Glickman 
to present his recommendations regarding whether appropriate 
stewardship of the giant sequoia groves warrants exercise of, 
quote, ``My authority under the Antiquities Act.'' I do not 
think it is any secret of my opposition to the way this 
President has used that act. It is no small coincidence that 
these designations come, in my opinion, in a prime election 
year. I think they are as political as they are conservation 
driven, and I have always viewed that as pretty shameful, in a 
misuse of the act itself.
    My colleague to my right had his State trampled in the last 
electoral process by that kind of an initiative, and there is a 
great apprehension out in the West, as it relates to our lands, 
and how that act might get used.
    The Secretary has received a request recently to appoint an 
independent panel of experts in giant sequoia matters to 
provide an unbiased review of the available scientific 
information. Does the Secretary plan to appoint such a panel 
prior to forwarding his recommendation to the President? Do 
either of you know of that?
    Mr. Dombeck. What I can tell you--I do not know the 
specific answer to that question--but I do know that I have 
asked the forest supervisor of the Sequoia National Forest, the 
regional forester, and a local team to take a look at this 
whole effort.
    They have had a couple of public meetings to make their 
recommendations to us, which we will then forward to the 
Secretary. I know that they are keen on the need for a 
scientific panel.
    Secretary Lyons. Senator, if I could just amplify one 
thing, and that is to recognize your concern about process. I 
think you also recognize the public concern, the fact that half 
of the giant sequoia groves that remain are part of the Sequoia 
National Forest, and a strong belief that through proper 
stewardship they should obviously be retained as a unique 
legacy to this country. That is the reason we are proceeding 
with this initiative, and the Secretary directed Mike to 
proceed with the analysis.
    Of course, we had two rather vociferous hearings recently 
in another part of the world. I think it is clear that there 
are concerns that need to be addressed. We seek to do this in a 
way that not only invites public participation, but ensures the 
best scientific guidance in the management of those groves, and 
also close coordination with the Park Service for the groves 
that they have under their jurisdiction, should a 
recommendation move forward to create a monument.
    Senator Craig. Well, Jim, it would be a bit of a precedent 
to involve the public in an antiquities move. You have not done 
that in the past. In fact, in the past you have not even 
consulted Members of Congress.
    The President directed the Secretary to consult with the 
appropriate Members of Congress during his review process. Do 
you know if he has, and whom that might be.
    Secretary Lyons. I would have to follow up on that, 
Senator.
    Senator Craig. OK. Do all of the area Members of Congress 
support the new national monument concept there?
    Secretary Lyons. Again, from some conversations, I know 
there is interest. I think it depends on who you are referring 
to specifically.
    I do not want to characterize particular Members' views on 
this, but there have been some concerns expressed about local 
impacts, obviously. There are others who have been very 
supportive and concerned about retention of the groves.
    Senator Craig. Sure. Well, I think all of us recognize the 
tremendous value of the giant sequoias. One last question in 
that realm, the chairman is here, and I know he wants me to 
move on.
    Senator Gorton [presiding]. You can finish your questions, 
Senator.
    Senator Craig. OK. Thank you, Mr. Chairman.
    In the last few days I have been contacted by a group of 
people who use Hume Lake Christian Camp. The camp is private 
property, and from what I understand, is located entirely 
within the boundaries of a proposed national monument. These 
people are scared.
    I think that is the only way I can express the emotion I 
sensed from conversations with them. They are scared that the 
Forest Service will attempt to control what they do with their 
private property, all in the name of protecting these 
magnificent sequoias.
    I realize that the monument does not exist yet, therefore, 
no management plan is in place. However, Secretary Glickman 
will be making recommendations to the President soon, and I 
would hope that this administration would be sensitive to these 
private property needs.
    I think any private property that would find itself located 
within a national monument would all of a sudden find itself 
having a different kind of relationship than it had in a non-
national monument setting, access, restrictions, that kind of 
thing, and I think that the Hume Lake Christian Camp has 
expressed that to me.
    They are very frustrated, and bluntly put, they are 
frightened, because they have seen what has happened with this 
agency and these kinds of dictates in the past.
    Secretary Lyons. Well, Senator, obviously, uncertainty 
breeds fear and concern. I want to emphasize two things. This 
administration is committed to protecting the property rights 
of individuals and entities such as the church that you 
identified.
    Under ANILCA, of course, we are required to provide access 
to in-holders and private individuals. We intend to respect 
those private property rights, both in the context of what we 
are reviewing here--the presidential direction to consider the 
creation of the national monument for the giant sequoias--and 
also in the context of our discussions on the future of 
roadless areas.
    Senator Craig. Well, I appreciate you saying that. I have 
seen some very ill-thought-out processes rushed on by politics, 
where private property rights were not recognized until after 
the fact.
    Senator Bennett. Senator, would you yield?
    Senator Craig. I would be happy to yield.
    Senator Bennett. When the national monument was created in 
Utah, I decided somewhat facetiously that it was drawn with a 
soft crayon somewhere in the bowels of the Interior Department, 
because some of my constituents woke up the next morning to 
find that portions of their driveways were in the national 
monument.
    I would hope that you would be a little more exact in 
drawing the boundaries of this one than of the last one.
    Secretary Lyons. We will use a fine-point pen, I can assure 
you, Senator.
    Senator Craig. That is why I bring it up now. Well-worn, 
folks, let me put it that way. Do your homework and do it well, 
and do it publicly. This closed door politics has got to stop 
when it comes to re-designation of the public lands. It is a 
public process, that this policy-making body requires.
    The Supreme Court spoke yesterday to an over-extension of 
agency authority, and this Congress is going to react. So 
please do it right.
    Secretary Lyons. Thank you, Senator.

                 SUMMARY STATEMENT OF HON. JAMES LYONS

    Senator Gorton. It might be appropriate now to let the two 
of you make your opening statements.
    Secretary Lyons. I am not quite sure where to begin, Mr. 
Chairman.
    Senator Gorton. They will, of course, be included in the 
record, and perhaps a summary would be appropriate, but it is 
your turn to say what you would like to say.
    Secretary Lyons. I appreciate that, Mr. Chairman, and I 
appreciate Senator Dorgan joining us, and certainly Senator 
Bennett and Senator Craig. We are honored to have had the 
chairman of the Budget Committee and the chairman of the full 
Appropriations Committee join us as well for a while.
    In light of your opening comments about priorities in the 
budget situation we face, or the ongoing debate about a budget 
resolution, I will try to make things easier for you and focus 
in on priorities, at least as far as I think we see them. Then 
Mike will address some issues certainly related to our efforts 
to deal with accountability and, obviously, some of the other 
particular concerns he is addressing now.
    Let me start out by saying, Mr. Chairman, that I appreciate 
certainly your kind words, Senator Bennett's kind words, and 
the working relationship we have had with all the members of 
the subcommittee. At times, we have had some very strong 
disagreements about policy. But I believe we have been able to 
work through some very difficult issues in the past. This 
budget will be a difficult one as well.
    But I really appreciate your personal commitment and those 
of the other members of the subcommittee to try and do the 
right thing. I think that is the best guide we can all follow 
in trying to resolve the issues that we face and trying to work 
together in a collaborative way to best help the people we 
serve.
    You represent particular States and particular interests. 
Unfortunately, Mike and I are put in the position of trying to 
represent all interests in the United States and a very diverse 
set of interests. When it comes to the management of the 
national forests, public lands complicate things immeasurably. 
We really do appreciate the extent to which you continue to 
work with us to try and move forward in making progress for the 
future years in the national forests and our conservation 
legacy.
    What I would like to focus on, Mr. Chairman, is just a few 
items. Some of these have already been alluded to and questions 
raised. We have put a great deal of emphasis, certainly during 
my tenure in office and certainly during Mike's tenure as 
chief, on the issue of roads, and road management, and road 
access. We have a number of initiatives underway to attempt to 
deal with issues associated with roads.
    There is a reason for this, and that is, not only do we 
have an extensive road system in the national forests--I will 
not go into the numbers, but we know they are huge, they are 
around 380,000 miles--we have a tremendous backlog in 
maintenance and management of that road system.
    It seems prudent, as managers of this public estate, to try 
and do a better job of managing the infrastructure that we 
have. One key to ensuring continued access to the national 
forests--whether it is for management or recreation use, to 
protect resources, or to provide access to utilize those 
resources--we need to make sure we have better management of 
the existing road system.
    Obviously, we have proposed a significant initiative with 
regard to roadless areas. The issue of roadless areas has tied 
up the Forest Service in knots for two decades. It was not 
resolved in the late seventies with RARE I and RARE II.
    It was not resolved, unfortunately, in the process we 
followed in the early eighties by working through the State-
wide wilderness bills. There was still concern about the future 
years of inventoried roadless areas.
    So with certainly encouragement and strong direction from 
the President, we have attempted to take this issue on. We have 
attempted to take it on not, in my mind, because of any 
political agenda--more because we need to resolve this issue to 
try and simplify the lives of those who are responsible for 
managing those resources--to provide more certainty to those 
communities that are impacted--to try and put this issue behind 
us so that we can get on with the business of being stewards of 
the landscapes that we are entrusted to manage.
    The roadless issue, in my mind--and I think the numbers 
would back us up--is not a matter of timber supply. Less than 5 
percent of what we project would be harvested from the national 
forests over the next 5 years would come from roadless areas; 
less than 5 percent.
    There are five forests, though, where more than 25 percent 
of their volume would come from roadless areas and, 
unfortunately, Senator Bennett has four of those. So I 
understand Senator Bennett's concerns, because some of the 
localized impacts would be significant.
    The fifth is the Tongass, where more than 50 percent of the 
program would come from roadless areas. For those of you who 
have had a chance to look at the Notice of Intent that was 
issued, we gave deference to that in not recommending or 
suggesting that the Tongass not be addressed. At least in part 
one of our Roadless Initiative--that is--to how we would deal 
with the inventory of roadless areas initially.
    I do not believe that this is an issue of wildfire risk. We 
have done an extensive job of mapping wildfire risk across the 
United States. We find that only 3 million acres of the 
roadless areas coincide with areas of high wildfire risk in the 
United States.
    We believe we should focus our efforts in managing wildfire 
risks in those areas where there is a high threat to public 
safety and property. That is why we are focusing our efforts in 
areas in closer proximity to urban areas and communities that 
might be impacted by wildfire.
    Given the resources we have been able to obtain--the 
resources you have provided to us for fuel treatment, and the 
like--we have made considerable progress in that regard. We 
still are woefully short of the dollars that we need to address 
this issue. We appreciate the support you have provided. What 
you will find is that if we were simply to--under an assumption 
that we will continue to be funded at the current levels for 
fuel treatment, if we continue to treat those areas that are 
roaded, it would take upwards of 15 to 17 years just to catch 
up with the backlog of work we have on the already roaded 
estate.
    So I do not believe the roadless issue impacts our efforts 
to deal with fuel treatment with regard to wildfire risk.
    Finally, I do not think this is really an issue of access. 
The real issue affecting access is going to be determined by 
how we manage that existing infrastructure--that road and trail 
infrastructure, so the chart that was first put up I think 
illustrates--these are numbers adjusted for fiscal year 2000 in 
constant dollars, and what they show is, construction and 
reconstruction has declined over time. We have not placed as 
much emphasis on building new roads, though we are trying to 
put more money into reconstruction.
    Road maintenance dollars, where we put most of our effort, 
have increased slightly; though, as adjusted for inflation, you 
can see, Mr. Chairman, we are not quite keeping up. In fact, 
our engineering staff tells us that each year the backlog of 
maintenance needs increases by $120 million on just that 
portion of the road system that is highly trafficked for 
recreation, for management purposes, for simply rural commerce.
    The larger portion of the system, which is about 300,000 
miles, which is largely natural cover, is simply not 
maintained, and it is eroding in a rapid rate.
    So we think dealing with roads, dealing with road 
management--another proposal that is currently pending, out for 
public consideration, and dealing with road maintenance--is a 
critical need that we need to address.
    We also have placed a great deal of emphasis in recent 
years in trying to increase funding for recreation. We 
appreciate that tools that have been provided to us by the 
Congress to charge fees to the Rec Fee Demo Program--and I 
know, Senator Craig, we have had our problems with rec fee 
demo, but I hope I can convince you at some point in time that 
it warrants your continued support, because I think it is 
critical to securing the additional resources to deal with the 
infrastructure needs--the improvements that are critical to 
ensure better customer service on the national forest estate.
    Recreation demand continues to skyrocket. We are close to a 
billion visitor-days a year. We have a difficult time keeping 
up with and managing for that system. One of the reasons is, we 
have always viewed recreation as fun, not really a critical 
management issue, and more and more we find it is.
    It is from the standpoint of ensuring that the public has a 
chance to enjoy recreation; it is from the standpoint of 
minimizing the impacts of excessive recreation use in certain 
places, on natural resources; and it is from the standpoint of 
maintaining the quality of the experience.
    More and more we are finding, for example, in wilderness 
areas, we have to go through a permitting system--I think 
Alpine Lakes Wilderness is now under a permit system--simply to 
try and ensure that those who can get a chance to get in the 
back country can enjoy the experience they anticipated, as a 
part of that system. The budget includes increased funding, 
27.5 percent increase for recreation, and I think that is a 
critical need.
    I also want to address the issue of land acquisition 
because this is an issue that comes up in most of these 
hearings. Unfortunately, there is a perception that some 
Federal agencies--and I do not think we are as guilty perhaps 
as some--but some Federal agencies are aggressively seeking 
funds to increase land acquisition and bring more lands into 
the Federal estate.
    The truth of the matter is, Mr. Chairman--these are actual 
dollars. The truth of the matter is, we had relatively high 
levels of funding for land acquisition back during the Bush 
administration.
    The fiscal years 1991 and 1992 budgets there, you will see 
reflected, were, of course, Bush budgets. Then funding levels 
declined as we attempted to deal with budget deficits and the 
like.
    We are now requesting additional funds for land 
acquisition. The chart you have in front of you, gentlemen, 
shows how those numbers will be adjusted for constant dollars. 
I think if you drew a line across from fiscal year 1991 over to 
2000, 2001, you would see we are just now getting back to 
slight increases above the funding levels we had, in real 
terms, earlier in this decade.
    I want to emphasize that we do not acquire lands other than 
on a willing-seller basis. I cannot think of, during my 7 years 
in office, more than one time in which we used condemnation 
authority, and that was a friendly condemnation. The landowner 
asked us to go through that process.
    We are trying to use new tools. Mr. Chairman, you 
emphasized the use of conservation easements. We found the 
public reaction and concern about the tax rules was such that 
we needed to come up with new approaches of doing business.
    The Forest Legacy program has helped tremendously. We 
appreciate the support you gave us last year. We seek to double 
that program this year to $60 million as part of the 
President's Lands Legacy Initiative. In fact, our goal is to 
permanently fund not only land acquisition, but Forest Legacy, 
and another important program, the Urban and Community Forestry 
Program, in the context of the Kara bill, whatever form it 
takes, when it eventually passes the House and the Senate.
    Other initiatives in the budget that I would just emphasize 
briefly--because I think they reflect, I know they reflect our 
efforts to try and deal with some of the issues that we have 
discussed in this room before, Mr. Chairman--one is the 
payments to States initiative that Senator Craig and Senator 
Wyden have worked with us on.
    We initiated efforts to try and reform payments to States 2 
years ago. We appreciate, certainly, the engagement and 
leadership in the Congress that they have provided. We still 
have some concerns about the legislation.
    We have not had a chance to review what has been presented 
by Senator Craig most recently. Those concerns, Senator, are 
around identifying a funding source, how we handle the advisory 
committees that are a part of that package, and also the issue 
of flexibility.
    We believe that the counties ought to have the right to 
choose whether or not they want the 25 percent of the funds 
that are currently committed to projects--whether or not those 
funds should go to education and roads, as the counties would 
normally have them do--or whether they should go to projects.
    I do not think anyone in Washington, DC, should dictate to 
the counties how they want their money used. In fact, I have 
heard this said to me many times in this room, I would 
emphasize.
    So we suggest that rule of thumb should apply here as well; 
although, we are anxious, I would suggest to you, to develop 
joint projects with communities on the ground. I think there is 
a tremendous opportunity to do good stewardship work and 
develop a closer working relationship with those communities. 
So we would hope the communities would exercise that authority, 
but we want to give them that choice.
    Another initiative in the budget, we call HIRE, Healthy 
Investments in Rural Environments. This is an attempt, Mr. 
Chairman, a creative attempt to reform the existing trust 
funds--salvage, Knutson-Vandenberg, reforestation, and timber 
sales pipeline fund--to create a pool of resources that we 
could then use to work with local communities to provide local 
employment to deal with some of the infrastructure issues we 
have, such as road maintenance and road reconstruction, timber 
salvage, trail maintenance work, work on recreation facilities, 
and the like.
    One of the things that has always thwarted us in providing 
opportunities for local employment is the certainty of having 
that funding available. No community can make an investment--no 
State is willing to partner up with an entity who has money 
this year, but not next year. It is not worth the investment. 
We have learned this through the Northwest Forest Plan and in 
other efforts.
    So we have proposed to generate a pool of funds that would 
provide some certainty. In this next year, we provide $300 
million to begin the process of providing local employment and 
dealing with the infrastructure issues that face us. So we are 
trying to be creative in how we deal with these issues, Mr. 
Chairman.
    Let me emphasize one other thing that is ongoing that I 
think is significant. Reference was made in your opening 
comments, Mr. Chairman, to monies requested for forest 
planning. We are in the process of reforming our forest 
planning process.
    Actually, it has been a process that has been underway for 
11 years. It is one I would like to wrap up this year. We are 
seeking to revolutionize, if you will, how we do forest 
planning, to place more emphasis on collaboration and up-front 
involvement from communities of interest, from individuals in 
communities that are affected by forest planning.
    We are seeking to enhance the linkage between the research 
we do in research and development, and what guides us in terms 
of management. We are trying to deal with some of the thorny 
issues that have really hurt us in terms of past management--
issues associated with viability--and what viability standards 
should apply--issues associated with monitoring--so that if we, 
in fact, are able to come up with a system of accountability 
that measures performance by what they do on the ground, we can 
actually monitor that and determine that.
    I think that will help us as managers and it will help us 
build public trust. All too often we make commitments to do 
things on the ground, never gone back to check, and lo and 
behold, the public has and said: ``Wait a minute, you did not 
do what you said you were going to do,'' or the outcome was not 
what we anticipated, and maybe you need to readjust.
    When Jack Ward Thomas was Chief, Jack would often come up 
and talk about ecosystem management and adaptive management. 
Our whole budget is built on this framework of adaptive 
management, and Mike and I have tried to carry that forward.
    It is critical that we are able to make changes in the 
forest planning process and secure the additional resources to 
put that planning process in place--to do the monitoring, to 
develop better linkage to the science, and better improve 
public involvement in this process--so we can start to build 
partnerships for the management of the national forests instead 
of the adversarial relationships that exist all too often in 
places that all you gentlemen know.
    Let me sum up, Mr. Chairman, by suggesting to you, as you 
might anticipate, that I think this budget is on track. We may 
not have the money to do what we have proposed to do. We will 
have to work with you to deal within the constraints that we 
operate. In this last budget--at least, that I will be 
presenting to you--I thought that it was important that we made 
a statement about where we want to head--a statement that 
reflected what we believe is a continuing trend towards 
improving resource stewardship--of improving service to the 
public, of trying to tackle and resolve some of the difficult 
issues--and of trying to strike a balance that is called for in 
the Multiple-Use, Sustained Act.
    I think for too many years we have placed focus on 
commodity production. Senator Bennett, I really appreciated 
your bringing up the issues associated with forest health and 
the concern.
    Our challenge is to manage the health of the forest in its 
broadest sense. That means to improve watersheds and watershed 
health. It means to improve recreation access and facilities. 
It means to clean up roads and deal with road construction. It 
means to be a friend and an ally, working with private 
landowners. It means to protect critical lands on a willing-
seller basis. And to use new tools to provide protections for 
those lands with conservation easements.
    It means serving rural communities. It means serving urban 
communities as well, particularly communities like Seattle, 
which are surrounded by national forests and have a big impact 
on our forests--and depend on their forests for recreation and 
tourism--and a quality of life that attracts more and more 
people to that part of the world--and that is true in other 
parts of the world. Salt Lake is an excellent example, as well, 
as you know, Senator Bennett.
    I think we are on the right track. Are the forests in 
better shape? In some places, they may not be; in other places, 
I think we are moving in a direction so that they will be, and 
we are trying to lay a foundation to achieve that.
    I certainly am proud of what we have been able to 
accomplish, Mr. Chairman. I am very pleased and proud of the 
working relationship we have had with you; in our ability to 
try and move forward and deal with the tough issues--and leave 
a legacy that we are all going to be proud of. I believe this 
budget is a critical part of moving in the direction that will 
assure that we can, in fact, do that.
    Now, I would like to yield to Chief Dombeck.
    [The statement follows:]

                 Prepared Statement of Hon. James Lyons

    Chairman gorton, Senator Byrd, amd members of the subcommittee, 
thank you for the opportunity to appear before you today to discuss the 
forest Service's proposed budget for fiscal year 2001.
    I would like to present a brief overview of our budget request and 
highlight some of the priorities we've identified in three broad areas. 
Chief Dombeck will address these and other areas in greater detail. The 
three areas I want to highlight are: (1) the major Presidential 
initiatives, as reflected in the fiscal year 2001 Budget, to promote 
the long-term sustainability and productivity of the Nation's forests 
and grasslands; (2) the strides that have been made in restoring 
program and financial accountability within the Forest Service; and (3) 
our ongoing efforts to resolve issues of long-standing concern to the 
public and the Forest Service as we better prepare the agency to meet 
the challenges it will face this next century.
    Today more than ever, we are involved in important debates about 
the future of America's forests. Underlying all of these debates is a 
common thread: what we do today will ensure that our forests, 
grasslands and river systems retain their health, diversity, resilience 
and productivity for future generations. While there are differing 
approaches, I think that we would all agree that it is in the best 
interests of the Forest Service and the Congress to work together to 
ensure that we have sustainable communities that thrive and prosper in 
ways that promote land health and community well-being.
    First, a brief overview. Overall, we are requesting $3.1 billion 
for Forest Service discretionary spending in fiscal year 2001. This is 
a 14 percent increase over the fiscal year 2000 appropriation and 
includes the funding to do such things as institutionalize 
accountability and provide the quality service that the American public 
expects the Forest Service to provide.
    The budget requests a $138.6 million increase in funding for the 
National Forest System. This is a 12 percent increase from fiscal year 
2000. In addition, the budget proposes an increase of $13.3 million to 
enhance the agency's widely recognized role in forest and rangeland 
research, including increased research for better utilization of small 
diameter timber and woody material and the relationship of soil 
productivity to the carbon cycle. The budget also proposes an increase 
of over 22 percent in the State and Private Forestry appropriation that 
now also includes International Programs.

                   BUDGET PRIORITIES OF THE PRESIDENT

    Lands Legacy Initiative.--Again President Clinton proposed funding 
for the Lands Legacy Initiative in the fiscal year 2001 budget to help 
protect environmentally sensitive lands from development, preserve 
great places, and provide more open, green space for Americans in 
suburban and urban areas. The Forest Service has three programs that 
play a role in this initiative: its land acquisition program; the 
Forest Legacy program; and the Urban and Community Forestry programs. 
While many in Congress are very familiar with the agency's valuable 
land acquisition program for which the President has requested $130 
million, the Forest Legacy and Urban and Community Forestry programs 
are just getting the attention and recognition they deserve from the 
public as two additional valuable conservations programs.
    The Urban and Community Forestry program provides grants and 
technical assistance to thousands of communities and major cites across 
America helping them to maintain or expand their ``green 
infrastructure.'' The program helps them plant trees along city 
streets, abandoned lots, parks, as well as understand all of the 
different ways trees can help solve environmental problems such as 
reducing storm water run off. While many are focused on providing money 
to build parks, Urban and Community Forestry funding actually provides 
the technical assistance to help decide how and what is planted in 
those parks. It is a program that complements such state-side programs 
like the Urban Parks and Recreation Recovery program. Because the 
demand for this program has grown so strongly over the last five years, 
the President has again requested $40 million for this program.
    The Forest Legacy program is unique in that it provides States 
money to acquire easements on private forested lands that are under 
pressure from development. Over twenty States are now participating in 
the Forest Legacy Program and are requesting nearly $100 million in 
assistance to purchase easements. The States utilize these lands for a 
number of purposes, including providing public recreation opportunities 
as well as preserving habitat for critical wildlife. As a result of 
this increase in demand, the President has requested $60 million for 
fiscal year 2001.
    HIRE Proposal.--The President's 2001 budget includes the Healthy 
Investments in Rural Environments (HIRE) initiative that accomplishes a 
number of important goals for the Forest Service including:
  --Creating new private-sector jobs in rural and forest dependent 
        communities, where jobs for skilled workers continue to be in 
        dire need;
  --Providing the Forest Service more management flexibility to address 
        the growing forest and rangeland health, ecosystem restoration, 
        and facility, trail, and road maintenance challenges facing the 
        national forests;
  --Improving the accountability and manageability of the Forest 
        Service's trust fund system;
  --Continuing work currently performed by the Forest Service under the 
        trusts, to address both the priority work funded by the 
        existing trust funds and support a wide-scale jobs creation 
        program.
    To achieve these goals, the Forest Service proposes replacing four 
permanent and trust fund accounts (the Salvage Sale, Knutson-Vandenberg 
(K-V), Reforestation, and Timber Sale Pipeline Restoration (USDA-only) 
funds) with a new mandatory appropriation called HIRE.
    Under the HIRE proposal, all timber sale receipts would return to 
the Treasury. At the same time, the Forest Service would receive a new 
mandatory appropriation of more than $300 million a year. The Forest 
Service would allocate this money to the field through the same 
allocation criteria methods it uses for discretionary funds and would 
display its allocations to Congress for greater accountability.
    Payments to States.--The Administration has also been working 
diligently to stabilize county payments for education and road 
maintenance that have previously been linked to timber sale levels. 
Faced with declining timber sales on our National Forests, we have put 
forth proposals that would instead provide a more reliable stream of 
funding. Our proposal has evolved a great deal and we are now working 
with Congress to craft legislation that would stabilize payments, 
maintain healthy ecosystems, and restore a closer working relationship 
between rural counties and the Forest Service.
    Clean Water Action Plan.--The President's Clean Water Action Plan 
emphasizes targeting priority watersheds to improve water quality. 
Several actions in the plan are related to management of national 
forests and grasslands, including restoration of stream corridors and 
riparian areas, inventory and monitoring, cleanup of abandoned mine 
lands and hazardous material sites, decommissioning/maintenance of 
roads; and improved rangeland vegetation and grazing management. The 
fiscal year 2001 budget includes an increase of $84 million for this 
initiative compared to fiscal year 2000. This funding is critical to 
meeting the requirements of the Clean Water Act, among other State and 
Federal laws.
    Watershed Health and Restoration.--Forest Service lands also serve 
as the headwaters for many major river systems and aquifers that are 
essential for the nation's water supply, and contain valuable riparian, 
wetland, and coastal areas. Although there have been significant 
improvements in water quality since the Clean Water Act of 1972, 40 to 
50 percent of our watersheds are still in need of restoration and 
protection. For this reason, the President is requesting $487.7 million 
for fiscal year 2001 for these activities, which is a 9 percent 
increase over fiscal year 2000.
    With this money, the Forest Service hopes to continue investing in 
twelve large-scale watershed restoration projects begun in fiscal year 
2000. The main purpose of this effort is to develop an agency-wide 
strategy that focuses resource actions on significant portions of land 
to enhance its clean water, wetlands, migratory birds, fisheries, 
riparian areas, and watersheds as well as provide other goods and 
services to communities.
    Recreation.--Americans cherish the national forests and grasslands 
for the values they provide--clean water, clean air, natural scenic 
beauty, important natural resources, protection of rare species, 
majestic forests, wilderness, a connection with their history, and 
opportunities for unparalleled outdoor adventure. In an increasingly 
urbanized society, outdoor recreation provides most Americans with an 
opportunity to reconnect to the lands and waters that sustain them. 
Recreation visitors expect a great deal from the Forest Service in 
terms of settings, experiences, facilities and services; and they will 
expect even more in the future. Recreation is the fastest growing use 
on the national forests and grasslands.
    The Forest Service will finalize its new recreation strategy this 
year with the help and input of the public. Our recreation strategy 
will be founded more on quality customer service, based on a complete 
understanding of customers' wants and needs. The strategy will help 
sustain ecosystems, highlight special places and stimulate rural 
economies. We pride ourselves in innovative partnerships and 
collaborative relationships to accomplish the recreation job, all while 
ensuring that recreation opportunities take place within the ecological 
sideboards necessary to maintain land health. We strive to serve new 
constituencies, urban populations, the underserved and low-income 
people to maintain the relevancy of national forests for future 
generations.
    The fiscal year 2001 funding request includes $30 million proposed 
for developing tourism; reengineering the special use permitting 
process; and developing trails, recreational facilities and attractions 
targeted toward lower income and resource-dependent areas adjacent to 
National Forests, where there are excellent tourism opportunities. The 
fiscal year 2001 proposed funding for the recreation component of the 
Natural Resource Agenda totals $397.4 million, a 13 percent increase 
over fiscal year 2000.

                    OTHER ADMINISTRATION PRIORITIES

    Mr. Chairman, I would also like to make you aware of a few other 
initiatives that are being undertaken by the Administration:
    Roadless Area Initiative.--In October 1999, President Clinton asked 
the Forest Service to begin an open public process to address how 
roadless areas within the national forest system would be managed in 
the future. Roadless areas have typically remained without roads 
because of inaccessibility, rugged terrain, low timber values, 
environmental concerns and high costs associated with litigation. In 
fact, historically, Forest Service entry into roadless areas has a 
fifty percent failure rate due to the reasons stated above.
    Understandably, Forest Service managers often choose to invest 
resources in projects that have broader public support, less cost, and 
fewer environmental impacts than building roads in roadless areas.
    So, in response to the President's announcement, the Forest Service 
released a notice of intent (NOI) to prepare an environmental impact 
statement (EIS) on October 19, 1999, and proposed a two part process to 
determine how the public would prefer.
  --Part one would address restriction of certain activities, such as 
        new road construction, in inventoried roadless areas.
  --Part two would establish national direction for managing 
        inventoried roadless areas, and for determining whether and to 
        what extent similar protections should be extended to un-
        inventoried roadless areas. Part two would be implemented 
        through local forest planning.
  --Both part one and part two would be implemented with extensive 
        public involvement.
    On December 20, 1999, the Forest Service concluded a comment period 
on the scope of the proposal. During this comment period, the agency:
  --Hosted an unprecedented 190 regional and local public meetings;
  --Received more than 500,000 comments.
    The Forest Service is now preparing a draft environmental impact 
statement (DEIS) that will detail the agency's proposed action and its 
likely effects. The agency plans to conduct another comment period and 
an equal number of public meetings when it releases the draft 
environmental impact statement and a proposed rule in spring 2000. The 
agency plans to release a final environmental impact statement and 
regulation before the end of 2000.
    Forest Service Roads Policy.--On the other side of the coin, the 
proposed Forest Service Roads Policy would revise how the Forest 
Service manages the more than 380,000 miles of existing roads already 
in the national forest transportation system.
    The Forest Service currently has a deferred maintenance backlog of 
more than $8.4 billion dollars and only receives about 20 percent of 
the funding it needs annually to maintain its existing road system to 
safety and environmental standards.
    The proposed policy is an attempt to:
  --Make the existing forest road system more safe, responsive to 
        public needs, environmentally sound, affordable, and efficient 
        to manage;
  --Implement a public involvement process and scientific analysis 
        procedure at the local level to:
                  Help land managers and the public identify heavily 
                used roads that the agency should prioritize in terms 
                of its limited maintenance and reconstruction spending;
                  Help land managers and the public identify roads that 
                are unused or environmentally damaging that can be 
                decommissioned; and
  --Place a new emphasis on maintaining and reconstructing existing 
        roads rather than building new roads.
    A draft rule and procedures were released for public review on 
March 2, 2000.
    Forest Service Planning Regulations.--All of these proposals would 
be implemented in the context of the new forest planning regulations. 
The proposed planning rule would rewrite the existing Forest Service 
regulations implementing the National Forest Management Act of 1976. 
The proposed rule is based on the recommendations of a Committee of 
Scientists and 20 years of experience implementing forest planning.
    The proposed rule would:
  --Base forest and grassland planning on the principles of ecological, 
        economic, and social sustainability;
  --Require the Forest Service to actively engage the public and our 
        other federal, state, local, and tribal partners in the 
        management of our national forests and grasslands;
  --Integrate science and scientists into the planning process and 
        requires the Forest Service to focus on managing entire 
        ecosystems rather than single species or outcomes; and,
  --Integrate planning and management activities more closely so that 
        the Forest Service can respond to new information and 
        opportunities in a timely manner.
    Last fall the Forest Service hosted a series of 23 town meetings 
across the country to discuss the proposed planning rule. The planning 
rule would provide the overarching framework for implementing the 
roadless area and road management initiatives, if the three initiatives 
are adopted. All of these initiatives seek to provide for long-term 
sustainability, ensure collaboration with the public, integrate science 
more effectively in the planning process, and incorporate new 
information and opportunities.

                         ACCOUNTABILTY ACTIONS

    I think that we would all agree that the debate about the 
management of our national forests has been clouded in recent years 
with issues of accountability. In the past ten years the Forest Service 
has been the subject of more than 315 audits by the General Accounting 
Office and the Office of the Inspector General. And the agency as well 
as the Department of Agriculture has yet to receive a clean financial 
opinion since they were first required of governmental agencies.
    Under the capable direction of Chief Dombeck, the agency has worked 
very closely with my office, other parts of the Department of 
Agriculture and the Secretary to implement the needed financial and 
programmatic reforms.
    These changes were made to position the Forest Service to achieve 
an unqualified audit opinion on its fiscal year 2000 financial 
statements. The agency knows, however, a clean audit opinion by itself 
will not restore the agency's credibility with Congress and the 
American people. A change in agency culture must occur--a change based 
on the knowledge that the Forest Service cannot be effective resource 
managers if they are not first accountable for the taxpayers' money and 
for their own actions on the landscape. The Forest Service has 
presented its fiscal year 2001 budget in a performance-based manner 
that allows it to accomplish its conservation mission based upon 
performance measures that fully display on-the-ground outcomes of its 
management practices and services to the public.
    This budget presents a program that is not simply based on a set of 
funding requests. Rather, the budget justification presents the 
President's budget in terms of direct on-the-ground accomplishment of 
work. Mr. Chairman, with the implementation of significantly improved 
accountability measures, we can refocus the debate about the Forest 
Service where it should be, on natural resource management policy.
    I can vouch for the fact that Chief Dombeck is committed to making 
the necessary changes. Some of the more significant accomplishments 
include implementing a new accounting system, developing a simplified 
budget structure for the National Forest System, submitting a 
performance-based fiscal year 2001 budget, developing an integrated set 
of land health and service to people performance measures, and 
publishing its draft Strategic Plan (2000 Revision).
    In addition, for the first time in many years, all leadership 
positions have been filled. Chief Dombeck has established the offices 
of the Chief Operating Officer and the Chief Financial Officer to take 
leadership responsibility for improved program analysis and the linking 
of budget processes to agency performance and strategic planning.
    Mr. Chairman, I do not think that there should be any doubt that 
these bold, decisive actions demonstrate leadership commitment to 
correct the Forest Service's program and financial accountability 
deficiencies.

                               CONCLUSION

    I am proud to say that during my tenure, the Forest Service has 
made significant progress in restoring accountability while refocusing 
the agency's attention to its multiple use mandate. In so doing, we 
have placed a new priority on maintaining and restoring the health of 
the land while ensuring the sustainability of goods and services 
produced on our National Forests. We have renewed our commitment to re-
greening our communities--both urban and rural--and sought ways to 
improve the economies of forest dependent communities by broadening 
their economic base. We are emphasizing collaboration in working with 
our public and private partners, and encouraging innovative solutions 
to our resource management challenges.
    I'm proud of the progress we've made and look forward to the 
opportunities ahead. Thank you. I would be pleased to answer any 
questions that you may have.

    Senator Gorton. Chief, if you would wait for a moment. 
Senator Dorgan has only a couple of moments. He simply would 
like to make a short statement, and I am going to let him do 
that, so he can go on to his other----

               OPENING STATEMENT OF SENATOR BYRON DORGAN

    Senator Dorgan. Mr. Chairman, I am going to be very brief. 
I have been over in the Commerce Committee. I did not make an 
opening statement, because I was late, but I wanted to make 
just a comment.
    Mr. Lyons and Mr. Dombeck, I appreciate your being here and 
your testimony.
    I have been working, particularly with Mr. Dombeck, on the 
issue of the Chadron planning that had preceded the grasslands 
management plan in Western North Dakota, and I am very 
concerned where all this is taking us. The planning process was 
designed to bring people together and to involve people.
    In fact, what has happened is radical division and the 
potential, according to a North Dakota State University study, 
of up to 30 and 40 percent reductions in grazing in Western 
North Dakota.
    Now, my colleague, Senator Burns, over there, he 
understands Western North Dakota. It is almost a wilderness out 
there. We get calls for wilderness. We do not need wilderness. 
It is happening. We do not need the wilderness designation. You 
can drive out there and not find anybody for a long while. We 
have ranchers trying to make a living, and if they are hit with 
a 40-percent reduction in grazing on these grasslands----
    Senator Kohl. Well, if it were wilderness, Senator, you 
could not drive out there.
    Senator Dorgan. I understand.
    Senator Kohl. You would have to walk.
    Senator Dorgan. That is why I have opposed the wilderness 
designation, because people have left. My home county out there 
has shrunk from 5,000 to 3,000 people, and the county next to 
it is now 900 people.
    We have real serious economic troubles in Western North 
Dakota, and a plan that could potentially reduce grazing up to 
40 percent would be devastating. Now, those numbers don't come 
from the Forest Service, because the Forest Service people 
cannot tell us exactly what the impact will be, but they come 
from studies by Dr. Leistretch, North Dakota State University, 
and others.
    I just wanted to say this: Mr. Dombeck, you have been very 
open and we have had good discussions, and I have told you all 
of this. You are working through some of these issues.
    The comment period was long and extensive. You have had a 
lot of comments from a lot of different sides on this. It is 
very important that this be done right, and the right way to do 
this is to go back historically and look at the conditions 
under which the Federal Government acquired these lands in 
Western North Dakota from farmers who were forced to sell in 
most cases, and the Bankhead-Jones Act described the 
circumstances, that they wanted these lands to remain in 
agriculture, and they are multiple use, to be sure, and we want 
to be sensitive to all of those issues.
    I just wanted to make a point of how important this is. 
There are such passions out there that I am very concerned 
about. There is such anger and polarization, and that is not 
the way the Chadron planning process was designed to end.
    The process was designed to bring everybody together, and 
everybody have a voice in this. That really did not happen, and 
I am not blaming anybody. I am just saying that we need to take 
a fresh look, have some mediation, and review all those 
circumstances.
    Mr. Chairman, I took a little longer than I intended, but I 
am going to submit a series of questions, if I might, to Mr. 
Dombeck and Mr. Lyons.
    Thank you for your courtesy, Mr. Chairman.
    Senator Gorton. Let me inform the other members of the 
committee here that if we are going to hear from you now, then 
I am going to defer my questions for last, because I have a lot 
of them, and I do not particularly--you, Senator Bennett, have 
been extremely patient.

                   SUMMARY STATEMENT OF MIKE DOMBECK

    You will be next, as soon as Chief Dombeck has finished his 
statement, and then we will hear from Senator Burns, and then 
we will take the chairman and ranking member.
    Chief, go ahead.
    Mr. Dombeck. Mr. Chairman, thank you, Senator Byrd, 
committee members.
    I would like to introduce some guests that we have here. 
Chuck Meyers is the Forest Supervisor of the Monongahela 
National Forest, and Kate Goodrich is with him. Kate is the 
Public Affairs Officer on the Monongahela. They perhaps could 
offer a forest supervisor's perspective on budgets, and some 
things like that, that I think might be helpful.
    I also have with me Randy Phillips, who is Deputy Chief for 
Programs and Legislation. Our Chief Financial Officer, Vincette 
Goerl, Jim Furnish, National Forest System, and sitting in the 
first row we have Janice McDougal, from State and Private 
Forestry, and Dr. Robert Lewis, who heads our research 
programs. So hopefully, we will be able to deal with most of 
the issues of interest to the committee.
    You alluded to the debate about natural resources in your 
opening statement. I think we have all been part of that. 
Sometimes we get more of that than we would like. The debate is 
not new to this era.
    It was here in Gifford Pinchot's time, it was here in the 
thirties, the seventies, and I presume it will be here for a 
while. What we are really talking about is balance and the 
changing needs of society, changing economies, and our 
sensitivities to that. I always think about how wonderful it is 
that we live in a country where we have choices, because 
balance is about choices, and when we have choices to make, 
there are differences of opinion.
    I am pleased with some of the issues, and I always like to 
step back and think about what had gone on 10 years ago, and 20 
years ago, 30 years ago.
    In the mid-nineties, the dialogue was that the Forest 
Service had lost its way. It had a muddled mission. I am proud 
of the leadership of the Forest Service in crafting the Natural 
Resources Agenda to better articulate where we were going--to 
focus on roads and infrastructure; to focus on sustainable 
forest and grassland management; to focus on recreation; to 
focus on watershed health and restoration; to focus on things 
like urban forestry and education. We have made progress there.
    The Forest Service is perhaps one of the more complex 
agencies--with a complex and really challenging mission 
almost--with expectations that we would be all things to all 
people, from the preservation side or the commodity side. One 
area that I really appreciate your support on and the 
committee's support is the area of business management and 
accountability. As Congress, in the nineties, began to demand 
more accountability from agencies--and the Chief Financial 
Officer Act was passed, and others--the Forest Service was slow 
to adapt.
    It is decentralized by its nature. West Virginia decisions 
ought to be made in West Virginia; likewise, Washington, Idaho, 
Utah, Alaska. Our business management side was also 
decentralized.
    We had, for example, 40 systems, data management systems, 
that really did not communicate with one another--that were not 
linked with 800 data entry points, and some hundred-million 
transactions a month. I think I have had more hearings on this 
issue of accountability and financial management than all the 
other chiefs put together. We have made that our highest 
priority. We have made significant progress.
    It is a big job. It took Jack Welsh 10 years with General 
Electric, and General Electric did not have all the constraints 
that come with bureaucracies and the Federal Government.
    I am pleased that we have our first-ever Chief Financial 
Officer. We have the foundation financial information system in 
place and running. We have our first-ever real-property 
inventory complete--and employees struggle to understand even 
why that is important as resource issues go on. I say to them, 
would they invest in a company that did not know what its 
assets are? Yet, it is important, I believe, that we be able to 
tell the American public and you what our assets are. We have 
made progress on that front.
    I am pleased with the response of the National Academy of 
Public Administration. They gave us the first framework to tie 
a simplified budget structure with an organizational structure 
and performance measures that are important. I am pleased with 
your willingness and Senator Byrd's willingness to want to 
explore further how we can make progress on that front.
    We are moving forward with business plans for the 
organization and our recreational units. We put 1,300 employees 
through business management training last year. Lots going on 
in that area. We ask for your continued support. Keep the 
pressure on. This is something that we drifted into over time, 
decades. We need the support, the prodding, the constructive 
criticism of Congress to get there. So we are making good 
progress.
    It is also important--as we talk about the national issues 
that are somewhat heated at times--to think about the 
accomplishments of an organization the size of the Forest 
Service and what we do. We have the best science in the world 
in the United States.
    Some of the best resource managers in the world work for 
the Forest Service--and the other agencies, local, State, and 
Federal--in the United States. We put out 98.5 percent of the 
fires in initial attack in the United States. We provide 
drinking water for 60 million Americans from the national 
forests.
    We have 133,000 miles of trails, 380,000 miles of roads--
that was mentioned earlier. There is more visitation to the 
national forests today than there has ever been.
    When we talk about access, and the concerns with access, 
our challenge is to provide the infrastructure, maintain that 
infrastructure, and the services that people expect. So we have 
more people visiting the national forests than ever, and all 
the projections are up.
    Eighty percent of the big-horn sheep habitat in the United 
States--half of the blue ribbon trout streams--and hunting and 
fishing alone generate about $21 billion to the gross domestic 
product. Multiple-use is alive and well. We issued over a 1,000 
energy and mineral permits last year and 9.3 million animal-
unit-months of grazing. We have 5.2 billion board feet of 
timber currently under contract.
    We assisted 9,600 urban communities with their natural 
resource programs. We assisted 146,000 private woodland owners 
to be better stewards of their land with technical and 
scientific information. Our research program produced more than 
2,700 scientific and technical documents and textbooks. We did 
all this with about 10,000 fewer employees that we had in the 
early nineties. So I am proud of the Forest Service workforce.

                           PREPARED STATEMENT

    No matter what our natural resource philosophy is, I 
certainly share the concern of this committee that our common 
objective is that we have an organization that functions well--
that is efficient--that is responsive--that is accountable for 
the monies that you allocate to us, and to the taxpayers. I 
hope that we can focus on that common goal and appreciate your 
support.
    Jim and I, and the staff, would be happy to answer any 
questions you have on any of the issues that we can.
    Thank you.
    [The statement follows:]

                   Prepared Statement of Mike Dombeck

    Chairman Gorton, Senator Byrd, and members of the Subcommittee, 
thank you for the opportunity to appear before you today to discuss the 
Forest Service's proposed budget for fiscal year 2001.
    Performance and financial accountability will be key to building 
agency credibility, without which we will be unable to obtain the 
necessary resources to accomplish the agency's mission. As I testified 
before the House Interior and Related Agencies Subcommittee on February 
16, 2000, the Forest Service is implementing a variety of actions to 
enhance its financial management, fully integrate strategic planning 
and budgeting, and demonstrate organizational effectiveness through the 
application of sound business practices.
    In my testimony today, I want to discuss four key areas: (1) 
sustainable communities; (2) funding and objectives for the Natural 
Resource Agenda program areas; (3) actions the Forest Service is taking 
to ensure it improves program and financial accountability; and (4) 
other highlights from of the President's budget.
    The President's budget supports the Forest Service Natural Resource 
Agenda and is directly tied to the Government Performance and Results 
Act (Results Act). The budget proposes a simplified budget structure 
for the National Forest System appropriation to improve both financial 
and program accountability while ensuring the long-term health, 
diversity, and productivity of the land to meet the needs of present 
and future generations.
    Overall, the President's budget is requesting $3.1 billion for 
Forest Service discretionary spending in fiscal year 2001. This is a 14 
percent increase over fiscal year 2000 that is necessary to ensure the 
Forest Service accomplishes its multiple-use mission of caring for the 
land and serving people.
    The budget requests a $138.6 million increase in funding for the 
National Forest System. This is a 12 percent increase from fiscal year 
2000. The budget proposes an increase of $13.3 million to enhance the 
agency's role in forest and rangeland research. It includes funding for 
such priorities as the use of agricultural products for energy and 
fiber, the role of carbon in productivity cycles, applications of new 
technology in resource management and coordination of the Forest 
Inventory and Analysis (FIA) program. The budget also proposes an 
increase of over 22 percent in the State and Private Forestry 
appropriation that now includes funding for International Programs. 
This increase will help State and private land managers practice 
sustainable forestry and conservation of their lands.

                LAND HEALTH AND SUSTAINABLE COMMUNITIES

    Let me first share some thoughts with you about how we can work 
together to ensure we have sustainable communities that thrive, prosper 
and promote land health and community well-being. To accommodate these 
goals the Forest Service is shifting its focus to pay greater attention 
to what we leave behind on the land, as reflected in the following 
major policy initiatives.
    Roadless Initiative.--Our roadless initiative recognizes the unique 
role that public lands play in maintaining large blocks of unfragmented 
forest. In an increasingly developed landscape, the ecological and 
social values of roadless areas are essential for protecting drinking 
water supplies, providing habitat for rare and vanishing fish and 
wildlife species, hunting and fishing and other recreation 
opportunities, bulwarks against the spread of invasive species, and 
reference areas for research. Less than 2.5 percent of our planned 
timber harvest in the lower 48 states is projected from these areas.
    Roads Policy.--We proposed a new road management policy on March 2, 
2000. The proposed policy will help us better manage more than 380,000 
miles of roads to ensure safe public access while stemming erosion and 
protecting water quality. Providing sufficient access is especially 
important considering that we soon expect to see one billion visits 
made to our National Forests in a year.
    Land Management Planning Regulations.--Our draft planning 
regulations will ensure the protection of ecological sustainability 
through a framework of collaborative stewardship and better integration 
of science and management. To meet the social and economic needs of 
local communities, I believe the Forest Service should operate in an 
open and transparent manner, so the American people have every 
opportunity to influence and shape the way their land legacy is 
managed; these new regulations will help accomplish that objective.
    Mr. Chairman, I pledge to you today that we will keep the Congress 
fully informed as these policy initiatives mature and develop and 
invite you to be a part of the public process.

                        NATURAL RESOURCE AGENDA

    When I became Chief, many people, including members of Congress, 
complained that the Forest Service had lost sense of its mission. In 
response, I outlined a Forest Service ``Natural Resource Agenda for the 
21st Century.'' The Natural Resource Agenda makes clear that land and 
watershed health is the agency's highest priority. This is based on the 
simple premise that we cannot meet the social and economic needs of the 
people without first securing our goal of healthy, diverse, and 
productive ecosystems.
    The Natural Resource Agenda sets agency priorities and gives 
strategic focus to Forest Service programs, emphasizing watershed 
health and restoration, sustainable forest ecosystem management, the 
National Forest road system, and recreation.
    Watershed Health and Restoration.--The Forest Service is the 
Nation's largest and most important water provider. National Forest 
lands are the largest single source of water in the continental United 
States. Over 3,400 communities rely on National Forest lands in 33 
states for their drinking water, serving over 60 million people. We 
recently determined the water on National Forest lands to be valued, at 
a minimum, of more than $3.7 billion per year. This $3.7 billion does 
not include the value of maintaining fish species, recreation values, 
nor the savings to municipalities who have low filtration costs because 
water from National Forests is so clean.
    Although there have been significant improvements in water quality 
since the Clean Water Act of 1972, 40 to 50 percent of our watersheds 
still need restoration and protection. The Forest Service is a full 
partner in carrying out the President's Clean Water Action Plan that 
aims to protect public health and restore our Nation's precious 
waterways by setting strong goals and providing States, communities, 
farmers, and landowners with the tools and resources to meet these 
goals. The fiscal year 2001 budget includes an increase of $84 million 
for continued implementation of the Clean Water Action Plan.
    The Forest Service will use cooperative strategies built around 
watersheds and the communities they sustain to implement the Clean 
Water Action Plan, including restoring stream corridors and riparian 
areas, cleaning abandoned mine lands and hazardous material sites, 
decommissioning and maintaining roads, and improving rangeland 
vegetation and grazing management.
    In fiscal year 2001, the Forest Service will focus on twelve large-
scale watershed restoration projects begun in fiscal year 2000, 
investing more than $18 million to accelerate implementation of the 
projects. The Forest Service expects partner organizations such as 
conservation, wildlife and forest management groups, American Indian 
tribes, State and local governments, and community organizations to 
match its funding commitment. The 12 projects include:
  --Research and development in New York City's municipal watersheds 
        and the Chesapeake Bay;
  --River restoration on the Chattooga, Conasauga, Rio Penasco, Upper 
        Sevier, Upper South Platte, Warner Mountain/Hackamore, and 
        White Rivers; and
  --Pacific Costal watersheds, the Blue Mountains of Oregon, and the 
        Lower Mississippi Valley.
    In carrying out these projects and the agency-wide focus on 
watershed health, the Forest Service will draw upon many disciplines, 
including State, Private and International Forestry, the National 
Forest System, and Research.
    An important aspect of restoring and improving watershed health 
addresses the lands at risk. Traditionally, risk has meant fire danger 
and insect and disease infestation. Over 58 million acres of the 
nation's forest lands are at risk due to mortality from insects and 
disease and 40 million acres within the National Forests are at risk of 
catastrophic wildfire due to past management practices and fire 
suppression. The Forest Service fully intends to use active management 
to treat these stands to restore forest health and in the process, 
provide jobs and wood fiber to local communities.
    We need to look at risk with a different perspective, thinking of 
risk in terms of the 40 to 50 percent of agency managed lands that 
require attention on a broad scale for a variety of reasons. For 
example, recreation facilities, trails, and roads that are poorly 
maintained result in national forest lands being at risk due to 
degraded water quality which harms fisheries, wetlands and riparian 
areas. Further, we need to expand the discussion of risk beyond 
National Forest System lands to the non-federal forest lands at risk 
not only due to watershed quality problems, but also due to conversion 
from open space. The Administration has proposed several strategies to 
address this broad risk issue including a $9.5 million effort to 
research and implement new methods for economical use of small diameter 
trees to meet national wood fiber demands.
    This expanded concept of risk is also portrayed in the agency's 
performance-based budget request for fiscal year 2001. For example, we 
are requesting an additional $19.2 million for the performance measure 
acres of forest, rangeland and lakes improved. With this additional 
funding, we propose to improve 430,000 acres of habitat for inland and 
anadromous fisheries, threatened and endangered species, and wildlife, 
which is an increase of 135,000 acres from fiscal year 2000 enacted.
    Watershed restoration and protection will also serve as the focus 
of future forest plan revisions. The fiscal year 2001 funding request 
for the watershed health and restoration component of the Natural 
Resource Agenda totals $487.7 million, a 9 percent increase over fiscal 
year 2000.
    Sustainable Forest Ecosystem Management.--The Forest Service and 
its partners are using a comprehensive criteria and indicator framework 
to achieve sustainable forest and range management in the Untied 
States. In 1999, the agency released new draft planning regulations 
that provide a framework for implementing collaborative stewardship. 
When completed, these regulations will govern administration of 192 
million acres of National Forest System lands.
    Sustainable management of all of the Nation's forest and rangelands 
requires collaboration among many interests and coordination across the 
landscape. The United States has adopted the Sustainable Forest 
Management Criteria and Indicators developed through the international 
Montreal Process. They provide a common framework allowing the Forest 
Service to work with interested State and private landowners to 
evaluate the health, diversity, and resiliency of our nation's forests. 
The Forest Service is leading a national effort to gather and report on 
the state of the Nation's forests in 2003.
    The fiscal year 2001 requested funding for the Sustainable Forest 
Ecosystem Management component of the Natural Resource Agenda totals 
$406.7 million, a 16 percent increase over fiscal year 2000.
    National Forest Road System.--Mr. Chairman, I know there is 
significant interest about our roadless initiative. We must put the 30-
year controversy over roadless areas to rest. One of the reasons I 
think it is so important to resolve the roadless issue is so we can 
begin to address other pressing demands, such as forest health.
    The National Forest System has more than 380,000 miles of 
classified roads and more than 60,000 miles of unclassified roads. 
However, the agency only receives about 20 percent of the funding it 
needs annually to maintain these roads to Federal safety and 
environmental standards. As a result, the deferred maintenance backlog 
is in the billions of dollars.
    One of the 47 performance measures within the agency's performance-
based budget addresses Forest Service roads and is an example of how 
performance measures will be used. The road condition index performance 
measure displays year-to-year changes in the condition of the road 
system based upon five attributes. The proposed index for fiscal year 
2001 is constant with the prior year, based upon a relatively static 
fiscal year 2001 funding request. In out years, the index will likely 
decline year to year without significant increases in funding.
    Last fall the President asked the Forest Service to begin 
developing a proposal to conserve and protect National Forest roadless 
areas that have remained unroaded for a variety of reasons including 
inaccessibility, rugged terrain, or environmental sensitivity. These 
areas also serve as the headwaters to many watersheds and provide clean 
water and wildlife habitat as well as aesthetic values.
    The proposal we are developing has two parts. First, we are 
considering restricting certain activities, such as road construction 
and reconstruction in the unroaded portions of inventoried roadless 
areas, the areas inventoried in the 1970's during two Roadless Area 
Reviews (RARE I and RARE II) and through the forest planning efforts of 
the 1980's and 1990's. Today, a large number of these areas remain 
roadless.
    Second, we will consider establishing procedures for local forests 
to consider as they plan activities in roadless areas. More than 
500,000 people have already participated in the rulemaking. To 
accommodate this level of interest, we have taken the unprecedented 
step of holding public meetings on every National Forest to discuss the 
issue.
    We released the proposed road management policy and draft 
environmental assessment for public comment on March 2, 2000. The 
policy outlines a process by which the Forest Service and local people 
can work together to determine the best way to manage local forest 
transportation systems, to make the existing forest road system safe, 
responsive to public needs, environmentally sound, affordable, and 
efficient to manage. It would:
    1. Be implemented through extensive public involvement and analysis 
at the local level;
    2. Require use of a scientific analysis procedure to help land 
managers and the public identify both heavily used roads that need to 
be maintained or upgraded, and roads that are unused or environmentally 
damaging that can be decommissioned; and
    3. Place a new emphasis on maintaining and reconstructing existing 
roads rather than building new roads, given the extensive road system 
that is already in place in most National Forests.
    Before the Forest Service builds news roads in roadless areas, it 
should invest its limited resources on projects that have broader 
support, cost less, and have fewer environmental effects. Our fiscal 
year 2001 funding request for the National Forest Road System of the 
Natural Resource Agenda totals $129.5 million, an 11 percent increase 
over fiscal year 2000.
    Recreation.--Recreation is the fastest growing use of the National 
Forests and Grasslands. The Forest Service is the Nation's largest 
supplier of public outdoor recreation opportunities, providing more 
that 2.5 million jobs and contributing more than $100 billion to the 
Nation's gross national product.
    The Natural Resource Agenda seeks to provide recreation 
opportunities that do not compromise land health and that increase 
customer satisfaction, educate Americans about their public lands, 
build community partnerships, and develop new business relationships 
with partners to expand recreation opportunities. Some of the 
recreation assets on our National Forests include:

  --31 National recreation areas, scenic areas and monuments;
  --133 scenic byways;
  --56 major visitor centers;
  --Over 133,000 miles of trails;
  --Over 4,000 miles of wild and scenic rivers;
  --More than 18,000 campgrounds, picnic areas and visitor facilities;
  --50 percent of the habitat for salmon and trout in the lower 48 
        States;
  --80 percent of the habitat for elk, bighorn sheep and mountain goat 
        in the lower 48 States;
  --63 percent of the designated wilderness in the lower 48 States;
  --2.3 million acres of fishable lakes, ponds and reservoirs;
  --200,000 miles of fishable streams; and
  --Hundreds of thousands of listings on the National Register of 
        Historic Places.
    In an urbanized society, outdoor recreation provides most Americans 
with an opportunity to connect to the lands and waters that sustain 
them. The Forest Service has a unique brand of nature-based recreation 
to offer, including undeveloped settings and an array of services that 
complement the enjoyment of these special places. Recreation visitors 
expect a great deal from the Forest Service and they will expect even 
more in the future.
    The fiscal year 2001 funding request includes $30 million proposed 
for developing tourism, reengineering the special use permitting 
process, developing trails, and improving operations at recreational 
facilities and attractions, many of which will be targeted toward lower 
income or resource-dependent areas adjacent to National Forests.
    The recreation component of the Natural Resource Agenda has 
developed a 6-point action plan to serve better the American public, 
including:

    1. Conduct market research to get to better understand what people 
want;
    2. Invest in special places, especially those being--loved to 
death--by visitation exceeding the capacity of the site;
    3. Reduce deferred maintenance through the application of 
techniques that assuring long-term sustainability of the site;
    4. Invest in natural resource conservation education and 
interpretive services;
    5. Take advantage of new business opportunities and provide 
services for underserved and low-income people; and
    6. Aggressively secure, provide, and maintain a forest road system 
that is ecologically sound and available to all Americans.
    Among the most valuable products of the National Forests are the 
experiences that live on a roll of film, or live as childhood memories 
of family hiking or camping experiences, or in the exhilaration one 
feels while running a wild river or seeing the crystal clear waters of 
Lake Tahoe. There is something for everyone to enjoy on the National 
Forests. We strive to serve new constituencies, urban populations, 
underserved and low-income people, and to maintain the relevancy of 
National Forests for future generations. The fiscal year 2001 proposed 
funding for the recreation component of the Natural Resource Agenda 
totals $397.4 million, a 13 percent increase over fiscal year 2000.

                  PROGRAM AND FINANCIAL ACCOUNTABILITY

    I would like to now discuss our progress in restoring program and 
financial accountability to the Forest Service. With the dedicated help 
of Secretary Dan Glickman, we have worked very closely with other parts 
of the Department of Agriculture to implement the needed financial and 
programmatic reforms.
    As I have said many times, if the Forest Service were in the 
private sector, with our 30,000-person workforce and 3.3 billion dollar 
budget, we would rival any Fortune 500 company. At the same time, due 
to persistent management weaknesses, financial accounting deficiencies, 
weak data, and poor strategic planning, I doubt very much we would last 
long in that environment.
    The Forest Service has not yet received a clean financial audit. 
When I arrived here, I had more than 35 individuals directly reporting 
to me. Our complex and cumbersome accounting system was staggering 
under the weight of 100 million individual financial transactions per 
month. Our Byzantine budget structure made it common that a district 
ranger interested in accomplishing 15 projects on the ground might have 
to make 250 budget entries simply to establish the projects in the 
accounting system. Meanwhile, because we have not sufficiently focused 
on strategic planning, appropriated budgets rarely, if ever, track 
expected outcomes described in agency forest plans.
    The fiscal year 2001 President's budget proposes significant reform 
of the agency's budget structure. As noted by the National Academy of 
Public Administration, the current budget structure does not reflect 
the nature of agency work performed on the ground and forces our 
district rangers to spend too much time balancing the books and too 
little time focusing on the natural resources for which they are 
responsible. The new proposed structure is performance-based. It 
presents the budget directly linked to 47 performance measures, that 
are in turn, directly linked to the agency's strategic plan, the 
Results Act, and the Natural Resource Agenda.
    The budget simplification and performance measures proposals are a 
cornerstone of our financial and accountability reform efforts. I am 
confident that with implementation, we will be able to clearly show how 
the Forest Service is using the taxpayers' money to conserve and 
restore the health, diversity, and resiliency of our lands and waters, 
and provide services to the American public.
    No Chief of the Forest Service in recent history has had to address 
the issue of accountability more than I have. I know that a clean audit 
by itself will not restore the agency's credibility with Congress and 
the American people; the agency must change its culture based on the 
knowledge we cannot be effective resource managers if we are not first 
accountable for the taxpayers' money and for our own actions on the 
landscape. We are making significant progress.
    I am happy to report to you that the Forest Service has:
  --Successfully implemented a new accounting system;
  --Developed an integrated set of land health and service to people 
        performance measures, that link land health and other outcomes 
        on the land to its strategic plan and budget information;
  --Published its draft Strategic Plan (2000 Revision) for comment that 
        shifts the focus of agency management away from inputs, outputs 
        and process to outcomes on the landscape;
  --For the first time in many years, filled all leadership positions 
        and also established the offices of the Chief Operating Officer 
        and the Chief Financial Officer to take responsibility for 
        improved program analysis and the linking of budget processes 
        to agency performance and strategic planning;
  --Conducted the first thorough real property inventory in the 
        agency's history that is critical for our financial audit;
  --Developed and implemented standard definitions for indirect costs;
  --Eliminated the backlog of over 1,000 civil rights complaints;
  --Replaced its crumbling technology infrastructure with a totally new 
        platform for management of information technology; and
  --Implemented controls on trust fund expenditures to assure 
        compliance with Congressional direction regarding indirect 
        expenses.
    A key component of our accountability reform effort involves the 
implementation of the Primary Purpose method of expenditures. Beginning 
in August of last year, we began informing appropriations and 
authorizing staff from both the House and Senate of our intent to 
implement this program in fiscal year 2000. Our request for realignment 
of funds is a result of that implementation. Operating under the 
Primary Purpose principle, the agency is now able to provide an 
accurate accounting of its expenditures, which it was unable to do in 
the past.
    Mr. Chairman, I do not think there should be any doubt that these 
actions demonstrate Forest Service leadership is committed to fix 
program and financial accountability deficiencies.

               OTHER HIGHLIGHTS OF THE PRESIDENT'S BUDGET

    I want to emphasize some other important aspects of the President's 
budget.
    President's Lands Legacy Initiative.--This initiative highlights 
the Administration's continued commitment to protect public open space 
by acquiring lands for conservation and recreation.
    By working with States, tribes, local governments and private 
partners, the Forest Service acquires lands to protect cultural and 
historic treasures, conserve open space for recreation and wildlife 
habitat, protect clean water supplies and wilderness areas and preserve 
forests, farmlands, and coastal areas. The fiscal year 2001 budget 
includes $236 million for the programs within the Lands Legacy 
Initiative.
    The land acquisition portion of the initiative is funded through 
the Land and Water Conservation Fund. Many of the acquired lands are 
located in congressionally designated areas such as Wilderness, 
National Recreation Areas, Wild and Scenic Rivers and National Scenic 
Trails. Acquisitions also improve forest management through 
consolidation of boundaries and providing access to existing National 
Forests and Grasslands.
    Forest Legacy, Urban and Community Forestry and Economic Action 
Programs also provide an avenue for the Forest Service to work with 
States and willing private landowners to provide jobs while conserving 
important forest economic, ecological-environmental and social values 
that represent national priorities.
    Legislative Proposals.--The Administration will advance several new 
legislative proposals including Payments to States Stabilization, 
Healthy Investments in Rural Environments (HIRE), Land Acquisition 
Reinvestment Fund, and Facilities Acquisition and Enhancement Fund. Mr. 
Chairman, I am especially excited about our payments to states 
legislation that we will transmit shortly. It focuses on providing 
States with stable and permanent education funding, while allowing more 
money to be spent on forest health restoration and restoring a closer 
working relationship between rural counties and the Forest Service.
    The President's budget includes special emphasis on employing rural 
workers and enhancing the skills of America's youth. The Administration 
is proposing the HIRE program in conjunction with a comprehensive 
proposal to reform four of our trust funds. This proposal eliminates 
the trust funds that have historically been dependent on timber 
receipts and proposes establishing a new permanent mandatory 
appropriation. All the work conducted under the existing trust fund 
authorities would be authorized under this new mandatory appropriation, 
but with preference for local contracting and employing of skilled 
rural workers to accomplish the work. With this expanded authority and 
appropriate funding levels, attention will be focused on addressing our 
critical facility, road, and watershed restoration backlog.
    The fiscal year 2001 budget also reflects a number of legislative 
proposals that would reform selected programs to initiate or increase 
fee collections and expand the involvement of the private sector where 
appropriate.

                             IN CONCLUSION

    Mr. Chairman, this budget effectively provides the resources 
necessary to implement our programs consistent with the Forest 
Service's Natural Resource Agenda, Presidential Initiatives and other 
priority funding areas. More importantly, the proposed new budget 
structure and performance-based approach shows the ecosystem 
conservation activities and public services that will benefit ours and 
future generations.
    This concludes my written statement. I would be pleased to answer 
any questions that you may have.

    Senator Gorton. Well, I think with all the patience that he 
has shown, I will give that first opportunity to Senator 
Bennett.
    Senator Bennett. Thank you, Mr. Chairman.
    Mr. Dombeck and Mr. Lyons, both, you have talked about 
collaboration on the local level, and local involvement, and 
how much that is needed, and how important it is. The State of 
Utah formally asked to be a participant and has been denied. 
Can you square those two for me?
    Secretary Lyons. I will be pleased to address that, 
Senator. We received requests from a number of States for 
cooperating status in this rulemaking related to roadless 
areas. We met with a number of the Western governors.
    Governor Leavitt, unfortunately, was not a part of that, 
but several others were there, and we discussed ways in which 
we could, in essence, provide the functional equivalent of 
cooperating status without the formal designation.
    Our reason for that, to be candid, was that we are 
concerned with the large number of entities that seek 
cooperating status--a large number of States, Tribes, community 
groups, and the like--who would like to secure that status. The 
difficulty is trying to manage a process with all those 
cooperators, and, frankly, the potential for someone monkey-
wrenching the system. In fact, it was interesting to have one 
of the Governors acknowledge that that could be a cause for 
concern with all those entities wanting cooperating status.
    Mike and I sent a letter to Governor Cayetano, who chairs 
the Western Governors' Association currently, and I ask, Mr. 
Chairman, if this could be made a part of the record.
    Senator Gorton. Certainly. Without objection.
    [The letter follows:]

   Letter From Under Secretary James R. Lyons and Chief Mike Dombeck

                    U.S. Department of Agriculture,
                                            Forest Service,
                                    Washington, DC, March 14, 2000.

Hon. Benjamin J. Cayetano,
Chairman, Western Governors' Association,
Denver, CO.
    Dear Governor Cayetano: We appreciated meeting with Governors 
Geringer, Kempthorne, Racicot, Knowles, and the staffs of the other 
western Governors on Saturday, February 25, 2000, to discuss the 
participation of the western Governors in our roadless area rulemaking. 
We agree that the State agencies possess important information that may 
be of use to the Forest Service in conducting its social and 
environmental analyses associated with the roadless rulemaking.
    Working together in a collaborative manner can help to expedite and 
improve our environmental analysis. We would like to improve the 
information flow and exchange of ideas between the States and the 
Forest Service relative to roadless areas. To that end, we propose the 
following procedures to maximize cooperation with interested western 
Governors' offices and State agencies:
  --The Governors of the western States could designate representatives 
        to serve as a conduit to solicit, collect, and syntnesize input 
        from those Governors' offices and State agencies and to serve 
        as a forum for communication between the States and the Forest 
        Service. The Forest Service will, in turn, use the Governors' 
        designees as their principal communications vehicle for seeking 
        information, asking questions, or communicating updated 
        progress reports to the western States and State agencies. The 
        Governors or their representatives will assist in expediting 
        and making this communication more efficient and effective, 
        running both ways.
  --Randy Phillips, Deputy Chief for Programs and Legislation, will 
        serve as our liaison to the Governors and with other 
        intergovernmental organizations to ensure open communication 
        and coordination on this and other issues. Jim Furnish, Deputy 
        Chief of the National Forest System, and Chris Wood, Chief's 
        Office, will meet, with the western Governors and their 
        designated representatives specifically on this issue, to be 
        scheduled by mutual agreement.
  --The States will assist the Forest Service in identifying locations 
        and other potential forums for public involvement during the 
        public comment phase of the rulemaking.
  --Forest Service can be available to answer technical questions at 
        one or two coordinated State work session(s) as the States 
        develop input on the DEIS and proposed rule.
    To give you a sense of our public involvement process, when the 
proposed rule and draft EIS are published, we are contemplating 
distribution of 100,000 executive summaries and up to 50,000 full 
copies of the DEIS, making available 10,000 CD-Roms containing the 
DEIS, and making it available on our website. The printed copies, CD-
Roms, and website will all contain (as the website does now) complete 
detailed maps of every inventoried roadless area. Over 200 additional 
community meetings are anticipated. In addition, we foresee 
distributing copies to every public library in the country; around 
16,000 in total. We would welcome additional suggestions for 
communicating directly with the public.
    As you know, we believe very strongly in the tenets of 
collaborative stewardship. We also believe that given the thousands of 
comments we have received and the years of debate surrounding the 
roadless area issue, it is clear that this is an issue of both national 
and local significance. In the Notice of Intent, we outlined a strategy 
to deal with the issue at both national and local scales. We would like 
very much to work with you in the manner described above as we address 
the national aspects of this issue. In addition, there will be a 
variety of opportunities for the States and their many agencies to 
participate in future planning efforts that address the significant 
local aspects of the roadless area issue.
    We value our partnership very much and look forward to working with 
you on the roadless area rulemaking and other pressing problems such as 
water quality, forest health, rural jobs, and our growing maintenance 
backlog. I am sending copies of this to the other western Governors.
    Thank you for your continued interest in national forests and 
grasslands.
            Sincerely,
                                   James R. Lyons,
                                           Under Secretary, NRE.
                                   Mike Dombeck,
                                           Chief.

    Secretary Lyons. It outlines the steps that we are very 
interested in taking in working with the Western governors. We 
have extended similar offers to the National Association of 
Counties and to the National Governors' Association, to work 
with them in facilitating the transfer of information, sharing 
of data, in the development of public meetings, and in the 
process of providing answers to the technical questions and 
concerns that are likely to be raised as we go through this 
NEPA process.
    Senator Bennett. In other words, you will be happy to share 
information with them and tell them what you are doing, but you 
will not be interested in their ultimate opinion as to what you 
ought to be doing. In other words, you reserve to yourselves 
the right to make a decision basically without any more than 
just receiving input from them.
    Secretary Lyons. No, sir. I want to be clear. I was not 
suggesting one-way communication. In fact, the letter says:

    The Governors of the Western States could designate 
representatives to serve as a conduit to solicit, collect, and 
synthesize input from those governors, offices, and State 
agencies, and to serve as a forum for communication between the 
States and the Forest Service.

    Senator Bennett. Senator Craig, you had a comment on that. 
Do you want to----
    Senator Craig. I am frustrated. When we held the hearing I 
asked both of you, are you going to allow this, and the answer 
was no, no lead-on, no follow, no. When you met with the 
Governors, no. Now that it is a national issue, and the heat is 
on, you are changing your story.
    Secretary Lyons. That is not true, Senator.
    Senator Craig. Well, it is true, and that is what the 
record shows. I am sorry.
    Secretary Lyons. Senator, I hate to disagree with you, 
but----
    Senator Craig. Please go ahead. You do often.
    Secretary Lyons. Thank you, sir. What we said in the 
hearing was, we were not going to grant formal cooperating 
status, and we have not offered that to the Governors. We are 
recommending to them a process that will grant them the 
functional equivalent of that status, and, in essence, the 
rights and privileges that come with that.
    Senator Craig. Cover thy tail. Thank you.
    Secretary Lyons. Well, more emphasis on process, I think, 
in trying to satisfy their concerns than the formal legal 
issues that could come of a potential granting of the status, 
and concern about monkey-wrenching the system.
    Senator Bennett. The proposed rule with respect to the 
transportation policy says that there must be a compelling need 
for a new road in a roadless area. What is a compelling need? 
Can you give me an example of something that might be a 
compelling need?
    Mr. Dombeck. Yes. Forest health--level of forest health 
issues--other kinds of things that the forest supervisor--and I 
believe, is at the discretion of the regional forester to make 
that decision. I think there could be a variety of----
    Senator Bennett. Is mitigating insect damage a compelling 
need? It comes under the heading of forest health.
    Mr. Dombeck. I guess I cannot--we are not providing that 
level of direction at the national level. That is something 
that a local community, perhaps, that is dealing with fire risk 
concerns of the wildland/urban interface--I assume that we 
would have a scientific analysis and recommendations that would 
be made at the local level.
    Senator Bennett. Well, again, not to be too parochial about 
it, the local people in Utah are very concerned about the 
beetle infestation in the Dixie, and have been unable for years 
to do anything about it, and the beetle infestation grows to 
the point where a portion of the Dixie Forest now is considered 
by some who have knowledge in this area as being basically 
dead. The forest has died.
    Now, some of my colleagues have said the whole Dixie Forest 
has been killed by the Clinton administration, and that is 
overstatement, and I do not endorse that, but significant 
portions of the Dixie Forest have been killed by the beetle 
infestation, and every attempt, coming out of local 
participation, local concern, to get something done about it 
has been stymied at the national level.
    Now, some of this happened before your watch, so I am not 
putting it at your feet, Mr. Dombeck, but you have words in 
here that say ``compelling need will allow the need for a new 
road in a roadless area.''
    We are not talking about roadless areas now. We are talking 
about areas you are trying to turn into roadless areas by 
saying that the roads that have been used cannot be, but the 
continual battle in the Dixie Forest to keep people out in the 
name of environmental preservation has produced devastation 
within the forest, and I do not understand that. I do not 
understand why that is good for the environment.
    Now, maybe it is a natural process to let the beetle come 
along and destroy the trees, but that is not your challenge. 
Your challenge is to keep the trees healthy, and there have 
been other places where the Forest Service has been able to 
keep the trees healthy.
    We have a problem in the Dixie Forest, it is very serious, 
it is not getting any better, and I would hope that this 
language in the proposed rule would be interpreted in such a 
way at the national level that local people could be encouraged 
to say the health of the forest is in jeopardy here.
    Now, this is separate and apart from the timber issue. The 
timber issue is an emotional one that we get into. This is 
separate and apart. This is forest health issue, and it is one 
where a particular stakeholder, and I grant the environmental 
community that status, absolutely, they have every bit as much 
right to be concerned about this as any other stakeholder, but 
this is a particular stakeholder that has been dominating for 
years the management practices in this area, and the forest is 
paying the price, not the local community. The local community 
has their price that they have paid. The forest is paying the 
price as trees are being killed.
    Now, one last comment. You talk about roadless issue not 
being an access issue. There are those who will disagree with 
that, who insist that the roadless position taken by this 
Administration is, indeed, an attempt to restrict access. I 
would like to suggest to you and have you comment on, as a 
national policy, no net loss of access.
    Our population is growing rapidly. Our open spaces are not. 
Our open spaces are finite, whether they are in national 
forests, or in BLM land, or wherever they may be. National 
forests are a unique asset. I think it is counterproductive to 
have a policy that says as the population goes up, access to 
public lands will come down, and I would like you to address 
what would happen if we adopted as a national policy no net 
loss of public access to public lands.
    What would that do to you and your attitude about roadless 
areas?
    Mr. Dombeck. First, the reality is--as we look at the 
infrastructure and the road system--we are losing access 
because of lack of maintenance. In our arterial and collector 
systems, which are the systems that a two-wheel-drive vehicle 
can drive down, we are losing somewhere in the neighborhood of 
a 1,000 to 1,200 miles every year because of bridges that are 
no longer safe, because of washouts, and other kinds of things 
as the backlog grows.
    I commend this committee and others for having provided us 
increases in road maintenance. I think we have had significant 
increases there. Our request this year is $129 million; again, 
an increase, I believe, of 11 percent. So I would encourage 
your support for that.
    I think the reality is that Americans have greater access 
today than they have ever had with a much wider variety of 
everything--from motorized, to non-motorized kinds of 
equipment--to not only national forests, but all lands, as we 
look at the increasing use of mountain bikes, which, in fact, I 
think is one of the fastest growing recreational activities in 
the United States. We have the four-wheelers and hikers getting 
into more places.
    I think that you are going to see more people in the 
national forests. Just on the Wasatch Front, with the number of 
people that live in Salt Lake City. We have literally thousands 
of people every day that go out and enjoy the national forests.
    Senator Bennett. That is not necessarily my question. Yes, 
we are seeing more and more people trying to access the 
forests, and I take your point about the maintenance of roads. 
I think that is a legitimate point. I am talking about total 
acreage, no net loss of total acreage available for public 
access to public lands.
    At least the efforts that I have seen out of this 
Administration have been going in the other direction. They 
have been trying to reduce the amount of acres of public lands 
to which the public will have access. Certainly, that step was 
taken with respect to the creation of the national monument in 
my State, shut down public access to lands.
    Would you endorse a position that says no net loss, 
measured in acreage, of public access to public land, in 
exchange for our helping you with maintaining the roads and 
maintaining the access that is there?
    Mr. Dombeck. I guess I am not sure I am in the position to 
give you an answer right now. What I would like to do is really 
take a look at the data. One of the things that is coming out 
of this roadless exercise is probably the best data that we 
have had, or will have, on the relationship of roadless areas 
to forest health issues, to fire risk issues, to population 
density, and to a wide variety of things. I think that will 
really give us a picture. I would be happy to have that 
conversation with the data at hand.
    Senator Gorton. I do not think you are going to get an 
answer to your question, Senator.
    Secretary Lyons. I will take a shot at it, Senator. I think 
the answer to that is: I do not think we can commit to that 
because we do not know, as Mike just suggested, what access we 
currently have. We know we are losing access.
    We have just completed, through a two percent sample, an 
inventory of our road system. We discover roads that we did not 
know we had as we go through these inventories. That is why we 
need to go through a process to understand what is out there, 
what access is available, and go through a public process at 
the local level--to work with communities to determine what 
roads should be improved--what access is required--and what 
roads the community might desire be set aside, be closed off 
for periods of time, or even put to bed.
    So I will commit to you to a process to attempt to do that 
with the road system and work with communities in that regard. 
I cannot commit to net access, although it has a lot of appeal. 
It is a difficult question to address until you know what you 
have out there.
    Senator Bennett. I appreciate that, and I will accept your 
commitment to help us get the necessary data, but I will tell 
you and representatives of the Interior Department, who may 
come before us, that I have decided that is going to be my 
goal, that we have no net loss of public access to public 
lands.
    Some of the public lands are under your stewardship, some 
are under the Interior Department's stewardship, but I am 
frightened by the trend that I see, and data you develop may 
demonstrate that my data is wrong, but at least the data that I 
see tell me that this administration is committed to reducing 
public access to public lands, in the name of protecting those 
lands. I do not buy the argument that that is protection, and I 
feel to take the argument that we hear often on this committee, 
and elsewhere, that the public lands belong to the public, and 
not to the people of Utah.
    I hear that a lot: ``This is public land, this does not 
belong to the people of Utah. You are a Senator from Utah, you 
should not have anything to say about this. These are public 
lands. They belong to all the people.''
    In the spirit of that argument, I think we should say, all 
of the people should be able to maintain at least the current 
access they have to public lands, and we should, as a Nation, 
adopt a policy that says no net loss of public access to public 
land.
    So any data you can give me will be much appreciated, and I 
hope I have stimulated you to start looking in a direction that 
you may not have looked in before.
    Secretary Lyons. Well, I would enjoy the opportunity to 
explore that more with you, Senator, but I just wanted to make 
one point, and that is: All of us acknowledge that the public 
lives in Utah, too; we are all part of the public, and----
    Senator Bennett. You have not necessarily made that 
argument, but a lot of folks have.
    Secretary Lyons. OK. But just one other point, because this 
is critical. You have helped us tremendously in providing 
resources for road maintenance, but one thing gets lost in the 
shuffle: All the burden has fallen to the subcommittee to 
provide us the funds to deal with this issue.
    When the T-21 bill was passed, the Forest Service got no 
money for maintenance of national forest system roads at all. 
That is why I am confident in sharing with you the figure that 
every year we lose about 1,100 miles of road access. That 
backlog of maintenance increases by $120 million annually.
    So just to address the concern of no net loss of access, we 
need at least another $120 million a year to keep up with what 
we are losing. So I would enjoy the dialogue with you.
    Senator Bennett. Thank you. I happen to sit on that 
subcommittee, too.
    Secretary Lyons. That is why I mentioned that.
    Senator Bennett. Yes.
    Thank you.
    Senator Gorton. Senator Byrd, I will defer to you at this 
point.
    Senator Byrd. Last year the Senate and House appropriations 
committees advised the Forest Service to heed the management 
conclusions of the National Academy of Public Administration's 
report. The conference report for the fiscal year 2000 
appropriations specifically focused on the lack of sufficient 
linkage between the budget processes and beyond the groundwork 
of the Forest Service.
    This year, the Forest Service has presented a budget 
request, according to a budget structure, that has not been 
approved by the Congress. I have some reservations about the 
proposed budget structure.
    What happens if Congress does not approve the budget 
structure that you presented? Do you have a fallback position, 
or is it too late in the process?
    Mr. Dombeck. Well, Senator, I hope that we can make 
progress on simplifying the budget structure of the Forest 
Service.
    You will also note in the explanatory notes that we have a 
crosswalk that compares the present budget structure with the 
proposed budget structure. We can see at each juncture what it 
would have been and where it was. I think the common goal that 
we share in this is that we need to simplify the process, 
simplify the accounting processes, and we would hope that you 
would help us with that.
    Senator Byrd. You did not answer my question. What happens 
if Congress does not approve the budget structure you have 
presented? It might not, you know, you know, you know, you 
know. I am going to use that inanity of inanities, you know. 
What happens?
    Mr. Dombeck. Well, my assumption is that we have the 
current budget structure, and we move forward with that. I want 
to ask our Chief Financial Officer, who knows this inside-out 
in immense detail, if she has a comment.
    Ms. Goerl. Well, Senator, we would, of course, proceed with 
whatever budget structure that is appropriated by the 
Appropriations Committee. We would proceed in that regard.
    I would like to point out, though, that we very 
purposefully--in the interest of gaining support and interest, 
and involvement of the appropriations committees--included the 
staff in a meeting that we had with GAO and NAPA, shortly after 
the report was produced in August, for a 2-day meeting to 
review the NAPA recommendations. We looked at proposals for the 
future so that we could have that dialogue with both the 
appropriations staff from the House and from the Senate and, 
along with GAO and NAPA, other members of our staff, to take 
that and see what we would do with that. We had very good 
discussions. The budget structure that is presented here today 
is what evolved out of that discussion.
    Senator Byrd. That is all well and good, but I am 
interested in knowing what you would do in case the Congress 
does not accept the structure that you have presented. It is a 
possibility, you know.
    Ms. Goerl. Absolutely.
    Senator Byrd. The Congress may not approve the proposed 
budget structure.
    Mr. Dombeck. Senator, I think that what we would continue 
with is continue with some of the burden of the complexities 
that we have.
    I have an example that I would like to describe of the 
current budget structure, with the future budget structure that 
is proposed, that I think can shed some light on the importance 
of this.
    This is a--if the staff would put up a chart--typical 
Forest Service project. This one happens to be from the 
Willamette National Forest----
    Senator Byrd. How much time is this going to take?
    Mr. Dombeck. Pardon?
    Senator Byrd. I guess I have a limited amount of time, do I 
not?
    Senator Gorton. No, Senator, you have as much as you need.
    Mr. Dombeck. I will make it as quick as I can. This is a 
$97,000 project. Under the current benefitting function 
approach that we use now, an individual employee would charge 
15 accounts for this project.
    So, then, if we take a look at the accounting procedures 
associated with this, and then the payroll processing, we have: 
salary; retirement; life insurance; Social Security deductions; 
health benefits; and so on. We basically end up with 90 
transactions with these 15 line items. Using the primary 
purpose principle, we end up with one transaction in our 
financial system.
    Now, typically, an employee would work on several projects 
in a pay period, not just one. This would be multiplied, 90 
transactions times the number of projects they worked on.
    Then if we take a look at the agency, with 30,000 
employees, it is--I hope this points out the complexity that we 
are trying to get out from underneath. All of this energy that 
goes into the accounting procedures really does not improve the 
project on the ground. It relegates more field employees doing 
more work on the budget rather than on the natural resources.
    We hope together that we can simplify the process so we can 
deliver more resources to the ground.
    Senator Byrd. It is commendable that the Forest Service has 
acknowledged the over-complexity of its budget, and is 
proposing to do something about it, but I am concerned that the 
proposal goes too far. For example, the proposal before us 
combines, as you have indicated, dissimilar activities into a 
single category titled National Forest System.
    You include recreation, grazing, wildlife habitat 
management, timber sales management, and law enforcement 
operations in the same budget line item. Is this not a rather 
radical solution? Have you considered anything less radical 
than this?
    Mr. Dombeck. We have backed off in the discussion with the 
Appropriations Committee staff, NAPA, and others--to provide a 
little bit more detail than the simplification that NAPA 
recommended--and I would ask Vincette to give us those details.
    Ms. Goerl. Well, in the presentation of the budget, we 
looked at presenting the information along the lines of 
ecosystem health and conservation, public service, and uses. We 
also looked at program components. We presented performance 
measures and program components within each of those particular 
areas.
    For instance, looking at wilderness areas and other kinds 
of ecosystem health areas--underneath ecosystems health--and 
then looking at timber management as a program component under 
public uses and services--so that we could support those 
particular line items--but also we presented 23 performance 
measures--and we very purposefully looked at this as a 
performance-based budget--and to look at the measures and the 
dollars associated with those measures underneath each of those 
budget line items in our effort to move toward looking at the 
results of what we wanted to achieve with the investment rather 
than just the amount of dollars that would be invested in that 
line item.
    We have addressed some of the issues where appropriations 
committees and others have questioned whether those performance 
measures need more work. In fact, in recreation we believe they 
do. We are working within the agencies to come back with some 
additional measures in those areas to support better just 
exactly what we expect to achieve in those particular program 
components.
    Senator Byrd. I am concerned that accountability for the 
monies that are being given to your control for various items 
may suffer. How will you be able to account for many different 
activities, if you have only one budget category titled, 
National Forest System?
    How will the Congress, which has constitutional oversight 
over your program and all the other programs in this 
Government, although some people in the executive branch tend 
to forget it, be assured that there will be accountability for 
these monies, if everything is going to be categorized under 
one single item?
    Mr. Dombeck. The place that I think that we are headed, as 
required by the Government Performance and Results Act, is to 
move to an accountability and outcome-based performance system, 
to really track what gets done, rather than tracking the 
dollars through the system.
    Now, we will continue to be tracking dollars through 
systems like the amounts of money that go to--whether it is 
Princeton, or the Monongahela National Forest, or to Idaho, or 
to individual units--but we really want to look at the endpoint 
of what we are delivering to the public.
    Senator Byrd. How are we going to know whether that end 
point is justified? How are we going to know whether it was 
achieved with the utmost efficiency? How are we going to know 
if the monies that were appropriated to your agency have been 
spent wisely? How can you assure the Senate that you will be 
spending appropriations according to the will of Congress?
    We may not know that now, but soon we are going to be in a 
greater fog if we go down that road of diminishing line items. 
How can you assure the Senate you will be spending 
appropriations according to the will of Congress?
    I am not saying we are perfect in our oversight. We are 
unfortunately pretty lacking ourselves. We need to sharpen up 
our oversight. It seems to me that you are going to make it 
more difficult for us.
    Mr. Dombeck. Well, an important piece of this is the 
accounting system, and having the general ledger in place that 
tracks the transactions. This is something in which we have 
been woefully lacking. Part of it is because of the complexity, 
and I think Vincette can explain that system.
    Ms. Goerl. With the implementation of our new financial 
system on October 1, we have, really, the foundation for much 
better accountability that we have had for the last 10 or 15 
years, certainly, because we did not have a standard general 
ledger.
    At the same time, we set up a structure in the current year 
with the current budget structure to ensure that accounting for 
that down to the unit and such was tracked and had audit 
trails, which we did not have before. So I can assure you--as a 
base level, under any new budget, the current budget structure 
or the future--we are going to have a better accountability 
with regard to that.
    With the new budget structure, we are looking at some of 
the issues that Mr. Dombeck mentioned with regard to the 
simplicity of our programs. Many of our programs have moved 
toward multiple projects with multiple outcomes. The accounting 
for those, because of the numerous line items, very quickly 
gets lost in terms of accountability because of the number of 
transactions. It causes a tremendous amount of work that goes 
through the system that can easily be confused. Less 
accountability can come about that even with the simplified 
structure.
    There are a couple of things that come into play that NAPA 
encouraged us to do. We are implementing--along with a new 
budget structure and a new financial system--a performance-
based, outcome-associated measurement system. We have proposed 
it in this budget. We need to work on it, but we intend to 
provide accountability through those outcomes and results 
measures. Finally, program review and monitoring--which I think 
we have been woefully inadequate in supporting--is to review 
what has actually happened as we move through the year. We were 
not doing that. We did not have the systems. We did not have 
the structure to go about doing that on a more orderly basis. 
We fully expect to do that this year--with any new budget 
structure--should the appropriations committee agree with our 
request.
    Mr. Dombeck. Senator, I have also asked our Chief Operating 
Officer to really revitalize our program review function within 
the Forest Service. I think if you talk to many retirees of the 
Forest Service, and others, we spend more and more time dealing 
with tough issues.
    As the size of the agency has been reduced now in the 
nineties, we are spending less and less time on field level 
program reviews--to actually take a look at that slide on the 
Highland Scenic Highway and see if it has been taken care of 
appropriately--or the standards of the Hiawatha Trail--or 
whatever the project may be--and really bolster that side of it 
so that we have a connection between the bookkeeping system of 
the Agency as well as the quality of work that is taking place 
on the land. The part of monitoring of our many, many programs 
is also an area that--in the desire to do more projects, there 
is the tendency to invest less time and energy into the 
monitoring of those that is very important and then making 
adjustments as we need to in dealing with situations. It is a 
multifaceted effort.
    Senator Byrd. I am just as concerned about funds intended 
for on-the-ground operations being diverted for administrative 
uses in Washington, DC. How would you be able to control 
spending for administration, when it is combined with the 
programs?
    Mr. Dombeck. Again, I will ask Vincette, our Chief 
Financial Officer, who has been the architect of much of this, 
to provide you with the details.
    Senator Byrd. Why can you not provide them?
    Mr. Dombeck. Well, I can, and I will ask Vincette to fill 
in the details. With regard to the dollars that have gone to 
the field, some data that I have are that there have been 
increasing allocations out of the Washington office. Now, let 
me ask you, is your concern the increase of money at the 
Washington level?
    Senator Byrd. Let me ask you the question again. I do not 
think it needs an explanation. Congress is concerned about 
funds intended for on-the-ground operations being diverted for 
administrative uses in Washington.
    How would you be able to control spending for 
administration when it is combined with the program? What level 
of accountability can you provide this committee?
    Mr. Dombeck. I think there are two ways we will accomplish 
that. One is through using the Federal Accounting Standards 
Board definition of indirect costs, and we have asked for--some 
changes are occurring now, associated with the General 
Administration account. The data tells us that about less than 
50 percent of the actual indirect costs come from GA. So, 
therefore, the remainder of that is charged to the individual 
programs.
    The advantage of having the kind of data system that the 
Chief Financial Officer described--well, that will give us a 
clearer picture of exactly where the money is going through the 
system and what it is being used for.
    Senator Byrd. Well, Mr. Chairman, I would say I am less 
than impressed. Perhaps, it is not too important, whether I am 
impressed or not.
    What is your situation? I do not want to overdo my----
    Senator Gorton. Well, if you would not mind, I would like 
to ask a few questions, and then we can come back to you----
    Senator Byrd. Move on. Let us do that.
    Senator Gorton [continuing]. Particularly since I want to 
ask one or two on the subject that you have just covered.
    Senator Byrd. OK.
    Senator Gorton. I will try to simplify it. Obviously, there 
is an advantage to the Forest Service itself in being able to 
dramatically reduce this number of categories. Obviously, you 
will save money and can use it programmatically, if you do not 
have to go through all of these details, with every minor 
project, with literally dozens of employees, but Senator Byrd's 
question is quite an appropriate one.
    We, as Members of Congress, have a great deal of interest 
in how much money you will spend on recreation, timber 
programs, habitat management, law enforcement. If we give you 
these three categories only, how in the world are we ever going 
to know how much money you have spent on recreation?
    Mr. Dombeck. Again, I think if we look at the way a field 
employee does a job on a typical day or a typical week--of a 
field employee--that may work on several aspects of a major 
project--that has influences on vegetation management--
something perhaps associated with fuel treatment--has 
influences or impacts on the fisheries program--on the 
watershed program--what we are essentially doing is, through 
the accounting system, asking that unit to go through and 
charge these various hours or days--with a lot of resolution--
that adds tremendous complexity. I think what we are looking 
for is an outcome-based system where we can take a look at the 
endpoint of the project.
    Senator Gorton. Mike, that does not answer my question, 
unless what you are saying is, we do not know how much you are 
spending on recreation now, and we are not going to know it 
after you change the accounting system. Is that what you are 
telling me?
    Secretary Lyons. Mr. Chairman, I think this is getting 
infinitely complex. I think the answer is that we would report 
back to you what we spent in recreation and accomplishments in 
that regard.
    Senator Gorton. OK. Then, Jim, that is good, but is that 
not going to require you to keep the same kind of time charts 
on this employee out there who is doing five different kinds of 
jobs a day as you are doing now?
    Secretary Lyons. I am venturing into areas that I do not 
spend a lot of time on. I think Mike and his staff have 
invested a lot here.
    I would be honest, Mr. Chairman, in telling you that the 
direction I have gotten from the Secretary is that the 
Department of Agriculture will have a clean audit at some point 
in time. The Forest Service is the problem, so fix it, and we 
are fixing it.
    With regard with how we work with you--to share that 
information--I know Vincette has been spending time in trying 
to design a system that would allow us--perhaps through project 
planning, I think that is what NAPA recommended--to add up that 
information--but try and limit the number of transactions, so 
we could report outcomes, and tie that back to investments, 
whether it is for recreation, or whatever categories we agree 
we are going to add that information up in.
    Ms. Goerl. If I might add to the discussion, one of the 
things that occurs after--obviously, when we develop project 
plans through the year, then we get very specific about whether 
it is a recreation project or otherwise. The expectation is 
that we would be able to, to some extent in the system, track 
large projects at the higher levels. We would be able to look 
at categorizing in such ways that you could come up with those 
particular investments.
    But more importantly, with the performance measures that we 
have proposed in there, we expect to be able to account for the 
funds that are associated with delivering those performance 
measures. The system that we have put in place and that we 
expect to implement--if you would give us the new budget 
structure--would be able to look at the investment and be able 
to track the investment on what the dollars were to accomplish 
under those measures.
    There are 27 of them that we have presented. We have said 
that we agree with the staff's comments to date. Recreation 
probably needs to have better performance measures. We expect, 
in the next 3 to 4 weeks, to be back with you on those 
measures.
    Senator Gorton. Perhaps we have beaten this subject as far 
as we can in this connection, but you know from Senator Byrd's 
questions and from mine our deep apprehension about the 
proposition that we know too little now about how the money we 
are appropriating is spent. I have a couple of parochial 
questions on that, matters that we went through just in the 
course of the last couple of weeks.
    I think you must understand, there is a deep distress on 
the part of members of the subcommittee as to whether or not we 
will better be able to make those determinations if we give you 
this broad grant of authority. It has many appealing features, 
obviously, from the point of view of your accounting.
    The question that we have to ask ourselves is, does it have 
any appealing features, as far as we are concerned in 
understanding where these billions of dollars that we are 
appropriating are actually going, and to reach your goal you 
are going to have to satisfy that connection.
    It is safe to say both for me and for Senator Byrd, if you 
are going to have some of those measures in three or four 
weeks, that will be in plenty of time, but I think you need to 
be warned that if you want to get something that is greatly 
desirable to you, we are going to have to feel comfortable with 
it, comfortable with the way you account for the money.
    Ms. Goerl. Senator, I would be willing to work with you and 
your staff to do anything that we can to move us forward and to 
satisfy your concerns.
    Secretary Lyons. Senator, I know we would be pleased to sit 
down with you, and Senator Byrd as well, to walk through these 
things. I think one thing I want to emphasize, in addition to 
my comments about the direction I have gotten from the 
Secretary, is, you know, for years, the handle the subcommittee 
has had to track performance and how we spent appropriations--
where those dollars went--frankly, as a manager, I do not know 
that that is an adequate handle--because we ought to be 
concerned about--and I know you have this concern--is the 
efficiency with which we spend those resources.
    Part of what we are trying to do here, in reforming the 
system, is to come up with a better way to track 
accomplishments and actually provided incentives to do work, as 
opposed to simply track dollars by managers. Hopefully, in that 
regard, the flexibility that will come with this new system 
will give managers the incentive to spend more wisely and more 
efficiently.
    Now, if we can design a system that satisfies your needs 
and the management needs we have described, I think that would 
be wonderful. We will work as best as we can to try and do 
that, and to address your concerns.
    Mr. Dombeck. The key that I think we are all interested in 
is linking the budget process outcome-based performance--and 
have as simple a budget process as we can have to meet your 
needs--and to meet our management needs--and link that then to 
what happens on the land.
    Senator Gorton. Well, we all share those goals. What has 
not been proven to us yet is whether or not this will help us 
reach those goals.
    Senator Byrd, I had an 11:45 meeting that is waiting for me 
outside now. I think I will defer back to you for a few more 
questions at least, while I go meet with this group, and you 
can share the time with Senator Craig, but he has already had a 
fair amount of questions. So go ahead.
    Senator Byrd. I will not be long. Thank you very much. The 
administration is proposing a $30 million tourism initiative 
for the Forest Service. Your budget states that the Forest 
Service intends to focus on 20 priority locations around the 
country. Do you have a list of these priority locations?
    Mr. Dombeck. The development of that list is occurring now, 
and we will provide that list to you. There is no current list 
finalized at this time.
    Senator Byrd. Well, how are you able to focus on the number 
20 if there is no current list? Do you have any ideas as to 
where these locations would be? I would be interested in 
knowing if West Virginia is on that list.
    Mr. Dombeck. Well, the regions have been asked to develop 
proposals for this within the next few weeks. I can assure you 
that we will be working with West Virginia, and other States as 
well, as we focus on those goals.
    Senator Byrd. Well, I am going to want to see that list, 
and I am sure that other senators will also be interested. When 
do you think you would be able to do that, by what date?
    Mr. Dombeck. Let me ask the staff how far along we are in 
that. We would assume within a couple of weeks.
    Senator Byrd. There is a very real chance that this 
subcommittee may mark up its fiscal year 2001 appropriations 
bills as early as late May.
    Mr. Dombeck. We will have it to you before then, Senator.
    Senator Byrd. You will. OK.
    Mr. Dombeck. Yes, sir.
    Senator Byrd. Very well. The Forest Service is also 
requesting a $40 million increase for recreation special use 
permit activities to private companies, allowing them to 
provide services on Forest Service lands.
    This is an increase of more than 25 percent; yet, there is 
no corresponding increase expected in the number of special use 
concession permits in 2001.
    According to your budget justification, the number of 
permits issued will actually decline from 23,700 in fiscal year 
2000, to 23,000 in fiscal 2001. Why do you need the additional 
$40 million?
    Mr. Dombeck. Senator, this is a perfect example of the 
dialogue that we had earlier about the performance measures. 
What I have done in this area--because of the way the budget 
was structured--I have asked the deputy chiefs to go back to 
the drawing board on this one.
    As we develop performance measures--the concern that both 
you and Senator Gorton expressed--this is our first year in 
that effort. We want to be able to continue to refine them. 
This is something that we will be refining very shortly and 
providing the staff here with the information.
    Senator Byrd. You are requesting that the Congress 
eliminate the administrative provision that requires consent of 
the House and Senate appropriations committees before 
obligating any funds to close or move any regional office for 
National Forest System administration.
    I understand there is not an agency in this Nation that 
does not want more latitude when it comes to conducting its 
affairs. I also understand that control of the purse strings 
was placed in the legislative branch of the Government by the 
Founding Fathers for good reason. Thank God for the Supreme 
Court for knocking down the Line Item Veto Act. Would you 
please tell us why you want this provision to be deleted?
    Mr. Dombeck. Well, I can assure you that even the 
modifications within district offices is something that we 
discussed in detail with the appropriate delegation and the 
Members of Congress. I would not consider closing a regional 
office without significant dialogue with Members of Congress. I 
believe if I tried, I would not get away with it.
    Senator Byrd. I am asking the question with respect to the 
consent that is required, not with: ``Members of Congress,'' 
and the Senate and House Appropriations Committees. Do you 
think we are going to go along with that?
    Mr. Dombeck. I would say we do not feel strongly about that 
request. As I said, we defer to your wisdom, Senator.
    Senator Byrd. Well, it is the wisdom of the Forefathers. 
Let me read it to you: ``No money shall be drawn from the 
treasury but in consequence of appropriations made by law.'' 
This is from the ninth section of Article I of the Constitution 
of the United States of America.
    So I just want to be sure, Mr. Chairman, that we do not go 
along with this idea. As long as I have lungs of brass and can 
stand on my feet on the Senate floor, I will be opposed to 
that.
    Senator Gorton. Well, we know that that is true, Senator 
Byrd. You have not lost that ability.
    Senator Byrd. Well, you have completely disarmed me. I 
think I will yield.
    Senator Gorton. I want to take up the subject that Senator 
Craig took up with you I think some considerable time ago. Tell 
me what the goals are of the Roadless Area Initiative.
    Do you plan, before the end of this administration, to put 
into place, without an act of Congress, a set of rules and 
regulations with respect to some 40 million to 60 million acres 
of our national forest lands that are thereafter essentially 
irreversible?
    Secretary Lyons. Mr. Chairman, as you know, we are going 
through a rulemaking process. We published a Notice of Intent, 
and received public comment, a huge volume of public comment. 
We are in the process of developing a draft EIS and a proposed 
rule that would be issued in May for public comment.
    So our proposal would be--depending on the outcome of the 
EIS and public response--to finalize a rule that would provide 
direction for future use or disposition of inventoried roadless 
areas and perhaps other issues associated with the roadless 
area debate. That will be a function of what we issue as a 
draft and the kind of comments we receive. Yes, this is a 
rulemaking process that is intended to try and deal with this 
issue.
    Senator Gorton. At what time do you plan to issue a final 
rule?
    Secretary Lyons. Hopefully, by the end of the year.
    Senator Gorton. Do you think it is wise or appropriate for 
this administration to issue a final rule on a matter of such 
profound importance to so many people, or would it not be 
better public policy to make all of the necessary preparations 
and allow an administration, whatever administration it is, to 
be elected in November to make that final decision?
    Secretary Lyons. Well, Mr. Chairman, I will offer my 
personal view, and that is: I was appointed to this position 
and confirmed by the Senate to do a job. That job does not end 
until either we leave office or I resign. I think I feel an 
obligation to follow through with the President's direction to 
try and bring closure to this issue. As I discussed in my 
opening statement, this issue has plagued the Forest Service, 
and the community of interest related to the national forests, 
for several decades.
    I think it is wise to try and bring this issue to closure 
by going through a process that will involve relevant 
stakeholders in the public in an open dialogue about an issue 
that never really has gotten that kind of a national dialogue 
before. I think that is an appropriate thing to do, to invite 
the public to participate in that, and to try to bring it to 
closure, yes.
    Senator Gorton. It is your view that this is an appropriate 
executive function, without the intervention of Congress.
    Secretary Lyons. It is fully consistent with our legal 
authority, that is correct. We are certainly proceeding 
consistent with NEPA, the Administrative Procedures Act, and 
all relevant statutes.
    Senator Gorton. You use the word ``closure,'' and yet you 
do know that these matters are matters that are of intense 
public interest and, to a considerable degree, will be debated 
between the two candidates for president this fall, but you do 
not believe that the outcome of that election should affect 
this process.
    Secretary Lyons. I do not see this as a political issue, 
Senator. I see this as a management issue of some significance 
that needs to be brought to closure.
    Senator Gorton. Well, that is a very interesting 
definition, but at least your answers are clear.
    In doing so, however, you have diverted a massive amount of 
manpower, and the National Federation of Federal Employees, 
that represents half of the people who work for you, recently 
issued a letter condemning the initiatives as ``More massive 
Washington mandates that are hampering work in the field and 
inflating the Washington office bureaucracy.'' I think that was 
implicit in some of Senator Byrd's questions.
    No word of this was given to us when we were making 
appropriations last year. From what other functions does--is 
all of the work on this rule making being taken, that otherwise 
would have been accomplished?
    Secretary Lyons. If I could, I would ask the Chief to talk 
about the specifics, in terms of the funding that has been 
provided to support this initiative.
    Mr. Dombeck. This is largely a planning effort. It is 
currently being supported from the Land Management Planning 
line item. As you know--as we move forward with the realignment 
request--as we focus on the budget structure--that will also be 
reflected there.
    Senator Gorton. Well, again, I am not sure that that is 
much of an answer. What is not being done because of this that 
would otherwise have been done, had the President not come up 
with this directive after the time at which you submitted, and 
for that matter, received your budget for the current year?
    Mr. Dombeck. The amount of money that has been spent on the 
roadless effort, or is estimated for this fiscal year, this 
current fiscal year, is $8.6 million, headquarters costs. About 
$1.2 million has been spent at the field level. The estimated 
cost for 2001 is about $2.1 million. We are looking at this as 
a planning function.
    Senator Gorton. Now, my staff says, how can you tell us 
that the cost in the field is a little over a million dollars, 
with the huge number of public hearings that you have boasted 
about holding in connection with it, and the obvious amount of 
work that must go on in the field to inform you of what you 
want to do?
    Mr. Dombeck. Well, this is the information on the money 
spent thus far that we have received from the regions and the 
forests, with about 185 public meetings that have been 
conducted. All but 10 of those have been at the forest level.
    Senator Gorton. I am not sure that I can go much further in 
this, but you see, that answer, which seems so obviously phony, 
is one of the reasons you have so much difficulty with us in 
changing an accounting system, to give you even more authority.
    It is doubtful that the Forest Service has done anything 
more important in the last 4 to 6 years, from the point of view 
of its actual impact, not only on the forest, but of the people 
who live in the States in which there are national forests, and 
yet, you have engaged in this entire activity without ever 
asking for a dime from the Congress in an appropriation with 
which to carry it out.
    That does not instill confidence in members of this 
committee in the Forest Service or in wanting to grant you a 
broader authority, even when it seems logical to do so. That is 
an answer which destroys itself, it seems to me, Mr. Dombeck. 
It just obviously is not the case, however creatively you 
account for your money.
    Mr. Dombeck. Well, I might ask either Jim Furnish or 
Vincette to talk about some details. We will get, with the 
Foundation Financial Information System, clarity in the 
transactions, so all of us will know exactly what those 
transactions were. Then I think the picture that we will have 
will be much clearer. We may not agree with that picture, but 
at least that will give us the information base that is needed 
to really have the kind of information that we are not getting 
from our current accounting system.
    Mr. Furnish. Senator, if I could, I would like to address 
particularly your concerns about the apparently relative low 
cost associated with the field effort. This is a national issue 
which is being handled primarily by a national analysis team.
    The reason the costs are so low in the field is that, 
basically, each of our national forests has been asked to do 
one meeting to date. The costs attributed to conducting one 
meeting, with no full-time effort, are remarkably low. So even 
though we have a large number of these, there is not a large 
aggregate cost associated with these field meetings.
    Senator Gorton. Well, about 20 minutes ago, in answer to 
someone else's questions, we were told that you were constantly 
discovering new roads that you did not even know were out there 
in the field, and yet, apparently, national headquarters, for 
almost nothing, can decide the fate of areas in which there are 
roads that you do not know about.
    There is a certain degree of inconsistency in those 
answers. I am going to go on to another question, another 
subject, one with I hope a happier result.
    Tell me, either one of you, about the recreation fee 
demonstration program, how well it is working, how much you are 
collecting, what kind of critiques you are getting from the 
public on the ground, and whether or not we are really getting 
the money spent on the ground, rather than just substituted for 
money that you would otherwise have spent on exactly the same 
projects.
    Secretary Lyons. I am going to ask somebody to give you the 
specific numbers, Mr. Chairman. I want to talk, though, about 
what I think we are getting from Rec Fee Demo.
    As you know, I have testified before to the extent to which 
recreation funding has been inadequate to meet the growing 
demand--from the standpoint of maintaining facilities and 
access, improving signage, and public health and safety at 
certain facilities. I think the Rec Fee Demo Program has 
afforded us an opportunity to put money back into projects on 
the ground and in the places in which those fees have been 
collected. That has certainly helped improve customer 
satisfaction. It has helped to improve our ability to meet 
growing recreation demand. I think it has developed a stronger 
partnership with the recreation community. It is going to be 
critical, since we provide the resources but, in many respects, 
do not provide the recreation opportunities that others partner 
with us do.
    In order to evaluate the program--aside from the reviews 
that have been conducted by GAO, which have been rather 
favorable to date--we do have a consultant who has been looking 
at the issues associated with: Rec Fee Demo and some of the 
particular concerns that have been raised with regard to the 
public's concern that they are being asked to pay a fee to use 
public lands that they feel should be open and fairly 
available. The consultant is particularly looking at ways in 
which we could improve delivery of services to recreation users 
in the national forests. That study is underway and we expect 
some feedback from that later this year.
    But, in general, I think the response has been positive. We 
feel, certainly, from going out and looking at sites, and 
visiting the accomplishments, that a great deal has been 
accomplished.
    Senator Gorton. What kind of public objections are you 
getting to it, Mike?
    Mr. Dombeck. The issues that remain to be worked out on 
this vary in different parts of the country, like interactions 
with other agencies.
    For example, if somebody is on a vacation, they might visit 
a national park, a national forest, Bureau of Land Management 
lands, or a national wildlife refuge. I do not think we want to 
evolve into a system where they have to get four different 
pieces of paper, or stop at four different places to do 
something. I think that is an important issue to address.
    Another one, I think, is the interaction of local publics 
and someone who is on vacation. I am one who grew up in the 
national forests. When we went out in the woods, we were out in 
the national forest. So it is those kinds of issues that need 
to be determined, the equity in the fees from one unit to 
another.
    There are examples of where it is working well. In the 
Pacific Northwest, we are working through some issues with the 
Park Service now, as you know. In Southern California, we are 
looking at a system where the four national forests have a pass 
that seems to be generating quite a bit of money. So we have 
some bugs to work out of the system, but I think that is the 
purpose of a pilot.
    I can give you some examples of some things that are 
happening on the ground. As a result of a Fee Demo Project on 
the White Mountain National Forest, for example, that generated 
about $785,000, and what was done with that money--two new 
public toilet facilities--we hired 39 seasonal employees to 
perform maintenance on the facilities, and improve the 
facilities.
    We initiated some community partnerships to the tune of 
over $100,000 to deal with projects like a bridge replacement, 
turn outs on scenic highways, snowmobile trail repairs, a 
variety of things like that. The neat thing about this 
program--and we have been judicious about--that money is 
returned to that site for work on the land.
    Senator Gorton. That is, of course, I think absolutely key 
to it. But how much money total? Do you have that answer?
    Mr. Furnish. We are generating about $28 million annually. 
We ramped up initially from figures in the low teens, and we 
are at about that $28 million to $30 million figure.
    I wanted to add, Senator, that at least our survey data 
shows that we probably have 10 percent of the, quote, ``paying 
public,'' who are unalterably, philosophically, adamantly 
opposed to any institution of fees under any circumstance.
    Most of our survey data, though--that shows from meeting 
customers on the ground--is that the vast majority are 
supportive of fees, provided that they see evidence of those 
fees at work for their recreational use.
    Senator Gorton. We hear some from the 90 percent. We hear a 
lot from the 10 percent.
    Secretary Lyons. Senator, if I could just make one point. I 
know we are aware of the Northwest Forest pass that was issued 
in March. That was in direct response to concerns that were 
raised by the public about the need for paying multiple fees. 
We are trying to fix these problems as we go along.
    This is a new and very entrepreneurial way of doing 
business for us. Our managers are learning as they go. We have 
hired some consultants to help us through this.
    One issue that has come up is trying to cooperate or 
collaborate with the Park Service. I know you have an interest 
in the Park Service as well, given the important parks there. I 
think we would appreciate your encouragement to the agencies in 
trying to work out any differences that exist. I think we owe 
it to the public to make it simple for them to pay their fees, 
to get access, and to ensure that they are going to get good 
service, and a high-quality experience, whether they are on 
national park or national forest system lands.
    Senator Gorton. Mike, one parochial question. Do I have 
your commitment that the Mount St. Helen's visitor center will 
remain open at its historic staffing levels through the end of 
the fiscal year?
    Mr. Dombeck. I do not know what the staffing levels were, 
but, yes, we are going to keep it open. As I mentioned to you, 
we are working with the local community and the series of the 
five visitors' centers--all the way from Silver Lake to Johnson 
Ridge--to really take a look at how they complement one another 
and the role that each can play--and then asking, at least on 
the part of the Forest Service, that we have business plans for 
the operation of those. Then, as we take a look at Silver 
Lake--the one that has been at issue this year, that you and I 
visited about last week--that we really take a look to see what 
options there are for partnerships, for, perhaps, 
concessionaires, or others. What we have there is, we have a 
Forest Service facility on State lands. So what kinds of 
partnerships can increase the efficiency and make sure that, of 
the five centers, that they all complement one another?
    Senator Gorton. I certainly got gratifyingly prompt action 
on my request, and I appreciate that. I suspect the fact that I 
have this gavel had something to do with how promptly it took 
place, but I want to ask whether or not there are other places 
in the country where the same kind of thing has happened.
    Have you closed down other visitor centers elsewhere, where 
the local reaction will be as negative as it was near Mount St. 
Helen's?
    Mr. Dombeck. Not that I am aware of. I might ask Jim 
Furnish. I was at, for example, Seneca Rocks, in Cranberry 
Mountain, on the Monongahela, just a couple of weeks ago. I 
think the thing that pleased me there was that I got briefed by 
the staff on other ways--for example, authorities that we might 
need to explore to utilize the Monongahela Institute, for 
example, in helping through partnerships, keep those centers 
open longer hours, better services to the public that come 
there--in ways that we utilize everything, from volunteers, to 
profits realized from partners that do business there.
    Mr. Furnish. I would like to add that the Forest Service 
has a large number of these interpretative sites throughout the 
United States. Having been a manager of those myself, I would 
safely predict that there is not a manager alive today that is 
not struggling mightily to cobble together the resources to 
keep those operating at good efficiency every year.
    At the Cape Perpetual Visitor Center that I managed on the 
Oregon Coast, we could not keep the facility open year-round. 
We had to regulate it and keep it open during peak seasons, 
peak holidays, during the wintertime, and during whale 
watching, and that type of thing. It would have been my dream 
to have the facility open 365 days a year. It was simply 
impossible.
    I think that is why you see the funding requests that the 
agency is making, to try and improve our recreation capacity 
through increased funding. Even though we are trying to 
maintain a fairly flat budget, this is an area of importance 
that we think the public has spoken loud and clear about. 
Recreation on public lands is important. We are trying to 
enhance our posture.
    Senator Gorton. OK. I want to thank you for being here, 
even in connection with explaining some of our differences and 
some of our frustrations. You now know, at least in connection 
with your major requests, what you have to do in order to have 
any chances of succeeding.
    I know that Senator Craig has a few more questions, and it 
may very well that Senator Byrd does. I have another 
engagement.
    And, Senator Craig, you have the gavel again, but I hope 
you will take the time you need and allow Senator Byrd that he 
needs to finish any questions that you have.
    Senator Craig [presiding]. Mr. Chairman, thank you very 
much.
    I have one additional question, and then some others that I 
will probably submit for the record. Jim, I do not mean us to 
sound like a broken record today, but clearly I am growing 
increasingly curious of what you have presented to us this 
morning in relation to the letter now that you have proposed to 
the governors as to how you might associate them with this 
rulemaking process you are under.
    How do you view, as an agency, the CEQ July 28th guidance 
as a part of your responsibility in fulfilling that?
    Secretary Lyons. You are talking about the specific 
guidance with regard to the cooperating agencies.
    Senator Craig. That is the July 28, 1999, guidance. Yes.
    Secretary Lyons. Well, as with all directives from the 
Executive, we do our best to comply and----
    Senator Craig. In a legal way, Jim, if you found yourself 
in a lawsuit and alleged to be in violation of NEPA, and it 
became apparent that you had ignored or denied the guidance 
directive, would that not weaken your case?
    Secretary Lyons. Oh, I would not speculate on the legal 
arguments, Senator.
    Senator Craig. I do not think any of us would. I think 
that, clearly, a question would come up then, why, and you 
understand the legal guidance.
    You probably understand it better than I do, but it is very 
clear, when it says: ``No later than the scoping process, to 
identify States and other agencies to become cooperators, and 
to routinely solicit cooperating agencies.''
    Now, at our February 22 hearing, long after the close of 
your scoping process, you told us that cooperating agency 
status was inappropriate, due to the national scope of the 
rulemaking, and at an earlier March meeting, you mentioned, and 
your Deputy Chief here, Jim Furnish, that the State's role was 
no different than the timber industry's role in the rulemaking. 
Subsequently, the governors wrote the letter you mentioned, and 
now seven governors have asked for cooperating agency status.
    Today, you have given us another story, that is when we 
will give the States what I think you call a functional 
equivalent of the status. It sounds to me like a backfilling to 
cover the NEPA problem that we exposed you had found yourself 
in, and I think it is very important that I say it just exactly 
that way.
    It is very difficult for me to understand why you do this 
when this is a national rulemaking. I think that is the 
conflict you are going to find yourselves in, and probably in 
court.
    You have the obligation to do it at a scope to meet the 
responsibility of the effort, that is the whole intent, and you 
are basically trying to redefine the effort; although, you have 
just told us you cannot do it, because it is national in scope.
    You have inherently put yourself in a major conflict, in my 
opinion. Now, I know a little bit about the law, and I try to 
work with it on a regular basis. Explain to me where I am 
wrong.
    Secretary Lyons. Senator, first of all, I would not agree 
with the characterization that you offered.
    Senator Craig. I did not expect you would, but tell me 
where I might be wrong here.
    Secretary Lyons. Well, we are aware of the guidance that we 
have, not legal requirement, but guidance we have under NEPA to 
deal with these issues of cooperators, and trying to facilitate 
the process.
    I think the key is--if granting cooperating status would 
facilitate the process, that is one thing. But in this 
instance, we are trying to come up with a mechanism that is 
going to facilitate a dialogue between the States and 
ourselves, and other entities--since, as you point out, seven 
States have an interest in this status--while ensuring that it 
does not--given the broad degree of interests and the extent to 
which other entities might want to participate as cooperators--
that it does not, in fact, hamper the process.
    We are very supportive of a collaborative effort, very 
interested in sharing information with the States, and 
receiving information from the States, and in working with the 
entities that represent them, such as WGA. That was the vein in 
which George Frampton, and Mike, and I met with several of the 
Western Governors. It is in that vein that we presented them 
with a proposal to engage in a dialogue with us in a number of 
ways that we have outlined in the letter that we have made a 
part of the record.
    So we think we are operating consistent with the guidance 
we have, and in a manner that hopefully will encourage 
collaboration and facilitate this rulemaking.
    Senator Craig. Well, I was just reminded to go back and 
look at the RARE II process and the way the courts treated it. 
They threw a hell of a lot of it out for the very reason that I 
think you found yourselves in the problem you are in today.
    Secretary Lyons. Well, I think this is very different than 
the RARE II process.
    Senator Craig. I think there is clear precedent here that 
you cannot argue your way out of. I am not a lawyer, and we 
will cease here. You have obviously established your position 
for the record, and I think that is important, but when you are 
dealing with a national scope, you have a certain 
responsibility, and that is clear, and the courts have argued 
that. You can deal with this on a State-by-State basis, and a 
forest-by-forest basis, and that is a different story.
    Let me ask one other question, and then I will move on. I 
know Senator Byrd has others. I am, like the Senators who just 
expressed themselves, the chairman our ranking member, 
tremendously frustrated over where we are with budgets, and 
staff, and how we develop a level of accountability, and I 
remember, Chief, you coming here and talking about the Forest 
Service comparable to a Fortune 500 company, and you were 
working, striving to get us to a level of accountability so 
that we could objectively review what you were doing, and you 
could objectively review what your people were doing, and you 
could make this agency function better.
    I have also looked at your budget as it relates to the size 
of the Washington office and its growth, and the argument of 
why you need that, and I understand that the Washington office 
has distributed the final advice out to the regions only last 
week. That means that the forests will be lucky to get their 
budgets by April Fool's Day.
    Now, what is the point here? The process that takes until 
our cherry blossoms bloom here, or 5 months into a fiscal 
cycle, can only lead to phenomenal inefficiencies out on the 
ground, as it relates to the management of our forests, and I 
say that because you are going to have people, instead of 
having done their work and being ready when the snow melts, 
they are still going to be bound up and trying to figure out if 
they can do a project based on the money that will or will not 
be available.
    And I must tell you, I have had some supervisors say, ``We 
do not know. We are just going to go ahead, because we cannot 
spend all of our time inside, simply because the directives 
coming down are so late to truly understand where we are.'' Why 
is that happening now, at this point, or am I misinformed?
    Mr. Dombeck. The program and budget advice that goes out 
early in the fiscal year basically looks at the House and 
Senate marks--and within the bounds of where we think the 
appropriation will come out--and the field has that 
information.
    I think some of the instances that you are referring to 
really focus on the fine-tuning of some of those 
appropriations, then, that are made as the process is 
finalized. I really do not see this--it may be a concern on a 
few specific projects, but for the most part, they know within 
the limits of what they have to deal with.
    Senator Craig. And that is enough to proceed with projects 
already generally planned.
    Mr. Dombeck. For the most part, because they have the 
remainder of the fiscal year to go ahead and complete--and move 
forward with those. Essentially, we know what the earmarks are, 
if we have some, and focus on that. But I certainly agree, it 
is imperative to get a final budget out as quickly as possible. 
It is important.
    Let me ask Vincette, who manages the system, to----
    Ms. Goerl. One of the things I want to add is that we are 
changing this next year's process to get it out sooner. We did 
have an advice out on October 1, based on the lower of the 
Senate and the House recommendations at that point, so that 
people could--and they prepared their budget before that time. 
We sent them guidance out at that time: What the report 
language is, what the marks were. We did not have a bill until 
late November that was final, so that we could do the final 
PBA.
    I think we call it the initial PBA, but it is not until we 
have a final bill that we then go back and make the adjustments 
for----
    Senator Craig. The final advice did not go out last week?
    Ms. Goerl. The final advice went out March--a couple of 
weeks ago, that incorporated--including--we did not get 
guidance on the across-the-board 0.38 percent cut until the end 
of December, from OMB, and so we had to go back and make some 
final adjustments on that.
    Senator Craig. December, January, February, late March, 
mid-March----
    Ms. Goerl. The first of March.
    Senator Craig. The first of March. OK.
    Ms. Goerl. In addition to that, we are looking to change 
the process. Again, because I think we always need to improve 
upon that, and to get our information out more quickly. With 
our new financial system, I think that will be much easier to 
do.
    Senator Craig. I hope that is the result of it. I sense 
confusion in the field. One last question relates to the size 
of your national commitments that you displayed in this budget. 
Do you really need $83.5 million, and I will say it this way, 
cream off the top of a budget, and dribbled out to the forests 
that have already received their budgets?
    It seems to me that managing all those little and not-so-
little pots of money in the Washington office just add to your 
overhead costs. Would it not be easier just to give it to the 
forests and through their regular budgets?
    Ms. Goerl. In many cases, I think one of the things that 
leads to confusion to many people is what is called Washington 
Office Budget.
    In the last 3 years, about 73 percent, on average, went to 
the field, of that amount. It includes many of our nationwide 
programs--not just including the national commitments--but like 
our fire center and our Missoula Technology and Development 
Center, and other nationwide activities that we choose to 
account for centrally, that provide services across the 
country.
    It also includes all of our basic infrastructure costs for 
our IBM architecture, our computer facilities. So a lot of the 
things that we find better--not only for accounting, but for 
management--that are included in one place--but do benefit the 
field, are included in the Washington Office budget, in that 75 
percent of that Washington Office figure.
    In fact, with the new financial system, we consolidated 
some rent charges. We were creating additional kinds of 
transactions by sending out the allocation for it, and then 
billing centrally, and having to do additional transactions for 
that.
    So part of what we are trying to do in that particular area 
are national activities that provide benefits across the field 
that we are managing, in an accounting sense, centrally. The 
benefits go to the field. Then I believe, second, that as we 
are moving forward, I think you are going to find--as we are 
finding in some of our activities--that we can more efficiently 
reduce costs by providing some of those services centrally in 
the future. We are working through that, not only in the 
financial area, but in the human resources area. The fire area 
is one example where that has been in place for a number of 
years.
    Senator Craig. Well, I am sitting here trying to develop an 
analysis. If Congress dribbled its money out to you the way it 
appears you are doing that to the regions, and in some 
instances--or to the regional forest offices--I mean we 
establish budgets and priorities within those budgets, and hand 
them over to you to execute, I cannot understand why you cannot 
earmark priorities within a budget, allow your regional 
foresters to run with them, instead of basically--I use the 
word dribble out, because that appears to be what is going on 
at this moment.
    $83 million is a significant amount of money, unless I am 
misinterpreting it. Anyway, we will watch it. We are very 
anxious for your agency to become more efficient in justifying 
the way it proceeds with the monies that the taxpayers provide.
    One last comment, as it relates to fees. I guess the way to 
say it is, I am less an advocate or a fan today of the fee 
demonstration projects than I was before. I have worked awfully 
hard at trying to justify them with my constituency, while 
consistently getting beat over the head.
    I am trying to explain why an agency that was once in the 
black is now in the red, and we are trying to find new revenue 
sources for it, because of changes of priorities and attitudes 
in our country.
    When someone from out of State either violates or is fined, 
or a failure to adhere, and the Justice Department says it is 
not worth pursuing, people in my State say, well then, why 
should we in-Staters be so royal to the rule, or loyal to the 
law, or loyal to the process. These are national forests.
    In my State, I believe the lady was from Oregon, a 
precedent was established, sometimes they just are not worth 
chasing. That is why oftentimes States that administer traffic 
laws do not allow folks from out of State to escape without 
paying. They collect the fee at the point, or the fine at the 
point.
    That really roughed up the feathers of the folks of Idaho. 
If you are a loyal citizen in State, you pay the fee; if you 
are out of State, you do not necessarily have to, or at least 
the Forest Service will not do due diligence in pursuing it. I 
only use that as an example.
    That makes my job in trying to support what you are doing 
increasingly more difficult, and that happened this past year 
in the State, to a point where I have basically said to my 
constituents, I am probably going to have to not be an advocate 
of this fee demonstration project any longer. I will have to 
become one of its opponents.
    Anyway, let me turn it back to you, Senator Byrd.
    Senator Byrd [presiding]. Thank you. I will not be long.
    I want to speak with you about the Wood Education Resource 
Center. The Forest Service is proposing to establish a distance 
learning center, a national center for collaborative 
decisionmaking at the Wood Education and Resource Center, in 
Princeton; not Princeton, NJ, but Princeton, WV.
    Please tell the committee what these two centers are, and 
what benefits you expect to derive from them.
    Mr. Dombeck. The distance-learning component of the Wood 
Education and Resource Center is a partnership with the West 
Virginia Army National Guard to utilize some of their 
communications, to reduce costs, to provide communications and 
technologies across the State, I think, in a more cost-
effective way, hopefully, delivering more services to 
individuals at a cheaper cost, and pulling in more partnerships 
within the State.
    Senator Byrd. How much does the Forest Service expect to 
spend to establish the centers, and how much will be required 
on an annual basis to keep them operating?
    Mr. Dombeck. Let me ask Janice McDougal, who manages these, 
to give you the details.
    Senator Byrd. Very well.
    Ms. McDougal. I do not have the dollar figures on that 
particular thing, but I think that it is within the budget of 
the Northeastern Area Office. It is an electronic training 
opportunity for people in the industry. We think the costs for 
delivering those services will be minimal.
    Senator Byrd. Well, can you not give us some estimate of 
the----
    Mr. Dombeck. The estimate, Senator, is $2.5 million.
    Senator Byrd. That is what you expect to spend to establish 
the centers?
    Mr. Dombeck. No. That is the cost of operation of the 
entire center.
    Senator Byrd. The annual cost.
    Mr. Dombeck. Yes.
    Senator Byrd. The annual cost.
    Ms. Goerl. Yes.
    Mr. Dombeck. Yes.
    Senator Byrd. Now, what about the costs you expect to spend 
to establish the centers. You surely must have some idea.
    Ms. Goerl. I am not sure I understand your question. It is 
part of the--at least, the collaboration effort is part of the 
Wood and Education Resource Center.
    Mr. Dombeck. Senator, it is established as part of the 
ongoing efforts at Princeton. The Distance-Learning Center has 
been part of the effort that is moving forward, as I understand 
it.
    Senator Byrd. Are you going to establish one or two 
centers?
    Ms. Goerl. One.
    Senator Byrd. How much do you expect to spend to establish 
that one?
    Mr. Dombeck. I think we are not looking at a new physical 
facility or physical plant. I think what we are doing is--this 
could appropriately be described as a program, a cooperative 
program within the existing center, with partnership with the 
West Virginia National Guard.
    Senator Byrd. OK. The Forest Service is also proposing a 
new research effort called Bio-based Products Bio-Energy, made 
up of two programs, one of which is called Small-Diameter Trees 
and Low-Valued Sources Research. This proposal merits serious 
consideration, because it would lead to better forest health, 
provide new jobs in the forest communities, and help reduce the 
risk of fire.
    In explaining this particular project, the budget 
justification does not say where the research will be 
conducted.
    As you may know, the Forest Sciences Research Center in 
Princeton, WV, has conducted product and market development for 
small-diameter tree products in the past, and remains equipped 
to resume this function. Based on its past experience, do you 
not think the Princeton lab would be a good location for this 
research program to be placed?
    Mr. Dombeck. Yes. I think the current plan is that about 
$100,000 will go to Princeton that will focus on the hardwood 
components of that. Other funding would go to collaborative 
efforts around the country that deal with softwoods and others, 
places like the Forest Products lab. Robert Lewis can give you 
more details on that, if you wish.
    Mr. Lewis. Yes. Thank you, Senator Byrd. We do plan to add 
$100,000 to the Princeton, WV, research. The work that we do at 
Princeton is based on the small-diameter hardwood. We have been 
experts in developing technology for small mill owners, and for 
processing small, undeveloped products into higher-value 
products.
    But this particular initiative, building on the small-
diameter valued material, will be much broader than that. We 
also have major problems in the conifer forests. We will deal 
with the forest health problems, where we have stands that are 
too dense. The Forest Products Laboratory, in Madison, WI, will 
be one of the key players in that particular research. They 
will collaborate with Princeton in this overall effort.
    Senator Byrd. Very well. With respect to the Monongahela 
National Forest, especially the radio system, as you are aware, 
Chief, the forest-wide radio system at the Monongahela National 
Forest is inadequate. I touched upon that in my earlier 
statement.
    The current low-band system is obsolete, unreliable, and 
requires high maintenance. Furthermore, many parts of the 
Monongahela are in radio dead spots.
    This situation presents a serious safety issue for the 
Forest Service employees who may be required to travel to 
remote areas by themselves, and also for the public.
    Since Forest Service personnel may not be able to 
communicate effectively in emergency situations, last year the 
Congress appropriated $250,000 for the first phase of a two-
phase project aimed at upgrading the Monongahela's radio 
system.
    This year, the budget for the Forest Service did not 
contain the final installment of $250,000. Has this item been 
overlooked by the Forest Service?
    Mr. Dombeck. No, it has not been overlooked. In fact, when 
I was on the Monongahela just a couple of weeks ago, I was 
briefed by Forest Supervisor Chuck Myers--who is here--and the 
staff about these concerns. I can assure you that the $250,000 
to complete that is in the budget.
    It is a concern on the part of the employees--and all 
employee safety things and public safety things. We have to 
take that very seriously, and I give that a high priority. I 
appreciate your support and concern over that issue. I know the 
employees do as well.
    Senator Byrd. I am looking at a sheet from the fiscal year 
2001 budget justification, and I see a zero down here under the 
congressional earmarks table labeled, ``Preparedness, 
Monongahela National Forest, West Virginia. Acquire forest-wide 
high-band radio system, zero.''
    Mr. Dombeck. That is an error, and it has already been 
corrected.
    Senator Byrd. OK. Thank you. It will not come out of the 
Monongahela's base operating budget, will it?
    Mr. Dombeck. I believe not.
    Senator Byrd. Will you provide the committee with a letter 
that states that the $250,000 will be provided? If it is on the 
basis of an error, you might want to state that the funding 
will not come out of the Monongahela's base operating budget.
    Mr. Dombeck. I will be happy to do that, Senator.
    Senator Byrd. Very well. Well, I want to thank you, Chief 
Dombeck, for all your assistance today, and also, Secretary 
Lyons, and for all of your staff, and the people who work in 
the Forest Service. We are very proud of the Forest Service 
down in West Virginia.
    Well, thank you. I thank all of you. Continue in your work, 
and we will meet again.
    Mr. Dombeck. Thank you, Senator.
    Secretary Lyons. Thank you, Senator.
    Senator Byrd. Can I have the gavel? Can we get a picture?

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you very much. There will be some additional 
questions which will be submitted for your response in the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Slade Gorton

    The Forest Service claims that its budget restructuring proposal is 
based on the recommendations from the National Academy of Public 
Administration (NAPA). However, aside from the recommendation for a 
simplified budget structure, NAPA stated that Forest Service 
accountability also depends on developing ways to allocate funds to the 
field based on agency priorities and better links between annual 
performance and the agency's strategic goals and objectives.
    Question. How are these important recommendations being implemented 
by the Forest Service?
    Answer. The Forest Service agrees with NAPA recommendations that 
accountability is much more than a simplified budget structure. A whole 
series of integrated actions have been completed or are underway that 
will improve agency accountability by developing an integrated planning 
and budget process that is linked to land health performance measures. 
These performance measures will provide internal and external 
accountability for agency performance in restoring and maintaining land 
health and also for providing public services and benefits as detailed 
in the Natural Resource Agenda.
    We have established a field-based team to develop a revised funding 
allocation and decision feedback process that is based upon national 
priorities, program analysis and the agency's strategic plan. It is our 
intention to pilot this new process for developing agency-wide funding 
requirements and allocating budget obligation authority in fiscal year 
2001. Based upon the outcome of the pilot, agency-wide implementation 
of this new process will occur in the following fiscal year.
    The agency has also developed an integrated set of Land Health and 
Service to People performance measures that link to mission-orientated 
outcomes and financial information. It is these performance measures 
that were used to justify the fiscal year 2001 budget--utilizing the 
simplified budget structure.
    The format for the fiscal year 2001 budget justifications was 
completely revised to reflect both the simplified budget structure and 
the presentation of a performance-based budget. The agency has proposed 
47 performance measures that are linked to the draft Strategic Plan 
(2000 Revision) to justify its budget. Rather than evaluate our budget 
simply on the money we spend, for the first time Congress will be able 
to appropriate the agency's funding based on its performance.
    In November of 1999, the Forest Service published its draft 
Strategic Plan (2000 revision) for internal and external comment. The 
revised plan: (1) is the keystone in the agency's management system; 
(2) provides the context and purpose for near-term actions; and (3) is 
the agency's focus for long-term land health and public service 
outcomes. The revised plan shifts agency management away from ``inputs, 
outputs and process'' to ``outcomes'' on the landscape The final plan 
is expected to be released in September of 2000.
    Question. Why should the Committee go forward with the agency's 
budget restructuring proposal until we have a concrete plan from you in 
these areas as well?
    Answer. On December 22, 1999, the Secretary of Agriculture sent a 
letter to Congressman Regula outlining all of the action items, with 
completion dates, that the USDA Forest Service plans to undertake 
relative to each recommendation contained in the NAPA report. Specific 
dates relative to your area of questioning are included in the answer 
to your previous question.
    Question. The GAO has criticized many of the Forest Service's 
performance measures as confusing quantity with quality. Does the 
agency agree with this assessment?
    Answer. The performance measures in the fiscal year 2001 Budget 
Justification can be placed in these categories as follows:

        Category                                         No. of measures
Workload..........................................................    33
Quality of Work...................................................     7
Changed conditions on the ground........................................
Public Use & Satisfaction.........................................     9
                                                                  ______
      Total.......................................................    49

    Question. Is the agency working on improvements to its performance 
measures?
    Answer. Yes, annual performance measures will be evaluated to 
determine if they relate directly to the objectives and long-term 
measures in the revised strategic plan. We will incorporate new 
measures that reflect quality and priority factors related to Land 
Health and Service To People into our planning and budgeting processes. 
To the extent possible, annual measures will reflect movement towards 
the end-results or outcomes identified in the revised strategic plan.
    Development of a draft revision of the agency's strategic plan has 
resulted in the refinement of long-term outcome measures and the 
identification of milestones for achieving objectives. The agency used 
this information to identify a set of annual measures that link 
directly to the budget as well as tier more closely to the agency's 
strategic goals and objectives.
    We recognize that additional work is needed in some areas. In 
particular, the agency will be making a concerted effort to identify 
the next generation of annual land health performance measures that 
reflect the quality and priority of treatments linked directly to 
conditions on the ground. These measures should replace many of the 
existing measures that merely count how much of certain types of work 
are accomplished. The agency will begin integrating these measures into 
its annual performance plans and budget documents beginning with fiscal 
year 2002. As a result, we would expect a continued evolution of 
performance measures that would not only tier to strategic goals and 
objectives, but would also justify funding requests in the agency's 
current or any proposed budget structures.
    Question. When will new measures be available for the Congress and 
the public to review?
    Answer. The Forest Service plans to implement improved performance 
measures with the fiscal year 2002 budget justification. These measures 
will closely link the Strategic Plan, Annual Performance Plan, and the 
on-the-ground program of work.
    Question. With budget restructuring the Forest Service is promising 
greater accountability in exchange for increased flexibility with 
respect to how money is spent. It is unclear to the Committee that this 
is the case. For example, the Forest Service missed the Congressionally 
directed timber offer level to be accomplished with timber sales 
management dollars by over 1.3 billion board feet last year. That's 
roughly one-third of the targeted volume. The agency proposes 
eliminating the timber sales budget line item for timber in fiscal year 
2001. Since eliminating this line item will mean the Congress won't 
know what the agency is spending on this activity, wouldn't budget 
restructuring give the Congress even less certainty over whether the 
agency will accomplish the timber target?
    Answer. The Forest Service will continue its timber sale reporting 
quarterly as it does now, which should provide the Congress the 
information it requires in regard to how we are progressing toward 
meeting the timber target.
    Question. How will eliminating other line items in your budget lead 
to greater accountability?
    Answer. The format for the fiscal year 2001 Budget Justification 
was completely revised to reflect both the simplified budget structure 
and the presentation of a performance-based budget. Rather than 
evaluate our budget simply on the money we spend, for the first time 
the Agency proposed that Congress appropriate funding based on 
performance.
    The Forest Service's current budget structure contributes heavily 
to the agency's fiscal disarray. Much of the trouble comes from the 
numerous and overlapping budget line items that the agency must treat 
as an appropriation goal. For example, currently, there are about 23 
funding sources (including forest health, timber sales management, 
timber salvage sales, wildlife management, hazardous fuels reductions, 
timber stand improvement, etc.) that could be used to restore or 
protect a forested ecosystem. Most individual's salaries, even when 
performing a single task, are funded from multiple accounts. 12 of the 
23 potential funding sources for forested ecosystems also fund one or 
more objective, making it hard to determine the effects of different 
funding sources on outcomes. In general, most Forest Service activities 
overlap over multiple funding sources.
    As an outcome of the NAPA report, and many, many other audits/
reviews highly critical of accountability within the Forest Service, 
the Agency presented the fiscal year 2001 budget request in a format 
that supports a performance-based approach. The major changes in the 
budget are that the budget structure for the National Forest System has 
been simplified, reducing the budget and expanded budget line items 
from 33 to 3, and an integrated set of performance measures has been 
developed that link mission-orientated outcomes and financial 
information. These will:
  --Focus debate on outputs and outcomes rather than budget line items;
  --Reflect the nature of the real work being done by the Forest 
        Service (ecosystem and multiple-use management), allowing the 
        field staff to avoid artificially categorizing a task to match 
        budget line items;
  --Improve linkage of forest plans to the budget with the development 
        of effective program analysis capability;
  --Provide increased accountability in Agency program delivery;
  --Simplify Agency accounting, allowing more field staff to do mission 
        related work rather than accounting work; and
  --Support of the goal of achieving a clean opinion for the Agency's 
        financial books by dramatically simplifying the budget 
        structure.
    Question. Under your new budget structure how will the Congress be 
able to tell how much the agency is spending on recreation, habitat 
management, timber, or other various programs that are important to 
Congress and to its constituents?
    Answer. In order to provide information relevant to the performance 
elements, the Forest Service plans to retain financial reporting to the 
program component level through the use of program codes. However, as 
discussed above, it is important to keep in mind that a major reason 
that we have proposed the new budget structure is to allow for the 
integrated management of forest resources.
    Question. If the Forest Service is going to continue to track this 
information anyway then what is the point of reducing line items?
    Answer. See answer to the previous question.
    Question. Many groups, over time, have come to measure their 
satisfaction with the Forest Service budget based upon how much funding 
is included in the budget line-items associated with the programs they 
care about. How will the agency satisfy these various group's concerns 
about budget restructuring?
    Answer. Our objective is appropriate outcomes on the land. The real 
interest of the group is best served by focusing our energy on results 
not inputs.
    Question. Did the agency work with any outside groups in the 
creation of its performance measures? If not, why not?
    Answer. No. The agency worked through a team comprised of senior 
Washington Office and field representatives to develop the performance 
measures proposed in the fiscal year 2001 budget. The knowledge base 
and expertise of its own core of employees was deemed the best way to 
determine what performance measures best reflect the goals and work of 
the agency. There are no doubt areas that need improvement, and as we 
work to improve our measures, we may consider outside consultations if 
necessary.
    Question. In 1987, and in 1995, the Forest Service promised to 
improve its performance accountability in exchange for a simplified 
budget structure. The Appropriations Committees provided this authority 
to the agency. The GAO recently testified that in both of these 
instances a simplified budget structure did not lead to improvements in 
performance or financial reporting. Why would a simplified budget 
structure would be any different this time?
    Answer. The budget structure changes in 1987 and 1995 did not go 
far enough in simplifying the Forest Service budget structure. Many 
complex issues still remained. In regard to the question of why a 
simplified structure be different this time, the format for the fiscal 
year 2001 Budget Justification was completely revised to reflect both 
the simplified budget structure and the presentation of a performance-
based budget. Rather than evaluate our budget simply on the money we 
spend, for the first time the Agency proposed that Congress appropriate 
funding based on performance.
    The Forest Service's current budget structure contributes heavily 
to the agency's fiscal disarray. Much of the trouble comes from the 
numerous and overlapping budget line items that the agency must treat 
as an appropriation goal. For example, currently, there are about 23 
funding sources (including forest health, timber sales management, 
timber salvage sales, wildlife management, hazardous fuels reductions, 
timber stand improvement, etc.) that could be used to restore or 
protect a forested ecosystem. Most individual's salaries, even when 
performing a single task, are funded from multiple accounts. 12 of the 
23 potential funding sources for forested ecosystems also fund one or 
more objective, making it hard to determine the effects of different 
funding sources on outcomes. In general, most Forest Service activities 
overlap over multiple funding sources.
    As an outcome of the NAPA report, and many, many other audits/
reviews highly critical of accountability within the Forest Service, 
the Agency presented the fiscal year 2001 budget request in a format 
that supports a performance-based approach. The major changes in the 
budget are that the budget structure for the National Forest System has 
been simplified, reducing the budget and expanded budget line items 
from 33 to 3, and an integrated set of performance measures has been 
developed that link mission-orientated outcomes and financial 
information. These will:
  --Focus debate on outputs and outcomes rather than budget line items;
  --Reflect the nature of the real work being done by the Forest 
        Service (ecosystem and multiple-use management), allowing the 
        field staff to avoid artificially categorizing a task to match 
        budget line items;
  --Improve linkage of forest plans to the budget with the development 
        of effective program analysis capability;
  --Provide increased accountability in Agency program delivery;
  --Simplify Agency accounting, allowing more field staff to do mission 
        related work rather than accounting work; and
  --Support of the goal of achieving a clean opinion for the Agency's 
        financial books by dramatically simplifying the budget 
        structure.
    Question. Some Congressional members have proposed that the 
Appropriations Committee should not approve your budget restructuring 
proposal in the fiscal year 2001 budget. Instead, they recommend that 
the Committee direct the agency to: (1) publish the proposal in the 
Federal Register; (2) solicit public comments on it; (3) meet with 
affected groups to discuss it, particularly the specific performance 
measures; (4) refine it in response to these comments; and (5) 
repropose it in the fiscal year 2002 budget request. Why, if at all, 
would this be a bad approach?
    Answer. While this might not be a bad approach given an ideal 
budgeting environment, the reality of the situation is that going 
through all of the steps outlined above would be a costly and lengthy 
undertaking. The budget process for fiscal year 2002 is already 
underway. We simply do not have time to both develop a budget through 
all the necessary steps, as well as implement all the suggestions 
above. The budget must first be submitted to USDA, and the decisions 
they make on our agency request cannot simply be changed in midstream. 
The same applies to OMB. In addition, until the President's Budget is 
submitted on the first Tuesday in February, the supplemental 
information we provide in our budget justification is treated as 
privileged information within the Administration.

                             SURVEY/MANAGE

    Many promises were made to the people of the Pacific Northwest by 
the Administration under the President's Northwest Forest Plan. Last 
year, because of a provision in the Forest Plan that the agency did not 
comply with related to the counting of individual members of various 
species like fungi and mollusks, a majority of the timber sales under 
the plan were enjoined or held up administratively for fear that they 
would violate the Court's injunction.
    Question. What is the agency doing to fix this problem?
    Answer. In August of 1999 District Court Judge William Dwyer ruled 
against the Forest Service's and Bureau of Land Management's 
implementation of survey requirements for little known species, as 
described in the Record of Decision (ROD) for the Northwest Forest Plan 
(NWFP). At the same time, the Judge supported the agencies' adaptive 
management approach in responding to new information as it becomes 
available. In order to clarify some of the management direction in the 
NWFP related to survey and manage species, and to address Judge Dwyer's 
decision, the Forest Service and Bureau of Land Management are in the 
process of amending the ROD with a narrowly focused Supplemental 
Environmental Impact Statement (SEIS).
    As the agencies have implemented these surveys for the 400 survey 
and manage species named in the ROD, and as other information has 
become available, it has become apparent that some species are more 
abundant that previously believed, or for other reasons do not warrant 
continued coverage under the survey and manage measures. For others, 
survey and manage categories need to be refined, direction clarified, 
or processes need to be established for responding to new information 
more rapidly. To deal with those concerns the Draft Supplemental 
Environmental Impact Statement (DSEIS) that would amend the NWFP survey 
and manage provisions examines a ``No Action'' (current direction) 
alternative and three action alternatives. The action alternatives are 
similar in that they all refine categories for survey and manage 
species based on relative rarity, survey practicality, and level of 
knowledge about the species. They also all drop 63 species from survey 
and manage requirements. The alternatives rely on strategic surveys to 
answer specific questions about the needs of the remaining species. The 
three action alternatives vary in the number of species for which 
surveys would be required prior to ground disturbing activities. Two of 
the three action alternatives would require fewer species be surveyed 
compared to the ``No Action'' alternative, while the third action 
alternative differs from the others by combining more than one category 
of surveys such that the total number of required surveys would 
increase. A final decision on a selected alternative is expected this 
summer.
    In fiscal year 2000 the Forest Service has allocated $2.4 million 
to accomplish strategic surveys. Those surveys are the first year of a 
multi-year project that will lay the foundations for future decisions 
relative to the management of rare and uncommon species across the 
landscape in the NWFP area. In fiscal year 2001 the Forest Service has 
requested $7.1 million for survey and manage extensive surveys. The 
fiscal year 2001 program is intended to accomplish about 10 percent of 
the total strategic survey program under the DEIS alternatives.
    In addition to the extensive survey strategy, the agencies have put 
high priority on finishing pre-disturbance surveys on timber sales that 
were already awarded, but enjoined, and other timber sales that were 
delayed. The plan is for those surveys to be completed as soon as 
possible given the seasonal timing requirements of the surveys. Any 
additional, necessary rework of projects is also planned to start right 
after the surveys are finished. The Forest Service is funding this 
effort with the $7 million Congress provided as part of the fiscal year 
2000 appropriation, plus existing program funds and carryover funds.
    Question. What level of timber will the agency offer in fiscal year 
2000 and fiscal year 2001?
    Answer. The Forest Service has proposed to offer 3.6 billion board 
feet of timber in fiscal year 2000 and 3.0 billion board feet in fiscal 
year 2001. The fiscal year 2001 estimate has been reduced from the 3.2 
billion board feet shown in the President's Budget because of the 
Administration's requirement to provide $10 million in timber sales 
management funds to cover survey and manage needs under the President's 
Plan for the Pacific Northwest.
    In addition to the extensive survey strategy, the agencies have put 
high priority on finishing pre-disturbance surveys on timber sales that 
were already awarded, but enjoined, and other timber sales that were 
delayed. The plan is for those surveys to be completed as soon as 
possible given the seasonal timing requirements of the surveys. Any 
additional, necessary rework of projects is also planned to start right 
after the surveys are finished. The Forest Service is funding this 
effort with the $7 million Congress provided as part of the fiscal year 
2000 appropriation, plus existing program funds and carryover funds.
    Question. How much is it going to cost for the agency to comply 
with the onerous survey requirements of the Northwest Forest Plan in 
fiscal year 2000 and in fiscal year 2001?
    Answer. In fiscal year 2000 the Forest Service has allocated $2.4 
million to accomplish strategic surveys. Those surveys are the first 
year of a multi-year project that will lay the foundations for future 
decisions relative to the management of rare and uncommon species 
across the landscape in the NWFP area. In fiscal year 2001 the Forest 
Service has requested $7.1 million for survey and manage extensive 
surveys. The fiscal year 2001 program is intended to accomplish about 
10 percent of the total strategic survey program under the DEIS 
alternatives.
    In addition to the extensive survey strategy, the agencies have put 
high priority on finishing pre-disturbance surveys on timber sales that 
were already awarded, but enjoined, and other timber sales that were 
delayed. The plan is for those surveys to be completed as soon as 
possible given the seasonal timing requirements of the surveys. Any 
additional, necessary rework of projects is also planned to start right 
after the surveys are finished. The Forest Service is funding this 
effort with the $7 million Congress provided as part of the fiscal year 
2000 appropriation, plus existing program funds and carryover funds.
    Question. What line items will be assessed to pay for these costs?
    Answer. We anticipate that each of our three proposed budget line 
items (BLI) in the National Forest System appropriation would bear some 
costs associated with survey and manage activities. In addition, the 
Operations BLI (for hazardous fuels projects) in the Wildland Fire 
Management appropriation and each of the BLIs within the proposed 
Infrastructure appropriation would have survey and manage project 
related costs.
    Question. What has happened in the wake of last year's Sierra Club 
v. Martin decision that held that the Forest Service had to count 
individual members of species pursuant to its viability regulations as 
opposed to monitoring their habitat?
    Answer. The Sierra Club v. Martin decision did not hold that the 
Forest Service had to count individual members of species. Rather, the 
ruling in Sierra Club v. Martin, issued by the Eleventh Circuit Court 
of Appeals on February 18, 1999, held that the Chattahoochee-Oconee 
National Forests did not adequately monitor population trends of 
management indicator species (MIS), as required by NFMA regulations 
(36CFR 219.19). The ruling also held that the forest had not met a 
requirement in their forest plan to obtain population data for 
proposed, threatened, endangered or sensitive (PETS) species when such 
data are needed for evaluating effects of proposed actions and making 
management decisions.
    The Chattahoochee-Oconee National Forests suspended major 
vegetation management activities until the Court's ruling could be 
complied with through the issuance of Forest Plan amendments. Amendment 
No. 18 to the Chattahoochee-Oconee National Forests Land and Resource 
Management Plan was recently issued to address the PETS species portion 
of the court's ruling and is presently under appeal before the agency. 
Amendment No. 19 is presently available for public notice and comment 
and it addresses the management indicator species portion of the 
ruling.
    The Eleventh Circuit's interpretation of the regulatory language is 
binding throughout the Circuit, and thus applies to the national 
forests in Georgia, Alabama, and Florida. The Forest Service is 
complying with the Court's decision in a way that is consistent with 
current policy and regulations. Since the Court's ruling, the Southern 
Region Regional Forester has emphasized the need for Forests to monitor 
and evaluate MIS, and to ensure that regulations and agency procedures 
regarding MIS are followed. In June 1999, she issued a letter to Forest 
Supervisors to clarify MIS monitoring and evaluation expectations. It 
outlined various scientifically credible methods that can be used to 
monitor MIS populations, with the choice of method depending on various 
factors. The letter indicates that depending on the risk to species and 
the management questions that need to be addressed, it may be 
appropriate to directly monitor species populations rather than relying 
on making inferences about the population trends based only on habitat 
data. The National Forests in Alabama have also issued an amendment to 
the forest plan, which deals with the PETS species portion of the 
ruling. The recent revisions of the forest plans for the National 
Forests in Florida as well as the Kisatchie and Louisiana National 
Forests include language that addresses monitoring in light of the 
Eleventh Circuit decision.
    Question. Has other litigation on this issue occurred?
    Answer. There has been other litigation that, in part, has involved 
monitoring species. The outcomes of these cases have varied and some 
are still pending.
    Question. How do the agency's new planning regulations address 
viability and monitoring issues?
    Answer. Our response on these two issues is based upon the language 
of the proposed planning regulation as it was posted for public comment 
on October 5, 1999. The agency received over 9,000 comments that are 
currently being evaluated in preparation of the final rule text. Thus, 
final regulation language for these two sections is subject to change. 
Our responses are highlights only. We refer you to the cited sections 
of the proposed regulations for specifics.
    Viability (219.20): The proposed regulation provides more specific 
guidelines for assessing viability that will help establish common 
expectations and reduce litigation. These include: an ecological 
systems approach that focuses on ecosystem integrity to complement the 
existing focus on species viability in assessment and management to 
achieve ecological sustainability, a clarified requirement to maintain 
well-distributed and interacting populations and a clarified objective 
for viability given different patterns of overlap between species range 
and the planning area. The proposed regulation also provides the basis 
for more realistic expectations for the role of National Forests land 
in the maintenance of species viability.
    Monitoring (219.11): Under the proposed regulation, the Monitoring 
& Evaluation (M&E) emphasis is on provisions for adaptive management 
and achieving desired conditions as identified in planning decisions. 
We suggest you refer to Section 219.11 in the proposed rule for 
specifics. However, in brief, the proposed rule section requires the 
development of a written monitoring strategy for the land and resource 
management plan; coordination with and involvement of other agencies, 
constituent groups, the public, and scientists; project monitoring; an 
annual M&E report; and monitoring and evaluation of ecological, 
economic, and social sustainability.
    Question. What is it going to cost the agency nationally to meet 
the elevated standards for inventorying and monitoring of various 
species established in recent litigation?
    Answer. Recent litigation did not elevate standards for inventories 
or monitoring species. A ruling last year by the 11th Circuit Court of 
Appeals held that the Forest Service (the Chattahoochee-Oconee National 
Forests in Georgia) had not met the requirement to monitoring 
population trends of management indicator species (36 CFR 219.19). 
Funding needs for species monitoring consistent with 36 CFR 219.19 are 
developed by the individual national forests and are included as part 
of the total funding for the inventory and monitoring line item.
    In separate litigation in the Pacific Northwest, the court held 
that the Forest Service and Bureau of Land Management did not 
appropriately interpret and implement two specific aspects of the 
``survey and manage'' standards and guidelines that were adopted as 
part of the Northwest Forest Plan. The agencies are preparing a 
Supplemental EIS that clarifies and modifies the survey and manage 
standards and guidelines. Based on the alternatives analyzed in the 
Draft Supplemental EIS that was issued last Fall for public review and 
comment, the estimated costs for implementing the survey and manage 
program range from a low of $19.4 million/year (Alternative 2) to a 
high of $132 million/year (``No Action'' alternative. A final decision 
on this SEIS is scheduled to be issued later this year.

                       FOREST PLANNING/MONITORING

    The agency has asked for a 34 percent increase ($65 million) in 
planning and monitoring in the fiscal year 2001 budget. It seems like 
the Forest Service is endlessly planning while little money is left to 
actually do work on the ground.
    Question. Why is there such a large increase requested for 
planning?
    Answer. The Land Management Planning program is one of four basic 
components within the agency's Ecosystem Assessment and Planning budget 
line item proposed under the new budget structure for fiscal year 2001. 
However, we are assuming, with your specific reference to planning, 
that the increase you are referring to is that reflected by the $39.7 
million appropriated in fiscal year 2000 versus the $65 million 
proposed in the fiscal year 2001 President's Budget under the current 
budget structure for the Land Management Planning budget line item.
    This $25 million increase will focus on our continual emphasis on 
eliminating the Land and Resource Management Plan (commonly referred to 
as a forest plan) revision backlog. In fiscal year 2001, the budget 
proposes to increase the number of forest plan revisions being worked 
on to fifty compared to thirty-six in fiscal year 2000. In addition, 
all plans not under revision will be funded to keep their plans current 
as conditions change. In fiscal year 2000, there were insufficient 
funds to finance the maintenance of all plans not under revision. 
Finally, the agency will be directing funds in fiscal year 2001 toward 
implementing the revised planning regulations to be promulgated in 
fiscal year 2000.
    Question. Many groups such as the Society of American Foresters 
believe that your proposed planning regulations will be much more 
expensive to administer than the current regulations. Is the large 
increase you have asked for in fiscal year 2001 indicate that this is 
the case?
    Answer. The reasons for the fiscal year 2001 increase are 
identified in our answer to the previous question. Regarding the 
expense of administering the new rule, we do not expect it to be more 
expensive. There will be some initial and near-term costs associated 
with publishing the rule in fiscal year 2000 as well as subsequent 
implementation costs for training field staff and bringing some of the 
existing plans into compliance with the new rule. However, as for the 
expense of administering the new rule over the long run, our cost-
benefit analysis determined both increased costs and costs savings 
associated with amending, revising, monitoring, and maintaining 
National Forest System plans under the proposed rule. For example, 
eliminating regional guides and reducing the length of the planning 
process will reduce costs. Increased costs would result from new 
requirements for FACA-type advisory boards, science advisory boards, 
and broad-scale assessments. Overall, our cost analysis showed that the 
proposed regulation would result in an estimated average annual cost 
savings of $2.3 million compared to the existing regulation.
    Beyond the economic expense, however, it is the non-quantified 
benefits of the proposed planning rule, in the mid- to long-term, that 
are expected to be substantial and result in cost savings through an 
overall improvement in the public understanding, use of, and benefits 
from the National Forest System. Key among these expected benefits are 
better, more informed decisions and decreased costs for litigation and 
appeals; costs which as you know, are currently excessive in both staff 
time and budget. We anticipate that cost savings in the latter area 
will be realized through the regulation's planning framework that 
fosters collaborative stewardship of the National Forest System lands 
and improves the likelihood of achieving ecological, social, and 
economic sustainability. These improvements will come, in large part, 
through better collaboration with the public, improved monitoring and 
evaluation, integration of science into product and collaborative work, 
and a more flexible process that reduces the burden on both the public 
and the agency. The value of benefits accrued through these processes 
will lead, in the long run, toward the mutually desired health of the 
shared landscape.
    Question. How much of this increase is for national initiatives 
like the roadless rule, and finalizing new planning regulations?
    Answer. An estimated $1.2 million will be spent in fiscal year 2001 
at the national level to finalize the Roadless Rule. We do anticipate 
some field level costs to be incurred in fiscal year 2001. An estimate 
of those costs can be made once the agency has determined specific 
field unit requirements for completing the Final Environmental Impact 
Statement.
    With regard to the new planning regulations, we plan to publish the 
final rule during fiscal year 2000. Therefore, we have not budgeted any 
funds for this purpose in fiscal year 2001. However, we do expect to 
incur implementation costs for training field staff and bringing some 
of the existing plans into compliance with the new rule.
    Question. What are you doing, if anything, to lower your unit costs 
for planning?
    Answer. The cost/benefit analysis for the proposed rule estimates 
an annual cost savings of $2.3 million compared to the existing 
regulation. This estimate was determined by examining costs associated 
with amending, revising, monitoring, and maintaining National Forest 
System plans under the proposed rule compared to the existing 
regulation.
    Question. Won't research funding have to be greatly increased under 
the new planning regulations given the emphasis on science-based 
planning? What are the agency's estimates in this regard?
    Answer. Some increases will be necessary if recent history is 
projected forward. But experiences of the recent past need should not 
automatically be accepted as the most desirable way to staff future 
planning activities. Researchers from the Research & Development 
organization did make substantial contributions to recent planning 
efforts, including FEMAT, the Tongass Land Management Plan, Sierra 
Nevada Ecosystem Project, and the Southern Appalachian Assessment. 
Their expertise and skills were exceptionally valuable in these 
efforts. But the need to involve researchers in planning activities 
arose largely from inadequate funding and subsequent personnel 
attrition during the 1990s within the National Forest System. Large 
numbers of national forest technical staff--scientists in many 
disciplines, such as hydrology and silviculture--retired or left the 
agency and were not replaced. Thus, when the demand for special plans 
and projects came, national forests were understaffed in critical 
scientific skills. Because of the urgent nature of these planning 
efforts and the fact that researchers had the skills and expertise in 
short supply on national forests, researchers were pulled away from 
their studies and reassigned temporarily to planning activities. In 
many cases, ongoing research was disrupted. Consequently, Stations will 
not provide new knowledge and technology in the near future at normal 
rates because the research was interrupted. Augmenting the funding of 
the National Forest System so that they can hire new scientists into 
essential technical staff positions is an alternative to a massive 
increase in funding for the Research & Development program. But a 
significant infusion of funds somewhere within the agency will be 
required to redeem the planning functions embodied in existing legal 
authorities, such as the National Forest Management Act, and Endangered 
Species Act.

                          NATIONAL INITIATIVES

    In the final year of this Administration, the Forest Service is 
attempting to finalize major rulemakings and initiatives all at once 
including forest planning regulations, roadless area policy, 
transportation policy, and a new strategic plan. These have all been 
presented to the public in a helter-skelter fashion, with little 
description of how the pieces fit together or an evaluation of their 
interaction.
    Question. How do all of these major new policies fit together?
    Answer. The strategic plan is intended to guide future agency 
actions in managing the national forest and grasslands resources. The 
plan does this by putting forth four strategic goals--ecosystem health, 
multiple benefits for people, scientific and technical assistance, and 
effective public service--which will establish the overall focus for 
agency programs for the next three to five years. This is the 
foundation for the development of future policies including the three 
of interest in your question.
    The proposed planning rule provides the framework for land and 
resource planning. The planning rule and the draft strategic plan are 
designed to complement each other. The strategic plan provides the 
Forest Service's national goals and objectives. Land and resource 
management plans, developed under the planning rule, articulate 
regional and local goals and objectives the guide on the ground site-
specific management actions. Provisions in the proposed planning rule 
ensure that the agency's national goals and objectives, articulated in 
the strategic plan, will be considered in the revision and amendment of 
land and resource management plans, the development of site-specific 
projects and ongoing monitoring efforts. The proposed rules for 
managing our road transportation system and for roadless area 
conservation are consistent with the proposed planning rule and add 
specificity for road and roadless area management planning.
    The proposed rule for road management is designed to help us make 
the Forest Service road system safe, responsive to public and agency 
needs, environmentally sound and affordable to manage. This rule 
contains analysis requirements that will be incorporated into 
individual forest plans through the amendment or revision process, 
which would be guided by the sustainability, collaboration, science, 
and other requirements of the planning rule. The proposed road 
management policy will complement the proposed planning rule in 
achieving the several major goals of the strategic plan. The proposed 
road policy by requiring a hard look at its existing and future road 
system in order to better protect water quality, soil resources and 
watershed health will assist in meeting the Ecosystem Health goal in 
the strategic plan. Likewise, the proposed road management policy would 
make our road system safe and efficient to manage with its focus on 
maintaining needed roads will help attain the Effective Public Service 
goal in the strategic plan. Together, the proposed roads management 
rule and the roadless area conservation strategy form a cohesive 
strategy for moving the agency away from building new roads and towards 
maintaining and repairing its existing roads.
    The third new policy in question is the roadless area conservation 
proposal. As mentioned previously this strategy works in concert with 
the roads management policy to add specificity and guidance for the 
management of roads and roadless areas within the scope of land and 
resource management plans. The proposed roadless area conservation rule 
also contributes to several of the goals proposed in the draft 
strategic plan. For example, by prohibiting road construction in 
inventoried roadless areas and then protecting roadless characteristics 
at the local level, the proposal would protect critical watersheds and 
promote water quality thereby accomplishing the strategic plan's 
Ecosystem Health goal.
    We believe these policies are critical in moving the mission of the 
Forest Service forward. The proposed revision of the Forest Service's 
strategic plan will provide the framework and focus for future agency 
action over the next three to five years in caring for our National 
Forests. Within this framework, the proposed planning rule, proposed 
road management policy and the proposed roadless area conservation rule 
will provide a comprehensive strategy for accomplishing long-term 
sustainability of our National Forests.
    Question. Why does the agency need new initiatives dealing with 
roadless areas and the transportation network when new planning rules 
are about to be issued?
    Answer. As mentioned in the previous questions response, all the 
proposed rules are complementary and work together to form a 
comprehensive strategy to address long-term sustainability of National 
Forests.
    Question. It seems that these issues are appropriately addressed at 
the local level through the planning process. Is there a logical 
sequence in which you plan to issue these proposals?
    If so, what is this order?
    Answer. Given the interrelated and complementary nature of these 
proposals, they are being developed concurrently and will be issued 
upon their completion.
    Question. How much do all these activities cost?
    Answer. Forest Planning Regulation.--In the fiscal year 2000 final 
budget, $3.5 million is programmed for the agency to process and 
finalize planning regulations. This includes $2.4 million to be spent 
at the national level for analyzing public comments, completing final 
regulatory text, publishing in the Federal Register, completing manual 
and handbook direction and initiating training to help field staff 
implement the revised planning regulations. The remaining $1.1 million 
is programmed for regional level costs associated with beginning the 
conversion, where needed, of existing land and resource management 
plans to comply with the new regulations.
    The fiscal year 2001 President's Budget includes an estimated $6 
million for training associated with implementing the new planning 
regulations and conversion, where needed, of existing plans to meet the 
new regulation requirements.
    Roadless.--The roadless initiative to address the need to conserve 
and enhance the social and economic values of roadless areas is 
estimated to cost $8.6 million for fiscal year 2000 at the national 
(i.e., headquarters) level. We have established a mechanism in our 
accounting system to track costs that are incurred by units below the 
national level, i.e., regional office and field level costs. As of 
March 31, 2000, regional office costs incurred total $.1 million and 
costs at the field level total $1.1 million. We expect some additional 
costs to be incurred at regional office and field levels during the 
remaining six months of this fiscal year.
    Transportation Policy.--National efforts in the development of the 
Road Policy primarily impacted employees in the Chief's office and did 
not impact the field this fiscal year. Impacts to the employees in the 
Chief's Office were primarily part of the regular program of work. The 
final road policy is expected to be complete in September; 
subsequently, there should not be any major impacts to the field for 
the remainder of this fiscal year.
    Strategic Plan.--In the fiscal year 2000 final budget, $1.5 million 
is programmed for the Agency to prepare and publish a draft and a final 
Forest service Strategic Plan (2000 Revision) under the Government 
Performance and Results Act of 1993 (GPRA). The strategic plan applies 
to all Agency programs, and thus it is financed from multiple budget 
line items, including Forest and Rangeland Research, state and Private 
Forestry, National Forest System, Wildland Fire Management, and 
Reconstruction and Maintenance. A draft strategic plan was published 
for public and employee review and comment on December 1, 1999, and a 
final plan is expected to be completed by September 30, 2000.
    Question. What is going to be the impact on timber harvesting and 
recreational opportunities within the Forests of these various 
proposals?
    Answer. Forest Planning Regulation.--Neither the existing nor the 
expected revised planning regulation, in and of itself, imposes impacts 
on timber harvest, recreation, or any other multiple resource use. 
Rather, the regulation stipulates a framework under which forest plans/
revisions are developed and implemented. NEPA requires that 
environmental analysis be completed and disclosed to determine the 
impact of management activities on a given resource use at the site-
specific level when a project is proposed to implement the plan.
    Further, the proposed planning regulation is designed to more fully 
ensure, than does the existing regulation, that all uses of National 
Forest System lands are sustainable in the long-term. The goal of 
ecological sustainability is consistent with the Multiple-Use Sustained 
Yield Act direction to provide for ``harmonious and coordinated 
management of the various resources--without impairment of the 
productivity of the land.'' Under the proposed regulation, the Forest 
Service approach for ensuring achievement of multiple use management in 
the context of environment, economic, and social sustainability will be 
one of more extensively engaging the public and other partners in an 
open, collaborative process that considers issues, alternatives, and 
environmental effects.
    Roadless.--The total timber volume offered from inventoried 
roadless areas would drop from an estimated 220 MMBF per year to 140 
MMBF until April 2004, when the prohibition takes effect on the Tongass 
National Forest. At that time, the amount of timber offer would be 
further reduced to an anticipated 32 MMBF per year, a total reduction 
of 85 percent from these lands. The Forest Service timber program 
currently offers approximately 3,300 MMBF per year. The total reduction 
in timber offer from National Forest System lands would be about 6 
percent. The roadless policy should not have significant impact on 
recreation opportunities.
    Transportation Policy.--No direct impact. Decisions on roads will 
be made at the local level.
    Strategic Plan.--None.
    Question. The National Federation of Federal Employees, which 
represents half of the Forest Service's employees, recently issued a 
letter condemning these initiatives as more massive Washington mandates 
that are hampering work in the field and inflating the Washington 
Office bureaucracy. How do you respond to these charges from your own 
employees?
    Answer. We share the National Federation of Federal Employees 
(NFFE) concerns about downsizing, particularly as it impacts the 
``operational end'' of the organization and its ability to complete its 
on-the-ground mission. As indicated in the NFFE letter, downsizing at 
the FS has been greater at the lower grades. It is important to note 
that in the short term the nature and volume of the work at the FS is 
changing while budgets remain more or less stagnant. For example, the 
early 1990's ushered in attention to resource restoration and 
improvement, which impacted timber harvest levels across the FS land 
base, particularly in the Pacific Northwest, and increased the Agency's 
attention to fish and wildlife management. Therefore, certain job 
classifications were reduced or even eliminated while others became 
more critical to the on-the-ground mission. Shifts in program workload 
necessitated change at the District level rather than at the Regional 
Offices, Station Headquarters, or Washington Office. For example, a 
reduction in the FS timber program had a direct adverse impact on the 
number of positions the FS could finance in the field. Nevertheless, 
today over 21,000 of the FS 28,000 permanent employees, and nearly all 
of the FS 14,000 non-permanent workforce are employed at national 
forest locations.
    In addition, the roadless rule, transportation policy and planning 
regulations do not have a significant impact on performance of field 
work. Most of the field people involved in these initiatives are line 
officers, public information officers and other administrative 
personnel.
    Question. Please provide the staff year dispersion charts for the 
last 5 years which show the number of Washington Office employees 
versus the number of employees in the field.
    Answer. The information follows:

                                    U.S. FOREST SERVICE STAFF-YEAR DISPERSION
----------------------------------------------------------------------------------------------------------------
                                                                                   Fiscal year
                                                               -------------------------------------------------
                                                                                                          2000
                                                                  1996      1997      1998      1999     enacted
                                                                  final     final     final     final    to date
----------------------------------------------------------------------------------------------------------------
Field offices:
    Region and Station Headquarters...........................     3,304     3,359     3,410     3,350     3,300
    Forest HQ/Labs/S&PF/IITF..................................    13,378    12,768    11,194    11,090    11,018
    Ranger District Offices...................................    17,863    17,472    17,472    17,119    18,451
    Washington Office Detached Units..........................     1,929     1,970     2,025     2,047     2,025
                                                               -------------------------------------------------
      Subtotal--field.........................................    36,474    35,569    34,101    33,606    34,794
Washington office:
    Sidney R. Yates Federal Building..........................       505       522       502       523       520
    Buildings C and E, Rosslyn Plaza..........................       194       193       168       210       273
    Franklin Court............................................        32        27        27        27        27
                                                               -------------------------------------------------
      Subtotal--Washington Office.............................       731       742       697       760       820
                                                               -------------------------------------------------
      Total staff-years.......................................    37,205    36,311    34,798    34,366    35,614
                                                               =================================================
End-of-year employment:
    Permanent Full-Time.......................................    28,885    28,542    27,010    27,245    27,518
    Other Than Permanent Full-Time............................     8,320     7,769     7,788     7,121     8,096
                                                               -------------------------------------------------
      Total E-O-Y employment..................................    37,205    36,311    34,798    34,366    35,614
----------------------------------------------------------------------------------------------------------------

    Question. We hear from many forests around the country that their 
personnel are tied up working on these proposals at the expense of 
performing needed field work. What work isn't being done as a result of 
Forest Service personnel being forced to spend much of their time on 
these rulemakings and initiatives?
    Answer. The rulemakings are either substantially complete or will 
be completed by late fall. In either case, the majority of workload 
associated with the rulemakings was completed by Washington Office 
staff. Field review, public meetings and public comment opportunities 
presented the greatest impact of time on our personnel outside of the 
Washington Office; however, the vast majority of these individuals are 
not field going people, but are our Line Officers, Public Information 
Officers and other administrative types. Thus, the rulemakings and 
initiatives do not have any significant effect on performance of field 
work.
    Question. Many of the western governors have asked that their 
states be granted cooperating agency status with respect to the 
proposed roadless area rulemaking. How is the agency going to respond 
to this request?
    Answer. The Forest Service will work closely with the Western 
Governors, other interest groups, and local communities. It is not 
likely that individual states will be granted full cooperating agency 
status with respect to the proposed roadless area rulemaking. There are 
potentially hundreds of cooperating agencies, given the number of 
states, counties and tribal governments in the country. From a 
management perspective, allocating work assignments among these 
widespread agencies is not feasible or practical. However, we do very 
much recognize the importance of communication and consultation with 
our non-federal partners.
    Question. Don't the existing CEQ regulations encourage this kind of 
collaborative process with interested stakeholders?
    Answer. CEQ believes that a maximum effort to collaborate is 
important, and involvement of non-federal agencies is useful and 
appropriate
    Question. The Forest Service claims it cannot afford to maintain 
the thousands of miles of roads on the National Forest System. The oil 
and gas industry, in full compliance with Forest Service standards and 
requirements, constructs, maintains and reclaims all roads required for 
exploration and development activities. Why shouldn't oil and gas roads 
be exempted for the construction ban?
    Answer. Oil and gas road construction is permitted under the 
current moratorium if there is a pre-existing agreement. Future road 
building in roadless areas is being addressed in the draft 
environmental assessment now being completed.
    Question. Given the new policies adopted by the Forest Service 
within the last 8 years, has the agency's policy become similar to that 
of the National Park Service or other single mission agencies?
    Answer. No, the agency's policies are not single mission in nature. 
Recreation, watershed protection, and ecosystem management to preserve 
our national forests for future generations are very important aspects 
of the multiple-use mandate.
    Question. How does the agency reconcile its congressionally 
mandated multiple-use mandate with the proposal to place an additional 
55 million acres off limits to most multiple-use activities, including 
commodity and motorized recreational uses?
    Answer. The agency believes that the roadless rule supports the 
multiple-use mandate. Roadless areas provide multiple opportunities for 
dispersed outdoor recreation. They serve as a bulwark against the 
spread of non-native invasive plant species. Roadless areas also 
contain all or portions of 354 municipal watersheds contributing 
drinking water to millions of citizens. Maintaining these areas in a 
relatively undisturbed condition saves downstream communities millions 
of dollars in water filtration costs. They also function as biological 
strongholds for imperiled wildlife, fish and plant species.
    Question. What specific economic impacts to the economy are 
anticipated by the Forest Service's roadless proposal?
    Answer. It is currently estimated that, over the next five years, 
up to 4,550 jobs nationwide could be impacted by the roadless rule. 
Prohibiting timber harvest in inventoried roadless areas could reduce 
total personal income by $36.2 million annually over the next five 
years. Prohibiting mining-related road construction in inventoried 
roadless areas could affect approximately $125 million of personal 
income annually.
    Question. The Forest Service appears to believe its only option to 
protect wildlife and ecological values is to preclude activities that 
could intrude upon them. Has the Forest Service considered the many 
mitigation measures instituted on surface disturbing activities to 
protect just these resources? Isn't there some less drastic approach 
available to achieve the same goal while permitting multiple uses of 
the taxpayers' lands and resources?
    Answer. Standards, guidelines, and mitigation measures are an 
integral part of Forest Plans and projects, providing the framework for 
managing multiple uses on National Forest System lands. This includes 
full consideration of various mitigation measures to help address the 
effects of surface disturbing activities on some species of wildlife, 
fish, and rare plants. In some cases, projects can be designed to avoid 
adverse impacts to species, and in other cases mitigation can be 
developed to offset or substantially reduce adverse impacts. In some 
instances, however, mitigation is not sufficient to avoid substantial 
adverse impacts, but even in those situations the projects often are 
allowed to occur with the acknowledgement that species populations and 
their habitat will decline.
    In efforts to conserve species and their ecosystems, the Forest 
Service makes every effort to avoid any unnecessary preclusion of human 
activities. However, the status of some species and their habitat has 
declined to the point that their conservation depends on greater 
protection than they have been afforded in the past through various 
mitigation measures, and additional protections are needed including 
restrictions on certain types of surface disturbing activities.
    Under certain circumstances, the restrictions placed on surface 
disturbing activities on Forest Service lands can become even more 
prohibitive due to the proximity, condition, and management on adjacent 
lands under other ownership. The Forest Service has an obligation under 
the Endangered Species Act to take an active role in the conservation 
of these species. In some instances involving species- at- risk, 
additional restrictions on activities on National Forest System lands 
are taken in order to allow continued management flexibility on 
adjacent non-federal lands. This clearly benefits private landowners.

               MT. ST. HELEN'S NATIONAL VOLCANIC MONUMENT

    Of particular concern to the Committee is an issue that came up 
with respect to a Forest Service visitor center at the Mt. St. Helen's 
National Volcanic Monument. This is the 20th anniversary of the 
eruption at Mt. St. Helen's. The allocation that the Monument gets for 
operations money has declined drastically in recent years, at the same 
time as more money was being collected through the Recreation Fee 
Demonstration program. When Fee collections decreased this past year 
due to a change in the collection policy, a visitor's center at the 
monument was slated for closure due to a lack of appropriated dollars.
    Question. The Recreation Fee Demonstration program was never 
intended to be used as an offset for appropriated dollars, but isn't 
that what happened here?
    Answer. The reduction in funding is not because of an offset. The 
allocation of recreation funds to the Pacific Northwest Region (Region 
6), and all regions, is the result of applying a standard set of 
allocation criteria. Region 6 allocates recreation funds within the 
region using the national formula, modified to place additional 
emphasis on special areas, urban National Forests, visitor centers and 
facilities. This has resulted in a higher level of funding for the 
Gifford Pinchot National Forest, which administers the Mount St. Helens 
NVM, than what might otherwise have been allocated.
    At all levels of the agency we have strived to reduce indirect 
costs and become more efficient and cost-effective in how we conduct 
our business. Still, many fixed costs remain. With timber funds 
substantially reduced compared to historic levels, the steady decline 
in General Administration (GA) funding, and legislative prohibitions 
against using special funds such as the fee demo revenues on fixed and 
indirect costs, the increased burden for covering these expenses falls 
on the remaining program allocations, including Recreation.
    The agency, specifically, the Pacific NW Region, makes no 
adjustment or offset based on the Recreation Fee Demonstration Project 
and its revenue. While the revenues generated by the Recreation Fee 
Demonstration Project have been significant, they have been used only 
to enhance the recreation experience at Mount St. Helens NVM. Examples 
include increased interpretive staffing at Monument visitor centers, 
summer operation of the Woods Creek and Pine Creek Information 
Stations, expanded backcountry and climbing patrols, and the completion 
of several large-scale backlog maintenance projects. Fee revenues do 
fluctuate based on changing visitor numbers, weather patterns, and 
broad policy changes in the fee program. This impacts the level of 
service enhancements that may be provided in any given year.
    The decline in funding for the Monument is attributable to several, 
interconnected reasons occurring on the Gifford Pinchot National 
Forest. The funding dilemma we are currently dealing with would have 
presented itself regardless of the availability of Recreation Fee 
Demonstration revenues. It should also be noted that while we are 
focusing on Mount St. Helens visitor centers, other visitor centers 
throughout the agency face similar funding challenges to manage 
associated infrastructure.
    We will continue at all levels to assist the Gifford Pinchot 
National Forest in reducing costs, seeking alternative funds, reviewing 
the user fee program, and expanding the use of volunteers and external 
partners. We will continue to work with partners and community leaders 
to develop long-term solutions for stability at the visitor centers.
    Question. What is the agency doing to prevent this situation from 
happening elsewhere?
    Answer. The Forest Service has been very specific that it is 
unacceptable for Agency field units to reduce (offset) locally 
available appropriated dollars as fee demonstration receipts have 
increased. While it is apparent that appropriated funds available for 
field use for direct program activities have declined in many 
locations, those declines are due to the need to use their appropriated 
funds for increased overhead, national commitments, earmarks etc. but 
are not due to offsets associated with recreation fee demonstration 
collections. Congress has not reduced or offset appropriated dollars as 
a result of fee demo collections, and it is the agency's full intent to 
assure that we also do not offset.
    Question. It doesn't seem that any of the $10 million increase the 
Congress provided in the Recreation budget line item over and above the 
President's budget request for fiscal year 2000 made it to the ground 
for facilities like those at Mt. St. Helen's. How was this increase 
allocated to the field? How much went to Region 6?
    Answer. The following information shows the funding change between 
fiscal year 1999 and fiscal year 2000 for Recreation Management:

                        [In millions of dollars]
------------------------------------------------------------------------
                                               Fiscal year
                                          ---------------------  Change
                                              1999      2000
------------------------------------------------------------------------
Appropriation............................      145       155.5     +10.5
Adjusted for Land Between The Lakes and    .........     158.3     +13.3
 the Congressional Reduction.............
Amount Distributed to Field..............      132       136.1      +4.1
Region 6 Allocation......................       17.3      18.8      +1.5
------------------------------------------------------------------------

                                  FIRE

    Question. The Committee is very concerned about the fire risk on 
our national forests, particularly those in the West. Last year, the 
GAO prepared a report which stated that 39 million acres of national 
forest lands in the interior West are a ``tinderbox.'' This year you 
have asked for less money for Fire Preparedness than last year. Is this 
a prudent allocation of resources given the high risk of fire on many 
of our national forests?
    Answer. The Forest Service budget represents a balance between many 
priorities. The budget request for Fire Preparedness provides an 
adequate number of firefighting resources, within the scope of agency 
priorities.
    Question. As I understand it, the agency's budget request 
represents only 71 percent of the optimal level of funding which you 
call MEL (Most Efficient Level). This is down from last year's level. 
The Department of the Interior is funding preparedness operations at 82 
percent of MEL. Why does there continue to be such a discrepancy 
between the Forest Service and the Department of the Interior with 
respect to percentage of the MEL funded?
    Answer. The seeming discrepancy represents a difference in program 
priorities and scale between Departments. Moving from 71 percent to 82 
percent of MEL would increase protection capability. However, given 
other agency priorities, a 71 percent of MEL budget is within 
acceptable limits of risk. Moving from funding 71 percent of MEL to 82 
percent of MEL represents a budget increase of $52 million.
    Question. The GAO also stated in its report that ``the Forest 
Service lacks a cohesive strategy for reducing fuels on our National 
Forests.'' What is the Forest Service doing to develop such a strategy?
    Answer. In response to Congressional direction, the Forest Service 
undertook a project to develop a strategy to reduce wildfire risk and 
restore forest health in the interior West. The resulting document, 
``Protecting People and Sustaining Resources in Fire-Adapted 
Ecosystems, A Cohesive Strategy,'' is currently under review by the 
Office of Management and Budget (OMB). While the OMB has not approved 
the document, the Forest Service has implemented key components of the 
strategy.
    Question. When will this strategy be available to the Congress and 
the public?
    Answer. The document will be available as soon as the necessary 
clearance processes are completed.
    Question. How much money will it cost to deal with the fire hazard 
on our forests in the West?
    Answer. The strategy calls for an investment of approximately $11.5 
billion over 15 years. Once full implementation is reached, 4.2 million 
acres per year would be treated for fuel reduction, restoration of 
forest health, and maintenance of healthy ecosystems.
    Question. What will be the impact of your new roadless area policy 
on the ability to reduce fuel loads on the national forests?
    Answer. The agency anticipates that the final roadless policy will 
have little impact on the ability to reduce fuel loads on national 
forests. Most high priority treatment areas are accessible by road 
systems that will not be affected by the roadless policy.
    Question. Doesn't the agency need access to these areas to do 
necessary treatments to avoid forest fires?
    Answer. Closing some road systems will not eliminate access to 
forests. It is likely that areas requiring fuel treatment or forest 
health restoration work, that are also within an area of road closure 
consideration, are low priority treatment areas. Methods of 
transportation, other than vehicles, can be used to access treatment 
projects.
    Question. Recently, the use of certain fire retardants was halted 
because of environmental concerns. What is the agency doing to replace 
the use of these retardants? To what extent will firefighting 
capability be jeopardized?
    Answer. On April 20, 2000, following 2 weeks of consultation with 
the Department of the Interior wildland firefighting agencies, the 
Office of General Counsel, the Interior Office of the Solicitor, the 
Environmental Protection Agency, and affected States, the Forest 
Service issued a Resume Work Order for the use of the retardants in 
question. Along with the Resume Work Order, a revised set of 
``Operational Guidelines for Aerial Application of Retardant and Foam'' 
was issued to all personnel involved with the use and delivery of these 
retardants. The impact of these revised guidelines to firefighting 
capability is expected to be negligible.

                                 TIMBER

    Question. For fiscal year 1999, the Congress provided the Forest 
Service with sufficient funds to offer 3.6 billion board feet of 
timber. The agency missed this target by over 1.3 billion board feet. 
Why did the agency miss this target by such a large amount?
    Answer. The timber sale offer volumes planned each year can only be 
accomplished if there are no problems experienced during the year. 
Appeals and litigation on timber sales has delayed, and will continue 
to delay, our ability to achieve our planned offer of timber sales. In 
many cases, successful litigation results in further delay as sales are 
reworked to incorporate new standards and direction. In some cases 
timber sales have to be withdrawn, or are reworked such that the 
planned timber sale volume cannot be accomplished. All of these 
difficulties contribute to shortfalls in planned timber sale volume 
offer. Fiscal year 1999 was a particularly challenging year as the 
timber sale program was affected by the interim roads rule, survey and 
manage requirements, delays in the consultations required for listed 
fish species east of the Cascades in the Pacific Northwest Region, 
implementation of California spotted owl guidelines, old growth issues, 
litigation in the Eastern and Southern Regions, and low market demands 
for small diameter material that has caused the agency to reduce the 
offer of these products from what was originally planned.
    Question. How will the agency fix the problems with the timber 
program so that specific Congressional directives are complied with?
    Answer. Timber volume targets are based upon field capabilities for 
the timber sales management funding appropriated by the Congress. 
However, our timber sale capabilities are being affected by a host of 
issues surrounding the management of our National Forests, such as the 
proper procedures necessary to comply with the National Environmental 
Policy Act, the kinds of practices necessary to protect all species 
listed under the Endangered Species Act, and full implementation of new 
procedures required by recent legal decisions. The new practices and 
procedures required from each new legal decision become the new 
standard upon which all other similar past and future management 
activities are also judged. The agency is working through the current 
issues affecting our ability to offer and sell timber sales, however 
there is no guarantee that new issues will be not be raised in the 
future.
    Timber sales management funding is spent for a number of activities 
that contribute to the program, including silvicultural examination, 
environmental analysis, timber sale preparation, preparation of 
appraisals and contracts, the offer of sales, the qualification of 
bidders, timber sale award, harvest administration, record keeping and 
reporting, and other forest products sales. This work is done 
regardless of the amount of timber volume that is actually offered or 
sold. Evaluating performance based on the volume of timber offered for 
sale does not reflect the underlying work being performed to manage the 
National Forests for multiple benefits and uses.
    Question. What harvest level will be accomplished in fiscal year 
2000 and in fiscal year 2001?
    Answer. For outyear planning estimates the agency assumes that the 
volume of timber offered will also be the volume of timber sold and 
harvested. The planned offer amounts are 3.6 billion board feet in 
fiscal year 2000 and 3.0 billion board feet in fiscal year 2001. 
However, this is not specifically accurate because the sales sold and 
harvested also include timber sales offered in previous years. It is 
not possible to provide an accurate estimate of what timber companies 
may bid on, actually purchase, or actually harvest in a given year.
    Question. Does the agency expect similar problems in meeting timber 
targets in these years?
    Answer. Yes.
    Question. In light of the problems the agency has had with 
accomplishing timber targets why did the agency propose reducing the 
timber program by $15 million?
    Answer. The Administration's budget proposal for fiscal year 2001 
was formulated within existing budget constraints to balance various 
priorities among all discretionary programs.
    Question. Does the timber program need additional funds to 
accomplish timber offer targets?
    Answer. Accomplishing timber offer target depends on the number and 
kinds of issues the agency faces in managing the National Forests, 
particularly for timber production. We no not believe that these issues 
will disappear in the next few years. The regions have indicated that 
they have the capacity to increase timber volume offer in fiscal year 
2001. Based upon data collected last year that has not been updated, 
the regions have indicated they could accomplish an additional 623 
million board feet of timber offered for sale if provided with an 
additional $58.2 million for timber sales management and $13.1 in 
engineering support. The required units costs are $93 per MBF for 
timber sales and $21 per MBF for engineering support. Undoubtedly, some 
of today's issues would also apply to some of any additional timber 
sale volume that is planned.

                                  GPRA

    Question. How are the agency's annual performance goals linked to 
the agency's mission, strategic goals, and program activities in its 
budget request?
    Answer. The Strategic Plan of the Forest Service, 2000 Revision, 
provides the agency's goals and objectives to which regional, forest, 
and site specific plans will ultimately link. The 2000 Revision shifts 
the focus of agency management away from ``inputs, outputs, and 
process'' to ``outcomes'' on the landscape. The 2000 Revision refines 
agency strategic goals, objectives, and strategies for achieving the 
goals. With this guidance, national forests will develop Land and 
Resource Management Plans and annual work plans.
    Question. Could you describe the process used to link your 
performance goals to your budget activities?
    Answer. The 1997 Strategic Plan was constructed based on the old 
budget structure, which emphasized inputs and outputs. The compromise 
sought with the fiscal year 2000 Annual Performance Plan began the 
shift from output planning and reporting to a focus on landscape 
outcomes for management investments. The recent proposals to reform 
budget structure are based in part on the need to better align the 
budget with the 2000 Revision of the strategic plan and annual 
performance goals. The integration of these two systems has begun and 
will take a significant step forward in the fiscal year 2002 budget 
planning cycle as the agency continues to move toward a focus on 
outcomes and more fully implement the Results Act requirements.
    Question. What difficulties, if any, did you encounter, and what 
lessons did you learn?
    Answer. The process of linking the agency's revised strategic goals 
and objectives with annual performance goals and the agency's budget 
structure is continuing and we are experiencing many of the same 
difficulties we have had in the past. We are working to overcome 
difficulties associated with quantifying outcome measures, linking them 
to annual performance goals and measures, adjusting annual performance 
measures to reflect quality and priority of work as well as quantity, 
and linking the annual performance measures and budget structure to 
outcome-oriented goals and objectives that can only be achieved through 
work funded from multiple accounts. Lessons learned include:
  --There is a distinct need for meaningful outcomes that can be 
        quantified as well as qualified.
  --The ability to ensure that the relationships among strategic goals, 
        objectives, outcomes, and annual performance goals are worked 
        out is necessary before a strong link to the budget process and 
        structure is possible.
  --We have difficulty making and communicating these relationships 
        because our budget structure does not align well with our 
        mission.
    Question. Does the agency's Performance Plan link performance 
measures to its budget?
    Answer. The agency's annual Performance Plan uses a set of 
performance measures that links directly to its budget structure. Each 
measure relates directly to a strategic objective and performance goal 
as well as a specific line item or program within our budget.
    Question. Does each account have performance measures?
    Answer. Each account in our budget is represented by at least one 
performance measure.
    Question. To what extent does your performance planning structure 
differ from the account and activity structure in your budget 
justification?
    Answer. The agency's performance planning structure, as defined by 
our strategic and performance plans prepared under the requirements of 
the Government Performance and Results Act (GPRA) of 1993, is quite 
different than our account and activity structure. The agency is funded 
through a series of discretionary and mandatory appropriations which 
consist of approximately 70 line items for which funds are either 
appropriated in or spending authorized from (permanent appropriations 
and trust funds) on an annual basis. The agency's budget structure 
reflects a Congressional focus on resource programs that has evolved 
over a long period of time based on constituency interest in various 
goods, services, outputs and outcomes.
    In contrast, the agency's performance planning structure is defined 
by 15-20 objectives which aggregate or split elements of the agency's 
budget structure. Each objective has a series of performance measures 
that are linked to the programmatic budget structure.
    The agency has proposed some significant changes to its budget 
structure for fiscal year 2001. Most of the changes reflect a 
consolidation of the 20 or so budget line items and expanded budget 
line items in the National Forest System appropriation. If approved, 
the agency would receive funding in three budget line items in fiscal 
year 2001: Ecosystem Planning and Inventory, Ecosystem Conservation, 
and Public Services and Uses. This structure would facilitate a better 
linkage to all goals and objectives focused solely around the National 
Forest System. There would be no change to objectives funded from 
multiple appropriations in that the agency is not proposing changes to 
these major accounts. The splitting or lumping of accounts for plan 
objectives will still occur.
    Question. Do you plan to propose any changes to your account 
structure for fiscal year 2000?
    Answer. The only changes we plan to propose to the account 
structure for fiscal year 2000 are those involved with primary purpose. 
This involves movement of funds but not an actual change in the account 
structure.
    Question. Will you propose any changes to the program activities 
described under that account structure?
    Answer. We will not propose any changes to the program activities 
during fiscal year 2000.
    Question. How were performance measures chosen?
    Answer. Performance measures were chosen by senior management and 
program managers to reflect the major activities, outputs, or outcomes 
related to the Forest Service mission and strategic objectives. New 
measures may be adopted as we improve our ability to collect data or 
measure more directly the intended results of our programs.
    Question. How did the agency balance the cost of data collection 
and verification with the need for reliable and valid performance data?
    Answer. Data for most annual performance measures used in the 
agency's performance plans and budget justification currently exist. 
Annual performance measures have been defined and data are being 
collected through a variety of systems. There was little or no 
additional cost to collect data for these measures. For some plan 
objectives, the agency is moving towards new or refined measures that 
will better reflect the quality of work and differentiate between work 
that is of higher priority due to risk, location or other factors. 
Efforts are underway to define these measures and develop protocols for 
collecting this information. We expect to begin using some of these 
measures in fiscal year 2001. As we develop these measures, one option 
that we continue to examine is whether proxy indicators or sampling 
will allow us to collect and validate data that will provide us with 
the necessary information at a lower cost.
    Question. Does your plan include performance measures for which 
reliable data are not likely to be available in time for your first 
performance report in March 2000?
    Answer. Our current performance plan includes some measures for 
which reliable data were not available in time for our fiscal year 1999 
Performance Report. The agency's Performance Report was submitted in 
January 2000 to the Department of Agriculture for consolidation into a 
Departmental Report. Some of the data in our report were identified as 
``estimated'' because of our inability to validate the data within the 
timeframe available to us. The agency is working to address the 
timeliness issue so that all or most data will be available when the 
fiscal year 2000 performance report is due.
    Question. What are the key performance goals from your fiscal year 
1999 Annual Performance Plan that you recommend this subcommittee use 
to track program results?
    Answer. The fiscal year 2000 Annual Performance Plan for the USDA 
Forest Service is a comprehensive plan that defines performance goals 
and measures based on the 1997 Strategic Plan and represents the wide 
variety of Forest Service programs and activities. All of these goals 
are critical to tracking achievement of the agency's overall mission 
and all of the measures are used to hold resource managers accountable 
for their performance. However, special emphasis is placed on those 
goals directly related to the Forest Service's Natural Resource Agenda. 
In addition to the four emphasis areas that define the Natural Resource 
Agenda, the Forest Service also closely tracks performance measures 
associated with the production of forest-based commodities. The 
following table lists the four emphasis areas of the Natural Resource 
Agenda and their associated performance and outcome measures as well as 
two of the key measures associated with the production of goods and 
services. The table also lists whether the measure represents an output 
or an outcome and how it relates to the 2000 Revision of the strategic 
plan.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Relation to
                                                                                                   2000 revision
                                                                                                      of the
                           Measure                                     Type of  measure           strategic plan
                                                                                                      (goal/
                                                                                                    objective)
----------------------------------------------------------------------------------------------------------------
Watershed Health and Restoration:\1\
    Stream miles restored or enhanced for fish habitat......  Output............................             1.b
    Lake acres restored or enhanced for fish habitat........  Output............................             1.b
    Hazardous fuels reduction--acres........................  Output............................             1.c
    Land reforested--acres..................................  Output............................             1.c
Sustainable Forest Management:\1\
    Forest health surveys and evaluations, Federal and        Output............................             1.a
     Cooperative lands--acres.
    Non-industrial private forest lands covered by            Output............................             1.a
     Stewardship Management Plans--acres.
    Communities participating in the Urban Forestry program-- Output............................             2.d
     number.
    Forest legacy acquisition projects--acres...............  Outcome...........................             1.b
Roads:\1\
    Roads decommissioned--miles.............................  Output............................             1.a
    Road condition index rating.............................  Outcome...........................             1.a
Recreation:\1\
    Seasonal capacity available--million persons at one time  Output............................             2.a
     days.
    Recreation special uses administered--number of permits.  Output............................             2.a
Commodities:
    Timber volume offered--million cubic feet...............  Output............................             2.c
    Minerals nonenergy/energy operations administered to      Outcome...........................            2.c
     standard--number.
----------------------------------------------------------------------------------------------------------------
\1\ Natural Resource Agenda item.

    Question. For each key annual goal, indicate whether you consider 
it to be an output measure (``how much'') or an outcome measure (``how 
well'').
    Answer. This is shown in the second column in the chart above.
    Question. State the long-term (fiscal year 2003) general goal and 
objective from the agency Strategic Plan to which the annual goal is 
linked.
    Answer. This is shown in the third column in the chart above.
    Question. In developing your Annual Performance Plan, what efforts 
did your agency undertake to ensure that the goals in the plan include 
a significant number of outcome measures?
    Answer. The Forest Service has developed an integrated set of land 
health and service to the people performance measures. These measures 
link to outcomes in our existing (1997) strategic plan and support our 
budget request. These measures include areas of treatment (acres), 
quantities of products (million cubic feet), and other items that 
represent the annual outputs and outcomes of management activities and 
investments. The Forest Service is in the final stages of preparing the 
2000 Revision of the Forest Service Strategic Plan. In developing this 
plan, the Forest Service emphasized outcome-based measures. The fiscal 
year 2002 Annual Performance Plan will incorporate annual outcome and 
performance measures that directly tie to the long-term outcomes in the 
2000 Revision of the strategic plan.
    Question. Do you believe your program managers understand the 
difference between goals that measure workload (output) and goals that 
measure effectiveness (outcome)?
    Answer. Yes. The proof of this will be in the implementation of the 
2000 Revision through subsequent annual plans, beginning with the 
fiscal year 2002 performance plan now being developed.
    Question. What are some examples of customer satisfaction measures 
that you intend to use? Please include examples of both internal and 
external customers.
    Answer. Starting in 1997, the USDA Forest Service began to 
implement a series of surveys to measure customer satisfaction across a 
wide range of programs and activities. The initial round of surveys 
will establish benchmarks, with subsequent surveys providing data to 
measure trends in customer satisfaction. Additionally, the Forest 
Service is one of 30 federal agencies participating in the American 
Customer Service Index (ACSI). The ACSI is a survey used to rate 
various organizations, including 170 private firms. By using the same 
survey instrument, ACSI allows comparisons across organizations and 
over time, providing a rich source of information related to customer 
satisfaction. The customer service indices that result from the 
agency's surveys as well as the ASCI results will be incorporated into 
the fiscal year 2002 Performance Plan as appropriate.
    Question. How were the measurable goals of your fiscal year 2000 
Annual Performance Plan used to develop your fiscal year 2001 budget?
    Answer. Program and budget managers use performance reports from 
prior years to assess progress toward long-term goals. Prior year 
Performance Plans are also used to help allocate funds and annual 
performance targets to the field for each of the agency's program 
areas.
    Question. If a proposed budget number is changed, up or down, by 
this committee, will you be able to indicate to us the likely impact 
the change would have on the level of program performance and the 
achievement of various goals?
    Answer. In most cases, annual performance targets are budget-
sensitive, allowing the Forest Service to discuss the impacts of budget 
changes on the achievement of annual goals.
    Question. Do you have the technological capability of measuring and 
reporting program performance throughout the year on a regular basis, 
so that the agency can be properly managed to achieve the desired 
results?
    Answer. The Financial Management and Information Management staffs 
have begun efforts to design and establish an agency data warehouse. 
The success in implementing the Foundation Financial Information System 
(FFIS) provides a key set of information for the warehouse. However, 
the design for the data warehouse is to integrate financial and other 
information (i.e. outcomes) about the agency's operations and 
performance, both annually and longer term. As the data warehouse is 
established, agency managers will increasingly have access to 
financial, program, and management performance information.
    Some ecosystem management activities easily translate into outcome 
measures, others do not. The Strategic Plan, 2000 Revision recognizes 
where work needs to be accomplished to establish verifiable, auditable 
outcome measures. As measures are developed, they will be incorporated 
into data warehouse structures mentioned above. The needs for data 
collection and access are being designed into the warehouse. 
Integration of these efforts will permit the Forest Service to monitor 
annual outcome performance, and the long-term trends of the Strategic 
Plan.
    Question. If so, who has access to the information--senior 
management only, or mid- and lower-level program managers, too?
    Answer. Corporate access to performance data occurs through the 
annual performance report, published after the close of the fiscal 
year. As part of our data warehouse project, we are looking at ways to 
improve the timely dissemination of data throughout the organization, 
as well as improving public access to these data. Our goal is to get 
data into the hands of key decision makers at all levels of the 
organization to improve performance and track progress toward our 
strategic goals and objectives.
    Question. Are you able to gain access easily to various 
performance-related data located throughout your various information 
systems?
    Answer. We currently use several databases throughout the 
organization as well as end of year reports for performance measures. 
In many cases, we do have problems gaining timely access to 
performance-related data. We are currently working on several projects, 
such as the data warehouse, that should dramatically improve our 
ability to provide more timely access to higher quality data within the 
next several years.
    Question. The Government Performance and Results Act requires that 
your agency's Annual Performance Plan establish performance goals to 
define the level of performance to be achieved by each program activity 
set forth in your budget. Many agencies have indicated that their 
present budget account structure makes it difficult to link dollars to 
results in a clear and meaningful way. Have you faced such difficulty?
    Answer. As discussed previously, the Forest Service faces a good 
degree of difficulty in linking dollars to results. The agency is 
funded through a series of discretionary and mandatory appropriations 
that consist of approximately 70 line items on an annual basis. The 
agency's budget structure reflects a Congressional focus on resource 
programs based on constituency interest in various goods, services, 
outputs and outcomes. The agency's performance planning structure is 
defined by 15-20 objectives which aggregate or split elements of the 
agency's budget structure. Each objective has a series of performance 
measures that are linked to the programmatic budget structure.
    Question. Would the linkages be clearer if your budget account 
structure were modified?
    Answer. Yes, we believe that is the case. A more integrated 
approach to the budget structure would allow for clearer linkages 
between the dollars and the agency's broader goals and objectives.
    Question. If so, how would you propose to modify it and why do you 
believe such modification would be more useful both to your agency and 
to this committee than the present structure?
    Answer. The fiscal year 2001 budget justification represents the 
agency's approach to modifying the budget structure. Again, especially 
in the area of National Forest System, the programs we have proposed 
are more closely aligned with the broader ecosystem management and 
multiple use goals of the agency.
    Question. How would such modification strengthen accountability for 
program performance in the use of budgeted dollars?
    Answer. The Forest Service will finalize no later than January 31, 
2001, a standardized set of activity/output measures that tier directly 
to performance goals in the fiscal year 2003 Annual Performance Plan. 
These activity/output measures will be an integral aspect of the 
agency's integrated program process, and will be used in budget 
formulation, will be the basis for presentation of the agency budget 
justification, tracking obligations in the accounting system, reporting 
accomplishment, and providing leadership information. With 
implementation of these measures the agency will be able to directly 
link financial and budget reporting with performance measures.
    Question. Spending significant resources on performance measurement 
systems appears to be a wasteful exercise if this information is not 
linked to: (1) real data about what it costs to perform various 
government functions; and (2) how to allocate agency resources to 
perform these functions. Could you comment on your agency's cost 
accounting expertise and plans to link GPRA to the budget process?
    Answer. The USDA Forest Service is operating under the Foundation 
Financial Information System (FFIS). FFIS is an integrated standard 
general ledger-compliant accounting system. The system uses a cost 
allocation method to allocate indirect costs by direct labor hours 
worked or by square footage to Forest Service programs.
    The Forest Service has charged the Financial Analysis staff of 
accountants and financial analysts, with the responsibility of 
developing financial performance measures that draw on the cost history 
residing in FFIS. These measures are being linked back to the Strategic 
Plan of the agency
    Question. Under one of the new accounting standards recommended by 
the Federal Accounting Standards Advisory Board (FASAB) and issued by 
OMB, this year for the first time all federal agencies are required to 
have a system of Managerial Cost Accounting. The clearly preferred 
methodology for such a system, as stated in that standard, is the one 
known as ``Activity-Based Costing,'' whereby the full cost is 
calculated for each of the activities of an agency. What is the status 
of your agency's implementation of the Managerial Cost Accounting 
requirement, and are you using Activity-Based Costing?
    Answer. The Financial Analysis staff of the USDA Forest Service is 
in the process of developing requirements and planning for the 
implementation of an Activity Based Costing System (ABC). We are 
planning to define our requirements in fiscal year 2001 and begin 
introducing the ABC methodology to our regions in fiscal year 2002.
    Question. Will you be able in the future to show to this committee 
the full and accurate cost of each activity of each program, including 
in those calculations such items as administration, employee benefits, 
and depreciation?
    Answer. When this system is fully implemented, we intend to report 
on the full and accurate costs for various activities in the Forest 
Service.
    Question. By doing so, would we then be able to see more precisely 
the relationship between the dollars spent on a program, the true costs 
of the activities conducted by the program, and the results of these 
activities?
    Answer. This should allow for a more precise relationship between 
the dollars spent on the program, the true costs of the activities 
conducted by the program, and the results of these activities.
    Question. Will you be able to show us the per-unit cost of each 
activity and result?
    Answer. We intend to be able to show a per-unit cost of each 
activity and result.
    Question. To what extent do the dollars associated with any 
particular performance goal reflect the full cost of all associated 
activities performed in support of that goal? For example, are overhead 
costs fully allocated to goals.
    Answer. Both direct and indirect costs associated with performance 
goals are included in the costs of associated activities performed in 
support of that goal.
    Question. Please identify any significant regulatory reform 
measures that have been put in place by your agency in conjunction with 
the development of the agency's performance plan.
    Answer. The Forest Service did not implement any significant 
regulatory reform measures as part of its performance plan development.
    Question. Does your fiscal year 2001 performance plan--briefly or 
by reference to your strategic plan--identify any external factors that 
could influence goal achievement?
    Answer. The fiscal year 2000 Performance Plan and the 1997 
Strategic Plan specifically identify and describe external factors that 
affect program performance. External factors are also identified in the 
Strategic Plan, 2000 Revision.
    Question. If so, what steps have you identified to prepare, 
anticipate and plan for such influences?
    Answer. To the extent possible, resource and program managers are 
responsible for incorporating foreseeable external factors into the 
development of performance plans, annual targets, and budgets.
    Question. What impact might external factors have on your resource 
estimates?
    Answer. External factors often have profound impacts on the Forest 
Service's resource estimates. These are identified in the fiscal year 
1999 Annual Program Performance Report.
    Question. Through the development of the Performance Plan, has the 
agency identified overlapping functions or program duplication?
    Answer. No. However, the development work for the 2000 Revision of 
the Forest Service Strategic Plan included the identification of 
``cross-cutting functions'' being coordinated among 32 agencies.
    Question. If so, does the Performance Plan identify the overlap or 
duplication?
    Answer. Appendix B of the Draft 2000 Revision to the Strategic Plan 
details the functions that are cross cutting and what agencies have 
responsibilities for the identified functions.
    Question. Should agencies address management challenges and 
potential duplication and overlapping functions in their GPRA plans, 
and if so, how?
    Answer. Yes. As we identify external factors and develop means and 
strategies to achieve annual and long-term performance goals, we can 
identify and address any management challenges and duplication of or 
overlapping efforts.
    Question. To what extent has GPRA been used by agency leadership to 
guide decision making?
    Answer. Top managers in the Forest Service have been directly 
involved in the development of the draft 2000 Revision of the strategic 
plan and will be similarly involved in finalizing the 2000 Revision. 
The management system mandated by the Results Act requires the Forest 
Service to be more systematic in its planning and more disciplined in 
its approach to building budgets to implement its plans. Efforts 
continue to put key components of the Results Act management system in 
place, such as the strategic plan and annual performance plans linked 
to the strategic plan. Decision making will increasingly be guided 
through this system as the system components are put in place and the 
relationships between and among those components are understood.
    The strategic plan is a keystone component of the management model 
mandated by the Results Act. As Chief Mike Dombeck stated in his 
testimony before the Resources Subcommittee, U.S. House of 
Representatives, ``(w)e will implement the objectives of the Government 
Performance and Results Act (Results Act) through our strategic plan in 
2000. The 2000 strategic plan will drive development of annual 
performance plans and budget proposals beginning in fiscal year 2002 . 
. .''
    In addition, all Forest Service program and unit plans (Forest 
Plans, agency budget proposals, etc) must be linked to the goals, 
objectives, and measures of the 2000 Revision. The proposed planning 
regulations explicitly require Forest Plan goals, objectives, and 
measures be linked to the national strategic plan. The strategic plan 
sets the context for Agency actions, providing purpose for those near-
term actions and setting expectations for how such actions affect 
progress toward long-term outcomes.
    Question. Will this use increase in the future and if so in what 
ways?
    Answer. The Forest Service believes the Results Act provides a 
unifying framework to achieve accountability for mission specific 
results. The national-level strategic plan will be linked to field-
level activities through annual performance plans. These provide a 
direct link between the Agency's long-term goals and what managers and 
other employees do on a day-to-day basis. As stated before, this 
process is beginning with fiscal year 2002, and will be completed by 
fiscal year 2006. We believe this linkage will strengthen the Agency's 
overall effectiveness.
    Question. Future funding decisions will take into consideration 
actual performance compared to expected or target performance. Given 
that: To what extent are your performance measures sufficiently mature 
to allow for these kinds of uses?
    Answer. The Forest Service is using the GPRA process to undertake a 
rigorous review of how performance measures are defined and how data 
are collected, reported, and validated. The 1999 GPRA Annual 
Performance Report identified several weaknesses with current measures 
and reporting systems. Based on these findings, several measures are 
being modified or discontinued while others are being replaced with 
more appropriate measures. In addition, the Forest Service is exploring 
ways to improve the way data are collected from the field. The 2000 
Revision of the Strategic Plan will drive development of the fiscal 
year 2002 Annual Performance Plan and we anticipate revision of the 
annual performance measures will be needed to ensure appropriate 
linkages to long-term goals and objectives.
    Question. Are there any factors, such as inexperience in making 
estimates for certain activities or lack of data, that might affect the 
accuracy of resource estimates?
    Answer. As we develop new performance measures, we will use the 
best information available to come up with estimates. In many cases, 
however, these estimates will represent the best guesses of 
capabilities, with performance estimates and targets improving as we 
gain more experience with the particular activities and outcomes we are 
attempting to measure. Furthermore, we also may change the methodology 
used to track existing measures as we implement more stringent data 
quality standards and requirements.
    Question. Are you requesting any waivers of non-statutory 
administrative requirements?
    Answer. No.
    Question. Specifically, are you requesting any relaxation of 
transfer or reprogramming controls in return for specific 
accountability commitments?
    Answer. No. Based on the budget structure we have proposed, we do 
not think that will be necessary.
    Question. Based on your fiscal year 1999 performance plan, do you 
see any need for any substantive revisions in your strategic plan 
issued on September 30, 1997?
    Answer. Yes, the USDA Forest Service 1997 Strategic Plan has been 
recognized as being insufficient in complying with the results focus of 
the Government Performance and Results Act of 1993 (Results Act). The 
fiscal year 2000 performance plan attempted to revise some objectives 
and measures contained in the 1997 Strategic Plan, but it still focused 
too much on the outputs associated with the historic budgeting 
processes instead of the results and outcomes required by the Results 
Act.
    The recently completed draft 2000 Revision of the strategic plan 
largely overcomes deficiencies of the 1997 plan. The draft 2000 
Revision successfully focuses the goals, objectives, and associated 
measures on those vital few results and other outcomes critical to the 
mission of the agency. The 2000 Revision provides the context and 
purpose for near-term actions and the focus for long-term land health 
and public service outcomes. The revised plan shifts the focus of 
agency management away from ``inputs, outputs and process'' to 
``outcomes'' on the landscape. This revised focus will begin to be 
reflected in a significant way beginning with the fiscal year 2002 
performance plan.

                                RESEARCH

    Question. What level of funding has the Forest Service provided for 
silvicultural research in each of the last five years? Please provide 
this information for each research station.
    Answer:

----------------------------------------------------------------------------------------------------------------
                                                                              Fiscal year
                                                     -----------------------------------------------------------
                                                                                                          2001
                                                        1996      1997      1998      1999      2000      Pres.
                                                        conf.    enacted    appr.     appr.     appr.    budget
----------------------------------------------------------------------------------------------------------------
PNW.................................................     2,135     2,204     2,508     2,611     2,965     3,392
PSW.................................................     1,317     1,015     1,129     1,148     1,148     1,298
RM..................................................       264       264     1,211     1,141     1,212     1,464
NC..................................................     1,236     1,519     1,651     1,668     1,381     2,662
NE..................................................     2,298     2,298     1,959     2,218     2,193     2,553
SRS.................................................     4,511     5,062     5,062     4,168     3,618     5,785
IITF................................................       251       251        26       543       492       568
FPL.................................................  ........  ........  ........  ........  ........       325
WO..................................................       850       790     1,261     1,461     1,824     1,701
                                                     -----------------------------------------------------------
      Total.........................................    12,862    13,403    15,042    14,958    14,833    19,748
----------------------------------------------------------------------------------------------------------------

    Question. If funding for this form of research has trended 
downwards please explain why?
    Answer. Between fiscal year 1996 and fiscal year 2000, Forest 
Service R&D appropriations increased by about 14 percent. During that 
time, program areas considered of high priority were increased more 
than that amount, which required cuts in other areas. As shown in the 
table, silviculture research went from $12.9 million to 15.0 million, 
then down to 14.8 million during that time, with an overall 
appropriation increase of about 15 percent
    Question. What other activities have increased as a result?
    Answer. In spite of major increases in some areas, such as Forest 
Inventory and Analysis, and Monitoring Methods, the silviculture 
program area has not trended downward. When fiscal year 1996 is 
compared to current levels, there is an increase of about 15 percent, 
which returns silviculture to slightly above the level of fiscal year 
1995, just before major fiscal year 1996 Congressional cuts occurred.
    The Agricultural Research, Extension, and Education Reform Act of 
1998 mandated major enhancements in the FIA program. One of these was 
that the Forest Service needed to move to an annualized inventory of 
forest lands in all states. The FIA program provides the only 
continuous inventory that quantifies the status of forest ecosystems, 
including timber and non-timber information across all landownerships 
in the U.S. This information is very important to industry and state 
foresters, among others.
    Question. What is the cost to perform inventories on an annualized 
basis?
    Answer. The Agricultural Research, Extension, and Education Reform 
Act of 1998 mandated major enhancements in the FIA program. One of 
these was that the Forest Service needed to move to an annualized 
inventory of forest lands in all states. The FIA program provides the 
only continuous inventory that quantifies the status of forest 
ecosystems, including timber and non-timber information across all land 
ownerships in the U.S. This information is very important to industry 
and State foresters, among others.
    In order to carry out the implementation of annualized inventory in 
accordance with the FIA Strategic Plan submitted to and amended by 
Congress to provide measurements of 15 percent of all FIA plots in the 
East and 10 percent of all FIA plots in the West annually. In order to 
maintain the quality and consistency of the program the Plan indicated 
a 3-year gear up of the program between 2001 and 2003 with $8 million 
annual increases in budget. Current funding from all sources for FIA 
for fiscal year 2000 is $36.7 million and the President's budget 
provides no increase for fiscal year 2001.
    Budget requirements to fully implement the annualized FIA program:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                Fiscal year
                                 ---------------------------------------
                                   1999    2000    2001    2002    2003
------------------------------------------------------------------------
Total needed FIA Budget.........    33.0    39.5    48.7    56.7    64.7
Actual..........................  ......    36.7  ......  ......  ......
------------------------------------------------------------------------

    Question. Given the importance of the program, why hasn't research 
increased funding for it for fiscal year 2001?
    Answer. The fiscal year 2001 Current Services level requested an 
additional $4.0 million, for a total increase of $12.0 million for FIA. 
In comparison, the 2001 Department Allowance provided $2.0 million for 
the FIA program.
    Question. The Forest Service has entered into an Memorandum Of 
Understanding (MOU) with the National Association of State Foresters 
which states that if Congress does not provide certain levels of 
funding for this program as set out in the MOU, the agency will 
redirect other program funds to make up the difference. According to 
the MOU, the agency needs $48.7 million, yet according to your budget 
justification, the agency has only asked for about $40 million total. 
How can Congress provide the agency with sufficient money, if it 
doesn't bother to ask for it?
    Answer. We place the FIA program as one of our highest priorities. 
The 2001 President's budget includes $31,687,000 in Research and 
Development funds for the FIA program (plus $5 million in NFS funds), 
which is the same as the level appropriated in fiscal year 2000. The FS 
Research and Development fiscal year 2001 Agency Request level 
recommended an $8.0 million increase for the FIA program. In addition, 
the fiscal year 2001 Current Services level recommended an additional 
$4.0 million, for a total increase of $12.0 million for FIA. In 
comparison, the 2001 Department Allowance provided $2.0 million for the 
FIA program.
    Question. Isn't this MOU an admission that the agency's budget 
request is inadequate for the FIA program?
    Answer. The MOU signed on February 15, 2000 by Chief Dombeck and 
the National Association of State Foresters establishes a mutual 
understanding about the importance of the FIA program in delivering 
scientifically reliable information about the condition, status, and 
trends of the nation's forests in a timely manner. And, the fiscal year 
2001 Agency Request level recommended an $8.0 million increase for the 
FIA program.
    Question. From what other sources does the agency plan to redirect 
funds if sufficient money is not appropriated to meet the levels in the 
MOU?
    Answer. If sufficient appropriations to meet the need stated in the 
MOU are not approved, funding will have to be redirected from other 
priority programs within the Agency through reprogramming procedures.
    Question. Will the agency submit this ``redirection'' for a 
reprogramming?
    Answer. Yes.
    Question. If money is redirected within research, from what program 
areas would it come?
    Answer. The top funding priority within Forest Rangeland Research 
is to conduct research in support of maintaining and protecting healthy 
forest ecosystems. This requires simultaneous investment in many 
important subject matter areas including forest inventory and analysis, 
watershed restoration, global change, threatened and endangered 
species, and invasive species. The FIA program is among these top 
funding priorities.
    Question. In previous years, the budget justification contained a 
display that indicated how much Research was spending on various areas 
like silviculture, wildlife habitat, plant science etc. The fiscal year 
2001 budget doesn't have this information. Why not?
    Answer. We continue to use our Research Budget Attainment and 
Information System (RBAIS) which allows us to track funding spent on 
various areas like silviculture, wildlife habitat, and plant science.
    Question. How will Congress know what the agency is spending on 
these areas?
    Answer. We track funding for various areas such as wildlife 
habitat, silviculture, and plant science through our Research Budget 
Attainment and Information System. In addition, we provide Congress 
specific information at the State and Research Work Unit levels in our 
Annual State Briefing Book.
    Question. Your two performance measures are inadequate to inform 
Congress what your accomplishing with appropriated dollars. The 
measures consist of the number of books and reports Research has 
generated, and percentage of forest land covered by the FIA and Forest 
Health Monitoring program. How do these tell stakeholders about the 
quality of the work the Research program is doing (as opposed to 
quantity) and whether this work is actually leading to accomplishments 
on the ground?
    Answer. The Forest Service is changing to a performance based 
budgeting system in order to link the Forest Service performance to the 
GPRA. In this new system, ojur performance measure will be: (1) 
Research products, tools and technologies transferred to users 
(number), and (2) Percent of Forest Land Covered. The Forest Service 
GPRA Strategic and Performance Plan uses a common set of goals or 
outcomes and to focus agencies priorities over a 5-year period. Like 
other natural research organizations within government, FS R&D is 
having extreme difficulty measuring what we do. In addition to the 
Budget Justification, we also produce State Briefing Books for Congress 
that list, by State, the kind of research our Research Work Units are 
involved in and scientific products they produce.
    Percent of Forest Land Covered is a measure of the extent to which 
the FIA program, which includes FHM detection monitoring plots, is 
fully implemented in terms of the program envisioned by the Strategic 
Plan and by the Agriculture Research, Extension, and Education Reform 
Act of 1998. As such, it is a measure of the quality, effectiveness, 
and efficiency of our ability to deliver the required program with the 
resources available. If we deliver is less than 100 percent of what we 
promise when the FIA program is funded at the level identified in the 
Strategic Plan, then program quality, effectiveness, and efficiency are 
below par.
    A full assessment of the FIA program, however, requires several 
indicators for inputs, outputs, and outcomes. Our Annual Business 
Report, as required by the Strategic Plan, identifies the following 
performance measures, which we believe collectively give a more 
complete and more detailed measure of the overall performance of the 
FIA program than is possible with any single measure:
Inputs
    Percent of necessary federal base budget available (goal = 100 
percent)
Outputs
    Percent of country covered by FIA in a given year (goal = 100 
percent)
    Percent of base grid sample plots measured per year (goal = 10 
percent west/15 percent east)
    Average interval (years) between state reports (goal = 5 years)
    Number of publications produced by type, peer reviewed/other (goal 
= 120/year)
    Published methodology and statistical reliability of information in 
resource reports (goal = 3-5 percent per million acres of forest area, 
5-8 percent per billion cubic feet of volume/biomass)
Outcome
    Customer satisfaction (performance measure in development) (goal = 
100 percent)
    This report may be viewed at [www.srsfia.usfs.msstate.edu/wo/
Annual____Report____1999.pdf].
    Question. Is the agency working on better measures?
    Answer. Yes. We are in the process of reevaluating our performance 
measures so that we can address the quality as well as report on the 
quantity of what we produce.
    Question. When will these be available to the Committee?
    Answer. In the fall of fiscal year 2001.
    Question. The National Academy of Public Administration (NAPA) 
found that the Forest Service Research program did not interact with 
land managers enough when establishing research priorities. How are 
research priorities established?
    Answer. We prioritize research according to the nature and 
magnitude of current and anticipated problems and information required 
by managers for effective national resources management now and into 
the future. The scale of the problems and management needs differ 
between and among local, State, regional, national and even global 
levels.
    Each of the items mentioned in the question is high priority for a 
particular set of clients. The exact nature of the specific need, the 
sensitivity and resiliency of the affected ecosystems, the level of 
support from external groups, and the ongoing research programs at the 
other institutions are all factors that influence the decision. There 
is no single or discrete process by which decisions are made. 
Experience, sensitivity to customers, and professionalism, all play 
roles that are impossible to quantify.
    Question. Shouldn't land managers be integrally involved in 
establishing priorities since presumably they will be the ones who use 
the research?
    Answer. Land managers are an important category of research users. 
Whether they manage public lands or private lands, they are already 
involved in setting research priorities. National forest land managers 
already participate in the formal process of reviewing and rechartering 
of individual research work units. During those reviews, topics for 
future research studies are solicited and relative priorities among all 
the research clients are evaluated. From the standpoint of establishing 
research priorities at the regional level, Regional Foresters and 
Forest Supervisors participate in the development and review of Station 
strategic plans. These formal processes have been in place for over 20 
years.
    Question. What specific actions is the agency taking to address 
NAPA's criticisms?
    Answer. As Endnote 30 to the NAPA Report correctly indicates, the 
authorizing legislation for the Research & Development program clearly 
envisions a research organization that is to provide services to a 
broad array of customers, not just the National Forest System. To help 
provide more coordination within the Washington Office, a Staff 
Director for the R&D Deputy area has begun attending the daily NFS 
staff meeting and a Staff Director for the NFS Deputy area has begun 
attending the bi-weekly R&D staff meeting. The Associate Chief for 
Natural Resources has reviewed ongoing collaboration between individual 
Regional Foresters and Station Directors and directed the development 
of additional proposals for joint collaboration for consideration 
during the fiscal year 2002 budget development process. In some cases, 
NFS is proposing work to help R&D accomplish its research mission and 
in some cases R&D is proposing work to help NFS accomplish its mission.

                             MISCELLANEOUS

    Question. What is the current status of the agency's efforts to 
complete the inventorying of its real property assets through the INFRA 
database system?
    Answer. In fiscal year 1999 Forest Service completed the most 
thorough inventory in Forest Service history. All real property assets 
have been recorded in the Infra database, and their existence was 
physically verified within the last two years, except for the following 
asset types:
  --Roads--Level 1 and 2: These are Forest Service 19high clearance' 
        and closed roads and constitute over 300,000 of Forest 
        Service's 380,000 miles of road. We are requiring the field to 
        accomplish a physical verification of 25 percent of these roads 
        per year, in fiscal year 2000 through fiscal year 2003. Also, 
        any changes found must be recorded in Infra.
  --Trails: We required the field to physically verify, and enter any 
        changes found into Infra, 20 percent of trails in fiscal year 
        1999, and are requiring the field to physically verify 20 
        percent of trails in each subsequent year through fiscal year 
        2003.
  --Range Fences: Forest Service physically verified, and entered into 
        Infra, 33 percent of range fences in fiscal year 1999. Forest 
        Service is requiring the field to physically verify the 
        remaining 67 percent of range fences into Infra in fiscal year 
        2000.
    While the above assets were not 100 percent physically verified, we 
believe that 100 percent of the assets are individually recorded in 
Infra.
    Also, Infra modules for the following physical assets categories 
are still under development:
  --Wildlife Habitat Improvements
  --Threatened, Endangered Species Improvements
  --Fish Habitat Improvements
  --Watershed Improvements
  --Timber Resource Improvements
  --Fire Control Improvements
  --Communication Sites
    The majority of the individual assets for these categories are 
valued at less than $5000 and would not be recorded in our Financial 
Report's capitalized values. While these assets are not yet in Infra, 
the field offices have manually controlled, collected and recorded the 
inventory data.
    We are requiring the forest supervisors to certify that the 
Physical Inventory was as required in Forest Service direction.
    Question. Will the INFRA database be capable of interfacing with 
the agency's new FFIS accounting software? Have any compatibility 
problems arisen? If so, what is the agency doing to resolve these 
problems?
    Answer. Two modules of INFRA already interface with FFIS: the 
INFRA-SUDS module that manages special use permits and the INFRA-Range 
module that manages grazing permits. Both of these interfaces provide 
billing information from INFRA to FFIS to create billing documents in 
FFIS. This records the amounts to be collected from permit holders in 
the accounting system. A third module of INFRA, Real Property, is 
currently being prepared for interfacing with FFIS. FFIS will provide 
INFRA with the costs of real property assets. INFRA will provide FFIS 
with depreciation expenses from capitalized real property assets. No 
compatibility issues exist with any of these interfaces. Files are 
simply formatted in a layout and structure that FFIS can use. Likewise, 
when providing real property costs to INFRA, FFIS will create and 
provide a file format that INFRA can use.
    Question. What is the status of the agency's efforts to resolve 
issues surrounding the application of the Service Contract Act (SCA) to 
Forest Service concessionaires?
    Answer. Over the past few years, the Forest Service, the U.S. 
Department of Labor, and the concession industry have discussed the 
applicability of the Service Contract Act (SCA) wage scales to 
government-owned campground concessions. Since October of 1999, these 
discussions have centered on whether the public service exemption (29 
CFR, 4.133 (b)) to the SCA applies to the Forest Service campground 
concession program. When the SCA public service exemption applies, wage 
rates of concessionaire employees are subject to the requirements of 
the Fair Labor Standards Act (FLSA), rather than the more stringent 
requirements of the SCA.
    The applicability of the SCA public service exemption to Forest 
Service campground concessions depends on whether the concession 
predominantly provides a benefit to the public. The SCA public service 
exemption does not apply where the concession predominantly provides a 
benefit to the government.
    Since October, the Forest Service has been working on reworking 
both the bid prospectuses and the Special Use permits to insure as many 
concessionaire campgrounds as possible would come under the SCA public 
service exemption.
    Question. Has application of the SCA to concessionaires increased 
operating cost to the point where concessionaires have not re-bid on 
their contracts?
    Answer. The Forest Service is reworking the concessionaire Special 
Use permits so that the new permits will be appropriately included 
under the FLSA and not the SCA. A major component of the reworking is 
the requirement that the Forests would need to drop non-fee sites from 
the Special Use permits. Historically, many of these non-fee sites have 
been included in a concessionaires permit as a way for the Forests to 
reduce their cost to manage these individual sites. By removing the 
non-fee sites from the Special Use permit, the operational cost of 
maintaining these sites will again come back to the Forest Service to 
manage with appropriated funds.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns

    Question. In the fiscal year 1999 Interior Appropriations 
legislation, Congress provided the authority to enter into 28 
Stewardship Pilot Projects. In the fiscal year 2000 budget, I attempted 
to add another 9 projects for Region One of the Forest Service, but 
these projects were rejected by the administration. Why was that?
    Answer. The Administration is not categorically opposed to the idea 
of adding more pilots. The main reasons that the Administration opposed 
the nine additional projects in Region 1 in fiscal year 2000 were: (1) 
the belief that 28 pilots are adequate to test the new authorities 
granted by section 347; and (2) the belief that, if more pilots were to 
be added, the agency should be free to add them wherever it feels they 
would be most beneficial. A third factor that influenced the decision 
relates to funding. The agency was committed to implementing the 
original pilots without any supplemental funding. Were more pilots to 
be added it would have become much harder to implement all of the 
pilots, without adversely affecting program delivery in other areas, 
because of the lack of funding.
    One additional consideration is the impact on payments to states 
and counties. Under the terms of section 347, revenues derived from the 
stewardship pilots are not counted as ``monies received'' for purposes 
of determining 25 percent payments. While this provision appears to 
make sense given that these projects are pilots, and given that little 
revenue may actually be received because of the ability to trade goods 
for services or retain receipts, the exemption would unquestionably 
become more controversial as the number of pilots increases.
    Question. In this year's justification you mention in your goals 
for fiscal year 2000 that you aim to complete the 28 pilot projects, 
yet your budget does not mention the need for additional projects. 
Additionally, your fiscal year 2001 goals state that the Service will 
``continue working on the original projects.'' Are you presuming 
failure in meeting your fiscal year 2000 goals or was this an oversight 
in preparing your justification?
    Answer. Before section 347 was enacted, the agency had already 
identified 22 pilot projects that it desired to implement--but many of 
these projects could not be implemented, as proposed, without 
additional authorities. Section 347 provided the needed authorities, so 
after it was enacted the agency brought some its original pilots under 
the scope of the legislation and selected additional pilots to reach 
the legal limit of 28--including 9 in Region 1. There has never been 
any expectation that these projects would be completed during fiscal 
year 2000. Several projects are still going through the NEPA process, 
and in all likelihood many will take as long as 3 to 5 years to 
complete. At present the agency is implementing 37 pilot projects. This 
total includes: 28 projects that are being implemented under section 
347; 8 projects that are doing something new and innovative, but 
totally within the scope of our existing authorities; and 1 project 
that has stand-alone authority to experiment with trading goods for 
services. The latter undertaking is the Granite Watershed Project on 
the Stanislaus NF in Region 5. This project is being implemented under 
the terms of the Granite Watershed Enhancement and Protection Act of 
1998. The agency's goal is to complete all of these projects as 
expeditiously as possible, but in all likelihood this process will take 
several years.
    Categorical Exclusion ruling: My office has been told repeatedly 
that I should expect the Forest Service to publish a change to the 
handbook that will reinstate the use of Categorical Exclusions for 
small timber sales.
    Question. When can I expect this announcement in the Federal 
Register?
    Answer. The Forest Service agrees with the need to quickly move 
forward with the small timber sales that do not pose significant 
environmental impacts. However, at this time we do not believe this 
will require revising our categorical exclusions. We believe that a 
simple, straightforward environmental analysis process, for projects of 
similar scope to those previously authorized as categorical exclusions, 
can be done efficiently without compromising timely implementation.
    Question. Will this publication include a public comment period?
    Answer. See response to previous question.
    Question. How long will this comment period be?
    Answer. See response to previous question.
    Question. How long should my rural communities expect to wait until 
the Service can actually being to use this management tool again?
    Answer. We will monitor the results of this approach over the next 
year and determine whether additional steps are needed, including the 
possible need for a revised categorical exclusion for small timber 
sales.
    NEPA Analysis.--Much has been made about the inability of the 
Forest Service to produce enough timber from areas that quite obviously 
need active vegetation management. Throughout my state, and the rest of 
Region One, it has been suggested by your agency employees that roving 
NEPA ID teams and more money for non-contentious NEPA analysis would 
help the Service provide an adequate timber supply while meeting forest 
health goals.
    Question. Does the fiscal year 2001 budget reflect this need and 
can you show me specific funding increases in Region One to address 
this problem?
    Answer. No additional funds have been allocated for this specific 
purpose. There should be adequate funding in the current budget 
allocation to the Region to achieve the objective of adequate NEPA 
analysis either with teams or being done by individual units.
    TMDLs.--Clearly the EPA's work on Total Maximum Daily Loads has an 
impact on forestry activity.
    Question. Should EPA forge ahead with TMDL rules impacting 
forestry, despite the concerns of Congress, what impact will this have 
on cooperative agreements the Forest Service has with private 
landowners?
    Answer. The EPA's proposed revisions to rules governing TMDLs and 
National Pollutant Discharge Elimination System (NPDES) permits would 
affect the Forest Service's management of federal land. The Department 
of Agriculture and EPA have formed an interagency work group to address 
concerns that have been raised by the Forest Service and Natural 
Resources Conservation Service. That work group has been meeting 
regularly and progress is being made in resolving the concerns of the 
Department of Agriculture.
    The extent to which the proposed rules would cause an economic 
impact or increase in workload of the Forest Service is currently under 
review and difficult to estimate at this time. It is important to 
recognize the Forest Service provides technical assistance in the 
development and implementation of TMDLs in response to existing EPA 
regulation and State TMDL programs. These responsibilities exist 
regardless of whether the revised rules are adopted. State water 
quality agencies are given the lead in developing TMDLs. Cooperative 
forestry assistance to private landowners is provided through 
agreements between the Forest Service and State forestry agencies. 
State forestry agencies often work with the State water quality 
agencies to help develop TMDLs. The obligation of States to develop 
TMDLs, however, preceded the rules currently under consideration.
    Question. What impact could it have on forestry activities on 
federal land?
    Answer. See response to previous question.
    Question. Will this increase costs in any of the Forest Service's 
programs or require a shift of resources from other needs?
    Answer. The proposed rules do create new responsibilities, for 
example, a new requirement of public participation in the States' 
development of TMDLs. Such activities may increase our costs. Since 
many TMDLs are being developed on National Forest System lands, we 
expect the Forest Service will devote staff time to the public 
participation process. To the extent the new rules impose these kinds 
of additional incremental costs on the Forest Service, we want to 
identify and plan for those costs. Our interagency work group has 
discussed cost issues as well as the silvicultural aspects of the 
proposed rules.
    Question. Timber Projects.--What laws prevent the Forest Service 
from entering into long-term sustainable yield contracts with 
independent forestry companies? Why has the Forest Service abandoned 
this land management tool?
    Answer. NFMA requires us to advertise sales over $10,000 in value. 
The Multiple-Use Sustained Yield Act recognized two types of sustained 
yield units. One type required companies to provide private lands to be 
included with National Forests in a sustained yield unit. For example, 
the Shelton Unit on the Olympic NF provides the Simpson company an 
opportunity to obtain National Forest timber while waiting for its 
private land to grow into merchantable size. The other type was to 
provide mills in local communities with preference over other timber 
purchasers for national forest timber in the sustained yield unit. No 
additional sustained-yield units are contemplated, because this 
approach discourages modernization of mills, and limits competition.
    Special Use Fees.--The Forest Service, despite comments in support 
of recreational economies, continues to increase fees to Outfitters, 
ski areas, and virtually all other recreational uses of federal lands.
    Question. Considering these industries must operate in the 
notorious ``service'' industry and generally provide lower incomes than 
natural resource based jobs, why does the Forest Service continue 
increasing these costs.
    Answer. There are over 74,000 special use permits, spread over 140 
different types of uses for which there is only one fee charged by the 
Forest Service. This fee is the land rental fee charged for the rights 
and privilege of operating on National Forest System lands. By law and 
regulation the amount of the fee must be based on the fair market value 
of the rights and privileges given. Fair market value, by regulation is 
based on appraisals or other sound business management principles
    Since 1984 the Forest Service or Congress, in order to obtain Fair 
Market Value has adjusted the following fee schedules. They are: 
Outfitter/Guide, 1984 (with an update in 1995); Lineal Rights of Ways, 
1985, annual index to inflation; Recreation Residence, 1988, annual 
index to inflation (updated schedule currently undergoing congressional 
oversight); Communication Sites, 1990, annual index to inflation; and 
ski areas (congressional action), 1996, annual index to inflation. The 
remaining use types have been under the same fee schedule. Their fees 
have not changed unless the permit is subject to adjustments on a 
previously determined schedule.
    Question. Are they all congressionally mandated?
    Answer. See response to previous question.
    Question. Why then when we attempt to decrease these fees, cabin 
fees for example, does the Forest Service object?
    Answer. See response to previous question.
    Question. I would also like a full breakdown of all fees charged on 
federal lands within Region One. For example, what fees must an 
outfitter operating on federal land pay each year?
    Answer. The fees paid for an Outfitter/guide permit is either 3 
percent of gross revenue or average client-day charge to determine 
their fee. Additional charges are levied for grazing of livestock or 
assigned campsites.
    The breakdown for payments due to Region One in fiscal year 1999 is 
shown below:

        Type of use--code and name                          Payments due
111--Boat Dock And Wharf................................         $323.00
112--Club...............................................          255.00
113--Organization Camp..................................       95,452.00
114--Shelter............................................          459.00
115--Private Camp.......................................          354.00
121--Isolated Cabin.....................................        5,950.00
123--Recreation Residence...............................      132,913.00
133--Resort.............................................        6,012.50
134--Recreation Lodging, Govt-Owned Bldg................       17,445.00
141--Campground And Picnic..............................       18,577.10
146--Target Range.......................................          204.00
149--Recreation Event...................................        9,125.35
152--Marina.............................................        1,611.00
153--Outfitter And Guide................................      557,524.52
157--Store, Shop, Office................................           51.00
158--Vendor, Peddler....................................           51.00
161--Winter Recreation Resort...........................       28,678.33
162--Ski Lift, Tow......................................       14,767.79
163--Ski Slope, Trail...................................          356.81
164--Ski Activity.......................................          102.00
165--Snow Play..........................................        1,542.27
211--Cultivation........................................        6,679.40
212--Nursery............................................           51.00
214--Apiary.............................................          760.00
215--Livestock Area.....................................       11,413.21
221--Barn, Shed.........................................          306.00
222--Fence..............................................          153.00
223--Agriculture Residence..............................          231.00
231--Building...........................................           55.00
232--Corral, Pen And Livestock Area.....................        2,002.00
241--Convenience Enclosure..............................        1,643.80
311--Group Event........................................           51.00
332--Monument...........................................           51.00
333--Sign...............................................          561.00
342--Liquid Waste Disposal Area.........................          449.00
343--Sewage Transmission Line...........................          102.00
351--Residence, Privately-Owned Building................        3,518.00
361--School.............................................           20.00
362--Service Building...................................        7,674.37
367--Visitor Center, Museum.............................        5,315.00
373--Other Improvement..................................          255.00
411--Site Survey And Testing............................           51.00
421--Experimental And Demonstration.....................        1,795.00
422--Research Study.....................................          306.00
432--Education Center...................................          153.00
442--Nondisturbing Use..................................        1,107.00
443--Disturbing Use, 1979 Act...........................           51.00
511--Construction Camp And Residence....................          809.00
521--Warehouse And Storage Yard.........................        1,704.00
522--Stockpile Site.....................................          231.00
532--Truck And Equipment Depot..........................           51.00
551--Commercial Still Photography.......................       10,388.88
552--Motion Picture And TV Location.....................        9,000.00
561--Geological And Geophysical Explor..................        4,550.00
562--Mineral Material Sale..............................       18,128.75
571--Occupancy Permit, Reserved Mineral Right...........           50.00
594--Yarding Corridor...................................          102.00
612--Hydroelectric Project, FERC Exempted...............           51.00
631--Oil And Gas Pipeline...............................       30,532.93
632--Oil And Gas Pipeline Related Facility..............        8,384.96
642--Other Utility Improvement, REA Financed............           51.00
643--Powerline..........................................       36,378.49
711--Airport, Heliport..................................           51.00
731--Railroads Right-Of-Way.............................           51.00
751--Forest Road & Trail Act Easement...................          332.00
752--Federal Land Policy & Mgmt Act Permit..............        2,855.00
753--Federal Land Policy & Mgmt Act Permit..............       28,728.13
801--Amateur Radio......................................        1,436.73
802--Personal/Private Receive Only......................          125.29
803--Microwave-Common Carrier...........................       17,213.40
804--Microwave-Industrial...............................       22,494.13
805--Local Exchange Network.............................        1,711.83
806--Private Mobile Radio Service.......................        7,647.67
807--Passive Reflector..................................        2,727.72
808--Broadcast Trans/Low Power TV & Fm..................          578.12
809--Cable Television...................................        2,614.86
810--Cellular...........................................       18,696.72
815--Commercial Mobile Radio Service....................       18,724.38
816--Am And Fm Radio Broadcast..........................        7,654.47
817--Television Broadcast...............................       12,387.78
818--Facility Manager...................................        3,211.67
821--Telephone And Telegraph Line.......................       20,523.87
831--Other Comm. Improvement, Not REA...................          102.00
911--Irrigation Water Ditch.............................        2,428.14
912--Irrigation Water Trans Pipeline>=12''D.............          899.00
913--Irrigation Water Trans <12''D......................        2,898.00
914--Water Trans Pipeline >=12''D.......................          204.00
915--Water Trans Pipeline < 12''D.......................       14,399.00
921--Debris And Situation Impoundment...................           51.00
922--Dam, Reservoir.....................................       10,697.05
923--Water Diversion, Weir..............................          459.00
931--Well, Spring Or Windmill...........................          329.75
932--Stock Water........................................          166.50
941--Stream Gauging Station.............................           51.00
942--Water Quality Monitoring Station...................          306.00
951--Water Treatment Plant..............................          352.00
                    --------------------------------------------------------
                    ____________________________________________________
      Grand Total.......................................    1,260,029.67

    Fiscal year 2000 Forest Level Appropriations.--Following an overall 
increase in the fiscal year 2000 budget, my local forest supervisors 
have responded to some of my questions regarding their funding levels 
in a very disheartening way. Despite an overall increase, the amount of 
money distributed to the forest level is actually decreasing this year.
    Question. Can you provide me with a breakdown of the budget 
distribution to each of Region One's forests over the last three years, 
adjusted for inflation?
    Answer. The following displays the requested information for fiscal 
years 1997, 1998 and 1999. The Regional Offices were provided final 
allocations for fiscal year 2000 in the March 1 Planning and Budgeting 
Advice (PB&A), and allocations at the forest level are in the process 
of being finalized. Fiscal year 1997 and fiscal year 1998 were adjusted 
to fiscal year 1999 dollars.

                        [In thousands of dollars]
------------------------------------------------------------------------
                                                   Fiscal year
                 Forest                 --------------------------------
                                            1997       1998       1999
------------------------------------------------------------------------
Beaverhead/Deerlodge...................     15,527     14,543     13,950
Bitterroot.............................      8,727      9,332      9,038
Idaho Panhandle........................     29,539     31,697     30,126
Clearwater.............................     17,128     18,071     16,123
Custer.................................      9,331      9,045      8,828
Flathead...............................     17,023     15,381     14,662
Gallatin...............................     10,249      9,954      9,832
Helena.................................      7,126      7,878      8,047
Kootenai...............................     28,847     24,701     23,877
Lewis & Clark..........................      6,988      8,821      8,066
Lolo...................................     18,808     18,105     16,945
Nez Perce..............................     16,776     17,668     15,738
AFD....................................      5,456      6,520      6,393
                                        --------------------------------
      Total............................    191,525    191,716    181,625
------------------------------------------------------------------------

    Question. Why is it that we gave an increase of funding to the FS 
of $40 million this year, yet $20 million less actually ended up at the 
forest level. Where did the money go?
    Answer. Allocations to the Regions (provided in the March 1, 2000 
PB&A) increased by $34 million from fiscal year 1999 to fiscal year 
2000. The forest level fiscal year 2000 allocation from the Regional 
Offices are now being finalized. Preliminary targets for the fiscal 
year 2000 budget were provided to Regional Offices October 1, 1999. 
Using a preliminary target may account for the apparent decrease at the 
forest level.
    Question. Additionally, how will this change under the new budget 
envisioned by the Forest Service?
    Answer. Other than the savings attributable to improved efficiency, 
the total funding levels available to any unit or level of the 
organization will not change as a result of the new budget structure. 
The proposed structure will simply realign funds into a new, smaller 
set of accounts within the National Forest System appropriation. This 
structure will facilitate improved financial and performance 
accountability by simplifying the agency's accounting structure, 
providing a better linkage to the integrated goals, objectives and 
performance measures of the agency, and improving on-the-ground 
management. The agency has also taken the first step towards 
performance-based budgeting by constructing its fiscal year 2001 Budget 
Justification around a series of performance measures within this new 
budget structure. Our intent is to focus attention on what the Congress 
and the American public can expect from the agency in terms of 
performance if proposed funding is approved.
    Question. Will the shift of administrative costs to the forest 
result in a net decrease of dollars available for actual work at the 
forest level?
    Answer. As part of its fiscal year 2001 budget structure reform, 
the agency is proposing to eliminate the General Administration line 
item. By definition, this line item funds some of the indirect costs 
associated with managing the agency. These funds are distributed among 
the appropriate accounts within the proposed budget structure. All 
indirect costs, including those previously funded by this account, will 
continue to be paid for out of the appropriate remaining accounts. To 
ensure that proper accounting for these costs occur, the agency has 
implemented the cost definitions and methodology that meet standards 
established by the Federal Accounting Standards Advisory Board (FASAB). 
This proposal reflects an adjustment that will provide more financial 
accountability and eliminate an unneeded budget line item. This will 
not result in a decrease of funds available for actual work at the 
forest level.
    Question. Seasonal employees are responsible for doing much of the 
work on the national forests such as maintenance, campgrounds, trail 
work and fire suppression. Budgets in fiscal year 2000 are down 50 
percent on some forests for funding of seasonal positions. Does the 
fiscal year 2001 budget rectify this problem?
    Answer. The Forest Service hired 16,842 temporary and 556 term 
employees during fiscal year 1999. Compared to fiscal year 1998, these 
hires reflect an increase of 5 percent (16,079 temporary employees) and 
8 percent (514 term employees) respectively. The Agency expects 
equivalent temporary and term employees to be hired in fiscal year 
2000. Nothing in the Forest Service budget submission would preclude 
similar hiring levels in fiscal year 2001.
    Question. Currently the Region 1 office and the Supervisors' 
offices have not received the budget for fiscal year 2000. They are 
still running under an interim budget and do not know what positions 
they can or cannot fill, what projects can be funded, etc. How long 
must our land managers wait while the national Forest Service plays 
political games with a budget appropriated over 4 months ago?
    Answer. The Regional Offices and the Supervisors' offices were 
provided preliminary targets and estimated funding for their BY 2000 
budget on October 1, 1999. Final allocations were provided to the 
Regional Offices in the March 1, 2000 Planning and Budgeting Advice. 
Public Law 106-113 (dated November 29, 1999) requiring a rescission of 
0.38 percent of discretionary budget authority complicated 
Administration decision making and played a significant role in delay 
of final allocations. Final determination of the 0.38 percent reduction 
was not accomplished until December 30, 1999.
    Question. I have been told there have been 300 new positions 
created in Washington DC just to take care of the budget and keep the 
finance house in order. Is this correct? If not, how many positions 
have been created over the last two years within the Forest Service at 
the national headquarters level?
    Answer. The CFO intends to add a total of 70 new positions in the 
Washington Office to address financial reform and program 
accountability issues. We are not aware of the figure of 300 new 
positions mentioned in your question. The 70 positions are in the 
process of being filled. The recruitment and staffing of these 
positions has been ongoing over the past 18 months. This increase of 70 
positions in the CFO Deputy Area is part of a total increase of 
approximately 150 positions in the Washington Office. It is important 
to note that the Forest Service has one of the lowest levels of 
headquarters staffing in government. Headquarters staffing comprises 3 
percent of the total workforce, compared to 33 percent for some other 
agencies.
    Question. How is it that we have all these new folks in Washington 
DC to get the finances in order but the still haven't sent an official 
budget out to the states?
    Answer. A program budget was sent to the field on March 3. This was 
a final budget. Field units had a tentative budget by the end of 
September. This was accomplished in spite of the fact that Congress did 
not enact the Appropriations Act until November 18 and the required 
across-the-board reductions were not finalized until December 30.
    Question. You cite in your budget ``increased time dedicated to 
national initiatives by Forest Service personnel.'' Overhead costs 
increase significantly, workload increases from national initiatives, 
information collection, ESA consultations, etc. every year but money 
for overhead is not given to the on the ground folks to complete the 
analysis. In your reprogramming requests coming before the 
Appropriations Chairmen this year, is any of this money going to be 
sent to the region's to replenish money spent on political initiatives?
    Answer. The overall majority of funding (appropriated funds) is 
allocated to the field. In fiscal year 2000 4.8 percent of available 
funding is allocated to cover headquarters costs. An additional 13.5 
percent of the total available funds are distributed as ``national 
priorities.'' The vast majority of this funding is provided to field 
units. The remaining 81.7 percent is directly allocated to the field.
    Question. Finally, the interagency smokejumper base at West 
Yellowstone is an important protective entity for wildland fire, urban 
interface and protection of our natural resources in Yellowstone 
National Park and the Greater Yellowstone area. What are the funding 
levels for this facility in fiscal year 2000 and fiscal year 2001?
    Answer. The Interagency Smokejumper Base at West Yellowstone, 
Montana is part of the National Shared Resources (NSR) program, which 
protects and provides initial attack for wildland fire, urban interface 
and protection of our national resources across public and other lands.
    In fiscal year 1999 the West Yellowstone Smokejumper Base 
(including the air tanker base) received a budget of $439,000; in 
fiscal year 2000 the Base is scheduled to receive about $480,000. A 
final amount will be provided in the Northern Region's final program 
budget advice that is scheduled for release April 5, 2000. (checking on 
whether or not this happened already) This budget level funds 100 
percent of MEL (most efficient level).
    In the fiscal year 2001 President's Budget the planned funding for 
the West Yellowstone Smokejumper Base (including the air tanker base) 
will be at the fiscal year 2000 level of $480,000.
    Question. When can we expect the facility to finally receive the 
money included in the fiscal year 2000 budget as passed last fall?
    Answer. See response to previous question.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan

    For quite some time, I have been concerned about the potential 
impact of the U.S. Forest Service's proposal to change the management 
of the grasslands on Western North Dakota. I've heard from more than 
20,000 North Dakotans about this issue and I've tried to work with you, 
Chief Dombeck, and others to ensure that public comments are heard and 
duly considered before any new management plan is implemented. However, 
I have grown deeply concerned about the lack of consensus that has been 
created around this plan. If anything, this new plan has driven a huge 
wedge between ranchers and environmental groups on the grasslands. 
Based on this and past experience in the process, I am concerned that a 
simple review of the comments will not produce measurable results or 
build acceptance of the plan.
    Question. What is the Forest Service doing to create a more 
cooperative environment in which win-win solutions can be reached for 
both sides currently debating the plan?
    Answer. First, let me assure you that our agency takes very 
seriously, all our proposals to make changes in management direction of 
our forest and grassland units of National Forest Systems lands. We are 
committed to expand and improve upon our collaborative efforts to more 
fully engage others in our planning processes--early on and all along 
the way. This means taking on the acknowledged challenge of listening 
to, more fully engaging, and working through differences with those who 
share our positions and those who do not. The process is not perfected, 
but that is the goal toward which we strive and will hold ourselves 
accountable. In the case of the North Dakota effort, the review of 
comments is anything but simple; it is extensive and thorough. Plans 
and plan revisions are always controversial. Considerable effort has 
been made in this current effort to achieve a more cooperative 
environment for win-win solutions.
    Please bear in mind that a Land and Resource Management Plan (LRMP) 
is a programmatic decision document that allows the flexibility to 
achieve the desired direction at the local level through engaging local 
and regional groups such as the North Dakota Consensus Group and others 
in making site-specific decisions. The Forest Service anticipated the 
Dakota Prairie Grasslands controversy and attempted to bring interest 
groups together to find solutions at a time when it would have been 
effective in the planning process. One key interest was the livestock 
groups. Over three years ago it was proposed that the Forest Service 
and North Dakota Grazing Associations join the Bureau of Land 
Management Resource Advisory Council (RAC) to address key issues that 
we knew would be controversial. The North Dakota Grazing Associations 
rejected this offer. Without this key interest group, the Forest 
Service elected not to formally join the RAC, but instead maintains an 
hoc role. Again in pursuit of a win-win solution, over two years ago 
the agency asked many of the grazing associations to sponsor 
collaborative groups that included all interests to develop an 
alternative for our draft plan. Only the Little Missouri Grazing 
Association accepted this offer.
    However, as the process proceeds between the Draft and Final 
Environmental Impact Statement, we are committed to continuing our 
efforts to involve all partners in working to achieve common ground 
solutions to the issues surrounding the management direction for the 
North Dakota grasslands.
    Question. The Forest Service recently canceled the permits of the 
McKenzie and Medora Grazing Associations. Why didn't the Forest Service 
enter into mediation of the disagreements surrounding this cancellation 
when that option was clearly available to them and was obviously the 
intent of Congress according to the law?
    Answer. For many years, the Forest Service has been a party to 
grazing agreements with the McKenzie County Grazing Association and the 
Medora Grazing Association. Under these agreements, the Forest Service 
authorizes a certain amount of grazing on National Forest System lands 
in western North Dakota and delegate's authority to the associations 
for the administration of livestock grazing on these lands. The Forest 
Service is responsible for ensuring that the associations' 
administration of livestock grazing is carried out in conformance with 
federal law, regulation, and the terms and conditions of the grazing 
agreement. The most recent agreements with the associations were 
executed in 1999 for a ten-year term. However, each agreement contains 
an ``escape'' or ``opt-out'' clause, which enables either party to 
terminate the agreement six months after providing written notice to 
the other party.
    For more than a year, the Forest Service has attempted to obtain 
copies of certain classes of grazing administration documents held by 
the associations. The documents sought by the Forest Service contain 
specific information necessary to determine whether an individual is 
eligible and qualified to graze livestock on National Forest System 
lands and whether grazing is being conducted in compliance with the 
terms and conditions of the agreements. This is information that the 
Forest Service routinely maintains in its records when the agency 
directly administers the grazing permit. The associations have refused 
to provide the Forest Service with these documents.
    On February 8, 2000, the Forest Service ``terminated'' the grazing 
agreements with the associations in accordance with the escape clause 
of the agreements. It is important to note that the Forest Service did 
not ``cancel'' the grazing agreements under Forest Service regulations 
at 36 CFR 222. In announcing its decision, the Forest Service explained 
that upon the effective date of the termination, the agency would issue 
permits directly to the affected permittees in order to prevent any 
unnecessary disruption to their ongoing business operations.
    The Forest Service did not initially agree to enter into mediation 
with the associations simply because such a course of action was not 
available to the agency under its regulations at 36 CFR 251, Subpart C. 
These regulations, which were promulgated last year pursuant to the 
provisions of Federal Crop Insurance Reform and Department of 
Agriculture Reorganization Act of 1994, limit mediation to specific 
types of disputes which result in a decision to suspend or cancel a 
grazing permit. Since the decision in this case was to terminate a 
grazing agreement, not to cancel a grazing permit, mediation under the 
Forest Service regulations was not an option.
    However, we are pleased to report that the Forest Service has 
recently agreed to engage in court-sponsored mediation with the 
associations in an attempt to resolve this dispute that resulted in the 
initiation of litigation by the associations on February 23, 2000. 
While hopeful that the court-sponsored mediation will be successful, 
the Forest Service has emphasized that any resolution must include the 
right of the agency to free and unfettered access to grazing 
administration documents held by the grazing associations (including 
obtaining copies of same) which are necessary to determine whether the 
associations' administration of grazing on National Forest System lands 
is being conducted in conformance with federal law, regulation, and the 
terms and conditions of the grazing agreement.
    Question. Recently, mountain biking the ``Teddy Roosevelt Connect'' 
in North Dakota was ranked 24th of 100 of the National Geographic's 
Adventure 100 Trips. This is a trail that is owned and operated by the 
Forest Service and the ranking is a wonderful example of ecologically 
responsible development that has taken place. Even with this attention, 
North Dakota's grasslands remain one of the least visited locations in 
the U.S. What is the Forest Service doing to ensure that recreational 
activities on the grasslands continue to be developed?
    Answer. In the National Geographic article, the ``Maah Daah Hey 
Trail'' was mistakenly called the ``Teddy Roosevelt Connect.'' As you 
are probably aware, the Forest Service provided much of the impetus for 
its development. This 97 mile long trail was completed in 1998, and has 
already ignited a surge of tourism in western North Dakota. The Forest 
Service is also working with state agencies and other federal agencies 
to continue to improve the trail and market its virtues. The agency and 
the North Dakota Tourism Department just received confirmation from a 
television production company from Calgary, Alberta to film a mountain 
biking show on the Maah Daah Hey Trail on the Little Missouri National 
Grassland. It will be aired later this summer on the Outdoor Life 
Channel, which reaches 25 million households in the U.S. and 30 million 
in Canada. In addition, six overnight campsites are proposed for the 
Maah Daah Hey Trail and construction is planned to begin in fiscal year 
2000. Loop trails and interpretive facilities are also planned for this 
year. The CCC Campground underwent a substantial upgrade and expansion 
in 1998/1999. And the Buffalo Gap Campground is scheduled for 
renovation and further development in fiscal year 2001.
    On April 20th, the Forest Service hosted a Recreation Summit 
Workshop in Bismarck, North Dakota. Various federal, state and private 
recreational interests were represented at this workshop. Issues 
included tourist advertising, business opportunities, access routes, 
historical tourism and interpretation.
    Last summer, the Forest Service and the North Dakota Tourism 
Department initiated a major effort aimed at enhancing and promoting 
trail and birding opportunities on the Grasslands in North Dakota. Ten 
state and federal agencies have joined the Forest Service in this 
effort. Products which will come out of this include: a Birding North 
Dakota state map, an integrated web site highlighting the trail and 
birding opportunities and birding festivals.
    To attract visitors to North Dakota, the Forest Service has 
proposed issuing special-use permits for horseback riding, mountain 
biking and interpretive tours on the Little Missouri National 
Grassland. This will provide outstanding opportunities for tourism 
related businesses in western North Dakota. The Forest Service is 
currently receiving public comment regarding the issuance of these 
public permits.
    The Forest Service has recently funded a multi-partnership project 
to interpret and showcase the trail taken by Custer and the 7th Cavalry 
on their way to the Little Bighorn, as well as by General Sulley and 
the Indian ``Battle of the Badlands.'' For the Lewis and Clark 
Bicentennial, the Forest Service has funded the planning portion of a 
joint project for an interpretive trail in the Tobacco Gardens Area. 
Visitors will be able to experience the grasslands in a manner similar 
to when the Corps of Discovery traveled down the Missouri River in the 
early 1800s. A joint Forest Service/Corps of Engineers campsite and 
boat launch is also being contemplated for the Lake Sacajawea/Missouri 
River.
    Question. The Forest Service has of 230 million acres of lands to 
supervise and manage. One of the mandates of current law, as 
interpreted by the courts and the agency itself, is the practice of 
developing National Environmental Policy Act documentation for every 
permit issuance, renewal, and transfer related to grazing. While at 
times this is a proper and efficient use of Forest Service resources, 
in a substantial number of instances this is simply a waste of time and 
resources. When the Dakota Prairie Grasslands Administrative Unit was 
established, I received assurances that this process would be 
streamlined. What proposals has the Forest Service developed since that 
time, either administratively, or in the form of recommended 
legislative changes, to help alleviate this burden?
    Answer. Forest Service does not interpret current law to require 
National Environmental Policy Act (NEPA) documentation for every permit 
issuance. Rather current law merely requires that site specific impacts 
of federal action be considered before the action is taken. In the 
context of grazing permits, the Forest Service will, on occasion, 
address site specific impacts when looking at decisions involving 
individual permits. More common, however, is the practice where the 
agency may conduct its site specific analysis during the development of 
an allotment management plan (or plans) which may encompass many 
permits. Especially where resource conditions in an allotment (or on 
multiple allotments) are similar, this provides for an efficient use of 
agency resources in satisfying its NEPA obligations.
    Additionally, with the passage of the Rescission Act of 1995 
(Public Law 104-19, Section 504), permits may be issued with the same 
terms and conditions pending completion of NEPA review and 
documentation. This law also provided for development of a schedule on 
each National Forest to complete NEPA review and documentation where 
needed.
    A schedule for accomplishing the necessary NEPA analysis and 
decisions was established for all allotments within the Dakota Prairie 
Grasslands Administrative Unit pursuant to Section 504. The schedule 
was developed based on the traditional perspective of focusing NEPA 
analysis and decision on individual allotments. The Dakota Prairie 
Grasslands is currently gathering and analyzing baseline information 
that will allow the NEPA process to be completed on groupings of 
allotments in a much more efficient manner. This strategy will minimize 
time requirements and maximize the use of resources.
                                 ______
                                 
            Question Submitted by Senator Ernest F. Hollings

    I want to thank Mr. Lyons and Chief Dombeck for coming and 
explaining their budget request to this Subcommittee. As you know, the 
U.S. Forest Service has been very instrumental in South Carolina's 
attempt to acquire and preserve land in my state. In reviewing the U.S. 
Forest Service's fiscal year 2001 budget request, I am pleased to see 
that the Forest Service has included three projects in South Carolina 
under their Land Acquisitions program. These land acquisitions are 
crucial to our conservation efforts and are for the benefit of, not 
only South Carolina, but the entire nation.
    The Tibwin Area, listed as the Forest Service's number three 
priority, spans a region from the Charleston-Berkeley County line to 
the Intracoastal Waterway. This area, along with the Cape Romain 
National Wildlife Refuge and the Santee Coastal Reserve, support 
enormous biological diversity. This diversity includes: habitat for 5 
federally listed animals, 2 federally listed plants, more than 30 
natural plant communities and critical habitat for neotropical 
migratory songbirds, waterfowl and shorebirds. It is my understanding 
that negotiations with property owners in this area are producing good 
results and that money appropriated will immediately be turned around 
for land purchases.
    I also want to thank the Forest Service for including the Chattooga 
headwaters and the Broad River Corridor in their Land Acquisition 
budget request. These are extremely vital projects for South Carolina 
as well.
    I do have a couple of questions though. Last year, as a part of the 
fiscal year 2000 Department of the Interior and Related Agencies 
Appropriations Act, an additional $5 million was appropriated for the 
Forest Legacy Program. On February 1, 2000, the USDA sent a list to 
this Subcommittee identifying three projects for these funds. These 
projects included the Edge Phase I located in Washington, the Shooting 
Tree located in South Carolina and an undetermined project in Maine. 
Representatives Dicks and Regula sent a letter back to the USDA on 
February 16, 2000, saying that they could not evaluate the USDA request 
until the project in Maine were identified.
    Question. What is the status of this request?
    Answer. We expect the State of Maine will provide details regarding 
the $3 million proposed for projects in the very near future. Secretary 
Glickman will forward that information to the Appropriations Committees 
as soon as possible.
    Question. Is there anyway to divide these projects to allow the 
Edge Phase I and Shooting Tree projects to move forward while decisions 
on the Maine project are settled?
    Answer. The Edge Phase I and Shooting Tree projects could be 
approved separately from the Maine to-be-determined projects if the 
Committee so chooses. The Forest Service would have no objections to 
that approach.
    Question. Also, it is my understanding that the USFS does not allow 
funds appropriated for land acquisition to be used for direct costs 
such as closings and surveys. Why is that?
    Answer. With respect to the Forest Legacy Program, the Forest 
Service applies funds appropriated to the Forest Legacy Program 
Expanded Budget Line Item for all Forest Legacy program implementation 
purposes. The agency goal is to maximize the amount available for 
payments to landowners for projects and to minimize administrative 
expenses. Forest Legacy funds are available for direct costs related to 
closings and surveys. Specific expenditures are described in the grant 
agreement between the Forest Service and the State lead agency for 
Forest Legacy.
    Question. Is there a specific rule that precludes the USFS from 
allowing these funds to be used for direct costs?
    Answer. The Forest Legacy authority and program implementation 
guidelines do not prohibit payment of direct costs with Forest Legacy 
Program appropriated funds.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    I want to commend your support in this year's budget for the Forest 
Legacy program--a program where my own state of Vermont has conserved 
over 35,000 acres and created valuable partnerships between local, 
state, and federal agencies. But, as you well know, land conservation 
is only one part of the picture to maintaining sustainable, working 
forested communities. Economic assistance to communities is an 
essential component to maintaining the vitality of rural areas. That is 
why I am concerned that the budget does not include a comparable level 
of support for economic development programs such as the Economic 
Action Programs and the Forest Stewardship Program. In fact, the 
Administration request for these programs is less than last year's 
level.
    That to me is not a balanced effort to preserve the working 
sustainable landscapes in rural America. I want to alert the Chairman, 
Ranking Member and you Chief Dombeck that I have been working with 
Senators Lugar, Murray and Bond on a letter that will have over forty 
signatures in support of increasing these economic development 
programs.
    Question. Chief, do you agree that this committee should continue 
to strongly support these economic development programs to assist 
communities and preserve their economic vitality?
    Answer. Yes, I agree that the committee should continue to strongly 
support the Forest Service Economic Action Programs. While the 
Administration request for the Economic Action Program is lower than 
the fiscal year 2000 enacted level, it does not include the $6.6 
million of Congressional earmarks that were specified in the fiscal 
year 2000 enacted level. Thus, the amount of funds available for 
program delivery is comparable to last year's level.
    Question. As you know, I have been a long-time supporter of 
conservation and the Forest Service. I am also eager to see that the 
land that is managed and maintained for its thousands of public 
visitors. This costs operational dollars. I have heard repeatedly that 
Forest Service staff in Vermont is stretched to its limits, trying year 
after year to keep some of this country's most beautiful lands cared 
for and preserved. It is my understanding that the criteria used to 
allocate each year's Forest Service operational budget tends to put the 
Northeast at a disadvantage. This may be because our lands have minimal 
on-site ``capital''--such as on-site buildings and facilities. 
Ironically, it is this pristine, minimally-developed nature of 
Northeastern lands that has made them so popular for the 70 million 
people who live within half a day's drive and who flock to the 
Northeast for hiking, fishing, mountain biking, skiing, and other 
recreational pursuits year-round.
    I would like to work with the Forest Service to ensure that 
operational budgets in the Northeast reflect the needs of Forest 
Service personnel in the region. To this end, would you please outline 
the criteria that is used to allocate operational budgets to the Forest 
Service regions?
    Answer. We have established a field-based team to develop a revised 
funding allocation and decision feedback process that is based upon 
national priorities, program analysis and the agency's strategic plan. 
It is our intention to pilot this new process for developing agency-
wide funding requirements and allocating budget obligation authority in 
fiscal year 2001. Based upon the outcome of the pilot, agency-wide 
implementation of this new process will occur in the following fiscal 
year. This information will be provided as soon as it is finalized.
    Question. Also, would you agree to re-evaluate current operational 
budget allocation formula to better serve Northeastern forest lands?
    Answer. As discussed above, it is our intention to re-evaluate 
budget allocation criteria across all regions of the Forest Service.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid

    Executive Order 13057, signed by the President on July 26, 1997, 
was issued to ensure that Federal agency actions protect the 
extraordinary natural, recreational, and ecological resources in the 
Lake Tahoe Region. The States of California and Nevada, local 
governments and the private sector at Lake Tahoe have already committed 
millions of dollars toward their share of project funding under the 
Tahoe Environmental Improvement Program (EIP) as adopted by the bi-
state Tahoe Regional Planning Agency. The Lake Tahoe Presidential Forum 
set forth deliverables that included federal commitments to this effort 
of approximately $36 million dollars annually. The Forest Service share 
of this commitment should be roughly $30 million. The fiscal year 2001 
Budget justification seems to overlook specific funding for these Lake 
Tahoe projects beyond administrative operations for the Forest.
    Question. Are you allocating funds for these projects within your 
proposed budget for fiscal year 2001? If not, why not?
    The Agency budget presentation does not reflect funding below the 
regional levels. However within the Agency there has been an emphasis 
placed on increasing funding for work in the Lake Tahoe Basin. The 
fiscal year 2001 budget request included $6 million for increasing 
efforts at Lake Tahoe. We will consider including a special exhibit 
with the budget presentation for fiscal year 2002.
    Funding estimates for these projects in the fiscal year 2001 budget 
included:

Watershed assessment..........................................  $190,000
Watershed restoration.........................................   420,000
Road improvements and decommissioning......................... 1,240,000
Land acquisition and acquisition management................... 2,450,000
Prescribed fire and mechanical treatments..................... 1,650,000
Recreation and transportation.................................    65,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 6,015,000

    Question. If so, why weren't these items set forth as specific 
funding initiatives as presented and suggested by the Lake Tahoe 
Transportation and Water Quality Coalition?
    The recommendations by the Lake Tahoe Transportation and Water 
Quality Coalition have not been incorporated into budget presentations 
as specific funding initiatives. In part, this is because, with few 
exceptions, the Agency budget presentation does not reflect funding 
below the regional levels. Oftentimes interest groups and coalitions 
such as this do not present their recommendations to the agencies in 
the budget formulation stage so that they can even be included in 
exhibits. Through capability statements and other means we do respond 
to these requests from the Appropriations Committees thus providing the 
Congress with the information to make appropriation decisions.
    Forest Service is currently reviewing alternatives for the repair 
and/or construction of 1.5 miles of the South Canyon Forest Service 
road. Simultaneously, Elko County and Forest Service are involved in 
litigation that includes, but is not limited to, the ownership of the 
road. Forest Service also appears to be working cooperatively with the 
US FWS, Nevada State Fish and Game, Elko County officials, and the 
public for road design and location alternatives.
    Question. Is the current status of litigation impacting or delaying 
the final decision for the road repair?
    Answer. The Regional Forester is currently negotiating with Elko 
County to resolve the litigation in a timely manner. In order to comply 
with the confidentiality agreement with Elko County, the Regional 
Forester cannot comment further at this time.
    Question. Please provide a brief, concise statement on the status 
of the negotiations and provide a comprehensive list of road design 
alternatives for South Canyon Road including associated costs.
    Answer. The Regional Forester is currently negotiating with Elko 
County to resolve the litigation in a timely manner. In order to comply 
with the confidentiality agreement with Elko County, the Regional 
Forester cannot comment further at this time.
    According to your testimony, the draft EIS for the Forest Service 
Roadless Initiative is to be completed this spring. A complete roadless 
area inventory should be included as an assessment of the current 
management situation. As you know, the Humboldt-Toyabe National Forest, 
including the Lake Tahoe Basin Management Unit, is of particular 
interest to me. Unfortunately, the digital maps for Nevada posted on 
the Forest Service WEB page, do not include current data for those 
areas that have not been inventoried. In light of this situation:
    Question. When can we expect the data from current inventory 
activities of roadless areas to be available for public review?
    Answer. The draft environmental impact statement and proposed 
roadless rule will be available for public review in the spring of 
2001.
    Question. When will the roadless inventories from older forest 
plans and RARE II be verified and updated?
    Answer. The Forest Service began identifying roadless areas through 
RARE I in 1972. In 1979, the agency completed RARE II, a more extensive 
national inventory of roadless areas. RARE II built on the data in RARE 
I, and in most cases forest plans and other assessments were built on 
RARE II. In the limited circumstances where a forest plan or other 
assessment did not have a more recent inventory of roadless areas, the 
Forest Service used the RARE II inventory
    Question. Will a separate existing road inventory project be 
required to establish an accurate, complete, and up-to-date road 
inventory prior to completion of the proposed Roadless Area analysis 
and Record of Decision?
    Answer. The national forests and grasslands are currently 
conducting inventories and condition surveys; however, it is the Roads 
Policy that addresses requirements for road inventories, including the 
requirement to inventory existing classified, unclassified, and 
temporary roads. Some historic roads may be included if they are 
currently open for use and are classified.

                          SUBCOMMITTEE RECESS

    Senator Byrd. So the subcommittee will stand in recess untill 9:30 
a.m., Tuesday, April 4, when we will receive testimony on the fiscal 
year 2001 budget requests for the Bureau of Indian Affairs and the 
Office of the Special Trustee for American Indians. Hon. Kevin Gover, 
Assistant Secretary for Indian Affairs, Department of the Interior; Hon 
Thomas Thompson, Principle Deputy, Special Trustee for American 
Indians.
    [Whereupon, at 12:55 p.m., Wednesday, March 22, the subcommittee 
was recessed, to reconvene at 9:30 a.m., Tuesday, April 4.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2001

                              ----------                              


                         TUESDAY, APRIL 4, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Burns, Campbell, and Dorgan.

                       DEPARTMENT OF THE INTERIOR

                     Office of the Special Trustee

STATEMENT OF THOMAS M. THOMPSON, PRINCIPAL DEPUTY 
            SPECIAL TRUSTEE FOR AMERICAN INDIANS

                        Bureau of Indian Affairs

STATEMENT OF KEVIN GOVER, ASSISTANT SECRETARY
ACCOMPANIED BY:
        JOE CHRISTIE, ACTING DIRECTOR, OFFICE OF INDIAN EDUCATION 
            PROGRAMS
        HILDA A. MANUEL, DEPUTY COMMISSIONER, INDIAN AFFAIRS
        DAVID A. GILBERT, BUDGET OFFICER, OFFICE OF THE SPECIAL TRUSTEE
        PAMELA K. HAZE, DEPUTY DIRECTOR, OFFICE OF BUDGET, OFFICE OF 
            THE SECRETARY

               Opening statement of Senator Slade Gorton

    Senator Gorton. Good morning. This is the Subcommittee on 
Interior's third hearing with respect to the fiscal year 2001 
budget for agencies funded through the subcommittee. And today, 
of course, we are going to hear testimony from the Bureau of 
Indian Affairs and the Office of the Special Trustee for 
American Indians.
    At the outset, I want, once again, to welcome you, Mr. 
Gover. It is a real pleasure to see you. And it has been both a 
pleasure and productive to have worked with you over the course 
of the last several years. You are both highly professional and 
extremely candid.
    At the same time, I want to welcome Principal Deputy 
Trustee for American Indians, Mr. Thompson, who has been acting 
as Acting Special Trustee. Thanks for your willingness to take 
on that very difficult challenge that has a great deal of 
stress and I am sure takes a tremendous amount of your time. 
Your work in that connection is very much appreciated.
    I think we will start with you, Mr. Thompson. And after we 
direct questions to both you and to Mr. Gover on the special 
trustee's budget, we will then move on to the BIA budget 
itself. The budget request for BIA is about $2.2 billion, which 
is more than a $300 million increase over the year 2000.
    This is a very substantial increase and is distributed 
primarily to trust fund management, law enforcement, education 
operations, backlog maintenance and school construction. The 
largest of those increases is for school construction, a field 
which is in dire need.
    The administration is looking for more than $300 million 
for the construction of the schools, more than double that for 
the year 2000. I am pleased to see that education, construction 
and school repair emerged as high priorities for the 
administration. My colleague from New Mexico, Senator Domenici, 
has been persistent on this subject for as long as I have 
chaired this subcommittee. And obviously, his efforts have been 
rewarded in this budget request.
    Because the Senate is beginning debate on the budget 
resolution, I doubt that we will see Senator Domenici here this 
morning, but I know he has a very high degree of interest in 
the subject.
    The Office of Special Trustee, about $95 million is 
requested, about the same amount for the fiscal year 2000, 
$12.5 million for Indian land consolidation and an effort to 
address the ever-expanding problem of fractional interest in 
Indian lands. A land consolidation request is $7.5 million more 
than the 2000.
    Next, about $82.6 million is requested for the Office of 
Special Trustee to operate the various trust programs for 
Indians. This request is a bit of a decrease under the fiscal 
year 2000 funding.
    Last year, Secretary of the Interior Babbitt was forthright 
in identifying the Office of Special Trustee as his number one 
priority for appropriations. This subcommittee responded by 
providing the full amount of his request, which was a large 
increase over the previous year. We will have an opportunity to 
hear from Secretary Babbitt tomorrow, but I suspect that trust 
management reform will remain a high priority.
    I expect the subcommittee will continue to be responsive to 
this pressing need, but that will depend in large part on what 
you tell us here today. We are most interested to hear about 
your progress.
    I have made a concerted effort to increase funding for 
American Indians and Alaska Natives throughout my term as 
chairman of this subcommittee, and I will continue to do so. It 
is imperative that we ensure adequate education and safe 
communities for all Americans.
    In addition, it is certainly important that this country 
live up to its trust responsibilities in a respectable and 
professional manner.
    As we proceed with this year's appropriations process, it 
will be increasingly necessary for us to work together in order 
to target the most crucial areas and to focus on the top 
priorities. It is highly doubtful that the total allocation to 
this subcommittee will be equal to what the President has 
requested.
    And Mr. Gover is well aware of our work in each of these 
years in attempting to work within what we have and to direct 
our funding at the most emergent needs.

                           PREPARED STATEMENT

    And I think that the Office of Special Trustee will do the 
same thing, if you give us the proper insight into your 
opportunities.
    [The statement follows:]

               Prepared Statement of Senator Slade Gorton

    Good morning. This is the Subcommittee on Interior's third hearing 
regarding the fiscal year 2001 budget requests for agencies funded by 
the subcommittee. Today we will receive testimony from the Bureau of 
Indian Affairs and the Office of the Special Trustee for American 
Indians.
    At the outset, the subcommittee welcomes the Assistant Secretary 
for Indian Affairs, Mr. Gover. It's been a pleasure working with you 
over the past several years. I have appreciated your high level of 
professionalism and your candor. Also, on behalf of the subcommittee, I 
welcome the Principal Deputy Trustee for American Indians, Mr. 
Thompson, who has been serving as Acting Special Trustee. Thank you for 
your willingness to serve as Acting Special Trustee--a stressful 
position that has demanded much time and energy. Your hard work has 
been appreciated.
    The subcommittee will first have Mr. Thompson present the budget on 
behalf of the Office of the Special Trustee. After questions are 
directed to both Mr. Gover and Mr. Thompson regarding the Office of the 
Special Trustee's budget and the trust management improvement project, 
we will then move on to the Bureau of Indian Affairs' budget.
    In total, the budget request for BIA is approximately $2.2 billion 
which is a $331.9 million increase over fiscal year 2000. This is a 
rather large increase over fiscal year 2000--almost 18 percent--and is 
distributed primarily to trust fund management, law enforcement, 
education operations, backlog maintenance, and school construction. The 
largest increase requested within BIA's fiscal year 2001 budget is for 
school construction, an area which is in dire need of funding. The 
administration seeks $300.5 million for construction of schools, an 
amount that is approximately $167 million over the fiscal year 2000. I 
am pleased to see that education construction and school repair have 
emerged as high priorities for the administration. My colleague from 
New Mexico--Senator Domenici--has been particularly persistent on this 
issue for as long as I have chaired this subcommittee, and I am pleased 
to see that his efforts have been rewarded in this budget request. We 
will do our best to be responsive within the constraints that are 
placed upon us.
    For the Office of Special Trustee for American Indians, 
approximately $95 million is requested for fiscal year 2001. This is at 
about the same level as the amount enacted for fiscal year 2000 for the 
Office of Special Trustee accounts. This request is broken down as 
follows: Approximately $12.5 million for the Indian Land Consolidation 
in an effort to address the ever expanding problem of fractional 
interests in Indian lands. The land consolidation request is $7.5 
million more than the enacted fiscal year 2000 amount. Second, 
approximately $82.6 million is requested for the Office of Special 
Trustee to operate the various trust programs for Indians. This request 
for the Special Trustee is about a $7.4 million decrease below the 
fiscal year 2000 funding.
    Last year, Secretary Babbitt was forthright in identifying the 
Office of Special Trustee as his number one priority for 
appropriations. This Committee responded by providing the full amount 
of the request, which was a large increase over the previous year. We 
will have an opportunity to hear from the Secretary tomorrow, but I 
suspect that trust management reform will remain a top priority. I 
expect this Committee will continue to be responsive to this pressing 
need, but that will depend in large part on what you tell us here 
today. We are most interested to hear of what progress you are making.
    I have made a concerted effort to increase funding for the American 
Indians and Alaska Natives throughout my term as chairman of this 
subcommittee and will continue to do so. It is, of course, imperative 
that we ensure adequate education and safe communities for all 
Americans. In addition, it is certainly important that this country 
live up to its trust responsibilities to the American Indians and the 
Alaska Natives in a respectable and professional manner.
    As we proceed with this year's appropriations process, it will 
become increasingly necessary for us to work together in order to 
target the most crucial areas and to focus on the top priorities. I 
encourage both the Bureau and the Office of Special Trustee to offer 
insight throughout this process to ensure that we find ways to 
effectively and efficiently provide funding for the most critical 
areas.
    I thank you for your participation in this hearing today, and, I 
look forward to working with both of you throughout this appropriations 
cycle.

    Senator Gorton. Senator Byrd is not here this morning.
    Senator Campbell, do you have an opening statement?
    Senator Campbell. Mr. Chairman, I have no opening 
statement. I will just ask some questions.
    Senator Gorton. Senator Burns.
    Senator Burns. I have no statement. I am looking forward to 
the witnesses.
    Senator Gorton. Well, that is very kind for you to sit here 
and listen to speeches without making a statement at all.

                Summary Statement of Thomas M. Thompson

    And so with that, and under those circumstances, Mr. 
Thompson, we would like to hear from you.
    Mr. Thompson. Thank you, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to present the 
President's fiscal year 2001 budget for the Office of the 
Special Trustee.
    The sum of money we request, as the chairman pointed out, 
is about $95 million. Substantial amounts of this money are, of 
course, shared with the BIA and other line agencies in 
Interior. All the money is directed towards trust reform.
    The major differences in the budget are about a $7.4 
million reduction in OST's operations. These are nonrecurring 
or funds that have been shifted to BIA and are offset by about 
a $7.5 million increase for Indian Land Consolidation, 
basically a push in the budget. It reflects the fact that OST 
has concluded some of the work that we had promised you last 
year. I will talk about that briefly in a moment here.
    I would say also that in addition, the Office of the 
Special Trustee supports the critically needed request in BIA's 
budget, trust operations budget, for about $35 million, which 
are needed for additional staff and to institutionalize and 
maintain the trust improvements we have accomplished to date. 
This is basically a restoration or a reflection of the 
reductions suffered by BIA in past years in the field for these 
operations.
    Again, these requests reflect the continued emphasis the 
administration and the Secretary place on Indian trust reform. 
Let me highlight some of the accomplishments of the past year.
    In line with the commitment I made to you last year, OST 
has completed its installation of the new Trust Funds 
Accounting System. It is a modern, off-the-shelf, commercial 
accounting system used by about 60 percent of the banks that 
manage trust funds across the country.
    The system covers all trust accounts, both tribal and IIM, 
and also all the trust investment money. We have something on 
the order of about 270,000 accounts on that system now. All of 
them are transferred off the old legacy, the old system, now. 
That was step one in our effort to improve trust.
    In addition, as a complement to this, BIA has piloted its 
TAAMS system. This is the land management system that replaced 
two antiquated systems in BIA. They expect to begin deployment 
of this system this summer. And we will roll that out over the 
next year, year-and-a-half time frame. The two systems together 
will give us the foundation for trust reform into the future.
    In addition to this work, we have also had to do 
significant trust data cleanup both in OST and BIA. We have 
done substantial amounts of that work, and that work will 
continue. In the case of OST, we brought the records into a 
centralized location and set up file jackets for each 
individual account holder. We have a paper file now behind each 
of the account holders.
    We did note a significant shortage of paperwork. We are 
looking for that paperwork now. In BIA's case, they are using a 
contractor to go out to their field operations at about 9 of 
their 12 regional locations now doing data cleanup in 
preparation for the TAAMS implementation.
    We also this year initiated a major effort to improve 
records management across the Interior Department, establishing 
a specialized staff that supports both Mr. Gover and myself on 
records management in Albuquerque.
    It is being shepherded, I would say, closely by the court, 
who has an intense interest in our management of records. We do 
not have everything fixed yet, but we have a plan. And we have 
the staff to make that work over the next three years.
    In addition, BIA is well on its way to eliminating the 
appraisal backlog that we had discovered during the course of 
this cleanup and bringing that work on line.
    I guess lastly I would mention that the Department just in 
the last month published a revised High-Level Implementation 
Plan, which is our road map to the reform effort. In this 
effort, we have reviewed the work we have done.
    We have learned from the work in the past. We have improved 
upon this plan, making it more robust and increasing the number 
of milestones, critical milestones, that must be accomplished, 
laying them out in specific detail so they can be tracked both 
in staff, budget and accomplishment-wise.
    I would have to tell you that while much work has been 
done, there is still much work that remains to be done. One of 
the things that hit us this last year would be the amount of 
effort that the people involved in trust reform have had to 
spend with regard to the Cobell litigation.
    I can tell you myself personally, in the last three months 
probably 95 percent of my time has been involved with 
litigation activities, not directly on trust reform. That is a 
rough estimate, obviously.

                           PREPARED STATEMENT

    And one final note, as you are aware, Mr. Chairman, the 
President has nominated Mr. Thomas Slonaker as Special Trustee. 
The Senate confirmation hearing was held March 22. I 
particularly hope the Senate will move promptly to confirm him, 
so he can join us in this trust reform effort.
    Thank you, Mr. Chairman. I am pleased to answer any 
questions. And I will turn it over to Kevin to discuss some of 
the budget for BIA operations activities.
    [The statement follows:]

                Prepared Statement of Thomas M. Thompson

                              INTRODUCTION

    Good morning, Mr. Chairman and Members of the Subcommittee. I 
appreciate the opportunity to present the President's fiscal year 2001 
budget request for the Office of the Special Trustee for American 
Indians (OST). The total fiscal year 2001 request for the OST accounts 
is $95 million, about the same level as fiscal year 2000 enacted. This 
request includes an increase of $7.5 million for Indian Land 
Consolidation that is offset by a $7.4 million reduction in OST 
operations that are non-recurring or shifted to the Bureau of Indian 
Affairs (BIA). The combined OST and BIA budget requests reflect the 
continued emphasis the Administration and the Secretary place on 
implementation of Indian Trust Asset Reform efforts and the resources 
needed to sustain the operational and organizational improvements 
initiated in previous years. Improvements in systems, operations and 
policies are critically needed to ensure the Federal Government meets 
its fiduciary obligations to Indian tribes and individual American 
Indians. New systems linking the management of underlying trust assets 
and the financial accounts are expected to begin operations in late 
2000 to ensure that collections and payments are accurate.
    The BIA requests a $35.1 million increase for trust management 
functions, including real estate services, probate, cadastral surveys, 
and land titles and records programs. These increases are absolutely 
crucial to ensure that the trust management improvements we are 
implementing are institutionalized and maintained in the long term.
    Eliminating Indian trust management deficiencies continues to be 
the highest management priority for the Department. Secretary Babbitt 
has testified repeatedly to our commitment to resolve the decades-old 
trust fund management issues. This Committee provided significant help 
in solving this problem by fully funding our fiscal year 2000 budget 
request. As a result, the Department has been able to make progress in 
implementing much-needed reform efforts.

                INDIAN TRUST MANAGEMENT REFORM PROGRESS

    In line with the commitment we made to you last year, conversion of 
individual Indian accounts to the new Trust Fund Accounting System 
(TFAS) will be completed by May. Implementation of TFAS, suitable for 
both Tribal and IIM accounts, will be operational nationwide in all BIA 
and OST Regional locations by that date. The BIA has piloted the Trust 
Asset and Accounting Management System in one location and expects to 
begin deploying the land title functions of the system to other 
locations late this spring. Some additional accomplishments include:
  --Publishing a revision to the High Level Implementation Plan (HLIP), 
        which outlines progress made toward completing improvements in 
        trust management and lays out additional steps that must be 
        taken to reach the goals and objectives that we have 
        established. Significant headway has been made in establishing 
        new trust management and financial systems that will handle the 
        hundreds of thousands of records that are the foundation of a 
        reliable trust management program.
  --Significant data clean up activities have been completed in OST. 
        Similar efforts are underway in BIA. Both OST and BIA will 
        continue data clean-up in support of the new systems.
  --BIA is well on the way to eliminating appraisal backlogs this year.
  --Probate backlogs will be addressed through probate re-invention 
        efforts and additional staffing in both the BIA and the Office 
        of Hearings and Appeals (OHA).
  --Additional Records Management staff has been hired, records 
        management training is ongoing, and assessments of BIA records 
        storage locations will begin this year.
  --Additional staff is being hired to address internal control issues 
        and manage the overall training programs.
  --Joint efforts are also underway to address policies and procedures.
    It should be noted that Department-wide, staff who are responsible 
for these accomplishments continue to be heavily involved in providing 
support to the Cobell v Babbitt litigation, while also carrying on 
their day-to-day responsibilities. Many of the initiatives are 
supported or accomplished by contractors. We estimate that 
approximately 65 percent of the funds provided for trust management 
improvements will be obligated through contracts.

                    FISCAL YEAR 2001 BUDGET REQUEST

    The 2001 budget includes a comprehensive proposal to continue 
ongoing trust management improvements, institute permanent and lasting 
changes in trust management functions in BIA, and resolve land 
ownership fractionation, which is one of the root causes of trust 
management problems.
    For Program Operations, Support and Improvements, $80.4 million is 
requested, which includes $58.4 million needed for continued 
implementation of the trust management improvement activities of OST, 
BIA, and OHA. These funds will be used to operate the trust fund and 
trust asset and accounting management systems, address account data 
problems, and further reduce backlogs in trust asset processing 
functions. The Department has installed and is operating a Trust Funds 
Accounting System (TFAS), suitable for both Tribal and IIM accounts. 
The Department also is piloting and will begin installation of a 
standardized, commercial off-the-shelf land management system 
technology, referred to as Trust Asset and Accounting Management System 
(TAAMS), which will replace the aging BIA trust asset management 
systems and land title and records and minerals royalty systems.
    Another $19.6 million is required to support day-to-day financial 
trust activities at the Office of Trust Funds Management, including the 
field staff and support services. Included in the request is an 
additional $726,000 for increased staffing and support costs to sustain 
improvements in various trust operations activities within OST, 
$580,000 for Office-wide fixed costs such as pay raises and increased 
space costs paid to the General Services Administration, and $423,000 
for increases in other administrative support contract costs.
    A total of $2.5 million is requested to fund the Office of Trust 
Litigation Support, a net decrease of $2.7 million from fiscal year 
2000 due to a decrease in requirements for funding tribal settlement 
support activities and ongoing litigations efforts.

                          EXECUTIVE DIRECTION

    For Executive Direction, $2.2 million is requested, an increase of 
$496,000 above fiscal year 2000. The immediate Office of the Special 
Trustee will need additional staff to oversee and coordinate trust 
improvements Department-wide as the pace and scope of improvements 
accelerate. This request includes $250,000 for support of the 
InterTribal Monitoring Association and $85,000 for the Advisory Board. 
These groups advise the OST on trust funds matters.

                           LAND CONSOLIDATION

    Our fiscal year 2001 budget requests $12.5 million for the Indian 
Land Consolidation Program, an increase of $7.5 million above the 
fiscal year 2000 enacted level. We need to expand the pilot land 
acquisition program to consolidate fractional interests and support the 
reopening and acquisition of ``Youpee'' interests in allotted Indian 
lands. In 1999, BIA implemented a pilot program on three reservations 
in Wisconsin and by the end of 2000 will have acquired over 36,000 
fractional interests in allotted Indian lands. The 2001 request will 
allow us to acquire up to 40,000 additional fractional interests. 
Resolving land ownership fractionation is key to trust reform efforts. 
We are pleased that the Committee on Indian Affairs has approved S. 
1586, which will provide permanent authority for the Indian Land 
Consolidation Program. We hope the Senate will approve this bill soon.
    One final note Mr. Chairman, as you are aware, the President has 
nominated Mr. Thomas N. Slonaker to serve as Special Trustee for 
American Indians. The Committee on Indian Affairs held the confirmation 
hearing on his nomination on Wednesday, March 22, 2000 . We hope the 
Senate will confirm Mr. Slonaker quickly, so he can join the 
Departmental effort to address Indian trust management reform.
    This concludes my opening statement, Mr. Chairman. I will be 
pleased to answer questions of the Subcommittee.

                         TRUST FUND ACCOUNTING

    Senator Gorton. We have set this up so that we would ask 
questions of your office first and then go to the general BIA.
    And do either of my colleagues have questions for the 
Deputy? I have several, but I defer to you.
    Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman.
    Mr. Thompson, you mentioned, I think you said, 270,000 
accounts you have set up.
    Mr. Thompson. That is right. There are 270,000 accounts 
that are on the new trust funding accounting system, both 
tribal and----
    Senator Campbell. When you say set up those accounts, what 
does that entail? Do you have names, addresses, activities, 
actual money that has not been--or has occurred but has not 
been given to the tribes or----
    Mr. Thompson. Let me see if I can break it down a little 
bit for you. You are right. We do have a significant number of 
accounts where we have a name and we have a sum of money, but 
we do not have a current address on the individual. We have--
part of our data cleanup work is to go out and search for 
those.
    For example, we can go to Indian gatherings, to Indian 
meetings, to meetings of tribes, to pow-wows with a team from 
the OST office with the database on a computer and ask people 
to come and identify, self-identify. That has some success for 
us.
    The other thing that we are doing that is generating more 
success is working with information bureaus, a credit bureau, 
where we supply a name and a social security number. They are 
able to match and provide a current address on many of these 
individuals.
    Our success rate is on the order of 70 to 75 percent. So we 
are working towards locating those people who we do not have a 
current address on.

                           60 MINUTES SPECIAL

    Senator Campbell. OK. Did you see that 60 Minutes special 
that was on Sunday night about the trust fund mismanagement?
    Mr. Thompson. Yes, I did, Senator Campbell.
    Senator Campbell. I just happened to see it this morning. 
And I found it very interesting, but not anything particularly 
new on it.

                         NATIONAL ARCHIVES FIRE

    You talked about some of the methods that you are doing 
some of the research. I understand in March there was a fire at 
the National Archives, which reportedly destroyed some of the 
Indian trust documents.
    Mr. Thompson. Our information--actually, our information is 
that there was water damage to some of the boxes. I think this 
involved some 1,900 boxes of records that were being staged to 
be shipped to Albuquerque for processing and cleanup in 
response to the court's request. There was a fire in the local 
warehouse. Water damaged some of the boxes.
    But the review in the final report was that there was no 
damage that was not recoverable. While records got wet, we were 
able to dry and clean them.

                                 TAAMS

    Senator Campbell. Well, that is good. The GAO has told us 
that there are functions of TAAMS, the lease function and the 
title function, that they are being split and that only the 
title function will be implemented as part of TAAMS. Would you 
comment on that?
    Mr. Thompson. I would be happy to. I would point out that 
when we first made the plans for the work to improve the 
systems in BIA, I had recommended and conceived that we would 
do two systems, one a title function, one a land management 
function. The decision was made by the BIA, and the Department 
to combine that effort.
    In the development stages, that is exactly what they did. 
And it turns out to have been a pretty successful effort. What 
we have now is a title module within the TAAMS system that is 
ready to go. It involves about nine sites across BIA to deal 
with land title.
    The people are being trained. They are anxious to get their 
hands on the system, if you will. It is an easily severable 
action. And I support the move to run the title piece out first 
while we finish the work on the rest of the system and bring 
our two systems together.
    Senator Campbell. Well, I am glad you have employees 
looking forward to getting their hands on the system, because I 
know there are a lot of Indians out there that are looking 
forward to getting their hands on their money.
    Mr. Thompson. We share that.
    Senator Campbell. So I wish you luck and hope you have some 
speedy success in straightening out that mess.
    Thank you, Mr. Chairman.

                    CROW RESERVATION LEASE PAYMENTS

    Senator Gorton. Senator Burns, do you have any questions.
    Senator Burns. Thank you, Mr. Chairman. I have just a 
couple of questions.
    I know you have had all kinds of trouble with your 
computers and things like this. And I was going to suggest to 
you, for $47, buy a Quicken program and maybe start working on 
that.
    I have a specific question with regard to the Crow 
reservation. It has been required by BIA now that payments to 
leaseholders be made through the BIA rather than to the 
specific tribal members that hold those allotments. And in 
light of the situation, it is causing quite a lot of problems 
down there with both the tribal and non-tribal members who 
lease those from the lessee.
    Could you comment on that, where this issue stands, and why 
that has to be? This is a change in policy that has happened 
just this year.
    Mr. Thompson. May I confer with Mr. Gover just----
    Senator Burns. That will be fine.
    Mr. Gover. If I might, Mr. Chairman.
    Senator Burns, we have not yet made that change. We are 
considering making such a change and have begun to consult with 
the tribes. The issue applies not just to Crow but at a number 
of reservations where we have historically allowed what we call 
direct pay from the lessee to the Indian lessor.
    The problem with it is that the Trust Reform Act requires 
us to do an accounting of the income, the proceeds, from the 
land that these Indian people own. And we are struggling with 
how we can do an accounting when we never see that money. We do 
not know for a fact that the lease payments are being made.
    We are not anxious, frankly, to make the change, because 
the people on reservations have come to rely on that direct 
pay, both the Indian owners and the lessees. Nevertheless--and 
this is an issue that came up in the Cobell litigation--we are 
analyzing whether we must require them to make the payments to 
the BIA and allow us to forward them to OTFM, to pass it on to 
the Indian owners.
    So it is a dilemma and one that we have not resolved yet, 
that we are struggling with.
    Senator Burns. Do we need to change some legislation?
    Mr. Gover. Certainly if the Congress made clear that direct 
pay is authorized, then we would abide by that and allow the 
tribes the option. It is the old dilemma. The tribes want, and 
should have, more control of their property, less involvement 
by the Bureau of Indian Affairs. At the same time, the Congress 
has not yet released us from our responsibilities for the 
management of these assets.
    And so to the extent control is taken from the Bureau, 
there must be a corresponding adjustment in our responsibility 
for the resource.
    Senator Burns. Thank you very much. This situation has come 
up down there. And I thank you for your explanation. And maybe 
we should take a look at that, Mr. Chairman, because I guess it 
is not only just in the case of the Crow, but there are other 
situations, too.
    Thank you, Mr. Chairman.

                           COBELL LITIGATION

    Senator Gorton. I think I would like to follow up on--you 
made a reference, Mr. Gover, to the Cobell decision or 
litigation. Would both of you explain how it affects your 
priorities, your choices, the transfer of some responsibilities 
at Albuquerque, and when you expect them to be concluded, or 
whether there is legislation or anything on an appropriations 
bill that could help you resolve that issue? Just give us 
generally an explanation of how it has affected you.
    Mr. Gover. It has delayed matters, hopefully not by very 
much, but hopefully by weeks instead of months. But the fact 
that the judge chose to prevent us, I think out of an abundance 
of caution, from completing the transfer that we had underway 
and, more importantly, requiring us to take contractors out of 
the effort in order to protect the trust data, really has 
slowed us down. In the end, I do not think it will slow us down 
by much.
    The committee has already been very helpful to us in the 
appropriations bill last year by acknowledging what the NAPA 
report said and by providing funds, one of the purposes of 
which was to accomplish this transfer of function from 
Albuquerque to the District of Columbia
    So we continue to appear before the court. We are very 
hopeful that the judge will lift the injunction so that we can 
complete the transfer of the data. The people have already 
moved. The people who were going to move from Albuquerque to 
Reston have already made the move. But our systems and our data 
remain in Albuquerque. And so obviously, we are not through 
yet.
    Senator Gorton. Do you have any comment, Mr. Thompson?
    Mr. Thompson. Just a brief one. As Kevin said, it has been 
a matter of delay of weeks. We had a close call as we tried to 
get ready to do the conversion of the last three regions to the 
new trust fund accounting system. That is scheduled--it was set 
for the 31st of March.
    In early March, the temporary restraining order was 
extended to apply to us. And so we had to tell our contractors 
to back away. And it was touch and go as we got ready.
    But by working through the weekends and some extra hours, 
the Albuquerque staff was able to make the conversion. It just 
puts a lot of pressure on people. There is a lot of paper 
involved in litigation and finding----
    Senator Gorton. OK. If this continues and begins to 
significantly impact what you are doing, I hope you will keep 
in contact both with Senator Campbell and with me to see 
whether there is some of that red tape that we could help you 
cut, if we are still at it by the time we get to this 
appropriations bill.

                           CREDIT CARD MISUSE

    Senator Burns. Mr. Chairman, I have one other question here 
that was just brought to my attention.
    How widespread is this misuse of these credit cards for BIA 
employees? We know there have been 13 people in the Montana/
Wyoming region that have been disciplined, and one of them is 
under Federal indictment for misusing a credit card. How 
widespread is this?
    Mr. Gover. I am not familiar with a lot of misuse of the 
credit card. What we are having trouble with is making sure 
people pay their bills on time. And we have just instituted a 
system by which, if payments are not timely, we will begin 
taking the money out of their paychecks.
    And I cannot imagine exactly what leads someone to think it 
is okay not to pay their credit card bill, because they are 
being reimbursed by the Government for the appropriate uses of 
the card. But it seems to be a Department-wide problem and one 
that management is being very aggressive about remedying.
    Senator Burns. Well, these cards, are they held by the 
individual, as an individual account, rather than by the BIA?
    Mr. Gover. Yes, that is right. It is a little complicated. 
Each of us is issued a credit card. I have one in my pocket 
right now. We are supposed to use it only for Government 
purchases, most often for travel. But there are other purchases 
that are authorized. And we are encouraged to use the card 
because it produces a prompter payment to the vendors from whom 
we are purchasing office supplies, for example.
    One of the problems is that we never--the way the system 
works, certain aspects of the travel, airline fares and rental 
cards, are paid directly by the Department. And so that has 
created a problem in how we are processing the reimbursements 
and how people are paying on their cards. But there is a 
problem, and it is one that we will not tolerate from the 
employees.
    Senator Burns. Is there a credit check prior to the 
issuance of that card?
    Mr. Gover. Senator Burns, I do not know whether there is or 
not.
    Mr. Thompson. Senator Burns, I believe the individual card 
company does do a routine check. But if there is nothing in the 
file, then they will automatically or routinely issue it. And I 
would have to say OST discovered a similar problem to what 
Kevin mentioned.
    And when I found that out, I called for a very strict 
accounting. And we did take action on people who were not 
paying their bills. And it did result in disciplinary actions 
and some removals.
    Senator Burns. Mr. Chairman, that is--I think it is a 
situation----
    Senator Campbell. Do you have a way of recovering that 
money, if it was an unauthorized expenditure?
    Mr. Thompson. The first attempt we made was to garnish 
wages, retirement funds and things. We lacked that authority, 
we were told. We have had instances where people actually quit 
the position.
    Senator Campbell. Once they leave the Government, we cannot 
garnish their wages. While they remain with the Government, we 
can.
    Mr. Thompson. We actually cannot, is my understanding. We 
may not. We tried to do that.
    Senator Campbell. You cannot?
    Mr. Thompson. We changed the policy yesterday in order to 
be able to do that.
    Senator Campbell. That is not garnishing wages.
    Mr. Thompson. That is right.
    Senator Campbell. But if you leave the Government, you are 
out of luck, we are out of luck.
    Mr. Thompson. If they leave the Government, our option is 
to sue them to get it back.
    Senator Campbell. Have you done that? Have you initiated 
any lawsuits to do that?
    Mr. Thompson. Right. And we will also deduct it from their 
final paycheck. But remember, with these cards what they end up 
owing follows them out of the Government. They still owe that 
credit card company money. And the credit card company will 
pursue them.
    Mr. Gover. It is a personal debt, but it----
    Senator Burns. Does the credit card have any--let me ask 
another question now. That would be pretty tough to collect, if 
the credit card companies are put in the same position as any 
other financial institution off reservation.
    Mr. Gover. Well, Senator, you can collect that sort of 
debt. A debt incurred off of a reservation is subject to State 
court jurisdiction. And these debts in general are incurred off 
the reservations.
    Senator Burns. OK. But if they stay on reservation----
    Mr. Gover. Well, I suppose someone could stay on the 
reservation indefinitely, but that is really not a viable 
option. We all have to leave at some point.
    Senator Burns. All right. Well, I just wonder how 
widespread this is, because it is concerning. By the way, this 
story just came across the wires this morning.
    Mr. Gover. I was not aware of that. We have been aware of 
the problem, and we are----
    Senator Burns. It was just released this morning. And 13 
people in 1 region were in trouble. I just do not know how 
widespread this would be. But I think it warrants your 
attention.
    Mr. Gover. It has our attention. We discovered the problem, 
and we are very aggressively pursuing the employees who have 
not paid what they owe.
    Senator Burns. Thank you, Mr. Chairman.
    Senator Gorton. Senator Dorgan had a question on this.
    Senator Dorgan. Mr. Chairman, I was not aware of this. And 
I appreciate the actions you are taking. But it seems to me 
like it is not a good policy to issue a credit card.
    It sounds to me like this was a credit card sanction by the 
Government, that an employee can use for official purposes, 
such as airline ticket, hotel bill, car rental agency, and then 
also apply personal charges to that card. Is that right?
    Mr. Gover. That is not authorized.
    Senator Dorgan. It is not authorized. So----
    Mr. Gover. We may not use it for personal purposes.
    Senator Dorgan. I see. And so the discipline that you are 
taking against folks is not for charges that were personal. It 
was in the form of cash advances. Is that right? Tell me----
    Mr. Gover. It would be a combination of things, failure to 
pay promptly, cash----
    Senator Dorgan. But pay what promptly? My understanding is 
that if that employee charges the airline ticket, you pay the 
credit card directly from your agency.
    Mr. Gover. That is correct.
    Senator Dorgan. So what is left on the credit card?
    Mr. Gover. You will have per diem charges and personal 
charges, restaurant----
    Senator Dorgan. Personal charges.
    Mr. Gover. Excuse me. Restaurant charges, not personal for 
clothing, things like that, but items in the line of official 
business.
    The way they come to light, though, is that we will note 
that somebody is not paying on time, that we are getting 
monthly reports in each bureau of anyone who is delinquent in 
paying them. And then it is considered our responsibility to 
follow up.
    And what we are discovering is that from time to time there 
will be personal charges on these cards, and that can lead to 
discipline.
    Senator Dorgan. It sounds to me like not a good policy to 
have a card out there in the hands of folks who are using it 
for an airline ticket on the one hand, but then dinner 
somewhere on the other hand. And you reimburse directly for the 
airline ticket, not for the dinner.
    And then you have a circumstance where you have a debt owed 
on a credit card that was effectively authorized to be issued 
by the Federal Government to an employee. That is a messy 
policy, I think.
    Mr. Gover. It is good intentions gone awry, Senator. We try 
to give the employees the capability to ensure prompt payment. 
In the Government, for example, if I went and purchased a box 
of paper with my card, it would be quickly reimbursed. The 
vendor is paid.
    The problem is at the back end in making sure, one, it was 
a legitimate charge and, two, that the individual employee is 
reimbursed and promptly pays the credit card.
    Senator Dorgan. A fair point. I think you should review, 
however, the credit card program itself and evaluate is this a 
program that really makes sense.
    And second, I hope you would provide for the committee your 
list with specifics of the enforcement actions you have taken, 
how many, where, when, how and so on. I think that would be 
helpful to us.
    Mr. Gover. I would be happy to.
    Senator Campbell. May I add to that, Mr. Chairman, in that 
report to the committee I would like to know how many people 
have cards over there, if you would add that, too.

                           FUNDING PRIORITIES

    Senator Gorton. Mr. Thompson, before we finish up with you, 
do you recognize, as I said to Mr. Gover in my opening remarks, 
it is highly questionable that we will have enough money to 
appropriate everything that the President has asked, which is 
going to require you and your successor, I guess, to help us 
with priorities.
    I have a related question to that. How close are your 
priorities to those of your constituents of a wide number of 
unique Indian tribes, each of which may have its own set of 
priorities? How closely allied are you in the direction that 
you wish to go and the order in which you wish to accomplish 
your goals?
    Mr. Thompson. I think we are pretty comfortable at this 
point. We have in the Office of Special Trustee an advisory 
committee to the Special Trustee. It is a group of nine, 
including five tribal leaders.
    Today that group includes the chairman of NCAI, the major 
litigant in the Cobell litigation, Eloise Cobell, and the 
chairman of the Intertribal Monitoring Association, which is 
the main tribal group of about 40 tribes, who have stayed with 
this issue over the last 10 years. And we are in practically 
daily contact with them. Kevin and I have both met with them 
frequently the last few months.
    So we are hearing from them. They are telling us what they 
want. And I think we are probably closer today than we have 
been in years in terms of where we are headed.
    Senator Gorton. Last year both the Bureau and the Secretary 
made it very clear that the highest priority was adequate 
funding for trust reform efforts. In light of the change in the 
President's budget this year, does it remain the highest 
priority?
    Mr. Thompson. Every indication I have is it is the highest 
priority. It certainly is for me and I suspect for my new boss 
coming in. I think I will let Kevin answer for his side.
    Mr. Gover. And for the Bureau of Indian Affairs as well.
    Senator Gorton. OK. Senator Dorgan, you did come in later. 
What we are attempting to do is finish any questions for the 
Special Trustee. His statement has already been made. We have 
not had the opening statement by Mr. Gover yet. When we finish 
with the Special Trustee, we are going to Mr. Gover.
    Do you have any more questions for the Trustee?
    Senator Dorgan. Mr. Chairman, I do not. And I have another 
committee hearing. I wonder if I could just take 1 minute 
before we recognize Mr. Gover.
    Senator Gorton. You certainly can. Yes. Go ahead. This is 
an appropriate time for it.

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. All right. Well, Mr. Chairman, let me thank 
you again for holding the hearing. This is very important, as I 
have indicated to Mr. Gover previously, that we deal with here 
in Congress and in the administration with what I think is a 
bona fide emergency in health care, housing and education on 
America's Indian reservations.
    I am not going to go through chapter and verse again of all 
the numbers and talk about the schools and the health care 
facilities and the housing circumstances, but I have done it on 
the floor of the Senate many times. I could do it here easily 
and talk about Sarah Swift Hawk freezing to death in a home 
that did not have windows at 45 below zero or so on the Pine 
Ridge Reservation, and the little kids that are walking through 
school doors on Indian reservations that are not getting a good 
education because their schools are in dramatic disrepair.
    And there are only two school systems, Mr. Chairman, that 
we run in the Federal Government. One is our military bases. 
That is our responsibility. Those are our schools. We run them. 
And the second is the BIA school systems for young Indian 
children.
    And I am telling you, you go into many of these schools, 
the Ojibwa school in North Dakota, right now, go into that 
school right now, and you will come away thinking you are 
embarrassed to have children go through those classroom doors. 
That school needs renovation and new investment. And we need to 
do it. It is our responsibility. It is unfair to those kids not 
to do that.
    Now, I have taken more than a minute, but I would say the 
President's budget takes a step in that direction. We 
appreciate that. But we need to take great leaps as a Congress 
and as an administration to recognize our responsibility in the 
crisis in these three areas: health care, education and 
housing. And they are in deep crisis.
    I will be speaking more about these with Assistant 
Secretary Gover and others and also speaking on the floor and 
talking to you, of course, Mr. Chairman, and also talking to 
the chairman of the Indian Affairs Committee, Senator Campbell.

                           PREPARED STATEMENT

    That is enough for now. And I would like to put my entire 
statement in the record. And thank you.
    Senator Gorton. Without objection.
    [The statement follows:]

             Prepared Statement of Senator Byron L. Dorgan

    Mr. Chairman, as we stand at the brink of the 21st century, there 
are both tremendous challenges and tremendous opportunities facing 
Indian country. As you know all too well, Indian country is generally 
not benefitting from the robust economy that is helping most Americans. 
However, in 1999, we took a number of important steps to drive this 
point home, and hopefully reverse that trend. In May of last year, 
tribal leaders met at my request with President Clinton and a number of 
high-ranking Clinton Administration officials to discuss the desperate 
housing, education, and health care needs still facing Native 
Americans. In July, President Clinton became the first sitting 
president since Franklin Delano Roosevelt to visit an Indian 
reservation, when he traveled to the Pine Ridge Reservation in South 
Dakota to see firsthand the great unmet needs that exist in Indian 
country. The President recognized the need for more assistance for 
Native Americans in his annual State of the Union address.
    The President's 2001 Budget is a positive step forward. President 
Clinton's budget request for fiscal year 2001 takes a positive step 
forward in addressing the needs in Indian country that he has seen and 
heard about firsthand. I am particularly pleased about that the 
President recommends $300 million for BIA school replacement and 
repair, $1.3 billion in new funding for an emergency school renovation 
loan and grant program for public schools with little or no capacity to 
bond, a $200 million increase in the Indian Health Service budget and a 
$103 million increase in the joint Department of Justice-BIA law 
enforcement initiative.
    But in terms of the need in Indian country, the President's budget 
request still represents only a ``drop in the bucket'' relative to the 
actual housing, health care, and education needs.
    With respect to housing needs, we shouldn't allow another tragedy 
like that of Sarah Swift Hawk, who died last year on a reservation in 
South Dakota because she was living in substandard housing, sleeping on 
the only cot, without any heat and temperatures 45 degrees below zero, 
and only a thin blanket to warm her. In Indian country, 50,000 new 
homes need to be built, 16,000 homes need to be replaced, and another 
40,000 homes need to be renovated in order to meet the housing needs of 
American Indians living on reservations. 40 percent of the homes in 
Indian country are considered substandard. Homes in Indian country are 
7 times more likely to be without clean water than homes generally in 
the United States.
    Indian health is in a similarly dismal situation. Native Americans 
are still 5.3 times more likely to die of tuberculosis, 4.4 times more 
likely to die of chronic liver disease and cirrhosis, 3.3 times more 
likely to die of diabetes, 3 times more likely to die in an accident, 
and nearly twice as likely to commit suicide. The IHS ``hospital'' in 
Fort Yates, ND, is in desperate need of replacement. The Emergency Room 
is literally just that--a room in the middle of the outpatient clinic 
area. When an emergency does occur, the clinic has to stop seeing the 
routine patients in order to have room to take care of the emergency. 
There are no operating rooms (so therefore no baby deliveries), no 
physical therapists, not enough examining rooms, one dentist serving 
4,000 people, and patient bathing facilities that aren't handicapped 
accessible. The average age of IHS facilities is 32 years.
    Sadly, Indian education is also in terrible condition. Schools 
serving Indian children--whether they are BIA-funded schools or public 
schools--have facilities that are among the poorest in the nation. The 
General Accounting Office reported in 1998 that 62 percent of BIA 
schools need extensive repair or replacement and are generally in 
poorer physical condition than even inner-city schools. Not 
surprisingly, the deficiency in facilities carries over into 
deficiencies in student performance. The annual drop-out rate for 
students attending BIA schools is nearly three times the national 
average, and more than half of all BIA students are not proficient in 
math or language arts. The simple fact is that children cannot learn 
when they are worrying about PCBs, rather than their ABCs. The BIA 
school system is one of only two federally-operated school systems. I 
recently asked the General Accounting Office to conduct a study 
comparing the physical facilities and academic quality of BIA and DOD 
schools. Chairman Gorton, Ranking Member Byrd, Indian Affairs Committee 
Chairman Campbell, and Vice Chairman Inouye joined me in making this 
request.
    Even with the funding increases requested by the President, there 
would continue to be great needs in Indian country. A nearly $700 
million backlog in the repair of BIA schools would remain, meaning that 
thousands of Indian children every day continue to attend classes in an 
environment not conducive to learning. Tribal governments estimate that 
an IHS budget of $15.1 billion--or more than 5 times greater than the 
President's budget request for 2001--is required to meet the health 
care needs of Native Americans and Alaska Natives. In addition, $435 
million in funding is necessary to repair or replace existing 
dilapidated homes in Indian country, and another $985 million is needed 
to address the housing shortage. Even though the President's budget 
recommends a $46 million increase, there is still only a total of $682 
million for both of these purposes.
    I want to conclude by simply stating that funding for Indian 
programs has not kept pace with overall growth in the budget, even 
though Native Americans are among the most vulnerable populations. The 
people in Indian country have the highest poverty rate in America--31 
percent. The unemployment rate on North Dakota's reservations averages 
about 55 percent, compared to a national unemployment rate of about 4 
percent. Over the last decade, funding for Indian education, health, 
and housing programs has grown only slightly, or even declined, when 
inflation is taken into account.
    We simply must reverse these trends in underfunding of Indian 
programs, and the President's budget request for fiscal year 2001 is a 
good place to start. In an 1815 speech, chiefs and warriors of the 
Ottowan and Chippewa tribes spoke eloquently of broken promises made to 
tribal governments: ``The promise you made to our forefathers was that 
we should never be in want of anything, that you had plenty and that we 
should always be supplied of our wants. . . . Your children want to 
refresh your memory. They think you have forgotten the promises made to 
them.'' I will be working on this Subcommittee to turn these good words 
into promises made good.

                 Summary Statement of Hon. Kevin Gover

    Senator Gorton. Mr. Gover, we will now hear from you.
    Mr. Gover. Good morning, Mr. Chairman.
    Senator Gorton. And we will have--if there are other 
questions, we will submit them to you in writing, Mr. Thompson.
    Mr. Thompson. Would you like me to retire?
    Senator Gorton. That is OK.
    Mr. Gover. Mr. Chairman, first of all, let me especially 
thank the committee and the Chair for your assistance in the 
fiscal year 2000 appropriations.
    We know very well that at the end of the Congress this 
committee and the Chair was very helpful to us in meeting some 
of the urgent priorities that we described last year.
    And I should point out that this is quite likely my last 
appearance before this committee and just want to acknowledge 
the work of the Chair and that these agencies, these bureaus 
that we work with, are very complex entities. And in order to 
make progress in them, it requires a lot of people to agree, 
most importantly, the people who work in the bureau, but also 
the appropriating and authorizing committees.
    And to the extent we make progress in the Bureau of Indian 
Affairs, that is at least as much to the credit of this 
committee and our authorizing committee as it is to those of us 
who work in the agency.
    The second preliminary matter I would like to note is, I 
have with me Mr. Joe Christie, who is the Acting Director of 
the Office of Indian Education Programs, and Deputy 
Commissioner Hilda Manuel. As it happens, Mr. Chairman, this 
will also be their last appearance before this committee in 
their current capacities.
    Mr. Christie has been acting for, I guess, over a year now 
as the Director of the Office of Indian Education Programs and 
has been very aggressive in pursuing reforms and in that branch 
of our organization, requiring accountability both from the BIA 
schools, the schools that we still operate, as well as the 
grant and contract schools, which tribal school boards operate. 
And we are very grateful for his work.
    He will soon be replaced by a permanent Director of the 
Office of Indian Education Programs. And I just want to 
acknowledge his efforts publicly and for the committee.
    And second, Deputy Commissioner Hilda Manuel will be 
leaving Government service at the end of this week. She has 
chosen to pursue opportunities in the private sector. We are 
very, very grateful for Hilda's work over the last five years. 
These have been very difficult times, very challenging times, 
in the Bureau of Indian Affairs, a time when we have gone 
through great changes in trying to at long last get this agency 
doing the things that it is supposed to do as well as possible.
    And none of this progress would have been possible without 
Deputy Commissioner Manuel. And I know we will miss her very 
much. And again, we thank her for her service.
    Mr. Chairman, to respond to your earlier question, trust 
services has to be our top responsibility and our top priority. 
The Bureau is a victim over the years of shifting priorities. 
One year we will focus on one issue. Before we quite finish 
that job, we will turn to another critical situation. And many 
of our programs are in a critical state at this moment.
    And yet, if we do not finish the work that we have begun on 
the trust responsibility and our trust services, it will just 
reoccur in a very short time and expose the government to even 
more liability than it currently faces.
    So in addition to the reform resources that we need in the 
Office of the Special Trustee, we also need just a basic 
expansion in the BIA's capabilities at the reservation level to 
provide these services. What we are finding, as we go forward 
and do the data cleanups and try to install TAAMS and carry out 
the various other programs, probate and appraisals, et cetera, 
is that even if we throw a large amount of money at the problem 
right now and clean up the backlogs, those backlogs absolutely 
will recur in a few years, if we do not expand our basic 
capabilities at the reservation level.
    Now, again, we are confronted with a dilemma in policy 
Congress has made and the administration has supported. The 
trust service programs on the reservations have fallen into 
disrepair in no small part because of the priority setting that 
we have engaged in with the tribes. And the tribes view this 
correctly as our responsibility.
    And when they are allocating resources, they are basically 
saying trust is your problem, you take care of it, we have 
other problems to deal with, and we are going to take care of 
them in our priority setting.
    And what routinely happens is, we see a migration of 
resources from some of the basic programs that the United 
States has, such as trust, law enforcement, and into the other 
social service programs to meet dire problems that the tribes 
themselves are confronting. And so that, as much as anything, 
is the reason that we are so shorthanded at the reservation 
level in these trust programs.
    And so we are asking the committee and the Congress this 
year for an additional $35 million to go into our basic realty 
functions, our basic probate functions, and our appraisal 
functions, simply in order to meet the ongoing demand that we 
anticipate over the next few years in our day-to-day service 
programs on the reservations.
    The second matter where we focused, as the Chair noted, is 
in school construction. And I will not again recite the 
terrible conditions that exist in our BIA schools, except to 
thank the committee, thank Senator Campbell and Senator 
Domenici especially, for bringing this issue forward and 
basically continuing to push the administration until finally 
we respond with a budget that I think begins to deal with this 
issue.
    If we were to receive the funding that we have asked for 
this year, it would basically double the number of schools we 
can build in a given year. Each of those schools that are on 
the existing list are in abysmal condition. There can be no 
question in anybody's mind that they must be replaced. 
Unfortunately, there are probably another 55 to 60 schools that 
are either in the same condition or very soon will be.
    Our facilities tend to be over 30 years old. The average 
life, the planned life, of any school facility is about 30 
years. We have schools--45 percent of our schools are over 30 
years old, some as much as literally 100 years old. And they 
just have to be replaced.
    And so for that reason, the President has come forward with 
a very aggressive budget, both for new construction and for 
major renovations that have to be carried out in order just to 
meet the basic safety requirements to make sure, or try to make 
sure, that the children are not injured in our schools.
    The third item we wish to especially bring to the 
committee's attention is law enforcement. We have made great 
progress in the last 2 years in expanding our law enforcement 
program. This is year 3 of the President's 4-year plan to 
expand law enforcement services on the reservation. This, too, 
is a primary responsibility of the United States in Indian 
country, to provide adequate law enforcement services.
    And this year we have asked for an additional $18.8 
million. That would result in a 100-percent increase over the 
last 3 years to our law enforcement budget, and that is exactly 
in the order that is necessary to provide even adequate 
coverage on the reservations.
    Unfortunately in the past year, again, two of our officers 
were killed, one violently. And in both cases, we had no 
backup. They were alone. They were in a very remote part of 
their community. And we were unable to render the assistance 
that might have saved their lives.
    The fourth item and the final item I would like to 
especially mention to the committee is the implementation of 
the National Academy of Public Administration report. We have 
made good progress so far. We have transferred both our 
Division of Accounting Management and the Office of Information 
Resources Management from Albuquerque to the District of 
Columbia area. That transfer has now been made of the 
personnel. They are here and they are on duty.
    In addition, we have just now received from the Secretary 
permission to go forward with the reorganization of my office. 
One of the things that NAPA pointed out was that, frankly, I 
had resisted in the first 2 years of this administration was 
the notion that what we essentially have in BIA is two separate 
agencies. We have the education side and we have the Office of 
Indian Program's side.
    The only logical supervision and oversight of those two 
operations is in the Office of the Assistant Secretary. And it 
only makes sense to provide the resources, the authority and 
the responsibility to each line organization separately 
overseen from the Office of the Assistant Secretary. And for 
that reason, NAPA recommended, and we are pursuing, 
establishment of an Office of Policy, Management and Budget in 
the Assistant Secretary's Office to provide four major 
functions. One, to oversee all of our financial undertakings. 
We would appoint a Chief Financial Officer, and that person 
would be responsible for overseeing the financial activities of 
the two line organizations.
    Second, we would appoint a Chief Information Officer. The 
Bureau does not make adequate use of technology. We have no 
integrated plan for how to use technology in our operations. 
And it simply has to cease. That is where we can realize some 
savings, if we can begin to use technology appropriately.
    We literally have people in the field who are still 
operating on old systems that require the use of control keys, 
as opposed to the point and click with the mouse, that are not 
operating in a windows environment. That is how old our 
technology systems are.
    The third function would be a human resources function. We 
currently have no plan, no program, for moving people forward 
on a career path. We have no way of identifying talent in the 
organization, except by happenstance, and no plan for 
developing the kind of skills that are going to be necessary in 
a 21st century workforce. And the human resources office would 
deal with that.
    And then finally, near and dear to my heart, we would have 
a policy and planning operation. The committee and the Congress 
regularly ask us for information, asking us to analyze the 
effect of our programs, analyze the effect of various policies 
that have been enacted and implemented. And we are unable to do 
so. We have no staff that does that.
    Instead we have to fall back on our program directors, take 
them off their business of running their programs, and get them 
to basically take on the additional duty of policy analysis.
    And I think if we had a staff that was dedicated to the 
kind of policy analysis that the committee regularly asks us 
for, we would do a much better job of providing the kinds of 
information that the Congress needs to prioritize our budget, 
to oversee our activities, and to grant us, both grant and take 
away, such authorities as seem appropriate.
    So, Mr. Chairman, we realize that this is a very aggressive 
request. We are grateful to the administration that they have 
come to share our view of the needs that exist in Indian 
country. I would just emphasize that the watchword on the 
proposals we make is really responsibility and accountability.
    We are not looking for additional funds in areas as to 
which there is controversy about the additional need. We are 
focusing on the Bureau's primary responsibilities, which are 
education, law enforcement and trust services, and asking only 
for major additional funds in those areas.
    The chairman asked a little earlier whether this coincides 
with the tribal priorities, certainly the tribes wish to see 
the trust system reformed. But I do think from our review of 
the budget submissions that the tribes present us annually in 
the development of our budget, that they would not necessarily 
share these particular priorities. That is to be expected.
    They have a different view of the world living in those 
local communities and have to deal much more directly with the 
urgency of the situation than do we.
    Nevertheless, I do think that over the years the primary 
responsibilities of the United States have tended to be 
overlooked in favor of some of these urgent social needs that 
exist on the reservation. And it has become more and more clear 
to me that if the Bureau cannot carry out its primary 
responsibilities, then its overall mission necessarily fails.

                           PREPARED STATEMENT

    And each additional dollar does less good than it could, if 
we did the basic things correctly, and then came back to the 
Congress and said, now that we have our agency functioning in 
an appropriate way in our basic responsibilities, we would like 
to talk to you about taking on some additional 
responsibilities.
    So, Mr. Chairman, that is my testimony. I thank you for 
your time.
    [The statement follows:]

                   Prepared Statement of Kevin Gover

                              INTRODUCTION

    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Kevin Gover, Assistant Secretary for Indian Affairs at the Department 
of the Interior. It is my pleasure to be here today to present the 
President's fiscal year 2001 budget request for the Bureau of Indian 
Affairs (BIA).
    The President's budget for fiscal year 2001 is a component of the 
overall Administration initiative to infuse an additional $1.2 billion 
into Indian Country to respond to the overwhelming needs of the First 
Americans. The Administration's Native American Initiative will provide 
$9.4 billion to strengthen Indian communities through improved health, 
education, housing, economic development, and other programs in more 
than 45 Federal entities.
    To respond to these needs, the BIA is proposing a substantial 
increase that, if passed, will allow us to replace six crumbling 
schools on reservations, provide programs to help reservation residents 
stay safe and strong, and find ways to use the resources of the Federal 
Government to create jobs and opportunities on the reservations.

                    FISCAL YEAR 2001 BUDGET OVERVIEW

    The fiscal year 2001 budget request for the BIA is $2.2 billion in 
current appropriations, an increase of $332 million above the fiscal 
year 2000 enacted level. The budget emphasizes the need to strengthen 
our schools through quality education within structurally sound and 
adequately equipped and maintained school facilities, protect our 
communities through increased law enforcement personnel on 
reservations, and continue trust reform improvements.

                               EDUCATION

    On January 31, 2000, the BIA released the Education Facilities 
Replacement Construction Priority List, which replaces the 1993 
Priority List. The new list is comprised of three schools from the old 
List, which have yet to receive funds for construction, and 10 new 
schools. The first six schools from the List are included within the 
BIA's $300.5 million request for Education Construction, the largest 
amount ever requested for this category. The request is $167.3 million 
over the 2000 funding level, an increase of 126 percent.
    While most educational facilities are built to function for 30 
years, over 45 percent of these buildings range from 30 years old to 
100 years old. The budget request provides for increased construction, 
equipment and rehabilitation of school facilities for more than 50,000 
Indian students who attend the BIA's 185 schools. Schools may be 
operated directly by the BIA or by Tribal organizations under the 
Public Law 100-297 grants.
    Research has demonstrated that placing instructional and 
residential programs in facilities that do not meet health and safety 
codes distract from the educational program. The cost estimate of the 
BIA's backlog work needed to abate critical deferred maintenance 
deficiencies in education facilities currently exceeds $800 million. To 
respond to these needs, the BIA's request includes an increase of 
$103.4 million over the 2000 enacted level to address critical health 
and safety concerns at existing education facilities. This request will 
fund both maintenance and improvement and repair projects which will 
reduce the deferred maintenance backlog while improving the physical 
environment for learning.
    To attain a good education, the Indian leaders of tomorrow have to 
have the ability to get to school. Many Indian Country roads are badly 
in need of repair and in a state of deterioration. The budget request 
includes an increase of $5.3 million for Road Maintenance. This 
increase will help with student transportation as well as improve 
access for emergency vehicles.
    The 185 schools funded by the BIA comprise one of only two school 
systems managed by the Federal Government; the other school system is 
managed by the Department of Defense. BIA schools are located in remote 
locations across the nation in buildings which are deteriorating around 
students. For the classroom, the BIA is seeking an additional $39.7 
million for School Operations, $2.9 million for Tribally Controlled 
Community Colleges, and $2.2 million for Scholarships.
    The BIA is focusing on providing programs which make a difference 
in a student's life. An increase of $6.8 million is requested to double 
the number of FACE (Family and Child Education) programs from 22 to 44 
sites. This invaluable program benefits both students and their 
families. The FACE program is a family literacy program that serves 
families and their children from birth through grade 3 and is 
culturally relevant for the communities it serves. The evaluation of 
the program demonstrates that students who participate in FACE score 
significantly higher on standardized tests of reading and mathematics 
than children who do not participate in the program. Over 350 adults 
have gained their GED or high school diploma and over 1,000 adults have 
gained employment as a result of their participation. Parents indicate 
that participation in FACE has helped them to become more involved in 
their child's education, a strong indicator for a child's success in 
school.
    The BIA is also seeking an additional $8.2 million to implement the 
Therapeutic Residential Model (TRM) at 6 pilot sites. The TRM is a 
program to address the multitude of individualized services for high 
risk students attending BIA-funded boarding schools. Over 10,000 
students attend BIA boarding schools. They are the highest risk 
students due to economic conditions and home environments. The BIA is 
not adequately staffed to meet their needs. The request will allow the 
BIA to establish the 6 pilot programs which will result in positive 
changes in attitudes, behavior and academic performance of Indian youth 
attending BIA-funded boarding schools.
    The request also includes $3.0 million for the School Statistics 
Initiative. This program will allow the Bureau to gather important data 
on its schools in order to improve the quality of education. Also, it 
will make it possible for the Bureau to report to the Congress on such 
important indicators as student achievement, retention rates, transfers 
between schools, and student drop out rates. Finally, it will make it 
possible to automate the Indian School Equalization Program (ISEP) 
which will ensure schools quicker access to their funds and greater 
accountability of student funding data.

                            LAW ENFORCEMENT

    The fiscal year 2001 budget request seeks an increase of $18.9 
million for law enforcement in Indian Country. Crime, specifically 
violent crime involving young people, continues to rise significantly 
in Indian Country. The funding increases for law enforcement over the 
past two fiscal years for the Presidential Initiative on Law 
Enforcement in Indian Country have begun to address the tremendous 
Indian Country crime problem.
    There has been a positive effect over the past two years with the 
increased law enforcement funding the Congress has provided for the 
Initiative. Community and proactive policing has been instituted and 
officers now have modern weapons and state of the art bullet proof 
vests. Many old police vehicles with over 100,000 miles have been 
replaced and the Indian Police Academy training capability has doubled. 
There has definitely been progress. To continue these steps forward, 
the BIA's requested increase of $18.9 million will be used to assist 
Tribes in retaining COPS-funded police officers, staff detention 
facilities, provide 24-hour radio dispatch service, and improve two- 
way radio communications through conversion to narrow band technology.
    As BIA's partner in the Initiative, DOJ has provided grants funds 
to Tribes for the construction of critically needed detention 
facilities. Realizing that DOJ has no mechanism to staff these 
facilities, the BIA has agreed to request staffing dollars for these 
new jails. The need for detention space has increased dramatically with 
the additional police officers on the streets which naturally means 
more incarcerations. This in turn necessitates more detention 
personnel.

                           TRUST IMPROVEMENTS

    A total increase of $35.1 million is requested for trust management 
improvement reforms in the BIA. Efforts underway are a continuation of 
the joint effort between the BIA and the Office of Special Trustee 
(OST) on implementation of the Secretary's High Level Implementation 
Plan (HLIP) for the Trust Management Improvement Project (TMIP). In 
fiscal year 2001, the BIA will continue to work with the OST and the 
Department to improve the administration and management of its trust 
responsibilities. Funding for the BIA's HLIP sub projects is requested 
under OST. The HLIP is centered on 11 major sub projects that will 
update trust systems, policies, practices, and procedures and make one-
time investments to reduce backlogs. As part of the overall effort to 
remedy the fundamental cause to Indian trust management, an increase of 
$7.5 million is requested under OST to expand the Indian Land 
Consolidation program.
    To ensure trust management reforms are sustained, the BIA's 
requested increase includes program funding increases for several trust 
programs. These additional resources are critical to ensuring that 
accumulated trust management problems being corrected under HLIP do not 
reoccur. The BIA's budget request includes a $12 million increase for 
on-going real estate services to improve real property management 
services and ensure timely processing of transactions (i.e., sales, 
acquisitions, rights of way). To assist in protecting trust resources, 
an increase of $5.3 million is proposed to perform cadastral surveys. 
Additional increases include: $2.2 million increase for real estate 
appraisals to ensure compliance with appraisal standards and timely 
completion of appraisals; a $3.0 million increase for Probate to 
provide sufficient staff for probate functions; and an increase of $4.8 
million for the Land Titles and Records Office to ensure land records 
are kept current. For general trust services, a $4.0 million program 
increase is requested to provide technical support to Tribes and ensure 
compliance with complex environmental and cultural resource 
requirements. An increase of $2.0 million is also requested to expedite 
the processing of Alaska allotments.

                          OTHER TRIBAL SUPPORT

    The request also includes an increase of $3.5 million for Contract 
Support to bring the total funding level to $128.7 million. This 
increase will allow the BIA to meet approximately 88 percent of the 
reported need. The BIA is also seeking to replenish the Indian Self 
Determination Fund ($5.0 million) for new and expanded contracts or 
compacts.
    As part of the Administration's New Market initiative, the BIA is 
seeking $2.0 million for Technical Assistance Grants to provide in-
depth technical assistance to Tribes and individual Indians to 
establish, acquire, or expand for-profit businesses on or near 
Federally recognized Indian reservations. This assistance would include 
market feasibility studies, development of business plans, best use 
yield studies and management contracts. Tribes and Indian entrepreneurs 
will be provided technical assistance at an average cost of $15,000 
each. Implementing this program will allow the BIA to assist 113 Indian 
businesses succeed in Indian communities.
    As part of a multi-agency, cross-cutting effort to implement a 
recent court-ordered Federal subsistence fishery program to bring 
Alaska into compliance with the Alaska National Interest Lands 
Conservation Act, the BIA is requesting $500,000 for Alaska 
Subsistence. In response to a recent Ninth Circuit Court ruling, the 
Federal Government must now assume management responsibility for 
subsistence fisheries in all navigable waters on and adjacent to 
Federal conservation units in Alaska. The BIA's role will focus on 
ensuring that input from Native entities is received and considered by 
the National Park Service, U.S. Forest Service, U.S. Fish and Wildlife 
Service, and Bureau of Land Management in establishing fishing seasons 
and regulations covering approximately 102,000 miles of rivers and 
streams and about half of Alaska's inland waters. Support would be 
provided to the Bureau's Alaska Region and to the State of Alaska. 
Input from Tribal governments would occur through a bottom-up process 
and network.

                                  NAPA

    To continue the implementation of the recommendations of the 
National Academy of Public Administration (NAPA), the BIA requests an 
additional $4 million in fiscal year 2001 to bring the total available 
funds for NAPA implementation to $9.2 million. The $5.2 million 
appropriation provided by the Congress for fiscal year 2000 is being 
used by the BIA to meet initial implementation expenses, including the 
relocation of the Division of Accounting Management and the Office of 
Information Resource Management to the Washington, D.C., metropolitan 
area. While this transfer is not complete, the BIA estimates the 
relocation costs may total $3.8 million for the one-time expenses of 
moving personnel household and office files from Albuquerque, N.M., and 
establishing new office operations in the Washington area. Last month, 
Plaintiffs in the Cobell v. Babbitt litigation brought, and the 
District Court entered, a temporary restraining order (TRO) to bar 
contractor access to confidential individual Indian trust data related 
to the relocation of the Office of Information Resource Management 
(OIRM). As a result of the TRO, the workplan to relocate OIRM has been 
interrupted and operations of OIRM systems have been curtailed until 
the BIA is allowed to permit contractors access to the data.
    In addition to transferring functions, it is my priority to use the 
remaining fiscal year 2000 funds to establish the recommended Policy, 
Management, and Budget (PMB) Office, and fill the key positions of the 
Deputy Assistant Secretary for PMB, the Chief Financial Officer, the 
Chief Information Officer, the Director of Policy and Planning, and the 
Chief, Human Resources. Once these positions have been filled, these 
senior managers will begin planning and developing internal procedures 
and long-term plans for their respective areas.
    The President's fiscal year 2001 budget requests of $9.2 million to 
fully staff the PMB offices and begin funding improved field operations 
since the one-time relocation costs will be met in fiscal year 2000. We 
are estimating that when the workload analysis is completed that this 
level of funding will be sufficient to fully fund the centralized 
portion of education operations administrative support, partially fund 
the education administration in field offices, and allow full funding 
of administrative support to the law enforcement field organization. 
Funding will also be used to begin placing additional finance, property 
and procurement specialists through the field structure of the non- 
education offices at the Regional and Agency levels.
    While actions on the NAPA recommendations will improve BIA's 
administrative management, I believe that the process of implementation 
should not be done hastily. I want the senior managers who will be 
responsible for the final implementation of the NAPA recommendations to 
be fully involved in all decisions on staffing levels and selection of 
personnel. However, NAPA staff will continue to evaluate workforce 
needs in terms of the number and kind of positions that will make BIA 
most efficient while I search for key staff.
    We will continue to keep the Committee apprised of the NAPA 
implementation efforts and to implement the changes.

                               CONCLUSION

    This concludes my remarks about the BIA budget request for fiscal 
year 2001. I am attaching to my testimony a portion of the Overview 
from the BIA's budget justification which provides a more complete 
breakdown of budget categories. I will be happy to answer any 
questions.

                               Attachment

                      TRIBAL PRIORITY ALLOCATIONS

    Tribal Priority Allocations (TPA) provides the principal source of 
funds for local units of Tribal Government, most of which are small and 
lack independent resources to meet the increasing costs of Tribal 
government operations. Because of Congressional funding levels in 1996 
and 1997, Tribal governments are falling increasingly behind in their 
ability to maintain services to Indian communities and families. Tribes 
depend on TPA funds for basic necessities and services such as child 
welfare, scholarships, Tribal courts, natural resource management, and 
other programs critical to improving the quality of life and the 
economic potential of the reservations. The Congress has given the 
Tribes the flexibility to prioritize the limited funds among TPA 
programs according to their unique needs and circumstances. TPA 
supports the goals of Indian self-determination by providing Tribes 
with the choice of programs provided as well as the means of delivery, 
either by the Tribe or the Bureau.
    Beginning with fiscal year 1998, TPA comprises nearly half of the 
Bureau's operating budget. For fiscal year 2001, the TPA activity is 
funded at $761.2 million, an increase of $60.5 million over the fiscal 
year 2000 Enacted level, which will help Tribes address some of the 
unmet needs in these basic programs.
    This budget submission includes $5 million for the Indian Self 
Determination Fund to replenish funds for new and expanded programs 
contracted under the authority of Public Law 93-638, as amended. The 
moratorium imposed by the Congress for fiscal year 1999 on any new or 
expanded contracts, compacts or grants under the 638 authority stalled 
the ability of the Bureau to fulfill its mission of promoting self-
determination on behalf of Tribes. Increased Tribal contracting/
compacting activity in fiscal year 2000 (due to the lifting of the 
moratorium) is expected to continue throughout fiscal year 2001.
    An increase of $3.5 million is requested for Contract Support over 
the 2000 Enacted level for on- going self-determination agreements. It 
is estimated that 88 percent of need will be met in fiscal year 2001 at 
this level of funding. The Bureau covered 88 percent of need in fiscal 
year 1999 and expects to cover 90 percent of need in fiscal year 2000.
    An increase of $1.5 million is requested for Tribal Courts, a 
necessary component to ensuring the success of the Presidential 
Initiative on Law Enforcement in Indian Country. In fiscal year 2000, 
the Congress provided a $20.0 million increase to address the woefully 
inadequate law enforcement resources in Indian Country. With this 
second year investment in the multi-year Initiative, it continues to 
open the door to halting the escalating crime rates in Indian Country. 
While Bureau and Tribal law enforcement personnel take the criminals 
off the street, it is also important to handle the increased demand for 
judicial services to keep the criminals off the street. Funding for 
Tribal Courts goes hand in hand with ensuring that Indian Country law 
enforcement efforts are strengthened by adequate court systems. Funds 
will also be used to implement provisions of Public Law 103-176, the 
Indian Tribal Justice Act.
    An increase of $1.0 million is requested for Adult Care Facility 
Rehabilitation to bring four Bureau- funded adult long-term care 
facilities on the Navajo Reservation to standard condition. Once the 
standard is attained, the facilities are eligible for funding of their 
operation and maintenance costs from the State Medicare, Medicaid, and 
other programs. The initial investment of $1 million will result in a 
potential savings to the Bureau which can be utilized for other high 
priority needs. An increase of $16.1 million is requested for the 
Housing Improvement Program (HIP) to serve low- income eligible Indian 
families or individuals. The Bureau has revised the HIP methodology to 
concentrate on serving those most in need, regardless of the category 
of HIP services they may require. This will allow the Bureau to serve 
an estimated 437 additional families for a total of about 985 families 
served.
    An increase of $2.2 million is requested for Scholarships to 
increase Tribes' ability to provide assistance to their Indian youth 
seeking to improve their futures through increased education. Along 
these lines, the Bureau is requesting an increase of $5.1 million for 
the Road Maintenance program. Part of the challenges to obtaining an 
education in Indian Country is the basic ability for students to be 
able to get to school as many reservation roads are a monumental 
challenge due to rough surfaces and at times impassable roads caused by 
insufficient funding. The Road Maintenance program is the only Bureau 
program which preserves the Bureau's system of roads and bridges that 
provide access to reservation lands, not only to schools, but to jobs 
and health care facilities. While the Department of Transportation's 
Highway Trust Fund provides funds for road construction, it does not 
provide funds for road maintenance.
    To support the Trust Fund Improvement Project, the Bureau's TPA 
request includes a total of $13.8 million in Trust Services funding for 
fiscal year 2001 as follows: Trust Services, General ($1.6 million); 
Real Estate Services ($7.0 million); Real Estate Appraisals ($2.2 
million); and, Probate ($3.0 million).
    In fiscal year 2001, the Bureau will continue to operate as a 
highly streamlined and decentralized agency with maximum resources 
going to Tribal programs. The Bureau anticipates that more than half of 
the fiscal year 2001 operating budget will be spent directly by Tribes 
that elect to operate various Bureau programs under self-determination 
contracts, grants, or self-governance compacts.
    Since the founding of the Nation, the Congress has funded specific 
Indian education programs in response to treaty requirements and 
Federal statutes. Current Indian Education programs are governed by a 
number of laws including the Snyder Act, the Johnson O'Malley Act, the 
Elementary and Secondary Education Act, the Tribally Controlled 
Community Colleges Act, the Tribally Controlled Schools Act, the 
Education Amendments of 1978, Goals 2000 and the Improving America 
Schools Act. Collectively, these laws are aimed at ensuring quality 
education for Indian youth and improving the long-term employment and 
economic opportunity on reservations.

                        OTHER RECURRING PROGRAMS

    The prominent theme for the new millennium described by the 
President is the education of our children. The Bureau is responsible 
for the only major domestic elementary and secondary education system 
operated by the Federal Government. As such, it is incumbent that this 
system reflects the high standards President Clinton has set for all 
education. In support of this Presidential priority, the Bureau's 
fiscal year 2001 budget request includes a significant investment in 
Indian education. The request for School Operations, which will fund 
185 schools and dormitories serving more than 50,000 elementary and 
secondary students in 23 States, is $506.6 million, an increase of 
$39.7 million over the fiscal year 2000 Enacted level. The increase 
will ensure that schools can deliver quality education and provide safe 
and adequate transportation for an estimated increase in enrollment. 
Included in the increase is $6.8 million to expand the number of sites 
for the Early Childhood Development FACE program and $8.2 million for 
implementation of the Therapeutic Residential Model pilot program at 
selected Bureau dormitories. Increases are also proposed in facilities 
operations and administrative cost grants to encourage the continuation 
of schools going into grant status and under Tribal control.
    The budget increases operating grants to the 25 Tribally controlled 
community colleges by $2.9 million over fiscal year 2000. The colleges 
have been successful in providing Indian youth with college degrees and 
futures of professional employment. They also promote entrepreneurship 
on reservations.
    An increase of $500,000 is also requested for Alaska Subsistence 
activities to meet the Secretary's responsibilities in implementing a 
recent court-ordered Federal subsistence fishery program in the State 
of Alaska. This is a multi-agency, cross-cutting activity to establish 
fishing seasons and regulations covering approximately 102,000 miles of 
rivers and streams and about half of Alaska's inland waters.

                         NON-RECURRING PROGRAMS

    To meet the Bureau's long-term goal of improving the quality of 
life in Tribal communities, $2.0 million is requested to establish 
Technical Assistance Grants to provide technical assistance to Tribes 
and individual Indians to establish, acquire or expand for-profit 
businesses on or near reservations. Investment today in helping Tribal 
communities to become more resourceful will facilitate and strengthen 
Tribal self determination. Additionally, an increase of $5.3 million is 
requested for Real Estate Services to strengthen the Bureau's trust 
management functions.

                       CENTRAL OFFICE OPERATIONS

    An increase of $500,000 is requested for the Trust Services line 
item to strengthen the Bureau's trust management programs at the 
Headquarters level. To continue implementation of the recommendations 
of the National Academy of Public Administration (NAPA), an increase of 
$4.0 million is requested in fiscal year 2001 to continue 
implementation of the recommendations at the Central Office level and 
to begin to provide resources to Field sites.
                       regional office operations
    An increase of $13.7 million is proposed for trust management 
improvement efforts at the Regional level: Trust Services, General 
($1,900,000); Real Estate Services ($5,000,000); Land Titles and 
Records Offices ($4,800,000); and Land Records Improvement 
($2,000,000).
                  special programs and pooled overhead
    To continue the momentum forward for the Presidential Initiative to 
Improve Law Enforcement in Indian Country, a program increase of $16.0 
million is requested for the third year of this multi-year initiative. 
The rate of violent crime victimization of American Indians is higher 
than that of other U.S. racial or ethnic subgroups and more than twice 
the national average. Continued infusion of monies is necessary to 
improve the quality of life on Indian reservations. A program increase 
of $115,000 is requested for the Indian Police Academy to expand its 
training courses to respond to the influx of new trainees hired under 
the Initiative. To offset the Congressionally-mandated earmark of funds 
for enforcement activities, an increase of $100,000 is requested for 
the Indian Arts and Crafts Board. To strengthen the efforts of the 
Crownpoint Institute of Technology, an increase of $1.3 million is 
requested in fiscal year 2001. To improve the reporting capabilities 
and improve overall educational abilities, the Bureau is requesting an 
increase of $3.0 million for the School Statistics Initiative. An 
additional $500,000 is requested for the American Indian component of 
the Early Childhood Longitudinal Study, a partnership effort with the 
Department of Education. To respond to priority needs of Tribes on a 
nationwide basis, the Bureau is proposing to eliminate funding for the 
National Ironworkers Training Program.
                              construction
    The Bureau's request for the Construction appropriation is $365.9 
million, of which $300.5 million, or 82 percent, is dedicated to 
education construction. This is the largest request for education 
construction, with an additional $167.3 million, or 126 percent, over 
the fiscal year 2000 enacted level. The Bureau will continue the 
emphasis on Tribal contracting for projects, providing support from the 
Bureau's Office of Facilities Management and Construction until the 
Tribes and Agencies are fully trained to take over the construction 
contracting challenge.
    The Replacement School Construction program funds replacement of 
older, unsafe, and dilapidated schools on reservations. More than 
50,000 Indian students attend 185 Bureau-owned or -funded schools in 
eligible Indian communities. School replacement priorities are based on 
a new priority list of 13 schools, which is comprised of the last 3 
uncompleted schools from the old priority list published in 1993 and 10 
new schools. In 2001, a total of $126.149 million is requested for 
Advanced Planning and Design ($5,000,000) and to complete construction 
of the first 6 schools--several that serve multiple Tribes, on the new 
priority list:
Tuba City Boarding School, Arizona
Second Mesa Day School, Arizona
Zia Day School, New Mexico
Baca Community School, New Mexico
Lummi Tribal School, Washington
Wingate Elementary School, New Mexico
    These six schools have structural and code deficiencies that 
threaten student safety and are not equipped with modern educational 
tools. Up to $30 million of the replacement school construction funding 
may be used for Tribal participation in the President's fiscal year 
2001 School Construction Modernization Initiative. These funds may be 
used by Tribes or Tribal consortia to ensure the repayment of principal 
on school modernization or other taxable bonds. Tribes that issue bonds 
to lenders could claim a tax credit for the life of the bond in lieu of 
interest. Any of the six schools slated for replacement in 2001 could 
exercise this option.
    The education facilities improvement and repair program is funded 
at $174.3 million, an increase of $104.0 million over 2000 enacted, to 
address critical health and safety concerns at existing education-
related facilities. This request will fund maintenance and major and 
minor repair projects to reduce the significant backlog of needed 
repairs.
    For the second year, the budget requests no new funding for Public 
Safety and Justice construction within the Bureau request. New 
detention centers on reservations will receive funds from the 
Department of Justice's appropriation as part of the President's 
Initiative on Law Enforcement in Indian Country.
 indian land and water claim settlements and miscellaneous payments to 
                                indians
    This program provides payments to meet Federal requirements for 
legislated settlements. The fiscal year 2001 budget request includes 
$34.026 million for payments for settlements resolving long standing 
Tribal claims to water and lands. Of this amount, $8 million is 
proposed for the Rocky Boy's Indian Water Rights Settlement for compact 
administration, economic development, and future water supply 
activities. The majority of the remaining funds are proposed for the 
Ute Indian Water Rights Settlement, $24.9 million, to maintain the 
payment schedule as required by law.

                       Indian land consolidation

    Senator Gorton. Well, I am going to defer very shortly to 
my two colleagues. But I do want you to discuss the subject 
that was not in these top ones. One of the big increases in 
your budget this year is for land consolidation, fractionated 
ownership.
    Tell me why that increase is so large, what you are going 
to do with that, what the goal is, how long you think it will 
take you to get there, and are we curing it in a way so that it 
will not recur.
    Mr. Gover. Yes, Mr. Chairman. As you know, the 
fractionation pilot that we have been conducting is to purchase 
a small fractionated interest in land from individual Indian 
owners and, in essence, transfer that to tribal ownership 
subject to a lien for the repayment of the purchase price that 
the United States has incurred.
    We have targeted the small interests and the interests that 
are most likely to result in our actually closing one of the 
small IIM accounts. So when an account holder comes in, they 
may say, we have--I have seven different interests in seven 
different parcels of land. And we purchase all of them for an 
average price of about $250 per interest. That then allows us 
to close that account.
    Now, what that does in the long run, it saves us a great 
deal of money. For one thing, we do not have to maintain an 
account. That is costing us about $35 a year. Number two, we 
have no more responsibilities for serving that individual 
should he want to lease that parcel of land. We are relieved of 
the responsibilities associated with that.
    And then finally, and probably most importantly, we do not 
have to probate that estate. Right now when the United States 
probates an estate, it is taking a minimum of 18 months to do 
so, more often going up to 3 years and even longer, at enormous 
expense involving both BIA staff work at several points in the 
process and later on----
    Senator Gorton. Wait a minute. This property then will not 
go back into any form of private ownership causing this problem 
to recur at another generation or two, is that correct?
    Mr. Gover. That is correct. It is to the benefit of the 
tribe. And I suppose that at some point, once the land is 
clear, the tribes can sell it. But we do not anticipate that 
happening. And we are not looking to expand the amount of 
individual ownership of trust land. We are looking to reduce 
it. And we believe the government will experience a reduction 
in cost over the medium term rather than the long term.
    The reason for the expansion is that the pilot has been 
such an enormous success. We were a little concerned that we 
would have difficulty finding willing sellers. But that has not 
been the case. We are finding many, many willing sellers. We 
have been able to spend the first year of money already, and we 
are well into the second.
    The question we are unable to answer at this point, 
although I would be happy to provide some more information, is 
how long is this going to take overall. I do not know the 
answer to that. We have run the pilot on three reservations in 
Wisconsin. We are having enormously good results.
    [The information follows:]
                    Indian Land Consolidation Pilot
    In fiscal year 1999, the BIA established a pilot program to 
implement a land acquisition program to acquire and consolidate 
fractionated ownership interests of trust and restricted lands. 
Fractionated ownership of allotted Indian lands increases the Federal 
Government's costs to administer and manage the trust and restricted 
lands and reduces the lands' economic value for the Indian owners due 
to the inefficiencies caused by multiple ownership.
    During the six months preceding the end of fiscal year 1999, the 
BIA had acquired approximately 8,000 undivided fractionated interests, 
comprising approximately 4,000 acres. Through January 31, 2000, 20,215 
undivided interests were acquired, comprised of 11,234 acres at a cost 
of $4.7 million. This acquisition eliminated 521 future probates and 
226 current Individual Indian Monies (IIM) accounts. In addition, there 
are 53 pending applications, with an average number of 20 interests per 
pending application. The BIA expects to acquire about 19,000 additional 
fractional interests by the end of 2000.
    At the acquisition rate of 20,000 interests per year, the Bureau 
estimates that at the fiscal year 2000 funding level of $5 million, it 
would take approximately 100 years to eliminate the fractional 
ownership, provided all of the interests owners are willing to sell. 
Yet with the funding level requested in fiscal year 2001 of $12.5 
million, the estimated time would be reduced by more than half.

    Mr. Gover. As we expand the program to include some of the 
larger reservations in, for example, North and South Dakota, we 
expect that the fractionation problem is so severe that it is 
going to require expanded resources in order to really make a 
dent on any given reservation.
    We should add that, when we consolidate ownership in these 
interests, that makes the land viable for productive use again. 
Right now we have to get the consent of all the interest 
holders to lease a piece of allotted land. We have a particular 
parcel in the State of Wisconsin that has 2,000 owners, 2,000 
different individuals. Some of the interests are less than one-
three-millionth of an interest in the parcel.
    Senator Gorton. You are going to have to purchase all 2,000 
of those interests for the consolidation.
    Mr. Gover. That is correct.
    Senator Gorton. What happens if 1,990 agree and the other 
10 do not?
    Mr. Gover. Well, that is where Senator Campbell's bill 
comes in. Senator Campbell has been working with the Department 
to produce the amendments to the Indian Land Consolidation Act. 
And essentially, that gives us some new options in closing out 
the private ownership of these lands.
    Senator Gorton. Well, presumably all of the money we are 
appropriating now eventually will come back from the tribes, 
again who----
    Mr. Gover. I would not say presumably. I would say 
theoretically. We do not, frankly, anticipate that all that 
money will come back, because what we are discovering, for 
example, in Wisconsin is that these lands are not being policed 
and, therefore, not producing income that would repay the fund.
    More likely, they are going to be left in a natural state. 
But at least they are being, some of it, at least they are 
being--we are not spending a lot of money servicing the----
    Senator Gorton. The obligation to pay on the part of the 
tribe is dependent on the particular land producing income.
    Mr. Gover. Yes, that is correct. That is correct.
    Senator Campbell. Mr. Chairman, if I could interject this, 
the Assistant Secretary is living proof of what was wrong with 
it before.
    What was the income you got from your per cap of 
fractionated land, like 26 cents for the year or something like 
that?
    Mr. Gover. I have owned it for 5 years, and it has 
generated seven cents in that time.
    Senator Campbell. Seven cents. But the amount of money that 
it takes to document and do all the paperwork to get him that 
seven cents ran into the thousands.
    Senator Burns. I had a pasture like that once.
    Senator Gorton. Thank you for that explanation. And I will 
have more questions. I will refer to my two colleagues.
    Senator Campbell.

                             Indian Affairs

    Senator Campbell. Thank you, Mr. Chairman. Just for your 
information, we are going to be marking up confirming the 
Special Trustee tomorrow in Indian Affairs. And we did postpone 
that for a few days because some of the tribes told us that 
they wanted a little more time to think about it, a little more 
time to review it. They have sent us a letter of total support. 
So we will be putting that through tomorrow.
    You probably know, Mr. Assistant Secretary, that probably 
half of the people on this committee also sit on Indian 
Affairs. And we would not be on these committees, if we did not 
have a high interest in trying to help Indian people. I think I 
can state that for literally everybody.
    And even though the chairman has taken his share of the 
heat, by the way, from the Indian community, I have to state 
for the record that when you talk about the things that you 
have made a very compelling case for this morning, school 
facilities, health care, contract support costs, law 
enforcement, things of that nature, he has been very, very 
helpful. Although we may disagree on some things in Indian 
country, he has been right there to help provide that money.
    Mr. Gover. I know the----

                            Employee Awards

    Senator Campbell. As you know, we have not passed our 
budget resolution. So we do not know, as the chairman said, if 
we are going to be over our caps or not. But I am convinced 
that the President's budget is certainly going to help us.
    But I want to talk a little bit and ask you a couple 
questions about this, that compelling case you made about 
school facilities and health care. And you will not get a 
disagreement from any of us. We know that we have to do more, 
all those areas.
    We know that there are Indian children going without proper 
nutrition, without proper education, without proper health care 
facilities. We know that. Everybody on this committee knows it. 
And we want to do our best.
    You mentioned about your primary responsibility. I recently 
wrote to you--and you did answer, and I appreciate you doing 
that--about something that I understood were called gold star 
awards given to, as I understand, about 2,000 employees over a 
period of time, totaling about $2.6 million. I suppose they 
were supposed to be given for exemplary service.
    But I have tracked a few of the people who got those awards 
and found that the only reason they even have their jobs is 
because they are civil service employees. They would have been 
fired from any company for mismanagement or poor performance. 
It rather surprised me, in fact, when I saw some of the people 
who were getting those gold star awards.
    Well, I am not a--math was never my long suit. But when I 
divide $2.6 million into a beginning teacher's salary, we could 
hire 100 teachers out there for the amount of money we have 
given through the Bureau for these so-called gold star awards.
    I want you to expand a little bit, tell this committee what 
the reason was for that. And if you have found that somewhere 
along the line, in giving all that money in awards, some I 
understand in $10,000 and $20,000 increments, the justification 
for it, and why we should not make that money available more to 
schools and health services and things that Indian people 
really need.
    Mr. Gover. Senator Campbell, one of the things that we face 
all the time is trying to retain our employees. A good many of 
them receive offers regularly from the private sector or from 
other Federal departments to come to work for them. And one of 
the methods that we have for employee retention is to try to 
reward exemplary service. And you are right, these Star Awards 
are intended to reward good service.
    Now, obviously, I do not sign off on every single Star 
Award that is presented throughout the agency. There are 2,000 
of them, many of them done out in the field. I have signed off 
on several myself, and I especially sign off on awards for 
senior management. And what we are finding is that in order to 
really make these employees realize the degree to which they 
are appreciated by management, we do have to give these awards.
    Now, we have established within the Department some 
particular awards for the Senior Executive Service employees, 
many of whom, as I say, are pursued all the time by the private 
sector. In fact, we just lost a Deputy Commissioner to the 
private sector. And I cannot begin to compete with some of 
those offers. But where I can, I want to do that.
    We evaluate the employees. We make an agreement with them 
at the beginning of the year. If they meet the agreement that 
we have negotiated, then they become eligible for awards. Even 
at that point, less than half of them, who have complied with 
their agreement, actually receive awards.
    The awards that are over $10,000 are special Department-
wide awards to acknowledge particularly distinguished service. 
And there is an even higher level, a Presidential Rank Award, 
that BIA employees, including Hilda Manuel, have won in the 
past few years.
    And so we find that it is important to morale. We find it 
is important to employee retention. And most of all, we want to 
express in a very tangible way the appreciation that we have.
    Now $2.5 million is a lot of money, and we certainly 
understand that. On the other hand, it represents only a small 
fraction of our entire appropriation. And I do not believe that 
it is out of line. In fact, I think we are probably a little 
less generous than most of the other bureaus in the Department.
    Senator Campbell. And you have checked with other bureaus 
to see if these awards are in line with what they are giving 
and if they give them at all.
    Mr. Gover. Yes. I discuss with the Assistant Secretary for 
Policy, Management and Budget just as a check, to make sure 
that we were not being excessive, and found that in fact we are 
not. In fact, as I say, we are probably less generous than some 
of the other bureaus.
    Senator Campbell. Well, I know we are not totally blind to 
the fact that we have a large organization, a lot of people, as 
you do in your department and as we do here. In the Capitol you 
get some really terrific employees, and they are kind of up for 
grabs.
    And I know that private industry just relishes the chance 
to steal away from us. So I understand that. We lose some very 
good employees, too.
    Mr. Gover. Yes.

                            Trust Principles

    Senator Campbell. I am surprised to see that Hilda is 
leaving. And I know that, as you do, she has done years and 
years of exemplary service. And I certainly wish her well. I 
hope she is going on to a productive, bright, wonderful future. 
I am sure she is. And I hope she is not just leaving because 
she is over the top of her pain threshold, as we all get to 
sooner or later, too. But we do wish you well.
    Let me ask you one more point, Mr. Assistant Secretary. The 
Department is preparing to issue a draft trust principles, as I 
understand it. The National Congress of American Indians and 
some tribes have written to us on the Indian Affairs Committee 
urging you to postpone the issuance of those principles. What 
are your plans on issuing that order implementing the 
principles?
    Mr. Gover. Senator Campbell, the trust principles are 
something that we have had a lot of debate on in the 
Department. I was not certain, frankly, that it was a good idea 
because I think it is very difficult to draft broad principles 
that are substantive enough to really add to the conversation.
    But I was finally persuaded by this logic: that we are 
asking each bureau within the Department that has 
responsibility to the tribes to examine their operation and 
their regulations to be sure that they are meeting our 
responsibilities to the Indian accountholders.
    In order to do that, they have to have some kind of 
guidance. We do not want to measure it against some abstract 
notion of the trust, but instead try to give them some 
specifics and say: Do your regulations meet this standard? Are 
they designed to accomplish this undertaking? And that is the 
point of the trust policies. The broad trust principles is what 
they are popularly known as.
    Our intention is to do two things with them. First, to 
enter them as a Secretarial Order to all of the agencies in the 
Department to say: You are to go through your programs and to 
measure your operation against these standards.
    And by the way, I should add one other thing, to recite the 
trust format and what we have been told to do by the Congress.
    The second thing that we intend to do with them, because 
the Secretarial Order expires in a year, is to enter them into 
the Departmental Manual where they will reside until a future 
administration changes them. We disagree, frankly, with the 
tribes and with NCAI.
    And although we will continue working with them--and I met 
just yesterday with representatives from NCAI about this 
matter, we agreed that we will continue discussing it. And we 
actually made some progress on some of the issues that they 
wanted to see changed.
    But I think in general the trust principles that we have 
drafted represent a major step forward. The Department--I mean, 
it is shocking, frankly, that the Department has never before 
tried to describe with any precision the standard of 
performance that is expected from us in conducting the trust 
relationship.
    And now we have tried to do so. And I think predictably we 
are running into some opposition, because everyone's notion of 
the trust responsibility is a little bit different.
    But I would not support them and would not participate if I 
did not think that it were moving the ball forward.
    Senator Campbell. OK. Well, thank you for that. I suspect 
you know how I feel about including the tribes in any of the 
dialogue or any decision making with the departments. So I know 
I can speak for Senator Inouye in that respect, too, from our 
committee's standpoint. So I would hope that you have a very 
open and fair discussion with the tribes before you proceed 
with those principles.
    Mr. Gover. And in fact, Senator, in December we did a 
number of field meetings with the tribes to discuss this very 
issue. And the draft has changed very significantly as a result 
of those. And as I say, we will continue working with the NCAI 
work group to try to close the distance between us and them.
    And in the end, of course, we may not reach final 
agreement, but I think we will in every conversation improve 
the product.
    Senator Campbell. I thank you, Mr. Chairman. I will submit 
any further questions in writing.
    Senator Gorton. Senator Burns.
    Senator Burns. Mr. Secretary, thank you for coming this 
morning. And I find it rather sad that you think this will be 
the last time you will appear before this committee. I 
personally think you have done a great job.
    Mr. Gover. Thank you, Senator.
    Senator Burns. You have been very candid with us, and you 
have faced some unusual challenges beyond anybody's imagination 
almost. And you have done that in working with us. I really 
appreciate that very much. And I wish you much success, and 
Hilda, too, as far as moving on.
    In fact, you would hate to have people work in your 
department that did not have the ability to move on and improve 
themselves. That is kind of the way I look at it.
    Mr. Gover. That is right.

                               Education

    Senator Burns. People pass through our offices and our 
staff do that as well. If there has been one failure in our 
education system throughout this country, and we always say we 
have the best, its that we are dealing with issuing visas in 
order to allow people from other countries to come in this 
nation and work because they have the talents and the expertise 
to deal in the high tech world. And yet our education system is 
reluctant to change for the new tools of the future.
    Then they say we are making great progress in our education 
system. I think we have the same problem as far as our schools 
that are on and off our reservations. I do not think there is 
any difference.
    But I know you keep looking to find the people that can 
work in your department, taking people who have come up through 
your organization, or start at the reservation level.
    I would refer you to Joe McDonald, who runs the Salish 
Kootenai Tribal College in Montana. I do not think there is a 
better educator in America than Joe. And we fight very, very 
hard, because he wants to give those young people the skills to 
use the tools of the future.
    So I think that what we have to do in our education system 
is look at those programs and change them to help teachers and 
tribal colleges and the schools train people to utilize these 
new tools. These are some of the things that you will need in 
order for them to be of a service to you.
    I have no questions with that. I will just say that working 
with the educators on reservations, as we do very closely with 
our 2-year colleges in Montana, we continue to have to fight 
for more money for them, because it seems like it never comes 
out of the President's budget with enough money.
    The role of those 2-year colleges on the reservations, to 
make that transition into higher education from a reservation 
setting and an educational setting and going on to other 
institutions, wherever they want to go to school in America, is 
one of the great transition steps that these young people will 
take. Tribal colleges play a huge role on just equipping those 
folks for the future.
    I find it sad that we will not continue working with you. I 
think we will later on down the line, because I would hate for 
this government to lose your talents. I appreciate your service 
to this organization the cooperation we see between the 
committee and your office. So we wish you well.
    Mr. Gover. That is very kind, Senator, and I appreciate all 
the help I have gotten from the committee. You are absolutely 
right. These institutions, the tribal colleges, are playing a 
critical role on a reservation and really begin to create some 
hopefulness where none has existed before, that there is an 
opportunity to improve yourself and rise out of these 
circumstances.
    We never support colleges to the extent that we would like. 
The request we made this year is consistent with the increases 
that the committee and the Congress have granted us over the 
years. And we are very grateful if you would do so again.
    In addition, the President has proposed that funds be added 
to the Department of Education budget to assist these 
institutions. And really, the part of the theory of the 
President's overall initiative is to get more agencies involved 
in meeting these responsibilities to the tribal communities. 
And so even though the primary responsibility, the anchor 
responsibility, will always be with the Bureau of Indian 
Affairs, that does not relieve the other departments of their 
obligations to the Indian community. And so we are very hopeful 
that we will see more assistance from some of the other 
agencies than we have seen in the past.
    Thank you.
    Senator Burns. Thank you, Mr. Chairman.

                      Housing Improvement Program

    Senator Gorton. Mr. Gover, a parochial question, I note 
that my own Northwest region is going to be subjected to a huge 
reduction in housing and improvement program funds this year.
    I take it you have been developing and implementing a new 
formula for that distribution. What is the new formula? What is 
the philosophy behind it? And why did we get such a heck of a 
whack in the Northwest?
    Mr. Gover. What we have done, Mr. Chairman, with the 
Housing Improvement Program is to convert from a system where 
we allocated funds based on the housing inventories that were 
prepared by the tribes. In other words, we had been 
inventorying the housing needs for the entire reservation, 
which did not discriminate between those who were eligible for 
the HIP program and those who were not.
    So much of the housing inventories may well have reflected 
homes or families that are not eligible for assistance from our 
program. And what we have done is convert to a system where we 
are looking to allocate funds on the basis of the number of 
eligible applicants reservation by reservation, so that we are 
targeting funds in the direction of the greatest need in the 
communities.
    Now, I do not know exactly why the Northwest seems to be 
hit particularly hard. I guess--well, I should provide some 
information. We are not finished with our analysis.
    [The information follows:]
 Housing Improvement Program Funding Distribution Effect on Northwest 
                                 Tribes
    In fiscal year 2000, the BIA is implementing a new methodology for 
the distribution of Housing Improvement Program (HIP) funds. Prior to 
fiscal year 2000, HIP funding was distributed to BIA's Regional Offices 
according to total housing inventories, regardless of the need of 
individuals. Consistent with notices to Tribes in 1999 and 2000, the 
fiscal year 2000 HIP funding is being distributed according to eligible 
applicants. This new methodology is based on information from Tribes on 
applicants who are actually eligible for HIP funding. This data on 
eligible applicants is being used as the basis for distributing funds 
to those with the greatest need for housing assistance.
    As of April 2000, the BIA had distributed 80 percent of the fiscal 
year 2000 HIP program funding. Using eligible applicant data provided 
by Tribes and the Regions, funds were distributed to Tribes based on a 
priority ranking of applicants and estimated project costs. The funding 
distributed to Tribes in the Northwest Region reflects that Region's 
program needs as compared to those reported for all HIP eligible 
applicants on a national level. The effect of this new methodology on 
the Northwest Region will not be clear until the remaining fiscal year 
2000 funding is distributed. The BIA provided its Regional Offices and 
Tribes with additional time to gather current information on HIP-
eligible applicants to encourage a fair distribution process. However, 
distribution of the remaining 20 percent of fiscal year 2000 HIP 
program funding is anticipated shortly.

    Mr. Gover. But what I suspect is that when we put out the 
word that we were looking at converting to this--and in fact, 
this has been under discussion for five years, converting to an 
eligible applicant system, as opposed to the housing 
inventories--the Northwest tribes were a day late and a dollar 
short with bringing in the information that would have 
increased their allocation.
    I do not think there is any absence of need in the 
Northwest. And it was for that reason that we have delayed 
complete implementation in order to give the tribes another 
opportunity to submit additional evidence. The Deputy 
Commissioner noted that there was a large migration of funds 
from certain areas, mostly to Alaska.
    The Northwest was one, the Navajo area was another. And we 
were not comfortable with seeing that kind of large migration 
of funds from one area to another. So we wanted to give the 
tribes an additional opportunity to submit information.
    So we probably could have done a better job in the 
implementation of the policy, but the policy is the correct one 
because it is directed at identifying the reservations with the 
greatest need, as defined by the number of eligible applicants 
for HIP funds.
    Senator Gorton. When can I expect you to adopt the same 
philosophy with respect to tribal priority allocations?
    Mr. Gover. I do not believe that is going to happen on my 
watch, Mr. Chairman. You know, one of the problems is--and you 
cannot--HIP is one of the programs where it is a little more 
neat. And we are ready, for example, to allocate General 
Assistance funds on the basis of eligible applicants and on the 
basis of need.
    But when you look at programs like trust services, like law 
enforcement, there are less clear measures of what the need is, 
compounded by the fact--and we will be discussing this tomorrow 
in Senator Campbell's committee--compounded by the fact that we 
have no identified objectives for a number of the programs that 
we operate.
    And in the absence of really reliable and objective program 
measurements, it is very difficult to say at what point one 
tribe is getting too much. It is----
    Senator Gorton. Is there any effort on your part to make 
such a determination?
    Mr. Gover. We are working with the tribes right now, again, 
working with the workgroup from the National Congress of 
American Indians, to try to identify those kinds of program 
parameters and reporting requirements so that when you give our 
agency money to carry out a specific program, we have defined 
an objective.
    We can define for you what we expect to see as a result of 
that money and then how we are going to get the reporting from 
the tribes to show that in fact the programmatic objective was 
accomplished. That work will not be completed on my watch. But 
I do think that we can begin moving the ball forward program by 
program.
    Just to give you a notion, though, of the complexity, we 
undertook a similar thing in, I believe it was, 1994 with 
regard to a single program, the Indian Child Welfare Act. A 
couple of years and several hundred pages later, there was 
still not consensus on just how those programmatic funds ought 
to be allocated.
    And that indicates that, one, the difficulty of defining 
the program objectives and, two, the complexity of involving 
all of the tribal governments in a discussion of that type. 
Because no matter what we do in identifying objectives, 
somebody is going to get more and somebody is going to get 
less.
    And those who get more are for it, and those who get less 
are against it. And that will be true in each of our program 
areas.
    Senator Campbell. That is the way it works among our 
subcommittees.

                          School Construction

    Senator Gorton. Let us go on to school construction. If you 
got the entire $300 million, do I understand that would build 
six schools?
    Mr. Gover. The entire request would build six schools and 
fund FI&R, facilities improvement and repair, the big repairs 
that need to be carried out in the school system.
    Senator Gorton. How much of the money would go to the 
latter and how much to the former?
    Mr. Gover. Do you know, Joe?
    Mr. Christie. It is $103 million, I think, on the 
construction side. Well, $103 million is an increase in FI&R.
    Mr. Gover. And what we did, Mr. Chairman, was to--the 
reason it looks like such a large increase is we combined FI&R 
with maintenance funding this year for the first time in the 
budget. And so it is not actually an increase of 126 percent, 
although it is an increase of about 100 percent over last year.
    Senator Gorton. What are the six schools that would be 
funded by this?
    Mr. Gover. I can provide that for the record. It is the 
last three schools on the old priority list and the first three 
on the new one that we issued on January 31. My recollection is 
that three of the schools are on the Navajo Nation Reservation.
    OK. The last three on the old list are Tuba City Boarding 
School, Second Mesa Day School and Zia Day School. The three 
new schools would be the Baca Thoreau--that is a Navajo 
school--Consolidated Community School, the Lummi Tribal School 
and the Wingate Elementary School.
    So it would be three Navajo schools, one Hopi school, Zia 
Pueblo and the Lummi Tribe.
    Senator Gorton. How many schools in the system rather 
desperately need total new construction? In other words, what 
part of that inventory of the six schools make up----
    Mr. Gover. It is about 10 percent. We think there are about 
60 schools that desperately need to be replaced.
    Senator Gorton. So we have to have roughly this level of 
construction money for 10 years running.
    Mr. Gover. I believe that is correct, Mr. Chairman.
    Senator Gorton. Now, some of these schools you actually 
subcontract the building to the tribes and some are done 
directly?
    Mr. Gover. That is right. Most are actually contracted to 
either the tribe or the school board that operates the school. 
And they then----
    Senator Gorton. Are all of the six that we are talking 
about, for next year?
    Mr. Gover. I do not believe we know yet. We are getting 
indications that a couple of the schools are going to want us 
to do it.
    Is that right, Joe?
    Mr. Christie. That is correct.
    Senator Gorton. Is there any provision in any of the tribes 
with respect to any of the school construction for a tribal 
cost share?
    Mr. Gover. None of the six schools I just mentioned have 
offered to cost share. A number of tribes and school boards did 
offer cost sharing to various degrees. I believe that none of 
either the three from the old list or the ten from the new list 
really are talking about a substantial cost sharing approach. 
We did have some others, where they did propose quite 
substantial cost sharing.
    Senator Gorton. Is it at all tempting to the bureau to 
accelerate the construction of those schools? Where there is a 
cost share, you would obviously get more done if there was a 
substantial contribution.
    Mr. Gover. I can answer that this way, Mr. Chairman. It is 
tempting, except that for some tribes, what they were offering 
was not, frankly, much of a sacrifice, given their other 
sources of revenue. And I was unimpressed by the degree to 
which they were going to offer to participate.
    Other tribes, though, who really are not well off in terms 
of resources, did come forward and offer--you know, 
demonstrated a real commitment to improving conditions in which 
their kids go to school. And I would have much more sympathy in 
those cases. But there were few, frankly. There were very few.
    Senator Gorton. A few years ago, I remember a devastating 
criticism or critique of the schools here in the District of 
Columbia to the effect that the school authorities could not 
come within 10,000 of a student census, knowing how many 
students they were serving. You provide aid to schools on the 
basis of school attendance or school census. Are you convinced 
of their accuracy?
    Mr. Gover. I am now. And let me allow Mr. Christie to 
describe some of the steps we have taken to improve our school 
count efforts.
    Mr. Christie. What we have done to improve our ISEP count 
is to go to a 100-percent audit of one-third of our schools and 
a 10-percent audit of all the rest, so that over a 3-year cycle 
we will have a 100-percent audit of every school.
    We have also instituted administrative reviews to go out 
and take a look at how our schools are operating on the 
educational program, facilities program, the administrative 
issues, personnel, et cetera. We have undertaken that this year 
and completed 8 of those reviews to include both the education 
line office and the school itself.
    And then we are using that data to turn around and to 
institute a principal and ELO academy that we will start----
    Senator Gorton. ELO?
    Mr. Christie. Education line official. So that we can then 
train them in the specific--strengthen their skills in this 
area.
    We have also in the last year--there are only two ways to 
increase funds for the per student basis. That is either to 
come to you and ask for additional dollars or else to go into 
the school systems themselves and take a look at where we are 
inappropriately funding.
    For instance, over the last year we have weeded out 
counting of over 500 public school kids that were getting ISEP 
funding versus being actually eligible to receive that. So by 
going back and doing these reviews, making sure that the 
students that are being counted are the students that should be 
counted, that allows us then to move those funds back in to 
fund our students on an equitable basis.
    Senator Gorton. Thank you.
    Mr. Gover, in your initial listing of the three priorities, 
the third of those was law enforcement. You are asking for 
another increase this year. I note the increase is not as great 
as the increase that you asked for last year. Does that mean 
that we are getting relatively close to an appropriate level of 
support, to a time when that funding will be relatively level?
    Mr. Gover. I think, Mr. Chairman, the figure of $18.8 
million is a testimony to the rigidity of the Office of 
Management and Budget when you hit a number. And so the answer 
is that we are making progress.
    I would have liked to have seen more in the law enforcement 
account, but I will live with what we have requested. It does 
not indicate that we are yet at a level of service that 
provides Indian communities with the same law enforcement 
coverage that similar communities outside of Indian country 
receive.
    We have a ways to go yet. But I do not want to understate 
the importance of the funding that we have received so far. It 
has helped a great deal.
    Ironically, one of the things that happens when you improve 
law enforcement is the crime rate goes up, because you are 
arresting more criminals, more crimes are being reported, more 
crimes are being acted on.
    And so in fact we are still experiencing a rising crime 
rate in terms of the statistics, but I do not have any doubt we 
are also seeing better police coverage in the communities and 
that that will ultimately have its effect.
    Senator Gorton. That is always a paradox wherever we deal 
with law enforcement. I think you are entirely correct. We can 
fool ourselves that if law enforcement is so poor that crimes 
do not even get reported----
    Mr. Gover. Right.
    Senator Gorton [continuing]. As to actual conditions. At 
least at a time when law enforcement is improving, at first one 
would expect a higher reported crime rate. One hopes that you 
get to a point where it goes down in reality rather than just 
on a printed page at some point or another.
    I want to go back to Tribal Priority Allocations for one 
question. Your authority under Section 127, has it been used? 
Do you advocate any change in that provision for the next year?
    Mr. Gover. We have not employed that authority. What I have 
said to the tribes is that if any of you feel that you are 
being short-changed in some way or another, you may make 
application for a reallocation, at which point we would 
investigate and try to determine whether in any given 
circumstance there is a misallocation of the resource. No one 
has taken me up on that offer. And, Mr. Chairman, I did not 
expect that any of them would.
    Senator Gorton. Why not?
    Mr. Gover. The tribes feel very strongly that if we start 
down this road of allocating on the basis of need, that that 
will ultimately result in a reduction of either the Federal 
responsibility or the resources that are devoted to the Federal 
responsibility.
    I appreciate that concern. I, to some degree, agree with 
it, sort of as a political cite, that is the nature of the 
political system.
    On the other hand, given the kind of needs that exist in 
some of these communities, I would find it very difficult to 
justify, for example, some of the increases we have asked for 
this year, going into certain of the communities that have 
achieved genuine economic self-sufficiency. And in fact, it 
would be our plan not to devote any of these new resources to 
those communities.
    Senator Gorton. I have a number of other questions. But I 
will submit them to you in writing.
    Senator Campbell, do you have any more questions?
    Senator Campbell. I will just make a few observations. 
There is no doubt in my mind that--I understand the concern of 
the tribes. And I appreciate that, too. But it is hard to 
justify resources going under TPA to tribes in which some of 
the members are getting half a million dollars a year each per 
cap. That is a tough thing to sell, as you probably know.
    Let me just ask a couple questions, since you were dealing 
with education. Senator Roberts and Senator Brownback are not 
members of the committee, but both of them on several occasions 
have approached me about the deplorable conditions of some of 
the buildings at Haskell. What would you like me to tell them, 
if they have not talked to you personally yet?
    Mr. Gover. I am afraid I do not have any good news on that 
front, Mr. Chairman. We have recently constructed a new dorm at 
Haskell. And this again is sort of the old story. Now this year 
we did ask for some funding for a science building at the 
Southwest Indian Polytechnic Institute. But it is the first 
time in quite a while that we have asked for funds for either 
of the BIA's community colleges, or actually Haskell is now a 
university.
    And we are reluctant to come to the committee and say, we 
need more money for our school, when we know that the schools 
out on the reservations are in extreme need.
    Senator Campbell. That is one of the problems at Haskell, 
it does not have a constituency, you might say, that comes here 
and lobbies for the money, as the tribes do. And so I 
understand it is difficult.
    Mr. Gover. That is right.
    Senator Campbell. Well, I will pass that on to you. Two 
years ago or so, there was a proposal about having tribes 
voluntarily co-finance schools. The chairman has alluded to 
that. I guess it was supposed to be done through some bonding 
initiative, something of that nature.
    But has that proposal been pretty much scrapped? You did 
say something that some tribes have not come forward with any 
interest to finance a school.
    Mr. Gover. It took two forms, Senator. The first was that 
we invited the tribes, as we conducted this new round of 
applications for school construction, we invited the tribes to 
submit revenue or cost sharing proposals on a voluntary basis. 
We did not indicate that they would rise to the top of the list 
or anything like that.
    We did indicate that we would share that information with 
the Congress, so the Congress would know and, if the Congress 
chose, take advantage of those cost sharing proposals.
    The other form was this bonding initiative, which would 
have applied not just to BIA schools but to schools nationwide. 
What it really is intended to do is reduce the cost of 
financing new construction.
    Now, that has not gained much acceptance in Indian country 
for a very obvious reason. The tribes are saying, why should we 
take on long-term debt----
    Senator Campbell. They are afraid we will renege on our 
part of the responsibility, if they take on that burden.
    Mr. Gover. Well, that is right. And they very legitimately 
ask the question: Why should we, the tribes, take on long-term 
debt to finance what is, in essence, a Federal facility? And 
that is a fair question to ask.
    I do think there are answers, Mr. Chairman. One of the 
things we can do, and one of the things that we have proposed, 
where the committee might allow us to do it, is to use some of 
the funds for fiscal year 2001 to support the issuance of bonds 
by tribes for their schools.
    Remember that the interest payments on these bonds would 
come in the form of tax incentives, basically, to the bond 
holders. And that requires the involvement of the finance 
committee, and that is beyond our authority.
    But then second, the principal payments would be paid by 
taking some of the appropriated funds for fiscal year 2001 and 
in essence creating a sinking fund. Take that fund, set it 
aside, allow it to grow through investment, so that when the 
bonds reach maturity, you could pay off the principal as well. 
And so $30 million, I think we did some calculations once, a 
$30 million fund might support as much as $100 million--did I 
say thousands or millions? A $30 million fund would support $90 
million to $100 million in new construction and would pay that 
off in 15 years.
    So that is the idea. It is a way to try to stretch these 
dollars, because we all know there just are not enough.
    Senator Campbell. Thank you, Mr. Chairman. I have no 
further questions.
    Senator Gorton. If it were not for the vagaries of changes 
of administration, would you have made the announcement that 
you made at the beginning, that this is your last appearance 
here? Do you think you have done everything you could do in 
running the Bureau of Indian Affairs?
    Mr. Gover. I do not think I have done everything I could 
do. And I do not believe anyone will ever leave any of our jobs 
thinking they have done all they could do. So the answer to 
that is no.
    I do think there comes a point where the leadership in any 
agency, but perhaps especially this one, just sort of runs out 
of rope, not so much on a personal basis, but when we begin to 
make some of the difficult decisions that have to be made, you 
develop a list of people who disagree with you very strongly 
about certain of those decisions. And that is just what 
happens.
    The second thing is that I think there is a great advantage 
to fresh leadership on a regular basis and that it is important 
that the ideas that we have pursued be reevaluated by new 
leaders to determine whether they think we had this right or 
whether the bureau ought to take off in a different direction.
    So I am very comfortable in saying that the bureau will be 
a better agency after I leave than it was when I arrived. And I 
should add, Mr. Chairman, that my intention holds, regardless 
of the outcome of the election.
    That is how strongly I feel that the leadership needs to 
rotate regularly in this agency. I do not anticipate, frankly, 
having the option of remaining assistant secretary after next 
January. I am sure the new president will have someone in mind.
    Senator Gorton. Well, this chairman does not feel you have 
run out of string, Mr. Gover. He feels that you have done an 
outstanding job. And I think that this is the only time in my 
career in the United States Senate that I have been able or 
willing to say that about an assistant secretary in your 
position. I thank you very much.
    Obviously, we have had a number of disagreements, but I 
think you are a decisive leader with a great concern for the 
people you serve and a real understanding of the issues that 
surround your position and your duties. And I thank you very 
much.
    Senator Campbell. Mr. Chairman, if I could add my voice to 
yours.

                     Additional committee questions

    I want to also say I have seen the work of other assistant 
secretaries, and I am convinced you have done literally 
everything you could. But on the other hand, if you did 
everything you would have wanted to do, I would fear for your 
safety in places--in Indian country included.
    Mr. Gover. I fear for it now.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

 Questions Submitted to the Bureau of Indian Affairs and the Office of 
                            Special Trustee

              Questions Submitted by Senator Slade Gorton

    Question. As everyone is aware, we will more than likely be facing 
an appropriations cycle with rather tight resources. It is an 
unfortunate reality that not everything in the administration's request 
will be fully funded. As such, it is important for us all to be as 
frank as possible with each other early on in this process. Please 
briefly list what your highest priorities are for fiscal year 2001?
    Answer. As conveyed during the Senate appropriations hearing on the 
fiscal year 2001 Bureau of Indian Affairs (Bureau) and the Office of 
Special Trustee (OST) budget requests, the highest priority for the 
Bureau and the OST is trust reform. This includes funding for the 
clearing of appraisal backlogs, clearing backlogs of probate 
proceedings to determine landowners, and base funding for Tribal and 
agency field realty programs. The Bureau also places priority on new 
school construction, law enforcement, school operations, and pay/
uncontrollable cost funding to maintain current service levels.

           OFFICE OF SPECIAL TRUSTEE FISCAL YEAR 2001 REQUEST

    The request for Office of Special Trust account is about $7.4 
million decrease below the fiscal year 2000 funding. The federal 
government has been severely criticized, especially in recent years, 
about its ability to properly adhere to its trust responsibilities owed 
to the American Indians.
    Question. Are you confident that the Office of Special Trustee will 
be able to adequately carry out its pressing trust responsibilities in 
fiscal year 2001 in light of the administration's request for a 
decrease in funding?
    Answer. The fiscal year 2001 budget reduction primarily reflects an 
adjustment for one-time computer systems acquisition costs planned in 
fiscal year 2000. At the time the budget was submitted, the level 
requested in fiscal year 2001 for the OST was sufficient to carry out 
the responsibilities anticipated for fiscal year 2001, based on the 
trust reform and Cobell litigation demands.
    However, since the development of the fiscal year 2001 request, 
additional responsibilities were added to correct four breaches of 
trust identified in the December 21, 1999, court order in the Cobell 
litigation. The Court order focused upon the Department's compliance 
with statutory trust duties embodied in the American Indian Trust Fund 
Management Reform Act of 1994 (Act). Specifically, the Court order 
requires the Department to promptly establish written policies and 
procedures to render an accurate accounting of the Individual Indian 
Monies (IIM) trust in the following four areas: (1) collecting from 
outside sources missing information; (2) retention of IIM-related trust 
documents; (3) computer and business systems architecture; and, (4) 
staffing of trust management functions.
    As a result of the completion of the revised High Level 
Implementation Plan and additional Court requirements, some funding 
needs have changed. On May 31, 2000, the Department submitted a 
reprogramming letter to the Interior and Related Agencies 
Appropriations Subcommittees seeking approval to use $3.2 million for 
the new requirements specified in the Court's order from funds 
previously appropriated for other trust activities. Sufficient funds 
are available from fiscal year 2000 and prior appropriations to begin 
addressing these breaches of trust. The Department will use these funds 
to implement the plans for the systems architecture implementation, 
information collection activities, and Phase Two of the workforce 
planning study. The Department received approval from the House 
Subcommittee on June 12, 2000, and is awaiting approval from the Senate 
before proceeding with the reprogramming.
    The Department is currently evaluating its 2001 costs for both 
trust reform and litigation activities to determine how to address 
these increased costs. As stated in the May 31, 2000, reprogramming 
request, the Department will continue to keep the Committee staff 
informed with regard to additional requirements stemming from the Court 
order, trial two litigation costs, Federal Register Notice--IIM 
accounting costs, and TAAMS.

            NATIONAL ACADEMY OF PUBLIC ADMINISTRATION (NAPA)

    This Committee included $5 million in fiscal year 2000 bill for BIA 
to implement the recommendations made by the National Academy of Public 
Administration.
    Question. How has the money been spent so far and what are the 
plans in the future for the enacted $5 million?
    Answer. The funds provided by the Congress in fiscal year 2000 are 
primarily for costs associated with relocating two major offices, the 
Division of Accounting Management and the Office of Information 
Resource Management, from Albuquerque, NM, to the Washington, D.C., 
metropolitan area. As of April, 2000, this includes $700,000 in 
payments for buy-out authority and severance pay under the special 
authority provided by the Congress. In addition, the Bureau plans to 
use a portion of the funds to staff key positions under the newly 
established Deputy Assistant Secretary.
    Now, BIA requests an increase of $4 million for fiscal year 2001. 
Apparently, BIA's next phase of implementation will focus on the needs 
in the field as opposed to the needs in headquarters.
    Question. Please describe how BIA would use the additional $4 
million?
    Answer. The $4 million in additional funds requested in fiscal year 
2001 would enable the Bureau to continue implementation of the 
recommendations of the National Academy of Public Administration 
(NAPA). The next phase of the implementation will focus on analyzing 
the staffing needs for the Bureau's field structure. NAPA is conducting 
an extensive workload analysis of the current staffing in key 
administrative functions such as accounting, property and procurement 
that should be completed in June, 2000. After the completion of the 
analysis, NAPA will compare the present workload to industry standards 
and provide a staffing analysis of the law enforcement, education and 
other administrative and management functions in each of the 12 Regions 
of the Bureau. From this analysis, the Bureau will begin to fund the 
neediest of administrative functions in the Regional and Agency 
offices. This will begin the third phase of the implementation of the 
recommendations contained in the NAPA study.
    Question. How will BIA be reaching out to the BIA employees in the 
field and the Tribes in an effort to ensure that these funds will be 
addressing the critical needs in the field rather than just focusing on 
headquarters' perception of what those needs are?
    Answer. As part of the NAPA's administrative workload analysis, a 
survey instrument was provided to all Directors, Agency 
Superintendents, and other Bureau management staff to ensure that 
critical needs in the field were identified. Because of the number of 
responses, survey results are still being analyzed. Several NAPA teams 
also made on-site visits to many of the Regional Offices.

                     HIGH LEVEL IMPLEMENTATION PLAN

    The revised High Level Implementation Plan, which was recently 
released, sets forth a stringent time line for each of the plan's 
subprojects. The plan refers to these time lines as ``milestones.''
    Question. Are you confident that the BIA and the Office of Special 
Trustee can reasonably meet these milestones?
    Answer. The High Level Implementation Plan (HLIP) outlines the 
Bureau's and the Office of Special Trustee's (OST) progress toward 
completing improvements in trust management and lays out additional 
steps that must be taken to reach the goals and objectives that have 
been established. In addition, the December 21, 1999, court ruling in 
the Cobell litigation, required that the Department of the Interior 
submit quarterly reports on actions taken to correct the four breaches 
of the Federal Government's statutory trust responsibility to 
individuals Indians. Significant headway has already been made in 
establishing new trust management and financial systems that will 
handle the millions of records that are the foundation of a reliable 
trust management program. The Trust Funds Accounting System is now 
operational for all Tribal and Individual Indian Monies (IIM) accounts, 
and currently the Bureau is moving forward on a nationwide deployment 
of the Trust Asset and Accounting Management System (TAAMS). In such a 
complex undertaking, there are still difficult challenges to be 
addressed, including data management, telecommunications 
infrastructure, human resource shortages, systems integration, 
competing demands within the Bureau's trust responsibility areas, and 
the need to achieve institutional changes. As a result, the Bureau has 
redirected resources to these efforts; conducted in-depth analysis and 
planning exercises; and, amended sub project plans to improve any areas 
that may be lagging behind the aggressive schedule articulated in the 
July, 1998, HLIP. Based on this experience and analysis, the Bureau and 
OST are confident that the updated HLIP (March, 2000) is achievable.
    However, the Department faces many external factors which could 
affect the achievement of these milestones. To ensure that the 
Department is diligently taking actions as set forth in the HLIP, the 
Federal District Court will retain continuing jurisdiction over this 
matter for a period of five years. As explained in a previous answer, 
the completion of the revised HLIP has also caused the Department to 
reassess funding needs for trust reform.
    The Department has continued a tracking system to identify progress 
made in meeting the milestones on the HLIP. This status is reviewed at 
bi-weekly meetings chaired by the Assistant Secretary--Policy, 
Management and Budget. Periodic updates are provided to the Congress on 
the progress and the Congress is engaged in legislative reform which 
greatly assists the efforts. For this plan to be successful, there has 
to be continued support of the Congress, the Federal District Court, 
the Tribes and individual Indians who are served, and the continued 
dedication of thousands of career Department employees.

                            PROBATE BACKLOG

    It is the Secretary's duty to determine the legal heirs to the 
trust assets after the death of an Indian trust asset owner. 
Unfortunately, BIA faces a huge backlog in probate cases. This problem 
has been addressed in the High Level Implementation Plan.
    Question. BIA has projected that it needs $9 million to address 
this backlog in fiscal year 2001. Please explain how these funds would 
be used?
    Answer. Of the $9 million request, $3 million requested in the 
Bureau's budget would support the hiring of staff to support the 
ongoing probate program needs and sustain reforms implemented under the 
Trust Management Improvement Project (TMIP). The funds will be used to 
focus on the Bureau and the Office of Hearings and Appeals' (OHA) joint 
efforts to implement the framework for streamlining the probate process 
that was recommended in the Department's Phase I and Phase II 
Reinvention Labs. The recommendations include increasing the number of 
probate staff, preparation and issuance of decisions for probates, and 
establishing consistent, streamlined standard processes. The remaining 
$6 million requested is included in OST's budget to continue 
streamlining efforts identified in the Probate Reinvention Lab to 
reduce the backlog. The Department is currently evaluating the 2001 
projected Probate cleanup project costs to determine the funding levels 
needed to meet the milestones established in the updated HLIP (March 1, 
2000).
    Question. Also, it has become apparent in the past that the backlog 
was so huge that there were not enough administrative law judges to 
hear the cases. Has this issue been resolved? How?
    Answer. Yes. First, the Office of Hearings and Appeals (OHA) has 
obtained approval to hire four additional Administrative Law Judges 
(ALJ) and re-open four of its offices. Personnel processes have been 
followed to hire the Judges. OHA is currently interviewing ALJ 
applicants and expects selections by June, 2000. Second, the Bureau 
will hire attorney decision-makers who will be issuing decisions from 
the record for the non-complex probates.
    Question. What steps have you taken to try to make an effort to use 
only ALJ's to work on these cases?
    Answer. The Department's Reinvention Lab recommended redesign of 
the existing probate program in a manner that would delegate decisions 
to the lowest level, eliminate non-value added steps, and reduce the 
processing time from the official notice of death to the issuance of 
the Administrative Law Judge's (ALJ) decision, from 3-6 years to 18 
months. The new system provides two avenues to the potential heirs for 
expediting probate cases.
  --Decisions by Attorney Decision-Makers.--If the cases meet fixed 
        criteria and the heirs do not object, the case will be decided 
        by a Bureau Attorney Decision-Maker. The Bureau Attorney 
        Decision-Maker will make on-the-record decisions in those cases 
        that meet specific criteria and will decide those cases without 
        a hearing.
  --Decisions by Administrative Law Judges.--Cases may go before an 
        ALJ. Potential heirs and devisees will also be given an 
        opportunity to indicate preferred alternate methods of 
        decision-making by the ALJ, including: (1) in-person hearing; 
        (2) on-the-record decision; (3) video conferencing for areas 
        that are difficult to access frequently; and, (4) on a limited 
        basis, teleconference.
    Question. BIA has also drafted regulations establishing policies 
and procedures for the probate program and the duties of the BIA 
attorney decision-makers and paralegal specialists. Please describe 
these policies and procedures and explain how they will assist in 
addressing the huge backlog?
    Answer. The Bureau has not issued final regulations covering the 
probate process. The proposed regulations would establish a standard 
streamlined process to reduce the time to prepare a probate package for 
decisions and increase the quality of the contents of a probate 
package. The primary focus of the regulations will be to ensure that 
decisions are at the lowest level and reduce the amount of time 
required to process a probate and to improve the consistency of 
processing and recordkeeping. The ALJ processes the probate package 
under the regulations contained in the Code of Federal Regulations, 
Title 43, Part 4, Subpart D. A hearing is held which increases the time 
involved to probate an estate.
    The Attorney Decision-Maker will speed the probate process within 
the Bureau by reviewing the probate package and issuing a written 
probate decision. Decisions can be issued in uncomplicated cases based 
on the information in the probate package, without conducting a 
hearing, thereby reducing the time involved in the probate process.
    Probate specialists will be trained in will drafting, estate 
planning, research techniques, customer orientation, and the 
streamlined probate process. A certification program will be 
established for probate specialists to ensure qualified probate 
personnel.

          TRUST ASSET AND ACCOUNTING MANAGEMENT SYSTEM (TAAMS)

    The Trust Asset and Accounting Management System (TAAMS) is a 
commercial off-the-shelf land management system which BIA has piloted. 
BIA has made sure that the system was modified to reflect the unique 
aspects of Indian trust requirements, including master lease, billings 
and accounts receivable.
    Question. How confident are you that TAAMS will be a reliable 
system and, if so, what has given you this assurance?
    Answer. To ensure that TAAMS is a system upon which the entire 
Bureau can depend, the Bureau has relied upon internal and independent 
evaluations of TAAMS readiness, including:
  --SRA, a contractor responsible for independent verification and 
        validation (IV&V) of the TAAMS system and user test efforts, 
        provided suggested recommendations and risk mitigation 
        strategies. The Bureau has already initiated or will address 
        these recommendations.
  --SeNet, a contractor responsible for IV&V of TAAMS contract 
        components, performance and load testing of the Bureau's 
        network to ensure proper capacity for TAAMS, security planning 
        for TAAMS and the installation of security measures to fully 
        protect trust data.
  --Two User Test results, both internal Bureau tests to demonstrate 
        the usability of certain functions and compare the results of 
        live data input. These User Tests, conducted in February and 
        April, 2000, clearly indicate user support for TAAMS.
  --Applied Terravision Systems, Inc, the software vendor, conducted a 
        successful system test.
    Based on the Bureau's Rocky Mountain Region pilot, the Bureau has 
been able to learn and adjust to issues related to data conversion and 
cleanup, training and deployment. In addition, important analysis has 
been conducted to improve performance of the BIANET to ensure proper 
disaster recovery methods and to complete a comprehensive security 
plan.
    Question. When do you expect that the TAAMS will move from the 
testing stage into the deployment stage?
    Answer. A final User Test was completed in April, 2000, to test 
cleanup of issues identified in the February, 2000, User Test, to 
incorporate the final recommendations by the national panel of title 
experts and to make adjustments to improve the performance of TAAMS. In 
an April 28, 2000, letter to the Appropriations Committees, the 
Secretary stated his intention to initiate deployment of the title 
function at eight LTROs beginning in May, 2000. The TAAMS schedule 
calls for the first deployment in May, 2000, when each Bureau Land 
Titles and Records Office (LTRO) will receive a limited number of TAAMS 
licenses. The plan is to have all LTROs fully deployed by December, 
2000.
    Deployment consists of the physical installation of TAAMS software 
on computer workstations. Implementation occurs after deployment once 
the site personnel have thoroughly inspected its data and are 
comfortable with using TAAMS as the ``system of record''. It is 
conceivable that some offices may take longer to implement than others 
when taking their individual circumstances into consideration. It is 
expected that this decision will occur in a relatively short period of 
time at some sites and may take up to 120 days at other sites.
    Question. Has BIA started to train the field personnel on TAAMS? 
How successful has the training been so far?
    Answer. The software and service Bureau contractor (Artesia Data 
Systems, a subsidiary of Applied Terravision Systems) has been 
conducting training for staff from the Rocky Mountain Regional Office 
(formerly Billings Area Office) in Dallas, Texas. Based on initial 
pilot feedback, a new contractor has been retained to enhance the 
training efforts. The NATEC, Inc. has created and distributed surveys 
that have provided new insights into the Bureau's training challenges. 
For example, the Bureau has learned that approximately 25 percent of 
its staff require some remedial training in the use of ``Windows'' 
software. The Bureau has also redesigned the training program to 
provide some informal pre-training information to trainees to 
familiarize them with TAAMS concepts and to increase their comfort 
level once actual hands-on training is initiated. NATEC will also 
undertake a Bureauwide informational effort to ensure that all 
employees understand the importance and criticality of TAAMS.
    Question. Are there any plans to provide training not only at the 
regional level but also at the tribal level?
    Answer. Staff from the Bureau's Headquarters, Regional Offices, and 
Agencies/Field Offices, and the Tribes, will be required to attend 
TAAMS training. Training will be adapted for all levels of Bureau 
staff, including clerical program staff, mid-level managers, Field 
Representatives, Superintendents and Regional Directors.

                  TRUST FUNDS ACCOUNTING SYSTEM (TFAS)

    Developing a system to ensure that the accurate accounting and 
reporting of the trust funds for individual Indians and Tribes has been 
long overdue. The system that has been chosen is the Trust Funds 
Accounting System.
    Question. Please explain how this system has been working? Do you 
have assurances that this system will adequately track the interests of 
individual Indians? Why?
    Answer. At the end of March 2000, all individual Indian and Tribal 
accounts had been converted to the Trust Fund Accounting System (TFAS). 
Currently, there are over 269,000 accounts maintained in the new 
system. TFAS is provided by SEI Investments Inc. of Oaks, Pennsylvania, 
the leading provider of trust technology to the financial industry 
across the nation. SEI provides a commercial off-the-shelf system 
called Trust 3000 to OST through a service bureau arrangement. OST 
participates in a large user group that not only provides peer support 
but also recommends enhancements, and a third party audit of the system 
on an annual basis.
    This new system provides for a much more timely and accurate 
processing, monitoring and reconciliation of data. TFAS provides 
universal on-line real-time access to account information. An 
accountholder may inquire about his/her account at any Bureau or OST 
location (not available before TFAS) and have up to the minute 
information provided. A quarterly statement with detailed transactions 
and account balances is also provided to each accountholder who has 
provided a valid address.
    TFAS enables operational efficiencies including system self-
balancing of input, direct deposit capabilities to the accountholder, 
interfaces with major vendors and custodians, scheduling of future 
payments with stop date provisions, overdraft protection, 
reconciliation of check production, automatic posting of interest and 
audit trail provisions. SEI also provides flexible processing times and 
24 hour-7 days a week support to OST. The implementation of the new 
system has enabled the centralization of encoding, and a complete 
review and balancing of documents provided prior to encoding and a 
review for accuracy of posted transactions after posting. TFAS has 
proven to be an excellent system to administer Indian trust funds and 
investments.
    Through TFAS, OST provides timely posting of funds received, 
interest calculations based on funds in each account, and all income 
earned and due from investment assets. Through the self-balancing 
functions, the daily reconciliation process, monthly custodial 
reconciliations, annual third party audit of the SEI system and the 
OTFM annual program audit, assurances are present that the system 
adequately tracks the interests of the individual Indians. In the past, 
many transactions were conducted via telephone and/or without full 
documentation. The need to document TFAS transactions in some instances 
requires more effort on the part of all parties involved in a 
transaction. However, this documentation also serves to more accurately 
account for the beneficiaries' funds.
    OST is dependent on the Bureau for resource data including accuracy 
of ownership and the amount of payments derived from resources due to 
each beneficiary. To fully track the land interests of individuals, the 
Bureau's land, lease and resource management data is needed. The 2001 
budget request includes $35.1 million to strengthen the Bureau's land, 
lease, and resource management capabilities. The Trust Asset and 
Accounting Management System (TAAMS), which is being developed, 
deployed, and implemented by the Bureau, will include an asset 
management system with a master lease subsystem, a billing and accounts 
receivable subsystem, and a collection subsystem. Following successful 
implementation, the TAAMS system will replace the present Bureau 
Integrated Records Management System (IRMS). In addition, the Land 
Record Information System (LRIS) function has been incorporated into 
TAAMS. Linking the data in TAAMS with TFAS will provide for an accurate 
tracking of individuals' interests.
    Question. It has been projected that $14.2 million will be need for 
TFAS in fiscal year 2001. Please explain how this money will be used?
    Answer. A total of $14.2 million is needed to meet the operating 
requirements of TFAS, as follows:
  --$12,050,000 is needed for the TFAS and related systems contracts to 
        maintain an estimated total of 269,000 accounts, develop 
        systems interface requirements, provide regional lock boxes for 
        electronic deposit, and transfer collection of income and fees 
        data from TAAMS.
  --$500,000 is required for the scheduled replacement/upgrades of 
        computer workstations, computer security, and other hardware, 
        software and network systems replacement costs associated with 
        TFAS.
  --$1,655,000 is needed for support functions needed to operate TFAS 
        including, centralized data entry, help desk, systems 
        operations, and training on the functions of TFAS. Centralized 
        accounting coupled with the pre- and post-review of all 
        transactions enhances accountability to the account. Now that 
        TFAS is operational, OST has the responsibility for training 
        new users and implementing any systems enhancements.

                        QUESTIONS FOR MR. GOVER

    Question. It is tough to generalize the sentiment from the tribes 
because they are all so unique, and they all have varying interests and 
concerns. Putting that caveat aside, how confident are you that the 
priorities listed by BIA are generally in line with the priorities of 
the American Indians and Native Alaskans?
    Answer. As conveyed during the April 4, 2000, Senate appropriations 
hearing on the Bureau's fiscal year 2001 budget request, the Bureau's 
priorities are generally reflective of the priorities of the Tribes in 
Indian Country. While the Tribes' major priority has been increases in 
Tribal Priority Allocations (TPA), they also support the fiscal year 
2001 priorities--trust reform, law enforcement, and school 
construction--which are focused on providing improved and increased 
services to Indian Country. These are areas in which the Tribes have 
historically expressed their views that the Federal Government should 
provide increased appropriations to address great social and economic 
needs.

                SECTION 127 OF THE FISCAL YEAR 2000 BILL

    In Section 127 of the fiscal year 2000 bill, Congress included a 
provision that provides the Secretary of the Interior with the power to 
redistribute any Tribal Priority Allocation funds, including even the 
tribal base funds, to alleviate tribal funding inequities by 
transferring funds to address identified unmet needs, dual enrollment, 
overlapping service areas or inaccurate distribution methodologies. The 
provision, of course, provided protections by limiting this power by 
stating that no tribe would receive more than a 10 percent reduction in 
a fiscal year.
    Question. At this time, would you advocate any expansion or change 
in this authority for fiscal year 2001?
    Answer. The President's fiscal year 2001 budget request does not 
request continuation of the Section 127 language. No Tribes have sought 
to use this fiscal year 2000 authority to date.

                               EDUCATION

    The Bureau has a program entitled the Family and Child Education 
(FACE) program. This is a family literacy program, serving children up 
to the age of five and their parents. It focuses on early childhood, 
parent and child time, parenting skills, and adult education. The 
administration requests $6.8 million to double the number of Family and 
Child Education sites at an average cost of $310,000 per site.
    Question. Please give an overview to everyone as to what FACE is?
    Answer. FACE is a comprehensive early childhood development program 
first implemented by the Bureau in 1990 and originally named the Early 
Childhood/Parental Involvement Pilot Program. The program serves 
children from birth through age 5 and their parents and children in 
kindergarten through grade 3. It recognizes the value of the parent as 
the child's first teacher and integrates the cultural and traditional 
values of the family. The program utilizes three research-based models 
of reform: (1) the Parents as Teachers (PAT) model, which adopts a 
home-based emphasis for children from birth to age 3; (2) the National 
Center for Family Literacy (NCFL), a center-based model for children 
from age 3 to 5; and, (3) the High/Scope model for kindergarten through 
grade 3 students that emphasizes an ``active learning'' process of 
education.
    The FACE model addresses the literacy needs of the family and 
addresses many of the educational goals in the Goals 2000: Educate 
America Act and the Indian Education Act, and the Bureau's educational 
goals in the following areas:
  --School Readiness
  --High School Completion
  --Student Achievement and Citizenship
  --Adult literacy and Lifelong Learning
  --Safe, Disciplined and Drug Free Schools
  --Tribal Government, Language and Culture
    A 1998 study on the effects of the FACE program showed the 
following:
  --Students who participate in FACE score higher on standardized tests 
        in reading and language development in early elementary grades 
        than children who do not participate in FACE.
  --Personal and social development is higher with FACE students than 
        non-FACE participants.
  --Three and four year old participants demonstrate improved language 
        and literacy skills to prepare them for school.
  --Parental involvement increases significantly once children enter 
        school compared to parents who do not participate in FACE.
    Due to the success of FACE, the sites have increased from the 
original six in 1990 to 22 sites today. Continued training and 
technical assistance is provided to all sites throughout the year by 
the Bureau's Office of Indian Education Programs and the service 
providers.
    Question. What kind of planning has BIA developed for the 
implementation of these 22 additional FACE sites? Are you confident 
that it will be able to get these 22 additional FACE sites up and 
running within fiscal year 2001?
    Answer. The planning stage for implementation of the 22 additional 
FACE sites has begun with a time line outlining specific target dates 
for the process. The process includes five phases aimed at 
strengthening the commitment to quality performance and implementation. 
In the first phase, new FACE site applications were mailed to the 60 
eligible applicants in April, 2000. All Bureau-funded schools serving 
kindergarten through grade 3 with appropriate facilities were eligible 
to apply. This application and selection process is based upon the 
existing FACE correlates and is similar to the current process. During 
the second phase, site applications will be completed and returned to 
the Bureau by mid-June, 2000. The Bureau will review the new FACE site 
applications during the third phase. The applications will be ranked by 
the Bureau's FACE committee by mid-July, 2000. The fourth phase is site 
visits to the 30 selected potential FACE sites to validate the 
information contained in the application. All FACE site visits will be 
completed and final selections made by December, 2000. The fifth and 
most important phase is providing intense technical assistance and 
training to the 22 selectees which will strengthen each individual 
project and assure a high degree of success. This will occur during the 
first and second quarter of fiscal year 2001.
    This five-phased approach will ensure that by the time funding is 
available in July, 2001, all selected sites will be ready for 
implementation.
    Question. Will these new sites be similar to the current FACE 
sites?
    Answer. Yes, the proposed new sites will utilize the three models 
of research-based methods currently used by the existing 22 sites. 
These models of reform are effective and easily adaptable to community 
needs, cultural values and traditions. The models are centered on 
parents receiving and utilizing educational standards and practices for 
their children well before they enter their formal education process. 
In the initial stages of implementation (the first 2 to 3 years), the 
sites will establish the core areas of the three models and then 
progress towards an outcome-based performance approach.
    Question. How and when will the additional sites be selected?
    Answer. The Bureau will establish a team to review the applications 
for the additional FACE sites. The team will include experts in the 
field of early childhood, the research-based trainers of PAT, NCFL, 
High/Scope, and Department of Education and Tribal personnel. The 
schools will be ranked by a scoring system. Site visits will then be 
conducted to determine that the schools have the appropriate facilities 
available to house the program. Final selections will be made by 
December, 2000, and notification letters will be sent to the proposed 
22 sites by January 15, 2001.
    The administration requests $8.2 million to start a new initiative 
known as the Therapeutic Residential Model (TRM) sites. This will 
provide dormitories which will offer a last chance environment for 
certain children and will offer counseling programs in addition to just 
a dormitory setting. With that money, the administration hopes to 
implement 6 pilot sites.
    Question. Please explain this new initiative?
    Answer. The Therapeutic Residential Model (TRM) program will 
address the unique social, emotional, and spiritual needs of K-12 
students in the residential programs. These residential facilities 
enroll a large population of students who are considered high risk. 
Many of these students have been exposed to physical abuse and neglect, 
have abused drugs, alcohol, and have engaged in unsafe behavior. In 
some schools, as many as 80 percent of the students are on probation 
from the juvenile court system, 40 percent or more are chemically 
dependent, and the majority of these students are children of 
alcoholics and from dysfunctional families. Given the current funding 
levels, the boarding schools do not have the resources to meet the 
critical and diverse needs of these students. In fact, each school is 
funded as though it does not enroll high-risk students. As a result, 
the high-risk students are not provided appropriate care.
    The Bureau is proposing to start the six pilot sites in fiscal year 
2001 that will provide mental health personnel as well as social 
workers, health care personnel, and support staff to meet the holistic 
needs of the high-risk students. The TRM model is encapsulated into 
nine correlates which includes: (1) Comprehensive Mental Health 
Substance Abuse Services, (2) Comprehensive Student Screening/
Assessment, (3) Intensive Staff Training, (4) Small Group Living, (5) 
Home, School, Community, and Tribal Interaction, (6) Safe and Secure 
Environment, (7) Cultural Relevance, (8) Year Round Program, and (9) a 
Transition Period to home and community. The staff will be comprised of 
nurses, counselors, social workers, clinical psychologists, and trained 
residential support staff. The staffing will reflect each school's 
student population. The provision of appropriate staff and clinical 
personnel will provide the compensatory assistance that could bring 
achievement levels closer to norms and prepare students for post 
secondary education or employment. It is estimated that a small school 
of 200 students will require approximately an additional $700,000, 
while a large boarding school will require over $2 million for its TRM 
program.
    Question. What kind of planning has BIA developed for the 
implementation of this new initiative?
    Answer. The Bureau has been planning and developing the TRM during 
the course of the past year. The selection and implementation process 
takes place in five phases. The development of the application and 
selection criteria, based upon the nine correlates of the TRM, was 
completed in March, 2000. In the second phase, each of the selected 
populations can submit an application during April through June, 2000. 
During the third phase, applications will be reviewed, ranked and rated 
for tentative selections. The fourth phase is the validation of the 
information contained in the application through on-site visits, which 
will take place during August and September, 2000. The fifth and most 
important phase is providing technical assistance and training to the 
selectees which will strengthen each individual project and assure a 
high degree of success. This will occur during the first and second 
quarter of fiscal year 2001.
    Question. How will these sites be selected?
    Answer. A review team comprised of residential living staff, Bureau 
employees and other individuals with expertise in the field will select 
these sites based on the nine correlates and how they are addressed in 
the application. The six sites to be selected will include two off-
reservation residential schools, two on-reservation residential 
schools, and two peripheral programs.
    Question. How does the BIA plan to evaluate the pilots to determine 
whether they are effective?
    Answer. It is imperative that the sites selected for the pilot 
programs provide a comprehensive delivery of services to the 
residential students. This will be addressed in the application and 
then supported with training for all residential staff. The Office of 
Indian Education Programs (OIEP) will hire an outside evaluation team 
to evaluate the delivery of services, training of staff and the impact 
TRM has on achievement levels and behavior of the students.
    Usually, BIA receives approximately $700,000 per fiscal year for 
the Student Statistical Initiative, an automated system to keep track 
of certain statistics relating to BIA's education programs.
    Question. Please explain why the request seeks $3 million for this 
initiative this year?
    Answer. The requested funds will provide for the first phase of a 
four-year plan to provide Central/Regional server administration and 
maintenance, software/application procurement and licensing, file 
server enhancements, staff training and network management for all 
schools under OIEP's authority. The requested increase of $3.0 million 
will be used to implement the SSI program at 50 additional Bureau-
funded schools in fiscal year 2001 and to maintain the 28 sites 
implemented in fiscal year 1999 and fiscal year 2000. Of the requested 
amount, $1.7 million will provide for: the installation and maintenance 
of the Central Office server to collect data from each school; 
maintenance of the network including technical assistance and help 
desk; software licensing for the 50 schools by midSchool Year 2001-
2002; installation of the software at each school site, on-site 
training and follow up training; and workstations and servers for each 
school. The balance of $1.3 million will be used to maintain the SSI 
program in schools which implemented the program in fiscal year 1999 
and fiscal year 2000 to include updated software licenses, server and 
workstation enhancements, and continued training. The Bureau piloted 
SSI at four schools in fiscal year 1999 and installed the program in an 
additional 12 schools in 1999 and 12 schools in fiscal year 2000.
    The SSI will eliminate the current cumbersome and time consuming 
process for developing and distributing annual school operations 
funding by automating the process at the local school level. School 
statistics will also capture and maintain data on student records, 
academic curriculum, accreditation, student achievement, transportation 
services, personnel records, food services, and needs assessments. The 
system will provide the capability to track student movement between 
Bureau-funded schools and from/to public and private schools. The 
system will also provide data on retention rates and dropout rates. In 
addition, it will make it possible to automate the Indian School 
Equalization Program (ISEP) which will ensure schools have better 
access to their funds and are held accountable for student funding 
data.
    Question. Is BIA really equipped to more than triple its 
implementation of the Student Statistical Initiative in fiscal year 
2001? And, how has it prepared for this?
    Answer. Yes. A plan has been established for the implementation of 
the SSI. This plan includes the procurement of software, training of 
school staff and procurement of hardware for each school. Schools have 
been identified for fiscal year 2001 to receive the training, software 
and hardware for SSI. An internal core staff of information technology 
experts who are well versed in the SSI software and Indian School 
Equalization Formula requirements is essential to fully implement the 
project. This core staff will be involved in annual training at the 
school level and provide technical assistance to the field on an as-
needed basis. Furthermore, funding for this program is being requested 
under the Central Office Operations budget activity to facilitate the 
streamlining of information resource management technologies throughout 
the Bureau for improved management oversight by a Chief Information 
Officer as recommended in the National Academy of Public 
Administration's report on the Bureau's management and administration 
functions.
    Question. How many schools could benefit from this increase and how 
is it determined which schools will reap the benefits?
    Answer. Of the total, $1.7 million of the requested $3.0 million 
increase will be used to implement the SSI program at 50 additional 
Bureau-funded schools infiscal year 2001. Schools selected to 
participate in the SSI program have a functioning Local Area Network, 
sufficient band width available, electronic mail, and the potential for 
local technical support. The remaining $1.3 million will address 
upgrades at 28 existing schools.

                      TRIBAL EDUCATION DEPARTMENTS

    Question. Please explain why BIA has not requested funding for 
Tribal Education Departments?
    Answer. While no specific funding is requested, Tribes have 
utilized the option of prioritizing their base TPA funds in the Other-
Education, Tribal Design line item for Tribal Education Departments.
    Question. Are there other areas within BIA's budget request that 
would essentially address funding that would otherwise fall under 
Tribal Education Departments?
    Answer. Tribes have the option of using the Other-Education, Tribal 
Design line item within TPA for Tribal Education Departments. The 
purpose of this program is to allow Tribes to exercise their Tribal 
sovereignty by determining how best to structure their education 
program to meet the needs of the Tribal community.

                   STUDY WITH DEPARTMENT OF EDUCATION

    BIA requests a $500,000 increase for a longitudinal study with the 
Department of Education.
    Question. What is this study for?
    Answer. This study is being conducted by the Department of 
Education on non-Indian children from birth to age five on a nationwide 
basis. The funds requested in the fiscal year 2001 budget are to build 
upon the Bureau's partnership with the Department by providing funds 
for an American Indian component of the Early Childhood Longitudinal 
Study. This study will be conducted under a Memorandum of Agreement 
between the Bureau and the Department of Education entered into under 
the direction of Executive Order 13096, American Indian and Alaska 
Native Education.
    Question. Why doesn't this fall under the Department of Education's 
budget request?
    Answer. The Department of Education's budget request for this study 
does not include funding for an Indian children component. The Bureau 
is requesting funds to allow the study to include American Indian 
children.

USE OF SCHOOL OPERATIONS AND MAINTENANCE FORMULA GRANTS AND AREA/AGENCY 
                        TECHNICAL SUPPORT FUNDS

    Please explain the purpose of the funds requested for Area/Agency 
Technical Support.
    Question. Does this purpose cover ``oversight and technical'' 
assistance?
    Answer. Area/Agency Technical Support funds are distributed to each 
Education Line Official for office staff salaries, employee benefits, 
travel, training, and office operational costs to provide academic 
program monitoring, oversight, and technical assistance relating to 
Johnson- O'Malley Education Assistance program, Adult Education, Higher 
Education Scholarships and direct supervision over Bureau-operated 
schools. The functions performed by Education Line Officials for 
education programs are codified in 25 CFR 33.5 and 33.6. The Education 
Line Officers are responsible for the following:
  --Represent the Bureau education programs in their dealings with 
        Indians, State and local governments, other Federal agencies 
        and the public.
  --Direct and assist in the development application and implementation 
        of overall policies and programs, evaluate performance, and 
        coordinate those features of programs extending beyond the 
        jurisdiction of a single school within the agency or office.
  --Recommend revisions of national policies, programs, procedures and 
        regulations.
  --Monitor and evaluate Bureau education programs.
  --Provide technical assistance and coordination for schools and other 
        offices within their jurisdiction in such areas as curriculum, 
        procurement, contracting, budgeting, personnel and other 
        administrative services.
  --Direct those agency positions deemed by the Assistant Secretary--
        Indian Affairs as ``directly and substantially'' involved in 
        education, including all contract educator positions.
  --Coordinate, monitor, and as appropriate, certify the validity of 
        management information system data collected by these schools.
  --Enhance technology to improve that collection.
    Question. Has the BIA, on occasion, withheld funds from various 
schools' Operations and Maintenance formula grants and other funds? If 
so, what for?
    Answer. Yes. The Bureau does withhold funds from some isolated 
Bureau-operated schools' Operations and Maintenance (O&M) formula 
grants to provide skilled craftsmen such as licensed electricians, 
boiler operators, and water treatment plant operators and to offset the 
cost of program oversight and accountability. Centralized Agency and 
Regional crews have been found to be more cost effective for these 
isolated locations. These types of positions at the school level are 
hard to fill and retain due to isolation factors and lack of available 
employee housing. A policy to withhold funds for all Bureau-funded 
schools was issued but has since been rescinded before any withholding 
of funds occurred from any Bureau grant or contract schools' O&M 
formula grants or other funds. The Bureau only withholds funds from O&M 
formula grants to the extent requested by such Tribe or Tribal 
organization.
    Question. Have some of these funds been used to perform tasks that 
could also fall within Area/Agency Technical Support?
    Answer. No. Facilities Operation and Maintenance funds have and are 
being used to provide technical assistance and oversight which has 
historically been the responsibility of non-education Regional/Agency 
offices. For instance, within the Navajo Region, operations and 
maintenance funds have been used for centralized crews that monitor and 
abate hazardous materials violations, natural gas line inspection and 
repair, radio equipment repair, pest control services, and water well 
repair. This function is not provided for by funds appropriated for 
Area/Agency Technical Assistance.
    Question. If the BIA has done this in the past, does it foresee 
withholding such funds from schools for such purposes in fiscal year 
2001?
    Answer. Yes. In the Navajo Region there is a formal agreement 
between the Regional facilities management office and the education 
line officials for scheduling and accounting for work performed by 
centralized crews throughout the Navajo Region using Operations and 
Maintenance funds. At all other Bureau Regions and Agencies, Operations 
and Maintenance funds may be reduced through negotiations with the 
affected schools to provide the aforementioned services.

                          SCHOOL CONSTRUCTION

    The administration requests $300.5 million for school construction 
for fiscal year 2001. This is a 126 percent increase. The 
administration's decision to focus significant resources on BIA school 
replacement in fiscal year 2001. In conjunction with this request, BIA 
has issued a new priority list for school replacement construction. Two 
Washington state schools are in the top 13--one for the Lummi tribe and 
one for the Colville tribe. The administration proposes that the $300.5 
million would take care of the top 6 schools on the list, of which 
Lummi is included.
    Question. What process was used to establish the new list?
    Answer. In 1998, the Bureau began preparations for developing a new 
Education Facilities Replacement Construction Priority List, including 
the acceptance and evaluation of applications from Tribes who wished to 
have schools placed on the priority list.
    The Bureau published a notice in the Federal Register on November 
17, 1998, (63 FR 63942) requesting comments on the draft revised 
instructions and criteria entitled ``Instructions and Application for 
Replacement School Construction, 1999.'' The new instructions governed 
the priority ranking process for construction of replacement education 
facilities and the criteria used in ranking applications. Comments were 
received relating to administrative requirements and responsibilities; 
definitions of ranking criteria; evaluation of applications; and cost 
sharing. The comments were reviewed and incorporated into the final 
instructions and criteria as appropriate by a team comprised of Tribal 
representatives and Bureau employees from the Bureau's Office of Indian 
Education Programs and the Office of Facilities Management and 
Construction. The Bureau proceeded with using the final revised 
application instructions and criteria on February 26, 1999.
    Copies of the final revised instructions and criteria were sent to 
all Bureau schools and those schools that receive Bureau funds under 
contract or grant. The Bureau held Tribal consultation meetings on the 
revised process. The Bureau's Education Line Officers offered training 
to applicants at all schools under their administrative jurisdiction on 
how to complete applications using the revised instructions and ranking 
criteria. Tribes and Bureau-funded school boards received advance 
written notices of training session dates, times, and locations for 
Tribes and schools under their jurisdictions.
    The Bureau published another notice in the Federal Register (64 FR 
14936) on March 29, 1999, calling for applications based on the revised 
instructions and ranking criteria. The Bureau accepted applications 
beginning June 28, 1999, and used the criteria in the revised 
instructions to review and evaluate all applications that were received 
on or before the deadline of July 16, 1999. After the application 
period closed, a 12-member Replacement of School Evaluation Committee, 
comprised of officials from the Bureau, Tribes, the Department of 
Education, and the Department of Defense, reviewed 105 applications and 
ranked 96 applications. These applications were ranked according to the 
new criteria and 10 schools were placed on the fiscal year 2000 
Priority List. Schools placed on the original List as of fiscal year 
1993, that were not fully funded for construction by fiscal year 2000, 
specifically projects 13, 15, and 16, did not have to submit 
applications for ranking on the new Priority List and are retained in 
order at the top of the new Priority List as projects 1 through 3. 
Thirteen schools are now listed in the Education Facilities Replacement 
Construction Priorities List as of fiscal year 2000 which was published 
in the Federal Register (Volume 65, Number 20) on January 31, 2000.
    Question. If this Committee is unable to provide the full request, 
how would you recommend we determine a funding level? Is it a matter of 
providing full funding for as many schools as can be afforded, or 
should we provide full funding for some schools and only provide design 
funds for others?
    Answer. OMB Circular A-11, Principals of Financing, requires that 
capital improvements, if phased, must provide a useable segment when 
completed. When full funding is not provided, it often results in 
higher planning costs and higher acquisition costs. This concerns the 
Bureau, especially when the second phase of the construction is subject 
to the availability of appropriations. Tribes are reluctant to enter 
into a construction contract/compact without knowing that funds will be 
provided in the subsequent year. Additionally, 31 USC Section 1341 (a) 
prohibits an officer or employee of the United States Government from 
entering into a contract or obligation for the payment of money before 
an appropriation is made unless authorized by law. Construction 
contractors may be reluctant (risk avoidance) to enter into full 
construction contracts with Tribes and Tribal organizations if full 
funding is not available when their construction contract is awarded. 
Although phased funding may allow more schools to begin construction, 
the total number of schools replaced would not increase and the total 
construction cost will increase for the project.
    Question. How many schools could be built if they were phased over 
a two year period?
    Answer. As stated previously, OMB Circular A-11, Principals of 
Financing, requires that capital improvements, if phased, must provide 
a useable segment when completed. When full funding is not provided, it 
often results in higher planning costs and higher acquisition costs. 
This concerns the Bureau, especially when the second phase of the 
construction is subject to the availability of appropriations. Although 
phased funding may allow more schools to begin construction, the total 
number of schools replaced would not increase, yet the total 
construction cost for the project will increase.
    Question. Please explain what would happen to the time line for 
construction for a particular school if the tribe opted not to contract 
and therefore if the Bureau had to do the project itself?
    Answer. If a Tribe chooses not to contract for a construction 
project, the Bureau will implement the construction work. In the past, 
the planning phase was done in one year, the design phase was done the 
following year, and the construction phase began in the third year. The 
Bureau's new re-engineering school planning, design and construction 
process will be used for three of the six replacement schools requested 
in the President's Budget for fiscal year 2001. The three schools are: 
Tuba City Boarding School, AZ; Wingate Elementary School, NM; and Baca 
Thoreau (Dlo'ay Azhi) Consolidated Community School, NM. The re-
engineering process provides a method by which school projects can be 
completed in half the time previously expended, thus reducing the 
planning, design and construction time from six or seven years to less 
than three years. The end result provides the students in these schools 
with facilities that meet the needs of the education program in an 
environment conducive to learning.
    Question. If some schools are not contracted, is there likely to be 
a large unobligated balance for school construction?
    Answer. Since much of the construction funding would be provided to 
Tribes through grant or contracting authority, and should the 
additional funds requested for construction management staff in fiscal 
year 2001 be provided, the Bureau believes this funding would be 
obligated in a timely manner. The construction awards on four of the 
six schools requested in the President's fiscal year 2001 budget will 
be implemented through Public Law 100-297 school grants or Public Law 
93-638 self-determination contracts/compacts. The Tribes and Tribal 
organizations are able to implement design and construction faster than 
the Bureau since it is the only school project they are managing. The 
Bureau's fiscal year 2001 request includes an increase in the 
Construction account for program management to hire 20 FTE to assist in 
the increased construction and operations and maintenance program 
activities associated with the funding increase requested in Education 
Construction. To be able to accelerate school replacement, make 
progress on reducing the backlog for construction and facilities 
improvement and repair programs, and ensure adequate contract, grant, 
and compact monitoring, increased staff is critical. The additional FTE 
would also allow the Bureau to continue to improve the monitoring of 
Public Law 100-297 Tribally controlled school grants and Public Law 93-
638 contracts.

                            LAW ENFORCEMENT

    Question. Please describe how the initiation of the Department of 
Justice's COPS program has improved the law enforcement programs for 
the BIA?
    Answer. The Bureau is not eligible for Department of Justice (DOJ) 
grants. However, the DOJ's COPS grant program has provided much needed 
resources to Tribally-operated law enforcement programs by providing 
funds to hire, equip and train Tribal law enforcement officers and to 
assist in building new detention facilities. The COPS program has 
provided grants to Tribes for approximately 1,100 police officer 
positions throughout Indian Country. However, these grants expire after 
three years and most Tribes cannot afford to assume the new police 
officer salary costs. Under the Presidential Initiative on Law 
Enforcement in Indian Country, the Bureau is requesting base funds to 
hire these trained and experienced COPS officers on a permanent basis 
and DOJ has extended the length of many COPS grants.

                           LAND CONSOLIDATION

    Fractionated ownership interests of trust and restricted lands is a 
major problem that, by its nature, will expand exponentially over time. 
It has become increasingly expensive for the government to manage these 
lands, and the fractionated ownership has resulted in the reduction of 
the lands' economic value for Indian owners. The administration is 
asking for $12.5 million to address this problem in fiscal year 2001. 
This is a $7.5 million increase over fiscal year 2000 funding.
    Question. What reservations are targeted for participation in the 
land consolidation in fiscal year 2001? How are they selected?
    Answer. In fiscal year 2001, funds will continue the acquisition of 
fractional interests on the three reservations (Bad River Band, Lac 
Courte Orielles Band, and Lac du Flambeau Band) that constituted the 
pilot; for administrative costs for purchasing the interests that must 
be redetermined and redistributed to the legal heirs and devisees 
pursuant to the Court's ruling; and potentially expanding the 
acquisition program to other reservations. Several criteria will be 
applied to determine the preferred priority of reservations for the 
project: the extent of fractionation of Indian trust or restricted 
lands associated with the reservation (the greater the fractionation 
the higher the priority); the greater the number of actual or projected 
willing sellers the higher priority; and the greater the support of the 
Tribal government for the project, the higher the priority.
    Question. As part of the selection process, does BIA focus on lands 
with the best economic prospects to ensure that the government will get 
the most return for its money?
    Answer. The Land Consolidation project is primarily a cost-
reduction project rather than a for-profit or--income producing 
project. Although the Federal Government will received a return on its 
investment in the form of income derived from the development of the 
consolidated land, the principal cost-benefit will be the decreased 
cost of managing the previously fractionated trust land and resource. 
In fact, the only hope for producing income from the most fractionated 
allotted lands is to reduce the fractionation to a level that would 
make leasing or contracting of such lands, and the distribution of 
derived trust income, a real or practical possibility. Over time, the 
combination of cost reduction and the return on investment should 
provide a positive cost-benefit ratio for the Federal Government.
    Question. As part of the administration's request, it proposes 
language to change this from a ``pilot'' to an official program. How 
big of a program might this become?
    Answer. The Land Consolidation program would be primarily devoted 
to the acquisition of fractionated interests; a small amount would be 
used for program administration. The current Land Consolidation pilot 
project will provide data required to project the cost of 
administration and the estimated cost-benefit. The Bureau estimates 
that the cost of administration will be four to six percent of the 
total project cost.
    At present, there are more than 2.2 million undivided or fractional 
interests in trust or restricted allotted lands. The projected number 
of interests acquired by the project through fiscal year 2001 is about 
20,000 interests. At that rate, and proceeding one agency at a time, it 
would take about 115 years to acquire all fractionated interests. 
However, if sufficient funding and willing sellers were available for 
20-25 agencies at any one time, then almost all fractional interests 
could be acquired within an estimated 5-10 years (with the greatest 
activity within the first 5 years and the last acquisitions estimated 
at 15 years). In order to provide the funding and operation stability 
required for Indian Land Consolidation, the current project should be 
made a permanent program.
    The greatest impact of the acquisition of fractional interests will 
be at the Land Titles and Records Offices which must process each 
fractional interest within each deed. At present, the primary problem 
arises from the large number of ``pre-Youpee'' interests on each tract 
in each deed which substantially lengthens the time required to record 
and update the title to the land.

                              OFFICE MOVES

    In response to the NAPA report, the BIA has decided to move two 
administrative units from Albuquerque to the Washington, D.C. area.
    Question. Explain why this move will improve the Bureau's 
management as opposed to re-focusing resources to Albuquerque?
    Answer. The National Academy of Public Administration (NAPA) report 
and various General Accounting Office (GAO) reports have confirmed that 
hands-on management, daily direction, and increased communications are 
essential for effective management. Furthermore, the Office of 
Inspector General found that the Bureau was not in compliance with a 
number of statutes, including the Chief Financial Officers Act of 1990, 
the Debt Collection Improvement Act of 1996, the Credit Reform Act of 
1990, and the Prompt Payment Act. The longstanding nature of these 
material weaknesses resulted in a qualified audit opinion for the 
Bureau. The geographic distance between the Bureau's Washington 
Headquarters and its Albuquerque accounting management and information 
resources management operations greatly contributed to the Bureau's 
predicament. The Bureau agrees with the NAPA and GAO findings that 
combining all administrative functions in one location would facilitate 
direct supervision and lead to enhanced performance and accountability 
in all aspects of management.
    Question. How much notice were the Albuquerque employees given 
prior to the actual move?
    Answer. The first phase of the NAPA recommendation regarding the 
transfer of functions was implemented in mid-February, 2000. The 
employees within the Division of Accounting Management were presented 
with a notice of Transfer of Function on November 5, 1999. The 
employees of the Office of Information Resources Management were 
notified on December 6, 1999.
    Question. Explain what procedures, support, and options were 
provided to the employees based in Albuquerque in anticipation of the 
move. What alternatives, if any, were provided to them?
    Answer. The employee notices provided background information on the 
decision to relocate the organizations and explained the transfer 
process and the rights of the employees as they proceeded through the 
process. Employees were offered full relocation benefits with their 
acceptance to transfer. Understanding the difficulty in making such a 
decision, the Bureau provided the employees with an additional two 
weeks beyond what is required by regulations to make their decision. To 
further assist the employees, the Bureau received from the Congress the 
authority to extend the Voluntary Separation Incentive Payment program 
to Albuquerque employees affected by the transfer of functions. Special 
provisions were also added to allow the Bureau to cover health benefits 
for one year for employees who elected not to relocate. The Bureau also 
offered house hunting trips, payment of relocation costs, temporary 
quarters, and storage of household goods until a residence was located 
by the relocated employees.
    Question. What percentage of the employees actually moved to the 
Washington, D.C. area? What happened to the remainder of the employees? 
Did they retire? Did any have to retire early? Did they transfer to 
other federal jobs? Did they move to the private sector? Provide 
specific numbers of what has happened to all of the Albuquerque 
employees that were affected by the move.
    Answer. Of the 134 employees affected by the transfer of functions, 
a total of 31 employees, or 23 percent actually moved to the 
Washington, D. C. area. The remaining employees selected other options 
which include the following:
  --Voluntary Separation Incentive Program--31 employees, or 23 
        percent, accepted the buy-out option;
  --Placements with other Federal Agencies--24 employees, or 18 
        percent;
  --Separated from Federal service--43 employees, or 32 percent (due to 
        their status as part-time and/or temporary employees with no 
        fringe benefits);
  --Resignations--5 employees or 4 percent.
    Question. In addition to these two office moves, has the Bureau 
planned any additional office moves? If so, please explain the basis 
for the move.
    Answer. Yes, the only additional move that is expected at this time 
is to relocate some of the administrative functions related to 
property, contracting and information resources management from the 
Washington Headquarters to the Reston Administrative Center. This move 
will allow for additional office space at the Washington Headquarters 
to be available for the Office of the Assistant Secretary--Indian 
Affairs.

                      TRIBAL PRIORITY ALLOCATIONS

    Under TPA, there is a request for an increase of $2.8 million for 
higher education scholarships and an increase of $1.3 million for 
Tribal Courts.
    Question. How will these funds be distributed? Will it be formula 
driven?
    Answer. The requested increase of $2.9 million for Scholarships 
will be distributed to those Tribes having a Scholarships line item 
within their Tribal Priority Allocations priority listing. These funds 
are not distributed by formula, but rather are awarded to eligible 
students who demonstrate an unmet academic financial need as determined 
by the various college/university financial aid offices. The increase 
will allow approximately 950 additional students to be awarded 
financial assistance at an average of $3,000 per student award.
    The additional $1.3 million requested for Tribal Courts will be 
used to implement provisions in the Indian Tribal Justice Act, 
specifically:
  --In partnership with the National Indian Tribal Court Judges 
        Association, $200,000 will be used to initiate Tribal judicial 
        conferences, 25 U.S.C. 3614;
  --The remaining $1.1 million will be used for base support funding 
        for the more than 250 Tribal justice systems, including Courts 
        of Indian Offenses, 25 U.S.C. 3613. Funds will be equally 
        distributed among Federally recognized Tribes currently 
        receiving court funds through the Tribal Priority Allocation 
        process. These funds may be used for the purposes set forth in 
        Section 3613(b), and funds earmarked for Tribes served by 
        Courts of Indian Offenses will be used by the Bureau to improve 
        those courts.
    Question. Can the Bureau assure Congress that the funds will go for 
the scholarship purpose and the Tribal Courts purpose, as BIA has put 
forth in its request, or is it possible that the funds could be 
reprogrammed by the tribes?
    Answer. The Tribes have the flexibility of shifting funding within 
their total Tribal Priority Allocations (TPA) allocation to meet 
changing priorities. TPA is critical to the Tribes' goal of achieving 
self-determination and economic stability. The present TPA process 
allows the Tribes to reprogram appropriated funds from one program to 
another based on Tribally-determined priorities. Therefore, the Bureau 
cannot guarantee that funds for Scholarships or Tribal Courts will not 
be reprogrammed to another Tribal program account under TPA.
    Congress previously directed that BIA should ensure that the 
maximum amount of funding would be provided to meet law enforcement 
needs and in fiscal year 2000 Congress directed that no law enforcement 
funds were available for tribal shares. Additionally, the Bureau 
previously indicated to this Committee that it would focus on improving 
the distribution methodology so that distribution would be based on 
identified law enforcement and detention needs.
    Question. Are you still taking this distribution approach?
    Answer. Yes. Through a survey of Tribal and Bureau agency law 
enforcement and detention needs and priorities, the Bureau has 
considered population, land base, crime statistics, training and 
current levels of staffing as factors in determining the distribution 
of funds. The Bureau will continue to stay focused on improving its 
distribution methodology. Considering the great diversity from Tribe to 
Tribe, it is not possible for a ``one size fits all'' distribution 
process. In addition, the Bureau continues to work closely with DOJ to 
ensure that maximum benefit is realized in the distribution of funds.
    Question. How do you assess this? What factors are considered?
    Answer. In fiscal year 2000, the Bureau worked with Tribal leaders 
and Indian Country police chiefs to develop a method to best distribute 
the additional funds provided. From this consultation came a wide mix 
of ideas. However, participants agreed a ``one size fits all'' approach 
was not feasible. Through a survey of needs and priorities, the Bureau 
again considered population, land base, crime statistics and current 
staffing levels for distributing funds. The Bureau also took into 
consideration the grants (i.e., COPS) provided to Tribes by the 
Department of Justice.

                       NEW CONTRACTS OR COMPACTS

    The moratorium on new contracts or compacts was lifted in fiscal 
year 2000.
    Question. As a result, how many contracts or compacts have been 
requested so far?
    Answer. As of May 1, 2000, the Bureau had received 4 requests, 
including 2 compacts, for a total of about $275,000. However, the 
Bureau's Office of Law Enforcement Services has indicated that an 
additional 10 Tribes are expected to contract Bureau law enforcement 
programs this year. The estimate for these new law enforcement programs 
is approximately $500,000. The Bureau has requested its Regional 
Offices to assist in determining the reason why the demand is not 
higher.
    Question. How many new contracts or compacts have you estimated for 
fiscal year 2001?
    Answer. Prior to the fiscal year 1999 moratorium imposed by the 
Congress, the Bureau was beginning to see a leveling of requests to 
contract new programs by Tribes. However, because of the fiscal year 
1999 moratorium on new or expanded contracting and/or compacting, the 
Bureau had estimated that as many as 70 new or expanded contracts would 
be entered into during fiscal year 2000. This has not happened. The 
Bureau has requested its Regional Offices to ascertain why the demand 
is not higher.

          REALIGNMENT OF THE OFFICE OF THE ASSISTANT SECRETARY

    The National Academy of Public Administration report made various 
recommendations regarding BIA's management and administration. In 
response, a Secretarial Order was signed recently which authorizes the 
realignment of the Office of the Assistant Secretary. Among other 
things, the Secretary has authorized the creation of a new position of 
Deputy Assistant Secretary--Policy, Management and Budget and 
reorganizes what offices will be under the direction of the Principal 
Deputy Assistant Secretary and the Deputy Assistant Secretary.
    Question. How long does BIA anticipate it will take to fully 
implement the Secretarial Order?
    Answer. Secretarial Order No. 3214 (February 7, 2000) realigns the 
Assistant Secretary--Indian Affairs' immediate office in order to 
strengthen management and accountability for Indian Affairs matters 
within the Department. The Order calls for the establishment of several 
new positions and offices and the transfer of several Bureau offices to 
the Office of the Assistant Secretary. All of the actions should be 
completed by the time the Secretarial Order expires on March 31, 2001.
    Question. Please explain how this reorganization will streamline 
the Office of the Assistant Secretary and make the office run more 
efficiently?
    Answer. As the primary Federal advocate for Indians, the Office of 
the Assistant Secretary--Indian Affairs must be the focal point for 
assuring that potential new initiatives, and existing programs are well 
coordinated, existing programs are providing maximum results (produce a 
high ratio of output to input), all programs are regularly evaluated 
and all resources are used to maximum advantage. The National Academy 
of Public Administration review of current Bureau management and 
administration, determined that there was very limited internal staff 
capability to provide budget, planning, human resources, policy, 
information resources management, and other types of elementary 
management assistance to the Assistant Secretary. Without basic staff 
support in these particular areas, the Assistant Secretary cannot be an 
effective leader. Conversely, with the internal staff capabilities 
typically available in other agencies, the Bureau can begin to seek 
managerial and administrative excellence.
    Question. Will this reorganization require the government to expend 
additional funds on a yearly basis? If so, how much?
    Answer. NAPA has recommended that 40-50 new staff would be needed 
for the Office of the Assistant Secretary--Indian Affairs and 
approximately 150-200 additional administrative staff positions were 
required on a Bureauwide basis for its 12 Regional Offices and 83 
Agencies. A preliminary estimate for the cost of these positions is 
$10-$15 million.
    In the meantime, budget estimates and current realities present a 
more streamlined projection for the Office because the bulk of the 
staff is already on board and will be realigned within the 
organization. The immediate Office of the Deputy Assistant Secretary--
Indian Affairs for policy, planning, budget and management will require 
about 22 new FTE to staff the policy and planning function, the Office 
of the Chief Information Officer, the Chief Financial Officer, and the 
new Human Resources Office. For staff of the Principal Deputy Assistant 
Secretary--Indian Affairs, a total of three new hires are anticipated 
to be added. The grade levels of these new recruits will average high 
because of the nature and scope of their responsibilities. Therefore, 
an estimated 25 positions at a cost of $101,000 (GS-14/5) is about $2.5 
million in additional salary, not including estimated relocation costs 
of $500,000, for a grand total of $3 million. After the initial hires 
are complete, the ongoing increased staff costs of maintaining the $2.5 
million salary costs must be added to the current budget for the Office 
each fiscal year.
    A workforce analysis conducted by NAPA is currently underway for 
the Bureau. The data from this analysis will become available in 
Summer, 2000.

                        GOVERNMENT CREDIT CARDS

    Question. What type of policy does the BIA have regarding the 
issuance and use of government credit cards?
    Answer. The Bureau uses the Department of the Interior policies and 
procedures in administering the Government credit card program. The 
Bureau's internal policies and procedures for card usage are still in 
the development stage.
    Question. For what purposes are employees authorized to use the 
government credit cards?
    Answer. The cards have three business lines of authority available:
    (1) Fleet--All cards have the fleet business line open for fuel 
charges on rental cars;
    (2) Travel--most employees have the travel cards which have the 
business line for official Government travel; and,
    (3) Purchase--some employees have the purchase business line 
authority for purchasing office supplies and equipment and other 
authorized items totaling $2,500 and under. The Bureau also has 
cardholders with purchase authority over $2,500. These cards are issued 
to Warranted Contracting Officers with authority to purchase up to 
their individual warrant authority, but no single purchase can exceed 
$100,000.
    Question. Who has established the policies regarding the use of the 
credit cards?
    Answer. The Department of the Interior has established the overall 
policy for use of the credit card.
    Question. How is this information disseminated to BIA employees?
    Answer. Information is disseminated by written memoranda, 
Departmental website, and/or via electronic mail notices by the 
Headquarters Agency Program Coordinator to the Agency Program 
Coordinators at the Regional Offices.
    Question. How many BIA employees have been issued government credit 
cards?
    Answer. As of March 31, 2000, there were 3,820 cards issued for 
travel/fleet; 18 cards were issued for purchase/fleet; and another 
1,549 cards were issued with a combination of purchase/travel/fleet for 
a total of 5,387 Bureau employees with Government credit cards.
    Question. What has been the overall level of violations, abuse 
(regarding both unauthorized use of the credit cards and/or non-payment 
of credit balances)? What kind of discipline has resulted from the 
abuse? How many employees have been disciplined? How many employees 
have been indicted? How many employees have been convicted through 
either plea agreements or trials?
    Answer. The Bureau has found violations by employees who were not 
on official travel such as ATM cash withdrawals, airline tickets, hotel 
and restaurant charges, and other personal expenses. Other violations 
include purchasing personally-owned vehicle fuel and maintenance 
charges and non-payment of card balances.
    Employees found to be in violation of unauthorized credit card 
usage have received verbal and written reprimands for abuse as 
appropriate. Other disciplinary actions include individual accounts 
being closed or the employee being placed on suspension from duty--
placing them on Leave Without Pay. The more flagrant acts of credit 
card abuse have resulted in the employee being terminated from the 
Federal service. Currently, the Bureau has had to take disciplinary 
action against more than 80 employees for unauthorized credit card 
usage. Other than administrative actions taken, one employee has been 
indicted but none at this date have been convicted for credit card 
abuse.
    Question. Has the BIA recently engaged in any changes in policy, 
enforcement, and discipline to help curb abuse of the credit card use?
    Answer. The Department of the Interior has established the overall 
policy and use of the credit cards. Instructions with regard to the 
Travel and Transportation Reform Act which authorizes the bank to 
request garnishments of checks for delinquent accounts has been issued 
for implementation. The Bureau has written a memorandum disseminating 
this information to advise all cardholders that delinquent accounts may 
be subject to garnishment. No other changes have been instituted 
regarding disciplinary action.

                           HOUSING ASSISTANCE

    Question. Please explain the differences between BIA's Housing 
Improvement Program and HUD's housing program which is available for 
American Indians. Also, how are these programs similar?
    Answer. The Department of Housing and Urban Development's (HUD) 
Office of Native American Programs provides housing assistance on 
Indian reservations through the Native American Housing Assistance and 
Self-Determination Act (NAHASDA). To the extent possible, HUD provides 
American Indian and Alaskan Native families with home ownership and 
low-income rental opportunities. Therefore, grant funds are provided to 
Federally and non-Federally (State) recognized Tribes.
    By contrast, the Bureau's Housing Improvement Program (HIP) 
provides grant funds to American Indian families that are members of a 
Federally recognized Tribe. Housing service is provided to Indian 
families within the exterior boundaries of a reservation (or approved 
service area) without regard to Tribal affiliation. The HIP is charged 
with serving the neediest of the needy and serves the very low-income 
Tribal members that are below HUD's income level requirements for home 
ownership and who are on waiting lists for subsidized rental housing. 
Under HIP, to target the very low-income recipients, the annual 
household income cannot exceed 125 percent of the HHS Poverty Income 
Guidelines. For example, under HIP, the income of a family of four 
cannot exceed 125 percent of $16,700, or $20,876, while under income 
limits established by NAHASDA the income limit for a family of four is 
$38,250.
    HIP provides funding for housing repairs and renovations of 
existing homes, construction of a modest replacement home, or 
construction of a modest home for families who do not own a home but 
have ownership or lease of sufficient land suitable for housing. HUD 
generally provides funds for new construction, but through the 
Modernization Program, repair and replacement is also available. While 
both the Bureau and HUD provide single family housing for those who can 
demonstrate that they have a home ownership interest in the unit, HUD 
also allows multi-family units and usually accommodates rentals. HUD 
also requires some form of rent (determined by each Tribe) that may not 
exceed 30 percent of the monthly-adjusted income of such family. The 
HIP does not require a recipient to pay rent.
    Question. Do these programs overlap at all? If so, how do they 
overlap?
    Answer. The programs do not overlap. The HIP serves people with 
substandard living conditions who have no other resource for housing 
assistance.

                             GPRA QUESTIONS

    Question. How are the BIA's annual performance goals linked to the 
BIA's mission, strategic goals, and program activities in its budget 
request?
    Answer. The Mission goals within the Bureau's Strategic Plan and 
its Annual Performance Plan are the Government Performance and Results 
Act (GPRA) Program Activities. Due to the diversity of programs within 
the Bureau, it was necessary to establish the GPRA Program Activities 
at the subactivity level of the Program and Financing Schedules in the 
budget. Establishing goals at this level created broader scope long-
term goals that reflect the valuable programs that the Bureau provides 
to American Indians and Alaska Natives on a nationwide basis. The long-
term goals are a general outcome of the Bureau's individual budget 
programs within each subactivity and their contributions to the 
achievement of the mission goals. The goals set forth within the Annual 
Performance Plan outline what the programs will accomplish as a one-
year increment to the long- term goals, utilizing the Strategic Plan as 
its foundation.
    Question. Describe the process used to link your performance goals 
to your budget activities? What difficulties, if any, did you 
encounter, and what lessons did you learn?
    Answer. The Bureau mission goals were developed and aligned with 
the subactivities of the Program and Financing schedules of the budget 
as suggested under GPRA. The long-term goals were then developed to 
establish the five year efforts of the budget programs within the 
subactivities to achieve the missions. The performance goals were 
developed to measure annual increments of performance toward achieving 
the long-term goals. With each goal level being established in line 
with the budget structure, there were no major problems in linking 
performance goals to the budget activities.
    Question. Does BIA's Performance Plan link performance measures to 
its budget?
    Answer. Yes, all of the Bureau's goals were developed in line with 
the activities within the Program and Financing Schedules of the 
budget. The Bureau's budget request describes which goal the request 
relates to within the Annual Performance Plan.
    Question. Does each account have performance measures?
    Answer. The Bureau can account for 100 percent of the appropriated 
budget within its performance plan. However, due to the complexity and 
volume of the Bureau's budget, performance is measured at the 
subactivity and program element levels and not at the general account 
level. Furthermore, there may not be a specific measure at the annual 
goal level for every program account, but those accounts can be 
attributed to the accomplishment of the overall long-term goals.
    Question. To what extent does your performance planning structure 
differ from the account and activity structure in your budget 
justification?
    Answer. Due to the diversity of programs within the Bureau, GPRA 
program activities are aligned with the subactivity level of the 
Bureau's budget. The Bureau's performance plan is structured by program 
area--human services, education, and trust services--similar to the 
presentation of funding at the budget activity level.
    Question. Do you plan to propose any changes to your account 
structure for fiscal year 2001?
    Answer. There are no GPRA-related changes to the account structure 
in the fiscal year 2001 request.
    Question. Will you propose any changes to the program activities 
described under that account structure?
    Answer. There are no GPRA-related changes to the program activities 
under the account structure for fiscal year 2001.
    Question. How were performance measures chosen?
    Answer. In consultation with the Bureau's program managers and 
Tribes, the goals and measures were developed by reviewing the primary 
budget programs and ascertaining the most valuable way to gauge the 
level of services the Bureau is providing pursuant to the mandates of 
GPRA.
    Question. How did the BIA balance the cost of data collection and 
verification with the need for reliable and valid performance data?
    Answer. The Bureau has strived to develop the most cost-effective 
measures and goals that could use existing verifiable data sources and 
systems to reduce costs. The Bureau will continue to assess the value 
of current goals and measures as indicators of program performance and 
in the context of what information is needed to make management 
decisions.
    Question. Does your plan include performance measures for which 
reliable data are not likely to be available in time for your 
performance report?
    Answer. The Bureau has several goals that are reported on a 
calendar year rather than fiscal year basis; however, final data for 
these goals will be available by February of the following year for 
inclusion in the Annual Performance Report.
    Question. What are the key performance goals from your fiscal year 
2001 Annual Performance Plan that you recommend this subcommittee use 
to track program results?
    Answer. The Bureau recommends the following four goals be used to 
track program results:
    (1) 01.01.01.01.01: The Bureau will promote Indian Self-
Determination by maintaining a 16 percent enhancement in training and 
technical assistance over fiscal year 1998 levels and minimizing the 
impediment of limited Contract Support funding to Tribal contracting, 
compacting and grants.
    (2) 02.02.01.02.01: The Bureau will increase the number of Tribes 
operating comprehensive welfare plans to 40.
    (3) 02.03.01.01.01: The Bureau will reduce the projected Calendar 
Year 2000 Indian Country crime rate from 2,323 crimes per 10,000 
inhabitants to 2,300 crimes per 10,000 inhabitants.
    (4) 02.05.01.02.01: The Bureau will bring prompt pay performance up 
to 97 percent.
    Question. For each key annual goal, indicate whether you consider 
it to be an output measure (``how much'') or an outcome measure (``how 
well'')?
    Answer. Of the four goals, one, two and four provide output 
measures; goal three provides an outcome measure.
    Question. State the long-term general goal and objective from the 
Strategic Plan to which the annual goal is linked?
    Answer. The long-term goals that these annual goals contribute to 
are as follows:
    (1) 01.01.01--By 2005, the Bureau will promote Indian self-
determination by enhancing training and technical assistance by 50 
percent and minimizing impediments to Tribal contracting, compacting 
and grants.
    (2) 02.02.01--By 2005, the Bureau will improve the quality of life 
in Indian communities.
    (3) 02.03.01--By 2005, the Bureau will improve law enforcement 
services on Indian lands and preserve public safety for the citizens of 
Indian Country by providing a 7 percent reduction in the 1998 Indian 
Country crime rate for Class I and Class II offenses.
    (4) 02.05.01--By 2005, the Bureau will achieve minimum acceptable 
standards for successful administrative processes by eliminating the 
Bureau's existing material weaknesses, producing unqualified opinions 
to the financial statements, and bringing prompt payment performance up 
to 97 percent. The Bureau will employ modern automated techniques and 
processes for management, maintain tight control on costs, and utilize 
customer service surveys to measure efficiency, timeliness and overall 
quality of Bureau customer service.
    Question. In developing your Annual Performance Plan, what efforts 
did BIA undertake to ensure that the goals in the plan include a 
significant number of outcome measures?
    Answer. The Bureau held consultation and development meetings 
geared toward the establishment of outcome-based goals that could be 
supported by reliable data sources in line with the Strategic Plan. The 
broad spectrum of services and the strict information collection 
requirements that must be adhered to in working with Tribes and 
individual Indians has made the development of outcome goals with 
readily available data sources a difficult task due to conflicting 
statutes governing reporting requirements by the Bureau's customers. 
Comments from the General Accounting Office and the Office of 
Management and Budget on the Bureau's strategic and annual performance 
plans have been helpful in guiding the Bureau to make the gradual 
transition from output goals/measures to outcome goals/measures.
    Question. Do you believe your program managers understand the 
difference between goals that measure workload (output) and goals that 
measure effectiveness (outcome)?
    Answer. Yes, as the process has evolved throughout the Bureau since 
the enactment of the law in 1993, a general understanding of the 
difference between outcome goals versus output goals has developed.
    Question. What are some examples of customer satisfaction measures 
that you intend to use? Please include examples of both internal and 
external customers.
    Answer. Within the Administration Services GPRA Activity, the 
Bureau has established a goal to develop customer service surveys for 
each of the primary program service areas. These surveys will request 
customers to provide their level of satisfaction with these services. 
The corrective actions determined through the survey feedback are 
expected to develop additional customer satisfaction measures for 
inclusion in future annual plans.
    Question. How were the measurable goals of your Annual Performance 
Plan used to develop your fiscal year 2001 budget?
    Answer. The fiscal year 2001 budget request and the fiscal year 
2001 Annual Plan are developed simultaneously with each document 
providing support to the other. The budget is developed in support of 
the Bureau's performance goals and funding requests include the program 
efforts required for the accomplishment of goal targets.
    Question. If a proposed budget number is changed, up or down, by 
this committee, will you be able to indicate to us the likely impact 
the change would have on the level of program performance and the 
achievement of various goals?
    Answer. Data collection efforts are sufficient to determine the 
likely impact of funding level changes.
    Question. Do you have the technological capability of measuring and 
reporting program performance throughout the year on a regular basis, 
so that the BIA can be properly managed to achieve the desired results?
    Answer. The Bureau has developed and implemented a database system 
and collects quarterly data on the progress of programs at the field 
and Headquarters levels in reaching goal target levels.
    Question. If so, who has access to the information--senior 
management only, or mid- and lower-level program managers, too?
    Answer. All reported data is maintained in a secure database system 
administered at the Headquarters level with access by authorized 
personnel only. Reports of quarterly progress are compiled and provided 
to program managers on a Bureauwide basis. The Bureau also provides the 
information contained in these quarterly reports to the Department for 
inclusion in its quarterly reporting system.
    Question. Are you able to gain access easily to various 
performance-related data located throughout your various information 
systems?
    Answer. There are two stages of database access. First, each Field 
office has an individual database that it can access to enter new data 
for upcoming reporting purposes and to review quarterly reports. Field 
staff can only access their own Regional data as authorized by 
Headquarters. Second, designated Headquarter's staff maintain the main 
database for all GPRA program reporting as well as the development and 
review authority for the Field databases. The database will continue to 
be modified and enhanced as the Bureau moves forward in meeting the 
objectives of GPRA.
    Question. The Government Performance and Results Act requires that 
the BIA's Annual Performance Plan establish performance goals to define 
the level of performance to be achieved by each program activity set 
forth in your budget.
    Many agencies have indicated that their present budget account 
structure makes it difficult to link dollars to results in a clear and 
meaningful way.
    Have you faced such difficulty?
    Answer. Through the use of appropriation codes and internal 
accounting codes assigned according to the GPRA Goal Categories, the 
Bureau has developed a method of tying the budget accounting structure 
to GPRA which allows for the linkage of dollars to results.
    Question. Would the linkages be clearer if your budget account 
structure were modified?
    Answer. The Bureau believes the current system is adequate for 
linking dollars to goals, but will continue to explore possibilities 
for improving what is in place in the future.
    Question. If so, how would you propose to modify it and why do you 
believe such modification would be more useful both to BIA and to this 
committee than the present structure?
    Answer. There is not a requirement to modify the Bureau's budget 
accounting structure for GPRA purposes at this time.
    Question. How would such modification strengthen accountability for 
program performance in the use of budgeted dollars?
    Spending significant resources on performance measurement systems 
appears to be a wasteful exercise if this information is not linked to: 
(1) real data about what it costs to perform various government 
functions; and (2) how to allocate BIA resources to perform these 
functions.
    Answer. Modifications are not required at this point in time for 
this purpose.
    Question. Could you comment on BIA's cost accounting expertise and 
plans to link GPRA to the budget process?
    Answer. The Bureau has already aligned both the budget and 
accounting structures to GPRA. Detailed program listings by GPRA 
Program Activity and long-term goals have been provided to the 
Department in line with its cost accounting guidance.
    Under one of the new accounting standards recommended by the 
Federal Accounting Standards Advisory Board (FASAB) and issued by OMB, 
this year for the first time all federal agencies are required to have 
a system of Managerial Cost Accounting. The clearly preferred 
methodology for such a system, as stated in that standard, is the one 
known as ``Activity-Based Costing,'' whereby the full cost is 
calculated for each of the activities of an agency.
    Question. What is the status of BIA's implementation of the 
Managerial Cost Accounting requirement, and are you using Activity-
Based Costing?
    Answer. The Bureau is able to show direct cost, but not the 
indirect cost at this time. Efforts are underway to ensure compliance 
with Departmental guidance on fully implementing cost accounting.
    Question. Will you be able in the future to show to this committee 
the full and accurate cost of each activity of each program, including 
in those calculations such items as administration, employee benefits, 
and depreciation?
    Answer. Yes, it is the Bureau's goal that in the future it can 
provide the full and accurate cost of each activity of each program.
    Question. By doing so, would we then be able to see more precisely 
the relationship between the dollars spent on a program, the true costs 
of the activities conducted by the program, and the results of these 
activities?
    Answer. Yes. It is the Bureau's goal to be able to provide 
information that will show the relationship between the dollars spent 
on a program, the true costs of the activities conducted by the 
program, and the results of these activities.
    Question. Will you be able to show us the per-unit cost of each 
activity and result?
    Answer. Yes, the Bureau will be able to show the detailed costs and 
results for each activity.
    Question. To what extent do the dollars associated with any 
particular performance goal reflect the full cost of all associated 
activities performed in support of that goal? For example, are overhead 
costs fully allocated to goals?
    Answer. The Bureau can show full direct costs for the funding of 
activities performed in support of goals. Some indirect costs can be 
attributed, but full indirect cost accounting has not been integrated 
into the accounting system at this time.
    Question. Please identify any significant regulatory reform 
measures that have been put in place by BIA in conjunction with the 
development of BIA's performance plan?
    Answer. There have been no regulatory reform measures established 
by the Bureau based upon performance planning.
    Question. Does your fiscal year 2001 performance plan--briefly or 
by reference to your strategic plan--identify any external factors that 
could influence goal achievement?
    Answer. Several of the goals within the fiscal year 2001 Annual 
Performance Plan include information within the Goal Description 
section that identifies external factors. The Strategic Plan includes a 
specific section entitled External Factors under each long-term goal 
that provides external factors that could influence goal achievement.
    Question. If so, what steps have you identified to prepare, 
anticipate and plan for such influences?
    Answer. The Bureau makes every attempt to operate programs to the 
best of its ability within the available resources. The Bureau seeks to 
maintain the flexibility necessary to take advantage of new 
opportunities and to address rising issues.
    Question. What impact might external factors have on your resource 
estimates?
    Answer. Some external factors apply to emergency or disaster 
situations that would require redirection of resources in line with a 
programs purpose but outside its planned scope of activities for a 
given year. This redirection would severely reduce available resources 
and restrict the Bureau's ability to accomplish the goals.
    Question. Through the development of the Performance Plan, has the 
BIA identified overlapping functions or program duplication?
    Answer. In developing the Annual Performance Plan, the Bureau did 
not encounter duplication, but did identify several areas where program 
efforts were carried out in conjunction with other internal and 
external agencies. These efforts are set forth in the crosscutting 
section of the Plan.
    Question. If so, does the Performance Plan identify the overlap or 
duplication?
    Answer. The crosscutting efforts are set forth in Section 3.2--
Crosscut Issues within the Annual Performance Plan.
    Question. Should agencies address management challenges and 
potential duplication and overlapping functions in their GPRA plans, 
and if so, how?
    Answer. Yes, the crosscut tables provided in the Annual Performance 
Plan address the issue.
    Question. To what extent has GPRA been used by BIA leadership to 
guide decision making? Will this use increase in the future and if so 
in what ways?
    Answer. The Bureau leadership is using performance measures and 
results in its decisionmaking efforts on an increased basis. As goals, 
reporting data and accountability efforts become further refined, the 
Bureau leadership and its program managers are realizing the full 
benefit and potential in utilizing this information to manage their 
programs and to motivate program staff to achieve positive results.
    Question. Future funding decisions will take into consideration 
actual performance compared to expected or target performance. Given 
that: To what extent are your performance measures sufficiently mature 
to allow for these kinds of uses?
    Answer. With the establishment of the Bureau's first Annual 
Performance Plan in fiscal year 1999, the Bureau has continuously 
worked to refine and improve its measures and its delivery of services. 
Based on the fiscal year 1999 report results, the Bureau achieved 30 of 
its 45 performance measures, or 67 percent, for its first reporting 
period; non-achievement of 15 of the goals were based on a range of 
factors, including lack of appropriations. It is this range of factors 
which affect performance achievement(s) that raises the concern with 
the use of performance results from any single year in funding 
decisions. The Bureau believes that multiple year trend data is more 
valid and valuable for decisionmaking because it tends to eliminate 
single year aberrations like weather, legal issues, program 
adjustments, and the effects of funding obligations across fiscal 
years.
    The Bureau's learning curve increased during the preparation of the 
first GPRA program performance report. These learned lessons were 
utilized to revise goals for fiscal year 2001 Annual Performance Plan 
and for ongoing revisions to the Bureau's Strategic Plan. For new 
goals, goals with revised performance measures, or goals with updated 
baselines, the Bureau's ability to establish precise performance 
targets may improve as it continues to refine its efforts in this ever 
evolving process. In these situations, it may be difficult to 
accurately relate budget resources to projected levels of performance. 
This is largely attributable to lack of full knowledge of how projected 
target results for new goals or revised goals will result due to the 
authorities governing the Bureau's relationship (i.e., reporting 
requirements) with Tribes.
    Question. Are there any factors, such as inexperience in making 
estimates for certain activities or lack of data, that might affect the 
accuracy of resource estimates?
    Answer. There are a range of factors which could affect the 
accuracy in the determination of estimates by the Bureau for its 
performance measures. The Bureau's customers, the American Indian and 
the Alaska Native, and the Bureau's core mission itself, are unique. 
Furthermore, statutes governing Tribal self determination at times 
conflict with other statutes such as GPRA with regards to reporting 
requirements. At any time, as authorized under Public Law 93-638, as 
amended, Tribes have the authority to enter into contracts, compacts, 
or grants with the Bureau to operate Bureau programs. This makes it 
difficult if not impossible to accurately determine the outcome of a 
measurement when program factors (i.e., operations, oversight 
responsibilities) could be changed in mid-stream.
    Question. Are you requesting any waivers of non-statutory 
administrative requirements?
    Answer. No, the Bureau has not requested any waivers in this 
regard.
    Question. Specifically, are you requesting any relaxation of 
transfer or reprogramming controls in return for specific 
accountability commitments?
    Answer. No, the Bureau has not requested any waivers in this 
regard.
    Question. Based on your fiscal year 2001 performance plan, do you 
see any need for any substantive revisions in your strategic plan?
    Answer. The Bureau's fiscal year 2001 Annual Plan is a direct 
result of the Bureau's Revised Strategic Plan that is currently in the 
review process and expected to be finalized by June, 2000. Strategic 
planning is a continually evolving process and the Bureau expects to 
make revisions to the Strategic Plan in line with the modification 
schedules to address the ever changing needs in Indian Country.
                                 ______
                                 
           Question Submitted to the Bureau of Indian Affairs

              Questions Submitted by Senator Byron Dorgan

    Question. I was gratified to note that this year the Administration 
requested a significant increase in funding for school facility 
improvement and repair (FI&R). While I agree that an increase in FI&R 
funding is warranted, do you think it might make more sense for 
Congress to devote some of the FI&R increase to building new schools, 
rather than trying to put bandaids on schools that are in desperate 
need of replacement? Devoting the bulk of the FI&R increase to 
replacement, rather than repair, would allow us to build another 6-7 
new schools. Would the Administration object if more funding were 
devoted to school replacement, rather than repair?
    Answer. Yes, the Administration prefers the more balanced approach 
in its fiscal year 2001 request to the Congress. There are 185 Bureau 
schools in the Bureau's school system. Of these 185 schools, 
approximately one third require replacement and approximately two 
thirds require extensive improvement and repair. The Bureau recognizes 
that in order to substantially reduce the backlog, an aggressive 
facilities improvement and repair program and replacement school 
construction program must proceed simultaneously.
    Question. I commend the Administration for including $8.2 million 
to implement a Therapeutic Residential Model program at 6 BIA-funded 
boarding schools. I wrote the amendment authorizing the first 
therapeutic model school as part of the 1994 reauthorization of the 
Elementary and Secondary Education Act, and I've felt for a long time 
we must do more to address the extreme behavioral or social problems 
many of the children attending boarding schools face. Is the Assistant 
Secretary aware of the Circle of Nations Indian School, an off-
reservation boarding school in Wahpeton, ND, which has been operating a 
therapeutic model without additional resources for the last six years? 
I encourage you to give careful consideration to the Circle of Nation 
Schools when selecting your pilot sites, because it has firsthand 
knowledge of the challenges and needs of this type of effort.
    Answer. The Bureau has reviewed the Circle of Nations School 
therapeutic program and believes that it is a fine example of how a 
therapeutic program should be operated. The Circle of Nations School 
will be provided an opportunity to apply for one of the two off-
reservation school pilots should the Congress fund the Bureau's request 
in fiscal year 2001. In addition, much to their credit, the School has 
stated that if they are not selected they still intend to provide a 
therapeutic program for their students. This is the type of commitment 
the Bureau is looking for in its pilots.
    Question. The Standing Rock Sioux Tribe in North and South Dakota 
has contacted me about the significant delay in payments their tribal 
members with Individual Indian Money (IIM) accounts are experiencing. I 
also understand that the Tribe is one of three tribes nationally that 
have objected to the removal of their IIM files, and consequently the 
data clean-up of these files has not yet been completed.
    What steps has the OST taken to reach an amicable solution with the 
Tribe over the removal and clean-up of these files? What solutions has 
the OST suggested to resolve this problem? Is there any legal basis 
(i.e. Indian self-determination contracts) to allow the Tribe to store 
the records or does the OST believe this would not meet the fiduciary 
responsibility of the federal government? To what extent is the delay 
in clean-up of these files responsible for the delay in payments to IIM 
account holders?
    Answer. The delays in IIM payments were not related to records 
clean up issues, but were caused by necessary additional transaction 
data and verification requirements as a result of the final conversion 
to TFAS. OST continues to work with the Bureau and the Tribe to address 
the problems related to these delayed payments.
    The OST and representatives of the Tribe worked extensively last 
year to develop an agreement on the transfer of the IIM records. The 
IIM jacket folders are needed, however, to verify account information, 
gather missing information, and eliminate any duplicate accounts. The 
Principal Deputy Special Trustee met with representatives of the Tribe 
and visited the Standing Rock Sioux reservation. Representatives of the 
Tribe visited Albuquerque at least three times in 1999 to inspect the 
IIM data records clean up process and to discuss an agreement. OST 
senior managers participated in a radio call in show last year to 
discuss the issue. A draft agreement called for the transfer of IIM 
file jackets to Albuquerque for cleanup and imaging, which was to be 
monitored by tribal representatives at OST's expense. Other trust 
financial documents would have remained at Fort Yates and been imaged 
by the Tribe as part of an imaging project funded by OST, then 
transferred to Albuquerque. In July, the Tribal Council voted not to 
approve the agreement.
    These are Federal records in Federal custody on the reservation. 
The Tribe simply does not trust the Government to manage these records 
appropriately and has refused to allow the Government to remove the 
records from the reservation. The matter has been referred to the 
Office of the Solicitor and the Department of Justice for further 
guidance.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

    Question. Would you please give this Subcommittee an update on any 
effort you have made to incorporate BIA ``financial partnership'' 
schools into the BIA Education Facilities Replacement Construction 
Applications?
    Answer. During the Bureau's solicitation for replacement school 
applications in July, 1999, six of the 105 applicants indicated an 
interest in creating Federal/Tribal school construction partnerships. 
Presently, the Bureau has not issued a policy nor defined any 
procedures regarding the sharing of construction costs with Tribal 
groups. The Bureau expects to develop policy regarding cost sharing in 
the third quarter of fiscal year 2000. During the application 
solicitation period, the Tribes and school boards were presented with 
the idea of ``partnering'' as an alternative means of financing school 
construction. The Bureau explained it was necessary to consider the 
possibility of Federal/Tribal construction partnerships since several 
Tribes had shown an interest in using the method to construct their 
replacement schools. The Bureau emphasized that applicants showing an 
interest in partnerships would not acquire any more points than 
applicants who did not wish to use partnering. Two schools on the new 
replacement school priority list, Santa Fe Indian School and Conehatta 
Elementary School expressed an interest in cost sharing.
    In addition, in its consultation with the Tribes, the Bureau 
emphasized that ``need for replacement'' would be the determining 
factor in preparing the Bureau replacement school construction priority 
list. The entire replacement school application solicitation and 
evaluation process implemented by the Bureau in 1999 sought to 
determine which schools were in most need of replacement. Therefore, 
the Bureau does not intend to fund those schools, through cost sharing 
or other means, which are not on the Bureau school replacement priority 
list. Funding of schools not on the Bureau's priority list would be 
unfair to the Tribes who made the list, disregard the priority setting 
process, and make questionable any use of a school construction 
priority ranking.
    Question. What is the status of the Eight Northern Indian Pueblos 
pilot project to establish better accountability of Tribal Priority 
Allocation funds?
    Answer. The Bureau remains interested in conducting a pilot with 
the Eight Northern Pueblos that improves accountability of TPA funds. 
However, several of the Pueblos are behind in filing their Single Audit 
Act reports and have financial management deficiencies in their most 
recent reports. The Bureau will work with those Pueblos to improve 
their current financial performance before initiating the pilot. In 
addition, the initial proposal had significant administrative cost 
funding proposed before the pilot would begin providing measurable 
program accomplishments. Those issues also need to be resolved before 
the pilot begins. While measurement of accomplishments with 
administrative funding is of interest to the Bureau and the Congress, 
it is not consistent with the ideas in the TPA report concerning unmet 
needs in Indian Country.

                          SUBCOMMITTEE RECESS

    Senator Gorton. So the subcommittee will stand in recess 
until 9:30 a.m., Wednesday, April 5, when we will receive 
testimony from the Honorable Bruce Babbitt, Secretary of the 
Interior.
    [Whereupon, at 11:12 a.m., Tuesday, April 4, the 
subcommittee was recessed, to reconvene at 9:30 a.m., 
Wednesday, April 5.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2001

                              ----------                              


                        WEDNESDAY, APRIL 5, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:32 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, Cochran, Burns, Bennett, 
and Byrd.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. BRUCE BABBITT, SECRETARY OF THE 
            INTERIOR
ACCOMPANIED BY JOHN D. TREZISE, DIRECTOR OF BUDGET

               OPENING STATEMENT OF SENATOR SLADE GORTON

    Senator Gorton. Mr. Secretary, you are not much of a draw 
today.
    Secretary Babbitt. Senator, I must say this approximates a 
new low.
    To go out on such complacency and lack of anger has been 
nostalgic actually.
    Senator Gorton. Well, we will see what we can do for you 
later in the hearing.
    In any event, welcome. This is your sixth appearance before 
the subcommittee during my tenure as chairman, and from your 
public comments, I am assuming it will be your last, whatever 
occurs in November.
    Secretary Babbitt. Senator, do not make that assumption too 
quickly.
    Senator Gorton. Well, maybe we will have to have a few 
other hearings before November.
    But you know and we both appreciate our long personal 
relationship over the years. We are on opposite sides of a wide 
range of issues, but I do not know of anyone with whom I have 
had a more constructive personal relationship. And I must say 
that even when we disagree, I do not know of anyone who has 
been more dedicated to the mission of the Department of the 
Interior than you have been.
    More frequently than not, you have gotten yourself in 
trouble because you speak with far too much clarity. You have 
not developed the talents of some of the other members of the 
cabinet, who can answer at great length and leave us entirely 
puzzled as to what they mean.
    It is the contentious policy disputes each year that 
receive much of the attention during the debate over the 
Interior bill, and it is at least a 50/50 chance that the same 
thing will be true this year. But there are far more lower 
profile issues on which we have found common ground and on 
which we have been able to work together, with Senator Byrd, 
Congressman Regula, and other members of this committee and our 
House counterpart that do good things for our public lands, our 
wildlife resources, and our Indian peoples. From the recreation 
fee demonstration program, to increased funding for the care 
and maintenance of our national parks, to funding for salmon 
recovery in the Pacific Northwest, we have got a great deal of 
which to be proud, particularly given the austere budgetary 
climate in which we have been compelled to operate.
    Let us talk for a moment about this year's budgetary 
climate. The Senate right now is considering a budget 
resolution that will provide about $597 billion in 
discretionary spending for fiscal year 2001. That number could 
change slightly during floor action or in conference with the 
House, but it is certainly going to be in that range. This will 
allow, I understand, some funding increases over fiscal year 
2000 levels, but it is almost $30 billion less than the 
President's total budget request. So, our 302(b) allocation 
will not accommodate the $1.5 billion increase requested by the 
President for Interior bill programs, two-thirds of which is 
for programs under your jurisdiction.
    Against this background, I hope we will begin once again to 
be able to engage in a serious discussion of priorities, both 
today and through the course of the year. There are a number of 
new initiatives and grant programs contained in your request, 
as well as dramatic increases for certain existing programs. I 
am interested to determine whether you view these requests as 
such high priorities that, if necessary, you would recommend 
reductions in other programs to fund them or in what order you 
would prioritize these increases, to the extent increases in 
funding over the current year are possible. As was the case 
last year, it is not apparent that you were compelled to make 
many of these difficult choices during development of your 
budget request. I get the sense that it was more of an exercise 
of thinking up ways to absorb the dramatic increase that the 
Office of Management and Budget has allowed you.
    I imagine you have a different perspective, but the fact 
remains that your budget request would put the Department's 
budget fully 25 percent over where it was in fiscal year 1997. 
While no one here will deny that there are compelling funding 
needs for programs under your jurisdiction, I do not think that 
it is the desire of this Congress--and I know it is not the 
desire of this Senator--to spend every penny of the estimated 
fiscal year 2001 on-budget surplus on new or expanded Federal 
programs.
    So, I hope we can work together to develop a bill that will 
not only provide for the critical needs of the Department, but 
also contribute to maintaining the strength of the Social 
Security system, reducing our national debt, and providing for 
sensible tax relief that will benefit the people who use our 
public lands and the Indian people for whom you have trust 
responsibilities.

                           PREPARED STATEMENT

    We certainly look forward to hearing from you today. The 
full text of your statement will, as usual, be included in the 
record. So, to the extent that you can make your remarks less 
formal, we will have more time for questions and substantive 
dialogue.
    Of course, the last line in my printed statement is to turn 
to Senator Byrd who arrived precisely on time for that line.
    [The statement follows:]

               Prepared Statement of Senator Slade Gorton

    Mr. Secretary, welcome once again. This is your sixth appearance 
before the Subcommittee during my tenure as chairman, and from your 
public comments I am assuming that it will be your last--regardless of 
what occurs in November. As such, I think it is appropriate at this 
time to state for the record how much I have enjoyed our professional 
and personal relationship over the years. Though we have frequently 
been on opposite sides of particular issues, we have been able to 
communicate with one another frequently and with great clarity in an 
effort to get the job done. For that I am grateful.
    It is the contentious policy disputes that each year receive much 
of the attention during debate on the Interior bill, and I expect that 
will again be the case in the coming year. But there are any number of 
lower profile issues on which you and I have found common ground, and 
on which we have been able to work with Senator Byrd, Congressman 
Regula and other members to achieve substantial benefits for our public 
lands, wildlife resources, and Indian peoples. From the recreation fee 
demonstration program, to increased funding for the care and 
maintenance of our national parks, to funding for salmon recovery in 
the Pacific Northwest, I think we have a great deal of which to be 
proud--particularly given the austere budgetary climate in which we 
have been compelled to operate.
    Having said that, I'd like to take a moment to talk about this 
year's budgetary climate. The Senate this week is considering a budget 
resolution that will provide some $597 billion in discretionary 
spending for fiscal year 2001. While that number may change slightly 
during floor action or in conference with the House, the final 
discretionary level for the coming year will likely be in that range. 
While this amount will allow for some funding increases over fiscal 
year 2000 levels, it is some $30 billion lower than the spending level 
contemplated in the President's budget request. As such, there is 
little question that this subcommittee's 302(b) allocation will not 
accommodate anything near the $1.5 billion increase requested by the 
President for Interior bill programs. Of that increase, roughly $1 
billion is for programs under your jurisdiction.
    Against this backdrop, I hope we will once again be able to engage 
in a serious discussion of priorities--both in this hearing and 
throughout the course of the year. There are a number of new 
initiatives and grant programs contained in your request, as well as 
dramatic increases for certain existing programs. I will be interested 
to see whether you view these requests as such high priorities that, if 
necessary, you would recommend reductions in other program areas to 
fund them, or in what order you would prioritize these increases to the 
extent increases in funding over the current year are possible. As was 
the case last year, it is not apparent that you were compelled to make 
many of these difficult choices during development of your budget 
request. I get the sense that it was more an exercise of thinking up 
ways to absorb the dramatic increase that the Office of Management and 
Budget has allowed you to have.
    I imagine you have a different perspective in this regard, but the 
fact remains that your budget request would put the Department's budget 
fully 25 percent over where it was in fiscal year 1997. While nobody 
here will deny that there are compelling funding needs for programs 
under your jurisdiction, it is not the desire of this Senator--nor I 
believe this Congress--to spend virtually every penny of the estimated 
fiscal year 2001 on-budget surplus on new or expanded Federal programs 
as the President's budget would do. And so I hope we can work together 
to develop a bill that will not only provide for the critical needs of 
your Department, but also contribute to maintaining the strength of the 
Social Security system, reducing the national debt, and providing for 
sensible tax relief that will benefit the people that use our public 
lands and the Indian people for which you have trust responsibilities.
    Mr. Secretary, we look forward to hearing from you today. The full 
text of your statement will be included in the record, so to the extent 
you can summarize your remarks, there will be that much more time for 
questions and substantive dialogue.

    Senator Gorton. Senator Byrd.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Well, Napoleon said that the Austrians did 
not know the value of time, so I thought I better get here on 
time.
    Let me join our distinguished chairman in welcoming you 
back for your sixth appearance before the Interior and Related 
Agencies Subcommittee. It has been a pleasure to work with you, 
Mr. Secretary, these past few years.
    I congratulate you on your stewardship of the Interior 
Department from the standpoint of financial accountability. 
Unlike some agencies of the Government, I know that your 
Department has received a clean financial audit from its 
Inspector General for the past 2 years. While your next audit 
is not due out for a few more days, I trust that it, too, will 
reflect positively on you and your staff.
    Unfortunately, keeping a good set of books does not 
necessarily translate into good policy choices. As I look at 
the Department's fiscal year 2001 budget submission, I am 
troubled by the sheer size of the increase being sought. You 
are asking for an additional $1 billion over the fiscal year 
2000 level for programs under the jurisdiction of this 
subcommittee. Even under the best of scenarios, it is doubtful 
that the Interior Subcommittee will receive a $1 billion 
increase in its allocation. Assuming that we did, though, I 
think a strong argument could be made that it would be far more 
prudent to forego, for example, a so-called Lands Legacy 
program and instead use that money to attack the unmet needs of 
the lands and facilities the Department already controls.
    Despite my reservations with the budget proposal, I look 
forward to hearing Secretary Babbitt offer his perspective in 
what I know will be his usual forthright and honest manner.
    Thank you.
    Senator Gorton. Thank you.
    Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. I welcome the 
Secretary here. I will save most of what I have to say for the 
question period, but I do want to make one comment in the 
opening comment period.
    Some time ago, I invited the Secretary to come to Utah and 
together we would go to the San Rafael Swell. He agreed to do 
that, and neither his schedule nor mine has been able to mesh 
to the point that we have been able to do that. But it may be 
just as well because we have reached an agreement and the 
agreement is more important than the tourism.
    But the Secretary and the citizens of Utah have not had the 
best of relationships over the years in some areas, and there 
have been some areas of great cooperation and accomplishment in 
others. I am delighted that with respect to the San Rafael 
Swell, we now have a deal formulated in a piece of legislation 
which so far the Department of the Interior has indicated they 
would be willing to support. I would hope, Mr. Secretary, we 
will have a chance to talk about that a little more, but I want 
to let you know how grateful I am that members of your staff 
have, in fact, been willing to make the trip that you and I 
have been unable to work out and make. I am hopeful that this 
actually can come to pass so that we get a resolution in this 
particular land usage issue. One hopes it becomes a model for 
other similar resolutions not only in the State of Utah but 
around the rest of the country.
    So, I am optimistic and grateful and look forward to the 
Secretary's testimony.
    Senator Gorton. Senator Stevens.

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Mr. Chairman.
    Good morning, Mr. Secretary. This subcommittee often sees 
me coming in here with smoke coming out of my ears and flame 
coming out of my mouth I think.
    But I want to change that this morning and say good morning 
very kindly because I want to thank you for working with us on 
the Kodiak Island borough issue. We had a tough dispute over 
valuing refuge lands for the purpose of refuge revenue sharing 
payments. As you know, those were lands purchased after the 
Exxon Valdez spill which devastated many communities in our 
State. Many people, including me, did not like seeing the oil 
spill payments by Exxon going to reacquire Federal land after 
it had been deeded out of Federal ownership--after statehood--
to entities in Alaska because there were many other issues 
involved that could have used that money.
    However, the new Federal acquisitions for Kodiak National 
Wildlife Refuge meant revenue sharing payments for the borough 
there. These acquisitions were high dollar, given the 
Government's emphasis on the importance of conserving Kodiak. 
However, when it came to valuing the land for the purpose of 
revenue sharing, the initial appraisal was lower than what the 
Federal Government actually paid. And that dispute went on for 
several years and at a great uncertainty for the boroughs, the 
budgeting for schools and other services for the people, even 
those involved with the refuge.
    Last fall, through the efforts of yourself I believe and 
your Department, we resolved that to the satisfaction of the 
borough and I want to thank you very much for resolving a very 
contentious dispute in our State. It is nice to see you again, 
Bruce. I appreciate it very much.
    Secretary Babbitt. Thank you.

                SUMMARY STATEMENT OF HON. BRUCE BABBITT

    Senator Gorton. Boy, you could not do better, Mr. 
Secretary. Now it is your turn.
    Secretary Babbitt. Senator Gorton, Senator Byrd, committee 
members, I obviously have reflected on the fact that this is my 
last appearance presumably--never say never, but most likely--
before this appropriations committee in my eighth year as 
Secretary. I must say I look back on these years of working 
with all of you with great satisfaction and pride. I think that 
in a political culture characterized by enormous antagonism and 
name-calling and rancor, that kind of pervades this entire 
town, we have managed over these years to establish some quiet 
space in which we manage to do business. As Senator Gorton 
suggested, I think we have done a great deal together and that 
we have done a good job of separating the ritual kind of food 
fights from the arena in which we do business.
    I must say I have not succeeded in 8 years in doing that 
with the authorizing committees. It is a striking kind of two-
track life around here, but I say that by way of simply 
reflecting the chairman's remarks. It has been a great 
pleasure, and I will do my best in the balance of my tenure to 
do what we have done I think so successfully and so well 
together.
    Senator Gorton always starts by pointing out that we are on 
a collision course between this committee and the Congress and 
the administration. And I will give you my ritual response, 
which is I cannot make the numbers add. I have read the budget 
resolutions and I will once again, for the eighth consecutive 
year, say I cannot make them add and for the eighth consecutive 
year, say the President's budget is, in all of its exquisite 
detail, essential for the safety, health, and well-being of the 
Republic.
    Now, that said, I would point out that this year is 
somewhat different from many previous years in which the budget 
constraints have weighed very heavily on our mutual endeavor. I 
do believe that the President's program provides more working 
space and that we ought to be able to proceed under that kind 
of climate.
    Nonetheless, I will say ritually and meaningfully that I 
accept the chairman's customary admonition to see if we can 
work to set priorities so that whatever comes out of this 
committee reflects priorities, whatever differences we may have 
as to the sum total of the budget.
    With that, I think what I could do most usefully, just 
briefly, is go through the three areas that I think have 
already been raised as out there on the margin of contention 
and importance. One is the Indian affairs issues. Second, is 
the President's Lands Legacy program. Third, raised by Senator 
Byrd, is this issue of a backlog for construction and 
maintenance of the tens of thousands of miles of roads, the 
millions of acres of lands, and the tens of thousands of 
buildings that we administer.
    Senator Stevens. Mr. Secretary, would you allow me to 
interrupt you? Mr. Chairman, may I do that? I have got to go to 
a meeting, unfortunately, on the budget.
    But I have a solution for you, Mr. Secretary. You just help 
us get ANWR open, we will earmark part of that money to keep up 
the parks and wildlife refuges and all of the systems that you 
are responsible for.
    I am sure this committee would love to allocate that money 
every year to the majority of all of those facilities, parks, 
wildlife refuges, wild and scenic rivers, wilderness areas. 
Over 60 percent of each one of those is in my State. We would 
be glad to support them with money coming from production in 
Alaska.
    Secretary Babbitt. Senator, I knew this harmony had to fall 
apart quickly.
    And, Senator, as you leave, I just want to say how much I 
appreciate the ability that we have had to work together on the 
subsistence issue, an enormously complex, volatile, difficult 
issue. I just want to say that I have never had such an 
exquisite experience as working through that political mine 
field to a result that I think we can at least move forward 
with. I just want to thank you publicly for that.
    Senator Stevens. Thank you very much.
    Senator Gorton. Go ahead.

                             INDIAN ISSUES

    Secretary Babbitt. Let's start with the Indian issues for 
two reasons. One, they are high on the President's agenda, and 
second, I want to say that this committee has been unflaggingly 
helpful in providing the resources, especially in these last 
few years, to deal with some very difficult issues.
    The increases in the President's budget this year relate to 
a number of areas. First is school construction. This is a part 
of our backlog issue, and we have discussed it before in this 
committee. The President's budget bumps school construction up 
from about $130 million to about $300 million. I do not think I 
need to belabor that. The priority list of Indian schools 
speaks for itself. This obviously does not eliminate the 
backlog. We can come back to that. But I think it makes an 
important statement about taking care of the very worst issues 
out there.
    There is an important increase on the law enforcement side. 
It is fairly modest. It is $18 million, but it is paired with 
an $80 million increase from the Justice Department. We have 
finally managed, I think, to spring free some resources that 
will help us with the law enforcement, jails, and all of the 
other issues. Again, a well-known and lamentable situation.
    There is a line item for the so-called NAPA report, the 
National Academy of Public Administration. The Academy points 
out that the downsizing and the RIFs and the clearing out of 
personnel in Washington really went too far and we must now 
take some of that back to beef up our ability to do accounting, 
management, personnel, and those kinds of thing.

                     OFFICE OF THE SPECIAL TRUSTEE

    The Office of Special Trustee--again, I am especially 
grateful for the chairman's willingness and desire to really 
help us through this. We are making progress. It has not been 
easy, and I would say at the outset there are so many cooks in 
this kitchen now that it is almost impossible to get anything 
off the stove. It is a world full of judicial participation, 
special masters, restraining orders, plaintiffs, committees of 
all kinds, and it has been no easy task.
    We are making progress. That fact is seldom acknowledged. I 
normally do not watch television, and I made no exception for 
the ``60 Minutes'' piece this last week.
    The facts. The IIM conversion, conversion of these hundreds 
of thousands of individual Indian accounts, into the modern 
accounting system was completed over the last weekend. They are 
now up and running in the new data processing system.
    Beneath the accounting system is what is known in the 
jargon as the TAAMS system. This is the system to track leases, 
oil leases, grazing leases, the land records system, the 
probate system. We have the pilot which integrates the entire 
system, from top to bottom, up and running in Billings, 
Montana. I believe by the end of this month, I will be ready to 
certify the deployment of the big part of that system out to 
the rest of the country. It is a big decision because people 
are out there waiting to pronounce failure. I would say at 
least 50 percent of the participants who are standing around 
the kitchen have gotten so used to predicting failure that they 
really want to see failure. So, I have been personally watching 
over this deployment, and I think I am ready to walk the plank 
at the end of this month and see what happens. I believe we are 
on top of it.
    One real success that we have had in the last year is in 
this area of land fractionation which is, of course, at the 
root of this whole problem. If we cannot reverse the 
generational fractionation of lands, we are wasting our time 
with all of this. It will never get turned around.
    Last year we spent about $10 million for voluntary land 
consolidations, and it was a fabulous success. We spent all of 
the money. We have got, I think, 30,000 or 40,000 individual 
accounts purchased out. By account, I mean the underlying land. 
So, there is a line item for that, and I think it is going to 
be very important to build on that success.
    We will be back in court. We are always in court, but we 
will be back in court as we move through this year to try to 
get at the remaining issue at the core of the litigation, and 
it is this: Where do we finally draw the line upon our attempt 
to reconcile accounts? Accounts in many cases were open 100 
years ago and have now descended through 6, 7, 8, 10 
generations into literally thousands of errors in an 
environment in which it is a literal impossibility to 
reconstruct with 100 percent certainty what has happened in 
those accounts over 100 years. It cannot be done. We could 
spend the gross national product and still fail. But we have 
spent hundreds of millions of dollars over the last 4 or 5 
years, and I think we are now ready to go back to the court and 
say, OK, we can keep spending money or we can draw a line and 
then apply a generous measure of resources to the 
reconciliation.
    The Special Trustee, the successor trustee, has been 
selected and nominated, and I believe the confirmation process 
is moving. There has been no large----
    Senator Gorton. It is taking place in the committee this 
morning as we speak.
    Secretary Babbitt. Great, great. Well, he is a good guy. We 
hired a search firm. Nobody had ever heard of him, and I think 
that is a great advantage. He has a fine record out in the 
private sector, and I think it is going to go well.

                          LANDS LEGACY PROGRAM

    Let me say a word about the Lands Legacy program because I 
share, obviously, the enthusiasm of the administration for this 
program. I will be brief.
    The essence of this commitment was made back in the 1970s 
with the authorizing legislation with respect to earmarking 
offshore oil and gas revenues. The $1.4 billion figure in the 
President's program is obviously not all an increase. It 
combines a number of important existing programs and asks for 
the full $1.4 billion. Of that--and I think this is the 
important point to make--the land acquisition earmark is only 
$320 million. Some of the rest of that $1.4 billion of course, 
goes to the Forest Service and other land management agencies. 
However, a huge amount of it goes out to the States in a 
revenue sharing program with State game and fish agencies, with 
a land acquisition fund that goes directly to the States with 
an increase in the North American Wetlands program, which has 
been so successful, and with an earmark for municipalities in 
the urban parks and recreation program.
    The $320 million that we are asking for in the Interior 
Department is tremendously important to deal not with vast 
acquisition programs, but with taking care of opportunities and 
problems as they arise. A couple of quick examples.
    I am headed out in a couple of weeks back to my hometown of 
Flagstaff, AZ. Those of you who have been there understand the 
extraordinary mystique and beauty of that town. There is this 
vast volcano, which would do justice to the Pacific Northwest, 
rising out of the desert over this town. It is being taken 
apart by a mine which was located in one of these abusive 
misuses of the Mining Law of 1870, and the mountain is being 
torn down for pumice.
    One may ask, what does pumice have to do with furthering 
the gross national product and the welfare of this country? 
This volcano is being ripped apart for the stone-washing of 
jeans, and a few million dollars may help us eliminate that 
abuse. It will not obviously reform the Mining Law, which we 
must still do.
    You have all heard about the bison issues at Yellowstone 
where we have had enormous conflict. It is now on the verge of 
being resolved. It is being resolved with a land purchase where 
we are paying $13 million for 6,000 acres of land, which is 
half of the ranch that we will have to buy. Had this been taken 
care of when it first came to this Congress in 1980, we could 
have bought the entire ranch for half the price. We are paying 
four times what we could have paid in one shot to Malcolm 
Forbes 20 years ago. I illustrate the point that matters do not 
get better; they get worse. And these are essential 
acquisitions.
    Last, we have an opportunity, just by way of illustration, 
to create an extraordinary new national park in southern 
Colorado. This is such an extraordinary opportunity that for 
the first time since I have been here, we have the Colorado 
delegation, including Colorado's two Republican Senators, 
supporting the creation of this national park. It involves the 
purchase of a Spanish land grant in the Sangre de Cristo 
Mountains in one block for $30 million. I think that works out 
to $300 an acre.
    So, that is the reason those monies are there and the 
reason that I urge your attention to them.

                          MAINTENANCE BACKLOG

    Let me finish up with this taking care of what we have, 
with the backlog. It is a serious, important issue, which we 
have struggled with in many ways with partial success. First, 
if I may, the backlog is represented as $7 billion to $8 
billion. I contest that figure. I would at least like to break 
it down into manageable parts. The reason I contest it is 
because the agencies have little or no interest in responding 
to my desire that we get an accurate assessment. They have been 
in the business for 20 years of crying that the sky is falling. 
The sky is falling now.
    What is the problem with the backlog? First of all, it 
disguises decisions about what we ought to do that need to be 
made not in the context of the budget. In this backlog is a 
place called the Many Glaciers Hotel in Glacier National Park. 
This hotel was built in 1908. It ought to be torn down. I am 
going to regret having said that in public because the entire 
national historical/restoration group is going to evict me from 
membership for that statement. It will cost $100 million to 
bring this hotel up to modern standards. It is not a good 
investment.
    Go to Ellis Island, which is one of our really fabulous 
successes. We have put together that Central Hall. It is a 
magnificent tribute, an enormously popular thing, mostly done 
with private funds, because Americans want to see their own 
ancestry reflected through that island. This has metamorphosed 
into an assumption that we are going to restore to that 
standard every barracks, every clinic, every remaining building 
on all of Ellis Island. We should not be larding that into the 
budget without making a front end decision.
    So, what else is in the backlog? There are $2 billion of 
road maintenance and repair. That is real. It has been assessed 
according to FHA standards. We should not be dealing with this 
in the budget before this committee. This is not a road-
building budget. This should come out of the public roads funds 
and TEA-21 and all of the others. So, out of that $7 billion to 
$8 billion, I am going to subtract $2 billion, and say, yes, we 
have got problems. TEA-21 is helping, but it is not evidence 
that there is a great crisis out there other than a regular 
crisis in road repair.
    There is $1 billion of BIA backlog. That is very real. That 
is Indian schools, and I chalk that one up as real.
    The balance of it we need to address. Are we addressing it? 
Yes. We have $1.8 billion in this year's budget. That includes 
the road money that comes from TEA-21, but it also includes 
annual maintenance of $600 million that is in the 5-year 
deferred maintenance, repair, and construction program that we 
put forward to you last year. That is an additional $600 
million which is in the budget this year. It was in the budget, 
for the most part, last year.
    We have $150 million coming in from the recreation fee 
program. That money is being well used. It is a great success. 
Once again, it did not come from any authorizing committee. We 
would have never gotten it. It came from this committee, and it 
has been an enormous success.

                           PREPARED STATEMENT

    That is some perspective. We are doing a lot. Are we doing 
enough? No. Are we making progress? Yes. Are we making enough 
progress? No. Now, I would be happy to pursue that in any 
direction you want because it is an important topic, and I 
appreciate your interest.
    Thank you.
    [The statement follows:]

                Prepared Statement of Hon. Bruce Babbitt

    I am pleased to be here today before the Subcommittee on Interior 
and Related Agencies to present the fiscal year 2001 budget for the 
Department of the Interior.
    When I appeared before you last year at this time, I remarked that 
the 2000 budget would be the first of the new century and, as such, 
should be a bold step into the new millennium. At the time I made those 
comments, I could not have foreseen the outcome of deliberations on the 
2000 budget, and the broad, bipartisan agreements that were reached on 
common goals for land protection, Indian self-determination, and 
stewardship.
    The 2001 budget I am here to discuss today builds on our collective 
good works. This is a visionary budget that is designed to benefit all 
Americans with a focus on three areas: enhancing opportunities for 
Native Americans; protecting great places and building stronger 
communities through Lands Legacy; and taking care of what we have.

                            BUDGET OVERVIEW

    The Department's 2001 request for appropriations is $9.2 billion, 
an increase of $979.9 million above the amounts provided in 2000. An 
estimated $2.2 billion will be provided in permanent appropriations.
    For Department programs that are under the jurisdiction of the 
Subcommittee, the request for annual appropriations is $8.4 billion, an 
increase of $946.2 million above the levels provided in the 2000 
Interior and Related Agencies Appropriations Act. The budget also 
includes a 2000 supplemental request of $110.8 million for emergency 
contingency fire costs and the highest priority damages caused by 
Hurricanes Floyd, Dennis and Irene.

           THE FIRST AMERICANS: STEWARDSHIP, INVESTMENT, HOPE

    In his July 1999 visit to the Pine Ridge Indian Reservation in 
South Dakota, President Clinton increased America's awareness of the 
critical needs in Indian Country. The President's visit and his 
imperative to ``begin this new century by honoring our historic 
responsibility to empower the first Americans'' signal a commitment to 
support Indian self-determination and the government-to-government 
relationship with Indian Nations. The 2001 budget proposes $9.4 billion 
across the government for Native American programs. Within the 
Department of the Interior, the budget proposes $2.2 billion for BIA 
programs that will honor our responsibilities and empower the first 
Americans. The budget provides the largest increase ever for school 
construction and addresses priorities identified by the Tribes 
themselves, including: safe communities, improved housing, adequate 
educational facilities, and sound management of trust resources.
    The Federal government has a unique and historical responsibility 
for the education of over 50,000 Indian children. BIA operates 185 day 
and boarding schools, many of which are located on remote and isolated 
reservations. BIA's 2001 request includes $300.5 million for education 
construction, repair, and maintenance programs, an increase of 126 
percent over the amount provided for these programs in 2000. This 
increase is needed to replace and repair facilities that have serious 
health and safety deficiencies and to provide Indian children with the 
basic resources that are critical to student learning. To address 
school operations needs, the 2001 budget includes $506.6 million for 
operation of schools, an increase of $39.7 million over 2000. This 
increase in funding includes $6.8 million for the Family and Child 
Education Program to improve children's readiness for school and adult 
literacy, and $8.2 million for a pilot therapeutic treatment program 
that will focus on the needs of high-risk students at boarding schools.
    In 1997, we worked with Attorney General Janet Reno and developed a 
four-year initiative in collaboration with tribal leaders to combat 
rising crime rates in Indian Country. As a result of this initiative we 
are seeing real progress. Over the past two years BIA and the Justice 
Department have hired additional officers and investigators, are 
replacing dilapidated detention centers, strengthening tribal court 
systems, and improving programs for at-risk children. The 2001 budget 
includes increases of $18.8 million for BIA to continue this initiative 
and strengthen core law enforcement functions, upgrade radio systems, 
and improve detention center services. The Department of Justice is 
requesting an increase of $81.8 million to support tribal law 
enforcement programs.
    Over 100,000 Indian families are in desperate need of better 
housing but cannot qualify for assistance through the Department of 
Housing and Urban Development because they cannot meet minimum income 
requirements. The 2001 budget doubles funding for the Housing 
Improvement Program, requesting an increase of $16.3 million for 
housing repairs, replacement, and renovation.
    The 2001 budget includes an increase of $4.0 million to implement 
fundamental changes to BIA's internal management and administrative 
systems based on recommendations of the National Academy of Public 
Administration. Funding will be used to address highest priority 
improvements at central and field office locations that will strengthen 
planning, budgeting, finance, human resources, and information 
resources management.
    Early in this Administration I made a commitment to resolve the 
decades-old trust fund management issue and promised to fix it on my 
watch. Last spring I asked for your help in providing funding to solve 
this problem. You saw fit to fully fund our budget request for the 
Office of the Special Trustee in 2000, and as a result, we are making 
progress in implementing much-needed reform efforts. Conversion of 
individual Indian accounts to the new trust fund accounting system will 
be completed by May. We have piloted the Trust Asset and Accounting 
Management System in one location and we expect to begin deploying the 
land title functions of the system to other locations this May.
    The 2001 budget includes a comprehensive proposal to continue 
ongoing trust management improvements, institute permanent and lasting 
changes in trust management functions in BIA, and resolve land 
ownership fractionation, which is one of the root causes of trust 
management problems. I want to thank this Subcommittee for the interest 
and fortitude it has regularly displayed in assisting us to tackle one 
of the most formidable and critical management issues in all of 
government. The reforms in this area continue to be my highest 
management priority for the Department.
    A total of $58.4 million is requested for trust management 
improvements under the Office of the Special Trustee in 2001. This is a 
reduction of $6.9 million from 2000, reflecting one-time computer 
acquisition costs. The 2001 budget requests a $35.1 million increase 
for BIA trust management functions, including real estate services, 
probate, cadastral surveys, and land titles and records programs. These 
increases are absolutely crucial to ensure that the trust management 
improvements we are implementing are institutionalized and maintained 
in the long term. The 2001 budget also includes $12.5 million to expand 
the Indian Land Consolidation program. In 1999, BIA implemented a pilot 
program on three reservations in Wisconsin and by the end of 2000 will 
have acquired over 36,000 fractional interests in allotted Indian 
lands. The 2001 request will allow us to acquire up to 40,000 
additional fractional interests.
    While the Department is well underway in reforming our trust fund 
management systems, we also need to examine the past to ascertain 
whether income for IIM accountholders was properly credited, maintained 
and distributed to and from their IIM accounts. We have submitted for 
publication a Federal Register notice to gather information from IIM 
account beneficiaries and the public to determine the most reasonable 
methods for providing account holders with information to evaluate 
their accounts and determining whether there are discrepancies due to 
past management practices. We expect the Federal Register notice to be 
published this week.

                              LANDS LEGACY

    One of America's most cherished icons, President Theodore 
Roosevelt, understood the compelling need for land protection and 
embraced a visionary, long-term approach to conservation that led to 
creation of the first national wildlife refuge at Pelican Island in 
Florida and designation of the Grand Canyon as a National Monument. 
President Roosevelt believed that we must work together to leave this 
land ``an even better land for our descendents than it is for us.''
    Based on the idea that we need to reinvest in the preservation and 
renewal of resources, the Land and Water Conservation Fund provides a 
secure source of funding for land acquisition. On an annual basis $900 
million is deposited into the Fund, primarily from Outer Continental 
Shelf rents and royalties, for acquisition. In practice we have 
diverted much of the Fund to deficit reduction. The Lands Legacy 
proposal makes good on the promise Congress made in 1964 when it 
created the Land and Water Conservation Fund. The President's budget, 
by creating a new budget category, would end this practice. Funds could 
only be spent on Lands Legacy programs and could no longer be diverted 
to other priorities.
    The first step in creating a legacy for our children is the 
identification and protection of pristine peaks, unspoiled beaches, and 
verdant prairies. In many of these places we have a one-time 
opportunity to preserve the matchless wonders of nature before they 
fall victim to development. With ever-widening opportunities to 
communicate through the internet and via satellite, the geographic 
barriers that once limited access to wide open spaces no longer exist, 
and it is becoming more and more difficult to find these pristine, 
unspoiled landscapes. Not surprisingly, many of our prized parks, 
refuges, public lands, and open spaces that provide recreation and 
other benefits for local communities are now at the borders of suburbia 
and are being impacted by encroaching development. We are fortunate to 
have within our grasp the right economic conditions and public support 
to take action--now. It is our imperative. If we do not, our children 
will wonder why we squandered an opportunity to leave a permanent and 
lasting legacy.
    Will Rogers said it best: ``Invest in land--they're not making any 
more.''
    The President's Lands Legacy Initiative builds on our 2000 
achievements and expands efforts to preserve America's great places. 
The 2001 budget includes $1.4 billion for Lands Legacy government-wide 
and $735.0 million for Department of the Interior programs. A new 
budget category is proposed to provide dedicated, protected 
discretionary funding for this initiative. In this request only the 
Federal acquisition and State Conservation Grant programs will be 
funded from the Land and Water Conservation Fund.
    The 2001 budget requests $450.0 million for Federal land 
acquisition, including $320.0 million for acquisition programs in the 
Department. Funding will be used to complete purchases in the 
California desert and continue acquisition of Civil War battlefields, 
the Florida Everglades, the Lewis and Clark Trail, and the Northern 
Forest. In addition to these areas, the 2001 budget requests funding 
for the New York--New Jersey watershed where acquisition will protect 
the last vestiges of wetlands and uplands that serve as stopover sites 
for migratory birds and buffer refuges from the impacts of rapidly 
growing suburbs. Proposed acquisitions in the Lower Mississippi Delta 
will protect areas that are rich in cultural, historical and ecological 
values, and vital to our continued efforts to restore wildlife and 
fisheries. In Southern California acquisition will protect unique 
ecosystem types and endangered species, archeological finds and fossil 
deposits, and expand community access to recreational opportunities and 
outstanding scenery.
    Land acquisition is a key component to many of our landscape-scale 
restoration initiatives. Restoration of the South Florida ecosystem is 
one of the most significant environmental initiatives of our lifetime. 
Historically, this ecosystem contained some of the most diverse 
habitats on earth, but deprived of sufficient water supplies it can no 
longer support a diverse array of wildlife. The 2001 request for land 
acquisition includes $80.0 million for acquisition in South Florida and 
the Everglades. Of this amount $47.0 million is for a matching grant to 
the State of Florida to continue acquisition for restoration purposes. 
The request also includes $33.0 million that will be used to complete 
acquisition of Big Cypress National Park and Preserve and to add 1,870 
acres to national wildlife refuges to preserve habitat that is critical 
to wildlife and important to ongoing restoration efforts.
    As we continue acquisitions to safeguard our national parks, 
refuges, and public lands that will preserve the magnificent views of 
Yellowstone's Grand Canyon and the Grand Tetons, we must also be 
attentive to the needs for open space in our own backyards. The public 
is demanding that we tend to the small parcels and pockets of open 
space that provide recreational opportunities, reduce suburban sprawl, 
and revitalize urban areas. In New Jersey voters have been able to 
secure a multi-year commitment for funds to acquire these important 
green spaces and are looking for a partnership commitment from the 
Federal government. The 2001 budget includes $150.0 million, funded 
from the Land and Water Conservation Fund, for State Conservation 
Grants. Funded for the first time since 1995, the 2000 appropriation 
included $41 million for this program. Using these grants, communities 
will leverage resources and acquire open spaces and develop outdoor 
recreation areas. In the past, these grants have been used by states 
and communities to acquire areas such as Point Dune State Beach in 
California. This locally operated park 18 miles west of Santa Monica 
features cliffs, secluded coves and tidal pools, and its headlands 
offer views of migrating California gray whales between November and 
May.
    The Urban Parks and Recreation Recovery program creates and renews 
close-to-home recreation opportunities that strengthen economically 
distressed urban communities and positively impact at-risk youth and 
the safety of our cities. The 2001 budget request includes $20.0 
million that will be used to enhance urban park and recreation areas 
that have deteriorated to the point where health and safety are 
endangered. Grants will be provided to state and local governments that 
will leverage grant funding with public and private sources, building 
local support and commitment for the protection and management of 
neighborhood parks. For the first time since 1995, the Congress 
provided funding for this program, appropriating $2.0 million in 2000. 
Grants will be allocated to sponsor projects such as Indianapolis's 
Youth Conservation Corps, a program in which inner-city youth renovated 
a neighborhood park and constructed an ecological pond utilizing funds 
provided by area businesses.
    The 2001 budget requests $65.0 million, an increase of $42.0 
million for grants to states and local governments to conserve species 
through the Cooperative Endangered Species Conservation Fund. This 
program provides communities with flexible approaches and resources to 
use in resolving the conflicting demands caused by economic growth, 
increasing population, and declining habitat. Through the development 
of Habitat Conservation Plans, implementation of candidate conservation 
agreements, safe harbor agreements, and other means these communities 
are able to assure the protection of imperiled species and assist in 
their recovery.
    Since 1991, the FWS has worked in partnership with Canada, Mexico, 
State and local governments, farmers and other private landowners, 
Tribes, and non-profit conservation groups to conserve wetlands through 
the North American Wetlands Conservation Fund. Nearly 13 million acres 
of wetlands and associated uplands in Canada and the U.S. have been 
protected, and an additional 25 million acres in Mexico have benefited 
from similar conservation actions. A total of $727 million has been 
provided by partners to match the $288 million provided from the Fund 
in support of these projects. The 2001 budget includes $30.0 million, 
an increase of $15.0 million over 2000, to restore breeding grounds, 
resting and over-wintering areas for waterfowl and migratory species 
and wetland dependent wildlife. In combination with partnership 
contributions, this request translates into a minimum of $60 million in 
wetlands restoration projects and associated benefits.
    The 2001 request for Lands Legacy includes $100.0 million for a 
State Non-Game Wildlife Grants program. Through this program funds will 
be provided to States, Tribes, and territories for activities that will 
conserve and restore non-game species including planning, monitoring 
and conducting inventories, restoring habitat, acquiring land, and 
increasing opportunities for non-game wildlife recreation. This program 
will address non-game species protection and restoration needs that 
have not been addressed through existing programs and will respond to 
public demand for increased access to non-game recreational 
opportunities. An estimated 62.9 million nature enthusiasts currently 
spend over $29.2 billion a year in pursuit of these activities. 
Projects will include restoring habitats favored by songbirds and other 
non-game species and protection of key stopover points for migratory 
songbirds.
    The Department is committed to providing relevant science to 
decision-makers at all levels of government and strengthening their 
ability to protect valuable natural resources, identify optimal lands 
for acquisition, design effective land use and development strategies, 
develop efficient transportation systems, and mitigate natural hazards. 
A $50.0 million State Planning Partnerships program in the USGS 2001 
budget will provide State and local decision-makers and Federal 
resource managers with geospatial data, earth science information, and 
tools such as GIS. This request includes $10.0 million for an expanded 
Urban Dynamics Program to assist city and regional land use planners in 
developing plans for community growth that will resolve potential land 
use conflicts. The State Planning Partnerships proposal also includes 
$10.0 million for predictive modeling and decision support systems for 
Federal and State natural resource managers to improve their 
effectiveness. Finally, $30.0 million is requested to work 
collaboratively with local communities, States, and others to improve 
data sharing and access to spatial data and maps. These funds would be 
made available to local communities through competitive matching grants 
and other cooperative agreements under the Community/Federal 
Information Partnership program. Efforts sponsored by the Federal 
Geographic Data Committee, such as the Cooperative Agreements Program, 
and other efforts such as the Ohio View project, have demonstrated the 
usefulness of information sharing among Federal, State, and local 
organizations and universities for decision-making purposes.

                      TAKING CARE OF WHAT WE HAVE

    During my tenure as Secretary, we have worked diligently with the 
Subcommittee to strengthen and rebuild the operational programs of the 
land management agencies. Despite budget cutbacks and limitations in 
discretionary appropriations, a constant theme in negotiations on the 
budget has been to take care of what we have and uphold our 
responsibility for stewardship of the land, natural resources, and 
facilities.
    Since 1993, we have grown the operating accounts of the National 
Park Service, Fish and Wildlife Service, and Bureau of Land Management 
by $851.1 million, or 43 percent. This compares to the 19 percent 
growth rate for appropriations for the Department of the Interior in 
this same time period. These operational funding increases have been 
focused on building bench strength in the field and improving the 
delivery of programs to the public and not on building a bureaucracy. 
We have maximized efficiency by working collaboratively with our 
partners, encouraging volunteerism, fostering programs like the Youth 
Conservation Corps, and holding Federal staffing to the minimum 
required. Consider that the 2001 budget increases staffing by only two 
percent while the increase in funding is 12 percent. Even with the 
increases sought in this budget, the Department's staffing will be more 
than 10 percent below our 1993 base.
    The 2001 budget continues this theme of taking care of our 
operational programs with increases totaling $214.3 million for the 
land management agencies in order to safeguard the integrity of the 
Nation's parks, refuges, and public lands. Funding is targeted to 
address operational needs, resolution of specific land management 
issues, and repair and rehabilitation of facilities.
    Bureau of Land Management.--Over the last decade, BLM has 
transformed itself into a model of multiple use management, emphasizing 
conservation while protecting the access rights of a diverse group of 
customers. The budget proposes a $76.5 million increase in the bureau's 
primary operating accounts to continue and expand its quiet successes 
including: collaboration with 24 independent Resource Advisory Councils 
to bring about changes to livestock grazing practices and applying new 
standards to conserve western lands; implementing the Northwest Forest 
Plan in order to allow for timber production while protecting sensitive 
species; and fulfilling a vision for preservation of public lands such 
as the Grand Staircase-Escalante National Monument in Utah and the 
Headwaters Forest Reserve in California.
    The designation of monument status recognizes the biological, 
archeological, and geological significance of areas that stand out from 
the landscape because of exceptional beauty, and geographic and 
historical value. In 1908 Teddy Roosevelt designated the first 
monument, the Grand Canyon. The Grand Canyon-Parashant National 
Monument protects the entryway to the Grand Canyon and extends 
protection for the deep canyons, mountains, and isolated buttes that 
extend from the Canyon along the Colorado River plateau. Clearly, 
President Roosevelt recognized the need to protect the Grand Canyon, 
but even he could not have anticipated the need to extend protection to 
the surrounding area and the urgency driven by population expansion and 
development that is transforming so much of the western landscape.
    Arising from this series of designations is a newly emerging BLM 
conservation system, that alongside national parks and national 
wildlife refuges, will constitute an enduring part of our public land 
heritage. Establishing a new model for conservation, our management of 
these areas will maintain traditional relationships with the 
surrounding communities. At Grand Staircase Escalante we responded to 
the challenge by Governor Leavitt and the communities of southern Utah, 
agreeing that visitor centers and other visitor service facilities 
could be located in surrounding communities to continue the historical 
link between the landscape and community life.
    Improved management of national monuments, national conservation 
areas, wild and scenic river corridors, and other places are a focus of 
BLM's 2001 budget. An increase of $16.0 million will allow BLM to focus 
on stabilizing and restoring existing resources and enhancing 
recreational and educational opportunities at officially designated 
areas. Funding for the three new monuments, Grand Canyon-Parashant 
National Monument, Agua Fria National Monument, and California Coastal 
National Monument is included in this request.
    The 2001 budget also includes an increase of $19.0 million to 
improve land use planning and begin a multi-year process to update 
resource management plans. This planning effort will allow the bureau 
to be more responsive to use authorization requests and ensure 
sustainable use. Another land management priority that is addressed in 
BLM's budget request is $9.0 million to tackle one of the most 
difficult management issues--the explosive growth of wild horses. 
Today's herds are almost 75 percent above appropriate herd management 
levels and populations continue to increase at about 20 percent per 
year. BLM is proposing to increase removals, adoptions, and gelding 
and, where necessary, implement a long-term strategy to reach 
appropriate herd management levels by 2005.
    National Park Service.--Careful stewardship of National parks is 
essential to protect scenic vistas and cultural resources, mitigate the 
effects of air and water pollution, and support fish and wildlife 
populations, while accommodating increasing visitor use. The 2001 
budget includes an increase of $90.3 million for operation of the 
National Park Service. Included within this request is $24.0 million 
for special park increases to address specific program needs at 72 
parks, three trails, and for the U.S. Park Police. Funds will be 
directed to parks with new responsibilities, priority operations and 
maintenance needs, and to improve the visitor experience. Examples of 
specific park increases include improving the employee safety program 
at Yosemite National Park in California; operating a new information 
plaza at Grand Canyon National Park in Arizona; and improving cultural 
and natural resource management at the Tallgrass Prairie National Park, 
Kansas.
    The operational increase for NPS also includes $18.0 million for 
the Natural Resource Challenge, a five-year program launched in 2000 to 
improve the management of natural resources in parks. Funding is 
requested to accelerate efforts to acquire basic data on natural 
resources and monitor the condition of parks. Funding will be used for 
control of invasive species in 13 parks to restore healthy, functioning 
ecosystems and to initiate water quality monitoring at 12 networks of 
parks. At the Great Smoky Mountains National Park efforts to control 
alien species of plants and fish that are destroying native vegetation 
and habitat will be increased. Parks will restore habitat for 
endangered and threatened species, including two endangered nesting 
birds at Haleakala National Park in Hawaii, and foxes faced with 
extinction at Channel Islands National Park in California.
    U.S. Fish and Wildlife Service.--The 521 unit National Wildlife 
Refuge system is a national network of lands and waters devoted to the 
conservation, management, and restoration of fish, wildlife, and 
plants. This system of over 93 million acres is important to the long-
term survival and restoration of the nation's wild resources providing 
important breeding, feeding, and stopover areas for migratory birds; 
nursery areas for important commercial and sport fisheries; and refugia 
for native plant species. Approximately 34 million visitors enjoy 
wildlife watching, photography, hiking, educational programs, and other 
activities on refuges. The 2001 budget includes an increase of $19.9 
million for refuge projects that will protect wildlife, improve 
habitat, and provide improved educational opportunities for the public. 
This request continues our efforts to be stewards of the refuge system. 
Since 1996, we have increased funding for refuge operations and 
maintenance by $113 million or 67 percent.
    One of our greatest successes is the creation of flexible and 
innovative programs that make the Endangered Species Act work for 
people and wildlife. We have developed a conservation framework that 
utilizes habitat conservation planning, safe harbor agreements, 
candidate conservation agreements, and other programs in order to 
permit sound economic development and protect imperiled species. 
Examples of our specific accomplishments include:
  --Candidate conservation agreements in the southwest have kept 
        species including the Pecos pupfish and Arizona bugbane off the 
        endangered species list.
  --Streamlining the Section 7 consultation process for timber sales in 
        the Pacific Northwest has reduced timeframes by 50 percent.
  --Habitat conservation plans have been put in place that protect 
        salmon and bull trout.
  --The gray wolf and California condor have been reintroduced and are 
        flourishing. A recent Tenth Circuit Court of Appeals ruling 
        eliminates the threat of removal for the Yellowstone wolves and 
        their offspring.
  --Bald eagle populations are proposed for downlisting from endangered 
        to threatened.
    The 2001 budget includes $115.3 million for the endangered species 
program, an increase of $7.0 million. Funding will be used to develop 
42 candidate conservation agreements, work on 550 habitat conservation 
plans, consider an additional 27 species reclassifications and 
delisting actions, and develop an additional 10 safe harbor agreements. 
These varied programs offer a full range of alternatives to states, 
local governments, and communities for conservation of species and 
resolution of competing demands.
    The protection of refuge lands, endangered and threatened species, 
and migratory birds demands the vigilance and skills of a cadre of law 
enforcement officers that are trained in the latest techniques in 
detection and interdiction of wildlife violators. The 2001 budget 
includes an increase of $12.6 million to better train and equip FWS law 
enforcement personnel and expand the agent work force to defend 
wildlife against criminals that are becoming increasingly sophisticated 
and well equipped.
    Title VIII of the Alaska National Interests Lands Conservation Act 
protects the subsistence harvest rights of rural residents of Alaska. 
For these Alaskans, subsistence harvests form the foundation for a way 
of life and are essential for meeting economic, social, and cultural 
needs. To uphold our responsibilities to provide a priority for 
subsistence uses, the budget includes $12.9 million for the Department 
to fully implement the court-ordered Federal takeover of the 
subsistence fisheries program in Alaska. In addition, the Forest 
Service is requesting $5.5 million for its program responsibilities. 
The Department's request includes $5.4 million for program management 
and coordination and $7.5 million for resource and harvest monitoring. 
We will utilize the expertise of the State, Native organizations, and 
others and contract with them for resource and harvest monitoring. This 
Subcommittee has been very supportive of our efforts to adequately 
budget for our uncontrollable costs. On an annual basis we incur 
increased costs as a result of pay rate increases, rising costs for 
retirement benefits, and the charges passed onto us for workers' 
compensation, unemployment compensation and space rental costs. For 
2001 these ``hidden costs'' total $141.7 million and would have to be 
absorbed by the operational programs if funds are not provided. Part of 
our efforts to take care of what we have includes making sure we do not 
have to absorb these costs and adversely affect our ability to manage 
and maintain lands, resources, and facilities.
    Safe Visits.--The Department manages an extensive infrastructure of 
administrative and public use buildings, housing, roads and trails, 
dams, bridges, water and wastewater systems, schools, laboratories, and 
other facilities. Some of these facilities are over 100 years old and 
many are located in remote locations.
    With the encouragement of the appropriations subcommittees, the 
Department instituted a comprehensive Safe Visits to Public Lands 
initiative to bring consistency and accountability to management of the 
Department's infrastructure, and to focus funding on the highest 
priority maintenance and construction needs. We will soon provide the 
Subcommittee with a comprehensive report on the status of projects 
funded in 1999.
    The 2001 request for Safe Visits is $1.2 billion, an increase of 
$134.6 million or 13 percent, over 2000. The budget includes $570.3 
million for maintenance and $601.3 million for construction to 
accelerate repairs to Indian schools, replace six Indian schools, 
repair and replace facilities in parks, refuges and other Interior 
properties. Included within the request is $9.2 million to conduct 
condition assessments on a five-year cycle. These condition assessments 
will establish a baseline of current conditions of facilities and 
provide a thorough evaluation of repair and rehabilitation needs. The 
budget also includes $4.3 million to continue the development and 
implementation of maintenance management systems that will provide 
reliable, consistent information to facilities managers.
    Other Programs.--The 2001 request continues Outer Continental Shelf 
regulatory and environment research programs that limit negative 
consequences that could result from exploration and production in 
sensitive offshore lands. The 2001 budget request for MMS programs 
totals $130.2 million. These MMS programs also collect revenues that 
finance one-half of the costs of the Department's programs.
    Through the Abandoned Mine Reclamation Fund we provide grants to 
states and Tribes to reclaim previously mined lands. On an annual basis 
this program restores approximately 9,000 acres to productive use and 
reduces threats to public health and safety. An increase of $15.3 
million from the Fund will allow the reclamation of an additional 1,000 
acres. Of this increase, $2.0 million will be available for the 
Appalachian Clean Streams initiative. This program brings together 
Federal and local resources to restore stream habitat and water quality 
by reducing acid mine drainage, and thereby improving water quality for 
local communities and restoring habitat for species such as the 
Appalachian brook trout. With this increase, an estimated 46 new 
projects will be initiated.
    Finally, I ask that you consider operational needs for other 
Departmental priorities including the Solicitor's Office, our new 
Inspector General, and Departmental Management. For these offices, we 
are requesting uncontrollable cost increases and funding for ongoing 
litigation support provided by the Solicitor's Office, to expand the 
capability of the IG's audit and investigation function, and for 
Departmental Offices to address important needs in electronic data 
security and improved financial accountability.
    This concludes my prepared statement. I will be happy to answer any 
questions you may have.

    Senator Gorton. We do have a number of our members here. I 
think my members know that at 11 o'clock we are going to have 
two votes. Since I have the most questions, I will defer for a 
while and turn my first question privilege over to you, Senator 
Bennett. You can ask your questions and then stay or do 
whatever you wish, and then, Senator Byrd, to you.
    Senator Bennett. Well, thank you, Mr. Chairman. I 
appreciate that. I do not have a large number of questions.
    I will make a comment, Mr. Secretary. I am delighted that 
the Colorado delegation is behind the creation of a new 
national park. I think a lot of the difficulty we had in Utah 
over the national monument could have been avoided if there had 
been some prior conversation with the Utah delegation. As you 
are talking about new national monuments and use of the 
Antiquities Act, even though I think your use of the act is 
improper, the fact that you are talking to people about it, 
instead of doing it in the somewhat clandestine way the Utah 
monument was created, is a step in the right direction. I 
understand that that was not entirely under your control. I do 
not blame you personally for the way that particular situation 
unraveled.

                    ESCALANTE SCIENCE CENTER FUNDING

    Now, President Clinton designated some Grand Staircase-
Escalante National Monument funds for the Escalante science 
center. Can you tell us what the status of those funds are--or 
the status is I guess; ``status'' is singular--and what actions 
are being taken to ensure that the monies will be spent as 
Congress has designated them?
    Secretary Babbitt. Senator, the answer is I do not know, 
but I will certainly get back to you. I can tell you that our 
attention certainly has been to spend and sub-event all of 
those funds. It has been essential to the development of that 
entire plan. If they are in the budget, the answer is I support 
it. If they are appropriated, the answer is they will be 
expended.
    Senator Bennett. OK, fine.
    Secretary Babbitt. Senator, there is a $5 million line item 
in the President's request for this issue.
    Senator Bennett. OK.

                            MORMON CRICKETS

    We are on the verge once again of a massive infestation 
from what has come to be known as Mormon crickets. They breed 
on undisturbed Federal lands, lands that are managed by the 
BLM. The BLM has an account for grasshopper and Mormon cricket 
control, but it appears that the account is empty. Now, I have 
had conversations with Senator Cochran about how we can get a 
little help out of the Agriculture Committee. But if BLM could 
pay some attention to address the cricket infestation, it might 
obviate the need for some of this money later on because there 
are things that can be done to see to it that the crickets do 
not arise in the same quantity that they sometimes do.
    So, I just want to lay that down. It is a very parochial 
interest, but it has enough historical background behind it. I 
think we need to pay attention to it, and I just call your 
attention to the fact that this all starts on BLM land and then 
ends up being a very serious problem that Senator Cochran has 
to address later on with some control funds.

               DESERT TORTOISE HABITAT CONSERVATION PLAN

    Now, one of the first issues I ever got involved in as a 
Senator and one that we count as a success in terms of our 
relationship with the Department of the Interior has to do with 
the habitat of the desert tortoise down in Washington County. I 
think we have had a good experience down there of getting that 
HCP in place.
    Now every private landowner whose lands were impacted by 
the HCP has been compensated except one, and ironically it was 
this one who was the first one to come to me after I was 
elected and before I was sworn in to talk about this. I simply 
again would call your attention to that situation and hope that 
some acceleration on the compensation to James Doyle might move 
forward. I know that sometimes he has been a bur in the side of 
the Department. We have all met and dealt with Mr. Doyle, but 
what is fair is fair and I would hope that could be addressed.
    Other than that, Mr. Chairman, I simply want to take the 
opportunity to thank the Secretary for the efforts in Utah of 
Molly McUsic, Sally Wisely, and Dick McManus, all of whom are 
Interior Department appointees sent into the State. We have a 
very good relationship with all of them and we appreciate the 
cooperation that they give us. Thank you, Mr. Chairman.

                      SAN RAFAEL SWELL LEGISLATION

    Secretary Babbitt. Senator, if I may, I would just like to 
say a word about the San Rafael legislation.
    Senator Bennett. Yes.
    Secretary Babbitt. I spent yesterday afternoon calling the 
Democrats on the House Resource Committee to see if we can get 
some momentum going on this. I just want to say that I not only 
support the bill, I am eager to see the bill acted upon and 
passed. I am aware that there are, I believe, less than 70 
working days left, at least on the Senate side, in this 
session, and it is going to be a major effort. I want you to 
know that I am deeply committed to that because I do believe 
that there is a great deal of precedential value in the way 
that that bill emerged, was shaped, and the way in which it 
balances the various interests.
    Senator Bennett. Well, I am delighted to hear that. Senator 
Hatch and I have introduced it on this side and we will do what 
we can to move it along. But we are very grateful, Mr. 
Secretary. We know you are taking some heat in the 
environmental community for taking that stand, and I applaud 
you for your willingness to do that because it is the right 
thing to do and it will set a precedent that I think will take 
some of the sting out of many of the environmental 
controversies in the years ahead. So, I am grateful for the 
report and for the support. Thank you.
    Senator Gorton. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.

               WEST VIRGINIA COAL MINE PERMITTING PROCESS

    Mr. Secretary, the State of West Virginia has been advised 
by the Office of Surface Mining that the State's coal mine 
permitting process is woefully understaffed. In a letter dated 
February 8, 2000, OSM effectively told West Virginia that 
unless the State takes swift action to correct the situation, 
the State's authority to administer its mine permitting program 
may be in jeopardy.
    The February 8 letter was the first step in a two-step 
process, as I understand it, which could eventually lead to a 
Federal takeover of the State's regulatory program, a situation 
which I would hope you would agree would not be in the Interior 
Department's best interest.
    Over the past few months, officials from the State and OSM 
have been working together to see what can be done to bring 
West Virginia's program up to standard. Those discussions have 
convinced both OSM and West Virginia that the State's coal mine 
permitting process is in dire need of substantial emergency 
investments by both Federal and State government.
    Would you confirm for this committee that the February 8 
letter from OSM to the West Virginia Division of Environmental 
Protection was, indeed, the initial step in a process that 
could lead to a Federal takeover of the State's regulatory 
program?
    Secretary Babbitt. Senator, that is possible, certainly.
    Senator Byrd. Am I also correct in suggesting that a 
Federal takeover of the State's regulatory problem would result 
in significantly greater cost to the Federal Government than 
adding additional sums to West Virginia's current request?
    Secretary Babbitt. Senator, I think that follows. It is a 
50/50 matching program, and obviously the State match would 
fall away and 100 cents on the dollar would be Federal.
    Senator Byrd. As you know, Mr. Secretary, the Nation's coal 
industry is currently struggling with the dual challenge of 
meeting America's mounting energy demands while ensuring 
protection of the environment.

                          OSM DIRECTOR KARPAN

    At the same time, I note several recent newspaper articles, 
including the Washington Post on Monday, April 3, that raised 
questions regarding OSM Director Kathy Karpan's recent recusal 
of herself from the decisionmaking process. Now, I think Kathy 
Karpan has been doing a good and professional job, but I must 
also say that the integrity of that agency is very important.
    Can you tell the subcommittee anything about that 
situation?
    Secretary Babbitt. Senator, we have discussed this a great 
deal. Kathy Karpan is the former Secretary of State of Wyoming. 
She is a coal miner's daughter. She is also the Director of the 
Office of Surface Mining and has done a really solid job.
    In her final year, she was approached by a head hunter and 
asked if she would be interested in being on the list, being 
considered for the head of Colonel Lawson's crowd, the Mining 
Association. She immediately went to the Solicitor's Office and 
said, what do I do? The Solicitor said, you must recuse 
yourself from the following things. She promptly recused 
herself and is in full compliance with the law.
    The remaining question is the dilemma of appearance. I 
guess there is no perfect answer to that. She is in compliance 
with the law. She is making no decisions that relate to things 
that the Mining Association is directly involved in. The Mining 
Association is thought by many to be a reflection of the 
industry which she regulates. I would be happy to have advice 
from anyone who would like to give me guidance. I mean, those 
are the facts.
    Senator Byrd. Well, thank you, Mr. Secretary. I think it is 
a very unfortunate situation to have arisen at this time.
    Secretary Babbitt. Yes, Senator, I agree. But can I tell 
the woman you cannot be on a list for a job? I don't know.

                 NATIONAL CONSERVATION TRAINING CENTER

    Senator Byrd. The National Conservation Training Center, 
which is located in Shepherdstown, West Virginia, is operated 
by the Fish and Wildlife Service, and is by every definition a 
world class training facility. Since it opened its doors in 
October 1997, more than 25,000 people have gone there to learn 
to improve natural resource management and conservation. In 
addition to Fish and Wildlife Service employees, I am told that 
the center serves individuals from literally hundreds of 
different organizations from every State and from over a dozen 
countries.
    We had a great time, Mr. Secretary, you and I, on the 
occasion of our dedication of that facility. I have had many, 
many compliments since from people of all walks of life who 
have visited there. I hope, Mr. Chairman, that you and other 
members of the committee will be able to visit that training 
center, if you have not already done so.
    It currently has three dormitories, each consisting of two 
stories, each housing 50 students for a total on-campus 
capacity of 150. But the center is equipped to handle 250 
students in its classroom facilities. Consequently, hundreds of 
people each month are forced to seek housing away from the 
center and even more are not utilizing the center because of 
this situation.
    In an effort to address the problem, the Fish and Wildlife 
Service has proposed adding a fourth two-story dormitory at the 
center in fiscal year 2001, which would bring the available on-
campus housing up to 200. I believe that if the Fish and 
Wildlife Service is going to build this fourth dormitory, it 
would be far more efficient for it to be built as a three-story 
facility, thus bringing the housing availability up to 225, 
rather than as a two-story facility.
    How would you feel about such a proposal?
    Secretary Babbitt. Senator, I endorse that proposal. This 
training center has been a very pleasant surprise. It was in 
the news when the State Department commandeered the facilities 
and threw everybody out in order to host the Israelis and the 
Syrians for one of their talks. That is a reflection of the 
utility and location of this place. We are basically fighting 
off the rest of the world now. It is booked solid and we are 
trying to draw some lines, saying hey, this is ours.
    In that context, I think it is perfectly appropriate to add 
this extra dormitory and to configure it for the additional 
beds through the use of a third story. No question that it will 
be used. None.
    Senator, I must say I always supported this project.
    Senator Byrd. I know you did.
    Secretary Babbitt. I was accused, not infrequently, by OMB 
of pandering to Senator Byrd.
    And, of course, I was.
    In addition to the fact that I always thought it to be a 
good project.
    Senator Byrd. Well, you gave it your complete support. No 
doubt about that. And I am glad to have your answer this 
morning to the question.
    Mr. Chairman, I have one more question.

                      STATE GRANT PROGRAM FUNDING

    The budget request for the Fish and Wildlife Service 
includes a new $100 million State grant program for non-game 
wildlife. You are aware of the abundance of wildlife in West 
Virginia and of my State's vast natural wildlife habitats.
    Given that, I would like to know how it is that the Fish 
and Wildlife Service determined that West Virginia would only 
qualify for the minimum State grant amount, the same level, I 
would point out, that is proposed for Rhode Island. Now, I love 
Rhode Island, but it does not have the mountains or the 
wildlife or the wildlife habitat that we have.
    So, can you tell me anything on that by way of answering 
that question?
    Secretary Babbitt. Senator, I was approached by the Fish 
and Wildlife Service yesterday, and they said, we know of your 
friendship with Senator Byrd. You cannot back down on this one.
    So, I will confine myself to the facts.
    My understanding is that the proposal of the President's 
budget has beneath it an allocation formula with a floor and a 
ceiling, a 1 percent minimum, a 5 percent maximum. And within 
that range of 1 percent minimum, 5 percent maximum, a third of 
the formula is based on the area of the State and two-thirds is 
based on the population. I am going to stop right there. My OMB 
handlers are right behind me here.
    Senator Byrd. Well, they are wrong.
    They are wrong and I would appreciate it if you would 
reevaluate this, take another look at it. The apportioned funds 
for West Virginia, $960,000; Rhode Island, $960,000; New York, 
$4,800,000.
    Secretary Babbitt. Senator, I guess I could add one thing. 
Last summer I took some time off and I went with the West 
Virginia Game and Fish Director and some of his employees from 
the mountains of West Virginia, and we went trout fishing. I 
must say, as a cultural experience, it was one of the 
highlights of my life. It was really quite extraordinary. It 
really was. They are good people, and the hunting and fishing 
part of West Virginia culture is not to be underestimated. They 
really care about this stuff and they do a nice job taking care 
of a lot of beautiful territory.
    Senator Byrd. Thank you. Thank you, Mr. Chairman.
    Senator Gorton. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                     NATCHEZ TRACE PARKWAY FUNDING

    Mr. Secretary, I was pleased to notice in the budget 
submission an increase of $90.3 million for operation of the 
National Park Service and your observation in your statement 
that careful stewardship of national parks is essential and you 
go on to talk about why. You say that some of the funds will be 
directed to parks with new responsibilities, priority 
operations and maintenance needs, and to improve the visitor 
experience.
    The other day I had a chance to look at the funding in the 
national parks of the southeast region and how the parks in 
Mississippi ranked among all those parks. I have a graph that 
shows the constant dollar increase allocated to each national 
park in the southeast region, and I was disturbed to find the 
Natchez Trace Parkway fifth from the bottom. The reason I was 
disturbed to see that is because this national park in our 
State has the most visitors annually, 12 million. Driving up 
and down this parkway, you run into potholes; you run into 
obvious deterioration of the road surface; and one can see the 
National Park Service's inability to keep up with the obvious 
needs for safety purposes.
    So, I hope that in the allocation of this new money, if we 
are able to approve it in the budget, that the operation and 
maintenance account for the Natchez Trace Parkway is increased. 
It has been increased only 7 percent since 1980. Since 1980 to 
2000, a 7 percent, in constant dollars, increase. That is not 
enough to maintain that parkway.
    So, I am pointing out that one of the glaring examples of 
the problem that you focus on in your statement is located in 
my State, and I hope that we are able to see a substantial 
increase in the O&M funds for the Natchez Trace Parkway.
    Do you have a reaction or can you give us any encouragement 
that you will look at that and try to be helpful to us?
    Secretary Babbitt. Senator, my initial reaction was that 
that was probably in the public roads piece of the highway 
matrix, but apparently that is not the case. Apparently it is 
in our direct budget before this committee, in which case I 
will have a look at it and see if we can be responsive. There 
is a small increase. It may or may not be enough. I will have a 
look at it.
    Senator Cochran. I do not know in this committee if we are 
going to get into the business of trying to set the operation 
and maintenance levels of funding for various parks. I really 
think that is trying to over-achieve what we are cut out to do 
here. It is really a responsibility of the Department, as I see 
it, to keep up and monitor and be sure that the parks are 
treated fairly and that no one is really conspicuously left out 
of the mix. And it seems like the Natchez Trace Parkway has 
been.
    We have gotten additional funds, as you point out, from the 
roadway construction accounts that are available to continue 
the progress toward final completion of the parkway, and that 
is really good. This committee has acted I think in a 
supportive way to help ensure that the parkway maintains its 
schedule of completion. We are finally at a point now that 
within 5 years we will see final completion of that parkway. 
The authorization for construction was adopted the year I was 
born, 1937. The Romans built the Appian Way quicker than we 
have built this Natchez Trace Parkway and with a lot less 
resources and technological know-how, and it is just 
inexcusable that it has dragged out for so long, but 
nonetheless it has.
    But here we are toward the point where we are going to 
celebrate in the near future the final completion of the 
construction, but the part that has been there since the 1940's 
is in desperate need of repair and upgrading. I hope that that 
will not be ignored any longer by the Department of the 
Interior.

                    VICKSBURG NATIONAL MILITARY PARK

    I also want to point out one other thing that may not have 
gotten to your desk, and that is the disparity in the 
equivalent staff years that we have at the Vicksburg National 
Military Park in Vicksburg, compared with Gettysburg, for 
example. Vicksburg exceeds Gettysburg National Military Park in 
visitors per full-time equivalent staff. We fall behind the 
curve in staffing and funding. This is operation and 
maintenance again. So, the $90.3 million increase in O&M 
funding and support for the Vicksburg National Park I hope will 
receive the attention of the Secretary's office.
    I do not know whether you got a chance to visit Vicksburg 
when you came down to the lower Mississippi Delta last year. We 
were glad you visited our State, but it really is quite a show 
place and it attracts, as I say, a considerable number of 
visitors each year.
    Secretary Babbitt. Senator, I not only have visited 
Vicksburg, I stayed overnight and went back out again the next 
morning. It is a marvelous place. It really is. It resonates 
with the history of the Civil War in many of the ways that 
Gettysburg does.
    I visited the Illinois Monument. There is a most 
interesting statistic about the impact that this had. The 
Illinois legislature in the late 1860s, 1 year, earmarked 20 
percent of the State's entire budget to build the Illinois 
memorial at Vicksburg. I mean, you walk up into that memorial 
thinking about that. A whole State allocated a fifth of its 
budget.
    Senator Cochran. Yes. Vicksburg has a lot of interesting 
aspects to it.
    The commissioners who were selected by--well, who were 
appointed by authority of the Congress to manage the park were 
three in number. Two were encouraged to be officers of the 
Union Army, one a former officer of the Confederate Army. The 
three commissioners met to select their chairman, and the two 
Union officers voted that the Mississippi general, Steven Lee, 
should be the commissioner who was in charge of the commission. 
And there began a process of healing among the general 
officers' ranks of both armies.
    A ceremony was held last year where descendants of all of 
the original commissioners came together to rededicate the 
statues of these first commissioners, which are located there 
in the park. It was really quite an interesting experience. I 
put in the congressional record copies of the remarks that were 
made on that day by Bill Nichols, the current superintendent of 
the park, and Terry Winschel who is the historian there, who 
travels all over the country to talk about the history of the 
country and the National Park Service assets and resources that 
he is so familiar with all over the country.
    Anyway, it is a wonderful place and I think that rather 
than have visitors line up because they have a hard time 
getting into the park, the staffing is not sufficient to keep 
pace with the increased visitation each year, that attention 
ought to be paid to taking care of what we have, as you point 
in your statement, and providing the funds for staffing and 
operation and maintenance that those assets represent.
    Secretary Babbitt. Senator, if I may, this is not directly 
responsive, but in this vein. We have, at the National Park 
Service, been reflecting upon our administration and 
interpretation of Civil War battlefields, and 3 weeks from now, 
we are going to have 2 days at the Ford Theater devoted to a 
national seminar on these issues. We are going to have John 
Keegan on the program. He is by any measure the foremost 
military historian in the world now. James McPherson who wrote 
Battle Cry of Freedom will be there as well as Eric Foner who 
is the leading authority on reconstruction. It is our hope that 
out of this we can begin to think even a little more 
intensively and creatively about how it is we tell the 
appropriate stories to Americans about these extraordinary 
places.
    Now, this is a pure pander.

                           SHILOH BATTLEFIELD

    I do want to tell you that we have not neglected 
Mississippi entirely because there is a line item--for how 
much, John--for a visitor center at the Corinth unit of the 
Shiloh Battlefield.
    Senator Cochran. That is great to hear. It is an important 
area. We hope to be able to tie that northeast region together 
with a trail system of some kind to permit visitors to have a 
coherent visit to that entire region where Corinth and Shiloh 
are located.
    Secretary Babbitt. Shiloh is the least disturbed of all 
Civil War battlefields in terms of the landscape and the way a 
visitor can actually see the entire region that approximates in 
many ways what was there in 1862.
    Senator Cochran. I have walked all over the Shiloh 
Battlefield and Corinth, Robinette's Battery, and other sites.

                        NOXUBEE WILDLIFE REFUGE

    Let me just point out one other thing, and I am taking up 
too much time. The wildlife refuge funds in Mississippi have 
somehow not included enough to maintain any offices at the 
Noxubee Wildlife Refuge. I visited there with my wife 2 years 
ago really and saw, for the first time, the deteriorated 
condition of offices that had been there for maybe 30 years. I 
do not know exactly when they were constructed, but they are in 
a very decrepit state of repair, totally inadequate for the 
refuge staff. It is one of the real pretty places in 
Mississippi to visit. You can see geese, even alligators, 
interesting places for students from Mississippi State 
University to come out on field trips.
    They have even built there with local government and 
private funds an education center, no Federal funds involved. 
So, the local citizens are investing capital funds there on 
Federal lands. It seems like at least the National Government 
can pay for some improved office facilities because these are 
important for the continued operation of that facility. I 
invite your attention to that problem as well in our State.
    Secretary Babbitt. I shall.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Gorton. The chairman is delighted at the spirited 
sponsorship that the Senator from Mississippi has at the site 
of a total Union victory, perhaps even more important to the 
outcome of that war than Gettysburg was.
    Senator Cochran. But it took a long time.
    Senator Byrd. If Stonewall Jackson had not been killed, the 
outcome might have been different.
    Secretary Babbitt. In a discussion somebody said, who is 
taking care of the cottage in which Stonewall Jackson expired 
after he was taken off the battlefield at Chancellorsville?
    Senator Cochran. It is down in Virginia.
    Secretary Babbitt. That is right, yes. But anyway, I 
promised to have a look. I think it is doing OK and I do not 
think it is in the park system.
    Senator Gorton. Senator Burns.
    Senator Burns. We may find out Stonewall is still alive 
before this is all over.
    Mr. Secretary, thank you for coming this morning. I have 
got a couple questions here with regard to Montana. If he can 
stay in Mississippi, I will take a look at Montana.
    Secretary Babbitt. Now, Senator, you are not going to ruin 
the harmony and good will that has prevailed at this hearing, 
are you?
    Senator Burns. I am not.
    I am not at all. Now, you will do that, but I will not.
    I was wondering about that money for varmint and vermin. If 
they do not want all that money, we will take it for bears and 
wolves in Montana. We might make that arrangement and visit 
with you about that.

                             UPPER MISSOURI

    The upper Missouri, Mr. Secretary, has been a topic of 
great interest out in Montana. We consistently hear from your 
office that you want to involve the delegation and, of course, 
the Governor before any decision is made on the designation of 
the upper Missouri. Many plans have been put forward, as you 
well know, in order to deal with the management of the upper 
Missouri. It is not an area that has been abused. It has been 
taken care of all these years, and there is quite a lot of 
concern that we are going to change the designation regardless 
of that. A new designation has not been recommended by the RAC 
either.
    We want to invite you out for a meeting. We want to make 
sure that we have proper notification and that it is open to 
the public, like the rest of us have to have these types of 
meetings. We would like to talk about the recommendation that 
the RAC has made and so forth.
    Can you assure me and this committee that you are not going 
to make any designation without the recommendation of the RAC?
    Secretary Babbitt. No.
    Senator Burns. I knew you were going to bust up the harmony 
of this thing right away.
    I know that you have said that you are going to implore the 
President to make a new designation on the area, and that is 
what gives us a whole lot of----
    Secretary Babbitt. I deny that.
    Senator Burns. I have got it written down here by hand.
    There is also a very strong feeling in Montana that a 
change in the management of the river would probably address 
what you want to do. Would you support that?
    Secretary Babbitt. Senator, could I respond at a little 
more length as to my perception of this?
    Senator Burns. Yes.
    Secretary Babbitt. Because all kidding aside, this is a 
serious issue.
    Senator Burns. It is serious.
    Secretary Babbitt. It is an important opportunity. Before 
you came, Senator Bennett was explaining the success we have 
had in Utah handling a very comparable issue where we are on 
the verge of a really magnificent legislative success.
    As you know, I have been talking intensively with the 
communities on the Missouri Breaks. Approximately a year ago, I 
asked the RAC to look at these issues. They submitted a report 
which is very well done. We had a teleconference meeting in 
which we discussed the report. I think we are in agreement on 
about 95 percent of what it is that needs to be done by way of 
helping the communities with development and visitation issues, 
kind of like the surrounding communities in the San Rafael in 
Utah. What are the issues that relate to river management, to 
grazing, to that gas field that covers part of it. We did not 
reach a conclusion as to whether or not there should be 
legislation or an Antiquities Act designation.
    What I said to the RAC was, the important thing in my 
judgment is not the label on the package. It is what actually 
happens in that river corridor. It was my feeling that we could 
bring this thing to a pretty good consensus about what the 
Federal role is and what the role of the BLM is.
    At that point, my visa to enter the State of Montana was 
abruptly canceled, and I was informed that I could not enter 
the State of Montana. So, I canceled the meeting.
    Senator Burns. Not by us.
    Secretary Babbitt. Well, there is some dispute about who 
canceled my visa, but it was clearly canceled.
    Since then, I have renewed my desire to come and keep 
talking about this. Now, I had thought when my visa was 
canceled, I will have another teleconference. You cannot 
prohibit me from having a teleconference. I will come in via 
modern communications.
    Senator Burns. We will take that up in another committee.
    Secretary Babbitt. But seriously, I would be happy to come 
back out, to sit down and continue this process. I think if we 
just focus on what it is that needs to be done, we might get 
something. I sure would be willing to try.
    Senator Burns. Well, the invitation is open but we just 
want a public meeting and a public notice of it. That's all.
    Secretary Babbitt. OK. Well, tell them to safeguard their 
firstborn and barricade the doors, that I may be coming.
    Senator Burns. Do we have to check our guns at the door?
    This issue is going to continue to be out there and I think 
we ought to come to some kind of fruition on it.

                      NATIONAL CONSERVATION AREAS

    We recently saw an internal memo from the BLM dated January 
11, 2000 that sets forth an interim management policy for newly 
created monuments. Would this document apply to the so-called 
national conservation areas? That is a new term that we have 
not----
    Secretary Babbitt. Well, Senator, the difference is, a 
national conservation area is legislated. Congress does 
whatever it wants. Here is my bottom line. I would 
enthusiastically support the creation of a national 
conservation area in which Congress would write all the rules, 
and I think that would be a terrific result. But I do not 
preclude, if we cannot get that done, other alternatives. I 
would prefer to do it that way.
    Senator Burns. What would be those other alternatives?
    Secretary Babbitt. Well, do nothing, or ask the President 
to use his authority under the Antiquities Act are two that I 
can think of.
    Senator Burns. Well, we are concerned about that. How does 
that affect our management of predators?
    Secretary Babbitt. I am willing to work that all out. I am 
willing to sit and discuss that. What I would really like to do 
is work all that out and then say, now, let us decide how we do 
it now that we have agreed on what ought to be done.
    Senator Burns. OK.

                     SNOWMOBILING IN YELLOWSTONE NP

    Yellowstone Park, snowmobiling, EPA. Have you read the 
comments of the EPA regarding the National Park Services winter 
use EIS? They say it is not very good and are making 
recommendations that are concerning to a couple of folks around 
Yellowstone Park.
    Secretary Babbitt. Senator, I am not sure which one you are 
referring to, and I probably have not read it anyway.
    Senator Burns. Does EPA take precedence over you and over 
the decisions you make in that park?
    Secretary Babbitt. Well, not if I can help it, but 
sometimes their law appears to give them the upper hand, yes.
    Senator Burns. We need your help on that, by the way, and 
we kind of want to get that fixed. We were told by the Park 
Service that some changes had to be made in order to maintain 
winter snowmobiling in Yellowstone Park. Those changes are 
being made with new engine technology and a lot of things for 
the future. We should certainly take that into consideration 
when we start making management decisions.
    I do not think an economic impact statement has been made 
for the people in and around that park who rely on winter 
activities up there.

                          MANY GLACIERS HOTEL

    You mentioned a while ago your thoughts about the hotel in 
Glacier National Park at Many Glaciers. We are working with Mr. 
Barry on legislation that would create a demo project in which 
it would cost no Government funds to restore that hotel. Could 
you support an idea like that? And are you aware of what we are 
talking with the National Park Service?
    Secretary Babbitt. Senator, I am aware of the concept. In a 
nutshell, what you would do is find a concessionaire and let 
them build additional new units in sufficient quantity that 
they could cross-subsidize the rehabilitation of the hotel. I 
am open to discussing that. It is by no means an idea that has 
got widespread approval among the park constituencies. I am 
willing to discuss it. It would require a very substantial 
expansion and building of new units. They would probably have 
to be on the upscale end to generate the cross-subsidy.
    Senator Burns. That is a part of what we are trying to do, 
but I do not think it is based on a large expansion of the 
facility.
    Secretary Babbitt. No, I understand.
    Senator Burns. I think it is the length of the lease that 
offers some possibilities.
    Secretary Babbitt. Senator, I would expand the lease in a 
moment, but it will not do it. I support a long-term lease. I 
would do that. It is not enough.
    Senator Burns. OK. We will talk about that in a little bit.

                        BISON IN YELLOWSTONE NP

    The bison coming out of Yellowstone Park. That will 
continue even if you buy the Royal Tetan Ranch for more money 
than you thought you would pay Malcolm Forbes. Malcolm was 
happy when he sold it to the Church Universal and Triumphant. 
We still think that some movement should be made in the 
management of that herd, and I guess some will be talking about 
that at our funerals.
    Secretary Babbitt. I think we both agree on that.
    Senator Burns. It is such a common sense thing. It is such 
a common sense thing. I know in the Babbitt empire in Arizona, 
you probably were pretty good neighbors and probably tested 
your livestock. Is that correct?
    Secretary Babbitt. Well, I disagree with the 
characterization because if there was once a Babbitt empire, it 
is now a lot of rag-tag ends. It is not worthy of the name 
empire.
    Senator Burns. You did not test your cattle? Never mind.

                     GUN RESTRICTIONS ON BLM LANDS

    A couple other questions with regard to gun restrictions on 
BLM. Are you familiar with this conversation?
    Secretary Babbitt. I do not know which conversation you are 
referring to because I am not aware----
    Senator Burns. Recently the BLM outlawed the right for 
American citizens to carry guns on specific lands in Montana 
deemed to be habitat for threatened and possibly endangered 
species. Could you explain what provisions of the Endangered 
Species Act allows you to prevent Americans from simply 
possessing firearms on public lands?
    Secretary Babbitt. Senator, I think I should respond in 
writing because there is no general BLM policy that should 
trigger your anger with respect to this. There may be some 
specific situations of which I am unaware. I would be happy to 
respond in writing.
    Senator Burns. OK, and I will accept that.
    [The information follows:]

                    GUN RESTRICTIONS ON PUBLIC LANDS

    The Bureau of Land Management in Montana has restricted the 
discharge of firearms for other than legitimate game hunting on public 
lands in Phillips County, in order to protect prairie dogs whose 
populations have been significantly reduced. Prairie dogs are the prey 
base for black footed ferrets, an endangered species that has been re-
introduced in the area over the past several years. The shooting 
restriction in no way precludes citizens from possessing and carrying 
firearms on public lands, nor does it preclude the discharge of 
firearms for game hunting by a licensed hunter.
    Pursuant to the Federal Land Policy and Management Act of 1976, 
Public Law 94-579, sections 302(b) and 303(a), BLM may close land for 
the protection of natural resources. The Bureau has coordinated this 
shooting restriction with law enforcement specialists, the Department 
of the Interior's Office of the Solicitor, the U.S. Attorney's office, 
and the Montana State Department of Fish, Wildlife and Parks.

    Secretary Babbitt. Senator, it took me 8 years to learn 
that I do not always have to take the bait in these hearings.
    Senator Burns. Well, but you always allow the Senator to 
throw the lure.
    Secretary Babbitt. Absolutely.
    Senator Burns. There is a couple of other things: We want 
to talk about the reintroduction of the grizzlies over in the 
Bitterroot and Selway.

                         MORALE PROBLEM IN BLM

    But more than anything else--and we talked about this on 
Mr. Fry's confirmation hearing the other day--we got a serious 
problem in morale in the BLM. I am concerned about that because 
we have got some outstanding land managers out there. I mean 
outstanding people who understand multiple purpose and multiple 
use, and we sure want to see those people stick around. I would 
like to just, one of these days, come down to your office or 
you come down to mine and let us talk about some of these 
situations because some of them are of a personal nature and 
should not be discussed in this realm. I am concerned because 
we have got just some outstanding land managers. I do not agree 
with all of them. But nonetheless, we have a real problem and I 
think those problems should be addressed.
    Secretary Babbitt. Senator, I appreciate that. Maybe we can 
have this discussion on the banks of the Missouri River in the 
next few weeks.
    Senator Burns. I would do that, but I am only bringing my 
pole.
    Secretary Babbitt. I understand.
    Senator Burns. So, I am going to throw the lure or 
something.
    Those are my concerns. As we move through this process, we 
are going to be very critical on where the money goes.
    I also want to take you by road, not fly you, between--let 
me see--Reed Point and over around Grey Cliff, MT, right by the 
road and take you by a prairie dog town over there. We want to 
show you some effects of densely populated prairie dogs, what 
they can do to range country. We will do that.
    Senator Gorton. Mr. Secretary, I had hoped that we would be 
able to complete this hearing without a recess. Actually these 
votes started early, and I do have several questions. I will 
ask one or two of them now and then we will crave your 
indulgence while I go late for one and try to come back quickly 
from another. Senator Byrd also told me that he might be back 
with a couple others. Will you have time?
    Secretary Babbitt. Sure.
    Senator Gorton. Thank you.

                        BASIC RESEARCH FUNCTIONS

    You have increases in your budget of $13 million to the 
Geological Survey to provide integrated scientific research and 
information necessary for the Land Resource Divisions and $18.5 
million for the Park Service for the National Resource 
Challenge. Given that we gather that the whole purpose of 
establishing the Biological Research Division in the Geological 
Service was to consolidate basic research functions, why are we 
trying to go up on two that seem to have, if not identical 
goals, very, very similar ones?
    Secretary Babbitt. Senator, there is some mission creep 
going on in all directions here. I think it is an appropriate 
subject for some close scrutiny. It is still my belief that we 
are on the right track with the Geological Survey doing natural 
science research, that it is working, that it is efficient. It 
is the right direction.
    The continual discussion is about the dividing line between 
the sort of strategic research agenda and the sort of tactical 
mission-specific issues that are appropriately done within the 
Fish and Wildlife Service or the Park Service. We have not 
succeeded in drawing a bright line, and the result is that you 
get this creep over the lines.
    I guess all I can say is I would be happy to work on that. 
I think it is very important that we evolve a solid policy so 
that I and all of us can be responsive to the legitimate 
research needs of the agencies, impress the GS with the 
importance of that, and then be able to say to the agencies we 
are not in the business of trying to recreate the past where 
there were five separate research programs, none of them 
reaching up toward the long-term issues.
    Senator Gorton. Well, you and I are in full agreement in 
that connection.
    Secretary Babbitt. I have actually been talking to the Park 
Service and the Fish and Wildlife people and asking, what are 
your specific concerns? Tell us exactly what is on your minds 
because maybe it would be appropriate to put some earmarks in 
the GS budget as a way of bridging some of this in a rational 
way.
    Senator Gorton. Good. Well, let us continue to work on 
that. This did jump out at our staff.
    Secretary Babbitt. This is also a Fish and Wildlife issue 
too that has been raised in the House. The House is seeing this 
on that side as well.

                        LANDS LEGACY LEGISLATION

    Senator Gorton. Has the administration submitted 
legislation to establish the Lands Legacy reserve fund?
    Secretary Babbitt. Senator, we do not believe that 
legislation, although desirable, is necessary.
    Senator Gorton. Well, so the administration will not submit 
such legislation?
    Secretary Babbitt. We will not. We would certainly be happy 
to work on any one of a flock of legislative proposals floating 
around.
    Senator Gorton. Have you endorsed any one of those?
    Secretary Babbitt. We have endorsed them in concept only. I 
think the leading candidate at this point is the so-called CARA 
legislation which has a lot of signatures in the House, but has 
not yet moved to the floor. We have said to all of the 
participants that we support the concept. It has gotten very 
large, as you know.
    Senator Gorton. It has gotten huge. It certainly does not 
have the support of this Senator or the chairman of the Budget 
Committee who is a member of this subcommittee as well.
    This Senator still puzzles as to why we need this approach 
that amounts essentially to an entitlement, fencing off 
acquisitions and some other forms of activities from the 
requirement each year that we come up with the money for the 
deferred maintenance to maintain what we already have. You 
listed three very important acquisitions in your initial 
testimony. I think we are not only capable of supplying those 
as a part of our discretionary appropriation this year or any 
year, but are very likely to agree with those priorities. Will 
you not be reasonably comfortable with a reasonable set of 
appropriations this year as in the past?
    Secretary Babbitt. Senator, the problem is that over the 
last 8 years, we have watched this sort of bump up and down get 
turned around. I have two thoughts that I think justify either 
this fencing, but not appropriated approach, or a permanent 
authorization in appropriation, subject to whatever year-to-
year appropriation oversight is necessary.
    The reason I think it is important is that from our 
perspective the promise of the Land and Water Conservation Fund 
was just that.
    Second, there is an important place for some stability of 
revenue sharing with the States to cover some of the gaps. I 
think the most important gap is the State game and fish 
commissions, which, as you know, are now in a permanent revenue 
sharing partnership on sport fishing and game that has worked 
very, very well across the years. There is this big gap for 
non-game species, and we are having a hard time working these 
endangered species programs back into State governments because 
we confront a historic structure of State game and fish 
management which excludes attention to endangered species both 
by Federal law and, in many cases, by State law. This is an 
opportunity to do something about that. It could really I think 
encourage a real devolution of much of these endangered species 
issues towards the States. Those are a couple of examples. This 
is a substantial hunk of money, but the revenue sharing piece 
of it I think is really important.
    Senator Gorton. Well, I think, Mr. Secretary, that is one 
issue on which we are going to have to continue to disagree. We 
will not disagree on some of the specific priorities, and I 
hope we are going to be able to deal relatively generously with 
them.
    With that, I am probably holding up this roll call now. I 
will call a short recess. If Senator Byrd comes back before I 
do, let him start up and ask his questions, and I will be back 
as promptly as possible.
    Senator Byrd had a couple more questions. I will once again 
defer to him and then go forward with my own.
    Senator Byrd. Thank you, Mr. Chairman, for your 
characteristic courtesy.

                        OSM'S REGULATORY GRANTS

    I want to stay on the subject of OSM's regulatory grants 
because I am concerned with the level of funding for the 
program. OSM has requested $52.6 million in State and tribal 
regulatory grants for fiscal year 2001, an increase of only 
$541,000 above the fiscal year 2000 levels.
    My first question is this, how does the $52.7 million 
request of OSM square with what the States told you they 
needed, Mr. Secretary? Is OSM fully funding or underfunding the 
regulatory program?
    Secretary Babbitt. Senator, that level has been relatively 
constant in recent years, and for some of those years, I think 
it was adequate. There was actually some money not being 
obligated. I do think that has changed. I think that the States 
are making a plausible case. Some of that is being driven, of 
course, by the increased level of contention and difficulty 
over these issues. The answer is, yes, it is a real issue.
    Senator Byrd. Did the States not identify needs totalling 
about $61 million?
    Secretary Babbitt. That is correct.
    Senator Byrd. West Virginia has seen its share of the 
program drop from $7.9 million in fiscal year 1999 to $7 
million in fiscal year 2001. That would be about an 11 or 12 
percent decrease. To make matters worse, these cuts are coming 
at the time that the State is being subjected to an onslaught 
of litigation.
    Would you explain how these cuts can be justified, 
particularly in light of the fact that OSM has gone on record 
as saying that West Virginia's regulatory program is 
understaffed and is in need of additional Federal funding to 
correct just that problem?
    Secretary Babbitt. Senator, my impression of this is that 
when the allocations are actually made, it is unlikely that 
West Virginia will actually be cut. I acknowledge that that is 
not responsive to your larger question of whether or not a flat 
level of grant making is sufficient. I understand your concern 
and I am ready and willing to take it up in this process. There 
is a legitimate request from West Virginia based on all these 
factors you discussed. I do not deny that.
    Senator Byrd. Mr. Secretary, could I count on your support 
in ensuring that West Virginia is in a position of maintaining 
administrative primacy in the operation of its mine permitting 
program?
    Secretary Babbitt. Yes.
    Senator Byrd. Just one more question now, Mr. Chairman.

                    OHIO RIVER ISLANDS NWR STAFFING

    The conference report language accompanying the fiscal year 
2000 Interior appropriations measure took note of--I am quoting 
now--``the continuing unmet maintenance needs'' of the Ohio 
River Islands National Wildlife Refuge. I understand that the 
conference report language has apparently had the desired 
effect and that the Fish and Wildlife Service is expediting the 
process of making sure that the refuge has adequate maintenance 
personnel.
    Could you confirm this understanding is correct, that the 
refuge is in fact in the process of hiring a full-time 
maintenance worker?
    Secretary Babbitt. Senator, having personally inspected 
this refuge and the river, they need this position. It will be 
filled shortly.
    Senator Byrd. Very well. Well, thank you, Mr. Secretary, 
and thanks again for your many courtesies over the years. I 
hope we will both be in West Virginia together on a number of 
occasions yet.
    Secretary Babbitt. Thank you, Senator.
    Senator Byrd. Thank you, Mr. Chairman.
    Senator Gorton. Thank you, Senator Byrd.

                  RECREATION FEE DEMONSTRATION PROGRAM

    The recreation fee demonstration program you referred to 
earlier. It has obviously been a favorite of mine. It has been 
an imaginative and I think responsive way to help with some of 
the challenges that you have faced.
    Could you give me your general description of its success 
so far and what you have learned from the experiment and 
whether or not you would anticipate or suggest to us any 
changes?
    Secretary Babbitt. Senator, I have learned a number of 
things, starting with the fact of public support. We have 
talked about this before. It is absolutely astonishing. A 
public which rejects added fees routinely, unanimously supports 
this. I was out in Yosemite last week dealing with a number of 
issues there before a large Yosemite audience, and I pointed 
out to them that not only did we raise the fees at Yosemite, we 
quadrupled them. And there was not a ripple of objection.
    Now, that points up both the success and the future 
direction. The reason for that is people believe that it is 
coming back in tangible improvements in the park, not somewhere 
else, not in the abstract, but in the park where they are.
    Therefore, I believe it is very important for me and for 
this committee to keep watching over the shoulder of these 
folks to avoid the kind of dissipation of this money as a sort 
of supplementary source of income. I realize that those lines 
are drawn around the program, but there is always some leakage. 
I think, again, it is very important that we emphasize that 
this really is about improvements and maintenance of park 
facilities.
    There has been some backwash, if I may step over the line, 
in the Forest Service piece of this program. I would call that 
to your attention because I think the reason is that there is a 
problem when the public perceives these as a permit to go on 
public land. You are going to get a big backlash from that 
whether it is on a wildlife refuge or a park or the Forest 
Service or BLM land. I do not even need to go to the Forest 
Service. If it is perceived by Westerners that they have got to 
get a permit to get on this place, there are going to be 
problems. So, I think that needs some continual oversight and 
watching.
    We need to work on collection overhead. It is going down. 
It was understandably pretty high. It was over 30 percent, 
maybe even 35 at one point. We have got it down in the 
neighborhood of 20 now. I just think we need to make certain 
that there is not some creep going on there in terms of 
collection overhead being creatively expanded.
    With those issues, obviously, I think it has been an 
exceptional success.
    Senator Gorton. Well, you know it runs out. We will do 
everything we can to see to it that it does not run out. But is 
the administration going to submit any legislation on making it 
permanent?
    Secretary Babbitt. The budget assumes we will.
    Senator Gorton. Yes.
    Secretary Babbitt. When I am asked will the administration 
submit legislation, the reason I hesitate is that we really do 
not need to submit anything. I could come up here to an 
authorizer and write the legislation on the back of an 
envelope. Frankly, in many cases we come up with legislation 
and it becomes an automatic flash point of contention. I guess 
my hope would be that we could say, let us authorize this. I 
will be available any time if you need any assistance of any 
kind with language.
    Senator Gorton. Or you can just always come back to us and 
have us do it a year at a time I suppose.

                      EVERGLADES LAND ACQUISITION

    I have a whole series of questions on the Everglades. I am 
going to submit most of them to you in writing. But I would 
like you to tell me--this obviously is a tremendously important 
project. It is also a tremendously expensive project. Senator 
Byrd and I have just signed off on an acquisition for greater 
than the appraised value. You persuaded us that it was 
necessary. But can you give me any indication as to how much 
more property we are going to need to acquire and any remote 
estimate as to the cost to the Federal Government of those 
acquisitions before we have reached the point of some stability 
in the Everglades?
    Secretary Babbitt. We have some figures in our submission. 
Let me say this and then point out the judgment call. We have 
completed the land acquisition within the authorized boundary 
of Everglades National Park. That is an extraordinary 
accomplishment because the Congress expanded the Everglades 
basically across one of these old horizon-style subdivision 
promotions. The whole damn thing had been sold off. Well, we 
now have the money to get it back.
    There is a big unresolved issue in the so-called 8\1/2\ 
square mile area. It is not within the Everglades. It is on the 
wrong side of the barrier dike that separates the system from 
the Miami area. That has not been resolved. My opinion is we 
ought to bite the bullet and authorize the takeout. I am not 
sure that Florida is with us on that and it is becoming a bit 
of a controversy.
    Beyond that, the land acquisition becomes a little more 
judgmental. What we have basically done conceptually with 
Florida is said, beyond these core Federal properties--the 
Talisman property, which this committee appropriated the money 
for, was a big bite. It was over $100 million. From now on, I 
think Florida becomes the lead in terms of defining their open 
space future, and I would advocate the continuance of the 
match, as long as it is within the parameters of the so-called 
restudy, that is, reconfiguring the water supply system of 
Florida.
    That is a 20-year project and it is a multi-billion dollar 
project. The figures are not absolutely firm, but it is going 
to be $5 billion to $7 billion on each side over 20 years.
    Senator Gorton. Thank you. That is a straightforward 
answer. I have a number of other detailed questions that we 
will submit to you in writing.

                            LEWIS AND CLARK

    Lewis and Clark. I can never go to the southeast or 
southwest part of my State without having a Lewis and Clark 
request. I am inundated with them from my colleagues all the 
way from Illinois to the Pacific.
    How have you set up your priority for Lewis and Clark 
funding requests that are on public lands? And do you have any 
thoughts as to how we should prioritize non-Federal projects or 
projects on non-Federal lands in that connection, or whether we 
should do it at all?
    Secretary Babbitt. Well, those are the right questions. I 
guess my simple answer would be that the Lewis and Clark 
commemoration should be State driven for all of the reasons 
that you imply, and for the most part, I think we should view 
the Federal issue as to what extent should we help in those 
State efforts with some matching approach. Now, that's a 
judgment call.
    I am inclined toward a modest yes because I think that it 
is particularly helpful in these rural communities. Almost all 
of the whole pathway remains in one way or another in rural 
communities where there is still a fair amount of economic 
distress. To the extent that these things can be focused upon 
developing a little more capacity and self-identification of 
the communities, it starts to sound very much like the heritage 
trails and the heritage areas programs in the National Park 
Service, the same kind of rationale.
    There are some specific Federal issues that I think are 
very important now. Senator Burns and I talked about the 
Missouri Breaks. If there is one Federal centerpiece, this is 
it. The Missouri Breaks are really the heart and soul of the 
Lewis and Clark experience, as you can see it on the landscape 
today. Steven Ambrose is absolutely rapturous as he recreates 
those days on the Missouri Breaks. It is a fabulous place, and 
we are still arm wrestling about that. That is really the core 
of the Federal commitment as far as I am concerned because it 
is all BLM land--mostly BLM land.
    Senator Gorton. Now I would like to go to some questions 
that are somewhat more parochial. Can you explain to me the 
role that the Fish and Wildlife Service plays in the Federal 
Caucus with respect to our All-H Paper and the management of 
the Columbia River?

                              ALL-H PAPERS

    Secretary Babbitt. The All-H Caucus is presided over by the 
Council on Environmental Quality. The preparation of the H 
papers and all of the other material is presided over by 
National Marine Fisheries. The Fish and Wildlife Service is a 
participant and, as you are well aware, has spoken out from 
time to time not necessarily out of school but maybe halfway 
between the classroom and the playground.
    Senator Gorton. Would that comment cover Ann Badgley's 
statement at a press conference that removal of the dams is a 
no-brainer?
    Secretary Babbitt. That does not reflect my position. This 
would not be the first time that one of my agencies has said 
something that does not reflect my position.
    Now, that said, she is a fair-minded, highly competent 
regional manager, and I believe--my impression is that her 
remarks were in the context of there were a lot of other 
participants who were kind of getting off the train in the 
other direction. So, I believe that is the context because the 
Corps of Engineers was kind of out of school in the other 
direction.
    Now, you know where my position is on this, or maybe you do 
not.
    Senator Gorton. Why don't you explain it?
    Secretary Babbitt. My position--he says, leading me over 
the cliff. My position is that the jury is out on these dams 
and that what we need to do is try to see if we can move toward 
a process, as difficult and frustrating as it is, to see if we 
can sharpen the science and the analysis and the economics. 
This decision is not going to be made on my watch and, in my 
judgment, should not be made on my watch.
    Notwithstanding my remarks so unfairly seized upon by the 
good chairman back in 1993 with respect to the adjective 
``high'' as it was placed before dams, you no doubt recall 
that.
    Senator Gorton. Well, Mr. Secretary, this is a decision 
that I trust will be made on my watch, if not on yours, over 
which I will have some effect.

                             CASPIAN TERNS

    Obviously the dams are not alone in their impact on the 
salmon. Will you explain the Fish and Wildlife Service policy 
with respect to Caspian terns and what plan the agency has for 
providing a long-term strategy to control the terns? The Corps 
of Engineers has sort of laid that off on you where it, I 
think, feels to a certain degree at loggerheads with the Fish 
and Wildlife Service, the Corps putting a higher value on their 
removal at least than Fish and Wildlife does.
    Secretary Babbitt. I guess the basis is the Migratory Bird 
Treaty Act. The Caspian terns are not an endangered species. It 
is not clear to me why it is that this has to be a Fish and 
Wildlife decision, and I guess what I ought to do is go back 
and work this through a little more. My sense is that the State 
of Washington ought to be dealing with this rather than the 
Fish and Wildlife Service.
    Senator Gorton. Do you want to respond more in detail on 
that?
    Secretary Babbitt. I would prefer that because there may be 
some wrinkle in the Migratory Bird Treaty Act.
    [The information follows:]

 UPDATE ON THE CASPIAN TERN POPULATION AT RICE ISLAND AND COOPERATIVE 
                         EFFORTS WITH THE NMFS

    The National Marine Fisheries Service (NMFS) is the lead agency in 
addressing Caspian tern predation because it has the lead in salmon 
recovery. In determining how to recover listed salmon, NMFS must 
address all factors that may have caused the decline in salmon 
populations including harvest, habitat loss, hydro power production, 
and predation. By developing a comprehensive recovery strategy that 
addresses all the threats, they will be better able to recover these 
species. The U.S. Fish and Wildlife Service's (USFWS) responsibility in 
this effort is to provide technical assistance on the Migratory Bird 
Treaty Act, conservation of Caspian terns, and seabird predation.
    As an active member of a joint-agency working group, the USFWS also 
provides funding assistance and field assistance for the project. 
However, it is not our role to mitigate for salmon losses from 
predation. Multi-disciplinary science reviews have found no compelling 
scientific evidence that predation has been a primary cause for the 
recent salmon declines. Predation is a natural part of the salmon life 
cycle and no evidence exists that tern predation is limiting salmon 
recovery. However, the USFWS continues to support NMFS's efforts to 
recover salmon through relocating the nesting terns to an island in the 
lower Columbia River. Preliminary relocation efforts have been 
successful in reducing predation of salmon smolts by 40 percent. This 
is a substantial reduction in smolt losses and should provide some 
short-term recovery benefit until other more substantial efforts begin 
to restore population numbers.
    Estimates of tern predation may vary by year and have been refined 
as data collection has improved. The current estimates of tern 
predation on out-migrating smolts range from 4 to 8 percent of the 
salmon smolts produced in the basin, and approximately 90 percent of 
these smolts are hatchery-reared fish. Predation losses will be reduced 
by an estimated 40 percent when the birds are relocated to the island 
near the mouth of the Columbia River.

    Senator Gorton. One other matter which I would just like to 
counsel you on. Your budget requests $15 million in connection 
with the lower Elwha Dam and the Park Service. I think--and I 
think I can tell you that that $15 million will be 
appropriated----
    Secretary Babbitt. Thank you.
    Senator Gorton [continuing]. As another payment toward a 
goal, the ultimate goal on which we disagree, but the 
preliminary goal on which we agree.

                       PORT ANGELES WATER SUPPLY

    But the first thing that has to be done, of course, is the 
water supply for the City of Port Angeles. I want to urge the 
Park Service, through you, to attempt to reach an agreement 
with the City of Port Angeles as promptly as possible. It is 
certainly possible that the city is asking for a more gold-
plated version of this new water system than may be warranted. 
I have also felt that the Park Service was being too tight, too 
narrow, and too restrictive on what it felt was necessary. But 
if we are to reach the goal, even the interim goal that we 
share and that the community shares, we have got to solve that 
problem as promptly as possible.
    You can count, I think, on the $15 million in the fiscal 
year 2001 appropriations, but I would sure like to get that 
division of responsibility behind us as quickly as possible.
    Secretary Babbitt. I understand and I will proceed 
accordingly.

                        EXPIRING GRAZING PERMITS

    Senator Gorton. I have a lot of other questions that I am 
going to submit in writing, but I do have one other because it 
has been of such great interest to a number of my colleagues.
    Because of court decisions, BLM has got to do additional 
environmental reviews on expiring grazing permits. This has 
caused a large backlog, obviously. You have got $2.5 million in 
an increase for processing them. How are you doing on that? Are 
we going to be able to get through this year's appropriations 
battle without having any serious disagreement with you and the 
administration over grazing permits?
    Secretary Babbitt. Senator, I believe so. I really think at 
the core of this is the problem of perceptions. The fear was 
that somehow these permits would expire and people would be 
driven off the land by Federal proclamation. It is not the 
case. Where permits expire, they are automatically renewed. 
There may be some language in last year's bill to that effect. 
The bottom line is there will be no one off the land because of 
a permit which expires because the environmental work and the 
decision have not been made.
    That said and looking at John's note, I believe we are 
going to get done with this. There are 3,456 that were carried 
forward, plus 2,000. The answer is no new legislative authority 
is necessary. I guarantee you that nothing will happen.
    I was going to try to say that we would have this all 
wrapped up by the end of this year. I am not certain I can say 
that in terms of doing the environmental work to get the 
permits out.
    Senator Gorton. But you at least are cutting back on the 
backlog.
    Secretary Babbitt. We are whittling it down. I think we 
have got a good program. Mark Stiles out in Montrose Grand 
Junction has been shepherding this, and I am absolutely 
satisfied that we are doing it right and that we are on a track 
toward completion and that our appropriation request will help 
us get there. So, I think it is under control.
    Senator Gorton. Good. I trust you will share these views, 
as I will, with Senator Domenici and the others who are 
interested in it. I would be delighted if we were able to 
satisfy everyone on this without it going through another 
legislative rider debate.
    Secretary Babbitt. They have my word that there will be no 
changes on the land or permits or cattle removed or otherwise 
affected because of our failure to renew the permit.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Gorton. Well, with that, thank you very much, Mr. 
Secretary. I appreciate your candor as always. We do have other 
questions for you to answer and we appreciate your appearance 
here.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Slade Gorton

                        LAND MANAGEMENT RESEARCH

    The request for the U.S. Geological Survey includes a $13 million 
increase to ``provide integrated scientific research and information 
necessary for DOI land resources decisions.'' The increase would be 
used to ``develop projects to meet the high-priority management 
requests from each [Interior] bureau.'' I suspect this is an effort to 
respond to the dissatisfaction that has been expressed by some in the 
land management agencies ever since their scientific capabilities were 
consolidated into the Biological Research Division.
    In the same budget request, the National Park Service is seeking an 
increase of $18.5 million increase for ``The Natural Resource 
Challenge''--an initiative to ``revitalize and expand the natural 
resource program in the national parks.''
    Question. Given the whole purpose of establishing the Biological 
Research Division of the USGS was to consolidate the basic research 
functions of the land management agencies, how do you justify a 
continued and rapid expansion of National Park Service scientific 
capabilities?
    Answer. The Service is seeking to expand its capability to make and 
implement park management decisions in a scientifically sound manner 
(consistent with the requirements of the National Parks Omnibus 
Management Act of 1998). On-the-ground identification of solutions 
requires technically trained resource managers.
    The National Park Service is seeking funds in fiscal year 2001 to 
complete basic inventories and monitor conditions of what it manages. 
Much of the NPS funding will be used to put available scientific 
information to direct use in management activities--such as patrols to 
prevent poaching and to protect nesting endangered species, mechanical 
removal of exotic plants, and restoration of native vegetation.
    Some of the funding requested for the National Park Service is also 
intended to make parks more attractive to outside researchers, 
including those from USGS. In fact, USGS will be a partner with the NPS 
in its Learning Centers, as well as in the interagency Cooperative 
Ecosystem Studies Unit Network.
    Question. What is the division of labor between USGS and the land 
management agencies when it comes to science?
    Answer. USGS is the primary provider of biological and earth 
science research and information for the DOI land management bureaus. 
USGS data collection, analytical capabilities, and scientific research 
and information contribute to the conservation and sustainable 
development of the natural resources managed by DOI bureaus. DOI 
bureaus request and use studies from the USGS disciplines of water, 
biology, geology, and mapping to guide planning, management, and 
regulatory activities on public lands in a scientifically sound manner.
    Generally, the Department's resource management bureaus apply the 
results of science in their management actions and decisions, but it is 
USGS that actually conducts the science. The resource management 
bureaus may also perform certain inventory and monitoring functions, 
but it is USGS that develops the research-derived protocols and 
standards that ensure the reliability and integrity of the Department's 
inventory and monitoring programs. The distinction between conducting 
science and applying science can be subtle and difficult to discern. 
There are some activities that one could argue would be appropriate for 
either a resource management bureau or USGS to perform. Some of the 
elements of NPS's ``Challenge'' proposal may fit this description.
    The Department's primary objective in the creation of NBS/BRD was 
not just that science funding be consolidated in the new organization 
to the maximum extent possible, but more importantly, that the 
scientific expertise and capability and actual performance of science 
be not be duplicated in the other Interior bureaus. It has always been 
recognized that invariably resource management bureaus might have the 
need for science during the course of the year that was unanticipated 
during the formulation of the USGS budget or exceeds USGS's financial 
capabilities. In these cases, it is perfectly acceptable for the 
resource bureaus to use their funding for science. But our expectation 
in these cases is the same as our expectation in case of NPS's 
``Challenge'' proposal; that NPS will consult with USGS as it 
implements the ``Challenge'' initiative to ensure it takes advantage of 
USGS's inherent strengths and expertise.
    Question. How is such research coordinated?
    Answer. In fiscal year 1999, the Department instituted a new 
process to improve the identification and coordination of science needs 
(and science projects to address those needs) in the Department, and 
improve USGS's ability to address these needs. The ``Agreement on USGS 
Research Support for DOI Resource Management Bureau Needs'' involves 
extensive consultation between USGS and the other DOI bureaus to 
identify highest priority science needs, assess the status of current 
USGS science support, identify gaps and cross-bureau commonalities. The 
process resulted in the collaborative formulation of the ``DOI Science 
Priorities'' budget request of $13.0 million in 2001.
    Research planning is coordinated through a variety of other 
mechanisms as well, including:
  --formal meetings, such as regional BIN meetings,
  --interagency initiatives, such as the South Florida Ecosystem 
        Restoration Task Force,
  --joint planning with NPS under the National Resources Preservation 
        Program to address short-term biological needs and the Clean 
        Water Action Plan to conduct water quality studies in Parks,
  --MOUs and Interagency Agreements,
  --informal communications, shared facilities, etc.
    Question. Are you personally involved in ensuring the duplication 
of effort does not occur?
    Answer. The Secretary is personally committed to the consolidation 
of biological and earth science resources in the USGS and the avoidance 
of any duplication of effort. The Secretary is emphatic that Interior 
policy and resource management decisions be grounded in sound and 
objective science. This can best be assured by conducting science in an 
independent, non-regulatory bureau such as the U.S. Geological Survey. 
The Secretary recognizes that consolidating science responsibilities in 
a single bureau is the most cost-effective approach to realizing sound 
science needs.

                     BIOLOGICAL RESOURCES DIVISION

    During last year's hearing, I asked you about the work of the 
Biological Resources Division (BRD) and your role in coordinating its 
activities with those of the land management agencies. In your 
response, you referred to the need to make a distinction between basic 
wide-ranging science that would appropriately be accomplished by the 
BRD and site-specific applied science that would more likely be the 
responsibility of the individual agencies.
    Question. How was it determined that the proposed increase of $1.6 
million for Cooperative Ecosystem Studies Units should be included 
within the National Park Service budget?
    Answer. Contributions of the U.S. Geological Survey complement the 
contributions of the National Park Service so the partnership effort 
more strongly meets the mission of each bureau. Cooperative Ecosystems 
Studies Units (CESUs) have a broad mission to provide multidisciplinary 
research, technical assistance, and education to multiple Federal 
agencies concerned with natural and cultural resource management. CESUs 
include multiple Federal cooperators; currently six Federal agencies 
within three Departments are participants. As a partner in the CESUs, 
the NPS seeks to bring the research and technical assistance 
capabilities of the university, USGS, and other partners to bear on 
fulfilling National Park Service resource management needs for research 
and assistance in a broad array of disciplines. These include cultural 
resource disciplines and interpretation and education. The NPS 
leverages these resources to address park needs by identifying 
opportunities that exist in parks for the partners to conduct their own 
research, technical assistance, and logistical support, coordinating 
activities and sharing information among partners to maximize 
opportunities and avoid duplication.
    Question. Why wouldn't a project of this scope be directed through 
the Biological Resources Division of the Geological Survey?
    Answer. The network is authorized under section 203 of the National 
Parks Omnibus Management Act of 1998. Continued involvement by the 
Biological Resources Division (and other USGS divisions) is expected. 
Like the other bureaus and agencies in the CESU Network, the National 
Park Service is the organization that is best able to represent its own 
park needs for biological, physical, and social science research, 
technical assistance, and education to its partners in the Cooperative 
Ecosystem Studies Units, including the BRD and other USGS divisions, 
and to university participants. It will be the task of the National 
Park Service personnel involved to be the advocates and spokespersons 
for park research, technical assistance, and education needs and to 
serve as brokers to meet those needs and the harnessing of university 
resources (including students). It is not always necessary to build 
Federal programs and infrastructure if universities are interested and 
see advantages in working on the ``real world'' problems in preserving 
national parks.

                            LEWIS AND CLARK

    This subcommittee has been inundated with requests for projects 
relating to the upcoming anniversary of the Lewis and Clark expedition. 
Some of these requests are for Federal projects on Park, forest or BLM 
lands, others are for non-Federal projects that commemorate or 
interpret other portions of the trail. There are more of these 
proposals than this subcommittee can possibly afford.
    Question. Can you give us your thoughts as to how you have 
prioritized Lewis and Clark funding requests in your budget development 
process?
    Answer. The fiscal year 2001 President's budget request includes an 
increase of $6.3 million in operational accounts and $9.6 million for 
land acquisition representing the highest priority Lewis and Clark 
funding needs. The 2001 budget presents the first year of a six-year 
effort to prepare parks, refuges and public lands for expected 
increases in visitation, to help the nation commemorate this historic 
event, and to work in partnership with the Tribes to support their 
participation. The President's request was the result of a coordinated 
process facilitated by a multi-agency team that reviewed the results of 
agency long-term plans for the Lewis and Clark commemoration. The 
agencies began the process of identifying on the ground resource needs 
and bringing together local and state partners in this planning process 
over a year ago in order to identify priority funding needs for the 
six-year initiative.
    Question. What are your thoughts as to how this Subcommittee should 
prioritize the non-Federal project proposals?
    Answer. We do not know how such a diverse array of projects 
identified by a variety of entities can be prioritized. Our 
recommendation is to fund the President's budget request and thereby 
allow the land management agencies to work in partnership with local 
communities, states and Tribes to accomplish projects as appropriate 
and in a coordinated manner. The land management agencies have 
programs, including challenge grants, that can fund projects with 
states, local communities and others that will provide for the 
protection of natural and cultural resources, enhanced visitor 
experiences, and expanded outreach and education.
    Question. Should such projects be funded at all?
    Answer. Many of the projects have merit, however, since the 
projects were identified by a diverse number of states, localities, and 
other entities, they are not coordinated and no priority has been 
established. We recommend that funding be provided to Interior 
agencies, consistent with the President's budget request. Further, we 
recommend that land management agencies be permitted to work in 
partnership with state, local and other entities to undertake selected 
projects that will provide for the protection of natural and cultural 
resources, enhanced visitor experiences, and expanded outreach and 
education.

                               EVERGLADES

    You recently approved a request from DOI for the acquisition of a 
large property in South Florida for greater than the appraised value. 
Governor Bush had originally opposed the purchase as too expensive, but 
a renegotiated deal now has Bush's support. The House has indicated it 
will approve the request, but not until after its Everglades hearing 
today.
    The subcommittee recently received a request to approve the 
acquisition of the Berry Groves property in South Florida for greater 
than the appraised fair market. The State of Florida would purchase the 
property, with Federal appropriations paying half of the cost. The 
property itself would be used to provide water storage in the 
Caloosahatchee River Basin as called for in the Corps of Engineers 
``Restudy.''
    Question. Why does the Department regard this property as such a 
high priority it would be willing to pay in excess of the fair market 
value for the land?
    Answer. The State of Florida and the owners of Berry Groves have 
negotiated and announced an agreement in principle to acquire 
approximately 9,000 acres of the property for $65.6 million, which is 
$8.6 million, or 15 percent, above the appraised fair market value of 
$57.0 million. The State of Florida and the South Florida Water 
Management District have again requested the Department fund half the 
cost of acquisition, for a total Federal share of $32.8 million. 
Acquiring these lands now creates opportunities to increase water 
storage capacity in the Caloosahatchee Basin. The proposed project 
feature in the Comprehensive Plan for the Caloosahatchee Basin 
anticipates expanding water storage capacity by approximately 160,000-
acre feet. The Army Corps of Engineers advised us that the purchase of 
this site is exceptionally suited to fulfilling the Comprehensive 
Plan's needs in the region. Specifically, the unusual heavy claylayer 
underlying the property provides greater than normal water storage 
capacity and means we may be able to save land acquisition money in the 
future by acquiring fewer acres than anticipated. Further, the 
Department believes that the property appraisal did not account for the 
full value of infrastructure existing on the property--canals and 
levees--that will be used by the Army Corps to link the storage 
facility on this property to the river. For these reasons, the 
Department believes that this acquisition is in the public interest.
    Question. To what extent do you feel approval of this acquisition 
will establish an expectation for future land purchases in South 
Florida?
    Answer. The Department does not believe that this acquisition will 
establish an expectation among landowners for future land purchases in 
South Florida. It is likely that if the lands are not acquired now from 
a willing seller, ultimate lands costs would be higher in the future.
    Question. How much more land is likely to be purchased by the 
Federal government, or with Federal dollars, in order to restore the 
South Florida ecosystem?
    Answer. The Department's total cost report identified a total of 
$160 million: $150 million in future Federal land acquisition costs to 
acquire the remaining lands within the national wildlife refuges 
located in South Florida; and, $10 million for acquisitions at Big 
Cypress National Preserve. Additionally, the Comprehensive Everglades 
Restoration Plan identifies a $2.2 billion requirement for lands needed 
to modify existing project features of the Central and Southern Florida 
Project in order to restore, preserve and protect the South Florida 
ecosystem. Although this $2.2 billion requirement is the responsibility 
of the local sponsor, the Administration may propose the expenditure of 
Federal funds in the future to assist in this effort.
    Question. With what frequency are we likely to be asked to approve 
over appraisals?
    Answer. Under the reprogramming guidelines between the Committees 
and the Department regarding the acquisition of lands at levels 
exceeding the appraised fair market value, the Department will submit a 
reprogramming request as such conditions arise in the future. The 
reprogramming guidelines apply to land acquisition grants provided by 
the Department to the State of Florida and procedures are in place to 
notify the Committees at any time such an acquisition is proposed for 
each tract of land that is covered by the overall grant.
    Question. Assuming the replumbing projects proposed in the Restudy 
are authorized, what is earliest date at which the Berry Groves 
property would be used for actual water storage?
    Answer. Based upon the proposed construction schedule presented in 
the Comprehensive Everglades Restoration Plan provided to the Congress 
last July, the earliest date that the Berry Groves property would be 
used for actual storage would be in the year 2015, after construction 
is complete.
    Question. Will the property be leased in the interim?
    Answer. Yes. The property will be leased through 2008. The leasing 
of the property in the interim period and maintaining it in its 
existing use provides for important benefits, including limiting the 
spread of invasive exotics that would occur if the land was returned to 
its natural state; decreasing land management costs; and providing 
lease income for the South Florida Water Management District.
    Question. What are terms of the lease?
    Answer. The Department understands that the terms of the lease 
allow the present owners of the property to remain on and farm the land 
until 2008. Beginning in 2005, annual lease payments of $500,000 are 
due to the South Florida Water Management District (District). These 
payments will allow the District to defray its costs in this 
acquisition.
    Question. How do these terms differ from the lease terms associated 
with the original purchase proposal that was rejected?
    Answer. The lease period was extended by four years and the overall 
lease payments were reduced by a total of $2 million.
    Question. What is the monetary value of difference in these terms 
to the State and Federal government?
    Answer. For the Federal government, the revised lease terms have no 
effect on the overall Federal share of $32.8 million for this 
acquisition. However, because the transaction was renegotiated at a 
lower price ($65.6 million in lieu of $70 million originally), the 
overall 50 percent Federal share of the total cost was reduced by $2.2 
million.
    Question. The budget request for the National Park Service includes 
another $12 million for the Modified Water Delivery System as part of 
the Everglades restoration initiative. How much has this Committee 
appropriated to date for the Modified Water Deliveries project?
    Answer. The Committee has appropriated $63 million through fiscal 
year 2000 for the Modified Water Deliveries Project. Based upon current 
plans, the Department estimates that between $72 million and $150 
million will be needed to complete the project. There are a range of 
costs for the Modified Water Deliveries Project that represent the 
uncertainties associated with the ongoing NEPA process for project 
components, including the 8.5 Square Mile Area and the changes to 
integrate this project within the larger Comprehensive Everglades 
Restoration Plan (CERP). We are working on a capital asset plan that 
will specify more precisely the cost, schedule and performance goals 
for this Project. These estimates do not represent a final agency 
decision to select any alternative that is presently being studied.
    Question. How much of this amount has been obligated to date?
    Answer. Approximately $42.3 million has been obligated through 
March 31, 2000.
    Question. Will the funds requested for fiscal year 2001 actually be 
needed for obligation in fiscal year 2001?
    Answer. The funds may not be obligated in fiscal year 2001, 
however, the $12 million request for fiscal year 2001 will be needed 
regardless of what option is chosen through the NEPA process and will 
reduce future year costs.
    Question. A review of the South Florida restoration project 
requested by this Subcommittee recommended that the South Florida Task 
Force draft a strategic plan that would encompass all elements of the 
restoration effort. The Committee endorsed the GAO recommendation in 
the Statement of Managers accompanying the fiscal year 2000 
appropriations bill. Will the Task Force deliver this plan on time?
    Answer. Yes. The Task Force is planning to deliver an outcome 
oriented strategic plan to the Committee by July 31.
    Question. Are you confident that the plan will include the elements 
identified by the GAO as critical to any strategic plan?
    Answer. The Florida-based Working Group has been working to develop 
a strategic plan that contains the critical elements identified by GAA 
for the past several months. A draft of the strategic plan was 
presented members of the Task Force on May 12, 2000.
    Question. The language of the fiscal year 2000 appropriations bill 
made release of certain Everglades land acquisition funds contingent 
upon the submission to the Congress of legislation that would ensure an 
adequate supply of clean water, at the appropriate times, to protect 
the natural areas of South Florida such as Everglades National Park. 
When will the Administration propose such language?
    Answer. The Administration transmitted the Water Resources 
Development Act of 2000 to the Congress on April 10, 2000. Section 3 of 
the bill is the Comprehensive Everglades Restoration Plan and is the 
language referenced in the fiscal year 2000 Appropriations Act.
    Question. What challenges have you faced in drafting this language?
    Answer. The Administration faced two challenges in drafting the 
Comprehensive Everglades Restoration Plan (CERP) section of the bill. 
One challenge in developing the assurances language was to set up a 
process to identify the amount of water that is to be dedicated and 
managed for the natural system. The second challenge was determining 
the cost share arrangement with the State of Florida for the future 
operations and maintenance of the project modifications that are 
proposed as part of the CERP.
    Question. Are you confident the Administration proposal will 
ultimately provide adequate protections for the natural areas that you 
manage directly, and for which this Subcommittee is directly 
responsible?
    Answer. Yes, under the Administration's proposed legislation 
authorizing the Comprehensive Everglades Restoration Plan, the 
Secretary of the Army will issue programmatic regulations, with the 
concurrence of the Secretary of the Interior, that identifies the 
quantity of water to be dedicated and managed for the natural system. 
This provision was included in the legislation to ensure that the 
special expertise of the Secretary of the Interior is taken into 
account when setting aside the proper quantity of water, with the 
proper flow and distribution, for the natural system. The Department is 
confident that the Administration's proposal will provide the natural 
areas with the proper quantity, quality, timing and distribution of 
water.
    The Administration agrees that the concurrence of the Secretary of 
the Interior in developing the programmatic regulations that establish 
the proper quantity of water, with the appropriate timing and 
distribution, is critical to ensure that the remaining natural areas of 
the Everglades are protected and that the project is always managed to 
restore, preserve and protect the Everglades ecosystem.
    Question. What other related challenges have arisen in your work 
with the Corps and other agencies to draft the legislation that will 
authorize the Corps of Engineers ``Restudy?''
    Answer. Not all stakeholders agree with the approach contained in 
the Administration's legislative proposal. For example, the State of 
Florida would prefer that state law allocate the water that is to be 
captured from the features proposed in the CERP, as opposed to the 
programmatic regulations contained in the Administration's legislative 
proposal.
    Additionally, the Seminole Tribe would like to ensure that its 
rights to water under its water rights compact are not affected. There 
are other areas of disagreement and the Department and the 
Administration are working together to resolve these areas of concern.
    Question. As for the additional acreage to be purchased by the 
Federal government in fee, what kind of plans has the Department made 
for ensuring that the lands will be properly managed by the Department?
    Answer. The Department has worked closely with the State of 
Florida, county officials, and landowners to ensure that the lands will 
be properly managed.
    Question. In particular, does the Fish and Wildlife Service, the 
Park Service, BLM and the Forest Service have a coordinated system 
where each of the Realty Offices work with the Operations and 
Management to ensure that appropriate planning takes place?
    Answer. The National Park Service has a realty office in Naples, 
Florida that handles the Federal land acquisition program at Big 
Cypress National Preserve, Everglades National Park and Biscayne 
National Park. The realty office coordinates its land acquisition 
program with park management at the three parks. The parks identify 
land acquisition priorities and the realty office at Naples, Florida 
executes the program based on these priorities. The Fish and Wildlife 
Service in Atlanta administers the State of Florida grant program. The 
Department works with the Fish and Wildlife Service Atlanta Office to 
coordinate the state grant program. The FWS's Atlanta Office 
coordinates land acquisition planning, operations, and management 
within South Florida and with other regional and national needs.

                   LAND ACQUISITION AND LANDS LEGACY

    The Administration is requesting $1.4 billion for the Lands Legacy 
initiative, including $735 million for programs under your 
jurisdiction. This would double the initiative as a whole, and provide 
an increase of $470 million for Department of the Interior programs. 
The Administration also proposes to create a fenced reserve fund for 
Lands Legacy programs that would provide a permanent, aggregate funding 
level for these programs.
    Question. Why do you consider it necessary or advisable to 
establish a reserve fund for this particular array of Federal and non-
Federal grant programs?
    Answer. An overriding issue confronting State and local public 
officials throughout the Nation is how to preserve open space in the 
face of growing populations, increasing demands for land and water 
resources, traffic congestion, and other pressures. Around the country, 
voters have approved in the last several years nearly 200 initiatives 
aimed at controlling or limiting sprawl, preserving open space, and 
improving their communities. The States and localities have done their 
part, now is the time for the Federal government to provide their 
support to these efforts. To this end, the Lands Legacy initiative 
provides additional tools for States and localities to preserve open 
space and to tackle some important negative impacts of growth and 
development. The new category proposed in the fiscal year 2001 budget 
provides dedicated and protected funding for the programs included in 
the initiative. Funds not appropriated to programs within the proposed 
fund will be unavailable to offset spending elsewhere. This will ensure 
that the original purpose of the Land and Water Conservation Fund--to 
protect America's natural resources--will be realized. The current 
balance of the LWCF exceeds $13 billion.
    Question. Why didn't the Administration simply propose a higher 
discretionary level for these programs?
    Answer. The initial intent of LWCF was to use the receipts from 
non-renewable resources (Outer Continental Shelf oil and gas) and 
invest them back into permanent resources (land and water) for future 
generations. By proposing a new budget category to provide dedicated, 
protected discretionary funding for these programs, the Lands Legacy 
Initiative would ensure that funds not appropriated to programs within 
the proposed cap of $1.4 billion will be unavailable to offset spending 
under other discretionary funding caps. This would ensure that these 
funds will be available for these important conservation purposes in 
the future.
    Question. How would you have felt if your predecessor had 
established a permanent funding allocation for those programs that he 
felt were the highest priority?
    Answer. These programs are not just a high priority for the 
Administration, but a high priority for people across the country. Over 
the past several years, voters have approved nearly 200 initiatives 
aimed at controlling or limiting sprawl, 50 governors have voiced their 
support of the Land and Water Conservation Fund, and HR 701, the 
Conservation and Reinvestment Act bill, has over 300 co-sponsors. The 
need to preserve open space and to tackle the negative impacts of 
growth and development will only become greater and will continue to be 
a high priority for communities and leaders across the country for 
years to come.
    Question. How did you determine what would be included within the 
initiative and what wouldn't?
    Answer. The Lands Legacy initiative was created to focus on 
protecting natural treasures and historic places, provide opportunities 
for States and other entities to conserve important lands for 
recreation, open space, and wildlife habitat, preserve forest, 
farmland, and coastal areas, and provide the tools to states, 
localities and Tribes to deal with the loss of open space and manage 
fragile ecosystems. These criteria provided the focus for selecting the 
programs to be included in the Lands Legacy initiative.
    Question. How do you justify including grants for urban parks in a 
permanent initiative titled ``Lands Legacy,'' while not including other 
programs and activities that provide for critical care and maintenance 
of our Federal lands?
    Answer. One of the purposes of the Lands Legacy initiative is to 
provide tools to States and localities to deal with the loss of open 
space. The Urban Parks and Recreation Recovery Program does this by 
rehabilitating parks in distressed urban communities, ensuring that 
they remain available to these communities in perpetuity.
    The critical care and maintenance of our Federal lands is addressed 
through the Safe Visits to Public Lands initiative and the 5-year 
maintenance and construction plans recently completed by the bureaus.
    Question. By establishing a permanent funding source for Federal 
acquisition programs, aren't we by definition committing ourselves to a 
permanent stream of funding increase for the care and maintenance of 
those lands-an activity that would not be protected from competition 
within the budget process?
    Answer. Over time, we expect care and maintenance funding to 
increase somewhat, but most of the lands being acquired do not require 
large infrastructure expenditures. We believe the Federal acquisition 
program will actually help us better maintain our lands through the 
acquisition of inholdings and consolidation of lands. This will help to 
ensure better overall management of the lands and better ensure their 
overall care. Also most of the Lands Legacy funds will go to States to 
acquire and protect non-Federal lands. By assisting States' 
acquisitions, we can avoid Federal management costs in the future.
    Question. Are you at all concerned about the long term impact this 
might have on our public lands?
    Answer. Absolutely, but we are especially concerned about the long-
term protection of the Nation's wildlife, habitat, and special places. 
It is important that we act now to protect and preserve those areas 
near or within our public lands that are threatened with degradation 
from urban growth and other development. Being able to purchase those 
areas now will ensure the protection in the future of their habitat, 
wildlife, recreation and other values.
    Question. Has the Administration submitted legislation to establish 
the Lands Legacy reserve fund?
    Answer. No, language is still under development and we look forward 
to working with Congress on this and other amendments.
    Question. When will it do so?
    Answer. The President's fiscal year 2001 Budget is based on a 
balanced approach that maintains fiscal discipline, eliminates the 
national debt, extends the solvency of Social Security and Medicare, 
provides for an appropriately sized tax cut, establishes a new 
voluntary Medicare prescription drug benefit in the context of broader 
reforms, expands health care coverage to more families, and funds 
critical investments for our future, including the Lands Legacy 
Initiative.
    Unfortunately, the fiscal year 2001 congressional budget resolution 
provides inadequate resources for discretionary investments, and 
doesn't address the protections for Lands Legacy.
    When Congress is ready to address these problems with the overall 
budgetary framework, the Administration is prepared to work with 
Congress on amendments to implement the President's Budget, including 
language to establish a new Lands Legacy category.
    Several bills are being considered in Congress that would establish 
permanent funding streams for lands programs on an even larger scale 
than is being proposed by the Administration, and for an even wider 
variety of programs.
    Question. Does the Administration support these proposals?
    Answer. The Administration strongly believes that now is the time 
to provide a permanent stream of significant new resources as long as 
it is in the context of a Balanced Budget. The Lands Legacy Initiative 
and much of H.R. 701, the Conservation and Reinvestment Act of 1999, 
support State and community efforts to protect wildlife and local green 
spaces, reinforce Federal efforts to save natural and historic 
treasures, and expand efforts at all levels to protect ocean and 
coastal resources. Such an investment would be both a fit to our 
children of today and a promise to our children of tomorrow. This 
priority is reflected in the President's Lands Legacy initiative, which 
has been submitted to the Congress in each of the past two years.
    Question. Why does the Administration budget not include a more 
expansive proposal such as these?
    Answer. Unlike the proposals currently going through Congress, the 
funds for the Lands Legacy are fully paid for on budget within the 
context of a Balanced Budget. The important point, however, is that the 
Administration shares many of the goals of these proposals. We look 
forward to continuing to work with Members of Congress interested in 
these funding and program issues during this Congressional session, so 
that historic conservation legislation within a Balanced Budget 
framework can be enacted.

                            LAND ACQUISITION

    The administration has proposed a rather large increase over the 
enacted fiscal year 2000 level for land acquisition. Land acquisition 
has taken the form of both purchases of land in fee as well as 
purchasing conservation easements.
    Question. As for the additional acreage to be purchased by the 
federal government in fee, what kind of plans has the Department made 
for ensuring that the lands will be properly managed by the Department?
    Answer. For lands to be considered for acquisition by the Bureau of 
Land Management, their use must be consistent with existing BLM land 
use plans (LUPs). Once lands are acquired, they are managed in 
conformance with existing land use plans prescribed under the Federal 
Land Management Policy Act and the National Environmental Policy Act. 
LUPs provide specific management prescriptions for all the public lands 
within the planning area and are extended to the acquired lands. On 
occasion, LUPs may need to be amended when new lands are acquired. 
Because the majority of acquisitions are ``inholdings'' within larger 
tracts of BLM-managed lands, LUP amendments are generally not required.
    In the Fish and Wildlife Service, funding for operations and 
maintenance of new refuge lands is incorporated into the annual budget 
process. Projects to manage these lands are prioritized in the Refuge 
Operating Needs System (RONS) and compete with projects from the entire 
Refuge System; there is not currently a separate process for budgeting 
operations and maintenance expenses associated with new lands. 
Operation and maintenance needs for new lands are projected for the 
time at which these lands come into the Refuge System; thus 
corresponding operation and maintenance funds are requested in the 
budget years subsequent to the land acquisition appropriation. For 
example, lands acquired from the fiscal year 2001 land acquisition 
funding requested for and appropriated in fiscal year 2001 will be 
incorporated into operations and maintenance requests in fiscal year 
2002 and beyond. Preliminary project proposals are required for all new 
refuges and or/significant refuge expansions. The Director approves all 
preliminary project proposals. Included in the preliminary project 
proposal is an estimate of the necessary annual operating and 
maintenance costs anticipated once the property is acquired.
    The National Park Service acquires land that has been identified as 
essential to a park unit, either because of its natural resource 
integrity or historical importance. This determination is detailed in 
the parks' General Management Plan, and the lands that are necessary to 
be acquired are described in priority order within the park's Land 
Protection Plan.
    Once the land is acquired, it is the responsibility of the NPS to 
manage the land under the authority, regulations and internal policy 
which govern the management of resources entrusted to the NPS. Should 
additional budgetary resources be necessary, it is the responsibility 
of the NPS to address these issues within available budget allowances 
or through operational increase requests, as NPS priorities dictate.
    Question. In particular, does Fish and Wildlife Service, the Park 
Service, BLM, and the Forest Service have a coordinated system where 
each of the Realty Offices work with Operations and Management to 
ensure that appropriate planning takes place?
    Answer. Yes, in the Bureau of Land Management, this coordination 
occurs in local field offices having the delegated authority to propose 
land acquisition, conduct planning, and consider outyear operation and 
maintenance (O&M) costs associated with these potential acquisitions. 
Land acquisition proposals submitted by field offices are required to 
include additional short and long term costs associated with each 
acquisition. Because the majority of acquisitions are ``inholdings'' 
within larger tracts of BLM-managed public land, additional O&M costs 
are typically negligible, as these acquisitions reduce costs to the BLM 
by eliminating boundary management issues (i.e., maintenance, signage, 
trespass, etc.).
    The Fish and Wildlife Service's Division of Realty (which handles 
land acquisition) as well as the Division of Refuges (which handles the 
management of lands acquired) are supervised by the Chief of the 
National Wildlife Refuge System who reports to the Director of the Fish 
and Wildlife Service. This organizational structure ensures that there 
is the appropriate oversight between the acquisition and management of 
lands for the National Wildlife Refuge System. For each new refuge, FWS 
will be developing a comprehensive conservation plan (CCP) for the 
management of the refuge. The National Wildlife Refuge System 
Improvement Act of 1997 mandates that a CCP be prepared for each refuge 
within 15 years of establishment. Any comprehensive conservation plan 
that has a land acquisition component must have an approved preliminary 
project proposal which includes cost estimates for stewardship of the 
proposed new land. Also, the final approval of any comprehensive 
conservation plan that includes a land acquisition component can be 
given only by the Director. The CCP is a blueprint for all the 
biologic, operational, management, and administrative actions that must 
take place to make a particular land area into a national wildlife 
refuge.
    For the National Park Service, the initial step in requesting funds 
to acquire land during a fiscal year lies within the purview of the 
Superintendent of each park unit. These requests, in priority order as 
detailed in the park unit's current Land Protection Plan, are submitted 
through the regional Director to the Land Resources Division. The Land 
Protection Plan is a component of the General Management Plan which 
details how an area will be managed to protect its natural and 
historical resources, as well as the cost of this management over time. 
This request for acquisition funds to acquired additional land, either 
in fee simple or an easement, is processed through the Land Acquisition 
Ranking System, and reviewed by the NPS Washington and Regional 
directorate. Within available budgetary allowance and as priorities 
dictate, a funding request for land acquisition is submitted to 
Congress for approval.
    As the land acquisition requirements are being identified and 
evaluated through the budget cycle, the NPS requires field managers to 
identify, evaluate and prioritize both recurring and one-time 
operational requirements at their park. These requirements are 
contained within two database systems recently developed and 
implemented by the NPS for budget formulation. The first, the Operation 
Formulation System (OFS) contains all the unfunded, recurring 
operational needs of the Service. The other, the Project Management 
Information System (PMIS) contains all the unfunded, non-recurring 
project requirements. The NPS issues annual guidance for the update of 
these two systems. All unfunded needs for the Service, even needs 
reasonably anticipated to be required several years in the future, are 
required to be entered into these databases. Requirements resulting 
from potential land acquisitions should be identified in OFS and PMIS 
at the time the acquisition is identified and proposed.
    At present, records in the OFS database can be linked to 
maintenance projects in PMIS. This allows, for example, recurring 
operational requirements resulting from a specific line-item 
construction request to be associated directly with the project. In 
doing so, the NPS is trying to ensure that the full cost associated 
with a particular action be taken into account when decisions are made 
to proceed. This approach also ensures that, at the appropriate time, 
funding is requested to protect the Federal investment and to allow 
full operation of the new or rehabilitated facility. Similarly, in a 
future version of OFS under development, the Service intends to require 
a link form an OFS operating increase record to the specific, 
associated land acquisition project. Effective utilization of this 
process will help to ensure that appropriate management and budgetary 
planning take place when land is acquired

                          RECREATION FEE DEMO

    Information provided by your department indicates that the 
recreation fee demonstration program will generate $170 million in 
revenues for participating Interior bureaus in the current fiscal year.
    Question. How has this program benefited the land management 
agencies for which you are responsible?
    Answer. For the National Park Service, fee revenues retained since 
the inception of the Recreation Fee Demonstration Program through March 
2000 have totaled over $350 million. Of these receipts, over $170 
million has been obligated. A total of 2,443 projects have been 
approved for obligation. These projects include maintenance for roads, 
trails, infrastructure and buildings, safety related improvements, 
resource management projects, interpretive projects, shuttle systems 
and new enhanced services for visitors.
    Question. What specific lessons has the Department learned with 
regard to implementation of the fee program?
    Answer. Most critically, the success of the program has clearly 
demonstrated the need for permanent authorization of the program to 
allow agencies to think more strategically and implement long range 
programs and policies. Many projects are of such magnitude that 
agencies need to be confident of the availability of funding in future 
years. The assurance of funding from a permanent program would also aid 
agencies in their ability to plan, research and fund new technologies, 
revamp old accounting systems, and invest in capital improvements that 
could support the collection of fees in more efficient, modern methods.
    Experience gained during the implementation of the program has 
indicated that the public is supportive of fees. Responses to surveys 
attest to the fact that park visitors are generally satisfied with 
entrance fees, the quality of park attributes and the process of 
entering parks. The majority felt that entrance fees were ``about 
right'' or ``too low'' (89 percent of those surveyed).
    In addition, visitation to recreation sites participating in the 
Recreational Fee Demonstration Program continues to appear unaffected 
in any significant way by new fees. Statistics show that visitation at 
Recreational Fee Demonstration Program sites has remained relatively 
constant.
    Question. How could the authorities provided in the current program 
be improved?
    Answer. The NPS believes the current authorities governing the fee 
program could be improved through the following means:
  --The passage of permanent authority to allow for adequate planning 
        and program/policy development, and the extension of the 
        authority to all sites, deemed appropriate within each agency.
  --Greater flexibility in the distribution of revenues. For example, a 
        formula that would provide no less than 60 percent to the 
        collecting park, with other revenues to be distributed at the 
        discretion of the Director, should be considered. This would 
        enable more funds to be available to those parks that do not 
        participate in fee collection. There are critical issues at 
        these parks that must be addressed and the authority could 
        provide an excellent means of doing so.
  --The ability to revamp and redesign the Golden Eagle Passport 
        program.
  --The authority to establish new fee rates, new fee structures, new 
        agency specific passes (no imposed caps).
  --Partnerships designed to collaborate fee collection and revenue 
        sharing programs with other entities (counties, states, other 
        Federal agencies, and cities).
    As you are aware, the recreation fee demonstration program is set 
to expire at the end of fiscal year 2001. The President's budget 
assumes the program will be made permanent.
    Question. Does the Administration intend to submit specific 
legislation proposing to make the program permanent? If so, when? If 
not, why not?
    Answer. Yes. A draft bill was developed by an interagency workgroup 
composed of USFS, USFWS, BLM and NPS. The language is broad, in an 
effort to meet the needs of the various agencies.
    Question. What would be the impacts on the Department of the 
Interior if the program were not continued after fiscal year 2001?
    Answer. A significant revenue source, which is allowing the NPS to 
address deferred maintenance and other project needs, would be removed, 
and the NPS would be forced to rely more heavily on appropriations. Use 
of new technologies in fee collection, such as automated machines, the 
expansion of the reservation system to new parks and the purchase of 
new equipment would be curtailed.

                 GOVERNMENT PERFORMANCE AND RESULTS ACT

    Question. How are the agency's annual performance goals linked to 
the agency's mission, strategic goals, and program activities in its 
budget request?
    Answer. Within the Department of the Interior, strategic goals are 
derived from the bureau and departmental missions and programs. All 
goals in the Department support achievement of one or more of 
Interior's five strategic goals:
  --Protect the Environment and Preserve Our Nation's Natural and 
        Cultural Resources
  --Provide Recreation for America
  --Manage Natural Resources for a Healthy Environment and a Strong 
        Economy
  --Provide Science for a Changing World
  --Meet Our Responsibilities to Indian Tribes and our Commitments to 
        Island Communities
    Annual performance goals are the annual increments of 
accomplishment toward achieving the strategic goals. The program 
activities in our annual performance plans are linked to our budget 
requests. Our goals are grouped as ``GPRA program activities,'' and 
these are linked to the budget accounts in a manner that shows which 
GPRA program activities are funded from that account.
    Question. Could you describe the process used to link performance 
goals to your budget activities? What difficulties, if any, did you 
encounter, and what lessons did you learn?
    Answer. Generally, the funding in the annual budget request is 
allocated among the goals so that the annual performance plan accounts 
for 100 percent of the budget request. The annual performance plans of 
all Interior bureaus contain cross-walk tables that show how budget 
activities and sub-activities link to the GPRA program activities. 
Funds from a budget activity may support one or more GPRA program 
activities. As we gain experience under GPRA, we can allocate the 
budget resources to GPRA program activities with greater precision and 
confidence.
    Question. Does the agency's Performance Plan link performance 
measures to its budget? Does each account have performance measures?
    Answer. All of Interior's bureaus link their annual performance 
plans to their budgets. The link is shown by cross-walk tables that 
display how the funds requested in the budget activities and sub-
activities are allocated to GPRA program activities. The cross-walk 
tables are necessary because in Interior's budget structure, the budget 
activities and the GPRA program activities are not always in alignment. 
In two bureaus, the Office of Surface Mining and the Bureau of Indian 
Affairs, the GPRA program activities level align with the budget 
activities. For other bureaus there is not a one to one correspondence 
between performance measures and budget activities. Funding for one 
activity may support several different GPRA program activities.
    Question. To what extent does your performance planning structure 
differ from the account and activity structure in your budget 
justification? Do you plan to propose any changes to your account 
structure for fiscal year 2001? Will you propose any changes to the 
program activities described under that account structure?
    Answer. For most Interior bureaus, the performance planning 
structure and the budget account and activity structure are not the 
same. As mentioned previously, the Office of Surface Mining and Bureau 
of Indian Affairs have budget activities that relate closely to their 
performance goals. For other bureaus, the GPRA program activities do 
not align with the budget structure. However, all our annual 
performance plans provide cross-walk tables to link funding allocations 
to GPRA program activities. The Department did not propose a change to 
our account structure in the fiscal year 2001 budget justifications and 
has no plan to do so for the fiscal year 2002 budget.
    Question. How were Performance Measures chosen? How did the agency 
balance the cost of data collection and verification and validation 
with the need for reliable and valid performance data? Does your plan 
include performance measures for which reliable data are not likely to 
be available in time for your first performance report in March 2000?
    Answer. The performance goals and measures used by the Department 
were developed through an iterative process begun in 1996 and 
continuing today. In fiscal year 1997, Interior formed a Performance 
Management Council (PMC) to develop guidelines for preparing strategic 
plans and annual performance plans. Many bureaus established work 
groups with program offices to develop the initial set of performance 
measures, or solicited appropriate measures from program offices and 
from the organization at large. The proposed measures were then 
evaluated for how relevant, reliable, available, and outcome oriented 
the performance indicator was. The Department has encouraged bureaus to 
use goals relevant to their mission, use outcome-oriented measures 
rather than output measures, and have reliable data sources for the 
measure. The initial goals were included in the 1997 Strategic Plan, 
and the goals and measures have been adjusted as needed on an annual 
basis. Today, most bureaus use leadership teams consisting of top level 
managers from program areas and subject matter experts to review and 
revise goals.
    To balance the costs of data collection and verification with the 
need for reliable data, in the initial development of GPRA goals and 
measures, the Department encouraged bureaus to have goals and measures 
that could use, to the extent practicable, existing data sources and 
systems. Some bureaus, like the National Park Service (NPS) used the 
criteria of relevant, reliable, and available to ensure that the most 
cost-effective measures were selected. All bureaus continue to assess 
the value of their goals and measures as indicators of program 
performance and in the context of what information is needed to make 
management decisions.
    We have completed and submitted the fiscal year 1999 program 
performance report due in March 2000. Department-wide we measured 
progress on nearly 300 performance measures. Our reports show that we 
had annual performance data for about 97 percent of our measures, and 
we reported on our verification and validation efforts related to each 
goal. We continue to assess data reliability through ongoing reviews 
and evaluations.
    Question. What are the key performance goals from your fiscal year 
2000 Annual Performance Plan that you recommend this subcommittee use 
to track program results? For each key annual goal, indicate whether 
you consider it to be an output measure (``how much'') or an outcome 
measure (``how well''). State the long-term (fiscal year 2003) general 
goal and objective from the agency Strategic Plan to which the goal is 
linked.
    Answer. The broad and varied missions carried out by Interior's 
bureaus are difficult to track through a short list of key measures. 
Our bureaus consider all of the performance goals in their annual 
performance plans to be key goals for tracking program results. For 
fiscal year 2001, the Department has prepared an annual performance 
plan overview to highlight key performance measures under each of 
Interior's five strategic goals. Many of these performance measures are 
drawn from the individual bureau plans. The fiscal year 2001 overview 
includes a summary table of our fiscal year 2000 goals, showing the 
revised long-term goal (see below).

   DEPARTMENT OF THE INTERIOR FISCAL YEAR 2000 ANNUAL PERFORMANCE PLAN
                       GOALS AT-A-GLANCE TABLE \1\
------------------------------------------------------------------------
                                    Fiscal year 2000 annual performance
         Long-term goal                            goal
------------------------------------------------------------------------
 Goal 1.--Protect the Environment and Preserve Our Nation's Natural and
                           Cultural Resources
 
Restore the Health of Public      Acres of Land Restored: In fiscal year
 Lands.                            2000, 2,465,000 acres of mined lands,
                                   refuges, park lands, and forests will
                                   be restored or enhanced.
Restore the Health of Public      Hazardous Waste Sites Restored: In
 Lands.                            fiscal year 2000, increase the
                                   cumulative number of restoration
                                   projects to 75, increase the
                                   cumulative number of damage
                                   assessments resulting in settlements
                                   to 145, and to increase the
                                   cumulative percentage of funds
                                   received into the Restoration Fund
                                   equal to 205 percent of the
                                   cumulative annual appropriations.
Maintain Healthy Natural Systems  South Florida Ecosystem: In fiscal
                                   year 2000, Federal agencies
                                   participating in the South Florida
                                   task force will acquire approximately
                                   26,000 acres of land in the South
                                   Florida ecosystem, and the State of
                                   Florida will acquire approximately
                                   99,042 acres of land in the South
                                   Florida ecosystem, of which 3,755
                                   will be acquired with funding
                                   provided through the Department of
                                   the Interior.
Maintain Healthy Natural Systems  Fire Management: By 2000, restore
                                   natural ecological processes by
                                   increasing the use of fire (wildland
                                   and prescribed) and other land
                                   treatment to 1.0 million acres.
Protect and Recover Imperiled     Species Protected: In fiscal year
 Species.                          2000, 197 of 568 species populations
                                   listed a decade ago or more are
                                   improving or stable, 57 species are
                                   approved for removal from candidate
                                   or proposed status, 57 of 442 species
                                   in park areas show improved status,
                                   and 80 of 442 species in park areas
                                   have stable status.
Protect and Restore Cultural      Cultural Resources in Good Condition:
 Resources.                        At the end of fiscal year 2000, 47
                                   percent of 23,167 historic structures
                                   are in good condition and 35.2
                                   percent of 236 cultural landscapes
                                   are in good condition against
                                   baseline.
 
                 Goal 2.--Provide Recreation for America
 
Provide quality experiences to    Visitor Satisfaction Rate: Fiscal year
 visitors on federal lands and     2000 target levels are 95 percent
 facilities.                       satisfaction for NPS visitors, and 93
                                   percent satisfaction for BLM
                                   visitors.
Provide for Safe Visits to        Visitor Accident/Incident Rate: The
 Public Lands.                     fiscal year 2000 target is to reduce
                                   the NPS visitor accident/incident
                                   rate to 8.82 incidents per 100,000
                                   visitor days.
 
Goal 3.--Manage Natural Resources for a Healthy Environment and a Strong
                                 Economy
 
Ensure Environmentally Sound      Authorize Sustainable Grazing and
 Development.                      Timber Production: In fiscal year
                                   2000, authorize 3,456 livestock
                                   grazing allotments, and attain power
                                   production costs per Megawatt that
                                   rank in the upper 25th percentile
                                   (ranked lowest cost to highest) for
                                   comparable hydropower facilities.
Ensure Environmentally Sound      Pacific Northwest Forest Plan: In
 Development.                      fiscal year 2000, offer 211 mmbf of
                                   timber for sale, and restore 35,000
                                   acres of forested lands.
Manage Resources to Ensure        Fair Return of Value to the Public on
 Economic Viability and Sound      Minerals: In fiscal year 2000,
 Management of Mineral Receipts.   maintain the current high bids
                                   received for OCS leases to MMS
                                   estimated value ratio of 1.8 to 1 and
                                   ensure payments are at least 90
                                   percent of the expected value at the
                                   due date for 35 percent of
                                   properties.
 
              Goal 4.--Provide Science for a Changing World
 
Add to the Environmental and      Improve Environmental and Natural
 Physical Science Knowledge Base.  Resource Information: In fiscal year
                                   2000, provide and improve long-term
                                   environmental and natural resource
                                   information, systematic analysis, and
                                   investigations about natural systems
                                   by maintaining 46 long-term data
                                   collection/data management efforts,
                                   and develop 6 new decision support
                                   systems and predictive tools.
Increase Hazard Knowledge and     Improve Prediction and Monitoring of
 Warning.                          Hazardous Events: In fiscal year
                                   2000, deliver to customers 10 Risk
                                   Assessments of areas particularly
                                   vulnerable to natural disaster to
                                   mitigate loss, and increase to 900
                                   the cumulative number of real-time
                                   earthquake sensors.
 
  Goal 5.--Meet Our Trust Responsibilities to American Indians and Our
                    Commitments to Island Communities
 
Protect Indian Trust Assets.....  Protect Natural Resource Assets: In
                                   fiscal year 2000, 95 percent of
                                   requests for Technical Assistance for
                                   Mineral Operations on Indian lands
                                   will be completed, and 16 dams
                                   (cumulative) will have repair
                                   construction completed.
Protect Indian Trust Assets.....  Protect Fiscal Resources for Tribes
                                   and Indians: By the end of fiscal
                                   year 2000, facilitate the growth of
                                   Trust income by processing 37,000
                                   trust transactions for Tribal and
                                   individual Indian land owners, and
                                   have all of BIA Regional Offices (12)
                                   using both the Trust Funds Accounting
                                   System (TFAS) to ensure accurate
                                   accounting, collection, investment,
                                   and disbursement of Tribal and
                                   individual Indian trust funds; and
                                   the Trust Asset and Accounting
                                   Management System (TAAMS) to ensure
                                   that land title ownership information
                                   is current and accurate and that
                                   income derived from these lands are
                                   properly collected and allocated.
Improve the Indian Quality of     Improve Facilities and Services: In
 Life.                             fiscal year 2000, 1,348 housing
                                   applicants will receive repair and
                                   replacement work on homes, 5,700
                                   (cumulative) miles of existing BIA
                                   system roads will be maintained, and
                                   25 Tribes will operate comprehensive
                                   welfare plans.
Improve the Indian Quality of     Improve Indian Education: In fiscal
 Life.                             year 2000, to improve the quality of
                                   education, 100 percent of schools
                                   will be accredited, 47 percent of
                                   students will be proficient in Math
                                   and 45 percent of students will be
                                   proficient in Language Arts, and
                                   1,000 new/replacement computers
                                   (cumulative) will be provided for
                                   classroom use.
Improve Management of Island      Improve Government Services: In fiscal
 Communities.                      year 2000, financial management
                                   improvement plans will be completed
                                   for 5 of the 7 insular governments,
                                   and the ratio of OIA-funded projects
                                   completed to projects started will
                                   increase to 0.45.
 
           Goal 6.--Managing for Excellence and Accountability
 
Lead People to Succeed..........  Increase in Diverse Workforce
                                   Representation: Diverse
                                   representation in Interior's
                                   workforce will increase by at least
                                   2.1 percent from 1997 levels.
Lead People to Succeed..........  New Training and Development Programs:
                                   Develop and implement at least 1 new
                                   training program.
Provide the Services and          Amount of Purchase Card Transactions:
 Technology to Manage.             Purchase card transactions will
                                   exceed $333 million.
Provide the Services and          Museum Objects Inventoried: Accurately
 Technology to Manage.             inventory 2 million museum objects
                                   (for a cumulative total of 43.7
                                   million)
Ensure Financial and Managerial   Number of Unqualified (clean) Audit
 Accountability.                   Opinions: Achieve unqualified (clean)
                                   audit opinions for Interior's eight
                                   bureaus, the Office of the Secretary,
                                   and the Department's consolidated
                                   financial reports.
Ensure Financial and Managerial   Resolution of Material Weaknesses and
 Accountability.                   Management Risks: Complete
                                   implementation of 65 percent of OIG
                                   and GAO audit recommendations within
                                   1 year of referral, and complete 70
                                   percent of corrective action plans
                                   for material weaknesses by their
                                   original target date.
Provide Safe and High Quality     Facilities Maintenance and Capital
 Places of Work.                   Improvements: Complete 30 percent of
                                   repair and construction projects
                                   funded through the Department's Five-
                                   year Facilities Maintenance and
                                   Capital Improvement Plan by the end
                                   of the funding fiscal year, complete
                                   70 percent by the end of the second
                                   year after funding, and 95 percent
                                   after the third year.
Provide Safe and High Quality     Completion of Environmental Audits:
 Places of Work.                   Complete initial environmental audits
                                   of 70 percent of all Interior
                                   facilities (cumulative).
------------------------------------------------------------------------
\1\ Source: DOI 1999 Annual Performance Report/fiscal year 2001 Annual
  Performance Plan.

    Question. In developing your Annual Performance Plan, what efforts 
did your agency undertake to ensure that the goals in the plan include 
a significant number of outcome measures?
    Answer. In fiscal year 1997, Interior formed a Performance 
Management Council (PMC) to develop guidelines for preparing strategic 
and annual performance plans and annual performance reports. The PMC, 
led by the Department's Office of Planning and Performance Management 
and consisting of GPRA representatives from all DOI bureaus, was Guided 
by Office of Management and Budget (OMB) Circular A-11. The PMC met 
regularly to insure that bureaus were developing a significant number 
of outcome goals/measures in their strategic and annual performance 
plans. Comments from the General Accounting Office and OMB on the DOI 
agency's strategic and annual performance plans were helpful in guiding 
agencies to make the gradual transition from output goals/measures to 
outcome goals/measures.
    Question. Do you believe your program managers understand the 
difference between goals that measure workload (output) and goals that 
measure effectiveness (outcome)?
    Answer. We believe that most of Interior's program managers are 
familiar with the differences between output measures and outcome 
measures for goals. Our planning staff in the Department and in the 
bureaus work with program managers to define, to the extent possible, 
appropriate outcome goals and measures.
    Question. What are some examples of customer satisfaction measures 
that you intend to use? Please include examples of both internal and 
external customers.
    Answer. Several of our bureau annual performance plans already 
include customer satisfaction measures, and the Department is asking 
all bureaus to define customers and develop customer satisfaction 
measures. Those already in place for fiscal year 2000 or planned for 
fiscal year 2001 are:

------------------------------------------------------------------------
                                  Customer        Performance goal and
            Bureau                measured              measure
------------------------------------------------------------------------
                   Goals in place for fiscal year 2000
 
Bureau of Land Management....  External......  In fiscal year 2000, 93
                                                percent of recreational
                                                users are satisfied with
                                                the quality of their
                                                recreation experience on
                                                the public lands, and 84
                                                percent are satisfied
                                                with BLM's interpretive
                                                and environmental
                                                education at Special
                                                Recreation Management
                                                Areas.
Bureau of Reclamation........  External......  In fiscal year 2000,
                                                complete a report of
                                                recommended business
                                                practices for customer
                                                service benchmarking and
                                                initiate up to five
                                                process improvement
                                                efforts.
U.S. Geological Survey.......  Internal and    In fiscal year 2000,
                                External.       establish customer
                                                satisfaction baseline
                                                (for both their hazards
                                                science and environment
                                                and natural resources
                                                goals).
National Park Service........  External......  Visitor Satisfaction: In
                                                fiscal year 2000,
                                                maintain 95 percent of
                                                park visitors satisfied
                                                with appropriate park
                                                facilities, services,
                                                and recreational
                                                opportunities.
                                               Legislated Partnership
                                                Customer Satisfaction:
                                                In fiscal year 2000, 90
                                                percent of users are
                                                satisfied with historic
                                                preservation-related
                                                technical assistance,
                                                training, and
                                                educational materials
                                                provided by NPS.
 
           Goals proposed to be in place for fiscal year 2001
 
Minerals Management Service..  External......  For 2001: Have a goal in
                                                place for customer
                                                satisfaction with
                                                information and data
                                                provided by MMS.
Bureau of Indian Affairs.....  External......  For fiscal year 2001:
                                                develop survey tools and
                                                methods.
Office of Insular Affairs....  External......  In fiscal year 2001:
                                                increase insular
                                                government's
                                                satisfaction regarding
                                                communications with the
                                                Federal Government over
                                                baseline established in
                                                fiscal year 2000.
------------------------------------------------------------------------

    The Department is also considering using balanced measures that 
will consider both employees and customers. Existing and future 
employee satisfaction survey results will help Interior and bureaus 
establish baselines performance targets.
    Question. How were the measurable goals in your fiscal year 2000 
Annual Performance Plan used to develop your fiscal year 2001 budget? 
If a proposed budget number is changed, up or down, by this committee, 
will you be able to indicate to us the likely impact the change would 
have on the level of program performance and the achievement of various 
goals?
    Answer. The goals for fiscal year 2000 were used as baseline 
information to help develop the fiscal year 2001 Annual Performance 
Plan and the fiscal year 2001 budget. The fiscal year 2000 performance 
targets were adjusted to reflect the fiscal year 2000 enacted budget, 
and become the performance base for planning and for showing changes in 
performance based on the fiscal year 2001 budget proposal.
    If a proposed budget number is changed up or down, depending on the 
magnitude of the change and the budget activity affected, we would be 
able to indicate the likely impact the change would have on the level 
of program performance and the achievement of one or more goals.
    Question. Do you have the technological capability of measuring and 
reporting program performance throughout the year on a regular basis, 
so that the agency can be properly managed to achieve the desired 
results? If so, who has access to the information--senior management 
only, or mid- and lower-level program managers, too? Are you able to 
gain access easily to various performance-related data located 
throughout your various information systems?
    Answer. In 1999, the Department developed a quarterly data 
reporting system to track progress in achieving GPRA goals. Interior 
bureaus are required to electronically submit performance data on a 
quarterly basis to the Department. The data is then reviewed and 
entered into a central database containing all Department and bureau 
performance data. The quarterly submittal schedule provides the ability 
to measure progress toward individual performance goals throughout the 
annual performance reporting period. The database is presently being 
upgraded to allow bureaus to provide updates through the Internet. 
Bureau and Department managers will be able to access performance 
information on a continuous basis through this system. In addition to 
this quarterly data reporting system, program managers in Interior 
bureaus and offices have access to their internal management 
information systems.
    Question. The Government Performance and Results Act requires that 
your agency's Annual Performance Plan establish performance goals to 
define the level of performance to be achieved by each program activity 
set forth in your budget. Many agencies have indicated that their 
present budget account structure makes it difficult to link dollars to 
results in a clear and meaningful way. Have you faced such difficulty? 
Would the linkages be clearer if your budget account structure were 
modified? If so, how would you propose to modify it and why do you 
believe such modification would be more useful both to your agency and 
to this committee than the present account structure? How would such 
modification strengthen accountability for program performance in the 
use of budgeted dollars?
    Answer. In 1997, the Office of Surface Mining (OSM) revised their 
budget structure to align their GPRA mission goals. Subsequently, OSM's 
GPRA goal structure was revised but remains linked to their budget. The 
Bureau of Indian Affairs has aligned their GPRA goal structure to link 
to their existing budget account structure. Interior's other bureaus 
have not aligned their goal structure to their budget structure; 
however, each bureau's annual performance plan links budget dollars to 
GPRA program activities through a cross-walk table. The crosswalk 
tables show to the account, and in some cases the sub-account level, 
how the budget dollars are linked to GPRA program activities (goal 
categories).
    Initially, allocating budget resources to GPRA program activities 
was difficult because there was no clear understanding of the resources 
and work efforts related to goals. Although some bureau budget 
structures are aligned with performance goals, most budget activities 
are aligned with the organizational structure of the bureaus, their 
missions, and programmatic themes, and the bureaus are accountable for 
program performance within this structure. The linkage of budget 
dollars to the GPRA program activity level has been technically 
challenging, but as we benefit from more experience, we gain confidence 
in allocating the amounts.
    A budget structure that is aligned with goals could reduce the 
ambiguity in relating budget initiatives to results. However, the 
Department is not prepared to propose such a change until we have more 
experience, and until such time as we have a set of GPRA goals and 
measures that are settled and stable from year to year. Such a change 
would need to be carefully coordinated with appropriations committees 
to ensure that a revised account structure was beneficial to the budget 
process and Congressional decision making.
    Question. Spending significant resources on performance measurement 
systems appears to be a wasteful exercise if this information is not 
linked to: (1) real data about what it costs to perform various 
government functions, and (2) how to allocate agency resources to 
perform these functions. Could you comment on your agency's cost 
accounting expertise and plans to link GPRA to the budget process.
    Answer. Each bureau of the Department operates separate cost 
accounting systems which capture budget execution and cost accounting 
information. Depending on their cost accounting needs, some of the 
bureaus are further developed in this area than others. Cost accounting 
has been performed in the Department for some time--well prior to the 
FASAB standard--to meet various management requirements. Interior has a 
significant number of user fee programs and has used cost accounting 
principles and concepts to price the products/services it provides in 
order to recover the relevant costs. Taken as a whole, the Department 
has cost accounting expertise due to the significance of user fee 
activities, working capital funds, and the Interior Franchise Fund.
    Interior's annual performance goals are already linked to the 
budget through a GPRA program activity structure. An estimate of the 
resources from the various budget accounts associated with each GPRA 
program activity is presented in the annual performance plan. Bureaus 
include the annual performance plan as a section in their budget 
justifications.
    Question. Under one of the new accounting standards recommended by 
the Federal Accounting Standards Advisory Board (FASAB) and issued by 
OMB, this year for the first time all federal agencies are required to 
have a system of Managerial Cost Accounting. The clearly preferred 
methodology for such a system, as stated in that standard, is the one 
known as ``Activity-Based Costing,'' whereby the full cost is 
calculated for each of the activities of an agency. What is the status 
of your agency's implementation of the Managerial Cost Accounting 
requirement, and are you using Activity-Based Costing? Will you be able 
in the future to show to this committee the full and accurate cost of 
each activity of each program, including in those calculations such 
items as administration, employee benefits, and depreciation? By doing 
so, would we then be able to see more precisely the relationship 
between the dollars spent on a program, the true costs of the 
activities conducted by the program, and the results of these 
activities? Will you be able to show the per-unit cost of each activity 
and result? To what extent do the dollars associated with any 
particular performance goal reflect the full cost of all associated 
activities performed in support of that goal? For example, are overhead 
costs fully allocated to goals?
    Answer. All bureaus of the Department have cost accounting systems 
and processes in operation. The FASAB Standard does not require the use 
of a particular type of cost system or costing methodology. The 
standard specifically states ``It is too early to tell which cost 
systems are best for specific types of operations. As experience and 
research in cost accounting progress, reporting entities and 
responsibility segments may find a preferred costing methodology for 
their operations.'' Federal agencies are encouraged to study 
``Activity-Based Costing'' because it has been successfully used in the 
private sector. However, there are other acceptable methods under the 
standard. Within Interior, we use direct tracing of costs, job order 
costing, process costing, cost finding and activity-based costing 
methods. These methods are used based on the nature of the activity and 
the current availability of costing systems/software. One bureau of the 
Department, the Bureau of Land Management, does use activity-based 
costing extensively.
    In terms of the status of implementation of the Managerial Cost 
Accounting requirements, Interior has spent a great deal of time and 
effort in meeting the external reporting requirements of the standard 
that require cost information to be reported at the responsibility 
segment level. We have linked the responsibility segments directly to 
the GPRA program activity costs. Our thrust in fiscal year 2000 and 
beyond will move more in the direction of internal management 
reporting.
    Question. Please identify any significant regulatory reform 
measures that have been put into place by your agency in conjunction 
with the development of the agency's performance plan.
    Answer. As a result of regulatory reform efforts, some of 
Interior's goals have been changed. For example, in response to 
Executive Order 12862 on Setting Customer Service Standards, the Bureau 
of Land Management examined its levels of customer service and later 
modified performance goals to better reflect delivery of services to 
the public. In fiscal year 1999, the Minerals Management Service 
revised its final electronic reporting rule because of stakeholder 
comments, even though the change adversely affected MMS's ability to 
meet one of the goals in its fiscal year 1999 Annual Performance Plan. 
The revision deleted a proposed requirement to electronically report 
production on a form that is scheduled to be eliminated by re-
engineering the royalty management program in fiscal year 2001.
    Question. Does your fiscal year 2000 performance plan--briefly or 
by reference to your strategic plan--identify any external factors that 
could influence goal achievement? If so, what steps have you identified 
to prepare, anticipate, and plan for such influences? What impacts 
might external factors have on your resource estimates?
    Answer. Interior's fiscal year 2000 annual performance plan include 
discussions of strategic issues either for each bureau or for GPRA 
program activities. Some of the strategic issue discussions include 
references to external factors or references to what is happening in 
the program operating environment.
    Question. Through the development of the Performance Plan, has the 
agency identified overlapping functions or program duplication? If so, 
does the Performance Plan identify the overlap or duplication?
    Answer. In fiscal year 1997, a Performance Management Council 
(PMC), led by the Department's Office of Planning and Performance 
Management (PPM) and consisting of GPRA representatives from all DOI 
bureaus, was formed to develop guidelines for preparing strategic and 
annual performance plans and annual performance reports. Throughout the 
development of the strategic and annual performance plans, the PPM 
Office continuously reviews the bureau's strategic and annual 
performance plans and identifies any program duplications. Also, the 
bureau GPRA representatives regularly review the strategic and annual 
performance plans of the other DOI agencies for potential duplication.
    The following is an example of a broad crosscutting effort among 
various agencies to eliminate program reporting duplication.
    The Administration, through the Clean Water Action Plan, directed 
agencies with wetland programs and responsibilities to develop an 
interagency tracking system that will more accurately account for 
wetland loss, restoration, creation, and enhancement by October 1999. 
The agencies were tasked with identifying their contributions toward 
the Administration's goal of 100,000 acres net-gain of wetlands 
annually by the year 2005. To meet this long-term goal, a White House 
Wetlands Working Group was formed to develop consistent definitions for 
wetland restoration, enhancement, and creation. The Group consisted of 
representatives from 16 civilian and military departments/agencies. 
Each agency/department has specific statutory wetlands functions. The 
Department of the Interior was represented by the Fish and Wildlife 
Service, the Bureau of Land Management, the Bureau of Reclamation, and 
the National Park Service. The Group met regularly during fiscal year 
1999, and established five categories of wetland conservation 
activities, Establishment, Re-establishment, Rehabilitation, 
Enhancement, and Protection/Maintenance.
    To assure consistent application of these categories, definitions 
of the categories and beginning conditions of project acres were 
determined. These definitions were used to establish a tracking system 
that will account for agency contributions toward meeting the 
Administration's long-term goal. To avoid multiple counting of wetlands 
conservation activities, specific reporting mechanisms were created for 
project areas done in cooperation with other funding partners. This 
interagency tracking system will ensure that duplication in reporting 
wetlands accomplishments will not occur among various bureaus/
departments.
    Question. Should agencies address management challenges and 
potential duplication of overlapping functions in their GPRA plans, and 
if so, how?
    Answer. Agencies should address management challenges in their 
annual performance plans if they have goals and measures related to 
resolution of the management issue. As management challenges and risks 
may be identified every year and are continually being resolved, it is 
not appropriate to address management challenges in the strategic plan 
because of their three-year revision cycle and five-year planning 
horizon. Potential duplication and overlap of program functions can be 
identified in the annual performance plan as part of the discussion of 
crosscutting issues.
    Question. To what extent has GPRA been used by agency leadership to 
guide decision making? Will this increase in the future, and, if so, in 
what ways?
    Answer. The information and performance measures in our GPRA 
documents are increasingly being used to guide decisionmaking and 
manage programs. As part of Interior's fiscal year 2001 budget process, 
all funding initiatives had to include information about anticipated 
additional levels of performance and accomplishments. Incremental 
increases in performance are part of the decision making information 
used in working with OMB on Interior's funding requests. Starting in 
fiscal year 1998, the Department has held mid-year performance review 
meetings with bureau leadership to assess reported progress in 
achieving GPRA goals. GPRA will prove more valuable in the future as 
our performance data systems become more robust, as we develop activity 
based cost accounting associated with GPRA goals, and as trend 
information is becomes available.
    Question. Future funding decisions will take into consideration 
actual performance compared to expected or target performance. Given 
that: To what extent are your performance measures sufficiently mature 
to allow for these kinds of uses? Are there any factors, such as 
inexperience in making estimates for certain activities or lack of 
data, that might affect the accuracy of the resource estimates?
    Answer. The maturity of performance measures varies bureau by 
bureau. Some bureaus, such as the NPS, have many goals and performance 
measures that have been used for several years. In other bureaus, some 
goals and measures are newly developed while others continue to be 
refined. Based on the fiscal year 1999 reported results, we estimate 
that approximately 70 percent of our goals are sufficiently mature to 
accurately compare expected and actual performance. However, we are 
concerned with the use of performance results from any single year in 
funding decisions. We believe that multiple year trend data is more 
valid and valuable for decisionmaking because it tends to eliminate 
single year aberrations like weather, legal issues, program 
adjustments, and the effects of funding obligations across fiscal 
years.
    We learned a great deal as a result of preparing the first GPRA 
program performance report for fiscal year 1999, and that information 
was used to revise goals for the fiscal year 2001 annual performance 
plan and for ongoing revisions to our strategic plans. For new goals, 
goals with revised performance measures, or goals with updated 
baselines, our ability to establish precise performance targets may be 
limited. In these situations, it may not be possible to accurately 
relate budget resources to projected levels of performance. As noted in 
the question, this is largely due to inexperience with projecting 
target results for new goals or revised goals.
    Question. Are you requesting any waivers of non-statutory 
administrative requirements? Specifically, are you requesting any 
relaxation of transfer or reprogramming controls in return for specific 
accountability commitments?
    Answer. No, we are requesting no waivers.
    Question. Based on your fiscal year 2000 performance plan, do you 
see any need for any substantive revisions in your strategic plan 
issued on September 30, 1997?
    Answer. The OMB A-11 guidance calls for our strategic plans to be 
revised by September 30, 2000. When compared with the first strategic 
plan published by Interior in September 1997, these revised strategic 
plans will include substantive revisions. However, as permitted under 
GPRA, Interior has used the annual performance plans for fiscal year 
1999, fiscal year 2000, and fiscal year 2001 to make minor revisions to 
our strategic plans every year. Taken cumulatively, there are 
substantive changes. For example, the Department has changed from 
having ten commitments in the 1997 strategic plan to having five goals. 
Many of our bureau's goals have been revised, added to, or dropped 
through this process. These changes--revisions to goals, revised 
performance measures and targets--are all based on continuous learning 
as we implement GPRA.

                           PERFORMANCE AWARDS

    Question. Please provide for the record a table displaying, by 
bureau, the total number and dollar amount of performance awards 
provided to departmental employees for the most recent two years which 
data is available.
    Answer. The data requested is displayed in the table provided 
below.

                      NUMBER AND AMOUNT OF PERFORMANCE AWARDS IN FISCAL YEAR 1998 AND 1999
                                           [Amounts in whole dollars]
----------------------------------------------------------------------------------------------------------------
                                                           Fiscal year 1998               Fiscal year 1999
                                                   -------------------------------------------------------------
                      Bureau                                              Average                        Average
                                                     Number     Amount     amount   Number     Amount     amount
----------------------------------------------------------------------------------------------------------------
Bureau of Land Management.........................    7,198   $5,485,703     $762    6,613   $5,432,112     $821
Minerals Management...............................    2,279    1,895,359      831    2,552    2,205,440      864
Office of Surface Mining..........................      408      323,767      793      691      607,676      879
U.S. Geological Survey............................    5,261    5,075,285      965    6,589    6,525,618      990
    USGS, Biological Res. Div.....................      515      576,358    1,119  .......  ...........  .......
Fish and Wildlife Service.........................    7,409    7,089,315      957    8,272    7,950,075      961
National Park Service.............................    6,702    4,519,260      674    8,298    6,319,973      761
Bureau of Indian Affairs..........................    2,658    3,477,962    1,308    2,316    3,222,559    1,391
Departmental Management...........................      861      821,673      954      839      997,904    1,189
Office of the Solicitor...........................      181      175,388      968      116      131,487    1,133
Office of the Inspector Gen.......................       69      102,893    1,491       93      145,381    1,563
                                                   -------------------------------------------------------------
      Total.......................................   33,541   29,542,963      881   36,379   33,538,225      922
----------------------------------------------------------------------------------------------------------------

                             LEAVE NO TRACE

    Field level managers consider Leave No Trace an effective resource 
management tool, viewing an educated public as an efficient means to 
protect and preserve the resources while enabling compatible use and 
enjoyment. Historically, the Congress has supported education as an 
effective management tool.
    Question. In terms of dollars, human resources and time, what is 
your agency's involvement and commitment to the Leave No Trace ethics 
program?
    Answer. The U.S. Bureau of Land Management (BLM) has been an equal 
partner in cooperation with the USDA Forest Service (USFS) in the Leave 
No Trace program. To provide continuity, credibility, and overall 
depth, BLM and the USFS partnered with the National Outdoor Leadership 
School (NOLS) to develop a ``Master of Leave No Trace'' training 
program and establish NOLS as the provider of the education component.
    BLM was the first federal agency to establish a full time National 
Coordinator for the Leave No Trace and Tread Lightly Outdoor Ethic 
programs. BLM's National Coordinator worked closely with NOLS in the 
development of educational materials and in training of agency 
personnel as ``Masters of Leave No Trace.'' BLM provides 12 
scholarships annually for personnel to take the ``Masters'' course. To 
date, some 120 BLM personnel have become ``Masters'' through this 
program. BLM selected State Leave No Trace Coordinators from these 
``Masters'' who have demonstrated their commitment to the program. 
State Coordinators distribute Leave No Trace educational materials and 
train over 79,000 people annually. It is also BLM's goal is to have a 
``Master'' in every field office to reach even more of the public.
    Desiring to see the program expand into the private sector and 
become more self sufficient, BLM worked with the USFS to create a 
private nonprofit organization (Leave No Trace, Inc.), to administer 
the Leave No Trace program. The BLM National Coordinator serves as an 
advisor to the private organization's Board of Directors. An Education 
Review Committee was established within Leave No Trace, Inc. The BLM 
National Coordinator is a member of that committee, which meets every 
three months.
    The BLM Leave No Trace Coordinator takes the lead every third year 
to develop and administer and interagency coordinators meeting among 
BLM, USFS, National Park Service and US Fish and Wildlife Service 
state, regional and refuge coordinators to keep everyone informed and 
enthused about the Leave No Trace program.
    To increase the awareness and use of Leave No Trace within the 4.2 
million Scouts and 1.2 million scout leaders in the Boy Scouts of 
America (BSA), BLM developed a ``Leave No Trace Awareness Award'' 
within the BSA. It is now a recognized national BSA award for Scouts 
and Scout leaders. BLM also coordinates a special training effort each 
year for all the Boy Scout staffs at the National Philmont and Northern 
Tier Canoe Base (Boundary Waters).
    Question. How much money does your agency spend annually on the 
Leave No Trace program? What is the agency's historical expenditure on 
the Leave No Trace program? How do these amounts, historical and 
current, compare with other major public education programs within the 
agency? (For example: Smokey Bear and Woodsy Owl.
    Answer. U.S. Bureau of Land Management spends $155,000 annually to 
support the National Coordinator position, State Coordinator, 
educational materials and training for Masters of Leave No Trace. BLM 
spends an additional $297,000 for work month support of the ``Masters 
of Leave No Trace'' for their work within the program. These 
expenditures combined reflect an annual expenditure of $452,000.
    BLM's real involvement within the Leave No Trace program began in 
the late 1980's with a few thousand dollars to purchase USFS Leave No 
Trace posters and brochures. By 1992 when the BLM's Washington Office 
established a Leave No Trace National Coordinator position, $70,000 was 
being spent in support of the program. By 1995, the use and 
distribution of many new educational materials, establishment of State 
Coordinators and support of several ``Masters'' saw the expenditures 
reach $115,000. The support dollars have risen proportionately from 
1995 as the additional ``Masters'' have been trained and work to 
support the program.
    In answer to the last part of this question, Smokey the Bear and 
Woodsy Owl are mascots for issue-specific public education campaigns 
administered by the U.S. Forest Service. Within the agency, Leave No 
Trace is the BLM's pre-eminent public education program from which all 
other bureau public education programs are based. As a general rule, 
these other programs are not tracked for comparison purposes since they 
are limited to specific geographical areas.
    Question. What is your agency doing to establish Leave No Trace as 
a recognized resource for the manager? For the public?
    Answer. State Leave No Trace Coordinators and ``Masters of Leave No 
Trace'' within our field offices are meeting with managers and field 
personnel to show and demonstrate to them how utilizing the principles 
of Leave No Trace can encourage the public to minimize their impacts on 
the land. Managers and field specialists are also being shown how Leave 
No Trace principles can be utilized as stipulations for all types of 
activities and resource uses on public lands.
    The Leave No Trace program has been integrated into several 
training courses for managers and field specialists to further 
recognize and emphasize Leave No Trace as a viable tool for land 
resource management and land stewardship education. The steadily 
increasing number of individual field specialists who are becoming 
masters also helps managers see what an important resource this is. 
Before field specialists are permitted to take a ``Master of Leave No 
Trace'' Course, their managers must agree to allow them to have the 
time to implement the program within the field office.
    The establishment of State Leave No Trace Coordinators in each 
state, and the goal of having a ``Master'' in every field office is 
helping to demonstrate and recognize this important tool for management 
of natural resources on public lands.
    BLM is helping the publics we serve recognize Leave No Trace as a 
resource for preserving and enhancing public lands through a variety of 
means. One of the largest public organizations that utilize BLM 
administered lands are the Boy Scouts of America (BSA). BLM has worked 
for the last nine years to substantially increase the awareness of 
Leave No Trace as an important resource for BSA by:
    (1) Developing a ``Leave No Trace Awareness Award'' which has now 
been implemented within BSA nation wide.
    (2) Coordinating a federal interagency team to provide Leave No 
Trace training at all National Scout Jamborees, Order of the Arrow 
(Service Arm of Scouting) Conferences, National Scout Camps and Scout 
Council camps and activities. (i.e. 22,000 Scouts & leaders were taught 
at the 1997 National Scout Jamboree at Ft. AP Hill, Virginia during the 
9 days of the Jamboree)
    (3) Assisting in getting Leave No Trace principles within the Boy 
Scout Handbook, leader manuals, and other Scout publications
    (4) Developing an 81 page Leave No Trace activity booklet for Boy 
Scout leaders, Girl Scout leaders, and school teachers.
    BLM is a major supporter of community programs and activities in 
promoting an increased public awareness and use of the Leave No Trace 
program. Our 120 ``Masters of Leave No Trace are reaching over 79,000 
members of the public annually. Posters, displays and brochures are 
displayed in BLM public rooms and field offices across the country to 
recognize Leave No Trace as an important resource.
    Question. What would be the ideal structure to efficiently and 
effectively evolve Leave No Trace within you agency?
    Answer. The Recreation Program of BLM has the primary 
responsibility for managing people who use the public lands for 
recreational purposes. As such, it is ideally suited to efficiently and 
effectively promote, coordinate, and evolve Leave No Trace within BLM. 
State Leave No Trace Coordinators, who are real advocates of the 
program, use it in their daily dealings with the public, and are 
committed, enthused and anxious to evolve the program.
    With management support from the top, national, state and field 
Outdoor Recreation Planners can evolve the program most efficiently and 
effectively. There is also strong support from the acting BLM Director 
Tom Fry, Assistant Directors and State Directors. The Department of the 
Interior has also expressed their support and commitment for the 
program. With managements support and commitment to the program, the 
Recreation program can efficiently and effectively evolve the program.
    Question. Through programs such as Smokey the Bear, your agency has 
proven a commitment to and the value of public outreach and education. 
Given today's concentration on recreation impacts and resource 
preservation, what is the agency strategy to establish Leave No Trace 
and similar conservation education initiatives as the Smokey equivalent 
in funding, resources, and long-term benefits?
    Answer. The BLM and the USFS early realized that ensuring the 
future of the Leave No Trace program and the financial means to reach 
all of the public land users would require sufficient funding to build 
the program. The chosen tool was the creation of a private nonprofit 
organization to administer the program, and get private partners to 
disseminate the message and fund initiatives, development of 
educational materials, and special outreach teams to expand our 
outreach efforts.
    Leave No Trace, Inc. is the private nonprofit organization that was 
created to help move the program forward and recruit private partners 
to help convey the message and fund the outreach efforts. This is the 
most efficient and effective means of maximizing BLM's limited funding, 
resources to achieve the long-term benefits that can result from 
educating the public with regards to embracing the principles of Leave 
No Trace.
    Question. What is the most effective means of allocating funding 
that will go toward solidifying your agency's commitment to education 
and Leave No Trace as a recreation management tool? Is it a general 
appropriation to the agency; an appropriation to personnel training and 
education; an appropriation for public outreach and education; or a 
line item earmarking funds for Leave No Trace?
    Answer. Currently, the Leave No Trace Program is funded within the 
BLM's base for labor. Although the most effective means to advance the 
Leave No Trace Program is for Congress to provide a direct line item 
increase in funding for the program, this would have adverse effects if 
it were carved out of or earmarked from base funds without providing 
additional funding capability. This would only cause service in other 
critical resource protection efforts to decline. To date the 
Administration has not requested this as a direct line item.
    Question. Your agency developed the Leave No Trace ethic and has 
signed on as a national partner with the program. How can congressional 
oversight provide support and encouragement of Leave No Trace as an 
effective land management, resource education and recreation impact 
tool?
    Answer. Congressional oversight could encourage emphasis and 
support on the importance of Leave No Trace in the education of the 
public as a management tool for protecting and enhancing natural 
resources on public lands. Congressional oversight would emphasize the 
interest and desire of Congress, on behalf of the American public, to 
utilize the Leave No Trace program in preservation and protection of 
public lands. The establishment of State Leave No Trace Coordinators in 
each state, and the goal of having a ``Master'' in every field office 
is helping to demonstrate and recognize this important tool for 
management of natural resources on public lands.
    Question. How can Leave No Trace and other conservation education 
programs best be utilized to involve the American people as partners in 
resource preservation, thereby mitigating human impacts; stretching 
management resources and funds; and dampening the pressure to regulate 
or restrict use?
    Answer. When the American people see all the federal partners, 
private nonprofit organizations and private partners working together 
to promote and implement the Leave No Trace program, they will sense 
the value we see in principles in terms of resource preservation and 
will have a much greater desire to be a part of it.
    As we jointly teach the American people the principles of Leave No 
Trace, they will have a greater desire to embrace the principles and 
become our partners in preservation of natural resources.
    We have to demonstrate to the public that making the principles of 
Leave No Trace a part of their lives will preserve the natural 
resources that they come to the public lands to enjoy. Once they see 
what's in it for them, they will have a greater desire to be partners.
    The principles of Leave No Trace should be implemented into all 
aspects of use and utilization of natural resources on public lands. 
These principles should become an integral part of natural resource 
preservation. If it is a way of life for us, the American people will 
have a greater desire to make it a way of life for them.

                     NATIONAL MONUMENT DESIGNATION

    Question. Please provide the status of the Department's 
negotiations over legislation to declare the Santa Rosa and San Jacinto 
mountains a national monument. How do you expect these negotiations to 
proceed over the next 30 days?
    Answer. On March 16, 2000, the Secretary testified before the House 
Resources National Parks and Public Lands Subcommittee in opposition to 
HR 3676, the Santa Rosa and San Jacinto Mountains National Monument 
Act. Following the hearing, the Secretary and his staff entered into 
discussions with Representative Bono and the committee staff and they 
successfully addressed our concerns. On July 25, 2000, HR 3676 passed 
the House and was referred to the Senate. With Senator Feinstein's 
sponsorship, the bill is scheduled for a hearing before the Senate 
Energy and Natural Resource Committee on September 13, 2000. The 
substantive concerns of the Department have been addressed, and we are 
eager to see the bill signed into law.
    Question. What amount of funding will the Department of the 
Interior require for management of new monuments in fiscal year 2001, 
including the three new monuments declared by the President in January 
and any additional monuments that you anticipate being declared by the 
President in the remainder of fiscal year 2000?
    Answer. As stated in the BLM's fiscal year 2001 budget submission 
to Congress, the BLM request for funding for interim management, 
resource protection, and public outreach activities at Agua Fria, Grand 
Canyon-Parashant, and California Coastal National Monuments will be 
$5.3 million. The funding request for resource management planning is 
$1.3 million for these three monuments.
    The BLM is in the process of developing cost estimates for the 
recently created Ironwood, Canyons of the Ancients, and Cascade-
Siskiyou National Monuments.

                 USE OF GOVERNMENT ISSUED CREDIT CARDS

   Question. What type of policy does the Department of the Interior 
have regarding the issuance and use of government credit cards?
    Answer. The fundamental elements of the Department of the 
Interior's charge card policy are:
  --Charge cards are issued by the Bank of America under the auspices 
        of the General Services Administration's SmartPay contract.
  --Interior's charge cards are integrated, meaning that a single card 
        may be used for official purchase, travel, and/or fleet 
        requirements. Individuals with responsibilities for purchasing 
        and/or fleet management are issued integrated cards. Employees 
        that do not have these responsibilities are issued cards that 
        can be used for travel only.
  --A charge card may be issued to any employee with a need and a clean 
        record of responsible government charge card use. Purchase 
        authority is limited to employees who have received additional, 
        required program training.
  --Roles and responsibilities of cardholders, transaction reviewing 
        officials, and other agency officials are clearly defined 
        regarding compliance with Federal acquisition, property 
        management, and travel regulations, the Bank of America 
        Cardholder Agreement, and the SmartPay contract terms and 
        conditions.
  --Charge card misuse is explicitly defined, and appropriate penalties 
        for charge card abuse, including payment delinquency, are 
        required.
  --Proper procedures for charge card account use and maintenance are 
        spelled out.
    In November 1998, to coincide with charge card issuance under the 
SmartPay program, the Department issued its Integrated Charge Card 
Program Guidelines. The guidelines supplement the SmartPay contract, 
Bank of America Cardholder Agreement, and applicable regulations such 
as the Federal Travel Regulations (for travel charge accounts), Federal 
Acquisition Regulation (for purchase charge accounts), and the Federal 
Property Management Regulations (for fleet charge accounts). This 
policy document includes general charge card guidance applicable to all 
three business lines, as well as specific requirements related to each 
business line. Charge card policy has been supplemented by charge card 
bulletins, advisories, and other guidance issued by the Assistant 
Secretary--Policy, Management and Budget and the Director, Office of 
Acquisition and Property Management. Procedural changes made necessary 
by the Travel and Transportation Reform Act, Public Law 105-264, have 
been covered by revisions to the November 1998 guidelines. This 
revision was issued in final May 22, 2000. In addition, the Office of 
Financial Management issues periodic Financial Administration Memoranda 
on topics relating to charge card use and card program administration, 
primarily for travel related issues and technical instructions on 
matters such as electronic funds transfer. The DOI guidelines on charge 
card use is available at our website: http://www.ios.doi.gov/pam/
charge.html.
    Question. For what purposes are employees authorized to use the 
government credit cards?
    Answer. Employees who are issued a card, and have completed 
applicable training, are authorized to use the charge card only for 
official travel, purchase, or fleet transactions. Employees are not 
authorized to use the government card for personal transactions, nor to 
allow another person to use their card for any reason.
    Question. Who has established the policies regarding the use of the 
credit cards?
    Answer. The Assistant Secretary--Policy, Management and Budget is 
responsible for management and oversight of the charge card program. 
The Department's Office of Acquisition and Property Management, in 
cooperation with the Office of Financial Management, is responsible for 
developing and issuing policies regarding use of the charge cards.
    Question. How is this information disseminated to the Department's 
employees?
    Answer. The Guidelines have been provided electronically to 
designated bureau Program Coordinators, who then redistribute them to 
subordinate program coordinators, designated reviewing officials, 
procurement, travel, fleet and financial managers, and cardholders. In 
addition, they are posted on the Office of Acquisition and Property 
Management's charge card web site at: http://www.ios.doi.gov/pam/
charge.html. The Bank of America provided training to more than 2,000 
Program Coordinators in the fall of 1998, which included instruction on 
the (then) draft Guidelines.
    Charge card bulletins and other supplementary materials are 
distributed through routine correspondence channels.
    Financial Administration Memoranda are distributed through routine 
correspondence channels and are also available on the Internet at 
http://www.doi.gov/pfm/fams.html#2000.
    Standard cardholder orientation is supplemented with instruction in 
basic contracting for the 23,000 purchase card holders.
    Weekly meetings are held with all the Program Coordinators to 
refine policy implementation, review program status, resolve 
operational issues and rapidly circulate information.
    Every cardholder is sent a written Cardholder Agreement, which 
clearly states that the card is for official use only, and provides 
additional information about the cardholder's responsibilities. They 
are also provided a wallet-sized card printed with reminders of proper 
charge card use. The card sleeve is printed with ``For Official Use 
Only,'' as are the cards themselves. The cards are printed with a 
distinctive background pattern that may not be used for any non-
government cards.
    Question. Do any of these policies vary from bureau to bureau?
    Answer. No, the Department's fundamental charge card policy does 
not vary from bureau to bureau. However, bureaus are responsible for 
developing unique, day-to-day operational procedures. Some bureaus have 
added more restrictive requirements to address risk mitigation, based 
on experience with previous card programs. For example, the Bureau of 
Indian Affairs set a lower limit ($250 per week) for cash advances than 
did the other bureaus ($500 per week).
    Question. If so, why?
    Answer. The policies do not vary, but their implementation in 
certain bureaus may be more restrictive to mitigate risk.
    Question. How many employees have been issued government credit 
cards, Department-wide and per bureau?
    Answer. The Bank of America has issued almost 54,000 charge cards 
to Interior employees under the SmartPay program. Approximately 20,300 
additional cards are assigned to Interior-owned vehicles or equipment 
in order to allow multiple users to purchase fuel and maintenance 
services. The following chart provides information on relative bureau 
card program size, based on most recent bank data.

            INTERIOR BUREAU CARD PROGRAM ACCOUNTS, APRIL 2000
------------------------------------------------------------------------
                                                    Number of   Percent
                      Bureau                         accounts   of total
------------------------------------------------------------------------
Minerals Management Service.......................      1,496        2.8
Office of Surface Mining Reclamation and                  593        1.1
 Enforcement......................................
Fish and Wildlife Service.........................      7,476       13.9
National Park Service.............................     12,739       23.7
Bureau of Indian Affairs..........................      5,464       10.1
Bureau of Reclamation.............................      4,981        9.3
Office of the Secretary...........................      1,841        3.4
U.S. Geological Survey............................      8,193       15.2
Bureau of Land Management.........................     11,006       20.5
                                                   ---------------------
      Total DOI...................................     53,789        100
------------------------------------------------------------------------

    Question. Has abuse of the government credit cards been worse in 
the Bureau of Indian Affairs than in other bureaus?
    Answer. We do not have concrete information whether unauthorized 
use is more prevalent in the Bureau of Indian Affairs (BIA) than in 
other bureaus. We have asked the Department's Inspector General to 
conduct a review of the entire program to assess the scope of possible 
abuse. (See Question 10 for a discussion of delinquencies.
    Question. If so, why? If not, is there another bureau that has had 
the most problems with abuse?
    Answer. We do not yet have the information to answer this question.
    Question. What has been the overall level of violations, abuse 
(regarding both unauthorized use of the credit cards and/or nonpayment 
of credit card balances)?
    Answer. At Interior, delinquencies (past due cardholder accounts) 
and charge-offs (accounts that are more than 210 days overdue that have 
been ``charged off'' as bad debts by the bank, as required by the 
Comptroller of the Currency regulations) only occur in the context of 
individually billed travel accounts. All other charge accounts are paid 
on an average of four days after receipt of daily invoices. Overall, 
Interior's delinquency rates are lower than Bank of America's other 
government customers. Based on data from the bank for the second 
quarter (January--March 2000), Interior's average delinquency rate is 
4.4 percent, as compared to 7.6 percent for other non-Defense agencies 
and 24.8 percent for the Department of Defense. Our average net charge-
off rate during the same period was 3.3 percent, while the bank's other 
non-Defense government customers averaged 3.5 percent and the 
Department of Defense averaged 16.8 percent. In contrast, our 
delinquency rate in May 1998 under the former travel card contract with 
American Express was 9 percent.
    We attribute this improvement to billing more types of travel-
related transactions directly to our bureau accounts rather than 
through the cardholder (such as rental cars), significant attention to 
risk mitigation (for example, not issuing new accounts for employees 
with a record of delinquency under the American Express contract), and 
improved reporting capabilities under the SmartPay program. Under the 
American Express contract, the National Park Service had the highest 
delinquency rate; under SmartPay, the Bureau of Indian Affairs 
currently has the highest rate. The Bureau of Indian Affairs' rate has 
been dropping recently as a result of aggressive management action.
    Question. What kind of discipline has resulted from the abuse?
    Answer. Disciplinary actions include counseling by supervisors, 
limitation or loss of card privileges, verbal reprimands, written 
reprimands, suspension, and termination of federal employment.
    Question. How many employees have been disciplined, Department-wide 
and per bureau?
    Answer. No central database or record of statistics exists on 
disciplinary actions related to charge card misuse attributed to 
unauthorized use of the cards. In an informal survey, bureau and office 
Program Coordinators reported about 100 actions.
    Question. How many employees have been indicted, Department-wide 
and per bureau?
    Answer. Based on information from the Inspector General's office, 
three employees have been indicted on card-related charges since the 
SmartPay program began. Two were from the Bureau of Land Management and 
one from the Bureau of Indian Affairs.
    Question. How many employees have been convicted, Department-wide 
and per bureau?
    Answer. None of the three indictments has progressed to the point 
of trial yet. Under the previous purchase card program, a small number 
of employees were convicted as a result of card-related abuses.
    Question. Has the Department recently engaged in any changes in 
policy, enforcement, and discipline to help curb abuse of the credit 
card use?
    Answer. Yes, we track and report delinquency data at monthly 
meetings of top Department managers. The Guidelines have been revised 
to expand coverage regarding charge card misuse, delinquency, and basic 
consumer/cardholder safeguards. We expect to begin salary offsets for 
charged-off and severely delinquent accounts within the next 60 days. 
An expanded array of electronic transaction reports has been developed 
by the Bank of America and made available to assist in program 
oversight. Charge card use can be tracked to the transaction, making 
the tracking of unauthorized card use more accurate and timely than 
ever before. We understand that there are problems, but they have 
typically been caused by a minute portion of our cardholders, and 
represent a very small fraction of our total transactions.

                       Bureau of Land Management

                         MONUMENT DESIGNATIONS

    On January 11, 2000 the President established three new national 
monuments to be managed by the Bureau of Land Management (BLM).
    Question. How will these designations change the way these Federal 
lands will be managed?
    Answer. In general, actions that are not precluded by the 
applicable Presidential proclamation and that do not conflict with the 
general purposes of the Monument can continue. Where the BLM finds that 
an activity may conflict with the Monument's purposes, such activities 
would be restricted.
    The President's proclamations have provided specific direction 
regarding certain uses that may occur in monuments managed by the BLM. 
Each proclamation provides that Federal lands and interests in lands 
within a designated monument are withdrawn from all forms of entry, 
location, selection, sale, leasing, or other disposition under the 
public land laws, including, among others, the mineral leasing and 
mining laws. Further, the proclamations provide that valid, existing 
rights will still be recognized after the Monument's designation. The 
following activities are generally unaffected by the proclamations that 
have designated BLM land as national monuments:
  --The State's responsibilities and authorities regarding wildlife 
        management, including fishing and hunting, within the Monument 
        are unaffected by the proclamation,
  --Grazing activities shall continue to be governed by applicable laws 
        and regulations other than the applicable proclamation, and
  --Existing withdrawals, reservations, or appropriations are not 
        revoked, but the Monument is the dominant reservation.
    Question. What effect will the establishment of these new monuments 
have on the economies of the surrounding local communities?
    Answer. At this time, the BLM cannot predict precisely what effect 
the establishment of these new monuments will have on the economies of 
surrounding communities. Some recently designated monuments, such as 
Grand Staircase/Escalante, have experienced a seasonal increase in 
visitation, while other more inaccessible areas have not seen an 
increase in visitation. If the monuments increase visitation to the 
area in general, it is expected that the local communities will receive 
additional economic benefits and revenues from increased visitation.
    During the land use planning process for each monument, the BLM 
will analyze how the monuments will affect the communities and evaluate 
the impacts of the designation on those communities.
    Question. How will the Department and the BLM deal with individuals 
and companies that have valid existing rights?
    Answer. The President's proclamations are subject to valid existing 
rights. The Department and the BLM will continue to work with 
individuals and companies to honor valid existing rights. The planning 
process for these monuments is a public process and public comments are 
invited at various stages throughout the process. Individuals and 
companies will have an opportunity to actively engage in the NEPA 
planning processes that are moving forward in each of the newly created 
national monuments.
    Question. Will the Committee be faced with future requirements to 
construct new and costly visitor centers for these monuments?
    Answer. There is no requirement stipulating construction of new 
visitor centers for these monuments. During the planning process, the 
BLM will evaluate the need for new visitor centers to accommodate 
public interest in the new monuments. Due to the proximity of Agua Fria 
National Monument to a major metropolitan center and transportation 
corridors, it is likely that the Monument will require some kind of 
outreach center. If a center is recommended, the BLM will make every 
effort to design one that is cost effective and to develop the center 
in partnership with local communities, encouraging cost-sharing and 
locations outside the monument.
    Question. Will you be developing comprehensive management plans for 
these lands similar to the plan developed for Grand Staircase-Escalante 
National Monument?
    Answer. The BLM will be developing comprehensive management plans 
for these lands similar to the plan developed for Grand Staircase-
Escalante National Monument.
    Question. If yes, when do you expect these plans to be completed?
    Answer. The BLM requested funding in the fiscal year 2001 Budget to 
formulate plans for the new monuments and will develop a schedule for 
completion when plan formulation begins.
    On February 16, 2000 the Secretary announced his intention to 
establish new ``National Landscape Monuments'' designations for the 
protection of certain Bureau of Land Management lands.
    Question. Can you provide some of the details to this new proposal?
    Answer. The national landscape monument concept is a useful 
construct to frame the BLM's management of specifically protected 
units, including the newly created national monuments and existing 
national conservation areas (NCAs). Considering the BLM's two major 
land conservation unit designations and other special areas as one 
system will help ensure coordinated planning efforts to support 
adequate funding and resource objectives are achieved. These 
conservation components have already been designated either by an Act 
of Congress or Presidential Proclamation pursuant to Congressional 
statute. They include the Congressionally designated NCAs: King Range 
in California, Steese in Alaska, El Malpais in New Mexico, San Pedro 
Riparian in Arizona, Red Rock Canyon in Nevada, Gila Box Riparian in 
Arizona, Snake River Birds of Prey in Idaho, and Gunnison Gorge in 
Colorado; and BLM monuments created by Presidential Proclamation under 
the Antiquities Act, including: Grand Staircase-Escalante in Utah, Agua 
Fria in Arizona, and Grand Canyon-Parashant in Arizona.
    Question. What other areas are you considering for National 
Monument designations?
    Answer. The Secretary is committed to pursuing protective 
designations for significant landscapes through the legislative 
process. In the past such legislative protection has been provided 
through the National Conservation Area designation. In the current 
Congress, legislation has been introduced which proposes creating the 
Santa Rosa and San Jacinto Mountains National Monument, which would 
encompass BLM managed lands in California. No other legislative 
proposals for BLM National Monuments are pending before Congress. 
Several proposals have been introduced in Congress for new BLM National 
Conservation Areas or other protective designations. On August 11, 
2000, the Secretary recommended to the President that he establish a 
new national monument at Vermilion Cliffs in Arizona and expand the 
Craters of the Moon National Monument in Idaho. The President has not 
acted on these recommendations. The Secretary has since stated that he 
does not intend to recommend to the President any further national 
monument designations unless current legislative efforts in this 
session fail.
    Question. For how many of these do you anticipate making a monument 
designation?
    Answer. The Secretary is committed to pursuing protective 
designations for significant landscapes through the legislative 
process. He is hopeful that most if not all of these areas would be 
protected by legislative designations. Because legislative progress on 
such designations is uncertain, there is no specific number of 
potential monument designations.

                            COAL BED METHANE

    The Congress provided an additional $2.5 million for processing 
Applications for Permits to Drill (APD) due to increased coalbed 
methane development.
    Question. How many permits were processed in fiscal year 1999 and 
fiscal year 2000? How many does the agency expect to process in fiscal 
year 2001?
    Answer. In fiscal year 1999, there were 170 Coal Bed Methane (CBM) 
Application Permits to Drill (APD's) processed. Thus, far, in fiscal 
year 2000 BLM has processed 600 permits. The BLM expects to process 400 
more this fiscal year. In fiscal year 2001 we expect to process 1,000 
to 1,200 CBM APD's.
    Question. What is the current backlog of permits? What is the long-
term trend for necessary funding to process APD's?
    Answer. Within the BLM Wyoming Powder River Basin, there are 
approximately 2,400 Applications for Permit to Drill (APD's) pending 
for CBM development. The fiscal year 2001 President's Budget includes 
$2,127,000 to process 1,000 CBM APD's in addition to the average BLM 
Wyoming Powder River Basin workload. We anticipate that over the next 8 
to 10 years operators/industry in the BLM Wyoming Powder River Basin 
will submit more than 1,000 CBM APD's per year for approval. Without 
increased capability, an APD backlog will develop. To meet this 
workload demand and have the resources to process an estimated 1,500 
CBM APD's per year, our budget will need to be increased by $873,000, 
for a total of $3,000,000 per year above our current base funding level 
in the Wyoming Oil and Gas program. The permitting of 12,000 to 15,000 
CBM wells in the next 10 years will also necessitate the continued base 
funding increase of $3,000,000 in the out years. The reason for this 
being; (a) compliance and monitoring of the environmental protection 
activity; (b) carrying out the inspection and enforcement/production 
verification responsibilities as a result of this cumulative increase; 
and (c) related operational monitoring, compliance and reclamation 
efforts commensurate with this increase in CBM activities. These BLM 
funding needs will be long term in nature, with the addition to the 
program base remaining until final abandonment and reclamation of the 
wells is completed.
    Question. What is the status of the Environmental Impact Statement 
(EIS) which is designed to replace the Wyodak EIS which was completed 
in 1999? How many wells will this EIS authorize to be drilled? How, if 
at all has BLM factored in development on State lands so that the EIS 
will be capable of dealing with production issues for more than just 
one or two years as was the case with the Wyodack EIS?
    Answer. The Wyodak EIS did cover all lands, including non-federal 
lands, within the EIS boundary. The Powder River Basin Oil and Gas EIS 
will cover the area of the previous Wyodak EIS as well as additional 
areas with potential for CBM development within the Wyoming portion of 
the Powder River Basin. The Wyoming State Director approved an MOU on 
April 4, 2000, that establishes a funding agreement between industry 
and the BLM for development of this EIS. This agreement is presently 
being reviewed by industry representatives, with the anticipation that 
a contract for the preparation of the EIS will be awarded early next 
month. The BLM's contribution to the EIS effort will be primarily in 
the areas of air and water quality and quantity studies and modeling. 
Scoping meetings have been held in Sheridan, Wyoming, on June 6, 2000; 
in Buffalo, Wyoming, on June 7, 2000; in Gillette, Wyoming, on June 8, 
2000; and Douglas, Wyoming, on June 12, 2000.
    The final Wyodak EIS contained a Reasonably Foreseeable Development 
scenario for CBM and analyzed the environmental impacts of 5,000 total 
wells, federal and non-federal, on approximately 2,300,000 acres within 
the Powder River Basin (PRB). During preparation of the Wyodak EIS, the 
Wyoming Oil and Gas Conservation Commission (WOGCC) continued to accept 
and approve applications for a permit to drill on non-federal mineral 
leases. By the time the BLM Wyoming State Director signed the Wyodak 
EIS Record of Decision in November 1999, the WOGCC had already 
permitted approximately 4,000 non-federal wells. As a result, the BLM 
was allowed to approve approximately 1,000 wells on federal mineral 
leases. Since approximately 80 percent of the development had or will 
occur on non-federal leases, the potential of gas being drained from 
federal leases and produced from non-federal wells is significant. As a 
matter of fact, in some areas of the Wyodak study area, BLM reservoir 
analysis indicates that substantial drainage is already occurring. In 
order to protect the federal gas resource from further drainage, the 
BLM has initiated a Drainage Environmental Assessment (EA). The BLM 
hosted a scoping meeting in Gillette, Wyoming, on April 11, 2000. This 
meeting was attended by approximately 125 individuals.
    The number of wells to be addressed by the Powder River Basin EIS 
will be between 30,000 and 50,000 while the Drainage EA will consider 
between 1,500 and 2,500 wells. These numbers are based on estimates 
from both the BLM and the oil and gas industry. The Powder River Basin 
EIS well numbers represent the total number of CBM and conventional oil 
and gas wells anticipated being drilled on both federal and non-federal 
mineral leases during the next ten years. The Drainage EA well numbers 
will be limited in consideration to federal wells only.
    Question. What has BLM's role been with respect to coalbed methane 
development in the Powder River Basin in Montana? Is industry interest 
in Montana expected to be as great as it has been in Wyoming? When will 
significant production in Montana commence?
    Answer. The BLM, Miles City Field Office is working closely with 
Redstone Gas Partners, Powder River Gas and Pennaco Energy on coal bed 
methane development in the Powder River Basin in Montana. They are 
working on environmental assessments (EA) for their areas of interest. 
These EAs are being prepared in close coordination with both the 
Montana Department of Environmental Quality and the Department of 
Natural Resources Council and with the U.S. Geological Survey. The 
Pennaco Energy EA, completed on July 13, 2000, allows Pennaco Energy to 
drill and test 5 wells. Additional environmental analysis is required 
before any wells can be put into production. There are 72 applications 
for permits to drill on file pending completion of the environmental 
documents. There is significant interest in coal bed methane 
development in Montana, although at this time there is not sufficient 
data to project whether or not interest will be as strong as it is in 
Wyoming. There are approximately 130 methane wells currently producing 
in the area, however, all of these are privately-owned wells.
    Question. Recently litigation was filed in Montana with respect to 
the discharge of water associated with coal bed methane development. 
What is the current status of this litigation? What impacts might it 
have on the BLM's program? Has BLM done an analysis of water impacts 
from coal bed methane development?
    Answer. The recent litigation filed by the Northern Plains Resource 
Council (NPRC) against the Montana Board of Oil and Gas Conservation 
(Board) in respect to the discharge of water has not been resolved. The 
Board met with the NPRC on April 26, 2000, in Helena and discussed 
terms of settlement. The BLM was invited to be in attendance at the 
meeting. On June 20, 2000, the Board and the NPRC reached a tentative 
settlement. A motion to intervene was filed by 7 CBM operators on July 
11, 2000, and a decision on this motion is pending a court hearing 
scheduled for September 7, 2000. The Board is currently not issuing any 
CBM drilling permits until the settlement agreement reached between the 
Board and the NPRC is approved by the Court. It is unclear at this time 
how the litigation may impact the BLM's program. Our plan at this time 
is to continue to work on the EAs for CBM in the Montana portion of the 
Powder River Basin. If a finding of no significant impact is 
determined, the pending applications for permit to drill will be 
approved. The water impacts from methane development are being analyzed 
in the EAs that are being prepared.

                         LAND MANAGEMENT PLANS

    The agency has asked for a $19 million increase to update its land 
management plans.
    Question. How many plans does the agency expect to update or 
replace during fiscal year 2001 if this increase is provided? How many 
plans need to be updated?
    Answer. Preparing a land use plan (LUP) can take two or more years 
to complete. For this reason none of the planning efforts initiated 
with the proposed increase will be completed in fiscal year 2001. The 
BLM does anticipate that if the funding in the President's Budget is 
provided, between 2001 and 2004 the following will be completed: 
Management plans for 6 military ranges as required by the Military 
Withdrawal Act of 1999 (Public Law 106-65); 12 LUPs covering 3 new 
National Monuments and 9 existing National Conservation Areas; 17 new 
or revised LUPs (11 of these plans consolidate and replace 19 older 
land use plans, thereby reducing the total number of plans to maintain 
over time); and preparation of 12 separate plan amendments to update 21 
existing land use plans.
    Over time, all land use plans must be updated. Many of BLM's 162 
LUP's are aging. Approximately 21 percent are less than 10 years old 
and can be generally considered current, 50 percent are between 10 to 
20 years old and 39 percent are older than 20 years. An initial 
assessment to determine our highest priority planning needs is 
summarized in the Report to the Congress entitled ``Land Use Planning 
for Sustainable Resource Decisions'' (attached). We are scheduled to 
complete comprehensive evaluations of all of our land use plans (LUPs) 
by the end of fiscal year 2002, by which time detailed information will 
be available concerning deficiencies of all existing plans.
    Question. In what geographical areas has the BLM been sued based on 
outdated land management plans? Does the agency anticipate more such 
suits this fiscal year?
    Answer. The BLM has been increasingly faced with litigation arising 
from issues such as mineral development activity, off-highway vehicle 
(OHV) use, grazing, and endangered species issues throughout the 10 
public lands states in the West. In California, the BLM recently 
received a Notice of Intent to File Suit on Endangered Species Act 
compliance issues related to their land use plans. In Arizona and New 
Mexico, BLM has recently settled several endangered species related 
lawsuits. These settlements have addressed the BLM's failure to consult 
more extensively with the U.S. Fish and Wildlife Service, prepare 
biological assessments, reinitiate consultation on land use plans and 
associated Environmental Impact Statements, and implement additional 
monitoring and planning actions.
    In the area of mineral development, successful planning for future 
coal and non-coal extraction requires that the BLM address new 
environmental standards and cumulative impacts in the Powder River 
Basin of Wyoming and Montana. Failure to address these concerns could 
result in litigation over future leasing decisions and significant 
delays in leasing coal reserves. These delays, particularly for current 
coal operators whose operations are short on reserves, could lead to 
mine closures or financial losses which impact royalty income to 
Federal and State Governments, as well as coal availability nationally.
    Other instances of litigation directly or indirectly relating to 
allegedly outdated land use plans include: San Juan Citizens Alliance 
v. Babbitt (00-S-379) in the District Court of Colorado; Montana 
Wilderness Association v. Tom Fry, Larry Hamilton, BLM; and Macum 
Energy, Inc. challenging lease sales done without adequate National 
Environmental Policy Act work for rights of way for a natural gas 
pipeline and lease issuance in the Upper Missouri River Corridor in 
Montana; Gallatin Wildlife Association, National Wildlife Federation v. 
Scott Powers, Field Manager, Dillon Field Office, BLM, alleging lack of 
a resource management plan to support oil and gas activity in Montana; 
Southern Utah Wilderness Alliance, et al. v. Babbitt, 11/23/99, 
alleging that BLM has failed to comply with executive orders outlining 
the use and management of off-highway vehicles (OHVs) on public lands, 
particularly as it relates to wilderness study areas and other areas 
with wilderness characteristics; Forest Guardians v. BLM regarding 
grazing in the Albuquerque district; and Wyoming Outdoor Council, et 
al. v. U.S. Forest Service, Michael Dombeck, Chief, and BLM, Tom Fry, 
Acting Director concerning the impacts of oil and gas leasing 
activities in the Shoshone National Forest and failure to consult with 
the U.S. Fish and Wildlife Service on grizzly bears.
    Updating the BLM's land use plan will not always prevent a lawsuit. 
The BLM New Mexico State Office received a Notice of Intent to Sue from 
the Forest Guardians over land use planning in the El Malpais National 
Conservation Area, where the planning document is in its final stages. 
Regardless, lawsuits draw personnel away from on-the-ground work and 
direct financial resources to cover litigation costs. While the BLM is 
proactive in seeking to avoid costly new litigation, the BLM will, in 
all probability, be sued this fiscal year as an outgrowth of aging land 
management plans and/or NEPA documents.
    Question. How is the agency prioritizing which plans to update 
first? Is it solely based on litigation risk or are other factors used? 
How long will it take to update all the plans needing revision? What is 
the expected total cost?
    Answer. The BLM has established the following criteria for 
prioritizing planning actions: (1) new congressional or court ordered 
mandates; (2) the need to address changed resource conditions or 
resources at risk (such as listing of an endangered species); (3) 
anticipated changes in use (demand) not adequately addressed in 
planning/NEPA documents (such as large scale coal bed methane 
development); (4) program or administrative requirements the BLM has 
not fulfilled (such as new clean water standards or an executive order 
relating to managing use of OHVs); and (5) outside interest or concerns 
as expressed by the public. The above stated criteria is not solely 
based on litigation risk factors.
    The BLM estimates it will take approximately 10 years to bring all 
its plans up to date. This effort will be followed up with a sustained 
plan maintenance and evaluation effort to prevent similar situations 
from reoccurring in the future. The BLM's initial request of 
$19,000,000 represents one year startup costs needed to begin to 
address this long term problem. Additional increases will be needed and 
sustained over time to address this longterm problem. More information 
on the planning issue is available in the ``BLM Report to Congress: 
Land Use Planning for Sustainable Resource Decisions''. This report was 
submitted as part of the Bureau's fiscal year 2001 Budget 
Justifications. More precise estimates can be made after the evaluation 
of existing plans is completed. When compared to the funds expended on 
land use planning by the other land management agencies, in particular 
when compared on a ``per acre basis,'' the BLM's proposal is very cost 
effective. This is particularly true when you consider the complexities 
involved with the BLM's mandate to provide for a variety of uses from 
full wilderness protection, on one hand, to providing land for 
development on the another.
                      wild horse and burro program
    Question. The agency is requesting a $9.5 million increase for the 
Wild Horse and Burro program in fiscal year 2001. How will the increase 
be used to reduce the herd levels to a manageable number?
    Answer. The fiscal year 2001 President's Budget request includes an 
increase of $9 million for implementation of a long term strategy to 
attain Appropriate Management Levels (AML) on all Herd Management Areas 
(HMA) in four years beginning in fiscal year 2001, provided that the 
requested funding is available. Under the strategy, the BLM will remove 
approximately 13,000 animals the first year, dropping to 4,500 animals 
by the sixth year and remaining at that level. At that level, adoption 
demand will greatly exceed the number of horses requiring removal from 
the range.
    A key component of the strategy will be long term pasturing 
facilities for hard to adopt animals and older animals. The savings 
from reduced gathers, preparations and adoptions will more than offset 
the costs for long term care. As the number of animals in long term 
care declines through natural attrition and adoptions, the long term 
care costs will also decline.
    Question. If additional funds are not provided what will be the 
impact in terms of additional animals on the range?
    Answer. Wild horse and burro populations are exceeding the capacity 
of the land to support a thriving ecological balance among all the 
various resource values. Wild horse populations are increasing at a 
rate of 18-20 percent per year, with some herds as high as 23 percent. 
Wild burro populations are increasing at a rate of 16 -17 percent per 
year. Currently, wild horse and burro populations are exceeding 
estimated AML on 159 of 192 HMAs. The BLM estimates total AML to be 
27,379 animals. By the end of fiscal year 2000, we estimate the 
populations will approach 51,000 animals or approximately 23,000+ 
animals over AML.
    Damage is occurring to herd habitat, riparian zones, upland 
vegetation, sensitive, threatened and endangered species habitat and 
water quality. Irreparable damage will occur to the natural resources 
if the BLM is not able to reduce current numbers. If population levels 
are not reduced to AML, we anticipate that other users such as 
livestock grazers and state wildlife departments will resort to legal 
remedies through court decisions.
    Question. How were the population trend models for wild horses and 
burros developed?
    Answer. The projected numbers, time frames and costs were based on 
data generated by a wild horse population model developed by Dr. 
Stephen Jenkins, University of Nevada at Reno. Every HMA was evaluated 
under several different scenarios to develop the preferred BLM 
strategy. HMA specific information for each HMA was entered into the 
model to develop accurate projections. During the evaluation, the model 
was programmed to run 15 different runs for every HMA in each scenario. 
The average was then utilized to formulate the projected outputs for 
each scenario.
    Question. Have they been peer-reviewed by any groups outside the 
BLM?
    Answer. The population model has been peer reviewed by five 
scientists employed by U.S.G.S., Biological Research Division (BRD). In 
summary, the model was termed as solid, highly useful to the BLM 
planning efforts and based on tested modeling methods and population 
dynamics principles. The reviewers felt the BLM can apply the model 
with confidence provided the data is appropriate. As with all models, 
the scientists cautioned about limitations and the use of adequate 
data. The BLM is well aware of the limitations and used the best 
available data with the model.
    Question. What has been the historic variability in horse and burro 
populations? Over the last 25 years hasn't the population normally 
fluctuated between levels of 20,000 to 50,000? What is different now 
such that the agency calculates that the population will reach over 
120,000 animals if additional funds are not provided for management 
activities?
    Answer. Within 4 years of the passage of the Act, populations 
exceeded estimated AML and fluctuations have occurred as would be 
expected with any wild animal populations. However, wild horses and 
burros have no effective natural predators that can limit the 
populations. Humans serve that purpose (the BLM has removed over 
165,000 head from the range). With increases and declines in numbers 
due to environmental factors such as above average precipitation, 
drought and fires, populations have fluctuated between 30,000 and 
50,000, well above the levels necessary for a thriving ecological 
balance as mandated by the Act. Our projections reflect where 
populations can be expected to go based on monitoring data and without 
consideration for environmental factors since we don't know when and to 
what degree they will occur. Our projections are based on straight-line 
increases, since current funding is not adequate to keep up with annual 
reproduction. Attaining AML on all HMAs will prevent catastrophic death 
events, such as happened on the Nellis Wild Horse Range in the early 
nineties, when the land became incapable of supporting existing 
populations.
    Question. Once a manageable level of animals is reached, what is 
the long term annual funding need for the Wild Horse and Burro program?
    Answer. Actual funding needs will be determined by updated annual 
monitoring and censussing data. However, based on current information, 
it is anticipated that funding needs will vary from $25 million to $29 
million dollars. Inflation has been factored into the projections at a 
rate of 5 percent per year. By 2006 it is projected that the cost to 
implement this strategy will be equivalent to current funding (adjusted 
for inflation), and by 2010, will be less than the equivalent of 
current funding.
    Question. How are the agency's efforts at developing contraceptive 
tools for use on wild horses and burros proceeding? When will these be 
ready for widespread use?
    Answer. Field trials of the immuno-contraceptive vaccine were 
initiated in December 1992, in the Antelope and Antelope Valley Herd 
Management Areas (HMA) in eastern Nevada. The initial trials studied a 
two injection, one-year vaccine. That has since evolved to a one year, 
one shot vaccine. The goal of the BLM's immuno-contraception program is 
to develop a cost effective 3-5 year, one shot vaccine. This would 
provide a cost effective immuno-contraception program and reduce 
handling of mares. Initial field testing of a two year, one shot 
vaccine began in fiscal year 2000 in the Clan Alpine HMA in Nevada. 
Modeling indicates that immuno-contraception efforts will be most 
effective in helping to suppress population levels once AML has been 
attained through intensive gathering and removals. During the research 
phase, the BLM will conduct 1500-3000 field applications per year, 
depending on funding levels. Pen studies on a two year, one shot 
vaccine are currently being conducted at the University of California, 
at Davis.
    Researchers are predicting that widespread management application 
of a multi-year, one shot vaccine may take as long as 6 years to 
accomplish. We will be entering into negotiations with the Food and 
Drug Administration (FDA) in an attempt to accelerate the approval 
process that is required before widespread application can occur.
    The following is a list of HMAs where the immuno-contraceptive has 
been applied in the field trials:
        1992--Antelope/Antelope Valley HMAs, Nevada
        1996--Nellis Wild Horse Range, Nevada
        1997--Nellis Wild Horse Range, Nevada
        1997--Pokegama HMA, Oregon
        1998--Fish Lake HMA, Nevada
        1998--Kama Mountain HMA, Nevada
        1998--Antelope/Antelope Valley HMAs, Nevada
        1999--Monte Cristo/Sand Springs East HMAs, Nevada
        2000--Clan Alpine HMA, Nevada (2 year, 1 shot vaccination
    Question. Are other agencies involved with this effort? If so, what 
agencies? What is their role? Do they provide any additional funding? 
Does BLM get funding for research from any other sources for this 
program?
    Answer. The Biological Research Division (BRD) of the US Geological 
Survey is the conduit by which the BLM conducts research. They develop 
and oversee research contracts and conduct peer review of the research. 
All funding for BLM research is included in BRD's annual 
appropriations. The BLM does not get funding from other sources.

                 AUTOMATION OF LAND AND MINERAL RECORDS

    Question. Given the failure of the software developed as part of 
the ALMRS effort, what is the agency's strategy for developing usable 
software with respect to automating its land and minerals record 
systems in the future? What is the agency's plan to ensure that 
whatever is developed in the future does not have the same problems 
that occurred with ALMRS?
    Answer. The BLM has revised its strategy and plans for all 
automated systems development to emphasize a business-driven, modular 
approach that uses hands-on iterative methods. Key to this change in 
strategy is the development of a Bureau Enterprise Architecture which 
is based upon the BLM's strategic goals and business practices. The 
development of Land and Resources Information Systems (LRIS) 
operational software will be derived from the Bureau Enterprise 
Architecture. As part of this strategy, the BLM will make a concerted 
effort to maximize the use of commercially available software and 
minimize custom development. We will also incorporate proven Geographic 
Information System (GIS) technology for land and resource management 
and provide a solid basis for partnerships with other government 
agencies and public users.
    The BLM has implemented improved project management procedures that 
engage users and systems development personnel as a team from the 
beginning to the end of the LRIS project. Each product developed 
through this process must be approved by field office representatives 
working outside of the project office, before work can proceed. 
Development will occur in a prototype environment which will help 
ensure that user needs are met. In addition, an Information Technology 
Investment Board, comprised of senior agency executives, ensures that 
the best investment decisions are made for information technology, 
including LRIS.
    The General Accounting Office is also closely monitoring our 
activities. They are encouraging us to continue our efforts to 
strengthen our investment management and acquisition processes and 
practices.
    Planned actions for 2001 include:
    (1) implementation and maintenance of a Bureau Architecture;
    (2) improving compliance with data standards and cleaning up 
existing data;
    (3) initiation of system development to automate re-engineered 
business processes;
    (4) production of a technical reference model, derived from the 
Business Architecture, to guide new development and enhancement of 
existing applications; and
    (5) initiation of a concerted effort to add Internet access to 
existing software applications to meet the mandated completion by 2003.
    Question. How much will it cost?
    Answer. The Information Technology Investment Board has approved 
detailed analysis and design work to proceed for LRIS contingent upon 
alignment with the Bureau Enterprise Architecture. Decisions on what 
modules will be developed and their costs will be determined based upon 
completion of this work. As stated in the budget submission to 
Congress, BLM expects to spend $19.6 million to meet land and minerals 
records management needs in fiscal year 2001. Of this amount, about 
one-third will be spent on designing and building components of the new 
LRIS system.
    Question. When could this software be deployed for use in the 
field?
    Answer. The deployment of capabilities to assist with cleaning up 
existing data sets and standardization have been initiated in fiscal 
year 2000. Initial deployment of LRIS operational software is currently 
scheduled to begin in fiscal year 2001 continuing through fiscal year 
2003. These schedules, however are contingent upon architectural 
alignment and investment priorities.

                            LEWIS AND CLARK

    Question. What, if any, role will BLM play in the Lewis and Clark 
bicentennial celebration? Are additional demands on BLM resources 
anticipated? What resources will be impacted the most? Will the agency 
need additional funds to address these impacts?
    Answer. The BLM manages over 300 miles along the Lewis & Clark 
(L&C) Trail in Montana and Idaho, including significant landscapes such 
as Upper Missouri National Wild and Scenic River; Pompey's Pillar 
National Historic Landmark; Blackfoot River Corridor; Chain-of-Lakes 
Complex and the Snake and Clearwater River Corridors. Today, these 
landscapes appear much as they did 200 years ago. The BLM initiated L&C 
Bicentennial planning efforts in 1996 to identify on-the-ground 
resource needs and develop local and state partnerships under our 
multiple-use mandate.
    Through this planning process BLM identified the following 
management objectives for L&C Bicentennial initiatives:
    (1) Trail Protection and Restoration;
    (2) Enhancing Visitor Services;
    (3) American Indian Involvement;
    (4) Partnerships; and
    (5) Improved Access.
    Working within this framework, the BLM has identified a 6-year 
needs analysis, reflective of our mission and local community 
priorities. The strategy identifies critical infrastructure upgrades 
and enhancements targeted to be completed prior to the influx of 
visitors to our nation's public lands. During the Bicentennial years, 
our strategy focuses on community events and activities and recognizes 
statewide issues such as search and rescue, county road maintenance and 
other community and tribal partnership programs.
    Based on historic visitor use data, the BLM anticipates that the 
most pristine landscapes and sites along the trail will be inundated 
with visitors wanting to ``walk in the footsteps'' of Lewis and Clark. 
Although the BLM initiated L&C planning efforts in 1996, the BLM 
resources and staffing have been strained. With visitation increasing, 
the BLM is working to allocate available resources to manage our public 
lands in a way that provides adequate visitor services while protecting 
our resources. The L&C Bicentennial creates both opportunities and 
concerns for our agency. The nation's public land treasures and 
collaborative efforts will be the legacy of the Bicentennial. The BLM 
has requested $1,247,000 in the fiscal year 2001 Budget request to 
begin to address the anticipated demands on the L&C Bicentennial 
celebration, mainly for facility preparedness.

                            GRAZING PERMITS

    Question. How many grazing permits which are set to expire this 
year will go unprocessed?
    Answer. All grazing permits expiring this year will be fully 
processed, or issued and extended in accordance with Sec. 116 of the 
fiscal year 2000 Interior and Related Agencies Appropriations Act, by 
September 30, 2000.
    Question. When will the agency get on top of this backlog?
    Answer. The Bureau is focusing its processing efforts (NEPA 
analysis and ESA consultation) on the expiring permits with the highest 
resource values, and expects to complete about 85 percent of the 
expiring permits before September 30, 2000. With the exception of 79 
permits in Utah that are expected to require the preparation of an 
environmental impact statement, the remaining permits that expire this 
year will be processed with appropriate NEPA and ESA documentation by 
September 30, 2001. By that same date, BLM will also process all 1,646 
permits that are scheduled to expire in 2001.
    Question. Does the language contained in the fiscal year 2000 
Interior and Related Agencies Appropriations Act concerning the 
extension of unprocessed expiring permits need to be retained? If not, 
how does the agency plan to deal with unprocessed permits?
    Answer. The strategy described in the previous answer will allow 
the Bureau to eliminate the permit processing backlog in fiscal year 
2001, so the general provision referenced in the question does not need 
to be retained in the fiscal year 2001 Appropriations Act.

                         NATIONAL PARK SERVICE

    An increase of $1.6 million is requested for cooperative ecosystem 
studies units, though Service participation in this program actually 
began with fiscal year 1999 and fiscal year 2000 funds.
    Question. Were funds identifies in the fiscal year 1999 or fiscal 
year 2000 budget request for this activity, and were funds ultimately 
appropriated for this activity in fiscal year 1999 or fiscal year 2000?
    Answer. No special funds were appropriated for this activity. Three 
of the four pilot Cooperative Ecosystem Studies Units currently have 
personnel (non-research grade) placed in them or in the process of 
being placed. In each case, regional or park funding was committed 
because of the advantages of placing staff in universities.
    When a region identifies science coordination needs that require a 
staff position, the CESU is one choice (among regional office, park, or 
central office) of where to place that position. Because there are many 
leveraging opportunities for each federal dollar available for 
research, technical assistance, and education at a university, there is 
great interest in this option. So far, there are commitments from NPS 
regions for the 10 competitively established units, including the 
Universities of Tennessee, Washington, Miami, Nebraska, Alaska, Hawaii, 
Rhode Island, Arizona and Montana and Northern Arizona University.
    Question. If not, does the Service regard its initial conduct of 
this activity consistent with Committee reprogramming requirements?
    Answer. The National Park Service believes that resource 
management, including the coordination of research and responding to 
the technical assistance needs of parks, is fully within the activities 
described for its base funding. The request is being made for 
additional funding because not enough base funding exists to meet the 
needs for these activities in 379 national park units.
    Question. Why did the Service decide to specifically identify this 
activity in the fiscal year 2001 budget request?
    Answer. There is great potential for enhancing available resources 
for science-based decision-making through flexible partnerships with 
universities. Base funding will speed up the Park Service's ability to 
make this very advantageous tool available to meet park needs in the 
changing modern landscape.
    During the recent NATO meeting in Washington, D.C., I understand 
that additional funds were required for the National Park Service to 
provide required security. I also understand that these funds were 
derived from available repair and rehabilitation funding.
    Question. Is this true?
    Answer. Yes. The United States Park Police expended $579,525 in 
direct support of the NATO Summit held in Washington, D.C., April 23 
through April 25, 1999. Of this amount, $250,000 was provided from 
Emergency Law and Order funds. The balance was reallocated from repair 
and rehabilitation projects that could not otherwise be obligated in 
fiscal year 1999.
    Question. How much was reallocated?
    Answer. A total of $329,525 in repair and rehabilitation funds was 
reallocated to the United States Park Police to cover this activity.
    Question. How does the Service justify the use of R&R funds for 
this purpose absent a reprogramming request?
    Answer. The NPS is careful in its management and budget practices 
and works extremely hard to comply with all guidance from the Congress. 
The 1998 reprogramming guidelines, as contained in the House 
Appropriations Committee Report, state: ``Any proposed reprogramming 
must be submitted to the Committee in writing prior to implementation 
if it exceeds $500,000 or results in an increase or decrease of more 
than 10 percent annually in affected programs, . . .'' Since the 
threshold level was not exceeded, the reallocation of $329,525 in 
maintenance funding for this emergency activity is justified. The 
funding was derived from repair and rehabilitation projects that could 
not be obligated in fiscal year 1999.
    Question. What are the Service's plans for the upcoming IMF/World 
Bank meetings in Washington, D.C? The Republican convention in 
Philadelphia?
    Answer. In anticipation of demonstrations during the IMF/World Bank 
meetings and the Republican convention similar to those that caused 
disruptions in Seattle, Washington, during a recent international 
conference, the National Park Service, in coordination with other local 
law enforcement agencies, will provide security and law enforcement to 
protect park properties, visitors and employees. The NPS has developed 
cost estimates for projected overtime of United States Park Police 
officers and law enforcement rangers, travel and per diem, and for the 
purchase of defensive equipment. The Service did submit a reprogramming 
proposal in fiscal year 2000 in order to be prepared to respond to 
these two emergency law and order needs, indicating that up to $2 
million would be needed to respond to the IMF/World Bank meetings and 
the Republican National Convention.
    Question. Will funds have to be reallocated to accommodate security 
needs for these events? From what source will such funds be derived?
    Answer. The reprogramming defers Hazardous Waste projects to 
respond to the emergency law enforcement needs. The NPS will shift 
funds from the Hazardous Waste Program within the Operation of the 
National Park System appropriation to cover costs associated with these 
emergency situations.

                       FISH AND WILDLIFE SERVICE

                         ENDANGERED SPECIES ACT

    Question. Please summarize in chart form funding for the Endangered 
Species Act programs from fiscal year 1995 through the fiscal year 2001 
request. This summary chart should include (but show separately) 
funding for both the ESA programs in the Resource Management account 
and the amounts appropriated for the Cooperative Endangered Species 
Fund.
    Answer. Funding for Endangered Species Act programs from fiscal 
year 1995 through the fiscal year 2001 request is summarized in the 
table below.

                         FISCAL YEAR 1995-FISCAL YEAR 2001 APPROPRIATIONS HISTORY TABLE
----------------------------------------------------------------------------------------------------------------
    Activity/subactivity/program        1995       1996       1997       1998       1999       2000       2001
              element                 enacted    enacted    enacted    enacted    enacted    enacted    request
----------------------------------------------------------------------------------------------------------------
        Ecological services
 
Endangered Species.................    $68,944    $60,297    $67,385    $77,181   $110,817   $108,282   $115,320
    Candidate Conservation               4,442      3,800      4,800      5,703      6,753      7,388      8,447
     (Prelisting)..................
    Listing........................      6,499      4,000      5,000      5,190      5,756      6,208      7,195
    Consultation/HCP...............     18,294     15,997     17,949     23,828     27,231     32,342     39,400
    Recovery.......................     39,709     36,500     39,636     42,460     66,077     57,363     55,297
    ESA Landowner Incentives         .........  .........  .........  .........      5,000      4,981      4,981
     Program.......................
Cooperative Endangered Species           8,983      8,074     14,085     14,000     14,000     23,000     65,000
 Conservation Fund.................
    Grants to States (Section 6)...      8,480      7,600      7,600      7,520      7,520      7,520     41,048
    HCP Land Acquisition...........  .........  .........      6,000      6,000      6,000     15,000     21,125
    Conservation Planning            .........  .........  .........  .........  .........  .........      1,625
     Assistance....................
    Administration.................        503        474        485        480        480        480      1,202
----------------------------------------------------------------------------------------------------------------

                            LAND ACQUISITION

    GAO recently issued a report on lands acquired by the Fish and 
Wildlife Service. It reports that in addition to lands being acquired 
by federal dollars, lands are included in our refuge system through 
private donations, transfers, and exchanges. The report notes that 15 
of the 23 refuges the Service established between 1994 through 1998 
(totaling 54,000 acres) were established without federal funds. 12 were 
established with donations, 2 with private land exchanges and one with 
a land transfer.
    Question. How does the Service currently evaluate these additions 
to the refuge system so that proper planning is performed to ensure 
adequate management after the lands become part of the refuge system?
    Answer. The Service only accepts donations of those lands that have 
already undergone the Service's planning process (including NEPA) and 
which meet the goals and purposes of the National Wildlife Refuge 
System. The future costs of operation and management of additional 
refuge lands is considered at a number of decision points prior to 
purchase of lands. These costs are estimated in the Preliminary Project 
Proposal, and further refined in the Concept Management Plan that is 
developed as part of the detailed planning process. Finally, costs of 
management related to new acquisitions are provided in the President's 
Budget. The 15 refuges described in the GAO report had, at the time of 
acquisition, met all of the Service requirements for inclusion into the 
refuge system and thus were managed as part of the system after 
acquisition.
    Question. Is there any danger that the appetite of the Service's 
realty office could exceed the ability of the Service to budget for the 
proper management of these lands once they become part of the refuge 
system?
    Answer. The Service's Divisions of Realty (which handles land 
acquisition) as well as the Division of Refuges (which handles the 
management) is supervised by the same Assistant Director who ultimately 
reports to the Director of the Fish and Wildlife Service. This 
structure ensures that there is appropriate oversight and coordination 
between the acquisition and management of lands for the National 
Wildlife Refuge System.
    Question. How do you plan to change this system to make it better?
    Answer. Land acquisition is used judiciously to further the 
Service's mission of conserving, protecting, and enhancing fish and 
wildlife and their habitats for the continuing benefit of the American 
people. Only those lands that are important and fall within the 
Service's mission are typically acquired. The Service's land 
acquisition is performed under the authority of a variety of Acts 
passed by Congress. These authorities include the Migratory Bird 
Conservation Act of February 18, 1929, as amended; the Fish and 
Wildlife Act of 1956, as amended; the Endangered Species Act of 
December 28,1973, as amended; and the Emergency Wetlands Resources Act 
of November 10, 1986, among others.
    The Service has agreed with the GAO recommendation to include 
estimates of future operations costs for proposed acquisitions when 
funding is requested in the President's Budget. This, along with the 
Director's reorganization and establishment of the National Wildlife 
Refuge System as a program area, of which Realty will be a Division, 
will enhance communication and coordination of land acquisition 
priorities and proposals, with refuge management funding initiatives.

                              SUBSISTENCE

    The Department requests $12.9 million to address subsistence 
fisheries. Part of the request is Fish and Wildlife Service's request 
for an $11 million increase to fully implement the Federal takeover of 
the subsistence fisheries in Alaska. $7.5 million is expected to be 
housed in a centrally controlled monitoring account. As part of this 
plan, the Department has set a goal to contract out 60 percent of the 
resource monitoring work primarily through contracts with the State, 
Native corporations, Tribes and other organizations.
    Question. Has the Department set in place a plan to ensure that 
this 60 percent target is met? And, if so, what is the plan?
    Answer. Yes, the Department has a plan in place to meet this goal. 
The Federal Subsistence Board, acting for the Secretary, has adopted a 
systematic program for soliciting, evaluating, and selecting fisheries 
resource monitoring projects. The Alaska Department of Fish and Game 
(ADF&G), Alaska Native organizations, tribes, and other fisheries 
organizations are routinely included in planning and developing 
monitoring projects. The proposed projects are evaluated based on 
subsistence management priorities, technical-scientific merit, and the 
extent the projects develop effective partnerships with non-Federal 
entities. The approved projects constitute a state-wide annual 
fisheries monitoring plan.
    To date, the Department has exceeded the Secretary's commitment 
that 60 percent of the resource monitoring work would be performed by 
non-Federal partners. As of April 24, 2000, the Federal Subsistence 
Board has allocated or recommended $3.5 million in 33 DOI fisheries 
resource monitoring projects. Of this, $1.16 million or 33 percent is 
directed to ADF&G and $1.34 million or 38 percent is directed to Alaska 
Native, and other rural organizations, or local hires. Only $1.01 
million, or 29 percent is directed to work performed by Federal agency 
staff.

                           GOOSE DEPREDATION

    The Fish and Wildlife Service has indicated that it was actively 
preparing a plan entitled ``Goose Population Problems in the United 
States: A Strategic Plan.''
    Question. Has the Fish and Wildlife Service completed this plan 
yet? Can the Subcommittee at least see some informal numbers regarding 
future costs to address the problem in Region 1 which the Fish and 
Wildlife Service could legitimately spend to address this problem?
    Answer. The Service has completed the requested report entitled 
``Goose population Problems in the United States: A Strategic Plan'' 
and transmitted it to Congress on May 1, 2000. With regards to 
potential options within Region 1 to implement the actions under the 
Northwest Oregon and Southwest Washington Goose Agricultural 
Depredation Plan, the Service and their partners estimate $1,000,000 
would be an optimal level of funding for the Federal responsibilities. 
However, due to other priorities, this funding was not included in the 
President's budget. Funding could be used by the Canada Goose 
Depredation Working Group to enhance the hunting programs in Washington 
and Oregon, support landowner assistance in keeping geese out of 
agricultural fields, augment law enforcement activities, and improve 
survey coverage for detecting changes in distribution and abundance of 
Canada geese. The President's Budget includes a program increase of 
$1.0 million for on the ground management activities for priority 
habitats and species of concern. Included in this increase is one 
project to implement the environmental impact statement on Snow Geese 
in the Central and Mississippi Flyways.

                     NON-GAME WILDLIFE STATE GRANTS

    The Administration proposes the initiation of a new $100 million 
program entitled the Non-Game Wildlife State Grants program. The 
request proposes that the funds be distributed to states, tribes and 
U.S. territories to be used for such purposes as planning, 
inventorying, and monitoring non-game species.
    Question. What other programs funded through the Fish and Wildlife 
Service already provide certain protections for non-game species in 
either direct or indirect ways?
    Answer. Historically, Federal and State wildlife funding has been 
prioritized toward species that warrant Federal or State protection, 
such as implementing approved recovery plans for endangered species or 
toward species that are fished or hunted for recreation or commercial 
purposes.
    The Administration's proposed Non-Game Wildlife Grants program 
would compliment ongoing programs and enable state fish and game 
agencies to develop more comprehensive wildlife programs for a wide 
diversity of fish, wildlife and plant resources, expanding their scope 
beyond traditional programs that have focused primarily on game 
species. Currently, the only FWS program that is dedicated solely to 
non-game species is the Wildlife Conservation and Appreciation Fund. 
This program received $0.8 million in 2000.
    Other existing programs that contribute to non-game species 
(through habitat restoration and other natural resource management 
practices) include the NWR system, the Partners for Fish and Wildlife 
Program, certain aspects of the Fisheries program, the land acquisition 
program, and the ``Duck Stamp'' program.

                              FORENSIC LAB

    Question. The Service's National Fish & Wildlife Forensics 
Laboratory is known as one of the best of its kind in the world. Does 
the Service currently have a backlog of its own projects at the lab? 
What are the backlog numbers and why?
    Answer. Yes, the Service has a backlog. Although forensic 
scientists have responded to 526 Service requests during this fiscal 
year, a backlog of 223 requests exists as of May 1, 2000. Backlogs 
occur for a variety of reasons, including a higher demand for services 
than existing staff, instrumentation, and facilities can accommodate; 
time-consuming analysis required by high priority federal cases (i.e., 
caviar); and an increase in services offered as lab scientists develop 
and test new identification techniques using serology and DNA. The 
planned expansion of the forensics laboratory scheduled for completion 
in fiscal year 2002 should help alleviate this problem.
    Question. Has the Service had a backlog in fiscal year 1994 through 
fiscal year 1999? If so, please provide backlog numbers per each year.
    Answer. Yes. The following table identifies the backlog of Service 
requests for lab assistance during fiscal year 1994 through fiscal year 
1999.

----------------------------------------------------------------------------------------------------------------
                                                               Backlog at    Requests     Requests
                                                               beginning     received    completed    Backlog at
             Fish and Wildlife Service requests                of fiscal      during       during       end of
                                                                  year     fiscal year  fiscal year  fiscal year
----------------------------------------------------------------------------------------------------------------
Fiscal year:
    1994....................................................           65          721          743           43
    1995....................................................           43          789          790           42
    1996....................................................           42          903          860           85
    1997....................................................           85          751          760           76
    1998....................................................           76          727          703          100
    1999....................................................          100          808          816           92
----------------------------------------------------------------------------------------------------------------

    Question. Is it true that the Service provides certain laboratory 
services for free (or a discounted basis) to certain foreign countries, 
states and other entities? If so, provide statistics of how many 
projects have been provided for free, or at a discounted rate, between 
fiscal year 1994 through fiscal year 1999. Please provide estimates of 
how much would have been received by the government for these services 
if the government had charged for these services.
    Answer. Since opening the forensics laboratory, it has been Service 
policy to provide lab services to outside agencies without charging 
fees. The table below shows the total number of requests handled by the 
Forensics lab, broken out by FWS, other Federal agency, state and 
international requestors. Over all, non-FWS requests averaged 35 
percent of the total for fiscal years 1994-1999.
    Notwithstanding the necessity of recovering costs whenever 
possible, the Service believes that charging outside user groups 
(specifically state and international wildlife law enforcement 
agencies, and other Federal law enforcement agencies) for forensic 
support services would result in wide-ranging negative impacts far 
exceeding any monetary gain by the Fish and Wildlife Service.
    A fee system would drastically limit the Service's ability to have 
a positive impact on federal, state, and international wildlife law 
enforcement investigations; add significant administrative burdens; and 
compromise the lab's ability to develop techniques and protocols 
necessary to conduct reliable wildlife identifications.
    Development of a catalog of blood and tissue samples of known 
origin worldwide is critical to current and future lab projects. 
Various state and international wildlife agencies have continued to 
provide these samples free of charge. The lab currently has over 50,000 
standard (comparison) specimens in its collection, approximately 70 
percent of which were collected by state officers. This cooperative 
effort saves the Fish and Wildlife Service hundreds of thousands of 
dollars in travel and field collection costs, which would be incurred 
if lab technicians had to personally collect the samples. By developing 
a cooperative working relationship with other wildlife conservation 
agencies, similar to the relationship developed between the Federal 
Bureau of Investigation's crime laboratory and local police 
departments, the lab has been able to significantly enhance its 
wildlife identification capability while reducing the cost to the 
government. The work of the lab will suffer if the cooperating agencies 
stop providing the specimens.

   U.S. FISH AND WILDLIFE SERVICE NATIONAL FISH AND WILDLIFE FORENSICS LABORATORY REQUESTS RECEIVED PER FISCAL
                                               YEAR BY AGENCY TYPE
----------------------------------------------------------------------------------------------------------------
                                                           1994        1995     1996     1997     1998     1999
----------------------------------------------------------------------------------------------------------------
USFWS.............................................          721          789      903      751      727      808
Other Federal.....................................           82           62       36       48       34       41
State.............................................          469          506      494      453      358      166
International.....................................           91           44       47       47       36       23
                                                   -------------------------------------------------------------
      Total.......................................        1,363        1,401    1,480    1,299    1,155    1,038
----------------------------------------------------------------------------------------------------------------

                             DAM BREACHING

    The Fish and Wildlife Service decided to share its dam-breaching 
position with private interest groups in favor of breaching dams, such 
as ``American Rivers,'' before the U.S. Fish and Wildlife Service 
notified other coordinating agencies in the Federal caucus.
    Question. Can you explain why the U.S. Fish and Wildlife Service 
considers American Rivers to be such an important part of the ``All H'' 
process?
    Answer. The U.S. Fish and Wildlife Service (Service) would like to 
correct two inaccuracies with the statement in Committee Question 11. 
First, the Service does not have a policy position on dam breaching. 
The draft All H paper does not advocate any specific salmon recovery 
options. Rather, it presents options for habitat, harvest, hatcheries, 
and hydropower; shows how those options can be combined into integrated 
alternatives; and stimulates an honest and constructive debate among 
the governments and people of the region about major changes that must 
be made in a wide range of activities if salmon recovery is to be 
successful. Second, the Service did not provide American Rivers with 
the draft All H paper, or other Service documents relating to the 
evaluation of the lower Snake River dams, in advance of the Federal 
Caucus or other regional interest groups. While American Rivers is an 
important participant in the regional debate on these issues, the 
Service does not consider them to be more important than other 
organizations, governments, and people in the region who have much at 
stake.
    The draft All H paper is now being revised and comments received on 
the draft from all stakeholders are an important consideration in 
revising the document. Ongoing scientific analyses also play a key role 
in the debate and the decisions that must be made to recover salmon. 
These analyses will be incorporated into the revised All H paper. The 
Service will not have a policy position on dam breaching or on the 
other options for salmon recovery until the All H process is completed.
    The Service did develop preliminary technical recommendations about 
the effects of the four hydropower alternatives in the Corps of 
Engineers' Lower Snake River Juvenile Salmon Migration Feasibility 
Report/Environmental Impact Statement (DEIS) on resident and anadromous 
fish and terrestrial resources in the area of the four lower Snake 
River dams. The preliminary recommendations were included in the 
Service's draft Fish and Wildlife Coordination Act Report (FWCAR) which 
was released to the public in mid-December, 1999, as an appendix to the 
Corps of Engineers' DEIS. The FWCAR contained a preliminary technical 
assessment that the natural river drawdown alternative was the most 
likely alternative to improve conditions for fish and wildlife 
resources in the area of the four lower Snake River dams.
    The Fish and Wildlife Service did not share its technical 
recommendations on dam breaching and the other alternatives with 
American Rivers before the draft FWCAR was released in mid-December. 
However, a standard procedure in the development of FWCARs includes 
wide distribution of drafts to fish and wildlife agencies and tribes. A 
preliminary draft FWCAR provided in June, 1999, contained projections 
of benefits of the various alternatives to fish and wildlife, but did 
not include the Service's preliminary technical recommendation. 
However, the June draft projected many more benefits to fish and 
wildlife in the area of the Snake river dams in the long-term from the 
natural river drawdown alternative than from the other alternatives. 
While the June draft was only provided to fish and wildlife managers 
and tribes, it resulted in widespread knowledge of the Service 
assessment of the relative benefits of the alternatives. Therefore, 
although the Service did not directly provide American Rivers with the 
preliminary draft FWCAR, they may have received the information through 
other sources.
    Beginning in July, the Service directly provided the preliminary 
draft to the Federal agencies involved in the Federal Caucus for 
internal review and comment as an appendix to the Corps of Engineers' 
preliminary DEIS. In November 1999 our final draft FWCAR was submitted 
to the Corps of Engineers for incorporation into the DEIS. The Service 
not only shared drafts of the FWCAR with the other Federal agencies but 
had numerous discussions and briefings with them on the contents of the 
FWCAR.

                             CASPIAN TERNS

    An Environmental Assessment released by the U.S. Army Corps of 
Engineers in January revealed that Caspian terms consume an estimated 
1.6 million threatened and endangered salmon and steelhead and nest on 
islands near the Columbia River estuary. Because of efforts begun by 
the Corps of Engineers last year to move terns from the area, an 
estimated 77 percent of the salmon species previously consumed by terns 
in that area are expected to return to the river at the end of their 
life cycle. Yet, it appears that the U.S. Fish & Wildlife Service does 
not consider the effort to control terns to be an agency priority.
    According to the U.S. Army Corps of Engineers, its ability to 
address the impact of terns on salmon smolt survival is limited without 
the active involvement of the U.S. Fish and Wildlife Service given the 
agency's jurisdiction over this migratory bird species.
    Question. Can you explain the U.S. Fish and Wildlife Service's 
policy with regard to the terns and what plans the agency has for 
providing a long-term strategy to control the terns.
    Answer. The Service believes a phased relocation of the terns from 
Rice Island to East Sand Island would be a successful and appropriately 
proportional response to addressing the effects of tern predation on 
salmon recovery. This action provides a measurable benefit to short-
term recovery efforts and successfully addresses National Marine 
Fisheries Service's goal of significantly reducing tern predation on 
smolts. The Service has provided technical assistance regarding 
Migratory Bird Treaty Act issues relative to the Caspian Tern 
relocation effort and served as an active member on the interagency 
Caspian Tern Working Group (CTWG) since 1998. In an effort to provide 
some short-term recovery benefit to listed salmonids, the CTWG 
developed a strategy to translocate the terns nesting on Rice Island to 
East Sand Island. The 1999 pilot relocation effort demonstrated that 
this colony relocation would result in a 40 percent reduction in losses 
of smolts to tern predation. This is a significant reduction in 
predation.
    The Service supported the 2000 relocation project by funding and 
implementing habitat restoration on East Sand Island to facilitate the 
relocation effort. The Service issued a Migratory Bird Treaty Act 
Depredation Permit for a limited take of tern eggs as part of a 
comprehensive effort to discourage terns from recolonizing Rice Island. 
As of mid-April, over 5,000 terns had settled on East Sand Island, a 
significant increase in the new colony compared to the 2,400 birds 
relocated in 1999. Currently, relocation efforts are halted as a result 
of a court issued temporary restraining order in response to a suit 
filed by the National Audubon Society, Defenders of Wildlife, Seattle 
Audubon Society, and American Bird Conservancy.
    While the Service will continue to support the relocation of terns 
to East Sand Island, the Service believes salmon recovery efforts 
should be refocused on long-term goals to reduce other more substantial 
sources of smolt mortality. The Service recommends that the Corps and 
NMFS prepare a comprehensive assessment that addresses all the factors 
that influence salmon survival. This assessment will allow managers to 
focus efforts on actions that will have the most significant benefit 
for salmon restoration.

                FISH AND WILDLIFE SERVICE REORGANIZATION

    The Fish and Wildlife Service has proposed a reorganization of its 
Washington, D.C. office. Though I am inclined to support this 
reorganization, this Committee has not yet approved the proposal.
    At the same time, the Audubon Society is proposing that the 
Division of Refuges be removed entirely from the Fish and Wildlife 
Service and be established as a separate bureau within the Department.
    Question. What are the merits of the reorganization proposed by the 
Fish and Wildlife Service? Would the reorganization enhance the voice 
of the refuge system within the Service?
    Answer. The Service's proposed Washington Office reorganization 
will address national workload issues and strengthen management focus 
on key programs. The reorganization will more effectively manage 
programs with states; promote greater visibility and leadership for the 
National Wildlife Refuge System; consolidate habitat protection 
programs; and increase oversight of Federal Aid programs. The Refuge 
programs will have a dedicated Assistant Director, rather than an 
Assistant Director with additional responsibilities for land 
acquisition, Migratory Bird Management, and North American Waterfowl 
and Wetlands programs, as was the case with the predecessor 
organization.
    The Service is also implementing a complementary reorganization of 
its Regional Offices, that will enhance the changes being made in 
headquarters. These reorganizations will raise the visibility and 
stature of the National Wildlife Refuge System, give more attention to 
the important functions of Migratory Bird and Federal Aid programs, and 
continue to recognize the critical roles of Fisheries and Ecological 
Services. These organizational changes will provide a stable foundation 
from which the Service can focus on their resource mission, enhance the 
voice of the refuge system, and support all programs in a manner that 
will ensure a strong conservation heritage for the nation.
    Question. What are your thoughts about the Audubon proposal?
    Answer. The Service strongly opposes the Audubon Society's 
recommendation to establish a separate agency for the Refuge System. 
This recommendation would have the opposite effect of that envisioned 
by Audubon. It would seriously weaken the Refuge System. The Refuge 
System and other programs within the Service share the common goal of 
conserving the nation's fish and wildlife resources for the continuing 
benefit of the American people. The Service provides many specialized 
capabilities ranging from migratory bird, endangered species, and 
fisheries management to wildlife law enforcement and contaminants 
management that compliment Refuge System programs. The Refuge System 
cannot operate effectively in isolation and the interaction and synergy 
among the various programs within the Service is a source of strength 
for the System. Separating these efforts would not only reduce resource 
management effectiveness but would also result in loss of efficiencies 
as duplicate administrative systems would need to be developed for the 
Service and the new refuge agency.
    The Refuge System is prominent within the Fish and Wildlife Service 
and the Service continues to work diligently to improve it. Not only is 
nearly 40 percent of the Resource Management budget devoted to the 
annual operation and maintenance of the Refuge System but also 65 
percent of the Service's other appropriated funds (primarily 
Construction and Land Acquisition funds), and an additional $42 million 
from the Migratory Bird Conservation Account are also devoted to the 
Refuge System. The Service has consistently considered the needs of the 
Refuge System as budgets are developed, as policy development is 
pursued, and as legislative priorities are attended to.

                        Bureau of Indian Affairs

                          SCHOOL CONSTRUCTION

    The Administration requests $300.5 million for school construction 
for fiscal year 2001. This is a 126 percent increase. I am encouraged 
by the Administration's decision to focus significant resources on BIA 
school replacement, which is an area in dire need.
    Question. This is a significant portion of the Department's fiscal 
year 2001 request. How does this fall within your priorities for fiscal 
year 2001?
    Answer. Eradicating the serious health and safety deficiencies that 
afflict the 185 BIA-funded schools is one of the Department's top 
priorities. As of January 2000, the estimated cost to repair and 
improve BIA's education facilities was more than $800 million. To 
address this significant backlog, BIA's fiscal year 2001 education 
construction budget is the largest ever requested--$167.3 million over 
the fiscal year 2000 funding level, an increase of 126 percent. This 
request would fund replacement of six schools that have structural and 
code deficiencies which threaten student safety and are not equipped 
with modern educational tools. This request would also fund maintenance 
and major and minor repair projects to address critical health and 
safety concerns and reduce the significant repair backlog. The fiscal 
year 2001 budget represents a commitment to ensuring that American 
Indian youth have adequate educational facilities in which to obtain 
the skills necessary to succeed in the 21st Century.

                         CONTRACT SUPPORT COSTS

    There appears to be a big difference in the budget request this 
year between BIA and the Indian Health Service. BIA requested an 
increase of $8 million for contract support costs while the Indian 
Health Service requested an increase of $40 million.
    Question. Are you aware of why there is such a large difference in 
the requests? And if so, why is there such a large difference?
    Answer. Both IHS and BIA requested additional contract support 
funding for fiscal year 2001 to help Tribes administer contracted 
programs efficiently and effectively. Contract support is essential to 
ensuring Tribes have the resources necessary to build strong and stable 
tribal governments and exercise their authority as sovereign nations.
    The IHS request for an additional $40 million for contract support 
costs is needed to provide for new assumptions of IHS programs under 
self determination agreements and to increase contract support payments 
for existing contracts. The BIA's request for an additional $8.2 
million in contract support funding will meet approximately 100 percent 
of eligible costs for new contracts and approximately 88 percent for 
existing contracts. The difference in the funding levels requested by 
IHS and BIA is due to the number and costs of new and expanded 
contracts that each agency expects during 2001.

                   OFFICE OF SPECIAL TRUSTEE AND BIA

                              TRUST REFORM

    Question. The federal government has been severely criticized, 
especially in recent years, about its ability to properly adhere to its 
trust responsibilities owed to American Indians. Last year you 
indicated that your number one priority for appropriations was the 
Office of the Special Trustee. Is this still your top priority for 
fiscal year 2001?
    Answer. The reforms in this area continue to be the Secretary's 
highest management priority for the Department. The combined OST and 
BIA budget requests reflect the continued emphasis the Administration 
places on implementation of Indian Trust Asset Reform efforts and the 
resources needed to sustain the operational and organizational 
improvements initiated in previous years. Improvements in systems, 
operations and policies are critically needed to ensure the Federal 
Government meets its fiduciary obligations to Indian tribes and 
individual American Indians. New systems linking the management of 
underlying trust assets and the financial accounts are expected to 
begin operations in late 2000 to ensure that collections and payments 
are accurate.

                              COBELL CASE

    Question. At the hearing yesterday, Mr. Thompson testified that 
litigation responsibilities connected to the Cobell case have taken up 
a significant amount of time and resources of the Office of the Special 
Trustee. How have demands generating from the Cobell litigation 
affected the Department of the Interior as a whole?
    Answer. The Department has dedicated significant funding and 
staffing resources to meet litigation responsibilities connected to the 
Cobell case. For example, as of August 31, 2000, the Department has 
spent over $14 million on the Five Named Plaintiffs Document 
Production. In addition, employees have been dedicated to meeting the 
wide array of responsibilities in the Cobell case from across the 
Department in the Office of the Secretary, Office of the Special 
Trustee, Bureau of Indian Affairs, Minerals Management Service, United 
States Geological Survey, Office of the Solicitor, Office of Hearings 
and Appeals, and the Bureau of Land Management. The major 
responsibilities include the following: Five Named Plaintiffs Document 
Production; meeting the Special Master's requests; responding to a 
temporary restraining order and motion for preliminary injunction to 
prevent the move of the Bureau of Indian Affairs' Office of Information 
Resources Management from Albuquerque, New Mexico to Reston, Virginia; 
responding to the Special Master's judicial inquiry into Plaintiffs' 
allegations about the preparation of a declaration by a Department 
official; responding to Plaintiffs' motion for an order to show cause 
that alleges violation of the Court's anti-retaliation order; 
implementing initiatives to remedy the four Court-identified breaches 
of trust; preparing quarterly reports to the Court on the actions taken 
to correct problems related to the Federal government's trust 
responsibilities; and, implementing the trust reform initiatives as 
established in the High Level Implementation Plan. Employees dedicated 
to this effort are often fully involved in their regular duties and 
then are required to assist in trial preparation and document searches. 
Staff is working overtime to meet the wide-ranging demands of the 
Cobell litigation.

                        OFFICE OF THE SOLICITOR

                         ORGANIZATION STRUCTURE

    Question. You state several times in your budget justification that 
your costs are rising faster than you can compensate. In fiscal year 
2000 you estimate a level of 312 FTEs. Having six separate divisions to 
manage so few people seems excessive. Couldn't you consolidate some of 
these divisions and save money?
    Answer. For several decades, the headquarters of the Office of the 
Solicitor has been organized along subject matter lines, through 
divisions. Four of the divisions--Indian Affairs, Land and Water 
Resources, Mineral Resources, and Parks and Wildlife--serve the 
distinct and sometime conflicting missions of the Department's eight 
bureaus. A fifth division, General Law, provides legal services to the 
Secretariat and all the bureaus on cross-cutting issues such as 
personnel, equal employment opportunity, ethics, Freedom of Information 
Act, Privacy Act, tort claims, and intellectual property. A sixth 
division, Administration, provides non-legal support services to the 
Office as a whole, and with the exception of the Associate Solicitor, 
is not staffed by lawyers.
    The rationale for this organization has been the strong belief, 
held through many different Administrations, that it is the most 
efficient form of organization to deliver legal services to the 
Department. Among other things, it is perceived to provide an 
appropriate balance between serving the different individual clients 
and missions in the Department, and responding to the needs of the 
Secretary and the Department as a whole. While this assumption is 
periodically reexamined, it has for a long time been the belief of both 
career and political officials in the Office that moving away from the 
subject matter divisions through some form of a consolidation would not 
be in the Department's best interests.
    That is not to say that the organization and content of these 
divisions has remained static. Within that general framework, Office 
management has periodically evaluated the effectiveness of its 
organizational structure. Over the last several years we have made a 
number of significant changes to division and branch alignments for 
greater efficiency. Responding to changes in workload priorities and 
staffing levels, some smaller branches have been consolidated into 
larger branches. Less often, larger branches have been divided into 
smaller branches. Some workload has been shifted from one branch to 
another. One large and one small division were substantially realigned 
into two divisions of equivalent size. Division management structures 
were also streamlined, by eliminating stand-alone Deputy Associate 
Solicitor positions in five of the six divisions. Now the Deputies 
manage one of the branches in these divisions, as well as serving as 
the Deputy Associate Solicitor.
    While we are not complacent, we think we have already put sensible 
organizational changes in place that have brought improved efficiencies 
in our operations. We continue to believe that a major consolidation of 
divisions would not lead to further efficiencies, but likely would have 
the opposite effect.
    Question. Why is it necessary to have 19 separate locations for 312 
FTEs?
    Answer. All of our field and regional offices are in locations 
where there are large offices of one or more of our client agencies, 
e.g., Anchorage (National Park Service and Fish and Wildlife Service), 
Albuquerque (Bureau of Indian Affairs), Knoxville (Office of Surface 
Mining), and Billings (Bureau of Land Management, Bureau of 
Reclamation). Like the organization of the Washington office, there has 
long been a consensus belief that this organizational structure in the 
field is the most efficient way to deliver legal services to our client 
agencies.
    Over the last several years, Office management has made a number of 
efficiency-oriented changes to this regional and field office 
structure. We currently have 7 regional offices and 11 field offices, 
down from 8 regional offices and 13 field offices a decade ago. (The 
distinction between regional and field offices is primarily one of 
size; the smaller field offices are organizationally located under the 
regional offices for budgeting and management purposes, but they 
coordinate directly with Washington, D.C., on substantive issues when 
appropriate.) Some offices have grown in size in response to workload 
changes, while others have shrunk. One regional office was changed to a 
field office. Two field offices were closed altogether. One field 
office was merged into an existing regional office. The reporting 
relationship of a number of field offices was changed.
    As this record shows, we have not hesitated to close field offices 
where efficiency improvements and money savings could be demonstrated. 
We have looked carefully at closing additional field offices, but we 
have concluded that it would not be cost-effective to do so. Again, 
while we are not complacent, we think we have already undertaken the 
reorganizations that make sense.
    Were we to close any additional offices, we would incur substantial 
costs in relocating staff from the field office to its regional office, 
paying severance costs for staff who did not relocate, and moving the 
newly consolidated office to larger quarters. These costs would far 
exceed the first-year savings that would result from the consolidation 
and would therefore require an increased appropriation. Our offices are 
located where they are in order to best serve the client bureaus within 
each office's geographic areas. Closing an office would necessitate 
increased travel expenditures by staff in other locations to serve the 
needs of the clients in the closed office's location.
    Question. If we approve the additional 19 FTEs, would you need 
additional locations and if so, why?
    Answer. The 19 positions we are seeking to convert from client 
funding to the Office's appropriation are already distributed among our 
various offices. They do not represent new positions. They would not 
require any additional locations. The attorneys who already occupy 
those positions would simply receive their funding from the Office, 
rather than from the bureaus.
    Question. What additional costs would there be and how will you pay 
them?
    Answer. There would be no additional costs to the Department as a 
whole. Existing costs would merely be shifted from bureau funding to 
Office funding.
    Question. How much money would you save if you reduced your number 
of locations to 10?
    Answer. For the reasons explained above, we would significantly 
increase our costs if we consolidated 9 existing offices into the 
remaining 10, especially over the next few years. Some duplication of 
rental space, library resources, equipment, and support staff could 
potentially be eliminated, but the savings would not be significant. 
For example, if we closed virtually all of our field offices, we would 
have to increase the space of our regional offices to accommodate the 
displaced staff, ending up with almost as much total square footage as 
we have now; yet our regional offices are generally located in larger 
cities with higher rents. Moreover, most regional offices would likely 
not have room to expand in existing quarters, and would have to move to 
find additional space and possibly pay even higher rental rates. 
Shipping furniture, equipment, and files from the closed field offices 
to the regional offices, and moving the regional offices to larger 
facilities, would themselves be very costly. Unless we were to separate 
all of our field office staff through a reduction in force--at a great 
cost of expertise and experience--we also would have to pay relocation 
costs. We might be able to reduce the number of network file servers 
and fax machines; but we would still need the same number of desks, 
computers, filing cabinets, and telephones for 30 attorneys in one 
location as we currently need for 30 attorneys in 2 or 3 locations.

                   FISCAL YEAR 2001 PROGRAM INCREASE

    Question. In fiscal year 1992 we gave you an additional 12 FTEs, 
now you want another 19. Why do you think that an additional 19 FTEs 
will provide the Office a ``deal of self-sufficiency?''
    Answer. The Office's workload has increased substantially since 
1992, in nearly every area. Our client bureaus are requiring more legal 
services than we can provide with just our own appropriation. This has 
led the bureaus to fund a growing number of positions in the Office. By 
transferring these 19 positions to the Office's appropriation, we will 
reduce our dependency on client funding and thereby regain lost self-
sufficiency.
    Question. Will this be enough?
    Answer. In formulating our fiscal year 2001 budget request, we 
reviewed all of our client-funded positions, with specific criteria in 
mind. We excluded situations in which we have detailed an employee to a 
bureau for a term-limited assignment. There are a handful of these 
arrangements in place at any given time; typically, one of our 
attorneys is asked by the client to serve in some acting capacity in 
their offices. We also excluded positions associated with discrete 
legal projects that will have a definite end to them. These include 
work on the Presidio that is now winding down, the South Florida 
restoration project that is in mid-stream, and the major Indian trust 
fund reform effort that is likely to continue for some years. That left 
us with 19 positions that we determined had evolved over time into 
indefinite arrangements, with no end in sight to the associated 
workload. It is this group of 19 positions that we believe should be 
converted to Office funding.
    Question. In your justification you state that ``Client funding may 
exert subtle pressures to tell the client what it wants to hear rather 
then to provide objective legal advice.'' I find this to be a very 
disturbing statement. Are you really saying that the lawyers paid with 
agency funds are afraid they won't get paid if they don't tell the 
agency what it wants to hear?
    Answer. The statement in our budget justification was not intended 
to suggest that clients will pull funding for individual attorneys if 
they don't like the legal advice given. The concern is more general, at 
the institutional level. Congress made a specific decision back in 1946 
to establish a separate Solicitor's Office within the Department. We 
believe the principal basis for this decision was that there should be 
a central law office independent of the individual clients and bureaus. 
Congress did not, in other words, envision each client agency having 
its own ``in-house'' counsel. We move away from that congressional 
model of an independent central law office the more we staff it with 
individual lawyers paid for by the clients. While the pressures are 
subtle, relating primarily to work priorities rather than outcomes, 
client agencies who are funding individual attorneys in our Office 
inevitably come to believe they are entitled to special deference. The 
undermining of the Office's independence is particularly problematical 
when attorneys representing different bureaus are seeking to reconcile 
conflicting positions among those bureaus in order to develop a unified 
departmental position.
    Question. It should make no difference who pays, everyone has 
subtle pressures placed upon them. If this logic follows then they 
probably could not deal with the subtle pressures your office would 
place upon them. Perhaps the problem is not with the lawyers but the 
terms of your agreements. If the lawyers were assured of payment no 
matter the outcome--where's the problem?
    Answer. Please see the answer to the previous question.
    Question. If it's a reimbursable agreement, doesn't the money come 
to you and you disburse it?
    Answer. Reimbursable accounts are established for each client-
funded position. The costs of that position are billed to the bureau 
through the reimbursable account.
    Question. As for your statement regarding ability to pay, it makes 
one wonder if your office has a problem determining how to set 
priorities. If you know that some agencies have funds available to pay 
doesn't that enable you to use your base funding for the agencies that 
don't have funds available?
    Answer. In each reimbursable situation, we have already been 
providing the client bureau with a certain level of legal services, 
using our appropriated funds. The client has then come to us with a 
specific additional need. If we cannot meet that need within our 
existing resources, the client has offered to pay for a new legal 
position, to be filled by hiring an additional attorney on a term basis 
to meet the specific need that has been identified. Consistent with the 
reimbursable agreement, we cannot simply take the client's funding, 
apply it to existing positions already filled, and use the money 
previously devoted to those positions to perform work for some other 
bureau.

                    OFFICE OF THE INSPECTOR GENERAL

                              ORGANIZATION

    Question. You have fourteen locations for an estimated 265 FTEs. I 
know that you have been directed to have a presence at some locations. 
However, isn't there still some way to consolidate your locations and 
save money?
    Answer. Fourteen locations actually result in cost savings. By 
placing staff where the audit and investigative work is we save in 
travel costs. Indirectly, we also enhance staff productivity by 
eliminating time spent on the road--not to mention the intangible 
benefit of continuous, on-site working relationships with Bureau 
personnel and local U.S. Attorneys and oversight of Bureau operations 
and activities.
    Question. In fiscal year 2000 you have an increase of 17 FTEs above 
your fiscal year 1999 actual level, and twelve of the 17 are grades 13 
and higher. Why are most of the increases in the upper grades including 
three senior executives?
    Answer. Three vacant SES positions have been filled in fiscal year 
2000. The Deputy IG position had been vacant for almost 5 years, the 
General Counsel position had been vacant for 1\1/2\ years, and the 
Assistant Inspector General for Investigations hire replaced the 
retiring AIGI. Other upper grades have been advertised/filled to gain 
specialized skills for the new Special Inquiries Unit in Washington, 
D.C., which was established, in large part, to improve our 
responsiveness to Congressional inquiries and requests. Finally, the 
new IG felt it was important to bring some outside experienced managers 
to revitalize staff and bring new vision to the mission of the OIG and 
how we might better meet the needs and expectations of our customers.

                                 AUDITS

    Question. You state that in fiscal year 1999 your discretionary 
audits made up only 13 percent of your direct audit staff time. Will 
five additional FTEs bring you to an appropriate staffing level? And 
what percentage of discretionary audits do you want to achieve?
    Answer. The request for five additional auditors is the first part 
of a 5-year ``glide-up'' Human Resources Staffing Plan to return to the 
fiscal year 1994 level of staffing (171 FTEs) and audit workload 
performance (34 percent of our direct audit staff time devoted to 
discretionary audits).
    Question. Do you have the same arrangement as the Office of the 
Solicitor (SOL) for the agencies to pay for your services? If not, 
would that be feasible?
    Answer. The OIG cannot be compared to the SOL. Historically, we 
have funded our audit and investigative services through our annual 
appropriations, with very limited exceptions. Due to the increasing 
financial strain of conducting audits of the individual Bureau 
financial statements, however, we are seeking reimbursement in fiscal 
year 2000 (and beyond) for these CFO-related audit activities that are 
not required by law.
      natural resource damage assessment and restoration handbook
    You are using an interdisciplinary team to develop a Restoration 
handbook. This handbook will address how to handle a variety of issues 
and obstacles concerning planning (NEPA) and implementation.
    Question. Which agencies have members on your team?
    Answer. Members on the team include the: U.S. Fish and Wildlife 
Service, National Park Service, Bureau of Land Management, Bureau of 
Reclamation, Solicitor's Office, and the Office of Environmental Policy 
and Compliance. Technical assistance is provided to the team by the 
U.S. Geological Survey, and assistance on economics is provided by the 
Office of Policy Analysis.
    You state that this will be the first standardized document to 
guide the Interior bureaus in restoration activities.
    Question. Who will be involved in the peer review of this handbook? 
If it's not being peer reviewed-why not?
    Answer. The restoration handbook draws on the multi-disciplinary 
expertise of the FWS, BOR, BLM, and NPS. So essentially, it is being 
peer-reviewed as it is drafted. Upon completion of the draft, the 
entire package will be reviewed by the Department's land managing 
bureaus and the Office of the Solicitor. We will also request outside 
review by other trustee agencies such as the U.S. Forest Service and 
NOAA.

                           DAMAGE ASSESSMENT

    Question. Please explain the new process you have implemented for 
screening and ranking your projects.
    Answer. The revised process for evaluating project proposals 
prioritizes cases based on the likelihood of success in achieving 
restoration and by demonstrating technical, administrative and legal 
merit. The system is designed to:
    (a) Be inclusive of all resources under DOI trusteeship and trustee 
roles (i.e. Interior lands, trust species, and tribal interests).
    (b) Provide a process that encourages thorough planning and 
enhanced opportunities for restoration.
    (c) Provide a process that evaluates both objective and subjective 
aspects of individual cases.
    (d) Fund cases that have demonstrated sufficient technical and 
legal merit, trustee organization and readiness.
    The funding request features four tiers of questions that require 
increasing levels of case-specific information. The ability to answer 
these increasingly detailed levels of questions is used as an indicator 
of a case's readiness and potential for successful outcomes.
    (1) Threshold Questions--are used to determine whether sufficient 
information has been gathered to warrant further consideration of the 
potential case.
    (2) Screening Questions--are used to provide more detailed, factual 
information on technical, administrative and legal merits of a case.
    (3) Qualifying Questions--are used for a more in-depth, qualitative 
evaluation of the technical, administrative and legal merits of a case.
    (4) On-going Case questions--are used to evaluate the progress of 
ongoing cases to identify appropriate adjustments and changes in timing 
and case strategy.
    All submitted proposals are evaluated, ranked and scored on the 
basis of the four criteria identified in (d) above, and then are 
recommended for funding approval (to the extent funds are available) by 
the Restoration Program's Work Group. All final allocations are 
approved by the Program's Executive Board.

                           PROGRAM MANAGEMENT

    You state you are developing a Restoration Program database. 
Databases are often very expensive to populate and maintain.
    Question. How much is your database going to cost?
    Answer. We do not currently have a estimate of the costs of 
developing our database. The Restoration Program is aware of the 
potential for high costs to populate and maintain such a system. 
However, due to limited funding we are taking a very measured approach. 
To the greatest extent possible, we are utilizing existing personnel, 
and plan to house the data in an existing data management system. Data 
for the prototype is currently being developed by field practitioners, 
while quality control will be provided by our regional coordinators. 
Additionally, where possible we are utilizing data already collected by 
others to build a limited prototype.
    Question. Will this database be tied to the different bureaus' 
databases?
    Answer. We envision that our database will be tied in some fashion 
to other existing databases.. Our database will become part of the 
Environmental Conservation On-line System (ECOS) data management system 
developed and managed by the U.S. Fish and Wildlife Service. This will 
allow us to relate our data to a variety of other contaminant and 
natural resource databases and display it on a geographical basis. 
Currently, the ECOS system contains data from a variety of sources 
including the Fish and Wildlife Service, National Park Service, U.S. 
Environmental Protection Agency, and the U.S. Geological Survey. This 
list will expand as the system is further developed. By utilizing this 
system we will be able to immediately access and relate our data to 
these other data. We are also working with the Department of Justice to 
link with their data so that common fields will not be duplicated.
    Question. How will it be maintained?
    Answer. We are currently in discussions with the Fish and Wildlife 
Service to provide funding to them to operate and maintain our 
database. As they currently have the need and expertise to develop and 
maintain their larger system, efficiencies will be gained by 
``piggybacking'' onto their data management capabilities.
    Question. Who will have access to it?
    Answer. Currently the database is being developed to be used 
primarily in-house, by practitioners and managers. Some of the data 
fields will be a matter of public record while others will be 
litigation sensitive. As part of the prototype we are looking into 
questions of appropriate accessibility and protection for portions of 
the database.

                      MINERALS MANAGEMENT SERVICE

                    OIL VALUATION--RECENT COURT CASE

    The D.C. Federal District Court ruled against the Minerals 
Management Service last week with respect to whether natural gas 
producers have a ``duty to market'' the federal share of production at 
no cost to the government.
    Question. What, if any, impact will this decision have on the new 
oil valuation regulations which the agency issued on March 15?
    Answer. The Departments of the Interior and Justice are considering 
whether to appeal the decision and have already filed a motion with 
Judge Lamberth asking for clarification of certain aspects of the 
decision. Therefore, because the litigation on this issue is not over, 
it is difficult to say what impact, if any, the District Court's 
decision will have on the new oil valuation regulations. In April, the 
Independent Petroleum Association of America and the American Petroleum 
Institute have filed suit on the oil valuation rule. Notwithstanding 
the outcome of the oil rule litigation, if the District Court's 
decision on marketing stands, there would be an impact on what costs 
the lessee would be permitted to deduct for the costs of marketing 
Federal crude oil downstream from the lease. We estimate those costs 
(and the loss to the Treasury) would be between $6-$13 million 
annually.
    Question. Does the agency have any plans to suspend implementation 
of the regulations based on this ruling?
    Answer. We have no plans to suspend implementation of any of our 
regulations based on this ruling. At this time, we believe that this 
issue should be decided through the court system.
                          offsetting receipts
    Almost one half of the MMS's budget is funded through offsetting 
receipts derived from rents charged on oil and gas leases. The MMS 
budget request states that $117 million will be collected through 
offsetting receipts this year. We have heard recently that this number 
is overstated by more than $7 million.
    Question. What are the current MMS estimates of the amount of 
receipts that will be collected?
    Answer. In addition to making estimates of offsetting receipts for 
the President's Budget, we periodically update our projections of rent, 
bonus, and royalty receipts that are expected from leasing of OCS 
resources. These estimates fluctuate over time depending on a variety 
of factors that affect OCS leasing.
    Because these projections are by nature uncertain, we have to 
settle on an estimate early in the year and use that estimate for 
planning. For the Administration's budget purposes our current estimate 
of offsetting collections is the $117 million submitted by the 
Administration in its fiscal year 2001 budget. The $117 million 
includes the proposal for $10 million in new fees.
    Question. How would MMS absorb a $7 million reduction in funding if 
the projections are now, in fact, lower?
    Answer. If a shortfall materializes for fiscal year 2000, Congress 
has granted us the authority to utilize receipts from the $3 per acre 
rents to make up the difference. If a shortfall were to occur in fiscal 
year 2001, we would spread the impact among all MMS programs; for 
instance, delaying implementation of the Royalty Reengineering 
Initiative, and reducing helicopters used to support the inspection of 
offshore facilities.
    The agency's budget request also claims a $10 million credit for 
``user fees''. No more explanation is provided. This proposal has yet 
to be sent to Congress.
    Question. What can you tell us about the specifics of this 
proposal?
    Answer. MMS is exploring possible options that could be used to 
generate new receipts to address any potential shortfall in offsetting 
collections, so as not to adversely affect MMS's operating budget. Our 
goal is to identify possible charges or fees that could generate 
sufficient amounts to offset potential shortfalls, without adversely 
affecting leasing and development of OCS oil and gas. To establish a 
new revenue source designed to maintain a consistent level of 
offsetting receipts, we believe that legislation may be needed to 
authorize the Department to establish and retain a new type of fee. 
Currently, MMS is discussing several possible new fees with the 
Department and the Office of Management and Budget.
    Question. When will you send this proposal to the Committees of 
Jurisdiction?
    Answer. Currently MMS is discussing possible new user fees with 
both the Department and the Office of Management and Budget. When those 
discussions are completed, MMS will prepare and forward the necessary 
proposed legislative proposal to the Congress.
    Question. Is it sound policy to increase operating costs on oil 
companies which will be passed on to consumers when gas prices are so 
high?
    Answer. The Department believes that any proposed fee would have 
little or no effect on the price of oil or gas since the total cost of 
production will be affected only negligibly.

                             DUTY TO MARKET

    Question. If a legal determination is made that producers have no 
duty to market at no cost to the government, what would the impact be 
on MMS's estimate that it would collect an additional $66 million 
dollars with its new oil valuation rules?
    Answer. We estimate the annual costs of marketing Federal crude oil 
production at between $6-$13 million.

                            OFFSHORE LEASES

    The agency recently granted suspensions on a number of leases off 
the coast of California. The state has sued claiming that this decision 
is subject to the Coastal Zone Management Act.
    Question. What would the impact be on the agency if such decisions 
were subject to the CZMA? Is this the first instance in which a state 
has made such a claim?
    Answer. The MMS approves suspensions of operations (SOO) and 
suspensions of production (SOP) to allow more time for activities that 
are the subject of the suspension to occur. We do not believe that 
suspensions are subject to consistency review. A suspension is not a 
Federal license/permit, as it does not license any activity or 
constitute a permit for any activity. Even if a suspension was found to 
be a license or permit, CZMA exempts application for other permits 
necessary to conduct activities described in an approved OCS 
exploration or development and production plan from further state 
consistency review.
    If consistency review were required for MMS suspensions, the 
increased workload and time would adversely affect MMS, as well as 
coastal states and OCS operators. The MMS approves suspensions in all 
regions of the OCS; in 1999, MMS approved five SOOs and 92 SOPs on the 
OCS in the Gulf of Mexico Region. MMS's administrative costs associated 
with running these 97 suspensions through a multi-state federal 
consistency review would be high. For coastal states, it is not clear 
that their coastal management programs have the capacity and resources 
to handle the increased paperwork and staff time associated with 
consistency review. In addition, OCS operators would have to bear costs 
associated with a three to six month consistency review delay.
    Such costs would be understandable if there was a need to protect 
coastal land, water use, and natural resources from activities 
associated with MMS suspensions. Because suspensions delay activities 
instead of permitting them, there will be no value added for the added 
administrative burden that a consistency review would bring.
    To our knowledge, this is the first instance in which a state has 
made such a claim. Until the recent California suspensions, coastal 
states have not asserted that the suspensions required federal 
consistency review. In fact, during the late 1980s and early 1990s, MMS 
approved numerous suspensions for the undeveloped leases on the 
California OCS. All of the operators of the remaining 36 California OCS 
leases had received more than one granted suspension without the state 
ever suggesting that a federal consistency review was required.
    Question. When is production expected from these leases? What are 
the estimates for the amount of federal royalties that will be 
received?
    Answer. Currently, there are 11 known oil and gas fields underlying 
the 36 undeveloped leases. Three of these fields can be developed from 
existing facilities, which means that production from these fields 
could begin as early as 2002. The remaining eight fields would require 
new platforms for development, so production might begin no sooner than 
2007. An exploratory well is scheduled for 2002 and could result in 
discovery of another field.
    The recoverable oil and gas reserves from the discovered fields 
underlying the 36 leases is estimated to total 1.091 billion barrels of 
oil and 578.502 billion cubic feet of gas. Assuming future prices of 
$17 per barrel for oil and $2.50 per thousand cubic feet of gas 
(derived from EIA and other projections), Federal royalties from 
producing these reserves could total $3 billion over the life of the 
fields. Please note that this $3 billion projection is a gross estimate 
(not discounted over time) based on a single price assumption that does 
not take into account different start-up times for production, price 
growth, or inflation during the life of operations.

                          ALLEGED EMBEZZLEMENT

    Recently, an employee of the agency pleaded guilty to embezzling 
MMS funds. The Inspector General concluded that the MMS had weak 
internal controls.
    Question. Has an independent review been conducted and 
recommendations made by outside auditors to fix the problem? What other 
steps is the agency taking to correct this problem?
    Answer. Initially, the Department's auditors reviewed MMS's finance 
and control processes. Currently, MMS is using the services of KPMG to 
perform an independent review of our financial processes and controls. 
Recommendations will follow KPMG's review.
    MMS staff discovered the embezzlement during reconciliation of the 
bureau's administrative operating accounts. MMS staff compiled the 
initial evidence provided to the Inspector General's investigators and 
cooperated with them to obtain further documentation.
    The embezzlement scheme involved funds about to be returned to the 
Treasury from expiring appropriations. The individual responsible for 
ensuring that these funds were correctly returned to Treasury felt that 
she could defeat the existing checks and balances. No system or 
procedure gave the embezzler the authority to approve and make payments 
without the proper documentation to indicate a legitimate expense to 
the MMS. Instead, the embezzler created false records to conceal her 
actions and make it appear that legitimate expenditures were being 
made. She was able to accomplish these actions by illicitly obtaining 
the passwords and system authorities of other employees. This made it 
appear that the payments were being ordered and verified by two 
separate people. No other MMS employees were culpable in this theft.
    A number of steps have been taken to prevent this event from 
occurring again. Immediately upon discovering the likelihood of 
embezzlement, the passwords and authorities of the suspected employee 
were revoked. This included her access to the building in which she had 
been working as well as her access to files and systems.
    At the same time, the passwords of all other employees in the 
finance organization were changed and their authorities to take actions 
in the accounting system were temporarily curtailed pending a more 
detailed review of any possible overlaps. The more detailed review has 
been completed and authorities necessary to the conduct of regular 
business have been restored to finance organization employees.
    Other steps taken included the reassignment of the lead accountant 
and the establishment of an interagency task force to review and 
reconcile MMS accounts. The Inspector General's auditors have been key 
participants in the review of all of our processes. Finally, we have 
engaged a nationally known public accounting firm to provide a further 
review of the finance processes and controls.
    As the Inspector General was quoted as saying in a February 19, 
2000 Washington Post article on this incident, ``the system has been 
fixed'' and the embezzlement ``would not happen today.''

                         REENGINEERING EFFORTS

    The agency's budget proposes a large increase in fiscal year 2001, 
as it did last year, to support its reengineering efforts.
    Question. How is this effort proceeding? Are any unexpected 
problems arising? When is deployment planned if the increase is 
provided?
    Answer. The reengineering effort continues to advance as planned. A 
favorable contract for design and implementation of the new RMP 
financial system was awarded to Andersen Consulting in September 1999. 
Andersen recommended a commercial-off-the-shelf package, called 
PeopleSoft Financials for Government and Education, for the project. 
With the requested fiscal year 2001 funding for the reengineering 
initiative (which is unchanged from our fiscal year 2000 request), we 
will be able to deploy the new RMP financial system in September 2001.
    Major milestones to date include hardware and software acquisition, 
final definition of user requirements, an initial fit analysis which 
matches PeopleSoft capability with RMP requirements, and completion of 
Conference Room Pilots. PeopleSoft capability closely matches our 
defined requirements, which will keep the amount of custom code within 
an acceptable range. To date all critical milestones have been met as 
scheduled and we do not foresee any deviations from established 
schedules. General and detailed designs will be completed this summer 
after which the project focus will shift to coding, testing, data 
conversion and implementation. While an effort of this magnitude is 
challenging as we define requirements, resolve issues and adjust 
processes to fit the new PeopleSoft based environment, we haven't 
encountered any unexpected problems that would alter project plans or 
objectives. We are also engaging Andersen Consulting to design, develop 
and implement our reengineered compliance and asset management process 
(CAMP). Requirements are in the process of being analyzed and the 
scope, approach and cost associated with CAMP implementation will be 
negotiated and finalized this summer. Final contractual arrangements 
will be in place no later than September 2000, and we anticipate 
implementation concurrent with the new financial system (Sept. 2001).
    Question. To what extent have industry, states, and tribes been 
involved with the reengineering effort?
    Answer. Customer and constituency input has been gained across a 
broad front throughout the course of the reengineering effort. State 
and tribal representatives participated directly on initial 
reengineering design teams and continue to be involved through 
permanent assignment to operational model teams and the Program 
Reengineering Office. We have instituted an aggressive outreach and 
communications strategy involving regular dialogue with industry groups 
(Council of Petroleum Accountants Societies) and state and tribal 
organizations (State and Tribal Royalty Audit Committee).
    Full working partnerships have been established for operational 
models and systems development, and reporting requirement analysis 
activities. Oil and gas industry partners include Texaco, BP AMOCO, and 
Chevron. Solid mineral industry partners include Peabody, Cyprus-Amax 
(RAG America, Inc), BHP, and Kennecott. State and tribal government 
partners include Utah, Colorado, Wyoming, Montana, New Mexico, the 
Navajo Nation, Ute Tribe, and the Crow Tribe. As partners, 
representatives are assigned to operational model teams, review 
proposed report formats and participate in contractor led design 
sessions. These partnerships and associated outreach efforts allow us 
to jointly explore ways to exchange information and advance new 
reporting and operational procedures. RMP will continue its active 
communications strategy to fully involve industry, states and tribes 
and gain input from them as the reengineering effort progresses to 
completion and thereafter.
    Question. Will the new systems being implemented by MMS as part of 
reengineering place any burdens on stakeholders such as acquisition of 
new hardware or software? If so, what would be the cost of such 
additional resources?
    Answer. States, tribes and other Federal agencies have access to 
and exchange information with RMP on a regular basis. Existing 
hardware, software, and network configurations maintained by these 
entities to access RMP data will not be directly impacted by new RMP 
systems. RMP data and applications can be accessed by these users with 
existing desktop capabilities. We will be introducing new reporting 
formats and dialogue is underway with affected stakeholders to ensure 
that their systems can receive and process RMP supplied data. Not all 
reporting issues have been finalized, but we anticipate that changes 
will be handled by conversion programs which will translate new RMP 
formats into existing receiving agency formats.
    Industry reporting requirements will also change as modifications 
are made to royalty and production reporting formats. While there are 
no hardware related costs to industry as a result of RMP reengineering, 
we recognize there will be a minimal one time cost to industry as they 
modify their systems to accommodate new reporting changes. Reporting 
service providers that contract with payors will also have to modify 
their systems. It is impossible to gauge with complete accuracy what 
these costs might eventually be given the thousands of entities that 
report to MMS and their diverse size and systems environments. Most 
will incur little or no cost as they utilize MMS's templates. For those 
companies that do have to make software changes, we estimate that the 
cost industry-wide may total between 10 and 20 million dollars; 
however, we believe that the long-term cost savings to industry will 
significantly outweigh their system conversion costs. While it is 
difficult to estimate initial costs to industry, full implementation of 
the reengineering process will improve MMS's overall program 
performance and realize significant benefits to MMS and industry. For 
example, reducing the business cycle from 6 years to 3 or fewer will 
accelerate cash flows, improve accuracy of first reporting and payment 
of royalties, and expedite problem resolution. This will mean 
substantial dollar savings to MMS and industry. Furthermore, industry 
has repeatedly requested many of these reporting changes and recognizes 
the benefits to all parties.

                            SAND AND GRAVEL

    Last year, by statute, MMS's authority to assess fees on state and 
local governments for sand and gravel expired.
    Question. Since MMS will no longer be able to charge fees to these 
entities for ``public purpose'' projects how much does the agency 
anticipate that demand for sand and gravel will increase? How does MMS 
plan to deal with this increased demand? What are the long term funding 
needs for this program?
    Answer. Since MMS no longer has authority to assess fees for sand 
and gravel for ``public purpose'' projects, we have seen requests for 
the use of OCS sand increase substantially. We currently have requests 
that we are processing from the State of Maryland; Brevard County, 
Florida; and the community of Corson's Inlet, New Jersey. Outer 
Continental Shelf sand and gravel is also being considered as a source 
for barrier island restoration offshore Louisiana. We have a request 
for the use of Federal sand from Gulf Shores, Alabama and an indication 
of the need for OCS sand offshore Avalon-Stone Harbor, New Jersey, as 
well as a request for further cooperative work with the State of New 
Jersey offshore Monmouth-Sea Bright. In addition, the State of Florida 
has indicated its interest in establishing a coastal marine institute 
with us, the Florida Geological Survey, and the Florida State 
University to conduct sand source investigations and environmental 
studies of sites identified as potential sources of shore protection 
material. They are interested in further work in Federal waters off 
both their east and west coasts to identify quality sand for beach 
nourishment projects.
    In fiscal year 2001, MMS will initiate a study to design a pilot 
program/framework for environmentally sound management of offshore 
borrow areas along the U.S. East and Gulf of Mexico coasts. The study 
involves the design of a monitoring program to examine long-term 
cumulative effects of dredging, as well as developing options and 
recommendations for the inclusion of Federal, State, and local 
governments in an overall planning process. The study will provide 
valuable information to help MMS design an effective regional 
management strategy for OCS sand resources.
    We are in the process of evaluating the long-term needs of this 
program. Based on the current requests we have, we believe these needs 
will continue to grow in the foreseeable future.

                        OFFICE OF SURFACE MINING

                         COMBINED BENEFIT FUND

    Due to a Supreme Court case that struck down the reach back tax for 
certain companies which contribute to the United Mine Workers of 
America, Combined Benefit Fund fewer companies are now required to pay 
into the fund. This has threatened its solvency. The Office of Surface 
Mining budget justification states that the Administration will propose 
legislation to ensure continued solvency of the Combined Benefit Fund.
    Question. What are the specifics of this proposal? How much money 
will it cost to maintain the solvency of the Combined Benefit Fund?
    Answer. The Administration projects that, without the 
Administration's proposal, the Combined Benefit Fund will have an 
accumulated deficit of nearly $50 million by the end of fiscal year 
2001. A $50 million annual deficit is projected each year thereafter, 
if the current level of service is maintained. Such steadily deepening 
deficits, which the Congress foresaw last fall, cannot be sustained, 
which is why the Administration proposes a long-term intervention.
    The President's fiscal year 2001 Budget proposal includes 
legislation in three parts that addresses long term concerns associated 
with the Combined Benefit Fund's Health Care premium accounts.
    First, the legislation will provide for an annual mandatory General 
Fund Federal transfer for a period of 10 years. Over the 10-years the 
transfer will total $346 million, beginning with a transfer of $38 
million in fiscal year 2001.
    Second, the legislation will reverse the effects of the court 
decision in National Coal v. Chater regarding calculation of the 
premiums charged to coal companies that had contractually agreed to pay 
their employee's retirement health benefits. This would increase 
operator premiums by about 10 percent over current levels, bringing it 
to a level that better reflects actual benefit premium rates and also 
continues cost containment practices. By reversing Chater, the Combined 
Benefit Fund will gain approximately $11 million in fiscal year 2001 
with a total of approximately $86 million over a 10-year period.
    Third, the legislation will clarify a provision of the Coal Act 
regarding the timing of the Social Security Administration's assignment 
of retired miners to the companies that had employed them and had 
agreed to pay for their retirement health benefits.
    The Administration also proposes to extend the AML reclamation fee 
an additional 10 years, beginning in fiscal year 2005 to fiscal year 
2014. In addition to financing growing reclamation needs identified 
under current law, some of the interest earnings on the fund balance 
will continue to finance the health costs of coal miners (and their 
families) who are ``unassigned'' under current law--generally retired 
miners whose former employers are no longer in business.
    Question. Are other companies litigating the legality of the reach 
back tax so that the costs to the federal government of ensuring 
solvency will increase?
    Answer. The Department is not involved in any current litigation 
involving companies challenging the legality of the reach back tax. The 
Department of Justice or Social Security Administration however, may be 
involved in litigation with companies challenging the Coal Act for 
various reasons, not necessarily related to the reach back tax.

                        STATE REGULATORY PROGRAM

    Twenty-four states have permanent regulatory programs for the 
regulation of mining activities. OSM's state regulatory program 
provides a 50 percent match to these states which have the primary 
responsibility for conducting regulatory operations. This is a much 
cheaper alternative to the federal government having these 
repsonsibilites. The OSM budget for fiscal year 2001 proposes a small 
increase for the state regulatory grant program. Representatives of the 
many states which receive grants under this program have indicated to 
the Subcommittee a strong concern that this is not sufficient to meet 
their needs.
    Question. How do you respond to these concerns? How much did the 
States request for regulatory grants in fiscal year 2001? What will be 
the consequences of providing less than this level of funding?
    Answer. The State and Tribal grant estimates for fiscal year 2001, 
submitted in May 1999, totaled $61 million. OSM's decision regarding 
the level of funding for the regulatory grant program was based on 
anticipated State and Tribal expenditure levels, historic obligation 
rates and budget target levels. While the primacy states as a group do 
claim that they have a funding shortfall, OSM will work with the States 
and Tribes to adjust regulatory grants to meet state needs within 
overall funding limits.

                           BRAGG V. ROBERTSON

    Question. What is the current status of the Bragg v. Robertson 
litigation concerning mountaintop mining in West Virginia? Does the 
Department of Justice intend to file an appeal?
    Answer. On October 20, 1999, U.S. District Judge Haden issued a 
decision in Bragg v. Robertson on the stream buffer zone question. The 
United States, the State of West Virginia and mining industry and union 
intervenors all appealed Judge Haden's decision to the United States 
Court of Appeals for the Fourth Circuit.
    In the October 20, 1999, decision, Judge Haden interpreted West 
Virginia's stream buffer zone rule as precluding the placement of 
excess spoil from mining in intermittent and perennial streams.
    Apart from the stream buffer zone question, the State of West 
Virginia and the plaintiffs had earlier entered into a consent decree 
which had settled the remaining counts of the litigation. Judge Haden 
approved the consent decree in February 2000. The industry has appealed 
the approval of the consent decree to the Fourth Circuit. The Fourth 
Circuit consolidated this appeal with the appeals of Judge Haden's 
October 20, 1999, decision.
    On Monday, April 17, 2000, the United States and the mining 
industry and union intervenors filed their appellate briefs on the 
stream buffer zone ruling. West Virginia's brief is due on May 17, 
2000.
    In its brief, the United States argues that excess spoil from 
mining operations is ``fill'' material and accordingly regulated by the 
Army Corps of Engineers under Section 404 of the Clean Water Act. As to 
the stream buffer zone issue, the United States largely agrees with 
Judge Haden's ruling, but argues that Judge Haden's injunction 
prohibiting the placement of any excess spoil into intermittent or 
perennial streams is overly broad.
    Question. What will the impacts be on coal mining in West Virginia 
if the district court's ruling is upheld on appeal? What other states' 
programs will be impacted the most by this decision?
    Answer. As part of the Environmental Impact Statement (EIS) 
process, OSM and the other agencies are conducting economic benefit 
analyses of steep slope mining operations in the Appalachian states. 
After Judge Haden's decision, OSM expanded the EIS analyses to include 
a specific study of the economic impacts from Judge Haden's ruling. 
These studies will help OSM and the other federal and state agencies 
determine the impacts on coal mining in West Virginia if Judge Haden's 
ruling is affirmed.
    If Judge Haden's decision is upheld, it would automatically apply 
to West Virginia and, depending on the basis of the Circuit Court's 
ruling, it could apply in the other coal producing states in the Fourth 
Circuit. Besides West Virginia, those states in the Fourth Circuit are 
Maryland and Virginia.

                      ABANDONED MINE LANDS PROGRAM

    The most significant increase in the OSM budget ($14.4 million) is 
for the Abandoned Mine Lands (AML) program. The Administration wants to 
get the program at a level commensurate with fee receipts by fiscal 
year 2003.
    Question. What is the level of fee receipts anticipated in fiscal 
year 2000-fiscal year 2003?
    Answer. The level of fee receipts anticipated in fiscal year 2000--
fiscal year 2003 is as follows:

                          [In millions dollars]

Fiscal year:
    2000.......................................................... 276.7
    2001.......................................................... 277.0
    2002.......................................................... 281.2
    2003.......................................................... 280.6

                        CLEAN WATER ACTION PLAN

    The agency's budget states that $12.4 million will be directed to 
states and tribes doing projects that support the President's Clean 
Water Action Plan (CWAP).
    Question. What criteria are used to determine whether a projects is 
a CWAP project?
    Answer. A Clean Water Action Plan project is any project that 
corrects Acid Mine Drainage, either directly or indirectly. Many 
abandoned mines contribute to water pollution in ways such as acid mine 
drainage from abandoned gob piles, sedimentation of streams as waste 
piles erode, and acid mine drainage formed as water enters the 
underground mine workings and emerges as a pollutant. An AML project 
that would correct any such conditions, as well as other of the CWAP 
key action items, would be a project that is consistent with the 
President's Clean Water Action Plan. A State/Tribe would state in its 
grant documents that the increased funds would be used for such 
projects. Therefore, there are no new or different criteria being 
applied to AML projects.
    Question. What, if any, groups would be ineligible for a part of 
this increase because they do not currently have CWAP projects? If so, 
what states or tribes?
    Answer. Every time a State or Tribe cleans up an AML site there is 
a positive aspect on associated waters. We believe that all have 
eligible problem sites that could be reclaimed in support of the 
President's Clean Water Action Plan. (based on a staff review of 
unreclaimed sites listed in the Abandoned Mine Land Inventory System, 
and discussions with States and Tribes) The same is true for the 
watershed organizations participating in the Watershed Cooperative 
Agreement Program.

                       OFFICE OF INSULAR AFFAIRS
                             COMPACT IMPACT

    The Office of Insular Affairs budget seeks to provide an additional 
$5.4 million of mandatory funding to Guam for the impacts on Guam of 
the migration of citizens from the Federated States of Micronesia. This 
migration has occurred because of the immigration provisions in the 
Compact of Free Association which allows virtually unlimited access to 
other U.S. territories and to Hawaii.
    Question. What is the offset for this proposal?
    Answer. This proposal was incorporated into the President's budget 
and is thus offset by general revenue increases or other domestic 
spending cuts. It should be noted, however, that the fiscal year 2000 
appropriation included one-time increases of $3 million to technical 
assistance for Compact impact and a $3 million subsidy payment 
associated with the American Samoa tobacco settlement loan, neither of 
which are included in the 2001 budget request.
    Question. Why is Guam slated to get all of these additional funds 
when other areas such as the Commonwealth of the Northern Marianas and 
the State of Hawaii also have significant impacts caused by migration 
from Micronesia?
    Answer. There are several reasons. Guam has done the best job 
documenting impacts and impact costs. The data indicates Guam is 
experiencing the greatest impact. Hawaii is authorized to receive 
appropriations under the Compact of Free Association Act (Public Law 
99-239); but OIA's appropriation, which includes impact aid, is 
entitled Assistance to Territories and provides funding for grant 
assistance to the U.S. territories and freely associated states. We 
must ensure new assistance provided to the State of Hawaii is not done 
at the expense of important program assistance for the territories. In 
the case of the CNMI, the impact is less; the CNMI has been given 
greater control over immigration policies; and the CNMI government is 
already receiving significant guaranteed multi-year assistance that can 
be used to mitigate the impact.
    Question. Wouldn't it be more appropriate to determine how much in 
impact aid should be given to CNMI, Guam, and Hawaii as part of the 
renegotiation of the Compact of Free Association which is currently 
underway?
    Answer. We agree that impact aid should be considered in the 
context of the Compact renegotiation; but it should not stop our 
current efforts to assist Guam or the other governments. The Compact 
negotiations may not be completed until late in fiscal year 2003, more 
than 3 years from now.

                           TOBACCO SETTLEMENT

    Question. Has the Office of Insular Affairs been working with the 
American Samoa Government (ASG) with respect to formulating a plan that 
will allow ASG to receive a federal advance on tobacco settlement funds 
as provided in the fiscal year 2000 Interior and Related Agencies 
Appropriations Act? What are the specifics of this plan?
    Answer. Yes, we are working with representatives of the American 
Samoa Government, but they have not yet given us details of their plan 
to pay off debts or their plan to improve American Samoa's overall 
financial position.
    Question. How, if at all, will money from the tobacco advance be 
used to satisfy debt for unpaid medical bills to Hawaiian hospitals?
    Answer. Under the legislation, debts involving health care services 
are the highest priority, so we would expect the ASG plan to include 
repayment of these referral bills.
    Question. What has the OIA's role been in attempting to resolve 
this situation?
    Answer. OIA officials have met with the creditors and ASG officials 
advocating a settlement. OIA also supported the legislation authorizing 
the advance on tobacco settlement funds and its prescribed use to repay 
ASG debts, including medical referral debts.
    Question. What is the current amount owed?
    Answer. The current amount owed to hospitals is less than $5 
million.
    Question. How much could be satisfied from the tobacco advance?
    Answer. It can be completely satisfied by the tobacco advance. The 
claims by the hospitals fall in the first priority for use of the 
tobacco settlement money, if the hospitals are willing to meet the 
prerequisite and settle for 75 percent of the total owed. If they are 
not willing to settle at the lesser amount, their claims shift from the 
first priority for repayment to the fifth priority. The fifth priority 
is for creditors who decline to settle for a lesser amount and insist 
on full payment. If this happens, there is a much higher probability 
that some of the hospital claims will not be paid out of the tobacco 
advance.

                         CORAL REEF INITIATIVE

    The agency requests $500,000 for the Coral Reef Initiative in 
fiscal year 2001, the same amount as provided last year.
    Question. How were the funds allocated in fiscal year 2000?
    Answer. The $500,000 is being used to support a variety of programs 
and projects identified in the U.S. All Islands Coral Reef Initiative 
Strategy (Strategy), updated in October 1999 at the request of the U.S. 
Coral Reef Task Force. The Strategy identifies a broad scope of actions 
to protect and restore coral reefs, from education and outreach to 
establishment of marine protected areas and increased enforcement. Some 
examples of projects OIA's fiscal year 2000 funding will help support 
include: developing a marine park management plan for the Virgin 
Islands; conducting baseline characterizations of coral resources in 
the CNMI to identify areas for ``marine protected area'' designation; 
supporting Guam's public outreach and education program with 
educational materials, including developing a coral reef atlas; and 
conducting two workshops in American Samoa to develop improved 
monitoring protocols and to improve and expand marine protected areas. 
OIA will continue to foster local-Federal partnerships as the Task 
Force works to integrate insular area priorities into the development 
of a national strategy for coral reef protection and management.
    Question. What were the specific accomplishments?
    Answer. Projects for fiscal year 2000 have been identified and 
funds are currently being transferred to the insular areas for 
implementation. Specific accomplishments for the $200,000 provided in 
fiscal year 1999 include a comprehensive revision of the All Islands 
Coral Reef Initiative Strategy as requested by the U.S. Coral Reef Task 
Force; development of a five-year plan for coral reef management in 
American Samoa following several workshops; reef assessment and 
characterization around the U.S. Virgin Islands for inclusion in the 
natural resources and planning database; analysis and site 
identification for creation of the first-ever marine protected area for 
coral reefs in CNMI; creation and installation of interpretive signs 
for marine protected areas and other sensitive habitats; development of 
a coral reef educational CD-rom in Guam; and development of other 
educational materials for school children and the public in several of 
the islands. In addition, OIA helped plan and fund the removal of the 
nine fishing vessels from Pago Pago Harbor in response to Governor 
Sunia's request for assistance from the Coral Reef Task Force.
    Question. What were other agency's contributions to this effort?
    Answer. OIA has worked closely with the National Oceanic and 
Atmospheric Administration (NOAA) to develop a strategy for long-term 
sustainability of coral reefs in the insular areas. In fiscal year 1999 
and 2000, OIA and NOAA jointly funded several local-level projects in 
the insular areas as part of the coral reef initiative, as identified 
in the preceding answer. OIA has also taken a leadership role on the 
interagency Coral Reef Task Force. The Task Force is co-chaired by the 
Secretaries of Interior and Commerce through the Administrator of NOAA. 
Task Force membership also includes 9 other federal agencies and the 
governors of the U.S.V.I., Guam, Commonwealth of the Northern Mariana 
Islands, and American Samoa, as well as Hawaii, Florida and Puerto 
Rico. The Task Force is coordinating the federal/state/territorial 
effort to develop and implement the national action plan for long-term 
management and protection of the Nation's coral reefs. Although NOAA 
and the Department of the Interior have been the primary agencies 
contributing to the insular areas, some limited funding has been 
identified for the insular areas by other federal agencies such as the 
Environmental Protection Agency.
    Question. Does the agency propose to allocate funds in the same 
fashion in 2001 as it did in 2000?
    Answer. Yes. OIA will use the funds to support priorities 
identified in the All Islands Coral Reef Initiative Strategy, as well 
as emerging priorities identified by the insular areas as part of the 
Coral Reef Task Force's National Action Plan to Conserve Coral Reefs.

                      COMPACT OF FREE ASSOCIATION

    Question. What is the current status of renegotiation talks on the 
Compact of Free Association?
    Answer. Discussions on the renegotiations of financial provisions 
of the Compact of Free Association have begun in earnest. The first 
major round of discussions with the Federated States of Micronesia 
(FSM) took place the week of April 24 in San Francisco. Talks with the 
Republic of the Marshall Islands, which recently elected a new 
government, are likely to begin in this summer.
    Question. What will be the most difficult issues to resolve?
    Answer. The challenge of the ``second Compact'' will be to plan and 
carry out an aid package that successfully addresses development needs 
and assures accountability over grant funds.
    Question. How, if at all, is the issue of compact/impact aid being 
addressed?
    Answer. Resolving the Compact Impact issue is a high priority. The 
U.S. negotiators have placed on the agenda the immigration provisions 
as they relate to Hawaii, Guam and the Northern Marianas.
    Question. When does the agency anticipate a new agreement will be 
finalized?
    Answer. While predicting the course of negotiations is difficult, 
both the FSM and Marshall Islands have indicated their desire to 
complete the negotiations by 2003.

                        PRIOR SERVICE TRUST FUND

    Question. What is the current condition of the Prior Service Trust 
Fund?
    Answer. In a letter dated January 6, 2000, the trust fund 
administrator stated there was a balance in the account of $3 million.
    Question. How much longer will it stay solvent without additional 
capitalization?
    Answer. The $3 million balance is sufficient to cover a little more 
than two years of benefits and administrative costs.

              COMMONWEALTH OF THE NORTHERN MARIANA ISLANDS

    In previous years the CNMI had difficulty in matching its capital 
improvement grants. This created a large amount of unobligated balances 
in this account. During the past year the CNMI government appropriated 
funds to provide the necessary match.
    Question. What is the current amount of unobligated balances for 
capital improvement grants?
    Answer. All appropriations through fiscal year 2000 are obligated 
by the annual grants made to the CNMI. However, not all of the Federal 
and matching funds are currently dedicated to active capital 
improvement projects. A total of $199 million of Federal and local 
matching funds is available to the CNMI for fiscal years 1993-2000. Of 
that amount approximately $99 million has been used for construction 
project contracts. The remaining $100 million will be used for projects 
now in the planning phase.
    Question. What is OIA's long term assessment of the CNMI's ability 
to provide matching funds for this program?
    Answer. The CNMI has used the bond market to obtain the required 
matching funds. We are confident that the CNMI will be able to meet its 
project-by-project matching fund obligations. Even in bleak economic 
times, the CNMI has provided its share of individual project 
expenditures.
    Question. What capital improvement projects will be accomplished in 
the CNMI in fiscal year 2000 and 2001?
    Answer. There are dozens of capital improvement projects currently 
under way, and many more in the planning stages. Completion of the 
Marianas High School Gymnasium, and the Kagman elementary school are 
expected soon. The CNMI is planning the construction of a new multi-
million dollar prison/detention facility and the opening of a new solid 
waste facility.

                         U.S. GEOLOGICAL SURVEY

                        LANDS LEGACY INITIATIVE

    In total, an increase of $82 million is requested for the Survey's 
activities in fiscal year 2001. Within this amount, the largest 
proposed increase is $50 million for state planning partnerships in 
support of the Administration's Lands Legacy Initiative. The Survey's 
role in this initiative would be to assist state and local communities 
by providing earth science information and tools.
    Question. What factors led to the decision to place a primary 
emphasis on new or expanded science information programs rather than 
core research and monitoring programs, or a balance of the two?
    Answer. Information dissemination is a vital part of USGS's role as 
the Nation's primary earth science agency. The role of USGS in the 
Administration's Lands Legacy Initiative is consistent with USGS's core 
mission responsibilities; even the most robust program of scientific 
investigations and monitoring must include adequate systems and 
capabilities to ensure that the results of research and monitoring are 
made available to resource managers at the State and local level who 
need to make decisions about their communities' land, water, and 
biological resources, and about the threat of natural hazards such as 
earthquakes and floods. In addition, these scientific results must be 
made available in a manner that is useful to those decisionmakers. We 
believe that this year's budget achieves a balance between our core 
research and monitoring programs, and the expansion of science 
information programs. While a significant portion of our proposed 
increase would be allocated as external competitive grants to local 
communities, an equally significant amount is proposed for work that 
USGS would conduct in-house to develop decision support tools, upgrade 
our real-time hazards monitoring activities, and augment long-term 
research in the areas of water quality and wildlife health.
    Question. Do you foresee the role of the Survey shifting to one 
that is primarily responsible for the provision of science information?
    Answer. The USGS already has primary responsibility for providing 
scientific information on the Nation's natural resources. As stated in 
the USGS GPRA performance plan, USGS ``provides science for a changing 
world by delivering reliable and impartial information that describes 
the Earth, its natural processes, and its natural species.'' As the 
performance plan defines the USGS mission: ``USGS serves the Nation by 
providing reliable scientific information to: describe and understand 
the Earth; minimize loss of life and property from natural disasters; 
manage water, biological, energy, and mineral resources; and enhance 
and protect our quality of life.'' This responsibility encompasses the 
conduct of research, focused investigations, and inventory and 
monitoring; the development of models and other tools; and a 
comprehensive effort to put the results of all these scientific 
activities into the hands of those who need them. Each of these 
activities is a vital element in carrying out the USGS mission.
                      real-time hazards initiative
    Scientific and technological advances have resulted in the 
development of equipment that can provide accurate information in 
``real time'' to emergency managers and the public in the event of a 
natural disaster. Last summer, the USGS issued a report outlining the 
feasibility of developing a national real-time hazards program. The 
costs associated with that program are estimated at $150 million spread 
over a three-year period.
    The Survey has a clear need to upgrade much of its equipment in 
order to provide rapid, accurate scientific information to the public. 
Much of the current seismic network, to cite just one example, is 
assembled with equipment that is 15 to 25 years old. The proposed 
funding increase in fiscal year 2001 for real-time hazards work is $7 
million.
    Question. Please explain why this item does not merit a higher 
priority within the Survey's budget proposal.
    Answer. Expanding and modernizing hazards monitoring and 
information networks is a high priority. Given all of the competing 
priorities within limited domestic resources, the Administration 
believes the increase proposed will allow the USGS to begin to address 
the highest priority monitoring needs based on the multi-year plan. The 
Real-Time Hazards proposal includes $4 million in additional funds to 
install or reactivate stream gaging equipment at 50 sites and upgrade 
existing equipment at 100 sites, $2.6 million to upgrade 150 new 
regional/urban seismic stations, and $0.5 million to expand real-time 
volcano monitoring capability. These increases are part of a multi-year 
plan that began in fiscal year 2000.

                               LANDSAT 7

    The Committee understands that USGS, NOAA, and NASA reached 
agreement last year for the Survey to assume responsibility for the 
management of Landsat 7. In fiscal year 2000, funding associated with 
this work was transferred from NASA to GS. In the fiscal year 2001 
budget proposal, $5,000,000 is requested by GS for activities 
associated with management of the satellite.
    Question. Given that there is a direct impact on this subcommittee, 
why wasn't it involved in discussions prior to final agreement being 
negotiated?
    Answer. Based on the Land Remote Sensing Policy Act of 1992, Public 
Law 102-555, Presidential Decision Directive NSTC3 (signed May 5, 1994) 
modified a previous arrangement and established NASA, NOAA, and DOI/
USGS as Landsat Program Management. Over the next 5 years leading up to 
the April 1999 launch of Landsat 7, these agencies worked closely 
together to plan for flight and ground system operations. In 1998, 
Landsat Program Management determined that it was in the best interests 
of the program for NOAA to withdraw and to transfer long-term program 
oversight from NASA to the USGS, which would seek fiscal year 2001 
funding through this committee to provide stable flight operations. The 
subcommittee was not involved in these early negotiations because the 
assumption of operational responsibility by USGS is reliant on an 
increase of funds for USGS. As these discussions were taking place as 
part of negotiations on the 2001 President's Budget, we were not at 
liberty to discuss this.
    Question. How does the Survey propose to fund Landsat 7 activities 
if the subcommittee is unable to provide funds requested?
    Answer. The USGS should assume responsibility for the Landsat 7 
million operation because we are the most appropriate agency to do so 
from a technical and mission-role standpoint. The Department of the 
Interior is the Federal agency that stands to benefit the most from the 
mission. Land remote sensing data are integral to USGS mapping 
responsibilities and are increasingly incorporated into all science 
programs. In addition, land remote sensing data are routinely used by 
Interior's land management bureaus to monitor land conditions and 
improve resource management decisions. Furthermore, USGS is only U.S. 
Government agency that has been continuously involved in the Landsat 
Program since 1966. If the Committee is unable to provide the requested 
funds, the USGS would reluctantly have to consider asking NASA to put 
Landsat 7 into a ``safe-hold'' mode that will maintain the satellite's 
orbit, but will not operate the sensors. Forcing Landsat 7 into this 
non-functional status will be a tremendous waste of an extremely 
important national asset in which the American taxpayers have already 
invested several hundred million dollars (for satellite development, 
sensors, launch and ground systems).''
    Question. What are the projected outyear costs for operation of 
Landsat 7?
    Answer. Projected out-year costs for Landsat 7 flight operations 
are expected to remain at approximately $5,000,000 per year. 
Projections show U.S. ground system data capture, processing, archiving 
and distribution costs of approximately $10,000,000 per year to be 
recovered through data product sales and fees collected by USGS from 
international ground station cooperators.
    Technically speaking, the five-year design lifetime of this 
satellite now allows for four more years of mission operations. 
However, current performance indicators and onboard fuel reserves 
suggest that the satellite could function for a total of seven or more 
years.

                  COMPETITION WITH THE PRIVATE SECTOR

    The issue of possible competition from the USGS with the private 
sector is one that continues to be brought to the Committee's 
attention. Most recently, those complaints have focused on the Survey's 
management of the Landsat 7 satellite.
    Question. Please explain why the Survey's efforts to make data 
available to the public are not in competition with the private sector. 
What is the data dissemination policy for Landsat 7 products?
    Answer. The Survey's efforts to make data available to the public 
sector are carried out in partnership with commercial resellers and 
value-added processors of Landsat 7 data. The data dissemination policy 
for Landsat 7 products is based on the Land Remote Sensing Policy Act 
of 1992, Public Law 102-555, that calls for the Landsat Program to: 
``Ensure that unenhanced data are available to all users at the cost of 
fulfilling user requests''; and ``Support the development of the 
commercial market for remote sensing data''; and ``Ensure that the 
provision of value-added services based on remote sensing data remains 
exclusively the function of the private sector.''
    As with other USGS products, we are working to move retail sales 
into the hands of the private sector through USGS Business Partners. 
The Business Partner program includes more than 2,000 authorized 
business partners who sell USGS topographic maps. In the last few 
years, the program has been expanded to include the additional USGS 
product lines of digital cartographic data, aerial photographs, and 
satellite data. Most recently, the data products from the Landsat 7 
satellite have been made available under the terms of the Business 
Partner program. Since January 1, 2000, six satellite data business 
partners have signed into the program. USGS Business Partners for 
satellite data have hailed the availability of affordable, minimally 
processed Landsat 7 data from the USGS as key to the development of the 
commercial remote sensing market.
    It should also be noted that the Landsat 7 satellite was developed 
and built by a commercial aerospace firm under contract to the 
government and launched on a commercially built rocket; the Landsat 7 
ground receiving and data processing systems were developed by 
commercial firms, and all flight and ground systems are now operated by 
the private sector under contract to the government. The $5,000,000 of 
requested funds would be paid to a commercial provider of flight 
operations services.
    The Landsat 7 satellite's sensor acquires moderate-resolution data 
that cover over 10,000 square miles in a single image; a recently 
launched commercial high-resolution satellite covers no more than 47 
square miles per image. Scientists and land managers use Landsat images 
to monitor large-scale land surface phenomena such as near-term 
devastation and long-term recovery from large forest fires. In 
contrast, high-resolution satellite images are used for much more 
specific applications, such as settling insurance claims against 
specific properties or siting rebuilding projects. Because of the 
difference in final products and their usage, the data from the Landsat 
7 environmental satellite are not in competition with commercial data.
                                 ______
                                 

             QUESTIONS SUBMITTED BY SENATOR ROBERT C. BYRD

                              LANDS LEGACY

    Among the major increases you are requesting is $391 million to be 
directed to a variety of land acquisition and grant programs under the 
President's Lands legacy initiative. I am concerned that the Department 
is engaged in a program to increase the inventory of public lands but 
is not doing enough to maintain the land and facilities it manages 
today.
    Question. How much of the Lands Legacy money would go toward 
addressing the maintenance and construction backlogs at our National 
Parks, Wildlife Refuges, and Monuments?
    Answer. The Administration's Lands Legacy initiative supports 
preservation of public lands and national treasures and protects open 
spaces and natural resources through partnerships with the States and 
local communities. While the Lands Legacy initiative does not include 
any funds for maintenance and construction backlogs, the Department's 
Safe Visits to Public Lands initiative addresses high priority 
maintenance and construction backlog needs.
    The maintenance and construction backlog is estimated to be well 
over $5 billion. Your request for those priorities is less than $1.2 
billion. At that rate it will take at least 5 years just to catch up 
with today's backlog, not counting any additions to the backlog in the 
intervening years.
    Question. With such an enormous backlog, why do you propose to 
increase land acquisition spending to $320 million in fiscal year 2001.
    Answer. The Department is committed to both taking care of its 
infrastructure and acquiring lands critical to the missions of the 
Bureau of Land Management, Fish and Wildlife Service, and National Park 
Service. Since 1993, we have increased the operating accounts of BLM, 
FWS, and NPS by $851.1 million, or 43 percent. This compares to the 19 
percent overall growth rate for appropriations for the Department of 
the Interior for the same period. The Department has increased its 
maintenance and construction funding by $120 million between 1998 and 
2000 as a part of its Safe Visits to Public Lands initiative and 
continues to emphasize the importance of this issue. With the 
development of the Five-Year plans for each bureau's deferred 
maintenance projects, we are able to assure that highest priority needs 
are being met. The protection of lands through land acquisition is an 
important and timely issue. Acquisition will protect resources from 
threats at prices that will only continue to rise. Where these lands 
are under threat, it is typically from external sources or invasive 
species. The Department is also keenly aware of unique parcels and 
areas of lands threatened by urban sprawl and other development 
pressures. We believe now is the time to purchase these lands, before 
opportunities are lost forever.
    The budget request proposes to fund the State Conservation Grant 
programs with Land and Water Conservation Fund monies.
    Question. What legal authority is there to use the LWCF to finance 
conservation grants?
    Answer. The Land and Water Conservation Fund Act's (Public Law 88-
578) general purposes, found at section 460l-4, provide that the LWCF 
is to assist in preserving, developing, and assuring accessibility to 
all U.S. citizens to outdoor recreation resources by (1) providing 
funds for Federal assistance to States for planning, acquisition, and 
development of land and water areas and facilities, and (2) providing 
funds for the Federal acquisition and development of certain lands and 
other areas. Section 460l-6 also provides the authority for financial 
assistance to states through the LWCF for the purposes of: planning; 
acquisition of land, waters, or interest in lands or waters; or 
development. The conservation grants program is consistent with these 
purposes.

                            LAW ENFORCEMENT

    Question. One of the highest priorities for the Department in 2001 
is law enforcement. The President's budget includes significant 
increase requests for the Bureau of Indian Affairs--up $18.8 million, 
the Fish and Wildlife Service--up $12.6 million, the National Park 
Service--up $5.7 million (pp. 90 & 112). I share your concerns about 
law enforcement--not only its effectiveness against crime but also the 
safety of our law enforcement officers. What are the major problems you 
would address if Congress appropriates these funds?
    Answer. For the National Park Service the $5.7 million cited in the 
question apparently is derived by adding the total increase of $3.5 
million in the Law Enforcement/Visitor Services subactivity to the $2.2 
million programmatic increase in the United States Park Police 
subactivity. The NPS request for increased law enforcement actually 
totals $6.8 million when the uncontrollable increase (primarily a cost 
of living pay adjustment) for the Park Police is added to the 
calculation. Should the request be enacted, the NPS would be able to 
address a series of high priority, law enforcement concerns at parks, 
including Ozark National Scenic Riverways, Boston National Historical 
Park, Gulf Islands National Seashore, Coronado National Monument, 
Badlands National Park, Natchez Trace Parkway, and Organ Pipe Cactus 
National Monument.
    In addition, the increase would provide for pay simplification for 
the United States Park Police (to support a legislative proposal), as 
well as operational enhancements for the Park Police and one-time costs 
associated with the 2001 Presidential Inaugural.
    For the Fish and Wildlife Service the proposed increase in funding 
would permit the Service to address the most crucial problems currently 
interfering with the enforcement program's ability to carry out its 
responsibilities to the American public. Funding for Service law 
enforcement has not kept pace with increased U.S. wildlife conservation 
responsibilities and increased personnel and operating costs. Budget 
stagnation has seriously eroded the agency's ability to protect 
wildlife resources and respond effectively to the growing complexities 
of wildlife crime. Funding shortfalls have made it impossible to 
replace agents as they retire, creating a staffing shortage that grows 
worse each year. The Service, which now has only 213 of its authorized 
252 special agents on the job, last hired new agents in 1998. Budget 
shortfalls also imperil the health and safety of officers since funds 
are not available to purchase needed safety equipment, pay for 
necessary training, and replace vehicles and other equipment.
    Service law enforcement today confronts increasingly complex and 
potentially devastating threats to wildlife, but does so with a 
declining and under-equipped force. The budget increase requested for 
fiscal year 2001 will allow the agency to begin the process of 
restoring its enforcement capability. The funds will be used to fill 30 
high-priority agent vacancies; meet basic safety, equipment, and 
operational needs of the special agent and wildlife inspector forces; 
and replace obsolete and inoperable scientific equipment at the 
forensics laboratory and 37 aging vehicles used to support law 
enforcement operations.
    For the Bureau of Indian Affairs, according to a February 1999 
Justice Department report on American Indians and crime, the rate of 
violent victimization for American Indians is well above that of other 
racial of ethnic subgroups and is more than twice as high as the 
national average. Such statistics were the impetus behind the creation 
of a joint Department of Justice/BIA effort to address the public 
safety crisis in Indian Country. The Bureau of Indian Affairs fiscal 
year 2001 budget request includes an $18.8 million increase for the 
third year of the joint Department of Justice/BIA initiative to make 
long-term improvements in law enforcement services in Indian Country. 
This additional funding is needed to strengthen core law enforcement 
functions, such as increasing the number of criminal investigators and 
uniformed police on reservations, upgrading radio systems, and 
strengthening basic detention services by hiring additional staff. 
BIA's strategic goal is to improve public safety for citizens in Indian 
Country through a seven- percent reduction in crime rates by 2005. 
Continued commitments to BIA's law enforcement programs are needed to 
reduce the high crime rate on Indian reservations.
                          payments to counties
    When land is purchased by the Federal government it has an economic 
impact on the counties. The land is unavailable for development or 
other purposes once it is removed from the county's tax base and most 
of these counties are rural counties with small tax bases to begin 
with. The government is obligated to make payments to counties to 
partially offset the negative impact on local economies. In spite of 
this obligation, the Department of the Interior has once again proposed 
a budget that fails to fully honor that responsibility.
    The Bureau of Land Management proposes to make payments in lieu of 
taxes to counties of $135 million, $186 million less than the $321 
million the Payment In Lieu of Taxes Act provides. Similarly, the Fish 
and Wildlife Service request actually proposes a decrease in its 
payments required by the Refuge Revenue Sharing Act. Now you are asking 
the Congress for funding to buy more land.
    Question. Please explain why you have not included adequate funding 
for payments to counties in this request?
    Answer. PILT payments are among the many priorities for BLM that 
must be balanced in the face of competing funding needs. The PILT 
program is funded through direct annual appropriation, and the BLM will 
continue to make the authorized payments to each eligible unit of 
government within the annual appropriated amount.. A request for the 
fully authorized level of funding would have increased PILT funding by 
approximately 138 percent over the fiscal year 2000 enacted level. 
Funding requests above the fiscal year 2000 enacted level have to be 
carefully balanced against existing and new priorities and needs.
    Question. Why does your budget place higher priority on buying more 
Federal lands and a new state grants program than fulfilling your 
obligations for payments to counties?
    Answer. Land Acquisition funds provide the BLM with the opportunity 
to fulfil its primary mission to improve the health of the public lands 
by protecting threatened natural and cultural resource values, critical 
habitat and ecosystems, historic and cultural sites, and that also 
benefit the public's need for outdoor recreation and open space.
    Although BLM is requesting largest increases for land acquisition 
than for PILT, BLM allocates more of its funds to PILT than to land 
acquisition. The BLM's fiscal year 2001 budget request includes $60.9 
million for land acquisition, which represents 4 percent of the BLM's 
total budget request of $1.489 billion. Funding for PILT in the fiscal 
year 2001 budget makes up 9 percent of the BLM's total budget request. 
The BLM's budget request also includes several permanent payment 
appropriations that provide over $83 million in payments to counties 
and states. The fiscal year 2001 budget includes a provision to make 
permanent the authorization and funding for payments to Western Oregon 
counties. This would result in increased payments to these counties 
over current statutory payment schedules.
    Most of the acquisition projects in the BLM's fiscal year 2001 
budget request are to acquire inholdings in congressionally designated 
areas that would meet the intent of the congressional designation to 
protect and enhance the unique and critical values of these areas. Key 
acquisitions will occur in the congressionally designated California 
Desert National Conservation Area (NCA), the Upper Missouri Wild & 
Scenic River, in Montana, the Snake River Birds of Prey NCA, in Idaho, 
and land adjacent to the San Pedro NCA, in Arizona. Other acquisitions 
would protect critical resource values or provide watershed restoration 
in highly sensitive or threatened areas.

                         NATIONAL PARK SERVICE

    The Lands Legacy proposal for the National Park Service includes a 
$150 million increase for state conservation grants.
    Question. How did you decide that $58 million would be divided 
equally among the states and territories and that $87 million would be 
awarded by the Park Service on a competitive basis?
    Answer. The proposed distribution of State Conservation grants is 
based on the formula described in the Land and Water Conservation Fund 
act (Public Law 88-578). Section 6(b)(1) requires that the first 40 
percent of the $145 million requested for grants ($58 million) be 
shared equally among the States, with the remaining 60 percent ($87 
million) apportioned to the States by the Secretary on the basis of 
need ``which in his judgment will best accomplish the purposes of the 
Act.''
    The budget request proposes that $72.5 million of this $87.0 
million be distributed to the States as part of the formula 
apportionment, based on relative population of the State. The remaining 
$72.5 million would be distributed on a competitive, demonstrated needs 
basis through the Secretary's contingency reserve. The net result would 
be that half of the $145 million requested for grants would be 
allocated by formula and half would be allocated to critically needed 
projects through the contingency reserve.
    Contingency projects will allow the States, in partnership with the 
National Park Service, to target critically needed projects. The set-
aside was based on the lack of a National assistance program for over 
five years and the need to target funds in critical areas which could 
easily exceed the amount available to a State through the regular 
formula distribution. Final criteria for the Secretary's contingency 
reserve are currently being developed, and we will look for input from 
the public. The final criteria may include emphasis on the protection 
of open space and the preservation of resources while increasing public 
outdoor recreation opportunities.
    This proposal includes $5 million and 62 full-time staff to 
administer the program. That seems like a large new bureaucracy to 
manage a grants program of $87 million. Your budget justification 
states, ``Through this partnership with States and local governments, 
providing recreation opportunity while preserving these areas for 
future generation can often be accomplished in a more timely and cost 
effective way through Federal action.''
    Question. Why then, do you not propose to award all of the funds to 
the States and let them decide the best uses for the funds?
    Answer. The entire $145 million proposed for grants in the fiscal 
year 2001 budget request, not just $87 million, will be made available 
to the States through the stateside grants program and will be 
administered by the National Park Service. One-half will be available 
to States and local governments through a formula distribution as 
described in the previous answer. The other half will be available to 
States and local governments through a competition that will allow the 
Administration and the States to work together to target critical areas 
of need which are consistent with a State's planning efforts and where 
such need exceeds the dollars allocated through the formula 
distribution. The same requirements must be met for apportionment of 
contingency reserve projects as those projects chosen under the 
formula.
    Funding requested in the President's Budget for administration is 
needed to provide the resources necessary to administer the entire 
amount appropriated in fiscal year 2001 through the regular 
apportionment, and the Secretary's contingency reserve. In addition, it 
would allow the Department to continue its mandated stewardship 
responsibility over every site which has received assistance under 
current and prior appropriations (over 37,0000 projects) and ensure 
each site remains available for public use and enjoyment in perpetuity.
    Question. The American people, actually people from all over the 
world, love our national parks. Their visits are not as enjoyable as 
they could be--and should be--because we have allowed them to fall into 
states of disrepair. Your own budget highlights some of the problems 
facing the national parks--unsafe and outdated visitor facilities, 
inadequate water systems, deteriorating historic buildings, soil 
erosion--and the list goes on. I would like to know the current size of 
the Park Service's maintenance backlog. I have been hearing that it is 
quite large, perhaps in the billions of dollars. Is that correct?
    Answer. As a result, in part, of the need to be more responsive to 
Congressional concerns regarding agency maintenance ``backlogs,'' the 
Federal Accounting Standards Advisory Board (FASAB) promulgated its 
Statement of Federal Financial Accounting Standards #6, Accounting for 
Property, Plant and Equipment. This standard, which became effective in 
fiscal year 1998, requires agencies to disclose the estimated cost to 
remedy ``deferred maintenance'' of property, plant and equipment as a 
footnote presented in the annual audited financial statements required 
by the Chief Financial Officers Act of 1990. National Park Service 
``deferred maintenance'' as reported in that footnote provides 
essentially the total identified inventory of the ``maintenance 
backlog'' of NPS. We should note, however, that these estimates will be 
provided as supplementary information, which is not subject to the same 
analytical procedures for auditing as the basic information in the 
balance sheet and statement of net cost. In some cases, these estimates 
may differ from facilities guidance on estimating deferred maintenance 
costs.
    In line with the FASAB reporting requirement, the Service's current 
maintenance backlog estimates are based on the amounts required for the 
correction of facility deficiencies resulting from ``deferred 
maintenance.'' The National Park Service defines deferred maintenance, 
or ``backlog'' as maintenance that could not be performed when 
scheduled or planned. This definition comes from the U.S. Department of 
the Interior Facilities Maintenance Assessment and Recommendations, 
February 1998. Continued deferral of routine required maintenance items 
will result, over time, in facility deficiencies that must be corrected 
in order to keep the facility open, often at a higher cost than the 
original planned or scheduled maintenance cost.
    The Service has acquired a huge inventory of built-facility assets 
over its 84-year history. These include roads, trails, camping and 
recreational structures, buildings and houses, utility systems, marine 
and dock structures, signs and information structures, and special 
features or Stewardship assets such as historic buildings, monuments, 
statues, memorials, fortifications and other structures. Various 
factors have contributed to a backlog of maintenance tasks and 
significant deterioration of facility conditions as a result of that 
backlog. One cause stems from limited operational funding for 
facilities acquired through donation, acquisition or transfer. 
Additionally, aging facilities have created increased costs for day-to-
day NPS operations, eating into the limited funds available for 
maintenance of facilities. Increasing visitation and addition of new 
park sites and facilities have also added to operational costs at the 
expense of maintenance activities.
    The backlog estimates were compiled from several sources, dependent 
on the asset type. These include all repair-rehabilitation and line-
item construction deferred maintenance projects currently contained in 
the National Park Service's Project Management Information System 
(PMIS) database, which includes all facility maintenance projects for 
which the Service has identified a current need, exclusive of housing, 
dams, and Federal Lands Highway Program (FLHP) eligible road and bridge 
repairs. The total PMIS estimate includes items such as planning, 
design, and construction contingency costs for the specific repair-
rehabilitation projects in the PMIS database, but does not distinguish 
between high and low priorities. It is also based on an evaluation of 
needs without an in-depth, continuous, systematic program for assessing 
facility conditions.
    The estimated figure for employee housing deferred maintenance is 
based on the Service's Quarters Management Information System data 
collected during 1999, and further refined based on the detailed, 
professional housing condition assessments completed in some park 
areas.
    The estimate for Paved Roads and Bridge deferred maintenance needs 
comes from a just completed 3-year cycle (FY 1997-1999) of road and 
bridge inspections under the NPS Roads Inventory Program and NPS Bridge 
Inventory Program performed for the Service by the Federal Highway 
Administration, which inventories the Service's Federal Lands Highway 
Program eligible deferred maintenance.
    The estimated deferred maintenance need for dams comes from the 
current Dams Inventory, prepared by NPS in concert with the Bureau of 
Reclamation (BOR) and updated as inspections and surveys of the most 
critical dams performed for NPS by the BOR.
    The estimates from those four sources compiled into the total for 
NPS are as follows:

Project Management Information System (PMIS) Deferred 
    Maintenance Projects (based on DOI guidance, 
    excluding housing, road, bridge & dam projects).....  $1,450,000,000
Deferred Maintenance Housing Projects...................      80,000,000
FHWA Identified Road and Bridge Needs...................   2,707,000,000
Dams Projects from NPS/BOR Survey.......................     102,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................   4,339,000,000

    Although the estimates for roads, bridges and dams, and a portion 
of the total housing estimate, are based on actual condition 
inspections, the $1.450 billion in the PMIS category is generally only 
a conceptual cost estimate based on costs for similar work accomplished 
by the construction industry and past National Park Service estimates, 
and without a complete inventory and condition assessment. Since the 
actual cost of correcting deferred maintenance will not be known until 
a comprehensive inventory and condition assessment of the facilities 
managed by the National Park Service has been completed, and until 
fully defined scopes of work have been developed, this amount is by 
necessity a very general, or Class C, estimate. These figures will be 
adjusted annually, and will likely increase, as the Service compiles 
better information, and as they are refined based on more fully defined 
scopes of work.
    A system to more fully document a more accurate inventory and 
condition assessment of National Park Service facilities needs to be 
established so the Service can more precisely identify the total 
deferred maintenance needs in National Park areas. The President's 
Budget requests $1 Million in fiscal year 2001 in the Facility 
Operations and Maintenance sub-activity to Conduct Comprehensive 
Facility Condition Assessments, which will enable the Service to begin 
a multi-year cycle for inventory and condition assessment of all 
facilities. In the meantime, the bureau is relying on a Service-wide 
desk audit compiled by park facility managers in 1997, to estimate 
inventory and condition of facilities of the PMIS category of 
facilities listed above.
    Also, the total PMIS estimate is for maintenance repairs to 
existing structures as a ``snapshot'' of their current condition. It is 
important to recognize that deferred maintenance ``backlogs'' are 
dynamic, not static. Facilities not adequately funded for required 
maintenance on a routine, recurring basis generally deteriorate on an 
increasingly exponential cost curve. The Service's backlog estimates 
also do not include the increased annual operational funding level 
needed in order to maintain those facilities at an acceptable level 
once their condition has been restored.
    The National Park Service began utilizing a new set of budget sub-
activities and accounting codes in fiscal year 1999, which separate 
operations costs from maintenance costs. This, in conjunction with our 
proposed inventory condition assessment process, when fully 
implemented, will allow for collection of more accurate data on which 
to base future facility maintenance and operations funding requests.
    Question. The Park Service budget request for construction and 
major maintenance is $43 million less than last year's appropriation. 
How do you intend to ever eliminate the backlog by reducing the 
resources you devote to the effort?
    Answer. While the fiscal year 2001 Construction Appropriation 
request is 43 million less than the enacted fiscal year 2000 
appropriation, it is only $14 million less in total than the fiscal 
year 2000 President's request and only $10 million less in the line-
item construction program. In developing this budget request, we have 
had to make tough choices. We believe the reduction in budget resources 
proposed for construction is will not affect the ability to reach our 
goals over the long haul. Indeed, the NPS, like other bureaus in the 
Department, has developed a Five-Year Maintenance and Capital 
Improvement Plan to apply a systematic approach in accomplishing our 
highest priority requirements, focusing on the areas of health and 
safety and critical resource protection.
    Question. Is it not a fact that the Park Service requested 
considerably more than the amount included in the President's budget?
    Answer. For fiscal year 2001, the NPS requested $308 million for 
the construction and major maintenance appropriation.
    Question. Would it be a problem for the Park Service and the Fish 
and Wildlife Service if Congress decides to shift funding from land 
acquisition to maintenance?
    Answer. The fiscal year 2001 budget strikes a balance between the 
needs identified in the President's Lands Legacy and Safe Visits to 
Parks initiatives. The NPS supports the balance represented in the 
President's request. This request, however, reflects the interests of 
an agency responsible for one or a few programs, whereas the 
President's Budget reflects the needs and priorities of the entire 
Federal Government. These estimates are pre-decisional in nature and do 
not reflect final overall Administration priorities, given the 
resources available.
    Question. The Recreational Fee Demonstration Program appears to 
have become a major source of funding for the 100 participating 
national parks. The Park Service anticipates over $140 million in fee 
collections in fiscal year 2001. Is the Park Service using the 
authority Congress granted for parks to collect and retain recreational 
fees as a way to reduce the maintenance backlog?
    Answer. Under the Recreational Fee Demonstration Program, Congress 
authorized the National Park Service to implement and test 100 new fee 
collection programs, and allowing participating parks to retain 80 
percent of the revenues at the sites where they are collected. The 
revenues yield substantial benefits by providing park managers the 
opportunity to address the backlog of facility deficiencies that have 
accumulated as a result of having deferred regularly scheduled 
maintenance. The program is also used by the National Park Service, as 
specified in the authorization, as a means to address resource 
management, visitor service, and museum and exhibit projects that might 
not otherwise be accomplished within appropriated funding levels. 
However the Recreational Fee Demonstration Program does emphasize 
maintenance as a primary focus. Examples of these types of maintenance 
projects are:
  --Repair of park roads in Yellowstone National Park.
  --Rehabilitation of Watchman campground at Zion National Park.
  --Refurbishment of trails in Haleakala National Park
  --Rehabilitation of comfort stations in Shenandoah National Park.
    Question. Do the other 279 parks benefit from this program?
    Answer. All parks are eligible to benefit from the Recreational Fee 
Demonstration Program. The National Park Service is authorized to 
retain 20 percent of the Fee Demonstration Program revenues for 
projects to be determined at the discretion of the NPS Director. 
Through this authority, any park is eligible to submit requests for 
project funding. In fiscal year 1999, approximately $30 million in 
projects were funded through the use of the 20 percent portion of the 
program. In executing this portion of the Fee Program, the NPS has 
given preference to projects at parks that are not Fee Demonstration 
Program sites. Examples of 20 percent projects at non-demonstration 
parks that are being addressed through the use of Recreational Fee 
Demonstration Program revenues are:
  --Rehabilitation of Charit Creek visitor area at Big South Fork 
        National River and Recreation Area.
  --Relocation of parking area to eliminate safety hazards at Big 
        Thicket National Preserve.
  --Rehabilitation of cave access trails to improve safety at Wind Cave 
        National Park.
  --Removal of structures at Malvern Hill at Richmond National 
        Battlefield.
    Question. Based on your experience with the fee program and the 
public's reaction to it, would you support expansion of the program to 
all national parks, wildlife refuges, and other locations managed by 
the Department of the Interior?
    Answer. The National Park Service would support the ability for all 
national park units to be included within the authorities provided by 
the Recreational Fee Demonstration Program. This would allow the NPS to 
examine each park to determine the appropriateness of a fee program and 
to retain the receipts for use by the parks. The National Park Service 
would also support giving each agency within the Department the ability 
to determine which sites should be included. For all agencies, the 
decision to collect fees should be based on proper planning, public 
review and appropriateness of type and amount of fees collected.

                   STATE GRANTS FOR NON-GAME WILDLIFE

    Question. The budget for the Fish and Wildlife Service includes a 
new $100 million grants to states program for non-game wildlife. You 
are certainly aware of the abundance of wildlife in West Virginia and 
of the state's vast natural habitats for all kinds of wildlife. The 
Service has determined that West Virginia would only qualify for the 
minimum state grant amount, the same level that is proposed for Rhode 
Island and only one fifth as much as New York. The Formula they used 
considered human population but did not consider the wildlife and 
wildlife habitat occurring in the states. There is much room for 
improvement in the way the Fish and Wildlife Service wants to 
distribute these funds. I strongly urge the Fish and Wildlife Service 
to refine the formula to recognize the opportunities for wildlife 
viewing, education, habitat restoration, and other non-consumptive 
activities that each state can provide. Will you give me your assurance 
that the Fish and Wildlife Service will work with this subcommittee to 
improve the proposed distribution formula, should the Senate agree to 
support this new program?
    Answer. Yes. The Department has already expressed a willingness to 
work with the Congress, the States, and other interested parties to 
discuss ways to improve and implement the Administration's proposal.
    The proposed State Non-game Wildlife Grants Fund will provide 
grants to states, tribes and U.S. territories for planning, 
inventorying, monitoring and conducting research related to non-game 
species, as well as the restoration of their habitat. Conservation 
education and non-game wildlife related recreation projects and land 
acquisition would also be funded.
    This component of the Administration's Lands Legacy Initiative 
would be a strong tool to help prevent non-game fish and wildlife 
populations from declining to the point where the potential regulatory 
protections of Federal statutes such as the Endangered Species Act 
would have to be implemented. It would also benefit the estimated 62.9 
million people who participate annually in some form of wildlife 
watching such as observing, feeding or photographing wildlife while 
spending over $29.2 billion a year in pursuit of these activities.
    The Administration designed the distribution formula to address the 
greatest threats to non-game wildlife; to enhance non-consumptive 
recreational enjoyment of wildlife; and to fairly allocate available 
resources to the states, tribes and territories.
    Under the Administration's proposal, states would receive ninety 
and one-third of one percent of the available funds. The distribution 
formula for the state share would allocate one-third of these funds 
based on the area of the state and two-thirds of the funds based on the 
population of the state. Population estimates would be derived from 
Census Bureau data. A ``ceiling'' of five-percent maximum state share 
and a ``floor'' of one-percent minimum state share would ensure that 
equitable resources would be available for all fifty states.
    Tribes would receive three percent of the available funds; Puerto 
Rico would receive one percent of the available funds. Guam, the Virgin 
Islands, the Northern Mariana Islands, American Samoa, and the District 
of Columbia each would receive one-third of one percent of the 
available funds.
    The Fish and Wildlife Service plans to deduct up to four percent 
from available funds for administration before making apportionments to 
the states, territories, and tribes. The Service requests 10 FTE for 
the administration of this program at the headquarters and regional 
office levels.

                        OFFICE OF SURFACE MINING

    The Office of Surface Mining is prevented from granting more than 
25 percent of its Abandoned Mine Lands State Emergency Reclamation 
Program Grants to any one state, no matter what the needs. In recent 
years, West Virginia has not received adequate relief from damages 
caused by heavy rainfalls in coalfield communities.
    Question. What do you intend to do to ensure that states can 
receive all the reclamation relief they need when sufficient funds are 
in the account to do so?
    Answer. OSM supports ending the 25 percent limitation. It has 
caused administrative difficulties, although we have been successful in 
eventually providing from prior year recoveries all of the emergency 
funds that a State believed it would need. This has been the case even 
when increased funds became necessary due to unanticipated weather 
events. As shown in the following chart, West Virginia has received the 
funding it requested in recent years. In fiscal year 1996 and 1997, 
when additional funds seemed to be necessary due to heavy rainfalls, we 
were able to provide the State with recovered unused emergency funds. 
In the last three closed grants, the State had unused fund balances 
which were deobligated. We remain concerned, however, that the 25 
percent limitation could at a future point present a funding problem 
that we might not be able to resolve as we have been able to do so far.

               WEST VIRGINIA AML EMERGENCY PROGRAM FUNDING
------------------------------------------------------------------------
                                     Original      Total
           Fiscal year               funding       funds        Funds
                                     request      awarded    deobligated
------------------------------------------------------------------------
1996.............................   $3,020,737   $4,350,000   $2,490,656
1997.............................    5,437,575    6,437,575    1,479,855
1998.............................    3,699,962    3,699,962      834,776
1999.............................    3,680,807    3,680,807  ...........
2000.............................    3,000,000    3,000,000  ...........
------------------------------------------------------------------------

    Question. The OSM is requesting a $2 million increase for the 
Appalachian Clean Streams Initiative which will bring the number of 
projects up to 46. Can you provide a project list associated with the 
$2 million increase, including the amounts and locations for the 
projects?
    Answer. States and OSM evaluate projects for Clean Streams funds 
after funds are appropriated, so OSM does not have a list yet. Of the 
requested increase, $1 million is for supplemental grants to eligible 
States. After grant funds are appropriated for the program, we provide 
them to the eligible States who actually select the specific projects. 
Each State must decide which of the potential projects is to the point 
where providing the supplemental Clean Streams funds will result in 
viable partnerships in order to raise the entire amount of funds 
necessary to begin construction.
    The other $1 million of the requested increase is for the Watershed 
Cooperative Agreements that are directly administered by OSM. Once 
funds are appropriated, we place a notice in the Federal Register and 
contact the known watershed organizations in eligible States to make 
them aware of the appropriation and to request applications from those 
interested in receiving funds for particular projects. We evaluate the 
received applications and make funding decisions throughout the fiscal 
year.
    Question. Why is the administration asking for $12 million for 
abandoned mine lands grants when the States need more funding for their 
regulatory programs?
    Answer. Both reclamation and regulation are important priorities 
for OSM, which must balance these priorities in the face of competing 
funding needs. One of OSM's priorities for the past three years has 
been increasing funding for AML reclamation projects through increases 
in environmental restoration grants to states. These activities are 
narrowly focused on reclaiming all SMCRA priority 1 and 2 sites as soon 
as possible. These projects directly address health and safety hazards 
from abandoned mines, and have additional positive effects as they 
abate economically and environmentally damaging acid mine drainage.
    OSM has been closely monitoring state regulatory activities and 
funding over the last several years. As the improving economy has 
improved State financial situations, it has made it possible for states 
to make more State matching share monies available for their programs, 
for instance, to make previously withheld pay raises. When States and 
Tribes submitted their fiscal year 2001 estimates in May of 1999, they 
asked for a total of $61 million. OSM reviews several factors in making 
decisions regarding the level of funding for the regulatory grant 
program, including historical obligation rates, anticipated State and 
tribal expenditure levels, and State and tribal budget target levels. 
The fiscal year 2001 request was OSM's best estimate of the funding 
that states would require.
    OSM is aware of State and Tribal concerns about funding for their 
regulatory programs and plans to review the funding for regulatory 
grants in this light when it prepares its fiscal year 2002 budget 
request. In the meantime, while the primacy states as a group do say 
they are receiving less than what was in the estimates they submitted, 
OSM will work with individual States and Tribes to minimize the effects 
of any funding issues on these important regulatory programs.

                       BUREAU OF LAND MANAGEMENT

    Question. BLM is requesting to purchase 1,000 Potomac River 
watershed acres in Charles County, Maryland for $3 million. The area 
has wetland and woodland habit suitable for many wildlife species, 
contains Native American and other archeological sites, and was the 
site of a Civil War encampment. The Fish and Wildlife Service and 
National Park Service are both well-equipped to manage additional lands 
in the eastern states. Why did you decide BLM should be the bureau to 
acquire and manage this land?
    Answer. The Federal Land Policy and Management Act (FLPMA) provides 
the BLM with the authority to acquire land anywhere in the nation. The 
BLM is prepared to take a leadership role in the protection of green 
space and critical conservation areas in the states that are contiguous 
and east of the Mississippi River. By closely working with land and 
resource conservation organizations, local and State governments, and 
other Federal agencies, the BLM can play a key role in ensuring there 
are public recreation opportunities, open spaces, protection and 
interpretation for watersheds, unique geological, historical, and 
critical habitat areas that are threatened by urban sprawl and 
development.
    The BLM has the expertise in managing public lands for competing 
uses and making resource allocation decisions with open public 
involvement that is considered an integral part of effective 
management. The BLM has a reputation for working closely with other 
organizations, local and State governments, and other agencies. This is 
particularly true in the East, where the BLM was a charter affiliate of 
the Eastern Lands and Resources Council, and has successfully managed 
lands and resources in a cooperative and consensual manner for more 
than 50 years. This proposal would also increase national public 
visibility of the agency to the eastern part of the country. In order 
to maximize funding and benefits to the public, the State of Maryland 
is committing $3,000,000 in fiscal year 2001 toward this acquisition, 
and would be primarily responsible for managing the properties, in 
partnership with the BLM.
    The BLM has several examples of special areas that are actively 
managed by the BLM Eastern States (ES) Office. These areas have either 
unique characteristics or are Congressionally withdrawn from transfer, 
including the Jupiter Inlet area in Florida, and the Lake Vermilion 
area in Minnesota. The BLM has also transferred lands to State, local 
or non-profit organizations for recreation and public purposes as well 
as identified land for acquisition and active management based on 
society's changing needs for open space, habitat protection, greenways/
trails, etc.
    The key to active land management in the ES Office has been the 
development of partnerships to maximize the available funding, involve 
other agencies/groups, and attain local and community support for the 
daily oversight of these public lands. This approach has been critical 
to the successful management of these land resources.
    Approximately 3,400 acres of surface in the East are managed this 
way. These areas include:
Jupiter Inlet
    Management Goals.--Management as ACEC for habitat protection/
improvement for 18 special status species (N. End of parcel); R&PP Act 
lease for intensive recreation and restoration/maintenance of natural 
and cultural values (S. End of parcel); and environmental education.
    Partners.--Palm Beach County, South Florida Water Management 
District, Fish & Wildlife Foundation; Town of Jupiter; Village of 
Tequesta, U.S. Coast Guard, and Florida History Center and Museum.
    Accomplishments.--Major wetland construction project completed with 
funding from South Florida Water Management District and Fish and 
Wildlife Foundation in support of regional Indian River Lagoon 
Restoration program, first prescribed burn in the BLM Eastern States 
completed in partnership with Palm Beach County, pre-historic midden 
stabilization project co-funded with the Town of Jupiter, fencing, 
exotic plant removal, and signing completed cooperatively with Palm 
Beach County, and three successive National Public Lands Day events 
sponsored by the BLM, Palm Beach County, local municipalities, and the 
U.S. Coast Guard. In addition, an interpretive nature trail co-funded 
by the BLM and the Town of Jupiter is under construction, and is 
expected to be completed by the end of fiscal year 2000. In all cases, 
implementation funding has been matched by local agencies/groups.
    Acreage.--86 acres.
Lake Vermilion Islands
    Management Goals.--Complement water-based recreation, protect 
wildlife habitat, protect island shoreline and maintain natural 
character of lands in Lake Vermilion area.
    Partners.--Minnesota DNR-Divisions of Parks, Forestry and Trails & 
Waterways, City of Tower, USFS, Raps Road Association., and Elbow Lake 
Association.
    Accomplishments.--Development of universal boat access for Lake 
Vermilion (Wakemup Bay) using Challenge Cost-Share (CCS) funding; 
Development of universal access fishing pier for Lake Vermilion (HooDoo 
Point) using CCS funding; partnership with MN DNR for island monitoring 
(E. End of lake) during high recreation-use periods; partnerships with 
Raps Road (W. End of lake) and Elbow Lake Assns. for island monitoring/
cleanup; and elimination of trespass.
    Acreage.--12 acres.
Big Saline Bayou tract, Rapides Parish, Louisiana
    Management Goals.--Working with partners in the local area to 
develop the tract for fishing access and environmental education and 
protect wildlife and their habitat found in the area.
    Partners.--Natural Resource Conservation Service, Central Louisiana 
Pride (a Keep America Beautiful affiliated volunteer group in 
Alexandria, LA).
    Accomplishments.--A proposed land use plan covers the 160-acre Big 
Saline Bayou tract, as well as three other tracts in Louisiana. The 
site has had a history of illegal dumping. A contract to remove 
accumulated waste such as old refrigerators, 55 gallon drums, etc. was 
completed in fiscal year 1999. The BLM boundary sign and no dumping 
signs will be installed soon. Development of a cooperative management 
plan will be initiated in fiscal year 2000.
    Acreage.--160 acres.

                           AMPHIBIAN RESEARCH

    Question. The U.S. Geological Survey has a budget request of $2 
million for research and monitoring of frogs, toads, and salamanders. 
What do you hope to accomplish with this research?
    Answer. With the additional funds requested in fiscal year 2001, 
USGS will expand monitoring surveys to all major regions of the United 
States, including the Northeast, and the Upper and Lower Mississippi 
River Basins. Amphibian declines and deformities have been observed/
reported in these regions. If funded, this initiative would also 
increase research on disease, parasites, and contaminant effects on 
amphibians. Research would also be undertaken to characterize 
hydrological conditions, describe the basic water quality (water 
chemistry and water-borne toxics, etc.) at monitoring sites, and 
generally assess past and present habit conditions at many of these 
same sites. Cartographers and geographers in the bureau will provide 
high resolution maps of survey sites, and developing novel approaches 
to analyze land-use, land-cover, and other geospatial information to 
correlate habitat change with amphibian declines. Data storage, 
analytical, and reporting capability would be increased, and the 
structure of standardized databases would be enhanced to accommodate 
data from other Federal, State, and private amphibian monitoring 
programs. A partnership program would be initiated with matching funds 
to encourage critical state and other stakeholder participation in the 
Amphibian Research and Monitoring Initiative.
    Question. Do you intend for the amphibian research to be an ongoing 
program or do you expect to need this funding on a one-time basis to 
pay for all of the necessary research?
    Answer. The amphibian research increase is needed to fund critical 
gaps in USGS' permanent, ongoing amphibian research and monitoring 
initiative. Whereas a small portion of the requested funds would be 
used for short-term (3-5 years) research projects, the majority of 
these funds would support ongoing, continuous monitoring programs 
necessary for obtaining status and long-term trend information for 
amphibian populations.

                      ACROSS-THE-BOARD RESCISSION

    Question. The appropriations bill we passed this year included an 
across-the-board rescission of 0.38 percent. We have since learned that 
you reduced Congressional projects, including the repairs to the Canaan 
Valley National Wildlife Refuge, by 7.5 percent. Why did you decide to 
take a disproportionate share of the rescission from Congressional 
priorities?
    Answer. The application of a 7.5 percent reduction from line item 
construction projects that were not requested in the President's budget 
was consistent with the Administration's approach throughout the 
agencies funded in the Interior and Related Agencies Appropriations 
Act. The Department's protection of programs that were Presidential 
Priorities during the negotiations process was also consistent with the 
Administration's approach to the rescission. Additionally, the 
Department protected funding appropriated to the Office of Special 
Trustee because of the high priority of trust reform activities. 
Generally, aside from these exclusions, the rescission was applied 
proportionately to all bureaus and programs throughout the Department.

                          WORKING CAPITAL FUND

    Question. The bureaus in your Department are requesting increases 
for Departmental working capital fund charges exceeding $4 million for 
2001. Are all of these working capital fund costs uncontrollable as 
they are presented in the budget, or are some of these costs generated 
by management decisions?
    Answer. Most of the increase in the 2001 consolidated billing or 
``uncontrollable'' segment of the Departmental working capital fund 
(WCF) provides for the same uncontrollable increases that are requested 
by the Department's bureaus in their respective budget requests, 
namely, pay raises, rent increases, and the like. Part of the 2001 WCF 
increase is offset by a reduction in Departmental Management 
reimbursable work. Financing the Office that provides GPRA assistance 
to bureaus is being switched from a reimbursable to the Departmental 
Management appropriation to the working capital fund. With respect to 
funding levels this change has little effect on the cost to bureaus. 
Two items that are included in the 2001 estimate could be interpreted 
as management decisions.
    Late in 1999, the Department realized that in order to conform to 
the provisions of the Clinger-Cohen Act the Department needed to 
develop a Department-wide Information Technology Architecture. This 
effort was initiated with credit card rebate funds; however, a more 
structured source of revenue was needed to ensure stable, uninterrupted 
development. It was therefore added to the working capital fund in 
2001.
    The second management decision was to bolster DOI University 
offerings, which provide training nationwide for all DOI bureaus and 
offices.
    In both cases input from high-level bureau officials weighed into 
the management decisions. Once agreed upon, the decisions became 
binding or ``uncontrollable'' to individual bureaus.
                                 ______
                                 

            QUESTIONS SUBMITTED BY SENATOR PETE V. DOMENICI

               NATIONAL PARK SERVICE--PETROGLYPH MONUMENT

    Secretary Babbitt, under current practice, tracts of high value 
that have the support of both the administration and the Congressional 
delegation usually have a relatively good chance of being selected for 
acquisition through the appropriations process. Some larger tracts tend 
to motivate a great deal of public sentiment, sometimes both pro and 
con, and therefore are raised to a higher level of awareness within the 
Congress and the Administration.
    Let me give you a frustrating example on an acquisition that should 
have been completed in New Mexico. In 1990, Congress passed legislation 
to establish the Petroglyph National Monument in Albuquerque. With that 
legislation, we committed to acquire all of the privately held land 
within the area to be administered by the National Park Service.
    The following are the requests of the Administration to fund land 
acquisition at the monument:

                          [In millions dollars]

Fiscal year:
    1992 (Bush)...................................................   8.0
    1993 (Bush)...................................................   8.0
    1994 (Bush/Clinton)...........................................   4.3
    1995 (Clinton)................................................   1.8
    1996 (Clinton)......................................................
    1997 (Clinton)......................................................
    1998 (Clinton)......................................................
    1999 (Clinton)................................................   1.0
    2000 (Clinton.......................................................

    Facing having waited 10 years to have been bought out, I must only 
assume that the Administration considers these to be low priority 
tracts that don't have exceptional resource values. But the current 
owners cannot do anything with the land, and continue to pay taxes, and 
want out. The problem is that it takes a non-related issue, on which 
the Administration wants my support for me, or Congresswoman Wilson, or 
former Congressman Schiff to get the Administration and the agency to 
pay any attention to this commitment. I'm speaking of a high priority 
acquisition elsewhere in New Mexico, that gave us the leverage to get 
the Administration to request additional funding in fiscal year 1999.
    For this reason, I am hoping that Title II of S. 1892 will help 
remedy this situation. I appreciate the Administration's favorable 
testimony of that legislative initiative.
    Question. However, I would like to know how much funding is needed 
to complete Federal acquisition at the Petroglyph National Monument?
    Answer. After fiscal year 2000, fifty-one privately owned tracts 
containing a total of 20 acres will remain to be acquired at Petroglyph 
National Monument. Additional funds in the amount of $2,700,000 would 
be needed to complete the acquisition of the privately owned tracts at 
the national monument.

           BUREAU OF LAND MANAGEMENT--GRAZING PERMIT RENEWALS

    Question. As you may know, I have worked diligently to protect 
permitees while BLM completes NEPA compliance. You will also recall 
that language in the fiscal year 2000 Interior Appropriations bill does 
not in any way effect BLM's authority to change permit terms when 
damage to the land is occurring, or in any other way avoid 
environmental law compliance. It has recently come to my attention that 
despite my efforts in the passage of law to protect permitees rights, 
the BLM in New Mexico may have other interpretations of the law's 
requirements.
    I understand that over 350 grazing permits in New Mexico that 
expired in 1999 have yet to be renewed under their existing terms and 
conditions until the NEPA process is complete. Could you please verify 
the status of permit renewals in my home state, and justify any 
avoidance of the law that may be occurring?
    Answer. According to a report from the New Mexico State Director 
dated April 24, 2000, proposed decisions for all 364 fiscal year 1999 
expired permits and leases will be issued by mid-July so that final 
decisions can be issued by September 30, 2000.
    All 371 permits and leases expiring in fiscal year 2000 will be 
renewed in accordance with the language of Public Law 106-113, and 
about half will have NEPA compliance completed by September 30, 2000. 
The remainder will be processed in accordance with NEPA by September 
30, 2001.
                                 ______
                                 

            QUESTIONS SUBMITTED BY SENATOR PATRICK J. LEAHY

                     PARTNERS FOR WILDLIFE PROGRAM

    Question. There is a critical need in Vermont to restore waterways 
and create sustainable, healthy ecosystems for aquatic life and public 
health. Increasingly, our waters are being threatened by urban 
development and contaminated run-off and Vermonters want a long-term 
plan to safeguard this precious resource. Your Department's Fish and 
Wildlife Service has played a key role in confronting, and solving, 
state water quality issues and I believe they need even more support in 
fiscal year 2001, not to mention 2002 and beyond. One particularly 
important Fish and Wildlife Service program is completely voluntary and 
extremely popular--Partners for Wildlife program. In 1999, the Partners 
for Wildlife program helped Vermont complete 31 habitat restoration 
projects, most of which directly addressed water quality. These 
projects included installing fencing to keep livestock out of streams, 
stabilizing streambanks, and creating instream habitat in the Lake 
Champlain watershed. Nationally, the Partners for Wildlife program has 
had wait-lists of over 2000 private landowners. In Vermont, there are 
already several hundred landowners in line. I was pleased to see a 
modest increase in this program (Partners for Fish and Wildlife) in 
your fiscal year 2001 budget. However, I believe this important program 
can be even further expanded. I would like to know the long-term plans 
of your Department to increase funding and access to this key, 
voluntary conservation program so that it may best serve all of those 
who wish to take part.
    Answer. The Partners for Fish and Wildlife Program has been a very 
successful and well received program. The program works voluntarily 
with private landowners to restore fish and wildlife habitats. With 
over 70 percent of the nations land in private ownership, there are 
many opportunities for collaborative efforts. With over 22,000 
landowner agreements across the county, this small program has made 
significant progress providing landowners with biological and technical 
expertise, as well as cost-sharing, for habitat improvements on their 
lands. A healthy environment is necessary for economic and social 
prosperity. The Partners program focuses on providing landowners and 
communities with the tools and the means to achieve a healthy 
environment. Due to these factors, the 2001 President's budget request 
includes an increase of $2.5 million to attack invasive species (+$2 
million) and implement additional fish passage projects (+$500,000).
    The program has become more diverse and habitat restoration efforts 
more complex. As the program moves into additional watersheds, the 
demand from communities and landowners for technical assistance 
increases. As a result, the need for additional capabilities has become 
critical to the continued success of the program and its ability to 
participate in many ongoing and new partnership efforts in a meaningful 
way. As with all priorities in the Service, the Partners Program will 
compete annually with other equally vital Service programs within the 
constraints of limited budgets.
    The Partners program will continue to emphasize the restoration of 
aquatic and terrestrial habitats and ecological communities for the 
benefit of fish and wildlife, in concert with the needs and desires of 
private landowners. It will focus on modifying land use practices that 
imperil watersheds and landscapes, supporting locally-led initiatives, 
and empowering communities and landowners to become actively involved 
in habitat conservation efforts. It will also continue to focus on 
developing partnerships with Federal, State, local governments, tribes, 
NGO's, communities and individuals.
    The Partners Program will also continue to provide habitat 
conservation and restoration expertise to landowners involved in other 
Federal conservation programs. The addition of the Service's expertise 
to the collaborative process ensures that habitat restoration plans and 
implementation meet the needs of Federal trust species including 
migratory birds, threatened and endangered species, and anadromous fish 
(e.g., salmon). As experts in current restoration techniques the 
Partners program representatives provide important information 
regarding a site's restoration potential, planting and seeding mixes 
and rates, optimal hydrological regimes (e.g., when to flood and when 
to draw down), stream restoration techniques, specific target species 
habitat needs, and other biological and construction information that 
will result in the best restoration possible.

                  CONNECTICUT RIVER JOINT COMMISSIONS

    Question. For several years, the National Park Service provided 
some financial assistance to the Vermont-New Hampshire Connecticut 
River Joint Commissions through the Rivers and Trail program. This 
funding, if small, was used to leverage important private fund raising 
and has encouraged conservation, cultural heritage, and recreational 
work throughout the Connecticut River watershed. However, in recent 
years the National Park Service has suggested that the Rivers and 
Trails program is not suited to provide ongoing support for these 
efforts. Given that the Connecticut River was named an American 
Heritage River in 1999 and deserves federal attention, please outline 
how the National Park Service can best support these coalitions if not 
through Rivers and Trails program.
    Answer. Over the past 9 fiscal years, the NPS, through its Rivers 
and Trails Conservation Assistance (RTCA) program has provided a total 
of $1.473 million to support the Joint Commissions for the Connecticut 
River. The fiscal year 2000 Interior Appropriations Conference Report 
provided specific direction to the NPS regarding long-term financial 
support to RTCA projects. It stated, ``the managers emphasize that this 
[the RTCA Program] is a technical assistance program and therefore it 
is not meant to provide for annual operating expenses or technical 
assistance beyond 2 years.'' This direction was an affirmation of the 
existing NPS policy, that is in place to equitably respond to the 
demand for assistance from localities in all 50 States.
    The NPS is pleased to participate in the Federal agency-working 
group that was set up as part of the designation of the Connecticut 
River as an American Heritage River. The Environmental Protection 
Agency plays the lead role as River Navigator for the Connecticut River 
and may have the broadest perspective on programs capable of providing 
continuing support to the Joint Commissions. In the past, we have also 
suggested that the U.S. Fish and Wildlife Service, through its Silvio 
Conte National Wildlife Refuge, should be a strong partner.
    Ultimately, the Joint Commissions need to establish a broad 
spectrum of funding to support their work to include state and local 
governments, and corporate and foundation partners.
    The NPS has no authority for long-term financial support for 
organizations like the Joint Commissions for the Connecticut River. The 
National Park Service will continue as an enthusiastic supporter and 
strong reference for the Joint Commission.

            LAKE CHAMPLAIN FISH AND WILDLIFE RESOURCE OFFICE

    Question. Considerable pressure is growing in Vermont to speed up 
the time line for restoration of Lake Champlain. In particular, the 
sportfishing community is pushing to prioritize the recovery of lake 
sturgeon and landlocked salmon. Fisheries Resource Office funding is 
greatly needed as this facility has had a consistently declining budget 
since 1993. Level, or increased funding is needed in fiscal year 2001. 
When we passed the Lake Champlain Special Designation Act of 1992, one 
of the most important issues was restoration of native fish and 
wildlife habitat and the Fish and Wildlife Service made a commitment to 
be a lead federal partner in the Lake Champlain Basin Program. 
Secretary Babbitt, please explain how this declining budget rationale 
has been made each year, given this prior commitment. Also, I would 
like to know what the Service will do to meet the commitments made to 
the Lake Champlain Action Plan.
    Answer. Since passage of the Lake Champlain Special Designation Act 
of 1990, the Service's Lake Champlain Fish and Wildlife Resource Office 
has represented the Service on several committees and working groups 
within the Lake Champlain Basin Program. As part of the Service's 
commitment to participate on high priority actions items identified in 
the Lake Champlain Management Plan (Opportunities for Action) finalized 
in 1996, the Lake Champlain Fish and Wildlife Resources Office is 
working with numerous federal, state, local government and non-
government partners on a variety of initiatives directed at restoring 
Lake Champlain.
    The Service remains committed to the Lake Champlain Basin Program 
as the lead federal agency in the restoration of native fish and 
wildlife species and their habitats within the watershed. Priority 
activities include sea lamprey management, landlocked salmon and lake 
sturgeon restoration and forage fish stock assessments. All of these 
activities are in cooperation with our state and local partners.
    While the Lake Champlain Fish and Wildlife Resources Office 
fisheries' budget has declined from $622,000 in fiscal year 1993 to 
$514,000 in fiscal year 2000, as shown in the following table, the 
Service has concurrently increased the office's Partners for Fish and 
Wildlife Program (habitat restoration) budget from $5,000 to $199,000. 
Within the Lake Champlain watershed, this highly successful program has 
led to the restoration of more than 600 acres of wetland, 59 miles of 
riparian (streambank), and 450 acres of adjacent upland habitats since 
1993. If enacted, the Service estimates that the 2001 Budget Request 
would provide $791,000 for the Lake Champlain Fish and Wildlife 
Resources Office, an increase of $77,000 over 2000 enacted.

               LAKE CHAMPLAIN FISH AND WILDLIFE RESOURCES OFFICE (BUDGET: FISCAL YEARS 1993-2001)
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    1993   1994   1995   1996   1997   1998   1999   2000   2001
----------------------------------------------------------------------------------------------------------------
Fisheries Program................................    622    607    596    578    578    588    554    514    591
Partners for Fish & Wildlife.....................      5     15    100    196    192    198    198    199    200
                                                  --------------------------------------------------------------
      Total......................................    627    627    696    774    770    786    752    713    791
----------------------------------------------------------------------------------------------------------------

          MARSH-BILLINGS-ROCKEFELLER NATIONAL HISTORICAL PARK

    Question. During its first summer of operation, the Marsh-Billings-
Rockefeller National Historical Park received almost 30,000 visitors. 
This is the only national park in Vermont and is not only extremely 
popular, but has also become a unique education and outreach center for 
sustainable forestry practices at the National Park Service 
Conservation Study Institute. Additional funding is needed to meet both 
the increasing visitation to the park and to maintain the now 
nationally recognized Conservation Study Institute for sustainable 
forestry. I would like to know how the National Park Service will 
support and encourage this type of community educational partnership as 
it continues to grow in popularity.
    Answer. Marsh-Billings-Rockefeller NHP opened to the public in June 
1998 and had 21,000 visitors that first year. In August 1999, the park 
opened the newly rehabilitated 10,000 square-foot Carriage Barn Visitor 
Center. The new facility includes exhibits on conservation history and 
stewardship, conferencing and educational spaces, and museum storage. 
Visitation to the park increased 61 percent in 1999 to 34,000. The park 
anticipates a 25 percent increase in visitors in 2000 and also 
associated increased demand for park programs at the new Carriage Barn 
Visitor Center.
    Demand for stewardship education programs is increasing as more and 
more people learn about the park and in light of the innovative 
conservation measures being undertaken in the Northern Forest by the 
Conservation Fund and other organizations. There is particular interest 
in sustainable forestry and responsible stewardship from the general 
public and the conservation community. Nonprofit organizations, state 
and local agencies, and academic institutions are approaching the park 
indicating a desire to partner in public programs and services which is 
a goal of the NPS and will serve as a means of meeting increased 
requirements in these areas.
    The Conservation Study Institute, based at the park, was 
established by the National Park Service to develop model conservation 
education programs and to provide technical assistance on best 
practices for resource stewardship and environmental leadership. These 
programs fill a critical need for maintaining and enhancing effective 
stewardship of national parks that relies upon leadership, an informed 
public, and collaboration through partnerships. The Institute works in 
partnership with the park, the University of Vermont, Shelburne Farms, 
and others to develop conservation education curricula focused on 
natural resources, cultural heritage, and sustainable practices, with 
an emphasis on forest stewardship. Programs developed and conducted by 
the Institute to date have been very successful. Demand for programs 
offered by the Institute is expected to double by fiscal year 2002.
    The NPS has gradually built the park operating base for the 
Historical Park and the Conservation Study Institute since the park's 
establishment. Beginning in fiscal year 1997 and in the three 
subsequent budgets, the NPS requested operating increases each year for 
the Park and Institute. Increases of $340,000, $400,000, $244,000, and 
$270,000 were approved for fiscal year 1997, fiscal year 1998, fiscal 
year 1999 and fiscal year 2000 respectively.
    The President's fiscal year 2001 budget request of $1.299 million 
for Marsh-Billings-Rockefeller NHP maintains level funding for the 
Conservation Study Institute programs and for park operations. Funding 
needs for Marsh-Billings-Rockefeller NHP and all other NPS units will 
continue to be addressed as funding is available and priorities 
dictate.

                    SILVIO O. CONTE EDUCATION CENTER

    Question. The nationally-recognized Montshire Museum of Science in 
Norwich, Vermont has developed a cooperative agreement with the Fish 
and Wildlife Service to construct a new wing dedicated to public 
education about the Silvio O. Conte Refuge lands, and specifically the 
Nulhegan Basin lands of the Connecticut River watershed. With $1.3 
million in federal funds allocated to this project last year, the 
partnership was forged and architectural design was completed. The 
project continues to need federal funds this year to complete 
construction and become one of the four designated public education 
centers in New England states with refuge lands (Vermont, Connecticut, 
New Hampshire, and Massachusetts). May I have a commitment from you, 
Secretary Babbitt, to fully fund and complete construction of this 
extremely important ecosystem and conservation education center along 
the Vermont bank of the Connecticut River.
    Answer. This project is a 10,000 square-foot addition to the 
existing Montshire Museum of Science, Inc., a private non-profit 
corporation that is designated a Conte Education Center as defined by 
the Silvio O. Conte National Fish and Wildlife Refuge Act. The fiscal 
year 2000 appropriation directed that the Federal commitment for the 
project shall not exceed $2,900,000. The Service's cost estimate for 
the project is now $3,426,000. The additional cost of $526,000 is due 
to phasing. In fiscal year 2000 $1,387,000 was appropriated for the 
first phase of the project. As such, $2,039,000 is needed to complete 
the project. However, this project was not included in the President's 
Budget and is not in the Service's five-year construction plan.
                                 ______
                                 

           Questions Submitted by Senator Ernest F. Hollings

                  NPS FORT SUMTER TOURS FRANCHISE FEES

    As you know, the Department of the Interior has been in a dispute 
with Fort Sumter Tours (FST) for some 8 years over an increase in FST's 
franchise fee. In 1992, NPS unilaterally increased FST's franchise fee 
from 4.25 percent to 12 percent. In a hearing before the House Resource 
Committee on July 1, 1999, Mr. Robert Stanton (NPS Director) admitted 
that there was a technical error in the original financial analysis.
    Question. Now, if errors were made, don't you think that it is only 
appropriate to correct them?
    Answer. As the attached letter to Chairman Hansen dated July 26, 
1999, more fully describes, the technical error acknowledged by the NPS 
at the July 1, 1999, hearing had no impact on the final franchise fee 
determination. This technical error was not in the franchise fee 
calculation which appropriately calculated the probable value to the 
concessioner of the privileges granted by the concession contract.

                   U.S. Department of the Interior,
                                     National Park Service,
                                      Washington, DC, July 26 1999.

Hon. James V. Hansen,
Chairman, Subcommittee on National Parks and Public Lands, Committee on 
        Resources, House of Representatives, Washington, DC.
    Dear Mr. Chairman: Thank you for the opportunity to appear before 
the Committee on July 1, 1999, to discuss the National Park Service 
(NPS) franchise fee reconsideration for Fort Sumter Tours, Inc. (FST). 
For inclusion in the record, I would like to address a few issues that 
were raised at the hearing.
    At the hearing, the NPS stated, as we had in our letter of December 
5, 1998, that on page 2 of the 1992 NPS franchise fee analysis for FST, 
non-concession income was included in the initial determinations of the 
minimum and maximum franchise fee. However, I would like to emphasize 
again, as I did at the hearing, that this inclusion was a harmless 
oversight that had no impact on the final franchise fee determination. 
The final calculation of the 12 percent franchise fee did not take into 
account the $195,603 of non-concession income. The error was not in the 
franchise fee calculation which appropriately calculated the probable 
value to the concessioner of the privileges granted by the concession 
contract.
    I would like to clarify another point made at the hearing. When 
narrowly asked if the maximum franchise fee would have been 8.7 percent 
if the non-concession income were not included in this initial 
determination of the maximum and minimum franchise fee, the NPS 
acknowledged that the preliminary determination of the maximum fee, 
consistent with the spreadsheet, would have been 8.7 percent. However, 
the NPS was not asked, and was not given an opportunity to explain, 
that, in addition to the inclusion of non-concession income, the 
spreadsheet included non-concession expenses. If the non-concession 
income is excluded from the spreadsheet, then the non-concession 
expenses must also be excluded from the spreadsheet. If non-concession 
expenses were excluded from the calculation, then the maximum franchise 
fee would rise to approximately 12 percent to 14 percent, depending on 
how the expenses are addressed. Furthermore, I would like to state that 
the process of determining the initial maximum franchise fee as part of 
the franchise fee analysis is no longer the policy of the department. 
On July 20, 1995, after notice and public comment, the Director amended 
the NPS policy for determination of franchise fees. The Director 
eliminated that portion of the process that established the maximum 
franchise fee, as was utilized in the initial spreadsheet for FST. 
While the policy was originally intended to be used as a guideline to 
aid in the setting of franchise fees, it has often been interpreted by 
various parties involved in the fee setting process as a firm cap. This 
view has led to confusion and the setting of fees below the probable 
value of the authorizations involved. The elimination of this policy 
will end this confusion.
    In these circumstances, it is the position of the NPS that the 
determination of the 12 percent franchise fee for FST was and still is 
an appropriate determination under law, guidelines and contractual 
rights of the parties. As we discussed at the hearing, franchise fee 
analyses are performed to establish the probable value to the 
concessioner of the privileges granted by the concession contract.
    Next, I would like to note that there appeared to be some confusion 
about the process of fee reconsideration itself. As I stated at the 
hearing, the requirement to reconsider franchise fees every 5 years was 
mandated by Congress in the Concessions Policy Act of 1965, and was 
implemented through a specific provision of the FST concession 
contract. The process of reconsideration is a process of negotiation. 
If the NPS and the concessioner cannot agree upon an adjusted franchise 
fee within a specified period, the concessioner may choose to invoke 
advisory arbitration proceedings to determine the appropriate franchise 
fee. The process is one involving communication and negotiation by both 
parties. Unfortunately, FST chose not to avail itself of this 
arbitration process and pursued litigation instead.
    Finally, I would like to address the suggestion that the National 
Park Service was reluctant to provide information to FST as part of the 
reconsideration process. It certainly is the intention of the National 
Park Service to provide information to concessioners as part of the 
standard franchise fee reconsideration process. It is my understanding 
that all documents that were requested by FST were provided to FST, 
with the exception of certain copyrighted documents that are available 
from the organizations which issue them and in the public library. Of 
course, once a lawsuit is initiated, the process of providing documents 
is necessarily constrained by the litigation. I note again that the 4th 
Circuit found the actions of the National Park Service with respect to 
the production of documents to be proper and appropriate.
    As I stated in my testimony, this letter does not constitute a 
review of, a reconsideration of, or new decision of any nature 
regarding the established franchise fee. Furthermore, the fact that a 
particular calculation could be done another way does not in any manner 
suggest, admit or otherwise imply that the decisions made by the NPS 
were arbitrary, capricious or otherwise unlawful.
    I am pleased to inform you that the United States Attorney's office 
has set a time and a place to sit down with FST to discuss settlement 
of this ongoing litigation. We remain hopeful of a resolution and thank 
you for your interest in this matter.
            Sincerely,
                                            Robert Stanton,
                                                          Director.

    Question. Why has it been so hard for FST and the NPS to come 
together and sit down and negotiate an equitable settlement for 
everyone involved?
    Answer. Despite Fort Sumter Tours, Inc. preferring to litigate this 
matter and losing five court decisions, the NPS has attempted to settle 
this dispute with Fort Sumter Tours, Inc. on several occasions, most 
recently in the mediation program at the D.C. Court of Appeals. The NPS 
remains open to any reasonable settlement offer by Fort Sumter Tours, 
Inc.
    Question. NPS has stated that FST does a great job in their 
concessionaire duties. Isn't that correct?
    Answer. Fort Sumter Tours, Inc., has received satisfactory annual 
evaluations from the NPS.
    Question. You have asked for increased funding for Park Base 
Operations within the National Park Service. In the Budget 
Justification for NPS, it is stated that these increases are for 97 
increases for 71 park units. The Congaree Swamp National Monument 
located in SC will be opening the doors to a brand new, state-of-the-
art, visitor/education center later this year, which this Subcommittee 
has been very instrumental in funding, and I thank the Chair and 
Ranking Member for that. The problem with this park, as well as others 
within the NPS, is lack of funding for increased operations. Do you 
think the Department of the Interior is asking for enough funding for 
base operations?
    Answer. The National Park Service is requesting an increase in 
fiscal year 2001 of over $90 million for the Operation of the National 
Park System appropriation--the source of funding for park operations. 
Within that amount, the NPS is proposing an increase of over $71 
million for direct park base operations, including $27,631,000 for 
programmatic park increases. The Department's fiscal year 2001 budget 
request attempts to strike a balance between the myriad of requirements 
in all programs while adhering to the budget allowances dictated by the 
need to stay within governmentwide funding constraints.
    Congaree Swamp National Monument received a recurring operating 
increase of $120,000 in fiscal year 2000 to operate and maintain the 
new facility. The park's budget has grown from $343,000 in fiscal year 
1997 to a proposed $735,000 for fiscal year 2001. Future base increases 
will be weighed against needs at other parks throughout the System and 
provided as priorities and budget allowances dictate.
    Question. How is it determined which parks will receive increased 
funding?
    Answer. The park base increases chosen for inclusion in the fiscal 
year 2001 budget submission reflect the highest priority needs as 
identified by park managers, and subsequently prioritized at the 
regional level through the use of the Service's Operations Formulation 
System (OFS). OFS is designed to allow the parks to identify and 
prioritize all unfunded operational requirements.
    Based on the immediacy of need and the priorities articulated by 
the NPS Director, Regional Offices band the increases into ``high 
priority'' or ``lower priority'' segments, with subsets of ``current'' 
and ``future'' requirements. Individual Regional priorities are then 
set based on the priorities established by the NPS National Leadership 
Council (NLC) in conversations at the beginning of the budget cycle. 
For fiscal year 2001, special emphasis areas defined by the National 
Park Service were taken into consideration, as regional priorities were 
set.
    The next step in the process is a Servicewide review, in which all 
requests are examined for accuracy, validity, and conformance with 
policy. At this stage of the process interagency initiatives are 
overlaid on the NPS priority system and examined in light of 
anticipated performance results, based on established goals from the 
NPS Strategic Plan.
    The final priority listing was consolidated into a Servicewide 
request through a pro-ration among the Regions of the amount available 
based on a combination of historical funding levels and emphasis areas 
as directed by the various initiatives. As the allowance level was 
adjusted at each stage of the budget process, the list was adjusted to 
reflect the amount of budgetary allowance available and the commitment 
of the Department and the National Park Service to selected areas of 
emphasis.

                   FISH AND WILDLIFE SERVICE CONCERNS

    Question. As you know, the GAO released a report on July 20, 1999, 
entitled Fish and Wildlife Service: Management and Oversight of the 
Federal Aid Program Needs Attention. On page 5 of this report, it is 
stated ``the Office has no idea of how much revenue is being generated 
or what is being done with these funds. In our opinion [GAO], the lack 
of concern exhibited by the agency officials about these kinds of 
issues is indicative of the weak oversight of this program.'' What, if 
anything, has been done to correct the mistakes that the GAO pointed 
out about the mishandling of funds.
    Answer. While the Service agrees with many of the concerns 
expressed by the General Accounting Office in their July 1999 
testimony, this is an area in which the Service disagrees with GAO's 
findings.
    In this case, GAO concluded that a particular contract was not 
clear with regard to the disposition of income authorized in the 
contract. Additionally, GAO concluded that there were other grants that 
were generating revenue. The Service does not believe there are other 
revenue-generating grants.
    The Service has thoroughly reviewed the contract in question and 
finds no ambiguity regarding the revenue generated under this contract. 
The contract specifically states that the Government pays to the 
contractor the costs of providing services to cooperators (fish and 
wildlife professionals). These costs are to cover copying, compiling, 
and mailing requested information. Cooperators are allowed up to 100 
free copies per request and the number of requests per cooperator is 
unlimited. In addition, the contractor is allowed to charge non-
cooperators (all others, primarily non-government organizations and 
private researchers) costs for copying, compiling, and mailing 
information they request since these operations are not covered by the 
Service contract. Thus, ``generated funds'' are not ``profits'' to the 
contractor, but are fees the contractor collects to offset its costs. 
As such, the Service does not believe these are disposable revenues 
which are subject to return to the Service; rather they are necessary 
costs of providing services in excess of the amounts the Service 
subsidizes.
    Secretary Babbitt, the Fish and Wildlife Service's budget 
justification for fiscal year 2001 states that the Department, through 
the National Refuge System, owns and manages over 300,000 acres of 
coral reefs on eight refuges in the South Pacific. In the next 
sentence, the document claims that three million unmanaged acres occur 
in the immediate vicinity of these refuges.
    Question. Are these 3 million acres of coral reefs located in 
federal or state waters?
    Answer. All of these waters are federal waters. The approximately 3 
million acres of unmanaged waters adjacent to national wildlife refuges 
are certain waters in the Central Pacific that are not currently 
covered by an approved Fishery Management Plan for reef-associated 
organisms (e.g., bottomfish and crustaceans) under the authority of the 
National Marine Fisheries Service and the Western Pacific Regional 
Fishery Management Council. While there are limited entry fisheries 
established through federal Fishery Management Plans for some areas 
(e.g, Hawaiian Islands), there are none for a number of U.S. flag 
holdings in the Central Pacific Ocean, hence the reference to 
``unmanaged acres.''
    Question. Does the Department have the legal authority to manage 
them? If so, which legislation or other authority provides the 
Department with such jurisdiction?
    Answer. While the Service has some authorities that apply within 
these federal waters, such as under the Endangered Species Act with 
respect to some species, the only waters that the Service has 
comprehensive management authority for are waters within national 
wildlife refuges. None of these waters are in a national wildlife 
refuge.
    Question. I am hearing that the Department of the Interior believes 
it has the authority to manage marine fish and other marine life 
(including corals) in federal waters--and even close down fisheries in 
state waters! This is contrary to President Nixon's Reorganization Plan 
No. 4 and subsequent legislation, including the Magnuson-Stevens Act, 
which gave the National Oceanic and Atmospheric Administration (NOAA) 
in the Department of Commerce the authority to manage living marine 
resources in federal waters. I even hear that the Department is 
interested in utilizing the 1918 Migratory Bird Treaty Act as a 
justification to regulate fisheries in federal waters. It is my hope 
that this is not true! Do you care to comment?
    Answer. The authority of the Service to manage fish in national 
wildlife refuges is stated in the National Wildlife Refuge System 
Administration Act of 1966, as amended (including by the National 
Wildlife Refuge System Improvement Act of 1997), whose provisions 
include:

    ``The mission of the System is to administer a national network of 
lands and waters for the conservation, management, and where 
appropriate, restoration of the fish, wildlife, and plant resources and 
their habitats within the United States for the benefit of present and 
future generations of Americans.'' (16 U.S.C. 668dd(a)(2))
    ``No person shall . . . take or possess any fish . . . within any 
such area . . . unless such activities are permitted either under 
subsection (d) of this section or by express provision of the law, 
proclamation, Executive order, or public land order establishing the 
area, or amendment thereof . . .'' (16 U.S.C. 668dd(c))
    ``The Secretary is authorized, under such regulations as he may 
prescribe, to--
          (A) permit the use of any area within the System for any 
        purpose, including but not limited to hunting, fishing, public 
        recreation and accommodations, and access whenever he 
        determines that such uses are compatible with the major 
        purposes for which such areas were established . . . (16 U.S.C. 
        668dd(d)(1))

    This authority applies only in national wildlife refuges, not in 
all federal waters, and was not affected by President Nixon's 
Reorganization Plan No. 4, nor amended by the Magnuson-Stevens Fishery 
Conservation and Management Act.
                                 ______
                                 

              Questions Submitted by Senator Conrad Burns

                             UPPER MISSOURI

    Question. Secretary Babbitt, we have exchanged a number of letters 
and calls regarding the BLM's management of the Upper Missouri and 
possible changes in how the area [is] designated. Recently, you had to 
postpone a trip due to poor planning and little understanding of the 
Montana open meeting law. Are you planning on rescheduling this 
meeting? If so, when can we expect your visit? Will you be holding 
meetings open to the public, or just small closed door meetings?
    Answer. During a video conference call with the Resource Advisory 
Council in January, I promised to visit the area again in the spring. 
Following through on that commitment, I returned to Montana on May 2 
and 3, 2000, to discuss the management of the area further and explore 
the impacts on local communities. I held a large public meeting in 
Great Falls that was attended by more than 500 people, and two smaller 
public meetings in Fort Benton and Lewistown. All meetings were open to 
the press in accordance with Montana open meeting laws.
    Question. Can you assure the Committee that the administration has 
no plans to designate this area without the express consent of the RAC?
    Answer. No decision has been made about designation of the Upper 
Missouri River and Breaks area, and the Resource Advisory Council did 
not directly address designation in their recommendations to me on 
future management of the area. In general, I support the 
recommendations of the RAC.
    Question. Recently you have said that without legislative movement 
on new designations, without regard for whether new designations are 
the best way to manage all these areas, you have said you would not 
recommend that the President move forward on these designations, but 
implore him to do so. Considering your supposed commitment to the RAC 
process, can we assume your comments did not include the Upper 
Missouri?
    Answer. I have been very straightforward about my intent as it 
relates to possible national monument designations. I have said that my 
current focus will be on known land protection measures, specifically 
those now before the Congress, and I am encouraging everyone to make as 
much progress as possible in the remaining weeks of the session. If 
there is still important, undone business at that time, then I will 
consider possible next steps. Given the lengthy public process in 
Montana on the Upper Missouri and the discussions I have had with the 
Montana delegation, I have not excluded the Upper Missouri from further 
consideration for monument designation.
    I have also made clear that for any recommendations I make, I will 
continue to follow a ``no surprises'' policy. This means that I will 
give all sides the opportunity to be heard, and I will take that input 
seriously before making recommendations.
    Question. Mr. Secretary, there is a very strong locally lead push 
to start new stewardship initiatives on the Upper Missouri. There is 
also a RAC request for more money to dedicate to actual land management 
goals. Do you support funding these initiatives?
    Answer. The Central Montana Resource Advisory Council (RAC) 
identified critical needs in managing the Upper Missouri River Breaks 
country, including conservation easements, cottonwood restoration 
activities, and visitor management. I support these findings of the RAC 
and understand that such activities require additional funding.
    Question. Mr. Secretary, I recently saw an internal memo from the 
BLM dated January 11, 2000. It sets forth interim management policy for 
newly created monuments. Would this document apply to National 
Conservation Areas as well?
    Answer. The Bureau of Land Management's interim management policy 
for newly created national monuments is aimed at protecting the objects 
for which the area has been designated. It does not apply to National 
Conservation Areas and has no current effect on the Upper Missouri 
River and Breaks area.
    Question. In principle, does it apply to any possible future 
designation for the Upper Missouri area?
    Answer. If the President should choose to create a monument in the 
Upper Missouri area under the Antiquities Act, then the BLM would issue 
an Interim Management Policy.
    Question. Can I get a full explanation of each management ``bullet 
point'' forwarded to my office. For example, it modifies predator 
control. Would this stop trapping? Would it require confirmation of 
individual kills to initiate control of individual predators? 
Essentially this would move all predator populations, including 
coyotes, into a protected status much like wolves in the Yellowstone 
region, correct?
    Answer. Each Interim Management Plan is specially tailored to each 
designated monument. Given the fact that the President has not 
designated the Upper Missouri area as a monument, and no recommendation 
has been made by me to do so, it would be premature to speculate about 
the details of an Interim Management Policy for this area.
    Question. On the section describing activities on Non-Monument 
lands, does this include private land?
    Answer. The section of the internal memorandum that addresses Non-
Monument Lands applies exclusively to Federal lands that are adjacent 
to lands within the boundaries of the monument. It does not apply to 
private lands that are adjacent to the monument.
    Question. What is considered ``appropriate action?''
    Answer. Defining what constitutes ``appropriate action'' as that 
term is used in the internal memorandum is difficult because such 
action must, of necessity, be specific to the particular problem that 
is being be addressed.
    Question. Finally, the Governor has offered the river control plans 
already enacted in Montana as a model for what could be done on the 
Upper Missouri. Have you read his letter and what is your response to 
using a proven model rather than an arbitrary designation to address 
the needs of this area.
    Answer. Governor Racicot's February 7, 2000, letter refers to 
``similar issues [being addressed] on the Beaverhead, Big Hole, 
Blackfoot, Big Horn and upper Missouri rivers.'' He suggests that 
``these efforts take time for local groups to work with government 
agencies to assess the situation and to develop thoughtful plans to 
solve identified problems.'' I have been committed to an open public 
process since my initial visit to the Upper Missouri River and Breaks 
area in May 1999. The Central Montana Resource Advisory Council spent 
five months holding public meetings and engaging stakeholders as they 
developed their recommendations. I remain committed to continuing this 
process.

                        YELLOWSTONE SNOWMOBILING

    Mr. Secretary, my next concern is the recent action by the EPA 
regarding snowmobiling in Yellowstone National Park.
    Question. Have you read the comments of the EPA that attack 
virtually the entire 350 page Winter Use EIS? What is your response?
    Answer. The December 15, 1999, letter you are referring to was a 
response to the Draft Environmental Impact Statement (DEIS) on Winter 
Use for Yellowstone and Grand Teton National Parks and the John D. 
Rockefeller, Jr., Memorial Parkway. The letter was written in 
accordance with EPA's mandated duty to comment on environmental impact 
statements under the Clean Air Act. The EPA letter compliments the work 
done on the DEIS, stating that, `` We would like to point out that this 
DEIS includes among the most thorough and substantial science base that 
we have seen supporting a NEPA document''.
    The letter is critical in a constructive way. For example, the 
letter states that Alternatives A-F do not assure compliance with NAAQS 
standards; Natioal Park Service's (NPS) adaptive management procedures 
are not well defined; and the DEIS analysis convincingly demonstrates 
that current snowmobile use is adversely affecting Park values in the 
context of Executive Order (EO) 11644 as amended. These criticisms 
provide us with opportunities to enhance the disclosure of impacts in 
the final Environmental Impact Statement (EIS), to clarify procedures, 
and generally to improve the document in accordance with the National 
Environmental Policy Act (NEPA).
    Question. Do you or the National Park Service plan on incorporating 
the comments into the EIS?
    Answer. In accordance with the Council on Environmental Quality 
regulations (40 CFR 1503.4), NPS will assess and consider comments both 
individually and collectively, and will respond by one or more of the 
following means: (1) modify alternatives, (2) develop and evaluate 
alternatives not previously given serious consideration by the agency, 
(3) supplement, improve or modify its analyses, (4) make factual 
corrections, and (5) explain why the comment does not warrant agency 
response. EPA's letter is being considered and will be responded to as 
appropriate. EPA comments will be used to improve the analysis and 
disclosure of impacts and to develop mitigation within the full range 
of alternatives to be considered by the decision-maker. Also, EPA, 
along with numerous other organizations and individuals, has presented 
in their comments a compelling argument that, based on the DEIS, 
Alternative G best meets the purpose and need for action in regard to 
NPS mandates, Executive Orders, and current policy.
    Question. Is it your intention to weigh in from the Secretary of 
the Interior position on this issue? If so, what will your 
recommendation be?
    Answer. The delegated authority for this project lies with the 
Regional Director for the Intermountain Region of the National Park 
Service. However, the Secretary is in regular communication with the 
National Park Service on this issue and will be consulted before any 
decision is made.
    Question. Do you have any autonomy from the EPA, or does the EPA 
have full veto authority on everything the Department of the Interior 
and the National Park Service plans to do?
    Answer. NPS has the authority to make this particular decision. EPA 
conducted its review of the DEIS in accordance with its 
responsibilities under NEPA, and Section 309 of the Clean Air Act, as 
amended. EPA is delegated a broad review and comment authority under 
Section 309. But NPS has decision-making authority for actions on 
public lands administered by the Service, after considering 
recommendations or permit requirements of other federal or state 
agencies having jurisdiction in law or special expertise relative to 
the impacts of a proposed action.
    Question. The National Park Service has consistently said that 
four-stroke machines would answer the problems of pollution and noise. 
Of course this was when the technology seemed impossible. Now, the 
manufacturers and the local businesses surrounding the park have met 
the challenge and are poised to begin phasing in the new four-stroke 
machines. However, the National Park Service has said publicly that it 
is ``too late'' in an effort to move the goal posts. Is it your 
position that it is ``too late'' to phase in these clean machines and 
meet the demands of the EPA?
    Answer. NPS has long advocated that the two-stroke machines need to 
be improved in these respects if they are to be allowed to continue to 
operate in most units of the National Park System. A few test four-
stroke snowmobiles have been operated in and near Yellowstone National 
Park with some success. However, full production of this type of 
machine for use in Yellowstone Park is far from assured. Further, the 
emissions from these machines, even with quieter and cleaner 
technology, still emit polluting chemicals and noise. Therefore, NPS 
must continue to evaluate the overall volume of chemical and noise 
emissions. In addition, there are adverse effects NPS will consider, 
such as those on wildlife that will not be resolved by cleaner and 
quieter snowmobiles.
    Again, the NEPA process is still ongoing. NPS is producing a final 
EIS that will contain a full range of options that must be considered 
by the decision-maker (40 CFR Sec. 1505.1 and Sec. 1505.2). There is no 
decision under NEPA until the final EIS and Record of Decision are 
published.
    Question. From your recollection, when the EPA began requiring 
catalytic converters did they kick all the vehicles off the road or did 
they require a phase-in approach?
    Answer. Automobiles without catalytic converters were not 
prohibited from being on the roads.
    Question. A phase-in does seem appropriate, doesn't it? Would a 
phase-in of four-stroke technology seem appropriate in Yellowstone 
National Park?
    Answer. Five of seven alternatives in the DEIS contain provisions 
that would phase in clean and quiet snowmobile technology. Alternative 
B, the DEIS preferred alternative, allows a phase-in period of eight 
years following implementation of the decision. A sixth alternative, 
Alternative A, is ``no action'' which reflects current management and 
an alternative required by NEPA (40 CFR 1502.14 (d)). The seventh is 
Alternative G, which allows for motorized access via mass-transit 
snowcoach only, and which is phased in over three years. Again, NPS has 
not fully analyzed and arrived at a final preferred alternative.
    Question. Throughout the process the National Park Service has 
continued to release skewed information and partial facts regarding 
scientific findings in the National Parks in relations to this issue. 
Do you feel it is ethical to release half truths and biased press 
releases while conducting a NEPA document that focus on one aspect or 
alternative in the process?
    Answer. A review of the record of information and documents related 
to the development of the DEIS does not support the allegation that NPS 
has continually released skewed information or partial facts regarding 
scientific findings on this issue.
    It is true that NPS made computational errors in one summary of 
emissions data. The NPS, independent of the EIS process, released an 
Air Resource Division summary report, ``Air Quality Concerns Related to 
Snowmobile Usage in National Parks,'' that contained arithmetical 
mistakes. NPS has corrected the errors and re-released the report. Note 
that the summary report was not used in the writing of the DEIS. 
Rather, the DEIS used the independently prepared and reviewed research 
papers on air quality underlying the summary report. Data in the 
corrected report is available to the NPS planning team for 
consideration in the final EIS.
    Regardless of the computational errors in the original summary, the 
fact remains that the essence and import of the data remain essentially 
unchanged. The mandated comment and review period for a DEIS is 
expressly for the purpose of seeking better information and improving 
environmental analysis in the final document, thereby producing a good 
decision.
    Question. In the past few weeks, senior staff from Yellowstone 
National Park have told state and local officials from the three states 
surrounding the park that they intend to recommend to national 
headquarters that snowmobiles be banned from the park in the next two 
years. Is this a normal course of action under the NEPA process?
    Answer. The NPS wished to give the five counties, three states, and 
the U.S. Forest Service, who are cooperating agencies, as much notice 
as possible as to the possible direction the winter use plan might 
take. That is why in mid-March, we took the opportunity to provide them 
with this information. The NPS wanted to give the cooperating agencies 
as much time as possible so that they would be able to provide any 
additional information within their areas of expertise that would help 
the NPS in analyzing the effects of such a recommendation.
    Question. Is it normal to identify the preferred alternative prior 
to the formal release of the decision?
    Answer. The Council on Environmental Quality regulations suggest 
identifying the agency's preferred alternative in the draft 
environmental impact statement and require such an identification in 
the final environmental impact statement. These occur before a formal 
decision is reached, which occurs when the Record of Decision is 
signed. Specific guidance on the timing of such an announcement prior 
to release of the environmental impact statement is not provided in the 
regulations. The NPS often provides an early indication as to the 
direction of a preferred alternative so that the public and other 
agencies can have a sense of the agency's position. In simpler 
projects, that may actually occur during the scoping process in which 
we solicit ideas from the public on issues and alternatives. In more 
complex projects, such an indication may not occur until the EIS is 
released for public and agency review.
    In the case of the Winter Use Plan, we emphasized to the 
cooperating agencies that this identification of a preferred 
alternative was not a decision, rather an indication of our direction. 
A decision would come in the Record of Decision, which is slated for 
approval in early November, after the final EIS is released. The actual 
decision can adopt another alternative or elements of other 
alternatives as presented in the final EIS.
    Question. Has the National Park Service conducted any surveys or 
done any formal economic impact analysis to determine what effect the 
snowmobile ban would have on nearby communities and businesses? If so, 
can you provide that information to the Committee?
    Answer. Many surveys have occurred and a formal economic impact 
analysis of the effects of each of the alternatives was completed and 
is contained in the DEIS. The DEIS contains a summary of the results 
these surveys and the analysis for all the alternatives, including 
Alternative G.
    At the request of the cooperating counties, the NPS has agreed to 
include a more focused economic impact analysis in the final EIS that 
will just look at the effects on the five cooperating counties. Both 
the initial analysis of a 17-county area and the additional analysis 
are being conducted by a contractor, not by the NPS. In addition, the 
NPS has requested additional economic information from the cooperating 
agencies, especially the five counties, to assist in understanding the 
effects of the alternatives. The final EIS will include this additional 
analysis, additional information from the counties, and additional 
survey results that have been completed since release of the DEIS.
    Question. Is the Park Service willing to suspend action on the 
Winter Use EIS until it can provide the finding of such an economic 
impact study by an independent and objective outside source and report 
the results to Congress?
    Answer. The economic analysis for the winter use plan is being 
conducted by an independent, objective, and outside source. A Montana 
company, Bioeconomics, Inc., is conducting the work under contract to 
the NPS. In their analysis for the DEIS, Bioeconomics, Inc. reviewed 
all the economic information from the cooperators and used it to the 
extent possible in their analysis. Although the comments on the DEIS 
regarding economics criticized the analysis and conclusions, the 
comments did not provide alternative methodologies or compelling 
reasons why the conclusions were inaccurate. The cooperating agencies 
did ask for a more focused analysis and that additional information 
from the agencies is incorporated. The NPS has agreed to these 
requests, and directed Bioeconomics, Inc. to do so for the final EIS.

                           YELLOWSTONE BISON

    Question. Following court ordered mediation, is the NPS finally 
willing to work in good faith and realize they can not ignore the state 
in bison management decisions?
    Answer. The National Park Service has continuously tried to work in 
good faith with the State of Montana. NPS, as well as other federal 
agencies, agreed to participate in mediation in a good faith attempt to 
resolve the situation and bring to a close the legal action brought by 
Montana.
    Question. The BLM budget includes $3.7 million to buy out existing 
grazing leases on Church land adjacent to land purchased from the Royal 
Teton Ranch. How many years does this grazing right purchase cover?
    Answer. Land and Water Conservation Funds (LWCF) are routinely used 
to acquire conservation easements from property owners rather than 
purchasing the property fee simple. These easements are property rights 
that would be acquired by the Federal government and held in 
perpetuity; the landowner would retain all other property rights. The 
conservation easement in this circumstance would permanently acquire 
grazing rights (a property right) on the Royal Teton Ranch, with the 
intention of resolving a livestock/wildlife conflict within the 
Yellowstone River corridor that involves the Ranch property. This 
proposal does not involve buying ``grazing leases''.
    Question. When did BLM get into the habit of using LWCF money to 
buy out cattle producer's existing leases? This is a very direct hit on 
the local economy.
    Answer. A portion of the Royal Teton Ranch was cooperatively 
purchased by the BLM and the US Forest Service in 1999, as part of an 
effort to protect key winter range and migration corridors for species 
of wildlife passing in and out of Yellowstone National Park. The 6,000 
acre easement proposal included in the fiscal year 2001 budget would 
acquire grazing rights from the Church Universal and Triumphant, the 
current land owner and a willing seller. Continued acquisitions of the 
Royal Teton Ranch are intended to help prevent potential brucellosis 
outbreaks in the State.
    This was not an attempt to purchase grazing leases. These are 
private lands where the intent was to purchase the property rights for 
grazing these lands. Negotiations with the land owner on this 
acquisition have stalled and the Department is no longer pursuing this 
acquisition project
    Question. Current correspondence to my office indicates that this 
is not a ``willing seller'' arrangement. Is this your understanding?
    Answer. Negotiations to purchase a grazing easement from the Church 
Universal and Triumphant (CUT), owners of Royal Teton Ranch, have 
recently stalled over appraisal and value issues. It is our intent to 
maintain contact with the CUT in hopes of resolving these differences 
and resume negotiations.
           upper missouri land and water conservation dollars
    Question. In the BLM LWCF account for the Upper Missouri they are 
asking for $3 million to purchase land in an overall $78 million dollar 
acquisition strategy in the area over the next ten years. What are the 
details of this $78 million dollar buy-out? Have the local counties 
been consulted and what has been the response of the county 
commissioners?
    Answer. In April 1999, American Rivers ranked the Missouri River 
second on its list of ``Most Endangered Rivers'' due to threats from 
development. The acquisitions along the Upper Missouri River involve 
inholdings and parcels within and contiguous to the Upper Missouri 
National Wild and Scenic River corridor, which was designated by 
Congress in 1976. The BLM follows the authorities contained within the 
Act which established this wild and scenic river and the authorities 
within the Federal Land Policy and Management Act as a guide to 
acquiring lands critical to the diversity and health of the natural and 
cultural resources within the river corridor. A management plan was 
prepared for the wild and scenic corridor in 1993 which addressed the 
opportunities for land acquisitions from willing sellers within the 
river corridor. That plan underwent extensive public involvement which 
included review by local county commissioners.
    The total acquisition cost associated with inholdings of the BLM's 
Upper Missouri National Wild and Scenic River (UMNWSR) project 
represents the cost of acquiring entire parcels, which may include 
lands within and outside of the UMNWSR boundary. Many willing sellers 
are only interested in the sale of their entire property and are 
unwilling to subdivide their ownership, based on the UMNWSR designated 
boundary. The designated UMNWSR boundary did not coincide with private 
property boundaries. As a result, many available parcels included 
acreage on both ``sides'' of the UMNWSR boundary. Once acquired, 
properties that extend outside the designated boundary are primarily 
used for land exchange purposes. Acquisition includes a combination of 
conservation easement, fee purchase and land exchange. These multiple 
methods of acquisition may be utilized to acquire individual tracts, 
reducing Federal ownership and retaining as many acres as possible in 
private ownership and on local tax roles. Inholdings of the State of 
Montana (10,163 acres) would be acquired through a land exchange.
    Meetings have been held with local community and business leaders 
in the past. Most all have expressed support for the project, including 
the county commissioners. No serious concerns have been raised.

                     GUN RESTRICTIONS ON BLM LANDS

    Question. In October of 1999, BLM published a notice in the Federal 
Register asserting a ban on the ``use and discharge'' of firearms on 
about 20,000 acres of public land in Phillips County, Montana. Please 
state the specific language in an Act of Congress that gives BLM the 
authority to infringe upon the constitutional rights of the people of 
Montana?
    Answer. The BLM Malta Montana Field Office issued a notice of 
closure of public lands that describes an area ``closed to the 
discharge or use of firearms'' (see FEDERAL REGISTER, Vol. 64, No. 200, 
Monday, October 18, 1999). The authority for this closure is found in 
43 CFR 8364.1, Closure and Restriction Orders. Specifically, 43 CFR 
8364.1(a) provides, ``To protect persons, property, and public lands 
and resources, the authorized officer may issue an order to close or 
restrict use of designated public lands.'' These regulations were 
promulgated under the authority of the Federal Lands Policy Management 
Act in Section 303(a) (43 U.S.C. 1733(a)), which provides: ``The 
Secretary shall issue regulations necessary to implement the provisions 
of this Act with respect to the management, use, and the protection of 
the public lands, including the property located thereon.''
    The BLM does not believe the closing of a designated area of public 
lands to the discharge or use of firearms infringes upon the 
constitutional rights of the people to keep and bear arms as provided 
for in the Second Amendment.
    Question. If the claimed authority for this gun ban is the 
Endangered Species Act and the Public Lands Policy Management Act, 
please give the specific wording in those acts that you believe offers 
BLM the congressionally-approved authority to restrict firearms on 
lands in Montana?
    Answer. The BLM did not claim authority for the closure based on 
the provisions of either the Public Lands Policy Management Act or the 
Endangered Species Act (see response to the previous question).
    Question. If the claimed language for such authority is in FLPMA, 
and it is wording given BLM the broad mission to ``manage public 
lands'', please be more exact and specific about exact language whereby 
Congress has given BLM specific authority or limit the use of firearms 
by the general public on public lands?
    Answer. Language in the FLPMA provides the authority to manage the 
public lands by regulation or otherwise is provided in sections 302(b) 
and 303(a). Section 302(b) (43 U.S.C. 1732(b)) provides: ``In managing 
the public lands the Secretary shall, by regulation or otherwise, take 
any action necessary to prevent unnecessary or undue degradation of the 
lands.'' The BLM has regulations which allow this type of action as was 
taken in Phillips County.
    ``Managing the public lands'' is a broad authority to take 
appropriate actions to protect the public lands and resources and the 
provisions of this Act are extensive and numerous. There are many 
resources located on the public lands to manage and protect.
    Question. What specific authority is claimed by the BLM, please 
relate that authority to circumstances in Phillips County that motivate 
BLM to impose the gun ban there?
    Answer. The specific authorities claimed by the BLM are provided in 
the previous answers. The closure is intended to allow prairie dog 
numbers in the area to rebound following an outbreak of sylvatic plague 
a few years ago. The black tailed prairie dog is a species of concern 
for the U.S. Fish and Wildlife Service and is a candidate for listing 
by that agency. We believe this closure order may help reduce the need 
for listing the prairie dog.
    Question. Has the BLM consulted other law enforcement agencies to 
determine whether this restriction is legal?
    Answer. Determining whether a BLM restriction is legal is subject 
only to consultation with the Department of the Interior, Office of the 
Solicitor (SOL). The BLM Montana State Office has stated that they 
consulted not only with SOL but also with the U.S. Attorney's Office. 
Other state and local law enforcement agencies were not asked to 
provide a legal opinion on the legality of the closure order. However, 
the BLM Montana State Office consulted with the Montana Department of 
Fish, Wildlife and Parks in accordance with the FLPMA.
    Question. In a hearing before the Senate Energy Committee about a 
month ago, I asked you about this problem. You responded that you would 
``fix'' the problem, yet nothing has been done, and there has been no 
withdrawal of the ban published in the Federal Register. New 
information has come available on this issue, and it seems we are now 
in debate over semantics between carrying firearms and discharging 
firearms. It is my understanding that you have requested an 
investigation of the policy. What have you found and what action do you 
expect to take?
    Answer. The notice of closure was issued under the authority of 43 
CFR 8364.1 for closure and restriction authorities. The intent of this 
authority is to enable BLM managers to protect lands and resources in 
issues that require immediate and/or emergency protection. Normally, in 
accordance with section 310 of the FLPMA, all BLM rulemakings are done 
in the context of the Administrative Procedures Act requirements for 
public participation. The only statutory exception to this is ``when 
the agency for good cause finds (and incorporates the finding and brief 
statement of reasons therefor in the rules issued) that notice and 
public procedures thereon are impracticable, unnecessary, or contrary 
to the public interest.'' Any potential loss of threatened or 
endangered species due to harassment or harm can be ``contrary to the 
public interest.'' Often, immediate action is necessary to mitigate 
these circumstances and taking the time for a long public participation 
process may ultimately result in further harassment or harm to the 
wildlife resources.
    Question. Within the last two weeks, BLM has distributed new maps 
in Phillips County reasserting this ban and another gun ban covering a 
similar and nearby area. It is obvious that the problem has not been 
``fixed'' and the BLM is actually expanding the scope of this decision 
despite your testimony before the Energy Committee. Can you provide a 
detailed explanation why this has happened and what new areas are 
affected?
    Answer. The BLM Malta Field Office has replenished their supply of 
closure maps at key locations in both Malta and Zortman, Montana. The 
replenished maps are the same maps that were distributed earlier and 
they contain the same closure information. No additional areas have 
been closed.
    Question. The BLM field office in Billings, Montana was approached 
with a hypothetical question regarding the current restrictions. They 
were asked if a woman was to be attacked by a mountain lion or attacker 
while hiking on the public lands covered by this gun ban, and she fired 
a firearm in self defense, would she be subject to a federal criminal 
charge under the ban. The BLM manager answered, ``yes.'' Is this 
correct, and doesn't this scenario make it clear that this ban is both 
overreaching and not very well thought out?
    Answer. Prior to rendering an answer to this scenario, it is vital 
to understand exactly what behavior is being prohibited and what are 
the conditions necessary to impose a criminal charging. The notice of 
closure provides that the area described ``is closed to the discharge 
or use of firearms.'' Discharge of a firearm is intended to mean the 
shooting a bullet, projectile, cartridge, etc. Specifically the notice 
of closure is meant to address ``recreational shooting'' while 
legitimate and licensed hunting is exempt. The possession of a legal 
firearm is not prohibited by the notice of closure. Furthermore, all 
BLM regulations and closures lawfully issued under the authority of the 
FLPMA must be ``knowingly and willfully'' violated (see 43 U.S.C. 
1733(a)) before a violator is subject to criminal penalties.
    ``Knowingly and willfully'' implies that the person knew that the 
behavior was prohibited and performed the behavior with the intent to 
violate the prohibition. Further, because the criminal penalties for 
the FLPMA related regulations and closures constitute only a 
misdemeanor level offense, it is discretionary on the part of a law 
enforcement officer whether or not to initiate criminal proceedings 
(normally a citation) even if there has been a technical violation.
    Therefore, under the above-mentioned scenario, the woman would not 
be charged under the notice of closure since the described woman is in 
lawful possession of a firearm and discharges it with the intent of 
defending herself. This would not meet a probable cause test of a 
knowing and willful violation nor would it constitute a deliberate 
violation of the closure that would warrant initiation of criminal 
proceedings.

                                 CITES

    Question. The Glendive Montana Chamber of Commerce has a program 
that allows them to harvest paddlefish roe from fish that are legally 
harvested. They, in turn, sell this as processed caviar. A portion of 
the proceeds from this sale comes back to the community and the money 
is given out to nonprofit organizations in the form of grants. Mr. 
Secretary, you must understand the economy of this area to know exactly 
how important this grant money is. Eastern Montana is suffering from an 
economic downturn in agricultural prices and the stability the former 
gas and oil production offered. The grants that are derived from this 
money are not only noteworthy but offer the only source of assistance 
for non-essential services to the community. How do you suggest I reply 
to my constituents in Glendive when they ask me why the Fish and 
Wildlife Service killed $75,000 worth of grant money to Eastern Montana 
by their ineptness in handling a simple permit request?
    Answer. The Service was also concerned that the application for the 
Convention In Trade of Endangered Species (CITES) export permit was 
processed more slowly than desirable. However, the application was 
missing information or documentation required to make the necessary 
CITES findings. The processing of the application also took slightly 
longer than the normal processing time, which is estimated to be 30 to 
60 days. After receiving the additional information the regulatory 
findings were made and a CITES export permit was issued on January 21, 
2000. The Service has now taken steps to ensure that such delays are 
minimized.
    The Service understands that the States of Montana and North Dakota 
collect paddlefish roe, sell it to the Glendive Paddlefish Caviar 
Project Yellowstone Caviar of Glendive, Montana or Goldstar Caviar of 
Williston, North Dakota, which in turn sell it to the caviar dealers. 
The caviar dealers then apply for the export permit. Paddlefish is 
listed as an Appendix-II species under CITES and therefore, requires an 
export permit prior to shipping the species, or its parts and products 
from the United States.
    The Service is using increased funding in fiscal year 2000 to 
improve the permit process. With regard to this case, the Service is 
developing a general finding on the export of paddlefish roe, 
specifically for roe obtained from the Glendive Paddlefish Caviar 
Project Yellowstone Caviar of Glendive, Montana and Goldstar Caviar of 
Williston, North Dakota. This general finding is based on the unique 
features of the Glendive and Goldstar paddlefish conservation programs, 
and will speed processing for applicants who can now verify that the 
caviar they are seeking to export was obtained from either of these two 
State programs. The Service is requesting an additional $1,750,000 in 
fiscal year 2001 for our International Wildlife Trade program to 
enhance our procedures to protect CITES listed species and further 
streamline the permit process.
    In any event, if the length of time to acquire a CITES export 
permit causes the applicant to lose its contract with the foreign 
buyer, the applicant still may sell the caviar domestically without a 
permit. Otherwise, the applicant could locate another foreigner buyer, 
amend the consignee information provided in their application, and 
continue with the processing of their application.

                BITTERROOT/SELWAY GRIZZLY REINTRODUCTION

    Question. Does the fiscal year 2001 budget for USFWS include 
funding for the physical reintroduction of grizzly bears in to the 
Bitterroot/Selway ecosystem?
    Answer. No, the fiscal year 2001 budget for the FWS does not 
include funding for the physical reintroduction of grizzly bears into 
the Bitterroot/Selway ecosystem.
    Question. Do any of the Department of Interior Accounts include 
funding for the reintroduction of the grizzly to this area?
    Answer. No, none of the Department Accounts include funding for the 
grizzly reintroduction for fiscal year 2001.
    Question. Do any of the Department of Interior's agencies plan on 
fulfilling this effort in fiscal year 2001?
    Answer. No, none of the Department's Agencies plan to physically 
reintroduce grizzy bears in 2001. It is important to note that several 
actions are required before we can reintroduce any grizzly bears into 
the Selway/Bitterroot ecosystem. These actions involve formulation of 
the Citizens Management Committee, cleaning trash sites in the recovery 
area and installing bear-proof containers to reduce the availability of 
garbage to bears, and public education. The Fish and Wildlife Service 
intends to proceed with implementation of these actions in fiscal year 
2001. The Service anticipates that it will take one year or more to 
complete these actions.

                      BLM EMPLOYEE DISSATISFACTION

    Mr. Secretary, the BLM employees in Montana are just that to you, 
employees. To me they are my friends and neighbors. I have some serious 
concerns about the morale of the people I consider my friends. The 1998 
BLM Employee Survey illustrated a high level of unhappiness. It is my 
understanding that the 2000 BLM Employee Survey was just completed and 
a briefing was provided to some top level BLM employees. I have been 
told that once again, the employees of the BLM in Montana showed an 
even lower morale in the sense of unhappiness with their employment. I 
believe this is being reflected by a series of EEO complaints by 
Montana BLM employees over the last few years. To me, this would be a 
red flag and cause me great concern. The Director of the BLM had been 
informed about these problems in 1998 and I was under the impression he 
had been tasked with correcting it via the State Directors.
    Question. First, I would like you to provide me with a copy of the 
2000 survey as soon as possible.
    Answer. A copy of the survey results showing Bureau results as well 
as the Montana/Dakotas specific results is enclosed. Results show that 
over the past two years the BLM improved in 7 of 9 categories. Over the 
last year, employee job satisfaction increased 7 percentage points to 
52. percent. However, as you have correctly observed, the Montana/
Dakotas organization has declined in all of the categories and we are 
very concerned about that trend.
    Question. Second, what will be done to correct this problem that 
the employees are apparently facing?
    Answer. We will study the results in order to pinpoint the precise 
problem areas and will then promptly begin working on solutions (with 
input from employees as to what solutions will have the greatest 
effect). The new Montana State Director is extremely concerned about 
addressing employee concerns, and has, in fact, included in his three-
point platform a goal specific to employees. It reads, ``To respect our 
colleagues within the BLM; value their diverse backgrounds; use their 
skills to build a strong organization that benefits our Nation.'' The 
BLM Director plans to stay informed as the process of addressing 
employee concerns evolves to ensure that not only Montana, but the 
entire BLM does the very best we can to address and remedy the employee 
morale situation.
    The concerns you have regarding the EEO program in Montana have not 
gone unnoticed in Washington. When the Washington Office became aware 
of these concerns, a review of the Support Services Division was 
conducted in January. The review resulted in a series of 
recommendations for changes and improvements. We are taking the review 
very seriously and in fact have already begun implementing some of the 
recommendations. On March 12, 2000, an organizational change was 
implemented resulting in the EEO manager now reporting directly to the 
State Director. We believe that reporting arrangement will resolve some 
of the issues in the EEO program .
    Question. Why would State Directors be mandated to correct a 
problem that appears to be an outgrowth of their management style?
    Answer. BLM leadership in Montana is in transition. A new State 
Director and Associate State Director took their post in early April. 
The two new leaders have already been apprised of the Employee Survey 
concerns. The new BLM Director has placed a very high priority on 
addressing employee concerns, and has directed the incoming leadership 
team to take the necessary actions to bring about improvement. The BLM 
Director plans to monitor progress to ensure that things are headed in 
the right direction.
    Question. What is going to be done to correct this problem?
    Answer. As mentioned above, a new leadership team is beginning to 
lead the Montana/Dakotas office. They will identify problem areas and 
will promptly begin working on solutions with input from employees as 
to what solutions will have to greatest effect. We recognize we still 
have much more work to do. Insufficient resources was a major issue 
identified in our 1998 survey. Our fiscal year 2001 budget proposal 
begins to address the funding needs and work imbalances of concern to 
employees. The lines of communication between employees and management 
remain open and the new leadership will be implementing any new 
measures that will serve to increase employee satisfaction.

                  BLM/FS OFF-HIGHWAY VEHICLE PROPOSAL

    Question. Director Tom Fry has said in at least one meeting that he 
expects the Montana/Dakotas interagency OHV plan to be suspended until 
the national plan is formulated. Can you confirm that the plan from our 
region will not be finalized prior to the implementation of a final 
national rule?
    Answer. The Final Montana/Dakotas BLM/FS OHV EIS is expected to be 
issued shortly after the release of BLM's National OHV Strategy. The 
National OHV Strategy is scheduled to be released in late November, 
2000.
    Question. Can we be assured that the comments submitted by 
Montanans during the regional OHV comment period will be incorporated 
into the national policy, or must we reinvent the wheel and submit 
comments once again?
    Answer. The BLM and FS have sponsored over 70 public meetings and 
open houses on the Montana/Dakotas OHV EIS process and our publics have 
provided an overwhelming response. Over 2300 comments have been 
received and are being analyzed in the content analysis process. A full 
copy of the Content Analysis Report will be provided to BLM's National 
Strategy Team so that the Montana/Dakotas public input can be factored 
in to that national process. Montanans will also be invited to comment 
separately on the National Strategy if they wish; however, their 
existing input to the regional process will be used in developing the 
National Strategy. It is important to note that the National Strategy 
will cover all aspects of the OHV program, not only designations as in 
the Montana OHV EIS. This approach will ensure that Montanans have an 
equal opportunity to comment on the overall OHV program at the national 
level.

                    INVESTIGATIONS OF DOI EMPLOYEES

    Mr. Secretary, as you know the misdeeds of employees working for 
agencies under your watch have received a lot of attention over the 
past few years. Senator Murkowski is investigating the POGO violations, 
Congressman Young has produced legislation to address the misuse of 
conservation funds by United States Fish and Wildlife employees, the 
Bureau of Indian Affairs is wrapped up in a scandal involving the 
misuse of credit cards, and the Policy Director of the Office of 
Insular Affairs has been accused of using government resources to 
attack Republican Members of Congress in violation of the Hatch Act. To 
name but a few. Each of these scandals is being investigated by the 
Office of the Special Counsel, the Inspector General of the Interior 
Department and Congressional Committees in one form or another. 
Secretary Babbitt, what is happening here? It seems as though scandal 
has become a way of business under your watch.
    Question. Can you assure the Subcommittee that in each of these 
cases the agencies are no longer engaging in improper activity?
    Answer. We have taken steps in each of these cases to make sure 
that the activities you mention have ceased.
    Question. Do you support reprimanding these employees?
    Answer. Yes, to the extent that these employees are found in 
violation of statute or regulation the appropriate remedial or 
disciplinary action should be taken.
    Question. Do you support legislative remedies to prevent these 
types of problems from occurring again?
    Answer. There is legislation already in place that addresses these 
types of issues. We do not think that in all cases additional 
legislation will necessarily prevent abuses from occurring. Violations 
by individuals often are made irrespective of the laws, regulations, 
and practices that exist. Increased support for training of employees 
concerning activities that are permitted and prohibited is probably a 
better approach to prevent these types of problems from occurring 
again.
    Question. Do you support Congressman Young's legislation as an 
example?
    Answer. We appreciate the efforts that Chairman Young and the House 
Resources Committee made to address the concerns we have about this 
legislation, H.R. 3671. We believe our combined efforts will result in 
many valuable improvements to the Federal Aid program and ensure that 
the taxes paid by America's sportsmen are used for their intended 
purpose. However, we remain concerned that the bill does not provide 
sufficient funding to effectively administer the program, that it 
reduces program flexibility, and that it concentrates program 
management in Washington rather than the field. We are working with the 
Senate Committee on Environment and Public Works, and ultimately the 
Senate as a whole, to resolve these concerns.
    Question. Are there other examples similar to the POGO 
investigations or the political activities of the OIA that are being 
examined within the Department that have not yet been brought to the 
attention of Congress?
    Answer. There are no cases currently pending that Congress is not 
already aware of.
    Question. Can you assure that the improper activities at the OIA 
are no longer occurring and what steps have you taken to stop these 
types of abuses from occurring?
    Answer. To our knowledge improper activities of this type are no 
longer occurring at the OIA. The Departmental Ethics Office has 
conducted individualized training for OIA to ensure that all employees 
are aware of the applicable restrictions under the Hatch Act.
    Question. Some have argued that the activism in the OIA tainted 
Interior reports to Congress. As a result the GAO has raised specific 
questions regarding the validity of the Interior's position. Has 
Interior reevaluated their analysis to address the GAO's report that 
the Interior Department's own analyses of these questions were 
``methodologically flawed'' and ``questionable.''
    Answer. The recommendations of the Administration with regard to 
the immigration and labor system in the Northern Mariana Islands are 
exactly that: recommendations of the Administration. Numerous 
departments and agencies (including Justice, Labor, Commerce, NLRB, and 
Interior) have been involved since the Congress first noted the CNMI 
immigration and labor problems and appropriated funds for their 
remediation in 1994.
    For two years, Federal agencies worked closely with and praised the 
actions of the CNMI government and Governor Froilan Tenorio. A reversal 
of policy by Governor Tenorio, however, brought the publication of the 
1997 and 1998 reports that condemned CNMI immigration, labor, and law 
enforcement, and brought proposals for Federal legislation. It was only 
after the Administration's proposals were presented to the Congress 
that labor unions became interested in the CNMI issues and one employee 
at Interior became overzealous. This employee's improper actions had no 
effect on Administration policy and no effect on the facts included in 
published reports on CNMI immigration, labor and law enforcement 
issues.
    The Administration has consistently maintained that the immigration 
and labor problems in the CNMI are Federal issues susceptible to 
solution only at the Federal level with Federal legislation.
    Question. In regards to the BIA's problems with credit card abuse, 
have you spoken with Kevin Grover on how to remedy this problem? What 
solutions do you propose?
    Answer. The Department's OIG will be conducting a Department-wide 
audit of the credit card program.

                          SUBCOMMITTEE RECESS

    Senator Gorton. So the subcommittee will stand in recess 
until 9:30 a.m., Tuesday, April 11, when we will receive 
testimony from the Honorable William Richardson, Secretary of 
Energy.
    [Whereupon, at 11:52 a.m., Wednesday, April 5, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Tuesday, 
April 11.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2001

                              ----------                              


                        TUESDAY, APRIL 11, 2000

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Slade Gorton (chairman) presiding.
    Present: Senators Gorton, Stevens, and Byrd .

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. WILLIAM RICHARDSON, SECRETARY OF 
            ENERGY

               OPENING STATEMENT OF SENATOR SLADE GORTON

    Senator Gorton. The subcommittee hearing will come to 
order.
    I recognize, Mr. Secretary, that you are due at another 
subcommittee hearing in a relatively short period of time. So 
my opening statement will be short. I will have a few 
questions. If only Senator Byrd is here, we may have a little 
bit more leisure. But we do welcome you once again.
    The last time you were before this subcommittee was in 
support of your budget request for the current fiscal year. And 
I think that may have been your first appearance before 
Congress as Secretary of Energy. It was very short. Due to the 
present Senate business, I am afraid this may be as well.
    But I am anxious to learn what you have learned in the 
course of the last year, and to know what you regard as the 
highlights of the administration's 2001 budget request.
    I also suspect we will want to discuss a different, but 
related, topic that has been on everyone's mind across the 
country. By that I mean the recent increase in the price of oil 
and what the federal response to this increase should be.
    I must say, Mr. Secretary, that I know more about what this 
administration is against than what it is for. I know the 
administration is against repeal or suspension of the gasoline 
tax. I know the administration is against increasing domestic 
oil production in many of the most promising areas for 
exploration. I know that the administration is against, or at 
least is not supporting in any meaningful way, a modification 
or tightening of CAFE standards.
    And finally, I note that one of the few decreases included 
in your budget request is in research and development programs 
designed to enhance domestic oil production and to maintain 
production from marginal wells. I would like to hear your 
comments on how this relates to the current increase in oil 
prices.
    This subcommittee will face a difficult challenge in trying 
to formulate a fiscal year 2001 spending bill. We must not only 
provide adequate funding for the highest priority programs, but 
also contribute to an overall budget strategy that maintains 
fiscal discipline, reduces the national debt, protects social 
security and provides for sensible tax relief.
    In order to accomplish these goals, we will need your help 
in setting priorities. I hope we can count on your help in this 
regard, both in today's hearing and as the process goes on.
    With that, I am going to yield to Senator Byrd and say that 
the full text of your statement, Mr. Secretary, will be 
included in the record. So to the extent you can summarize, 
there will be more time for dialogue and questions.
    Senator Byrd.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Thank you, Mr. Chairman.
    Mr. Secretary, I thank you for coming here today to discuss 
that portion of the Energy Department's fiscal year 2001 budget 
request that will be funded through the Interior and Related 
Agencies Appropriations bill. While I look forward to hearing 
your opening statement, I will tell you right up front that I 
am disappointed, deeply disappointed, with the priorities laid 
out in this proposal.
    As I look at this budget, I question whether or not the 
administration takes seriously the fossil energy needs of this 
nation. The reduction of more than $28 million in the fossil 
energy research and development budget, coupled with the $105 
million rescission and the $221 million deferral in the clean 
coal technology program does not, in my opinion, bode well for 
our efforts to develop a comprehensive national energy 
strategy.
    Certainly I understand the administration's emphasis on 
energy conservation and energy efficiency. And indeed, this 
budget proposes to increase funding for those programs by more 
than $91 million. But conservation and efficiency are only half 
the battle, and they should not be advanced at the expense of 
programs that have already proven to be worthwhile.
    If this Nation ever hopes to become more energy 
independent, and if we ever hope to put an end to the spectacle 
of Government officials kowtowing to the major oil-producing 
nations, then we are going to have to come to grips with the 
fact that fossil fuels used in an environmentally sound manner 
are central to our future.
    Mr. Chairman, in fairness to the Secretary, I will not 
belabor this point before he has had an opportunity to offer 
his perspective on these issues.
    Thank you.

              SUMMARY STATEMENT OF HON. WILLIAM RICHARDSON

    Senator Gorton. So now it is his turn.
    Mr. Secretary.

                               oil prices

    Secretary Richardson. Thank you, Mr. Chairman and Senator 
Byrd. First of all, thank you for the graciousness and the 
excellent relationship, despite obviously some differences that 
we have on policy, that you have had with me and our 
Department. I mean that very sincerely.
    Let me, Mr. Chairman, report on a little bit of good news 
in terms of oil prices that I know have been on everybody's 
mind. A few days before OPEC met on their decision to increase 
production, the high prices per barrel were $35 per barrel. 
Yesterday they closed at about $24 a barrel. That is a decrease 
of $11 since the administration's energy diplomacy, I believe, 
succeeded along with the leadership of some OPEC nations in 
increasing production.
    Gasoline prices at the pump since the days before the OPEC 
meeting, the high was at about $1.53 a gallon. Yesterday it 
closed at about $1.48 a gallon, almost a 5-cent drop. And the 
Energy Information Administration is looking at prices on the 
average of $1.39 a gallon by the end of the summer.
    So this is good news. We will continue to monitor the 
situation. But I wanted to, I think at the earliest, find ways 
to put this good news in context. Our hope is that together we 
come out of this hearing and this whole process with some 
bipartisan energy initiatives that I will outline shortly.

                             ENERGY POLICY

    Mr. Chairman, our energy policy is based on market forces, 
not artificial pricing. It is based on the diversity of supply 
and strong diplomatic relations with energy-producing 
countries. It is based on improving the production and use of 
traditional fuels with new technology development.
    It is based on diversity of energy sources with long-term 
investment in alternative fuels and energy sources. It is based 
on increasing efficiency in the way we use energy. And it is 
based on maintaining and strengthening our insurance policy 
against supply disruptions, the Strategic Petroleum Reserve.
    Over the long term, these principles work to provide the 
country with secure supplies of energy. They apply to all of 
our work. Our budget for fiscal year 2001 is proof of our 
enduring belief in these principles.
    Our budget, Mr. Chairman, is $18.9 billion. This is 
approximately $1.6 billion over this year's appropriation, a 
10-percent increase. Our budget for programs under this 
subcommittee is $1.3 billion, an increase of $84.7 million over 
last year, almost 7-percent higher.

                             BUDGET REQUEST

    Let me go through the highlights of our budget with your 
subcommittee.
    Our request for Fossil Energy Research and Development 
supports a $385 million program level. In Coal and Power 
Systems, we are looking to develop, one, cleaner, more 
efficient coal and electric power generating technologies, 
including our Vision 21 Energy Plan of the Future; two, 
exploratory research into carbon sequestration technology to 
capture and permanently store greenhouse gases; and three, our 
gas turbine program.
    Earlier this year I witnessed General Electric's newest H 
System gas turbine, the most advanced combustion turbine in the 
world. It is ready to cross the commercial threshold. And it is 
a superb choice for the next wave of power plant construction.
    The H System will help us maintain a cleaner environment, 
help our growing economy, help keep electric bills low in homes 
and businesses across the country.
    In a world nearly 90-percent dependent on fossil fuels, 
development of new technologies along these lines will help 
maintain strong economic growth while meeting existing and new 
environmental goals. In our petroleum program, we are 
continuing our work to develop ultra-clean transportation 
fuels, which will help refiners deal with the new EPA Tier II 
rules; we are continuing to investigate our Reservoir Class 
Revisit program, a government-industry effort, providing cost 
sharing to domestic producers willing to try new methods and 
keeping the Nation's oil fields producing.
    And we kicked off our new Preferred Upstream Management 
Practices program. This is an intensive effort to convey best 
business practices to U.S. producers over the next 5 years, so 
they can benefit from the successful experiences of others in 
the industry.
    In Natural Gas Technologies, we are looking to fund in 
advanced gas research, a new initiative to develop technologies 
to improve the reliability of the Nation's gas pipeline and 
storage infrastructure. These endeavors demonstrate that there 
are many opportunities for high-tech advances in our 
traditional fuels as in any other energy resource.
    To further glean this promise, in December I elevated our 
Fossil Energy Technology Center to the status of a national 
laboratory. The National Energy Technology Laboratory in 
Morgantown, WV, and Pittsburgh, PA, will accommodate several 
strategic centers of excellence. This would not have happened 
without the leadership of Senator Byrd.
    And I want you to know, Mr. Chairman, that I tried to name 
the facility after Senator Byrd, and I failed because 
everything else in the town and State was already named after 
him. So I thought I would mention that.
    For example, I have directed that a Center for Advanced 
Natural Gas Studies be established at the laboratory. In the 
fiscal year 2001 budget, we have also included funding to 
upgrade the laboratory's computer simulation capabilities and 
to establish a world-class center for carbon sequestration 
research.

                           ENERGY EFFICIENCY

    We also have extensive opportunities in our energy 
conservation programs. While we now know that our quiet energy 
diplomacy worked, that consumers will begin seeing more relief 
at the gas pump, the recent energy situation still validates 
our pursuit of energy efficiency.
    Let me outline just a few examples. Among the most 
promising is the Partnership for a New Generation of Vehicles 
designed to develop an 80-mile-per-gallon automobile that is 
comfortable, safe and affordable as our traditional vehicles.
    It behooves us to be able to squeeze the most value from 
our driving dollars. The recent peak pump prices were all too 
clear reminders. So in order to make vehicles with high miles 
per gallon yields possible, we are taking fuel cell technology 
from the aerospace industry and applying it to the automotive 
industry.
    SUVs are a potent battleground in today's climate of high 
gasoline prices, therefore the Department of Energy has been 
working to develop a new sport utility vehicles that will be 30 
to 40 percent more efficient than those currently on the road. 
Detroit is on board.
    Last Thursday, Ford Motor Company announced a new hybrid 
SUV they have planned, which will get 40 miles per gallon. It 
will be called the Escape, and I think that is apropos for our 
quest to break from our reliance on imported oil. It will join 
other auto makers' projects on hybrid cars, including Daimler 
Chrysler's ESX 3, which is slated to ring up 72 miles per 
gallon, and a number of projects from General Motors.
    We are also working on improving efficiency in tractor-
trailers. The big rigs now get 5 to 7 miles per gallon. They 
may soon achieve up to 10 miles per gallon, a big difference in 
rigs with 300-gallon tanks. There are other engines of 
discovery, fueling our options for the future.
    Weatherization is one of our most potent weapons against 
problems like the heating oil shortfall that New England 
recently faced. I was in Rhode Island on Friday, and folks are 
still stunned by it. Weatherization will allow us to reduce our 
demand for heating oil, because we are making homes more energy 
efficient and less wasteful.
    Under the fiscal year 2001 budget, we will be able to 
weatherize 76,000 low income homes to save money on utility 
bills, conserve fuel and provide warmth in winter and cool air 
in summer.
    We are also improving efficiencies in buildings, pursuing 
opportunities in efficient and affordable building design and 
construction R&D. We are also advancing our Industries of the 
Future Program, bringing new efficiencies to industries like 
steel and chemicals.
    Our budget also will allow us to continue our Federal 
Energy Management Program. As America's largest energy 
customer, the Federal Government spends $8 billion each year on 
energy for its facilities and operations. We are looking to 
save the taxpayer money by helping all Federal agencies 
identify, finance and implement energy efficiency improvements 
for their facilities.

                   ENERGY INFORMATION ADMINISTRATION

    Mr. Chairman, I know you have been very generous to the 
independent Energy Information Administration. That money is 
worth it.
    In fact, the superb EIA data I brought on my trips to the 
OPEC countries and other producing nations served as a kind of 
trump card. As you know, some did not believe our claims of 
dramatically low stocks. But EIA's research bore out our 
arguments, and the result is clear. OPEC and the other 
producing nations have increased their production.
    Our fiscal year 2001 budget requests $75 million for 
ongoing EIA data and analysis and provides for needed data 
quality enhancements.
    Mr. Chairman, the Department is intensely focused to ensure 
that we have the most energy resource pallete from which we can 
then choose. Still, the recent energy pricing situation made 
very clear that we need to pursue energy options outside of 
oil. I believe our budget offers occasion to do so.
    Mr. Chairman, we are specifically proposing energy 
legislation, not necessarily all of it in the purview of your 
committee, besides the good budget decisions that I think we 
have been able to make jointly with you. We would ask that the 
Senate consider a package that includes our tax incentives for 
domestic oil and gas production, namely G&G expensing, delayed 
rentals, some assistance to marginal well producers, coupled 
with some tax credits for energy efficiency, fuel efficient 
vehicles, and other measures for energy conservation and 
alternative energy that we have before you.

                           PREPARED STATEMENT


    We think that this package could be a good short-term 
bipartisan energy policy that would move in the right direction 
and we can look to do, so that we do not have as much reliance 
on imported oil.
    Thank you, Mr. Chairman.
    [The statement follows:]

               Prepared Statement of Hon. Bill Richardson

    Mr. Chairman, and members of the subcommittee, it's my pleasure to 
discuss the Department of Energy's budget request for fiscal year 2001. 
I thank you, Mr. Chairman, for this subcommittee's efforts to ensure 
that the Department continues to effectively deliver its energy 
mission. You have recognized the importance of a strong energy policy 
not only to the day-to-day functioning of our society, but to the 
continued improvement of our standard of living. This budget includes 
$1.3 billion for programs within the jurisdiction of the Interior 
Subcommittee, an $84.7 million increase or 6.8 percent above the fiscal 
year 2000 comparable level.
    The budget I'm here to discuss was prepared to address the changing 
energy scenario. In fiscal year 2001, we propose to expand energy 
supply options and promote greater efficiency in the major energy use 
sectors, with the need to protect the environment foremost in mind. As 
part of this strategy, the budget features several initiatives which 
cut across traditional program areas to maintain U.S. strength in the 
evolving global energy market.

                  FISCAL YEAR 2001 ENERGY INITIATIVES

    International Clean Energy Initiative.--A conclusion reached in a 
recent President's Committee of Advisors on Science and Technology 
(PCAST) report is that current energy R&D investments, while generally 
effective, are not adequate in scale to address world energy, 
environmental, and market demands. The report found that the most 
conspicuous gap was in the demonstration and cost buy-down areas, a 
crucial link in the chain from basic research to commercial deployment.
    Our overall budget request includes $46 million in fiscal year 2001 
to support the PCAST recommendations to identify, develop, and 
demonstrate pre-commercial energy technologies, identify markets for 
their deployment, and promote efficient and environmentally sound 
energy production, generation, and end use. By encouraging 
international markets for these technologies, their cost will go down 
and new, clean, and affordable energy options for America will be 
created. The Interior and Related Agencies Appropriation request for 
this initiative is $20 million (Fossil Energy $13 million and Energy 
Efficiency $7 million). The remaining $26 million is requested in the 
Energy and Water Development Appropriation.
    Energy Grid Reliability Initiative.--By 2015, the United States 
will likely add 250,000 megawatts of new power generation to today's 
grid, at the same time the grid is responding to the demands of 
evolving competitive electricity markets. Measures required to limit 
transmission loading and preserve system reliability were contributing 
factors to the shortages of power in mid-western wholesale markets in 
the summer of 1998. In addition, the natural gas and electricity 
industries and their supporting infrastructures are merging, creating a 
set of new reliability issues.
    In this continuing transition from regulated to restructured 
electricity and natural gas markets, the need to ensure the reliability 
and security of energy delivery systems is an increasingly important 
priority for the federal government and for the heart of our national 
security. Energy policies and technologies must support the 
``Intergrid''--the increasingly inter-connected energy delivery system 
of the 21st century.
    In partnership with the private sector, we propose a $36.1 million 
multi-program initiative to focus on the development of the policies 
and technologies (e.g., system simulation, energy storage, real-time 
sensors and controls, and new distributed power options) that will help 
protect against potential new market failures and promote reliability 
through system flexibility, efficiency, and security. The Interior and 
Related Agencies Appropriation request for this initiative, in the 
Fossil Energy budget, is $7 million, $5 million for Infrastructure 
Technology and $2 million for Storage Technology. The remaining $29.1 
million is funded in the Energy and Water Development appropriation.
    Fossil Energy Infrastructure Technology efforts include initiating 
research directed to ensure the reliability of the gas transmission and 
distribution network; increasing the efficiency of the pipeline system; 
advancing development of longer life, high-strength, non-corrosive 
pipeline materials; developing a smart automated inside pipeline 
inspection sensor systems and repair technology; developing portable 
real-time video imaging technology to detect natural gas leaks; and 
developing a gas system reliability analysis and distributed resource 
system integration model.
    Fossil Energy Storage Technology efforts include continuing support 
to industry for deliverability enhancement reservoir management; gas 
metering and measurement; and advancing storage concepts engineering 
studies. We will also accelerate development of short-term, high 
deliverability storage systems to serve future distributed power 
systems and develop a high deliverability gas storage system model to 
serve the power generation market place.
    Carbon Control Through Separation and Sequestration Initiative 
(CCSS).--Fossil energy will continue to provide a significant and 
growing fraction of world energy supplies well into the next century. 
As demand continues to grow, world carbon emissions are expected to 
increase by 3.5 billion metric tons over current levels by 2015. 
Following ``business as usual'' greenhouse gas emissions may lead to a 
significant elevation of average global temperatures, shift patterns of 
world agricultural production, and impact human health.
    DOE's Fossil Energy and Science programs are developing an 
``Evolving Science and Technology Roadmap for Carbon Sequestration'' to 
identify ways to mitigate the impacts of carbon emissions. The roadmap 
has pin-pointed specific scientific/technical focus areas for R&D 
including: separation and capture; sequestration in geological 
formations; ocean sequestration; terrestrial ecosystem sequestration; 
and advanced concepts (e.g., chemical and biological).
    In addition to modeling and assessment techniques, these areas will 
form the central elements of DOE's CCSS initiative. This program totals 
$42.6 million in fiscal year 2001 of which $19.5 million is requested 
in the Fossil Energy budget, a $10.3 million increase above the fiscal 
year 2000 level. The CCSS Initiative is designed to: (1) establish the 
technical and economic feasibility of sequestration; (2) drive down the 
cost of CO<INF>2</INF> separation; (3) determine the environmental 
consequences of large- scale CO<INF>2</INF> storage; (4) integrate 
sequestration technologies with natural sinks; (5) develop innovative 
technologies to produce marketable commodities from CO<INF>2</INF>; and 
(6) incorporate carbon sequestration processes into advanced energy 
production and utilization systems.
    Enhanced Ultra Clean Transportation Fuels Initiative.--For the 
foreseeable future, the nation's vehicles will be powered mostly with 
petroleum-based fuels. The prototype next-generation vehicle, being 
developed through the Administration's Partnership for a New Generation 
of Vehicles (PNGV) program, must have the cleanest possible fuels. Both 
gasoline and diesel fuels will have to comply with strict EPA 
regulations (e.g., sulfur, nitrogen oxide, and particulate emissions 
reductions and possible restrictions on oxygenate additives).
    There are environmental, regulatory, and technological drivers 
which point to the need for a significant and focused effort to develop 
super-clean petroleum-based transportation fuels. The $27 million 
multi-program Enhanced Ultra Clean Fuels Initiative targets government 
and industry resources to develop a portfolio of market-viable, 
advanced petroleum-based transportation fuels and fuels utilization 
technologies, that are responsive to the near to mid-term 
environmental, technical, and regulatory challenges. This will 
significantly enhance U.S. energy security, environmental quality, and 
industrial competitiveness. Funding for this initiative is requested in 
the Interior and Related Agencies appropriation (Energy Conservation 
$17 million and Fossil Energy $10 million).
    Bioenergy/Bioproducts Initiative.--I am pleased to report that on 
August 12, 1999, the President signed Executive Order 13134, Developing 
and Promoting Biobased Products and Bioenergy. The Order will guide 
coordination of Federal efforts to accelerate the development of 21st 
century biobased industries that use trees, crops, agricultural, 
forest, and aquatic resources to make an array of commercial products. 
In an Executive Memorandum on these same issues, the President set a 
goal of tripling United States use of biobased products and bioenergy 
by 2010. In the President's remarks at the signing ceremony, he stated 
that reaching the tripling goal ``would generate as much as $20 billion 
a year in new income for farmers and rural communities, while reducing 
greenhouse gas emissions by as much as 100 million tons a year-the 
equivalent of taking more than 70 million cars of the road.'' As a 
result of the Executive Order, existing research, development, and 
demonstration (RD&D) programs of DOE, USDA, and other agencies will be 
better coordinated to achieve common goals.
    DOE has increased funding for bioenergy and bioproducts activities 
by $49 million in fiscal year 2001 to accelerate work in this important 
area. A total of $173.7 million is included for this initiative, of 
which $43.8 million is within the Energy Conservation request. The goal 
is to help make biomass a viable competitor as an energy source or 
chemical feedstock. Work will concentrate on developing 
``biorefineries''--integrated systems for processing feedstocks 
simultaneously into a variety of products such as fuels, chemicals, and 
electricity. This will require increased collaboration among industry, 
DOE programs, and the U.S. Department of Agriculture.
    DOE will work to develop inexpensive cellulase systems to break 
down cellulose into low-cost sugars for the production of bio-based 
chemicals and bioenergy. This will allow woody and grassy crops and 
agricultural waste such as corn stalks to take the place of high-value 
grain and food crops as biofuel feedstocks.
    Research will be conducted in renewable bioproducts, using multi-
disciplinary and cross-industry partnerships to develop and accelerate 
adoption of possible ``leap-frog'' technologies for converting crops, 
trees, and residues into chemical feedstocks and consumer products. 
Another part of the initiative will focus on DOE's work in biopower to 
promote the integration of biomass gasification systems with modern 
generation systems, and co-firing of biomass with coal.

                  THE FISCAL YEAR 2001 BUDGET REQUEST

    The Department's fiscal year 2001 budget request, before the 
Interior and Related Agencies Appropriations Subcommittee, proposes 
funding of $1.3 billion, a 6.8 percent, or $84.7 million increase above 
the comparable fiscal year 2000 appropriation. A total of $384.6 
million is requested for Fossil Energy R&D, which includes the use of 
$9 million in prior year balances. We propose $850.5 million for Energy 
Conservation, a 12.1 percent increase; $158 million for the Strategic 
Petroleum Reserve; and $2 million for Economic Regulation activities. 
The request for the Energy Information Administration rises by 3.6 
percent to $75 million. Following are highlights of some of the 
specific activities we are proposing for fiscal year 2001.

                           ENERGY EFFICIENCY

    The Energy Efficiency programs funded by this Subcommittee improve 
the fuel economy of automobiles and other vehicles, increase the 
productivity of the nation's most energy-intensive and polluting 
industries, and improve the energy efficiency of buildings and 
appliances. The fiscal year 2001 budget requests $850.5 million for the 
Department's Energy Conservation programs, an increase of $91.8 million 
over the comparable fiscal year 2000 level.
    Transportation economies for the 21st Century.--The U.S. 
transportation sector depends on oil for 97 percent of its fuel 
requirements. The Office of Transportation Technologies (OTT) funds 
research, development and deployment of technologies that can 
significantly alter current trends in energy usage. Developing and 
commercializing these innovative technologies and alternative fuels is 
the nation's best strategy for diversifying our use of fuels and 
dramatically reducing criteria pollutants and greenhouse gas emissions 
from the transportation sector. DOE is a leader in the government's 
Partnership for a New Generation of Vehicles (PNGV) which focuses on 
significantly improving automobile energy efficiency and reducing 
emissions. The fiscal year 2001 PNGV request of $142.5 million, a $13.4 
million increase over fiscal year 2000, will continue efforts in the 
areas of fuel cells, advanced direct-injection engines, exhaust 
control, advanced batteries and electronic power controllers. An 
increase of $2.3 million in the Clean Cities program, providing $10 
million for fiscal year 2001, will advance infrastructure development 
to speed the deployment of alternative fuels in over 65 communities.
    Industrial energy technologies.--Industry consumes over one-third 
of the energy delivered in the United States and spends tens of 
billions of dollars annually for pollution abatement and control. Nine 
industries account for 75 percent of the energy used in manufacturing: 
forest products, steel, aluminum, metal-casting, chemicals, petroleum 
refining, agriculture, mining and glass. These industries also account 
for over 80 percent of pollutant emissions and over 90 percent of the 
waste produced by U.S. manufacturing. The Office of Industrial 
Technologies focuses on developing innovative technologies to assist 
the nation's most energy-intensive industries to become more resource 
efficient and economically competitive, and pollute less. The budget 
requests $184 million for all Industrial sector programs, of which 
$174.7 million is for the Industries of the Future program. In fiscal 
year 2001, Industries of the Future--Specific will concentrate on 
bioenergy initiatives with the forest products, agriculture, and 
supporting industries. The Crosscut program fiscal year 2001 efforts 
will focus on the development of gasification technology, reciprocating 
engines, low emission technologies, controls, and components for 
industrial scale advanced turbines.
    Improved energy efficiency for building technologies.--America's 
homes and offices consume more than $232 billion worth of energy each 
year. Heating and cooling, lighting, appliances, and equipment account 
for over one-third of U.S. carbon dioxide emissions. In fiscal year 
2001, the Department is requesting $339.8 million for the Office of 
Building Technology, State and Community Programs (BTS), including 
$100.1 million for Building Research and Standards, $34 million for 
Building Technology Assistance--non grants, and $154 million for the 
Weatherization Assistance Program to weatherize 74,806 low-income 
homes, and $37 million for the State Energy Program. In fiscal year 
2000, approximately $135 million was provided for weatherization 
assistance grants to states to weatherize 67,340 low-income homes. In 
the fiscal year 2000 Supplemental, the Administration is requesting an 
additional $19 million for Weatherization Assistance which would allow 
approximately 9,000 to 9,5000 additional homes to be improved across 
the nation. The fiscal year 2001 budget request allows the Department 
to implement technology roadmaps and provide the next generation of 
energy-efficient, environment-friendly technologies required for the 
buildings industry.
    Federal Energy Management Program.--As America's largest energy 
customer, the Federal Government spends $8 billion each year on energy 
for its facilities and operations. The Federal Energy Management 
Program (FEMP) helps federal agencies identify, finance, and implement 
energy efficiency improvements for their facilities. This saves money 
for U.S. taxpayers through reduced federal energy spending. The FEMP 
request for fiscal year 2001 is $29.5 million, an increase of $5.6 
million over fiscal year 2000.
    Management Improvements.--During the past year, the Office of 
Energy Efficiency and Renewable Energy (EERE) has made management 
reform a major priority with significant results. They have 
strengthened their management capabilities and processes in the 
following ways:
  --Hired new, key staff in the areas of management, budget, and 
        analysis, including a new Chief Operating Officer position at 
        the Deputy Assistant Secretary level;
  --Created a comprehensive and integrated approach to planning, 
        budget, program execution, and program evaluation through a new 
        Strategic Management System;
  --Developed improved business management systems that greatly enhance 
        the office's ability to track technical progress, integrated 
        with cost and schedule baselines;
  --Increased competition in discretionary financial assistance to 
        approximately 90 percent of fiscal year 1999 funding for new 
        awards from a level of 24 percent in fiscal year 1996.
    These management initiatives have greatly improved EERE's 
accountability and ability to deliver results. Through a commitment to 
management improvement, and the recommendations expected from the 
review by the National Academy of Public Administration, EERE well make 
continue to make improvements in management.

                 FOSSIL ENERGY RESEARCH AND DEVELOPMENT

    The fiscal year 2001 request for Fossil Energy Research and 
Development is $384.6 million, including $9 million from prior year 
balances for a net fiscal year 2001 request of $375.6 million. This 
level continues investments in advanced technological concepts, such as 
the capture and sequestration of CO<INF>2</INF>, and development of 
advanced, highly efficient, power generation and fuel producing 
technologies that together could reduce, or perhaps nearly eliminate, 
carbon emissions from fossil fuel facilities. In a world nearly 90 
percent dependent on fossil fuels, development of new technologies 
along these lines will help maintain strong economic growth while 
meeting existing and new environmental goals.
    Coal and Power Systems.--The fiscal year 2001 request to develop 
cleaner, more energy efficient coal and electric power generating 
technologies is $193.8 million, $18.7 million below the comparable 
fiscal year 2000 level. The centerpiece of this program is the Vision 
21 energy plant of the future, a revolutionary new concept that, 
coupled with carbon sequestration, could virtually eliminate 
environmental concerns over the future use of fossil fuels. The goal of 
the Vision 21 program is to develop a set of advanced technology 
modules that could be configured into a new class of multi-product 
facilities for both central and distributed energy production in the 
2010-2030 time frame. A total of $41.2 million is included in the 
fiscal year 2001 budget request for Vision 21 development efforts.
    The request also includes a major expansion of the department's 
exploratory research into carbon sequestration technology to capture 
and permanently store greenhouse gases. We are requesting $19.5 million 
for carbon sequestration research in fiscal year 2001, more than double 
the level for fiscal year 2000. An extraordinary private sector 
response to a recent department solicitation (more than 60 proposals 
with cost-sharing averaging more than 40 percent) has increased our 
confidence that industry is prepared to join us in pursuing this 
exciting future possibility for low-cost greenhouse gas control.
    The major reason for the decrease in the Coal and Power Systems 
budget is a transition taking place in our advanced gas turbine 
program. We are approaching the successful completion of an 8-year 
effort to develop a breakthrough utility-scale, 400-megawatt gas 
turbine. In fiscal year 2001, our turbine program ($26 million) begins 
to shift to the development of a similarly-advanced mid-size turbine. 
We are also requesting $42.2 million to continue developing advanced 
fuel cells with a goal of ultimately cutting costs to $400 per 
kilowatt, one-third of the projected costs for today's advanced 
systems. At these costs, ultra-clean fuel cells--which produce electric 
power using an electrochemical reaction, rather than combustion--could 
become a preferred energy source especially in environmentally-
constrained regions.
    Petroleum.--The fiscal year 2001 request for Oil Technology is 
$52.6 million, which includes the $10 million cited previously for a 
new initiative to develop ultra-clean transportation fuels. In 
addition, this program continues to provide technology advances that 
can keep oil flowing from many of our nation's most endangered 
reservoirs, most of which are now operated by small, independent 
producers. The fiscal year 2001 budget includes the last increment of 
funding for the Reservoir Class Revisit Program, a joint government-
industry effort restarted during last year's unprecedented oil price 
plunge to provide cost-sharing to domestic producers willing to try new 
methods for keeping the nation's oil fields in production. Funding is 
also included to continue the ``Petroleum Upstream Management 
Practices'' (PUMP) program which will provide producers with ``best 
practices'' that can solve regional production problems.
    Natural Gas Technologies.--The fiscal year 2001 request for natural 
gas technology R&D is $38.8 million, which includes funding for both 
advanced gas recovery research and a new initiative to develop 
technologies to improve the reliability of the nation's gas pipeline 
and storage infrastructure. The exploration and production portion of 
the budget ($12.4 million) will continue to focus on advanced 
technologies that can locate and produce gas from reservoirs that are 
not producible using current technology. A $2 million R&D program in 
methane hydrates will concentrate on studies and resource 
characterization. An $8.5 million request for emerging processing 
technologies will be used, in part, to scale up a promising new 
membrane technology that could be used one day to convert remote 
sources of natural gas into liquid fuels and chemicals. The new 
initiative to improve natural gas infrastructure reliability ($13.2 
million) will focus on the development of new tools, piping materials, 
sensors, and gas storage technologies that will be needed to meet the 
anticipated growth in natural gas demand, and address the increasing 
interface with the electric utility industry. Another infrastructure 
initiative, focused on International Clean Energy ($6 million) will 
apply best practices and DOE-developed technologies to reduce leakage 
from natural gas pipelines. This could be especially beneficial in 
reducing the nearly 20 percent of gas throughput that may be escaping 
from the Russian gas pipeline system.

                      STRATEGIC PETROLEUM RESERVE

    The Strategic Petroleum Reserve (SPR) remains a crucial element of 
our national energy security policy. The fiscal year 2001 budget 
request for SPR operations and maintenance is $158 million, a 0.3 
percent reduction from the fiscal year 2000 appropriation. The fiscal 
year 2001 request also includes a rescission of $7 million from prior 
year balances in the SPR Petroleum Account. In fiscal year 1999 we 
began a Royalty-In-Kind cooperative program with the Department of the 
Interior to allow the use of 28 million barrels off-shore Gulf Coast 
royalty oil to fill SPR.
    We will be submitting a supplemental fiscal year 2000 budget 
request to rescind $12 million from the SPR Petroleum Account. The 
proposed fiscal year 2000 and fiscal year 2001 rescissions will leave 
approximately $14 million remaining in the SPR Petroleum Account. These 
funds are being held to support the Royalty-in- Kind program and to 
support the start up incremental costs of an energy supply drawdown.

                         CLEAN COAL TECHNOLOGY

    The fiscal year 2001 budget proposes that $221 million be deferred 
until fiscal year 2002 and that an additional $105 million be 
rescinded. The proposed deferral reflects schedule delays from project 
restructuring activities. The proposed rescission reflects savings from 
restructuring of the Clean Energy project. There are 40 active projects 
with a total cost of $5.4 billion, of which DOE has committed $1.8 
billion. At the close of fiscal year 2001, 32 projects are expected to 
be completed; one additional project is expected to complete operation 
and begin preparing final reports; two projects are expected to be in 
operation; three projects in construction; and two projects in design. 
At the end of fiscal year 2001, two projects are expected to have 
outstanding obligation commitments. In fiscal year 2001, the Clean Coal 
Program will complete the operating phase of the Liquid Phase Methanol 
project demonstrating the production of clean-burning methanol from 
coal-derived synthesis gas, and approach the completion of the Tampa 
Electric IGCC project that is establishing the engineering foundation 
leading to a new generation of 60 percent efficient powerplants.

            NAVAL PETROLEUM RESERVES AND OIL SHALE RESERVES

    No new funds are requested for fiscal year 2001 for the Naval 
Petroleum and Oil Shale Reserves. During the fiscal year, ongoing 
activities will be funded from prior year balances which resulted, in 
large part, from terminating operations at NPR-1 during fiscal year 
1998 when the field was sold. Fiscal year 2001 activities include the 
continued operation and environmental remediation activities of the 
Teapot Dome oil field; the Rocky Mountain Oilfield Testing Center; 
environmental and cultural resource assessments at NPR-1, with some 
remediation activity anticipated; finalization of NPR-1 equity shares 
with Chevron; and continued oversight of the NPR-2 property and leases.
    In January 2000, DOE, together with the Department of the Interior, 
the State of Utah, and the Ute Tribe agreed to support legislation that 
would transfer 84,000 acres of the 89,000 acre Naval Oil Shale Reserve 
No. 2 to the Northern Ute Tribe. Under the agreement, a portion of any 
royalties from future energy production on the lands would go into a 
fund to help clean up and remove 10.5 million tons of radioactive mill 
tailings near Moab, Utah. Another provision would put into place 
additional environmental protections for a 75-mile stretch of the Green 
River, and the Ute Tribe would establish a one-quarter mile land 
corridor along this section of the river and protect it as an 
environmentally sensitive area. If enacted by the congress, the 
transfer of this land would become the largest voluntary return of land 
to Native Americans in the lower 48 states in more than a century.
    Elk Hills School Lands Fund.--The National Defense Authorization 
Act for fiscal year 1996, Public Law 104-106, authorized the settlement 
of longstanding ``school lands'' claims to certain Elk Hills lands by 
the State of California. The Settlement Agreement between the 
Department and the State, dated October 11, 1996, provides for payment 
of nine percent of the net sales proceeds generated from the divestment 
of the government's interest in Elk Hills, subject to the appropriation 
of funds. Under the terms of the Act, a contingency fund containing 
nine percent of the net proceeds of sale has been established in the 
U.S. Treasury and is reserved for payment to the State, subject to the 
appropriation of funds. The first installment payment was appropriated 
in fiscal year 1999. No appropriation was provided in fiscal year 2000, 
however, the fiscal year 2000 Interior and Related Agencies 
Appropriations Act provided an advance appropriation of $36 million to 
become available in fiscal year 2001. The fiscal year 2001 budget 
requests an advance appropriation for payments to the State for the 
fiscal years 2002-2006 to be made available on October 1 of each fiscal 
year, as follows: for fiscal year 2002, $36 million; for fiscal year 
2002, $36 million; for fiscal year 2003, $36 million; for fiscal year 
2004, $36 million; for fiscal year 2005, $60 million; and for fiscal 
year 2006, $60 million.
    National Energy Technology Laboratory.--Fossil Energy's Federal 
Energy Technology Center became the Department's 15th national 
laboratory, renamed the National Energy Technology Laboratory in 
December 1999. The two research facilities that comprise the newest 
national laboratory, are located in Morgantown, West Virginia and 
Pittsburgh, Pennsylvania, but are operated as a single entity. The 
National Energy Technology Laboratory's core capabilities will be 
strengthened with the creation of a Center for Advanced Natural Gas 
Studies. The new center will coordinate development of innovative 
technologies to improve the way gas is found and produced, as well as 
new ways to make the future use of natural gas cleaner and more 
efficient. It will also identify gaps in DOE's natural gas portfolio 
and recommend new efforts to ensure that future gas supplies remain 
abundant and affordable.

                   ENERGY INFORMATION ADMINISTRATION

    The fiscal year 2001 budget request is $75 million for ongoing 
Energy Information Administration (EIA) data and analysis activities 
related to energy use and provides for essential data quality 
enhancements. EIA's base program encompasses the maintenance of a 
comprehensive energy database, the dissemination of energy data and 
analyses to a wide variety of customers in the public and private 
sectors; the maintenance of the National Energy Modeling System for 
mid-term energy markets analysis and forecasting; the maintenance of 
the Short-Term Integrated Forecasting System for near-term energy 
market analysis and forecasting; customer forums and surveys to 
maintain an up-to-date product and service mix; and the maintenance of 
systems supporting the electronic dissemination of energy data through 
the EIA Internet home page and CD-ROM.
    In fiscal year 2001, EIA will focus on five initiatives: (1) 
Continuing the redesign of the energy consumption surveys to update the 
survey frames, sampling design, and data systems, and realign with the 
information on residential and commercial buildings populations 
resulting from the 2000 census; (2) Continue the overhaul EIA's 
electricity surveys and data systems to reflect changes in the nation's 
restructured electricity generation and distribution systems; (3) 
Continue the overhaul of the natural gas surveys and data systems to 
reflect changes in the restructured natural gas industry; (4) Continue 
the work to enhance international energy analysis and projections' 
capabilities to address increasing demands for assessing the impact of 
carbon mitigation strategies; and (5) Correcting critical petroleum, 
and natural gas data quality issues to continue EIA's ability to 
collect and disseminate the reliable and accurate energy data needed to 
assist Congress in making informed policy decisions.

                          ECONOMIC REGULATION

    The fiscal year 2001 budget request of $2 million is for refund 
application processing and for related activities arising from the 
regulatory program initiated under the Emergency Petroleum Allocation 
Act of 1973. Excess monies from refund processing are transferred to 
the Treasury Department for debt reduction.

                               CONCLUSION

    The Department of Energy's proposed budget for fiscal year 2001 
will provide the tools, facilities and processes to help lead this 
nation through a changing world energy market. The technological 
breakthroughs which lie ahead will improve the quality of life of all 
Americans. With your continued support, the Department of Energy will 
produce the science to prepare better energy options for a stronger 
America.
    Mr. Chairman, and members of the Subcommittee, that concludes my 
prepared statement. I will be glad to answer any questions you may have 
at this time.

    Senator Gorton. A new set of CAFE standards will not be 
included in that package.
    Secretary Richardson. I should have had my CAFE experts 
here with me. Senator, the answer is I do not know.
    Senator Gorton. OK. As you know, the chairman is quite 
interested in that subject----
    Secretary Richardson. I know.
    Senator Gorton [continuing]. And has felt that it would be 
one that would be logical for you and the EPA administrator.
    I would like to ask questions on just two subjects and then 
defer to Senator Byrd. We do realize that you have another 
appearance.
    On pricing and on your trips overseas, the agreement was to 
increase oil production by 1.7 million barrels a day, somewhat 
short of the 2.5 million barrels that was your obvious goal. In 
addition, apparently there was a good deal of cheating going on 
as it was above the old quota.
    You mentioned in passing what your prediction was for gas 
prices by the end of the summer. Do you expect that the same 
amount of fudging or cheating will go on, so that the net 
increase really will be 1.7? And do you think that 1.7 is long 
term or is sufficient to meet your goals?
    That is several questions in one, but I will just let you 
answer in general terms.

                             OIL PRODUCTION

    Secretary Richardson. Senator, they are excellent 
questions, and let me take each one.
    I was asking OPEC countries for 2 million barrels. The 2.5 
million was a press figure, but we asked them for 2. It was 
based on the fact that the world is consuming 75 million 
dollars per day and only producing 73 million.
    Senator Gorton. 75 million gallons. You said dollars.
    Secretary Richardson. What did I say?
    Senator Gorton. You said dollars.
    Secretary Richardson. I apologize. Barrels.
    I was asking for 2 million barrels. We got, Senator, 1.7 
barrels from OPEC countries. You add to that--and this is as of 
April 1, 400,000 barrels from non-OPEC countries, Mexico, 
Norway, Oman, and Russia. On the cheating issue, we 
anticipate--we do not call it cheating. We call it leakage. It 
is a little more diplomatic.
    Senator Gorton. All right.
    Secretary Richardson. We are estimating, and OPEC, I think, 
is estimating about 400,000 in going beyond the quotas. Then if 
you add Iraq to that, an estimate made by OPEC of 300,000 
barrels per day, we are at about 2.8 million barrels per day.
    Now, we believe that that is a good number. And it is 
already yielding results. OPEC will meet again in June 2000. 
Our view is that the market forces should dictate prices. We 
believe that the market is responding well to this increase in 
production. In fact, the news is better sooner than we thought.
    Nonetheless, that still means, Senator, we should approach 
these other initiatives that I mentioned on a bipartisan basis, 
working with you and others, to see how we can reduce that 
dependence on our imports.
    Senator Gorton. The $1.39 per gallon that you estimated by 
the end of the summer, what was the figure a year ago at the 
end of the summer, the end of summer 1999?
    Secretary Richardson. I will get you that. It was less. But 
you remember, Senator, a year ago prices were about $12 a 
barrel. I will get you those figures.
    But the best we have right now from the Energy Information 
Administration, which I thank you for funding so generously, 
are conservative estimates. They are at about $1.39 by the end 
of September. It could be a little more.
    The futures market is predicting more by the end of July, 
in fact, 14 cents below the $1.53 top. The point is that I 
think we have reached the zenith, and it is now going down. We 
have topped off, and that is the good news.
    But I will get you that data Mr. Chairman.
    [The information follows:]

                PRICE PER GALLON OF GASOLINE LAST SUMMER

    At the end of the summer of 1999, the U.S. average price of 
regular gasoline was about $1.25 per gallon. By December 1999, 
the monthly national average had risen to $1.27.

    Secretary Richardson. I want to, if I could, ask Mr. Hakes, 
the Administrator of our Energy Information Administration, to 
the table.
    Senator Gorton. Sure.
    Secretary Richardson. I really mean it when I said the 
Energy Information Administration throughout my trip was key in 
giving concrete data about low inventories and projections that 
were very useful.

                               GAS PRICES

    Mr. Hakes. Mr. Chairman, as the Secretary suggested, this 
summer we would project that prices would be 25 percent higher 
than last summer. But the consumer would be seeing a rather 
steady drop in prices throughout the summer. We have already 
seen a 5-cent drop from the peak on gasoline.
    Also, it is interesting, if you look at the New England 
diesel prices that truckers have been paying, those prices have 
actually dropped 65 cents from the peak. So the trend seems to 
be in the right direction, although it would not likely get us 
back to where we were last summer.
    Now, as the Secretary suggested, the futures market has 
been moving more rapidly than we anticipated. And prices have 
been coming down, crude prices have been coming down, more 
rapidly than we anticipated. So there may be more good news 
than we thought.

                                EARMARKS

    Senator Gorton. OK. Thank you.
    My other set of questions is on a different subject, Mr. 
Secretary, and one that is greatly disturbing to not only this 
subcommittee but to others. As you know, every appropriations 
bill that goes through Congress is accompanied by one or more 
committee reports that clarify, direct and provide additional 
guidance with respect to those funds.
    These items are included in committee reports rather than 
in formal statutory language in large part to provide a degree 
of flexibility to you and to your department. Usually it works 
pretty well. Departments tend to follow these programming and 
reprogramming guidelines. And I do not think we have gotten any 
complaints from you that this subcommittee's reports have been 
overly restrictive or onerous.
    But we receive a huge number of complaints from our 
members, who are angry, frustrated, that you have taken it on 
yourself to review personally each and every one of these 
earmarks or directives and have thus delayed many of these 
instructions.
    I understand that there are still fiscal year 1999 
appropriations that at your direction have not been released, 
even though they were fully in line with the Department's 
research programs. I pass this on to you as an extremely 
serious matter. I want to know what your motivations are in 
this connection.
    Are you designing it so that Senator Byrd and I and our 
colleagues are simply going to have to put all of these things 
in the statutory language so that you do not have any 
discretion? I do not think that is going to serve you well.
    But the committee and the Members of Congress are certainly 
serious about these directions and earmarks. Would you comment 
on that?
    Secretary Richardson. Senator, I want to be sure that the 
earmarks are well spent and fit within the mission of the 
Department. Some do not. I have been trying to shift them in 
the direction of fitting within the mission of the Department.
    Am I reviewing each personally? Yes. I review every single 
spending decision. I take your Congressional reports, your 
statutory language very seriously. There have been some delays. 
But I believe in many cases we have actually improved some of 
these earmarks.
    I will continue to do that. I believe that it is important 
that we get the full scientific and budgetary and positive 
contribution out of these earmarks. If they are delayed, it is 
because I have been moving around and trying to do other 
things. But I do want to review them, to make sure they fit 
within the mission of the Department. I think you would want 
that.
    Senator Gorton. Well, we certainly want to see that it is 
well spent. We also want to see to it that the intention, the 
specific intentions, that are actions of Congress are carried 
out. We would appreciate you providing us with a list of items 
both on fiscal 1999 and 2000 that are still under review, and 
for anything that has not been reviewed, the reasons for doing 
so.
    This is a serious matter. And Members are telling us that 
if they cannot get items about which they felt very strongly 
and have been included in committee reports accomplished, they 
are simply going to ask that we put them in the bill. Can you 
get us such a list as to where you are?
    Secretary Richardson. Yes. I will get you such a list.
    [The information follows:]

                FISCAL YEAR 2000 DOE INTERIOR AND RELATED AGENCIES APPROPRIATION EARMARK LIST \1\
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                 Activity                  Amount             Description                       Status
----------------------------------------------------------------------------------------------------------------
Fossil Energy--Building Fuel Cells.......    $750  Continue partnership w/Materials  Approved.
                                                    and Electrochemical Research     ($490)
                                                    Corp. to work on PEM fuel in
                                                    collaboration with ORNL.
Energy Efficiency--Buildings Fuel  Cells.     750  Continue partnership with Avista  Approved.
                                                    Corp. to demonstrate fuel cell   ($540)
                                                    cells at DOE sites.
Energy Efficiency--Industries of the        2,000  Characterization of oxidation     Approved.
 Future Crosscutting.                               behavior for rig testing in the
                                                    turbine program, ORNL.
Energy Efficiency--Transportation........   3,000  Northwest Alliance for            Approved.
                                                    Transportation Technologies.
Energy Efficiency--Precision Forging.....     500  Precision Forging Phase II R&D,   Approved.
                                                    Ann Arbor, MI.
Fossil Energy--Advanced Clean Fuels           300  West Virginia University--coal    Approved.
 Research.                                          extraction studies.
Fossil Energy--Natural Gas Research......   6,700  Steelmaking Feedstock program--   Approved.
                                                    Calderon.
Fossil Energy--Natural Gas Research......     375  Arctic Research.................  Approved.
Fossil Energy--Natural Gas Research......   2,500  Ramgen Technology...............  Approved.
Fossil Energy--Fuel Cells................   2,000  Multi-layer Ceramic Technology..  Approved.
Fossil Energy--Oil Technology............     375  Arctic Research.................  Approved.
Fossil Energy--Oil Technology............   3,200  Biodesulfurization in Alaska....  Approved.
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 1999 Earmark List to be provided separately.

    Senator Gorton. Senator Byrd, I am going to defer to you 
now. I have some more, but we do not have the Secretary for 
much longer. So I want to give you a chance to ask questions.
    Senator Byrd. Is he going to come back?
    Senator Gorton. He is also due today, because of these 
hearings, before the Full Energy Committee for some of the same 
things. So go ahead.
    Senator Byrd. I hope you will call him back, if we need 
him.

                         CLEAN COAL TECHNOLOGY

    Senator Gorton. Well, if necessary, we can have another 
hearing. But today he has to go to that one.
    Senator Byrd. Well, I wish to begin this morning by 
focusing on the Clean Coal Technology program, Mr. Secretary, 
which your Department characterizes as ``one of the most 
successful government-industry partnerships ever implemented.''
    In looking back at your testimony before this subcommittee 
on March 18, 1999, in which you were responding to my questions 
regarding the Clean Coal Technology program, you said, among 
other things--and I will read what you said, page 54 of the 
testimony--``I want you to know''--you are addressing your 
response to me, ``I want you to know that I am committed to 
deal with being more positive and generous toward coal both in 
the budget and in terms of our policies.''
    And then shortly thereafter you go on to say, Mr. 
Secretary, ``I commit to you that when I have full control of 
my budget in the next cycle, because, as you know, I came in 
September, that you should look at my coal research budget.'' 
Well, I have. I have looked at it.
    Now you continue, ``I came in September, and I think you 
will be pleased.'' Well, I am not.
    But we will work with you to keep the monies in there. Let 
me say that again. We will work with you to keep the monies in 
there, the projects going and recognize the importance of coal 
in our future.
    Well, having now looked at the Department's coal research 
budget for the upcoming fiscal year, I can assure you, Mr. 
Secretary, that you were mistaken in your prediction. I am not 
pleased. I have good reason to not be pleased.
    A $105 million rescission and a $221 million deferral in 
the Clean Coal Technology program, along with a $28 million cut 
in fossil energy research and development, does not, in my 
opinion, constitute a recognition of the importance of coal to 
this nation, and particularly at this time, may I say.
    Given the fact that you and I both know that coal is a 
major source, and will remain a major source, of energy in the 
United States for many years to come, how can this 
administration seriously justify a $105 million rescission in 
the Clean Coal program, especially coming on top, as it does, 
of the rescissions in the last 4 fiscal years?
    Over the past 4 fiscal years, $224 million has been 
rescinded from the Clean Coal Technology program and $196 
million has been deferred.
    That means that nearly half a billion dollars, $224 million 
in Federal, $224 million in private, has not gone into the 
necessary research and development of future technology. So how 
can the administration seriously justify this year, again, a 
$105 million rescission in the clean coal program?

                             FOSSIL ENERGY

    Secretary Richardson. Senator, let me start with Fossil 
Energy and then go onto the Clean Coal Technology Program. Let 
me say that I stand behind what I said before, that I think 
policy-wise I am trying to give coal and clean coal a greater 
emphasis.
    Funding-wise, there are some numbers issues being raised 
that I would like to try to deal with. First, there are some 
small adjustments throughout the fossil energy budget; the 
major change is the decrease of $18 million in the advanced gas 
turbine budget, because we have had a major success. I just saw 
that success in Greenville, SC, with a GE project of new large-
scaled turbines.
    I also want to point out there are several important 
increases in the fossil energy budget, increased funding for 
the Vision 21 Energy Plan of the Future. That is something that 
I know is important to you.
    We have more than doubled the funding for carbon 
sequestration, because we may be on the verge of real 
breakthroughs in developing more affordable ways to address 
global climate change. I know that you have landmark 
legislation on that with developing countries.
    We have added a new $13 million initiative in gas 
infrastructure. We have included $10 million for a new effort 
to develop ultra-clean transportation fuels. Our coal research, 
the Clean Coal Technology program, is a 15-year success story 
with a lot of projects completed and new technologies in use by 
industry.
    We are trying in our R&D to have more effective and cheaper 
technologies to reduce air and solid waste emissions from 
existing coal plants. We have some low-cost sulphur scrubbers, 
low-cost nitrogen-oxide controls from some of our technologies.
    On the rescission and deferral of Clean Coal funds, my 
understanding, Senator, is that the rescission and deferral 
will not affect and delay ongoing activities for projects in 
the CCT program. The Department remains fully supportive of the 
successful completion of the CCT programs. I know that you will 
review our proposals and develop a very thoughtful 
counterproposal.
    Senator, we have right now 38 active projects in 18 States. 
Twenty-six have completed test runs. I am talking about clean 
coal. Five are operating. Two are in construction. Five are 
being designed.
    Industry has provided 66 percent of the total cost. The DOE 
share for 38 projects is $1.7 billion. The industry share is 
$3.45 billion.
    You know, I was with you when we started that lab, gave it 
major lab status to give clean coal and natural gas the 
visibility they deserve. I am trying, Senator. I think that 
with your help and with this subcommittee's help maybe some 
adjustments can be made.
    But, believe me, this is a big priority of mine. And I 
would ask that you not look at all the results just in the 
funding request. We have actually accomplished a lot of good 
partnerships, a lot of new technology, and this new lab which I 
think will be a major focus for the future in terms of success.
    So I do not apologize for what I said to you. I think our 
record is good. Numbers-wise, I wish we had done a little 
better.
    Senator Byrd. Well, Mr. Secretary, I have not gotten the 
answer to my question. I listen very carefully always. The 
message I get from this proposed rescission is that the 
administration thinks that the program has reached the end of 
the technological line; that no further efficiency or 
environmental improvements in coal fire generation is possible.
    What bothers me even more, though, is that the Department 
of Energy also seems to think that the program is effectively 
over. I note that the program update released in March 1999 
states that, and I quote, ``The future direction of the Clean 
Coal Technology program focuses on completing the existing 
projects as promptly as possible.''
    Let me read that again. ``The future direction of the CCT 
program focuses on completing the existing projects as promptly 
as possible.'' Not one mention there of potential new projects 
or new technologies that might be developed by pressing ahead.
    Since there is nothing in the original authorizing 
legislation that would mandate a shutdown of the clean coal 
program by a date certain, can you tell the committee what the 
Department's position is with respect to continuation of the 
program? Do you have any long-term plans that would allow for 
additional project solicitations? And if not, why not?

                         CLEAN COAL TECHNOLOGY

    Secretary Richardson. Senator, let me say that on the 
numbers, we had to meet some budget targets. I wish our numbers 
would have been stronger, but I still think they are strong.
    Let me just answer your question on clean coal technology. 
I do not think we need the money in fiscal year 2001. I do not 
think we are going to need the $105 million rescission in 
fiscal year 2002. But if we do, I want to pledge to you that we 
will look at it again when we formulate the 2002 budget next 
fall. I am committed to clean coal technology. There will be 
more projects.
    I think we had some tough budget targets to make. But 
again, I want to stress to you we were very much committed to 
this.
    Senator Byrd. Well, all that is very good, Mr. Secretary. I 
know that you are not completely responsible for the figures as 
they finally arrive here. I understand that.
    But we need this technology. We need to sell it to China, 
to India, to Mexico, to Brazil, and to these other nations that 
are developing, but which are emitting enormous amounts, 
increasingly enormous amounts, of gases into the atmosphere.
    Now is the time we ought to be moving forward on clean coal 
technology, not just for our sake but also from the standpoint 
of helping the developing nations to clean up their own 
powerplants. I think the administration has a very shabby 
record in this area.
    I am particularly concerned with the issue of global 
climate change. Now the Vice President ought to know this. He 
ought to hear this. He ought to be concerned about this.
    I am particularly concerned with the issue of global 
climate change. And I fear that cuts in the clean coal program 
will have serious consequences in that area. On this score 
alone, there seems to be a very real disconnect, a very real 
disconnect, between what the administration is saying on the 
one hand and what it is doing.
    I believe you will find in the Book of Corinthians, Mr. 
Secretary, verbiage which says, ``If the trumpet make an 
uncertain sound, who will prepare to the battle?''
    Now the trumpet here is making an uncertain sound. The 
administration says, on one hand, this. On the other hand, we 
see it is cutting the monies for a very vital program.
    This must reflect the mindset on the administration's part 
that we have gone far enough on clean coal technology, and what 
we need to do is clean up the projects that are already in the 
pipeline and then forget about it.
    Well, I do not believe that the Members of Congress think 
that way. And I do not think the American people would think 
that way, if they really knew the facts.
    So there seems to be a very real disconnect between what 
the administration is saying on the one hand--it is the voice 
of Jacob, but it is the hairy hand of Esau--what the 
administration is saying on the one hand and what it is doing 
on the other.
    Since exports of this technology to developing countries 
would contribute greatly, greatly, to reductions in greenhouse 
gas emissions, which the administration supposedly supports, I 
think it is somewhat disingenuous for the administration to 
propose these cuts.
    Do you want to respond to that, Mr. Secretary?
    Secretary Richardson. Senator, the Clean Coal Technology 
program has been a success. It is nearing completion. It set up 
a new suite of technologies to help existing powerplants to 
meet tough environmental standards. Now we can do better.
    What we have done is taken the new technologies 
demonstrated under the Clean Coal program and pursued even 
greater energy efficiency. Our goal is near zero, emissions for 
fossil plants, which has been your goal in terms of developing 
countries. Our partnership with the private sector is working. 
Rapid commercialization is taking place. So we are succeeding 
in this program.
    You passed your resolution with Senator Hagel that 
developing countries, if there is going to be a Kyoto treaty, 
have to participate. They have not been participating.
    We have had conferences with energy ministers from Latin 
America, from Africa; we are going to have them from Asia in 
San Diego next month. We have said to them, ``We want to sell 
you clean coal technology, energy renewable technology, from 
the United States, so that with the private sector, with market 
forces, you can meet those Kyoto goals,'' which is exactly what 
you have wanted us to do.
    And we have had some success. We have certainly helped 
American business, American coal companies. Clean coal people 
have participated. But we need to do more.
    But, Senator, I just do not want you to judge the success 
of the program simply on the appropriation that we have 
requested. Granted, I did not get everything I wanted. But 
nonetheless, we have had some successes, some partnerships that 
are working.
    And this is technology that we are going to continue doing. 
We are going to do some more of these projects. But I can 
assure you, our commitment is there.
    Senator Byrd. Well, ``by their fruits, ye shall know 
them.'' And I am looking at the fruits here. I started this 
program in 1985 with an initial authorization of $750 million, 
one of the most successful programs we have ever seen in which 
the Federal Government and industry participated and shared the 
cost.
    And industry has been sharing that, by your own testimony 
this morning, 66 percent of the cost of these projects, which 
shows it is an important project, and it is a successful one 
insofar as industry is concerned.
    And yet I hear you say just now, ``We are nearing 
completion.'' Do you really mean that? How do you get to near 
zero emissions, if the program is nearing completion?
    Secretary Richardson. Well, what I meant by that, and I 
stand by what I said, is that we are having success in this 
program when we are developing the kind of technologies that we 
are able to demonstrate will improve the environment and get 
some of these power plants to meet tough environmental 
standards and produce power more efficiently and competitively.
    So my main message, Senator, is: The program you started is 
succeeding. It is working.
    Senator Byrd. And it ought to continue.
    Secretary Richardson. Yes.
    Senator Byrd. And we have to have money to continue it. And 
if we are really concerned about global, this global problem--
--
    Secretary Richardson. I agree.

                 NATIONAL ENERGY TECHNOLOGY LABORATORY

    Senator Byrd [continuing]. We need to do more of this.
    Now you spoke of the energy technology laboratory in 
Morgantown. I am concerned about how this budget proposal 
treats the newly established National Energy Technology 
Laboratory in Morgantown.
    When you and I were at that facility last December, you 
told the assembled audience that you intended for the lab to 
``have the full status of a national lab, the full rank and 
prestige.''
    You also said you wanted the lab to ``become the center of 
the universe.'' When you said that over there, I just swelled. 
I thought, ``We are on the way now; the center of the universe 
for fossil energy and environmental technology.''
    But despite your statements, which I am sure were well 
intentioned, I fear that the administration is not following 
through on your commitment, and that the national laboratory 
designation is proving to be more cosmetic than substance.
    For example, the fiscal year 2001 budget request would cut 
the lab's basic operating budget by more than $1 million from 
fiscal year 2000 levels. I realize a $1 million cut may seem 
trivial, but I would like to know how such a cut symbolically 
squares with your intention of ensuring that the NETL will have 
the ``full status of a national lab'' and that it would be the 
center of the universe for fossil energy and environmental 
technology.
    Secretary Richardson. Well, Senator, we did rename that lab 
in December. And we have proposed several new in-house 
capabilities at the lab, for example, the strategic natural gas 
center, which will deal with technology portfolio and natural 
gas research and analysis; and super computing, which puts in 
place an alliance with West Virginia University and Carnegie 
Mellon--we put $3 million in the fiscal year 2001 budget for 
that--another $3 million for carbon sequestration to study the 
capture and permanent storage of greenhouse gases.
    And what we are doing, Senator, is wanting to make sure 
that that lab gets the proper funding, designation and 
prestige. I am the one that moved this lab to that designation 
because of my commitment to coal research, natural gas 
research, the kind of research that you are doing. It has only 
been 3 months. You need to give me a little more time to do the 
right things for it. And I need your help there.
    Senator Byrd. You have my help in any way you ask for it. 
You want me to come downtown and talk to the President or Vice 
President or whomever? I can do that.
    So call on me, if I can help you. Come to see me. Pick up 
the telephone. Come to see me. If we have some problems, let me 
know about them.
    Well, I just have one follow-up question. In your statement 
last December, you also said that the lab would house a new 
center for advanced natural gas studies. What is being done on 
that front with respect to assigning or transferring additional 
natural gas research programs to NETL?
    Secretary Richardson. I know I have designated the lab as 
our center for natural gas. Let me ask my----
    Senator Byrd. OK.
    Secretary Richardson. I will be reviewing a plan to 
increase that responsibility. It is at the Under Secretary 
level. He has a plan to do that.
    Senator Byrd. Will you let me know when you have completed 
your review?
    Secretary Richardson. Yes.
    Senator Byrd. I thank you for your appearance here, Mr. 
Secretary. I do not mean to be discourteous, but I am mystified 
by what is happening to our Clean Coal Technology program and 
what I think is not sufficient continuing interest in the 
National Energy Technology Lab in Morgantown.
    That is all I will have for now. Thank you, Mr. Secretary.

                                EARMARKS

    Senator Gorton. Senator Stevens.
    Senator Stevens. Good morning, Mr. Secretary.
    Secretary Richardson. Good morning, Senator.
    Senator Stevens. I am thinking about offering an amendment 
to this bill that will prevent you from using any funds that 
are in your request, the President's request, until you have 
released the funds for the congressional priorities.
    Let me tell you, I just found out that last week your 
Department released a fiscal year 1999 coal bed methane project 
for Alaska that Congress funded for Alaska 18 months ago.
    I am told that the funds that are coming under the Indian 
energy grants for this current year have been delayed for Sitka 
and Nome. Those are Indian allocations set aside. And when we 
inquired, your staff had told us that you must personally 
approve all congressional priorities before they are released. 
By what right do you impound congressional priorities, Mr. 
Secretary?
    Secretary Richardson. Senator, this question came up 
earlier. I want every spending dollar that we take to be 
consistent with the mission of the Department. What I am 
doing----
    Senator Stevens. The President signed those grants. You 
have authority to set aside. You have no authority to determine 
whether they are consistent with the President's program. By 
definition, they are consistent when he signed the law.
    Now I am serious. We are going to hold up your money until 
you stop holding up congressional priorities. We get a budget. 
We take out some of the things you want, and we decide some 
other things of higher priority. The President agrees with us 
when he signs them. You are a Cabinet officer, and we expect 
you to follow the law.
    This really irritates me to think that for 18 months this 
little village waited for that money from fiscal year 1999. Now 
that is just preposterous. Congressional priorities are still 
part of the law. By what right do you decide whether they are 
consistent with your program?
    Secretary Richardson. Senator, I am reviewing these 
projects. I am looking at them. The fiscal year 2000----
    Senator Stevens. By what right? Are you a Member of 
Congress again, Mr. Richardson? These are law. This is in the 
law. Now you do not have the right to determine they are not 
consistent with your program.
    And I am serious. I think this is an absolute revolt on 
your part against the concept of Congress having the right to 
redetermine some of the priorities of the United States.
    I am serious. I hope the Congress will support this. You 
have no right to determine that they are not consistent with 
your program and, therefore, not to release them. A fellow 
named Nixon learned that. You are impounding money.
    Gentlemen, I am really disturbed. This money was 
appropriated 18 months ago and was just released. And it took 
that long to determine it was consistent with the Secretary's 
idea of what the program of the Department should be.
    Secretary Richardson. Senator, these were funds that are 
discretionary. They are discretionary in terms of my authority.
    Senator Stevens. They are not discretionary. They are 
earmarked in the law.
    Secretary Richardson. Senator, I do not believe they were. 
The statutory language we always obey. These are report 
language----
    Senator Stevens. Oh, you are not going to recognize what is 
in the report, the earmarking in the report?
    Secretary Richardson. Senator, all I am saying is that I am 
looking at everything in the report. I have been a little busy 
lately.
    Senator Stevens. Well, let us get one thing straight, Mr. 
Secretary. Are you not going to be guided by report language? 
Should we put the whole report in the law?
    Secretary Richardson. Senator, all I want to do is to make 
these projects consistent with the mission of the Department. 
Some have fallen outside of our jurisdiction.
    Senator Stevens. If the Congress puts them there, they are 
for you to do. Now, you were up here, Bill. And I remember you 
were here during the Republican administration. And I know you 
earmarked. And you expected the administration to follow that.
    The shoe is on the other foot now. And you are telling us 
you are going to determine whether an earmarking of Congress of 
specific monies for a specific project is consistent with your 
desires of how to be the Secretary of Energy.
    I tell you, gentlemen. We will have to write long bills for 
your Department, if that is the case. These are not the only 
ones. These are just the ones that have come to my attention so 
far. Or have you just done the ones the chairman earmarked?
    Secretary Richardson. No. I have done a whole series of 
them, Senator. I have approved many projects.
    Senator Stevens. I am going to ask the GAO to find out what 
you have not honored in terms of earmarking in the reports 
because in the time I have been in the Congress, I do not know 
of a Secretary that has decided that every congressional 
earmark had to be reviewed to see if it was consistent with his 
interpretation of the mission of the Department.
    I am told that Senator Shelby's project that was earmarked 
was disapproved, formally disapproved.
    Secretary Richardson. Senator, I have had a lot of things 
to do lately. I have pledged that I wanted to look at every 
spending dollar the Department has. I have not reviewed the 
fiscal year 2000 earmarks. You mentioned the one that I 
approved last week, 1999----
    Senator Stevens. That is 1999. That stopped. That ended 
last October 1.
    Secretary Richardson. That is correct.
    Senator Stevens. People up there in my State expect to see 
the money, if we tell them it has been earmarked. It is in the 
report of Congress. We tell them, ``Yes, we have received the 
approval of Congress to earmark part of the funding that goes 
to the Department of Energy, and you will receive `X' 
dollars.''
    Now, Mr. Secretary, it is not fair to us at all, and you 
know it. I am going to find some way. You are the only 
Secretary I know that is doing this so far. And I spent 8 years 
in one administration and 5 years as legislative counsel and 
solicitor. I know what goes on in departments, just as you do.
    Secretary Richardson. Senator, all I know is I looked at 
your project and I approved it.
    Senator Stevens. 18 months? It took 18 months to move that 
paper across your desk?
    Secretary Richardson. Apparently. And there was nothing----
    Senator Stevens. We have done this before. We will just 
put--it only takes one sentence in the report. It says you 
cannot release any of this money until you release the monies 
as earmarked in this section.
    Secretary Richardson. But, Senator, these are discretionary 
projects.
    Senator Stevens. They are not discretionary, if we earmark 
the money. It never has been. When you were up here, it was 
not. And it is not now.
    Secretary Richardson. When it is earmarked----
    Senator Stevens. When the Senator from West Virginia 
earmarks, do you think that is discretionary?
    Secretary Richardson. No. When it is earmarked and 
statutory, no. But these are report language projects.
    Senator Stevens. No, that is not--if it is going to be 
statutory, we will get to the statutory language.
    Senator Byrd. Will the Senator yield?
    Senator Stevens. If you want to do it that way, we will do 
it.
    Senator Byrd. Will the Senator yield?
    Senator Stevens. Yes, sir.
    Senator Byrd. Mr. Secretary, from time immemorial, language 
in committee reports is there to guide the Department. And they 
are expected to follow that language. There might be reasons in 
an instance or so here and there, but that is not discretionary 
with you down there. I do not mean to say you personally, but 
any secretary. It is not discretionary whether or not you 
follow those.
    We need to get back to the old time religion here. We need 
to get back to some old time thinking. You are not going to get 
by with that before this subcommittee, to say it is 
discretionary. Well, why put it in? Why do we not just write 
you a letter and ask for it? It is not discretionary.
    Secretary Richardson. Senator, I am a Cabinet officer. I 
review all spending. That does not mean I disapprove it or I 
cast negative judgment. I just want to see what we are 
spending. I want to know what your interests are. I want to 
know how I can make some of these projects consistent with what 
we are doing.
    I am not doing anything that I think is nefarious here. I 
think you want me to know how we are spending our money. This 
is a department that needs to be managed better, and that is 
all I am doing.
    Senator Byrd. Mr. Secretary, we have a responsibility, 
also. We are elected by the people. You are not. No Secretary 
of any Department is elected by the people of the United States 
or of a State. You know that. You have been a Member of the 
House.
    And when you say it is discretionary, I will join with the 
Senator in putting it in law, if that is what it takes to get 
your attention.
    Now let me mention the Positron Emissions Tomography Center 
of West Virginia University. You released the funding there, 
but it was fiscal year 1999 funding, after I asked you to do 
that in Morgantown. And I thanked you then, and I thank you 
now. That should have been done.
    So I am going to pay more attention to this, as well as Mr. 
Stevens. You are not the only one who has a responsibility to 
know whether or not these items--whether or not money is well 
spent. We have that responsibility, also. And we take it into 
consideration when we earmark it.
    So I hope you will do a little thinking about this. You may 
not be coming back before this committee again. Maybe that does 
not make a difference. But we are not going to sit here and 
take that kind of language from any secretary, that it is 
discretionary.
    If it is in the committee report, you should have very good 
reasons other than, ``I am just looking them over. That is 
discretionary with me. I may or I may not.''
    Senator Stevens. Thank you, Senator.
    I will just say one more thing, Mr. Secretary. You are a 
friend. I admire what you have been doing and have followed 
your career. And I think you have been very fortunate in having 
some very interesting assignments.
    But when we go over these bills, we determine how much 
money there is. And we are earmarking somewhat less than 10 
percent of the money that is available to these departments. We 
are approving basically the projects that you have set up and 
not putting restrictions on them for the most part. We have 
sometimes fenced them, ``You cannot do this until we receive 
some proof,'' or something.
    But we do have a right to redetermine some of the 
priorities of the United States. For instance, we earmarked in 
the law a certain portion of the funds that you get for Indian 
projects. The three that disturb me most are the three Indian 
projects that have been delayed. And I am told they have been 
sitting in your office for some time, by your own staff.
    Now is that for you to determine, if it is consistent for 
us to earmark within Indian reservation, money set aside for 
Indian projects, where they go? I tell you, I find that very 
hard to believe that you would question Congress in determining 
how a small portion of a large fund, just a small portion that 
is set aside for Indians throughout the country. And we have 
sort of a pecking order here of who is going to get what and 
how soon one tribe is going to get eligible over another. And 
we finally determine, yes, it is Alaska's time to get three. 
Three of those were earmarked, I think, probably for the first 
time to Alaska.
    And we are to wait for you to determine if that is 
consistent with your program? Mr. Secretary, that disturbs me 
greatly.
    And somehow I am going to join with my colleague and find a 
way that the discretionary part will come out. That is not 
discretionary at all. We have reserved a portion of the fund 
that is discretionary and said it can be used only for Indian 
projects. I think we told you what projects to put it to. And 
these people have a right to be disturbed, because they have 
been misled by me. I told them a year ago, 18 months ago, they 
would get the money.
    That is--you leave us in a very difficult position with our 
people. You were elected once. You know that is not fair. I am 
very disturbed, Mr. Secretary, that this has taken place.
    Thank you, Mr. Chairman.
    Senator Gorton. Mr. Secretary, you see how gentle the 
Chairman was with you on this subject. But you also see what 
the Chairman gets from other members of the committee in this 
connection.
    And I greatly prefer not to write all of these things in a 
bill itself, because there is at least a degree more 
flexibility in committee reports. And if there is some serious 
objection on the part of the Secretary and you come to us, we 
are usually going to be understanding of it.
    But I hope you will lower that stack that is on your desk 
right now as rapidly as you possibly can and obviate this kind 
of commentary.
    Senator Richardson. Senator, I will review these. I have 
gotten the message. Let me also say to you that sometimes it is 
difficult for me, when I have a $50 million science budget, 
that one project comes in at $11 million that is not consistent 
with the mission of the Department.
    What I try to do, in respecting congressional wishes many 
times, is to adjust these programs or these earmarks to some 
mission consistent with the Department, so that we can use 
them.
    And that is what I am simply trying to do with some of 
these. And, quite frankly, in the last 3 months I have been 
occupied on other things. But my responsibility is also to the 
American taxpayer to see that our money is well spent. I know 
you want me to do that.
    I approved his project. I have approved fiscal year 1999 
projects. We are looking at the fiscal year 2000 projects. We 
just want to spend the money right, Senator. That is all I am 
trying to do.

                       COORDINATION WITH THE EPA

    Senator Gorton. Well, get these done fast. You will be much 
worse off if you end up having the committee direct everything 
as a statutory matter.
    I have only one more subject. I have a lot more subjects, 
but I will submit them to you in writing.
    The National Research Council recently reviewed the 
Partnership for a New Generation of Vehicles. It recommended 
closer coordination between DOE and EPA with regard to the 
relationship in emissions standards and research on emissions 
reductions. I think this is a very important recommendation.
    And it stems from the fact that on several occasions the 
Environmental Protection Administration standards have made 
advance technology, developed through the support of your 
Department, irrelevant or at least much less relevant.
    And it collectively made the private sector reluctant to 
invest in research and development for fear that standards are 
going to be changed out from under them.
    I would like to know what your personal commitment is to 
ensure that there is adequate coordination between your 
Department and EPA, what the administration's views on this 
coordination subject are. And one very specific question: Given 
that most emission sources produced more than one undesirable 
pollutant, does it strike you, as an individual and the 
Secretary, as sensible that our regulatory regime is centered 
on a seemingly endless series of single purpose rule-makings on 
individual emissions?
    Secretary Richardson. Senator the Department of Energy's 
Fossil Energy Research, we want to have full input into any 
type of EPA policy. We see our role as being threefold in that 
direction.
    One, we want to be able to provide scientifically credible 
data to EPA. Specifically in one instance, we tested power 
plant emissions of air toxic substances. EPA was able to avoid 
imposing the unnecessary regulations. We are currently studying 
microscopic airborne particles.
    Our second initiative has been to develop lower cost, more 
effective technology to meet EPA regulations. Our joint low 
NO<INF>X</INF> burner effort with industry was used by EPA to 
set emissions limits.
    We need a new effort to develop better technologies to 
reduce mercury. We need--we have been able to develop with EPA 
lower cost scrubbers that have helped utilities meet EPA 
regulations. We have participated in interagency reviews of EPA 
regulations, providing information on the expected performance 
of technologies.
    So we have this partnership with EPA. I would like to 
really have EPA recognize that when it comes to energy demands, 
energy supply and industry impacts, that we are an important 
source of information. We have taken a more aggressive role if 
we feel that an EPA regulation has energy impact. Many times we 
are proactive in terms of expressing our views, sometimes 
disagreeing with EPA.
    Let me give you some examples. Adding cobalt and vanadium 
to the toxic release inventory, caps on NO<INF>X</INF>. I know 
you are a scientist. I am not exactly, but some of these----
    Senator Gorton. We are in the same boat, Mr. Secretary.
    Secretary Richardson. [continuing]. Tier II and low sulphur 
automotive fuel, particulate and ozone standards, refinery 
emissions caps. We are contributing to their efforts to reach 
sound decisions.
    Senator Gorton. Well, I want to say that I hope so. If you 
will remember, just recently they backed away from this MTBE, a 
classic example of a single purpose rule directed at air 
pollution that ends up polluting the water.
    You did not answer the last of my questions. It is not your 
Department, but should you not be encouraging EPA not to go 
after these emissions just simply one at a time, but to look at 
the broader picture?
    Secretary Richardson. Senator, can I get back to you on 
that?
    Senator Gorton. Yes, you can. You certainly may.
    [The information follows:]
             Coordination With EPA on Emissions Rule Making
    The Department of Energy does encourage the Environmental 
Protection Agency (EPA) to adopt a more integrated approach in its 
rule-makings regarding the control of pollutants. DOE also works 
closely with EPA's Office of Air and Radiation, as well as the 
commissioners of state environmental programs, on non-regulatory 
opportunities to approach energy and environmental issues on this 
broader basis, such as by encouraging development of State 
Implementation Plans that use energy efficiency as a strategy of choice 
in efforts to achieve clean air goals.
    The Department's efforts to encourage comprehensively integrated 
approaches were strengthened by the National Research Council (NRC) 
with its recommendation for closer coordination between the Department 
of Energy and the Environmental Protection Agency--with regard to the 
relationship between emission standards and research on emission 
reductions. This recommendation descends directly from the NRC report, 
Review of the Partnership for a New Generation of Vehicles (PNGV) 
program, 1999.
    As an example of this type of coordination with the Environmental 
Protection Agency on the PNGV program, PNGV, EPA and DOE jointly 
participate as members of the PNGV Steering Group. Each agency is 
represented on various PNGV technical teams. DOE shares its emission-
related research with EPA, and reviews EPA's vehicle and vehicle-fuel-
related rule-makings. In the PNGV program, the Federal Government is 
represented by the Departments of Commerce, Defense, Energy, and 
Transportation, the Environmental Protection Agency, the National 
Aeronautics and Space Administration, and the National Science 
Foundation. Additionally, the Department provided comments in response 
to EPA's Notice of Proposed Rulemaking on Clean Air Act ``Tier 2'' 
vehicle emission standards and standards for low sulfur gasoline. That 
letter discusses regulatory uncertainties and their impact on 
investment decisions.
    To broaden our understanding of energy and environmental 
interactions, DOE recently asked the National Petroleum Council (NPC), 
a federal advisory committee to the Secretary of Energy, to examine 
issues related to environmental issues and petroleum product markets. 
NPC is finishing a study which addresses the cumulative impacts of 
several product quality regulations, including changing the role of 
oxygenates in reformulated gasoline, on refinery viability and product 
deliverability. A Draft Report, dated March 30, 2000, assesses 
Government policies and actions that will affect both the petroleum 
product supply and the continuing viability of U.S. refineries. 
Secretary of Energy Federico Pena requested this study in a letter to 
the NPC dated June 30, 1998, as a means of obtaining a clearer picture 
of the refining landscape and the systems context in which the refiners 
operate.

                        TRANSPORTATION RESEARCH

    Senator Gorton. One other related subject, transportation 
research. The Department is investing a very significant amount 
of money in promising clean diesel technologies for light 
trucks and suburban utility vehicles.
    At the same time, many of the national environmental 
organizations to which this administration pays a great deal of 
attention do not give the slightest indication that they will 
do anything but lie down on the tracks against any 
reintroduction of diesel under any set of circumstances.
    Is this a concern of yours? Do you think you can persuade 
these organizations to go along, or are we on a dead-end street 
in going after new diesel technologies?
    Secretary Richardson. Senator, we are committed to going 
after new diesel technology. I think we have had some good 
breakthroughs there. If I may----
    Senator Gorton. OK.
    Secretary Richardson. David Leiter is the Principal Deputy 
Assistant Secretary for EERE programs, Mr. Chairman.
    Senator Gorton. OK.
    Mr. Leiter. Mr. Chairman, we are continuing work on these 
technologies related to diesel fuel, particularly in our larger 
vehicles such as light trucks. We make an all-out commitment on 
the research.
    We have recently made some grants to manufacturers to do 
more research jointly with the Department. So there is a 
continuing effort to do that. And the technology is there. We 
believe that the environmental----
    Senator Gorton. Well, I know that. But can you persuade 
very powerful organizations in this country that we are ever 
going to be able to use the technologies you develop?
    Mr. Leiter. I believe that if the technology is developed 
and we can make the case that they are as clean as we hope they 
can be, and consistent with the aims of the research, they will 
be agreeable to that.
    Senator Gorton. I mean, I certainly approve the research 
and what you are doing on it. But we do want to have a 
reasonable degree of assurance that if it is going to work, it 
can be used in the real world.
    Mr. Leiter. I think the important point is that they are 
not opposing that research. They are allowing us to go through 
and prove that it can work, and are open minded on that point.
    Senator Gorton. Thank you.
    And thank you, Mr. Secretary. I know you have somewhere 
else to go. You have certainly been responsive to me during the 
time that you have been in this office. But you have also been 
given a very real warning shot across the bow in connection 
with the serious way in which members of this committee and 
Congress as a whole take committee reports.

                     ADDITIONAL COMMITTEE QUESTIONS

    You have said you would respond to me on some of these 
specifics. And prompt and affirmative answers will, I think, do 
the Department a great deal of good as we go through this 
year's appropriations process.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequest to the 
hearing:]

              QUESTIONS SUBMITTED BY SENATOR SLADE GORTON
                            RECENT SUCCESSES

    Question. For the past several years I have asked witnesses 
testifying in support of the DOE budget request to cite a few examples 
of recent successes within programs under this subcommittee's 
jurisdiction. You mentioned a few of these in your opening statement. 
Can you expand on some of these examples?
    Answer. We have had many successes, some of which I will explain by 
major organization:

                   ENERGY INFORMATION ADMINISTRATION

    One of the recent Department successes we can point to is the 
result of our negotiations with the OPEC and Non-OPEC oil producing 
countries regarding increases of their oil production. The success was 
possible because of the excellent and timely data and analysis of the 
Energy Information Administration. We were able to show the OPEC 
ministers and non-OPEC representatives what impact the lower oil 
production quotas were having on the United States in a clear and 
convincing manner. We were able to leverage this information and gain 
the oil producing countries' agreement to increase their production.

                           ENERGY EFFICIENCY

    The Office of Energy Efficiency and Renewable Energy has had many 
successes in the program offices. A recent publication entitled, Clean 
Energy Partnerships: A Decade of Success, summarizes twenty of these 
accomplishments and includes a summary analysis of quantified benefits 
for EERE-supported products and technologies installed to date. A list 
of the twenty projects, and a brief description of each follows:
    Hazardous, energy-intensive halogen torchieres are being replaced 
by safe and efficient compact-fluorescent torchieres developed by 
Lawrence Berkeley National Laboratory in collaboration with lighting 
industry partners. Energy cost savings from the sale of the 200,000 
compact fluorescent bulbs sold in 1998 will be $41 million over the 7-
year life of the bulbs.
    DOE's leadership and research in collaboration with industry, Oak 
Ridge National Laboratory, and the National Institute of Standards and 
Technology accelerated the development of ozone-safe refrigerants by an 
estimated two years and averted a $16 billion energy penalty.
    Spectrally selective glazings developed by Lawrence Berkeley 
National Laboratory in collaboration with manufacturers and the 
National Fenestration Rating Council can cut cooling costs by 10-25 
percent in hot climates. These cuts in cooling costs could result in 
savings of $1.3 billion per year from lowered electricity bills by 
2010.
    Working with industrial partners the Office of Industrial 
Technologies funded R&D on oxygen-fueled glass furnace technologies, 
technologies used to manufacture 30 percent of all glass in 1999. 
Cumulative energy savings through 1997 totaled $28 million, with over 
$7 million in energy costs being saved annually by U.S. manufacturers.
    The Inventions and Innovations Program has provided small grants to 
more than 500 inventors; 25 percent of these grantees have produced 
commercialized technologies, and the sales of these products exceed 
$700 million ($1995) through 1996. Energy cost savings attributable to 
these grant-funded inventions were over $190 million.
    DOE's efforts to develop lightweight materials for manufacturing 
auto parts have saved more than 6 billion gallons of motor fuel and 
reduced carbon emissions by approximately 15 million metric tons 
through 1997. The dollars saved in oil-based fuels over the period from 
1978 to 1997 is estimated at about $7 billion.
    DOE, in cooperation with industry partners, has developed diesel 
engine technologies that are both cleaner and more energy efficient, 
saving approximately 16 billion gallons of motor fuel and reducing 
carbon emissions by about 38 million metric tons through 1997. The 
cumulative economic value of increased efficiency is estimated at about 
$17 billion.
    Improvements in parabolic trough technology have reduced the O&M 
costs of parabolic trough plants by 30 percent, saving $4 million per 
year and $42 million over the lifetime of the trough. These 
improvements have also increased the performance of the world's largest 
solar plant to record levels.
    DOE's research partnerships with U.S. industry have led to wind 
turbine advances that are helping the United States be a leader in 
technology for the world's fastest growing energy source. Over their 
lifetimes turbines produced and installed by just one U.S. company will 
displace 110 trillion Btu of primary energy, save $246 million in 
energy costs, and reduce carbon emissions by 2.1 million metric tons.
    Advances in geothermal heat pumps have substantially reduced the 
heating and cooling loads of hundreds of thousands of residential, 
commercial, and institutional buildings across the United States. Over 
their lifetimes, the pumps installed between 1995 and 1998 are 
estimated to save $980 million in energy costs and reduce carbon 
emissions by 1.7 million metric tons.
    The development of 80 percent efficient transpired solar collectors 
have provided commercial and industrial facilities with a cost-
effective means for preheating ventilation air. Over their lifetimes 
the 52 systems installed as of 1999 will save $10 million in avoided 
fuel costs. DOE and its partner agencies retrofit 167,000 homes in 1998 
under the Weatherization Program, which will save 108 trillion Btu and 
save occupants $550 million in utility bills over the 20-year life of 
installed energy-conservation measures.
    DOE has successfully used building energy codes and standards, 
supported by technical assistance and outreach efforts, to transform 
markets, resulting in energy cost savings of $1.1 billion in 1998.
    Two hundred and fifty Rebuild America partnerships are pursuing 
energy-efficient retrofits of 800 million square feet of commercial 
floor space. Estimates of energy cost savings from these retrofits in 
1999 are $162 million, showing the energy-efficiency payback that 
results when community networks are catalyzed.
    FEMP's innovative Energy Savings Performance Contracts (ESPCs) can 
now be used by federal agencies to contract with energy services 
companies to install energy-efficient systems and components, and pay 
for these improvements from the energy cost savings generated by the 
new systems. Since 1998, total contractor investment in the federal 
government is $405 million.
    Working in cooperation with Bethlehem Steel, the DOE Office of 
Industrial Technologies demonstrated a number of energy-saving and 
environmentally sound technologies and processes at the Burns Harbor 
plant that may be replicated throughout the steel industry and are 
saving the company over $8 million per year while reducing pollutant 
emissions.
    DOE's Industrial Assessment Centers, working through 30 
universities, have provided over 7,600 energy and industrial process 
audits as of 1998 to small and mid-size manufacturing firms, generating 
recommendations that could save participating firms $300 million by the 
year 2000.
    Six recent demonstration projects where the DOE Motor Challenge 
Program provided technical assistance or advanced motor selection 
software to industry helped the firms install energy-saving motors in 
place of older, more energy-intensive units, thereby saving nearly $2 
million per year and paying for the changes in just over a year.
    The Clean Cities Program is a voluntary, locally based government/
industry partnership to reduce the use of gasoline by accelerating the 
deployment of alternatively fueled vehicles. The 139,000 alternatively 
fueled vehicles that have been deployed over the past five years 
reduced gasoline and diesel fuel use by an estimated 380 million 
gallons through 1998, and reduced carbon emissions by an estimated 
400,000 metric tons. Over the life of the program, approximately $900 
million worth of fuel has been saved.
    The National Biomass Ethanol Program has broken ground on the first 
commercial biomass-to-ethanol plant in October 1998 in Jennings, LA. 
This is part of a DOE effort to expand the domestic ethanol industry 
and production of a low polluting alternative to gasoline by developing 
and demonstrating new conversion technologies using agricultural 
residues and energy crops. The use of ethanol blends in gasoline has 
displaced $12 billion worth of oil-based fuels through 1998.

                             FOSSIL ENERGY

    In the opening statement, the world's most advanced gas turbine was 
mentioned. The H system gas turbine is jointly funded by the Department 
of Energy and GE Power Systems, and is ready to cross the commercial 
threshold. The H System power generation system will be the first gas 
turbine to top the 60 percent efficiency threshold. (When FE began its 
advanced turbine development program in the early 1990s, the best 
turbines had efficiencies of about 50 percent.) Because fuel represents 
the largest single cost of running a power plant, an increase of 10 
percentage points in efficiency can reduce operating costs by as much 
as $200 million over the life of a typical gas-fired 400-500 megawatt 
combined cycle plant. Natural gas turbines, the technology likely to 
dominate the growing market of new electric power generation, are 
expected to make up more that 80 percent of the power generating 
capacity to be added in the United States over the next 10 to 15 years. 
Of the more than 200 new power plant projects announced recently in the 
United States, 96 percent plan to use natural gas, and most will employ 
gas turbines.
    Independent producers now drill 80 percent of all new wells in this 
country. They account for almost half of the crude oil produced in the 
lower 48 States and two-thirds of the natural gas. Increasingly, they 
are the stewards of the nation's oil resource, the ones that can 
benefit most from new technology, but the ones least able to afford is 
development.
    The Fossil Energy program has played a role in the advancement of 
oil field technology-from mudpulse telemetry in the 1970s, to 
polycrystalline diamond drill bits and horizontal drilling in the 
1980s, to 3- and 4-dimensional seismic imaging in the 1990s. It has 
been the steady pace of technology that has helped keep this industry 
viable. In the 1970s, and exploratory well had about a 14 percent 
chance of finding producible hydrocarbons. Today, those odds have more 
than doubled. An exploratory well in the 1970s, on average, added about 
10,000 barrels of oil in new reserves. Today, an exploratory well adds 
more than 40,000 barrels in new reserves.
    Transferring technological gains from the demonstration phase to 
industry practice continues to be a priority for the program. One 
approach, mentioned by the Secretary in his opening statement, is the 
Preferred Upstream Management Practices (PUMP) program. PUMP aims to 
stop the decline in domestic oil production by 2005, an objective of 
the Comprehensive National Energy Strategy. The program will focus on 
projects that promote an expedited application of technologies or 
approaches through field demonstration, develop best practices 
databases, and use existing technology transfer mechanisms to address a 
regional need or issue.
    Question. What are some specific successes from the past year in 
some of the different program areas?
    Answer. Specifics by program areas are as follows:

                   ENERGY INFORMATION ADMINISTRATION

    Because of the outstanding and timely information on petroleum 
production, stocks and usage continually provided by the Energy 
Information Administration, an accurate picture of this country's oil 
situation was presented. In addition, such information proved to be 
critical in providing OPEC and other producing nations with information 
used to increase their oil production.
    EIA's information and analyses are often sought prior to 
legislative action. For example, EIA's Administrator was asked to 
testify before Congress on several occasions, covering a number of 
diverse energy issues, such as crude oil prices, petroleum corporation 
mergers, natural gas demand, supply and transportation, carbon 
emissions and the impact of the Kyoto Treaty, greenhouse gas reporting, 
fuels for the future, and the potential impact on electricity 
consumption resulting from the explosive growth of personnel computers 
and Intranet usage.
    In the petroleum area, EIA prepared testimonies for the Senate and 
House dealing with the low prices of crude oil and petroleum products, 
as well as the impacts of corporate mergers which occurred during 1998 
and 1999. For example, testimony was prepared and given to the Senate 
Energy and Natural Resources Committee and the House Ways and Means 
Committee on low crude oil prices. Later, testimony was provided on the 
impacts of mergers between Exxon and Mobil, as well as BP-Amoco PLC and 
the Atlantic Richfield Company (ARCO) to the House Committee on 
Commerce (Subcommittee on Energy and Power), and the Senate Energy and 
Natural Resources Committee.
    EIA prepared briefings and reports for the White House, 
Congressional staff and the Secretary of Energy. EIA prepared materials 
which were employed by the Secretary of Energy for his attendance at 
the World Economic Forum in Davos, Switzerland. EIA staff were involved 
in making presentations at conferences and meetings outlining the 
availability of petroleum data, the quality of the data, changes in 
petroleum market trends, and the outlook of heating fuels for the 
upcoming heating season. EIA worked closely with agencies such as the 
General Accounting Office and the International Energy Agency in 
addressing the ``Missing Barrels'' issues. EIA staff also participated 
in National Petroleum Council studies covering product inventories and 
deliverability, including the impact of pending environmental 
regulations, and the potential for a nearly 50 percent expansion of the 
natural gas market by 2015.
    In May 1999, EIA signed a cooperative agreement with the National 
Association of State Energy Officials to further encourage data 
exchange and information sharing with State agencies. As a result, two 
data workshops were held in Chicago, IL and San Francisco, CA on the 
use and interpretation of EIA data and how to better access the data 
from EIA's Web site. In addition to the workshops, EIA sponsored the 
State Heating Oil and Propane Conference and the Winter Fuels 
Conference.
    In addition in 1999, EIA presented testimony before the Federal 
Energy Regulatory Commission on anticipated demand for natural gas in 
the Northeastern United States as part of their fact finding into the 
need for additional pipeline capacity into the Northeast States. EIA 
completed a major study of developments in the natural gas industry, 
presented in ``Natural Gas 1998: Issues and Trends.'' The separate 
chapters of this document, containing in-depth analysis of developments 
in the industry and updates on major trends, were posted on the EIA Web 
site promoting the availability of timely and up-to-date information.
    EIA completed an Information Requirements Report for natural gas, a 
summary of requirements developed in discussions with users and 
providers of natural gas information to address changing data needs 
associated with deregulation and unbundling of services. This document 
will be used throughout the process of redesigning natural gas survey 
and information products and will be further refined in continuing 
discussions with users and respondents.
    EIA now has a Web page dedicated to providing the specific 
information on State programs. As more States move toward or examine 
``retail choice'' for natural gas residential and commercial consumers, 
information on these State programs and the impact of the programs is 
needed by consumers and the industry to understand the changes in the 
market and how it will affect them.
    During 1999, EIA initiated its Electricity 2002 Project to redesign 
the electric power data collection forms to reflect the restructuring 
of the industry. The project has included consultation with over a 
dozen stakeholder organizations to obtain their views and data 
requirement needs. Once new forms are designed in 2000, further 
consultations will take place with the industry to ensure that the 
appropriate information can and will be supplied.
    EIA published two reports entitled ``The Changing Structure of the 
Electric Power Industry: Selected Issues, 1998'' and ``The Changing 
Structure of the Electric Power Industry, 1999: Mergers and Other 
Corporate Combinations'' in additional efforts to provide the Congress, 
the Executive Branch and industry with information about how and why 
the electric power industry is evolving. On a monthly basis EIA has 
updated our Intranet site with information on electric industry 
restructuring taking placed in each State. This State information is 
supplemented with additional material in State Electricity Profiles, 
which contains graphics, tables and text explaining how each State's 
electric power industry has evolved over time.
    EIA continued to prepare reports and briefings on issues related to 
climate change. On March 25, 1999, the Senate Committee on Energy and 
Natural Resources held a hearing on the Kyoto Treaty during which EIA 
testified on our analysis of the impacts of the treaty on U.S. energy 
markets and economic activity. The Chairman and ranking minority 
members of the House Committee on Science requested two service reports 
related to climate change. The first was an analysis of the Climate 
Change Technology Initiative, released at a hearing of the Committee on 
April 14, 1999. The second report presented an analysis of an early 
start date to the Kyoto Protocol, and was released in July. On July 15, 
1999, EIA testified on its Voluntary Reporting Program for Greenhouse 
Gases before the House Government Reform Committee, providing 
background on the program and discussing emissions accounting issues.
    At the request of the Department's Policy Office, EIA updated its 
1992 study on Federal energy subsidies using a definition that the 
subsidy must result in a financial benefit and be specific to energy. 
This request, the first of two, covered primary energy only. In 
September, EIA released the report entitled, ``Federal Financial 
Interventions and Subsidies in Energy Markets 1999: Primary Energy,'' 
which show that subsidies for primary energy have declined since 1992.
    Of special note, EIA's Web site has won several awards for quality 
and content. Most recently, EIA's Web site was selected by Government 
Executive magazine as one of the best sixteen Federal Web sites for 
1999, from 120 nominated Federal web sites. In the announcement of the 
winners, Government Executive stated, ``EIA is a tiny agency, so the 
comprehensiveness of its site--and its ease of navigation--amazed the 
judges. Everyone who works in the energy industry is well-served by 
this site.'' EIA also was commended for making full use of the power of 
e-mail by featuring e-mail notification lists for more than 30 
different energy subjects.

                           ENERGY EFFICIENCY

    The Energy Policy Act and Executive Order 13123 requires the 
federal government to reduce energy consumption per gross square foot 
of its federal buildings by 20 percent during fiscal year 2000 compared 
to fiscal year 1985. The goal was met in 1999 through FEMP's varied 
technical and finance assistance programs that aid agencies in 
identifying, financing and implementing projects that cost-effectively 
incorporate energy efficiency, water conservation, and renewable energy 
technologies into federal facilities.
    The Office of Transportation Technologies' Partnership for a New 
Generation of Vehicles (PNGV) achieved a key milestone early this year 
when Ford, General Motors and DaimlerChrysler each displayed their 
concept vehicles. These three vehicles demonstrated the technical 
viability of achieving 80 miles per gallon in a 5-6 passenger family 
sedan. They employ many technologies funded by DOE, including the 
hybrid-electric vehicle drive. Some of the technologies developed under 
this program will be introduced in near-term or next-generation 
vehicles. For example, the DaimlerChrysler ESX3 concept vehicle 
includes technologies which are being incorporated into some of its 
next-generation vehicle platforms, such as air-conditioning systems 
which incorporate low heat capacity and low heat transfer materials; 
lightweight heated and cooled seats; solar reflective glass; automatic 
ventilation systems; and low rolling resistance and run flat tires. A 
future platform will include the E-MAT transmission which has the 
efficiency of a manual transmission, while operating like an automatic. 
Ford Motor Company has announced its intention to market hybrid-
electric vehicles in model year 2003; specifically, the Ford Escape 
will be a hybrid electric SUV and achieve a 40 percent improvement in 
fuel economy. The potential impact of the PNGV program generally is the 
future availability of highly efficient vehicles; all automakers have 
stated that they will market highly efficient technologies in vehicles 
as they become economical.
    With support from the Office of Heavy Vehicle Technologies, 
researchers at the Massachusetts Institute of Technology developed a 
very compact, plasma-boosted reformer (the size of a bottle of soda) 
that can convert any liquid hydrocarbon fuel into hydrogen gas. This 
plasma-boosted micro-reformer is compact, rugged and can provide rapid 
response. If hydrogen could supplement the main fuel onboard, spark-
ignition engines could operate in a very efficient, clean manner and 
result in a large reduction in emissions of nitrogen oxides without a 
catalytic converter. Recent engine tests with the plasmatron reformer, 
performed at Oak Ridge National Laboratory and Pacific Northwest 
National Laboratory, have shown that a factor of 10 reductions in 
nitrous oxides can be achieved. This spring (2000) tests on diesel 
engines will be performed. The Department of Energy supports this work 
because it is directly related to the achievement of fuel-efficient 
engines having ultra low emissions. The Plasmatron invention received a 
1999 Discover Award.
    The frostless heat pump, developed by Oak Ridge National Laboratory 
with funding from the Department, received a ``1999 R&D 100 Award.'' 
The frostless heat pump features a new design that greatly reduces (by 
a factor of 5) frost formation on the outdoor coil and eliminates the 
need for most defrosting sequences; thus, improving efficiency and heat 
pump reliability. In addition, the comfort of occupants is improved 
because the average heating air supply temperature is increased by 
4 deg. as a result of the heating capacity increase of 21 percent. Test 
data show that frostless technology could eliminate 80 percent of 
potential heat pump cycle reversing. Departmental support initiated the 
genesis of the idea that led to the demonstration of the frostless heat 
pump. With industry support, the concept led to the building of a 
prototype and its initial field testing in 1999. Laboratory testing to 
demonstrate improved energy efficiency of the frostless features for 
heat pump is underway this year at ORNL with Departmental funding. Two 
heat pump manufacturers have expressed interest in the device, which 
could be the first heat pump to provide a consistently warm supply of 
air to houses in winter. Further application of the frostless feature 
to such applications as self-contained display cases for frozen food 
will also be investigated this year with Departmental funding.
    Malden Mills Industries is a textile plant in Lawrence, 
Massachusetts and is the sole producer of Polartec<SUP>TM</SUP>, an 
engineered high-performance polyester fleece made from recycled 
beverage bottles. In 1999, Malden Mills, in partnership with the Office 
of Industrial Technologies, Solar Turbines and AlliedSignal Composites 
demonstrated the first commercial Solar Turbines Centaur Engines with 
continuous fiber ceramic composite combustor liners. These 4.3 mW 
combined heat and power systems have an electrical simple-cycle 
efficiency slightly higher than that of delivered electricity. 
Emissions levels are guaranteed at less than 15 ppm NO<INF>X</INF> and 
10 ppm CO. An analysis by Energy and Environmental Analysis Inc. 
estimates that compared to the pre-1995 system, this highly efficient, 
three-turbine system, combined with the pollution-preventing advanced 
combustion system will virtually eliminate SO<INF>2</INF> emissions, 
reduce NO<INF>X</INF> emissions by three quarters, and carbon dioxide 
emissions by one quarter.

                             FOSSIL ENERGY

    Fossil Energy has had many successes over the course of the 
program. Following are three of our most recent.
    In February 2000, DOE and General Electric Power Systems unveiled 
the world's most advanced combustion turbine. The turbine incorporates 
breakthroughs that were barely imagined a decade ago. Among them, the 
turbine employs the world's largest single crystal airfoils, making the 
turbine blades much more resistant to high-temperature cracking. This, 
and other technological advances, allow the turbine to top the 60 
percent efficiency barrier. When FE began its advanced turbine 
development program in the early 1990s, the best turbines had 
efficiencies of about 50 percent.
    In April 2000, DOE announced the world's first hybrid fuel cell-
turbine. This revolutionary new type of fuel cell combines a state-of-
the-art fuel cell with a gas turbine to create one of the cleanest and 
most efficient ways to produce electricity. The new power plant, which 
just began a year of testing, is made of 1,152 individual tubular 
ceramic cells which give it the capability to generate about 200 
kilowatts of electricity. It is the world's first to operate the cells 
under high pressures and to use the hot, pressurized exhaust gases to 
drive a microturbine generator which will generate an additional 20 
kilowatts at full power. Nitrogen oxide emissions, and air pollutant, 
are likely to be nearly 50 times less than today's average gas 
turbines. Siemens Westinghouse expects that electrical efficiencies of 
more than 70 percent can be achieved as its hybrid technology improves.
    In December 1999, the Department announced the success of a FE R&D 
sponsored horizontal well drilled three miles deep into a dense 
sandstone formation in southwestern Wyoming. This success has led to 
additional commercial drilling that could open a potentially huge 
supply of ``nonconventional'' natural gas in the Rocky Mountain region. 
The Union Pacific Resources Company (UPR) used fracture imaging and 
advanced drilling technologies developed by the Energy Department and 
the Gas Research Instate to drill a 17,000-foot deep well with a 1,700-
foot horizontal section. Prior to the Department's work in this area, 
very little had been done to define the geologic and production 
characteristics of the tight, fractured Frontier Formation in the 
Greater Green River Basin. The gas-bearing play covers 900 square miles 
and is checkerboarded with Federal and State acreage. If UPR's current 
and planned wells achieve comparable production levels as with their 
test well, they could generate almost $10 million in Federal and State 
royalties, almost double the Energy Department's investment.
    Question. What has been achieved?
    Answer. Achievements by major organization are as follows:

                   ENERGY INFORMATION ADMINISTRATION

    The petroleum data and analysis provided by the Energy Information 
Administration was leveraged during the negotiations with the oil 
producing nations of OPEC and Non-OPEC nations regarding an increase in 
their oil production. It is of note that the representative from Kuwait 
cited EIA data and mentioned that his country sees EIA as the best 
source of timely energy information.
    The 1999 Commercial Buildings Energy Consumption Survey is 
currently in the field. This cycle of the Survey incorporates two major 
changes in methods from previous cycles. First, data collection of 
building characteristics is by Computer-Assisted Telephone Interviewing 
with a sample of previously-surveyed buildings, using the Blaise 
computer data collection/editing/case management software package which 
was used very successfully on the 1997 Residential Energy Consumption 
Survey. Second, for the first time, energy consumption and expenditures 
data are being collected from building respondents wherever possible, 
rather than their energy suppliers. This latter change is a first 
attempt to respond to complications in energy data collection that are 
resulting from the restructuring and resultant diversification of the 
natural gas and electricity industries.
    Fieldwork is complete and data processing is underway for the 1998 
Manufacturing Energy Consumption Survey. Cognitive research, both pre- 
and post-fieldwork, indicate the new questionnaire design was received 
quite favorably by respondents. Industry coverage for the 1998 survey 
has also been redesigned so data can be produced for industries in both 
the Standard Industrial Classification and the new North American 
Industry Classification systems.
    The Short-Term Energy Model was successfully updated and posted to 
EIA's Web site on schedule each month in 1999. This model has become an 
increasingly important tool in the monthly analysis of energy markets. 
The model grew in popularity in 1999; visits to the model download page 
increased from 350 to 800 per month between 1997 and 1998, and above 
860 per month in 1999.
    EIA continues to accelerate the release of energy information. For 
example, the reference case forecast for the Annual Energy Outlook 2000 
was released on November 9, 1999, a week earlier than last year and the 
International Energy Outlook 1999 reference case was released on EIA's 
Web site on March 31, 1999, 3 weeks earlier than the previous year. 
Operationally, EIA reduced its cycle time for the release of the data 
base for the Voluntary Report of Greenhouse Gases by 7 months by 
screening and processing two years of voluntary reporting data for 
greenhouse gas emissions while increasing the number of reporters to 
the voluntary program by 32 percent.
    In the area of electric power, ``Electric Sales and Revenue, 1998'' 
was published 18 days earlier than the previous year and 68 days (20 
percent) earlier than two years ago. The ``Inventory of Electric 
Utility Power Plants, 1998'' was published 67 days earlier than 1997 
data and 109 days (26 percent) earlier than the 1996 edition. The 
``Electric Power Annual Volume I, 1998'' was redesigned and released 37 
days (16 percent) earlier than the 1997 publication. The ``Electric 
Power Annual Volume II, 1998'' was published 72 days (17 percent) 
earlier than the 1996 edition. The ``Financial Statistics of Major U.S. 
Publicly Owned Electric Utilities, 1998'' was released 103 days (23 
percent) sooner that the 1996 edition. Overall, over the past two 
years, the average cycle time for annual electric power data report has 
been reduced from 367 days to 311 days, a 15 percent improvement.
    In 1999 EIA conducted its 5th annual telephone customers' 
satisfaction survey, asking customers to rate their overall 
satisfaction with five attributes of customer service (courtesy, 
promptness, accessibility, knowledge of the material, and ability to 
understand customer needs) and on five attributes of product quality 
(availability, relevance, accuracy, comprehensiveness, and timeliness). 
As in previous years, customer satisfaction was very high (86 percent 
or above, and in many cases in the mid-90 percent). Customers continued 
to tell EIA that accuracy is the most important attribute. Fully 92 
percent of the telephone customers also used EIA's Web site in the past 
year.
    During 1999 EIA undertook a major effort to redesign its Web site 
to be more user-friendly. While our site has won many awards and has a 
growing number of users, our customer calls and e-mails tell us where 
we have room to improve. In summer 1999, EIA staff trained in cognitive 
interviewing techniques conducted a series of intensive one-on-one 
tests with Web site users to determine how easy it was to find 
information on our site and how we could make our information more 
accessible.
    EIA opened a children's Web site in the spring of 1999. As an 
initiative of the Energy Industry Studies Program, the site profiles 
the major energy resource in words, numbers, and pictures and offers 
virtual visits to energy installations and an energy quiz. The site has 
become a popular source of energy information, as witnessed by more 
than 7000 visitors from across the country each month.
    During 1997, EIA set a goal to increase the average number of 
unique monthly users of its Web site by 20 percent annually, from a 
baseline of 37,000 users sessions. Between 1996 and 1997 the growth in 
usage was 180 percent. By the end of 1997, EIA exceeded the goal with 
an average of 71,500 user sessions. By the end of 1998, EIA averaged 
87,000 user sessions, again exceeding the goal. For 1999, EIA averaged 
163,600 monthly user sessions, an increase of more than 64.7 percent 
over the 1998 average. By the end of January 2000, EIA saw nearly 244 
thousand unique user sessions.
    For 1999, information downloaded from the EIA Web site averaged 94 
gigabytes per month, or about 1.13 terabytes (that's 1,000 gigabytes) 
of energy information for the year. For December 1999, 1.4 million 
files were downloaded. This represents a 76 percent increase when 
compared to December 1998. In perspective, EIA witnessed a 363 percent 
increase in its Web site usage between the first quarter of 1997 and 
the last quarter of 1999. These Web site usage data evidence how EIA 
energy information and analyses are reaching a much larger audience.
    One result of the increase in the electronic availability of our 
information has been a dramatic increase in the number of customers 
contacting the National Energy Information Center for on-line support. 
For example, e-mail traffic is up nearly 114 percent for the period 
between 1998 and 1999. Another result of our expanded use of electronic 
dissemination is a 35 percent reduction in the number of paper 
publications and a 50 percent reduction in publication printing costs 
since 1994.
    EIA has dramatically increased the distribution of its information 
by becoming the dependable source of objective energy information for 
the news media. This has enabled our energy data to be widely use by 
the general public with minimal cost to the agency. In addition to the 
steady growth in media use of EIA information, public concerns about 
price volatility in the gasoline and heating oil markets led to the 
increases in media citations in the spring of 1996, the winter of 1997, 
and the fall and winter of 1998-1999. In perspective, in 1991 EIA 
averaged just under 100 media citations per quarter. For 1999, EIA 
averaged just under 800 media citations per month, an 800 percent 
increase.
    Another example of outcomes and impact is the number of copies of 
EIA's recent brochure ``Why Do Natural Gas Prices Fluctuate So Much?'' 
being requested by natural gas companies for distribution to their 
customers. These natural gas companies see this brochure as an 
excellent way to explain to their customers why natural gas prices 
fluctuate. In addition, natural gas companies can note that this 
information was prepared by a non-biased source.
    Of special note, EIA's ``Survey of Publication Subscribers'' and 
the accompanying cover letter were printed in their entirety as 
examples of excellence in survey practices in the recently published 
book, ``Mail and Intranet Surveys,'' by Dr. Don Dillman, a leading 
expert in the survey field. Being recognized in a book of this caliber, 
by an author who has been a survey consultant to the highest levels of 
government and private industry for more than 20 years, reflects the 
high quality of EIA's customer survey work.

                           ENERGY EFFICIENCY

    Throughout the decade of the 1990s, the Office of Energy Efficiency 
and Renewable Energy (EERE) invested $712 million in projects described 
in the success stories document. Additional costs have been incurred by 
the numerous industrial, university, utility, and public-sector 
collaborators that have also invested in the commercialization and 
deployment of these technologies.
    More than 5,500 trillion Btu of energy has been saved from 
equipment implemented to date as a result of these activities. Of this 
total, 5,050 trillion Btu of savings is from EERE R&D successes, and 
almost 500 trillion Btu is from EERE field verification, deployment, 
and outreach successes. These savings are enough to meet the energy 
needs of all of the citizens, businesses, and industries located in the 
states of New York, Connecticut, and New Mexico, for one year.
    EERE R&D and field verification, deployment, and outreach programs 
have also replaced another 1,700 trillion Btu of fossil fuels with 
renewable alternatives. This is equivalent to running all of the cars 
registered in the states of California, Florida, Mississippi, and West 
Virginia on ethanol rather than gasoline, for one year. Significant 
reductions in carbon emissions from these activities, 102 million 
metric tons, have resulted from these reductions in burning fossil 
fuels.

                             FOSSIL ENERGY

    In the Coal and Power Systems area, the Fossil Energy R&D program 
has significantly contributed to expanding the menu of clean power 
options and lower operating costs by focusing on developing more 
efficient power generating technologies that also emit few pollutants. 
Fifteen years ago, the only options to reduce nitrogen oxide emissions 
from power plants cost $3,000 per ton and the choice of technologies 
was limited. Today, because of FE R&D activities, nitrogen oxide 
controls cost less than $200 per ton, and 75 percent of the U.S. coal 
capacity now uses low emission boilers. In the power industry, 
efficiency gains of even a few percentage points can make a major 
economic difference over the life of a generating system. Eight years 
ago, gas turbines had essentially reached their predicted efficiency 
limits (around 50 percent). Now, revolutionary turbine breakthroughs 
are boosting efficiencies to 60 percent and above. Ten years ago, the 
only way to use coal to generated electricity was to burn it. Now we 
have full-scale, pioneering coal gasification power plants in the U.S. 
that change coal into a gas and remove more than 95 percent of its 
pollutants. These are the most efficient coal plants in the world with 
efficiencies of 40-45 percent.
    With respect to oil and natural gas, the Fossil Energy R&D program 
has directly contributed to the development of today's, lower cost and 
more reliable exploration and production tools. For example, DOE helped 
solve the problem of binding diamonds to a drill bit. Now 
polycrystalline diamond drill bits are an industry standard. Downhole 
telemetry, the ``measurement-while-drilling'' technology, is a major 
improvement over the ``start-and-stop'' way of gathering downhole 
information. This technology had its origins in DOE's research program. 
4-D seismic surveying, in which time now included with length, width, 
and height, was pioneered by DOE's field demonstration program. It is 
now a $500 million industry in the Gulf of Mexico. Other 
accomplishments, which are now industry norms, include carbon dioxide 
flooding of production reservoirs, water flooding, secondary gas 
recovery, and horizontal drilling, all of which FE R&D played a role in 
developing or demonstrating.
    Question. What are the impacts of these achievements?
    Answer. Impacts of these achievements by organization are:

                   ENERGY INFORMATION ADMINISTRATION

    With EIA data in hand, our negotiators were able to show the OPEC 
ministers, and other producing nations representatives, increase oil 
production. Such increases have led to an easing in supply and 
associated heating oil and gasoline prices. This is witnessed by a drop 
in gasoline prices from a high of $1.53 a gallon prior to the OPEC 
meeting, to $1.48 a gallon on April 10, 2000. During the same time 
period, retail diesel fuel prices have dropped almost 8 cents from a 
peak of $1.50 per gallon.
    With all of the EIA initiatives to improve the accuracy, timeliness 
and customer outreach, there has been and continues to be an explosive 
growth in the use and requests for EIA's energy data, analyses and 
forecasts. EIA continues to be ``world class'' and the ``world leader'' 
for energy information, analysis and forecasting.

                           ENERGY EFFICIENCY

    The cost saving impacts, to the Nation, of the activities are 
estimated to be $30 billion ($1998). This is based on the 5,500 
trillion Btu of energy savings and the cost to consumers of an average 
Btu of energy consumed in 1998. In 1996, the General Accounting Office 
reviewed the success of five similarly situated technologies developed 
in the 1980s, and found a cumulative energy savings from all 
installations through 1996 to be $28 billion, or over $3 billion per 
year.

                             FOSSIL ENERGY

    DOE-supported research has achieved substantial benefits for 
consumers, taxpayers and the environment: technologies that are less 
polluting; lower energy costs, reduced risks of energy supply 
disruption, and improvements to our balance of trade as these 
technologies are exported to developing countries. The potential for 
future returns is even greater as technologies that are nearly through 
the research and demonstration phase enter the marketplace.
    Energy to fuel continued global growth will come primarily from 
fossil fuels, particularly in rapidly-developing nations such as China 
and India that are rich in coal reserves. Exporting cleaner, more 
efficient energy technologies will not only benefit the U.S. economy, 
but will help satisfy growing global energy demand and improve living 
standards, while controlling greenhouse gas emissions and preventing 
pollution.
    Question. Why was DOE support needed to make these achievements 
possible?
    Answer. DOE support was needed as follows:

                   ENERGY INFORMATION ADMINISTRATION

    Without the Energy Information Administration, the timely 
information on the status of petroleum supply, demand, and stocks would 
not have been available during briefings of OPEC nations. Without this 
leverage, there is a question of the ability of the U.S. diplomatic 
efforts to approach OPEC and to experience an increase in oil 
production which relieves the energy crisis the U.S. and its allies 
were facing.
    The data collection, analysis and forecasting programs of EIA are 
essential, providing Congress, the Administration, States, the private 
sector, and the public with reliable, accurate, and timely energy 
information critical to sound policy decisions. For the next several 
years, EIA is engaged in overhauling its aging energy information 
systems and surveys. These systems and surveys are at the very core of 
EIA's ability to provide credible data and analyses on the country's 
energy status and outlook. With the replaced and overhauled systems and 
surveys in place, EIA will have the capability to continue to be ``the 
first place to go for the last word in energy information.''

                           ENERGY EFFICIENCY

    DOE works closely with industry and others to identify areas of 
opportunity for energy efficiency improvements. ``Roadmapping'' has 
helped formalize this process and provide a longer-term perspective on 
savings opportunities and on strategies for achieving these savings. 
Identified strategies can take many forms, from private sector 
initiatives, to information- development and dissemination, to public-
private research partnerships when needed. Economists note that, in 
general, private sector R&D is likely to be sub-optimal because of the 
fact that in competitive markets individual companies cannot reap the 
full benefits of their efforts. In general, public participation in R&D 
can help fill this gap. Public-private R&D partnerships can be a strong 
strategy for pursuing energy savings technology development when (1) 
the relevant industries are small and relatively young, therefore 
lacking the financial where-with-all to undertake major research 
efforts on their own; (2) when there are major public benefits beyond 
the private benefits that individual companies might expect to obtain 
from the research (such as large emissions reductions); or (3) when a 
relatively small government role can be the catalyst for significant 
private sector cooperative R&D.

                             FOSSIL ENERGY

    The need for government supported R&D is greater now than ever 
before. The availability of affordable energy will be essential to our 
nation's economic strength in the coming decades, and major energy 
forecasts agree that fossil fuels will be the dominant energy source 
for the foreseeable future. The Department, in partnership with the 
private sector, supports the development of economically viable and 
environmentally compliant technologies that would otherwise emerge far 
more slowly, if at all. This support focuses on areas where there are 
large potential public sector benefits, but rewards, given the risks, 
are not adequate to attract high levels of private sector investment. 
While Americans want to continue to enjoy the economic benefits of 
lower-cost energy, they also want reliable energy supplies that do not 
harm the environment. Advances in fossil fuel technology coupled with 
the continued readiness of the Strategic Petroleum Reserve, our 
emergency oil stockpile, are key to accomplishing this.

                  CONGRESSIONAL GUIDANCE AND EARMARKS

    Question. Mr. Secretary, each and every appropriations bill that 
passes through the Congress is accompanied by one or more committee 
reports that clarify, direct or provide additional guidance with regard 
to the funding totals included in the underlying bill. The information 
is included in the committee reports--rather than in the bill--in large 
part to reserve some flexibility for the Department in the execution of 
its mission. The system generally works well provided the agencies 
adhere to the report language and associated reprogramming guidelines. 
I'm certainly no aware of any complaints from you that guidance 
contained in this subcommittee's reports has been overly restrictive or 
onerous. I am receiving a lot of complaints, however, from my 
colleagues, who are increasingly frustrated and angry that you have 
taken it upon yourself to review personally each and every committee 
directive or earmark. This has caused unacceptable delays in the 
allocation of funds appropriated by the Congress. There are still 
fiscal year 1999 appropriations that at your direction have not been 
released, even though these appropriations are fully in line with the 
Department's research program. What is your motivation for undertaking 
this personal review?
    Answer. I am asking my program offices to review the earmarks to 
make sure the funds are well spent and fit within the mission of the 
Department of Energy. The review requires cooperation between the 
program office and the entity to which the funds are proposed to be 
released. A detailed scope of work must be developed that may take 
several weeks or months. In addition, the Department must make a 
determination of competitive or non-competitive financial assistance 
that requires review by legal counsel. Once this review process is 
completed, each proposal is submitted to me for final approval.
    Question. Is it your intent to provoke this Committee into writing 
virtually all program direction into bill language, such that we might 
relieve you of the burden of reviewing each individual Congressional 
directive or earmark?
    Answer. I want to ensure that the funds are well spent and fit 
within the mission of the Department.
    Question. Do you think this change in practice would enhance your 
Department's ability to carry out its mission?
    Answer. I believe the best way to ensure that the Department is 
allowed to carry out its mission is to continue a cooperative 
relationship between the Department, Congress and the entities for 
which the funds are earmarked.
    Question. How do you expect this Committee to take your priorities 
seriously if you do not take seriously the priorities of the members of 
this Committee?
    Answer. I take the priorities of the members of the Committee very 
seriously. I personally review each of the earmarks so that they get 
the highest level of attention at the Department. This helps ensure 
that any earmarked funds released are spent appropriately which 
benefits the Department, the Congress and the entity which receives the 
funding.
    Question. If your concern is whether Committee directives are 
consistent with the Department's authorities and mission, why don't you 
personally review each and every contract or allocation of the 
Departmental discretionary funds to ensure that they, too, are 
authorized and consistent with the departmental mission?
    Answer. I do, in fact, review and approve every major contract that 
the Department enters into. I frequently make recommendations or 
modifications to these contracts to ensure they are clearly oriented to 
meet the mission of the Department. It is not feasible, however, for me 
to review every subcontract and allocation.
    Question. Can you provide me with a list of the items from the 
fiscal year 1999 and fiscal year 2000 cycles that you are reviewing, 
indicating for each item whether or not you have ``approved'' the 
allocation of funding for that item? For any item that has not been 
``approved,'' the list should indicate the reason.
    Answer. The fiscal year 1999 earmark list will be provided 
separately. The following is the fiscal year 2000 earmark list:

                  FISCAL YEAR 2000 DOE INTERIOR AND RELATED AGENCIES APPROPRIATION EARMARK LIST
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                 Activity                  Amount             Description                       Status
----------------------------------------------------------------------------------------------------------------
Fossil Energy--Building Fuel Cells.......    $750  Continue partnership w/           Approved.
                                                    Materialsand Electrochemical     ($490)
                                                    Research Corp.to work on PEM
                                                    fuel incollaboration with ORNL.
Energy Efficiency--Buildings Fuel  Cells.     750  Continue partnership with Avista  Approved.
                                                    Corp. to demonstrate fuel cell   ($540)
                                                    cells at DOE sites.
Energy Efficiency--Industries of the        2,000  Characterization of oxidation     Approved.
 Future Crosscutting.                               behavior for rig testing in the
                                                    turbine program, ORNL.
Energy Efficiency--Transportation........   3,000  Northwest Alliance for            Approved.
                                                    Transportation Technologies.
Energy Efficiency--Precision Forging.....     500  Precision Forging Phase II R&D,   Approved.
                                                    Ann Arbor, MI.
Fossil Energy--Advanced Clean Fuels           300  West Virginia University--coal    Approved.
 Research.                                          extraction studies.
Fossil Energy--Natural Gas Research......   6,700  Steelmaking Feedstock program--   Approved.
                                                    Calderon.
Fossil Energy--Natural Gas Research......     375  Arctic Research.................  Approved.
Fossil Energy--Natural Gas Research......   2,500  Ramgen Technology...............  Approved.
Fossil Energy--Fuel Cells................   2,000  Multi-layer Ceramic Technology..  Approved.
Fossil Energy--Oil Technology............     375  Arctic Research.................  Approved.
Fossil Energy--Oil Technology............   3,200  Biodesulfurization in Alaska....  Approved.
----------------------------------------------------------------------------------------------------------------


                         INTERNATIONAL PROGRAMS

    Question. The budget request includes $100 million in increases for 
international energy programs. This initiative responds to a report 
issued by the President's Committee of Advisors on Science and 
Technology (PCAST). Examples of activities to be funded are development 
and transfer of technology to stem oil and gas leaks in Russia, and 
transferring U.S. whole building design technologies to architects in 
five countries. The President's budget includes over $100 million in 
increases for international programs, including nearly $20 million for 
international programs under this subcommittee's jurisdiction. Why is 
this such a high priority for the Administration?
    Answer. The primary driver for DOE energy activities has 
traditionally been the economic, environmental and security benefits 
that would accrue based on the impact of these activities on domestic 
energy supply and use. However, markets have become more globalized, 
and energy use has resulted in increasingly greater current and 
projected regional and global environmental impacts. As a result, a 
number of opportunities exist for U.S. energy cooperation with other 
countries that could result in enormous economic, environmental and 
security benefits for both the U.S. and these countries. The PCAST 
report cited in the question addresses these benefits and outlines many 
potential U.S. responses, some of which are included in the 
Department's fiscal year 2001 budget request.
    Question. Are these requested increases such a high priority that 
you would want us, if necessary, to reduce your core R&D programs to 
support them?
    Answer. The increases for international activities are considered 
to be high priority, as are the activities in the core R&D programs. It 
would be difficult to prioritize these new international activities 
relative to ongoing ones because the outcomes associated with the 
international activities include a great deal of risk and uncertainty. 
High risk, uncertainty and potentially high payoff are desirable 
attributes for government-supported activities. Regarding high payoff, 
a recent study of the global energy future, conducted by the 
International Institute for Applied Systems Analysis (IIASA) and the 
World Energy Council (WEC), estimated worldwide capital investments in 
energy supply to be in the range of $12 to $19 trillion (1997$) for the 
period 1990-2020, and $17-$34 trillion (1997$) for the period 2021-
2050. About half of the total investments would be required in 
developing countries. If U.S.-based energy companies are to capture a 
significant share of this energy supply market, we must start creating 
ongoing relationships now.

                       INTER-AGENCY COORDINATION

    Question. In its review of the Partnership for an New Generation of 
Vehicles (PNGV) program, the National Research Council recommended 
closer coordination between the Department of Energy and the 
Environmental Protection Agency with regard to the relationship between 
emission standards and research on emission reductions. This 
recommendation strikes me as extremely important, and not just with 
regard to the PNGV program. It seems that on several occasions shifting 
EPA standards have made advanced technology developed with DOE support 
irrelevant, or at least less relevant, and have collectively made the 
private sector reluctant to invest in research and development for fear 
the standards might suddenly change. What are you doing personally to 
ensure that there is adequate coordination between the EPA and DOE?
    Answer. DOE and EPA jointly participate as members of the PNGV 
Steering Group. Each agency is represented on various PNGV technical 
teams. DOE shares its emission-related research with EPA. DOE reviews 
and comments on EPA's vehicle and vehicle-fuel-related rulemakings.
    Question. What is the Administration as a whole doing to coordinate 
its environmental and energy policies?
    Answer. Several fora promote ongoing interagency coordination of 
environmental and energy policies, including White House task forces 
(such as the White House Climate Change Task Force) and interagency 
working groups. In each case, representatives from all of the relevant 
agencies are included along with White House representatives. Multi-
agency budget crosscuts (such as for the Bioenergy and Bioproducts 
Initiative) are prepared by the Office of Management and Budget (OMB) 
with each relevant agency to establish the overall funding for multi-
agency efforts.
    Periodic, but nonetheless important, forms of multi-agency 
cooperation are also prevalent, including consultation during the 
rulemaking process (such as the consultation with EPA in the 
development of the commercial and residential building codes for 
Federal buildings [10 CFR 434 and 435] and joint sponsorship of studies 
or conferences exploring particularly complex energy-environmental 
interactions. Agencies may, of course, formally comment to one another 
on particular policies or rulemakings of interest and key policy-
related documents go through a formal interagency review process. In 
the case of the budget and rulemakings, OMB reviews agency proposals, 
providing an additional level of coordination.
    Energy and environmental issues interact in complex, and sometimes 
surprising ways. While these mechanisms provide opportunities to 
coordinate energy and environmental policies, they will not always work 
perfectly, especially where important connections between the two are 
not well understood scientifically or where interactions may be 
indirect and therefore the need for coordination may not be immediately 
evident.
    Question. Given that most emissions sources produce more than one 
undesirable pollutant, does it strike you as sensible that our 
regulatory regime is centered upon a seemingly endless series of 
single-purpose rulemakings on individual emissions (Sox, sulfur, 
particulates)?
    Answer. The Department of Energy does encourage the Environmental 
Protection Agency (EPA) to adopt a more integrated approach in its 
rule-makings regarding the control of pollutants. DOE also works 
closely with EPA's Office of Air and Radiation, as well as the 
commissioners of state environmental programs, on non-regulatory 
opportunities to approach energy and environmental issues on this 
broader basis, such as by encouraging development of State 
Implementation Plans that use energy efficiency as a strategy of choice 
in efforts to achieve clean air goals.
    The Department's efforts to encourage comprehensively integrated 
approaches were strengthened by the National Research Council (NRC) 
with its recommendation for closer coordination between the Department 
of Energy and the Environmental Protection Agency--with regard to the 
relationship between emission standards and research on emission 
reductions. This recommendation descends directly from the NRC report, 
Review of the Partnership for a New Generation of Vehicles (PNGV) 
program, 1999.
    As an example of this type of coordination with the Environmental 
Protection Agency on the PNGV program, PNGV, EPA and DOE jointly 
participate as members of the PNGV Steering Group. Each agency is 
represented on various PNGV technical teams. DOE shares its emission- 
related research with EPA, and reviews EPA's vehicle and vehicle-fuel-
related rule-makings. In the PNGV program, the Federal Government is 
represented by the Departments of Commerce, Defense, Energy, and 
Transportation, the Environmental Protection Agency, the National 
Aeronautics and Space Administration, and the National Science 
Foundation. Additionally, the Department provided comments in response 
to EPA's Notice of Proposed Rulemaking on Clean Air Act ``Tier 2'' 
vehicle emission standards and standards for low sulfur gasoline. That 
letter discusses regulatory uncertainties and their impact on 
investment decisions.
    To broaden our understanding of energy and environmental 
interactions, DOE recently asked the National Petroleum Council (NPC), 
a federal advisory committee to the Secretary of Energy, to examine 
issues related to environmental issues and petroleum product markets. 
NPC is finishing a study which addresses the cumulative impacts of 
several product quality regulations, including changing the role of 
oxygenates in reformulated gasoline, on refinery viability and product 
deliverability. A Draft Report, dated March 30, 2000, assesses 
Government policies and actions that will affect both the petroleum 
product supply and the continuing viability of U.S. refineries. 
Secretary of Energy Federico Pena requested this study in a letter to 
the NPC dated June 30, 1998, as a means of obtaining a clearer picture 
of the refining landscape and the systems context in which the refiners 
operate.

                        TRANSPORTATION RESEARCH

    Question. In this vein, I want to ask about the transportation 
research program. The Department is investing large amounts in 
promising clean diesel technologies for light trucks and SUVs. At the 
same time, many of the environmental groups to which this 
administration is beholden give no indication they will ever allow 
diesels of any sort to re-enter the passenger car market. Does this 
concern you? Do you think you can convince these groups, and the public 
as a whole, to accept the new diesel technologies?
    Answer. This issue does concern us; however, we feel that the new 
clean diesel engine technologies will be accepted by the public. The 
light truck and sport utility vehicle (SUV) market segment has 
experienced explosive growth in recent years. By replacing the current 
gasoline engine in light trucks and SUVs with a modern diesel engine, a 
35 to 50 percent increase in fuel economy can be realized. These diesel 
engines have performance and noise characteristics similar to gasoline 
engines, and tests on a diesel laboratory vehicle have demonstrated 
that the Environmental Protection Agency (EPA) Tier 2 emissions can be 
met. When the public is offered a vehicle that provides 35-50 percent 
better fuel economy with no sacrifice in performance, and can meet the 
lower Tier 2 EPA emission standards, we feel the public will readily 
accept the new clean diesel engines, as has been the experience in 
Europe.
    Critical to actual use of diesel engines in cars, of course, is 
successful achievement of our research goals related to emissions, 
which will be necessary to certify diesel-powered vehicles at the more 
stringent standards.

                              OIL RESEARCH

    Question. The sharpest reductions in your fossil energy budget 
request come in the area that is of most current concern to Americans--
and to this Congress--namely, in the way we find and produce oil in 
this country. Can we ever hope to turn our reliance on imported oil 
around if we continue to cut domestic exploration and production 
research by 23 percent, as this budget does?
    Answer. The combined R&D budget request for Oil and Gas 
Technologies is 3 percent higher than the fiscal year 2000 adjusted 
appropriations for these accounts, and 20 percent higher than last 
year's request, so we certainly do not believe that this vital portion 
of our energy portfolio has been ignored. While there have been 
adjustments in the relative levels of different activities within these 
accounts, these changes have been made in response to an in depth 
portfolio review. (Available as Vol. 2 of DOE Research and Development 
Portfolio). Our fiscal year 2001 budget request increases emphasis on 
natural gas research, a fuel from overwhelmingly domestic sources, and 
our program on Ultra Clean Fuels which will help the oil industry 
develop the technologies to cope with higher sulfur crudes and the 
demand for lower sulfur fuels.
    Because the United States has been well explored for oil and is a 
mature development area, the Energy Information Administration projects 
that imports of crude will continue to increase even if the Department 
has pursued a policy of broad-based research in fossil energy, 
renewables, energy efficiency, nuclear and basic energy sciences, as 
well as promoting incentives to improve both energy efficiency and 
production. These efforts have been accomplished in the context of 
balanced budgets and extensive review by stakeholders and the 
scientific community, and the Department feels that budget request 
presents a balanced approach to meeting the long term energy needs of 
our nation.
    Question. In light of recent events, would you have requested a 
different amount for domestic oil and gas exploration research if you 
were putting this budget together today?
    Answer. The Department's R&D budget request is the product of 
rigorous evaluation and comment from numerous stakeholder groups, 
including the President's Committee of Advisors on Science and 
Technology (PCAST) and the National Petroleum Council, as well as an 
overall research portfolio plan. The energy R&D portfolio is balanced 
and geared toward the long term, and it would be inappropriate to make 
the short-term adjustments. The Administration has responded to recent 
events through the release of LIHEAP contingency funds, the endorsement 
of a heating oil reserve in the Northeast, and a series of steps to 
promote domestic production through the expensing of Geological and 
Geophysical Expenses and Delay Rental Payments. In addition, we have 
worked with OPEC to secure an increase in production.
    Question. If so, would you provide a recommendation to this 
committee on what that amount would be?
    Answer. The Department continues to support the President's Budget 
request as submitted.
    Question. Would you reprioritize programs within the total DOE 
request level to increase oil production research?
    Answer. The Department continues to support the President's Budget 
request as submitted.

                      REGIONAL HEATING OIL RESERVE

    Question. I understand the Administration is considering a 
supplemental budget request to establish a regional heating oil reserve 
in the Northeast. Can you provide us some insight as to what exactly 
the Administration is considering?
    Answer. The Administration is considering a two million barrel 
distillate reserve to be located in the Northeast in commercial 
facilities that are currently active and in compliance with all 
licensing and permitting requirements.
    Question. How much would such a reserve cost to establish?
    Answer. We estimate that renting storage and administering the 
program will cost about $8 million per year. We anticipate exchanging 
crude oil for distillate to avoid any cash outlays associated with 
acquisition of the refined products.
    Question. How would a reserve program function?
    Answer. The Department would contract for storage services, 
exchange crude oil for products to be delivered to the storage site, 
and when oil was sold, title would transfer at the storage facility. 
The buyers of the oil would arrange for pickup of the oil according to 
standard commercial practices. Subsequently, replacement products could 
be purchased with the receipts from the previous sale.
    Question. Who would determine the amount of heating oil to be 
acquired?
    Answer. The Administration is considering a reserve size of two 
million barrels. H.R. 2884, which has been passed by the House, limits 
the size of a Home Heating Oil Reserve to two million barrels. 
Implementation of the program would be assigned to the Petroleum 
Reserve Office and the timing and quantity of acquisition solicitations 
would be determined by that office.
    Question. Who would determine when and at what price oil from the 
reserves would be sold?
    Answer. The determination to trigger a sale from the Reserve would 
be vested with the President either in a simple extension of the Energy 
Policy and Conservation Act or in an amendment to it which has passed 
the House of Representatives. The selling price methodology would be 
described in a plan or Plan Amendment.
    Question. Who would determine whether any reserve at all would be 
necessary going into a given winter season?
    Answer. Implementation of the plan for a Heating Oil Reserve will 
be assigned to the Petroleum Reserves Office. That Office would seek 
advice from the Energy Information Administration regarding the outlook 
for supply, demand, inventories, and available storage capacity prior 
to each winter and recommend to the Secretary of Energy any changes to 
the status of a Reserve.
    Question. What is the fundamental market dynamic that seemingly 
deters private markets from providing supplies of heating oil 
sufficient to keep prices in a reasonable range?
    Answer. Oil prices are volatile relative to other commodities 
because of the ability of the Organization of Petroleum Exporting 
Countries to control supply. Whenever oil prices appear to be 
historically too high and oil buyers expect prices to fall, they will 
deplete inventories and that can lead to spot shortages and price 
spikes, particularly when cold weather occurs unexpectedly.
       strategic petroleum reserve--filling spr with royalty oil
    Question. The Department has experimented with acquiring oil for 
the Strategic Petroleum Reserve by directly taking Federal royalty oil 
from offshore development. How much oil has been acquired for the 
Reserve in this fashion, both in volume and approximate dollar value?
    Answer. By December 2000, the SPR will add 28 million barrels of 
oil to the Reserve. At this point, the Department has accepted 
approximately 9.8 million barrels in exchange for the royalty oil 
delivered. While contractors are accepting the royalty oil on a daily 
basis, the next deliveries are scheduled for June, and the majority of 
the remaining oil due to the Government will come late in the year. The 
Department accounts for the value of the oil at the time deliveries are 
made to the Strategic Petroleum Reserve. The value of the 9.8 million 
barrels of oil received to date is $203 million. Since deliveries to 
the SPR occur later than acceptance of the royalty oil by our 
contractors, the DOE valuation will differ from the calculation of 
foregone income made by the Department of Interior.
    Question. Does the Department plan on continuing this activity? If 
so, when?
    Answer. The Department has indicated its desire to continue this 
program, and Secretary of the Interior Babbit has indicated that he is 
not opposed. The Administration continues to assess its desirability. 
If the program were to be continued, we would hope to make its 
continuation seamless by starting the next phase upon the expiration of 
the current 28 million barrel program. The last transfer of royalty-in-
kind oil is schedule to occur in October 2000.
    Question. Does the President's budget assume the reduction in OCS 
revenues that would be associated with any further deposits of royalty 
oil into the Reserve?
    Answer. The President's budget for fiscal year 2001, assumes the 
royalty transfer will occur through October 2000, and the revenue 
impact is limited to that one month.
    Question. Have you set a limit on the total amount of oil you 
intend to acquire in this fashion?
    Answer. Since the Administration has not yet announced a policy to 
continue filling the SPR with royalty oil, it has not set any limits on 
the rate or total amount to be transferred.
    Question. What are the additional incremental operating costs for 
the Reserve, if any associated with filling the Reserve in this 
fashion?
    Answer. Filling the Reserve has minor incremental costs for 
electricity, oil quality assurance inspections, operational overtime, 
and laboratory expenses that total about $0.05 per barrel. However, the 
cost of terminalling services is not a current expense because the 
Department has fill credits with one of its major terminal operations. 
Once those credits are exhausted, the marginal terminal cost will be 
approximately $0.26 per barrel.
          strategic petroleum reserve--oil swapps to fill spr
    Question. In reviewing ways in which to respond to the recent 
increase in oil prices, I understand the Administration has considered 
``swapping'' oil from the Strategic Petroleum Reserve in exchange for 
deposits of oil to be made at a future date. Can you describe this 
mechanism for the Committee?
    Answer. Time exchanges or swaps are a common industry practice that 
reflects different values for the same oil at different times. During 
the last quarter of 1999 and the first quarter of 2000, the market 
value for prompt delivery of oil considerably exceeded the value of the 
same oil for delivery in the future. As an example of the opportunity 
presented by this market condition, if the price premium for current 
delivery is 20 percent for current delivery relative to one year later, 
the SPR should be able to exchange a volume of oil today for a 120 
percent of that volume to be delivered a year later. The SPR would be 
acquiring oil by exchange and fulfilling its mandate to minimize the 
cost since the added oil would not have associated outlays. The 
feasibility of conducting time exchanges depends on market conditions.
    Question. Is there any appreciable risk to the Federal Government 
associated with this strategy? What occurs if the future price of oil 
is higher than the amount contemplated at the time of the swap?
    Answer. There is no risk to the Government of a time exchange, 
provided that the contractor provides a financial guaranty of 
performance. If the future price of oil were higher than the current 
price there would be no incentive for contractors to bid for an 
exchange, and no swap would occur. In that case, the higher future 
price would provide an incentive to build inventories rather than 
drawing down inventories for prompt delivery.
    Question. Would the Department still take delivery of the oil?
    Answer. If the price of oil had risen by the time the contractor 
was due to perform on the contract and deliver oil to the SPR, the 
Government would have the choice of accepting delivery or renegotiating 
the delivery for a later date, in which case the Government would 
require an additional amount of oil. This is exactly what the SPR 
Office did in February 2000, when it renegotiated the delivery dates 
for 5 million barrels of oil from Spring 2000 until December 2000 and 
received as consideration the promise of an additional 600,000 barrels 
of oil.
    Question. What occurs if the future price of oil is lower than the 
amount contemplated at the time of the swap?
    Answer. The exchange contract will be written in terms of barrels 
of oil, not in terms of dollar values. For example, the SPR may deliver 
1 million barrels of oil and the contractor will be obligated to 
deliver 1.2 million barrels of oil one year later. The contract is 
indifferent to the value of the oil a year later, and since the 
Government's interest is in acquiring oil without making financial 
outlays, it is also indifferent to the price at the time of delivery.
    Question. Are there incremental operating costs to the Reserve 
associated with such oil swaps?
    Answer. There are minor costs associated with the electricity to 
move fluids at the SPR sites, cleaning equipment after use, and extra 
manpower during oil movements. Those costs are less than $0.10 per 
barrel. At this time DOE has credits at commercial terminals that would 
allow us to move oil without cash outlays. However, when those credits 
are exhausted oil movements will cost approximately $0.26 per barrel in 
each direction.
    Question. Why has the Administration not chosen to employ this 
mechanism in recent months?
    Answer. The authority to use time exchanges is solely for the 
purpose of acquiring oil for the Reserve, however, one known side 
effect would be to lower current prices. Since the Administration 
determined to solve the recent problem of high prices via diplomatic 
channels, taking an action that would be highly visible and have the 
impact of lowering prices would have complicated the diplomacy and 
potentially could have had a negative effect on the successful outcome 
that was higher production agreed to by OPEC at its March 28, 2000 
meeting.
    Question. Is this still on the table as a possible tool in the 
event that oil prices remain high?
    Answer. This method of oil acquisition is always available to us 
when market conditions are favorable. Due to increased OPEC oil 
production, the price premium for prompt delivery has dropped 
substantially from its peak in March, and the opportunity to exchange 
oil is marginal. If prices should rise again relative to future prices 
we may use the opportunity to acquire oil by exchange.

                           BUDGET PRIORITIES

    Question. As I look over the Department's budget request, I see 
that funding for Energy Efficiency and Renewable Energy goes up 18 
percent--including 12 percent for the energy conservation programs that 
are under this subcommittee's jurisdiction. I also see that funding for 
Nuclear Energy Science & Technology increases by 7.4 percent. The only 
major energy area where the Administration's funding request declines 
is for Fossil Energy programs. Given that 85 percent of the energy 
Americans consume comes from fossil fuels, why did you single these 
programs out for reductions?
    Answer. Several relatively small adjustments throughout the Fossil 
Energy budget have been made, the net effect being an overall 2.3 
percent decrease from last year's appropriations.
    The major change is a decrease of $18 million in the Advanced Gas 
Turbine budget. The reduction is because of a major success: We are 
successfully concluding our development of a revolutionary new large-
scale turbine; and in fiscal year 2001, we will begin the early (and 
less expensive) development of smaller-scale turbines for a different 
segment of market.
    There have also been several important increases in the Fossil 
budget. They include:
  --Increased funding for the Vision 21 energy plant of the future--a 
        long-range concept that can eliminate pollution from the use of 
        coal, natural gas or other fuels.
  --We have more than doubled funding for carbon sequestration--because 
        we may be on the verge of real breakthroughs in developing more 
        affordable ways to address global climate change.
  --We have included $10 million for a new effort to develop ultra-
        clean transportation fuels to meet EPA's tighter standards for 
        gasoline and diesel fuels.
  --We have added a new $13 million initiative in gas infrastructure--
        one of our efforts to improve the reliability of the energy 
        grid in the U.S. and in eastern Europe.
  --Some of the new work in gas infrastructure is part of a larger $13 
        million international initiative recommended by President's 
        Committee of Advisors on Science & Technology (PCAST) to 
        develop U.S.-made clean energy technologies for deployment 
        overseas.

                        COAL RESEARCH--VISION 21

    Question. It seems that much of your coal research budget is 
oriented toward making the use of coal cleaner and more efficient. In 
fact, your Vision 21 program has a goal of completely eliminating 
environmental pollution from future coal plants. Would you characterize 
your coal research program as primarily an environmental program?
    Answer. Yes, not only is Vision 21 very much an environmental 
program, it is also a potential path to carbon sequestration, which 
would address the global climate change challenge. To sustain the 
economic viability of and quality of life in the United States, we must 
have affordable electricity to meet the growing future demand. Thus, we 
must have a portfolio of technologies that use all the available fuels, 
especially coal, our most abundant resource, more cleanly, efficiently, 
and cheaply.
    Question. Doesn't the coal research program fit very appropriately 
into the need to continue investing in cleaner energy technology?
    Answer. Yes. For the next 20 years, coal will still account for 
over 50 percent of the electricity generated in the United States and 
according to EIA, coal consumption will increase by 25 percent in that 
same time period. To meet both the demand for more electricity and a 
cleaner environment, we must invest in power generation technologies, 
like Vision 21, that use coal and other fuels more efficiently and 
cleanly. By meeting the goals of Vision 21, we will be able to remove 
essentially all environmental concerns regarding fossil fuels when 
coupled with cost-effective carbon sequestration.

              PARTNERSHIP FOR A NEW GENERATION OF VEHICLES

    Question. The Administration is requesting $143 million for the 
Partnership for a New Generation of Vehicles Program- otherwise known 
as PNGV. Where do we stand currently in the PNGV program? How close are 
we to meeting program goals?
    Answer. On September 23, 1993, President Clinton announced an 
unprecedented collaboration between the United States Council for 
Automotive Research (USCAR), which represents DaimlerChrysler, Ford, 
and General Motors, and the Federal Government (represented by the 
Departments of Commerce, Defense, Energy, and Transportation, the 
Environmental Protection Agency (EPA), the National Aeronautics and 
Space Administration (NASA), and the National Science Foundation 
(NSF)). The PNGV is aimed at strengthening U.S. industries by 
developing technologies for a new generation of energy efficient and 
environmentally friendly vehicles. Specifically, the PNGV pursues three 
mutually-supportive goals:
    Goal 1: Improve the productivity of the U.S. manufacturing base.
    Goal 2: Pursue technology advances that can lead to fuel efficiency 
improvements and emission reductions in the current generation of 
vehicle designs.
    Goal 3: Increase vehicle fuel efficiency to up to three times that 
of the average 1994 Concorde/Taurus/Lumina automobiles with equivalent 
cost of ownership adjusted for economics.
    Technologies developed in the pursuit of Goals 1 and 2 are 
incorporated into the vehicle as they become economically feasible. At 
the outset of the PNGV an aggressive timetable was developed for 
achieving Goal 3, the most ambitious of the goals. This timetable 
included three major milestones: (1) by the end of 1997, identify the 
most promising technologies for meeting PNGV goals and focus continued 
research on these technologies, (2) develop concept vehicles employing 
combinations of the most promising technologies by the end of 2000, and 
(3) develop production prototype vehicles by the end of 2004.
    The first of these milestones was completed on schedule with the 
selection of the most promising technologies for meeting the PNGV 
goals. With the recent introductions of the PNGV concept cars (Ford's 
Prodigy, DaimlerChrysler's ESX 3, and General Motor's Precept), the 
second milestone has been achieved as well. The three PNGV concept cars 
were displayed for the first time together at an event held on March 
30, 2000, with Vice President Gore and representatives of each of the 
three companies. Work is ongoing to develop production prototype 
vehicles by the end of 2004.
    Question. How does progress to date compare to the program goals 
originally laid out for the program?
    Answer. A number of Goal 1 and Goal 2 technologies have already 
been incorporated into vehicle production. Intelligent induction 
hardening of suspension parts, reduced rolling resistance tires and 
single-piece composite truck beds are examples. More are in the 
pipeline. With the display of Ford's Prodigy, DaimlerChrysler's ESX 3, 
and General Motor's Precept, PNGV Goal 3 progress is also on schedule. 
These vehicles achieve fuel economy of between 72 and 80 miles per 
gallon, gasoline equivalent. A brief discussion of each of the vehicles 
is provided below.
    The Prodigy was displayed by Ford at the 2000 Detroit North 
American International Automobile show. It is a diesel-electric hybrid 
family sedan capable of getting 72 mpg (gasoline equivalent) [80 mpg 
diesel] while retaining performance levels expected by the consumer. 
Its body is made of aluminum and the vehicle weighs 2,387 pounds. The 
battery uses nickel-metal hydride technology, assisted over the years 
by DOE efforts.
    The ESX3 Prototype was unveiled on February 22nd. This is 
DaimlerChrysler's PNGV concept vehicle. It is a mild hybrid electric 
vehicle (a ``mybrid'') and it consists of a 3-cylinder, 1.5-liter all-
aluminum direct-injected diesel engine (55 kW peak power) with an 
electric motor (15 kW peak power), and a lithium-ion battery. The 
vehicle is designed to use low-sulfur diesel fuel. The body is made of 
low-cost, low-weight thermoplastic body panels. The entire vehicle 
weighs 2,250 lbs, is 80 percent recyclable, and meets all federal 
safety standards. Another innovation incorporated in this vehicle is 
the electro-mechanical automatic transmission (EMAT) which provides the 
fuel efficiency of a manual transmission and the convenience of an 
automatic transmission.
    GM's hybrid electric vehicle, the Precept, achieves 80 mpg 
(gasoline equivalent) and utilizes a 35 kW three-phase electric motor 
that powers the front wheels, and a lean-burn compression-ignition, 
direct-injection (CIDI) heat engine driving the rear wheels. It can use 
either nickel metal hydride batteries or lithium polymer batteries. The 
Precept concept vehicle features numerous innovations, including an 
aluminum alloy frame; spun disk lightweight aluminum wheels; all-LED 
signal and interior lighting; polymeric roof panel, fascia and rockers; 
and open-mesh seats. The Precept has a 0.163 coefficient of drag, which 
is the lowest ever achieved on a 5-passenger sedan (world record) and 
less than half that of a typical family sedan. The weight of this 
hybrid vehicle is 2,875 pounds
    Question. What are the major barriers remaining to the achievement 
of PNGV goals?
    Answer. While the PNGV has made tremendous progress in the past 
seven years, major technology barriers remain, including the size, 
weight, and cost of individual components. In addition to these 
barriers, the reliability of these technologies, both individually and 
in the context of a system, needs to be demonstrated. Thus, the PNGV 
continues to pursue an aggressive research and development program to 
address these technical barriers and to demonstrate reliability in the 
technology areas of fuel cells, advanced combustion and exhaust 
aftertreatment, lightweight materials, advanced petroleum based fuels, 
and hybrid vehicle systems. At the same time, some PNGV-related 
technologies and methods are already being applied to today's mass 
production vehicles.
    Considering fuel cells as one example, major barriers include cost, 
durability and demonstration of integrated systems running on common 
transportation fuels, such as gasoline. Durability to 1,400 hours has 
been demonstrated at the cell level, but much work remains to 
demonstrate integrated systems durability to the PNGV year 2004 goal of 
5,000 hours. Also, recently demonstrated was the ability to cold start 
a fuel cell at -4 deg.F (-20 deg.C). The fiscal year 2000 demonstration 
of integrated systems running on gasoline is expected to be successful. 
The technical targets for power density and specific power (250 W/l, 
250 W/kg) are projected to be met, but start-up time and transient 
response will likely fall short of targets. System cost for mass 
production of today's technology is estimated to be approximately $300/
kW, six times the PNGV 2004 goal of $50/kW, a substantial improvement 
from the 1999 estimated cost of $500/kw. Supportive policies, such as 
tax credits, may be necessary to overcome initial cost premiums for 
advanced technologies.

            FEDERAL ENERGY TECHNOLOGY CENTER AS NATIONAL LAB

    Question. I commend your action this past December to establish the 
Department's newest National Laboratory at what was formerly the 
Federal Energy Technology Center. I'm certain Sen. Byrd will agree that 
it is time that fossil fuel research was carried out at a center with 
national laboratory status. But again, we are concerned that at the 
same time you have elevated the status of fossil fuel research you have 
decreased its budget. What do you see as the future of funding at the 
new National Energy Technology Laboratory in West Virginia and 
Pennsylvania?
    Answer. Since the work at NETL will be based on the long tradition 
of FETC and its predecessor organizations, it is expected that the 
existing model for funding will remain largely unchanged. That is, the 
bulk of NETL's work will be in support of the Office of Fossil Energy. 
Also, an increasing portion of NETL's work is provided in support of 
the Office of Energy Efficiency and Renewable Energy. Since NETL 
specializes in fossil fuel research, future funding will continue to 
depend upon the funding provided largely through the Office of Fossil 
Energy and the Office of Energy Efficiency and Renewable Energy.
    Question. Are there new initiatives that accompany the new national 
lab designation?
    Answer. Since NETL's designation as a national laboratory is 
heavily dependent on the quality of on-site research, NETL's on-site 
research program is being restructured to focus intense efforts in 
several areas viewed as key in the development of advanced fossil 
energy systems. One such area is computational science. Computational 
science activities will support advanced research for clean, highly 
efficient fossil energy plants of the future by developing and using 
computational tools, such as mathematical models, to provide science-
based predictive simulations and related information that will allow 
faster technology development. Another area, carbon sequestration, will 
address scientific issues with potential capture of carbon emissions 
from fossil fueled energy plants.
    The Strategic Center for Natural Gas is also being established at 
NETL. One function of the center will be to perform studies on the 
impact of various policy actions and thereby support the development of 
more effective natural gas policy within DOE. Another key function will 
be providing a coordination role for all gas related activity within 
DOE, and identifying gaps in existing R&D programs as well as newly 
developing research needs. The details of operation of the Strategic 
Center for Natural Gas are still being resolved within the Department. 
It is anticipated that implementation of existing fossil energy gas 
programs will be accomplished by the Strategic Center. For fiscal year 
2001 a new program in Gas Infrastructure Reliability has been proposed 
that will be implemented through NETL.
    NETL will also continue to conduct research in areas such as clean 
fuels for transportation applications, advanced clean and efficient 
energy plants using fossil fuels, and environmental issues related to 
fossil energy use. The transition to a national laboratory will take 
several years, and it is anticipated that additional focus areas will 
be established in future years.

                   LOW EMISSION BOILER SYSTEM (LEBS)

    Question. This Committee has appropriated $27 million in support of 
the LEBS program that has not yet been spent due to challenges in 
siting the demonstration plant. What is the current status of the LEBS 
program?
    Answer. Although the original plans for the LEBS project has been 
on hold, Corn Belt Energy recently expressed an interest in the project 
to D.B. Reilly (the plant developer) and is performing due diligence 
before committing to the project. Corn Belt Energy, an electric 
cooperative, is interested in being a plant operator with a long-term 
fuel contract. The site in Elkhart, Illinois, is in their territory and 
assuming the bus bar cost meets their target, Corn Belt Energy has 
indicated it would be interested in purchasing power and owning the 
LEBS proof-of-concept plant. A decision by Corn Belt Energy on whether 
to go forward is expected early this summer pending the outcome of the 
due diligence analysis.
    Question. Is a suitable site likely to be found for the proposed 
demonstration plant?
    Answer. Yes. Currently, Corn Belt Energy is considering a suitable 
site to be located in Elkhart, Illinois (near a mine of Turris Coal 
Company). Corn Belt Energy has hired an engineering firm to review the 
engineering, procurement, and combustion bids received and to advise 
them on the feasibility, both economic and technical, of the LEBS 
proof-of-concept plant.
    Question. Does the Department have any plans for reallocating funds 
that have been appropriated for LEBS if a suitable site cannot be 
found?
    Answer. If a firm commitment for the proof-of-concept plant located 
in Elkhart, Illinois, is not forthcoming by the end of the third 
quarter of this fiscal year, then the Department will recommend to 
Congress a reallocation of the funds for other fossil research areas. 
The funds reallocated would be those remaining after mutually agreeing 
to a scope of work to conclude Phase IV of the existing contract.

                               FUEL CELLS

    Question. There has been a lot of interest recently in fuel cells-
which this Subcommittee has supported, both for stationary power 
applications and for transportation. Would you comment on your views of 
fuel cell technology?
    Answer. Fuel cell technology is extremely important. Fuel cells 
have the potential to revolutionize power generation and open new 
frontiers in transportation applications because of their inherently 
clean and efficient service. Fuel cells systems have few moving parts, 
making them reliable and quiet as well. No solid wastes are produced 
and the emissions of pollutants are negligible. Fuel cells technology 
can be expected to contribute substantially to the reduction of 
greenhouse gas emissions, provide low-cost reliable energy, enhance 
productivity, and establish new domestic industries worth billions in 
sales and providing hundreds of thousands of jobs. If the Office of 
Fossil Energy is successful in achieving its $400/kW goal in its 21st 
Century Fuel Cell Program, fuel cells are likely to take over a very 
large share of the power generation market.
    Question. Are we getting closer to seeing fuel cells enter the 
market for stationary power applications? For transportation markets?
    Answer. The emergence of fuel cells comes at an opportune time. An 
unprecedented expansion in electricity need is forecasted, retail 
electric deregulation is underway, and public environmental policy is 
placing a premium on efficiency and environmental performance.
    The first commercial fuel cell on the market, the phosphoric acid 
fuel cell, proved that early entry markets exist to sustain their 
relatively high initial costs. More than 200 of these 200-kilowatt 
units have been manufactured for sale in the U.S., Japan, and Europe. 
Thirty units have been successfully demonstrated by the DOD in combined 
heat and power applications, where the economic criteria was for each 
application to generate $25,000 per year in energy savings which would 
cover annual maintenance costs. The premium power market in the U.S. 
alone is conservatively estimated at $1 billion per year. The U.S. EPA 
estimates that the current global market opportunity for fuel cells is 
40-50 gigawatts.
    The next generation of advanced fuel cells, comprised of high-
temperature natural gas-fueled molten carbonate and solid oxide fuel 
cells is nearing commercial introduction. Tests are underway at Fuel 
Cell Energy that should enable commercial prototype molten carbonate 
fuel cell systems to be demonstrated and ensure market entry for DG 
applications in the 250 kW-2 MW range by 2003. Successful test of the 
Siemens Westinghouse 100 kilowatt solid oxide fuel cell systems have 
validated the building block element for a multi-megawatt size combined 
heat and power systems, providing a foundation for future commercial 
sales in the 2003 timeframe. The world's first fuel cell/turbine hybrid 
system will begin testing in May 2000 at the National Fuel Cell 
Research Center. This effort is expected to conclude in 2003 with fuel 
cell/gas turbine combined cycle field test in multi-megawatt size for 
distributed generation applications.
    During the past 2 years, automobile manufacturers throughout the 
world have announced or demonstrated fuel cell concept vehicles--
evidence that the auto industry is seriously considering the 
introduction of fuel cell vehicles into the future market. Interest in 
automotive fuel cells has been sparked by the tremendous progress made 
in the development of proton-exchange membrane (PEM) fuel cells over 
the past 7 years--primarily through the DOE Transportation Fuel Cell 
Program. However, significant performance improvements and cost 
reduction are necessary before automotive fuel cell power systems will 
be competitive with internal-combustion engines. Development of 
compact, quick-start, on-board fuel processors are required to utilize 
the existing petroleum-based fuel infrastructure for early introduction 
of fuel cell vehicles. Research and development of low-cost, high-
volume fabrication processes for fuel cell components is necessary to 
reduce the cost of fuel cells from the current high-volume projected 
cost of $300/kW to $30/kW. In addition, durability of 5,000 hours 
(comparable to 100,000 miles) must be demonstrated. At the current 
Government and industry level of activity, technical progress will lead 
to automotive market introduction in the 2010-2015 time frame.

                                TURBINES

    Question. We saw the Department's announcement recently that 
General Electric had unveiled its advanced gas turbine-which it 
developed in partnership with the Energy Department. We understand that 
this turbine is unsurpassed in its efficiency and environmental 
performance. I believe you were present in Greenville, South Carolina, 
when GE announced the new turbine. Isn't this one of the Department's 
best ``success stories?''
    Answer. Yes, this is one of our best success stories both in terms 
of technology breakthroughs and as a great example of a very effective 
government/industry partnership. The turbine is the culminating 
achievement of the Department of Energy research and development effort 
that began in the early 1990s when GE was one of six developers 
selected to begin designing concepts for a breakthrough turbine system. 
The development effort received a major boost in 1993 when it was 
included in President Clinton's Economic Stimulus Program.
    Designed to work in a ``combined cycle'' power plant-a plant that 
combines gas turbines and steam turbines to product electricity-the H 
System will be the most efficient power generation system in the world. 
It will be the first gas turbine to top the 60 percent efficiency 
threshold-the ``4-minute mile'' of the turbine technology. When the 
Energy Department began its advanced turbine development program in the 
early 1990s, the best turbines available had efficiencies of about 50 
percent.
    Because fuel represents the largest single cost of running a power 
plant, an increase of 10 percentage points in efficiency can reduce 
operating costs by as much as $200 million over the life of a typical 
gas-fired 400-500 megawatt combined cycle plant.
    The turbine also operates cleaner than any of today's utility gas 
turbines. Its nitrogen oxide emission levels of 9 parts-per-million 
will be half the average of the turbines now in use, making the new 
technology suitable for siting in the Nation's most environmentally 
constrained areas.
    In addition, the H System turbine will produce the fewest tons of 
carbon dioxide per kilowatt of electricity of any gas turbine available 
today. When deployed commercially, it can make a significant 
contribution toward reducing greenhouse gases that can cause global 
warming.
    Natural gas turbines are expected to make up more than 80 percent 
of the power generating capacity to be added in the United States over 
the next 10 to 15 years. Of the more than 200 new power plant projects 
announced recently in the United States, 96 percent plan to use natural 
gas and most will employ gas turbines. Globally, the turbine market 
also promises to be huge with worldwide power generation perhaps 
approaching $100 billion over the next decade.
    Question. What will the cumulative impacts of this new technology 
be over time in terms of energy savings, emissions reductions, and 
other program goals?
    Answer. Compared to an existing coal-fired power plant, the ATS 
combined cycle gas turbine plant will produce 65 percent less 
CO<INF>2</INF> and 96 percent less NO<INF>X</INF>. The cumulative 
impacts of the ATS have been estimated by the Windsor Group in the 
Economic Impact Assessment of DOE Fossil Energy's ATS program. They 
projected cumulative savings of emissions, fuels during the period of 
2000-2010 as follows: 620 million tons of NO<INF>X</INF>, and 120 
million BTU of energy savings, expanding to a 20-year horizon, the 
total net present value of fuel savings equals $3.5 billion.
    Question. Your testimony indicates that the Department proposes to 
shift focus in the turbines program to mid-size turbines. What unique 
challenges are presented by mid-size turbines that require an 
additional Federal investment?
    Answer. The Natural Gas Turbine (NGT) Program will be comprised of 
three major elements: (1) systems development, (2) supporting research 
and development, and (3) Vision 21 integration.
    Systems development will support the development of intermediate 
size turbine systems for the new, emerging deregulated power generation 
markets in the United States. The product would be designed to serve a 
market for mid-range power (4000-6000 hours per year). In order to do 
this, the gas turbine needs to achieve efficiency improvements of at 
least 15 percent (LHV) on natural gas and needs to have a cost in $/kW 
close to a large, simple cycle gas turbine.
    Supporting research and development will broadly support all gas 
turbine development and operation and will be conducted by university/
industry consortiums, national labs, research institutes, and NETL. 
Technology development needs include high temperature materials and 
coatings, integration of aircraft technology into industrial designs, 
robust combustion systems, advanced cooling schemes, advanced systems 
operation, and life cycle cost reduction.
    Vision 21 integration focuses on very high efficiency hybrid 
turbine/fuel cell systems and advanced cycles for central station and 
other large power plants. DOE's Office of Fossil Energy will conduct 
hybrid activities in collaboration with DOE's Office of Energy 
Efficiency and Renewable Energy and with Fossil Energy's Fuel Cell and 
Vision 21 Programs.
    Question. Can't the technologies developed in the industrial 
turbine program simply be adapted by the private sector for use in a 
mid-size product?
    Answer. No, the mid-size turbine systems have unique challenges 
such as intercooling, can combustion systems rather than annular 
systems, pressure ratios which are up to five times higher than the ATS 
industrial systems, and often operate in combined cycles utilizing coal 
or other syngases. NETL is also jointly planning with the Navy for 
future electric ships to enable the Navy to utilize the commercial 
technologies resulting from the mid-size turbine program. The Navy 
requires that future technology be commercially available. This 
coordination will enable both the U.S. power generation industry and 
the Defense Department to leverage technology developments in this 
turbine system size range. Both the Navy and the deregulated power 
industry require similar operating characteristics for future turbine 
systems.
    Question. In terms of priorities for Federal spending, how does the 
Department view further development of mid-size turbines vs. 
microturbines?
    Answer. Mid-size turbines (30-150 MW) and microturbines (20-1000 
kW) fill very different needs for the U.S. power system and its energy 
consumers. Mid-size turbines will serve a market for mid-range power 
(4000-6000 hours/year) providing new capacity and also enabling 
retrofit and repowering for civilian and military applications. Because 
mid-size turbines will be fuel flexible, they will expand the options 
for high-efficiency conversion of domestic fuels into electric power. 
In the near term, mid-sized turbines will be suitable for new capacity, 
repowering of older fossil units, combined heat and power applications, 
and as efficiency enhancement units for existing fossil-fueled steam 
plants. In the long term, they will be adapted and integrated into 
Vision 21 fossil-fueled plants. Microturbines are part of the 
Department's distributed energy resources portfolio that addresses 
smaller-scale power generation technologies that are located at or near 
the point of use. This includes use in the industrial, commercial, 
institutional, and residential sectors of the economy. These 
technologies are controlled locally to optimize performance and satisfy 
needs for electricity and thermal energy and can also be used with 
desiccant systems to improve indoor air quality of buildings. Other 
applications include in remote locations too far from existing power 
grids to justify a line extension, including village power and 
applications are for consumers connected to a power grid, but for whom 
power supply problems are extremely detrimental to their business, 
quality of life or economic health.
    Both mid-size turbines and microturbines merit the Department's 
investment to ensure that the technology be the most fuel efficient, 
fuel flexible with high reliability, availability, maintainability and 
durability, low emissions and low cost of power.
    Question. Does one area of research of larger potential payoffs 
than the other in terms of emissions reductions, energy savings, and 
other such broad departmental goals?
    Answer. Both mid-size gas turbines and microturbines support the 
Department's Comprehensive National Energy Strategy to improve the 
efficiency of the energy system, ensure against energy supply 
disruptions, expand future energy choices, and promote energy 
production and use in ways that respect health and environmental 
values. Additionally, they support the Department's Six Point Plan 
announced by the Secretary to address power outages. In that plan, the 
sixth point is concerned with easing generation and transmission 
capacity shortages by developing both advanced generation and 
transmission technologies, which would include both mid-size turbines 
and microturbines. Recently in a report released by the Secretary's 
Power Outage Study Team (POST), the recommendations recognized the need 
for removing barriers to distributed energy resources and engaging the 
participation of energy providers and end-use customers in the 
competitive market. Uncertainty of the restructuring electricity 
marketplace requires a suite of technologies that have the ability to 
be quickly implemented based on the market conditions. A 1999 A.D. 
Little report concluded that a large market and substantial public 
benefits will accrue from the development of flexible mid-sized 
turbines. Likewise, market studies by EPRI and GRI predict a 
substantial market and accrued public benefits from the deployment of 
distributed energy resources, including microturbines. By addressing 
both microturbines and mid-size turbines, the United States and its 
energy consumers will both benefit from an electric power system that 
is reliable, secure, and environmentally friendly.
    Question. Does one area of research require Federal involvement 
more than the other?
    Answer. Although the budget requests are not identical, both 
programs are high priority items in the Administration's proposal.

                          CARBON SEQUESTRATION

    Question. One of the areas of the Fossil Energy budget where you 
have increased funding is for research into capturing and sequestering 
greenhouse gases. In a speech you gave to a Clean Coal Technology 
conference in Tennessee last summer, you called carbon sequestration 
the world's ``3rd option'' for greenhouse gas control--joining energy 
efficiency and the greater use of low- or no-carbon fuels like natural 
gas and renewable energy. Can we expect to see the Department continue 
to elevate this research as one of the primary options for greenhouse 
gas controls if it turns out these controls are needed?
    Answer. Yes. The Fossil Energy budget for sequestration has grown 
from $1.5 million in fiscal year 1998, to $5.8 million in fiscal year 
1999, to $9.2 million in fiscal year 2000, to a request for $19.5 
million in fiscal year 2001. That rapid scaleup reflects the level of 
importance we place on this program. In order to achieve our program 
goals for this family of technologies, we would expect funding to 
continue to grow over the next few years. Given the potential 
consequences of a continuation in the increase of concentrations of 
greenhouse gases in the atmosphere, this level of research seems like a 
very cost-effective insurance policy.
    Question. Isn't carbon sequestration especially important as a 
global greenhouse gas control option since it is the only option that 
doesn't require wholesale changes in the energy infrastructure of 
countries like China or India?
    Answer. One of the more attractive attributes of carbon 
sequestration is that it works well with the energy infrastructure that 
we have, and with the low-cost energy resources which exist in rapidly 
expanding economies like China's and India's. In reality, the 
flexibility of sequestration goes beyond infrastructure. For new power 
stations and other major emission points of carbon dioxide, 
sequestration options can be designed into the technology, to maximize 
efficiency and minimize cost. For carbon dioxide already in the 
atmosphere, or released from sources which are difficult to retrofit, 
indirect sequestration has the potential to extract carbon dioxide 
directly from the atmosphere and store it in an environmentally benign 
manner for very long periods of time, or even permanently. Also, if our 
current development cost goal of $10/ton of carbon is achieved (which 
translates to a two tenths of a cent per kWh), it may be deployable 
without regulatory incentives.

                           PM 2.5 MONITORING

    Question. The Statement of Managers accompanying the fiscal year 
2000 bill urged the Department to coordinate its activities on PM 2.5 
monitoring with industry, state and university research efforts to 
``clarify the uncertainties in the current understanding of fine 
particulate matter concentration, chemical composition and the 
relationship between personal exposure and ambient air quality.'' What 
is the Department's level of spending to date, and its requested level 
in fiscal year 2001, on its PM 2.5 monitoring efforts?
    Answer. The total expenditures for fiscal year 1998-fiscal year 
2001 have been $5.053M and the fiscal year 2001 request is for 
$500,000.
    Question. What are the Department's plans for coordinating its 
efforts with industry, state, and university research in this area to 
comply with the language in the Statement of Managers? Answer. DOE is 
coordinating its PM2.5 ambient monitoring efforts in the Steubenville 
area with an industry-sponsored study that seeks to compare indoor/
outdoor PM concentrations with personal exposure measurements. This 
industrial study is a cooperative agreement with the Nation's leading 
coal producer (CONSOL, Inc). Co-sponsors of this effort are the Ohio 
Coal Development Office, Electric Power Research Institute, National 
Mining Association, American Iron and Steel Institute, and American 
Petroleum Institute. Harvard University is a major subcontractor to 
CONSOL, Inc.
    DOE participates in the PM Research Coordination Working Group of 
the Committee on Environment and Natural Resources, Air Quality 
Research Subcommittee. The purpose of the group is to foster 
coordination of the resources of the federal government on airborne 
particulate matter research. DOE is coordinating its PM2.5 monitoring 
activities with those of EPA's university-based Eastern United States 
Supersites, and State and local agencies operating EPA's network of 
PM2.5 chemical speciation sites.
    DOE is a member of the Executive Assembly of NARSTO (North American 
Research Strategy for Tropospheric Ozone) and coordinates its PM 
research efforts with those of other NARSTO members. DOE is a member of 
the Advisory Committee for NARSTO's Northeast Ozone and Particulate 
Research Study. DOE coordinates its PM research activities with State 
and local air quality agencies via participation in technical meetings 
of the Mid-Atlantic Regional Air Management Association (MARAMA).
    DOE regularly hosts meetings at its National Energy Technology 
Laboratory to provide a forum for discussion of how the various PM2.5 
monitoring and analysis efforts can work together to enhance the 
overall scientific quality of the work, and to make the results as 
useful as possible to other researchers and users of air quality data.

                        ENERGY EFFICIENCY--21-CR

    Question. Since late 1997, DOE has worked with industry to develop 
a technology roadmap to develop improvements in the heating, 
ventilation, air-conditioning and refrigeration (HVAC&R) sector--a 
sector that represents nearly 30 percent of energy usage in U.S. 
buildings. In 1998, DOE accepted the Air-Conditioning and Refrigeration 
Technology Institute's (ARTI) initiative entitled HVAC&R Research for 
the 21st Century (21-CR) as one of its four technology roadmaps. 
Throughout 1998 and 1999 DOE has voiced support, through public 
comments and budgeting documents, for 21-CR. Last year this committee 
provided $4 million for refrigeration technologies. The committee 
indicated its support for 21-CR and urged the DOE to continue and to 
increase its support for the 21-CR program. How is the Department 
implementing this report language?
    Answer. When the Department accepted 21-CR as its HVAC&R road map, 
it was with the clear understanding that the process be genuinely 
inclusive. ARI was known as a traditional refrigeration and heating 
organization with little tie to natural gas or other promising heating 
and cooling technologies. As the 21-CR process evolved, it became more 
evident that ARI was not successful in engaging the natural gas or 
other industries and that the vast majority of projects were for just a 
part of the HVAC&R universe. However, the Department accepts 21-CR for 
what it is: a good effort to advance that part of the HVAC&R research 
agenda.
    In fiscal year 2000, we increased our support for 21-CR by 50 
percent to $1.5 million. This increase is a prudent approach as 21-CR 
is in the startup phase and has not developed a robust project 
evaluation and selection methodology. Further, the industry cost share 
in fiscal year 2000 is very modest compared to the public sector 
funding.
    Question. At what funding level has the Department budgeted for 21-
CR for fiscal year 2001?
    Answer. Consistent with the level funding requested for 
Refrigeration in fiscal year 2001, the Department is planning to 
continue funding for 21-CR at a comparable fiscal year 2000 funding 
level. While the Department supports the work of the Air Conditioning 
and Refrigeration Technology Institute (ARTI) and believes it can 
advance the efficiency of air conditioning and heating equipment, we 
have several concerns that we have shared with the leaders of ARTI. 
First, we have expressed concern about industry's commitment to cost 
sharing. Industry cost-sharing was 39 percent in fiscal year 1999, the 
first year of operation for the ARTI 21-CR program, and is expected to 
decline to 22 percent in fiscal year 2000. Furthermore, ARTI's 
application for fiscal year 2000 funding only contained about 10 
percent in industry cost share. This level does not meet the minimum 20 
percent cost share as required by EPAct and codified in CFR 600. 
Second, the Department is working with ARTI to develop a more rigorous 
project selection process and is working with them to ensure an 
appropriate research portfolio is maintained consistent with the road 
map process.
    Question. Would the Department object to a $3.5 million earmarking 
for the 21-CR effort for fiscal year 2001?
    Answer. The Department feels a $3.5 million earmark for the 21-CR 
would be inappropriate. We support the activities at ARTI, but are very 
concerned about the effect this would have on other ongoing 
refrigeration R&D. This is nearly 83 percent of our $4,230 request for 
Refrigeration in fiscal year 2001 and would preclude other ongoing 
projects that are part of a balanced portfolio of HVAC&R research, 
development and deployment. As well as a continuation of the work with 
ARTI described above, the Department's request for fiscal year 2001 
includes ongoing research in supermarket refrigeration, and residential 
applications for air conditioners, heat pumps, and heat pump water 
heaters at Oak Ridge National Laboratory and improved thermal 
distribution systems at Brookhaven National Laboratory. The impacts of 
the suggested earmark would eliminate all but one of these areas of 
investigations, with the commensurate loss of established expertise. In 
terms of cost sharing, we do believe that industry is in a position to 
provide appropriate cost-sharing for that level of funding.
    Question. What does the Department expect to budget for the ARTI 
program in fiscal year 2002?
    Answer. The Department is currently engaged in its planning process 
for the 2002 budget request and a role for ARTI is being considered as 
part of this process. Such a role is being considered in the context of 
funding requirements to complete work in supermarket refrigeration and 
thermal distribution systems, continuing other areas of the base 
program, and the need to cover ``mortgages'' on competitively-selected 
projects initially funded from Technology Road Maps and Competitive R&D 
in fiscal year 2000 and fiscal year 2001.

                            ASHRAE STANDARDS

    Question. What have you done to ensure that the ASHRAE rulemaking 
complies with the Committee's directive and the terms of Executive 
Order 13123?
    Answer. ASHRAE (the American Society of Heating, Refrigerating, and 
Air-Conditioning Engineers) is a private, voluntary professional 
organization that produces industry consensus standards related to 
buildings and their equipment. ASHRAE Standard 90.1 is the current 
version of their professional standard addressing energy consumption in 
commercial buildings (such as office buildings). It is under the ASHRAE 
Standard 90.1 that the issue of site vs. source and the Executive Order 
13123 have been most relevant to DOE. DOE is authorized and encouraged 
to participate in the ASHRAE process by OMB Circular 119 and the 
subsequent legislation ``Technology Transfer Act of 1995.'' In brief, 
these documents authorize and encourage DOE and other federal agencies 
to participate in the industry consensus process, in lieu of federal 
agencies setting separate standards. In no way, however, do these 
documents or any other federal authorization allow DOE to dictate the 
standards process of a private sector organization. Nonetheless, we can 
report that there is consistency between the ASHRAE Standard 90.1, the 
Executive Order, and the related DOE programs.
    ASHRAE guidelines are voluntary for builders and contractors and do 
not, in and of themselves, have any legal authority. Section 304(b) of 
the Energy Conservation and Production Act (ECPA), as amended by the 
Energy Policy Act (EPACT), requires states to certify that they have 
reviewed and updated their commercial building energy code to meet or 
exceed ASHRAE Standard 90.1. Most states have adopted a version of 
ASHRAE Standard 90.1 written in code-enforceable language, or some 
version thereof. Several states (such as California) have chosen to use 
source-based energy (or total energy consumed over the full energy 
cycle) in their commercial building energy codes, although most states 
use the site-based language found in ASHRAE 90.1.

                   FEDERAL ENERGY MANAGEMENT PROGRAM

    Question. This subcommittee has been very supportive of the Federal 
Energy Management Program (FEMP) in recent years, and the Department 
itself has made the program a high priority. The Department has also 
made bold predictions with regard to the savings that could accrue to 
the Federal Government from the FEMP Program. Please provide for the 
record a summary of FEMP's performance over the past three years, and 
an analysis of how that performance has measured against departmental 
forecasts.
    Answer. FEMP predicted that the market for Super ESPC Delivery 
Orders would significantly increase following establishment of the 
regional IDIQ (Indefinite Delivery Indefinite Quality) process. FEMP 
has seen a notable increase in ESPC projects across the country at a 
wide variety of agencies. In fiscal year 1998 there were 5 SuperESPC 
projects with an investment value of $6.7 million, and in fiscal year 
1999 there were 16 projects with $40.3 million of investments. FEMP did 
expect to complete a higher number of projects through the SuperESPC 
project and projections for delivery order investments were based on 
the assumption that all alternative financing would be done through 
FEMP's ESPC program. In the meantime, both the Army and Air Force have 
implemented their own SuperESPC program and utilities have also 
provided public sector financing for agency energy conservation 
projects. The investment value of all these alternative financing tools 
is about the same as our early predictions.
    Question. Assuming FEMP receives the amount requested for fiscal 
year 2001, what does the program expect to achieve in the next two 
fiscal years?
    Answer. FEMP's goals in fiscal year 2001 is to award 42 delivery 
orders, assist agencies with alternatively financed projects and green 
power purchases, conduct workshops on utility restructuring, provide 55 
energy audits, provide 40 design assistance projects, provide 25 
renewable projects, train 6,000 personnel and develop 30 technical 
transfer products and 3 new technology demonstrations. FEMP will also 
collect data, consolidate federal reports, and publish the Annual 
Report to Congress and the President.
    Question. How would these predictions be affected if program 
funding remained at the fiscal year 2001 level?
    Answer. FEMP would have to provide a lower level of assistance if 
the funding remained at the fiscal year 2000 level. For example, we 
could assist with fewer delivery orders, we would provide fewer energy 
audits, etc.
    Question. Are there statutory or regulatory barriers that exist 
which hinder further progress in the FEMP program?
    Answer. FEMP is working to provide through the budget 
appropriations process language that would allow for expansion of ESPC 
authority to include water conservation and to raise the congressional 
notification ceiling. Eventually, to help the Alternative Financing 
Program, FEMP would like to see statutory changes in the area of 
mobility, new construction, and leased buildings also.

                 GOVERNMENT PERFORMANCE AND RESULTS ACT

    Question. How are the agency's annual performance goals linked to 
the agency's mission strategic goals, and program activities in its 
budget request?
    Answer. The annual performance goals are organized and listed under 
the decision units that support them and the performance goals 
themselves identify the strategic goals they support. The decision 
units are aggregations, disaggregations, or both aggregation and 
disaggregation or combinations of program activities lines in DOE's 
budget request.
    Question. Could you describe the process used to link your 
performance goals to your budget activities?
    Answer. The performance goals were established by the budget 
activities and are presented with their decision unit.
    Question. What difficulties, if any did you encounter, and what 
lessons did you learn?
    Answer. The difficulties we encounter are developing performance 
goals that appropriately represent the funded program activity and are 
outcome based. The measures are getting better with use. The lesson is 
that good performance goals are developed through experience.
    Question. Does the agency's Performance plan link performance 
measures to it's budget?
    Answer. Yes. Performance measures are organized and presented with 
the budget's decision units.
    Question. Does each account have performance measures?
    Answer. In some areas, the program's direction is a separate 
account from the technical program accounts and in some cases the 
account is too small to have a performance measure that is appropriate 
for the overall Departmental-level performance plan. These program 
direction accounts support the management of technical programs and the 
salaries and benefits of the Federal staff and therefore, do not have 
performance goals separate from the performance goals of the technical 
programs are proposed for this function.
    Question. To what extent does your performance planning structure 
differ from the account and activity structure in your budget 
justification?
    Answer. At the beginning of each section of the Annual Performance 
Plan is a table that maps the Presidential Budget's Program and 
Financing (P&F) accounts and program activities to the Department of 
Energy's offices and decision units. Many of the P&F accounts are the 
same as the DOE decision units but other alignments include 
aggregation, disaggregation, or both aggregation and disaggregation and 
consolidation.
    Question. Do you plan to propose any changes to your account 
structure for fiscal year 2000?
    Answer. No account structure changes are planed.
    Question. Will you propose any changes to the program activities 
described under that account structure?
    Answer. No changes to the program activities are planned.
    Question. How were performance measures chosen?
    Answer. The majority of performance measures evolved from the 
performance measures the Department has developed and used in the 
Secretary's Performance Agreement with the President each year since 
fiscal year 1995. Modifications, additions, and deletions were proposed 
by the program offices. The set of criteria for acceptable performance 
measures that we developed through experience with the Performance 
Agreements is included in the back of annual performance plans. The 
criteria that guide the development of performance measures describe 
how we want the measures to be presidential, specific, quantified, 
meaningful, stretching, concise, written for taxpayers, covering, and 
auditable.
    Question. How did the agency balance the cost of data collection 
and verification with the need for reliable and valid performance plan?
    Answer. The Department relied on program managers to use their 
judgement in the development of the data collection and verification 
needs based on several years of using performance measures and having 
them meet the auditable criteria. Since fiscal year 1996, the results 
against the performance measures in the Secretary's Performance 
Agreement with the President have been the basis of the overview of the 
Department's audited financial statements and therefore subject to 
audit. Our program managers generally understand the need for reliable 
data to both manage and report performance of the Department's 
programs.
    Question. Does your plan include performance measures for which 
reliable data are not likely to be available in time for your first 
performance report in March 2000?
    Answer. Yes, it did. There were 4 measures out of the 211 for which 
data was not available by the time of the annual report. However, they 
were not material to evaluating the performance for any program 
activity
    Question. What are the key performance goals from your fiscal year 
1999 Annual Performance Plan that you recommend this subcommittee use 
to track program results?
    Answer. Key performance goals for fiscal year 1999, fiscal year 
2000 and fiscal year 2001 are provided side by side in the fiscal year 
2001 Annual Performance Plan. We recommend that the subcommittee use 
the group of measures under each fiscal year to track and assess the 
program results.
    Question. For each key annual goal, indicate whether you consider 
it to be an output measure (``how much'') or an outcome measure (``how 
well'').
    Answer. In the fiscal year 2001 Annual Performance Plan we have 
presented the outcome based measures where they have been developed in 
the introductory portion for the decision unit. The output measures are 
contained in the three-column tables. To the extent we can, we include 
the planned outcome within the statement of the output measures.
    Question. State the long-term (fiscal year 2003 general goal and 
objective from the agency Strategic Plan to which the annual goal is 
linked.
    Answer. Each annual goal identifies the general goal of the 
Strategic Plan that it is linked to.
    Question. In developing your Annual Performance Plan, what efforts 
did your agency undertake to ensure that the goals in the plan include 
a significant number of outcome measures?
    Answer. We believe every output measure contributes to an outcome. 
To the extent we can, we include the planned outcome within the 
statement of the output measures.
    Question. Do you believe your program managers understand the 
differences between goals that measure workload (output) and goals that 
measure effectiveness (outcome)?
    Answer. Yes. We believe they do.
    Question. What are some examples of customer satisfaction measures 
that you intend to use (please include examples of both internal and 
external customers)?
    Answer. Customer satisfaction measures from our fiscal year 1999 
Performance Plan were the following:
    Conduct self assessments to measure organizational performance in 
the areas of Customer Satisfaction, Employee Satisfaction and the 
achievement of Business Results using the Malcolm Baldrige, President's 
or Energy Quality Award Criteria.
    Improve the quality and volume of information on the DOE's World 
Wide Web site and demonstrate user-interest through a higher number of 
home page visits (hits) per year.
    Conduct stakeholder meetings to increase public involvement in 
crosscutting environmental quality issues. The meeting participants 
will include advisory board members, state and local governments, 
Native American Tribes, and other stakeholders across the country.
    Conduct ``Communicating with the Public'' training sessions for DOE 
managers.
    Respond to an estimated total of 500,000 public requests for 
information and documents from the Center for Environmental Management 
Information within an average of two business days per request.
    Issue an initial status report on the development of a public 
health agenda by December 31, 1998; and a final public health agenda 
for each site, which reflects customer and stakeholder input, shall be 
issued by September 30, 1999; and.
    Expand the use of Alternate Dispute Resolution by 20 percent over 
the fiscal year 1998 use to mediate workplace disputes such as Equal 
Employment Opportunity complaints and grievances.
    Question. How were the measurable goals of your fiscal year 1999 
Annual Performance Plan used to develop your fiscal year 1999 budget?
    Answer. In general our emphasis has been to establish performance 
goals for budget decision units (Results for Resources). We do however 
make budget decisions at decrement, base and increment level based on 
proposed levels of performance. We are hoping that plans and goals will 
mature at some point in time and sufficient detail will become 
available, along with methodologies to support budget decisions at a 
broader level.
    Question. If a proposed budget number is changed, up or down, by 
this committee, will you be able to indicate to us the likely impact 
the change would have on the level of program performance and the 
achievement of various goals?
    Answer. Yes. Budget development within each major program is based 
on performance. Based on the set of priorities the program will adjust 
the performance targets up or down consistent with the budget changes. 
The Department will prepare a ``revised final'' performance plan based 
on the finally appropriated funding.
    Question. Do you have the technological capability of measuring and 
reporting program performance throughout the year on a regular basis, 
so that the agency can be properly managed to achieve the desired 
results?
    Answer. Yes. The Department tracks progress on key performance 
goals in our revised final performance plan using the ``SOLOMON'' 
system a password protected web based reporting system. We collect 
progress information at mid-year and at end of year. Program offices 
maintain additional information systems at lower levels to monitor 
progress more frequently as needed.
    Question. If so, who has access to the information--senior 
management only, or mid- and lower-level program manager, too?
    Answer. We make the mid-year and end of year information on our key 
performance goals available to everyone on the worldwide web. Day to 
day progress is managed within each program and shared with employees 
and senior management on regular basis through weekly reports and 
monthly management meetings.
    Question. Are you able to gain access easily to various 
performance-related data located throughout your various information 
systems?
    Answer. At the Departmental level of reporting, we rely on program 
offices to provide performance-related data from their various 
information systems and do not attempt to gain access to their 
information systems directly. Program offices have not reported 
difficulty obtaining the necessary information.
    Question. The Government Performance and Results Act requires that 
your agency's Annual Performance Plan establish performance goals to 
define the level of performance to be achieved by each program activity 
set forth in your budget. Many agencies have indicated that their 
present budget account structure makes it difficult to link dollars to 
results in a clear and meaningful way. Have you such difficulty?
    Answer. In the fiscal year 2001 Annual Performance Plan we have for 
the first time organized our performance goals by budget decision 
units. Only in a few cases we had to aggregate, disaggregate, or both 
aggregate and disaggregate in order to relate performance goals to 
resources. This is useful from the management view point of what we get 
for the money, but makes it less transparent the relationship of the 
plan to resources--what does it cost to do what needs to be done.
    Question. Would the linkages be clearer if your budget account 
structure were modified? If so, how would you propose to modify it and 
why do you believe such modification would be more useful both to your 
agency and to this committee than the present structure?
    Answer. As long as there is flexibility provided to aggregate and/
or disagregate budget account structures, it is not necessary to change 
budget structures for DOE's accounts. Programs will propose revisions 
to budget structures based on major changes to program strategies as 
appropriate.
    Question. How would such modification strengthen accountability for 
program performance in the use of budgeted dollars?
    Answer. As long as there is flexibility provided to aggregate and/
or disagregate budget account structures, it is not necessary to change 
budget structures for DOE's accounts to establish clear accountability 
with the structure in place.
    Question. Spending significant resources on performance measurement 
systems appears to be a wasteful exercise if this information is not 
linked to: (1) real data about what it costs to perform various 
government functions; and (2) how to allocate agency resources to 
perform these functions. Could you comment on your agency's cost 
accounting expertise and plans to link GPRA to the budget process?
    Answer. Our expectation is that over time the planning process, 
budget process, and accounting process will be fully linked over time. 
At the first stage of GPRA implementation the emphasis has been to 
establish strategic and annual plans defining the purpose and specific 
performance goals. The next stage and we believe we are now in that 
stage is integrating the development of budgets and performance plans. 
The third stage will be to integrate performance measurement with cost 
accounting. DOE has a pilot effort underway to develop and test an 
integrated Business Management Information System (BMIS) which will 
provide the tools to determine far more precise estimates of the actual 
costs associated with achieving performance goals.
    Question. Under one of the new accounting standards recommended by 
the Federal Accounting Standards Advisory Board (FASAB) and issued by 
OMB, this year for the first time all federal agencies are required to 
have a system of Managerial Cost Accounting. The clearly preferred 
methodology for such a system, as stated in that standard, is the one 
know as ``Activity-Based Costing,'' whereby the full cost is calculated 
for each of the activities of an agency. What is the status of your 
agency's implementation of the Managerial Cost Accounting requirement, 
and are you using Activity-Based Costing?
    Answer. Although the Department has implemented Managerial Cost 
Accounting, we are not using Activity-Based Costing.
    Question. Will you be able in the future to show to this committee 
the full and accurate cost of each activity of each program, including 
in those calculations such items as administration, employee benefits, 
and, depreciation?
    Answer. Yes, we believe our integrated Business Management 
Information System (BMIS) will be able to provide these costs.
    Question. By doing so, would we then able to see more precisely the 
relationship between the dollars spent on a program, the true costs of 
the activities conducted by the program, and the results of these 
activities?
    Answer. Yes, we believe our integrated Business Management 
Information System (BMIS), when fully implemented will be able to 
provide relation of results to resources more precisely.
    Question. Will you be able to show us the per-unit cost of each 
activity and result?
    Answer. Generally, no. Although we believe integrated Business 
Management Information System (BMIS), when fully implemented will be 
able to provide relation of results to resources more precisely, there 
are fixed costs and other factors that will affect a ``per-unit costs'' 
of each activity and result. In cases where unit cost is appropriate we 
will be able to compute it.
    Question. To what extent do the dollars associated with any 
particular performance goal reflect the full cost of all associated 
activities performed in support of that goal? For example, are overhead 
costs fully allocated to goals?
    Answer. We have defined a group of performance goals under each 
budget decision unit. The budget resources for that decision unit do 
reflect the direct costs and some the overhead costs. However, the 
Departmental Administration budget is allocated back to the programs at 
the end of the fiscal year based on accepted accounting practices to 
complete the costs for the set of performance goals.
    Question. Please identify any significant regulatory reform 
measures that have been put in place by your agency in conjunction with 
the development of the agency's performance plan?
    Answer. There are none.
    Question. Does your fiscal year 1999 performance plan-briefly or by 
reference to your strategic plan--identify and external factors that 
could influence goal achievement? If so, what steps have you identified 
to prepare, anticipate and plan for such influences?
    Answer. Our fiscal year 1999 performance plan included a discussion 
on resource requirements, that described the requirement of financial, 
human, infrastructure and technical resources as the key external 
factor. Once the budgets have been appropriated external factors that 
could influence annual performance goal achievement are unpredictable. 
We intended to cover such issues when explaining results. We have in 
the fiscal year 2001 performance plan explicitly included a discussion 
of external factors with each program decision unit.
    Question. What impact might external factors have on your resource 
estimates?
    Answer. Impacts of external factors would be addressed in a 
supplemental budget request, if appropriate.
    Question. Through the development of the Performance Plan, has the 
agency identified overlapping functions or program duplication? If so, 
does the Performance Plan identify the overlap or duplication?
    Answer. We did not identify overlapping functions or program 
duplications through the development of the Performance Plan.
    Question. Should agencies address management challenges and 
potential duplication and overlapping functions in their GPRA plans, 
and if so, how?
    Answer. Actions by agencies to address management challenges should 
be included in Annual Performance Plans and Strategic Plans as 
appropriate. Potential duplication or overlapping functions within an 
agency should also be addressed. Potential duplication or overlapping 
functions among agencies are not easily available to an agency and may 
be an appropriate oversight role for OMB or Congress.
    Question. To what extent has GPRA been used by agency leadership to 
guide decision making? Will this use increase in the future and if so 
what ways?
    Answer. GPRA has had a significant effect on the leadership's 
decision making. The strategic plan of 1997 initiated several strategic 
planning activities within the programs which then significantly 
effected later decision making. Examples are the Accelerating Cleanup: 
Pathways to Closure, the Office of Science's Strategic Plan, the 
Comprehensive National Energy Strategy, and the Stockpile Stewardship 
Plan. GPRA also supports the continued use of a Performance Agreement 
between the Secretary and the President, i.e., the ``revised final'' 
annual performance plan. Prepared after Congressional appropriations, 
it continues agency attention to performance management decision making 
between the initial proposal of performance goals in the Annual 
Performance Plan and the reporting of performance in annual performance 
reports.
    Question. Future funding decisions will take into consideration 
actual performance compared to expected or target performance. Given 
that. To what extent are your performance measures sufficiently mature 
to allow for these kinds of uses?
    Answer. The Department has been developing and using these 
performance measures since fiscal year 1995. They should be mature 
enough to support future funding decisions based on actual performance 
compared to expected or target performance.
    Question. Are there any factors, such as inexperience in making 
estimates for certain activities or lack of data, that might affect the 
accuracy of resource estimates?
    Answer. The are no remaining significant factors effecting the 
accuracy of resource planning. The Department has been developing 
performance measures for the Secretary's Performance Agreement with the 
President since fiscal year 1995. Through that experience, we generally 
have gotten past most factors that might affect the accuracy of 
resource estimates.
    Question. Are you requesting any waivers of non-statutory 
administration requirements? Specifically, are you requesting any 
relaxation of transfer or reprogramming controls in return for specific 
accountability comments?
    Answer. On page vi of the Plan we state that we are part of the 
Office of Management and Budget's pilot program using an 
``Accountability Report'' to consolidate annual reporting of financial 
information as allowed by the Government Management Reform Act of 1994. 
No other request for waivers were made.
    Question. Based on your fiscal year 1999 performance plan, do you 
see any need for any substantive revisions in your strategic plan 
issued on September 30, 1997?
    Answer. No. We have used the option to make minor changes to the 
Strategic Plan with subsequent Performance Plans, but the fiscal year 
1999 Performance Plan followed closely the September 30, 1997 Strategic 
Plan.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

               RADIOACTIVELY CONTAMINATED SCRAP MATERIALS

    Question. It is my understanding that the Department of Energy is 
in the process of cleaning up a number of nuclear weapons laboratories 
and other DOE facilities. During the process of cleanup, the Government 
has been releasing large quantities of radioactively contaminated scrap 
materials for recycling. It is also my understanding that the Secretary 
had some concerns about the release of certain ``volumetrically 
contaminated'' scrap metals such as nickel and copper, and that he 
placed a moratorium on these releases in February 2000. In conjunction 
with this moratorium, the Secretary appointed an internal DOE task 
force to review the Department's policies with respect to this issue. 
Why did the Secretary not include radioactively contaminated scrap 
materials such as steel, aluminum, and concrete in that moratorium?
    Answer. The DOE moratorium I imposed applies to all volumetrically 
contaminated metals in the Department's inventory. Under an existing 
DOE Order (5400.5), there are no DOE-wide standards applicable to 
release volumetrically contaminated materials. Instead, decisions are 
made on a case-by-case basis, with approval of the Assistant Secretary 
for Environment, Safety and Health.
    However, for materials with surface contamination, DOE Order 5400.5 
contains national standards based on Nuclear Regulatory Commission 
guidance (NUREG 1.86). Scrap materials may be freely released under 
this order following appropriate monitoring and, when necessary, 
decontamination.
    Question. Is the Task Force set up by the Secretary authorized to 
formulate a range of options, including recommendation an extension of 
a moratorium to all contaminated scrap materials?
    Answer. Yes, the task force I established has been charged to look 
at a broad range of options and provide me with recommendations this 
summer.
    Question. Is the Secretary not concerned about releasing these 
radioactively contaminated materials into commerce?
    Answer. Analyses conducted by DOE, the Environmental Protection 
Agency, the NRC, the National Council of Radiation Protection, the 
International Council on Radiation Protection, the International Atomic 
Energy Agency, and the European Union have concluded that the properly 
regulated releases of materials from nuclear installations are not a 
threat to the public or the environment. However, there are members of 
the public who oppose this practice or believe that criteria that 
establish cleanup levels and procedures do not afford adequate 
protection. We are concerned with these aspects of the issue and this 
contributed to my decision to establish the moratorium on materials 
with volumetric residual radioactivity.
    The DOE Task Force that I have established will evaluate public and 
stakeholder input, scientific analysis, and cost information in its 
deliberations and make policy recommendations to me this summer. We are 
also committed to working with the Nuclear Regulatory Commission and 
the National Academy of Science in their investigations of this issue.
    Question. Does the Department have clearly established health-based 
guidelines and standards that oversee the release of these 
radioactively contaminated materials?
    Answer. The Department's Order on Radiation Protection of the 
Public and the Environment (DOE Order 5400.5) established the 
Department's requirements, guidelines, standards, and processes for the 
management of both contaminated materials and materials that may be 
released. The Department believes this order to be protective of human 
health and the environment.
    Question. Can you submit for the record the types, quantities, and 
recipients of these contaminated recycled metals and other materials 
that have been released from DOE facilities?
    Answer. The Department has not centralized the collection of this 
data. The authority for most releases of materials has been delegated 
to the DOE Operations Offices in order to streamline the process and 
improve efficiency. The task force I established has begun efforts to 
collect data on materials that have been released. The Department has 
not determined a completion date for this effort, but we should have 
additional information available later this summer.
    Question. What assurances can the Department give Congress that 
these releases of recycled materials are safe and that the consumers 
will not be unknowingly exposed when they buy food containers or drive 
their vehicles.
    Answer. Materials with volumetric contamination are not being 
released. For materials with surface contamination, the material is 
decontaminated and monitored before release, using criteria that are 
consistent with Nuclear Regulatory Commission guidance and 
international radiation protection practices.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings

                    ADVANCE GAS TURBINE SYSTEM (ATS)

    Question. Secretary Richardson, thank you for coming before this 
Subcommittee to explain the Department of Energy's fiscal year 2001 
budget request, contained within the Interior Appropriations bill. As 
you know, since 1997, Congress has been working under budget caps and, 
at times, it may seem that we are not developing alternative energy 
sources to the best of our ability, especially in light of what is 
going on with our national gas prices. One of the programs under DOE's 
Fossil Energy Research and Development has come under fire lately. Mr. 
Secretary, as you are aware, the Advance Gas Turbine System (ATS), of 
which DOE has been so instrumental in developing, is running into 
regulatory problems. These problems are not from DOE, but rather EPA. 
When the Energy Policy Act of 1992 was passed, DOE and General Electric 
(GE) entered into an agreement to develop the ATS in order to reduce 
NO<INF>X</INF> emissions, and this project has been successful. The 
goal of this agreement was to produce a gas turbine that would reduce 
NO<INF>X</INF> emissions to 9ppmmvd, and this has been achieved. But, 
EPA is now saying that NO<INF>X</INF> emissions can be below the 9ppmvd 
level if selective catalytic reduction (SCR) add-on controls are used. 
DOE has invested $40 million in this project, while GE has invested 
over $100 million. The successful partnership between GE and DOE has 
created a world class product and given the GE facility a competitive 
advantage over foreign owned manufacturers. It is difficult for me to 
imagine that EPA would initiate a rule undoing the progress we have 
made in developing the next generation of gas turbine systems. Have you 
spoken with EPA regarding their regulatory control over the ATS and if 
so what is their position?
    Answer. At the time, DOE and GE entered into a cooperative 
agreement to develop the ATS turbine, turbine efficiency goals of over 
60 percent and NO<INF>X</INF> emissions below 10 ppm were extremely 
challenging given that the industry was able to guarantee only 25 ppm 
on NO<INF>X</INF> emissions. The NO<INF>X</INF> emissions target for 
the ATS was made an even more formidable challenge due to the higher 
inlet temperature needed to achieve higher efficiency. The higher 
temperature makes it more difficult to reduce NO<INF>X</INF> levels. 
The development of the ATS turbine represented a major breakthrough in 
turbine technology.
    We have not yet met formally with EPA on the issue of 
NO<INF>X</INF> reduction to 2.5 ppm as we are in the process of 
assessing the impact that the lower NO<INF>X</INF> standard would have 
on these advanced turbines. However, we have been advised that industry 
representatives have met with EPA officials and have shared with EPA 
their concerns with regard to the 2.5 ppm NO<INF>X</INF> restriction. 
The turbine industry is concerned that this more stringent regulation 
could result in additional costs and no net environmental benefits. 
Under the more stringent rules, the use of SCR would require an added 
ammonia management system introducing additional environmental issues. 
If net costs of the turbines were higher, then investments in the new 
turbines might not be made, less efficient existing turbines with 
currently higher NO<INF>X</INF> output would continue to operate, and 
the full potential of highly efficient clean gas turbine systems might 
not be realized to meet the increased electricity demand. If the cited 
NO<INF>X</INF> levels (which are based on thermal input into the 
turbine and do not factor in turbine efficiency) were adjusted to take 
into account turbine efficiency (i.e., NO<INF>X</INF> output per unit 
of electricity output), the 9ppm NO<INF>X</INF> levels of the ATS 
turbine would be reduced by another 20 percent compared to the 50 
percent efficient turbine.
    Question. If their position is that these turbines should use SCR, 
what is DOE's next step?
    Answer. DOE is conducting an assessment of the net effect of 
incorporating SCR to reduce NO<INF>X</INF> to 2.5 ppm could have on the 
deployment of these new turbines in the power market due to the added 
cost, and the attendant impact on overall cumulative emission 
reductions. In addition, if EPA maintains their position on lower 
NO<INF>X</INF> at 2.5 ppm for new turbines, then DOE will evaluate the 
need for pursuing additional R&D to look for cost effective ways, with 
or without SCR, to meet these levels.

                         CONCLUSION OF HEARINGS

    Senator Gorton. I thank you very much. The subcommittee 
will stand in recess subject to the call of the Chair.
    [Whereupon, at 11:44 a.m., Tuesday, April 11, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2001

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]

                          DEPARTMENT OF ENERGY

   Prepared Statement of the Business Council for Sustainable Energy

                              INTRODUCTION

    The Business Council for Sustainable Energy (BCSE) is pleased to 
offer its views on the role of government in supporting energy 
research, development and deployment (RD&D)--as it relates to energy 
efficiency programs at the U.S. Department of Energy (DOE). The BCSE is 
a diverse group of companies and industry trade associations; our 
members include manufacturers, energy producers, suppliers, 
distributors and energy service companies. The Council supports energy 
policies and programs that enhance the nation's economic, environmental 
and national security goals through the rapid development and 
deployment of clean and efficient energy technologies.
    The Council is highly supportive and seeks enhancements of the 
Administration's fiscal year 2001 request for energy efficiency and 
alternative energy programs. The BCSE believes that the least intrusive 
and most efficient means of addressing our environmental challenges is 
by promoting cost-shared Government-industry partnerships to develop 
clean energy technological solutions. Expanded reliance on natural gas, 
energy efficiency and renewable energy are the three pillars of a more 
secure and sustainable energy strategy that will help strengthen the 
U.S. economy and clean up the environment.
    The Federal Government's energy efficiency programs are as diverse 
as the activities that consume energy. Given their breadth, the BCSE 
will not attempt to address all of DOE's energy efficiency programs. 
Rather, we focus on several programs that the BCSE believes illustrate 
the value of the Federal Government's energy efficiency effort.

                     DISTRIBUTED POWER TECHNOLOGIES

    The electric and natural gas systems are opening to the competitive 
marketplace, while greater emphasis is being placed on issues such as 
system reliability and power quality. Distributed systems can flourish 
in such a market, and can help advance our national goals of 
environmental improvements, energy security and a high-quality and 
reliable energy system. But the transition to a competitive marketplace 
has the effect of sharply diminishing available private sector research 
initiatives for these promising technologies. This is therefore a 
critical juncture for Federal RD&D support for these technologies.
Gas Turbine Technologies
    Microturbines are small, 25-300 kilowatt (kW) gas turbines derived 
from automotive and truck turbochargers, aircraft or tanks auxiliary 
power units and small jet engines for drone aircraft. They are designed 
for distributed generation, combined heat and power (CHP) and 
mechanical drive prime mover applications. Technology improvements in 
materials, ceramics and aerodynamic design can potentially increase 
efficiency to 35-45 percent. This is more efficient than power 
generated at a distant, central-station power plant which suffers 
losses as it is delivered through the electric transmission and 
distribution grid. By recovering exhaust heat, energy consumers can 
utilize microturbines in a CHP application and raise total fuel 
utilization efficiency to greater than 75 percent.
    Microturbines today can contribute to reducing emissions 
(NO<INF>X</INF> and CO<INF>2</INF>) associated with electric power 
generation. When fueled by natural gas from our domestic resource base, 
they currently emit NO<INF>X</INF> at 9-40 ppm, which is an improvement 
over the existing U.S. generation fleet. Emissions reductions 
technologies such as catalytic combustion offer the potential of near 
zero emissions levels. To achieve the environmental, efficiency and 
cost-reduction goals of the program, the BCSE specifically seeks $3 
million above DOE's current request of $7 million for microturbine 
engine development research.
    Advanced reciprocating engine systems (ARES) are the leading 
customer choice for distributed generation and CHP applications in the 
300-3,000 kW size range and provide significant advances in efficient 
use of natural gas resources while minimizing environmental impact 
levels. This will result in annual NO<INF>X</INF> emissions reductions 
of 40,000-60,000 tons per year and CO<INF>2</INF> emissions reductions 
of 7.6-11.5 million tons.
    Estimated annual savings in unburned natural gas (from improved 
efficiency) are approximately 110-170 billion cubic feet, which equals 
the annual energy consumption of approximately 1.4 million homes.
    The ARES program will position domestic natural gas engine 
manufacturers to compete effectively against foreign engine producers 
looking to enter the U.S. market as well as further promote and expand 
export markets for high-technology. The BCSE seeks $8 million for this 
research, $5 million over the DOE request.
Fuel Cell Technologies
    BCSE member Plug Power, Inc. is developing Proton Exchange Membrane 
(PEM) fuel cells for residential applications. The 7 kW units provide 
enough power to run an average home and are the size of a small 
refrigerator. These units, which run on clean natural gas, are 
currently being field-tested and will be commercially available in 
2001. Meanwhile, R&D efforts continue on units that run on other fuel 
sources and on combined heat and power units that will provide all the 
heat, hot water and electrical needs for America's families. The BCSE 
advocates an increase of $4 million for microcogeneration fuel cell 
research and development in the Office of Building, State and Community 
Programs.
    BCSE board member Ballard Generation Systems recently began field 
trials on 250 kW natural gas PEM fuel cells. More fuel cell power 
plants of various power sizes will be available in the future to fill 
diverse power generation requirements. High-temperature natural gas 
fuel cell systems that are presently under development may ultimately 
achieve a 60 percent fuel-to-electricity conversion efficiency. This is 
extremely favorable compared with the average of 35 percent fuel-to-
electric efficiency for the mix of generating equipment currently used 
to supply the Nation's electricity.
    A key to the successful commercialization of the PEM fuel cell 
vehicle will be the availability of a safe on-board hydrogen storage 
device. BCSE member Energy Conversion Devices has been developing metal 
hydride alloys to provide a safe solid-state means of on-board storage 
of hydrogen in PEM fuel cell vehicles. Given the importance of this 
component of the fuel cell system, we would urge greater funding levels 
for metal hydride storage systems for PEM fuel cell vehicles. These 
devices would also be the safest means of storing hydrogen in hydrogen 
powered internal combustion engine or hybrid vehicles as well as for 
use in fuel cells for stationary applications and or portable power.
    Further development of all fuel cell types must focus on refining 
system designs to reduce costs, improve performance and minimize 
maintenance requirements while developing the manufacturing technology 
needed to achieve market pricing. In order for PEM fuel cell power 
plants to achieve full commercial status, the aforementioned challenges 
will need to be overcome. The lessons learned will make U.S. technology 
more competitive in the global marketplace. BCSE believes that the 
proposed DOE budget should be more aggressive in light of these 
benefits and urges the Committee to increase funds targeted to these 
technologies by $3.2 million.
Heat Pumps, Natural Gas Cooling & Appliances
    Natural gas cooling technologies are especially energy efficient 
when measured on a life-cycle and/or full-cycle basis. In addition, the 
societal benefits of natural gas cooling accrue during the hours of the 
day and months of the year that correspond to the peak demand for 
electricity, enabling this technology to play a significant role in 
offsetting the costliest electrical energy demand. The GAX heat pump, 
based on a generator-absorber heat exchange (GAX) cycle, is envisioned 
as the residential space conditioning technology of the future due to 
its energy efficiency (as much as a 40 percent improvement over 
existing technologies), lower maintenance and use of environmentally-
friendly refrigerants. DOE is working with industry to develop 
commercially feasible GAX heat pumps for commercialization. By 
investing in advanced gas cooling technologies, U.S. industries will be 
able to capture the growing domestic and global market for clean, 
efficient technologies. The BCSE is highly supportive of these programs 
and places great emphasis on robust research for the GAX and large 
commercial chiller programs and systems integration of heating, 
ventilation and air conditioning.
    The Council supports DOE's research and training programs on 
desiccant dehumidification devices. Desiccants offer the option of 
decoupling temperature from humidity loads on a building, thus applying 
exactly the amount of energy needed to satisfy each load independently. 
DOE is participating in the improvement of this potential new market by 
studying the properties of newly developed desiccant materials. Further 
materials characterization, combined with analysis of the effects of 
desiccant wheel structure and mass on desiccant equipment performance, 
offer the potential to improve desiccant system economic effectiveness. 
In both the desiccant and the natural gas cooling areas, a recent 
roadmapping process has identified the combination of on-site power 
generation with these technologies, (Buildings Combined Cooling Heat 
and Power, or BCHP), to further reduce energy cost and use. The BCSE 
supports an increase of $2 million in the gas cooling area for 
integration of on-site power generation and space conditioning 
equipment.
    DOE should also continue its research and development of energy 
efficient appliances in residential and commercial buildings, 
particularly those that utilize alternative fuels. There is an inherent 
conflict between national increased efficiency requirements and 
consumers' desire for lower first-cost equipment. Increased-efficiency 
systems, while offering lower energy costs and (usually) lower life-
cycle costs, are increasingly more complex and more expensive than 
lower-efficiency equipment. Increased research is needed to solve this 
paradox between efficiency requirements and consumer desires.
    Buildings-related combined cooling, heating and power is a new 
initiative at DOE and fully supported by the BCSE. By integrating the 
various air ventilation, appliance, heating and cooling systems in a 
building with on-site power generation, such as the fuel cells or 
turbines mentioned above, you can improve efficiencies to over 80 
percent and save consumers money on their utility bills.
    In addition to balancing the energy efficiency needs of new 
appliances with consumers' demands, DOE should educate consumers about 
the benefits of purchasing high-efficiency appliances, both to 
themselves and the nation as a whole, through reduced energy 
consumption. Major appliance manufacturers such as Maytag have worked 
with DOE to help promote efforts to encourage consumers to replace 
older appliances with newer and more energy efficient models.

                       ALTERNATIVE FUEL VEHICLES

    Transportation is the fastest growing energy consuming sector. In 
1998, DOE reported that approximately two-thirds of all U.S. petroleum 
consumption was directly attributable to the transportation sector. The 
continued popularity of low fuel economy sport utility vehicles, pickup 
trucks and vans used for personal transportation, coupled with an 
expanding economy, increasing numbers of drivers and increasing miles 
traveled by each vehicle continues to raise overall national fuel 
consumption despite the run up in fuel prices. Spurred by increase in 
demand, total domestic petroleum use is expected to increase from 
approximately 35 quadrillion btu in 1997 to approximately 48 
quadrillion btu in 2020. Alternative fuel vehicles (AFVs)--including 
natural gas and electric vehicles--promise to reduce U.S. reliance on 
imported oil while virtually eliminating emissions of criteria air 
pollutants. The Administration has been very active in promoting its 
Partnership for a New Generation of Vehicles (PNGV).
Batteries
    Advanced batteries are critical to the success of electric vehicles 
(EVs) and other alternative fueled vehicles. DOE has conducted research 
in cooperation with the U.S. Advanced Battery Consortium that has led 
to significant improvements in battery performance. One of its singular 
accomplishments was the Ovonic Nickel-Metal Hydride (NiMH) electric 
vehicle battery developed by Ovonic Battery Co., a subsidiary of BCSE 
member Energy Conversion Devices. The Ovonic EV battery met or exceeded 
mid-term performance goals set by the Consortium, affirming the future 
market viability of EV technologies. Numerous cars powered by the 
batteries have far exceeded 200 miles in range in on-the-road tests. 
The absence of highly toxic battery materials is another advantage of 
this technology. High volume production coupled with additional 
improvements in battery technology will enable the batteries to further 
improve performance as well as reach the Consortium cost goals.
    NiMH batteries have been developed which demonstrate excellent 
properties for hybrid electric vehicles. Yet another application of 
NiMH batteries is for high performance starting, lighting, and ignition 
(SLI) batteries. Increased use of power electronics coupled with the 
need to reduce vehicle weight and increase fuel efficiencies in 
conventional vehicles is creating demand for a low weight higher 
performing SLI battery. NiMH battery technology shows great promise in 
this application. Accordingly, the Council recommends that the battery 
R&D program be expanded to build upon the successful NiMH EV battery 
development program by including advanced research for NiMH batteries 
for EV and other vehicle applications.
Natural Gas Vehicles
    Natural gas vehicles (NGVs) are certified to be up to 99 percent 
cleaner than traditionally fueled vehicles. In fact, NGVs can reduce 
carbon monoxide (CO) emissions by 70 percent, non-methane organic gas 
by 89 percent, nitrogen oxides (NO<INF>X</INF>) by 87 percent, and can 
produce 20 percent fewer greenhouse gases than traditionally fueled 
vehicles. When the Energy Policy Act was enacted in 1992, no original 
equipment manufacturers offered NGVs for sale and few NGV fueling 
stations were available. Today, over 93 NGV models are available and 
there are over 1,300 NGV fueling stations open nationwide. Despite this 
impressive growth, the actual number of NGVs on the road is less than 
one-half of one percent of all registered vehicles. In fact, Italy has 
four times the number of NGV vehicles on the road compared with the 
U.S. (300,000 versus 75,000), demonstrating that the commitment to this 
technology in Europe is far greater than in the U.S., despite the fact 
that the United States is a leader in the development of these 
technologies. Additional research is required to reduce the initial 
cost of NGVs, which will encourage their widespread acceptance by the 
public.
    DOE has continued to depart from its commitment to a joint five-
year research plan, developed in response to this Subcommittee's 
request in fiscal year 1997. Accordingly, the BCSE seeks to restore 
funding levels for priorities identified by the industry and DOE's 
five-year plan. The BCSE requests an additional $4.5 million 
appropriation for RD&D activities associated with the Advanced 
Combustion Engine R&D/Health Impacts Program, the Alternative Fuel/
Environmental Impacts Program, and the Alternative Fuel/Medium and 
Heavy Duty Truck program. These appropriations would enable industry 
and the government to continue necessary toxicology and nanoparticulate 
research and promote the development of advanced NGVs. The BCSE also 
supports an additional $2.5 million for the Lightweight Materials 
Technology/Heavy Vehicle High Strength Weight Reduction Materials 
Program, to develop a prototype low pressure CNG fuel system.
    The Clean Cities program is designed to accelerate the use of AFVs 
throughout the country. In fiscal year 2001, this program will focus on 
proven markets--such as school buses, transit buses, airport shuttles, 
taxis and delivery fleets--while expanding the critical infrastructure. 
Support for Clean Cities coalitions is provided through the DOE's State 
Energy Program (SEP) grants. BCSE supports the Administration's request 
for the Clean Cities program and respectfully requests an additional $5 
million for SEP Special Projects.

                            UTILITY PROGRAMS

    DOE also has worked effectively with utilities and power 
authorities to promote energy efficiency. Through voluntary programs 
such as Climate Wise, DOE has obtained the commitment of utilities to 
reduce utility emissions of greenhouse gases. Generally, activities 
that reduce emissions also reduce energy use. Climate Wise 
participants--such as Council member Sacramento Municipal Utility 
District (SMUD)--have premised their programs on sound economic 
principles. In fact, SMUD attributes its aggressive support for energy 
efficiency as a primary reason it has been able to stabilize its 
electricity rates.

                        STANDARDS AND INSULATION

    DOE also has provided valuable technical assistance to the 
polyurethane foam insulation industry, helping the industry to find 
substitutes for some blowing agents used in insulation installation. 
The new polyisocyanurate insulation performs as efficiently as the 
prior product.

                     INFRASTRUCTURE AND OPERATIONS

    BCSE strongly supports and commends the DOE for its recognition 
that changes in the marketplace are adding new stresses to our energy 
delivery systems. The budget provides modest sums for modeling and 
research on the electric grid, to identify changes being caused by 
deregulation to flows of power. It also recognizes that the growing 
marketplace in the use of natural gas as a fuel will require 
adjustments to that infrastructure. DOE predicts that domestic natural 
gas use will increase by 47 percent by the year 2020. Such increased 
natural gas use would provide myriad benefits, but will also strain the 
existing delivery infrastructure.

                       FEDERAL ENERGY MANAGEMENT

    The BCSE is extremely supportive of the Federal Energy Management 
program (FEMP) efforts at reducing Federal energy use through the use 
of energy service performance contracting, reducing energy use while 
minimizing up-front capital outlays. The Federal Government spends 
nearly $4 billion annually to light, heat and cool the interior of 
buildings it owns and operates. FEMP's progressive program is a model 
of public/private partnership. Federal facilities, just like those 
occupied by private industry, often can be economically upgraded and 
retrofitted, reducing the energy required to provide essential building 
energy services. We believe every Federal Government agency should 
increase its utilization of energy service performance contracts to 
take advantage of this approach for upgrading facilities and reducing 
energy expenditures. To that end, the BCSE strongly supports the Budget 
Request of $31 million for FEMP activities with Federal agencies.

                               CONCLUSION

    The Council recognizes that this fiscal year 2001 request for 
energy efficiency programs represents an increase over fiscal year 
2000. However, the BCSE believes that the Federal Government's 
participation in cost-shared public/private partnerships aimed at 
developing cost-effective non- and low-polluting technologies is the 
best and least intrusive manner for the government to address a variety 
of challenges from climate change to overdependence on imported oil.
                                 ______
                                 

        Prepared Statement of the Council for Chemical Research

                                 ISSUE

    The mission of the U.S. Department of Energy's Office of Industrial 
Technologies (OIT) is to help U.S. industries realize substantial 
improvements in energy efficiency, waste reduction, and productivity. 
OIT acts as a leading federal interface for the Nation's major process 
industries (chemicals, agriculture, aluminum, mining, forest products, 
steel, metal casting, glass, and petroleum refining). Focused by key 
technology roadmaps, OIT funds high-risk, cost-shared, industry-driven 
cooperative R&D through the partnerships of the ``Industries of the 
Future'' program. The leveraging of resources represented by this 
program is an important element to ensure the competitiveness of these 
industries in global markets.

                                POSITION

    The Council for Chemical Research (CCR) believes the full potential 
of the ``Industries of the Future'' program can only be realized 
through appropriate funding levels deployed in ways that recognize the 
different nature of all the industries involved. Substantial leverage 
is obtained by catalyzing productive interactions between industrial, 
academic, and government laboratories. Leveraging may be accomplished 
by the development of technology roadmaps, investment in pre-
competitive and crosscutting technologies, and the development and 
demonstration of advanced technologies beyond the normal risk profile 
of industrial companies.
    CCR reaffirms its conviction that improved industrial technologies 
are critical to the Nation's future, that R&D aimed at long-term goals 
is essential, and that the chemical sciences and engineering play a key 
role in a broad range of new technologies for the Nation's major 
process industries. As a high-leverage contribution to these goals, the 
Council for Chemical Research fully supports the Administration's 
fiscal year 2001 request of $185 million for the Office of Industrial 
Technologies.
    Because of the complexity, size, and diversity of the chemical 
industry (more than 7,300 companies), CCR believes that additional and 
continuing activities to develop and renew the research agenda of 
Vision 2020 should be funded within the fiscal year 2001 request. 
Specific research programs should be funded in areas where technology 
roadmaps have been developed, including polymers and other materials, 
catalysis, separations, bio-processing, computational techniques, and 
advanced measurement and control.

                               RATIONALE

    Industry uses more than a third of the energy delivered in the U.S. 
and spends tens of billions of dollars annually for pollution abatement 
and control. Seven industries account for 82 percent of the energy used 
in manufacturing: pulp and paper; steel; aluminum; metal casting; 
chemicals; petroleum refining; and stone, clay and glass.
    These industries also account for more than 80 percent of the air 
emissions and 90 percent of the waste produced by U.S. manufacturing. 
OIT focuses on developing innovative technologies to assist major 
industry sectors in becoming more resource efficient and, by that, more 
productive and competitive, and less polluting.
    OIT's mission is well-aligned with that of the chemical industry; 
both stress significant reductions in energy, material, and water 
consumption per pound of chemical produced. OIT recognizes that the 
chemical industry faces costly economic cycles, high capital intensity, 
and new global competition that have reduced profit margins. The Office 
knows that the industry needs new technological solutions for its own 
R&D is being sacrificed to pay for high development costs aimed at 
incremental improvements. Despite its modest funding, the ``Industries 
of the Future'' framework plays a key role and exerts high leverage for 
the development of needed technologies.
    The real impetus for economic growth will come from multi-
disciplinary programs which link such fields as agricultural and forest 
products research with chemicals and petroleum processing technologies. 
To accomplish this, R&D will need to aggressively move into new fields 
like nanotechnology, biotechnology, and microreactors. These types of 
creative solutions require a close partnership among the three 
components of the research enterprise--industry, academia, and 
government. In today's technology-driven, global economy, these 
partnerships are essential. OIT's initiatives bring different 
perspectives together on the appropriate research agenda, stimulate 
collaborative programs, and help develop and demonstrate innovative 
technologies beyond the risk tolerance and horizons of the chemical 
industry today. Federal funding of the types of programs administered 
through OIT are the cornerstones for getting technology into the 
marketplace.
                                 ______
                                 

          Prepared Statement of Hydrocarbon Technologies, Inc.

    Hydrocarbon Technologies, Inc., respectfully asks for the 
Subcommittee's consideration when preparing the Interior and Related 
Agencies bill for fiscal year 2001 for the addition of $3 million to 
the Advanced Clean Fuel Research Programs for Coal under the Fossil 
Energy Research and Development Budget, B&R No. AA10200 (AS-89X213.91).
    This additional funding is required to accelerate the development 
of ultra clean fuels utilizing HTI's carbon-coated (carbonous) 
catalysts with syngas. These catalysts will solve the inherent 
technical problems experienced by DOE and others with current iron and 
cobalt based catalysts and processes. This novel carbonous (carbon-
coated) catalyst can be used in both slurry and fluidized (ebullated-
bed) reactors using natural gas, oil, coal and/or biomass as the 
feedstock. The carbon-coated catalyst system doubles conversion, 
conserves energy, and will save 30 percent on the cost of producing 
ultra clean, high efficiency fuels versus conventional technology. 
Present stumbling blocks in the DOE-Gas to Liquids GTL) program, i.e. 
separation of the slurry catalyst from wax, excess catalyst attrition 
losses and, high product costs, can be overcome by this carbon-coated 
catalyst approach.
    HTI is presently under contract with the U.S. DOE with a three-year 
($583,000) contract that started in October, 1999. Our initial test 
results are extremely encouraging; showing a two-fold increase in 
catalyst strength and a 60 percent increase in surface area. With HTI's 
40 years of experience in fluidized bed and supported catalyst 
processes, we believe this technology can and should be leap-frogged by 
a $3 million/year program add-on. This would accelerate the program to 
the point of commercial demonstration within three years.
    We realize the Committee has many competing issues to consider, and 
we appreciate your past consideration and assistance for our energy and 
environmental programs. We are now looking forward to working with the 
Committee to accomplish this technological breakthrough; this is an 
important issue for our nation as evidenced by the decrease in the 
domestic supply of fuels, the price escalation of oil beyond $30/per 
barrel and the new EPA clean fuel initiatives.

 ADVANCED CLEAN FUELS RESEARCH--CARBON COATED (CARBONOUS) CATALYSTS IN 
                         EBULLATED BED REACTOR

    The primary objective of this program is to develop and scale-up 
active, attrition-resistant, carbonous catalysts that will be used in 
the application of isothermal ebullated (fluidized) reactors to produce 
ultraclean fuels that are competitive with conventional fuels, and 
specialty chemicals from natural gas, biomass or coal.
Introduction
    Fischer-Tropsch technology is a proven method to produce ultra-
clean fuels that are essentially free of sulfur, nitrogen and aromatic 
compounds, which are the major cause of air pollution in the United 
States. Additionally, this process can be utilized to produce various 
chemical feedstocks. Natural gas, oil, biomass and coal can be reformed 
to synthesis gas which is then converted to high value liquid fuels and 
chemical feedstocks using the Fischer-Tropsch technology.
    Historically, iron based catalysts have been the most commonly used 
catalyst in Fischer-Tropsch technology. Iron based catalysts are 
inexpensive and readily available, but are unable to stand up to the 
harsh conditions at which the process operates. Other problems are also 
inherent and have limited the full commercialization of the technology. 
Cobalt-based catalysts are also used, but the high cost of cobalt 
coupled with the inability to recover the cobalt catalyst exasperates 
the problem further by increasing costs.
    HTI has invented and is developing a novel carbonous (carbon-
coated) catalyst capable of addressing the inherent technical problems 
experienced with current iron and cobalt based catalysts. HTI's novel 
carbonous catalyst can be coupled with both slurry and ebullated-bed 
reactors. HTI presently is under contract with the United States 
Department of Energy (DOE) to further the development of this 
attritionresistant carbonous catalyst. Very positive results have been 
achieved and further work needs to be accelerated to prove the 
technical and economic feasibility of this novel carbonous catalyst and 
to bring this process to market.
Market/Economics
    The energy market in the United States is growing and will continue 
to grow to meet rising energy demands. The environmental and supply 
impact to meet this energy need is coming under tremendous scrutiny and 
will require innovative technology to ensure that our environment is 
fully protected and that the use of domestic resources is maximized. 
Fischer-Tropsch technology can help to resolve the environmental and 
domestic resource issues in an economical way.
    The products that result from the Fischer-Tropsch Process are clean 
transportation fuels (diesel and gasoline), petrochemical and specialty 
chemicals for consumer goods (coatings, cosmetics, health care 
products, adhesive, etc.) and high purity waxes.
    Based on current economics of gas to liquid (GTL) processes, cost/
barrel of product will be higher than those derived from petroleum; 
however, the products are cleaner, purer, have desirable diesel fuel 
characteristics and a portion is suitable for higher priced specialty 
markets. The products are also more environmentally friendly and more 
efficient thus would command a higher selling price. Current estimates 
indicate that at a 15 percent return the costs for this premium, high 
mileage fuel are about 1.25 times current crude oil price/barrel, if 
based on natural gas. With coal as the syngas feed, prices can be 
competitive with crude at current prices.
Environmental Impact/Benefits
    Because of their very low sulfur and nitrogen content the fuels 
(diesel and gasoline) are clean burning. They are free of sulfur, 
nitrogen and other aromatic compounds. The U.S. Department of Energy 
has shown that the diesel fuels produced can yield ``cetane'' numbers 
of over 60 which yield auto transport mileage of up to 80 miles/gallon, 
thus greatly reducing greenhouse gas emissions. Sulfur dioxide 
emissions can be eliminated and particulates, nitrogen oxides (ozone) 
and carbon monoxide can be reduced by up to 30 percent.
    A process will result that can produce a broad range of 
hydrocarbons safely, and economically since it avoids separation, 
attrition, erosion, and uniformity problems associated with current 
technologies. It will also provide much greater flexibility since 
various catalyst promoters can be applied and operated at steady state. 
Current processes operate as fixed-beds or slurry-beds. The fixed beds 
experience large temperature extremes, hot spots and catalyst 
deactivation and have to be shutdown to replace the catalyst. The 
slurry bed reactors have problems where erosion and separation of the 
catalyst from the waxy products is very difficult.
    The proposed ebullated-bed carbonous catalyst process avoids these 
costly deficiencies. Ebullated-Bed reactor technology is currently 
commercially practiced for heavy-oil and distillate hydrocracking with 
over 12 plants world-wide.
    The process using carbonous catalysts will produce ultra clean, 
high mileage transportation fuels, high value chemicals and wax 
products. It will result in a major improvement in Gas to Liquids (GTL) 
technology and provide us, if the program is accelerated as requested, 
with a domestic and secure fuel source for our transportation needs in 
the first quarter of the new millennium.
                                 ______
                                 

         Prepared Statement of the Electric Vehicle Association

                       INTRODUCTION AND OVERVIEW

    This testimony is presented on behalf of the Electric Vehicle 
Association of the Americas (EVAA), a national non-profit organization 
of electric utilities, automobile manufacturers, State and local 
governments and other entities that have joined together to advocate 
greater use of electricity as a transportation fuel. A complete 
membership list is attached.
    In 1994, the Association developed a ten-year commercialization 
plan for the development and commercialization of battery electric 
vehicles (BEVs), hybrid electric vehicles (HEVs) and fuel cell-electric 
vehicles (FCEVs). Phase I of the ten-year plan called for the 
successful entry of battery electric vehicles into limited early 
markets. After many years of research and development, all of the 
world's major automobile manufacturers, as well as several independent 
small businesses, have EVs available to the marketplace. Some 
automakers also are considering the development of small, neighborhood 
battery electric vehicles (NEVs) which have niche applications in such 
areas as planned communities, college campuses, in station car 
applications and other urban settings where space and travel distances 
are limited and the air quality is poor.
    All of these vehicles continue to be expensive. Until greater 
volumes are achieved, prices are likely to remain high. EVAA urges the 
Congress to assist industry in helping to reduce the cost to the early 
purchasers of EVs. By increasing the number of vehicles sold or used, 
the price of these emission-free modes of transportation will decrease.
    Several automobile manufacturers have offered, or soon will offer, 
hybrid EVs to the market. Honda already is marketing the Insight hybrid 
vehicle into the U.S. and Toyota has announced that it will sell the 
Prius hybrid vehicle in the United States later this year. Other 
automakers have announced plans to bring hybrid electric vehicles to 
market in the near-term.

                  SECONDARY USE OF ADVANCED BATTERIES

    Since the cost of advanced batteries has been, and continues to be, 
a major barrier to the successful commercialization of electric 
vehicles into the marketplace, the Association believes that the 
development of a secondary market to re-use EV batteries after their 
useful life in a vehicle could substantially reduce costs. A battery 
system that has been used in an electric vehicle is projected to retain 
up to 80 percent of its initial capacity after being used in the 
vehicle. The electric utility industry may be in a position to utilize 
these ``used'' batteries for peak shaving, transmission deferral, back-
up power, and transmission quality improvements. The creation of a 
secondary market able to pay between $100-$200/kWh for EV batteries 
would reduce the net cost of such batteries for installation into 
vehicles to the $100-$150/kWh range if 10,000 such batteries were 
purchased annually in a secondary-use market. (The current price for 
nickel-metal hydride batteries ranges from $800-$1800/kWh.) At lower 
volumes (2000 packs annually) net costs would still be reduced 
dramatically to below $300/kWh. The challenge first is to demonstrate 
on a large scale the applicability of used EV battery packs in 
secondary use applications. The Association urges Congress to consider 
directing and funding the Department of Energy to undertake a multi-
year program to demonstrate that EV batteries can be successfully used 
in a number of utility, stand-by, peak-shaving and transmission quality 
improvement programs. Initial estimates suggest that a three-year $6 to 
$9 million cost-share program would address the questions about 
secondary uses. The objective of the program would be to gain 
sufficient experience to demonstrate that a secondary market for 
advanced batteries is available while also providing electric utilities 
and others with important information regarding the reliability, uses, 
and cost of EV batteries for these different types of applications.

                          CLEAN CITIES PROGRAM

    The Department of Energy's Clean Cities Program is achieving 
results. This voluntary Federal program is accelerating and expanding 
the use of alternative fuel vehicles in communities across the country 
and providing refueling and maintenance facilities for their operation. 
As of January 2000, seventy-seven communities have joined the Clean 
Cities program. The fiscal year 2001 budget request includes $10 
million for the Clean Cities program. The Association believes that, to 
the extent possible, additional funds should be allocated to this 
important program to assure that communities throughout the U.S. have 
the funds available to purchase electric vehicles and supporting 
infrastructure.
    While the Department should be applauded for establishing the Clean 
Cities AFV Rebate Program, which allows Clean Cities to obtain a $2,000 
rebate for each dedicated AFV purchased and/or leased, EVAA would 
encourage the DOE to allow electric ground support equipment, 
neighborhood electric vehicles and electric bikes and scooters to be 
eligible for these rebate funds. Expansion of the rebate program would 
encourage communities to incorporate additional clean, transportation 
alternatives into their transportation plans.

               UNITED STATES ADVANCED BATTERY CONSORTIUM

    In addition to identifying secondary markets for advanced 
batteries, the Association continues to support funding for the USABC 
and the Exploratory Technology Research Program at the $9.7 million 
level requested by the Administration. The USABC is a battery research 
and development program critical to the advancement of EVs. Through 
USABC's nickel-metal hydride battery development contracts, industry 
and government, working together, have achieved the cost reduction 
targets to meet USABC goals. Nickel-metal hydride batteries are now 
being utilized by many of the automobile manufacturers in their EV 
product offerings which significantly increases vehicle range and 
performance. This year, the program will support research and 
development on long-term advanced lithium-based batteries for EVs. The 
potential of lithium-based technology is to offer even greater range 
and lower cost.

            HYBRID SYSTEMS RESEARCH AND DEVELOPMENT PROGRAM

    The EVAA supports the efforts of industry and the Federal 
Government to develop affordable hybrid vehicles with high fuel economy 
and ultra low emissions. DOE's fiscal year 2001 goals include an 
emphasis on power electronics and high power energy storage, two 
critical enablers for hybrid propulsion systems. DOE also intends to 
conduct studies to determine the potential for improving the fuel 
efficiency of sport utility vehicles (SUVs) by combining applicable 
advanced automotive technologies with technology improvements unique to 
SUVs. The Administration's fiscal year 2001 budget request for the 
Hybrid Systems Research and Development Program is $47.8 million.

               VEHICLE FIELD TEST AND EVALUATION PROGRAM

    The Administration's fiscal year 2001 budget request includes $4 
million for the Vehicle Field Test and Evaluation Program. These funds 
would be used to begin acquisition of light, medium and heavy-duty 
hybrid electric vehicles for performance and emissions testing.
    EVAA believes that this program should be used to help fund the 
increased use of AFVs by the Federal agencies. In fact, EVAA applauds 
DOE for utilizing $2 million in fiscal year 2000 funds to assist the 
United States Postal Service (USPS) with the acquisition of 500 
electric vehicles for use by postal services in Southern California and 
Greater Washington, D.C. Depending on the success of this initial EV 
purchase, it is anticipated that the USPS will issue a solicitation for 
5,500 additional electric vehicles over the next four years.

            OTHER DEPARTMENT OF ENERGY PROGRAMS OF INTEREST

    In order to assure that the marketplace is prepared and receptive 
to new forms of transportation like EVs, the Association encourages 
full funding, at the levels requested by the Administration, for two 
other DOE programs: the EPAct Replacement Fuels Program and Fuel Cells 
Research and Development. The Administration's fiscal year 2001 budget 
request includes $2 million for the EPAct Replacement Fuels Program to 
track and improve compliance with EPAct alternative fuel vehicle 
programs. A total of $41.5 million in funding is being requested by the 
Administration for continuation of research and development on fuel 
cell technologies that can be incorporated into advanced transportation 
technologies. These various investments by DOE encourage investment by 
industry and help to build market acceptance for alternative fuel 
vehicles.

                               CONCLUSION

    The success of electric vehicles in the marketplace continues to 
require industry and government, working together, to bring down the 
costs of these environmentally superior technologies. The Federal 
Government's role should continue to focus on participating with 
industry in efforts to advance electric transportation technologies 
through programs like the USABC; to join industry in the test and 
evaluation of the latest EV/HEV technologies through programs like the 
Vehicle Field Test and Evaluation Program; to work with communities and 
industry to facilitate deployment of the infrastructure required to 
support the convenient and safe operation of EVs; and, to use the 
purchasing power of the Federal Government to increase the market for 
EVs. The DOE programs mentioned in this testimony are essential to 
bringing affordable EVs to the public, and the EVAA strongly urges the 
Subcommittee's support.
                                 ______
                                 

Prepared Statement of the National Research Center for Coal and Energy, 
                        West Virginia University

    Chairman Gorton and Members of the Subcommittee: Thank you for the 
opportunity to offer testimony and make recommendations regarding the 
programs of the U.S. DOE in fossil energy and energy conservation.

           RECOMMENDATIONS CONCERNING FOSSIL ENERGY PROGRAMS

    Forecasts prepared by the Energy Information Administration and 
many other credible organizations predict increased reliance on coal 
for power generation. We are dissatisfied with the Administration's 
budget recommendation that funding for Coal and Power Systems research 
be reduced by almost $19 million from the fiscal year 2000 
appropriations and also with the proposed overall reduction of $28 
million for Fossil Energy Research and Development. For fiscal year 
2001, funding for Fossil Energy R&D should be increased to at least 
$433 million, the level recommended in the 1997 PCAST report on 
Challenges for the 21st Century. Most of these funding increases should 
be allocated for coal research. We will cite specific program elements 
in the remainder of our testimony where increased funding is 
recommended.
    Transportation Fuels and Chemicals.--In addition to coal's 
traditional role in electric power generation, recent economic losses 
associated with the increased price of petroleum mandate expanded use 
of coal in the production of clean transportation fuels and value-added 
chemicals. We recommend that the Transportation Fuels and Chemicals 
line item be increased by $3 million to initiate a partnership program 
with academic and industrial researchers to develop technology for 
producing chemical blending stocks, additives, and lubricants for 
transportation fuels and chemicals. Co-production plants which generate 
electric power along with fuels and chemicals are a vital key to 
deployment of advanced coal technologies under the Vision 21 program. 
We support the new initiative in Ultra Clean Fuels in cooperation with 
the Office of Transportation Technologies. One third of Fossil Energy's 
share of the funding should be used for developing coal-based fuels.
    Advanced Separations.--The Administration has requested only 
$377,000 for a program in Advanced Separations for developing new 
technologies for solid-solid and solid-liquid separations directed 
toward fuels production and use. These technologies will apply for 
transportation fuels and chemicals production, increase the reliability 
of advanced systems such as Vision 21 plants which involve many solids 
handling processes, and increase the efficiency of producing fuels and 
minerals while protecting the environment. We recommend that funding 
for this line item be increased to $3 million.
    Vision 21 and Advanced Energy Systems Programs.--We are concerned 
about the low rate of deployment of new technologies into the power 
generation sector. Federal support is greatly needed to bring the new 
technologies developed over the past decade to market readiness. Power 
generation developers will be making decisions in the near future about 
selecting plants that will last for another fifty years. We need a 
vigorous program of research which will enable rapid commercialization 
of advanced technologies. In some of these advanced technology sectors 
which are integral modules of Vision 21 plants, European countries are 
taking the leadership initiative from us. Unless we can develop our 
technologies to deployment status in the near future, our window of 
opportunity for commercializing new technologies will be missed. We 
support full funding for the carbon sequestration program outlined in 
the Administration's budget and express similar support for other 
elements of the program such as fuel cells, gas turbines, and the 
development of advanced materials and systems.
    Carbon Products and Advanced Fuels Research.--Coal can also be used 
for generating high value products such as carbon fibers and foam. West 
Virginia University is developing innovative ways to generate such 
products based on technologies using advanced processing techniques. We 
request $1.7 million to continue our research program which was 
initiated last year by the Subcommittee at a level of $300,000 in the 
Advanced Fuels Research program.
    Oil and Natural Gas Research Programs.--The methane hydrates 
program offers potential to recover vast amounts of fuel which is low 
in carbon intensity. In support of recent action by the House on H.R. 
1753, we recommend that funding for this program be increased to at 
least a level of $8 million for fiscal year 2001. We also recommend 
support for the Infrastructure Technology initiative to increase the 
reliability of the gas transmission and distribution network. This 
program is necessary to ensure that gas supplies can be delivered when 
needed during critical periods in addition to implementing technologies 
which will reduce the emission of methane, a greenhouse gas, to the 
environment. The National Energy Technology Laboratory will receive 
proposals by April 24, 2000 regarding Phase III of the coal mine 
methane program supported by the Subcommittee last year. We recommend 
continued funding of this program to enable completion of the projects 
to be selected. While we estimate that at least $3 million will be 
needed for fiscal year 2001, we recommend that the Subcommittee request 
a report from NETL regarding funding needs after the proposals are 
received. The Petroleum Technology Transfer Council Resource Center 
program is a valuable asset to our small producers in West Virginia and 
should be continued.
    National Energy Technology Laboratory Initiatives.--We have 
observed that the number of industrial laboratories conducting energy 
research, especially in coal, has decreased over the past decade. There 
is need for a national center which conducts advanced research in 
fossil energy in all areas from extraction to byproduct utilization. We 
recommend that funding for this newest laboratory be enhanced to enable 
it to provide leadership in research and provide opportunities to 
nurture our future energy scientists through enhanced opportunities for 
academic research programs. Three new centers of excellence were 
proposed for NETL for fiscal year 2001 in the areas of Supercomputing, 
Sequestration, and Advanced Natural Gas Studies. We are appreciative of 
NETL involving West Virginia University as a partner in sharing access 
to high speed computing connections into our State to support their 
Morgantown Center. We support full funding for these Centers of 
Excellence as outlined in the Administration's request.

        RECOMMENDATIONS CONCERNING ENERGY CONSERVATION PROGRAMS

Office of Transportation Technologies
    The Administration has requested a funding increase of 12 percent 
for transportation technologies programs for fiscal year 2001. We 
support this request and will address our comments to several aspects 
of the OTT program. The OTT staff are commended for their interaction 
with industry in developing their programs.
    Research is needed to enable deployment of diesel engine technology 
into lighter weight vehicles in addition to improving the performance 
of Class 7 and Class 8 vehicles. Our window of opportunity to develop 
these technologies will likely close by 2004 when manufacturers will 
need to make choices for the future. Funding for engine research should 
be provided to enable an aggressive program to be completed in a 
meaningful time frame for deployment.
    OTT will invest at least $17 million in the Advanced Petroleum-
Based Fuels and Ultra Clean Fuel initiatives in fiscal year 2001, 
including an emphasis on combustion and after treatment R&D. Cleaner 
fuels with a sulfur content of less than 15 ppm are needed to meet 
proposed EPA mandates for heavy duty diesels. Cars will face similar 
limits in sulfur content for gasoline fuels. The C-1 Chemistry program 
offers opportunities to develop technologies using our indigenous 
resources of natural gas and coal to produce high quality liquid fuels 
which have reduced emissions. We recommend continued support at a level 
$1.2 million for fiscal year 2001 for the C-1 Chemistry program 
conducted by the Consortium for Fossil Fuel Liquefaction Science.
    Other areas which should be emphasized include work in developing 
materials for fuel cell systems, performance and life cycle testing of 
advanced lithium-based batteries, and materials development for natural 
gas storage in carbon fiber systems. We recommend emphasis on 
developing effective natural gas systems for vehicle applications. The 
research programs proposed for PNGV applications using hybrid natural 
gas systems will enable new technologies to be developed for 
application to both the automobile and the light truck markets.
    We urge the Department to move more aggressively to meet the 
targets outlined in the Energy Policy Act of 1992 in finding 
alternative fuels to displace petroleum imports and to increase the 
deployment and operation of alternative fueled vehicles. Technology 
Deployment initiatives proposed for fiscal year 2001 will be enhanced 
by cooperation with State governments. Strengthening of the State 
Energy Program (SEP) grant award program will increase opportunities 
for deployment of alternative fueled vehicles at local levels. We 
recommend the funding and deployment of a natural gas cylinder 
inspection program to provide additional support for maintenance and 
infrastructure development in deploying natural gas vehicles.
Office of Industrial Technologies
    The Administration has recommended an increase of 5 percent for the 
OIT programs for fiscal year 2001. We find these programs to be 
relevant to West Virginia and are supportive of this recommendation. 
For example, 53 percent of the total manufacturing in West Virginia, 
exclusive of the mining sector, occurs in industries in which there are 
IOF programs. Our industries have worked closely with the DOE IOF 
program for many years through the development and implementation of a 
State IOF program. We find the State IOF program to be of value and 
recommend that the Department develop a technical assistance program 
designed to assist other states in integrating more fully with the 
national IOF activities. This technical assistance program should be 
implemented in 2001 at the latest.
    The Mining IOF program is particularly important in view of the 
absence of a federal mining technology laboratory and the continued 
decline in the number of in-house research laboratories supported by 
the mining industry. We recommend continued strengthening of this 
component of the IOF program.
    We commend IOF staff on their interactions with industry in the 
development of research programs.
    Thank you for the opportunity to appear before the Subcommittee to 
provide oral testimony. We will be pleased to provide additional 
information at your request.
                                 ______
                                 

      Prepared Statement of the National Corn Growers Association

    The National Corn Growers Association (NCGA), representing 30,000 
corn growers in 48 States, appreciates the opportunity to provide the 
Subcommittee with our recommendations regarding the fiscal year 2001 
Interior appropriations bill. We, strongly, urge you to provide a 
minimum of $13 million in funding for the Agricultural Vision, the 
Plant/Crop-Based Renewable Resources Vision 2020 program that is funded 
under the Department of Energy's Industries of the Future (specific) 
program within the Energy Conservation budget.
    Since 1996, the U.S. agricultural, forestry, and chemical 
communities have worked with DOE to develop a long-term, strategic 
vision based on increased utilization of renewable inputs for basic, 
chemical building blocks that would be used to produce a wide range of 
everyday consumer goods, such as plastics, paints, carpet fibers, 
adhesives, anti-freeze, and personal care products. The Agricultural 
Vision is for plants, instead of petroleum, to serve as the feedstock 
for 10 percent of the chemical building blocks market by 2020 and 50 
percent by 2050. Gaining 10 percent of the market would represent a 
five-fold increase from today's tiny market share of these basic, 
chemical building blocks. If plants were the feedstock for 10 percent 
of this market, farm income would increase by more than $5 billion per 
year, greenhouse gas emissions would be reduced, recycling 
opportunities would be increased, and, most importantly, our dependence 
on foreign oil would decrease.
    As we have experienced first hand over the past few months, the 
power of unstable oil exporting countries affects, dramatically, the 
price of gasoline, heating oil, and many consumer goods, such as 
plastics, due to our ever-increasing reliance on imported oil. The 
U.S., currently, imports more than 50 percent of domestic petroleum 
consumption, and, by 2020, net imports will grow to over 65 percent.
    While we have a finite supply of fossil fuels, we have abundant 
plant/crop-based resources that are renewable over short periods of 
time (e.g., annual and perennial crops). The most significant 
opportunity to help offset the need for imported oil is the use of 
alternative feedstocks that can be derived from renewable plants and 
crops. Renewable materials, from American-grown crops can provide many 
of the same basic, chemical building blocks as petrochemicals, and can 
provide others that petrochemicals cannot.
    Currently, the U.S. chemical industry utilizes about 900 million 
barrels of oil annually (approximately 12-14 percent of total U.S. oil 
consumption) to produce organic chemicals. The carbon contained in 900 
million barrels of oil can be produced from renewable feedstocks on 
about 80 million acres of land, about equal to current corn production. 
Using historical, average prices for corn and oil, the cost of carbon 
from corn approaches the cost of carbon from oil. The recent escalating 
fuel prices should serve as a wake-up call for research that will 
provide us with a secure, long-term supply of durable, high performance 
raw material inputs.
    To achieve the bold vision, we must begin laying the research 
foundation today. If we are to realize, fully, the potential for bio-
based resources as a supplement to fossil fuels, we need new routes for 
more efficient processing and utilization as well as a whole range of 
plant-derived building blocks. New technologies require time to develop 
and implement. Now is the time for significant research and development 
on what renewable sources and novel processes might be available, and 
for beginning to develop selection criteria among the possible 
alternatives.
    After the Agricultural Vision was unveiled in 1998, work on a 
technology roadmap began. Inputs were gathered from two workshops with 
scientific and marketing experts from a broad range of disciplines. The 
Technology Roadmap, published in February 1999, identifies performance 
goals and establishes a focused research and development agenda for 
developing the technologies needed to make the industry vision a 
reality. The Roadmap identified research needs in four major research 
categories. For each of these categories, the top priority is:
  --Plant Science--understand gene regulation and control of plant 
        metabolic pathways;
  --Production--alter plants to produce components of interest rather 
        than heterogeneous seeds;
  --Processing--develop new separation methods--membranes, 
        distillation, etc.; and
  --Utilization--understand structure function relationships for plant 
        constituents (protein, starch, etc).
    While each of these individual areas of opportunity is important, 
it is critical for us to develop all of the areas simultaneously and to 
develop integrated strategies for chemical production. We need funding 
for projects that will cover the full scope of the R&D needs, from 
basic plant science to utilization. Multi-disciplinary research, along 
several different pathways, will be necessary to improve the 
performance of plant resources as raw materials.
    We are at a unique place in history as the tools that are 
revolutionizing plant-based science and technology are beginning to be 
available. The advantage of modern molecular tools is that we will meet 
future demand with the increasing use of renewable resources as basic, 
chemical building blocks. The disadvantage is that for modern science 
to deliver the ``leap-frog'' technology to achieve our goals, projects 
must be large, multi-institutional including public and private sector 
participants, and multi-disciplinary with emphases on biology, 
chemistry, and engineering. Of necessity, these projects are expensive 
and a significant level of funding must be provided if they are to be 
successful.
    While the Administration requested $13 million for the Agricultural 
Vision, the budget proposes to take $5 million of that amount (almost 
40 percent) and put it into the Administration's Bio-Energy Initiative 
where the funding could also be used for research on power and fuels. 
While we support the bi-partisan, Bio-Energy Initiative, we do not want 
to sacrifice funding for the Agricultural Vision.
    We appreciate that the Administration proposes to increase funding 
for the Agricultural Vision to $8 million; however, funding for the 
Agricultural Vision pales in comparison to the bio-power and bio-fuels 
programs at DOE. As you know, the DOE bio-power and bio-fuels programs 
are both proposed to be funded in the $40-$50 million range. Our 
greatest opportunities over the next few years are in the bio-products 
area and funding in this area is substantially below the level needed 
for multi-disciplinary research that has clear linkages across all of 
the highest priorities in the Roadmap. The Agricultural Vision is the 
only program focused, solely, on increasing the use of renewable 
resources for chemicals (for bio-products) and is the only program 
focused on the R&D agenda outlined in the Agricultural Vision's 
Technology Roadmap. A 50 percent cost-share is required for all of the 
projects funded under the Agricultural Vision program and the projects 
must address the OIT mission of improving energy efficiency and 
environmental performance.
    We will be able to reduce our reliance on imported oil much sooner 
if we focus our efforts towards the ambitious Agricultural Vision and 
act now to fund much needed research. For the long-term success of the 
program, it is critical that research in the broad, major research 
categories, identified in the Roadmap, be coordinated and integrated to 
ensure that progress is made on all fronts. With $13 million, devoted 
to R&D needs outlined in the Agricultural Vision's Technology Roadmap, 
funding could be provided for projects that address the highest 
priorities in each of the four major research categories listed in the 
Roadmap.
    We, strongly, urge you to provide a minimum of $13 million for 
fiscal year 2001 for OIT to implement, more fully, the Agricultural 
Vision's Technology Roadmap. This funding will help to decrease our 
dependence on imported oil. We look forward to working with you as we 
lay the foundation for renewable chemical building blocks.
    Thank you, again, for this opportunity to provide you with our 
recommendations for the fiscal year 2001 Interior appropriations bill.
                                 ______
                                 

Prepared Statement of the School of Mineral Engineering, University of 
                           Alaska, Fairbanks

    I strongly encourage the Subcommittee to support DOE's fiscal year 
2001 budget request of $8.5 million for the Emerging Processing 
Technology Applications program within the Fossil Energy-Natural Gas 
Research budget. This program includes $4.4 million to continue the 
ceramic membrane-based ITM Syngas project, an 8\1/2\ year, $87 million 
cost-shared project that promises to significantly lower the cost of 
converting natural gas to a liquid fuel, resulting in the use of vast 
domestic remote resources of natural gas that cannot be economically 
delivered via pipeline to market.
    Experts estimate that there is more than 38 TCF of recoverable 
remote gas on the Alaskan North Slope. In a recent circular, the United 
States Geological Survey estimates that there is more than double that 
amount of technically recoverable remote reserves in undiscovered 
fields in Alaska as well as offshore reserves in deep waters in the 
Gulf of Mexico and along the Pacific coast.
    Alaska's challenge for years has been how to economically produce 
and transport its remote natural gas to market in an environmentally 
responsible way within a very competitive international economy. 
Domestic oil production, especially the large fields in Alaska, is on a 
decline, and petroleum imports are projected to exceed 60 percent of 
our national needs by 2010. Already, in Alaska, 4 out of 11 (36 
percent) operating pumping stations for the Trans Alaskan Pipeline 
System (TAPS) have been shut down and placed on standby. As the 
production decline continues, the long-term viability of the TAPS is 
uncertain. Therefore, developing a means to recover and transport 
remote natural gas in Alaska is of vital importance to the Alaskan 
economy, the nation and potentially to the future of the TAPS. 
Unfortunately, current technologies are far too costly for reserve 
owners to bring most of Alaska's gas to market.
    A promising solution is to convert the remote gas to transportable 
liquid products, which could be easily delivered to the market in the 
lower 48 States using the existing petroleum infrastructure in Alaska. 
The University of Alaska, Fairbanks, School of Mineral Engineering, is 
working with the Department of Energy to conduct an evaluation of 
various methods for transporting gas-to-liquid (GTL) products, commonly 
called ``white crude,'' through the existing TAPS. Utilizing the TAPS 
for GTL product transport will significantly increase its operating 
lifetime. In addition, it will further enable the recovery of 1-2 
billion barrels of oil from the North Slope, which would remain 
unrecoverable if the pipeline were to be prematurely shut down.
    However, utilization of gas-to-liquids conversion technology is 
dependent on developing a low-cost alternative for synthesis gas 
production, the first processing step in which natural gas is converted 
to a mixture of hydrogen and carbon monoxide before being processed by 
Fischer-Tropsch (FT) technology to make liquids. Through a team led by 
Air Products and Chemicals, Inc. of Allentown, Pa., the Department of 
Energy's Natural Gas Research Program has been sponsoring a multi-phase 
development of an important new synthesis gas technology--referred to 
as ITM Syngas. This technology is based upon a novel ceramic membrane 
reactor that could significantly reduce the cost of syngas production, 
enabling economic gas-to-liquids conversion. Completed conceptual 
process design and economics for ITM Syngas show a >33 percent capital 
cost savings versus conventional autothermal reforming/cryogenic air 
separation. The University of Alaska, Fairbanks, School of Mineral 
Engineering, is a participant in the ITM Syngas project team, along 
with Pacific Northwest National Laboratories, Ceramatec, Chevron, Norsk 
Hydro, Eltron Research, McDermott International, the University of 
Pennsylvania and Penn State University. When successfully developed, 
this technology will result in a major step change in the conversion of 
natural gas to hydrogen and synthesis gas for liquid fuels, and for 
chemicals.
    Over the past few years, the project team has made significant 
progress at the laboratory scale in the parallel path development of 
new materials, catalysts, seals, reactor designs, ceramic powder and 
membrane fabrication, process design and engineering and economic 
evaluation. The first phase is being successfully completed and the 
project is moving forward into Phase 2 where the technology developed 
in Phase 1 will first be validated in a process development unit 
operating at a nominal scale of 24,000 SCF per day of synthesis gas 
product (equivalent to 0.75 bbl/day of liquid fuel products) and 
scaled-up to an engineering prototype system operating at a nominal 
scale of 500,000 SCF per day (equivalent to 15 bbl/day of liquid fuel 
products).
    The continued development of the ITM Syngas process will require a 
substantial financial investment by both the private and the public 
sector before a commercial technology can be realized. Since initiating 
this project in 1997, in response to a competitive DOE procurement, the 
Air Products-led project team has provided 50 percent cost-share of ITM 
Syngas development and has agreed to full payback of the Federal 
funding contribution should the technology be successfully 
commercialized.
    The FT GTL product is exceptionally clean burning, high cetane 
diesel fuel that is environmentally acceptable. Further, in a climate 
of high gas prices due to world crude supply restrictions, the Alaskan 
North Slope GTL process, made economically feasible by ITM Syngas, will 
reduce the U.S. dependency on oil imports.
    In addition, the ITM Syngas process is ideally suited to generate 
hydrogen in the size ranges required for the distributed hydrogen 
required for future fuel cell powered vehicles and stationary fuel cell 
power generators. Cheaper hydrogen made possible by ITM Syngas will 
also help the petroleum refineries meet increased hydrogen demand for 
Clean Air Act-driven oxygenated gasoline, reformulated gasoline, lower-
sulfur diesel fuels and upgrading of heavier and high-sulfur crude 
oils.
    A major reduction in the cost of producing synthesis gas via ITM 
Syngas will also have a cross-cutting impact on many U. S. industries 
which depend upon synthesis gas as a raw material in the manufacture of 
commodity chemicals and consumer goods, such as clean-fuel additives, 
rubber, polyester textiles, urethane foam, plastics, paint, detergents, 
and fertilizers.
    Furthermore, the ITM Syngas technology will have a favorable 
environmental impact on the North Slope due to a substantial reduction 
in the emission of greenhouse gases and pollutants (CO<INF>2</INF>, 
CH<INF>4</INF>, NO<INF>X</INF> and SO<INF>X</INF>). A viable GTL 
technology will virtually eliminate the need for the current practice 
of flaring the associated natural gas and will reduce gas combustion 
requirements for wellhead reinjection, all of which are sources of 
pollutants.
    In conclusion, I would like to restate the importance of the 
Department of Energy's Emerging Processing Technology Applications 
program within the Fossil Energy-Natural Gas Research budget. This 
shared investment by government, industry, universities and national 
laboratories in developing new energy technology to efficiently use our 
natural gas resources is integral to our nation's efforts to protect 
our future economy from escalating energy costs and to improve 
environmental quality. I strongly believe that new gas processing 
technology, such as the ITM Syngas will not only benefit the citizens 
of Alaska, but will also enhance the global competitiveness of our 
nation as we move forward into the 21st century.
                                 ______
                                 

         Prepared Statement of the National Mining Association

    The National Mining Association's (NMA) \1\ member companies 
account for approximately three-fourths of the coal production in the 
United States, over one billion tons annually, and the vast majority of 
mined minerals including iron ore, copper, gold, silver, uranium lead, 
zinc, and phosphate. The purpose of this statement is to present the 
mining industry's views on fiscal year 2001 programs for the following 
agencies: Office of Energy Efficiency and Renewable Energy, Office of 
Fossil Energy, Energy Information Administration, U.S. Geological 
Survey, the Office of Surface Mining, the Bureau of Land Management and 
the Forest Service.
---------------------------------------------------------------------------
    \1\ The NMA has not received a Federal grant, contract, or 
subcontract in fiscal years 2000, 1999, or 1998.
---------------------------------------------------------------------------
                        office of fossil energy
    The Department of Energy's (DOE) past R&D activities in the area of 
coal research and coal generation provide a good basis for the 
technologies that will be required to maintain and expand use of coal 
while addressing existing and possibly more stringent environmental 
standards. The fiscal year 2001 budget request for coal and power 
systems shows a decrease of $18 million from fiscal year 2000 levels, 
$212 to $194 million. At a minimum, given the importance of coal to the 
existing generating mix and the need to develop technologies to allow 
the currently operating fleet to meet new environmental and efficiency 
requirements, the fiscal year 2001 budget should be above fiscal year 
2000 levels.
    The Clean Coal Technology Program has been one of the most 
successful cooperative R, D &D efforts between the government and 
industry having demonstrated a number of first of a kind technologies 
to enable coal to meet current environmental and performance standards. 
However, the current program lacks the means to move these emerging 
technologies from demonstration to commercialization. The DOE fiscal 
year 2001 budget request calls for rescinding $105 million from 
appropriations for the Clean Coal Technology Program. NMA opposes this 
rescission. However, if funds are available from this program the NMA 
recommends that they be redirected to address the need for the 
development and commercial application of lower cost retrofit and re-
powering technologies for existing coal-based generating facilities.
    To address ever expanding environmental requirements, NMA supports 
inclusion of funding for low emission boiler systems and the ongoing 
work on pressurized fluidized bed combustion, primarily at the 
Wilsonville Power System Development plant.
    Vision 21 looks to the future where highly efficient power plants 
will continue to use coal and other fossil fuels to provide Americans 
with low-cost energy and other products. At the same time, air 
emissions will be reduced completely with any remaining carbon offset 
through sequestration. Vision 21 will incorporate and expand many of 
the technologies developed in the Clean Coal programs (e.g., PFBC and 
IGCC). The work that DOE is proposing for fiscal year 2001 is critical 
if Vision 21 technologies are to be demonstrated by 2015. This program 
is of sufficient importance to support funding above the requested 
$41.2 million. The Department's plan to defer needed Coal Technology 
funding should be rejected. We also advocate the Los Alamos National 
Laboratory's research request of $1 million to assist with the 
development of the Zero Emission Coal Alliance project. ZECA will 
improve existing technology to double the net efficiency of coal-based 
generation and produce a concentrated stream of carbon dioxide that can 
be sequestered.
    Carbon Sequestration Methods offer an alternative to emitting 
carbon dioxide to the atmosphere. They will provide an opportunity to 
use the Nation's existing energy infrastructure and the new plants 
developed by Vision 21. Most of these projects will be a longer term, 
with the exception of projects such as the ZECA project described 
above. Research is needed now to determine whether carbon can be 
sequestered safely underground or in the ocean, as well as in greater 
amounts through increased vegetation. NMA supports DOE Fossil Energy's 
request for an increase in carbon sequestration funding to $19.5 
million although this request could certainly be sharply higher. We 
would also encourage additional funding of $3 million to continue Los 
Alamos National Laboratory's promising research in sequestering carbon 
in semiarid lands first utilizing abandoned mine lands.
    Coal Research and Development.--It is important to continue funding 
for coal preparation and liquefaction technologies. Advanced coal 
preparation technologies promise to reduce the cost of continued use of 
coal in traditional applications in large industrial and electric 
utility boilers. It is important to continue the industry cost-shared 
research work on technologies for the manufacturing of carbon products. 
Research in the areas of advanced technologies for solid-solid and 
solid-liquid separations directed toward fuel production and use is 
equally important. DOE has requested $377 thousand for this advanced 
separation technology initiative. NMA requests that the budget 
allocation for this effort be increased to $3 million to support this 
long-term high risk project.
    NMA supports increasing the DOE Fine Particulate and Hazardous 
Pollutants budget by $1.765 million to continue funding the 
Steubenville Comprehensive Air Monitoring Program (SCAMP). SCAMP will 
develop information that is essential for defining the relationship 
between fine particulate matter (PM) concentrations in ambient air and 
the fine PM concentrations to which individuals are exposed. SCAMP is 
co-funded by the Department of Energy, the Ohio Coal Development 
Office, the National Mining Association, the American Petroleum 
Institute, the Electric Power Research Institute, the American Iron and 
Steel Institute, and CONSOL Inc. SCAMP will provide fine particulate 
data to assist State and Federal environmental authorities in assessing 
the relationship between the source and concentrations of fine PM in 
ambient air and personal exposure. DOE initiated the program with 
fiscal year 2000 funds that were used to purchase equipment, prepare 
operating manuals, conduct studies to establish data comparability, and 
begin work by the Harvard School of Public Health, Ohio University, 
Wheeling Jesuit University, St. Vincent College, and Optimal Inc. to 
operate and maintain ambient air sampling and monitoring stations.
    National Laboratories and Cooperative R&D Programs.--The Department 
of Energy should continue its emphasis on making maximum use of its 
existing research facilities, including those national laboratories 
that traditionally have not been active in fossil energy. The National 
Laboratory system is an important complement to the future of the coal-
based generation option.

            OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY

    The Mining Industry of the Future Program.--The research priorities 
developed through this industry/government partnership offer important 
direction to the Department of Energy, industry and Congress as the 
research agenda needed for a sustainable mining industry in the 21st 
Century. In 1999, a technology roadmap was completed which defines 
research requirements that address all aspects of the industry and two 
solicitations for crosscutting technology proposals were issued.
    Ten projects were awarded funding under the first crosscutting 
solicitation although 23 worthwhile proposals were received. Sixty-two 
proposals are being evaluated in response to the second crosscutting 
solicitation. These proposals total about $52 million--at 50 percent, 
DOE's cost share would be about $26 million. The $4 million dollars 
that DOE has requested for mining for fiscal year 2001 is clearly too 
low to meet the needs of the program. NMA respectfully requests that 
the Mining Industry of the Future Program be funded at $8 million in 
fiscal year 2001.

                   ENERGY INFORMATION ADMINISTRATION

    In addition to its value to the Nation, the functions performed by 
the Energy Information Administration (EIA) are of significant 
importance to the mining industry. EIA's unbiased analysis and 
independent short and long-term forecasts form a basis for reasoned and 
responsible policy decisions by the Congress, the DOE and other 
government agencies on both the Federal and State levels. EIA's 
independence and objectivity are especially important as the Nation 
considers the effects of new initiatives such as utility restructuring 
and climate change policies on our energy system, and our dependence on 
foreign sources of energy. EIA's energy data collection and 
dissemination responsibilities are essential to our industry's ability 
to evaluate production and market trends and to make investment 
decisions, which benefit the Nation. Unfortunately, over the past 
several years funding levels for EIA have been level or declining. Over 
the longer term this is counterproductive and will adversely affect the 
level, accuracy and timeliness of the information provided to industry 
and policy makers. We urge the subcommittee to support current levels 
of funding as a minimum, and increase the amount available to EIA if at 
all possible.

                        OFFICE OF SURFACE MINING

    The Abandoned Mine Land (``AML'') program receives funding from 
coal operators for the purpose of providing ``no fault'' reclamation of 
sites disturbed before the passage of SMCRA and not reclaimed to the 
Act's standards. NMA supports OSM's objective of funding the AML 
program at a level equal to fee receipts; however, we strongly oppose 
the proposed 10-year extension of the AML tax on coal operators. Any 
change in the AML tax must be closely scrutinized before any proposal 
to change the current scheme is considered. Among the things that 
should be analyzed is the amount of money that is used to administer 
the program and whether the Federal administration is effective in 
light of the maturity and effectiveness of the Federally--approved 
State AML programs.
    NMA has often expressed its concern over the lack of adequate 
funding for States under the Title V grant program. States have long 
ago shown the expertise and the will to manage strong and effective 
surface mining programs. NMA is pleased to note that the Administration 
is seeking an increase in the funding level for State implementation of 
SMCRA. NMA is further encouraged by the agency's proposal to fully-fund 
minimum AML program states in the statutorily authorized amount of $2 
million.

            BUREAU OF LAND MANAGEMENT AND THE FOREST SERVICE

    For years, NMA has maintained that static funding of the mining, 
minerals and geology functions at the BLM and the Forest Service is 
insufficient to carry out the agencies' mining and minerals function 
effectively. In October 1998, Congress adopted the Interior 
Appropriations for fiscal year 1999 that provided $800,000 for the 
National Academy of Sciences (``NAS'') to conduct a comprehensive study 
to determine the adequacy of the existing Federal surface management 
rules regarding hardrock mining. One important finding of this NAS 
report was that the BLM and the Forest Service should review the 
adequacy of staff and resources devoted to regulating mining 
operations. In light of this finding, NMA is deeply concerned by the 
fact that neither the BLM nor the Forest Service has referenced the 
report or made an attempt to justify existing funding levels or 
increase funding to ensure that the existing array of Federal mining 
regulations (that were found by the NAS to be generally effective in 
protecting the environment) are effectively implemented.
    Instead of proposing to adequately fund its existing hardrock 
regulatory program as recommended by the NAS, the BLM has proposed a 
massive rewrite of its regulations which the agency says will cost an 
additional 25 to 35 percent more than the existing underfunded program 
will (according to its own Draft Environmental Impact Statement.) It 
appears that the Administration has set its mining regulation program 
on self-destruct in order to create the illusion that the existing 
Mining Law must be completely rewritten.
    NMA also questions the reasoning behind the failure of the Forest 
Service to request the necessary funding to maintain the national 
forest transportation system while simultaneously using an $8.4 billion 
backlog of deferred road maintenance and reconstruction as an excuse to 
deny the American public access to its land. This action, combined with 
the actions of the Secretary of the Interior and the President in 
unilaterally withdrawing millions of acres of potentially valuable 
mineral lands from public use, is extremely dangerous for a Nation 
whose citizens consume 47,000 pounds of newly mined minerals each year.

                         U.S. GEOLOGICAL SURVEY

    Federal Investment in geoscience research and information continue 
to pay enormous dividends and the rationale for continued support of 
geoscience remains strong. The Geological Survey's role in mineral 
exploration, identification of geological hazards and mapping offers 
important support to the mining industry. NMA supports maintaining 
these programs at current, or expanded levels. In addition, the Survey 
is the only source for most of the United States' statistical data on 
mining and minerals commodities. This information provides the basis 
for informed policy decisions by government and is extensively used by 
other government agencies, by Members of Congress and by State and 
local governments, as well as by industry, academia and nongovernmental 
organizations. NMA is concerned that funding for the data and 
information functions has been declining since this area of 
responsibility was transferred to the Survey. Staff levels and mining 
expertise have declined significantly which affects the timeliness and 
accuracy of the data. NMA strongly advocates that the Survey increase 
the funding allocated to data and information while continuing to make 
use of expertise available from State geologists.

                         CROSSCUTTING ACTIVITY

    The NMA, the Interstate Mining Compact Commission and several 
Federal agencies (OSM, BLM, DOE, and USGS) have actively participated 
in the Acid Drainage Technology Initiative (ADTI) since 1995. The ADTI 
is a nationwide technology development program with a guiding principle 
of building a consensus among Federal and State regulatory agencies, 
universities and consulting firms, to predict and remediate acid 
drainage from active and inactive coal and metal mines. It is not a 
regulatory or policy development program.
    This collaborative effort receives funding and other support from 
industry and several Federal agencies for specific projects. For 
example, the Office of Surface Mining has provided the ADTI $200,000 
for the last two fiscal years which has been a consistent source of 
funding for activities related to acid mine drainage from coal mining 
and has been instrumental in accomplishing the ADTI's short-term goals. 
No similar source of funding has been available for activities related 
to acid drainage from metal mining to date. If each of the Federal 
agencies, OSM, BLM, DOE, USGS, and other agencies as appropriate, were 
provided funds to commit $100-200,000 toward ADTI, approximately $1 
million would be available to support the work of this vital 
initiative.
                                 ______
                                 

      Prepared Statement of the Coal Utilization Research Council

    These written comments are submitted on behalf of the members of 
the Coal Utilization Research Council (CURC). The CURC is an ad hoc 
group of electric utilities, coal producers, equipment suppliers, 
architect, engineering and consulting firms, state government offices 
and universities and chemical companies. Members of CURC share a common 
vision of the strategic importance for this country's continued 
utilization of coal in a cost-effective and environmentally acceptable 
manner. The CURC membership also believes that coal-based generation 
should be preserved to ensure a diversity of fuel supply, produce 
affordable and reliable electricity, maintain a strong U.S. economy and 
help stabilize the balance of payments.

              INTRODUCTION AND SUMMARY OF RECOMMENDATIONS

    CURC has developed a strategic R&D program designed to ensure the 
continued use of our Nation's coal resources. The coal-based R&D 
program is described in a CURC technology ``roadmap'' which is an 
essential tool by which the CURC membership judges the adequacy and 
timeliness of R&D programs.
    The roadmap identifies a number of advanced coal-based electricity 
generating systems that, if fully developed, would insure continued 
cost effective, efficient and environmentally acceptable use of coal. 
Because the ultimate economic viability and technical feasibility of 
any single coal utilization technology cannot be assured, CURC strongly 
advocates the development of a portfolio of options. The roadmap 
identifies a number of high-priority, advanced coal-based power systems 
as well as the timeframes and performance requirements of the 
components for those systems. If critical components of a particular 
system are not developed in a timely manner, a promising technology may 
not materialize.
    CURC believes that funding of the Department's fiscal year 2001 
budget request as well as future funding requests should be guided by 
the roadmap's R&D goals. In a number of important areas DOE's fiscal 
year 2001 budget request falls short of the roadmap's goals. In fact, 
this year's request is actually lower than amounts appropriated in 
fiscal year 2000. We believe that funding levels in several areas need 
to be increased or at least maintained at current levels if the 
technology objectives defined in the roadmap are to be achieved in a 
timely fashion. In consideration of the technologies and goals 
identified in the roadmap, the CURC is recommending that the Committee 
modify the budget request as follows:
  --Advanced research (formerly AR&TD).--Coal Utilization Science and 
        Materials--While the budget for ``advanced research'' programs 
        has been increased overall, the request for coal utilization 
        science (basic research) has been reduced. In addition, in that 
        area judged by the CURC membership to be among the most 
        important to future coal-based power systems--basic materials--
        a modest $350,000 increase has been requested for the materials 
        program. Rather than increase funding in science and materials, 
        the DOE requested increase is to support a new international 
        initiative, a coal technology exports program and new funding 
        for a ``center of excellence.'' Advanced materials as well as 
        basic science are central to technology improvements and 
        increased funding is essential. Included in CURC's 
        recommendations is work to advance high temperature heat 
        exchanger materials, including novel alloys and ceramics, to 
        enable power plant efficiency improvements. CURC also 
        recommends that industry and government undertake an advanced 
        materials program to be funded for multiple years. (RECOMMENDED 
        INCREASE: Add $2.0 million of new appropriations to initiate a 
        multi-year advanced materials program in support of central 
        system power stations. Restore $1.0 million for coal 
        utilization science and utilize these funds, in part, to 
        continue support for university research programs. Further, we 
        recommend that the proposed international initiatives be 
        clarified for relevance with respect to the development and 
        deployment of advanced technologies in countries DOE has 
        specifically targeted. We also recommend that the Department 
        consult directly with industry in the development of the 
        proposed coal technology export program.)
  --Advanced systems.--Integrated Gasification Combined Cycle (IGCC) 
        and Pressurized Fluidized Bed (PFB)--Funding requests for the 
        PFB and IGCC systems have been reduced from fiscal year 2000 
        levels by more than $4.0 million. These systems are among the 
        most promising technologies and central to achieving the 
        environmental, efficiency and cost goals encompassed in the 
        roadmap. Funding should be restored to last year's levels and 
        increased in light of both increasing natural gas prices as 
        well as increased reliance upon natural gas imports (15 percent 
        of U.S. consumption was imported in 1999). (RECOMMENDED 
        INCREASE: Restore $4.0 million and increase the overall 
        advanced systems program (i.e., indirect fired cycle, IGCC and 
        PFB) by $1.0 million to better insure that these technology 
        options are available when needed.)
  --Advanced systems.--Indirect fired cycle--Funding for this program 
        has been reduced by $5.0 million below levels appropriated in 
        fiscal year 2000. The core components of the HIPPs technology 
        development program should be pursued if the indirect fired 
        cycle is to be matured and contribute to future technology 
        advances. These components will be useful in other system 
        configurations. Further, the phase II objectives of the HIPPs 
        program, including emissions and performance testing on 
        existing pilot plants, should be completed. (RECOMMENDED 
        INCREASE: Restore $5.0 million for completing the phase II 
        objectives of the HIPPS program and continue core component 
        development.)
    --Transportation fuels and chemicals.--Feedstock conversion--Funds 
            should be added to initiate a partnership program with the 
            chemicals industry to target the use of coal in the 
            production of useful chemicals. (RECOMMENDED INCREASE: Add 
            $1.0 million to the DOE transportation fuels and chemicals 
            program. These funds should be used to initiate a program 
            with academic and industrial researchers to develop 
            technology for the production of chemical blend stocks, 
            chemical additives, and lubricants produced from coal for 
            transportation fuels and chemicals)
    --Oil technology--Ultra clean fuels.DOE is requesting $10.0 million 
            to initiate an ultra clean fuels program. CURC recommends 
            that coal be specifically included in this request; 
            otherwise the program will continue to rely primarily upon 
            a feedstock derived from overseas energy resources. 
            (RECOMMENDED ACTION: At least $2.0 million in this new 
            program should be directed at using coal as the feedstock 
            for ultra clean transportation fuels. This appropriation 
            will enable continuation of laboratory R&D for the next 
            generation of cleaner fuels from coal.)
  --Sequestration R&D.--Greenhouse gas control--The Department should 
        expand the carbon sequestration program to accelerate the 
        development of the most promising technology options and to 
        acquire a continuing independent analysis of process concepts 
        that are being pursued. Also, concurrent with sequestration 
        R&D, the tools and methodologies need to be developed and 
        applied to assess the technical, environmental, safety, 
        permitting and economic feasibility of CO<INF>2</INF> capture, 
        separation, and sequestration concepts. This will ensure that 
        relevant know-how is available, tested and reliable, when 
        needed. (RECOMMENDED INCREASE: Add an additional $3.0 million 
        to support climate change research being conducted in the DOE. 
        These funds should be targeted specifically to the conduct of a 
        independent analysis of process concepts. Also, added funding 
        should be directed at the development and application of the 
        tools and methodologies described above. Finally, because a 
        number of DOE offices are involved in sequestration R& it is 
        important that these various programs be coordinated and not 
        duplicated).
    --Innovations for existing plants (formerly AR&ET).--Fine 
            particulate control/air toxics. The existing fleet of coal-
            based generating facilities is facing ever increasingly 
            stringent environmental restrictions. As a result, the need 
            for cost-effective compliance options to maintain the 
            fleet's economic viability is more pressing than ever. Like 
            the budget for advanced research, funding increases in this 
            program are the result of a new initiative to implement an 
            ``international clean energy initiative.'' Use of clean, 
            advanced technologies abroad in countries that will use 
            increasing amounts of coal is important and necessary for 
            the global environment and to support U.S. manufacturing 
            interests. Addressing environmental concerns domestically 
            is even more important and should be supported accordingly. 
            DOE is currently evaluating mercury control concepts 
            related to electricity generation. These activities need to 
            be pursued in coordination with IGCC demonstration projects 
            that are operating in a testing/demonstration mode. This 
            effort requires added funding and a multi-year commitment. 
            In addition, the Department's comprehensive fine 
            particulate monitoring program should be fully funded 
            (equipment is procured already) and studies related to the 
            apportionment from various sources needs to be continued. 
            (RECOMMENDED INCREASE: Restore $1.0 million in funding to 
            maintain current year levels for the mercury control 
            program and increase the fine particulate program element 
            by $2.0 million.)
    --Innovations for existing plants (formerly AR&ET).--Waste 
            management--Evaluating the stability of HAPs captured in 
            flue gas desulfurization processes, on fly ash, in scrubber 
            gypsum and in products made of these materials needs to be 
            undertaken. (RECOMMENDED INCREASE: As the EPA determines 
            the regulatory requirements for HAPs it is important that 
            the wastes from coal-fired power plants be managed in 
            acceptable ways. An additional $1.0 million is recommended 
            for this initiative.)

                    CLEAN COAL TECHNOLOGY RESCISSION

    The fiscal year 2001 budget requests that $105 million in 
previously appropriated clean coal technology demonstration funds be 
rescinded. The CURC strongly recommends that this requested rescission 
be rejected. At a critical juncture when the budget request for coal 
and power systems has been reduced by more than $18.0 million below 
levels appropriated last year, when we are reminded again of the 
vulnerability of this country to an international oil cartel, and when 
the price of other energy resources, particularly natural gas, is 
increasing dramatically, now is the time to seek other appropriate uses 
for these funds in support of cleaner, more efficient, technologies to 
use coal in an environmentally sound fashion.
    The members of CURC are actively engaged in a consultative 
industry-wide process to agree upon a specific recommendation to the 
Congress for the use of clean coal funds now recommended for 
rescission. For example, the CURC is examining opportunities to reduce 
costs and significantly improve the operations of technologies that 
might be utilized on existing powerplants. Technology development will 
assure that the existing fleet of coal-fired plants can meet the 
current challenges of both environmental performance and capability for 
greater operating flexibility in a de-regulated electrically market 
Investment in technologies to support the existing fleet would need to 
be accelerated in the next 1-2 years. An accelerated program would 
ensure that the technologies are commercially viable and available in a 
timeframe that will assist owners/operators of existing coal-fired 
power plants to meet pending emissions requirements. Such an 
accelerated R&D program would focus resources on development and 
demonstration of advanced SOx, NOx and mercury control systems. 
Additional resources could be allocated to conduct research into ulta 
low-Nox burners and other combustion modifications, artificial 
intelligence, such as neural based controls to optimize plant 
operations to reduce NOx, CO, PM 2.5 and other airborne emissions, 
improve plant heat rates, and provide generating asset owners real-time 
knowledge of incremental capacity availability in order to improve 
overall national power grid stability during peak capacity needs. 
Additional resources might be allocated for solid waste management and 
utilization, or for improved SCR catalysts performance, particularly on 
units firing low sulfur western coals where worldwide experience is 
limited. In addition, funding could be made available to employ HIPPs 
and other advanced systems into field demonstrations as repowering 
techniques or strategies. Such a program, if successful, could reduce 
consumer costs and greatly benefit the environment. A portion of these 
funds also could be used to increase the budgets of the programs 
described in this statement. Or, these funds might be available to 
support advanced coal systems in new facilities. We expect to complete 
our analysis and provide the Congress with more specific 
recommendations and funding allocations within the near future.

                  REASONS FOR THE CURC RECOMMENDATIONS

    A number of specific and recent events add to the urgency of these 
recommendations. The dramatic increase in world crude oil prices and 
the resultant increase in the price of petroleum products, most notably 
gasoline, re-emphasizes the need for maintaining a variety of energy 
choices and options. And while the nation's vulnerability to crude oil 
price fluctuations is somewhat removed from the sustained use of U.S. 
coal resources it nevertheless serves as a stark reminder that 
dependence upon one fuel--especially one not derived from domestic 
resources--is dangerous to our economy and our national security. 
Recent increases in natural gas prices may escalate the time frame 
during which electricity power generators will consider the cost-
effectiveness of new or refurbished coal powered generation as an 
alternative to natural gas. Natural gas is viewed as the ``fuel of 
choice'' for new generation and predicted to be so for the near term. 
Increased gas prices not only change that outlook but, unless newer 
more advanced clean coal technologies are made available sooner than 
expected, new coal-based generation will be constructed using current 
technology, which is economical and reliable, but does not apply 
advances in both efficiency and maximum environmental performance. 
Also, worth remembering is the fact that major new natural gas capacity 
will be imported from western Canada to supply the U.S. Midwest and 
from the east coast of Canada to supply the Northeast. U.S. coal is the 
indigenous domestic primary energy source that will act as an anchor to 
pricing of other fuels.
    Further, use of domestic coal resources will lend leverage and 
stability when there are political pressures elsewhere in the world 
that threaten to disrupt the economy as well as energy markets. And 
finally, new low emissions focused coal based combustion technologies 
for world markets need to be led by the U.S. Energy growth in markets 
like China and India will rely on western technologies. If we do not 
advance these coal-based technologies for emerging world markets, 
besides the loss of U.S. export business, we will ultimately pay the 
price in global environmental degradation.
                                 ______
                                 

   Prepared Statement of the American Society of Mechanical Engineers

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the views of the Energy Committee of the Council 
on Engineering, American Society of Mechanical Engineers (ASME 
International), regarding appropriations for the Fossil Energy and 
Energy Conservation programs of the Department of Energy. The 125,000-
member ASME is an international engineering society focused on 
technical, educational, and research issues. Energy research and the 
deployment of effective energy supply systems remain among the most 
important topics of interest to ASME members.

     NEED FOR ENERGY RESEARCH TO SUSTAIN THE UNITED STATES ECONOMY

    Virtually all predictions for energy use both nationally and 
globally show an increase in demand that will require more reliance on 
fossil fuels for electricity generation and for transportation.
    Annual growth rates for U. S. electricity generation are projected 
to range from 1.5 percent to 2.4 percent. Fossil fuels are forecasted 
to provide an increased share of our electricity generation mix by 2020 
as compared with their present 65 percent share. Regulations issued 
recently by the Environmental Protection Agency (EPA) will require the 
installation of more efficient pollution control technologies, 
especially for coal fired systems, which could challenge the 
reliability of the electricity supply and increase electricity costs in 
some regions. Liquid fuels will continue to dominate the transportation 
sector, with about 97 percent of our transportation fuels currently 
being provided from petroleum-based feedstock. Our programs must 
develop increased fuel production technologies--including alternative 
fuels--to meet future expectations for supply and fuel quality.
    The economic boom our nation is currently experiencing is based in 
part on inexpensive energy supplies and the development of more 
efficient end use technologies, especially in our high energy intensive 
industries. We need a varied portfolio of vigorous energy research 
programs in both the Office of Fossil Energy and the Office of Energy 
Efficiency and Renewable Energy to ensure inexpensive, environmentally-
friendly energy systems for continued economic growth. Our energy 
programs must maintain a diverse fuel mix for the power generation and 
transportation sectors.

                PROGRAMS IN THE OFFICE OF FOSSIL ENERGY

General comments
    The COE Energy Committee is greatly disappointed that the proposed 
funding for Fossil Energy R&D projects has been reduced by $28 million 
compared to fiscal year 2000, especially the reductions in coal and 
power systems technologies. In order to meet the challenges of the 21st 
century, this account should be increased at least to the level of $433 
million recommended by the PCAST report of 1997. The Committee 
recommends that the increased funding be used primarily to enhance coal 
programs.
    The number of academic institutions offering graduate programs in 
the fuel and mineral sciences is markedly reduced compared to previous 
levels such that the supply of future scientists and engineers will be 
jeopardized unless we maintain funding for graduate student support. 
Programs specifically targeted toward university-based research should 
be increased by $3 million and expanded to include oil and natural gas.
    The role of, and funding for, the new National Energy Technology 
Laboratory in conducting research should be enhanced. Given the 
reduction in the number of industrial energy research laboratories over 
the past decade, there is need for a national center of excellence 
which can provide new ideas, conduct research, and preserve the current 
knowledge base in both the extraction [mining and related technologies] 
and utilization of fossil fuels. We recommend investments in the 
proposed Centers of Excellence at NETL in the areas of supercomputing, 
sequestration research, and advanced gas studies outlined in the budget 
request.

Coal & power systems programs
    The COE Energy Committee recommends increased emphasis on the role 
of coal in our national energy mix, and reiterates its disappointment 
in the Administration's proposed cuts in coal and power systems 
programs. In addition to its traditional role in electric power 
generation, recent fluctuations in the supply and price of petroleum 
mandate an expanded role for coal in the production of clean 
transportation fuels and chemicals from coal. We are concerned that 
funding for the new Ultra Clean Fuels initiative is housed in the Oil 
Program budget; we recommend that at least one third of the $10 million 
allocated to this program be marked for developing coal-based fuels. 
Planned integration of the Ultra Clean Fuels program with the Office of 
Energy Efficiency is commended. Funding for the Transportation Fuels 
and Chemicals line item should be increased by at least $3 million to 
enable these programs to reach economic competitiveness with petroleum-
based fuels and chemicals more readily, thereby promoting our energy 
and economic security. Vision 21 programs emphasizing the production of 
transportation fuels and chemicals from coal and the demonstration 
program for early entrance co-production plants should be continued and 
enhanced.
    Gas turbines and fuel cells offer the promise of dramatically 
increasing the efficiency of power generation. Funding for the turbine 
program must be increased to allow the development of mid-sized 
turbines, a ``missed'' market niche for central stations and dispersed 
applications. The very successful industry/university turbine 
consortium should be strengthened. Funding for solid state fuel cells, 
a technology of very high potential, needs to be increased. Research 
programs should be structured to ensure that coal can continue to be an 
option for fueling these new energy systems despite the current 
emphasis on natural gas fuels. Sufficient research should be done to 
ensure that advanced gas turbines could operate effectively from 
synthesis gas derived from coal. Gas separation systems must be 
developed to ensure realistic future options for using coal as the 
feedstock for fuel cell systems. We are supportive of the budget 
request for capture and sequestration technologies.
    While our research planning must ensure the development of future 
technologies, there is continued need to improve present coal-fired 
systems in view of their important role in the national energy mix and 
their projected deployment by developing countries. There is continued 
need for improvement in materials, pollution control technologies, and 
the development of advanced cycles based on coal-fired power generation 
systems. Power generation developers will be making decisions in the 
near future on the purchase of plants that will last at least 50 years 
into the future. Improved technologies are needed now to affect that 
decision process. We recommend that an additional $10 million be 
allocated to these programs for advanced coal-based power systems.

Oil and natural gas programs
    The COE Energy Committee supports the proposed programs on 
improving technology through the development of ``rigless'' oil and gas 
drilling systems guided by ``smart'' sensors. Emphasis on ensuring the 
reliability of the natural gas infrastructure is necessary, especially 
since the demand for natural gas is projected to increase for 
applications such as power generation and transportation fuels. 
Deepwater frontiers offshore present significant opportunities to 
locate, drill, and produce large quantities of oil and natural gas. 
Significant R&D resources are required to produce and transport fuels 
from these regions. Additional research is needed to provide electrical 
power and to improve injection and separation technologies at the 
seabed; we recommend that an additional $3 million be allocated for 
such programs. We are excited about proposed new programs on the 
reliability of gas transmission and distribution systems, which we 
believe is a critical public policy issue in deregulated energy 
markets.
    Methane hydrates continue to offer promise as a vast source of 
natural gas once effective technologies for their recovery are at hand. 
The COE Energy Committee is strongly disappointed to learn that 
increased funding for methane hydrates was not appropriated last year 
and is even more dismayed at the lower level of funding recommended by 
the Administration for fiscal year 2001. Funding for methane hydrates 
research should be increased to $8 million. The continued development 
of drilling and reservoir technologies to promote the sequestration of 
carbon dioxide, while simultaneously producing oil and natural gas, is 
recommended.

  ENERGY CONSERVATION PROGRAMS IN THE OFFICE OF ENERGY EFFICIENCY AND 
                            RENEWABLE ENERGY

General comments
    The COE Energy Committee applauds the Administration's continuing 
effort to work with the nation's industries and the public to sustain a 
stronger economy, a cleaner environment, and a more secure future by 
developing and deploying less polluting energy efficient technologies. 
The recent large increase in oil prices has made R&D in advanced energy 
conservation technologies more pressing. At a strategic level, we 
recommend strengthening crosscutting research in thermal sciences and 
new materials to increase energy utilization efficiency in the 
transportation, industry, and building sectors. We urge continued 
emphasis on developing more energy efficient end-use technology options 
and the increased use of alternative fuels, which emit fewer 
pollutants.

Office of Transportation Technologies
    We support the Administration's funding request for the Office of 
Transportation Technologies (OTT). A major component of the proposed 
program is directed toward improving the efficiency of diesel systems 
and reducing emissions. These programs focus on the development of 
better engines, reduced weight and advanced materials for the overall 
vehicle, and advanced concepts that include hybrid systems. Customer 
preferences for light trucks such as sport utility vehicles emphasize 
the need for developing more efficient engines for this market. The COE 
Energy Committee also recommends continued funding for alternative fuel 
programs, especially natural gas systems, to reduce our dependence on 
imported petroleum. The return on investment for the proposed 40 
percent increase in the biofuels program should be evaluated with 
respect to the viability of this technology in an open fuels market. 
Since our international neighbors rely more heavily on biofuels, we can 
attain economic benefits from deploying our own technologies while 
promoting a better global environment.
    We support the goals of the Partnership for a New Generation of 
Vehicles to develop automobiles with fuel economies approaching three 
times the current level. Attention should be paid to the overall 
automobile to ensure its acceptance by the public, including the effect 
of personal comforts such as air conditioning on the vehicle's overall 
performance. As a partnership program, interaction with the relevant 
industry sectors is necessary, and the COE Energy Committee commends 
OTT for its working relationships with industry participants.
    Continued emphasis should be placed on technology deployment and 
technician education programs to facilitate acquiring, deploying, and 
using alternatively fueled vehicles in the public and private sectors

Office of Industrial Technologies
    We support the Administration's funding request for the Office of 
Industrial Technologies (OIT). The Industries of the Future program is 
focused on developing energy efficient, environmentally friendly 
processes for our most energy intensive industry sectors. The current 
emphasis on agricultural programs is welcomed. We recommend 
strengthening funding in key crosscutting areas that include not only 
existing programs, such as advanced materials and combustion, but also 
thermal sciences and emission reduction technologies not currently 
pursued by OIT. We recommend continued cooperation with Fossil Energy 
on programs in distributed generation and combined heat and power 
systems.
    The Mining Industries of the Future program should be strengthened 
and OIT's continued cooperation with Fossil Energy should be 
encouraged, especially in related areas such as advanced separations. 
The Mining IOF program is particularly important in view of the absence 
of a federal mining technology laboratory, and the continued decline in 
the number of in-house research laboratories supported by the mining 
industry.
    In view of the merits and success of the IOF program, we support 
increased investment in technical assistance for initiation of State 
IOF programs and deployment of advanced technologies by industry.

Office of Building Technology
    While the COE Energy Committee supports the overall increase in 
funding recommended by the Administration for the buildings sector, we 
are concerned that insufficient funding is available for the science-
based building research program. We support increased funding for 
building technology R&D, especially in under-funded program elements 
such as for energy-efficient refrigeration equipment and for commercial 
buildings integration. We recommend that an additional $5 million be 
allocated for the underfunded program elements cited above within the 
present funding request.
    We also support the expanded efforts in the State Energy program 
and the Building America initiative. We recommend that the deployment 
of advanced building technologies in K-12 schools be made as a priority 
item in these programs.
    As a general closing comment, the COE Energy Committee recommends 
that the Offices of Fossil Energy and Energy Efficiency increase 
support for programs targeted toward academe to stimulate new ideas in 
energy research and education.
    Thank you for the opportunity to offer testimony regarding the 
fossil energy and energy conservation budgets proposed for the 
Department of Energy. ASME's COE Energy Committee will be pleased to 
respond to requests for additional information or perspectives on other 
aspects of our nation's energy program.
                                 ______
                                 

          Prepared Statement of General Electric Power Systems

    This statement is submitted by General Electric Power Systems on 
behalf of GE Company (GE) for the information of the Committee during 
its review of the Department of Energy's fiscal year 2001 budget 
requests for Fossil Energy and Energy Efficiency and Renewable Energy 
programs. The testimony addresses several key Department of Energy 
programs: the Advanced Turbine Systems (ATS) program, the Next 
Generation Gas Turbine Systems program, Distributed Energy Resources, 
and Lighting Research and Development.

                        ADVANCED TURBINE SYSTEMS

    GE strongly supports continued funding for the Advanced Turbine 
Systems (ATS) program, within the Fossil Energy budget account, and in 
particular, the Administration's $8.86 million request for utility-
scale advanced turbines. GE has participated in the ATS program since 
its inception, and greatly appreciates the strong Congressional support 
for the program. The benefits to the nation of the ATS program will be 
realized through greater efficiency in the generation of electricity, 
leading to lower costs and reduced emissions, and producing jobs 
retention and growth in the turbine-related manufacturing industry.
    Through the government's partnership with industry, the ATS program 
has supported the development of the world's most efficient gas 
turbine, securing U.S. leadership in this critical technology area. In 
February, GE unveiled the 7H gas turbine, based on the new-generation H 
System<greek-T><greek-M> technology, at the GE manufacturing facility 
in Greenville, South Carolina. The turbine passed a critical 
verification test--full speed, no load testing--in Greenville on 
February 11, 2000. The H System<greek-T><greek-M> meets the ambitious 
technical goals established for the ATS program:
    Energy efficiency/lower costs.--The H System<greek-T><greek-M> will 
operate at 60 percent efficiency in combined cycle operation, 
delivering significant gains and signaling a new era in U.S. energy 
technology leadership. GE's H System<greek-T><greek-M> gas turbine is 
the world's first gas turbine to use steam from the steam turbine, 
rather than air, to cool the stationary and rotating hot gas path parts 
of the gas turbine. Advanced bucket and airfoil materials, along with 
revolutionary new steam-cooling technology, enable the H 
System<greek-T><greek-M> to operate at the higher turbine inlet 
temperatures required to break the 60 percent efficiency barrier. The 
most efficient combined cycle systems currently operating reach only 
57-58 percent efficiency. Because fuel represents the largest single 
cost of running a power plant, an increase of even a single percentage 
point of efficiency can reduce operating costs by $15-20 million over 
the life of a typical gas-fired plant in the 400-500 megawatt range.
    Reduced emissions.--With increased efficiency comes decreased 
emissions per kilowatt hour generated, another central goal of the ATS 
program. Utilizing the advanced dry low-NO<INF>X</INF> combustion 
system, the H System<greek-T><greek-M> will be the cleanest central 
power station option, and will achieve the goal of the ATS program of 
single digit emissions of NO<INF>X</INF> without post-combustion 
controls. The system's NO<INF>X</INF> emission levels of 9 parts per 
million will be half of the average of the turbines now in use, making 
this technology suitable for siting in environmentally constrained 
areas. The H System<greek-T><greek-M> will emit the fewest tons of 
carbon dioxide per kilowatt hour of electricity generated of any gas 
turbine.
    Commercialization.--The goal of the ATS program was to produce 
technology ready for commercial deployment as demand for new electric 
power generation grows. This goal, too, is being met. Plans have 
already been made for the first commercial application of the H 
System<greek-T><greek-M> technology. Two 60-hertz 7H turbines will be 
used to power the 800 MW Heritage Station plant in Scriba, New York, 
being developed by Sithe Energies. The facility is scheduled to go 
online during 2002.
    Risk to ATS technology.--In spite of these successes, however, GE 
would like to call the Committee's attention to a potential threat to 
the public-private investment made in producing the world's cleanest 
electricity generation technology. The Environmental Protection Agency 
(EPA) has begun a process to determine whether to mandate selective 
catalytic reduction (SCR) on new, high efficiency, low-NO<INF>X</INF> 
gas turbines. Requiring SCR as ``best available control technology'' 
(BACT) on such turbines would reduce NO<INF>X</INF> emissions from 9 
ppm to 3.5 ppm.
    As the Committee is aware, the ATS program was premised on 
achieving emissions of NO<INF>X</INF> of 9 ppm without the use of post-
combustion controls. This level represents a very substantial reduction 
from earlier turbine technologies. Imposition of an SCR mandate to 
achieve small additional reductions in NO<INF>X</INF> emissions not 
only would be inconsistent with the longstanding objective of the ATS 
program, but also would have adverse environmental impacts. The use of 
SCR can result in significant emissions of ammonia, and greenhouse gas 
emissions result when the ammonia byproduct is converted to nitrous 
oxide. Using SCR also creates the problem of disposal of spent catalyst 
hazardous waste, and increases emissions of particulate matter. 
Moreover, advanced gas turbines were designed to reduce NO<INF>X</INF> 
emissions without any compromise in efficiency. Installing SCR on a 
high efficiency gas turbine does reduce the turbine's efficiency, 
thereby resulting in increased carbon dioxide emissions per kilowatt 
hour generated.
    An SCR mandate will encourage use of existing higher emitting, 
lower efficiency turbines. It will be less costly to install SCR on 
older, higher emitting units than on ATS technologies. As a result, 
requiring SCR on low-NO<INF>X</INF>, high efficiency natural gas 
turbines will make these advanced turbines less attractive 
economically, threatening the hundreds of millions of dollars invested 
in developing this technology by government and industry. The 
investment is substantial: GE has invested $500 million in the 
development of the H System<greek-T><greek-M>, while the DOE cost share 
through the ATS program approaches $100 million.
    At the time this testimony is being submitted, GE is in discussions 
with EPA. GE remains hopeful that future EPA regulatory requirements 
relating to NO<INF>X</INF> will not undermine the remarkable success of 
this public private partnership.
    Summary.--The need for high efficiency, low emission turbine 
technology has never been clearer. According to the Energy Information 
Administration, 81 percent of new U.S. demand for electric generation 
will be met by gas turbines in 2010. The ATS program--completed on time 
and on budget--will assure the availability of more efficient, lower 
emission domestic technology to meet this demand.

                  NEXT GENERATION GAS TURBINE SYSTEMS

    GE Power Systems has responded to DOE's request for proposals for a 
systems study evaluation of ``Next Generation Gas Turbine Systems.'' It 
is DOE's and GE Power Systems' intent to perform conceptual evaluations 
of advanced gas turbines in the 30-150 MW electric power generation 
range, with an emphasis on characteristics desirable for the 
restructuring U.S. electricity market. The criteria that will be used 
in evaluating aeroderivative and heavy frame concepts are rapid 
starting, high simple cycle efficiency, low life cycle system cost and 
lowest possible emissions. GE has participated in all the DOE workshops 
conducted during the formation of this program, and strongly supports 
this important DOE initiative.

                      DISTRIBUTED ENERGY RESOURCES

    Against the successful background of DOE's cooperative efforts with 
industry in the Advanced Turbine Systems program, the Department has 
moved to consolidate and strengthen its distributed energy resources 
portfolio. GE encourages the Committee to join with industry 
stakeholders in strongly supporting the recent organizational changes 
made within the Department designed to maximize the organization and 
prioritization of the distributed energy portfolio. Having the 
commitment of the talents and skills of DOE's fossil energy and energy 
efficiency offices will bolster industry efforts to recognize the full 
potential of distributed energy.
    A major focus on distributed generation within the Department is 
especially timely now, as restructuring in the electricity industry and 
technological advances create opportunities for new and more efficient 
distributed generation technologies. It will be critical for the 
electricity marketplace of the future to have a diverse mix of 
efficient technologies available to meet demands for reliable, high 
quality power. Potential roles for distributed generation in the 
restructured electricity market include supporting available capacity 
to meet peak demands, providing critical loads with emergency standby 
power, improving power quality, supporting grid reliability and 
providing low cost energy in combined heat and power applications. 
Potential customers for distributed generation run the range from 
commercial and industrial users, to distribution utilities, power 
marketers and residential consumers.
    Key technologies being addressed in DOE's distributed generation 
portfolio include microturbines and fuel cells. Microturbines are small 
combustion turbines, generally with outputs in the 30kW to 200kW range. 
Microturbines are fuel flexible, and can be sized for a variety of 
applications, including commercial buildings and light industrial 
applications for cogeneration or power. Improving the efficiency of 
microturbines is a key technical challenge. Applications for 
microturbines will range from peak shaving to cogeneration, chillers, 
standby emergency power, and providing premium power demanded by the 
increasingly digital economy.
    Fuel cells will become an integral part of the new economy for the 
energy industry. Quiet, clean-running fuel cells hold the potential for 
very high system efficiency and low emissions. Today different 
technologies are in different stages of development and deployment. 
Fuel cells offer opportunities for cogeneration, onsite power, peaking 
and peak shaving. Major issues still to be addressed include reducing 
the cost of this technology and meeting manufacturing challenges.
    Advances in key enabling technologies also are necessary to support 
the introduction and utilization of distributed generation. Some of the 
challenges in distributed generation, such as the need for advanced 
materials, will be familiar to the Committee from the ATS program. 
Great progress has been made in the area of advanced materials, through 
the cooperative work of industry and the Department, including the Oak 
Ridge National Laboratory. Other challenges in distributed generation 
include the development of control technologies that will permit the 
effective deployment of distributed power generation options. There is 
a need for research and investments in the architecture, communications 
and grid controls that will connect generation systems, both 
distributed and central systems, and optimize overall energy 
performance.
    GE urges the Committee to provide adequate funding for initiatives 
in enabling technologies, sensor and control technologies and 
distributed energy resources, within the energy efficiency budget. 
DOE's budget request for distributed generation reflects a reduction 
from $27.3 million in fiscal year 2000 to $17.3 million in fiscal year 
2001. While this reduction may be attributed to reduced requirements 
for the industrial ATS program, given the challenges and opportunities 
for microturbines and other distributed generation technologies, 
funding more in keeping with prior year levels would be appropriate.

                   LIGHTING RESEARCH AND DEVELOPMENT

    Finally, GE supports the request for $6.36 million in lighting 
research, within the Building Research and Standards line item. GE 
would like to recognize the efforts of this Committee, and the 
Department, in focusing and prioritizing work in the area of lighting 
research. The buildings research portfolio, and its lighting component, 
has been substantially revitalized over the last several years. In 
particular, the institution of broad based solicitations has proven 
very successful in assuring the competitive selection of high quality 
R&D projects.
    This lighting R&D program is poised to contribute to the technology 
breakthroughs necessary to substantially increase energy efficiency 
while producing a lighting product that meets the needs of and is 
affordable to consumers. Major progress is being made: GE will launch a 
compact fluorescent lamp this summer that provides long life, improved 
color and higher energy efficiency. Importantly, this lamp will cost 
under $10. This dramatic decrease in price was enabled in part by DOE 
funded research at GE.
                                 ______
                                 

      Prepared Statement of the Urban Consortium Energy Task Force

    The Urban Consortium Energy Task Force (UCETF) submits this 
statement to advise the Committee of the progress of the applied energy 
research and development activities undertaken through the Department 
of Energy's (DOE) Municipal Energy Management Program (MEMP). As 
funding for MEMP is not included in the Administration's fiscal year 
2001 budget request, the UCETF also wishes to take this opportunity to 
highlight the many significant accomplishments of the MEMP program over 
the years that have enhanced the ability of local governments to 
design, implement and administer cutting edge energy policies and 
programs.

                               BACKGROUND

    The UCETF is one of five task forces of Public Technology, Inc.'s 
(PTI) Urban Consortium. PTI is a not-for-profit organization founded in 
1971. PTI is the technology, research, development and 
commercialization arm of the National League of Cities, the National 
Association of Counties, and the International City/County Management 
Association. PTI's mission is to bring the benefits of technology to 
local governments.
    The Urban Consortium (UC) is a one-of-a-kind network of large local 
governments created to find practical, economic solutions to urban 
problems. Membership is composed of local government officials from 
America's largest and most progressive urban cities and counties. The 
UC serves as a catalyst for research and development of emerging 
technologies that can solve problems facing all local governments.
    For two decades, the UCETF has been a leader in developing and 
testing energy solutions, and sharing knowledge with local governments 
nationwide. The UCETF is made up of local government energy policy 
makers and administrators from major urban areas around the United 
States. Currently, 27 jurisdictions are represented on the UCETF: 
Albuquerque, NM; Austin, TX; Chicago, IL; Columbus, OH; Dayton, OH, 
Denver, CO; Fairfax County, VA; Greensboro, NC; Hennepin County, MN; 
Kansas City, MO; Little Rock, AR; Long Beach, CA; Memphis, TN; Monroe 
County, NY; Montgomery County, MD; New York, NY; Norfolk, VA; 
Philadelphia, PA; Phoenix, AZ; Portland, OR; San Diego, CA; San 
Francisco, CA; San Jose, CA; Santa Monica, CA, Santa Fe County, NM; 
Seattle, WA; and Washington, D.C.
    The goal of the PTI/UCETF is to act as the premier technology 
research, development and deployment organization dealing directly with 
the energy problems and needs of local government. The UCETF has met 
this objective, in part, by managing a competitive energy program with 
funding provided by DOE through MEMP. As the program was administered 
by PTI/UCETF, jurisdictions leveraged federal, state and local funds to 
conduct competitively selected energy research and technology transfer 
projects. The UCETF developed an annual solicitation for research 
projects to address the energy-related topics of the greatest common 
concern among local governments. The solicitation was broadly 
circulated throughout local governments across the nation, through 
PTI's sponsoring organizations. Proposals received in response to the 
solicitation were competitively evaluated and peer reviewed by local 
energy officials. Criteria used to select proposals included energy and 
dollar savings, innovation, job creation and economic development 
benefits, technology transfer opportunities, partnerships and cost 
sharing, benefits to the environment, and overall benefit to the 
community.
    More than 400 projects in over 60 different jurisdictions across 
the United States have been conducted through the PTI/UCETF-
administered applied energy program over the years. From its early 
focus on energy emergency response and creating an energy management 
capability in local governments, the PTI/UCETF applied energy program 
grew to emphasize technology advances that can save energy and money, 
assure environmental quality and enhance prospects for local economic 
growth. The MEMP program served as a source of information and 
technical assistance to enable local governments to address the broad 
range of energy issues facing local communities. These issues include: 
the impacts of restructuring in the electricity industry, the 
opportunities for cost savings and environmental improvement through 
energy efficiency, and the opportunities for local economic growth 
associated with the deployment of renewable energy technologies.
    PTI/UCETF also undertakes a variety of technology transfers and 
solution deployment activities designed to widely disseminate the 
knowledge gained through the performance of local government energy 
projects to jurisdictions throughout the United States. PTI/UCETF will 
continue to perform these vital functions for local governments in the 
future.

                THE ONGOING UCETF APPLIED ENERGY PROGRAM

    The 1999-2000 PTI/UCETF applied energy research and development 
program is supporting the following energy technology development/
application and technology transfer projects:
    Distributed Generation/Options for Local Governments in A 
Restructured Electricity Marketplace.--PTI/UCETF has long been in the 
forefront of efforts to prepare local governments and local communities 
for the changes coming in the electricity market. As an extension of 
these activities, the MEMP program is supporting several projects 
focusing on issues in restructuring, including new opportunities for 
the deployment of distributed generation technologies. Phoenix, AZ 
plans to demonstrate the effectiveness of using microturbine generators 
in medium-sized municipal facilities. Barnstable County, MA is 
examining the role of local government in advancing distributed 
generation technologies in a competitive utility marketplace. Lincoln 
County, ME is considering how non-urban customers and small businesses 
in small communities will fare in a restructured utility marketplace. 
Memphis, TN is implementing a residential fuel cell demonstration 
project. Washington, D.C. is considering how the use of city government 
procurement policies can assist in the aggregation of low-income 
customers to enable these customers to take advantage of competition in 
the energy marketplace. San Francisco, CA is developing tools to 
facilitate municipal building energy retrofits in a changing 
electricity industry.
    Community Based Approaches to Energy Issues.--Jurisdictions 
conducting projects in this area are developing and implementing 
community based initiatives to respond to local energy priorities. 
Portland, OR is developing a model approach for local governments to 
acquire resources from state ``public benefits'' funds established as 
part of electric restructuring for use in local energy efficiency 
projects. Seattle, WA is investigating the productivity benefits of 
sustainable commercial building practices, and the demand for such 
benefits from developers and tenants. Chisago, MN is developing a 
county-wide energy plan. Hennepin County, MN is addressing the need for 
educational, marketing and public outreach support for the creation of 
an E85 refueling infrastructure in the Twin Cities area.
    Solar.--Jurisdictions are investigating energy efficiency and solar 
energy applications to meet local needs. San Jose, CA is considering 
emergency disaster applications for photovoltaics and developing a 
sustainable energy emergency action plan for the city. Albuquerque, NM 
is demonstrating municipal applications integrating photovoltaics and 
light-emitting diodes (LEDs) for outdoor lighting applications. Santa 
Barbara, CA is calculating the benefits of and developing an outreach 
campaign for the local deployment of solar energy systems. The Yavapai-
Apache Nation, AZ is studying power quality and reliability issues 
unique to the local Native American community.
    Technology Transfer.--The UCETF is conducting three projects 
specifically designed to document, transfer and apply lessons learned 
through local government energy programs. Tucson, AZ is planning for 
the implementation of Cool Communities concepts on a small-scale basis. 
Anaheim, CA is implementing an electric vehicle car-sharing program, 
and documenting the implementation methodology for replication in other 
areas. Cheshire, CT is exploring outdoor lighting applications deployed 
in other jurisdictions, including projects developed under the auspices 
of MEMP, to develop appropriate applications for the county.

         SIGNIFICANT ACCOMPLISHMENTS OF THE UCETF/MEMP PROGRAM

    The Municipal Energy Management Program has greatly increased the 
ability of local governments to identify, design and implement energy 
policies that support local economic objectives, including job growth 
and retention. For many years, MEMP was the only Federal energy 
efficiency research, development and technology application and 
transfer program directed by local governments and responding to the 
specific energy-related needs of local governments.
    Energy solutions developed with the help of the UCETF have already 
saved millions of dollars, measurably cut energy consumption across the 
country and made breathing easier for millions of Americans. The UCETF 
has achieved these results one community at a time. For example,
  --Denver, Colorado.--Local governments in the Denver area are saving 
        hundreds of thousands of dollars by implementing an innovative 
        system they learned about through the UCETF. By replacing the 
        Denver metro area's 1,200 incandescent traffic lights with 
        energy-efficient LED signals, the city and county save almost a 
        quarter million dollars a year, and substantially reduce air 
        emissions.
  --San Francisco, California.--The City of San Francisco is evaluating 
        the energy efficiency services emerging within the newly 
        restructured electric utility industry. The city is developing 
        guidance for local governments across the country in evaluating 
        the increasingly complex services offered by energy service 
        companies (ESCOs), and developing ``in house'' energy 
        management services so cities can hold down the amount they pay 
        to ESCOs.
  --Memphis, Tennessee.--Memphis is implementing a plan for a building 
        automation network that will centralize monitoring and control 
        of heating, ventilation and air conditioning (HVAC) equipment 
        by electronically linking city buildings. The system will save 
        money by making overall management of energy use by city HVAC 
        equipment more efficient.
    Every day, technology becomes a more and more important part of 
finding the energy solutions local governments need. The Urban 
Consortium Energy Task Force is creating new options and opportunities 
for every local government to cut costs, boost revenues, improve 
services, and enhance the quality of life of their citizens.

                               CONCLUSION

    Local governments are and must remain a crucial component of the 
effort to maintain the United States' position as the world's leader in 
developing, applying and exporting sustainable, environmentally benign 
and economically competitive energy technologies. PTI/UCETF will 
continue to provide important opportunities for hands-on applied energy 
research in local communities, serving as an urban laboratory for the 
development, testing and deployment of new energy and renewable energy 
technologies, programs and practices.
                                 ______
                                 

   Prepared Statement of the DaimlerChrysler Corporation, Ford Motor 
                Company, and General Motors Corporation

    Through the United States Council for Automotive Research (USCAR), 
DaimlerChrysler, Ford, and General Motors coordinate collaborative, 
pre-competitive basic research with the U.S. Government (USG) over a 
broad range of technologies. One of the federal agencies that is 
critical to the success of many USCAR endeavors is the Department of 
Energy (DOE). DaimlerChryster, Ford, and General Motors provide this 
statement in support of DOE's fiscal year 2001 automotive research 
budget.

                            PROGRAM OVERVIEW

    An important element of DOE's budget proposal is the Partnership 
for a New Generation of Vehicles (PNGV) program. Through this 
initiative, USCAR and several federal agencies are jointly researching 
leading edge, ``breakthrough'' automotive technologies. The three goals 
of the partnership are to: (1) enhance manufacturing productivity, (2) 
improve the fuel efficiency of conventional vehicles, and (3) pursue 
high risk technologies that could lead to a fuel efficiency improvement 
of up to three times that of today's vehicles, without compromising 
safety, performance, utility, or affordability. The program relies 
extensively on the technical contributions of the federal labs; many 
small, high technology U.S. businesses; universities; and a broad cross 
section of the supplier community.
    With respect to the third goal, the program is structured to 
evaluate advanced technologies in three principal phases. In the first 
phase, the partnership identified those technologies considered to be 
the most promising for achieving the aggressive fuel efficiency target. 
During the second phase, which is drawing to a close, concept vehicles 
incorporating, key technologies are being developed to demonstrate 
technical feasibility. The final phase is aimed at developing 
production prototypes by the year 2004 that will demonstrate cost 
effective manufacturing feasibility. Research on the most promising 
technologies will continue in parallel with the vehicle systems 
research efforts in phases two and three.

                        MAJOR MILESTONE REALIZED

    Over six years into the partnership, PNGV continues to report solid 
progress toward developing enabling technologies for affordable family 
sedans capable of achieving up to 80 miles per gallon with very low 
emissions. DaimlerChrysler, Ford, and General Motors realized a major 
milestone in the program early this year with the unveiling of PNGV 
concept cars. The DaimlerChrysler ESX3, Ford Prodigy and the General 
Motors Precept have each incorporated several PNGV technologies, 
including Compression Ignition Direct-Injection (CIDI) engines in 
hybrid configurations with advanced batteries, lightweight materials, 
improved aerodynamics, and low rolling resistance tires. However, the 
designs of all three vehicles, as well as their expected performance, 
are quite unique. This resulted from each company employing a different 
integration strategy in an attempt to meet the very aggressive goals of 
the Partnership.
    While the concept vehicles demonstrate the technical feasibility of 
achieving the PNGV fuel efficiency goals, continued focus and research 
is needed to bring these technologies to an affordable, production-
ready state. PNGV's goal is to build production prototypes in 2004. The 
research plans and portfolio are designed to support that event.
    In addition to the hybrid-electric concepts, the three companies 
also revealed new demonstrations of fuel cell technology in concept 
vehicles. Specifically, DaimlerChrysler debuted the NECAR 4, a 
driveable compact fuel cell powered vehicle; Ford unveiled its 
driveable P2000 hydrogen fuel cell vehicle; and General Motors revealed 
the Precept fuel cell concept vehicle with an advanced hydride hydrogen 
storage system.

                        RECENT RESEARCH PROGRESS

    In addition to these new concepts, progress has also been 
demonstrated in each of the four key system areas that PNGV has chosen 
to focus and accelerate its research and technology development 
efforts: direct-injection engines, fuel cells, lightweight materials, 
and electric traction systems for both hybrid and fuel cell vehicles. 
Examples of recent work in each area follow.
Direct-Injection (DI) Engines
  --Advanced Fuels Testing
    [Participants: PNGV Fuels Working Group, 4SDI Technical Team, SwRI]
    The auto industry has recently completed an evaluation of several 
advanced diesel fuel formulations.
    The testing was performed on each company's proprietary CIDI engine 
at a variety of common speeds/load points. The results directionally 
confirm earlier results from SwRI that advanced fuels help reduce 
emissions, namely NO<INF>X</INF> and particulates. A second phase of 
testing, to optimize engine calibration for the various fuels and to 
include aftertreatment systems, is being discussed.
  --Mixing and Transport of EGR
    [Participants: PNGV 4SDI Technical Team, DOE, Sandia National 
Laboratory]
    Exhaust gas recirculation (EGR) can be an effective way of reducing 
emissions. However, at the high EGR levels needed for PNGV, many 
engines exhibit cylinder-to-cylinder variations. Excessive EGR causes 
particulates to increase and causes poor transient engine response. 
This project has demonstrated a fully functional engine equipped with 
optical access to each port with data acquisition in progress.
  --CIDI Aftertreatment Demonstration
    [Participants: PNGV 4SDI Technical Team, Los Alamos National 
Laboratory, Sandia National Laboratory, Pacific Northwest National 
Laboratory]
    Developed aftertreatment technologies capable of up to 50 percent 
reduction in oxides of nitrogen (NO<INF>X</INF>) under the high 
efficiency lean bum conditions of advanced diesel engines.
Fuel Cells
    Fuel cells combine hydrogen and oxygen to generate electricity, 
which is used to power a motor that drives a vehicle's wheels. 
Accomplishments in the area of fuel cells include:
  --Full-Scale Microchannel Gasoline Vaporizer (Pacific Northwest 
        National Laboratory, Epyx).--A microchannel gasoline vaporizer 
        1/10th the size of conventional units has been successfully 
        tested for 50 kW<INF>e</INF> fuel processing systems. A 
        pressure drop of less than 2 psi through the microchannels was 
        realized.
  --Fuel Processing Catalyst (Argonne National Laboratory).--ANL 
        developed a fuel processing catalyst that allows a 30 percent 
        reduction in shift reactor volume.
Lightweight Materials
  --Lightweight Hybrid Body Completed Testing and Validation
    [Participants: PNGV Materials & Vehicle Engineering Technical 
Teams, Multimatic]
    The Multimatic hybrid construction ultra-light weight body achieved 
67 percent weight reduction (96 kg vs. 269 kg reference). In 1999 the 
body completed static and validation testing and was crash tested into 
a barrier at 30 mph.
  --Design & Product Optimization for Cast Light Metals
    [Participants: PNGV Materials Technical Team, Lawrence Livermore 
National Laboratory, Sandia National Laboratory]
    Non-Destructive Evaluation (NDE) & Sensor Technologies.--LLNL has 
developed Infrared Fiber Optic Sensors that have been installed in two 
production aluminum casting molds. One application is for gravity cast, 
and the other is for a high pressure die cast mold cavity. These 
sensors offer rapid response when compared to standard thermocouples. 
The new sensors can measure mold temperature, metal temperature, and 
cavity fill. The fiber optic is sensitive enough to measure cooling 
curves for the specific alloy being cast. This has the potential to 
allow determination of alloy composition and/or modification state.
    Mechanical Property Simulation Model.--A math-based model has been 
developed by SNL to accurately predict static and dynamic failure. The 
SNL model is a constitutive damage model which tracks damage (crack 
nucleation, propagration, coalescence, fracture) occurring under 
various load conditions. The model has been validated on a cast 
aluminum lower rear control arm.
  --Advanced Forming Technologies for Aluminum
    [Participants: PNGV Materials Technical Team, University of 
Michigan, Alcoa, Troy Design, Erie Press]
    The participants successfully improved the formability of aluminum 
sheet (without wrinkling and/or ZD tearing) through warm forming and 
binder load control.
    Warm Forming of Aluminum.--This process was successfully 
demonstrated on a Neon door panel.
    Variable Force Binder Technology.--The force on the edge of a 
stamping part (binder force) regulates the flow of material into the 
die so that no wrinkles or splits occur. By varying the force on the 
blank (a sheet of flat metal) during the stamping process, the window 
(percentage of blank size that can be used) for producing good parts 
may be enlarged. In October 1999, this technology was successfully 
demonstrated at Troy Design.
Electric Traction Systems
    In the area of advanced power electronics, DOE has selected two 
teams to research, develop and demonstrate Automotive Electric Motor 
Drives (AEMD). Delphi Automotive is pursuing a 325 volt AC induction 
motor system, while Delco Remy is investigating a 132 volt DC brushless 
configuration. Final reports are due in 2002.
    Progress continues to be made in the area of high-power energy 
storage. Electrochemistry for longer life lithium-ion batteries has 
been identified (3-5 years; up from 2 years). Detailed production cost 
studies have been completed, with cost reductions needed in all cell 
core materials.
    These accomplishments are impressive. However, the ultimate goal of 
PNGV is that customers realize the benefits of these technologies 
through vehicles that cost no more to own and operate than comparable 
conventional vehicles. Additional technology breakthroughs and 
advancements will be required to realize that goal. In addition, new 
Tier 2 emission standards announced by the EPA will require 
breakthroughs in the areas of engine combustion, controls, and 
aftertreatment.

                    KEY ELEMENTS OF THE PARTNERSHIP

    PNGV has become one of the most visible examples of a successful 
partnership between industry and government. By working cooperatively 
on pre-competitive, basic research, the program strategically aligns 
tile goals of the three industry partners and suppliers with those 
federal agencies and labs that are engaged in similar or complementary 
research programs. This permits a large number of previously separate 
projects to be channeled into a coherent, focused program that 
eliminates duplication of efforts, reduces costs, and enhances learning 
through team participation.
    Not surprisingly, this program has become far more than a 
Washington-Detroit partnership. In addition to automotive suppliers and 
federal labs, PNGV has also benefited from the participation of 
universities, small businesses, and individual inventors. In fact, this 
program has sponsored more than 1200 projects at 622 sites around the 
country, representing 47 states. This broad-based participation 
provides an alternative pathway for some of the technologies developed 
under PNGV to be implemented in other important industries. The result 
is a true national effort, using strategic alignment of both private 
industry and Federal Government resources to produce considerable 
technology research leveraging opportunities for all parties. Without 
USG support, much of this would not be possible.
    The PNGV objectives include development of the basic technology 
breakthroughs needed to significantly improve the next generation of 
automobiles and the manufacturing research necessary to produce them. 
These research goals are in the public interest because research and 
development of breakthrough technologies hold the promise of addressing 
societal concerns about reducing dependence on imported oil, improving 
air quality, and enhancing the global competitiveness of our products 
and companies. Our belief is that cooperation between government and 
industry is more effective than traditional command and control 
regulations. For example, within PNGV, the voice of the customer is 
achieved by maintaining a vehicle systems perspective. This is critical 
to the successful introduction of advanced technology into the 
marketplace. Keeping customer interests (such as comfort, performance, 
utility, and affordability) prominent in the decision process helps to 
ensure market acceptance and a greater likelihood that high-technology 
products will proliferate more quickly. A vehicle systems perspective 
helps keep the component research focused on the key barriers. 
Conversely, regulation aimed at improving air quality and achieving 
energy consumption reductions do not reflect the demands of the market, 
often run counter to consumer needs, and result in competitive market 
distortions, job losses, and reduced affordability of vehicles.

                       SUMMARY AND RECOMMENDATION

    DaimlerChrysler, Ford, and General Motors believe strongly in the 
merits of research being conducted under collaborative programs such as 
PNGV and are committed to maintaining a meaningful level of effort and 
resource expenditure on such programs. Just as critical to the 
successful completion of program objectives is sustained government 
participation. The National Research Council Standing Committee's Fifth 
Review of the Research Program of the PNGV (May, 1999) concurs that 
progress in on-track. ``In the past year, more progress was made 
towards meeting PNGV goals than in previous years.'' Later, the report 
supports the need for continued and additional resources. ``Despite 
these positive developments, the Committee believes the PNGV program 
will need additional resources.''
    DaimlerChrysler, Ford, and General Motors strongly urge continued 
support of this program, which we believe is in the best interests of 
consumers, industry, government, and the nation as a whole. In 
particular, the DOE's transportation technology programs in the areas 
of direct-injection engines, fuel cells, lightweight materials, and 
electric traction systems for both hybrid and fuel cell vehicles 
reflect PNGV's highest priorities. These programs are vital to the 
success of PNGV. Significant cuts in the level of federal funding would 
undoubtedly delay achievement of many research goals and perhaps 
necessitate a revision to the scope of the program.
                                 ______
                                 

    PREPARED STATEMENT OF THE STATE TEACHERS' RETIREMENT SYSTEM OF 
                               CALIFORNIA

                                SUMMARY

    Acting pursuant to Congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Administration reached a settlement with the 
State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time.
    Following the settlement, the sale of the Elk Hills Reserve went 
forward without the cloud of the State's claims and produced a winning 
bid of $3.65 billion, far beyond most expectations. Last year, Congress 
appropriated the $36 million necessary to satisfy the Federal 
Government's obligation to make the second annual installment payment 
of compensation due in fiscal year 2000 to the State for its interest 
in the Elk Hills Reserve. This was done by means of an advance 
appropriation of $36 million to become available at the beginning of 
fiscal year 2001.
    The President's fiscal year 2001 Budget includes a request for an 
advance appropriation for payment to the State of the remaining five 
annual installments of compensation due to the State, to be payable in 
fiscal years 2002-2006 and to be made available on or about October 1 
of each fiscal year, as follows: for fiscal year 2002, $36 million; for 
fiscal year 2003, $36 million; for fiscal year 2004, $36 million; for 
fiscal year 2005, $60 million; for fiscal year 2006, $60 million.
    The California State Teachers' Retirement System respectfully urges 
the Subcommittee's serious consideration of including in the fiscal 
year 2001 Interior Appropriations bill an advance appropriation to 
provide for the remaining annual installments of Elk Hills compensation 
due to the State. At a minimum, Congress should appropriate for fiscal 
year 2001 the $36 million to fulfill the Federal Government's 
obligation to make the third annual installment payment of 
compensation, due in fiscal year 2001 under the settlement that 
Congress directed the Administration to achieve.
    The entire 52 Member California House delegation recently signed a 
letter of strong support for the Elk Hills appropriation.

                               BACKGROUND

    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.

          CONGRESSIONAL DIRECTION TO SETTLE THE STATE'S CLAIMS

    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the Act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec. 3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)

             SETTLEMENT REACHED THAT IS FAIR TO BOTH SIDES

    Over the course of the year that followed enactment of the Defense 
Authorization Act mandating the sale of Elk Hills, the Administration 
and the State engaged in vigorous and extended negotiations over a 
possible settlement. Finally, on October 10, 1996 a settlement was 
reached, and a written Settlement Agreement was entered into between 
the United States and the State, signed by the Secretary of Energy and 
the Governor of California.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.

   FEDERAL REVENUES MAXIMIZED BY REMOVING CLOUD OF STATE'S CLAIM IN 
                          ADVANCE OF THE SALE

    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale.
    The Reserve thereafter was sold for a winning bid of $3.65 billion 
in cash, a sales price that substantially exceeded earlier estimates.
    proper compensation for the state's claims as congress directed
    In exchange for the State's waiver of rights to Elk Hills to permit 
the sale to proceed, the Settlement Agreement provides the State and 
its teachers with proper compensation for the fair value of the State's 
claims, as Congress had directed in the Defense Authorization Act.
    While the Federal Government received the Elk Hills sales proceeds 
in a cash lump sum at closing of the sale in February, 1998, the State 
agreed to accept compensation in installments stretched out over an 
extended period of 7 years without interest. This represented a 
substantial concession by the State. Congress had reserved 9 percent of 
sales proceeds for compensating the State. The State school lands' 
share had been estimated by the Federal Government to constitute 8.2 to 
9.2 percent of the total value of the Reserve. By comparison, the 
present value of the stretched out compensation payments to the State 
has been determined by the Federal Government to represent only 6.4 
percent of the sales proceeds, since the State agreed to defer receipt 
of the compensation over a 7-year period and will receive no interest 
on the deferred payments.
    Accordingly, under the Settlement Agreement the Federal Government 
is obligated to pay to the State as compensation, subject to an 
appropriation, annual installments of $36 million in each of the first 
5 years (fiscal years 1999-2003) and the balance of the amount due 
split evenly between years 6 and 7 (fiscal year 2004-2005).

                  THE MONEY IS THERE TO PAY THE STATE

    The funds necessary to compensate the State have been collected 
from the sales proceeds remitted by the private purchaser of Elk Hills 
and are now being held in the Elk Hills School Lands Fund for the 
express purpose of compensating the State. (The balance in the Elk 
Hills School Lands fund has been reduced by an approximately $26 
million ``hold-back'' from the State's share pending the final equity 
determination of the Federal Government's share of the Elk Hills field 
vis-a-vis its co-owner prior to the sale, Chevron. This escrow will be 
released once the final equity shares are determined.)

   THE PRESIDENT HAS REQUESTED APPROPRIATION OF THE REMAINING ANNUAL 
    INSTALLMENTS OF COMPENSATION DUE UNDER THE SETTLEMENT AGREEMENT

    In the Administration's Budget for fiscal year 2001, the President 
has requested an advance appropriation for payment to the State of the 
remaining five annual installments of compensation due to the State 
under the Settlement Agreement, to be payable in fiscal years 2002-2006 
and to be made available on or about October 1 of each fiscal year, as 
follows: for fiscal year 2002, $36 million; for fiscal year 2003, $36 
million; for fiscal year 2004, $36 million; for fiscal year 2005, $60 
million; for fiscal year 2006, $60 million. (The Administration's 
requested appropriations do not include the $26 million ``holdback'' 
from the State's share pending the final determination of the Federal 
Government's equity interest in Elk Hills or the State's 9 percent 
share of any additional sales proceeds that the Federal Government 
would receive upon increase of its equity interest.)
  congress should appropriate the funds due under the settlement that 
            congress directed the administration to achieve
    The California State Teachers' Retirement System respectfully urges 
the Subcommittee's serious consideration of including in the fiscal 
year 2001 Interior Appropriations bill an advance appropriation to 
provide for the remaining annual installments of Elk Hills compensation 
due to the State under the Settlement Agreement with the Federal 
Government. At a minimum, Congress should appropriate for fiscal year 
2001 the $36 million to fulfill the Federal Government's obligation to 
make the third annual installment payment of compensation due in fiscal 
year 2001 under the settlement that Congress directed the 
Administration to achieve. The entire 52 Member California House 
delegation recently signed a letter dated March 17, 2000 to the House 
Interior Appropriations Subcommittee strongly supporting the Elk Hills 
appropriation.
                                 ______
                                 

   Prepared Statement of the Consortium for Fossil Fuel Liquefaction 
                                Science

    C1 chemistry is the conversion of carbon-containing gases that 
contain one carbon atom per molecule, such as natural gas, synthesis 
gas and carbon dioxide, into transportation fuels and other products. 
In 1999, with the support of the U.S. Department of Energy, the 
Consortium for Fossil Fuel Liquefaction Science (CFFLS), a research 
consortium with participants from the universities of Kentucky, West 
Virginia, Utah, Pittsburgh and Auburn, initiated a new basic research 
program on C1 chemistry. The CFFLS is requesting $1.6 million from the 
Department of Energy to continue this program in fiscal year 2001. This 
represents a modest increase over the $1.4 million of funding provided 
for this program by DOE in fiscal year 1999 and fiscal year 2000. The 
CFFLS research program on C1 chemistry is a cooperative program jointly 
supported by the DOE Energy Efficiency and Renewable Resources (EE) 
Office of Transportation Technology (OTT) and the DOE Fossil Energy 
(FE) Advanced Research and Environmental Technology (AR&ET) division. 
We are requesting $1.2 million from DOE, EE, OTT and $0.4 million from 
DOE, FE, AR&ET. The five Consortium universities will provide $0.25 of 
cost sharing for every $1.00 of federal funding, or $400,000, to 
support this research program in fiscal year 2000.
    The feedstocks for C1 chemistry include natural gas, carbon 
dioxide, methanol, and synthesis gas (a mixture of carbon monoxide and 
hydrogen). Synthesis gas, or syngas, is produced by gasification of 
coal, biomass, or organic wastes, and by reforming of natural gas with 
steam or carbon dioxide. C1 chemistry is currently used to produce 
nearly all hydrogen and methanol and many valuable chemicals. Because 
of new environmental standards now being promulgated, C1 chemistry is 
likely to become a major source of clean, high efficiency, 
transportation fuel in the U.S. early in the next century.
    In order to insure that our research produces results that are of 
practical value to industry, we have established an Industrial Advisory 
Board (IAB) to review and focus our C1 chemistry program. The IAB 
includes members from Chevron, Daimler-Chrysler, Eastman Chemical, the 
Department of Defense, and Teir Associates. In cooperation with the IAB 
and DOE, the Consortium has identified several research topics that are 
being emphasized in this program, which are listed below.
  --Development of new Fischer-Tropsch technology to produce oxygen-
        containing transportation fuels that produce less emissions and 
        have higher efficiency.
  --Development of new fuel additives to improve the efficiency and 
        decrease emissions of diesel fuel and gasoline. These additives 
        could replace MTBE.
  --Development of novel processes for producing syngas and hydrogen.
    A brief summary of the progress that has been made in the CFFLS 
program for each of these research topics is given below.
    Improved Fischer-Tropsch fuels.--A principal goal of the U.S. DOE 
in the transportation sector is to develop new sources of ultra clean 
diesel fuel for use in light trucks and sports utility vehicles, the 
use of which has increased dramatically in this country over the past 
several years. Several catalysts have been identified in the CFFLS C1 
program that promote the incorporation of oxygen into diesel fuel 
produced via the Fischer-Tropsch process. This should cause easier 
ignition and more complete burnout of the fuel. Consequently, higher 
mileage per gallon and lower emissions of fine particulate matter 
should be the result of this fuel modification.
    This will be tested in future diesel engine experiments at the 
National Energy Technology Laboratory (NETL).
    New fuel additives.--Good progress has been made on the development 
of catalysts and processing conditions for the production of a number 
of compounds that may make excellent additives for transportation fuel. 
These additives are expected to improve the efficiency and decrease 
emissions of diesel fuel and gasoline. The most widely used 
transportation fuel additive, methyl tertiary butyl ether (MTBE), has 
been found in the ground water in California and is likely to be banned 
soon in that State. The compounds we are working on include dialkyl 
carbonates and higher ethers and alcohols containing from six to nine 
carbon atoms per molecule. Such compounds are much less volatile and 
much less soluble in water than MTBE and therefore are much less likely 
to be dispersed into the ground water. The dialkyl carbonates are 
biodegradable into carbon dioxide and water.
    Production of syngas and hydrogen.--There is an abundance of remote 
natural gas, such as that associated with the Alaskan oil fields, that 
is currently being wasted. Therefore, it is important to develop more 
effective technology to convert natural gas into liquid products that 
can be transported by pipeline or tanker. The costliest step of this 
process is converting the natural gas into syngas. Most syngas is 
currently made by reforming natural gas (methane) by reaction with 
steam. However, there are several advantages to using carbon dioxide to 
reform natural gas to syngas.
  --Many natural gas sources in nature contain a significant percentage 
        (20-50 percent) of carbon dioxide in addition to methane.
  --The resulting syngas has a more favorable hydrogen to carbon ratio 
        for the production of transportation fuels.
  --The reaction of carbon dioxide with natural gas to produce syngas 
        has the advantage of using significant amounts of carbon 
        dioxide in a productive manner.
    The CFFLS research on this topic is focused on catalytic reforming 
of natural gas with carbon dioxide or mixtures of steam and carbon 
dioxide. The goal is to develop novel catalysts with higher activities 
and longer lifetimes.
    Hydrogen research is focused on the development of nanoscale 
catalysts to produce hydrogen from syngas, methanol, natural gas or 
higher hydrocarbons. The high purity hydrogen produced from such 
conversion processes can be used in advanced, pollution free, power 
sources known as fuel cells, as well as for traditional uses (ammonia, 
refining, etc.). A long-term goal of DOE is the development of high 
efficiency, pollution free vehicles powered by fuel cells. Because of 
our existing infrastructure, there are advantages to continuing to use 
liquid fuel in vehicles. Consequently, we will explore methods of 
extracting hydrogen from various liquid fuels. An alternative approach 
is the development of safe, stable, hydrogen storage materials for use 
on vehicles.

                  ECONOMIC AND ENVIRONMENTAL BENEFITS

    Technology to be developed in this program could have significant 
economic and environmental impact. The value of the products produced 
by C1 chemistry (diesel fuel, transportation fuel additives, hydrogen, 
etc.) could eventually exceed $70 billion per year, while oil imports 
could be significantly reduced. At the same time, emissions of fine 
particulate matter, carbon dioxide, and sulfur and nitrogen oxides 
could be reduced by as much as 10 percent.

                       SUMMARY AND BUDGET REQUEST

    The Consortium for Fossil Fuel Liquefaction Science, a research 
consortium with participants from the universities of Kentucky, West 
Virginia, Utah, Pittsburgh and Auburn, has initiated a coordinated 
basic research program on C1 chemistry. The goal of the program is to 
develop technology to convert simple carbon feedstocks (natural gas, 
syngas, carbon dioxide, and methanol) into ultra clean, high efficiency 
transportation fuel. The CFFLS is requesting $1.6 million from the 
Department of Energy to support this program in fiscal year 2001. This 
would be a modest increase over the $1.4 million allocated for the 
program in fiscal year 1999 and fiscal year 2000. The five Consortium 
universities will provide $0.25 of cost sharing for every $1.00 of 
federal funding, or $400,000 in fiscal year 2001.
                                 ______
                                 

Prepared Statement of the National Research Center for Coal and Energy, 
                        West Virginia University

    Dear Chairman Gorton and Members of the Subcommittee: We are 
writing to request your support for the C-1 Chemistry research program 
of the Consortium for Fossil Fuel Liquefaction Science. Our research is 
focused on producing clean alternative liquid transportation fuels from 
feedstocks such as coal and natural gas. We seek funding at a level of 
$1.2 million for fiscal year 2001 in the budget of the Office of 
Transportation Technologies of the U.S. DOE Office of Energy Efficiency 
and Renewable Energy. This request is an increase of $0.2 million over 
the level supported by your Subcommittee for fiscal year 2000.
    Recent forecasts by the Energy Information Agency of the U.S. 
Department of Energy predict that our nation's dependence on foreign 
oil will increase from its present level of around 50 percent of our 
total consumption to about 63 percent of consumption in the next 
fifteen years. Our energy security will be increasingly in jeopardy 
unless we can develop alternative sources of liquid transportation 
fuels.
    In the near future, the Environmental Protection Agency is expected 
to propose tightening diesel fuel and diesel engine sulfur emission 
standards. The sulfur content of diesel fuels is projected to be 
reduced from the current standard of 500 parts per million to 15 parts 
per million in 2006. Fuel for cars and light trucks would be limited to 
no more than 30 ppm, a 90 percent reduction over the sulfur content in 
most gasoline currently on the market.
    The national concern over the current rise in prices at the 
gasoline pump has driven home our dependence on liquid transportation 
fuels. Increased fuel costs are already causing unwanted adverse 
changes in our overall economy.
    These factors demonstrate the relevance and importance of our 
research program.
    C-1 Chemistry begins with the conversion of natural gas or coal 
into synthesis gas, a mixture of carbon monoxide and hydrogen. When 
syngas is produced from coal by gasification, undesirable minerals such 
as sulfur can be readily removed, thereby ensuring that a clean 
transportation fuel can be made upon further processing. When natural 
gas is used as a feedstock, C-1 Chemistry processes require fewer 
clean-up steps, but the initial fuel cost is higher than coal. Further 
processing of syngas streams by using tailored catalysts can produce a 
wide variety of liquid fuels and fuel additives, including hydrogen. 
Some processes utilize carbon dioxide, thereby reducing the emission of 
greenhouse gases.
    C-1 Chemistry processes are an integral part of important national 
energy programs. C-1 Chemistry can be applied in the conversion of 
remote natural gas, as in the Alaskan oil fields. Under the Vision 21 
program, gasification units are integrated into co-production 
facilities to produce turbine fuels for power generation or to produce 
liquid transportation fuels or chemicals. Our research also contributes 
to the Ultra Clean Fuels initiative proposed by DOE for their fiscal 
year 2001 program.
    Investments in C-1 Chemistry research are required for optimizing 
the conversion of feedstock fuel into final products, for evaluating 
the characteristics of fuels and fuel additives produced, and for 
testing these fuels in engine systems. Further research will reduce the 
cost of producing fuel to enable our nation to more readily meet its 
transportation needs using indigenous resources. Value added chemicals 
will be a useful byproduct of this research program.
    Our Consortium provides 20 percent of the cost of the research. We 
work closely with DOE program managers in both Fossil Energy and Energy 
Efficiency. An Industry Advisory Board provides guidance to our 
program.
    Our program integrates well with the major transportation fuel 
initiatives of the U.S. Department of Energy. The relatively modest 
cost of basic research investments will be reflected in cleaner and 
cheaper transportation fuels in future years. In addition to economic 
and energy security benefits, these initiatives will provide increased 
health benefits as harmful emissions from cars and trucks are reduced.
    We are appreciative of your past support. We urge your funding of 
the C-1 Chemistry program of our Consortium in fiscal year 2001. We 
would be pleased to provide additional information about our programs 
and accomplishments.
                                 ______
                                 

   Prepared Statement of the Consortium for Fossil Fuel Liquefaction 
                      Science, University of Utah

    In your considerations for the fiscal year 2001 Budget, I recommend 
support for the Consortium for Fossil Fuel Liquefaction Science 
(CFFLS), a five-university research consortium with approximately 90 
participants from: the University of Kentucky, West Virginia 
University, the University of Utah, the University of Pittsburgh, and 
Auburn University. Over the past three years the consortium has 
developed very promising technology for C1 chemistry.
    C1 chemistry is the conversion of feedstocks such as natural gas, 
carbon dioxide, and synthesis gas (a mixture of carbon monoxide and 
hydrogen) into hydrocarbon products. Synthesis gas, or syngas, is 
produced principally by reaction of natural gas with steam. It can also 
be produced by gasification of coal, biomass, or organic wastes.
    Because of new environmental standards now being promulgated, C1 
chemistry is likely to become a major source of transportation fuel in 
the U.S. early in the next century. Although there is a DOE program on 
Fischer-Tropsch synthesis, a form of C1 chemistry, there is no coherent 
national research program on the more innovative aspects of this 
important technology. To fill this void, the Consortium for Fossil Fuel 
Liquefaction Science initiated a basic research program on C1 chemistry 
that was included in the DOE budgets for fiscal year 1999 and fiscal 
year 2000.
    The Consortium made a thorough study of C1 chemistry to determine 
which research topics should be emphasized to meet our national energy 
needs and environmental goals. In order to insure that the research 
produces results that are of practical value to industry, the 
Consortium has established an industrial advisory board (IAB) to review 
and focus the Consortium's C1 chemistry program. The IAB includes 
members from Chevron, Daimler-Chrysler, Eastman Chemical, the 
Department of Defense, and Teir Associates. In cooperation with the IAB 
and DOE, the Consortium has identified several research topics that are 
being emphasized in this program, which are listed below.
  --Development of new Fischer-Tropsch technology to produce oxygen-
        containing transportation fuels that produce less emissions and 
        have higher efficiency.
  --Development of new fuel additives to improve the efficiency and 
        decrease emissions of diesel fuel and gasoline. These additives 
        could replace MTBE.
  --Development of novel processes for producing syngas and hydrogen.
    The CFFLS is requesting $1.6 million from the Department of Energy 
to support this program in fiscal year 2001. The five consortium 
universities will provide $0.25 of cost sharing for every $1.00 of 
federal funding, or $400,000 in fiscal year 2001. Your support for this 
important program is requested.
                                 ______
                                 

           Prepared Statement of the University of Pittsburgh

    We are offering this testimony in support of a request for 
continued funding for research on C1 chemistry which involves the 
conversion of simple molecules such as natural gas, synthesis gas (a 
mixture of hydrogen and carbon monoxide), carbon dioxide and methanol 
into efficient, environmentally clean fuels and chemicals. This 
research is being conducted by the Consortium for Fossil Fuels 
Liquefaction Science and is supported by the U.S. Department of Energy. 
The Consortium includes the Universities of Pittsburgh, Kentucky and 
Utah as well as West Virginia and Auburn Universities.
    There is a growing need for efficient diesel fuel that has little 
or no sulfur, nitrogen or aromatic material, substances responsible for 
harmful emissions, especially of particulate matter consisting of black 
sooty material. The Consortium is engaged in research to produce clean, 
high cetane diesel fuel containing built-in oxygen atoms, by adding 
certain oxygenated compounds to petroleum-derived diesel fuel or by 
oxidizing petroleum diesel by blowing air through the fuel.
    Work is also being conducted on converting heavy materials such as 
Fischer-Tropsch waxes and waste polymers to diesel fuel or to gasoline, 
both environmentally clean and fuel efficient. A new and robust 
catalyst has been found that can convert heavy materials by 
hydrocracking and hydroisomerization to diesel fuel, jet fuel and, in 
the future, to needed lubricant oils. Work on using carbon dioxide as 
an oxidizing agent to convert various materials to high volume, high 
value chemicals is also proceeding.
    The Consortium is a much-needed resource team to provide trained 
engineers and chemists who will supply the talent to meet the needs of 
industry, especially those concerned with supplying the energy that is 
crucial to our economy. Students who have been trained by Consortium 
researchers are already important contributors to major firms.
    The work of the Consortium is of great value to the health and 
wealth of this country. It is recommended that funding for the 
Consortium, now at $1.4 million, be increased to 1.6 million in fiscal 
year 2002. The undersigned recommend and request your strong support 
for the much-needed program and budget proposed for the Consortium.
                                 ______
                                 

                Prepared Statement of Auburn University

    Auburn University, in conjunction with the universities of 
Kentucky, West Virginia, Utah, and Pittsburgh, is a member of the 
Consortium for Fossil Fuel Liquefaction Science (CFFLS). In 1999, this 
consortium initiated a new basic research program in C1 chemistry. C1 
chemistry is the conversion of carbon containing gases with one carbon 
atom per molecule such as synthesis gas, methanol, and carbon dioxide, 
into transportation fuels. The fuels, hydrogen and methanol, made 
through C1 chemistry bum cleanly and provide a new source of 
environmentally friendly fuels. C1 chemistry also offers the 
opportunity to make (produce?) valuable fuel additives that promote the 
clean burning of petroleum fuels.
    Research at Auburn University is directed toward the development of 
processes to synthesize higher ethers from synthesis gas and methanol 
that will serve as additives to gasoline and diesel fuels. These 
oxygen-containing additives promote combustion and assist petroleum 
fuels in burning more completely and efficiently. The addition of these 
additives decreases the emissions from the combustion of diesel fuels 
and gasolines. Higher ethers provide a more environmentally favorable 
alternative to MTBE because the higher ethers are less soluble in water 
and have a lower vapor pressure. These chemical characteristics of 
higher ethers decrease the likelihood of ground water contamination.
    Auburn University researchers are also engaged in developing a 
novel approach to Fischer Tropsch synthesis of transportation fuels. 
State-of-the-art research in supercritical fluid reaction chemistry is 
being applied to the production of fuels from synthesis gas. 
Supercritical fluid conditions allow fine-tuning of the reaction 
environment to mediate the current heat and mass transport limitations 
and to enhance the selectivity and conversion of synthesis gas to the 
desired products in Fischer Tropsch synthesis.
    Auburn University supports the request of $1.6 million by the CFFLS 
from the Department of Energy (DOE) for this C1 chemistry research 
program. The request is for $1.2 million from the DOE Energy Efficiency 
and Renewable Resources Office of Transportation Fuels and the DOE 
Fossil Energy Advanced Research and Environmental Technology division. 
Auburn University, like the other four consortium members, will provide 
$0.25 of cost sharing for every $1.00 of federal funding.
                                 ______
                                 

     Prepared Statement of the Biomass Energy Research Association

    This testimony pertains to the request for appropriations in fiscal 
year 2001 by the Department of Energy (DOE), Office of Energy 
Efficiency and Renewable Energy (EERE), for three, specific, mission-
oriented, biomass research programs included under the general title 
Energy Conservation, Industry Sector. These programs are supported by 
EERE's Office of Industrial Technologies (OIT): The production of 
organic commodity chemicals from biomass feedstocks in the Industries 
of the Future (Specific), Agriculture Vision; The development of 
advanced biomass gasification processes in Industries of the Future 
(Specific), Forest and Paper Products Vision; A variety of advanced 
biomass technologies in Industries of the Future (Crosscutting), 
Enabling Technologies. A separate statement has been prepared in 
support of the biomass research funded by the Energy and Water Bill.
    Specifically, the Biomass Energy Research Association (BERA) 
recommends that $43,826,000 be appropriated for these programs in 
fiscal year 2001. The high priority activities and the dollar 
allocations recommended for each program in fiscal year 2001 are:
  --Continuation of the chemicals-from-biomass core research 
        ($5,000,000) and incorporation of the requested Bioenergy/
        Bioproducts Initiative (BBI) ($8,000,000). This program should 
        include assessments of biomass feedstock production and needs 
        in collaboration with the U.S. Department of Agriculture (USDA) 
        and independent contractors if needed, and a clear definition 
        of the potential contribution that each project can make to 
        meet program objectives before an award is made.
  --Continuation of the core research started in fiscal year 2000 to 
        develop advanced biomass gasification technologies such as 
        integrated gasification-combined cycle (IGCC) processes and 
        their demonstration in the field for waste biomass including 
        black liquor ($13,726,000). This program, which will be 
        implemented through the National Energy Technology Laboratory 
        (NETL), should fully utilize the large background already in 
        existence on gasification technologies developed over many 
        years, most of which is readily available.
  --Continued development of advanced biomass technologies for the 
        forest and paper industries ($12,100,000) and incorporation of 
        the requested BBI ($5,000,000) into the program. Although these 
        biomass-related activities are important projects for both 
        national and industry goals, the OIT is urged to provide more 
        supporting detail in future requests. (See next item)
  --In the OIT's future requests for appropriations, new projects and 
        existing projects scheduled for continuation in the next fiscal 
        year and terminated projects from the current fiscal year 
        should be described in sufficient detail, as is done in EERE's 
        funding requests under the Energy and Water Bill, so that it is 
        possible to determine specific expenditures that are planned 
        for each project and the cost-shared amounts from the private 
        sector already in-hand and expected for each of the scale-up 
        projects.
  --Continued internal coordination and joint management of all DOE 
        biomass programs at DOE headquarters.
    BERA is a non-profit association in Washington, DC. It was founded 
in 1982 by researchers and non-governmental organizations that conduct 
biomass research. Our objectives are to promote education and research 
on the conversion of renewable virgin and waste biomass to energy, 
fuels, and chemicals that can be economically utilized by the public, 
and to serve as a source of information on biomass policies and 
programs. BERA does not accept federal funding for its efforts.
    I would like to thank you, Mr. Chairman, on behalf of BERA's 
members for the opportunity to present BERA's position on the federal 
funding of these biomass programs. Continued support of this research 
is essential to provide the stimulus to develop environmentally clean, 
indigenous resources that can displace fossil feedstocks and fuels, 
stimulate regional and national economic development and employment, 
reduce our dependence on imported oil, and help to reduce adverse 
climate and environmental changes.

           PROGRAM INTEGRATION, COORDINATION, AND MANAGEMENT
 
   For several years, BERA has urged that all of the biomass-related 
research funded by DOE should be internally coordinated and jointly 
managed at DOE headquarters. The program managers at DOE Headquarters 
should be heavily involved in this activity. Multi-agency agreements to 
expand the coordination of biomass energy research programs between two 
or more federal agencies do not seem to have been too effective in the 
past. Implementation of the Bioenergy Initiative enacted by Congress 
for fiscal year 2000 to identify each federal agency that provides 
funding related to producing biomass energy, each agency's programs, 
and the expenditures by each agency, coupled with President Clinton's 
Executive Order 13134 issued on August 12, 1999, ``Developing and 
Promoting Biobased Products and Bioenergy,'' should make it possible to 
extend the coordination of all of these programs through a National 
Coordination Office to all federal agencies involved in biomass energy 
development, as proposed in the Executive Order.
    BERA strongly recommends that these initiatives be continued and 
incorporated into the overall federal biomass RD&D program. In fiscal 
year 2001, it is especially important that the biomass research of DOE 
and the USDA be closely coordinated. If the initiatives are fully 
implemented, the value of the federal expenditures on biomass research 
to the country will be enhanced in many different ways.
    In addition, BERA strongly urges that at least 50 percent of the 
federal funds for biomass research, excluding the funds for scale-up 
projects, are used to sustain a national biomass science and technology 
base via subcontractors outside DOE's national laboratories. While it 
is desirable for the national laboratories to coordinate this research, 
increased support for U.S. scientists and engineers in industry, 
academe, and research institutes that are unable to fund biomass 
research will encourage commercialization of emerging technologies and 
serious consideration of new ideas. It will also help to expand the 
professional development and expertise of diverse researchers committed 
to the advancement of biomass technologies.

                               BACKGROUND

Organic commodity chemicals from biomass (agriculture vision)
    This program was started by OIT in fiscal year 1999 ($1,981,000) 
and continued in fiscal year 2000 ($4,000,000). A third solicitation to 
support project R&D is scheduled for fiscal year 2001 ($8,000,000 
requested including a BBI of $5,000,000). Specific projects and project 
areas are not described in the formal budget request for fiscal year 
2001. Additional solicitations will support projects to integrate 
technology, markets, and policies for using crops and agricultural 
wastes to produce fuels, power, and biobased products in biorefineries 
($5,000,000 requested including a BBI of $3,000,000).
    Several reports on the Agriculture Vision program and the 
information presented in the request for appropriations for fiscal year 
2001 have been examined. The overall goal is to develop the 
technologies necessary to displace 10 percent of the U.S. market for 
fossil feedstocks with biomass for the production of organic commodity 
chemicals and chemical products by the year 2020. We are pleased to 
note that BERA's recommendation last year to include the displacement 
by biomass of process energy consumption supplied from fossil fuels 
appears to have been incorporated into the program objectives. It was 
previously recommended that the program goal be expanded to include 
both fossil feedstock displacement and the use of biomass energy, 
biofuels, and other renewable energy resources to displace the fossil 
energy inputs used for processing. In addition, reductions in process 
energy consumption through higher efficiency unit operations and 
process energy conservation should be part of this goal. This year, DOE 
has reported that they expect to achieve a 30 percent reduction per 
pound of chemicals produced in energy consumption, materials used, 
water consumption, and pollutant and toxic dispersion by 2020. This is 
important because the total fossil feedstock converted to organic 
commodity chemicals in the United States last year, for example, in 
terms of barrels of oil equivalent (BOE), was approximately 1.26 
million BOE/day. Ten percent of this value is 126,000 BOE/day, while 
the corresponding process energy consumption was about 136,000 BOE/day.
    BERA believes that this program is very worthwhile. Successful 
implementation of the chemicals-from-biomass program in the Agriculture 
Vision is expected to result in many regional and national benefits. 
Virtually all basic organic chemicals (including plastics and 
petroleum- and natural gas-derived chemicals (can be manufactured from 
biomass feedstocks. Utilization of agricultural and forest lands for 
production of renewable fossil feedstock substitutes will significantly 
improve economic growth and the environment. New markets will be opened 
for farmers and foresters, rural development and employment will 
increase, about 80 cents of every dollar spent on biomass in a given 
region will stay in that region, and federal farm subsidy payments and 
trade deficits will be reduced. The displacement of fossil feedstocks 
by virgin and waste biomass will also help reduce atmospheric 
pollutants emitted by conventional manufacturing plants that use fossil 
feedstocks, such as sulfur oxides and unburned hydrocarbons, each of 
which contributes heavily to sub-quality air.
    As stated last year, the potential amounts of fossil feedstock and 
process energy displaced by biomass feedstock and biomass energy and 
biofuels should be estimated for each contract before an award is made. 
Each respondent to a competitive solicitation should address this 
question in the proposal. A simple analysis is sufficient to predict 
how large a contribution can be made by a given project toward 
achievement of the overall program goal, presuming the project is 
successfully completed and the technology is implemented by industry. 
This basic assessment, along with preliminary economic analyses, when 
applied to development of this program, will help ensure its success. 
There is no indication in the request for fiscal year 2001 that this 
will be performed for each project. However, the contracts already 
awarded for this program and the progress made in fiscal year 2000 are 
not discussed in the request for fiscal year 2001.
    An in-depth assessment of the availabilities, logistics, chemical 
and physical properties, growth requirements and characteristics, and 
competitive uses and economics of existing biomass resources, including 
specific biomass species and agricultural residues, is required to 
properly structure the Agriculture Vision program and to select optimum 
biomass feedstocks. This assessment should include the energy and 
feedstock potential of new additions to biomass feedstock ``reserves.'' 
Note that the maximum economic transport distance of biomass to 
processing plants for conversion to energy and fuels is about 50 to 75 
miles. Note also that 1.0 quad (489,000 BOE/day) of biomass energy 
(gross) produced by hypothetical biomass plantations, exclusive of the 
energy inputs needed for planting, growing, harvesting, and 
transporting the feedstock to the conversion plant gate, and converting 
it to organic chemicals, requires about 10,000 square miles of biomass 
growth area, the equivalent of a square 100 miles on each edge. This 
assumes average biomass yields of 10 dry ton per acre per year, a yield 
level that is generally on the optimistic side in moderate climates. 
The in-depth assessment must therefore be concerned with the parameters 
outlined here and the design and net energy production efficiencies of 
integrated biomass feedstock production-transport-conversion systems. 
The EERE and its predecessor groups in DOE, USDA, and others have 
performed such assessments. The results of this work should be 
incorporated into the assessments of the Agriculture Vision.
Advanced biomass gasification processes (enabling technologies)
    This program was started by the OIT in fiscal year 2000. It 
involves preliminary design studies scheduled for completion in fiscal 
year 2001 with black liquor feedstocks, critical R&D needs for systems 
in industrial plants, and a competitive solicitation ($10,726,000 
requested). Supporting areas include sulfur management, gas clean-up, 
materials, system integration, and other combustion-related studies 
($3,000,000 requested). It is anticipated that perfection of this 
technology with black liquor and wood waste feedstocks will open new 
applications in the pulp and paper industry.
    The federal and private sector funding provided over the last few 
decades to perfect biomass gasification technologies and to develop 
advanced processes such as IGCC systems is substantial. Some of this 
work is on-going and includes other EERE projects in progress that are 
currently funded at a reduced level under the Energy and Water Bill. 
Significant processing improvements and innovative advancements have 
been and continue to be made. However, the gasification of black 
liquor, a major biomass energy resource, has not been developed.
    This program, if successful, could result in the initiation of new 
projects to perfect biomass gasification and can help this fledgling 
technology make the successful transition to commercial use. The 
program, which will be implemented through NETL, should fully utilize 
the large background already in existence on gasification technologies 
developed over many years, most of which is readily available. It is 
strongly recommended that the history, information, and data 
accumulated to date be carefully examined, and where appropriate 
utilized by proposers before awards are made by DOE to design and build 
new biomass gasifiers.

Advanced biomass technologies for the forest and paper industries 
        (forest and paper products vision)

    All of the Forest and Paper Products Vision ($17,100,000 requested 
including a BBI of $5,000,000) has been categorized by DOE as biomass 
energy RD&D. This program is described by various titles as follows: 
Energy Performance consists of approximately 12 projects on efficiency, 
heat recovery, wood and paper drying, environmental impacts, and Kraft 
pulping ($3,280,000 requested); Environmental Performance consists of 
approximately 10 projects on developing advanced pollution prevention 
technologies such as volatile organic compound (VOC) emissions 
reduction in Kraft mills and commercial VOC extraction and collection 
from lumber drying ($2,073,000 requested); Improved Capital 
Effectiveness consists of approximately 7 projects focused on system 
and process efficiency, such as a tool to predict corrosion rates in a 
Kraft chemical recovery boiler that will be commercialized ($2,172,000 
requested); Recycling consists of approximately 8 projects to develop a 
new screening technology to reduce energy consumption during the 
removal of contaminants from recycled fiber ($1,678,000 requested); 
Sensors and Controls consists of 8 projects for optimizing paper mill 
operations such as a project to develop an apparatus for measuring 
properties on the wet end of a paper machine ($2,073,000 requested); 
Sustainable Forestry consists of approximately 5 projects to improve 
the conversion of solar energy to woody biomass such as a project to 
increase stem growth rates of loblolly pine ($824,000 requested), and 
approximately 7 additional projects to implement the relevant results 
($2,000,000 BBI requested) and 8 additional projects that involve 
biorefineries ($3,000,000 BBI requested).
    This program has shown and continues to show significant value in 
addressing both national and industry priorities and has significant 
matching funds from industry. However, in future funding requests, OIT 
should provide brief status reports of each project, including the 
results for the current year, plans for the next year, and the level of 
industry participation.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the service 
organization representing the interests of over 2,000 municipal and 
other state and locally owned utilities throughout the U.S. 
Collectively, public power utilities deliver electric energy to one of 
seven electric consumers (about 45 million people) serving some of our 
nation's largest cities. The majority of APPA's member systems are 
located in small and medium-sized communities in every State except 
Hawaii. We appreciate the opportunity to submit this statement 
concerning fiscal year 2001 appropriations. The focus of our testimony 
will be on U.S. Department of Energy (DOE) programs within this 
Subcommittee's jurisdiction.

                     DOE ENERGY EFFICIENCY PROGRAMS

    APPA supports the Administration's emphasis on DOE energy 
efficiency programs in its funding request for fiscal year 2001. We ask 
that this Subcommittee ensure these important programs continue to be 
among the options available to our nation's electric utilities as they 
strive to meet the increased competitive and environmental demands 
placed on them by the marketplace and society. While we realize the 
budget constraints you face, we ask for favorable action on the 
Administration's request in this area. DOE's energy efficiency programs 
received funding of $717 million in fiscal year 1995. Appropriations 
were cut 25 percent in fiscal year 1996 and were increased by nearly 9 
percent in fiscal year 1998. The Administration is proposing to further 
increase funding in fiscal year 2001 to approximately $850.5 million, 
12 percent above the fiscal year 2000 enacted level. Such increased 
expenditures are warranted because energy efficiency is becoming even 
more important in the context of changes occurring as a result of 
electric utility industry restructuring. Due to these changes, many 
utilities already have downsized or terminated some energy efficiency 
programs in order to reduce costs. Yet these programs can be very 
helpful in maximizing the overall progress made toward achieving a 
competitive, high-growth economy for our nation while maintaining the 
kind of environmental quality we all desire for the future.
    Partnership for a New Generation Vehicle.--We urge the Subcommittee 
to fund DOE's PNGV program at the $142.5 million requested by the 
President. It is important that these advanced technologies be 
available for application to both mobile and stationary sources. The 
availability of fuel cell technology for transportation is critical for 
cities and States that must achieve mandated federal air quality 
standards. The fuel cell vehicle is virtually pollution free and highly 
efficient. Even a 10 percent market penetration could reduce regulated 
air pollutants by more than one million tons a year and emissions of 
carbon dioxide by 60 million tons a year. (This would fulfill the U.S. 
commitment to bring its CO<INF>2</INF> emissions back to 1990 levels.) 
It also would save 800,000 barrels of oil a day. One of APPA's members, 
the Sacramento Municipal Utilities District (SMUD), has done extensive 
research in this field because of the outstanding environmental and 
energy efficiency attributes of the technology.
    Community and Building Technologies.--APPA supports the 
Administration's request of $339.8 million to restore previous 
reductions to these energy partnership programs. Among them are Rebuild 
America, designed to accelerate energy efficiency improvements in 
existing commercial and multi-family buildings, and DOE's Energy 
Partnerships for Affordable Homes Program, a collaboration of public 
and non-public groups working to make public and private housing more 
energy efficient and affordable. DOE can play a facilitating role in 
helping bring new technologies and standards to market. Examples of 
valuable DOE efforts in this regard include the Technology Introduction 
Partnerships (TIPS) program and Motor Challenge. TIPS, in particular, 
has been an important one for APPA member systems. Motor Challenge is a 
voluntary partnership between DOE and industry designed to promote 
adoption of motors and motor-driven equipment that increase energy 
efficiency, enhance productivity and improve environmental quality. By 
the year 2001 it is estimated Motor Challenge will generate energy cost 
savings of $1.2 billion and electricity savings of 25 billion kWh.
    Building Codes and Standards.--EPAct also requires each State to 
certify that it has reviewed its residential and commercial building 
codes to determine whether they meet energy efficiency targets. DOE is 
providing important technical assistance to encourage States to adopt 
such codes. We support the Administration's request that $100 million 
be provided to continue this program.
    Community Energy Systems.--District heating and cooling systems act 
as community energy systems by transporting waste energy (from local 
power plants, industrial processes and natural resources) to buildings 
to provide heating and/or cooling. In addition to reducing emissions of 
carbon dioxide and other pollutants, these systems enhance energy 
security and cost stability, stimulate community development and 
facilitate phase-out of ozone-destroying refrigerants. APPA member 
systems that receive information and technical assistance from this 
program include those located in Burlington, VT; Fairbanks, AK; San 
Antonio, TX; Holyoke, MA, and Lansing, MI. APPA recommends $5 million 
to provide: (1) an integrated information campaign to local and state 
governments and the private sector on the benefits of district energy, 
and technical assistance and cost-shared funding for community energy 
resource assessments and feasibility studies, and (2) research, 
development and demonstration in partnership with ongoing cooperative 
international efforts to reduce costs and improve efficiencies of 
district energy technologies.
    Municipal and Community Energy Management.--This program, within 
the Office of Building Technology, provides funding to municipalities 
for conducting a variety of projects that address energy-related areas 
of greatest concern to local governments. APPA recommends this program, 
operated by the Urban Consortium Energy Task Force (UCETF), receive 
$1.6 million, funding level to that provided in fiscal year 2000. UCETF 
is a program of Public Technology, Inc. (PTI), the non-profit 
technology organization of the National League of Cities, the National 
Association of Counties and the International City/County Management 
Association. Currently 22 jurisdictions, including some public power 
communities, are represented on UCETF: Albuquerque, NM; Austin, TX; 
Chicago, IL; Columbus, OH; Dade County, FL; Denver, CO; Greensboro, NC; 
Hennepin County, MN; Kansas City, MO; Long Beach, CA; Memphis, TN; 
Monroe County, NY; Montgomery County, MD; Orange County, FL; 
Philadelphia, PA; Phoenix, AZ; Portland, OR; San Diego, CA; San 
Francisco, CA; San Jose, CA; Seattle, WA, and Washington, D.C.
    Weatherization Assistance Program.--APPA wholeheartedly supports 
the Administration's budget request of $154 million for weatherization 
assistance, especially important to the working poor, elderly and 
disabled. The program helps more than 100,000 residents annually. 
Weatherization programs have the additional benefit of stimulating 
economic growth by increasing disposable income and creating jobs in 
the service sector. The DOE Weatherization Assistance Program has been 
especially effective at helping low income citizens afford their energy 
bills and at the same time reduce their energy usage. The funding 
increases requested for fiscal year 2001 should be provided to this 
valuable program to help alleviate the multi-year backlog of 
weatherization work requested locally.
    State Energy Conservation Program.--State energy offices work on 
nearly every energy efficiency issue. They encourage technology 
development, renewable energy, alternative fuels, energy emergency 
preparedness, energy facility siting, recycling, transportation 
efficiency programs, energy conservation and economic development, 
among other activities. State energy offices have been extremely 
successful in identifying the needs of local communities, businesses 
and consumers, and funding appropriate efforts to effectively transfer 
technology to constituents. With increased devolution of 
responsibilities to the States, this program offers the ideal 
combination of State-level implementation on a flexible basis with 
federal support. We ask that this Subcommittee favorably consider the 
Administration's request of $37 million for the State Energy 
Conservation Program. The program suffered a 50 percent cut in fiscal 
year 1996. The spending level requested for fiscal year 2001 represents 
an increase of nearly $4 million above the fiscal year 2000 enacted 
level.

          DOE FOSSIL ENERGY RESEARCH AND DEVELOPMENT PROGRAMS

    Fuel Cells.--Fuel cells have captured the interest of government 
and industry alike. Their modularity, high efficiency and negligible 
emissions of smog and acid rain precursors make fuel cells an important 
growth area deserving national priority. A consortium, including APPA 
member systems, along with the National Rural Electric Cooperative 
Association (NRECA), the Electric Power Research Institute (EPRI) and 
DOE, is co-sponsoring carbonate fuel cell research, testing and the 
first utility-scale demonstration of a carbonate fuel cell power plant. 
The direct fuel cell program consists of two major efforts--the Santa 
Clara Demonstration Project and the ongoing Product Design Improvement 
(PDI) cost-shared initiative.
    The first demonstration of an U.S.-developed fuel cell power plant 
has now begun operation in Santa Clara, CA. This 2-MW fuel cell unit 
has achieved a 44 percent efficiency level, a record for a fossil 
fueled power plant of this size, has recorded emissions below 
conventional detection limits and is providing valuable information on 
fuel cell power plant operations. APPA member systems participating in 
the consortium include the City of Santa Clara, Los Angeles Department 
of Water & Power, Sacramento Municipal Utility District, the City of 
Vernon, CA, the Salt River Project and Northern California Power 
Agency. The final phase of the development effort, the design and 
fielding of a pre-commercial unit has now begun. The 21 members of the 
Fuel Cell Commercialization Group (FCCG) support performance and cost 
targets for this final phase. In addition to those named as supporters 
of the Santa Clara project, APPA member systems comprising FCCG include 
Alabama Municipal Electric Authority, City of Anaheim (CA) Public 
Utilities Department, Florida Municipal Power Agency, City of Manassas 
(VA) Electric Department, City of Tallahassee (FL) Electric Department 
and Wisconsin Public Service Corporation. In fiscal year 2001, the 
cost-shared contract calls for DOE support in the amount of $41.5 
million. We urge Congress to fully fund this project so that progress 
can continue toward full commercialization.
    ``Industries of the Future--Specific''.--APPA strongly supports the 
fiscal year 2001 request of $83.9 million for this public-private 
partnership efforts which focus on developing technologies that cut 
energy use, emissions, and waste in multiple industries and provide 
cost-effective solutions to reduce greenhouse gas emissions. Fiscal 
year 2001 efforts concentrate on a new biogasification initiative and 
accelerated development of a new electrode system for aluminum 
production. In addition, efforts with the Petroleum industry are 
revitalized after a period of reorientation to develop technology road 
map for future joint R&D.
                                 ______
                                 

  Prepared Statement of the National Association for State Community 
                           Services Programs

    The National Association for State Community Services Programs 
(NASCSP), a member organization comprised of state directors of the 
Weatherization Assistance Program and the Community Services Block 
Grant, is pleased to submit testimony in support of continued funding 
for the Weatherization Assistance Program operated through the U.S. 
Department of Energy's (DOE) Building and Technology Assistance. DOE's 
Weatherization Assistance Program is the largest residential energy 
conservation program in the nation, serving more than 65,000 families 
each year. Its purpose is to increase the energy efficiency of homes 
occupied by low-income persons, particularly the elderly, those with 
disabilities, and families with children, while ensuring their health 
and safety. The Weatherization Assistance Program exists in all fifty 
States, the District of Columbia, and on several Native American 
reservations.
    The Weatherization Assistance Program regulations stipulate that 
the Program will serve families who have incomes at or below 150 
percent of the poverty level, as established each year by the Office of 
Management and Budget, or at 60 percent of state median income. The 
income level for qualified families is established by each State in 
adherence to these rules. Currently, the average household served by 
the Program has an income of less than $8,000 per year. These families 
spend between 14 to 20 percent of their income to pay their energy 
bills, while typical households spend only 3.5 percent of their income 
on home energy. The Weatherization Assistance Program serves a vital 
function in helping these less fortunate families control their energy 
consumption, thereby reducing their energy costs and increasing usable 
income to provide vital necessities like food, shelter, clothing, and 
health care.
    The Oak Ridge National Laboratory report entitled State Level 
Evaluations of the Weatherization Program in 1990-1996: A Meta-
evaluation That Estimates National Savings revealed that the Program 
has significantly improved its energy savings results during the past 
several years. In 1996, the Program showed savings of 33.5 percent of 
gas used for space heating--up from 18.3 percent savings in 1989. The 
increase in savings was based in large part on the introduction and use 
of more sophisticated diagnostic tools and audits. The report also 
concluded that the Weatherization Assistance Program possessed a 
favorable cost-benefit ratio of 2.40 to 1.0. Simply stated, the federal 
funds provided to support the Program have a 140 percent return on 
investment or more than $2 in benefits for every dollar invested. This 
positive ratio of benefits continues to increase as state and local 
agencies integrate advanced technologies and constantly improve their 
return on investment.
    We believe the Weatherization Assistance Program has an even 
greater national impact and serves national interests by creating the 
technological and programmatic foundation for the individual state 
programs it funds. The Program's contribution in achieving national 
energy and social goals includes:
  --Reducing harmful green house gas through reduced CO<INF>2</INF> 
        emissions--the avoided energy production resulting from this 
        conservation effort reduced CO<INF>2</INF> emissions by tens of 
        thousands of metric tons that would otherwise have been 
        released into the air;
  --Reducing consumption of imported fuels by reducing residential 
        energy consumption, especially important in these times of sky-
        rocketing oil prices;
  --Reducing demand on other social programs like the Low-Income Home 
        Energy Assistance Programs (LIHEAP), housing, and health care; 
        and
  --Promoting the use of innovative energy conservation technologies 
        and the transfer of this technology into the private market.
    These are examples of how the Weatherization Assistance Program 
helps conserve energy and advances national interest. There is a 
greater story centering on the Program's ability to incorporate new 
technologies and constantly re-engineer itself. Since the 1990 
reauthorization in the State Energy Efficiency Programs Improvement Act 
(Public Law 101-440), the rules promulgated by the DOE insure greater 
flexibility in the program which has led to even greater energy 
efficiency and savings in the homes of low-income families. Based on 
this reauthorization language, the Program now includes services to 
reduce the cost of cooling homes. The language also called for a review 
of the factors in the funding formula, leading to the development of an 
entirely new funding distribution method. The new formula addresses 
issues of equity between States who use energy to heat their homes 
(north) and those States that use the greatest portion of energy to 
cool their homes (south). The Weatherization Assistance Program is no 
longer characterized as a ``cold climate'' program, but one that 
acknowledges energy as a basic commodity that every American household 
needs.
    The Weatherization Assistance Program, like all successful 
businesses, understands the need for change and self-improvement. When 
the 1990 evaluation noted that greater savings were achieved by the use 
of more sophisticated auditing techniques, States moved immediately to 
incorporate them. Other important advances included the increased use 
of blower-door directed air infiltration reduction, in-depth furnace 
efficiency analysis, duct system diagnostics, and air quality 
improvement measures. Nearly 6,000 trained professionals employed by 
970 local agencies use state of the art diagnostic equipment and 
techniques along with twenty years of practical experience to make 
homes more energy efficient, safer, and more affordable.
    The DOE supports state program efforts to ensure that the 
individuals involved in the implementation of the program at the local 
level have adequate training on the latest and best energy conservation 
practices. The States of New York and Vermont joined together to create 
the Building Performance Institute (BPI) to set competency standards 
and establish a training curriculum that can be transferred throughout 
the country. Illinois uses the community college and vocational 
education systems to offer ongoing standardized training. Indiana, 
Ohio, North Carolina, California, Virginia, West Virginia, and 
Pennsylvania have created their own training centers to support 
technological advances. In Florida, the Solar Energy Center provides 
training on warm climate weatherization measures. In Washington State, 
a peer circuit rider program has been developed to meet locally-
determined training needs, especially new diagnostics implementation. 
These are only examples of the States' commitment to providing skills 
training for those who provide this valuable service. Whichever option 
is selected for transferring technology and skills improvement, the 
results are the same--highly skilled, competent people using the latest 
technologies are providing the most cost effective and energy efficient 
services in low-income households throughout the country.
    The DOE has invested significant amounts of money in energy 
conservation research through its laboratories. The Weatherization 
Assistance Program serves as a testing ground and provides a fertile 
field for the deployment of their research. The Oak Ridge National 
Laboratory developed the National Energy Audit (NEAT) for use by local 
agencies in assessing cost effectiveness of service delivery. The NEAT 
audit, as well as other comparable and approved auditing methods, helps 
local agencies make decisions about which services are best suited for 
the home and helps set priorities for federal investments so that the 
most cost-effective energy conservation services are installed. Oak 
Ridge is currently investigating the cost effectiveness of including 
certain base load measures into the Program and continues to test other 
protocols and material installation techniques to help State and local 
agencies improve their field operations. The Florida Solar Energy 
Center and the State of Hawaii are working on the development of cost 
effective solar hot water heaters. The State of New York, working in 
concert with the local utility companies and the State Energy Research 
Development Authority, has implemented a refrigerator replacement 
program to test the impact of providing base-load services to conserve 
energy and reduce costs for eligible multi-family residents. We are 
hopeful that Weatherization Assistance Programs throughout the country 
will remain on the front line in the deployment of these technologies 
and that the citizens of their States continue to benefit from these 
technological advances.
    One of the major positive effects of field deployment through the 
Weatherization Assistance Program is that the private sector will 
eventually adopted these technologies. This pattern has been 
established with several technology advancements including blower door-
directed air infiltration, duct system testing and sealing, furnace 
efficiency standards, and insulation/ventilation protocols. The 
rigorous conservation standards of the Weatherization Assistance 
Program are not usually found in the building industry. The acceptance 
of these standards and protocols by the private sector is enormously 
important as builders attempt to construct new properties or 
rehabilitate existing ones using a conservation philosophy.
    The electric and gas industries are in the midst of changes that 
will affect nearly every American business, institution and household. 
These changes are a result of utility restructuring and will have a 
major impact on low-income households. It is more crucial than ever 
that the Weatherization Assistance Program retains an economically 
viable presence and the core capacity of the Program remains intact to 
guide the residential energy conservation efforts during the next 
decade as utilities begin investing in energy efficiency programs as 
part of their restructuring requirements. The continuation of federal 
support for the Weatherization Assistance Program will ensure that it 
remains a catalyst for utility involvement and that low-income energy 
conservation activities remain a priority in local case settlements.
    The House Interior Appropriations Subcommittee recently placed a 
new requirement on the Program during 2000 that requires all States and 
eligible recipients (e.g., Native American tribes who receive funds 
directly from DOE) to provide a 25 percent cost share using non-federal 
funds. This requirement has resulted in a mixed reaction from States 
that administer the day-to-day operations of the Program. Members of 
Congress and the White House received letters in opposition of this 
cost share from several Governors and top-ranking officials from the 
following States: New Hampshire, Montana, Washington, Wyoming, Georgia, 
Vermont, and West Virginia.
    Some States will easily provide the 25 percent cost share 
(equivalent to a 33 percent match) using State-appropriations or funds 
provided by utility companies or other local sources. Other States may 
be able to pass the cost share responsibility to local agencies and 
require local participation in order for contracts to be executed 
within their State. Unfortunately, there will be a certain number of 
States and probably all the Native American tribes that will not be 
able to offer a cost share from non-federal sources. With approximately 
half the States reporting in as March 27, we are aware of eight States 
that have indicated that they may not be able to meet the cost share 
requirement (KS, LA, ME, NH, TN, UT, WV, and WY). The low-income 
families living in these States or on those affected Native American 
reservations will be denied access to this extremely valuable and, in 
some cases, life-saving service because of this very restricted and 
penalizing addition to the law. We are confident that no one ever 
intended to enact a law that would punish low-income families and deny 
them services and ask that this Committee act to repeal the language 
found in H.R. 3423 related to the 25 percent cost share requirement.
    While we support the Administration's request for $154 million in 
fiscal year 2001, we believe that the Weatherization Assistance Program 
remains slighted by this Committee in terms of funding recovery. In 
1995, the Weatherization Assistance Program suffered a 47 percent cut 
in funding (from $214 million to $110 million). Over the past five 
years, the Program has had a small recovery from this loss to $135 
million in 2000. The Program still remains 37 percent below the 1995 
funding level while programs for research and development, corporate 
technology investment, fuel subsidies, and other energy related 
programs have been fully restored. Low-income families deserve to have 
their services restored as well. We strongly support a funding level of 
$250 million for the Weatherization Assistance Program. This figure 
represents full recovery to pre 1995 funding levels, adjusted for 
inflation over that same time period. These funds would be used to 
increase the number of homes receiving services from 65,000 to more 
than 125,000 homes weatherized each year and would serve as the 
catalyst to promote an additional $80 million to $100 million in 
leveraged resources. By the evidence provided herein, this Committee 
can be assured that the increase in the number of low-income families 
served will result in greater energy savings, more economic 
investments, increased leveraging of other funds, and less reliance on 
high cost energy like foreign oil--outcomes that will benefit the 
country.
                                 ______
                                 

          Prepared Statement of the Detroit Diesel Corporation

    Detroit Diesel Corporation (DDC) strongly supports the 
Administration's fiscal year 2001 budget request for the Office of 
Transportation Technologies' (OTT), Office of Heavy Vehicle Technology 
(OHVT) and Office of Advanced Automotive Technologies (OAAT) 
activities. Specifically the Vehicle Technologies R&D, Fuels 
Utilization R&D and Materials Technologies budget line items are the 
focus of this statement. We believe that the aforementioned program 
elements under the combined leadership of OHVT and OAAT Program Offices 
forge a formidable United States Government-Industry coalition that 
will bring forth substantial and tangible results to the nation's 
economy, energy independence and clean air improvements. We also 
believe that the Transportation Technologies roadmap deserves the 
collective and combined support of policy and decision makers from the 
U.S. Government, networked with key industrial partners.
    DDC is a U.S. company with its world headquarters in Detroit, 
Michigan. DDC's 1999 net revenues were $2.4 billion, with R&D at 4.5 
percent of revenues. DDC designs, manufactures and sells diesel-fueled 
and alternative-fueled engines for heavy duty, light duty and 
automotive applications for on-highway and off-highway throughout the 
world. The DDC Series 60 engine has revolutionized the truck engine 
technology. It has consistently set new global performance, emissions, 
fuel economy and durability standards and has been the most popular 
heavy duty truck engine in the United States for the past 8 consecutive 
years. DDC is the world's largest independent manufacturer of 
automotive diesel engines and is part of the Penske group of companies.
    The proposed fiscal year 2001 Advanced Combustion Engine R&D 
program element includes Combustion and Aftertreatment R&D, Light Truck 
Engine, Heavy Truck Engine and Health Impacts, having a total budget 
request of $46.9M. This program element encompasses competitive 
vertical teams of industry, national labs and academia competing for 
the development of far-reaching technologies to enable clean and 
efficient diesel-based transportation for people and goods. Horizontal 
teams have also been formed with the direction and leadership of DOE's 
OTT seeking pre-competitive, high risk and fundamental breakthrough 
technologies. This too is leveraging the resident expertise in the 
nation's national laboratories and elsewhere. Such developments are 
urgently needed for a substantial and pervasive impact on energy 
independence, emissions reduction, CO<INF>2</INF> reduction (the 
climate change action plan), and for sustaining the growth in U.S. jobs 
and our international competitive edge. Further, this program element 
deserves more emphasis now due to the increased shift towards light 
truck (pickups and sport utility vehicles) use for personal 
transportation, the unprecedented increase in fuel prices, and the 
accelerated mandated emissions reductions that have been recently 
enacted.
    We draw special attention to the Advanced Petroleum-based Fuels 
program under the Fuels Utilization R&D subject category with a 
combined request of $12M. The compression ignition piston engine 
combined with an effective aftertreatment device is undisputedly the 
most efficient clean power plant that has a potential of practical 
applications in the transportation sector for the near- and mid-term 
future. Current diesel fuel properties, such as sulfur content and 
aromatics, are known as major barriers to further improvement in the 
engine-aftertreatment system performance and emissions. Lab-scale 
advanced fuels under idealized test conditions have confirmed the 
potential for realistic achievements with advanced petroleum-based 
fuels. The proposed program is but a small investment with a potential 
significant payback for the U.S. energy independence and cleaner air.
    The Transportation Materials Technology program request of $17.5M 
covers the areas of Propulsion Materials Technology, Lightweight 
Materials Technology and the High Temperature Materials Laboratory 
(HTML). It has been long recognized that advanced materials is a key 
critical technology area for the U.S. global competitiveness. The most-
popular DDC Series 60 truck engine touts applications of structural 
ceramics and advanced tribological coatings for many years, and it is 
still a worldwide first in our industry. This program element includes 
investigation of smart materials application for advanced systems and 
controls as well as maintaining and enhancing HTML world leadership.
    In summary, the proposed DOE/OTT (OHVT+OAAT) fiscal year 2001 
budget requests will continue the trend-setting partnership between the 
United States Government and a key industrial base to address the 
Country's and the global needs in critical areas of the economy, 
environment and the United States competitiveness. The exemplary track 
record through competitive leveraging of Government funding by 
substantial industry cost share of 50 percent and more in many 
instances, and the emerging high potential results of these 
partnerships warrant continued endorsement of the Administration's 
budget request. Such endorsement offers a unique potential for a 
justifiable and highly effective return on investment of the U.S. 
taxpayers' money. We petition your strong support of the aforementioned 
programs' budget requests.
                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                        Bureau of Indian Affairs

                 Prepared Statement of the Yurok Tribe

    Before addressing our specific tribal issues, the Yurok Tribe would 
like to express our wholehearted support of President Clinton's 
proposed Native American budget for fiscal year 2001. It is not nearly 
enough to redress centuries of theft and neglect, but it is the best we 
can hope for at this time, under these circumstances, and we urge the 
Committee to join with the Administration in honoring the United 
States' commitments to all tribes of this nation.
    The Yurok Tribe appreciates the support provided by the Committee 
since the 1988 Hoopa-Yurok Settlement Act (Public Law 100-580, ``the 
Act'') split the former Hoopa Valley Indian Reservation between the 
Yurok Tribe and the Hoopa Tribe. One stated intent of the Act was to 
equitably divide the resources of the former reservation between the 
two tribes. Because the one Yurok resource mentioned in the Act--the 
chinook salmon--is severely depleted, the Yurok Tribe finds it 
necessary to submit this request for additional funding in the amount 
of $12,423,025.00 in order to continue implementation of the Act.

                               BACKGROUND

    The Yurok Reservation consists of approximately 56,000 acres on the 
lower 45 miles of the Klamath River canyon, in Humboldt and Del Norte 
Counties of far northern California. This bioregion--the Lower Klamath 
Basin--is in grave danger. The fishery on which the Yurok people depend 
for their survival, and which was central to Congress' determination of 
``equity'' in the Act, is close to dying. Federal task forces have been 
measuring the cumulative impact on the fishery of 150 years of careless 
and abusive land use practices. It is now obvious that the salmon runs 
will not in the near future return to their former richness, and cannot 
therefore be depended upon to provide any viable means of economic 
development.
    The vast majority of the Yurok Reservation (approximately 80 
percent) is owned in fee by Simpson Timber Company. With the purchase 
of 6,000 acres of cut-over land, the Tribe has recently increased its 
total holdings, fee and trust, to a little over 13,000 acres. The Tribe 
acquired the land in an effort to consolidate a Tribal landbase, to 
protect the watershed and to save as much land as possible within the 
watershed from wasteful logging practices. However, the purchase of the 
land, through a USDA Rural Development loan guarantee, has placed the 
Tribe heavily in debt.
    Community and physical infrastructure on the Reservation (which is 
mostly rugged, steep river canyon) are limited or nonexistent. 
Residents in the upper Yurok Reservation live in near third world 
conditions, without sewer, electricity or telephone services. Community 
policing and fire protection are virtually unavailable.
    The lower Yurok Reservation contains the only land currently 
available for economic or housing development. However, the majority of 
the flat land is periodically and consistently flooded. In 1964 the 
entire town of Klamath was wiped off the map. The ``new'' Klamath 
townsite was built on what is basically a landfill, and the 35-year-old 
infrastructure is outdated and insufficient for true development. Heavy 
flooding in 1997 and 1998 caused further heavy damage. No further 
development can occur without additional public investments.
    Pursuant to the Settlement Act, the Yurok Tribe formally organized 
under a tribal constitution in 1994. Since that time, we have achieved 
Self-Governance status. Even so, our efforts at self-determination and 
self-sufficiency have been hampered by a severe funding shortage, 
caused by the actions or inactions of federal interests who continue to 
ignore our needs and to resist any attempt at government-to-government 
negotiations. Jurisdiction and control over our own affairs are 
constantly challenged by the very agencies who are supposedly entrusted 
with the federal responsibility for oversight of tribal interests.,
    The Yurok Tribe has made great strides in community and 
administrative services, despite the resources promised but never 
allocated under the 1988 Act. Yurok people have been looking to the 
Yurok Tribe as their only means of achieving an above-poverty status 
for the first time in their lives. The Tribal organization represents a 
hope of positive development. To deny the Tribe its promised resources 
is to deny the people equity in their lifestyles.
    These funding requests will enable the Yurok Tribe to fully carry 
out the mandates and intent of the Act. The increased funding will 
enable the Tribe to address the needs of a tribal membership that is 
more than twice as large as the original Base Roll provided by the 
Bureau of Indian Affairs, which was used to determine the Tribe's base 
funding levels. That original Base Roll, because of bureaucratic 
oversight, did not include any Yuroks born after 1978.
    The Yurok Tribe has carried on the work of organization and 
development without the resources promised and allocated under the Act. 
Our achievements over the last five years have been the result of 
bootstrapping in the truest sense. We have suffered under an overall 
shortfall of federal funding that we conservatively project to be 
$17,297,180, not including the amounts listed below. However, our 
current requests are related only to the requirements and intent of the 
Hoopa-Yurok Settlement Act. Our requests for fiscal year 2001 total 
$12,423,025:
  --$2,500,000 (Miscellaneous Payments to Indians) for land acquisition
  --$5,765,625 (Miscellaneous Payments to Indians) for development of 
        energy systems and telephone services on the Yurok Reservation
  --$687,000 (Wildlife & Parks, Tribal Management) for law enforcement 
        activities on the Reservation
  --$450,000 (Realty Services) for continuation of the Yurok 
        Reservation Boundary Survey and completion of the Yurok 
        Orthographic Survey.
  --$3,020,400 (Tribal Priority Allocations) to make up the shortfall 
        in base funding due to the Yurok Tribe.

                                DETAILS

    $2,500,000 (Miscellaneous Payments to Indians) Funding for land 
acquisition pursuant to Public Law 100-580. The Settlement Act resulted 
in an extremely lopsided division of the former Hoopa Valley 
Reservation without the participation or consent of the Yurok Tribe. 
Because we received less than 10 percent of the lands of the former 
Reservation, the Act authorized not less than $5,000,000 for land 
acquisition, of which the Congress has previously appropriated 
$2,500,000.
  --Because of the inequitable division, the Yurok Tribe lacks an 
        adequate land base to consolidate tribal jurisdiction and speed 
        up the process of economic self-sufficiency. Tribal attempts at 
        augmenting the land base with commercially producing forested 
        lands have stalled due to poor weather and poor market 
        conditions.
    $5,765,625 (Miscellaneous Payments to Indians) Provide support for 
and finance construction of energy development and a telecommunications 
system for the upper Yurok Reservation. According to a 
Telecommunications Survey commissioned by the Tribe, linking the entire 
unserved area with a telephone system would cost $2,500,000. The Tribe 
is finalizing plans for implementation of a tribally managed 
Reservation-wide Utility Authority, which will assume administrative 
and maintenance responsibility for the system. An additional $3,265,625 
would finance further energy development for the Reservation.
    $687,000 (Wildlife & Parks, Tribal Management) To enhance law 
enforcement activities on the Reservation. Due to bad roads and steep 
geography, there is effectively no law enforcement on the upper 
Reservation. The Yurok Tribe was forced to choose not to compact BIA 
law enforcement, because there is currently insufficient funding to 
make compacting a viable option for the Tribe. The Yurok Tribe has 
outgrown its tribal court system, which currently has jurisdiction over 
only fishing violations among Yurok Tribal members.
  --The Klamath River salmon fishery is identified in the Act as a key 
        resource of the Yurok Tribe. The Klamath River fishery 
        management and law enforcement activities must be expanded in 
        order to insure that the Tribe can effectively manage the Yurok 
        tribal fishery and remain an effective co-manager of the 
        Klamath River fishery resources.
    $450,000 (Realty Services) For continuation of the Yurok 
Reservation Boundary Survey. In 1992 Congress supported our request to 
begin and continue the process of surveying and fixing the boundaries 
of the Yurok Reservation through a Cadastral Survey. Support ceased in 
1996 and the survey has not been completed. The funding is technically 
a BIA budget item, but the BLM does the actual work, pursuant to 
statute. The amount requested is the amount the local BLM staff 
determined is necessary to work at the same level as previous years. An 
additional $100,000 is requested to complete an orthographic survey 
that will establish the boundary of the Reservation in accordance with 
the State Coordinate System and provide GIS templates of the entire 
Reservation Basin.
    $3,085,400 (Tribal Priority Allocations) to make up the shortfall 
in base funding due the Yurok Tribe. Based on a formula of $1,000 per 
tribal member, the 4,100 member Yurok Tribe should be receiving Base 
Funding of $4,100,000. Instead, the Tribe received Base Funding of 
$1,014,600 for fiscal year 1999, which has created a budget shortfall 
of $3,085,400.
                                 ______
                                 

         Prepared Statement of the American Dental Association

    Over the past 30 years, the American Dental Association (ADA) has 
worked in partnership with the IHS Dental Program to improve the oral 
health of American Indians and Alaska Natives (AI/AN). Every three 
years the Association evaluates selected IHS dental clinics. In recent 
years, we testified before this Committee about our findings from our 
1997 visit to the Navajo Reservation. We discovered a significant gap 
between the oral health of Indian people and the people we see in our 
practices every day. We look forward to our upcoming visit in July to 
sites in Arizona and will report our findings to you next year.
    The Association would like to thank the Committee for its continued 
support for oral health care and specifically for its actions on the 
fiscal year 2000 IHS appropriations. We believe that the Committee's 
strong directives have directly influenced the Administration to make a 
real commitment in its fiscal year 2001 budget to reverse the alarming 
trends and move towards eliminating the significant disparities in oral 
health status of the AI/AN people. We have come today to support the 
Administration's request for fiscal year 2001 appropriations and 
request minimal increases.

                               BACKGROUND

    For 45 years the IHS has made steady progress to build a system of 
oral health care delivery for AI/AN. Included in this effort has been 
the development of structures to recruit highly qualified staff, and 
opportunities for training to enhance knowledge and skills in the 
treatment and prevention of oral diseases. In addition, skills in 
public health administration and human resource development, adult 
education, community development, and applied research have been 
developed to coordinate the program and facilitate growth in AI/AN 
Self-Determination. As a result of this process, the IHS Dental Program 
has developed a core of trained, experienced and committed dental 
professionals who serve a multitude of clinical and administrative 
leadership roles, which have maintained and enhanced the program's 
ability to serve the AI/AN population. Until very recently this system 
has resulted in progressive improvement in the oral health status of 
Indian people.
    It is well documented that AI/AN people have among the highest oral 
disease rates reported in the world. The IHS has just concluded its 
most recent survey of Oral Health Status and Treatment Needs. The 
preliminary data indicates that the oral disease rates of children have 
worsened since 1991. During that same time, IHS also reports that 
access to dental care has declined from about one third of the 
population receiving dental care each year in 1992 to a current level 
of 25 percent of the user population receiving dental services each 
year.
    It is not surprising that AI/AN consumers have consistently 
identified dental health as a high priority, and Tribes taking over 
control of health programs have frequently increased dental funding. 
However, overall the IHS has a relatively low level of funding for 
dental care compared to the nation as a whole (i.e., 3.5 percent of 
health expenditures in IHS versus 6 percent for the nation). Thus, the 
IHS has been faced with the formidable task of reducing the ravages of 
oral disease at rates almost twice the national level but with a 
workforce (i.e. dentist to population ratio) roughly half the national 
average.

                       DECLINE IN DENTAL SERVICE

    Probably the most compelling evidence that the IHS Dental Program 
is losing its capacity to serve the AI/AN population is that annual 
utilization of dental services dropped to approximately 25 percent 
since 1996 from a high of 33 percent in the early 1990s. Equally 
disturbing are the findings of the most recent IHS fluoridation 
monitoring program that documents a dramatic reduction in the number of 
water systems monitoring fluoride levels and the number of these 
reporting systems with samples in compliance with standards. Through 
the late 1980's and early 1990's, about 700 water systems submitted 
samples for evaluation. Of these, about 500 were found to be within 
compliance levels each month. In fiscal year 1999, only 192 water 
systems were delivering fluoride, with only 26 systems (about 14 
percent) within compliance levels. Such a drop in coverage of one of 
public health's most cost-effective preventive tools is unequivocally 
resulting in higher rates of decay in the AI/AN population. This 
discouraging trend, coupled with the documented reduction in access to 
dental care, will rapidly wipe out the gains in oral health status that 
were achieved in the 1980's and early 1990's. Therefore, we strongly 
urge the Committee to support the Administration's request for $500,000 
for improving community water fluoridation.
    The reasons for these declines in dental services (i.e., clinical 
and fluoridation) to AI/AN people are complex and multi-factorial. 
However, through our visits to IHS sites over the years, our ongoing 
partnership with the IHS Dental Program, and experience in evaluating 
other Federal, State and local dental programs, the ADA offers several 
plausible insights and suggestions for reversing these alarming trends.
    At the most global level, it is clear that the IHS Dental Program's 
infrastructure has been eroded as a consequence of budget constraints 
and the reorganization of the IHS. Since 1992 the IHS has not received 
full mandatory cost increases to maintain services. This lack of 
funding has deprived the dental program of $9 million and has 
significantly diminished the dental program's capacity. As a result, 60 
percent of Area and Headquarters dental staff (including training and 
prevention positions) have been lost. Presently, several Area offices 
have no staff assigned to support dental programs. These vacancies have 
directly affected their ability to recruit and retain clinical 
providers and oral health promotion/disease prevention coordinators. As 
a result, vacancy rates for clinical dentists are now the highest in 
IHS history with one out of four positions vacant.
    Thus, the ADA recommends that Congress assure that the IHS Dental 
Program have the resources necessary to maintain a capable dental 
public health infrastructure with the capacity to support both clinical 
care and community-based preventive activities.

      RECOMMENDATIONS FOR RESTORING IHS DENTAL PROGRAM CAPABILITY

    The ADA suggests that the IHS adopt an oral health goal of 
restoring access to dental services over the next three years to the 33 
percent annual utilization rate that existed in the early 1990s. This 
goal is consistent with the Administration's goal to eliminate racial 
and ethnic disparities in health status.

                     INCREASE ACCESS TO DENTAL CARE

    The Administration has embarked on an ambitious initiative to 
eliminate health disparities among disadvantaged populations by the 
year 2010. The Association supports this initiative as well as the 
Administration's request that $1 million be appropriated to increase 
access to oral health care in fiscal year 2001. We believe, however, 
that the disparities for AI/AN people require a significantly larger 
increment if the Administration is to achieve its goal. The ADA 
recommends that an additional $1.7 million be added to the IHS dental 
budget to increase access to oral health care.

                  ENHANCE LOAN REPAYMENT FOR DENTISTS

    In recent years, the IHS has experienced difficulties recruiting 
and retaining dentists because the average starting salary for an IHS 
dentist remains below a similar trained and experienced dentist in 
private practice. The lack of parity in pay has been lessened with the 
recently passed optional pay bills for military and Commissioned Corps 
dentists, which the ADA supported. However, a pay disparity still 
exists and combined with the heavy burden of debt from educational 
loans, the IHS is experiencing a dental workforce crisis evident by:
  --over 130 dental officer vacancies;
  --a pool of less qualified applicants from which to select dentists;
  --high turnover rates of 20 percent to 25 percent; and
  --a dwindling number of experienced dentists to serve in more 
        technically demanding positions.
    The Loan Repayment Program has proven to be a powerful recruitment 
and retention tool for the IHS. The Association is pleased that the 
Administration has identified an increase for the loan repayment 
program and that a ``significant portion'' will be used for dentists. 
Availability of these funds would facilitate filling 40 positions and 
over time reverse a trend of decreasing retention rates. However, the 
ADA believes that to seriously address this the Committee needs to 
earmark $2,000,000 for loan repayment for dentists instead of a 
``significant portion.''

                   EXPAND USE OF CONTRACT DENTAL CARE

    Opportunities for enhancing AI/AN access to dental care in more 
populated regions could be immediately and significantly enhanced 
through the private sector if funding were available. We note that IHS 
expenditures for dental care through its Contract Health Services 
Program have declined in recent years from about $12 million in 1992 to 
about $7 million in fiscal year 1999. In that same period, the overall 
Contract Health Services budget has increased from $309 million to $386 
million. This is a very disturbing trend since it occurred at a time 
when oral health status and access to dental care for Indian people 
were declining. We are pleased that the Administration has chosen to 
make dental care a priority for the Contract Health Services Program in 
fiscal year 2001 by requesting a $1 million increase earmarked for 
dental care. We do not believe that request goes far enough and 
recommend restoring the amount of Contract Health Services for dental 
care to fiscal year 1992 levels. The ADA recommends that the Committee 
support the Administration's request for an additional $1 million in 
Contract Health Services funds for dental care and that a total of $12 
million be earmarked from within the contract medical services budget 
specifically for dental services.

                     DENTAL FACILITIES AND HOUSING

    The Association is pleased that the Administration has included $1 
million in the facilities appropriation for modular dental units. The 
Committee has supported replacement of these units for many years and 
because of that support dental care is now available in many 
underserved locations. We urge you to continue to support this effort.
    In recent site visits to IHS facilities we have observed many 
remote locations where dentists have substandard housing or must 
commute great distances because there is no housing available near the 
clinic. Providing basic housing for dentists and other health 
professionals must be a priority if IHS is to recruit and retain an 
adequate health professional workforce. The ADA recommends that $1 
million be appropriated for modular dental units and an additional $1.5 
million for staff quarters for dentists at those sites where housing is 
not currently available.

            REBUILD THE DENTAL PUBLIC HEALTH INFRASTRUCTURE

    The Association's final recommendation is in response to the 
cumulative set of challenges facing the IHS Dental Program, which have 
been the result of continued loss of its public health infrastructure. 
We are pleased to see that the Administration's request builds upon the 
fiscal year 2000 appropriation and describes a rational and cost-
effective approach to restoring essential dental public health 
capacity. That request includes the following items:
  --$750,000 to establish three additional Clinical and Preventive 
        Support Centers to provide training and technical assistance in 
        preventive and clinical care provision in IHS, Tribal, and 
        Urban Indian clinics. This request would increase to a total of 
        7 the number of centers established to meet the needs of IHS 
        dental clinics.
  --$222,000 to increase training in dental specialties to enhance 
        access to specialty care. We support enhanced training for IHS 
        dental staff but note that the amount is very likely to be 
        inadequate. Over 1200 dental staff currently work in IHS dental 
        programs. We feel that a total of $2 million is required to 
        meet long and short term training goals.
  --$500,000 to enhance support for community water fluoridation.
  --$485,000 to enhance capacity for management of dental data.
  --$300,000 for three additional grants to treat advanced periodontal 
        disease among individuals with diabetes. This would increase to 
        a total of 6 the grants available to implement recently 
        developed non-surgical treatment regimens for individuals with 
        diabetes and advanced periodontal disease.
    The ADA believes that this request represents a relatively ``bare 
bones'' approach to rebuilding the dental public health infrastructure 
and is essential to accomplishing increased access to care as well as 
meeting the accountability requirements of the Government Performance 
and Results Act. The ADA recommends that an additional $6 million be 
appropriated above the President's request to support the initiatives 
in our testimony.

                               CONCLUSION

    The ADA recognizes the multitude of funding priorities Congress 
must reconcile; however, the continued inadequate funding of the IHS 
Dental Program impairs its ability to meet the growing needs of the AI/
AN population. The overall IHS budget as proposed represents only a 
modest commitment to reverse this trend, and must not be reduced. To do 
so at a time of national prosperity would represent an inexcusable 
broken promise to the ``First Americans.'' The Association respectfully 
request that this subcommittee support the program enhancements 
discussed above, as they offer an efficient and effective means of 
restoring access to dental services.
                                 ______
                                 

         Prepared Statement of the Winnebago Tribe of Nebraska

    This testimony addresses the fiscal year 2001 budget request for 
programs in the Bureau of Indian Affairs and the Indian Health Service. 
The Tribe is concerned about funding for the Indian Health Service, and 
supports the Administration's proposed increases for the Tribal 
Priority Allocation account, Law Enforcement and the Tribally 
Controlled Community Colleges program within the BIA.
    The Tribe and Economic Development.--The Winnebago Tribe of 
Nebraska is a federally recognized Indian Tribe organized pursuant to 
Section 16 of the Indian Reorganization Act of June 18, 1934. Our 
forefathers were forcibly relocated from lands in and near what is now 
the state of Wisconsin. Our Treaty of 1865 is the first in history to 
require that the United States provide health care services to tribal 
members. The Tribe's 120,000-acre reservation includes lands in both 
Iowa and Nebraska and only about 30,000 acres of land within the 
reservation is now tribally controlled. There are 3,764 enrolled 
members, of who about 1,238 reside on the reservation.
    The Winnebago Tribe of Nebraska is very active on the economic 
front. The Tribe operates several business enterprises, including the 
WinnAVegas Casino in Sloan, Iowa, and the Heritage food store and the 
Company A Convenience Mart, both in Winnebago, Nebraska. Additionally, 
the Tribe has developed a small strip mall located on the reservation; 
leasing tribal land to outside agricultural interests generates added 
tribal revenue. Ho-Chunk, Inc., a wholly-owned tribal development 
corporation, owns & operates a Ramada Inn hotel in Lincoln, a tobacco 
outlet shop in Omaha, a computer business, WINCOMP in South Sioux City, 
Nebraska and a Native American Products Internet business located in 
Winnebago. Even with the economic contribution of these projects, 
tribal per capita income remains significantly below the poverty level 
at just over $5,000.
    Unlike states, the tribes have little or no tax base or other 
revenue sources with which to operate tribal government programs. 
Gaming has given a jump-start to our economy but those revenues are 
decreasing because of commercial competition. The Tribe still relies 
heavily on federal funds to provide even the most basic level of 
services to tribal members.
    As Chairman of the Winnebago Tribe I would take some of my five 
minutes and four pages to express the gratitude of my people for the 
positive response we received on our 1999 funding requests.
    Our written testimony that year contained several items of concern 
and need. We only shared three of those issues in our testimony at the 
public witness hearings, the reason being, if our hospital funding, 
tribal college request and law enforcement funding did not receive a 
favorable response, our several items in the written testimony were of 
little consequence. As a result . . .

                         INDIAN HEALTH SERVICE

    We received funds to complete the A & E phase of our hospital (950 
K) and $10 million minus across the board cuts to begin phase one of 
the construction. We would thank the Committee and senate for their 
continued commitment for better health care to all native people. 
However:
    It is our understanding that continued funding is not automatic and 
must be requested annually. We therefore would request $12.2 million 
for phase two of construction in fiscal year 2001. It would certainly 
be a cruel hoax to complete the foundation and not be able to continue 
construction. Thus the request.

                            TRIBAL COLLEGES

    The Winnebago Tribe supported the administrations request to 
increase funding by $5.5 million. Again a thank you by this tribe is in 
order.
    Little Priest Tribal College did submit a self-study and received a 
site visit by the North Central Accreditation Agency. As a result, 
today Little Priest is an accredited college, taking only four years to 
do so.
    May the Lilly Foundation's Public Announcement to fund Indian 
Colleges not diminish the governments continued commitment to Indian 
education.

                                  BIA

    Again the request for Law-Enforcement funding was favorable to the 
Winnebago Tribe. Again a thank you from the Winnebago people. However . 
. .
    As a result of the funding requests, we in Indian country have well 
trained, well uniformed, and well equipped officers with good vehicles 
but poor facilities to accommodate our officers, courts and detention.
    We request or recommend that more of the funding be designated for 
construction of criminal justice facilities in fiscal year 2001.

                         LAW ENFORCEMENT CENTER

    The Winnebago Tribe of Nebraska is requesting a centralized 
Facility to house our Tribal Court, BIA Law Enforcement, Tribal Law 
Enforcement, Law Enforcement Communications Services, Adult Detention 
Services, and Juvenile Detention Services on the Winnebago Reservation. 
Projected costs for this project would be $11,000,000 for site 
preparation and construction, $630,760 to meet staffing requirements 
for detention facilities, and $657,000 to meet operational costs for 
this facility. The Winnebago Tribe is currently developing plans and 
options for cost share on this needed facility for our community. As 
mentioned earlier juvenile detention costs are reaching prohibitive 
amounts for the tribe. Adult detention requires a number of adults 
ordered to detention to be transported to facilities in South Dakota 
approximately 150 miles from our reservation. Costs of transportation, 
officer-transporting time, report filing time, and returning of 
prisoners to the Winnebago Reservation are costs that can only be 
estimated. Adults and juveniles that must be placed under house arrest 
because of funding limitations defeats the process of punishment for 
law violations. It is our hope by jointly working with federal 
agencies, state agencies, and our tribal government there will be 
affordable solutions in cost sharing to enable this project to proceed 
in a very timely matter. As part of this request the Winnebago Tribe 
ask that General Services Administration (GSA) begin the process to 
work out a long term lease with the tribe to secure needed operational 
costs. And possible loan repayments for this facility.
                                 ______
                                 

          Prepared Statement of the Lower Elwha Klallam Tribe

                ELWHA RIVER RESTORATION--TRIBAL CONCERNS

    Beginning in fiscal year 2001 a $400,000 increase to the funding 
base for the Olympic National Park was promised by the Department of 
Interior (DOI) to fund the activities of the Lower Elwha Klallam Tribe 
associated with restoring the Elwha River pursuant to Public Law 102-
495, the ``Elwha River Ecosystem and Fisheries Restoration Act.'' It 
has since been removed from the administration request. The Lower Elwha 
Klallam Tribe respectfully requests that the $400k be put back into the 
National Park Service budget to fund tribal response and participation 
in the Elwha Dam Removal Project.
    The Lower Elwha Klallam Tribe respectfully requests $1,000,000 to 
design and construct a stock preservation channel. The purpose of this 
channel is to provide a safe haven and spawning habitat for all species 
of salmon while the Elwha River dams are being removed. The channel 
will be adjacent and parallel to the main river channel, and allow 
mature, returning fish to spawn off the mainstem where the damaging 
effects of sediment transport during dam removal will be significantly 
reduced, to ensure spawning success.

ELWHA RIVER ECOSYSTEM AND FISHERIES RESTORATION ACT (PUBLIC LAW 102-
        495, SECTION 7: TRIBAL LAND ACQUISITION AND DEVELOPMENT)

    Section 7 of EREFRA authorizes appropriation of $4,000,000 for land 
acquisition by the Lower Elwha Klallam Tribe for housing, economic 
development, and moorage for the tribe's commercial fishing fleet. The 
tribe requests appropriations of funds for the authorized acquisition 
and costs of that acquisition. Parcels must be evaluated, prioritized, 
appraised and purchased. Negotiations with sellers, use and development 
plans, cost of title insurance and the fee-to-trust process are all 
tasks necessary to acquiring land that will serve this purpose of the 
act. The tribe therefore requests an additional appropriation of 
$100,000 to address this section.

                            TRIBAL FISHERIES

    The Lower Elwha Klallam Tribe remains committed to pursuing an out-
of-court settlement with the Shellfish Growers and private tideland 
owners of Puget Sound. The tribe desires access to traditional 
shellfish resources for the purpose of pursuing Treaty reserved 
shellfish rights in a manner consistent with the needs of the Shellfish 
Growers and private tideland owners. The tribe requests the support of 
Congress to implement the settlement when it is finalized.
    The tribes are responsible for the management of 50 percent of the 
shellfish resources within Puget Sound, yet receive no funding to 
support our management or enforcement activities. The tribe requests 
that Congress include funding for the tribes at a level which ensures 
the ability of the tribes to provide proper management of the resource. 
The tribe fully supports the funding requests that have been annually 
submitted by the Northwest Indian Fish Commission on behalf of the 
western Washington tribes.
    Emergency Hatchery Water Supply.--Flooding during the winter of 
1998-99 altered the Elwha River mainstem channel, causing the majority 
of the river's flow to migrate a quarter mile to the west of the Lower 
Elwha Klallam Tribe's hatchery water supply intake. During summer low 
flows there will be insufficient water quantity at the hatchery to 
support fish production. The construction of a pipeline from the City 
of Port Angeles's industrial water supply to the hatchery would provide 
an emergency source of water for the hatchery, as well as a reliable 
source of hatchery water for the long term. Preliminary engineering 
cost estimates for this action are $526,350. The tribe requests the 
support of Congress to provide the funding for this emergency need.
    This past year the tribe and the USFS reached an out-of-court 
settlement regarding road maintenance, watershed analysis and habitat 
restoration within the Olympic National Forest. The success of this 
settlement is dependent upon the USFS receiving adequate funding to 
conduct the activities required. The tribe requests that Congress 
specify funds in the USFS budget to complete the tasks required in the 
agreement.
    The tribe would like to thank Congress for funding tribal 
participation in recovery planning and habitat restoration for 
threatened Puget Sound chinook salmon. We ask that you continue to 
appropriate the funds necessary to ensure recovery of this important 
resource.

                    POINT NO POINT WILDLIFE PROGRAM

    The wildlife program serving the four Point No Point Treaty Tribes 
has become the premiere tribal wildlife program in western Washington, 
and has been critical in achieving the necessary cooperation between 
our tribes and the State. It has provided the needed biological date, 
coordination and facilitation to resolve state-tribal and inter-tribal 
disputes over wildlife management on the Olympic Peninsula.
    The wildlife program has been funded since 1993 by a combination of 
grants. However, this source of funding is extremely precarious, and it 
is impossible to conduct long-term planning without a permanent source 
of program funding. We support funding for this crucial program in the 
amount of $300,000.
    Subsistence and ceremonial hunting of wild game is an essential 
cultural activity for our tribal people. The tribes are committed to 
responsible wildlife management based on sound biology. Prior to our 
wildlife program, little biological data existed for the culturally 
important elk herds on the Olympic Peninsula. Our wildlife program has 
conducted extensive surveys and shared all our data with the State and 
other Olympic Peninsula tribes. As a result of our surveys, for the 
first time elk are being managed by both the State and tribes based on 
hard biological data.
    Elk in the east Olympic mountains had declined to such low levels 
that all hunting had to be eliminated for several years. It was only 
through a remarkable, cooperative effort between our tribal wildlife 
program and Washington State that we were able to rebuild the herds: 
with a combination of relocating elk, and habitat enhancement and 
protection. Finally, in 1997 we were able to reopen a limited hunt for 
both state hunters and our tribal people.
    There is an on-going need for research and reliable data on which 
to base our management decisions. It is only through sufficient funding 
for this program that we can responsibly continue to co-manage our 
essential wildlife resource.

                         INDIAN HEALTH SERVICE

    The Lower Elwha Klallam Tribe is appreciative of the increases 
provided by congressional appropriations in the current year's budget. 
We also appreciate the increases in funding for health included in the 
administration request for 2001. However, as a member tribe of the 
Northwest Portland Area Indian Health Board, we support the analysis 
prepared by the board, which points out that mandatory pay cost 
increases are not included in the administration request. We 
respectfully request the inclusion of mandatories in the fiscal year 
2001 appropriation for IHS.
                                 ______
                                 

            Prepared Statement of the Joslin Diabetes Center


                              INTRODUCTION

    Mr. Chairman, thank you for this opportunity to provide a status 
report on the Diabetes Project conducted jointly by the Joslin Diabetes 
Center in Boston, MA and the Indian Health Service, for which you 
provided $1 million in the fiscal year 2000 Appropriations Act. Our 
request for fiscal year 2001 is to continue this project with IHS at $1 
million. I am Dr. Sven Bursell, Principal Investigator of the project 
and Associate Professor of Medicine at the Harvard Medical School.

                               BACKGROUND

    As you may recall, the fiscal year 1999 Conference Agreement urged 
the Indian Health Service to work with the Joslin Diabetes Center in a 
collaborative effort to utilize Joslin's advanced diabetes detection 
technology to bring state of the art diabetes care to the patient 
population of the IHS. The recommended funding level for fiscal year 
1999. Due to the late obligation of funds, $250,000 was allocated by 
IHS in fiscal year 1999 for the commencement of this cooperative 
effort.
    The current fiscal year (fiscal year 2000) Conference Agreement 
reiterated Congressional intent on this project. We are close to 
obtaining the full year funding of $1 million set aside for this 
purpose in the current fiscal year.
    The Phoenix Indian Medical Center (PIMC) was selected by the IHS as 
the most appropriate site to locate the initial Joslin technology and 
presence.
    The Joslin Vision Network (JVN) will be deployed to three 
additional sites with current year funding. The JVN employs 
telemedicine technology to image the retina of patients with diabetes, 
through an undilated pupil, and produces a digital video image that is 
readable in multiple formats.
    PIMC will serve as the repository for images and will provide 
initial image evaluation and review. The new sites for fiscal year 2000 
are Sells Reservation in the Tucson region, one site in the Bemidgi, MN 
region, and one site in the Billings, Montana region.
    Joslin Diabetes Center will provide training, certification and 
quality assurance services to the newly deployed sites. The deployment 
and installation of these systems will include a comprehensive 
maintenance and support program, which also will include upgrade of the 
current JVN application to the newly designed and enhanced JVN system.
    The IHS staff will participate in the design and development 
workshop Joslin will conduct in June 2000 to identify and incorporate 
needs that are specific to the IHS program into the JVN application.
    IHS officials are enthusiastic about the promise of incorporation 
of Joslin diabetes detection, prevention and care methods and 
technology into the IHS health care system. The initial phase of such 
incorporation involve the trial deployment of Joslin technology to 
several sites in order to refine the Joslin technology to meet the 
specific needs and parameters of the IHS system and patient population.
    It is estimated that two more years of development and training 
will be required before the IHS fully incorporates this technology 
system wide within the IHS.

                    FISCAL YEAR 2001 BUDGET REQUEST

    It is our understanding that the IHS fiscal year 2001 Budget 
Request includes $1 million for the continuation of this project. We 
request that the Committee approve this portion of the fiscal year 2001 
Budget for continuation of the project at $1 million in fiscal year 
2001.
    The fiscal year 2001 plan for activities includes continuation of 
fiscal year 2000 activities and sites and the following additional 
activities:
  --Upgrade four existing sites to the newly refined JVN system;
  --Deploy enhanced JVN system to additional sites as determined by 
        IHS;
  --Certify Image Acquisition and Image Reviewers at each site;
  --Provide the support and infrastructure for a reading center at 
        PIMC;
  --Assist in conversion to providing reading services to additional 
        sites;
  --Provide an ongoing mechanism for quality assurance for the PIMC 
        reading and coordinating center; and
  --Provide a maintenance and support agreement for all newly and 
        previously deployed sites.

                               CONCLUSION

    Thank you for this opportunity to present this fiscal year 2000 
status report and this request for approval of the fiscal year 2001 IHS 
Budget Request of $1 million for the IHS/Joslin project. This project 
is viewed by IHS and Joslin Diabetes Center as a significant medical 
technology breakthrough for the patients and health care system within 
the Indian Health Service.
                                 ______
                                 

   Prepared Statement of the Confederated Tribes of the Warm Springs 
                         Reservation of Oregon

    Mr. Chairman, I am Olney Patt, Jr., Chairman of the Tribal Council 
of the Confederated Tribes of the Warm Springs Reservation of Oregon. 
Our phone number is 541-553-1161. My testimony today addresses the 
proposed fiscal year 2001 budgets for the Bureau of Indian Affairs and 
the Indian Health Service with the following requests and comments:
  --Extension of a Bureau of Indian Affairs loan to assist the 
        construction of a new elementary school at Warm Springs;
  --Bill language directing B.I.A. law enforcement services funding to 
        be eligible to pay for tribally-hired patrol officers and 
        corrections personnel whose pay under the Justice Department's 
        COPS program is expiring.
  --Bill language directing the Indian Health Service to fully honor 
        its funding commitment to the Warm Springs Wellness Center 
        under the terms of the unique Joint Venture with I.H.S.; and
  --Bill language directing the I.H.S. to conduct an assessment to 
        measure the financial impact of Self-Governance activity on 
        Direct Service Tribes.
    Below, I discuss each of the above requests in detail.
    Extension of a Bureau of Indian Affairs loan to assist the 
construction of a new elementary school at Warm Springs.--As you know, 
construction of a new K-5 elementary school at Warm Springs has been a 
top priority for our Tribe for the past several years. This has become 
even more urgent because the Madras Public School District will clearly 
have increased student population resulting from anticipated growth 
when a new prison is built in Madras in 2002. Our school officials also 
tell us that our students will have an increased rate of high school 
graduation if they spend additional time in school on the reservation 
before transferring to Madras. The Madras Public School District, which 
operates the current outdated and undersized elementary facility at 
Warm Springs, has offered to cover about half the $8 million cost of a 
new school in Warm Springs. Because the School District does not 
believe a bond measure to fully fund a new school at Warm Springs would 
pass, they have challenged the Tribe to come up with the balance of the 
construction costs, something we are unable to do on our own.
    Last year, we sought B.I.A. funding to assist building a new 
facility, but the Interior Department has rebuffed those efforts and 
noted a statutory bar to providing such funds for non-BIA system 
schools. Consequently, in seeking alternative means of assistance, we 
request that a $5 million 1979 BIA loan to the Tribe for twenty years 
at no interest for purposes of construction of our Pelton Reregulating 
Dam Hydroelectric Project, which was statutorily authorized in the 
fiscal year 1979 Interior Appropriations Act and which came due in late 
November, 1999, be extended under the same terms for another twenty 
years to assist in financing the new school. We are presently 
developing a proposal to the BIA to restructure the loan, and hope that 
proposal will at least defer the loan's transfer to the Treasury 
Department for collection, so that a statutory extension through 
appropriations can be considered. We are currently investigating 
whether a statutory extension of the loan could be accomplished just by 
changing ``20 years'' to ``40 years'' in the 1979 Interior 
Appropriations Act, BIA Construction.
    Bill language directing B.I.A. law enforcement services funding to 
be eligible to pay for tribally-hired patrol officers and corrections 
personnel whose pay under the Justice Department's COPS program is 
expiring.--We urge that BIA law enforcement funding be made 
specifically eligible to pay for tribally-hired patrol officers and 
corrections personnel, particularly those whose funding under the 
Department of Justice's COPS program is expiring. The COPS program has 
provided desperately needed law enforcement assistance to reservations 
such as ours where the BIA itself does not directly or through Public 
Law 93-638 provide police services. At Warm Springs, our limited number 
of tribally-funded officer positions have been substantially assisted 
by funding under the Justice Department's COPS grants. But as the COPS 
grants expire, we will not be able to sustain those positions, and will 
have to again scale back to an insufficient force. Meanwhile, the 
B.I.A. has significantly increased permanent funding for its law 
enforcement program over recent years (for fiscal year 2001, B.I.A. law 
enforcement is requested to increase $16 million to $156.6 million), 
but it has dedicated those increases principally to those reservations 
where the B.I.A. directly provides law enforcement services. To help 
alleviate the impact of expiring COPS grants, we request that B.I.A. 
law enforcement funding for fiscal year 2001 be prioritized to replace 
expiring COPS grant funding for tribally-hired law enforcement 
personnel.
    Bill language directing the Indian Health Service to fully honor 
its funding commitment to the Warm Springs Wellness Center under the 
terms of our unique Joint Venture with the I.H.S.--The Indian Health 
Service directly provides health services to the members of the Warm 
Springs Tribes. Prior to 1993, the IHS clinic at Warm Springs was old 
and unable to comply with federal standards for health care delivery, 
yet a new facility for Warm Springs was so far down the IHS 
construction ranking that it would have been many, many years before a 
new facility would be built. So, in 1987, our Tribe developed and 
proposed to the Indian Health Service the idea of a Joint Venture, 
whereby the Tribe would build a new facility to IHS specifications and 
then turn it over at basically no cost to the IHS. In exchange, the IHS 
would fully staff, equip, and maintain the clinic as if it were its own 
new facility. The Joint Venture was authorized in the 1991 Interior 
Appropriations Act. The Tribe spent $5 million to build the new clinic, 
which the IHS staffed in August 1993, at the designated level for such 
a new facility.
    Since that time, IHS staff funding for the Warm Springs clinic has 
not been sufficient to maintain all the positions initially placed 
there. To make up the difference, the clinic has had to draw upon ever-
increasing amounts of funds collected from third parties. Those funds 
have always been intended for use for the staff training and equipment 
replacement needed to maintain the clinic's accreditation. With those 
funds diverted to maintain existing staff, the clinic is unable to 
address those needs, and although the Joint Venture is only seven years 
old, the quality of the IHS health care at the clinic is already being 
eroded. The alternative is to lay off staff and cut services. While the 
Warm Springs have fulfilled our obligation under the Joint Venture, the 
IHS needs to be directed to fulfill its obligations to the Tribe under 
the Joint Venture by fully supporting the full complement of staff and 
level of service promised.
    Bill language directing the I.H.S. to conduct an assessment to 
measure the financial impact of Self-Governance activity on Direct 
Service Tribes.--We are requesting that Congress direct the Indian 
Health Service to conduct an assessment to measure the financial impact 
of Self-Governance activity on Direct Service Tribes. This assessment 
should identify actual costs and services that have been decreased to 
the Service Units and the Indian Health Service should be directed to 
consult with Direct Service Tribes for this information. Once the 
specific costs are identified we request that Congress provide funds to 
the Indian Health Service specifically to off-set the costs the Direct 
Service Tribes incurred due to the adverse impacts caused by Self-
Governance activity.
    The Confederated Tribes of Warm Springs has estimated the financial 
impact of the Self-Governance Demonstration Project on the Warm Springs 
Health and Wellness Center to be approximately $200,000 per year. This 
excludes the loss of service provided to our Health and Wellness Center 
from the Portland Area Office due to downsizing caused by Self-
Governance activity.
    Mr. Chairman, that concludes my testimony. Thank you for this 
opportunity. I would be happy to respond to any questions you may have.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

                              INTRODUCTION

    On behalf of this nation's Tribal Colleges and Universities, which 
comprise the American Indian Higher Education Consortium (AIHEC), we 
thank the Subcommittee for allowing us this opportunity to present our 
fiscal year 2000 appropriations request for the 25 tribally controlled 
colleges funded under Public Law 95-471, The Tribally Controlled 
College or University Assistance Act. The United States Department of 
Interior, Bureau of Indian Affairs, administers this program, also 
known as the Tribal College Act. AIHEC respectfully requests full 
funding for the Act's authorized programs; however, we realize step-by-
step increases are a way we can meet that goal over time.
    As our top priority, we specifically request $44,220,000 for Title 
I and II operational grants, an increase of $10 million over fiscal 
year 2000 funding and $7.1 million over the president's budget request. 
Additionally, we seek: $2 million for Title III Endowments with 
matching provision; $2 million for Title IV Economic Development; $5 
million for facility renovation; and $214,000 for technical assistance.
    The total amount under the Act is $53,434,000.
    AIHEC's membership also includes institutions of higher education 
funded under separate authorities within the Department of Interior 
Appropriations Act, and AIHEC fully supports their independently 
submitted funding requests. These include Haskell Indian Nations 
University; Southwestern Indian Polytechnic Institute; the Institute 
for American Indian Arts; United Tribes Technical College and 
Crownpoint Institute of Technology.
    AIHEC was founded in 1972 by the first six tribally chartered and 
controlled community colleges. Today, AIHEC is a cooperatively 
sponsored effort on the part of 33 member institutions throughout the 
United States and Canada, almost all of which are fully accredited or 
accreditation candidates. Tribal Colleges have been developed over the 
last 32 years to bring greater access to higher education opportunities 
to American Indians living on remote and economically disadvantaged 
reservations. Located in 12 States, Tribal Colleges serve over 25,000 
students each year, offering primarily two-year degrees, with a few 
colleges now offering four-year and graduate degrees. Together, they 
represent the most significant and successful development in American 
Indian education history, promoting achievement among students who 
would otherwise never know educational success.
    In addition to our focus on academic excellence, Tribal Colleges 
have always addressed the many problems and challenges of our welfare 
system by providing GED, literacy training, remediation and other 
college preparatory courses. Through the Tribal Colleges, American 
Indian communities are being effectively developed and tribal members 
are moving off welfare rolls into gainful employment.
    Tribal Colleges and Universities have had an immediate economic 
impact on local communities through the creation of jobs, services, and 
role models, but even more significant are their long-term promotion of 
workforce development, entrepreneurship and small business growth, and 
efficient, environmentally sounds practices in agriculture and natural 
resources. Over the past few decades median income has been growing 
faster on Tribal College reservations than on similar reservations 
without such schools. Together, our colleges represent the most 
significant and successful development in American Indian education 
history, promoting achievement among students who would otherwise never 
know education success.

                   BACKGROUND AND FUNDING DISPARITIES

    The Tribally Controlled College or University Assistance Act 
authorizes funding for the basic operating budgets or ``core funding'' 
of one qualifying institution per federally-recognized tribe based on a 
full-time American Indian student enrollment formula. Unfortunately, 
the amount appropriated under the Act has never reached the authorized 
level. Today, the colleges remain grossly underfunded. Despite a much 
appreciated increase in our appropriation of $4 million in fiscal year 
2000, the Tribal Colleges still operate at a dramatically less than 
average level of $3,433 per full-time Indian student (ISC). The amount 
is far short of the current $6,000 per ISC authority level.

Enrollment gains
    Compounding existing funding disparities is the fact that Tribal 
College enrollments continue to steadily increase(the 25 Tribal 
Colleges funded under this Act now serve approximately 22,000 students 
every year. Title I Tribal Colleges recorded a remarkable 275 percent 
increase in full-time Indian students from 1981 to 1999. Additionally, 
funding for Tribal Colleges has not kept pace with inflation. In fiscal 
year 2000, the Title I Tribal Colleges received only $602 more per 
Indian student than they received in 1981. This represents a small 
increase of 21 percent over a 19-year period. When inflation is 
factored in, however, the payment's value actually decreased by more 
than $1,000 (in constant 1981 dollars, $2,831 to slightly less than 
$1,800), or 36 percent, over this period.
    Tribal Colleges, in many ways, fall victim to their own 
successes(the dramatic enrollment increases recorded by our colleges, 
coupled with a growing number of Tribally Controlled Colleges, have 
forced Title I colleges to slice an inadequate pie into smaller and 
smaller pieces. The Carnegie Foundation for the Advancement of 
Teaching, in two separate studies, praised the Tribal Colleges for 
addressing longstanding barriers to the advancement of disadvantaged 
reservation populations. They noted the colleges' success in providing 
access to students, strengthening communities and rebuilding cultures 
and called on the Administration and Congress to fund suffering basic 
operational budgets under the Tribal College Act, at fully authorized 
levels.
    Our request for Title I would amount to only $4,539 per full-time 
Indian student, still significantly less than the average amount under 
which mainstream community colleges operate and only 75 percent of the 
authorized amount of $6,000.

Patchwork funding
    Tribal Colleges are forced to survive on a patchwork of smaller, 
competitive, short-term grants because of insufficient levels of core 
operations funding. This is not a stable way of funding an institution 
of higher learning, but Tribal Colleges have little choice. Several 
colleges face serious struggles because of their funding instability. 
Accrediting agencies have warned many of our colleges about the hazards 
of relying too heavily on temporary funding. None of the colleges under 
this Act are forward-funded, and most do not have adequate reserves or 
endowments. Unlike the state institutions, Tribal Colleges are young 
and still developing and have not built the reserves common at older 
institutions. The lack of expected appropriations and lack of reserves 
actually forced two Tribal Colleges to cease operations during the 
Government furloughs and the budgetary impasse of 1996. In more recent 
years, Congressional Reconciliation Packages have caused continuous 
strain on already difficult situations.

The absence of State core funding
    While mainstream institutions are able to fall back on a foundation 
of stable state support, Tribal Colleges are reliant on the Federal 
Government for operational funding because we are located on federal 
trust territories. States have no obligation to fund the federal 
responsibility, and, in most cases do not fund the Tribal Colleges. In 
fact, most States do not even fund our colleges for our non-Indian 
state-resident students who account for approximately 20 percent of our 
enrollments. Yet, if these same students attended any other public 
institution in the State, the State would provide ``core funding'' to 
the institution in an amount ranging from $4,600 to $11,000 or more, 
per full-time student.

Local tax and revenue bases
    Tribal Colleges cannot rely on local tax base revenue. Although 
tribes possess the sovereign authority to tax, high reservation poverty 
rates, the trust status of reservation lands, and the lack of a strong 
reservation economy diminish the creation of a reservation tax base. 
Unemployment for American Indian residents of reservations served by 
Tribal Colleges is 55 percent on average, and can reach as high as 85 
percent.
    Indian gaming is not a viable funding source for Tribal Colleges.--
The vast majority of the reservations served by Tribal Colleges are 
located in extremely remote and economically disadvantaged areas where 
gaming is not highly profitable. Indeed, only a handful of very small 
and urban tribes account for well over 50 percent of all tribal gaming 
profits. Therefore, gaming has not been a significant or stable source 
of income for the majority of our colleges. In addition, we believe 
gaming tribes should be held to the same standard as States: the 
Federal Government does not require States to share their gaming 
revenue with other States, nor does the Federal Government pin block 
grant of state formula funding on a particular state's lottery or 
gambling revenues.

Trust responsibility--Government functions
    Tribal Colleges are a direct result of the special relationship 
between American Indian tribes and the Federal Government. Tribal 
Colleges are founded and chartered by their respective American Indian 
nations, which hold a special legal relationship with the Federal 
Government, actualized by more than 400 treaties, several Supreme Court 
decisions, prior congressional action, and the ceding of more than one 
billion acres of land to the Federal Government. Beyond the trust 
responsibility, the fact remains that Tribal Colleges are providing a 
public service to all American people that no other institutions of 
higher education are willing or can provide. We are helping the Federal 
Government fulfill its responsibility to the American people, 
particularly in rural America. Tribal Colleges do not discriminate 
based on race or ethnicity. They are simply and effectively removing 
barriers that have long prevented equal access to higher education for 
reservation communities.

Further justifications
    Tribal Colleges provide access to critical postsecondary education 
opportunities that would otherwise be out of reach.--Almost half of 
Tribal College graduates are the first in their families to attend 
college. Most American Indian reservations are located in extremely 
remote areas, and their populations are among the poorest in the 
nation. On average, median household income levels on reservations 
served by Tribal Colleges are only half of the level for the U.S. 
population as a whole. As a result, the cost of attending a mainstream 
institution is usually prohibitively high, especially when tuition, 
travel, housing, textbooks, and all other expenses are considered. In 
addition, for many American Indian communities, the nearest mainstream 
institution is several hours away, making attendance virtually 
impossible.
    Tribal Colleges are producing a new generation of highly trained 
American Indian contributors: Teachers, tribal Government leaders, 
engineers, nurses, computer programmers, and other much-needed 
professionals.--By teaching the job skills most in demand on their 
reservations, Tribal Colleges are laying a solid foundation for tribal 
economic growth, with benefits for nearby off-reservation communities. 
In contrast to the high rates of unemployment in most reservation 
communities, three-quarters of recent Tribal College graduates were 
employed and using the skills gained through their educational 
experiences. Of these graduates, significant percentages employed in 
``high need'' occupational areas such as elementary and secondary 
school teachers (13 percent) and nurses/health care providers (16 
percent). Just as important, the overwhelming majority of Tribal 
College graduates(almost 85 percent(remain in their tribal communities, 
applying their newly acquired skills and knowledge where they are most 
needed. For example, 87 percent of Little Big Horn College (Crow 
Agency, Montana) graduates have found employment within the Crow Agency 
reservation community.
    Tribal College students and faculty contribute to our nation as a 
whole by participating in our national community of researchers, 
scientists, authors, artists, and teachers.--Despite a lack of adequate 
funding, Tribal Colleges have established centers for research and 
education that are contributing in revolutionary ways. Many Tribal 
Colleges conduct economic development research, investigate new land 
uses and encourage tribal entrepreneurship. Each of the Title I and II 
colleges have completed a detailed economic development plan that 
strongly justifies the need for the economic development appropriation 
(Title IV) recommended in this statement.
    Tribal Colleges meet the strict standards of mainstream 
accreditation boards and offer top-quality academic programs.--Several 
colleges, including Turtle Mountain Community College, Sitting Bull 
College, Fond du Lac Tribal and Community College and Stone Child 
College, have been granted a ten-year accreditation term--the longest 
term allowed for any higher education institution. The quality of the 
colleges' programs is reflected in the high rates of satisfaction 
reported by their graduates: about 90 percent of Tribal College 
graduates reported being very satisfied or satisfied with courses in 
their major field of study and with overall instruction.
    Tribal Colleges serve as highly effective bridges to four-year 
postsecondary institutions.--While most Tribal Colleges are two-year 
institutions offering associate's degrees and certificates, their 
transfer function is significant. A recent survey of Tribal Colleges 
indicated that almost 50 percent of graduating students continued their 
education during the year after their graduation, with the majority 
pursuing bachelor's degrees. Nationally, about 35 percent of community 
college graduates who received associate's degrees remain enrolled in 
higher education the next year. The overwhelming majority of the 
continuing Tribal College graduates felt that the programs at Tribal 
Colleges had prepared them well for further education. A case study 
compared students who transferred from Salish Kootenai College in 
Pablo, Montana, with American Indian students and found the Tribal 
College students were better prepared for the challenges of mainstream 
four-year institutions and were more likely to complete bachelor's 
degree programs.
    Tribal Colleges serve as community centers.--Providing libraries, 
tribal archives, career centers, economic development centers, public 
meeting places, child care centers, nutrition and substance abuse 
counseling, and a broad range of other vitally needed facilities to 
rural America. Most of the colleges have business assistance centers 
that provide help to both students and the wider community.
    Tribal Colleges have become centers for American Indian language 
and cultural research, preservation, and revitalization.--Many Tribal 
Colleges now serve as tribal archives, and all offer courses in tribal 
history, literature, government, language, and other aspects of 
American Indian culture.

                      HIGH PRIORITY AREAS OF NEED

    Like mainstream institutions, each Tribal College strives to fully 
develop its institution and to expand services to address the needs of 
its increasing student body.--If each college received full or at least 
increased core operational funding in fiscal year 2001, Tribal Colleges 
could focus high priority areas of need, such as (1) maintaining 
accreditation by stabilizing core operational budgets and moving away 
from piecemeal core budgets; (2) improving instructional capabilities 
and enhancing student support services; (3) expanding library services 
and collections; (4) maintaining and improving facilities and enhancing 
laboratory facilities; (5) expanding technology through the Tribal 
Colleges' High Technology Plan, which includes T1 or greater access at 
all tribal Colleges; (6) expanding child care facilities; and (7) 
constructing community or cultural centers.

    BUILDING ON THE PRESIDENT'S BUDGET REQUEST FOR FISCAL YEAR 2001

    The President's budget request reflects a $2.9 million increase for 
the core operations grant funding under Titles I and II of the Act. 
Although we are very appreciative for this increase request and 
acknowledge that it will be helpful to the 25 institutions funded under 
the Act, it reflects only a beginning to what must be a sustained 
commitment. The gross funding disparities described above have caused 
considerable hardship on the colleges. Only when full funding is 
attained will equal educational opportunities begin to exist for 
American Indians, and only then will Tribal Colleges have the resources 
to ensure that the quality of their educational services, which they 
have struggled so hard to achieve, are not compromised.

                               CONCLUSION

    In light of the justifications presented in this statement, we 
strongly urge the Subcommittee to increase funding for Tribal Colleges. 
Fulfillment of AIHEC's fiscal year 2001 request will strengthen the 
missions of our colleges and the enormous, positive impact they have on 
their respective communities. This funding will help ensure that our 
colleges are able to properly educate and prepare thousands of American 
Indians for the workforce of the 21st century. Without the Tribal 
Colleges to serve as the means for moving from welfare to work, much of 
the reform accomplished by the Congress will fail throughout Indian 
Country. As demonstrated in this statement, Tribal Colleges have been 
extremely responsible with the federal support they have received over 
the last 19 years. Our institutions have proven themselves as a sound 
federal investment, and we ask for your continued support.
                                 ______
                                 

Prepared Statement of the Central Council of Tlingit and Haida Indians 
                            Tribes of Alaska

    GREETINGS FROM ALASKA! My name is Edward K. Thomas. I am the 
elected President of the Central Council of Tlingit and Haida Indian 
Tribes of Alaska (hereinafter ``Tlingit Haida''), a federally 
recognized Indian tribe from Southeast Alaska with over 23,000 members. 
I have served as the elected President of my Tribe since 1984. Thank 
you for the opportunity to submit written testimony to this 
Subcommittee regarding the fiscal year 2001 budget request for Indian 
programs within the Bureau of Indian Affairs. My testimony will address 
two issues: First, the overall funding levels requested by the Clinton 
Administration for fiscal year 2001 Indian programs. Second, the 
contract support cost funding crisis that has nearly strangled my 
Tribe's operations.
 the increases in the fiscal year 2001 budget request are long overdue
    While its record with regard to Indian affairs has caused me and 
the Tribe I lead to be a persistent critic of the Clinton 
Administration over the years, I applaud the Administration for 
substantially increasing its overall budget request for fiscal year 
2001 Indian programs. During the past seven years, Tlingit Haida and 
many other Indian Tribes have been greatly disappointed by the non-
responsive of both the Clinton Administration's requests and the 
Congress's funding levels, in relation to the grossly unmet needs that 
persist in most Native American communities and especially in much of 
Alaska. However, we are pleasantly surprised to see, in its last year 
in office, the Administration put forward a request with increases that 
would begin to make substantial progress toward eradicating our huge, 
unmet needs. Tlingit Haida urges the Senate Interior Appropriations 
Subcommittee in particular, and the Senate Appropriations Committee in 
general, to support the significant increases for Native American 
programs, government-wide, which are requested for fiscal year 2001. We 
note that, in addition to proposing increases for a number of core 
programs in the BIA and IHS--ranging from housing to roads to 
replacement schools to health disparities--the Administration's fiscal 
year 2001 budget proposal requests other increases and new programs in 
other agencies, such as the Departments of Justice, Housing and Urban 
Development, Education and Commerce, with these proposed increases 
totaling $1.2 billion overall. We hope that this Committee and the 
Congress will concur by appropriating the full amounts requested.

        FIX THE CSC FUNDING SHORTFALLS THAT CHOKE OUR OPERATIONS

    My Tribe, and many other Indian tribes who lack a revenue base 
other than Federal grants, are in a state of crisis as a result of the 
calculation method and the underpayment of indirect costs, also known 
as Contract Support Costs (CSC). Both the Congress and the 
Administration are responsible for this crisis. At the end of my 
testimony, I propose some language which would, as an interim measure, 
resolve part of the problem even as the Congress considers more 
comprehensive solutions. I ask that the Subcommittee add our proposed 
bill language to direct the Department of the Interior to ``de-link'' 
certain funds from the calculation of indirect cost rates. Unless our 
language is added, the increases in direct funding that are reflected 
in the fiscal year 2001 budget request will compound our problem. As 
described below, Tlingit Haida will not be able to afford to accept 
increased direct funding under Head Start and other similar non-BIA 
programs because that will hike our indirect cost rate and enlarge our 
unfunded shortfall in contract support costs.
    Tlingit Haida's Administrative Costs Are Kept to a Minimum.--I am 
proud to report that the Tlingit Haida has, year after year, restrained 
the pressures to increase its administrative spending. We have kept our 
increases below the national rate of inflation, despite the fact that 
our unemployment rates are exceedingly high and the resulting pressure 
from our membership is to make job creation the priority above all 
other program and service priorities.
    History of Tlingit Haida's Shortfall.--Despite our administrative 
cost restraint, for the period between 1996 through 1999, the BIA 
failed to deliver to Tlingit Haida a total of $953,781 in contract 
support cost funding which the BIA's own negotiators, applying uniform 
federal rules, had determined was due Tlingit Haida for our operation 
of BIA-funded programs. This shortfall of $953,781 represents actual 
expenditures that were approved and allowable. In fact, if we did not 
spend this $953,781, our receipt of BIA funds would be jeopardized, 
because this $953,781 is part of the overall contract support costs we 
are required to spend in order to assure proper management of the BIA 
program dollars we administer. The only way we can continue to qualify 
to administer the program funding is if we find some non-federal source 
of funds to pay for this shortfall. But Tlingit Haida, unlike some 
other Tribes, has no substantial revenue source other than grants. 
Without a land base, Tlingit Haida is unable to operate any significant 
economic enterprises or otherwise gain permit or tax revenues. The only 
income producing asset we have is our modest tribal trust fund. Tlingit 
Haida jealously guards the interest income from that fund, seeking to 
expand the principle for the sake of future generations, and to apply a 
limited portion of its proceeds to tribal programs targeted at meeting 
the emergency needs of tribal members. If we use our trust fund income 
to replace the Federal Government's contractual obligations regarding 
contract support costs, we rob ourselves of opportunities to address 
the many problems facing our people whose unemployment rates are on the 
average twice that of unemployment rates during the Great Depression of 
the last century.
    Throughout the past decade, our BIA contract support costs have 
been severely under funded. In 1996 we recovered only 87 percent of our 
contract support need. This meant we faced a 1996 shortfall in funding 
of $129,418. We did not learn about this shortfall until about halfway 
through our program year. Leases had been signed. Purchases made. 
Employees hired. We were well into our budget year, with expenditures 
meeting plan when suddenly we were told to our complete surprise and 
without any warning that the equivalent of about six weeks of 
operations would be unfunded. We were forced to pull $129,418 out of 
our modest Trust Fund earnings in order to meet the costs we were stuck 
with by the United States. In 1997, BIA again notified us mid-way 
through our budget year that we would be underfunded, this time we were 
to receive only 77 percent of our BIA-generated contract support 
funding requirements. This amounted to an actual under-recovery of 
$299,287, nearly one-fourth of our annual, BIA-approved budget. Halfway 
through 1998, BIA notified us our payment be only 80 percent of our 
contract support need. This amounted to an actual shortfall of 
$302,400. In 1999, the BIA informed us that available funding permitted 
BIA to send us only 88 percent of the indirect costs associated with 
our operation of BIA-funded programs, creating a 1999 shortfall of 
$222,676.
    Indirect Costs are Fixed Cost Requirements.--If indirect costs were 
not primarily ``fixed'' costs, the recurring problem of a shortfall in 
BIA contract support cost funding would, perhaps, be survivable. But 
most of our actual indirect costs are ``fixed''. For example, typically 
the most cost-effective way to acquire facility space or equipment is 
through a long-term lease with locked-in costs. Similarly, package 
deals for telephone and some forms of transportation offer significant 
cost savings over time. And obviously, the salary and benefit costs of 
accounting, administrative, and management staff must be treated as 
``fixed'' or else we cannot hire and retain employees. Tribal indirect 
cost funding is a ``requirement'', not a ``need''. CSC levels are 
determined by rates that are used uniformly by federal agencies with 
all contractors, including universities and the defense industry. The 
rates use actual expenditures from prior years to project costs in the 
future year. Once set, the rates must be applied uniformly to all our 
programs. We would spiral into bankruptcy if we chose to not spend at 
the budgeted amounts. Failing to pay certain fixed costs would actually 
increase our costs (breaking leases, terminating employees, breaching 
contracts). Deferring certain costs to the following year aggravates 
the hardship of the shortfalls that cripple that year.
    Sources of the CSC Shortfall Problem.--There are several reasons 
why we have the present shortfall crisis in BIA contract support 
funding. The GAO study released in June, 1999 details them in adequate 
fashion. Here I wish only to note that if Congress and the 
Administration had set up a separate appropriations account for the 
direct funds under tribal contracts, like the separate account set up 
for indirect costs associated with the operation of those tribal 
contracts, Congress would have been better able to identify the gap in 
growth of these two inter-related accounts. GAO reports that between 
1989 to 1998, the growth in actual funding of ``indirect'' costs by BIA 
and IHS was less (224 percent) than the growth in ``direct'' cost funds 
placed in contracts and compacts (238 percent). In other words, 
although direct and indirect funds were ``de-linked'' some time ago, no 
attention was paid to how out of proportion they were becoming.
    A Partial Fix for the Shortfall Problem--Change How Interior 
Calculates our Rate.--Obviously, the simplest way to fix the shortfall 
problem is to increase funding for CSC. But until that can happen, 
there is another partial solution that has no budgetary impact. 
Changing how our rate is calculated would remedy an existing, practical 
inequity that causes some tribes to be hurt more than others by the 
shortfall. Tribes who receive nearly all their revenue from BIA and IHS 
sources, and tribes who have non-federal resources from tribal revenues 
at their disposal, both have an incentive under the present system to 
classify more costs as indirect, thereby hiking their rates and 
obtaining higher shares of contract support funds even with the 
shortfalls. Tribes like Tlingit Haida who receive funding from a 
variety of sources in addition to the BIA, but have little or no tribal 
revenues, have no such incentive but also have no ability to make up 
the difference from the shortfall. Tribes like ours are in crisis as 
the shortfalls recur year after year.
    While the Public Law 93-638 protections against theoretical under-
recovery do help with respect to BIA funding shortfalls, they still do 
not cushion our Tribe from the difficulties of dealing with shortfalls 
in non-BIA programs for which we must, by law, use the same indirect 
cost rate. If in year one we don't spend uniformly on all programs, BIA 
and non-BIA alike, this will lower the rate negotiated for the 
following year because the rate must be based on actual expenditures 
for the prior year. That lower rate is applied across the board to all 
programs, BIA included. When the BIA ``requirement'' is calculated by 
the rate, the BIA then applies an additional reduction to reflect the 
pro rata shortfall in appropriations earmarked for the BIA contract 
support cost fund. The bottom line is that our bottom line gets smaller 
and smaller, year after year while our expenses remain steady or rise 
with inflation. Accordingly, to enable grant-dependent Tribes like 
Tlingit Haida to be able to continue to administer federal funds from 
non-BIA agencies (e.g., Head Start funds whose administrative costs are 
statutorily capped at a very low level), we need to have the 
flexibility to remove such funds from the pool of costs which Interior 
uses to calculate our overall indirect cost rates. To do this, 
statutory language will be needed. We ask that the Subcommittee include 
the following language in the administrative provisions of the fiscal 
year 2001 Interior Appropriations Act:

    ``Notwithstanding any other provision of law or circular or 
regulation issued thereunder, a tribe or tribal organization may elect 
to have any grant or other type of funding, as well as all associated 
indirect cost funding whether negotiated as a lump sum or otherwise, 
excluded from the indirect and direct bases of funds from which the 
indirect cost rate of the tribe or tribal organization is calculated by 
the Secretary of the Interior: Provided, That such exclusion may be 
made only with respect to funds other than those appropriated to the 
Bureau of Indian Affairs or Indian Health Service and upon which a 
statutory or other limitation is placed by the funding source on the 
amount of administrative or indirect costs associated with such 
funding.''

    Thank you very much, Mr. Chairman and Members of the Committee, for 
the opportunity to present this testimony on behalf of Central Council 
of Tlingit and Haida Indian Tribes of Alaska and its citizens we serve.
                                 ______
                                 

         Prepared Statement of the Ketchikan Indian Corporation

    Greetings. My English name is Stephanie Rainwater-Sande and my 
Haida name is Dat Kan San, which means ``asking for something''. I am 
the Tribal Council President of the Ketchikan Indian Corporation (KIC). 
Thank you for this opportunity to provide written testimony on the 
fiscal year 2001 budget request for the Bureau of Indian Affairs (BIA) 
and Indian Health Service (IHS).
    Ketchikan Indian Corporation (KIC) is a federally recognized tribal 
government created under the Indian Reorganization Act (I.R.A.); the 
Secretary of the Interior approved the KIC Constitution in 1940. We 
currently have 4,300 members, and our enrollment has been growing each 
month.
    In 1976, KIC was one of the first Indian Tribes to assume, under 
the newly enacted Public Law 93-638, the Tribal operation of BIA-funded 
programs. In 1993, KIC was one of several Tribes in Alaska that first 
participated in the first BIA Tribal Self Governance demonstration 
program. Since then, we have managed our federally funded programs with 
increased flexibility and an equal measure of increased accountability.
    Through Self-Governance, we have shifted the focus of our welfare-
assistance programs more towards Tribal employment and training. Years 
before policy-makers in Washington D.C. decided that handing out a 
welfare check was not a solution with a future, the KIC Tribal Council 
decided in 1993 to refocus the BIA-funded General Assistance grant 
program to provide training and other tools designed to end dependency, 
encourage self-sufficiency, and foster permanent, full-time employment. 
This program is now known as the Tribal Welfare-Employment Program or 
TWEP used by many Indian tribes. Our Tribal administration is also 
responsible for the operation of other programs not covered by this 
Subcommittee (for example, in 1997, KIC established a Housing Authority 
and became a HUD Indian Housing Block Grant recipient. Our HUD housing 
grant now totals nearly one million dollars annually.).
    Tribal Self-Governance has strengthened our Tribal administrative 
and management control systems, allowing the Tribe to grow and better 
target our delivery of services. Our increased Tribal economic activity 
during the last decade has had a visibly beneficial impact on our non-
Native neighbors who have been hit hard by the closing of so many of 
the timber industry facilities and the downturn in regional commercial 
fishing. In these difficult times, we have entered into agreements with 
community and federally funded agencies to leverage our program funds 
to provide the maximum possible benefits. We have merged the 
administration of our BIA and IHS funded social service programs to 
achieve greater efficiencies and more comprehensive services. Other 
programs we have integrated include Higher Education and Vocational 
Training. Our original program Johnson O'Malley (JOM) still operates 
within the public school system, offering a rich Knowledge of our 
Alaska Native heritage and culture to all students. However, the JOM 
funding we receive is at an all time low and so our Tribe has allocated 
additional sums to supplement that program from our general Tribal 
Priority Allocations funding. We encourage the Subcommittee to increase 
the JOM funding available, given how valuable is the knowledge that it 
encourages to be gained by our children and their non-Native friends 
who must learn how the diversity of cultures is something to be 
celebrated and cherished.
    KIC's various economic development enterprises likewise continue to 
flourish, providing additional employment opportunities for Tribal 
members and revenue for Tribal services. Despite all of our efforts, 
and those of this Subcommittee, tremendous unmet needs still exist 
among our people, many of whom struggle with extreme poverty and 
hardship. KIC is committed to improving its efforts to efficiently and 
effectively meet these unmet needs by aggressive marshaling federal 
funds even as KIC makes significant strides toward increased self-
sufficiency.

                             HEALTH FUNDING

    KIC is a member of the Alaska Native Health Board (ANHB) and 
supports the ANHB testimony seeking additional IHS patient travel 
funding for Alaska. Another $10 million is needed to supplement the 
expense that Tribes and tribal organizations in Alaska experience due 
to our extreme conditions. The burden of travel expense is much higher 
in the expansive and rugged geographical terrain of Alaska.
    For example, Ketchikan is located in the rural Southeast portion of 
Alaska where the only access to IHS-funded hospital facilities and 
specialty services is by air travel. This has become a tremendous 
burden on KIC's health budget. In 1998, $110,610 was expended on travel 
costs alone for 197 KIC hospital patients. In 1999, $64,000 was spent 
on the travel costs of 146 patients. These travel expenses take away 
from other health services that could be offered by the Tribe.
    In large part due to the financial cost and personal toll imposed 
by an out-dated IHS health care delivery system, KIC has been compelled 
to insist that IHS provide it with all of the funding associated with 
the hospital-related programs, functions, services and activities that 
KIC has assumed under its Compact and Annual Funding Agreement with the 
IHS. The IHS has refused to do so, claiming an adverse impact will 
arise from the resulting (approximate) 10 percent reduction in the 
funding the IHS has previously allocated to an IHS-funded hospital in 
Sitka, Alaska for the benefit of patients from Ketchikan. KIC's claim 
under the contract Disputes Act is for $1,856,947, which is the 
adjusted amount of fiscal year 2000 funds appropriated and allocated 
for the hospital-related activities KIC has assumed under its fiscal 
year 2000 AFA, as well as the indirect costs associated with these 
direct dollars pursuant to KIC's negotiated indirect cost rate.
    The KIC Tribal Council decided to file its Contracts Disputes Act 
lawsuit because KIC seeks to spend its hospital-related fiscal year 
2000 appropriated funds principally at the local Ketchikan General 
Hospital (``KGH'') rather than at the IHS-funded Mt. Edgecumbe Hospital 
in Sitka. In previous fiscal years, the KIC Tribal Council adopted 
resolutions authorizing a tribal organization, the Southeast Alaska 
Regional Health Consortium (``SEARHC''), to provide hospital-related 
activities for KIC's benefit at the Mt. Edgecumbe Hospital. But given 
the increasing costs and risks of travel, continued use of a hospital 
far from Ketchikan makes no financial nor personal nor policy sense in 
this day and age.
    KIC is located within one of the largest urban areas of Alaska. The 
health clinic operated by KIC is located next door to the KGH, which is 
one of the largest hospitals in Alaska. Sitka where the IHS-funded Mt. 
Edgecumbe Hospital is located is 12 hours away from Ketchikan by ferry 
and nearly an hour away by jet. Flying between Sitka and Ketchikan is 
further complicated by adverse weather conditions at both places (fog, 
strong winds and low visibility). Transporting KIC patients and their 
families by air from Ketchikan to Sitka for basic hospital services 
wastes scarce health dollars and imposes great cost inefficiencies, 
unnecessary medical risks and needless personal hardships on the 
patients for whom KIC is responsible. The additional costs of lodging, 
delayed treatment, and family disruption are immense. Moreover, another 
separate but significant portion of KIC's health care funding has been 
withheld, with the continued consent and support of KIC, for the 
provision of sophisticated hospital-based and specialty services at the 
new Alaska Native Medical Center (``ANMC'') in Anchorage. Anchorage is 
nearly a half-day's travel by airplane from Ketchikan. Having one 
backup hospital (ANMC) an airplane flight away is enough. Using two 
hospitals at distant and hard-to-reach cities is a waste of critically 
needed health care funds in the context of KIC and its unique placement 
next to KGH. This type of redundancy has been a concern repeatedly 
raised by both KIC and the Alaska Congressional delegation. But given 
IHS's unwillingness to transfer to us our hospital-related funding, KIC 
has been forced to sue for relief under the Contract Disputes Act. We 
ask only that the Congress not interfere with the judicial and 
administrative resolution of that litigation under the Contract 
Disputes Act.
    We ask that the Subcommittee continue to work to bridge the gap in 
health care services and conditions that exists between Americans as a 
whole and Native Americans. This will necessarily require increased 
health funding for Native Americans, which at present are funded at 
half the level that is spent on the rest of America's citizens. We also 
ask this Subcommittee to support the legislative efforts Reps. Don 
Young and J.D. Hayworth to establish contract support cost (CSC) 
funding as entitlement rather than discretionary spending. KIC opposes 
any reallocation of health CSC funding on a pro-rata basis. KIC 
supports the IHS policy of promoting stability by not reducing CSC 
being paid to a tribe from one year to the next.
    We also ask that the Subcommittee not enact further authority like 
that in Section 314 of the fiscal year 1999 Omnibus Appropriations Act 
which attempts to limit the liability of the IHS and BIA for past 
failures to fulfill contract support obligations to tribes and tribal 
organizations under Public Law 93-638, as amended. IHS has used Section 
314, we believe in error, to deny payment to KIC of $325,000 in startup 
costs that were due KIC under our Compact for the startup of our clinic 
operations in 1997-1998. We ask that fiscal year 2001 bill language be 
included which expressly permits legitimate startup costs from prior 
years, like KIC's $325,000, to be paid from the fiscal year 2001 funds.
    The self-determination and self-sufficiency fostered by Public Law 
93-638 is the key to our survival as an Indian tribe. Inflationary and 
mandatory pay costs have had a devastating effect on our program 
budgets; these include commissioned officer salaries, as well as direct 
hires. KIC supports the $60 million request proposed by ANHB for the 
funding of inflation adjustments. Despite increases in appropriations 
from fiscal year 1993 to fiscal year 1998, there has been an 18 percent 
decline in the adjusted per capita expenditures, or purchasing power, 
of IHS funding. The immediate solution would be to place inflation or 
population growth safeguards in the budget. Population growth is a 
large part of the equation. The methodology used to determine our 
Compact budget is based on the 1990 census, which said we had 1,566 
members within our service area. But our current membership is now 
4,300 people, and we now have over 6,000 active patient medical charts. 
We have seen a patient load increase of sixty-five percent from fiscal 
year 1998 to fiscal year 1999. Although we have been able to remain 
stable and absorb these increases through good management and 
scheduling, our Health Clinic personnel are beginning to reach their 
human limits. The methodology of funding these costs has proven to be 
completely inadequate; it has created shortfalls which have had to be 
absorbed by the Tribe and by service reductions. Of the $127 million 
inflationary shortfall identified by the IHS for fiscal year 1999, only 
$60 million was appropriated. Congress must identify a more logical 
response and methodology of keeping up with this inflationary 
shortfall. An increase in funding is needed beginning in fiscal year 
2001 to alleviate this detrimental erosion of the Indian health care 
system.

                BIA CONTRACT SUPPORT FUNDS AND PROGRAMS

    We share the concerns of other tribes that the inability of the BIA 
to fund 100 percent of identified contract support costs serves as a 
disincentive to increased contracting or compacting of federal 
programs. Over the last five years approximately 80 percent of the 
tribal indirect costs have been funded. This shortfall greatly reduces 
the ability of a Tribe like KIC to meet its obligations to administer 
and manage its Compact operations. Inadequate funding weakens and 
imperils the effective delivery of all program services. Significant 
increases must be applied to this account in order to assure adequate 
administrative control of vital program services being provided by 
Indian tribes.
    We wish also to note our objection to how the BIA has altered the 
Housing Improvement Program (HIP) funding allocation system. Without 
meaningful consultation, BIA abruptly changed the funding allocation 
methodology from use of a housing inventory data base to an untested 
system that purported to allocate funds based on the individual 
eligible applicants. At the very least, the change was disruptive, and 
we doubt it does anything but add to existing inequities. It also 
appears to forever consign recipients to a dependency status of poverty 
that precludes them from ever owning a home.

                               CONCLUSION

    The BIA and HIS funding for tribal programs falls far short of 
tribal needs. The growth of funding for Indian programs has not kept 
pace with the rise in basic unmet need, nor with the demands of 
inflation and population growth. KIC, like other tribes, uses our own 
resources to supplement our BIA and IHS funding. KIC, like other 
tribes, seeks to maximize administrative efficiency and creatively to 
address the shortfall.
    Our tribal members are excited about this new chapter in our 
Tribe's history. We see a bright future that includes the growth of 
tribal enterprises which provide more employment opportunities for 
tribal members and more revenue for tribal governmental programs. We 
thank you for this privilege to provide testimony. If the Committee has 
any questions concerning these requests or comments, we would be glad 
to respond.
                                 ______
                                 

 Prepared Statement of the St. George Traditional Council of the Aleut 
         Community of the Pribilof Island of St. George, Alaska

    Mr. Chairman, Members of the Committee, on behalf of my people I 
thank you for this opportunity to provide this testimony on Indian 
Health Service (IHS) and Bureau of Indian Affairs (BIA) issues.
    My name is Boris Merculief. I am the elected President of the St. 
George Traditional Council. The St. George Traditional Council is the 
only federally-recognized tribal government entity on St. George Island 
and, pursuant to democratic elections, represents all Aleuts of all 
ages who reside on St. George Island.
    We are a small Aleut community located on a remote Pribilof island 
that has been the homeland of our people for generations. We have about 
150 year-round residents on our 44 square mile Island. Our homeland is 
located approximately 800 miles south and west of Anchorage in the 
middle of the Bering Sea.
    I lead the Traditional Council which is the Indian Tribe on our 
Island. When the 1966 and 1983 Acts which affect our Island were 
passed, the Traditional Council was the original and only governmental 
entity on St. George Island. Since then, the City of St. George has 
been organized to represent both Aleuts and non-Natives who have 
recently moved to the Island and Tanaq, the Village Corporation, was 
organized under the Alaska Native Claims Settlement Act to represent 
St. George Aleut shareholders born before 1971 regardless of where they 
live.
    Over the past several years, the Traditional Council has been 
engaging in a discussion with other Pribilof Island entities and with 
our Alaska congressional delegation on how best to proceed to gain a 
fair resolution of our various claims against the United States for the 
harm it has caused our people and our Island by taking away our entire 
means of livelihood--the fur seal harvesting that was our economic 
mainstay for generations until a complete moratorium was imposed in the 
early 1980s by interests far from our Island. To this day, Federal 
agencies micro-manage much of our Island for purposes having nothing to 
do with our people who have inhabited the Island for more than two 
centuries.
    Some of our claims could be resolved through the annual 
appropriations process, and we ask that you give special consideration 
to them for the following reasons.
    Request #1.--Transfer Ownership of the ``Cottage C'' Facility for 
Use With Our IHS Health Clinic.
    The St. George Traditional Council manages a tribally-operated 
health Clinic funded by the Indian Health Service (IHS). Ours is the 
only health facility and provider on St. George Island. Due to our 
remote Island location, and often extreme weather conditions that 
regularly preclude travel off of our Island, all residents and visitors 
depend on our Clinic for vital health services. Our health Clinic is 
required to serve everyone, regardless of whether they are Aleuts or 
other Alaska Natives.
    Our health Clinic facility is dangerously dilapidated. For years, 
we have been promised a replacement Clinic by the IHS but nothing has 
been done. At present we have two health professionals stationed 
permanently on our Island. Periodically, IHS physicians and other 
medical professionals travel to our Island to provide specialty 
services at our Clinic. These professionals must be housed while they 
are on our Island. But housing is in very short supply. The lone, 10-
room hotel on St. George charges $130 per night, sorely taxing our 
scarce health services budget.
    Meanwhile, across the street from our Clinic is a National Oceanic 
and Aeronautic Administration (NOAA) facility that is mostly unused and 
empty. Known as ``Cottage C'', this facility is not a cottage but a 
4,800 square foot building that has three floors containing seven 
bedrooms and three baths. In previous years it served as the Island's 
hospital. It is now only used infrequently by National Marine and 
Fisheries Services (NMFS) supervisory personnel when they visit our 
Island.
    We estimate that NMFS and other Federal personnel use ``Cottage C'' 
only about 10 percent of the year. The cost by NOAA to maintain this 
building for that amount of usage is not a good use of funds. When the 
Federal government pulled out of St. George Island in 1983, both the 
City of St. George and Tanaq, the ANCSA village corporation, received 
facilities and staff quarters which were transferred to them by various 
Federal agencies. However, as the entity that is responsible for all 
medical care on St. George Island, the St. George Traditional Council 
has no quarters to house medical personnel that visit the Island.
    IHS funds for basic specialty health services like dental and eye 
care have been quite limited. The travel costs plus the high per diem 
charges we must pay for overnight accommodations at the only hotel on 
our Island have sharply limited the medical services we can obtain.
    With the reorganization of IHS, we have been notified that we are 
slated to receive new primary care recurring funds as part of the 
Alaska Native Medical Center (ANMC) Rural Anchorage Service Unit. These 
funds will be used to increase family physician, dental, optometry and 
audiology visits to our Island in an effort to reduce our backlog of 
basic health needs. However, a substantial amount of these added funds 
will have to be diverted to lodging costs unless we are transferred the 
ownership of ``Cottage C.'' We want to maximize the funds available for 
these medical visits.
    In addition to serving as temporary staff housing, ``Cottage C'' 
could also provide some temporary or overflow space for our existing 
Clinic in-patient load. Our present Clinic only has two beds. A couple 
years ago, when there were 8 to 10 fishermen injured in an accident, we 
literally were forced to lay them in the hallways and as we did not 
have adequate bedding, our local people contributed bedding and other 
bedside care until we could get a medical evacuation plane into our 
landing strip. Daily air service is no longer provided to our Island 
and inclement weather routinely makes landing or takeoff of charter 
medical evacuation aircraft impossible.
    In short, we ask this Subcommittee to set in motion the immediate 
transfer of ownership and control of ``Cottage C'' to the St. George 
Traditional Council for its use for public health purposes on the 
Island of St. George. On at least three separate occasions, we have 
requested of NOAA and NMFS that they transfer this property to us, but 
have been refused. We need the help of the Subcommittee to get this 
facility transferred to us immediately.
    Request #2.--Special Add-On or Ear-Mark to Repair Our IHS Clinic.
    Our existing IHS Clinic is facing major structural problems that 
may force us to close it in the immediate future. Its plumbing system 
is nearly completely destroyed and inoperative. Its central heating 
system is completely inoperable. The Clinic rests on a bad foundation 
that is causing structural damage. We are now faced with an emergency 
need for funds to rebuild our Clinic. We may well have to abandon our 
Clinic in the very near future.
    Our Clinic building was transferred to the Traditional Council in 
1986 along with a grant of $90,000 from NOAA to fix it up. NOAA 
proposed the transfer of the Clinic on a take it or leave it basis. The 
Council received an additional $150,000 from a special Federal fund and 
contributed another $200,000 of its own funds to help bring the Clinic 
into useable condition. Since then, severe weather conditions and a 
poor design have caused the Clinic's foundation to settle. The settling 
has crushed the sewage piping under the building's foundation, 
preventing some toilets from draining or flushing. The hot water pipes 
feeding the central heating system for the Clinic were run through the 
concrete slab foundation and have now rusted away, leaving us with no 
central heat for the past two years. Instead, we now must use space 
heaters. There is growing concern that leaking sewage is tainting our 
limited supply of fresh water. None of the electrical wiring throughout 
the Clinic is grounded. Wiring itself is far from adequate for modern-
day health equipment, and there is significant asbestos contamination. 
These conditions would not be tolerated anywhere else in America! Yet 
the IHS continues to defer, delay and ignore our Clinic repair or 
replacement requests.
    An inspection completed on September 20, 1996, by an Environmental 
Health Specialist from the Public Health Service (PHS) listed 9 
recommendations (we would be pleased to provide a full copy of the 
engineering report to the Subcommittee upon request) of which the most 
significant was the need to build a replacement Clinic. The cost 
estimate for this construction was $980,000.00, based on an engineering 
report at that time. However, on March 19, 1999, we had an engineering 
firm evaluate our Clinic and update the estimate. The 1999 report of 
the independent engineering firm concerns us greatly. We may be without 
any Clinic facility in the very near future. The costs for replacement 
now stand at $2 million.
    According to Section 204 of the Fur Seal Amendments Act of 1983, 16 
U.S.C. 1151, the Secretary of Health and Human Services is obligated to 
provide medical and dental care. The Secretary has delegated that 
responsibility to the Indian Health Service but has not allocated the 
necessary funds to IHS to even minimally carry out the Secretary's 
special statutory obligation. Indeed, the statute requires that the 
health facilities on St. George are to be maintained and constructed, 
with all costs charged to the budget of the Secretary of Health and 
Human Services.
    Accordingly, we ask this Subcommittee to add-on or earmark $2 
million to permit emergency repairs and immediate replacement of our 
health Clinic facility given the serious deterioration and the public 
health hazard that our health Clinic has become. Thank you.
                                 ______
                                 

             Prepared Statement of the Squaxin Island Tribe

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
Squaxin Island Tribe, I thank you for this opportunity to provide 
written testimony on the fiscal year 2001 Bureau of Indian Affairs 
(BIA) and Indian Health Service (IHS). The following concerns and 
recommendations of the Squaxin Island Tribe are common, not only to us, 
but to Tribes both in our region and throughout the Nation.

                   SUMMARY OF APPROPRIATION REQUESTS

Tribal specific
    Support for $97,500 for the Squaxin Island Shellfish Management
Regional
    Support for $6.5 million for 20 Western Washington Tribes and the 
Northwest Indian; Fisheries Commission for Tribal shellfish harvest 
management, enforcement and enhancement to implement Tribal treaty 
rights through the establishment of base shellfish operations;
    Support for $3.0 million BIA, Forest Development, Woodland 
Management, Northwest Forest Plan, ``Jobs in the Woods'' initiative and 
from this amount a designation of $400,000 for the Wild Stock 
Restoration initiative;
    Support additional funding of $3.048 million for the Timber-Fish-
Wildlife Agreement to implement tribal obligations under new state and 
private forest practices, rules and regulations pertaining to ESA 
obligations,
    Support the development of a displaced fishers ``Jobs-in-the-
Woods'' program and a gear and vessel subsidized payment account
    $300,000 for the Point no Point Wildlife Program; and,
    Support all requests and recommendations of the Affiliated Tribes 
of Northwest Indians, Northwest Portland Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.
Self-Governance and other national issues
    Provision of Contract Support Funding in BIA and IHS at the level 
of need documented by Tribe for existing and emerging programs;
    Joint BIA/IHS CSC Policy should be model more in line with that of 
the IHS rather than that of the BIA;
    Competitive Awards in the IHS should be identified after 
consultation with Tribes to determine the areas for such awards;
    Provide a minimum of $25 million in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustment;
    Support at a minimum, existing funding levels within the Bureau for 
Trust Responsibility, Tribal Priority Allocation, and Self-Governance 
that pertain to Fisheries Management and U.S.-Canada Pacific Salmon 
Treaty at fiscal year 2000 levels;
    Provide $201 million for IHS mandatory, inflation and population 
growth increases needed to maintain existing health care services;
    Support Tribal Court funding to $58.4 million; and,
    Support the requests and recommendations of the National Congress 
of American Indians and the National Indian Health Board.

                     NARRATIVE SUMMARY OF REQUESTS

SE Tribal specific
    Support $97,500 for the Squaxin Island Shellfish Management. The 
Squaxin Island Tribe was a plaintiff in the court case which reaffirmed 
the Treaty rights of the Tribes in Washington State to harvest 50 
percent of the shellfish product, and to act as co-managers of the 
shellfish resources. This involves management of both inter-tidal and 
sub-tidal species of shellfish.
    For the past two years, we have been expanding our management of 
this very important resource to the Squaxin Island Tribe. Currently we 
manage the resource for about 150 Tribal harvesters who harvest 
shellfish for subsistence and commerce as has been the case since the 
Treaty was signed in 1854. To date our expanded enhancement and 
management efforts have been directly funded by Tribal dollars.
    Once again, the appellate court has upheld the District Court's 
decision, and strengthened the tribal claims. Our experience has shown 
that in order to be an effective co-manager of this resource, we need 
to be able to participate in management, enhancement, and enforcement 
activities. As managers of this resource, we will need to continue to 
expand our management capacity. This will involve specialized training 
and equipment for our harvesters, our management staff, and our 
enforcement staff.

Regional
    Support request of $6.5 million for 20 Western Washington Tribes 
and the Northwest Indian Fisheries Commission for Tribal Shellfish 
Management, Enhancement and Enforcement funding to implement Tribal 
treaty rights through the establishment of base shellfish operations.--
Additional funding to tribal programs are necessary to address these 
needs. Western Washington tribes request an additional $1,950,000 be 
added to tribal fisheries management contracts as permanent base 
funding. This would provide basic infrastructure for each tribe of 
$97,500. This would cover only the basic level of management and 
enforcement needs.
    Support for $3.0 million BIA, Forest Development, Woodland 
Management, Northwest Forest Plan, ``Jobs in the Woods'' initiative and 
from this amount a designation of $400,000 for the Wild Stock 
Restoration initiative.--We support the BIA request of $3,000,000 for 
continued implementation of the President's Northwest Forest 
Development Plan, ``Jobs in the Woods'' Initiative and the designation 
of $400,000 for the Tribal-State of Washington Wild Stock Restoration 
Initiative (WSRI). WSRI is essential to developing a habitat inventory 
base from which restorations projects can begin. This work will extend 
the effectiveness of the limited funds for restoration by providing an 
effective tool for prioritization and design of projects.
    Support additional funding of $3.048 million for the Timber-Fish-
Wildlife Agreement to implement tribal obligations under new state and 
private forest practices rules and regulations pertaining to ESA 
obligations.--This amount is needed to allow tribes to effectively 
participate in monitoring and adaptive management processes that are 
integral to the TFW process.
    Support the development of a displaced fishers ``Jobs-in-the-
Woods'' program and a gear and vessel subsidized payment account.--Such 
a program would provide meaningful work and a liveable wage for tribal 
members who are adversely impacted due to low fish populations. Such a 
program coupled with a program which provides support to fishers for 
gear and vessel payments during low fish harvests will prevent 
disastrous foreclosures and economic conditions for tribal fishers and 
related businesses.

Self-Governance and other national issues
    We support providing the requested increases for the Indian Health 
Service programs as this will begin to close the vast disparity between 
Indian health care and promotion programs and those of the rest of the 
American population. As a group, Indian people have the lowest life 
expectancy of any other group in this country. The trust relationship 
and the government-to-government relationship which exists between the 
Federal Government and Tribal Governments dictates that Native 
Americans and Alaska Natives be provided health care programs which are 
commensurate with the highest quality health care available in this 
country.
    We support providing the requested increases for the Bureau of 
Indian Affairs programs as this will provide tribes with the funds to 
improve and expand their governmental and administrative 
infrastructures so as to be fully responsive to the unique and diverse 
cultural, political, economic, social and health and welfare needs of 
their constituents.
    We support the provision of full funding Contract Support Costs 
(CSC) in the BIA and the IHS at the level of need documented by the 
Tribe up to 100 percent. CSC is an important part of the federal 
resources transferred to Tribes under Self-Determination and Self-
Governance which support vital managerial and administration functions 
essential to any government or business. Further, we support the 
distribution methodology recommended by the National Congress of 
American Indians as this appears to be the most equitable way to manage 
the gross under funding of CSC.
    We support the requests and recommendations of the Northwest 
Portland Area Indian Health Board, the and Northwest Indian Fisheries 
Commission. These consortia assist us in an efficient and cost 
effective manner, thus insuring the tribes and the Federal Government 
that scarce funds are wisely managed. Please consider their requests as 
you consider our individual submissions.
    In closing, the Squaxin Island would like to emphasize the long 
list of unmet needs that are evident throughout Indian country We are 
doing everything we can to work with the limited resources available to 
us. The health care of Indian people cannot remain at such a deplorable 
level. We are entering the next millennium, yet Indian people remain as 
the highest risk population in the Nation.
    On February 20, 1998, the U.S. President announced a ``New Racial 
and Ethnic Health Disparities Initiative''. Unfortunately, the 
Administration's initiative is inconsistent with the priorities 
presented by Indian country under the Secretary's consultation policy. 
Funding was removed from our hospitals and clinics line items to 
provide funding for Departmental initiatives. Thus, we look to this 
Committee to correct the gross negligence of our consultative input on 
the part of the Administration.
    In addition, there are three legislative measures which will 
warrant your support during this session of Congress. Each of these 
bills, if passed, will improve the quality and delivery of health 
services to Indian People. Should these items come before you, possibly 
in your capacity on another Committee of Congress, please support these 
measures. And, should you have questions, we would welcome the 
opportunity to address your inquiries. They are:
  --Support S. 979, a bill to make Self-Governance a permanent tribal 
        option in the IHS
  --Support S. 299, a bill to elevate the IHS Director to the level of 
        Assistant Secretary, with commensurate pay increase, and 
        keeping the Office of Tribal Self-Governance as a part of, and 
        co-located within that elevated office
  --Support the re-authorization of Public Law 94-437, The Indian 
        Health Care Improvement Act, with provisions to address the 
        funding needs and authorities of contracting and compacting 
        Tribes
    The Committee's support for our requests is much appreciated and on 
behalf of the Squaxin Island people, I thank you for your continued 
efforts.
                                 ______
                                 

Prepared Statement of the United Keetoowah Band of Cherokee Indians in 
                                Oklahoma

                              INTRODUCTION

    The United Keetoowah Band of Cherokee Indians in Oklahoma (UKB) is 
a federally recognized tribe in the fourteen northeastern counties of 
Oklahoma. Known as the ``Western Cherokees'' for their unilateral 
decision to avoid assimilated Cherokees who remained in the East until 
removal, the UKB is a Band of Cherokee Indians which has remained 
separate from other Cherokee groups for political, religious and 
ethnological reasons since the early 1800's.
    The UKB chose its own chiefs and captains, engaged in a distinct 
culture and government, and acted separately from the mainstream 
Cherokee Nation in numerous treaties with the United States. The 
Federal Government subjected the Eastern Cherokee, which remained in 
Georgia and Tennessee, to the Removal Policy and forcibly marched 
approximately seventeen thousand (17,000) Cherokees at gunpoint onto 
the seven million (7,000,000) acres the UKB received under the Treaty 
of 1828. These federal actions caused a forced administrative joinder 
of the UKB and what became the Cherokee Nation in the mid-1830's.
    Tense relations between Keetoowahs and the newly arrived Eastern 
Cherokees led to fierce clashes, also when the Keetoowahs sided with 
the Union in the Civil War. The Keetoowahs resisted submitting to the 
Dawes Roll and administration, so most of the allotments of the seven 
million (7,000,000) acre reservation went only to non-Keetoowahs. The 
U.S. Government promised the UKB possession and use of the unallotted 
lands within the Cherokee Nation but still ignores this promise. As a 
result, the UKB has no lands in trust. In 1993, the Department of the 
Interior reaffirmed the status of the UKB as an autonomous historical 
tribe. In 1998, the UKB began to administer its own federal programs 
for exclusive UKB members.

        LONG AND SHORT RANGE GOALS FOR SURVIVAL/SELF-SUFFICIENCY

    With limited federal funding, the UKB Tribal Council has actively 
worked for many years to maintain lines of communication between tribal 
members and the tribal government despite a denial of federal funding. 
The UKB conducted a needs assessment survey and compiled statistics for 
HUD under a Community Development Block Grant. The UKB works with local 
BIA Agency and Area Offices, RDA, EPA, the Corps of Engineers, and 
other agencies to address housing access and other community needs.

                               UKB GOALS

    The long range plan of the UKB relating to governance and 
addressing social needs reflect the UKB Charter (I and II), 
Constitution (Article III) and By-Laws, and Tribal Council Resolutions 
(see Attachment). These include:
  --Strengthening the ability of the UKB Council and Administration to 
        govern and provide for the social and economic needs of all 
        tribal members, particularly the elderly, disabled and youth;
  --Providing for unmet education and social needs of tribal members; 
        reclaiming and preserving the legal, historical and cultural 
        heritage of the UKB;
  --Achieving self-sufficiency through the generation of income by 
        tribal enterprises; maintaining economic solvency by 
        diversifying income sources.

            UKB EFFORTS TO ADDRESS CONGRESSIONAL DIRECTIVES

    To date, there have been NO formal meetings inclusive of all the 
tribes affected by Congressional Directive BIA 99-4, SR 105-227 (July 
1998). There have been informal verbal exchanges among UKB 
Councilmembers and administrators and representatives of Cherokee 
Nation of Oklahoma and the Delaware Tribe of Oklahoma in the months 
since the passage of the fiscal year 2000 budget. UKB administrators 
informed the Muskogee Area Office of efforts to address the Directive. 
On 22 June 1999, John Berry, Assistant Secretary-Policy, Management and 
Budget, Department of the Interior, provided a summary of issues and 
the status of BIA efforts to address the Directive, noting:
  --The fiscal year Annual Funding Agreement for the Self-Governance 
        Compact with Cherokees includes a provision to allow for 
        division of funds among the Cherokee, Delaware and UKB pending 
        the outcome of court actions results of legislative proposals; 
        and, development of plans, procedures and methodologies for 
        determining non-duplicative service populations and service 
        areas.
  --Presently, members of the UKB and Delaware receive all Bureau-
        funded program services through the Cherokee Nation of 
        Oklahoma. Neither of these two tribes currently receives any 
        program funds from the BIA, except the UKB has a contract with 
        the BIA for Aid to Tribal Government funds.
  --Personnel from the Muskogee BIA Area Office have met with each of 
        the three tribes in an attempt to bring the parties together. 
        While the BIA can facilitate discussions among parties, each of 
        the three tribes is responsible for service. Individuals with 
        dual enrollment may have to choose the service provider tribe. 
        These tribal disputes go back many years and are unlikely to be 
        resolved soon.
  --The UKB has never received New Tribes funds though the Delaware 
        Tribe did Informal discussions with staff of the local BIA and 
        other agency officials since July 1998 relating to 
        Congressional Directive 99-4, SR 105-227, although productive, 
        have not resulted in material progress toward assurance the UKB 
        will obtain a proportional share of the Self-Governance Compact 
        funds based on the service population of the UKB, which the 
        Cherokee Nation of Oklahoma has included in its headcount 
        without providing services. If the BIA has ``tried to bring the 
        parties together'' to negotiate these matters, those efforts 
        have not included the UKB . . . perhaps because efforts to 
        bring the CNO to the table are unavailing. The UKB has 
        undertaken the following independent actions consistent not 
        only with the need to address the Congressional Directive, but 
        also the overall UKB goals:
    Objective I: The UKB has identified the number of exclusive UKB 
members as indicated in the BIA Certified Audit.--In 1990, in 
cooperation with the Muskogee Area Office, the UKB compiled data on the 
exclusivity of UKB members and, in 1992, Rosella Garbow reported the 
UKB had approximately four thousand, seven hundred (4,700) exclusive 
members. The UKB has required all new applicants for membership to 
voluntarily relinquish membership in any other federally recognized 
tribe since September 1990. The UKB automated its enrollment system by 
June 1999. On 21 September 1999, at the request of the UKB, Muskogee 
Acting Area Director James E. Fields provided a certified audit of the 
number of UKB tribal members residing within the State of Oklahoma.
    As of this date, the membership of the UKB is six thousand (6,000). 
In the following months, the State of Oklahoma entered into both a 
Motor Fuels Tax Agreement and a Cigarette Tax Agreement with the UKB 
based upon the UKB enrollment audit. The UKB automated database 
includes the names of six thousand, one hundred, thirteen (6,113) 
persons to date, representing the total service-eligible UKB 
membership.
    Objective II: Progress toward identifying (1) UKB-owned lands, (2) 
unallotted lands within the Old Cherokee Nation, (3) the number of 
exclusive UKB members who have interests in restricted lands and 
mineral claims.--In 1999, the UKB identified some eight thousand 
(8,000) acres of unallotted acres of Cherokee lands which the United 
States promised to preserve for the benefit of the UKB by 1950 and 
identified and contacted over two hundred (200) exclusive members with 
interests in restricted lands and mineral claims throughout the nine 
UKB Districts in the fourteen northeastern counties of Oklahoma.
    Objective III: Progress toward identifying lands within the Old 
Cherokee Nation for use as a federal trust land base.--The UKB is 
investigating opportunities to acquire property in the fourteen 
northeastern counties of Oklahoma and adjacent to the present three 
acres at 2450 South Muskogee Avenue, Tahlequah, Oklahoma, 74465, on 
which the UKB tribal headquarters are located. The UKB has acquired 
over twenty (20) parcels of land in Oklahoma, in addition to other 
small parcels, from UKB members and donors since 1980 and has asked the 
Secretary of the Interior to place several parcels in trust for 
community services and economic development. The UKB is examining 
distribution, density and economic characteristics of the UKB 
population for planning purposes.
    Objective IV: Progress toward identifying funding needs of 
exclusive UKB members.--The UKB developed 2-year, 5-year, 10-year, and 
combined multi-year programmatic and economic development plans in 
1999, now under review in the course of partial implementation.
    Objective V: Progress toward identifying contract and programmatic 
funding needs for exclusive UKB members.--The UKB is seeking to 
implement plans for the responsible use of funding.

------------------------------------------------------------------------
              Year                      Source           Project Type
------------------------------------------------------------------------
1992-1998.......................  Dept. of Education  Library Grant
1998-2000.......................  BIA                 Aid to Tribal
                                                       Governments
1998, 2000......................  NAHASDA             Low-Income Housing
1998............................  CDBG                Education
1999............................  USDA                Land Acquisition &
                                                       Tribal Center
                                                       Construction
1999............................  ..................  Planning
------------------------------------------------------------------------

                                 ______
                                 

         Prepared Statement of the Port Gamble S'Klallam Tribe

    This testimony is submitted on behalf of the Port Gamble S'Klallam 
Tribe in Washington State, regarding the President's fiscal year 2001 
budget request for tribal programs in the BIA and IHS. This statement 
is presented on behalf of the elected members of the Tribal Council and 
on behalf of the Port Gamble S'Klallam people.
    Our testimony addresses four particular program areas for which the 
Tribe urges Congress to support funding increases in fiscal year 2001:
  --Point No Point Tribal Wildlife Program.--Provide $300,000 to enable 
        long-term management regarding subsistence and ceremonial 
        hunting of wild game on the Olympic Peninsula by the Point No 
        Point Treaty Tribes.
  --Cleanup of Kitsap County's Hansville landfill.--Provide resources 
        to assess the hazards to tribal members' health and begin a 
        process for cleanup of reservation groundwater and soils 
        resulting from Kitsap County's Hansville landfill.
  --Contract Support.--Provide additional funds to both BIA and IHS for 
        tribal contractors to meet the needs and expenses associated 
        with the programs they have assumed on behalf of the Federal 
        Government.
  --Tribal Courts.--Support proposed increases through BIA (and DOJ) 
        for Tribal Courts, as authorized under the Indian Tribal 
        Justice Act of 1993.

                 POINT NO POINT TRIBAL WILDLIFE PROGRAM

    The Wildlife Program serving the four Point No Point Treaty Tribes 
has become the premiere tribal wildlife program in western Washington, 
and has been critical in achieving the necessary cooperation between 
our Tribes and the State. It has provided the needed biological data, 
and coordination and facilitation to resolve state-tribal and inter-
tribal disputes over wildlife management on the Olympic Peninsula.
    The Wildlife Program has been funded since 1993 by a combination of 
grants. However, this source of funding is extremely precarious, and it 
is impossible to conduct long-term planning without a permanent source 
of program funding. We support funding for this crucial program in the 
amount of $300,000.
    Subsistence and ceremonial hunting of wild game is an essential 
cultural activity for our tribal people. The Tribes are committed to 
responsible wildlife management based on biology. Prior to our Wildlife 
Program, little biological data existed for the culturally important 
elk herds on the Olympic Peninsula. Our program has conducted extensive 
surveys and shared all our data with the State and other Olympic 
Peninsula tribes. As a result of our surveys, elk are for the first 
time being managed by both the State and Tribes from hard biological 
data.
    Elk in the east Olympics had declined to such low levels that all 
hunting had to be eliminated for several years. It was only through a 
remarkable cooperative effort between our tribal Wildlife Program and 
Washington State that we were able to rebuild the herds, through a 
combination of relocating elk, habitat enhancement and habitat 
protection. Finally in 1997 we were able to reopen a limited hunt for 
both state hunters and our people.
    There is an on-going need for research and data on which to base 
our management decisions. It is only through funding this program that 
we can continue to responsibly co-manage our essential wildlife 
resource.

             CLEANUP OF KITSAP COUNTY'S HANSVILLE LANDFILL

    The Port Gamble S'Klallam Reservation, located in Washington State, 
is held in trust by the United States for the benefit of the Tribe. 100 
percent of our reservation is in trust status; none of our lands have 
ever been individually allotted.
    Kitsap County sited a landfill uphill from the Port Gamble 
S'Klallam Reservation in 1962. For nearly 40 years, virtually all of 
the hazardous chemicals from the landfill flowed directly into the 
Reservation groundwater and soils. Although there has been monitoring 
of groundwater, we don't know how much pollution to expect or how long 
it will persist. It is also not known whether the pollution has 
impacted the Tribe's drinking water, our shellfish and the salmon 
reared in the reservation hatchery. The tribal diet and economy both 
center on these resources. It appears that at least 25 percent of the 
Tribe's land may be subject to use restrictions to protect public 
health.
    There is an immediate and critical need for financial and technical 
support to:
  --ensure that adequate sampling and monitoring of the Reservation's 
        environment occurs;
  --complete a risk assessment on the hazards to the health of tribal 
        members is prepared, based on the best scientific evidence 
        available;
  --ensure that the United States' and the Tribe's legal rights are 
        protected; and
  --secure an alternate source of drinking water.

                            CONTRACT SUPPORT

    In fiscal year 2001, Contract Support Costs are proposed for a 
total level of $128.7 million within the BIA Tribal Priority 
Allocations account. Although this amount is $3.5 million over the 
fiscal year 2000 enacted level, it will still leave a shortfall of 
approximately 12 percent (nearly $17 million). An additional $5 million 
is requested for new and expanded contracts under the Indian Self-
Determination Fund. Within IHS, the budget proposes a $40 million 
increase for Contract Support Costs, for an fiscal year 2001 total of 
$268.8 million. Of this total, $40 million is for new and expanded 638 
contracts and Self-Governance compacts. These increases will go a long 
way towards assisting contracting and compacting Indian tribes in 
meeting the incidental needs and expenses associated with the Federal 
programs they have chosen to administer for the benefit of their Indian 
communities.
    We are aware that Congress has provided increases for both BIA and 
IHS Contract Support Costs in both the fiscal year 1999 and fiscal year 
2000 appropriations bills, and that the Appropriations Committees have 
labored with tribes and agency representatives to address contract 
support cost funding disparities among tribes. These increases and this 
work have been productive; unfortunately, they have not provided tribes 
with all the resources necessary to assume tribal administration of 
Federal programs under the Indian Self-Determination Act, as Congress 
had envisioned. We urge this Subcommittee to support the proposed 
increases for fiscal year 2001 for both BIA and IHS Contract Support 
Costs.
    The Port Gamble S'Klallam Tribe has consistently been in the bottom 
of the heap on IHS Contract Support Costs. Funding levels have been at 
70 percent from 1994 through 1998, with a slight increase to 76.28 
percent in 1999. The Tribe waited for five years on the Indian Self-
Determination list for full funding, only to have the new 1999 funds 
distributed to all tribes, rather than those who had been on the list 
the longest. This was another promise that was not kept.
    As the court determined in Ramah Navajo v. Lujan, tribal 
contractors are entitled to receive the full amount of funds necessary 
to meet the costs of supporting the Federal programs they have assumed 
under contracts and compacts. Despite this decision, the 
Administration's fiscal year 2001 requests for contract support funding 
remain short of meeting the full needs of tribal contractors.
    As a Self-Governance Tribe, we have assumed the responsibility for 
delivering governmental services directly to the local community, which 
has resulted in more cost effective and efficient delivery of services. 
Because of the contract support shortfall, however, the gains we make 
in program delivery have been significantly diminished. If the 
shortfall continues through the upcoming fiscal year, our Tribe will 
again be faced with making very difficult choices to use funds 
otherwise identified for a particular program--such as daycare, 
education and senior citizen housing--to cover the contract support 
shortfall.

                             TRIBAL COURTS

    In the BIA's fiscal year 2001 budget request, an additional $1.3 
million is requested within the BIA's Tribal Priority Allocations 
account for tribal courts, as initial funding pursuant to the Indian 
Tribal Justice Act of 1993, to provide financial and technical 
assistance for the development and enhancement of tribal judicial 
systems. We urge this Subcommittee to support this proposed increase 
for Tribal Courts. (We also wish to express our support for the $15 
million for Tribal Courts through the Department of Justice.)
    We also feel we must note that the amount requested by BIA for 
fiscal year 2001 is nowhere near the level of funds authorized under 
the Tribal Justice Act or what is needed to support strong tribal 
judicial systems. Adequate funding for tribal justice systems will help 
ensure equal access to justice and the tools necessary to implement 
justice so that whole communities, individuals, local businesses, 
service vendors and contractors, schools, and local government benefit. 
Adequate funding for our court and all tribal courts enables tribal 
governments to provide the necessary judicial services to all the 
citizens of the reservation, both Indian and non-Indian, and to respect 
the civil rights of each individual in that judicial system.
    The Port Gamble S'Klallam Tribe's court is part of the Northwest 
Intertribal Court System, and hears cases on criminal, civil, traffic, 
child welfare, juvenile, domestic violence, hunting, fishing, housing, 
and adult protection issues. Our tribal court staff is made up of a 
judge, prosecutor, court administrator, court clerk, court compliance 
officer and support staff. Our tribal enforcement and justice officials 
work in concert with Federal and State law enforcement, prosecutors and 
courts to address the inter-jurisdictional problems associated with 
enforcement of child abuse, drug crimes, and child support on the 
Reservation.
    Thank you for this opportunity to submit this testimony on fiscal 
year 2001 funding for tribal programs in the BIA and IHS.
                                 ______
                                 

Prepared Statement of the Stockbridge-Munsee Community Band of Mohican 
                                Indians

    Thank you for this opportunity to submit the testimony of the 
Stockbridge-Munsee Community Band of Mohican Indians to the Senate 
Interior Appropriations Subcommittee regarding the President's fiscal 
year 2001 budget request for programs within the Indian Health Service. 
Our testimony focuses on fiscal year 2001 funding for one specific 
program, which the Tribe strongly supports. We respectfully request 
this Subcommittee's favorable consideration to fund the IHS Joint 
Venture Construction Program in fiscal year 2001 at a level of $15 
million. The Joint Venture Program is an innovative approach to enable 
tribes and the Federal Government to construct or acquire facilities in 
order to provide meaningful health care to Indian people. We hope that 
Congress will support this program by providing funding in fiscal year 
2001.
    Background on the Stockbridge-Munsee Tribe.--The Stockbridge-Munsee 
Tribe was once located in what is now the northeastern United States. 
However, in the early 1800s, we were removed from our ancestral lands 
to Indiana, and later relocated to what became the State of Wisconsin. 
Since 1856, our homeland has been a 46,000-acre reservation in central 
Wisconsin. The Tribe has nearly 1,500 tribal members, over 800 of whom 
live on the reservation. The Tribe employees approximately 700 people--
members and non-members--in our tribal programs and economic 
enterprises, including our small but successful casino and bingo 
operation, and is the largest employer in Shawano County, WI. 
Currently, the Mohican North Star casino employs some 550 people, about 
three-fourths of whom are non-tribal members. The Community uses our 
modest gaming proceeds to supplement funding for all our tribal 
governmental programs, including Elderly Assistance, Higher Education 
and Vocational Training, Housing Assistance, and Economic Development. 
However, gaming revenues make up only approximately 40 percent of the 
Tribe's fiscal operating budget.
    Support for fiscal year 2001 Funding for IHS Joint Venture 
Construction Program.--As the Subcommittee may know, the IHS joint 
venture demonstration projects program was authorized in 1990 under the 
Indian Health Care Improvement Act (25 U.S.C. 1680h(e)). The 
Stockbridge-Munsee Community is a member of the Tribal Nations Joint 
Venture Coalition for Health Facilities, a coalition of some 20 tribes 
from across the United States which would like to use the joint venture 
approach to draw upon non-federal funds to construct health facilities 
in our communities. Under the current joint venture demonstration 
program, a tribe would use tribal, private sector or other available 
non-tribal funds, including loan guarantees, to acquire or construct a 
health facility under a 20-year, no-cost lease. IHS would then provide 
equipment, supplies and staffing to operate and maintain that facility. 
To date, $1.66 million has been appropriated under the program, and was 
used by tribes in Oregon and Oklahoma to build facilities which were 
completed in the early 1990's.
    Report language accompanying both the fiscal year 1999 and fiscal 
year 2000 Interior appropriations bills directed the IHS to consider 
reinstituting the joint venture facilities construction program in the 
next budget cycle, as well as to continue to work with tribes to 
identify and implement alternative and innovative approaches to funding 
construction of health care facilities.
    We are aware that in its needs-based fiscal year 2000 budget 
submission to the Secretary of the Department of Health and Human 
Services, the IHS requested $15 million for the Joint Venture Program, 
which the Department supported. IHS and the Department of Health and 
Human Services, in fact, appealed a level of $15 million for the Joint 
Venture Program, which the Office of Management and Budget declined to 
include in the budget request. For fiscal year 2001, IHS and the 
Department again supported an initial level of $15 million, and 
appealed a funding level of $5 million, and again, OMB rejected this 
request. We applaud IHS and the Department for their support for the 
Joint Venture Construction Program, and regret that in the scheme of 
overall budgetary priorities, fiscal year 2001 funding was not 
requested.
    Facilities construction--whether schools, water treatment, health 
care or jails and detention center facilities construction--is a huge 
unmet need in Indian Country. Understanding that need, we applaud the 
Administration's significant funding increase, proposed for fiscal year 
2001, through the Bureau of Indian Affairs for replacement education 
construction, as well as the funds requested for a new Indian school 
construction bonding initiative. We also support the Administration's 
fiscal year 2001 budget request for IHS' Construction account, of which 
total $65.2 million is requested for Health Care Facilities 
Construction, to continue construction of two hospitals and an 
outpatient facility, and $2.5 million for the Small Ambulatory Grant 
program.
    In developing its needs-based budget request for fiscal year 2001, 
IHS determined that the need for health facilities infrastructure, 
maintenance and equipment needs is more than $7 billion.--The 
facilities which are on the IHS Facilities Priority List deserve 
funding; however, if tribes' only option for a health care facility is 
to be funded under the Construction Priority System list, tribes lowest 
on the queue will not see construction begun for at least 30 years. 
Given the facilities backlog, we believe that an alternative such as 
the Joint Venture Program also deserves Congress' support for fiscal 
year 2001 funding.
    The Stockbridge-Munsee Tribe has been participating with other 
tribes in discussions on legislation to reauthorize and amend the 
Indian Health Care Improvement Act. We are pleased that legislation 
which is currently pending before the House of Representatives (H.R. 
3397) includes provisions for the IHS/tribal facilities joint venture 
program. We especially support new language included in H.R. 3397 which 
would provide that a tribe that ``has begun and substantially completed 
the process of acquisition or construction of a health facility shall 
be eligible to establish a joint venture project with the Service using 
such health facility.'' As explained below, the Tribe has expended its 
own funds and obtained non-IHS funding in order to start construction 
on a new health care facility.
    How the Joint Venture Program Would Benefit the Stockbridge-Munsee 
Tribe.--Currently, the Stockbridge-Munsee Tribe has a small, 14,000 
square-foot health clinic which was built in 1973. During a typical 
month, the clinic provides medical services to over 1,200 patients, 
dental care to 200 patients, and fills over 1,000 prescriptions at the 
pharmacy. Annually, the current staff of some 42 full-time and one 
part-time employees and six full- or part-time physicians and dentists 
provides necessary and essential medical treatment to over 2,300 
people--tribal members and Indians who are members of other tribes but 
live on our reservation, and numerous non-Indians who live within the 
original boundaries of the reservation.
    The severe space limitations, existing structural problems and poor 
condition of the clinic have made providing necessary medical services 
very difficult. After two additions to the clinic, future additions are 
not economically efficient, or even practical. In 1996, the Tribe 
received a HUD Community Development Block Grant toward the 
construction of the new health clinic and wellness center. The Tribe 
paid for the costs of designing the facility out of tribal funds, and 
provided the funds to hire an architectural firm which prepared a 
preliminary cite evaluation and the design of the layout and floor 
plans of the new facility. In the fall of 1999, the Tribe began 
construction of the new Stockbridge-Munsee Community Health Center, 
which will provide direct health care services to a projected user 
population of 2,900 Indian patients. The Tribal Council also authorized 
taking tribal funds from other programs in order to fund this priority 
for the Stockbridge-Munsee Community. We estimate that the Tribe will 
have expended some $4.5 million of our own tribal funds for this 
facility construction project.
    Since the Tribe is expending these funds for construction of the 
facility, we need funding for staffing, supplies and equipment. The 
Tribe would like to be able to ``joint venture'' with the Indian Health 
Service for personnel, supplies and equipment.
    The Stockbridge-Munsee Tribe has been actively participating in the 
Tribal Nations Joint Venture Coalition for Health Facilities in 
meetings with IHS and OMB. We are aware that some issues have been 
raised--such as flexibility to negotiate terms of the project 
arrangement; scoring, especially in the outyears; and from which IHS 
account funding would come, since the Joint Venture Program would 
involve both the Services and the Facilities accounts when providing 
for personnel and equipment costs after the facility has been 
constructed or acquired. We believe these concerns can be addressed 
satisfactorily in the Indian Health Care Improvement Act 
reauthorization process.
    We strongly urge the Congress to provide an fiscal year 2001 
funding level of $15 million for the IHS Joint Venture Construction 
Program. Although the IHS has made some steps toward holding 
consultations with tribes regarding the initial development of a 
methodology for how funds would be allocated under the Joint Venture 
Program, if appropriations are provided, we would also suggest the 
Subcommittee consider report language, encouraging further methodology 
discussions.
    Thank you again for this opportunity to submit this statement to 
this Subcommittee on behalf of the Stockbridge-Munsee Tribe. We 
appreciate your consideration of this request, which will enable us to 
provide our people and members of the surrounding community with 
adequate health care services.
                                 ______
                                 

            Prepared Statement of the Quinault Indian Nation

    Mr. Chairman and members of the Committee: It is my pleasure to 
submit testimony as President of the Quinault Indian Nation to this 
Committee to present the position of the Quinault tribal government 
with respect to the fiscal year 2001 BIA and HIS appropriations 
requests.
    The Quinault Nation urges this Committee and other members of the 
Senate to support the Administration's budget request for Indian 
Country. Although every additional dollar included in the 
Administration's proposal is needed and we welcome the increases 
included in the request, for too long the real needs of Indian Country 
have been neglected. The problems we must speak to as tribal leaders 
are complicated and expensive to fix: we are behind in almost any 
measure of quality of life and opportunity for our people. Although 
this budget request represents a significant increase in resources, we 
see it as one step on a long road. But that road leads to opportunity 
for our tribal members and we are determined to walk it.
    Across Indian Country two federal programs have a direct impact on 
our individual tribal members: the law enforcement programs and the 
Indian health services programs. In particular, I ask that you support 
the almost $20 million addition requested for the highly successful Law 
Enforcement in Indian Country Initiative, as well as for the $220 
million additional funds requested for Indian Health Services programs. 
Before they can take advantage of any opportunity our tribal members 
must be safe and healthy.
    In his historic visit to the Pine Ridge Reservation in July last 
year, the President called this country's attention to the conditions 
that exist in many Native communities today. The President declared 
that the federal government is asking what needs to be done in our 
communities and offered tribes the tools and support to accomplish 
those tasks for our children and their future. I am asking that this 
Committee as well as all members of Congress listen with open hearts 
and minds to what really is needed in my part of Indian Country--the 
Quinault Indian Reservation, in Washington State.

           QUINAULT INDIAN NATION REQUESTS: TRIBAL PRIORITIES

    A continuing theme you will note in this list of priorities is the 
need for facilities construction funding. There are very few sources of 
funding available through the federal government for new facilities--
only the HUD CDBG program and the notoriously under-funded IHS and BIA 
facilities construction line items, which are primarily sources of 
funding for federal, not tribal, facilities. Within Indian Country, 
there are very few tribes that have unencumbered funds they can use to 
borrow the money needed to build new facilities nor do we have a tax 
base to turn to. Attention needs to be paid to how the federal 
government can assist tribes with their facilities construction needs. 
There are alternative approaches to financing tribal facilities, such 
as co-financing, joint ventures, loan guarantees and bonding. We urge 
the Committee to help us develop these options as a substitute for 
dependence on Congressional appropriations.

IHS--Health Facilities Construction/Assisted Living Center--
    Increase..................................................  $500,000

    Again this year, the first priority of the Quinault Nation for the 
fiscal year 2001 is the construction of an assisted living facility for 
tribal elders on the reservation. As with all tribes, we value our 
Quinault elders and desire to provide a reservation-based facility to 
care for those elders in need of care. Because of the remote location 
of our reservation villages, there are no resources for this 
population. Therefore, we urge the Committee to support increased 
appropriations for IHS Facilities Construction to cut back on the $1 
billion identified backlog. With respect to the Quinault Nation, we 
again request that at least $500,000 be identified within the IHS 
budget for the first phase of an Elders Assisted Living Facility on the 
Quinault Reservation and to continue the planning and development phase 
for a new clinic in Taholah.

Queets Fish Buying Station....................................  $500,000

    The Village of Queets is located on the northern boundary of the 
Quinault Reservation and is the second largest concentration of people 
on the reservation. The Queets Fish House is an important part of the 
village economy and must continue to operate to support many people in 
the village. The present structure is dilapidated and has, in fact, 
been condemned. The structure continues to be used simply because there 
is no alternative. The Nation has been seeking funding to construct a 
replacement for this building for several years. Replacement costs have 
been estimated at $500,000. We request that this amount be identified 
in the fiscal year 2001 appropriations specifically for this purpose.

Tribal Court and Reservation Law Enforcement..................  $750,000

    The Quinault Nation supports the $1.5 million request for Tribal 
Courts contained in the Presidential Initiative on Law Enforcement in 
Indian Country. The Tribal Court for the Quinault Nation is housed in a 
trailer owned by the BIA. The Tribal Court is expected to deal with an 
expanding array of cases in a facility that is in a state of practical 
ruin. The structure itself leaks and has an unstable floor. In the 
Courts most recent annual report, the Chief Judge notes the need for a 
new courthouse and a need for additional staff to keep pace with 
increased caseloads.
    An example of the need for new court staff is the need for a 
Process Server. Presently court summons and subpoenas are delivered by 
tribal police officers. Since process service is not priority for on-
duty officers, this sometimes means a considerable delay in delivering 
documents. This illustrates the link between law enforcement and 
judicial services. It also points to the desperate need for additional 
funding for all aspects of reservation law enforcement. In fiscal year 
2000, you approved a $20 million increase for law enforcement on 
reservations. As important as that increase was, more is needed.
    The Quinault Nation needs additional police officers and equipment 
if it is to meet its enforcement responsibilities. Currently, the 
Quinault Tribal Police Department is under the supervision of a Chief 
of Police and is comprised of seven patrol officers, four fisheries 
enforcement officers, two forestry trespass officers, one game warden, 
four corrections officers, one corrections/animal control officer, and 
support staff. The Washington State Criminal Justice Training 
Commission has certified each officer in the Quinault Tribal Police 
Department. The Nation under a Self-Governance Compact with the Bureau 
of Indian Affairs operates the Tribal Police Department.
    The Quinault Nation Police must provide all forms of law 
enforcement on the 200,000 acres reservation, 24 hours a day, 365 days 
a year. In addition to general duties in the two villages and on the 
roads and highways of the reservation, tribal police are responsible 
for enforcing tribal hunting, fishing and gathering activities on the 
reservation (including 26 miles of coastal shoreline); and in ``usual 
and accustomed places'' off the reservation. In addition, the 
Department is responsible for enforcing tribal jurisdiction on the 
Pacific Ocean out to the territorial limits. Our officers cannot 
enforce tribal or federal laws over ocean activities because of lack of 
communications and other equipment capable of reaching from shore to 
ocean-going vessels. It would be difficult to identify another law 
enforcement agency at any level of government with a more diverse set 
of responsibilities than the Quinault Tribal Police Department.
    The Police Chief has indicated that the Department needs to add an 
officer specifically to work with juvenile offenses. He has also 
requested the installation of surveillance equipment to address 
``trouble spots'' in Taholah to reduce drug activity and vandalism. The 
Nation has not been able to access Department of Justice programs such 
as COPS due to certain restrictions placed on the program by DOJ. The 
tribe is not able, for example, to guarantee funding for new officers 
beyond the life of the COPS grant. In addition, the administrative cost 
limits imposed by the DOJ program force the tribe to defer applications 
for these funds. We must therefore request additional funds from the 
BIA to develop law enforcement capacities on the reservation.

Addressing issues of the ``Digital Divide''...................  $200,000

    In the area of telecommunications and technology, the phrase, 
``digital divide'' has gained prominence in recent years. The phrase 
denotes the creation of a class of ``haves'' and have-nots'' in the use 
of technology and telecommunications. The Quinault Nation has committed 
considerable effort and resources to incorporate the appropriate use of 
technology into tribal operations. However, again due to our location 
in a remote, rural area, issues of resources have created the threat of 
cutting the Quinault people off from the main flow of the information 
superhighway.
    This issue is closely related to the needs of law enforcement 
discussed earlier. For some time, the Nation has sought to improve 
communications for the police and the rest of the community by 
installing a new communications tower on the reservation. A new tower 
would enable more reliable police communication and enable the 
department to communicate with boats at sea. The tower would also 
enable other tribal operations in Taholah to communicate more 
effectively with tribal offices in Queets. The limitations of local 
telecommunications company equipment make it impossible to install 
high-speed network connections between the main tribal offices in 
Taholah and satellite operations in Queets. Developments in wireless 
networks combined with the proposed tower would permit tribal 
government to connect its various operations to its network. The nation 
seeks this Committee's support in obtaining an appropriation of 
$200,000 to install this much-needed telecommunications facility and 
related equipment.

Disaster Relief for the Quinault Reservation..................  $250,000

    During the winter of 1999 Washington's Olympic Peninsula 
experienced extreme storm damage. On the Quinault Reservation floods 
destroyed several bridges connecting the north and south part of the 
reservation and destroying the evacuation route in the event of a 
tsunami. The Village of Queets is located 11 miles ``as the crow 
flies'' from the Village of Taholah, the seat of tribal government and 
home to most tribal services. Despite the fact that the two villages 
are fairly close together, the physical separation of the villages is 
complicated by geography and the whimsy of the public road system. As 
noted in much of this testimony, the connection between the two 
villages is important to the growth of our tribal nation. Before the 
flood damage, the trip from Taholah to Queets could be made in 30 to 40 
minutes, after the flood, it is now a 75 mile trip taking close to two 
hours.
    The floods also devastated miles of vital salmon spawning habitat. 
This environmental disaster will almost certainly result in even 
greater hardship for our already besieged tribal fisheries. Last year I 
reported to this Committee that a combined grant and loan program was 
needed to fund a program for distressed tribal fishermen. The floods of 
1999 will undoubtedly increase that need. Already this year, the 
Quinault Nation has had to restrict its own harvest to protect the few 
fish that are returning to spawn in reservation waters. The impact on 
families that have for generations depended on salmon for their 
livelihood is nothing short of catastrophic. The Quinault Nation again 
asks for fiscal year 2001 funds to design a program to retrain tribal 
fishermen by putting them to work in habitat restoration projects that 
will provide the opportunity for future generations of Quinault people 
to harvest restored salmon runs.
    Finally, as members of the Washington State delegation are well 
aware, the Quinault Nation has patiently and tenaciously worked for 
five years to resolve a dispute between the Department of the Interior 
and the Nation over the use of tribal lands for endangered species. 
Although personally I am very frustrated, I remain committed to finding 
a solution. I look forward to working with members of this Committee to 
see the proposed solution become a reality. I would like to thank the 
members of the Committee for considering the testimony of the Quinault 
Nation.
                                 ______
                                 

           Prepared Statement of the Spokane Tribe of Indians

    On behalf of the Spokane Tribe of Indians, I am pleased to submit 
to this distinguished Subcommittee our Tribe's testimony on the 
Administration's proposed fiscal year 2001 budget request for programs 
in the BIA and IHS.
    The Tribe is located in Eastern Washington, has 2,267 members and a 
Reservation of 156,000 acres. While the Spokane Tribe was historically 
a fishing tribe, we now rely primarily on timber for tribal income.
    Let me begin by expressing the thanks and strong support of the 
Spokane Tribe for the President's fiscal year 2001 budget request, 
which contains $1.2 billion in increases over the fiscal year 2000 
enacted level for tribal programs within a number of federal agencies. 
The budget request would provide a total funding level of $9.4 billion 
in fiscal year 2001 for new and existing federal programs serving 
American Indians and Alaska Natives. While we recognize that the 
Subcommittee has many priorities which demand its attention, we urge 
you to support particularly the proposed fiscal year 2001 funding 
increases under the ``First Americans: Stewardship, Investment and Hope 
Initiative'' in the Bureau of Indian Affairs, and the significant $230 
million increase proposed for programs within the Indian Health 
Service. Our more specific requests are described below.

                        BUREAU OF INDIAN AFFAIRS

    General.--In general, the Spokane Tribe supports the overall 
increase of $331.9 million over the fiscal year 2000 enacted level for 
programs within the Bureau of Indian Affairs. In particular, we support 
the $5 million requested for new and expanded contracts under the 
Indian Self-Determination Fund and the additional $3.5 million for 
Contract Support for on-going contracts; the proposed increase of $2.9 
million for Operating Grants for Tribally Controlled Community 
Colleges; and the proposed increase of $18.8 million for BIA Law 
Enforcement to fund tribal personnel, equipment and detention services.

                  UPPER COLUMBIA UNITED TRIBES (UCUT)

    The Upper Columbia United Tribes (UCUT) program serves the vital 
interests of the Confederated Colville Tribe, and the Coeur d'Alene, 
Kalispel, Kootenai and Spokane Tribes, which are the five tribal 
entities in the geographic region above the Grand Coulee Dam. 
Operations of hydroelectric facilities, as well as contamination from 
mining, industrial and sewage facilities, and agriculture and other 
development, continue to have devastating impacts on the UCUT Tribes' 
cultural, fish and wildlife and water resources. UCUT appropriations 
are used to implement, monitor and evaluate natural and cultural 
resource plans, and to coordinate management activities with state, 
federal and other tribal governments.
    Combined, the five UCUT tribal entities represent 16,221 tribal 
members and 1,905,879 acres of land resources. The Tribal Councils of 
UCUT have reinforced UCUT's mission to address not only fish and 
wildlife, but also cultural matters, water resources, and economic 
development issues common to all the UCUT members Tribes. The UCUT 
Tribes participate actively in regional intergovernmental forums 
related to UCUT mission topics, and need funding sufficient to continue 
and expand the UCUT mission.
    In fiscal year 1999, the Confederated Tribes of the Colville 
Reservation formally joined UCUT, adding the interests of 8,000 more 
tribal members and 1.4 million additional acres of Reservation lands to 
the realm of UCUT concerns. Despite this significant addition, not to 
mention needed adjustments for inflation, UCUT has only received the 
most modest of funding increases over the past four fiscal years.
    Within BIA's Other Recurring Programs--Resources Management 
account, Rights Protection Implementation program, the President's 
fiscal year 2001 budget requests $318,000 for UCUT, a $9,000 increase 
over the fiscal year 2000 enacted level. The Spokane Tribe requests 
that this Subcommittee consider providing a level of $650,000 for 
fiscal year 2001 for this program. This amount would provide base 
funding of $100,000 for each Tribe and a modest budget of $150,000 to 
cover the costs for a central office to coordinate, provide policy 
analysis, and serve as a liaison for the member tribes. This funding 
level would help to insure that the Tribes can maintain their fish and 
wildlife activities, as well as to cover the expanded mission of issues 
crucial to protection of cultural and water resources as required by 
numerous federal laws.

                       LAKE ROOSEVELT MANAGEMENT

    A second program within BIA's Rights Protection Implementation 
program which the Spokane Tribe strongly supports is the Lake Roosevelt 
management program. As the distinguished Chairman of the Subcommittee 
knows, Lake Roosevelt was formed when the Grand Coulee Dam was 
constructed in the early 1940s. Both the Spokane and Colville Tribes 
participate in the management of the environment and the recreational 
uses of the area surrounding the Lake, pursuant to a cooperative 
management agreement entered into between the Tribes and the Department 
of the Interior.
    For fiscal year 2001, the President's budget request proposes a 
$17,000 increase for Lake Roosevelt management, for a proposed level of 
$631,000. The Tribe supports the proposed increase. For the 
Subcommittee's information, the Spokane Tribe's contract amount, which 
supports salaries and vehicle costs for three rangers is $185,000. The 
actual, documented need is $285,000, an amount which would enable the 
Tribe to fund the parks maintenance staff, vehicles and supplies. 
Therefore, the Spokane Tribe requests an additional $100,000 earmarked 
for the Tribe's management contract for Lake Roosevelt.

            WESTERN WASHINGTON TIMBER-FISH-WILDLIFE PROJECT

    For the Western Washington Timber-Fish-Wildlife Project, the 
President's fiscal year 2001 budget request does not propose to 
continue the additional funding of $3.1 million which Congress provided 
in fiscal year 2000 for the TFW Initiative.
    The Spokane Tribe has one TFW biologist who covers all forest 
practices on and adjacent to the Spokane Indian Reservation. The 
Tribe's base funds have remained flat, as have those for all the 
Washington TFW tribes, even though we are expected to be active 
participants on timber harvest activities (participating in numerous 
processes, complying with federal regulations, etc.). Given the 
importance of the TFW program to the Spokane Tribe and others, we urge 
the Subcommittee to restore funds for this program in fiscal year 2001.

                         INDIAN HEALTH SERVICE

    The Spokane Tribe strongly supports the proposed increase of nearly 
$230 million over the fiscal year 2000 enacted level in fiscal year 
2001 for Indian Health Service programs. This significant increase of 
nearly 10 percent is wonderful news, since virtually every health 
program now operated by the IHS, by tribes and by urban programs is 
seriously underfunded and has been for years. We hope that the 
Subcommittee will support this additional funding.
    It is easy to be overwhelmed by the extreme level of need in Indian 
communities, especially for health care. Even the strong IHS funding 
request for $2.6 billion in fiscal year 2001 gets virtually lost 
against the $15.1 billion needed to achieve parity in health care for 
American Indians and Alaska Natives with that provided to the U.S. 
population in general. A request for $60.7 million in pay-related costs 
is small compared with the need: $117 million for pay costs, inflation 
and additional medical inflation. And, ultimately, no funds were 
requested for population growth, for which $44.5 million is needed in 
fiscal year 2001. We urge the Congress to support the requested 
increases and provide additional resources--such as fully funding 
mandatory cost increases for current services--to address the critical 
health needs of Indian people.
    In particular, the Spokane Tribe urges the Subcommittee to increase 
funding for the Community Health Representatives (CHR) program to at 
least the proposed fiscal year 2001 level of $51.1 million. The Spokane 
Tribe strongly supports the CHR program, which was impacted by the 
rescissions imposed under the fiscal year 2000 omnibus appropriations 
Act. The proposed level for this important preventive health program 
represents only a 3 percent increase over the previous year's amount.
    While we appreciate the Administration's commitment to address 
racial and ethnic Health Disparities by including funding for diabetes, 
elder health, maternal and child health, and domestic and community 
violence--all of which are certainly critical issues in Indian 
country--we are concerned that those proposed funding increases are at 
the expense of current services, which, as already noted, are severely 
strained because of population growth and inflation.
    The Spokane Tribe also supports the testimony of the Northwest 
Portland Area Indian Health Board in its entirety. The Spokane Tribe 
actively participates with the Board and in the budget formulation 
process with IHS, which we have found to be an effective dialogue in 
truly representing to the Administration and the Congress the funding 
needs for health care by tribes and urban centers.
    Thank you very much for the opportunity to present to the Senate 
Interior Appropriations Subcommittee the fiscal year 2001 funding 
requests of the Spokane Tribe for the BIA and IHS. We hope that the 
Congress, as the Administration has proposed, will see the fiscal year 
2001 appropriations cycle as an opportunity for stewardship, investment 
and hope for the First Americans.
                                 ______
                                 

         Prepared Statement of the Yakama Nation Tribal Council

    Dear Chairman Gorton and Members of the Interior Subcommittee, my 
name is Lonnie Selam Sr. and I am the duly elected Chairman of the 
Yakama Nation Tribal Council located in Toppenish, WA. My purpose in 
writing you is to request additional congressional appropriations 
necessary for the Yakama Nation to adequately address its governmental 
functions in fiscal year 2001. Note that this full request adds to and 
slightly modifies the priorities of the March 6 request submitted to 
Kari Vander Stoep of your staff.
    The Yakama Nation has tremendous responsibility for many square 
miles of natural resources, and timber is the basis of our economy. The 
President's budget request, and the likely budget from Congress, while 
providing welcome additions to education, law enforcement, and trust 
fund reform, has left natural resources funding flat. We turn to you 
for help in arresting the decline of the these resources so important 
to the Yakama people both economically and spiritually, and to help us 
with declines in the social services that our people depend upon.
    The following requests represent our most immediate needs, and are 
listed highest priority first. Please be aware that the process of 
triage has forced us to exclude dire needs for additional education 
funding, alcohol treatment funding, adult education, scholarships, 
economic development projects, and other items relating to the 
guarantee and benefits agreed to in the Treaty of 1855 including 
hunting, fishing, grazing and gathering.
    Please include our written testimony in the permanent record.
Background: The Spruce Budworm Infestation
    The Yakama Reservation forest is the host of a Spruce budworm 
infestation, and a related buildup of Douglas fir bark beetles, that 
presently impacts approximately 300,000 acres, or roughly \1/2\ of our 
forest. The situation is the worst Spruce budworm epidemic in the 
western United States. This infestation directly results from past 
management practices by the Bureau of Indian Affairs. We have 
identified 200,000 acres in need of forest development treatment, which 
was acknowledged by the Bureau of Indian Affairs Central Forestry 
Office. Our forest management needs are also documented by a General 
Accounting Office report stating that we are not able to accomplish all 
of the regular forest development work even when approximately one-half 
of the projects are paid for with tribal funds (GAO/RCED-91-53, March 
1991).
    This situation presents the possibility of a landscape-level 
wildfire at worst and extreme loss of income from unsalvaged timber at 
best. Because this situation threatens not only the economic well being 
and sacred resources of the YN, but the forest products industry of 
central Washington as well, the YN Tribal Council declared a state of 
emergency in September 1999. The three highest priority requests below 
are directly related to the budworm epidemic.

Signal Peak Road Repair.......................................$1,845,000

    This item is so important that we submitted it as a request for the 
fiscal year 2000 Supplemental Appropriations bill, which, according to 
the most recent news reports, may not happen this year.
    The Signal Peak road normally handles truck traffic related to the 
hauling of 90 million board-feet of timber annually. Last year, to deal 
with salvaging as many infested trees as we could before they became 
unmerchantable, the Signal Peak road handled the output of 225 million 
board-feet of timber. We will not be able to haul trees out of our 
forest if it is not repaired, and those trees will then become useless 
as a result of budworm damage. Total costs for road repair are over $13 
million, but we could make do for a period of time with the repair of 
the worst sections as identified in the study conducted by G N 
Northern, Inc. These sections are Mileposts 26-30 (through the ``Cinder 
Pit''), a section that has already failed, and Milepost 31.2, where 
springs have surfaced through the pavement. Total cost for this scaled 
back repair is $1.845 million, which includes field engineering, 
surveying, project management, materials testing, construction and 
maintenance of a traffic bypass.

Spruce Budworm Epidemic: Field Assessment.....................  $425,000

    The YN is requesting $425,000 in new programmatic money to initiate 
forest management activities relating to the control of the Spruce 
Budworm epidemic.
    This request will focus on the planning, conditioning, and 
implementation of alternative timber sales, consistent with all ESA, 
NEPA, and tribal guidelines, in those areas impacted by the 
infestation. The funds will support a field-based inter-disciplinary 
team whose job will be to rapidly condition the budworm sale area 
consistent with the above obligations. Without this support, the gains 
in time delay accrued by the Bt spraying project of fiscal year 1999 
(thank you!) may not be realized, as the areas in need of harvest 
greatly exceed the capacity of the existing staff to structure timber 
sales.

Spruce Budworm Epidemic: Forest Development...................  $400,000

    In order to continue sound forest management practices we ask for 
the continued appropriation of the current $600,000 Congressional add-
on funds for this program and request an additional $400,000 of new 
funds. These monies will be used for forest development treatments on 
approximately 30,000 acres of the most severely infected Spruce Budworm 
stands. Forest development activities include reforestation, timber 
stand improvements, and related investments that enhance productivity. 
Funds for the program are used to establish, maintain, and improve the 
growth of our sacred forest. These projects create jobs, provide 
positive economic return, and aid in maintaining forest health.

Yakama Nation Housing Assessment..............................  $250,000

    The Housing Improvement Program (HIP) program was to end in 2000, 
however only 1/3 of the program was funded and there is still need. The 
Yakama Nation is still anticipating $3,400,000, which was requested 15 
years ago. The continued lack of funding created an inability of the 
program to meet all the community's expectations. There were 
approximately 600 low-income homes built on the reservation during the 
eighties, and none since then, despite an increase in population from 
7,427 in 1986 to over 9,300 in 1999. The existing homes are now in need 
of repair, and the best estimate is that an additional 600 plus homes 
are needed to fulfill current need. The $250,000 would be used to 
assess current community needs, prioritize these needs, and provide 
repairs to homes that have health-threatening defects. The $3,400,000 
would then be used to complete a portion of the original mission. After 
the assessment and original commitment were completed, an estimate of 
unmet needs could be calculated.

Yakama Nation Justice Department..............................$5,180,000

    The Yakama Nation is in desperate need of a new detention and court 
facility, an upgrade of the judicial computer software system, and 
recruiting and retaining high quality employees. The current facility 
is near condemnation and a new facility would benefit both the Yakama 
Nation and local municipalities, which would use the detention 
facility. The estimated total cost of the facility is $35,000,000. The 
requested $5,000,000 would be used to start the planning preliminary 
work necessary for this type of facility. Yakima County, multi-cultural 
and agrarian, has one of the highest levels of unemployment in the 
state and maintains a median household income near the poverty level. 
The proposed facility would provide jobs and community-wide service. 
$100,000 would be used to upgrade the technologies of the court, which 
are currently primitive and inefficient. The remaining $80,000 would be 
used to train and maintain staff, and to keep our wages competitive 
with the rest of the state. Good jobs keep employees here on the 
reservation.

Contract Health Services......................................  $800,000

    The current annual funding received from the Federal Government 
has, since the early eighties, been approximately $800,000 less than we 
need each year and the Indian Health Service. Population Reports 
clearly demonstrate the dire need for additional funding. To ensure the 
health and well-being of the Native population living on and near the 
Yakama Reservation, this increase in funding will allow the Yakama 
Nation to provide adequate services. We provide services to non-members 
and welfare recipients with coupons, and all of us suffer from rising 
cost of health care.

Support of Wapato Irrigation (WIP) Conservation Plan 
    implementation............................................  $250,000

    The WIP Conservation Plan is authorized by Title XII of Public Law 
103-434, the Yakima River Basin Water Enhancement Project. It is 
anticipated that the total dollar amount needed to fund this project is 
$2,750,000 and the $250,000 which is being requested--on a non-
reimbursable basis--will be used for the initial implementation plan. 
Implementation of the WIP Conservation Plan and the Toppenish Creek 
Corridor Plan will provide for precise control, measurement and 
conservation of irrigation water distribution on the Wapato Irrigation 
Project and the restoration of critical habitats. These funds are 
needed under the tenets of the act for the installation of turnout 
measurement structures, piping of small lateral canals, and improvement 
of water measurement and management programs.

Repair of the Wapato Irrigation Project (WIP) facilities......  $500,000

    To fully fund this project the total dollar amount needed is 
$9,500,000 and the $500,000 which is being requested, again on a non-
reimbursable basis, will be used for the initial repairs needed for the 
WIP facilities. WIP is the largest irrigation district in the Yakima 
Basin and is the largest operated by the Bureau of Indian Affairs 
(BIA). The importance of WIP to the local, regional, and national 
economy cannot be overstated, and it is jeopardized by the need for 
repairs. Capital improvements of WIP facilities required for basic 
project delivery services include: safety improvements drop structures, 
power generation facilities, bifurcation structures, and pumps. 
Attention to this matter is urgent.

Fish and Wildlife Resource Management.........................  $300,000

    The YN is requesting continued support of the current $560,000 in 
Congressional add-on appropriations for its Fish and Wildlife Resource 
Management program and requests an additional $300,000 in new 
programmatic money for this endeavor. The $300,000 in new programmatic 
money will be shared jointly by the Fisheries and Wildlife programs to 
further those habitat directed and watershed restoration based projects 
that lead directly to increased salmon production.
    The YN has been a regional leader in watershed restoration 
techniques and the habitat directed approach to increased salmon 
production. The technology and approach behind the recent success that 
we are realizing in the Yakima River basin can, and should, be expanded 
in this basin and exported to other areas. These funds will provide the 
technical and managerial means for the tribe to exercise its co-
management functions and disseminate these techniques by participating 
in the myriad of local, state, and regional watershed processes' 
addressing the decline of our region's fish, wildlife, and their 
habitats. We believe this effort will be successful and will provide 
the short-term leadership required to prove the value of the habitat 
directed approach to restoring salmon.
    Thank you for your consideration of our needs.
                                 ______
                                 

          Prepared Statement of the Intertribal Timber Council

                                SUMMARY

    Mr. Chairman, I am Fred Matt, President of the Intertribal Timber 
Council (ITC). I request that the Committee provide funding within the 
Bureau of Indian Affairs (BIA) fiscal year 2001 Forestry program budget 
to support two vital initiatives:
  --Add $750,000 to Central Office Natural Resources General designated 
        to initiate the statutorily required second national report of 
        the Indian Forest Management Assessment Team; and
  --Add $1,950,000 to address serious deficiencies in forest management 
        capabilities within the BIA.

                 INTERTRIBAL TIMBER COUNCIL BACKGROUND

    The Intertribal Timber Council is a twenty-four year old 
organization of seventy forest owning tribes and Alaska Native 
organizations. Collectively, our members own more than 90 percent of 
the 7.5 million timberland acres and a significant portion of the 9.4 
million woodland acres that are under BIA trust management. It is 
vitally important to tribal communities that their forests are properly 
managed to meet our physical, cultural, and economic needs.
        indian forest management assessment team (ifmat) report
    The Intertribal Timber Council believes a second national 
independent assessment (IFMAT 2) is critical to the ability to credibly 
evaluate the status of Indian forests and forestry. It goes, we 
believe, to the very heart of the federal trust responsibility, 
providing a key tool for maintaining that obligation both today and 
into the future. We urge the Subcommittee to provide the requisite 
appropriation.
    Within three years of enactment of the National Indian Forest 
Resources Management Act (NIFRMA, Public Law 101-630, Title III, 
Section 312), the first Indian Forest Management Assessment Team report 
(IFMAT report) was completed, published, and submitted to Congress and 
the tribes. The seven member blue ribbon assessment team visited more 
than thirty reservations throughout the nation, providing invaluable 
information on deficiencies and corrective strategies at both the 
reservation and national levels.
    A second independent assessment is now required by NIFRMA. Based on 
the $1 million cost over two years to conduct the initial IFMAT study, 
IFMAT 2 is estimated to require $750,000 in fiscal year 2001 and 
$750,000 in fiscal year 2002.
    The Intertribal Timber Council urges the Subcommittee to initiate 
IFMAT 2 with a $750,000 appropriation for fiscal year 2001 specifically 
designated within the BIA Central Office Natural Resources General 
budget for the following reasons:
  --Section 312(b) of NIFRMA requires an independent assessment of the 
        status of Indian forest lands every ten years after the 
        November, 1990 date of enactment. ``On each 10-year anniversary 
        of enactment of this title, the Secretary shall provide for an 
        independent assessment of Indian forest lands and Indian forest 
        land management practices under the criteria established in 
        subsection (a) which shall include analyses measured against 
        findings in the previous assessments.''
  --The U.S. has a trust responsibility to ensure that Indian forests 
        are properly managed. Through its independence, 
        professionalism, and comprehensive scope, the assessment will 
        help assure proper management of tribal forests and help the 
        U.S. avoid potential trust mismanagement lawsuits. As evidenced 
        by the present crisis in trust funds management and looming 
        litigation over the Bureau's trust management of oil and gas 
        resources, serious deficiencies in the management of trust 
        assets can lead to costly and protracted litigation and 
        potential liabilities for the United States. Rather than 
        waiting for tribes to file suits for mismanagement, the U.S. 
        should take a more responsible approach of credibly evaluating 
        the quality of its management and then taking actions as 
        necessary to correct deficiencies. An independent, periodic 
        assessment of a trust asset would prove to be vital in helping 
        the U.S. to proactively meet its trust responsibilities for 
        management of Indian forests.
  --IFMAT 2 will give the Congress, tribes and the U.S. Department of 
        the Interior a current and comprehensive report on the status 
        of Indian trust forests and their management measured against 
        other contemporary forests and against the IFMAT 1 reported 
        some ten years earlier. This comparison of change over time 
        makes IFMAT 2 particularly important and significant, both as a 
        means to evaluate the physical condition of the forests 
        themselves, but also in the degree to which management 
        practices have responded to developments in a wide range of 
        activities, such as changes in the timber market, changes in 
        the philosophy and science of forest management, and increased 
        tribal contracting and compacting of forest management 
        functions.
  --IFMAT 2 is not the ``new start'' of an activity in the Bureau's 
        budget. Instead, it is the renewal of a periodic program that 
        was commenced in 1991. At $750,000 for each of two years, its 
        funding is a relatively modest change in the Bureau's budget. 
        And because the independent assessments are periodic, their 
        funding does not commit the Bureau to budget increases every 
        year thereafter.
  --The regular conduct of independent, professional, and comprehensive 
        assessments of Indian trust forests also advances Self-
        Determination by providing the Bureau, as trustee, with a long-
        term tool for monitoring its trust forests as tribes assume 
        greater responsibilities for management direction. 
        Establishment of such key oversight capacity will help 
        safeguard the trust, enabling more hands-on management 
        activities to be carried out by the tribes themselves.
  --Beyond serving as a national monitoring and evaluating tool, the 
        assessments can have practical benefits for Indian forests. A 
        reservation visit by the assessment team focuses the attention 
        of the tribe on improvements that can be made for the 
        management of their forest lands to meet the needs of their 
        communities. As part of the initial assessment, the IFMAT team 
        fostered tribal review of their forests by providing a 
        reservation-specific critique to many of the tribes it visited. 
        Additionally, the initial IFMAT report identified the need for 
        more prescribed burning in Indian forests that directly led to 
        increased BIA participation in the Department's prescribed fire 
        program.

           A CONTINUING CRISIS IN FOREST MANAGEMENT PLANNING

    We also request that an additional $1,950,000 be added to the BIA's 
forestry budget to address worsening deficiencies in inventory and 
analysis capabilities that are essential to support management planning 
for tribal forests.
    Today, only 27 percent of the 17 million total forest acres held in 
BIA trust (both timberland and woodland) has approved management plans. 
Among tribal commercial timberlands, only 59 percent of the 5.8 million 
acres in BIA trust have approved management plans, a decrease from 
1998's 66 percent with approved plans. This decline has been caused by: 
(1) substantially reduced Forestry T.P.A. funding; (2) a 7.2 percent 
increase in forest acres under trust management since enactment of 
Public Law 101-630 in 1990; (3) greatly increased complexity in 
management planning requirements; (4) no increase in Forest Management 
Inventory and Planning funds since fiscal year 1991; (5) inflationary 
erosion of purchasing power; and (6) since 1995, the reduction by 
roughly half of the B.I.A. Central and Regional Office Forestry 
personnel who provide the planning expertise for the great majority of 
smaller forested reservations.
    A November 13, 1998 Interior Solicitor's opinion determined that 
``Indian trust timber may not be harvested until an approved forest 
management plan has been established.'' A subsequent policy directive 
issued by the Assistant Secretary for Indian Affairs responded by 
allowing otherwise expired forest management plans to be extended on an 
interim basis while tribes await renewal of their full ten year plans. 
This may forestall the cessation of timber harvest on those 
reservations where the ten year plans have expired, but the underlying 
cause of the problem remains unchecked. Unless funding for the 
development of new plans is increased, an increasing number of 
reservations will be forced to rely on interim plans and outdated data, 
creating a serious question with respect to the adequacy of the BIA's 
management of these trust assets. Further, the policy directive is not 
for an indefinite period, creating the situation where tribes may be 
deprived of the ability to utilize their resources as a result of the 
BIA's failure to provide essential information.
    Last year, ITC fiscal year 2000 testimony to this Subcommittee 
identified specific funding increases needed to assure that the most 
basic rudiments of forest planning can be provided tribal forestlands. 
We believe these funding needs are still critical, and again request 
that a total of $1,950,000 be added to the BIA's forestry appropriation 
for this purpose. Our request includes: (A) the addition of $300,000 to 
the Regional Office Forestry budget for four additional professional 
foresters; (B) the addition of $150,000 to the Central Office Natural 
Resources General forestry budget for two additional professional 
foresters; (C) the addition of $1 million to Forest Management 
Inventory and Planning; and (D) the addition of $500,000 to Woodlands 
Management.
    Beyond the basic funding increases needed to maintain the integrity 
of BIA's forest management planning capability, we also requested that 
$3 million be added for integrated resource management planning, and 
that $2 million be added directly to forestry activities in T.P.A. for 
management on increased forest trust acres. We ask that the 
Subcommittee refer to the ITC's fiscal year 2000 testimony for 
additional information on those requests.
    While additional funding for improved forest management planning 
capability is essential to ensure proper management of Indian forests, 
for fiscal year 2001, we wish to underscore that our highest priority 
is the addition of $750,000 to Central Office Natural Resources General 
specifically designated for the initiation of the second Indian Forest 
Management Assessment Team report, as directed by Public Law 101-630. 
At the very least, we believe the tribes, the Department of the 
Interior, and the U.S. Congress should have a ten-year status report on 
how Indian trust forests and their management are faring.
    Thank you.
                                 ______
                                 

  Prepared Statement of the Bad River Band of Lake Superior Chippewa 
                                Indians

    Mr. Chairman and members of the Committee. I am Eugene Bigboy, Sr., 
Chairman of the Bad River Band of Lake Superior Chippewa Indians, of 
Wisconsin. I appreciate this opportunity to provide the Committee with 
the Band's testimony on fiscal year 2001 appropriations.

Law Enforcement
    The Bad River Band strongly supports the President's Indian Country 
Law Enforcement Initiative. Crime in Indian country including at Bad 
River is a serious and growing problem. The Administration's Law 
Enforcement Initiative calls for an $18 million increase over last year 
for BIA/tribal law enforcement across Indian country.
    At the same time, we are concerned that the Administration's 
initiative may not address our situation at all, since we have not been 
included in prior allocations of law enforcement funds. At Bad River, 
the fundamental problem in this regard is that we lack any primary law 
enforcement presence. In fact, the Bad River Band has no Tribal police 
force at all on our Reservation. The Tribe currently has only one 
available source of law enforcement personnel. Under an agreement with 
Ashland County, the Tribe pays $57,000 per year for law enforcement 
services. In return, the County assigns a single county sheriff, who is 
supposed to provide law enforcement, but only on a part time basis. 
That sheriff does not even live on the Reservation, and he is only 
present on the Reservation during certain limited hours. On most days, 
after 3 P.M., during the very hours when most crimes are committed, 
there is no police personnel at all on the Reservation. Response time 
is also a problem. For example, depending on where an incident takes 
place, it may be up to an hour for the sheriff to arrive. In essence, 
we are a Tribe seeking to address a serious crime problem, with no 
resources available.
    During 1997 (the most recent year for which statistics are 
available), the sheriff responded to 439 calls on the Reservation. The 
calls to law enforcement involve matters ranging in severity. Recently, 
we have had incidents including a gang related vehicle arson and an 
aggravated assault with a deadly weapon. We need Tribal police on the 
Reservation both to provide a visible presence as a deterrent and to 
respond to crimes that do occur. But general increases in law 
enforcement funding do not help us if none of the money is directed to 
our needs. To establish a minimum primary law enforcement presence the 
Tribe requests an earmark of $125,000 to hire, train and equip two 
tribal police officers.

Indian Health Service
    Contract health services.--The need for health care services has 
risen dramatically at Bad River with our user population increasing 
from about 1100 in 1991 to about 3,739 today. But funding has failed to 
keep pace. With contract care funding of $845,000, this means we have a 
per patient allocation of $280 for contract care services--a good 
indication of just how meager these funds are. As a result of funding 
limitations, contract care must be limited to emergency care only. This 
creates great hardship among our people who must suffer with illness 
and pain until it becomes life-threatening. For example, an individual 
with painful gall stones cannot obtain needed surgery until his 
condition deteriorates to the point that emergency surgery is needed. 
This is no way to treat our people. The Budget calls for a $41 million 
increase in contract health care. We support the increase, and urge the 
Committee to do all it can to fund contract health care.
    Diabetes.--Diabetes and the complications from this disease has 
been the major source of morbidity and mortality on the Bad River 
Reservation. About 30 percent of Bad River adults, ages 40 and over 
have Type 2 diabetes. Statistics show that for every member affected, 
there is another undiagnosed tribal member with diabetes. We have over 
200 diabetes patients. We have seen a marked increase in the number of 
juvenile and gestational diabetes patients, as well as a tragic 
increase in the number of amputations associated with diabetes. We 
appreciate the Committee's recognition of the scope of this problem, 
and we urge you to continue to work with the tribes to see that 
sufficient resources are provided to further reduce this problem 
throughout Indian country.
    Dental services.--Our dental program is able to pay only for 
emergency dental work for adults. With a current budget of $104,800 our 
dental program has a long list of persons waiting for dental services, 
for which no funds are available. Often, the inability to obtain needed 
dental work for elders makes it difficult for them to eat which in turn 
leads to further medical problems. We need an additional $250,000 to 
provide services to those now waiting for needed dental care.

Education
    Mashkisibi School.--Over the years, we have learned at Bad River 
that not all of our students thrive in a typical public school 
environment. Some students particularly those with a history of 
difficulties in the public schools as a result of emotional or other 
problems need an alternative environment. At Bad River, we have taken 
the initiative to address the needs of these children by establishing 
the Mashkisibi School, an alternative school for grades 9-12. The 
School, established in 1995, serves 20 to 35 students each year. These 
are students who would drop out if public school was their only option. 
The Mashkisibi School seeks to engage these students by integrating 
Ojibwa language and culture into all aspects of the curriculum, and by 
focusing on the practical impact of all areas of learning. The School 
has demonstrated considerable success, keeping these children in 
school, and helping them thrive. In its short time in existence, the 
School has had 22 graduates, of whom 5 are now in college, 2 in the 
armed services and 9 are otherwise employed. These are individuals who, 
without the availability of the Mashkisibi School, almost certainly 
would never have completed high school.
    While we have been able to begin the School on a shoestring, to be 
able to survive in the long term, we will need federal support. To 
operate the school providing salary to our fine staff we need $137,000 
for fiscal year 2001. And, to have a proper facility for our School, we 
need $240,000. We recognize that there is currently a moratorium on new 
BIA funded schools. But, in this case, where the Band has stepped in to 
educate a segment of the student population that was not otherwise 
receiving the services needed to keep them in school, an exception 
should be made. We urge your support for the Mashkisibi School.
    Other Tribal Education programs.--In addition to the school, the 
Tribe runs a number of important education programs for our people. We 
support the President's requested increase of $2.8 million for higher 
education scholarships. We run the Higher Education Grant Program--to 
provide scholarships to needy tribal members to attend college. While 
providing higher education opportunities for our people is vital the 
future of the Tribe, we have continued to have worthy applicants who 
could not be provided with the funds they need to attend college. With 
current funding, we have been able to meet only 59 percent of the need 
of our college bound students.
    The Tribe also runs Adult Vocational Training and Direct Employment 
Assistance programs. Both of these programs have shortfalls at Bad 
River. The Adult Vocational Program provides grant funds for vocational 
training, and the Direct Employment Assistance Program provides 
assistance to tribal members to meet basic needs as they begin 
employment. Increases of at least 25 percent are needed in both of 
these worthy programs.
    The Tribe maintains a Johnson-O'Malley program to serve the needs 
of our students in public schools. In fact the JOM program is a key to 
the success of many of our students in the public school system. This 
program provides needed counseling and support services and study 
skills training to about 490 students. There is no question that the 
personal attention provided by JOM staff has helped innumerable 
students complete high school and go on to higher education. This year, 
the President is proposing to cut JOM again this time by $352,000. We 
urge Congress to reject such a cut, and restore full funding for the 
JOM program.

Natural Resources management
    Our natural resources are key to our cultural and economic survival 
as a people. Wild rice, deer and walleye are central to our lives, and 
subsistence use of these resources is widespread and increasing. Proper 
management and enforcement efforts are more critical than ever to 
preserve the integrity of our Treaty rights and resources for members 
of the Band. We face population growth on the Reservation and in 
surrounding communities, increased environmental threats and ever-
increasing equipment, supply and personnel costs. Despite these 
pressures, we have had no increase in our Tribal Management and 
Development Program (formerly called Fish and Game) for several years. 
To keep pace, and to provide the kind of enforcement and management 
that are necessary to protect our resources for future generations, we 
request an additional $260,700 for fiscal year 2001. This includes an 
inflation increase of $75,000 and $185,700 in new equipment and 
personnel.
    We also support full funding for the Circle of Flight program and 
BIA Fish Hatchery Maintenance.

Land Consolidation
    We are very pleased that Bad River was selected to participate in 
the land consolidation pilot project established under last year's 
Omnibus Appropriations Act.
    Our Reservation land base remains deeply fractionated. Pursuant to 
the Federal Government's failed allotment policy, the United States 
allotted about 97 percent of our Reservation lands. The legacy of this 
is a Reservation which is badly checkerboarded, in a manner that 
creates a jurisdictional nightmare. Among other things, this interferes 
with the Band's ability to zone culturally sensitive areas of the 
Reservation, and to protect tribal members from the harmful effects of 
raw sewage, air pollution and water pollution that destroy our 
fisheries, rice beds and waterfowl. In addition, the problem of 
fractionated ownership of land contributes in substantial measure to 
the BIA's inability over the years to effectively manage Indian trust 
funds. As long as trust land ownership is in disarray from 
fractionation, the BIA's efforts to properly manage trust funds will 
continue to be compromised.
    The land consolidation project is a worthy investment to promote 
tribal self-determination, to facilitate appropriate and economically 
beneficial land use, and to contribute to the long overdue reform of 
the management of trust funds. We urge the Committee to support the 
President's $12 million request for the land consolidation pilot 
project.
                                 ______
                                 

Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                           Indian Reservation

                      TRIBAL PRIORITY ALLOCATIONS

    The Tribal Priority Allocations system is intended to give tribes 
an additional measure of flexibility in determining how to use 
available funds to best meet local needs. The Administration has 
requested an increase of $60.4 million for programs under TPA. While we 
support this request it would still fall far short of allowing the Fort 
Peck Tribes to meet the needs of our people in key areas including, 
education, agriculture and tribal courts. We urge the Committee to do 
all it can to increase TPA above the level requested by the President.
Education ($983,000)
    We urge the Committee to support the education needs of Indian 
people. The President's budget requests $30.6 million for scholarships 
for Indian students to attend accredited post-secondary schools, an 
increase of $2.24 million from last year. Obtaining a degree in higher 
education--particularly for those individuals from families that have 
not previously sent anyone to college--takes courage and often 
considerable personal sacrifice. We believe it is our responsibility to 
support the efforts of our people to attend college. The Tribes provide 
scholarship funds available through the BIA program. However, the 
current levels of funding are already far too inadequate. For example, 
this year the Tribes have identified 230 students who are eligible for 
scholarship benefits for higher education but who cannot be served 
because of lack of funding. The BIA itself reports that the level of 
unmet requests for scholarships nationwide has increased steadily over 
the last three years.
    We are also disappointed that the BIA budget request of $17 million 
for the Johnson O'Malley program is $352,000 less than the fiscal year 
2000 amount as it reduces even more the already meager resources 
provided to support culturally relevant education for Indian students 
attending public schools. We estimate that the Johnson O'Malley Program 
is currently underfunded by an $974,000 at Fort Peck.
    The Tribes request $983,000 to meet the funding needs of the 
Tribes' Education Department. This request is consistent with past 
funding levels, but we emphasize that, with a total estimated need of 
$2,467,900, this amount is adequate to meet only about 25 percent of 
total education needs for tribal members on the Reservation. For 
example, the Tribes have identified 100 students eligible for the 
Tribes' adult vocational scholarships and 75 individuals eligible for 
the Tribes' employment assistance program who are not served due to a 
lack of funding.

Water Resources ($20,000)
    The Fort Peck Water Resources Department is charged with managing, 
conserving, developing, and protecting the water rights of the Fort 
Peck Tribes. To accomplish this mandate, the Tribes are conducting a 
feasibility study for the North Sprole Irrigation Project. This project 
will allow the Tribes to make beneficial use of their water rights and 
their land by building the necessary infrastructure to pump water from 
the Missouri River and irrigate 15,000 acres of farmland. Because this 
project would assist the Tribes in utilizing their natural resources 
and would provide employment to tribal members during all phases of its 
development, it is an important component of our overall plan for 
economic development. The Tribes request an additional $20,000 to fund 
the core functions of our Water Resources Department.

Agriculture ($1.291 million)
    The President's budget requests $19.989 million for BIA agriculture 
programs, an increase of $619,000 over last year. The Tribes support 
additional resources for agricultural needs, of which Fort Peck has 
many. The Fort Peck Tribes' Natural Resources Program recently took 
over management of the Fort Peck Agency's agriculture program under a 
self-determination contract. The Natural Resources program is 
responsible for natural resource management planning on approximately 
4,500 leases and for the administration of 92 range units, encompassing 
362,132 acres. Currently, the Tribes receive only $184,314 to 
administer the program which pays only existing staff and vehicle 
support and maintenance--but provides no funds for essential range 
improvements or other key needs. Long-term underfunding of the 
agriculture program has created substantial need at Fort Peck for 
improvements.
    The Natural Resources Program requires $1,140,000 for range 
improvements. Currently, the 92 range units are underutilized due to 
the lack of water developments and cross fencing. These funds are 
needed to build 200 miles of cross fences, drill 80 water wells, repair 
20 stock dams, and to develop 40 springs. Also, during the summer of 
1998, the area on the Reservation north of Brockton, Montana was hit 
with a flash flood, which breached the Colgan dam located on the Poplar 
River. Natural Resource Conservation Service engineers have conducted a 
site visit and put the preliminary cost estimate to repair the dam at 
$35,000. Finally, the Tribes sorely need a new range inventory. 
Currently we must rely on stocking rate data that is outdated and 
obsolete as it was generated in the last range inventory conducted in 
the 1970's. We estimate that it will cost approximately $116,000 per 
year for three years for the new range inventory. This amount includes 
funding for four additional FTE.

Tribal Courts
    The Fort Peck Tribes support the BIA's request for approximately 
$12.5 million for tribal courts and the DOJ's requested increase for 
the Indian Tribal Court Program within DOJ. Historically, tribal courts 
have been under funded and overworked. Despite the commitments of the 
BIA and DOJ to fund tribal courts, these amounts will only begin to 
address the historical deficiencies in funding. Critics of the tribal 
court system fail to understand that without adequate funding, tribal 
courts can not operate at their full potential. The Fort Peck Tribes 
urge this Committee to support even higher funding for tribal courts, 
to make up for the many years when the needs of these important tribal 
institutions were not met.

    LAW ENFORCEMENT AND DETENTION FACILITY OPERATIONS AND MANAGEMENT

    The President's budget requests a $18 million increase over last 
year for BIA/tribal law enforcement for the second year of the 
President's Indian Country Law Enforcement Initiative.
Tribes' Police Department ($1.4 million)
    At Fort Peck alone, we have an estimated $1,400,908 million need in 
our Police Department though funding levels fall far below that amount. 
Our Reservation covers 6,000 square miles. We have a population of 
13,000 living on the Reservation. We currently have 15 officers on the 
force. We require about 44 officers to meet the President's goal of 2.9 
officers per 1000 persons and to provide adequate staffing in each of 
the Reservation law enforcement districts. Although our officers are 
well trained and dedicated, there are simply not enough of them to meet 
the day-to-day law enforcement needs of our community. Eleven 
dispatchers serve the Police Department, but we require at least 6 
additional persons to adequately serve the Reservation. We also require 
funding for a statistician. Documenting the number of accidents, 
highway deaths, arrests, and other statistics is essential to improving 
the quality and responsiveness of the Police Department. This job is 
currently performed by the police captain, a person who already has 
enormous responsibilities. Also, the Tribes have been recently required 
to meet additional requirements for conducting background checks of and 
providing training to law enforcement personnel. As a result, the 
Police Department requires an additional staff person to administer 
these new requirements.
    In addition, our Police Department is in desperate need of 
equipment. It currently has only 8 police cars. We would like to have 
at least 11 more cars--one per officer. Because our officers must cover 
a large geographic area, the police cars endure an enormous amount of 
wear and tear. This fact, coupled with the small number of cars, 
results in a dangerous situation where we lack adequate and reliable 
transportation for our officers. Our Department also needs additional 
equipment such as car radios, bulletproof vests, roll bars and 
protective shields.
    Last year Congress appropriated $20 million in new funds for the 
law enforcement budget of the Bureau of Indian Affairs. While 
approximately 56 percent of the law enforcement programs are operated 
by tribes pursuant to self-determination contracts and self-governance 
compacts, the Bureau allocated approximately 61 percent of these funds 
(excluding the $1.84 million allocated for training of officers of BIA 
and tribal programs) to BIA central office and BIA-run programs and 
only about 38 percent to the tribal programs. Fort Peck received none 
of these additional funds for law enforcement or corrections. The 
Tribes request the Committee to direct BIA to distribute all increases 
fairly among BIA and tribally-operated programs.

                         INDIAN HEALTH SERVICE

    The President's budget requests a total of $3.1 billion for overall 
IHS services and construction. This is a $230 million increase over the 
fiscal year 2000 level. The health indicators in Indian communities 
consistently demonstrate higher infant mortality, teenage suicide, 
accident, alcoholism, diabetes, and heart disease rates among Indian 
people when compared with other minorities and the general American 
population. Unfortunately, current levels of IHS funding to Indian 
communities fail to meet health cost inflation rates from year to year. 
Yet, money directed to 19959.1 health care, especially preventative 
care, such as routine checkups and health education, clearly improves 
the quality of life and helps avoid more expensive health care costs in 
the future.

                            TRIBAL COLLEGES

    We support the Administration's request of $37.1 million for tribal 
colleges which is a $2.89 million increase over last year. This request 
is consistent with the President's Executive Order on Tribal Colleges, 
which supported enhancing federal support to tribal colleges and 
universities nationwide. The twenty-six tribal colleges are important 
institutions to remote tribal communities. On our Reservation, we 
operate the Fort Peck Tribal College, a fully accredited institution, 
offering Associate Degrees in arts, science and applied sciences. We 
also offer a vocational certificate for our students. We have a current 
enrollment of 356 students. In 1998, thirty-one of our students 
graduated.
                                 ______
                                 

    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                               Commission

    Fiscal year 2001 Appropriations Requested.--$4,039,291 (includes 
the Administration's fiscal year 2001 base funding of $3,614,000, the 
Administration's proposed COLA increase of $63,000, and an increase of 
$362,291 to meet tribal self-regulatory needs).
    Summary of fiscal year 2001 Funding Priorities.--The Commission 
supports the Administration's proposed budget in maintaining the 
current funding base, securing $63,000 for salary cost of living 
adjustments, and providing additional funds to meet contract support 
needs. In addition, the Commission requests an increase over last 
year's funding levels to:
    Priority #1.--$146,300 to replace aging equipment, and meet 
increased operating costs to conduct ceded territory fish assessments 
and manage data.
    Priority #2.--$136,491 to replace GLIFWC's nearly obsolete law 
enforcement radio system, continue community safety programs (i.e. 
hunter safety, boater safety, snowmobile safety, ice rescue), and 
replace 3 patrol boats.
    Priority #3.--$79,500 to implement ceded territory gathering rights 
on public lands and to assist tribes in providing biologically and 
culturally based input into federal, state, and county forest planning 
processes.
    Program Justification.--GLIFWC is an intertribal organization which 
implements federal court orders and various interjurisdictional 
agreements governing tribal harvest of off-reservation fish, game, and 
plant resources within a number of Chippewa ceded territories. GLIFWC 
was established by tribal governments in 1984 as a cost efficient 
option to conserve natural resources and to effectively self-regulate 
harvests of natural resources shared among treaty signatory Tribes.

                               BACKGROUND

    Consistent with numerous other federal court rulings on the 
Chippewa treaties, the United State Supreme Court recently affirmed the 
existence of the Chippewa's treaty-guaranteed usufructuary rights 
(Minnesota v. Mille Lacs Band, Case No. 97-1337, March 24, 1999).
    To implement these federal court rulings, eleven tribal governments 
established the Great Lakes Indian Fish and Wildlife Commission 
(GLIFWC).
    GLIFWC provides an essential governmental function by enabling 
tribes to implement federal court orders and various 
interjurisdictional agreements regarding the conservation of natural 
resources and the exercise of treaty-guaranteed hunting, fishing and 
gathering rights. Under these orders and agreements, tribes must meet 
high standards for self-regulation including development and 
enforcement of tribal conservation codes, biological monitoring of 
tribal harvests, and adjudication of alleged violators in tribal 
courts.
    To meet these standards, the tribes have authorized GLIFWC to 
implement a conservation-based intertribal self-regulatory structure. 
The treaty signatory tribes share ceded territories with each other. 
Nevertheless, each tribe only has jurisdiction over its own members. 
The tribes thus recognize that no tribe on its own can effectively 
manage and regulate the exercise of ceded territory treaty rights. 
Therefore, the tribes have adopted various intertribal agreements, 
protocols and natural resource management plans that establish binding 
mechanisms and procedures for shared, intertribal management and 
regulation.
    In addition, GLIFWC serves an important role in the context of the 
tribes' relationships with other jurisdictions. At the tribes' request, 
it participates in a wide range of cooperative management activities 
with local, state, federal, and foreign governments. GLIFWC also has 
entered into partnerships and cooperative relationships with local lake 
associations, educational institutions and non-governmental 
organizations as part of the tribes' commitment to conserve and enhance 
natural resources as economically as possible.

        Budget
Base funding..................................................$3,614,000
COLA..........................................................    63,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Subtotal................................................ 3,677,000
        continuing the fishery assessment partnership--$146,300
    In Wisconsin, fears about the impact of tribal treaty reserved 
fishing rights were put to rest by a federal, state and tribal task 
force that studied the status of Wisconsin's fishery resource and the 
impact of Chippewa fishing.
    This joint fishery assessment of Wisconsin's ceded territory waters 
B undertaken by the U.S. Fish and Wildlife Service, Bureau of Indian 
Affairs, Wisconsin Department of Natural Resources, Great Lakes Indian 
Fish and Wildlife Commission, and its member tribes B also recognized 
the value of interagency cooperative management activities.
    The task force's report, Casting Light Upon the Waters: A Joint 
Fisheries Assessment of the Wisconsin Ceded Territory (United States 
Department of the Interior, 1991), provided information about the 
health of Wisconsin's fishery resource and the impacts of Chippewa 
spearfishing activities occurring throughout the ceded territories. Its 
conclusions are unambiguous: Chippewa fishing has not harmed the 
resource; however northern Wisconsin's fishery resources are dynamic 
and stressed by many factors, particularly environmental degradation 
and harvest by all user groups; and thus Athe fishery require(s) a 
continuation and further expansion of joint monitoring and assessment 
efforts'' (Casting Light Upon the Waters, p.93).
    The Casting Light task force was a catalyst for the development of 
the Commission/Service fishery assessment partnership. Since 1990, this 
partnership has undertaken walleye population estimates and walleye 
juvenile recruitment surveys. In 1997 GLIFWC sampled 18,793 walleye 
from 18,785 acres of water to determine the adult spawning populations 
on 16 ceded territory lakes. GLIFWC also conducted juvenile recruitment 
surveys on 100 lakes and 1 river in Wisconsin, 14 lakes in Minnesota, 
and 7 lakes in Michigan.
    The Commission must now replace aging equipment and address 
increasing operating costs of $146,300 if it is to continue this 
valuable work. A flatline budget and annually increasing costs for 
these vital fishery assessments since fiscal year 1995 have already 
compelled the Commission to reduce the number of fishery assessments 
conducted on ceded territory lakes. Inadequate equipment will further 
impede these efforts.
    This jeopardizes the cooperative success of the Casting Light task 
force. As Wisconsin's DNR Secretary noted 5 years after the Casting 
Light report, AWorking together and pooling resources, we've learned 
far more than we ever knew about the fishery resources of northern 
Wisconsin, which means for better <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="127f737c7375777f777c663c52">[email&#160;protected]</a> Secretary George Meyer, 
Wisconsin Department of Natural Resources, ACasting Light Upon the 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="db8cbaafbea9a89b">[email&#160;protected]</a> video, 1996.
 maintaining glifwc's conservation enforcement infrastructure--$136,491
    The Commission has established a community-based policing program 
to enforce tribal off-reservation conservation ordinances. Commission 
conservation wardens, who live and work within tribal communities, more 
effectively detect fish and game violations.
    While enforcement of off-reservation conservation codes is the key 
focus of GLIFWC's wardens, they have become a critical component in the 
overall law enforcement and public safety infrastructure across the 
ceded territories. When emergencies occur, GLIFWC wardens respond to 
requests from local, state, and federal law enforcement agencies.
To protect its Officers and to ensure continued coordination with other 
        agencies, GLIFWC's radio system needs to be upgraded at a cost 
        of $68,824
    Beyond what the Administration has requested, GLIFWC needs $68,824 
to replace 12 mobile vehicle radios and 4 radio tower repeaters used by 
its conservation law enforcement officers.
    Commission wardens are the tribe's primary ceded territory 
conservation law enforcement presence. They are cross-deputized with 
the Wisconsin Department of Natural Resources (WDNR). Given this cross-
deputization agreement, and the fact the WDNR wardens can issue 
citations to tribal members for adjudication in tribal court, it is 
essential that adequate communications be maintained.
    GLIFWC's existing radios and associated equipment are quickly 
becoming technologically obsolete. Replacement parts are becoming 
increasingly more costly and harder to find. In addition, the FCC will 
likely require all licensed radio operators to divide their current 
frequencies from 25 kHz to 12.5 kHz (see FCC PR Docket Nos. 92-235, 92-
257 and 96-116). This would require GLIFWC to convert its equipment to 
be compatible with the new frequencies.
    GLIFWC's law enforcement program cannot function without a viable, 
properly-functioning radio system. GLIFWC officers work throughout the 
ceded territories in rural and remote areas. Through GLIFWC's 
successful community-based policing program to enforce tribal off-
reservation conservation ordinances, the officers live and work within 
the tribal communities they serve. In this context, GLIFWC's radio 
network is essential for both the safety of GLIFWC's officers and for 
the proper functioning of the interjurisdictional emergency mutual 
assistance networks in the ceded territories.
    The radio network enables GLIFWC officers to communicate with each 
other and with other law enforcement and emergency services 
agencies.These include the Wisconsin Department of Natural Resources, 
Minnesota Department of Natural Resources, Michigan Department of 
Natural Resources, U.S. Coast Guard, USDA-Forest Service, State 
Patrols, county sheriffs departments, local fire departments and 
emergency medical services.
    GLIFWC's radio system has been vital in numerous examples where 
GLIFWC officers have responded to a variety of emergencies:
  --as trained first responders, GLIFWC officers routinely respond to, 
        and often are the first to arrive at, snowmobile accidents, 
        heart attacks, hunting accidents, and automobile accidents 
        (throughout the ceded territories);
  --search and rescue for lost hunters, fishermen, hikers, children, 
        and elderly (Sawyer, Ashland, Bayfield, Burnett, and Forest 
        counties in Wisconsin and Baraga, Chippewa, and Gogebic 
        counties in Michigan)
  --being among the first to arrive on the scene where officers from 
        other agencies have been shot (Bayfield, Burnett and Polk 
        counties in Wisconsin);
  --responding to weapons incidents (Ashland, Burnett, Sawyer and Vilas 
        counties in Wisconsin);
  --assisting with drowning incidents (St. Croix River on the 
        Minnesota/Wisconsin border, Sawyer county in Wisconsin, Gogebic 
        county in Michigan);
  --searching for lost airplanes (Ashland, Forest and Washburn counties 
        in Wisconsin);
  --organizing and participating in rescues of ice fishermen on Lake 
        Superior (Ashland and Bayfield counties in Wisconsin);
  --assisting with Lake Superior boat rescues (Baraga county in 
        Michigan and with the U.S. Coast Guard in other parts of 
        western Lake Superior);
  --assisting sheriffs departments with natural disasters (e.g. floods 
        in Ashland county).
    Simply put, investing to upgrade GLIFWC's law enforcement radio 
system will not only protect GLIFWC's officers, but it will enhance 
intergovernmental efforts to protect public safety and welfare 
throughout the region.
To continue community safety programs and emergency responses 

        CERTIFICATIONS, THE COMMISSION NEEDS AN ADDITIONAL $67,667

    GLIFWC conservation enforcement officers are certified instructors 
for hunter safety, boater safety, snowmobile safety, and ATV safety 
classes. From 1996 to 1998, GLIFWC conservation officers taught various 
safety classes attended by 361 tribal members and 454 non-Indian 
neighbors. This work directly benefits the entire region, ensuring 
ceded territory lands and waters are safe for all user groups.
    The Commission is requesting additional funds for equipment and 
training so Conservation Officers can maintain First Responder 
certification. First Responder certification ensures the Commission's 
staff are adequately trained in advanced emergency first aid techniques 
when called upon for hunting, boating, snowmobile or automobile 
accidents. Given the remote nature of the ceded territory, often GLIFWC 
conservation officers often are the first on the scene of emergencies.
    The Commission is also requesting funds to equip Conservation 
wardens with ice rescue equipment. Snowmobiling and ice fishing are 
increasingly more popular forms of recreation in the ceded territories 
and constitute an increasingly larger share of the local economy.
    Unfortunately a combination of aging equipment and increased 
operating costs will prevent the Commission from continuing these vital 
community services as extensively as in the past.

         IMPLEMENT CEDED TERRITORY GATHERING RIGHTS AT $79,500

    Also beyond what the Administration proposes, the Commission seeks 
$79,500 to implement off-reservation gathering rights on federal, 
state, and county public lands.
    The Commission has worked with community leaders and timber 
industry representatives to 34740.1 mitigate citizen's concerns 
regarding an agreement between its member tribes and the USDA-Forest 
Service. This agreement provides for the exercise of treaty-guaranteed 
gathering rights on National Forests within the ceded territories (see 
attached map) and establishing processes for government-to-government 
consultation regarding the federal government's management of those 
Forests.
    In building upon over 5 years of discussions, a number of interim 
arrangements, and various cooperative management and habitat 
improvement initiatives, a number of GLIFWC member tribes and the 
forest service ratified a Memorandum of Understanding (MOU) in 1998. 
The tribes and the Forest Service began implementation of the MOU in 
1999.
    Tribes are also working with State Forest Managers in Wisconsin to 
implement off-reservation gathering rights and have held discussions 
regarding long range plans being prepared for these regions.
    The Commission is requesting funds to staff a Forest Ecologist who 
would not only assist the tribes in the implementation of the gathering 
rights but also in providing biologically- and culturally-based input 
into the Federal, State, and County Forest planning processes. Forest 
management plans have far reaching effects on the abundance of natural 
resources harvested by tribal members and upon tribal culture. 
Providing tribes with the ability to address issues of concern will 
help prevent resource and cultural conflicts.
    Funding is also being requested to:
  --purchase GIS/GPS computer equipment and software that will be 
        compatible with what the Forest Service uses;
  --conduct a cooperative field study with the Forest Service to assess 
        future impacts of selective logging practices upon understory 
        plants; and
  --undertake public education efforts regarding the MOU.
                                 ______
                                 

    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians

    The Lac du Flambeau Band of Lake Superior Chippewa Indians, located 
in Wisconsin is submitting this written testimony which reflects the 
needs, concerns and issues of the Tribal membership arising from the 
President's fiscal year 2001 Budget.
    In general the Lac du Flambeau Band supports the President's 
funding initiatives in his Budget submitted to Congress and hopes that 
the Appropriations Committee will support the increases in Indian 
education, health, law enforcement and Tribal Priority Allocation. The 
Band is concerned with the lack of increases in appropriations within 
the Wildlife and Parks, Tribal Management and Development and Tribal 
Fish Hatchery Operations line items of the Bureau of Indian Affair 
budget. We hope Congress increases this portion of the budget in 
response to the needs of the Tribes.

                            INDIAN EDUCATION

    The Band is encouraged by the fact that education is one the 
primary focuses of the President's fiscal year 2001 Budget and we 
applaud this initiative. Even though this funding is not part of the 
Department of Interior bill, we urge the members of this Subcommittee 
to support the President's request.
    At the Lac du Flambeau Public School, our student population is 93 
percent Native American, yet less than 4 percent of the teaching staff 
is Native American. Currently at the Lac du Flambeau Public School, 
there are 54 professional staff, of which only two are of Native 
American ancestry. The effort to recruit Indian teachers is a priority 
for the Band and we support the President's fiscal year 2001 Budget. 
The President has requested $10 million to recruit and train 1,000 new 
Indian teachers, who will serve in public school districts with high 
concentrations of Indian children. We hope the recruitment and training 
program associated with this program will be flexible enough to allow 
applicants to be trained by local educational agencies and to serve as 
interns in the schools where they will be teaching.
    Along with recruiting new teachers, the Band also supports the 
President's $5 million American Indian Administrator Corps initiative. 
This will help recruit, train and support in-service development of 500 
American Indian and Alaska Natives to become effective school 
administrators. Currently, the Lac du Flambeau School has only one 
Native American Administrator working as the Federal Program 
Coordinator.
    The Budget proposes $1 billion (a $547 million increase) to enhance 
after school and summer school programs across the country and is part 
of the Administration's efforts to end social promotion in public 
schools. We support this initiative, but the Band urges Congress to set 
aside at least $100 million for Public School Districts with at least 
85 percent Indian student enrollment, tribal and BIA Schools. The Band 
strongly believes that the more time our children are in school, the 
better chance they will be successful.
    The Band supports the President's request for increased funding for 
Tribal Colleges and the Tribal College Endowment Fund. However, there 
is also a great need to increase funding to support Higher Education 
within the Bureau of Indian Affairs. For example, the Lac du Flambeau 
Band had 64 tribal members in fiscal year 2000 who were not able to 
receive funding for college due to funding shortfalls. Currently, a 
Higher Education Budget of $154,000 supports less than 33 full time 
college students. To fully support 97 college students an additional 
$299,000 is required for the Band alone.
    In 1988, Congress authorized appropriations through Public Law 100-
297 for Tribal Education Departments. To date no appropriations have 
ever been allocated to Tribal Education Departments either by Congress, 
nor has any been requested by the President. The Band joins the 
National Indian Education Association in requesting $5 million to fund 
Tribal Education Departments.

                         INDIAN HEALTH SERVICE

    While there is a significant increase for the Indian Health Service 
in the President's 2001 Budget, the per capita funding for the health 
care of American Indian and Alaskan Native people remains far below the 
annual health expenditures of the general U.S. population. Between 1993 
and 1997, the per capita expenditure by Indian Health Service for 
health care for American Indian people in Wisconsin actually fell by 14 
percent when adjusted for inflation.
    We are concerned that Congress is not keeping pace with inflation 
in Indian health care and we urge Congress to increase funding for 
critical areas, such as community health representatives, dentistry, 
and diabetes screening.
    The Band is very concerned that little has been done to address the 
severe backlog in facilities construction. There is a priority list for 
this, but it is unlikely that we will ever see the day when we see the 
end to that list. At Lac du Flambeau we are planning new construction 
of a 50,000 square foot health facility. We are using a portion of our 
own funds to construct this desperately needed facility. We urge 
Congress to support our efforts and earmark $10 million to aid in the 
construction and equipping of this facility.

                            LAW ENFORCEMENT

    In 1999, the Lac du Flambeau Tribal Police Department logged 24,000 
man-hours answering 3,441 complaints. The 11, member Police Department 
consists of 10 full time officers and 1 administrator. The officers 
issued 1,117 citations for violations ranging from domestic violence to 
juvenile cases including runaways, burglary, fraud, battery and 
vandalism. The workload for the Tribal Police Department also increased 
dramatically, since a Tribal/State/County Agreement was enacted making 
it imperative to enforce all laws, codes and ordinances 24 hour per 
day. As a result of this Agreement, the Lac du Flambeau Tribal Police 
not only responds to tribal complaints but also provides services to 
the non-Indian community, as well. Our Police Department also aids 
surrounding community police departments (Oneida and Iron County 
Sheriffs and Woodruff, Minocqua and Eagle River Police Departments). 
The 10 officers retain their State certification, which requires 24 
hours of in service training annually, and maintain a 24-hour per day, 
7 days a week work schedule.
    Currently, our fiscal year 2000 Budget for Law Enforcement is 
$180,776 and the Band's proposed budget for fiscal year 2001 is still 
$550,000. The Band will experience a shortfall of $369,224. In fiscal 
year 1999 the Band's fiscal year base funding for law enforcement was 
$220,303 and was decreased to $180,776 in fiscal year 2000. This year 
the BIA is proposing a base of $153,000 for 2001, a reduction of 
$27,776.

                           NATURAL RESOURCES

    In past testimony, the Band has emphasized that the natural 
resources of the Lac du Flambeau Band are our most valuable and 
significant asset--apart from our children and Elders. Our natural 
resources provide the people with cultural, spiritual, subsistence, 
social and economic opportunities. The Reservation is located in the 
heart of Wisconsin's tourism and sport-fishing region. Tourism and 
related industries provide livelihoods for Indians and non-Indians 
alike. The land, the water, the air and all the animals and plants that 
live along with us on this land, help make us what we are as a people. 
We need funding to assure that we can fulfill our responsibilities to 
keep these resources clean and available for the generations to come.

Wildlife and Parks
    The Band has a very comprehensive Natural Resource Department and 
dedicated staff with considerable expertise in natural resource and 
land management. Our activities include raising fish for stocking, 
conservation law enforcement, collecting data on water and air quality, 
developing well head protection plans, conducting wildlife surveys, and 
administering timber stand improvement projects on the 92,000 acre 
reservation. We urge this Committee to increase the Wildlife and Parks 
budget by $10 million and set aside $200,000 for Lac du Flambeau 
($100,000 for Tribal Fish Hatchery Operations and $100,000 for Tribal 
Management and Development). The Wildlife and Parks budget has not 
increased since 1990 and an increase will help maintain our current 
staff and critical natural resource programs.

Circle of Flight
    The Circle of Flight Program (also known as the Wetlands and 
Waterfowl Management Program) has been instrumental in preserving and 
rehabilitating our Nation's wetlands and waterfowl populations. 
Wetlands are important in providing flood control, clean water and 
recreation. Waterfowl are a very important source of food for tribal 
members and also support hunting opportunities for many up and down the 
Mississippi Flyway. Twenty tribes, the Great Lakes Indian Fish and 
Wildlife Commission, and the 1854 Authority have identified $936,000 in 
funding needs for this critical program. We urge the Committee to 
continue to support this initiative and increase the President's Budget 
by $342,000 for this very worthy program.

Forestry
    Within the 92,000-acre reservation, we have 45,000 acres of 
forested land that support not only logging but hunting and gathering 
opportunities for tribal members. Proper management of the forest is 
essential to sustain our subsistence lifestyle. The Forestry Program 
now consists of two foresters and two technicians, who conduct broad 
management activities, including tree planting, prescribed burning, 
timber road design and maintenance, timber sale administration and 
integration with wildlife management. The Forestry Program is funded 
through Tribal Priority Allocation (TPA) within the Bureau of Indian 
Affairs budget, and has been historically under funded. It is difficult 
for the Forestry Program to compete for TPA funds when child welfare, 
education and HIP programs are also competing for the same funds. Basic 
human needs must be met first. Thus, we request this Committee to 
provide a $70,000 increase for the Lac du Flambeau Forestry Program. 
This add-on can be supported by the increase in the President's TPA 
request.

Tribal Historic Preservation
    The Lac du Flambeau Tribal Historic Preservation Office was 
established for the purpose of protecting and regulating our cultural 
resources. In August 1996, we assumed Tribal Historic Preservation 
Office status (THPO) through the National Historic Preservation Act. We 
are one of 20 Tribes in the Nation to assume the duties of the State 
Historic Preservation Office for all lands within the exterior 
boundaries of the reservation. Five more tribes are expected to assume 
this responsibility in fiscal year 2001. For fiscal year 2001, the 
President has requested $2,595,000 for THPO'S and Tribal Historic 
Preservation Grants within the National Park Service (Historic 
Preservation Fund). This is the same amount as was enacted in fiscal 
year 2000. As you know, there is a significant disparity in funding 
between State Historic Preservation Offices (SHPO) and Tribal Historic 
Preservation Offices (THPO). The smallest SHPO receives $250,000 while 
Navajo Nation only receives $89,000. By way of comparison, the land 
base of Navajo Nation is slightly larger than West Virginia's, but the 
West Virginia SHPO receives $400,000--more than 5 times the funding for 
the Navajo Nation. We urge the Committee to increase the budget to $10 
million, this increase will provide a base of $275,000 for all tribes 
currently in the program and the five more expected to join.

Land Management
    The Tribal Land Management Department has a vast array of 
responsibilities associated with the administration and management of 
trust properties under the jurisdiction of the Band. The Department is 
divided into two programs, which include the Land Use Office and Real 
Estate Services. The Department's responsibilities include land 
acquisition, processing and monitoring leases and rights of way, estate 
management, record maintenance, and land surveys. The Department must 
coordinate its efforts with tribal members, non-tribal members, state 
and Federal agencies. The workload associated with complying with 
Federal, tribal, state and local laws, codes and ordinances is 
overwhelming. Currently, this Department is accomplishing the above 
with 4 employees.
    The Band supports the President's request for $12 million for the 
Land Consolidation Project. The Band, currently is one of the Tribes 
participating in the Pilot Land Consolidation Project. In order to 
fully implement this project in fiscal year 2001 and all of the above 
responsibilities, the Band requests an earmark of $75,000. This add-on 
can be obtained from the increase in the TPA portion of the President's 
request.

American Indian Natural Heritage Restoration Program
    The American Indian Natural Heritage Restoration Program is a new 
collaborative initiative to reintroduce, manage, inventory and/or 
protect native fish, wildlife and plants that are threatened and 
endangered and are important to American Indian heritage and cultures. 
Thirty-three Great Lakes Tribes and organizations located in Wisconsin, 
Minnesota and Michigan are requesting Congress to provide $1.0 million 
to fund this program. The tribal fish and wildlife habitat base in the 
tri-state area includes 41.2 million acres of forested land, 2.2 
million acres of lakes, 4.7 million acres of wetlands and 9,437 miles 
of rivers and streams. These encompass ecosystems upon which numerous 
native, threatened or endangered species of fish, wildlife and plants 
depend. The Lac du Flambeau Band requests Congress to support this 
initiative by providing $1.0 million.

                    TRIBAL PRIORITY ALLOCATION (TPA)

    Many key programs such as child welfare, courts, education, roads, 
forestry, land management, HIP are included within TPA. This allows the 
tribes to move funds from one TPA program to another, in line with the 
priorities set by the Tribe. Unfortunately, the TPA program has been 
severely underfunded, and 34582.1 has not met the needs in Indian 
country. This has forced tribes to ``rob Peter to pay Paul''--even 
though neither Peter nor Paul had enough in the first place. The 
President has requested $761.18 million for Tribal Priority Allocation. 
The Band supports this request. However, the need is much greater and 
we would urge the Committee to focus on the fact that TPA funding 
improves the lives of our elders and our children. Without this 
funding, many people would not have adequate shelter, food or an 
education.

                         CONTRACT SUPPORT COST

    The President's TPA budget includes $128,732,000 for Contact 
Support, which is an increase of $8,247,000 over last year's level. 
This is an important start but it falls well short of the need, as this 
will only meet up to 87 percent of the total BIA contract support needs 
in Indian Country. Contract support costs are a part of the promise 
made by the United States in return for tribes agreeing to take over 
responsibility for Federal programs. Unless that promise is kept by 
fully funding contract support costs, the ability of tribes to provide 
services to their people will be seriously compromised and the Self-
Determination policy will fail. We urge Congress to fully fund contract 
support costs.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION

    The Band supports the Administration request of $4,039,291 for the 
Great Lakes Indian Fish and Wildlife Commission. We also support the 
Commission's request of $136,491 for radio replacement as per the 
revisions of the national radio frequency system, $146,300 to replace 
aging equipment and cover increased operating costs associated with 
ceded territory fish assessments and $79,500 to support a Forest 
Ecologist position needed to implement the U.S. Forest Service 
Memorandum of Understanding. The requested funds are essential for 
implementing the Band's off reservation hunting, fishing and gathering 
rights in the ceded territories of Wisconsin, Minnesota and Michigan.
                                 ______
                                 

             Prepared Statement of the Ramah Navajo Chapter

    The Ramah Navajo Chapter is pleased to submit this statement on the 
fiscal year 2001 budget request of the Department of Housing and Urban 
Development (HUD). The statement focuses on providing the resources to 
adequately fund the Indian Housing Block Grant Program and a Ramah 
Navajo Chapter-specific allocation for a Housing Emergency Pilot 
Program.
    The Ramah Navajo Chapter is a certified chapter of the Navajo 
Nation government. As a governmental entity of the Navajo Nation, the 
Chapter has been authorized since 1986 by the Nation to contract 
directly with various agencies, including HUD, the Bureau of Indian 
Affairs and the Indian Health Service, to provide services to the over 
3,000 tribal members living in the RNC area. Our community, located in 
the west central mountains of New Mexico, has a land base of 154,553 
acres--comprised of a ``checkerboard'' of trust land, individual 
allotted land, and fee land purchased by or for the Chapter. According 
to a recent survey,\1\ 43.9 percent of the workforce is unemployed, 
69.2 percent of households (605 households) live in poverty, and an 
additional 81 households were found to have very low income. Forty-
eight percent of households were found to own their own homes.
---------------------------------------------------------------------------
    \1\ 1997 Household Survey, conducted by the Chapter and Navajo 
Nation Data Resource.
---------------------------------------------------------------------------
    The Chapter's mission is to nurture the well-being and growth of 
our community and its people by promoting the development of 
comprehensive community services, programs and opportunities; by 
encouraging the development of self-sufficiency through self-
determination; and by maintaining respect for our traditional values of 
cultural heritage and family. In furtherance of our mission, the 
Chapter seeks funding to participate in a housing emergency pilot 
program.
    Housing Needs.--Housing in the Ramah Navajo Community varies 
widely, including many older log houses and hogans, owner-built houses 
of various materials, and standard HUD-built units. Some families live 
in ``shacks'' or converted outbuildings that lack electricity and/or 
running water.
    In a recent study of 587 owner-occupied housing units, 425 (or 72 
percent) were found to be substandard. Of these substandard units, 174 
units require major repairs or renovation, and 66 units are so badly 
deteriorated that they must be replaced. In addition, 200 families were 
found to be sheltering with relatives or others and therefore in need 
of a home of their own.
    A serious and complicating factor to ensuring safe and adequate 
housing for our members is the presence of Hantavirus-infected rodents. 
The Ramah area is a prime habitat for rodents carrying the Hantavirus 
and may be a reservoir area for the infection. To date three deaths in 
the Ramah area have been attributed to Hantavirus infections; one death 
in 1994 and two deaths 1999. Additionally, a fourth person contracted 
the disease in Ramah but passed away in another community.
    According to the Center for Disease Control (CDC), the four-county 
area within which Ramah is located has the highest rate of Hantavirus 
Pulmonary Syndrome in the United States, at a rate of three cases per 
1000,000 population per year. At that rate, Ramah Navajo Chapter could 
have expected .09 cases per year, based on its population of 3,000. In 
actuality, however, three cases within the Ramah community over seven 
years is six times the expected rate for this area, a rate which would 
be equivalent to 285,000 fatalities in the United States over the same 
period.
    Unfortunately, dilapidated housing provides habitats for these 
infected rodents and most of the homes in the Ramah community are in 
substandard condition. Cracks and openings common in the substandard 
units allow virus-carrying rodents to enter or nest in the walls and 
roof. Those most susceptible to the Hantavirus are the poorest families 
in the community, who are also those whose housing is in the worst 
condition, most likely to be living in crowded conditions, and least 
likely to afford to make substantial repairs to their homes.
    Housing Emergency Pilot Program.--To address the most critical 
renovation and repair needs of the community, the Ramah Navajo Chapter 
requested and received a planning grant from the Navajo Housing 
Authority. The Authority has provided the Chapter $408,150 from the HUD 
Indian Housing Block Grant Program funds allocated to the Navajo Nation 
to use for pre-engineering activities related to implementing a Housing 
Emergency Pilot Program. The planning grant will also help us develop 
an ongoing community housing program, the primary focus of drawing and 
coordinating housing resources from multiple sources to address the 
housing needs of the community. The Chapter is working with the CDC to 
develop its comprehensive, community-based Hantavirus prevention 
initiative, and is a key participant in the CDC's Hantavirus control 
study. The Housing Emergency Pilot Program is one portion of the 
comprehensive initiative.
    In summary, the goal of the multi-year Housing Emergency Pilot 
Program will be to rodent-proof existing units and replace those that 
cannot be repaired using construction methods to protect against rodent 
intrusion. The Chapter will ensure that: the project, designed to aid 
the low-income members of the community, follows the project priorities 
established by the community; a program plan is developed; and 
eligibility criteria for the beneficiaries is developed and 
implemented. Where appropriate, community residents will be used in 
renovation and construction of the homes.
    As part of the program, a rodent Disinfectant Response Team will be 
established to protect construction workers, and to provide clean up at 
suspected Hantavirus contamination sites. The emergency response team 
will provide education, training and supplies to community residents.
    Request.--The Ramah Navajo Chapter requests a special allocation of 
$960,000 under the fiscal year 2001 appropriations for the Department 
of Housing and Urban Develop to replace six homes and renovate 30 of 
the units most critically in need of repair or replacement. The Chapter 
will continue to seek funding from all possible sources to complete the 
multi-year Housing Emergency Pilot Program that is critical to ensure 
the health and welfare of our members.
    The Ramah Navajo Chapter thanks you for the opportunity to provide 
our comments and for your consideration of our request.
                                 ______
                                 

          Prepared Statement of the Upper Lake Pomo Rancheria

    On behalf of the Upper Lake Pomo Rancheria, I am honored to present 
to the Subcommittee our views on the fiscal year 2001 budget requests 
for the Bureau of Indian Affairs and the Indian Health Service. Our 
statement will focus on:
  --$3.88 million increase for diabetes program
  --$3.5 million increase for BIA contract support costs, $5 million 
        for a BIA Indian Self-Determination Fund, and a $40 million 
        increase for IHS contract support costs as requested by the 
        Administration
  --Additionally, we ask Congress to encourage the BIA to place more 
        emphasis on the needs of the Indian Child Welfare program.
    The Upper Lake Pomo Rancheria, located in the northwest California, 
is a federally recognized tribe, with its recognition being restored in 
1979. The Rancheria has contracts programs and services from the Bureau 
of Indian Affairs (BIA) and the Indian Health Service under Title I of 
the Indian Self-Determination Act. The focus of the tribal government 
is to develop a strong community, provide the community much-needed 
services such as health, housing, law enforcement, and increase 
economic development opportunities to increase employment opportunities 
for the Rancheria members. The following concerns address the most 
pressing needs of the Rancheria in relation to these goals.
    Diabetes funding increase.--The Administration proposes a $3.88 
million increase for diabetes-related activities. While the Rancheria 
supports this modest increase, we are concerned that amount requested 
will not be adequate to meet the needs in Indian country. As you may be 
aware, the incidence of diabetes throughout Indian country is almost 
four times higher than the prevalence of the disease across all races 
in the U.S. and has been identified as the top health problem in all of 
the IHS Areas.
    For our community, we would like to focus on prevention education, 
early screenings, and assistance to help our diabetics control their 
conditions with lifestyle changes. However, increased costs resulting 
from medical complications that diabetics may develop and limited 
healthcare funds have forced us to direct our resources to direct 
health services.
    The Rancheria therefore requests that the Subcommittee recommends 
funding, at a minimum, the Administration's budget request for diabetes 
activities.
    Indian Child Welfare.--The Administration requests $11.5 million 
for Indian Child Welfare Act-related services, a decrease of $1 million 
from the fiscal year 2000 level. However, according to the recent BIA 
Report on Tribal Priority Allocations, there is an estimated unmet need 
of over $21.5 million to support the programs, functions and activities 
under the Housing Improvement Program. These funds are also in 
competition with other programs under the BIA Tribal Priority 
Allocation category. This means that if there is an urgent need to 
increase funding for other programs such as road repairs, employment 
and training services, or emergency burial assistance services, Child 
Welfare Assistance funds may be subject to reduction.
    Tribes rely on these funds for a myriad of services required under 
the Indian Child Welfare Act. ICWA funds are used to ``protect Indian 
children and prevent the separation of Indian families'' (BIA Budget 
Justification, BIA-55). Data collected by the Bureau indicates that 
Indian children are at risk fur abuse and neglect at a rate three times 
greater than the general population (TPA Report, p. 55). Yet, under the 
limited funding we receive, tribes must respond to all reports of child 
abuse and neglect, fulfill the tribal government responsibilities in 
adoption cases involving Indian children, provide training in dangers 
of child abuse or neglect, and other services as required by the duties 
and responsibilities required by the Indian Child Welfare Act.
    For these reasons, the Rancheria requests the Subcommittee to 
encourage the BIA to place more emphasis on the needs of the Indian 
Child Welfare program. We also note there are two bills pending which 
would help to address our concerns in the Indian Child Welfare area--S. 
1478 (Direct Tribal Access to Foster Care and Adoption Assistance 
Entitlement Funding) and S. 1213 (Indian Child Welfare Act 
Amendments)--that we ask you to support when it comes to the Senate 
floor for consideration.
    Contract Support Costs.--The Rancheria supports the $3.5 million 
increase requested by the Administration for BIA contract support cost 
funds and $5 million to reinstate the BIA Indian Self-Determination 
Fund. We note, however, the Bureau estimates that the current on-going 
shortfall is about $17 million, which will result in only about 88 
percent of a tribe's negotiated indirect cost rate being paid. We also 
support the Administration's request of a $40 million increase for IHS 
contract support costs.
    The Upper Lake Rancheria would also like to comment on two matters 
which are necessarily a part of the appropriations bill, but which are 
great importance to us. The issues are:
    Medicare/Medicaid Direct Billing.--The Rancheria supports pending 
legislation (S. 406) to extend and expand the Medicare/Medicaid direct 
billing demonstration project, which is authorized in Section 405 of 
the Indian Health Care Improvement Act. Section 405 allowed four tribal 
health contractors who operate an entire IHS hospital or clinic to 
bypass IHS and directly bill for and receive payments for services 
provided to patients who are Medicare- or Medicaid-eligible.
    The project has reduced delays in receiving payments, improved 
eligibility determinations, and increased the accuracy of the claims 
submitted. The ability to be reimbursed in a more timely manner allows 
the participants to deposit and earn interest on these funds. These 
additional funds earned are used for Medicare/Medicaid-eligible 
activities.
    Labor Union Issues.--The Rancheria support the concept in pending 
legislation (H.R. 2992) which provides that states cannot require 
tribes to include a labor agreements as part of the gaming compact 
negotiations discussion. While the Rancheria is bound to follow the 
terms and conditions the compact as ``negotiated'' with the State of 
California, we firmly believe that discussion of a process for 
representation of rights for employees should be between the tribe and 
its employees (or their representatives).
    The Upper Lake Pomo Rancheria appreciates the opportunity to 
provide our views to the Subcommittee regarding the fiscal year 2001 
budgets for the Bureau of Indian Affairs and Indian Health Service.
                                 ______
                                 

          Prepared Statement of the Jamestown S'Klallam Tribe

    Mr. Chairman, on behalf of the Jamestown S'Klallam Tribe, I thank 
you for the opportunity to express our concerns and requests regarding 
the fiscal year 2001 Bureau of Indian Affairs and Indian Health Service 
budgets. The following document presents the Jamestown S'Klallam 
Tribe's funding priorities, as well as other regional and national 
concerns and recommendations for your consideration.

                         OVERALL RECOMMENDATION

    The Jamestown S'Klallarn Tribe strongly recommends that the 
Subcommittee not consider any provisions or legislative riders which 
undermine Tribal sovereignty and our ability to advance our 
governmental capacity based on long-standing Federal/Tribal relations 
and Federal Indian law and policy. We further recommend that you not 
consider any provisions which limit Tribal governmental discretion to 
re-design programs and reallocate funding to meet local priorities and 
needs as authorized under the Indian Self-Determination and Education 
Assistance Act, as amended. This is consistent with the Administration 
and Congress' devolution initiatives in which the Federal Government is 
ceding more authority to local units of government.

                TRIBAL-SPECIFIC APPROPRIATION PRIORITIES

    $534,000 one-time funding for construction of a dental clinic to 
serve our Tribal community;
    $600,000 one-time funding for the purchase of two parcels of land, 
one adjacent to our existing reservation and one near our reservation; 
and,
    $35,000 increase in BIA Tribal base funding for unfunded Operations 
& Maintenance programs.

              LOCAL/REGIONAL REQUESTS AND RECOMMENDATIONS

    $300,000 for the Point no Point Wildlife Program; and,
    Support all requests and recommendations of the Affiliated Tribes 
of Northwest Indians, Northwest Portland Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.

           SELF-GOVERNANCE AND OTHER NATIONAL CONSIDERATIONS

    Restore and expand $1,000,000 increase to the DOI Office of Self-
Governance for planning and negotiation grants;
    Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustment;
    Provide $201,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services; and,
    Support all requests and recommendations of the National Congress 
of American Indians.

Tribal-Specific Appropriation Priorities

            Construction of a Community Dental Clinic--+$534,000

    The Tribe has recognized a need to locally provide dental services 
to Tribal members. In this isolated rural community, dentists are 
unwilling to provide services to Medicaid patients because of the low 
rate of reimbursement for those services. Clallam County in general, 
and our Tribal community in particular, has a large percentage of 
people on Medicaid. We could serve these people at our own facilities. 
If we continue to rely on private dental service providers, we will not 
have any way to acquire services for our Medicaid-eligible Tribal 
members. The Tribe is proposing to construct a 3,300 square foot dental 
clinic with 4 chairs, offices, and laboratory facilities at our Tribal 
campus. Costs include specialized equipment and furnishings, parking 
and all construction costs and fees.

            Establishment of Tribal Land Base--+$600,000

    For the past 9 years, the Tribe has requested the Subcommittee's 
assistance in securing additional land to add to our existing 
reservation. This request remains unfunded and we again appeal to the 
Subcommittee for your consideration of funding for this land 
acquisition. In the 1870's, Tribal members rejected a relocation policy 
(urged on by white settlers) to move them from their historical lands 
to another Tribe's reservation. In 1981, the Jamestown S'Klallam Tribe 
achieved federal recognition. Since that time, we have been attempting 
to undo the effects of this injustice, which had devastating social, 
economic, and cultural impacts on the Tribe. We strongly believe the 
United States government has an obligation to assist the Tribe in 
correcting these negative impacts. One way this situation can be 
addressed is for the Congress to assist us in adding to our meager 
reservation land base; a base that would have been substantially larger 
had it not been for the 100-year wait for our recognition.
    A contiguous four acre waterfront property site, on Sequim Bay (as 
is the Tribe's reservation) still remains available for purchase at 
approximately $450,000. In addition, there is a ten acre site, near the 
reservation which is available to the Tribe at approximately $150,000. 
These land acquisitions would allow us to expand our Tribal government 
facilities to meet the steadily increasing demand for services by our 
Tribal members. Our Tribe is now at a critical juncture in this rapidly 
evolving situation. We need Congressional assistance to purchase the 
adjacent property which is essential for logical and efficient growth 
management of the Tribal operations. If the Tribe does not acquire the 
contiguous 4 acre tract and a third party purchases and develops it, we 
will obviously be blocked from any further practical expansion of our 
reservation base due to the geographic conditions of this area. In 
addition, the likelihood of a price escalation for this acreage 
continues to exist. The 10 acre site would be an excellent location 
for, among other things, a Tribal health and wellness clinic. It would 
also be a good site for the placement of future additions (7-20 years) 
to the Tribe's water and wastewater infrastructure.
            Increase in BIA Tribal Base Funding For Operations & 
                    Maintenance--+$35,000
    Federal programs with jurisdiction over water and wastewater 
facilities and/or funding (EPA, IHS, HUD) require that a formal 
operations and maintenance program be adopted and implemented. These 
facilities require a certified operator employed by the tribe, ongoing 
monitoring and maintenance, and equipment reserves at an estimated 
annual cost of $35,000. O&M programs are not funded by the agencies 
requiring them, nor are they eligible for funding under any program; 
thus, they are an unfunded mandate. If we are to meet the requirements 
for successful operation of our facilities, we must request an 
additional $35,000 annually.

Local/Regional Requests and Recommendations
    The Wildlife Program has been funded since 1993 by a combination of 
grants. However, this source of funding is extremely precarious, and it 
is impossible to conduct long-term planning without a permanent source 
of program funding. We support funding for this crucial program in the 
amount of $300,000.
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
Self-Governance and Other National Considerations
    Increase Self-Governance Grants within Non-Recurring Programs by $1 
million dollars.--In order to restore planning and negotiation grants 
for tribes wanting to enter into Tribal Self-Governance and for tribes 
wishing to negotiate an annual funding agreement with a non-BIA bureau 
within the Department of the Interior. This funding for planning and 
negotiation was deleted several years ago. This increase supports BIA's 
GPRA goal: ``To provide Tribes with the resources they need to foster 
strong and stable Tribal governments and exercise their authority as 
sovereign nations.'' It also supports long-term goal #1 that states: 
``By 2005, the Bureau will promote Indian Self-Determination by 
enhancing training and technical assistance by 50 percent and 
minimizing impediments to Tribal contracting, compacting and grants.'' 
This increase will allow for 10 advance planning grants of $35,000 
each, 10 negotiation grants of $25,000 each and 10 planning and 
negotiation grants of $40,000 each for non-BIA programs.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need.--CSC funds are required for Tribes to successfully 
manage their own programs. While the Administration's budget request 
for fiscal year 2001 includes a modest increase for CSC, an additional 
$60 million is needed in IHS and an additional $25 million is needed in 
BIA to fully fund CSC. This shortfall continues to penalize Tribes 
which elect to operate BIA and IHS programs under the self-
determination policy. Further, this shortfall threatens to pit tribe 
against tribe as mature contractors are asked to absorb all 
inflationary increases in order to fund new contractors. Additional CSC 
appropriations are needed to implement the self-determination and self-
governance policy as supported by Congress. We urge the Subcommittee to 
fully fund CSC for Tribes similar to how other contractors are funded 
within the Federal Government.
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustments.--Although the 
Administration's budget request for fiscal year 2001 includes a $60.5 
million increase over fiscal year 2000, this is the second year in a 
row that the request contains no general increase for TPA. This 
activity includes the majority of the funds used to support on-going 
services at the local Tribal level including such programs as housing, 
education, natural resources management and Tribal government services. 
At a minimum, the requested amount will provide for a modest 3.5 
percent inflation adjustment for existing Tribal programs and services.
    Provide $201,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services.--
These costs are unavoidable and include medical and general inflation, 
pay costs and staff for recently constructed facilities. In fiscal year 
2000, IHS and Tribal programs had to absorb over 50 percent of 
mandatory and inflationary cost increases; in fiscal year 1999, 50 
percent was absorbed; and, in fiscal year 1998, 70 percent was 
absorbed. This has been the pattern for the past 8 years. These IHS and 
Tribal programs simply cannot afford to continue to lose real 
resources. Mandatories should be the first consideration in budget 
formulation. If unfunded, these cost increases will result in further 
health service reductions in our Tribal communities.
    In conclusion, we strongly recommend increased funding levels 
within the BIA and IHS budgets for critically-needed existing programs. 
This funding is an obligation stemming from solemn commitments of the 
U.S. to Indian people to provide basic health, safety, education and 
economic security. We appreciate this Subcommittee's continued support 
and urge that Tribal government operations be afforded the highest 
priority in your appropriation decisions.
                                 ______
                                 

    Prepared Statement of the Northwest Indian Fisheries Commission

    On behalf of the Northwest Indian Fisheries Commission (NWIFC) 
member tribes, I want to thank the Subcommittee for the opportunity to 
present testimony on our fiscal year 2001 fisheries and habitat 
management needs that fall within the Bureau of Indian Affairs budget.

           SUMMARY OF FISCAL YEAR 2001 APPROPRIATIONS REQUEST

    In general, the NWIFC supports the Administration's appropriation 
request that is presently before the Subcommittee. Specifically, the 
NWIFC requests funding and direction which will achieve the following 
for fiscal year 2001:
  --Support for the $6.5 million western Washington tribal shellfish 
        management, and enforcement funding request to implement tribal 
        treaty rights through the further establishment of tribal 
        shellfish programs;
  --Continued support of the existing $3.0 million Bureau of Indian 
        Affairs, Forest Development, Woodland Management, Northwest 
        Forest Plan, Jobs in the Woods Initiative line item and from 
        this amount a continued earmarking of $400,000 for the Wild 
        Stock Restoration Initiative;
  --Support the base funding level of $3.048 for the Timber-Fish-
        Wildlife Agreement, and increase this amount by $1.0 million to 
        implement tribal obligations under new state and private forest 
        practices rules and regulations pertaining to ESA obligations;
  --Support, at a minimum, existing funding levels within the Bureau 
        for Trust Responsibility, Tribal Priority Allocation, and Self 
        Governance that pertain to Fisheries Management and U.S.-Canada 
        Pacific Salmon Treaty at fiscal year 2000 levels; and,
  --Provision of Contract Support Funding at 100 percent levels 
        necessary for existing and emerging programs.

                              INTRODUCTION

    Twenty-six years ago, the U.S. v. Washington case was decided by 
the Federal court system. Just this last year, tribal rights were once 
again upheld when the U.S. Supreme Court denied cert. on our decade 
long shellfish litigation. These decisions, respecting the treaty 
rights of our member tribes, have propelled major changes in fisheries 
management in the Pacific Northwest. These changes have not only 
fundamentally altered the legal, political, social and economic 
institutions of the State of Washington, but have also fostered a 
nationwide quest for tribal self-determination and self-governance led 
in part by the Northwest tribal leadership. These parameters affect 
both the way tribes perform fisheries management, as well as how we 
approach the Federal system during the budget/appropriations and 
legislative processes.

            TRIBAL AND NWIFC PROGRAMS NEED CONTINUED SUPPORT

    Natural resource management in the Pacific Northwest is at a 
critical juncture. For the tribes, this circumstance comes after we 
have made great strides in institutionalizing tribal management 
consistent with tribal values, treaty rights and Federal court 
decisions. We have developed great professional capabilities and policy 
respect as we proceed through the various processes. We are efficient 
and effective, but we are still far short of where we would like to be 
in our capabilities. And, while we have efficiently organized our tasks 
and assigned responsibilities between our tribal community to extend 
our collective efforts, the new management obligations are many. Highly 
difficult complexities abound, many precipitated by the demands of the 
Endangered Species Act (ESA) and the Clean Water Act (CWA). We are 
challenged, in our area, with four separate ESA listings of threatened 
salmon and bull trout populations, and over 666 water bodies listed 
under Section 303 (d) of the CWA. Treaty rights to harvest shellfish 
are thwarted due to pollution in marine waters. To meet this challenge, 
we will need all of our existing funding and additional new resources.
    Over the past decade, tribes have been able to secure some new 
funds for additional responsibilities. However, over the same time, 
tribes have seen other monies they once received for other duties 
diminish, either through inflation or through the elimination of 
program and support funding. And in this process, Indian natural 
resource management capacity has been unfairly affected. With a small 
base, any cuts to tribal resource programs have profound impacts to 
tribal management. Therefore, we strongly urge the Subcommittee to 
guard against any diminishment of the tribal program funding base, and 
do all it can to strengthen and enhance the Bureau's Trust, Tribal 
Priority Allocation and Self-Governance Program funding. We also ask 
that the Subcommittee ensure that the Western Washington-Boldt 
Implementation and the Pacific Salmon Treaty base budgets be fully 
funded as proposed in this year's budget request.

                    SHELLFISH MANAGEMENT INITIATIVE

    For centuries, members of Puget Sound and Coastal Treaty Tribes 
have harvested shellfish for their commercial, ceremonial and 
subsistence needs. Hard shell clams and oysters were collected from 
shoreline areas. Other shellfish species, such as crab and shrimp, were 
also gathered for subsistence and commercial uses. Shellfish harvesting 
was as important to tribal traditional life and commerce, as was 
fishing for salmon and steelhead.
    Tribes signed treaties with the United States in the mid-1850's, 
that included guaranteed tribal rights to gather shellfish. However, 
over the course of the past century and a half, conflicts arose, and 
the tribal right to harvest these resources was diminished. As a 
result, tribes were forced to seek a reaffirmation of their rights 
through the Federal courts system. After over five years in the courts, 
the tribal rights to harvest have been clarified, when the Supreme 
Court last year denied cert. and let stand the decision of the 9th 
Circuit Court. Tribes have steadily moved forward during this time in 
implementing their treaty rights to harvest their share of the 
resource. However, Tribes need monies to implement this right, in much 
the same way as they did after the original U.S. v. Washington case was 
decided. Several dozen regional shellfish management plans have been 
successfully negotiated with tribal and state agencies, and tribes have 
redirected efforts to conduct the minimum management needed for their 
fisheries. Agreements and processes to access private tidelands have 
also been proceeding peacefully. The chaos predicted by some non-Indian 
groups concerning tribal access to private tidelands has not 
materialized. Tribes have fully cooperated with landowners when 
attempting to access privately owned tidelands under the rules set by 
the Court. Without new resources this success will be short-lived.
    As tribal shellfish programs develop and expand, other issues 
affecting the shellfish resource have been identified. For instance, 
very little data and technical information exists for many of the 
fisheries which are now being jointly managed by state and tribal 
managers. This is particularly true for many free swimming and deep-
water species. This lack of information will not only impact fisheries 
and the resource as a whole, but will make it difficult to assess the 
treaty/non-treaty sharing arrangements. Additionally, intertidal 
assessment methodologies differ between state and tribal programs, and 
can lead to conflicts in management planning.
    During the course of the court case, tribal and state attorneys 
were able to negotiate a consent decree regarding shellfish sanitation. 
This agreement establishes the interaction of the state department of 
health and the tribes in developing and implementing shellfish 
sanitation programs designed to protect the public health. The 
implementation of the decree has revealed to both the state and the 
tribes that the presence of biotoxins in shellfish is dangerously 
unacceptable, and threatens the viability of both the state and tribal 
shell fisheries industry. Additional research and monitoring of this 
biotoxin is necessary to prevent illness and death that may result from 
consuming toxic shellfish.
    The significant value of deep-water shellfish fisheries has 
increased illegal harvesting. Enforcement of these fisheries, at both 
the state and tribal levels, are not adequate to fully enforce these 
fisheries. Tribes and state enforcement agencies are addressing 
problems by coordinating patrols, but additional monitoring of harvest 
is needed to effectively manage these fisheries.
    Though tribes are addressing the basic management responsibilities 
in their shellfish fisheries, it is clear that more needs to be done to 
adequately address resource concerns for the benefit of all fisheries, 
Indian and non-Indian alike.
    Additional funding to tribal programs is needed to address the 
aforementioned issues. Western Washington tribes request the 
Subcommittee to add an additional $6.5 million to tribal fishery 
management contracts as part of the permanent base. This request is 
supported by a wide range of individuals, organizations, and 
governments and is necessary to effectively manage the shellfish 
resource and enforce laws and regulations.

  WILDSTOCK RESTORATION INITIATIVE, WATERSHED RESTORATION, NORTHWEST 
         FOREST PLAN, AND ENDANGERED SPECIES ACT IMPLEMENTATION

    Last winter, a number of species of Pacific Salmon were listed by 
the National Marine Fisheries Service as threatened under the terms of 
the Endangered Species Act (ESA). This fall, the Bull Trout was listed 
as threatened by the U.S. Fish and Wildlife Service. This ESA listing 
process is triggering a cascading chain of events, and will culminate 
in significant changes to harvest, hatchery and habitat practices for 
the region and its inhabitants.
    Tribes will be affected by this Federal process. As fisherman, the 
listing raises serious questions about the status of the stocks and 
poses a threat to the individual's opportunity to continue to harvest 
this salmon, a treaty-secured resource. As governments, the ESA process 
places inordinate demands upon the tribes as co-managers of the 
resource. Biological Reviews, Listing Decisions, Conferencing, 
Assessments, Opinions, Consultation, and Recovery Planning are just a 
few of the series of loops tribes will now be forced to participate in 
just to ensure their treaty protected fisheries. The tribes harvest 
opportunity and management certainty will be placed in severe jeopardy 
by these actions without additional funds to manage through the risks 
imposed by this Federal mandate. It is partly for these reasons that 
the tribes have worked very hard over the years to bring about positive 
and effective change in resource management. Unfortunately, the process 
has overtaken tribal efforts, and new obligations are upon us. That is 
why we are asking for continued support from the Subcommittee for 
additional funding beyond our base program.
    We are requesting that the Subcommittee continue to provide 
$400,000 for the Wild Stock Restoration Initiative (WSRI) from the $3.0 
million Bureau of Indian Affairs, Forest Development, Woodland 
Management and the Northwest Forest Plan ``Jobs in the Woods'' 
Initiative line item. The WSRI has been essential in developing a 
state-wide habitat inventory base that greatly affects appropriate 
salmon restoration efforts in the state. The remaining $2.6 million 
from this initiative will continue to allow tribes throughout the 
Pacific Northwest to continue to conduct watershed analysis and 
watershed restoration within their Usual and Accustomed Areas. This 
approach is identical to last year's request, which the Subcommittee 
supported.

                TIMBER-FISH-WILDLIFE AGREEMENT EXPANSION

    We are supporting additional funding to tribes for expansion of our 
Timber-Fish-Wildlife (TFW) program that cooperatively and 
collaboratively allows tribes to actively participate in state forest 
practice rules and regulations that have an affect on listed salmon 
populations. Tribes, as a result of their co-management status, are 
deeply involved in this management forum. Tribes bring to the table a 
very high level of skills and technical capabilities that if 
appropriately funded, would greatly facilitate a successful outcome. 
Over the past two years, a series of contentious negotiations 
culminated in the development of the TFW, Forest and Fish Report. Most 
all of the tribes were extremely concerned about one or more of the key 
provisions in the report. However, most all agreed the only way to 
actually resolve these issues would be to ensure that a strong 
monitoring and adaptive monitoring process be put in place. Therefore, 
we were most appreciative when the Subcommittee provided $3.048 million 
of new funding to the tribes to facilitate our participation in 
monitoring, research, data analysis, and adaptive management processes 
that are a cornerstone to the TFW process.
    As part of this effort, the tribes have included a strong 
centralized coordination component at the NWIFC, a regional 
coordination component for eastern Washington, and are focusing their 
implementation efforts at their local watersheds. The strategy calls 
for two tracks. One is aimed at supporting the development of the 
Habitat Conservation Plan (HCP) development process within the TFW 
process. A second track supports tribal participation in TFW in a 
continuing effort to shape and steer forest management practices toward 
greater fish protection.
    For fiscal year 2001, we are again requesting the Subcommittee's 
support of $3.048 million, plus an additional $1.0 million to further 
develop tribal participation in the TFW Forest and Fish effort. On a 
related note, tribes are watching closely the Commerce, Justice and 
State Subcommittee on Appropriations treatment of the Department of 
Commerce Coastal Salmon Recovery Initiative of $100 million. Without 
these monies and a set aside for the tribes, our ability to work 
through the TFW and other ESA processes will be severely constrained.

        CONTRACT SUPPORT FUNDING IS ESSENTIAL TO TRIBAL PROGRAMS

    We continue to have concerns that the Bureau of Indian Affairs has 
failed to fully request Contract Support Funds for tribal programs. We 
are also concerned that Congress has not fully appropriated their 
necessary funds. An artificial cap upon the funding pool for indirect 
cost reimbursements places a huge burden on tribal fisheries programs. 
Such a failure has forced tribal programs to reduce direct funding for 
indirect, mandated purposes. The net effect has been a loss of program 
purchasing power and program staff capability. For the NWIFC in fiscal 
year 2000, we have planned for a $250,000 contract support shortfall. 
What this means is that we are not spending that amount for direct 
services from our Fisheries Management or Pacific Salmon Treaty 
Contracts, but rather are allocating that to cover necessary program 
costs (rental, telephones, support service) not provided due to the 
indirect shortfalls. We have been, and will be forced to continue to 
reduce our programs to cover these costs as mandated by law. Such a 
burden cannot be borne by tribal programs again this year or into the 
future without onerous results. In addition, the actual level of 
contract support is not determined until late in the fiscal year making 
cash flow management extremely difficult.

                               CONCLUSION

    We appreciate the Subcommittee's continued support for the tribes 
and the NWIFC as we implement our co-management responsibilities. It 
takes funding resources to make our management system work, but the 
returns to our efforts are many. Tribal communities depend on fisheries 
for their cultural, social and economic livelihood. Because of our 
tribal management capabilities, in large part supported by this 
Subcommittee, we do feel that we are making some progress in protecting 
our resources. However, the challenges are great, and we must continue 
our effort with renewed vigor. We thank you for your attention to our 
needs. We leave you with supporting documentation for our requests. We 
are available to meet with you and your staff at your leisure.
                                 ______
                                 

             Prepared Statement of the Lummi Indian Nation

    My name is William E. Jones, Sr., Chairman of the Lummi Indian 
Nation. The Lummi Indian Nation, located on the northern coastline of 
Washington State, is the third largest tribe in Washington State 
serving a population of over 5,200. On behalf of the Lummi Indian 
Nation I want to thank you and the members of the Committee for the 
opportunity to express our concerns and requests regarding the fiscal 
year 2001 BIA, IHS, and Natural Resources appropriations.
    The following testimony presents the Lummi Indian Nation's funding 
priorities, as well as regional and national concerns and 
recommendations for your consideration. Further, the Lummi Indian 
Nation strongly opposes any bill, language or legislative riders that 
undermine tribal sovereignty. The Lummi Nation stresses the continued 
implementation of Executive Memorandum 13087 which requires all 
departments of the federal government to enter into direct coordination 
and consultation with tribes on issues that directly affect the 
functions and role of tribal governments.

             TRIBAL SPECIFIC 2001 APPROPRIATION PRIORITIES

+$18,000,000 Replacement School Construction Program
    Lummi supports the Presidents request of $15,570,000 and seeks an 
additional $2,430,000. The increase covers construction of additional 
square footage for a permanent school facility to house a student 
enrollment level of at least 750.
+$3,500,000 Semiahmoo Reinterment and Recovery Effort
    Provide the Lummi Nation with funding to ensure the sensitive 
recovery, handling, and preservation of ancestral human remains 
disturbed at a known traditional tribal cemetery site, Si'ke.
+$750,000 Water & Sewer Infrastructure Planning
    Provide the IHS Sanitation Facilities Construction Program with 
funds tribally earmarked to support the planning of water and sewage 
system infrastructure development projects.
+$1,300,000 Water Negotiations
    Provide for the following water negotiation costs: $300,000 for 
attorney fees, $400,000 for on-Reservation technical studies, and 
$600,000 for Nooksack River Basin technical studies (Tribal Government 
Services and Water Resources Accounts)
+$700,000 Increase to Lummi Nation Shellfish Hatchery Operation
    Provide support to the ongoing operation of the tribal shellfish 
hatchery consistent with the expansion of the Boldt decision to 
shellfish.
+$2,000,000 Support BIA General Assistance Program
    To assist and train Lummi fishermen suffering from the collapse of 
the Fraser River Sockeye fishery.
+$740,000 Support Realty
    Provide the Lummi Nation realty services and managerial support 
i.e.--land consolidation, land records management, tribal probate, 
staff training.
         tribal specific appropriation summaries, justification

Replacement School Construction Program.................     $18,000,000

    The BIA has estimated $15,570,000 to construct this school. The 
Lummi Nation requests an additional $2,430,000 for a total estimated 
cost of $18,000,000 to build this school. The Lummi Nation and the BIA 
Facilities Management Construction Center are working to resolve this 
miscalculation in the enrollment size for the new school. This request 
is concurrent to our application submitted in 1999. An estimated 
enrollment of 750 students is expected over the next five years. 
Current ISEP enrollments plus notarized affidavits justify this 
request. Current population growth on the reservation is 4.8 percent 
annually, which is double the BIA's growth rate of 2.5 percent as 
supported by the 1990 Census and housing survey in 1995. The total 
appropriation request the tribe seeks to complete the construction 
phase is $18,000,000.

Semiahmoo Reinterment and Recovery Project..............      $3,500,000

    The Lummi Nation is requesting $3,500,000 to ensure the sensitive 
recovery and reinterment of over 100 disturbed burials that were 
removed from a traditional cemetery during the construction of a local 
sewage plant. Without tribal knowledge and/or consent, the Lummi 
community was shocked to learn the discovery of ancestral remains that 
were insensitively disturbed and eventually transported out of state. 
The expansion of the plant was financed with federal funds and 
permitted by the state-of course the disaster was not foreseen but it 
happened and the Lummi Nation needs financial assistance to implement a 
Semiahmoo Reinterment and Recovery Plan. The Reinterment and Recovery 
Plan is expected to take at least two years to complete utilizing 
sensitive archeological excavation and handling techniques to map, 
gather, identify, handle, catalog and reinter ancestral remains and 
cultural artifacts.
    The construction project involved the removal and transporting by 
dump trucks of soil which possessed human remains and artifacts to a 
site that currently comprises over 10,000 cubic meters of cultural 
deposits covering a 3.5 acre landfill. This Recovery Effort will ensure 
that the Lummi community is able to respectfully reinter all human 
remains in a culturally appropriate manner and bring closure to this 
catastrophic event.

Water & Sewer Infrastructure Planning.........................  $750,000

    The Lummi Reservation supports a population of nearly 5,200 
persons, which has pushed water and sewer system capacities to their 
limit. Additional capacity must be obtained now to support the existing 
population. In the short-term, water and sewer systems redesign and 
upgrades will handle the problem. However, the long-term solution must 
include additional treatment capacity and water source location and 
development. Public Works infrastructure development and investments 
like these require substantial planning. The Lummi Nation is not able 
to undertake this level of planning without the assistance requested 
herein. Lummi Nation recommends the IHS Sanitation Facilities 
Construction Program to receive earmarked funds to support tribal 
planning of water delivery and sewage treatment system infrastructure 
for the existing and projected population of the Lummi Indian 
Reservation.

Water Negotiations......................................      $1,300,000

    The Lummi Nation signed an Agreement in Principle with the Federal 
Government and the State of Washington on January 27, 1998. This 
agreement is a stepping stone toward a final settlement of the on-
reservation water rights conflicts, which were and still are, 
attributable to the non-Indians disregard for treaty-reserved water and 
fishing rights in the Nooksack River Watershed. Many difficult issues 
remain to be resolved which will require significant technical studies 
and legal consultation before a final agreement can be signed. To 
complete this work the Lummi Nation is requesting $1.3 million during 
fiscal year 2001: $300,000 to defray legal consultation costs, $400,000 
for on-reservation technical studies, and $600,000 for technical 
studies in the Nooksack River Basin. Lummi Nation recommends that the 
BIA receives a special earmark to support the increase in the Water 
Rights Negotiation/Litigation, Attorney fees and technical studies.

Lummi Nation Shellfish Hatchery Operation...............        $700,000

    The thirty-year old hatchery supplies oyster and clam seeds to a 
majority of Northwest Washington Indian tribes and growers. The recent 
shellfish case decision to uphold the shellfish ruling supports the 
need to provide both the treaty and non-treaty growers for oyster seed, 
clam seed, enhancement projects. These dollars benefit both the tribal 
government and Washington State. The Lummi Nation recommends that 
$350,000 increase be earmarked to Lummi Nation through the BIA Hatchery 
Operational program.

Support BIA General Assistance Program..................      $2,000,000

    The commercial harvest forecast for CY-2000 Fraser River Sockeye is 
bleak. Lummi Nation has 500 fishermen whose primary household income 
source is this valued fishery. The Lummi reservation is an economically 
distressed community due to the following events: (1) closure of the 
nation's casino 1997; (2) 1999 Fraser River Sockeye fishery 
cancellation; and (3) restrictions to fish harvest under ESA, 99-00. 
(4) Closure of major tribal commercial shellfish beds due to pollution; 
Lummi is requesting General Assistance funds to support affected 
fishers and helping tribal member's to diversify and build new 
vocational skills through education and re-training program.

Support Realty..........................................      $2,000,000

    The Lummi Nation has a multi-year plan to address the realty 
tribulations. It's major elements include land consolidation, land 
records management, tribal probate process, revision of realty 
procedures, backlog elimination, and training. Land consolidation 
requires untangling the heirship disarray by conducting research to 
land titles, appraisals, surveys, subdivision and other technical work. 
Land records management requires development of a tribal land database 
with an electronic connection to BIA databases. The current process 
involving tribal probates is time consuming which is further 
complicated because the land is so fractionated. Development of an on-
site process using Lummi Tribal Court is needed to shorten the 
processing time.
    Regional Requests and Recommendation.--Support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, the 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
Self-Governance and Other National Considerations:
    Restore and expand $1,000,000 increase to the DOI Office of Self-
Governance for planning and negotiation grants;
    Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustment;
    Provide $201,000,000 for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services;
    Law Enforcement funding: BIA $20 Million; DOJ $83 Million (Total 
$103 Million);
    Support the President's Education Initiative to increase from $133 
million to $300 million
    Increase tribal court funding to $58.4 million as authorized under 
the Indian Tribal Justice Act, Public Law 103-176; and,
    Support all requests and recommendations of the National Congress 
of American Indians.
    I appreciate your consideration of the fiscal year 2001 requests 
and recommendations of appropriations for the BIA, HIS, and Natural 
Resources on behalf of the Lummi Nation. Thank you.
                                 ______
                                 

          Prepared Statement of the Sauk-Suiattle Indian Tribe

    The Sauk-Suiattle Indian Tribe, in Washington State, has 240 
members and is signatory to the Treaty of Point Elliott in 1855. A land 
survey was conducted to establish a reservation base for our Tribe but, 
never finalized due to the untimely death of the surveyor. We were a 
land less tribe prior to 1980 when we purchased 23 acres of land for 
our reservation near our original homelands in the foot hills of the 
Cascade Mountains. As a small tribe, our needs are magnified, as the 
basic tribal government support resources just aren't available. All 
the operations are under grants and contracts, as there are no tribal 
funds, meaning shortfalls and reductions cannot be covered by the 
Tribe. The requests for increases are to be added to the base budgets 
in the fiscal year 2001 on the following priority. Tribe's total 
request is $7.89 million.

                 TRIBAL LEVEL APPROPRIATIONS PRIORITIES

    +$190,000 to Tribal Budget Base for Government Operations in the 
BIA TPA Tribal Government Account for core staffing & equipment. 
Request 100 percent Contract Support (not 75 percent);
    +$3.5 million for Imminent Threat to the reservation due to (a) 
river flow change, (b) mud slides. The river has moved 1000 ft., With 
no dike protection, one high flood would flood the reservation. Due to 
the Wild & Scenic Status of the river, no changes can be made to it. 
For new land purchase and community infrastructure development;
    +$1.5 million for Safe Drinking Water, replacing the current 
360,000 gallon cement domestic water storage tank which leaks and water 
pipes that are not safe;
    +$350,000 for Cultural Research funding for anthropological study 
specific to Sauk-Suiattle. Also, for Land Acquisition Study, tribal 
history study, and restore language. To be added to the BIA Office of 
Trust Responsibility Account;
    +$75,000 to Tribal Base for Indian Child Welfare for administrative 
staff and additional counselors to work with children and dysfunctional 
families, in the BIA, TPA for Human Services, ICWA Account;
    +$50,000 to add to Housing Base funding for HIP and administrative 
management;
    +$1.6 million for restoring Mountain Goat Herd depletion in North 
Cascades & for a 5 yr. study. Parts of goat are used for Cultural 
purposes (horns, hoofs, etc.), last hunt was 5 yrs. ago;
    +$100,000 to BIA Law Enforcement, addition for operations, increase 
in salary, equipment, training, and jail contract funds. To be added to 
the BIA TPA, Public Safety and Justice, Law Enforcement Tribal Agency 
Account;
    +$50,000 Higher Education scholarships in the BIA Education Program 
Account;
    +$375,000 to develop economic enterprises, added to BIA Tribal 
Government Account;
    +$100,000 to do a Needs Assessment, a one-time non-recurring cost 
to TPA, BIA.
    Request streamlining of the Fee-to-Trust process, make less 
complicated. Place current new 13 acres land adjacent to the Tribe's 
Administrative Office into Trust land status, which will not to be used 
for gaming. Also, the Caskey Lake 50.8 acres land, 3 miles from the 
reservation to be transferred into trust land status;
    Request to place allotments under 19638 Management and Request 
title for the Tenas Creek and Suiattle Cemetery lands, plus two 
additional 50 acres surrounding the two cemetery parcels. Need to clear 
up the ownership, multiple jurisdiction and joint responsibilities that 
now exists. It will clear up the U.S. Forest Service, BIA, or Sauk-
Suiattle ownership.

                   REGIONAL APPROPRIATIONS PRIORITIES

Support Affiliated Tribes of Northwest Indians:
    For Northwest Portland Area Indian Health Board fiscal year 2001 
request on appropriations
    Contract support increase funding of 100 percent by NWPAIHB
    Support for Sovereign Immunity, against taxation, for Land-Into-
Trust
    Contract Support Costs (Indirect Cost) Funding at 100 percent for 
Tribes.
    BIA Forest Development, Woodland Management, Northwest Forest Plan, 
$3.0 million. ``Jobs in the Woods'' initiative, from this amount 
$400,000 for Wild Stock Restoration.
    Washington Tribal Shellfish Management, Enhancement, and 
Enforcement Funding to Implement Tribal Treaty Rights through the 
Establishment of Base Shellfish Operations $6.5 million.
    Pacific Salmon Treaty at fiscal year 2000 levels.
    Timber, Fish and Wildlife Agreement $3.048 million, increase by $1 
million to implement tribal obligations per new State and private 
forest practices rules and regulations re. ESA.

                   NATIONAL APPROPRIATIONS PRIORITIES

    Support the Administration's Request for BIA and for IHS
    Full Funding of Contract Support Costs, support President's budget 
for BIA $134 million & IHS $40 million.
    BIA TPA request, plus for the small and Needy Tribes Appropriation 
minimum.
    Elevate IHS Director to Asst. Sec.; Increase IHS funding for HIV/
AIDS, Diabetes--inflation, increase of medical costs, related 
medicines, breast & cervical cancer
    Law Enforcement funding: BIA $20 million, DOJ $83 million (total 
$103 million)
    Reauthorize Indian Tribal Justice Act of 1993 (Public Law 103-176). 
Increase tribal court funding to $58.4 million as authorized under the 
Indian Tribal Justice Act, Public Law 103-176.
    Support the President's Education Initiative to increase from $133 
million To $300 million

                      PRIORITY REQUESTS-NARRATIVE

    Increase in Core Tribal Government Staff.--The Tribe has had a 
great turnover in its core management positions (Executive Director and 
Accountant) due in large part to unstable and inadequate funding plus 
the Tribe's remote location. This has kept the Tribe from progressing. 
The Tribe requests a $190,000 appropriation increase above the $160,000 
minimum appropriated to the BIA Tribal Priority Allocations, Tribal 
Government, Other Aid to Tribal Government Budget Base for a planner/
grants writer, a business development and management assistant and 
office equipment. To include 100 percent contract support costs, not 
just 75 percent as fiscal year 1999.
    Imminent Threat.--The imminent threat to the reservation is due to 
(a) river flow change, (b) mud slides. The river has moved 1000 ft. 
within two years. With no dike protection, one high flood would flood 
the reservation. The other side is a glacial area and when it melts, it 
causes mud slides. Due to the Wild & Scenic Status of the river, no 
changes can be made to it. This will also be for new land purchase and 
infrastructure development of the Tribe.
    Safe Drinking Water.--The current 360,000 gallon domestic drinking 
water Cement Tank leaks. The tank was lined, but still leaks. Acidity 
in the water is the cause of the leaking of the high rates of lead and 
copper into the drinking system. The tank is 17 years old, is 60 feet 
high and 20 feet across. The pipes also need replacing. Because it was 
done under one Federal agency, no other Federal agency will provide 
funds to fix or restore it, as the original Federal agency is now 
defunct.
    Cultural Research Funding & Special Appropriation for Land 
Acquisition Study.--The Sauk-Suiattle Tribe has 240 members, 20 houses, 
one services building and no vacant suitable land for the creation of a 
Tribal economy. The Tribe currently has an unemployment rate of over 65 
percent and over 80 percent of employment age tribal members make less 
than $7,000 a year. With an increased land base the Tribe could provide 
employment, generate Tribal revenue, decrease dependence on Federal 
funds and enable Tribal members to return to their ancestral home. The 
Tribe requests a special appropriation of $350,000 to the BIA for the 
Sauk-Suiattle Tribe to perform a land acquisition feasibility study 
(archaeological study) on identified sites, including a tribal history 
study and report on our language and restoration of the language.
    Increase in BIA Indian Child Welfare.--Sauk-Suiattle requests that 
a $75,000 appropriation be added to the Tribe's base budget of $50,000 
through the BIA Tribal Priority Allocations, Human Services, Indian 
Child Welfare Act account to (1) provide for added counseling services, 
and (2) management to work with children and dysfunctional families. 
There are 80 member children under the age of eighteen.
    Housing.--Addition to the Housing Improvement Program (HIP) to 
repair and improve current houses of the Tribal members, plus for 
providing for administrative costs to the housing program. The $50,000 
request would provide the funds to cover these costs.
    Mountain Goat Herd.--For the restoration of the mountain goat herd 
which has depleted in the North Cascades. The mountain goat is food 
supply and parts of the goats are used for ceremonial purposes such as 
the horns, hoofs and other parts of the goat. The last hunt by Tribal 
members was 5 years ago due to lack of sufficient number of goats. The 
$1.6 million, requested would assist in providing funds to buy and 
breed in a controlled manner the restoring of goats in the North 
Cascades range, and a five year study.
    Increase in BIA Law Enforcement.--The Tribe has only one police 
officer, jail facilities are hours away. The Tribe requests a $100,000 
increase, to be added to the BIA Tribal Priority Allocation, Public 
Safety and Justice, Law Enforcement Tribal/Agency Budget Base, so that 
the Tribe can increase the salary to comparable level of surrounding 
area, provide jail contracts for detention, training academy of one 
officer, uniform and equipment for the officer, a mobile mounted camera 
on police vehicle, car computer, software of state police, and 
operation costs.
    Increase Higher Education Program.--The Tribe's current 638 
contract with BIA only provides funds for 20 percent of the Tribal 
members seeking higher education. The Tribe requests that BIA Portland 
Area Office scholarship funding be increased by $50,000 to provide 
educational opportunities to Sauk-Suiattle (60) Tribal members to 
attain their higher education. Our base budget includes less than 
$4,000, even with almost half of the population of college age.
    Increase Economic Development Enterprise.--The Sauk-Suiattle Indian 
Tribe is focused on developing economic self-sufficiency. Since these 
efforts require dedicated time to expedite results, the Tribe requires 
stable ``economic incubation'' funding for a period of 3 years in order 
to: (1) hire a business manager/planner to focus on the effort, (2) 
develop a business plan, (3) developing business codes, (4) initiate a 
viable financial enterprise(s). The tribe has calculated a three year 
cost of $375,000 for this project.
    Also, Tribal Economic Enterprises will employee those members of 
the larger community outside the Reservation currently unemployed as a 
result of the economic downturn in forest product work. The local 
community was designated a depressed timber community.
    Needs Assessment.--For Social and Demographic Needs Assessment of 
the Tribal population to determine social, economic, education, 
housing, environmental and cultural preservation needs of the general 
Tribal membership which will allow for short and long term Tribal 
planning to enhance the delivery of coordinated services to Tribal 
members. This request of $100,000 is for a one-time, non-recurring 
cost.
    Fee to Trust.--The Tribe request that the Fee-To-Trust process be 
streamlined and make it less complicated . There are two parcels of 
land that the Tribe wishes to be put in trust status. The first, the 
new 13 acres adjacent to the current reservation. Second, 50.8 acre 
Caskey Lake, lake and swamp approximately 3 miles from the reservation. 
The Tribe has No intention, nor is it feasible due to location to use 
these parcels for Gaming. It may be utilized for other enterprise to 
create jobs that will benefit the Tribe and the local non-Indian 
community. The Tribe submitted requests in July 1998 to have the 
Secretary, DOI transfer the lands from fee to trust status.
    Allotments.--There are also several thousand acres of unresolved 
Tribal allotments which should be factored into study. These lands 
(5000+ acres) were allotted to Tribal members and then taken without 
compensation in 1897 when the Mt. Baker--Snoqualmie National Forest was 
created. The cemetery sites are sacred sites and need protection. We 
need documents of Forest Service which show their ``holding in trust'' 
of the reservation sites. This proposal is for 19638 management of 
these sites by the Tribe under the BIA trust status. This will clear up 
the ownership issue.
    We urge the Congress remember our small tribal government, our 
management problems and needs, and provide support with sufficient 
appropriations. We urge that funding for tribes, their programs and 
their developments be given the highest priority. Thank You.
                                 ______
                                 

    Prepared Statement of the National American Indian Court Judges 
                              Association

    On behalf of the National American Indian Court Judges Association 
(NAICJA), I am pleased to submit this testimony on the fiscal year 2001 
budget for the Interior Department's funding for the Indian Tribal 
Justice Act (Public Law 103-176) and Tribal Courts (under the Tribal 
Priority Allocations). The NAICJA is a voluntary national 
representative membership association (non-profit organization 
incorporated in 1969) of current and former tribal court judges 
throughout the United States. NAICJA, which represents more than 350 
tribal justice systems nationwide, has a thirty-year track record of 
providing quality training and technical assistance services for tribal 
justice systems.
interior department funding indian tribal justice act and tribal courts
    Full Funding for Indian Tribal Justice Act.--NAICJA strongly 
supports full funding ($58 million) for the Indian Tribal Justice Act 
(Public Law 103-176). While NAICJA supports the Interior Department's 
fiscal year 2001 budget request of $1.3 million, we strongly support 
FULL FUNDING of the Act as promised in 1993. NAICJA actually supports 
funding at a much higher rate since the number of tribal courts and 
their needs have substantially increased since the Act was made law in 
1993--more than 7 years ago.
    Tribal Courts (under the Tribal Priority Allocations).--NAICJA 
strongly supports increased funding for Tribal Courts under the Tribal 
Priority Allocations (TPA). While we support the Interior Department's 
fiscal year 2001 budget request of $12, 585,000 (an increase of 
$1,537,000 over fiscal year 2000 level), this increase represents only 
a minimal first step towards meeting the vital needs of tribal justice 
systems. It is important to note that funding has steadily decreased 
since the passage of the Indian Tribal Justice Act. The needs (as 
recognized by Congress), however, have only been compounded with the 
passage of time, the increase in tribal courts, the increase of 
caseloads, population growth, and rise in crime rate in Indian country.
    Native American tribal courts must deal with a wide range of 
difficult criminal and civil justice problems on a daily basis, 
including the following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in Indian 
        Country. Tribal court systems are grossly under-funded to deal 
        with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act in 1993. Congress specifically found that ``tribal 
        justice systems are an essential part of tribal governments and 
        serve as important forums for ensuring public health and safety 
        and the political integrity of tribal governments'' and 
        ``tribal justice systems are inadequately funded, and the lack 
        of adequate funding impairs their operation''.
  --While the Indian Tribal Justice Act promised more than $58 million 
        per year in additional funding for tribal court systems 
        starting in fiscal year 1994, tribal courts have yet to see ANY 
        funding under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal justice Act was enacted in 1993.
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    The vast majority of the approximately 350 tribal court systems 
function in isolated rural communities. These tribal justice systems 
face many of the same difficulties faced by other isolated rural 
communities, but these problems are greatly magnified by the many other 
complex problems that are unique to Indian country. In addition to the 
previously mentioned problems, tribal justice systems are faced with a 
lack of jurisdiction over non-Indians, complex jurisdictional 
relationships with Federal and state criminal justice systems, 
inadequate law enforcement, great distance from the few existing 
resources, lack of detention staff and facilities, lack of sentencing 
or disposition alternatives, lack of access to advanced technology, 
lack of substance abuse testing and treatment options, etc. It should 
also be noted that in most tribal justice systems, 80-90 percent of the 
cases are criminal case and 90 percent of these cases involve the 
difficult problems of alcohol and/or substance abuse.
    NAICJA has repeatedly testified concerning the needs of tribal 
justice systems. For example, see the testimony of former NAICJA 
President (and current NAICJA First Vice President) Jill Shibles before 
the Senate Committee on Indian Affairs on June 3, 1998 and February 24, 
1999. Many of the remarks of Judge Shibles from prior testimony are 
incorporated below.

                      IMPORTANCE OF TRIBAL COURTS

    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping `` 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). It is her view that ``fulfilling the 
Federal Government's trust responsibility to Indian nations means not 
only adequate Federal law enforcement in Indian Country, but 
enhancement of tribal justice systems as well.'' Id.
    Tribal courts agonize over the very same issues state and Federal 
courts confront in the criminal context, such as, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
These courts, however, while striving to address these complex issues 
with far fewer financial resources than their Federal and state 
counterparts must also ``strive to respond competently and creatively 
to Federal and state pressures coming from the outside, and to cultural 
values and imperatives from within.'' (Pommersheim, ``Tribal Courts: 
Providers of Justice and Protectors of Sovereignty,'' 79 Judicature No. 
7, November/December 1995, p. 111). Judicial training that addresses 
the present imperatives posed by the public safety crisis in Indian 
Country, while also being culturally sensitive, is essential for tribal 
courts to be effective in deterring crime in their communities.
    There is no federally supported institution to provide on-going, 
accessible tribal judicial training or to develop court resource 
materials and management tools, similar the Federal Judicial Center, 
the National Judicial College or the National Center for State Courts. 
Even though the NAICJA annually sponsors the National Tribal Judicial 
Conference, the three-day conference cannot provide the in-depth 
extensive judicial training necessary to make tribal justice systems 
strong and effective arms of tribal government.

              INADEQUATE FUNDING OF TRIBAL JUSTICE SYSTEMS

    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Seven years after the Act was enacted, how much funding has been 
appropriated? None. Not a single dollar was even requested under the 
Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal funds 
were requested for fiscal year 1996 and 2000. Yet, even these minimal 
funds were deleted. Even more appalling than the lack of appropriations 
under the Act is the fact that BIA funding for tribal courts has 
actually substantially decreased following the enactment of the Indian 
Tribal Justice Act in 1993.

                               CONCLUSION

    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the Federal Government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Interior Department's 
Budget Request for the Indian Tribal Justice Act and Tribal Courts 
(under the Tribal Priority Allocations). Thank you very much.
                                 ______
                                 

         Prepared Statement of the Coalition for Health Funding

    The Coalition for Health Funding joins with the Friends of Indian 
Health to urge that the Subcommittee on Interior and Related Programs 
Appropriations provide $2,715,114,000 in fiscal year 2001 for the 
Indian Health Service. This request level reflects both professional 
budget judgement and tribal budget consultations.
    While the Coalition sincerely appreciates the Administration's 
unprecedented request for a 9.25 percent ($229.7 million) increase for 
health care services for American Indian and Alaska Native communities, 
we recognize that this is the largest increase in over two decades. Two 
decades of flat or small increases means that this year's robust budget 
request can only represent a good first step in an effort to ``catch 
up'' to the real needs facing these communities in the absence of 
appropriate levels of resources for a generation.
    We hear a great deal these days about health disparities and the 
increasing opportunities of a wealthy nation to address them. The 
discrepancies between health indicators for all Americans and health 
indicators for American Indians and Alaska Natives (AI/AN) show that 
the AI/AN populations suffer the greatest rates of disease and death. A 
1997 national study conducted at Harvard University and supported by 
the Centers for Disease Control and Prevention found that the lowest 
life expectancies in the nation, including inner city areas and both 
men and women, exist in Indian populations. The Indian Health Service 
has published data showing the 1995 age-adjusted death rates for all 
Americans at 503.9 per 100,000 deaths and for Indian Health Service 
areas 699.3 per 100,000 deaths--a 38 percent difference in life 
expectancy, which translates into far less overall life expectancy for 
American Indians.
    Infant mortality rates, another basic health indicator, are less 
dramatic with recent improvements in rates for Indian Americans and 
Alaska Natives, but still lag significantly behind overall U.S. rates. 
The Indian Health Service reports that in 1995 infant mortality was 7.6 
per 1,000 live births for all U.S. babies, but 9.3 per 1,000 live 
births for those served in Indian Health Service areas.
    Other health disparities exist in higher rates of diabetes, 
alcoholism, injuries, and oral diseases for AI/AN populations. But 
because Indian health services have been underfunded for 20 years, 
fewer resources have been provided to address these greater health 
problems: the per capita health care expenditure for the whole U.S. is 
$3,147, but only $1,425 for American Indians served by the IHS; the 
physician ratio is 229 per 100,000 population for non-Indian 
communities and only 90 per 100,000 in communities served by the Indian 
Health Service.
    Because funding has not kept pace with need, the Indian Health 
Service has experienced the following reductions in basic primary care 
services:
  --20 percent decline in well child services between fiscal years 
        1992-1996;
  --14 percent decline in physical exams between fiscal years 1994-
        1996;
  --18 percent decline in dental services between fiscal years 1994-
        1996.
    For all of these reasons, the Coalition for Health Funding urges 
you to exceed the President's budget request for fiscal year 2001 and 
provide $2,715,114,000 for the Indian Health Service. The additional 
funding would be used to extend clinical services; preventive health 
services; targeted health services, such as diabetes translation and 
substance abuse treatment; and support for improved sanitation and 
health care facilities construction, both neglected but critical needs 
in many American Indian and Native Alaskan communities.
    The Coalition for Health Funding is the nation's oldest, most 
broadly-based private, non-profit organization supporting the agencies 
of the U.S. Public Health Service. The 38 member organizations and 
their 40 million health professionals, lay volunteers, researchers, 
patients and families believe that improved health outcomes must be 
addressed by adequately supporting the continuum of biomedical, 
behavioral and health services research; community based prevention and 
health promotion strategies; targeted health care delivery; and health 
professions education. A list of the Coalition's member organizations 
follows.

                  COALITION FOR HEALTH FUNDING MEMBERS

    AIDS Action Council
    American Academy of Pediatrics
    American Academy of Physician Assistants
    American Association of Colleges of Pharmacy
    American Association of Dental Schools
    American Association for Dental Research
    American Association of University Affiliated Programs for Persons 
with Developmental Disabilities
    American College of Cardiology
    American College of Preventive Medicine
    American College of Rheumatology
    American Dental Association
    American Foundation for AIDS Research
    American Heart Association
    American Lung Association
    American Nurses Association
    American Optometric Association
    American Psychological Association
    American Psychological Society
    American Public Health Association
    American Society for Microbiology
    Association of American Medical Colleges
    Association of Chiropractic Colleges
    Association of Maternal and Child Health Programs
    Association of Public Health Laboratories
    Association of Schools of Public Health
    Association of State and Territorial Health Officials
    Association of Teachers of Preventive Medicine
    Association of Women's Health, Obstetrics, and Neonatal Nurses
    Citizens for Public Action on Blood Pressure and Cholesterol
    Community Health in Focus
    Cystic Fibrosis Foundation
    March of Dimes Birth Defects Foundation
    National Association of Children's Hospitals
    National Association of Community Health Centers
    National Association of County and City Health Officials
    National Mental Health Association
    Planned Parenthood Federation of America
    Society for Neuroscience
                                 ______
                                 

Prepared Statement of the Confederated Tribes of Grand Ronde Community 
                               of Oregon

    Mr. Chairman and members of the Committee, my name is Kathryn 
Harrison. I am Chairperson of the Confederated Tribes of the Grand 
Ronde Community of Oregon. I am here today to testify on the budgets of 
the Bureau of Indian Affairs and the Indian Health Service for fiscal 
year 2001. The Tribe's requests on these issues are as follows
Indian Health Service
    Increasing I.H.S. mandatories by $89 million above the President's 
fiscal year 2001 budget recommendation.
    The Confederated Tribes of Grand Ronde support the President's 
fiscal year 2001 $40.9 million budget recommendation for Contract 
Health Services.
    Increasing Catastrophic Health Emergency Fund (CHEF) funding by $18 
million above the President's fiscal year 2001 budget recommendation.
    Increasing Contract Support by $50 million above the President's 
fiscal year 2001 budget recommendation to eliminate the current 
shortfall.
    Increasing Diabetes funding by $3.8 million above the President's 
fiscal year 2001 budget recommendation to fund basic health education 
and disease prevention activities.
    Fund Alcohol and Drug Regional Treatment Centers at $10 million.
Bureau of Indian Affairs:
    Adding funds to Tribal Priority Allocations to meet Tribal needs 
for community services, education, natural resources, and tribal court 
services.
    The Tribe is please to see that the President's budget reflects a 
9.6 percent, or about $230 million, increase in the I.H.S. proposed 
budget. However, it is estimated that I.H.S. budgets include the 
aforementioned sources above and beyond the President's requests. We 
also would like to ask for support of the Analysis and Recommendations 
of the Northwest Portland Indian Health Board for the fiscal year 2001 
Indian Health Service budget.
    In 1954, members of the Confederated Tribes of the Grand Ronde lost 
Federal recognition under the Western Oregon Termination Act. This 
legislation destroyed out Tribal Government, took away remaining Tribal 
lands, and brought about numerous socio-economic problems to our 
members. In 1983, the Tribe regained its rightful place among Indian 
Nations when Congress passed the Grand Ronde Restoration Act.
    A survey of our Tribal membership completed in 1985 revealed the 
ugly impacts of termination. The Tribe's unemployment rate was 23 
percent. 38 percent of our population 19 years or older had not 
completed high school. Finally, 34 percent of our households had 
incomes below the poverty level. The survey also revealed serious 
health issues, including many members with high blood pressure, heart 
disease, arthritis, vision, hearing, and alcohol and substance abuse 
problems.
    We have since come a long way in fighting the problems that we have 
had to face with respect to termination. Despite some of the current 
positives that are taking place in Indian Country, and specifically 
Grand Ronde, there is still a great deal of unmet need that exists with 
our Tribal community. We have the unfortunate task of trying to make up 
for 29 years without support or services, and while we do our best to 
provide for our membership, as well as the community, we still fall 
short. We will continue to strive for the best, and we are proud that 
today we are a Self-Governance Tribe with both the B.I.A. and the 
I.H.S.. Self-Governance allows us some opportunities that we are 
pleased with to use limited B.I.A. and I.H.S. dollars for Tribal 
priorities.
    We are honored one again to be able to speak in front of you about 
the status of our Tribal community. We are proud to be Native 
Americans, and we are also very proud to be Oregonians, as well as 
citizens of the United States. We look forward to continuing to be able 
to work harmoniously on a government-to-governments basis with the 
United States Congress.
    Thank you. That concludes my remarks.
                                 ______
                                 

   Prepared Statement of the Native American Fish & Wildlife Society

    Mr. Chairman and Distinguished Committee Members: My name is Ken 
Poynter, and I'm the Executive Director of the Native American Fish & 
Wildlife Society (Society) and an enrolled member of the Passamaquoddy 
Tribe of Maine. I would like to thank you, on behalf of the Society, 
for the opportunity to provide testimony to the Appropriations 
Subcommittee on the Interior and Related Agencies. I will be requesting 
appropriations from the Department of the Interior, Bureau of Indian 
Affairs (BIA), Wildlife & Parks budget (under Other Recurring Programs) 
for continued funding at the organization's fiscal year 2000 level of 
$491,000 for fiscal year 2001.
    The Society is a national non-profit organization dedicated to the 
sound management and prudent use of tribal fish and wildlife resources. 
The organization serves as a network among tribes throughout the 
country, including Alaska, and provides training and technical 
assistance to tribes in natural resource enhancement, planning, 
research and management.
    At this time, the Society includes a membership of 214 tribes 
(which consists of 65 Alaskan Native villages and non-profit 
corporations), over 2,400 individual members, numerous regional 
commissions, as well as other Native organizations. All of these 
various constituents are supportive of tribal fish and wildlife 
development and of the various programs and services provided by the 
Native American Fish & Wildlife Society.
    The concept of the Society is based on the need for an organization 
to assume a leadership role to maintain the technical proficiency of 
tribal fish, wildlife and natural resource programs. Because of its 
organizational structure, the Society is able to efficiently respond to 
specific requests from tribes for technical assistance regarding the 
development, enhancement and wise use of their natural resources.
    The Native American Fish & Wildlife Society represents a wealth of 
experience and information regarding management of fish and wildlife 
resources on Indian lands. Society members embody a diverse group of 
lay people, fishery biologists, wildlife biologists, foresters, 
conservation law enforcement officers, and land use managers and 
planners who currently manage tribal land bases throughout the country.
    Society members are involved in technical initiatives sponsored by 
the Society, the development of tribal fisheries, as well as wildlife 
and recreation management initiatives critical to the preservation and 
protection of tribal resources. In addition, the Society continues to 
respond to the needs of its members in the area of technical 
assistance, training and program support.
    The Society's Technical Services office is responsible for 
responding to inquiries, along with the assessment, coordination and 
delivery of requested technical assistance (TA). The Technical Services 
Director has developed an informative and extensive national network of 
professionals who further enhance his ability to assist with requests 
received by his office. Due to his professional expertise, as well as 
the availability on an extensive in-house, natural resource library at 
his disposal, the organization has gained a reputation for its ability 
to provide timely and accurate information. To date (in fiscal year 
2000), the Society has provided technical services and assistance to 
over 120 tribes. In addition to direct tribal support, this department 
has assisted many Federal, state and non-governmental agencies in their 
capacity to initiate and/or enhance their work with tribal governments.
    In order to facilitate the transfer of information and provide 
essential forums that address important resource management issues, the 
Society coordinates and sponsors seven annual regional conferences, as 
well as one annual national meeting. Regional conferences generally 
address issues pertaining to the region, where as the national meeting 
brings the regions together providing an opportunity for participants 
to focus on pertinent national issues.
    Recognizing the importance of education to build and enhance tribal 
resource management capacity, the Society has made a major commitment 
to filling this otherwise un-met need. Emphasis has been placed on 
providing periodic training to professionals working in the various 
disciplines related to tribal natural resource management. The Society 
continually provides support for periodic training seminars in each of 
its seven geographical regions. These training sessions have become a 
mainstay of the organization and are a good example of our effort to 
assist tribes in the area of natural resource management and 
protection. These funded education sessions provide Native resource 
managers, as well as others, opportunities to learn new management 
skills and techniques or refresh old ones and represent, in most cases, 
the only occasion available to foster their knowledge.
    Training sessions are identified and scheduled regionally by 
Society members. This method of identifying and scheduling trainings 
allows members to conduct sessions that they feel are most pertinent to 
their needs and that are held at the most convenient time and location. 
As a result of utilizing this form of training identification, sessions 
are generally regionally specific and collectively diverse.
    In order to maximize financial resources and member benefits, the 
Society continues to identify and work with other entities as co-
sponsors of these important training workshops. In fiscal year 1999 
over 30 separate training and/or educational sessions were conducted 
with a collective participation of over 1,800 individuals. This 
impressive accomplishment was made possible by working in conjunction 
with over 30 different partners. Although too numerous to list 
individually, the group included the U.S. Fish & Wildlife Service, U.S. 
Forest Service, Department of Agriculture, the University of Alabama, 
Colorado State University, individual volunteers and numerous tribes 
(such as the Southern Ute, Hopi, Bois Forte and Navajo Nation to name 
just a few).
    The following list contains the titles of the majority of seminars 
conducted in fiscal year 1999 (the number in parentheses after some of 
the titles represent the total number of times that particular session 
was conducted): Hazardous Materials (Haz Mat) Awareness Level Training 
(14), Haz Mat Incident Command Training (6), Field Identification of 
Contaminants, Conservation Officer Hazardous Materials Recognition & 
First Responder, Wildlife Conservation on Indian Lands, Wildlife 
Diseases, Conservation Officer In-Service Training (2), Habitat 
Conservation Restoration and Management, Black Tailed Prairie Dog 
Management (3), Game Fish & Non-Game Management, Fish and Wildlife 
Management and Integrated Resource Management Planning.
    To augment information disbursement and exchange, the Society 
publishes and distributes four quarterly newsletters, a comprehensive 
annual report, promotional publications, informational management 
brochures and other management reports, and publications to members and 
other interested parties. The aforementioned partnerships also provided 
opportunities to further maximize the federally appropriated funds 
received by the organization by covering a portion of the printing 
costs of some of these publications.
    Native youth will someday become the Stewards of their tribal lands 
and are considered to be the culture's most precious resource. The 
Society has developed an award-winning summer program for Native Youth 
to help ensure that there will be educated, professional Native people 
available in the future to protect and manage tribal lands.
    This annual program, entitled the Native American Environmental 
Awareness Summer Youth Practicum (Youth Practicum) is designed to 
instill in its participants a respect for the natural environment, as 
well as to nurture their interest in pursuing natural resource 
management careers. This unique national program was acknowledged and 
honored by the Department of the Interior in 1999 for its outstanding 
contributions in developing Native American youth as the natural 
resource managers of tomorrow. The Society's Youth Practicum Programs 
received the distinguished Conservation Service Award from the 
Department of the Interior.
    The Youth Practicum brings thirty-five Native American youth 
together for two weeks of in-class instruction and hands-on field 
experience in virtually every aspect of natural resource management 
(NRM). Five students are selected from each region and brought to 
Colorado from all parts of the country. The Program's instructors and 
counselors are active Society members and volunteer their time to the 
program. Being Native themselves, as well as working professionals in 
some discipline of natural resource management, these volunteers serve 
as both instructors and role models.
    This year marks the 10th anniversary of this program and represents 
an important milestone for both the organization and the nationally 
acclaimed project. Organizationally, this year's annual program 
signifies the importance and commitment the Society has placed on 
educating Native Youth. For the program, this 10th year is evidence of 
its value, its strength, its success, as well as proof of the real need 
it fulfills.
    The Society is proud to share data obtained from a 1998 survey of 
former Youth Practicum students which clearly attests to the success of 
this renowned annual program. To date, over 270 students have received 
instruction in the fundamentals of natural resource management and 
environmental science. The survey, as well as personal contacts with 
former students, revealed that at least 6 former students have already 
graduated with degrees in some aspect of natural resource management. 
The survey had a 37 percent return and further revealed that at least 
25 former students have earned post-secondary degrees, with one 
currently attending law school and specializing in environmental law. 
In addition, over 60 percent have completed some college work or are 
currently in college.
    The information provided by the survey is strong evidence of the 
importance and positive impact this critical program has had on Native 
youth. It is also clear evidence that the program is successful and 
working as it was designed. To me, the most important and special event 
indicating its success is that this year, one of the program's first 
students (with a recent degree in natural resource management and a new 
position with the Bureau of Land Management) will be returning as a 
volunteer instructor and a second generation role model. The Youth 
Practicum is one of the organization's most important and successful 
programs and will continue to receive priority allocation of budget 
funds from the organization's annual Federal appropriation.
    As in past years, the Society's intent is not to ask for additional 
funds to meet the increasing cost of the programs we have developed, 
but to again express our appreciation to the Subcommittee and our 
supporters for the faith they continue to show in our ability to 
accomplish our stated goals. Focusing on raising an endowment large 
enough to completely sustain the organization was beginning to affect 
the time and focus required to successfully accomplish Society 
projects. Recognizing this, the Society formed the Native American Fish 
& Wildlife Foundation (Foundation) as the fund-raising arm of the 
organization. The Foundation will focus entirely on raising endowment 
funds, allowing the Society to concentrate on delivery of its projects 
and services.
    The Society is currently the only national Native organization that 
provides technical assistance to tribes, Federal, state and local 
Governments, as well as others working in the area of tribal resource 
management. It is also the only national Native organization providing 
valuable training for and in-direct support of tribal natural resource 
management professionals. Society programs and services clearly provide 
direct benefit to tribes and the lands they manage.
    In light of the fact that there is a short-fall of Federal funding 
available for tribal natural resource management activities, the 
Society considers itself a valuable resource positioned to support and 
assist tribes. The continued funding at the $491,000.00 level received 
last year would ensure that the Society is able to continue providing 
its beneficial services and assistance to tribes.
    To reiterate our request to the Senate Appropriations Subcommittee 
on Interior and Related Agencies, the Society is requesting a Total of 
$491,000.00 for fiscal year 2001.
                                 ______
                                 

          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the Tribe's fiscal year 2001 request for $199,500 from 
programs in the Department of the Interior (DOI) and report language 
regarding the Critical Ecosystem Studies Initiative in the National 
Park Service's budget. The Tribe requests that Congress provide:
  --$199,500 from the Bureau of Indian Affairs for water quality 
        studies, as a part of the Tribe's Everglades restoration 
        efforts; and
  --language in the Interior Department's appropriation bill's report 
        specifying that, in lieu of a designated level of funding for 
        Seminole water studies, the Tribe will receive a preference in 
        competition for funding from the Critical Ecosystem Studies 
        Initiative (CESI) account in the National Park Service budget 
        for activities related to the Tribe's Everglades Restoration 
        Initiative on the Big Cypress Reservation.
    In addition to this specific request for the Tribe's programs, we 
request that Congress fund the CESI account at the same level it has 
been funded in fiscal years 1998 and 1999, which is $12 million. Last 
fiscal year, the Administration cut the CESI account by one-third, 
despite the important research that it funds; such research helps 
support critical Everglades ecosystem restoration. In this current 
fiscal year, the CESI account was funded at $8 million. The Tribe 
requests that Congress the restore the $4 million cut to the CESI 
account.
    With the $12 million funding level, DOI allocated $1 million to the 
Seminole and Miccosukee Tribes to share. Prior to last fiscal year, the 
Miccosukees did not participate in this program, so the Seminoles 
research was adequately funded at the $1 million level. When CESI's 
funding level was cut to $8 million, the Tribal allocation was cut to 
$460,000, a disproportional reduction. Also, the Miccosukees started 
participating in the program after the funding was out. The effective 
reduction, due to reduced funding and the Miccosukees rightful 
participation, has prevented the Seminole Tribe from pursuing and 
completing scientific research necessary for ecosystem restoration.
    To address the reduced level of funding, the Park Service proposed 
that the Tribe no longer receive a dedicated portion of the CESI funds, 
but that the Tribe compete through the funding decision process with 
the provision of a preference as a Tribe, and where applicable to 
specific projects, a preference for existing, previously CESI-funded 
projects. Because, in fiscal year 2001, the Tribe anticipates only 
requesting funding for its ongoing, previously CESI-funded projects, 
the Tribe anticipates that each of its requests will get a double 
preference. The Tribe requests that the Committee include in its report 
a notation of this selection process including the preferences for the 
Tribes and for previously funded projects.
    The Tribe's Everglades Restoration Initiative is a comprehensive 
water conservation system designed to improve the water quality and 
natural hydropatterns in the Big Cypress Basin. This project will 
contribute to the overall success of both the Federal and the state 
Governments' multi-agency effort to preserve and restore the delicate 
ecosystem of the South Florida ecosystem. The Seminole Tribe has been 
working with the U.S. Army Corps of Engineers (COE) and the USDA 
Natural Resources Conservation Service (NRCS) to identify programs that 
could fund the Tribe's Everglades Restoration Initiative. On January 7, 
2000, the Tribe and the COE signed a Project Coordination Agreement for 
design and construction of the western portion of the Big Cypress 
Reservation, along with a canal that transverses the Reservation, as a 
Critical Project under the authority of the Water Resources Development 
Act of 1999. The NRCS has identified a number of Farm Bill programs 
suitable for funding the design, planning, and construction of the 
project on the eastern portion of the Reservation; a Wetland Reserve 
Program site is almost completed and another soon to begin. The funds 
provided by the DOI have made it possible for the Tribe to do the 
research necessary to allow the COE and NRCS to complete final project 
designs. In addition, the Tribe continues to spend Tribal funds to 
advance the research and design and is prepared to provide the required 
cost share payments as required by the different Federal programs.
            seminole tribe everglades restoration initiative
    The DOI, through the BIA, has provided the Tribe with $199,500 in 
each of the fiscal years 1994 through 2000. In addition, through the 
NPS, Interior provided the Tribe with $390,000 in fiscal year 1997, 
$920,000 in fiscal year 1998, and $684,125 in fiscal year 1999. A 
$460,000 appropriation was provided to both the Seminole and Miccosukee 
Tribes in the fiscal year 2000 appropriation cycle; the Tribe is 
working with the Task Force and Everglades National Park to decide how 
to split the funding. The Tribe is using these funds to monitor and 
analyze the quality and quantity of water coming onto and leaving the 
Reservation and to conduct scientific studies to determine nutrient 
impacts. For example, the Tribe plans to study the assimilative 
capacity of the C&SF canals for nutrients, phosphorus in particular. 
The results of such monitoring and studies will be available to others 
studying ecosystem degradation and developing plans to arrest the harm.
    The Tribe has also developed a water conservation plan that will 
enable us to meet new water quality standards essential to the cleanup 
of our part of the Everglades ecosystem and to plan for the storage and 
conveyance of our water rights. The appropriated funds have also been 
used to design the Tribe's best management practices program, with the 
assistance of the NRCS. We continue to use available funds to further 
the design and planning work necessary to implement our Everglades 
Restoration Initiative.
    The Tribe's Everglades Restoration Initiative is designed to 
mitigate the degradation the Everglades has suffered through decades of 
flood control projects and urban and agricultural use and ultimately to 
restore the nation's largest wetlands to a healthy state. Our 
Everglades Restoration Initiative will enable the Tribe:
  --to collect and monitor data to establish a baseline and to evaluate 
        performance of the overall system design;
  --to design and construct surface water management systems to remove 
        phosphorus, convey and store irrigation water, improve flood 
        control, and rehydrate the Big Cypress National Preserve;
  --to commit to the long-term operation and maintenance of new water 
        management systems; and
  --to design and implement comprehensive best management practices for 
        the Big Cypress Reservation.
    This project will enable the Tribe to meet proposed numeric target 
for low phosphorus concentrations that is being used for design 
purposes by state and Federal authorities. It will also provide an 
important public benefit: a new system to convey excess water from the 
western basins to the Big Cypress National Preserve, where water is 
vitally needed for rehydration and restoration of lands within the 
Preserve.
    As discussed in the introduction, the Tribe will continue to work 
with the COE and the NRCS to satisfy the requirements of these 
agencies' respective programs. Once again, the funding requested in 
this testimony is crucial because such funds will allow the Tribe to 
continue to develop the data and design information that is required 
for the design, planning, and construction of the Everglades 
Restoration Initiative. In addition, the results of studies the Tribe 
helps pay for with both the CESI funds from NPS and the BIA funds will 
be applicable to other entities supporting Everglades restoration.

                               CONCLUSION

    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. By granting this 
appropriation request, the Federal Government will be taking a 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is Federal land held in trust for the Tribe, 
will send a clear message that the Federal Government is committed to 
Everglades restoration.
    The Seminole Tribe is working hard to realize the environmental 
benefits the Reservation and the surrounding ecosystem need. The Tribe 
is making substantial commitments from the Tribe, including the 
dedication of over 9,000 acres of land for water management 
improvements. However, if the Tribe is to move forward with its 
contribution to the restoration of the South Florida ecosystem, a 
substantially higher level of Federal financial assistance will be 
needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
Government to also participate in that effort. This effort benefits not 
just The Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 

          Prepared Statement of the Standing Rock Sioux Tribe

    For thirty years, United Tribes Technical College (UTTC) has been 
providing postsecondary vocational education, job training and family 
services to Indian students from the Great Plains and throughout the 
nation. An inter-tribally controlled educational institution, UTTC was 
assisting Indian people in moving from public assistance to economic 
self-sufficiency long before the 1996 Welfare Reform Act. Our placement 
rate has a sustained rate of well over 80 percent. The request of the 
United Tribes Technical College Board for the fiscal year 2001 Bureau 
of Indian Affairs budget is:
  --$2,570,000 in BIA funds for UTTC, which is $140,000 over the 
        Administration's request and $200,000 over the fiscal year 2000 
        enacted level.
  --Increased BIA funding for contract support costs. We annually 
        absorb approximately $100,00 in contract support costs and have 
        unrecovered costs over the past 10 years of $1.4 million.
  --Requirement that the BIA to place more emphasis on job training and 
        vocational/technical education. The Adult Vocational Training 
        program, funded at $9.6 million in fiscal year 2000, is but 
        shadow of its former self. There is no BIA leadership or 
        advocacy for job training or vocational/technical education at 
        the central or area levels. United Tribes Technical College, 
        whose budget is located in the ``Special Programs and Pooled 
        Overhead/Community Development'' portion of the BIA budget 
        suffers from, at best, a lack of interest from the persons who 
        work with that portion of the budget who primarily work on BIA-
        administered accounts. Other tribally-based colleges are in the 
        ``Other Recurring/Education'' portion of the budget.
    United Tribes Technical College: Unique Inter-tribal Educational 
Organization.--Incorporated in 1969, United Tribes Technical College is 
the only inter-tribally controlled, campus-based, postsecondary 
vocational institution for Indian people. We are chartered by the five 
tribes in North Dakota and operate under an Indian Self-Determination 
contract with the BIA. We currently enroll 367 students from 32 tribes 
and 14 States. In addition, we serve 159 children in our pre-school 
programs and 148 children in our elementary school, bringing the 
population for whom we provide direct services to 654. In some years 
our students come from as many as 45 tribes.
    Occasionally people assume that UTTC is funded under the 
authorization for the other tribally controlled postsecondary 
institutions--the Tribally Controlled Community Colleges Act. We do not 
receive funding through the TCC Act. We have much in common with the 
other tribally-controlled colleges and are part of the American Indian 
Higher Education Consortium. What distinguishes us from the other 
tribally controlled colleges is that we are chartered and controlled 
jointly by multiple numbers of tribes and our primary focus is 
postsecondary vocational education. Additionally, our campus-based 
family housing is unique.
    UTTC Course Offerings/Coordination with Other Educational 
Institutions.--UTTC offers 9 Certificate and 15 Associate of Applied 
Science degree programs (see attached list). We are very excited about 
the recent additions to our course offerings, and the particular 
relevance they hold for Indian communities. These new programs are:
  --Injury Prevention
  --Dietetics Technician
  --Tribal management, including gaming management
  --Computer Science Technology
  --Distance Learning programs for the Denver Indian Community
    Dietetics/Diabetes.--Through collaborative efforts with the 
American Diabetes Association, UTTC will develop the only accredited 
Dietetics Technician's Degree program in the State. We will meet the 
challenge of fighting diabetes through education. As this Subcommittee 
knows, the rate of diabetes is very high in Indian county, and with 
some tribal areas experiencing the highest incidence of diabetes in the 
word. About half of Indian adults have diabetes (``Diabetes in American 
Indians and Alaska Natives, NIH Publication 99-4567, October, 1999).
    Injury Prevention.--Through our Injury Prevention Program we are 
addressing the injury death rate among Indians which is 2.8 times that 
of the total U.S. population (Source: IHS fiscal year 1999 Budget 
Justification). We received assistance through the IHS to establish the 
only degree granting Injury Prevention program in the nation.
    Distance Learning.--UTTC is bridging the ``digital divide'' by 
providing critical computer and Internet skills to American Indians 
residing in the Denver, Colorado area. Technology training allows all 
American Indians an opportunity to overcome barriers such as geographic 
isolation and access to information. We take to heart the statement of 
Senate Indian Committee Chairman Ben Nighthorse Campbell that, ``It is 
imperative that the Digital Divide is narrowed in all communities, but 
especially in Native American communities.'' Through technology 
partnership programs, UTTC is meeting the challenge of providing 
technology skills and training to Indian country.
    UTTC is, in addition, a member of the Interactive Video Network of 
North Dakota's colleges, universities and tribal colleges since 1994. 
This allows for articulation agreements with other college and 
universities, expanding the educational opportunities for our students.
    Job Training and Economic Development.--UTTC is a designated 
Minority Business Center serving Montana, South Dakota and North 
Dakota. We also administer a Workforce Investment Act program and an 
internship program with private employers. And, thanks to a Kellogg 
Foundation grant, we are assisting tribes and tribal members in the 
Aberdeen Area with rebuilding buffalo herds.
    Coordination with State Welfare-to-Work Efforts.--UTTC is working 
in cooperation with the State of North Dakota on welfare reform. We are 
serving state-referred Temporary Assistance for Needy Families (TANF) 
recipients who are able to participate in our Cooperative Education 
internship program with private employers. By attending UTTC, these 
TANF recipients can meet their work, training and volunteer 
requirements. And we are providing childcare for 20 children of state-
referred TANF recipients.
    In North Dakota, only 30 percent of state TANF recipients are 
allowed schooling as a work activity. And we take exception to the 12-
month statutory limit on the length of time a TANF recipient can be 
enrolled in a vocational education course and still be eligible for 
TANF. This limits TANF recipients to take one-year certificate courses 
at UTTC. Our experience shows that the students who graduate from a 
two-year, rather than a one-year course, have significantly higher 
earning power. Many of our students to come to UTTC planning to take a 
one-year course, and then, finding themselves in a supportive 
environment and seeing the economic benefit of the longer course, 
decide to work for the two-year degree.
    Serving Families Contributing to Education and Job Placement.--We 
believe that a primary reason for UTTC students' success, is that we 
serve the student's social, academic and cultural needs. Many of our 
students are the first generation in their family to attend college and 
for many it is their first experience in living away from home. Many 
students are on public assistance and many have families of their own. 
Some of our services are:
  --Early childhood services for 145 children, ages birth to five years 
        and an additional 15 elementary children for extended care.
  --The Theodore Jamerson Elementary School (grades K-8) serving 148 
        students;
  --A health clinic whose services include immunization, health 
        education, eye and dental exams and referrals to other health 
        care providers.
  --Family housing and dormitories for solo parents and for students 
        without children;
  --A local transportation system for students for school activities 
        and necessary appointments. E.g., (doctor appointments) outside 
        the campus. Most UTTC students do not have cars.
    UTTC Seeks Non-BIA funds.--UTTC is aggressive in seeking non-BIA 
funding for special needs. For example, we combined Department of 
Agriculture, Economic Development Administration and state Community 
Development Block Grant funds to replace our aging water, sewer and gas 
system in 1997.
    Our elementary school received a competitive Department of 
Education grant for computer technology and was one of five BIA-system 
schools to receive this funding. We also received a Kellogg Foundation 
grant to develop buffalo management skills for the tribes and their 
members throughout the Aberdeen Area, as they attempt to rebuild herds 
of buffalo decimated more than 100 years ago. And this year we received 
a $75,000 grant form U.S. West to assist in developing a series of 
distance learning classes at the Indian Center in Denver, Colorado. 
Additionally, our Injury Prevention Program has been assisted through 
IHS funds.
    The above mentioned grants are highly competitive, restrictive, 
one-time grants and they cannot provide day to day operations. We 
cannot survive without the basic operating funds which come through the 
Bureau of Indian Affairs.
    UTTC Needs.--While we are not proposing a large increase in BIA 
funding for UTTC, below are some of the financial needs of which we 
want you to be aware:
  --Housing.--We need new and rehabilitated campus housing so that we 
        can increase student enrollment. We have an ongoing waiting 
        list for enrollment which currently stands at 200. The primary 
        reason for not admitting a potential student is lack of 
        housing.
  --Salaries.--We were able to provide a cost-of-living increase for 
        our employees last year, however, our faculty still receive 
        salaries that are lower than any state college system. North 
        Dakota salaries for higher education faculty are the lowest in 
        the nation--but the average faculty salary at UTTC are even 
        lower than those in the N.D. State system.
  --Maintenance and Repair of Historic Buildings.--Lack of available 
        resources has also meant a limitation on the repair and 
        maintenance of physical facilities, many of which are of 
        historic significance. The College occupies the old Fort 
        Lincoln Army Post and many people visit our campus to see these 
        buildings. Other than the more recently constructed skills 
        center and the community center, UTTC's core facilities are 90 
        years old. Estimates for new facilities total over $12 million, 
        according to a 1993 U.S. Department of Education.. Continuing a 
        course of non-repair will ultimately prove more costly as the 
        repairs will be greater. Fire and safety reports document our 
        repair needs.
  --Emergency Repair.--Emergency repair on both single and family 
        student housing, instructional facilities and support 
        facilities exceeds $100,000. This amount will obviously not 
        cover major renovations or new facilities. Funding is also 
        needed for maintenance and repair related to damage caused by 
        inclement weather, including blizzards and extreme low 
        temperatures.
    Thank you for your consideration of our request.
                                 ______
                                 

  Prepared Statement of the National Indian Child Welfare Association

    Mr. Chairman and members of the subcommittee my name is Terry 
Cross. I am the Executive Director of the National Indian Child Welfare 
Association (NICWA) located in Portland, Oregon. My statement is 
offered on behalf of the association. My comments will focus on the 
following budget items and requests:
  --Provide an increase of $4.0 million over the BIA fiscal year 2001 
        Budget Request ($11.5 to $15.5) relating to Indian Child 
        Welfare Act under the Tribal Priority Allocations (TPA) budget 
        category.
  --Restore historic funding of Indian Child Welfare Act (ICWA), Title 
        II off-reservation grant programs ($3.0 million) which was 
        funded through fiscal year 1996 under the Special Projects and 
        Pooled Overhead portion of the BIA budget, but is not 
        identified in the Administration's request for fiscal year 
        2001.
  --Require the BIA and IHS to provide more detailed information on 
        programs that provide funding/services for children. This 
        information is needed to accurately identify the need for these 
        programs and how BIA and IHS budget requests respond to that 
        need. The recommendations pertain to the Tribal ICWA, Title II 
        grant programs, Child Welfare Assistance under TPA and the IHS 
        Mental Health and Social Services and Contract Health Services 
        budget categories (specific recommendations described below and 
        in conclusion section of testimony.)
    Organization Profile.--The National Indian Child Welfare 
Association is based in Portland, Oregon and provides a broad range of 
services including, (1) training and technical assistance for tribal 
and urban Indian child welfare professionals, (2) consultation on 
mental health and child welfare program development, (3) by request, 
facilitation of child abuse and neglect community prevention activities 
and (4) analysis and dissemination of public policy information that 
impacts Indian children and families. NICWA does not receive any BIA or 
IHS funds. We have a strict policy that prohibits us from applying for 
or receiving any funds that would otherwise benefit tribal programs. 
Our constituents are tribal governments and urban Indian child welfare 
programs throughout the United States. Our organization works closely 
with the National Congress of American Indians.
    Measuring Need.--Under TPA tribes must make decisions about which 
services they can fund and at what level. This often involves 
transferring funding from one financially strapped service to another, 
even though both services are overwhelmed by the human need they face. 
The BIA looks at this transfer as a measure of decreased need, which 
they use when developing their budget request. Using this method, 
Congress and the Administration will never know what the actual need 
for any program under TPA is and how well appropriated funds are doing 
in trying to meet that need.
    Data provided to Congress should accurately describe human need, 
not just budget priorities. The BIA provides only superficial data to 
justify budget requests. For example, it is virtually impossible to 
know how many clients receive child welfare services, what the outcomes 
were from services provided and how need for child welfare services 
compares to the level of services being funded. One recent improvement 
made by the BIA is the inclusion of data in their justification 
regarding child abuse and neglect referrals from 1998 and the number of 
referrals that involved some form of substance abuse (see page BIA-55). 
The caseload data on page BIA-55-57 is a potentially helpful addition 
with regards to Child Welfare Assistance, but the numbers only reflect 
the need that was met through the provision of services. The numbers 
provide no comparison to the actual or unmet need for these types of 
services. This explains why the caseload numbers for Child Welfare 
Assistance have remained the same for several years. The implication 
here is that the BIA is meeting all of the need, which could not be 
further from the truth, especially when you consider the numbers of 
children being referred for abuse and neglect.
    Another important factor in determining the need for child welfare 
funding is tribal access to other program services and funding. Of the 
top four Federal sources of child welfare funding guaranteed to states 
under the Social Security Act (Title IV-B subparts 1 & 2, Title IV-E 
and Title XX) tribes only have guaranteed access to one, Title IV-B 
subpart 1 Child Welfare Services, and the amounts of funding available 
from this source for tribes are extremely limited (approximately $5.0 
million).
    This situation combined with dwindling state resources, lack of 
state expertise in serving Indian families, and states reluctance to 
enter into agreements for the provision of services in Indian 
communities based on financial and jurisdictional issues, has created a 
serious crisis for tribes in their efforts to protect their children 
and establish permanency and stability for those children who need 
help.
    Tribes across the country are trying desperately to develop 
services agreements with states for Federal resources they cannot 
access directly, but are often met with reluctance by state governments 
and sometimes the BIA. For several years now NICWA and other tribal 
advocates have attempted to get the BIA to work more closely with the 
Administration for Children and Families and tribes in an effort to get 
greater access to Federal child welfare funding and stimulate tribal/
state agreements, but the BIA continues to provide little support or 
initiative in this area. We think that more can and should be done by 
the BIA, especially in light of BIA budget requests that continue to 
reduce funding for child welfare services.
    Tribal Child Welfare Programs.--Until fiscal year 1993 tribes had 
been forced to compete for child welfare funding from year to year. 
This competitive process was extremely disruptive and in most years 
only allowed approximately 50 percent of the tribes nationwide to 
receive any child welfare funding. Improvements in the grant process 
and small increases to ICWA in previous years and have enhanced tribal 
access to child welfare funding, but there is still a need to continue 
efforts to make more funds available to address child abuse and 
neglect. Efforts should include a more careful and accurate analysis of 
the child welfare needs of tribes by the BIA for purposes of budgetary 
recommendation. This analysis should be based on more than just 
population figures and how tribes are able to prioritize their limited 
TPA funds. It should include data on types of services provided, how 
many children and families receive these services, number of out-of-
home placements of Indian children, type of out-of-home placement, 
length of time in out-of-home care, and numbers of children who are 
able to secure permanence through reunification, guardianship, kinship/
relative care or adoption.
    Other factors that deserve careful analysis include tribal access 
to other child welfare funding or services and the relative costs of 
providing basic child welfare services on tribal lands. This is 
meaningful data that can provide Congress with an accurate definition 
of need.
    The most recent research on risk assessment of child abuse for 
Indian children indicates that 34.4 percent of Indian children are at 
risk for abuse or neglect (1993 National Indian Justice Center Study on 
Indian child maltreatment funded by the Indian Health Service). Many 
other documented indicators of the need for these services are also 
highly visible in many Indian communities such as extreme poverty and 
high rates of substance abuse.
    Off-Reservation ICWA, Title II Grants.--Off-reservation programs 
can provide a number of important services to tribes, states, and 
individual Indian children and families. The ICWA does not make a 
distinction between who should benefit from the act, and is designed to 
protect Indian children and families everywhere. Arguably, Indian 
children living outside of their tribal community are some of the most 
vulnerable Indian children to stressors that are linked to risk for 
abuse and neglect. These off-reservation programs, where they have been 
able to exist, can provide key linkages to tribes when their members 
become involved in state child welfare systems. All of which are 
designed to meet the purpose of the Indian Child Welfare Act. Some 
common services that these programs can provide include:
  --At the request of tribes, provide case advocacy or other services 
        such as foster care to tribal children who do not live on the 
        reservation and whose tribe may not even be in the state.
  --Act as a resource to state agencies, courts and private agencies by 
        providing training on how to provide more cost-effective 
        services.
  --Recruiting and licensing Indian foster and adoptive families, an 
        activity that states often do not have resources for and are 
        not successful at.
    Off-reservation programs have suffered from the instability of 
inadequate funds and a competitive grants process. Historically, 
funding levels for off-reservation ICWA programs have been between $1.5 
to $3.0 million. This has enabled the BIA minimally fund about 40 
programs a year serve the 65 percent of the Indian population that 
lives in primarily urban settings. These programs have also tried to 
access private foundation funding and state contracts to supplement 
their ICWA grants. However, these funds have been increasingly 
difficult to secure, especially in light of increased competition for 
these resources due to reductions in state and Federal funding. In 
addition, reductions in state services have also left Indian children 
under state care with fewer effective options.
    Mental Health Services.--One of the best assessments of the current 
status of mental health services for Indian children is contained in a 
report that NICWA published in 1996 entitled, ``American Indian 
Children's Mental Health Services: An Assessment of Tribal Access to 
Children's Mental Health Funding and a Review of Tribal Mental Health 
Programs.'' We have provided a complimentary copy for the committee to 
review. The report details issues affecting access to mental health 
services, current funding sources, an original survey of tribal mental 
health providers, profiles of four tribal mental health service 
systems, barriers to access of mental health services and compilation 
of recommendations for improving access to services.
    Three issues we believe are of great importance to the committee's 
consideration of our request are (1) IHS system of mental health 
service delivery is primarily geared to adults, (2) it is difficult, if 
not impossible, to identify how much of the IHS funding under the 
Mental Health and Social Services and Contract Health Services budget 
categories go to mental health service, particularly mental health 
services to children and (3) IHS admits in their own budget request 
that ``specialized mental health services for populations, such as 
children are often minimal. . . .'' They also admit ``many critical 
components of mental health . . . are not available . . . to Indian 
communities'' (see page IHS-49). Our best sense, based on findings in 
our report, is that children receive few mental health services funded 
by IHS. We therefore recommend that the committee require IHS to 
provide data detailing the level of funding from Mental Health and 
Social Services and Contract Health Services that supports mental 
health services for Indian children.
    Conclusion.--Tribal child welfare programs are a valuable resource 
shown to be extremely effective in protecting Indian children and 
strengthening Indian families. A study in 1988 commissioned by the 
Department of Health and Human Services and Department of Interior 
entitled, ``Indian Child Welfare: A Status Report'', revealed that 
tribal programs outperformed the BIA and state child welfare programs, 
notwithstanding the limited funding available to tribes. Specifically, 
Indian children in substitute care had shorter stays in foster care and 
higher rates of permanency when served by tribal programs. In 1994 the 
Office of Inspector General issued a report entitled, ``Opportunities 
for ACF to Improve Child Welfare Services and Protection for Native 
American Children'', which clearly showed that most states were either 
not willing or able to share Federal funds for child welfare services 
with tribes. This clearly demonstrates that tribes, when provided 
opportunity, are able providers of child welfare services, while 
currently not being able to depend on state funding sources or 
services.
    We must also take into consideration other factors that impact the 
ability of tribes and off-reservation programs to protect their 
children and give them a sense of permanence. Because of welfare reform 
and recent child welfare reform, states have additional pressures to 
target their resources carefully. This will most likely mean that 
states historic reluctance to provide services on tribal lands will 
continue. If tribes are not given the adequate resources, then Indian 
children will likely continue to be the most unprotected class of 
children in this country with the least access to services that help 
provide permanency.
    The National Indian Child Welfare Association requests that the 
subcommittee recommend the requests we have made in our testimony. They 
are as follows:
  --Provide an increase of $4.0 million over the BIA fiscal year 2001 
        Budget Request ($11.5 to $15.5) relating to Indian Child 
        Welfare Act under the Tribal Priority Allocations (TPA) budget 
        category.
  --Restore historic funding of Indian Child Welfare Act (ICWA), Title 
        II off-reservation grant programs ($3.0 million) which was 
        funded through fiscal year 1996 under the Special Projects and 
        Pooled Overhead portion of the BIA budget, but is not 
        identified in the Administration's request for fiscal year 
        2001.
  --Require the BIA to provide adequate child welfare data to Congress. 
        Some examples of this data are types of services provided, how 
        many children and families received these services, number of 
        out-of-home placements of Indian children, type of out-of-home 
        placement, length of time in out-of-home care and number of 
        children who are able to secure permanence through family 
        reunification, guardianship, relative/kinship care or adoption.
  --Require the IHS to provide data detailing the level of funding from 
        Mental Health and Social Services and Contract Health Services 
        budget categories that supports mental health services for 
        Indian children.
    Please consider these requests carefully and help tribal 
governments and off-reservation ICWA programs continue to offer proven, 
effective programs for Indian children and families.
                                 ______
                                 

             Prepared Statement of the Ramah Navajo Chapter

    On behalf of the Ramah Navajo Chapter, I am pleased to submit the 
Chapter's statement on the fiscal year 2001 budget request for the 
Bureau of Indian Affairs. The statement focuses on:
  --$880,000 for a public safety facility for the Ramah Navajo Chapter 
        and support in full Committee for the Administration's request 
        of $34 million for construction and rehabilitation of tribal 
        jail facilities;
  --$31.8 million for the Housing Improvement Program within the TPA 
        category, and support in full Committee for the 
        Administration's request of $650 million for the Indian Housing 
        Block Grant Program contained in the Housing and Urban 
        Development budget;
  --$3.5 million increase for BIA contract support costs, $5 million 
        for a BIA Indian Self-Determination Fund as requested by the 
        Administration.
    The Ramah Navajo Chapter is a certified chapter of the Navajo 
Nation government. As a governmental entity of the Navajo Nation, the 
Chapter has been authorized since 1986 by the Navajo Nation to contract 
Bureau of Indian Affairs programs pursuant to Public Law 93-638. The 
Chapter currently operates programs and services previously 
administered by the BIA under a Model Contract through our Consolidated 
Tribal Government Programs. In addition, the Ramah Navajo School Board, 
Inc., a non-profit organization in our community, operates five TPA and 
educational programs.
    Our mission is to nurture the well-being and growth of our 
community and its people by promoting the development of comprehensive 
community services, programs and opportunities; by encouraging the 
development of self-sufficiency through self-determination; and, by 
maintaining respect for our traditional values of cultural heritage and 
family. The following concerns address the most pressing needs of the 
community in relation to these goals.

                        PUBLIC SAFETY INITIATIVE

    The Ramah Navajo Chapter (RNC) is the only chapter of the Nation to 
operate its own police department. The RNC Police provide services to 
approximately 3,000 Navajo residents of the community, located in the 
west central mountains of New Mexico, an area covering over 154,000 
acres. The land base is comprised of a ``checkerboard'' of trust land, 
individual allotted land, and fee land purchased by or for the Chapter. 
As the closest responding unit, the RNC Police are often called by the 
several thousand non-Navajos residing in the Ramah area and provide the 
only regular, visible police presence in the non-Indian town of Ramah.
    Given the role that the RNC plays in providing critical emergency 
services for the area, we are in desperate need of a public safety 
facility to enable us to add a fire protection unit and replace our 
aging detention facility/police station. The present RNC Police station 
and detention facility was built over 25 years ago as a temporary, 48-
hour holding facility, which also housed the tribal court. The Tribal 
Court has since been relocated to another building that better 
addresses its functional and space needs.
    Fire Protection.--Most of the Ramah community, including large 
numbers of families living in federally funded homes, lacks adequate 
fire protection service. In 1999 alone two homes burned completely 
because the nearest fire protection unit, located 12 miles away from 
the fires and outside the Chapter, arrived too late to be of 
assistance.
    Detention Facility.--Since the Ramah detention facility was to only 
be a temporary holding measure, long-term prisoners were to be 
transported to Navajo Nation jails in Window Rock and Crownpoint. These 
jails are, however, overcrowded and under court order not to accept 
additional prisoners from the Ramah Navajo area. This has resulted in a 
serious problem for the Ramah Navajo Police Department, which is forced 
to use what was a short-term holding facility for long-term prisoners.
    The three-cell detention facility, designed to hold six male 
prisoners and four female prisoners, has become substandard and found 
to be in violation of the BIA Design Capacity v. Rated Capacity 
Standards. According to the new draft ``Bureau of Indian Affairs 
Standards for Adult Detention Facilities,'' no more than five prisoners 
should be housed in this facility. However, the facility houses a daily 
average of 13 prisoners, and has ``peaked'' as high as 38 inmates over 
each of the past several years.
    The RNC Police have utilized the space vacated by the Tribal Court 
for administration, clerical and training/conferences purposes. Due to 
the space and design limitations, it is not possible to adequately 
secure police weapons, ammunition, legal files and documents, or 
provide adequate storage space for law enforcement equipment and 
supplies. The facility also lacks the necessary locker room or shower 
facilities for the officers to change uniforms, so they have had to 
make do with a used travel-trailer parked near the law enforcement 
facility.
    Needless to say, there are no secure or separate rooms for 
visitation, recreation or dining. Furthermore, security and supervision 
is a constant problem, with some cell areas invisible from outside the 
cell. In addition to the overcrowding and security issues, the facility 
is also unsafe because of susceptibility to rodents carrying the 
Hantavirus. The inability to protect against these rodents creates not 
only a health hazard for police officers, staff and prisoners but is 
also a potential source of liability for the Chapter.
    To address our detention facility and fire protection problems, the 
Chapter has withdrawn 15 acres of Chapter land and designated to the 
Police Department for the development and construction of a new public 
safety facility. We will, however, need Federal funding to achieve this 
goal. Unfortunately, the Bureau no longer requests funds for detention 
facilities construction and the amount appropriated under the 
Department of Justice for tribal detention facilities construction and 
renovation has barely begun to address the need in Indian country. We 
understand that the waiting list for these discretionary grants is long 
and under the existing criteria, there are no plans to fund community-
based facilities, rather the goal is to construct regional detention 
facilities.
    Because of the extreme need for an adequate detention facility and 
fire protection services to ensure the safety of our community, the 
Ramah Navajo Chapter requests $880,000 to construct a safe, secure 
modern detention facility. The Chapter will continue to seek funding 
from all possible sources to complete the public safety facility that 
is so badly needed. We also urge the Subcommittee to strongly support 
the Administration's request of $34 million in Department of Justice 
formula grant funds for the construction and rehabilitation of tribal 
jail facilities.

                      HOUSING IMPROVEMENT PROGRAM

    The Ramah Navajo Chapter is pleased to see that the Administration 
is finally addressing the desperate state of housing in Indian country 
by proposing a significant increase for the Housing Improvement Program 
(HIP). The Bureau estimates the proposed increase of $16.3 million 
would be used to construct 147 new homes and renovate approximately 290 
existing units. We note, however, that according to the recent BIA 
Report on Tribal Priority Allocations, there is an estimated unmet need 
of over $418.7 million to support the programs, functions and 
activities under the Housing Improvement Program. (The comparison used 
the amount received by tribes under the fiscal year 1998 TPA and other 
sources of income against the amount expended by a comparable agency or 
program.)
    Further, in the fiscal year 2001 budget justification, the Bureau 
estimates the average cost to renovate a house at $17,500 and $55,000 
to construct a new home. We have found, however, that due to our 
remoteness and other factors, our estimated cost to renovate is $18,000 
per unit and $75,000 to build a new unit.
    Nonetheless, the Chapter urges the Subcommittee to support, at a 
minimum, the Administration's proposed funding level of $31.8 million 
for the HIP portion of the TPA. We also request that the Subcommittee 
support full funding of the $650 million requested for the Indian 
Housing Block Grant Program contained in the Housing and Urban 
Development budget.

                        CONTRACT SUPPORT FUNDING

    The Bureau's budget request for contract support costs has 
consistently been significantly less than the amount needed by tribal 
governments to effectively administer programs under the authority of 
the Indian Self-Determination and Education Assistance Act. For fiscal 
year 2001, the proposed contract support budget is $128.7 million, or 
$3.5 million over the fiscal year 2000 level.
    The Bureau acknowledges that, even with the increase, there will 
continue to be a shortfall in fiscal year 2001 of about $17 million to 
fully fund the contract support costs for on-going contracts. At the 
proposed funding level, only about 88 percent of a tribe's negotiated 
indirect cost rate would be paid. Since the Ramah Navajo Chapter lacks 
other tribal resources and is thus totally dependent on Federal funds 
to operate its programs, we will continue to face undue hardship to 
operate our programs in a manner that meets the needs of our members.
    We respectfully request that Congress fund, at a minimum, the 
budget request amount of $128.7 million for the Contract Support Cost 
Funds.
    The Ramah Navajo Chapter thanks the Subcommittee for the 
opportunity to provide our views and your consideration of our requests 
regarding the fiscal year 2001 Bureau of Indian Affairs budget.
                                 ______
                                 

         Prepared Statement of the Metlakatla Indian Community

    The Metlakatla Indian Community provides this statement on the 
fiscal year 2001 budget for the Bureau of Indian Affairs and the Indian 
Health Service. In summary our requests are:
  --$8 million for a health clinic and associated quarters for the 
        Metlakatla Indian Community. This is a new proposal and is $9.4 
        million less than the IHS estimate for this project.
  --$18.8 million increase for BIA law enforcement as requested by the 
        Administration
  --$12.6 million for tribal courts as requested by the Administration.
  --$3.5 million increase for BIA contract support costs, $5 million 
        for a BIA Indian Self-Determination Fund, and a $40 million 
        increase for IHS contract support costs as requested by the 
        Administration.
  --Support in full Committee of the Administration's request of $34 
        million for construction and rehabilitation of tribal jail 
        facilities and $15 million for tribal courts in the Justice 
        Department budget.
    A New, Less Costly Proposal for Clinic and Quarters Construction 
($8 million).--Once again, we request funding for construction of a new 
health clinic and associated quarters in our Community. But this 
request differs from what that contained in the IHS Priority 
Construction list. We have reviewed our needs against the plans 
developed by the Indian Health Service and determined that it should be 
possible to build the clinic and associated quarters to meet the 
essential needs of the Community's IHS-funded health program at 
substantially less cost than projected by the IHS Health Facility 
Construction Priority System. We have been assisted by the Yukon 
Kuskokwim Health Corporation on engineering aspects of this proposal, 
an organization which has recently built its own clinic. And we have 
been in close communications with Senator Stevens office during the 
development of this proposal.
    We propose that the facilities be constructed by the Community 
through ``force account `` (construction done with our own employees) 
with funds provided by the IHS through the Community's annual funding 
agreement under Title III of the Indian Self-Determination and 
Education Assistance Act. A total project cost and breakdown showing 
clinic construction and equipment, and quarters construction is 
attached. The total clinic construction cost is $6 million (in 
comparison with $11 million projected by IHS). The total quarters 
construction cost is $2 million (in comparison with $6.4 million 
projected by IHS).
    As you know, the Metlakatla Program Justification Document for our 
clinic and quarters was completed by the IHS in April 1995, and this 
project has been identified on the list of approved projects in the IHS 
budget requests to the Congress since that date. The PJD construction 
schedule included a target date for the completion of the project by 
April 2000. However, funds have not been provided to date for this 
construction.
    The present facilities in which the Community provides health 
services are woefully deficient. As long ago as 1985 the IHS (which 
then operated the program directly) reported that the facilities failed 
to meet the standards of the Joint Commission on the Accreditation of 
Health Organizations and requested immediate replacement of the clinic. 
In successive ``Deep Look'' surveys the IHS has continued to identify 
the substandard conditions in these facilities.
    The Annette Islands Service Unit Health Center--our only health 
clinic--is literally falling apart, posing real safety risks for our 
clients and employees. The state of our buildings is the sole reason we 
cannot meet the standards of the Joint Commission on Accreditation of 
Health Care Organizations. It has become a full-time job just to keep 
the health center buildings patched together enough to keep them open. 
But we must keep our health center open. It is the sole source of 
health care on the Annette Islands Reserve which is accessible only by 
small float planes, and even then only when the weather permits.
    The Community fully supports the proposal for a model demonstration 
for the purpose of illustrating an innovative approach to address a 
situation which severely handicaps the provision of health services to 
Indians and Alaska Natives through a crash construction program which 
bypasses the IHS Health Facility Construction Priority System and 
allows tribes to construct with force account and under construction 
standards which they themselves adopt. While the model demonstration 
would not be subject to IHS construction standards, we agree that it 
should be subject to the requirements of the Joint Commission on the 
Accreditation of Health Organizations and the Uniform Building Code so 
that essential health and safety requirements apply and that our health 
program is not adversely affected by the waiver of IHS standards. The 
details of the proposed 14,500 square foot clinic, as well as a 
breakdown of construction costs, are contained in the enclosed summary 
document.
    The Community has reviewed the staffing requirements of the new 
facility in the light of the new construction approach and concluded 
that at least 16 full time employees should be added to the present 
clinic staff at a total annual staffing cost of approximately $856,426. 
See the enclosed listing of the positions to be added when the new 
clinic is operational. IHS should be requested to include staffing for 
the new facility in the budget request for the first year that the 
clinic will be in operation and thereafter. The attached quarters 
construction cost document (4 duplexes, $2 million) reflects the 
reduction in staffing requirements from that projected in the PJD.
    Finally we wish to emphasize that the plan for force account 
construction is critical to the Community not only in order to bring 
the clinic on line as soon as possible but also to address the 
unusually severe rate of unemployment at Metlakatla (85 percent) 
resulting from the closing of the Community's timber processing 
facilities. By expediting the construction of these health care 
facilities, Congress will address its responsibilities for health care 
in this Indian reservation community and alleviate an economic crisis 
while longer term economic solutions are pursued.
    We will be happy to supply further information and documentation of 
this construction request to the Subcommittee.

                            LAW ENFORCEMENT

    The Annette Islands Reserve is reachable only by boat or, weather 
permitting, by small floatplanes. Therefore the inherent difficulties 
associated with Indian reservation law enforcement, such as inadequate 
funding, poor equipment, insufficient detention facilities, and 
difficult working conditions, are compounded by our stark isolation. 
The Community's small police force and limited court system are taxed 
heavily by the needs of the resident Indian population. The Community 
does not have a resident state or federal law enforcement personnel or 
court system. Additionally, under federal law, except for fisheries 
enforcement, non-Indian residents and visitors are not subject to 
tribal criminal authority. Therefore, absent a crime taken seriously by 
state authorities, non-Indian criminal conduct is virtually free from 
jeopardy.
    Staffing.--The Metlakatla Indian Community strongly urge the 
Subcommittee to support the requested increase of $18.8 million for the 
BIA Law Enforcement program.
    In spite of the recent heightened interest in law enforcement 
problems on Indian reservations, many of Metlakatla's unmet or 
underfunded law enforcement needs continue to remain unaddressed due to 
the allocation priorities established by the Bureau. In fiscal year 
1999, the Bureau dedicated $4 million of the $20 million increase for 
BIA Law Enforcement to hire uniform police officers, but only BIA-
operated programs were eligible for these funds.
    The Community's primary concern in this area is recruiting and 
retaining adequate manpower to properly staff Metlakatla's police 
force. The Community simply cannot meet the salary expectations of 
trained law enforcement personnel. Isolation, inadequate housing and 
high living costs are additional obstacles we encounter.
    Further, the Metlakatla police force has the added responsibility 
of offshore law enforcement exacerbating an already under-manned and 
under-funded program. Our maritime boundary extends 3,000 feet offshore 
over the entire circumference of the islands, approximately 60 miles. 
The Community has never been able to fund more than a single, low-speed 
vessel and one officer to patrol the entire area. This level of 
enforcement is simply inadequate to meet the need. The principal 
beneficiaries of the absence of enforcement are the non-resident 
charter fleet who profit from Metlakatla's resources but pay no heed to 
its laws. Metlakatla needs more personnel and better vessels to do its 
job properly. However, the Bureau dedicated over $5 million of the 
fiscal year 1999 $20 million increase to replace police vehicles 
(sedans and SUV's only with 100,000 miles or more).
    Detention Facilities.--We urge the Subcommittee to strongly 
support, at a minimum, the Administration's request for $34 million in 
Department of Justice appropriations for the construction and 
rehabilitation of tribal jail facilities.
    The Community's detention facility, built in 1966, was designed to 
hold 6 male and 4 female prisoners. In all of 1999, 213 men and 60 
women were detained at this facility. A recent compliance survey of the 
facility found numerous violations of health standards due to the age 
and overcrowded conditions we must operate under. Because of our 
isolation, we cannot transfer our prisoners to a nearby facility, if 
they had room to accommodate our needs. You can no doubt appreciate 
that our officers are at extreme risk from a security standpoint.
    While we firmly support the proposed funding level of $34 million 
for detention facilities construction under the Department of Justice, 
we also realize that it will be at least four or five years before the 
Community could receive any assistance for its detention facility 
problems. Additionally, under the existing criteria, there are no plans 
to fund community-based facilities; rather the DOJ goal is to construct 
regional detention facilities.

                             TRIBAL COURTS

    The Metlakatla Indian Community urges the Subcommittee to support 
the Bureau's request of $12.6 million for Tribal Courts funding and the 
$15 million requested under the Administration's proposal for the 
Department of Justice.
    The increased law enforcement resources appropriated over the past 
two fiscal years have resulted in increased demands on the tribal 
justice systems. Additionally, increased federal initiatives such as 
welfare reform, Indian Child Welfare, and community policing have 
contributed significantly to the Metlakatla Indian Community's tribal 
court caseload, as have other tribal justice systems faced increased 
demands.
    As you know, BIA tribal court funding is within the Tribal Priority 
Allocations (TPA) budget category. Therefore, without a significant 
general increase to the TPA, tribal court funding increases are 
minimal-depending on its ranking within all categories of the TPA. 
Further, any increase is distributed among all tribes with tribal court 
programs, which in 1999 the Bureau reported as 250 tribal judicial 
systems (including Courts of Indian Offenses that serve multiple 
tribes). According to the recent BIA Report on Tribal Priority 
Allocations, there is an estimated unmet need of over $17 million to 
support the programs, functions and activities of tribal courts when 
the level of funding is compared to the amount received by tribes under 
the TPA and other sources of income.

                         CONTRACT SUPPORT COSTS

    We respectfully request that Congress fund at least the amounts 
identified in the IHS; and BIA budget requests for the Contract Support 
Cost Funds.
    The Community supports the $3.5 million increase requested by the 
Administration for BIA contract support cost funds and $5 million to 
reinstate the BIA Indian Self-Determination Fund. However, the Bureau 
estimates that the current on-going shortfall is about $17 million, 
with only about 88 percent of a tribe's negotiated indirect cost rate 
being paid. We also support the Administration's request of a $40 
million increase for IHS contract support costs.
    On behalf of the Metlakatla Indian Community, we appreciate the 
opportunity to provide our views to the Subcommittee regarding the 
Bureau of Indian Affairs budget for fiscal year 2001 and regarding our 
health clinic construction proposal.
                                 ______
                                 

  Prepared Statement of the Rock Point Community School of the Navajo 
                                 Nation

    Mr. Chairman and Members of the Committee: Rock Point Community 
School wishes to express its appreciation for this opportunity to share 
our concerns regarding the education of our children and the education 
of the Native American Children in general.
    While the entire United States is striving to improve education, we 
at Rock Point and other Native American communities axe still far 
behind the national norm. As we reported to you last year, we continue 
to need adequate funds to train and retain qualified teachers. This 
still holds true for this school year. The funds available to us are 
considerably less than the National expenditure per student.
    Our main concerns are about funding for ISEP, Transportation, 
Administrative Costs Operation and Maintenance, and Facilities 
Improvement and Repairs are outlined as follows

               INDIAN SCHOOL EQUALIZATION PROGRAM (ISEP)

    This appropriation provides for direct classroom instruction. The 
Weighted Student Unit (WSU) for school year 1999-2000 was $3,390.00, In 
1991, an ISEP Task Force had determined $3,499 as the minimum need per 
WSU, however, presently it is still far below what the Task Force had 
recommended. The Weighted Student Unit funding and allocation does 
fluctuate from year to year, so it is hard to plan a program if we do 
not know the amount of funding for upcoming school years. Rock Point 
Community School is far removed from the nearest major big town--we 
must travel 2 hours to town to get--needed supplies. Costs of classroom 
instruction including annual salary step increases and increased costs 
for more trained and qualified teachers is increased well over 6 
percent per year. We most emphasize that the National Per Capita 
average is estimated at $6,500.00 per student.
    Recommentation.--We recommend that the Appropriation Subcommittee 
appropriate $360.0 million for BIA-ISEP School operation. This will 
increase the WSU to $4,000 consequently, we will, be able to purchase 
updated classroom supplies, text books, library books and also purchase 
innovative instructional materials and equipment such as computers and 
relevant educational so softwares.
School transportation
    In all these past years, all Bureau funded schools have been 
underfunded, therefore, a considerable portion of ISFP funds which is 
for classroom instruction has been used to pay for the transportation 
of students, We run. our buses on unpaved and paved roads so most of 
the buses do need constant maintenance, all maintenance is done in town 
(2 hours away), so taking buses back and forth really adds expense. The 
national average expenditure for a mile of transportation in the school 
year 1993-1994 was $2.92, but we received only $2.26 per mile in the 
current school year. The current increase in fuel costs has started to 
eat into our transportation and ISEP budget. The Cost of Living 
Adjustment (COLA) is a factor and not added into the current rate. It 
is not right to take funds away from classroom instruction and use 
these to offset school transportation costs. GSA also continues to 
raise their annual rates on leased buses, vehicles and mileage rates. 
These are added costs and are beyond our control, yet we but have to 
continue to absorb these. Moreover, extra curricular activities are 
offered to the students, these are extra costs to our transportation 
and does eat away another substantial portion of our ISEP and 
transportation budget.
    Recommentation.--We strongly request that $5O million be 
appropriated to Indian Schools so at least we are comparable with the 
national average of $2.92 per mile. We have been under funded for 
years, it is about time that Indian schools are funded adequately.
Administrative cost grant
    The last three years Congress has ``capped'' the Administrative 
Cost Grant at $42.2 million. This has hurt all Grant/Contract schools 
financially. Every year we set our educational goals to implement 
within the 12 month period, but if we are funded at 81 percent this 
school year, we cannot fully accomplish or meet goals that we have set, 
therefore, we are hard-pressed to meet National or state standards as 
expected of us. Public Law 100-297 also gives an option to Bureau 
funded schools to become grant schools, so if more BIA schools ``go 
Grant'', the shared costs for grant/contract school decreases. The 
administrative and technical support functions previously provided by 
BIA at Agency of Area level are now mostly the responsibility of 
Contract and Grant schools. Unfortunately, This school year, we had to 
cut services as well as personnel to operate within the allotted 
funding.
    Recommentation.--Since Administrative Cost is one of the most 
pressing concerns, we strongly recommended that the Administrative 
Costs Grant be funded at $57.9 million. BIA OIEP's request is a $4.1 
million increase over the frozen level of $42.2 million for the past 
three years. This is not enough. The current appropriation language 
still. retains the ``cap'' on the amount of BIA fund, that can be spent 
on Administrative Cost Grant. Public Law 100-297 allows that the AC 
grant be funded at 100 percent. We also recommend that the ``cap'' be 
removed from the budget.

  FACILITIES OPERATION AND MAINTENANCE AND FACILITIES IMPROVEMENT AND 
                                 REPAIR

    Rock Point School's total square footage for all buildings totals 
161,027 sq. ft. Out of this, the elementary school complex, built in 
1963-1966, has an area of 101,027 sq. ft. These buildings are starting 
to depreciate and we contemplate that within another two to three 
years, constant maintenance will be required. For fiscal year 1998-
1999, the facilities budget constrained at 66 percent and again this 
school year we were constrained at 66 percent. With all these budget 
constraints, all the major maintenance cannot be addressed on annual 
basis and some of these uncorrected students are moved into the 
Facilities Improvement and Repair (FI&R) account. Not enough funds are 
appropriated by Congress in the FI&R account, this is not enough to 
take care of the major back-logged safety items. Bureau system. wide, 
the FI&R currently is back-logged at over $800 million.
    Last year, BIA and Congress agreed to separate the school 
facilities operation and maintenance accounts into two accounts; 
``facilities operation'' and ``facilities maintenance''. In fiscal year 
2001 budget request, BIA proposed an even more dramatic Structural 
change which might have major impact on school funding as well as any 
policy changes within the bureau--They are proposing to move $27.8 
million of Facilities Maintenance to construction and also to the FI&R 
account. There is no explanation for this proposal nor is there any 
assurance whether the FACCOM formula used to distribute Facilities 
Maintenance funds to schools will continue to be used. Recently, we 
were informed by OIEP that they will withhold 4 percent of our O&M 
funds for their administrative cost. We have protested this withholding 
and all O&M funds should be distributed to us. These are arbitrary 
decisions that axe being made by OIEP without proper tribal 
consultation.
    Recommentation.--We recommend that $57.0 Million be funded for the 
Maintenance account. This will at least take care of some of the 
maintenance cost. We also recommend $57.0 million be appropriated for 
the Operation account. Thirdly, it is requested to fund the FI&R 
account in the amount of $300 million to Lake care of some of the major 
backlog items in Bureau-wide schools.
Family and Child Education Programs (FACE)
    We support the BIA-OIEP proposal to add twenty-two more FACE 
programs in the amount of $6 million, as requested in tile budget. This 
request will double the FACE programs. We plan to write a proposal to 
this; program enabling us to implement an Early Childhood Program which 
is an essential foundation part of child development both 
psychologically and academically. We know FACE program can strengthen 
our children's attitudes toward school and their outlook on life.
                                 ______
                                 

          Prepared Statement of the Alaska Native Health Board

    The Alaska Native Health Board (ANHB) submits this statement on the 
Administration's proposed fiscal year 2001 Indian Health Service 
budget. In summary, our recommendations are that the IHS budget be 
increased over the fiscal year 2000 level in order to address the 
following health priorities:
  --$60 million for inflation
  --$1.2 million increase for the Alaska Village Built Clinic Lease 
        Program for a total of $5 million
  --Support at a minimum the Administration's proposed $41 million 
        increase in Contract Health Services to help address patient 
        and family housing needs in Alaska and to reduce deferred 
        health services
  --Support at a minimum the Administration's proposed $40 million 
        increase for Contract Support Costs, but distribute the 
        increase consistent with the January 20, 2000 Circular signed 
        by IHS Director Trujillo.
  --Fund design and construction of health centers at St. Paul and 
        Metlakatla
  --Increase funding for diabetes
  --Increase funding for access to dental care
  --Support at a minimum the Administration's proposed $6 million 
        increase (for a total of $18 million) for the Community Health 
        Emergency Fund, in part to assist with emergency patient travel 
        costs in Alaska
    Because the length of appropriations testimony is limited to four 
pages, we refer you to our Federal Legislative Priorities booklet of 
February 4, 2000 which describes in more detail our legislative and 
appropriations recommendations.
    Built-in Costs (Inflation).--While the proposed budget includes 
funding for required pay cost increases, no funding is provided for 
inflation. IHS indicates that approximately $60 million is needed to 
cover the cost of inflation, and we urge Congress to provide funds for 
this purpose. Tribal and IHS health care providers annually see the 
value of their program dollars diminish because they must absorb 
substantial portions of built-in costs. The proposed fiscal year 2001 
program increases are in part off-set by the lack of funding to cover 
medical and non-medical inflation.
    Village-Built Clinics.--Village Built Clinics and the Community 
Health Aide/Practitioners who staff them are the source of all health 
care in rural Alaska. Community Health Aide/Practitioners serve 169 
villages with populations ranging from 50 to 1,500.
    The $1.2 million increase we request (for a total of $4.9 million) 
consists of $965,000 for inflationary costs and to mitigate the fact 
that the lease income from the facilities is in many cases lower than 
reasonable local rates. The remaining $278,000 is requested for eight 
additional leases for village-built clinics.
    Contract Health Care: Deferred Services; Patient and Family 
Housing.--The Administration requested a $41 million increase in 
Contract Health Care for a total of $447 million. While this may seem 
like a large increase, the need in Alaska and elsewhere exceeds by far 
the budget request. In Alaska, we have a serious problem with deferred 
services and with covering the cost of patient and family housing due 
to inadequate contract health care funding.
    In Alaska alone, there were 9,416 deferred health services in 
fiscal year 1999 due to inadequate IHS contract health care funding.
    And the housing needs of patients, escorts, and family members who 
must travel away from home for medical care services are uniquely 
pressing in Alaska, where services are frequently sought hundreds of 
miles away in areas where hotels and other public lodging may be scarce 
or prohibitively expensive.
    In Anchorage, this need is partially met through the availability 
of Quyana house, a patient hostel connected to the Alaska Native 
Medical Center. Quyana House has 50 rooms and 108 beds and is almost 
always filled to capacity. Patients must seek off-campus housing in 
hotels or with family and friends. In the long term we hope that 
funding, possibly through HUD, can be obtained to build more housing on 
the ANMC campus, but in the interim we need additional funds through 
Contact Health Services to assist in the provision of patient and 
family housing in Anchorage, Sitka, Dillingham, Barrow, Kotzebue, Nome, 
Kodiak, and Bethel.
    Contract Support Costs.--We support the Administration's proposed 
$40 million increase (for a total of $268 million) for Contract Support 
Costs. But we disagree with the proposed bill language, which would 
apply the entire increase to new and expanded programs, with any unused 
funds being distributed to ongoing contracts. We believe the funds 
should be distributed consistent with the IHS contract support circular 
which was signed by IHS Director Trujillo on January 20, 2000 which 
provides one pool of funding for new contracts and another for ongoing 
contracts. And we would continue to oppose a pro-rata distribution of 
contract support funds, an idea which was considered last year by the 
Appropriations Committees.
    St. Paul and Metlakatla Clinics.--ANHB urges Congress to 
appropriate fiscal year 2001 funding for the St. Paul and the 
Metlakatla health centers so that the communities can finally begin the 
construction process for these desperately needed health facilities. 
The St. Paul and the Metlakatla Indian Community health centers and 
associated staff quarters are next on the IHS priority list to receive 
funding (assuming that Congress funds the design of the Pawnee clinic 
as requested by the Administration). St. Paul and Metlakatla are both 
island communities who are the sole source providers of health care for 
Native and non-Native populations.
    St. Paul Health Center.--The Pribilof Island of St. Paul is the 
northern most island in the Aleutian chain. It is located in the Bering 
Sea, 800 miles from Anchorage, and is arguably one of the most isolated 
communities in the nation. The current health facility at St. Paul was 
built in 1929--the oldest facility in the IHS system. The present 
clinic has many documented physical and environmental deficiencies and 
is much too small to adequately serve the Native and non-Native 
population. While the clinic serves the approximately 900 permanent 
residents of St. Paul Island, it also is the sole source provider of 
health services to 3,000 fishermen during fishing and crabbing seasons 
and to tourists who come to see the sea birds. Accident rates on St. 
Paul are very high, attributable to both the harsh environment and the 
high risk of the fishing occupation. Medical emergencies among 
fishermen is a daily experience.
    Metlakatla Indian Community Health Center.--The Metlakatla Indian 
Community of the Annette Islands Reserve has a population of over 1,500 
and a land base of 87,000 acres in southeast Alaska. Health services 
are housed in four modular units that were built in the 1970's. The 
facilities are set on pilings and are connected by open, elevated, 
wooden walkways. Over time the buildings have settled unevenly, posing 
an unsafe environment for people seeking health services (18,000+ 
visits per year). The buildings continue to deteriorate. In the past 
few years the walls continued to drop or resettle, causing expensive 
emergency repairs and in some cases, evacuation of rooms. And the 
facilities are overcrowded and the utility systems inadequate to 
support the modernization of medical equipment.
    Diabetes.--The Administration requested a $3.88 million increase 
for diabetes, but given the incidence of diabetes throughout Indian 
country we urge Congress to provide an increase larger than the amount 
requested.
    According to a recent report released by the National Indian 
Council on Aging, there is an emerging epidemic of diabetes among 
Alaska Natives, who until recently had registered relatively low rates 
of the disease. While the rate of diabetes in the Anchorage Service 
Unit is relatively normal, in some areas of Alaska, the prevalence of 
diabetes is almost four times higher than the prevalence of the disease 
across all races in the U.S. In areas that have traditionally had very 
little diabetes, such as the Y-K Delta and Norton Sound, the rate of 
increase is alarmingly rapid--over 150 percent in twelve years.
    Dental Care.--We urge Congress to at least double the IHS funding 
for dental care services and education. We urge the development of a 
system for training Community Dental Health Aide Practitioners to 
provide some types of dental services in villages. And we recommend 
that dental hygienists be trained so that their duties can be expanded 
(e.g, traumatic restoration of teeth). We need additional incentives 
(e.g, through the IHS loan repayment program and retention bonuses) so 
that we can recruit and retain more dentists in Alaska.
    Access to dental services for Alaska Natives, which historically 
has been limited, has now reached crisis proportions. In almost all 
Alaska Native dental programs, the available care is tightly rationed. 
Most dental programs in Alaska have unreasonably long waiting times for 
appointments, up to a year for many services. Some programs have 
stopped making new patient appointments altogether as they are barely 
keeping up with basic preventive care for children and treatment 
already in progress for adults.
    Patients with toothaches, living in villages, sometimes suffer for 
months while waiting for the next itinerant dental visit. In some 
cases, these patients spend hundreds of dollars traveling to an already 
overcrowded dental clinic hundreds of miles away.
    Children with rampant dental decay often go untreated because of 
lack of access to dental care. It is not uncommon to see children with 
12 out of their 20 baby teeth severely decayed. The rate of decay among 
children in Alaska is 2\1/2\ times the national rate. And rates of oral 
cancer among Alaska Natives are higher than in any other IHS area. Oral 
cancers are often detectable through routine oral exam and biopsy. 
These cancers generally appear in adults, the segment of the Alaska 
Native population with the least access to dental care.
    Travel Subsidy for Patients.--ANHB recommends that an additional 
$10 million be added on a recurring basis to the IHS Hospitals and 
Clinics budget for patient travel in Alaska. Additionally, we support 
the Administration's proposed $6 million increase for the Comprehensive 
Health Emergency Fund, some of which can assist with the costs of 
emergency medical travel in Alaska.
    Due to Alaska's unique geography and the lack of a developed road 
system in most of the state, access to care is a critical issue facing 
Alaska Natives. While the Community Health Aide/Practitioner Program 
and physicians assistants ensure basic health care at the village 
level, many diagnostic services and treatment procedures are not 
feasible in village clinics. The majority of rural Alaska Natives who 
need a physician's care must travel by air to receive these services 
from regional hospitals. When rural regional hospitals are not staffed 
or equipped to provide specialized diagnostic or treatment services, 
Alaska Natives must travel further by air to the Alaska Native Medical 
Center in Anchorage.
    Citizens in other parts of the United States access health care 
through federal or state subsidized highway systems. We need comparable 
consideration in funding of access to health care in Alaska.
                                 ______
                                 

      Prepared Statement of the Bering Sea Fishermen's Association

                                ABSTRACT

    The Bering Sea Fishermen's Association (BSFA) requests the Senate 
Appropriations Subcommittee on Interior and Related Agencies to 
continue to direct base funding of $805,000 to BSFA to conduct salmon 
research and restoration projects in the Arctic-Yukon-Kuskokwim (A-Y-K) 
region of Alaska. As in previous fiscal years, base level funding of 
$805,000 is already available and identified for this research effort 
within the BIA's Wildlife & Parks, Tribal Management and Development 
program. BSFA will continue to work with appropriate regional Native 
non-profit organizations and village councils in the design and 
implementation of these projects.

BSFA'S ARCTIC-YUKON-KUSKOKWIM SALMON INVESTIGATIONS PROGRAM: MONITORING 
                   AND RESTORING THE SALMON RESOURCE

    In response to drastic declines in salmon returns, in fiscal year 
1994 the Congress authorized a Bureau of Indian Affairs appropriation 
of $800,000 to BSFA to conduct salmon monitoring, research, restoration 
and enhancement projects in western Alaska. Since that time from fiscal 
year 1995 through fiscal year 2000 the BIA has maintained a base level 
funding of approximately $800,000 to $805,00 in its budget to support 
what is known as the Arctic-Yukon-Kuskokwim Salmon Investigations 
program. This base level funding has been placed in the Wildlife & 
Parks, Tribal Management & Development section of the budget. With the 
exception of fiscal year 1995 funding, each year the Congress has 
directed that the full $800,000-$805,000 be directed to the Bering Sea 
Fishermen's Association (BSFA) so that one single entity is responsible 
for administering the overall A-Y-K salmon research effort.
    Each year BSFA has consulted with agencies such as the Alaska 
Department of Fish & Game (ADF&G) and the United States Fish & Wildlife 
Service (USF&WS) as well as various regional Native non-profit 
organizations and village councils to create cooperative research 
projects. BSFA then subcontracts with these Native regional 
organizations and village councils for recruitment and supervision of a 
crew leader and local villagers and field equipment and supplies. In 
many cases, the ADF&G or USF&WS also provides in-kind support of 
personnel or equipment.
    The goals of these projects are to:
  --fill a gap in the scientific database not covered by existing 
        agencies;
  --assure sustained yield management of salmon stocks;
  --develop tribal capabilities in salmon management and research, and;
  --provide information to assist management in providing for 
        subsistence salmon needs of rural Alaskan villages.
Using this Congressional appropriation BSFA has funded all or a 
        significant portion of the cost of the following projects:
            Arctic (Kotzebue Sound & Norton Sound)
  --Sikasuilaq Springs chum salmon hatchery: annual operational costs 
        (fiscal year 1994)
  --Kobuk River chum salmon abundance test fishery (fiscal year 1994)
  --Regional salmon spawning surveys (fiscal years 1996-2000)
  --Salmon catch (age-sex-length) sampling (fiscal years 1996-2000)
  --Sockeye salmon habitat analysis & lake fertilization (fiscal year 
        1994)
  --Chum salmon habitat analysis & micro-hatchery construction (fiscal 
        year 1994)
  --Snake River salmon counting tower (fiscal years 1994-2000)
  --Eldorado River, Pilgrim River & North River salmon counting towers 
        (fiscal years 1996-2000)
  --Regional subsistence harvest surveys (fiscal years 1994-2000)
  --Public forums: project planning (fiscal years 1994-2000)
            Yukon River
  --Chum salmon micro-hatchery development (fiscal years 1994-1995)
  --Toklat fall chum salmon productivity analysis (fiscal years 1994-
        2000)
  --Pilot Station main river salmon counting sonar operations (fiscal 
        years 1994)
  --Anvik River terminal harvest test seine fishery (fiscal years 1994)
  --Kaltag Creek salmon counting tower (fiscal years 1994-2000)
  --Nulato River salmon counting tower (fiscal years 1994-2000)
  --Tanana Village salmon abundance test fishwheels (fiscal years 1994-
        2000)
  --Mountain Village fall chum salmon abundance test fishery (fiscal 
        years 1995-2000)
  --Andreafski River coho salmon counting weir (fiscal years 1995-2000)
  --Galena village fall chum salmon abundance test fishwheel (fiscal 
        year 2000)
  --Tanana River fall chum tag & recapture population estimate (fiscal 
        years 1995-2000)
  --Clear Creek salmon counting tower (fiscal years 1996-2000)
  --Pilot Station sonar local Native technician (fiscal years 1996-
        2000)
  --Nenana River salmon spawning surveys (fiscal years 1996-2000)
  --Lower Yukon (Emmonak) local Native fishery technicians (fiscal 
        years 1997-2000)
  --public forums: subsistence management plans & project planning 
        (fiscal years 1994-2000)
            Kuskokwim River
  --Eek Island salmon abundance gillnet test fishery (fiscal year 1994)
  --Aniak River coho salmon counting sonar (fiscal year 1994)
  --Nunivak Island salmon abundance study (fiscal years 1994-1995)
  --Chum salmon migration timing and spawning distribution study 
        (fiscal year 1995)
  --Kanektok, Takotna and Kwethluk salmon counting towers (fiscal years 
        1996-2000)
  --George River salmon counting weir (fiscal years 1996-2000)
  --Aniak River sonar local Native technician (fiscal years 1996-2000)
  --Tatlawiksuk River salmon counting weir (fiscal years 1999-2000)
  --public forums: inseason management and project planning (fiscal 
        years 1996-2000)
            Bristol Bay
  --Wood River coho salmon counting tower (fiscal year 1994)
    For all of these projects BSFA has worked directly with and 
subcontracted with regional Native non-profit associations such as:
  --Kawerak, Inc. (Norton Sound)
  --Tanana Chiefs Conference (Yukon River)
  --Association of Village Council Presidents (Kuskokwim & Yukon 
        Rivers)
  --Kuskokwim Native Association (Kuskokwim River)

and also with the individual traditional/IRA councils of the villages 
of Emmonak, Mountain Village, St. Mary's, Andreafski, Kaltag, Nulato, 
Galena, Tanana, Kwinhagak and Takotna and as well as individual 
fishermen.
    Through using the BIA appropriation as matching funds, BSFA has 
also leveraged several thousands dollars of project support from the 
Alaska Department of Fish and Game, the U.S. Fish & Wildlife Service 
and the Bureau of Land Management. Finally, these BSFA-administered 
projects were implemented with a low indirect rate of less than 15 
percent.
      fiscal year 2001 appropriation designation & research plans
    Although the program has helped to rebuild some of the individual 
salmon returns, most AYK salmon streams require continued monitoring 
and restoration efforts. Maintaining this appropriation is critical to 
ensuring effective salmon management so that sustained yield is 
maintained, tribal capabilities are developed and rural subsistence 
salmon harvest needs are met.
    As the Committee may know both the 1998 and 1999 seasons saw 
widespread salmon run failures throughout western Alaska. Not only were 
chum salmon returns weak as in the 1993 crash but chinook returns were 
unexpectedly poor and coho and sockeye returns were also below average. 
These unforeseen stock declines point out the need for research into 
freshwater and ocean survival of salmon in addition to the standard 
baseline studies of adult spawning escapement studies. Studies aimed at 
estimating total population are also warranted.
    Therefore BSFA requests a continued Subcommittee designation to 
Bering Sea Fishermen's Association of the $805,000 budgeted for Arctic-
Yukon-Kuskokwim Salmon Investigations within the BIA's fiscal year 1999 
Wildlife & Parks, Tribal Management & Development budget section.
    BSFA will continue to work with and contract with local and 
regional Alaska Native organizations and other appropriate entities as 
well as with individual fishermen. BSFA is the only group that 
represents and works with all fishermen (commercial and subsistence) 
and villagers throughout the entire Arctic-Yukon-Kuskokwim region. BSFA 
Board and staff are intimately familiar with salmon research needs in 
the A-Y-K region. Having BSFA as the single responsible program 
management entity will assure both the development of tribal 
capabilities and the fulfillment of the intent of Congress to rebuild 
salmon returns in an efficient manner.
    Thank you for this opportunity to submit written testimony 
concerning appropriations for the Bureau of Indian Affairs.
                                 ______
                                 

     Prepared Statement of the Bristol Bay Area Health Corporation

    The Bristol Bay Area Health Corporation (BBAHC) submits this 
statement on the Administration's proposed fiscal year 2001 Indian 
Health Service budget. In summary, our recommendations are:
  --Support the recommended increase for Contract Health Care;
  --Increase the funding and leasing authority for Village Built 
        Clinics;
  --Provide funds for Patient Travel specifically for Alaska programs 
        and funding for patient transport vehicles;
  --Support the recommended increase for contract support costs, which 
        should be distributed in accordance with the January 20, 2000, 
        IHS Circular;
  --Support continued funding for Telemedicine program; and
  --Correct unintentional effect of section 325 (Public Law 105-83).
    The BBAHC also joins in concurrence with the Alaska Native Health 
Board recommendations to increase by $60 million funding for Built-in 
Costs to cover the cost of inflation as well as increased funding for 
diabetes and access to dental care.
    The BBAHC is a private, non-profit corporation organized in June 
1973 by the Alaska Native villages of the region. BBAHC serves more 
than 8,000 year-round residents and 34 villages within the Bristol Bay, 
Calista and Koniaq regions--an area covering 46,573 square miles. In 
1980, BBAHC became the first Native organization in the United States 
to assume full management of an Indian Health Service operation and 
health services program under the Indian Self-Determination and 
Education Assistance Act. The BBAHC-administered Kanakanak Hospital is 
accredited by the Joint Commission on the Accreditation of Healthcare 
Organizations. BBAHC became a member of the Alaska Tribal Health 
Compact in 1994, and since that time has administered health programs 
under Title III of the Self-Determination Act.

                      CONTRACT HEALTH CARE FUNDING

    The BBAHC supports the Administration's request for a $40.9 million 
increase for the Contract Health Care program. This funding allows us 
to ``purchase'' those health services that we are not otherwise able to 
provide at our Dillingham regional hospital or village clinics. Such 
services include OB-GYNs and other health care specialists who are not 
on the permanent staff of the hospital. Through purchasing the 
specialized services, we are able to bring the medical personnel to our 
hospital for special need patients.
    We are concerned, however, that the Administration's request does 
not include increases for inflation or other built-in costs even though 
contract health services is especially impacted by the medical 
inflation rate. Failure to provide for the increased costs due to 
inflation requires tribal and IHS programs to absorb the costs, thereby 
restricting the extent of services we could otherwise provide.

                  VILLAGE-BUILT CLINIC LEASING PROGRAM

    Through the leasing authority of the Alaska Area Native Health 
Service (AANHS) under the Village-Built Clinic leasing program, BBAHC 
has two outstanding requests for clinic leases, one for a clinic at 
Portage Creek and the other for a clinic at South Shore Aleknagik. The 
lease agreements, usually with local city governments or tribal 
governments, enable us to provide health care in rural Alaskan 
villages. However, because of limited funding for the program, we have 
been unable to start up the village clinics in these two communities. 
At our existing village clinics, adequate space to perform on-going 
clinic services is often at premium. Not only are we facing increased 
patient loads, when visiting doctors are using the clinics to treat 
patients, staff must perform the regular clinic services from their 
homes.
    Additional funds of at least $1.2 million are needed to fund 
additional leases for village-built clinics, cover inflationary costs, 
and mitigate for lease income from these facilities being lower than 
the reasonable local rates. The village clinics are vital to enabling 
the Community Health Aide Practitioners, doctors, dentists and others 
to provide health services to village residents.

               PATIENT TRAVEL/PATIENT TRANSPORT VEHICLES

    The BBAHC, as well as other Alaska Native health care providers, is 
faced with a critical and expensive component of health care in 
Alaska--patient access to health care. Further, planes coming in to 
pick up or return patients must meet Federal Aviation Administration 
regulations which require that landing strips be located further away 
from villages than in the past.
    The Community Health Aid Program and physician assistants provide 
essential basic health care at the village level. As you know, there is 
a critical lack of a well-developed highway system in Alaska. 
Consequently, those who need a doctor's care or other diagnostic 
procedures must rely on air travel to obtain those services at the 
regional hospitals or the Alaska Native Medical Center (ANMC). Not only 
are the air travel costs expensive, there are related costs such as 
lodging and meals for the patient or family member(s) accompanying the 
patient. As reported in the 1991 ``Access to Care: Crisis for Alaska 
Natives'' report, up to 40 percent of rural Alaska Natives needing 
diagnostic services or treatment deferred having it done because of 
costs for airfare, cab fare, and lodging.
    Although the ANMC in Anchorage provides limited accommodations for 
family members accompanying a patient, it is not sufficient to house 
all those in need. At the regional hospitals, hotels or other 
accommodations are either very expensive or scarce.
    The BBAHC urges Congress provide for the Alaska health care 
programs an increase of $10 million for patient travel, added on a 
recurring basis to the IHS Hospitals and Clinics line item.
    A related patient transportation development arises from the 
aforementioned Federal Aviation Administration regulations. Previously, 
most airplane landing strips were located on the edge of villages or in 
villages. With the revised safety regulations in place, the airstrips 
now range up to seven miles away from the village clinics in our area. 
While this has resulted in less danger of airplanes hitting power 
lines, we are no longer able to simply transport a patient from an 
airplane to the clinic by hand carrying, sled or a small vehicle. We 
are also concerned that lack of proper transport vehicles may become an 
issue for JCAHO accreditation.
    For these reasons, vehicles in which to transport patients to and 
from airstrips/airports and village clinics are necessary. The BBAHC 
estimates its need at $1.4 million to purchase 16 patient transport 
vehicles and construct heated buildings in which to store them.

                         CONTRACT SUPPORT COSTS

    The BBAHC very much supports the Administration's proposal for an 
increase of $40 million in IHS contract support costs. Without these 
additional funds, tribes will continue to be impeded in their right to 
assume local control over federal Indian programs, such as health care, 
or be financially penalized for electing to exercise that right.
    We join ANHB in opposing the proposed bill language that would 
apply the entire increase to new and expanded programs, with any unused 
funds being distributed to ongoing contracts. Rather, we believe the 
funds should be distributed consistent with the IHS contract support 
circular that was signed by IHS Director Trujillo on January 20, 2000. 
That circular provides one pool of funding for new contracts and 
another for ongoing contracts.

                              TELEMEDICINE

    The BBAHC urges that Congress fund, at a minimum, the 
Administration's budget request of $4 million in the IHS budget for the 
third year of the Alaska Federal Health Care Access Network (AFCAN). 
The AFCAN, a multi-year telemedicine and telehealth technology project, 
will eventually connect over 200 federally-funded health care 
facilities (including tribal clinics, tribal regional hospitals and 
clinics) to facilitate the sharing of clinical and patient information.

             CORRECTION TO SECTION 325 OF PUBLIC LAW 105-83

    We urge your Committee to include in the fiscal year 2001 
appropriation act language that would correct what we believe to be an 
unintended effect of section 325 of Public Law 105-83. Under that 
section, the Alaska Native Tribal Health Consortium is required to 
provide the statewide services of the Alaska Native Medical Center and 
the Area Office. These services are defined as those services of the 
ANMC and Area that were not under contract or an annual funding 
agreement with any other tribe or tribal organization as of October 1, 
1997. IHS legal counsel has interpreted this provision as overriding 
agreements which the IHS had previously entered into with tribal 
consortia that funds for certain Area Office programs, functions, 
services, and responsibilities (which the consortia could have elected 
to take as ``tribal shares'') could remain with the IHS until such time 
as the tribal consortia decided to assume these programs.
    If it had not been for section 325, BBAHC would have clearly had 
the right to contract for these Area Office tribal shares in fiscal 
year 2000. Instead, IHS maintained that these funds could, by law, only 
be provided by IHS to the ANTHC. Our legal counsel advised us that 
these funds remained with IHS subject to our contractual right to 
withdraw them and that the terms of our annual funding agreement 
assured that these funds should be regarded as ``under contract or 
annual funding agreement as of October 1, 1997,'' although we had not 
yet elected to assume the programs, services, responsibilities, or 
functions. The issue was not resolved in AFA negotiations for fiscal 
year 2000 but was officially memorialized as a dispute between the 
parties.
    We have not brought suit to enforce our rights to these funds. We 
do not think we should have to expend scarce resources litigating with 
the United States on the enforceability of the agreement that IHS had 
with us that these funds remained in its hands only as long as we chose 
that they should. We ask, therefore, that the provisions of section 325 
be amended by adding the following proviso at the end of the first 
sentence of section 325:

    ``Provided, However, that Area Office tribal shares retained by IHS 
as of October 1, 1997, as specified in a tribe's or tribal 
organization's fiscal year 1997 Annual Funding Agreement shall not be 
considered statewide health services under this subsection.''

    Thank you for the opportunity to share BBAHC's concerns on the 
health needs of people in the Bristol Bay Area in Alaska and of Native 
people throughout the nation.
                                 ______
                                 

     Prepared Statement of the Nez Perce Tribal Executive Committee

    The Nez Perce Tribe is requesting the following funding amounts for 
fiscal year 2001, which are specific to the Nez Perce Tribe:
  --$875,050 through the Bureau of Indian Affairs Indian Rights 
        Protection account for Water Rights Negotiation and Litigation 
        to enable the Tribe to continue its participation in the Snake 
        River Basin Adjudication, the largest water rights adjudication 
        in the country.
  --$600,000 through the U.S. fish and Wildlife Service for the Tribe's 
        Gray Wolf Recovery Program.
  --$530,000 through the Bureau of Indian Affairs Law Enforcement for 
        the addition of police and law enforcement staff in order to 
        provide adequate, 24-hour services to our communities.
  --$438,700 for Child Welfare Grant Program and 638 Contract 
        Administration Costs for Tribal Social Services Programs 
        contracted through the Bureau of Indian Affairs.
  --$300,000 through the Bureau of Indian Affairs for upgrading Lapwai 
        water and waste water systems.
  --$200,000 through the BIA for Tribal involvement in the Federal 
        Energy Regulatory Commission's re-licensing of Idaho Power's 
        Hells Canyon Complex.
  --$95,000 through the U.S. Department of Agriculture/Forest Service 
        Road and Trail Construction Program to provide biological 
        control organisms for noxious weed control.
    The Tribe strongly supports the Administration's $9.4 billion 
Native American fiscal year 2001 Budget Initiative, with specific 
proposals in the initiative and other requests discussed below.
Snake River Basin Adjudication Negotiations Funding: BIA--$875,050
    The Nez Perce Tribe has been involved in the Snake River Basin 
Adjudication (``SRBA''), the largest water rights adjudication in the 
country, since that proceeding was statutorily mandated by the Idaho 
Legislature in 1987. The SRBA is a general stream adjudication in which 
all the water rights in the Snake River basin (approximately 185,000 
claims) will be determined. The Snake River basin encompasses 
approximately two-thirds of the geographic area of the State of Idaho, 
and much of the basin lies within the aboriginal territory of the Nez 
Perce Tribe. We are represented in this proceeding by our own in-house 
counsel and by the Native American Rights Fund (NARF) in Boulder, 
Colorado.
    In December of 1998, the SRBA Court ordered the parties to the Nez 
Perce claims into mediation. The mediator jointly selected by the 
parties and appointed by the SRBA Court is Francis McGovern, a law 
professor whose mediation skills are internationally recognized.
    For fiscal year 2001, the Nez Perce Tribe requests that Congress 
earmark $875,050 in the BIA's Indian Rights Protection account for 
Water Rights Negotiation and Litigation for the Tribe, enabling us to 
continue participation in the SRBA. These funds will cover the cost of 
vital, on-going work by fisheries, economic, historical and engineering 
experts as well as necessary attorney costs and overhead expenses.
Gray Wolf Recovery Program: Fish and Wildlife Service--$600,000
    The Nez Perce Tribe is in its fourth year of participation in the 
Wolf Recovery Program with the U. S. Fish and Wildlife Service (FWS). 
Through a contract with the FWS, the Tribe developed and is 
implementing a Service-approved recovery plan for the Gray Wolf in 
Central Idaho, which requires documentation of ten breeding pairs for 
three consecutive years to begin delisting. Funding support has failed 
to keep pace with the needs of the people of the region as the 
population of wolves has grown from 35 released wolves to just over 150 
animals. Currently only 30 percent of the wolf population is fitted 
with radio collars. Our management plan, approved by the Fish and 
Wildlife Service, has a goal of maintaining collars on half the animals 
in the population. An increase in our funding level is needed to 
support ongoing research partnerships and to provide more collars for 
animals, more staff to collar the animals, and additional monitoring 
flights to track their movements, especially as new packs form in 
previously unoccupied wolf habitat. The data gathered is shared with 
the people most affected by the recovery so they area aware of the 
presence of the animals and can take actions as allowed under the terms 
of the program to address their concerns. The recovery effort is ahead 
of schedule but requires more staff and equipment to do this complex 
and important work. The Tribe is requesting an increase of $300,000 
annually to bring the amount appropriated for wolf recovery in Idaho to 
$600,000 annually.

Staffing of Nez Perce Tribal Police Department: BIA Law Enforcement--
        $530,000 increase
    The Nez Perce Tribal Police Department provides law enforcement 
services to both Indian and non-Indian populations of more than 30,000 
citizens within the boundaries of the Nez Perce Reservation. The 
Reservation, which covers an area of more than 1,200 square miles, 
includes four county and five cities. In fiscal year 1999 the Nez Perce 
Tribe was able to increase its patrol officers from 6 to 12, due to 
Congress' funding increase for BIA Law Enforcement. We are grateful for 
Congress' support, but we still fall short in our staffing needs: the 
Tribe needs five more patrol officers to reach the minimum 17 officers 
necessary to perform patrol duties around the clock. The Tribe also 
lacks funding for a Communications-Dispatch center that would require a 
staff of seven; the construction of a proposed adult-juvenile detention 
center ultimately will require 13 more positions. With the addition of 
the patrol and dispatch positions in fiscal year 2001, our police 
department would be equipped to provide around-the-clock services to 
our communities and develop increased interagency cooperation between 
the multiple law enforcement organizations on the Reservation. These 
twelve positions will require an additional $530,000 in our current 
annual Public Law 638 contract with the BIA, an amount which is only 
about one half of one percent of the Administration's requested BIA law 
enforcement budget increase of $103 million from last year. We strongly 
support the Administration's request of $439 million for BIA Law 
Enforcement programs and urge that a portion of these the funds be 
provided to the Nez Perce Tribal Police Department to pay for crucial 
law enforcement services.

Tribal Social Services Program: BIA--$438,700
    The Nez Perce Tribe has contracted with the BIA through a 638 
contract to run the Social Services Program, which administers many 
different tribal assistance programs. In the past five years, services 
to individuals on the reservation have increased by at least 300 
percent, while funding levels for contract support costs have decreased 
each year. This has seriously jeopardized the Tribe's Social Services 
Department from updating equipment and hiring adequate staff to meet 
the needs of their clients in Tribal assistance programs.
    Indian Child Welfare and BIA Welfare Assistance are just two Social 
Services programs the Tribe operates. The Indian Child Welfare Programs 
tries to prevent the break up of Indian families, as well as handle 
child abuse and neglect cases, court interventions and foster care 
placement. Because the Tribe's share for the Indian Child Welfare 
Program is only $50,200, there is only one welfare worker to provide 
services to the 75 families and children in crisis who currently 
receive services under this program. The BIA Welfare Assistance Program 
run by the Tribe services hundreds of cases under this program, yet it 
will only receive $126,500 for fiscal year 2000. The Tribe's 
established share for contract Administration costs for fiscal year 
2000 is $132,000, $2,500 less than last year. For these programs' 
overall fiscal year 2001 budget, the Tribe is requesting $438,700, 
which includes increases of $50,000 for 638 Contract Administration 
costs, $30,000 for Indian Child Welfare, and $50,000 for Welfare 
Assistance.

Lapwai Water/Wastewater System Upgrade: BIA--$300,000
    The Nez Perce Tribe has several water systems in desperate need of 
upgrade and improvement, and several new water systems will be required 
to provide service to Tribal members currently receiving either 
insufficient or no services. Funding would be used to conduct further 
assessments of the current drinking water and waste water systems, 
upgrade existing systems, identify future needs, and further the 
Tribe's ability to independently manage the drinking water/waste water 
systems.

FERC Dam Relicensing: BIA--$200,000
    The Hells Canyon Complex is a series of three dams (hells Canyon, 
Oxbow, and Brownlee) owned by Idaho Power Corporation on the Snake 
River along the Oregon-Idaho border. The Federal Energy Regulatory 
Commission (FERC) is empowered to license all non-federal dams, 
including the development of protection, mitigation and enhancement 
measures to address all aspects of dam impacts, including effects on 
cultural sites, wildlife and fisheries. Rather than pursuing a 
traditional relicensing process which involves considerable litigation, 
Idaho Power has elected to create a collaborative process to involve 
many stakeholders throughout all phases of the relicensing process.
    Hell's Canyon has significant historic, cultural, and natural 
resources important to the Nez Perce Tribe, and the Tribe has been a 
participant in the relicensing process since it began in 1996. Other 
than travel reimbursement funds from Idaho Power, there has been no 
direct funding available to the Tribe to participate in the FERC 
process. Funding provided to the Tribe would ensure continued 
participation in the relicensing, and would allow Tribal technical 
representatives to work with resource groups that design studies 
focused on dam impacts and assist Idaho Power in the development of 
protection, mitigation, and enhancement measures. The funding requested 
would allow the Tribe to participate in this process.
Noxious Weed Control--$95,000
    The Nez Perce Tribe has implemented a program to develop biocontrol 
agents (primarily insects) to address the problem of noxious weed 
management as part of Idaho's Strategic Plan for Managing Noxious 
Weeds. This funding, from the USDA/Forest Service, would be used to 
provide biological control organisms and technical assistance to 
Cooperative Weed Management Areas. Biological control of noxious weeds 
is seen by experts as the best way to stop the spread of many types of 
weeds. The Tribe is pursuing this project because the need for 
controlling noxious weeds throughout the Reservation. Tribal staff are 
working at all levels of government to improve noxious weed management 
through cooperative efforts. The Nez Perce Bio-Control Center's mission 
is to provide a full service biological control of weeds program to 
landowners and managers throughout Idaho. The Center will rear and 
distribute hard-to-establish biological control organisms and newly 
available organisms, to address the needs of range and wild land 
resources. The Center will become a centralized clearinghouse of 
biological control of weeds resources and information, develop and 
maintain a standardized biological control agent tracking system and 
host technology transfer workshops and informational seminars. These 
funds will enable the Center to focus upon providing desired services 
in a coordinated manner to Cooperative Weed Management Areas throughout 
Idaho as part of Idaho's Strategic Plan for Managing Noxious Weeds. 
Appropriated funds will be used to cover salary and development of 
nurseries for available agents The Center will promote and seek 
opportunities to create quality employment for Nez Perce people.

                   SELECTED ITEMS OF GENERAL SUPPORT

Transportation
    The Nez Perce Tribe strongly supports the Administration's budget 
request of $375 million, a 50 percent increase over 2000, to improve 
roads, bridges, highway safety and transportation services on Indian 
reservations. The Tribe recommends that two percent of the request be 
set aside, separate from construction and maintenance accounts, to 
provide support for tribal transportation planning. Transportation 
planning is a critical and required first step in any Tribe's decision-
making process regarding reservation roads. It gives us a clearer view 
of the future, guiding decision-making today. Our Tribe's 
transportation department estimates that it will cost about $150,000 
annually to do the necessary planning for future road projects. The Nez 
Perce Reservation, which encompasses more than 770,000 acres, has 
numerous roads and bridges in dilapidated or even dangerous condition 
which could be improved with funds from this request. The 
Administration's request for $32 million of BIA funds to be used to 
supplement Department of Transportation funding for Reservation roads 
and bridges is also strongly supported by the Tribe.

Economic Development
    The Nez Perce Tribe supports the Administration's request for $54 
million in Tribal funding for the Department of Commerce, $49 million 
of which will further the Economic Development Administration's 
infrastructure, planning and public works projects on Indian 
Reservations. Last year the Nez Perce Tribe received an EDA grant for 
the joint construction of a sewer line in cooperation with the City of 
Lewiston, Idaho. This important project would not have been possible 
without EDA funding. The Tribe has plans for additional development 
which will require EDA infrastructure funding.
Health Services
    The Nez Perce Tribe strongly supports the Administration's request 
of an additional $230 million to the Indian Health Services budget, 
totaling $2.6 billion, for fiscal year 2001, including $104 million in 
program increases for services and facilities. The Tribe is in the 
process of securing sufficient funding to construct badly-needed new 
health care facilities on our reservation. Our clinics now are 
overcrowded and outdated and Tribal members are under served; new 
clinics will provide increased and improved health care for our people. 
The Tribe also strongly supports the Administration's proposed 
``Healthy People 2010'' initiative and its goal of achieving equivalent 
and improved status for all Americans over the next ten years. It is 
well known that Native Americans suffer from significantly poorer 
health than other citizens, and this disparity must be addressed.
Natural Resources: Independent Forest Assessment Review
    The Nez Perce Tribe supports an allocation of $750,000 from the BIA 
to fund an Independent Forest Assessment Review as required under the 
National Indian Forest Resource Management Act. This study will provide 
a valuable benchmark in assessing the status of Indian forest resource 
management and the health of this valuable resource.
    Thank you for your consideration of the Nez Perce Tribe's 
appropriation requests for fiscal year 2001.
                                 ______
                                 

         Prepared Statement of the Rough Rock Community School

                              INTRODUCTION

    My name is Dr. Bob Roessel and I am the Executive Director of the 
Rough Rock Community School on the Navajo reservation. For those who 
may be unfamiliar with this institution, formerly this institution was 
known as the Rough Rock Demonstration School when it started back in 
1966. At that time, it was the first school in the United States 
contracted directly between the BIA and a local community at Rough 
Rock. This first contract school has been copied by approximately 270 
other contract /grant schools located throughout Indian country. At 
that early period, the school was a leader and innovator in Indian 
education. The two principles on which this school was founded, and is 
still based today, are: First, control by an all Navajo School Board 
and second, brought into the school curriculum elements of Navajo 
history, language, and culture. The Rough Rock experiment was the 
result of interest and pressure brought by Navajo leadership and a 
local Navajo community supported by BIA people such as Area Director, 
Graham Holmes, and Bud Benham, Director of Schools for the Navajo, and 
a climate that was conducive to the formation of such a school. Today, 
the school continues to exist with its name changed to the Rough Rock 
Community School. This school continues to be a leader in both Navajo 
and Indian education. The school is an active participant in all 
matters and affairs affecting Indian education in general and Navajo 
education in particular. My wife and I started the Rough Rock 
Demonstration School and came back to this school three years ago given 
the charge to reestablish it on its original foundation of emphasis and 
respect for Navajo history, language, and culture. There have been 
great changes, not all of them for good, that differentiates the first 
contract school started in 1966 and the same school in the year 2000. 
Today, there is a far greater acceptance of the responsibility and 
right Indian people have to direct and control their education. There 
is a greater recognition of necessity for Indian people, and all people 
for that matter, to have a positive self image and to look upon 
themselves with pride. However, today there is an attack on schools 
such as ours by the BIA for reasons we do not understand. There are 
those individuals in the BIA and the Department of the Interior who 
evidently feel that the Rough Rock Community School is rocking the boat 
and saying and doing things that these individuals feel will harm or 
hurt their perception of Indian education.

                      INTENSE RESIDENTIAL GUIDANCE

    Currently, our major problem is the lack of Intense Residential 
Guidance money for our dormitory students. We have been given the 
opportunity and responsibility to recruit from throughout the entire 
Navajo reservation for students because of our exemplary Navajo Studies 
program. This meant that last year we had 74 chapters represented out 
of a total of 110. IRG moneys have been appropriated by Congress in 
recognition of the special needs of dormitory students who have 
problems in such areas as substance abuse, grades and academics, 
tutoring, recreation, and etc. The IRG funds are used to hire 
counselors, tutors, and provide these special services to students who 
need them. The Rough Rock Community School requested 241 (238) of our 
dormitory students as requiring IRG services. Important factor that 
occurred during Count Week was the murder of the individual who had the 
responsibility of tracking and keeping records on all our IRG students. 
The police cordoned off the building for a period of several weeks. We 
then had to totally refurbish the room in which she was stabbed to 
death by removing the rug, floor, wall boards, etc. which had been 
covered with blood.
    Finally, we had to have ceremonies that would allow Navajos to go 
back in there, without fear. All of this took a period of nearly a 
month. It was true that the audit occurred towards the end of October 
that we had signed all IRG folders on that date. The BIA assumed that 
no IRG services had been provided during Count Week which was not so. 
The BIA line officer which audited our student count denied all IRG 
students because of they were dated a month late. It is important to 
recognize that we told the BIA immediately after the murder of this 
individual that we would be late and they said there would be no 
problem. In any event, the BIA line officer said while she couldn't 
approve the IRG students, she thought they would readily be approved in 
Washington if we were to appeal. We then appealed to the BIA Washington 
and in conversation with one of the two people directly responsible for 
this program, that individual said there should be no doubt about your 
receiving the moneys: ``I think it's just a big mistake.'' The Appeal 
Committee asked for certain information which we provided but they 
denied our appeal. We then appealed directly to the Assistant 
Secretary, Kevin Gover, but have not heard from him. This is but one of 
a series of difficulties the Rough Rock Community School has 
experienced with the BIA. One of the top BIA officials in Washington 
said: ``It's because you are always fighting the BIA and pointing out 
its many problems.'' Whether that is true or not, it is very true that 
the BIA is not acting in a manner in which we hope they would act and 
expect them to act.
    Our testimony is aimed at pointing out the inequities of the BIA. 
They have no respect nor concern for the students and the programs and 
funds appropriated by Congress to help those students. The BIA 
continues to be in a bureaucratic mess without a heart and without a 
soul. The IRG moneys that we were to receive are for this year! Kevin 
Gover, Assistant Secretary, thought they were for next year but that is 
no so. We have not been able to provide all the services for the IRG 
students listed because of absolutely no money. We have certain of our 
IRG staff on board, we did not RIF them, and we are providing IRG 
services to them to the limit of these individuals. During the early 
fall we lost an IRG counselor to cancer and we lost another counselor 
who left. We've not replaced these individuals because of the lack of 
money. We do not know what is keeping the Assistant Secretary from 
either accepting our appeal or denying our appeal of he denies. We will 
appeal through formal channels. Why it takes months for a decision to 
be made we do not understand.
    We want the record to show that the Rough Rock Community School 
since we returned in August of 1997, have done battles with the BIA 
over issues and matters that directly effect our school and other 
Indian schools. Here is a partial list of the letters and battles we 
have been fighting with the BIA.
    Report Cards.--The BIA issues a report card which we feel is far 
too limited. We believe in report cards but only if they measure a far 
more considerable area that they currently are focused upon. They 
should utilize certain of the goals and objectives of the school and 
determine whether or not those goals and objectives are met. For 
example, as stated earlier we have an emphasis on Navajo Studies and it 
would be important for the report card to have some measure showing the 
degree whether or not we are meeting the objectives in that area. The 
report fails to accept other than short answers. We have extensive 
parent involvement programs that we reported but were left out of our 
report card.
    Line Officer's Conducting the Audit.--One of the prennial problems 
we have discussed with the BIA for the past three years is the conflict 
of interest that occurs when a BIA line officer is responsible for the 
student count and for the related audit. We have longed maintained that 
this a direct conflict of interest. The BIA line officer's job is 
dependent upon BIA schools and not contract and grant schools. This 
makes having such a person conduct the audit to be grossly unfair if 
not illegal. We have proposed that an independent, group/organization 
conduct the audit about which there would be no possible taint of 
impropriety.
    Financial Mismanagement.--Another area we have discussed and 
presented to BIA and others is that we believe there are existing laws 
that require and protect the fiscal integrity of contract and grant 
schools. We do not believe it is necessary because of the financial 
mismanagement of one, two or three contract and grant schools to 
subject all such schools to additional regulations and requirements. 
Indian Self-Determination Act, as well as in the Tribally Controlled 
Schools Act, contain provisions that require audits reports and 
criminal penalties for fiscal mismanagement. We have always maintained 
that contract and grant schools, are not as they have often been 
depicted in Washington, as a source of mismanagement and fiscal 
stealing and need to be brought under closer control. I have been on 
the Navajo reservation since 1951 and I can't begin to count the number 
of BIA schools in that period that had money stolen and had fiscal 
mismanagement. We never heard of the necessity to put those schools 
under tighter management and scrutiny. We have always stood for fiscal 
responsibility and proper money management! We just don't feel that we 
need to have additional restrictions placed on contract and grant 
schools: there are in place adequate provisions.
    Contract/Grant Schools Are Not BIA Schools.--It is vitally 
necessary to distinguish between a school operated and controlled by 
the BIA and contract and grant schools that are funded by the BIA. All 
too often the BIA and others look upon these different types of schools 
as being one and the same. When we started the Rough Rock Demonstration 
School, we announced and proclaimed that our school was totally 
different from the BIA and should never be considered a BIA 
institution. Over the intervening years, the distinction of contract/
grant schools have become blurred and today, we are considered by the 
many people in the BIA to be one of their own. This is not so! There 
are three major systems of education on the Navajo reservation today: 
public schools (Bilagaana Yazhi Bi'olta--Little white man's schools); 
BIA schools (Washington Bi'olta--Washington's schools); and contract/
grant schools (Dine Bi'olta--Navajo Schools). It is absolutely 
necessary not to confuse grant/contract schools as being BIA schools!
    School Construction.--Another matter we have fussed with the BIA 
over is the new school replacement priority system that currently is in 
place. The logic that laid behind the creation of a set of new 
standards and requirements were to develop in a fair and unbiased 
method of ranking school construction projects. This is an admirable 
good! The problem doesn't lie with the fact that such a list was 
developed the problem lies in that the new system did not eliminate 
politics and prejudice. The Rough Rock Community School submitted a 
request for total school construction, as were advised, involving 
certain facilities. Specifically, we requested construction of a high 
school dining room and kitchen. We requested construction of a media 
center/library and auditorium. We have neither of these structures at 
this time! These are vitally important components in any adequate high 
school facility. In addition, we included renovations to our 
Elementary, Middle School, and High School plus faculty housing. When 
the rankings came out we were listed 78 in a list of 96 projects. We 
believe that in spite of statements to the contrary the new school 
ranking system is not able to determine schools in greatest need and 
that politics and pressure still play a part in the school rankings. 
We've never had a high school auditorium, media center/library.
    We've never had a high school kitchen/dining area. We submitted our 
proposal as we were told to do that listed all of our needs. Had we 
been allowed to do so, we would have listed just these two needs as our 
most acute. Nevertheless, we were ranked 78 out of 96. This is 
incomprehensible to us. There are schools that on the top 15 will be 
funded this year that I visited in the last several months that have no 
where near the needs the Rough Rock Community School has. Why certain 
schools were allowed to submit request for a single item, for example a 
dormitory and we were forced to submit a request for everything is 
beyond me.
    We truly suspect that the Bureau of Indian Affairs is trying to get 
even with the Rough Rock Community School because we complain and 
because we raise questions and because we fight battles. We were told 
that there were representatives on the Review Committee from contract 
and grant schools and that they were involved in the rankings. We were 
given the names of Elmer Guy and Thomas Atcitty. We checked with these 
two individuals only to find they had never saw an application and they 
did not rank anybody. Who ranked these schools? We have a document sent 
to us by the BIA that explains the elaborate procedures they alleged to 
have followed. We are very unhappy over this and believe Congress 
should investigate not the procedures outlined but the manner in which 
those procedures were carried out.
                                 ______
                                 

             Prepared Statement of the Close Up Foundation

    Mr. Chairman, distinguished members of the Subcommittee, my name is 
Stephen A. Janger and I am president of the Close Up Foundation. I am 
pleased to submit this testimony about our work in civic education with 
students and educators from the Pacific Islands and from American 
Indian and Alaska Native communities.
    First, on behalf of all of us at Close Up, I want to express our 
appreciation for the continuing support this Subcommittee has given to 
the Foundation for its efforts with these special populations. The 
funding provided by the Subcommittee to the Department of the Interior 
has enabled us to positively affect thousands of students and educators 
who have participated in Close Up's civic education programs.
    Although progress has been made, Pacific Islanders, Native 
Americans, and Alaska Natives remain among the underserved populations 
in the United States. Close Up has used a variety of ways to reach 
these constituents through the years and has established considerable 
expertise and a solid reputation in meeting their civic education needs
    Our work with Pacific Islanders has been ongoing for seventeen 
years. Participants are from American Samoa, the Commonwealth of the 
Northern Mariana Islands, the Federated States of Micronesia, Guam, the 
Republic of the Marshall Islands, and the Republic of Palau. It has 
been gratifying to watch the educational progress in these emerging 
democracies and to come to understand the unique challenges that small, 
remote island nations and territories face. They have made great 
strides but much remains to be done, and a knowledgeable, active 
citizenry is vital to continued progress.
    American Indians and Alaska Natives face similar challenges to 
Pacific Islanders. They are often geographically isolated and lack 
adequate classroom resources. They must confront the issue of balancing 
and blending their traditional cultures with mainstream American 
lifestyles and modern technology. Close Up's work with these special 
populations has provided opportunities for students and teachers to 
learn more about democratic principles and to reflect on these 
principles in light of their own cultural traditions.
    Our programming with each of these special populations produces 
certain common results. Participating students gain a sense of 
efficacy. Teachers report that when students return home from a Close 
Up experience they exhibit a wide variety of positive behaviors such as 
speaking out in class, asking more questions, expressing their 
opinions, getting better grades, volunteering in the community, and 
taking on leadership roles. On their part, teachers return home 
refreshed with newfound knowledge, teaching methodologies, and self-
esteem, and they are eager to put their new skills to work in the 
classroom.
    Based on the continuing educational needs of these special 
populations, we would like to expand our programming with them in 2001. 
Therefore, we respectfully request $1.5 million in fiscal year 2001 
funding for Pacific Islands programming and $300,000 for programming 
with American Indians and Alaska Natives for a total of $1.8 million.
    Should the Foundation's fiscal year 2001 appropriations request be 
fully funded, our programs will include: a two-week Washington High 
School Program for Pacific Islanders; local programs in the Pacific 
Islands; a Pacific teacher training institute; a ten-day program on 
technology and culture for all three special populations; and one-week 
Washington High School Programs for American Indians and Alaska 
Natives. We will elaborate on the programs in the following paragraphs.

           WASHINGTON HIGH SCHOOL PROGRAM FOR PACIFIC ISLANDS

    The fiscal year 2001 Washington High School Program for Pacific 
students includes: a week in Washington on the Close Up High School 
Program with students from around the country; a two-day trip to 
Williamsburg to explore the roots of American democracy; a visit to 
Philadelphia to examine the U.S. Constitution, its origin, and its 
impact on Pacific constituents; and, a visit to New York City, where 
students study the cultural and political implications of America's 
diverse citizenry. Overall, the program gives students opportunities to 
develop leadership skills, to consider their islands' relationships to 
the United States, and to learn about the common issues that citizens 
confront as well as island-specific issues.
    Teachers who accompany their students participate in their own 
professional development program that parallels the student program. 
The program for educators includes exposing educators to the unique 
educational, cultural, and historical resources of the capital; 
introducing them to the Washington ``insiders'' who make, shape and 
report the policy of the United States; providing them with in-depth 
resources and experiences about current foreign and domestic issues; 
and inspiring them with curriculum-building workshops. Overall, the 
program for educators is designed to rejuvenate and energize classroom 
instruction in civics and social studies.

                 LOCAL PROGRAMS IN THE PACIFIC ISLANDS

    An outgrowth of the Washington High School Program has been local 
civic education programs conducted annually in several of the islands 
and involving many more students than are able to participate in 
Washington-based programs. Not only do local programs focus students on 
the pressing issues facing their islands, but they also help prepare 
those students who participate on the Washington Program to be good 
representatives of their islands. Most local programs include face-to-
face exchanges between students and local governmental officials and 
experts. These interactions have both empowered the young people and 
impressed the local leaders with the students' grasp of and concern for 
important current issues and their resolution.

                   PACIFIC TEACHER TRAINING INSTITUTE

    Teacher training consistently remains high on the needs list 
whenever Close Up has conducted needs assessments, whether formal or 
informal, in the Pacific. Although training continues as a high 
priority, it is gratifying to see that past efforts have produced 
results and that Close Up workshops have challenged teachers to use 
more active teaching strategies in their classrooms.
    In 2001, Close Up would again like to offer a teacher training 
institute. The last institute conducted was a Training of Trainers 
Institute. We now would like to focus on classroom teachers to provide 
them with an intensive experience to develop their classroom teaching 
skills, to broaden their knowledge of state-of-the-art teaching 
resources, and to provide them with a variety of teaching tools. The 
institute would be held in Washington, D.C., to take best advantage of 
the city's and Close Up's resources.

  TECHNOLOGY AND TRADITION: PRESERVING CULTURE IN THE INFORMATION AGE

    Close Up plans to initiate a new ten-day program about technology 
and culture. Technology plays a part in the blending of cultures, but 
it can also be used as a vehicle for cultural preservation. School 
officials in remote areas have brought technology to their classrooms, 
but not all educators know how to use this technology to preserve 
cultural traditions. Students are often the most technologically savvy 
residents of a community, but they do not always see the consequences-
positive and negative-that technology can have on their culture.
    This new program will include participants from communities with 
large Alaska Native populations; from American Indian tribes, 
especially in the western region; and from U.S.-affiliated island 
entities in the Pacific. Although these traditional societies differ in 
many respects, each group faces similar challenges related to cultural 
preservation and technology.
    In a departure from other of Close Up's programs, there will be a 
higher ratio of teachers to students in this new venture. Teachers 
would attend in area teams, consisting of technology specialists and 
social studies teachers. The teacher teams would be expected to produce 
lesson plans that would be published on the Web. Meanwhile, student 
participants would produce pictures and captions for the Web, 
describing their culture.

          PROGRAMMING FOR AMERICAN INDIANS AND ALASKA NATIVES

    For the past three years, Close Up has conducted a special program 
for the Unified South and Eastern Tribes (USET). Young people from 
these tribes have come to Washington at the same time as their tribal 
leaders are attending a conference in the city. The young people 
participate in a program that includes a service-learning component and 
return to their communities with a plan to conduct a community service 
project. This program has been well-received by USET.
    Close Up also has a long tradition of participation by American 
Indian students from schools on reservations as well as schools with 
large native populations. Often, these students are mainstreamed and 
participate during a regular Close Up program week. In addition, Close 
Up staff have attended the conferences of national Indian education 
organizations, and in several cases, telecast shows over C-SPAN from 
those conferences. Through the years, more and more tribes have come to 
know of Close Up's work.
    Each of the models that Close Up has used to reach Native Americans 
has yielded positive results. We would like the opportunity to continue 
to support several models of programming that have proven successful 
and have been enthusiastically received by our participants. We would 
also like the opportunity to test new models. It is particularly 
important to offer a number of options because of the differences in 
needs and interests among the various tribes and the Alaska Natives. 
One size does not fit all within this underserved population because of 
different political structures, geographic characteristics, economic 
circumstances, and the like.
    By providing program opportunities that mesh with the differing 
needs, Close Up has been able to produce similar results among students 
of each of the Native groups. Teachers say that students return home as 
more active and outgoing participants in their school and community. 
They more frequently take leadership positions than their peers who do 
not attend the program. In addition, students often are inspired to 
consider different career options based on their interactions with 
Native speakers while on program. Likewise, teachers who participate in 
our programs have been able to return to the classroom reenergized with 
new ideas and methodology to share with their students and colleagues.
    Mr. Chairman, the Close Up Foundation has always considered it a 
privilege to work with students and educators from the Pacific Islands 
and from American Indian and Alaska Native communities. We are proud of 
the programs we have conducted and believe we have had a significant 
impact on the civic well-being of these special populations. As I 
stated earlier, we recognize that much of our work with these 
underserved populations would not have been possible without the 
support of this Subcommittee. We believe our plans for fiscal year 2001 
will continue to contribute measurably to the educational progress of 
these populations regarding civic understanding and action and the 
value they place on democracy and democratic institutions. Therefore, 
we strongly believe that our work continues to justify your support. We 
would be pleased to respond to any questions and to provide any 
additional information. Thank you very much.
                                 ______
                                 

         Prepared Statement of the Wide Ruins Community School

    Wide Ruins Community School (WRCS) is located on the Navajo 
Reservation in the upper northeast portion of Arizona. This year, 1999-
2000, the School is serving 261 students in the kindergarten through 
eighth grades.\1\
---------------------------------------------------------------------------
    \1\ WRCS operates a BIA funded, Tribally Controlled School program 
for the kindergarten through sixth grades. WRCS also operates a State 
funded Charter School for grades seven and eight.
---------------------------------------------------------------------------
    WRCS began operation as a BIA School in 1930 and a portion of the 
School's facility was built at that time of fitted rock. A steel frame 
addition was built in 1960. On February 1, 1998, with the authorization 
of the Navajo Nation, the School began operation under Public Law 100-
297 (the Tribally Controlled Schools Act). It is governed by a locally 
elected Board and is funded primarily though grants from the BIA.
    Despite the adverse conditions of the School's facilities, its 
students are performing well. A study in 1998 indicates that WRCS 
students scored higher on the Stanford 9 NCE averages than students in 
neighboring public schools.
    Replacement School Construction Funding is the School's most urgent 
need. The School's main facility is 70 years old. The addition is 40 
years old. Submitted with this Position Statement is a bound pictorial 
document setting forth WRCS' facilities needs.
    A 1999 school study found that school replacement construction 
costs for WRCS would be less expensive than renovation. Replacement 
cost is estimated at $4,740,517, but would save more than $11,944.691 
over fifteen years. In addition to cost effectiveness, new construction 
will ensure the health and safety of WRCS's students and staff. In 
addition, new construction would permit the creation of a more 
effective learning environment and infrastructure.
    The August 1999 ranking of replacement school applications by the 
BIA ranked WRCS 12th out of 96 schools who applied for school 
replacement. In all candor, WRCS believes that it should have been 
ranked even higher. Federal appropriations to the BIA for replacement 
school construction has been minimal for a number of years. The BIA 
system, which includes 185 schools, received only $17.4 million in 
fiscal year 1999 for replacement school construction.
    Last year, however, this began to change. For fiscal year 2000, 
Congress provided $62.8 million for replacement school construction. 
And the President has proposed $126.1 million for fiscal year 2001. 
However, even this level does not begin to adequately address the 
deficiencies that have built up over the many years of neglect. WRCS 
urges Congress to provide at least $252.2 million for replacement 
school construction for fiscal year 2001. This funding will provide for 
20 new schools, including replacement construction for WRCS.
    ISEP Funding.--Although the average per student expenditure by 
public elementary and secondary schools was $7,317 in 1996-97, the 
President's proposal is based upon $3,685 per Weighted Student Unit 
(WSU). Furthermore, the President's budget assumes a reduction in BIA 
student enrollment, when WRCS and other Tribally Controlled Schools on 
the Navajo Nation are experiencing significant increases in enrollment. 
WRCS urges Congress to appropriate $360 million for the ISEP program. 
This is based upon $4,000 per WSU and assumes no reduction in 
enrollment.
    Transportation Funding.--Per mile funding should be increased to at 
least the national average of $2.92 per mile. Transportation on 
Reservation roads is extraordinarily expensive. Furthermore, fuel costs 
are increasing rapidly. WRCS urges Congress to appropriate $50 million 
for transportation.
    Administrative Costs.--The President's proposal would fund 
administrative costs at only 75 percent. These costs should be funded 
at 100 percent WRCS urges Congress to fund the administrative costs 
portion of the Tribally Controlled School Program at $57.9 million. 
Furthermore, the caps on administrative costs should be eliminated. If 
additional costs are incurred, and if the School has other monies out 
of which those costs can be paid, the School should be able to budget 
accordingly.
    Facilities.--Appropriations for facilities operations and 
maintenance have been ``constrained'' for several years, and is 
currently only 66 percent of costs. This is a downward spiral and 
should be reversed. WRCS urges Congress to fund facility costs at 100 
percent of need, including $55.6 million for operations and $57 million 
for maintenance. Furthermore, this year the Bureau of Indian Affairs is 
withholding a portion of the funds appropriated for Tribally Controlled 
Schools to fund BIA line offices. This should be prohibited.
    FI&R.--Because of past failures to fully fund Facility Improvement 
and Repair budgets, there is an $800 million backlog of needed facility 
improvements and repairs at BIA funded schools. One-half of this 
backlog should be addressed fiscal year 2001, along with on-going 
needs. WRCS urges Congress to appropriate $471.2 million for Facility 
Improvements and Repairs--including $400 million to address the backlog 
and $71.2 million for current program needs.
    Family and Child Education (FACE) Program.--This has been one of 
the BIA's most successful early childhood programs, yet the number of 
schools permitted to participate has been artificially frozen for a 
number of years. The BIA proposes to allow 22 new school sites to join 
the program. This is a step in the right direction. WRCS urges Congress 
to approve the Administration's request of $20.6 million for fiscal 
year 2001. Furthermore, this program should not be capped. All eligible 
schools should be permitted to participate, and future funding should 
be increased accordingly.
    Therapeutic Models.--None of these programs have been established 
on the Navajo Nation. Instead, funding for traditional therapeutic 
programs is being taken to fund the new ``therapeutic models.'' If the 
BIA is going to start or expand this new program, it should seek 
special funding for that purpose. Funds should not be taken from 
existing IRG and Special Education programs for this purpose.
    Reservation Charter Schools.--The State of Arizona is 
discriminating against Reservation Charter Schools. Only Reservation 
Charter Schools are having their state funding reduced because they 
receive federal funding. Although most off-reservation charter schools 
receive federal funding, their state aid is not reduced. WRCS urges 
Congress to prohibit Arizona from reducing State Aid to Reservation 
Charter Schools if the State wishes to continue to receive federal 
funding for education.
    Last year, as a part of the Interior Appropriations Bill, Congress 
established a requirement if Tribally Controlled Schools use State 
Charter Schools to offer expanded grades with State aid, the Charter 
Schools must pay the BIA for their pro-rata share of the costs of the 
facilities, etc. used by the Charter School. Any cost reimbursement 
should go to the Tribally Controlled School--not to the BIA. These 
charter schools are fully funded by State aid and there is no 
additional expense to the BIA. WRCS urges Congress to change this 
administrative provision to require that the Charter School pay the 
Tribally Controlled School the Charter School's pro-rata share of the 
costs incurred.
    The ``moratorium.''--For about ten years, the BIA has had a 
moratorium on grade expansions at existing BIA schools. This has 
artificially restricted the ability of Tribally Controlled Schools to 
fully serve the needs of the communities they serve. WRCS urges 
Congress to abolish the moratorium on grade level expansions at 
existing BIA funded schools and to fund these schools for this 
expansion.
    Training funds.--In the past, training funds for individual schools 
has not been distributed to the schools but given to certain identified 
organizations to be used for funding. Some of these organizations have 
done well, others have not. WRCS urges Congress to require that these 
training funds be allocated directly to the schools, who can contract 
with those training organizations who most effectively meet their 
needs.
    Tribal Departments of Education.--Tribal Departments of Education 
should be funded directly. No funds should be withheld from schools for 
this purpose. WRCS urges Congress to include funding in fiscal year 
2001 for Tribal Departments of Education for those Tribes who have at 
least three schools.
    Other.--BIA funded schools serve remote areas of the Nation's 
Indian Lands. In many areas fire fighting programs are not available. 
WRCS urges Congress to provide funding for fire fighting equipment and 
programs for BIA funded schools.
    Thank you for your consideration of these requests. For further 
information call Albert A. Yazzie, Executive Director of Wide Ruins 
Community School at (520) 652-3215.
                                 ______
                                 

  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa

    Mr. Chairman, Members of the Committee, the Fond du Lac Band of 
Lake Superior Chippewa would like to thank you for this opportunity to 
present written testimony on fiscal year 2001 appropriations for the 
Department of Interior and Related Agencies.
    The Fond du Lac Reservation was established by Treaty with the 
United States on September 30, 1854 and encompasses 110,000 acres of 
land in northeastern Minnesota. There is a population of 6,500 Indian 
people that live within the service area of the Reservation with the 
Band providing employment or services to most of them.
    In 1997 the Minnesota Supreme Court held that certain traffic 
regulations including speeding, driving without a license, and driving 
with no insurance are ``civil-regulatory'' in nature and under Public 
Law 280 are unenforceable by state police officers on the Reservation. 
The ruling known as the Stone decision, left a jurisdictional void with 
regard to law enforcement on the roads within Indian Reservations in 
the State. In order to fill this void, the Band has undertaken the 
establishment of it's own Tribal police force. In addition, the Band 
has worked with all local law enforcement agencies to establish a cross 
deputization agreement that ensures maximum law enforcement protection 
for the Reservation and it's citizens by allowing all law enforcement 
agencies within the Reservation boundaries to enforce each others laws. 
However, because of the limited financial resources of the Band, there 
are significant unmet needs in this area. At Fond du Lac, we need long 
term monies to pay for staff and equipment to adequately ensure the 
safety of the Reservation population. We are requesting $1.4 million to 
be added to our base budget to help implement and staff the court and 
enforcement for the Band.
    We strongly support the Administration's request of additional 
funding under the Indian Country Law Enforcement Initiative. However, 
we are concerned that the BIA does not intend to provide Tribes located 
in Public Law 280 States with any of the additional dollars earmarked 
within the BIA law enforcement program. In light of the Stone decision, 
we ask this Committee to direct the BIA to change its policy towards 
Tribal police departments located in Public Law 280 states. We support 
the Administration's request for investment in strengthening Indian 
Country's Law Enforcement and Criminal Justice System and ask that this 
Committee consider placing these initiatives into the BIA's permanent 
base budget.
    The Band employs four police officers, six conservation officers, 
one records clerk, one prosecuting attorney, one clerk of court, one 
part time court recorder, and one part time judge. All of these staff 
positions are located within the Resource Management division. Along 
with this staff are twenty other permanent full time staff and fifteen 
full time seasonal staff housed in a building that was designed to 
house twenty. With the increased responsibility assumed by the Band 
there is an ever increasing need to expand the staff and it's 
capabilities. With this in mind we request a one time allocation of $4 
million to the Band for expansion of the office space for the Resource 
Management division.
    Under Treaties with the United States made in 1837 and 1854, a 
large portion of central and northeastern Minnesota, the Fond du Lac 
Band has reserved rights to hunt, fish and gather on the lands ceded to 
the United States. The Band's rights under these treaties have been 
recognized and upheld by the federal courts--most recently the United 
States Supreme Court. On March 24, 1999 the Supreme Court issued a 
decision expressly re-affirming the Band's hunting and fishing rights 
in the 1837 Ceded Territory.
    Under established Band law, exercising these off-reservation treaty 
rights requires the Band to take the steps necessary to ensure proper 
use and management of the natural resources. This means the Band is 
responsible for member's hunting, fishing and gathering activities over 
approximately 8,000,000 acres of land. The Band has adopted, along with 
the federal courts, a code and a resource management plan that protects 
the exercise of treaty reserved rights and the resources. In order to 
proceed to the next logical step the Band is in the final phase of 
completion of the Fond du Lac Integrated Resource Management Plan. The 
Plan allowed Band members to identify and rank the natural resources in 
order of importance to them. The Band, however, needs to ensure that it 
can sufficiently complete the work identified in this Plan, which 
requires the assistance of additional conservation officers, fish and 
wildlife biologists, technicians and related equipment. To do this, we 
are seeking an additional $500,000 to be added to the Band's base 
budget.
    It is essential that the Band also manage it's on-reservation 
resources in order to meet the demands of an increasing population. 
Established by the Treaty of 1854 with the United States, the home of 
the Band is 110,000 acres in northeastern Minnesota. The waters, 
wildlife, wild rice and the forest resources of the reservation are 
vitally important to it's members as these resources provide the 
foundation for our culture, subsistence, employment and recreation. The 
Fond du Lac Reservation includes some 3,200 acres of lakes, 1,900 acres 
of wild rice lakes and associated wetlands, 66 miles of cool water 
streams, and 17,500 acres of forest with the remaining acres being used 
by individual land owner for housing and development. The increasing 
resident population and development are placing all resources under 
great stress. The loss of wild rice acres, wildlife habitat, and the 
decline of our forest are of great concern to the Band. Therefore, we 
are seeking an additional $300,000 to be added to the Band's base 
budget for on-reservation natural resource programs to enable us to 
address the challenges we face in this critical area. It is imperative 
that we continue to protect these resources for the future generations 
on Fond du Lac.
    We ask that the Committee support the Fond du Lac Band and other 
Indian tribes in coordinating their educational activities with other 
school districts as authorized under 25 U.S.C. Sec. 2010 (f), to 
expressly authorize the Secretary of Interior to use funds allotted to 
Bureau Schools to implement cooperative agreements with local public 
school districts, to expressly defer to the Band to determine the 
content of such agreements and to enact the congressional intent 
underlying the cooperative agreement provision to encourage the 
development of tribal education programs which are responsive to the 
particular educational needs of the tribal community. The Band and the 
Cloquet Public Schools are currently in their third year of an historic 
cooperative agreement that has been widely applauded for its 
innovativeness and effectiveness in providing culturally appropriate 
remedial education to American Indian students who are enrolled in a 
public school. The Commissioner of the State of Minnesota Department of 
Children, Families and Learning congratulated both the public school 
and the tribal school for their ``. . . innovative efforts in creating 
new agreements and structures to better serve students . . .''
    Additionally, the Band is in full support of Assistant Secretary 
Kevin Gover's fiscal year 2001 budget request of $2.2 billion. Within 
this budget New School Construction is a high priority in order to make 
schools safe and adequately equipped to meet the diverse needs of all 
American Indian students. We strongly support the Bureau's budget 
request of $300.5 million to replace older, unsafe, and dilapidated 
schools on reservations. We also support the Bureau's budget request of 
$103.4 million for maintenance and repair projects that would reduce 
the backlog of needed repairs to BIA school facilities. Critical health 
and safety concerns exist at many Bureau schools throughout the 
country; these poor facility conditions have a dramatic impact on the 
learners, teachers, and community members. If education is a priority, 
our building structures must convey that meaning by being safe, 
healthy, and comfortable learning environments.
    Furthermore, the Band strongly supports the Bureau's fiscal year 
2001 budget request of $761.2 million for Tribal Priority Allocations. 
Included in this budget request, Education programs such as 
Scholarships ($30.7 million), Adult Education ($2.5 million) and the 
Johnson-O'Malley ($17.1 million) Program would receive needed increased 
funds that would continue to provide the basic necessities critical to 
the quality of life on our reservation. Along with the Bureau's budget 
request of $582 million for Other Recurring Programs. Included in this 
budget request, the BIA's Education, School Operations-ISEP Formula 
Funds, is $333.3 million. These funds are critically needed in order 
for tribal schools to compensate education staff with comparable wages. 
Rising wage and fringe costs are not adequately funded in the existing 
formula, and increasing the ISEP Formula amount would begin to address 
this issue. And, lastly, we support the budget request in ISEP Program 
Adjustments ($667,000.00), Early Childhood Development ($20.6 million), 
Student Transportation ($38.6 million), Institutionalized Disabled 
($3.8 million), Facilities Operations ($55.6 million), and 
Administrative Cost Grants ($46.3 million). These funds are critically 
needed to maintain the current level of services as provided in view of 
increased wages, inflation, and the rising cost of fuel and utility 
costs.
    The Band recently received fiscal year 2000 construction funds to 
build a New School (pre-k through grade 12) with a target construction 
date of June 2000. We express a sincere Miigwech (thank you) for the 
support, confidence and assistance received from the Bureau of Indian 
Affairs, Senators, Congressman, and Committee staff, with a special 
thank you to Senator Paul Wellstone, Senator Rod Grams, Congressman 
Martin Sabo, and Congressman James Oberstar. Their continued support 
has provided the Fond du Lac Band with an historic opportunity to 
provide its community with an education facility that will dramatically 
increase educational opportunities for the entire community.
    In conclusion, the needs at Fond du Lac and throughout Indian 
Country remain massive. Your support to preserve the current BIA 
funding request is critical to maintain current program levels. Your 
consideration for our additional funding requests will enable us to 
improve the delivery of services to Band members and help ensure that 
we enter the 21st Century with a renewed sense of hope.
    Miigwech. Thank you.

                 FOND DU LAC LAW ENFORCEMENT DEPARTMENT

    Project Goal.--The establishment of a full time police force for 
the protection of all residents within the boundaries of the Fond du 
Lac reservation through increased staff and patrol capabilities.
    Project Objectives.--(1) To provide 24 hour, 7 day a week patrol. 
(2) To provide an adequate court system for the Reservation. (3) To 
staff and equip the department to provide adequate enforcement for the 
Reservation.
    Problem Statement.--In 1997, the Minnesota Supreme Court held that 
certain traffic regulations including speeding, driving without a 
license, and driving with no insurance are ``civil-regulatory'' in 
nature, and under Public Law 280 are unenforceable by state police 
officers on the Reservation.
    Justification.--The ruling left a jurisdictional void with regard 
to law enforcement on the roads within Indian Reservations in the 
State. In order to fill this void, the Band has undertaken the 
establishment of it's own Tribal police force. In addition, the Band 
has worked with all local law enforcement agencies to establish a cross 
deputization agreement that ensures maximum law enforcement protection 
for the Reservation and it's citizens by allowing all law enforcement 
agencies within the Reservation boundaries to enforce each others' 
laws. The Band currently employs four police officers, one records 
clerk, one part time prosecuting attorney, one part time clerk of 
court, one part time court recorder, and one part time judge. With 
current staffing patterns and the increased responsibility assumed by 
the Band there is an increased need to expand the staff and it's 
capabilities. Additional funding in the Band's base budget would allow 
these efforts to bring about the enforcement capabilities for the Law 
Enforcement Department.
    Fiscal year 2001 Request--$1,400,000

                 FOND DU LAC RESOURCE MANAGEMENT CENTER

    Project Goal.--To provide adequate space for the Resource 
Management staff to allow for increased capabilities.
    Project Objectives.--(1) To allow for needed expansion of staff. 
(2) To keep staff centrally located for better coordination and 
communication.
    Problem Statement.--The Resource Management Staff of the Band has 
increased to 35, with expansion to 50+ in the next year, and are 
currently housed in office space designed for 20.
    Justification.--The Band is assuming more responsibility in the 
management of it's treaty reserved resources, it's on reservation 
resources, and it's civil regulatory authority. In doing so, the staff 
has had to increase in numbers and capabilities. With the increase in 
responsibility and staff has come a need for an increase in the space 
available for housing these programs. The current building does not 
allow for expansion as it is constructed in a manner that would not 
support further expansion. A new facility would allow the Band to meet 
all current needs and serve the Band with future development.
    Fiscal year 2001 Request--$4,000,000

                 FOND DU LAC CEDED TERRITORIES PROGRAM

    Project Goal.--To implement the Fond du Lac Integrated Resource 
Management Plan (FDLIRMP)to protect, manage and enhance the natural 
resources of the Ceded Territories of the Band with increased staff 
capabilities.
    Project Objectives.--(1) To implement the FDLIRMP. (2) To staff and 
equip program to complete identified projects. (3) To maintain and 
enhance the Band's exercise of Treaty reserved rights
    Problem Statement.--The population of the reservation is on the 
increase and the competition for fish, wildlife, and plant resources 
has reached an all time high. The Band must turn to the Ceded 
Territories to relive some of the pressure on the reservation 
resources.
    Justification.--Over the past 20 years the Band has experienced a 
population migration back to the Reservation. The standard of living 
has increased with the availability of housing and jobs has enticed 
many band members to return and take part in the development of the 
Reservation. This development has taken it's toll on the Reservation 
resources through a decrease in available habitat and an increase in 
pressure from an ever increasing population. The limited land base and 
natural resources of the Reservation has forced the Band to look 
elsewhere to provide these opportunities for Band members. The obvious 
place was the Ceded Territories as the Band has Treaty reserved rights 
in these areas. But, along with the exercise of these rights comes the 
responsibility to manage them. The Band has taken an active role in the 
exercise of Treaty reserved rights and management of the natural 
resources used by band members with the hiring of 2 biologists and 4 
enforcement staff. This staff was not adequate but, were able to manage 
the 1854 area now, with the addition of the 1837 area, staff is 
stretched thin and management efforts are suffering. And lastly, since 
1990 the Band has operated on stagnant base budget. In order to meet 
the increase in responsibilities and the demand from a larger 
Reservation resident population the Band is seeking additional funds be 
added to it's base budget.
    Fiscal year 2001 Request--$500,000
                 fond du lac natural resources program
    Project Goal.--To implement the Fond du Lac Integrated Resource 
Management Plan (FDLIRMP) to protect, manage and enhance the natural 
resources within the boundaries of the Fond du Lac reservation with 
increased staff and project capabilities.
    Project Objectives.--(1) To implement the FDLIRMP. (2) To implement 
the highest priority projects on Reservation. (3) To staff and equip 
the program to complete identified projects.
    Problem Statement.--The responsibility of the Band has expanded 
tremendously over the past ten years without any increase in it's base 
budget.
    Justification.--The land base of the Band is undergoing changes 
from a variety of directions. An increase in the population has placed 
greater demand for development of housing and industrial use which in 
turn are competing with the demands for cultural and traditional uses. 
The protection of these resources are dependent upon a balanced 
approach to ecosystem management which would include implementing the 
Band's IRMP. An increase in funding of the Band's base budget would 
allow the program to integrate the changes in population and the 
demands on the natural resources in a manner that will bring back 
balance to the reservation's ecosystem.
    Fiscal year 2001 Request--$300,000
                                 ______
                                 

         Prepared Statement of the Black Mesa Community School

    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to submit written testimony regarding the fiscal year 2001 
budget for Bureau of Indian Affairs (BIA) programs relating to school 
operations. Black Mesa Community School is a grant school, serving 
students from kindergarten through eighth grade in Kitsillie, a 
mountainous area of the Navajo Nation in Northern Arizona. We are 
pleased to see that there is an increased focus on Indian education in 
the Administration's fiscal year 2001 budget request. While we 
understand that the pressure on your committee to shrink the Interior 
budget is great, we hope that you will pursue the following funding for 
programs within the BIA Office of Indian Education Policy to begin to 
address recognized need:
  --$248,000 to construct a maintenance facility at Black Mesa;
  --$57.9 million for Facilities Operations, $57 million for Facilities 
        Maintenance, an exploration of the reasons for shifting 
        maintenance funds out of the school operations budget, and 
        language to protect these funds from BIA skimming;
  --$57.9 million for Administrative Cost Grants.

               FACILITIES AT BLACK MESA COMMUNITY SCHOOL

    In 1984, the Bureau of Indian Affairs constructed a school building 
to replace the used trailers that had served as our sole facilities for 
nearly ten years. The original building plans for the 1984 construction 
also included planning for housing facilities, a transportation 
building, athletic fields, and site improvements. We were deeply 
appreciative of your committee's 1999 approval of our request to 
utilize our surplus savings to construct employee housing, and have 
entered the planning stages of this project in cooperation with the 
BIA. In 1999 we were also granted three 2-room. modular buildings from 
the BIA to address our need for additional classroom space. But our 
dire need for transportation and maintenance facilities remains.
    Due to our remote location, we must conduct a wide range of plant 
management and school bus maintenance onsite. At present, we conduct 
all plant management activities out of a small, locally constructed 
shed. In the winter, harsh weather forces the maintenance personnel to 
conduct their work in a small janitor's closet inside the school. We 
have no protected facilities for bus maintenance.
    We ask the committee to follow through on the 1984 building plan by 
appropriating funds to allow our school to construct a small multi-
purpose facility to serve as an operations and maintenance shop, 
emergency generator room, transportation maintenance area, fire bay 
station, and storage area. The BIA's 1984 estimate for this facility 
was $219,200, and we estimate that such a facility would cost 
approximately $248,000 to construct today. The School Board has located 
a 50, by 100, steel building available for sale at $20,000 that could 
meet these needs for a fraction of the estimated price.

                         FACILITIES MAINTENANCE

    We hope to get many years of use from our school facilities, which 
will require consistent maintenance over the life of the buildings. As 
such we are concerned both with shortfalls in funding for facilities 
maintenance and with radical structural changes that have been proposed 
in the Administration's fiscal year 2001 budget.
    As directed by Congress, BIA developed the so-called ``FACCOM'' 
formula to distribute facilities O&M funds to the 185 schools in the 
system. But funding for this area has fallen one-third below the amount 
needed to fund the FACCOM formula. Now, after separating the O&M budget 
into two separate line items last year, the BIA proposes that the 
entire amount for ``school facilities maintenance'' be moved from 
Operation of Indian Programs into Construction--specifically, to the 
``Facilities Improvement and Repair'' (FI&R) line item. The budget 
materials released so far by the Bureau provide no explanation of the 
objectives or ramifications of this proposal.
    The 185 BIA-funded schools rely on facilities Operations and 
Maintenance funding to support their routine operational needs (such as 
the cost of utilities and janitors) and on-going maintenance needs (for 
boilers and building systems, water and sewer systems, etc.) for an 
enormous inventory of federally-owned buildings. FI&R funds are 
distributed on a project-by-project basis, not by formula. We can see 
no rational reason why BIA would want to combine funding for routine 
maintenance with funding for one-time projects (such as major 
renovations and repairs, asbestos removal, etc.). The purposes of the 
two funding line items are entirely different.
    Even if the formula-based distribution of facilities maintenance 
funding would continue under this structural shift, the attempted move 
could severely limit the ability of local school boards to develop 
their facilities budgets to prudently respond to their local 
circumstances.
    BIA is already this year taking steps to control facilities 
budgets. In January, more than 3 months after the fiscal year began, 
BIA told some schools that no facilities funding would be released 
until an acceptable ``annual work plan'' was provided. In effect, they 
are holding these funds hostage. They are imposing an unauthorized 
requirement on schools in order to force them to do things the ``BIA 
way'' if they want their funds for the year. We fear this inefficient 
and irrational top-down control will only increase if the proposed 
structural change in the budget is permitted.
    We hope you will retain school facilities maintenance funding in 
the School Operations budget, and assure that all appropriated funds 
are distributed by the formula. We also ask you to provide sufficient 
funding for BIA-funded schools to properly maintain the federal 
facilities we operate. Please meet the BIA's request of $57 million for 
Facilities Maintenance and increase the Facilities Operations funding 
to $57.9 million to address the maintenance needs identified by the 
FACCOM formula.

                       ADMINISTRATIVE COST GRANTS

    Last year, Congress focused considerable attention on the 
``contract support'' funding needs for tribally operated BIA and IHS 
programs and provided commendable increases in funding for contract 
support. But not one dollar more was supplied for Administrative Cost 
Grants--the schools' equivalent of contract support costs. In fact, the 
appropriation for AC Grant has been frozen at the same level for three 
consecutive years.
    As a result, in the current school year, we are receiving only 84 
percent of the amount dictated by the statutory formula for our 
administrative needs. That percentage will drop to 81 percent next 
school year. (Under the ``forward funding'' system, the fiscal year 
2000 appropriation, frozen at the fiscal year 1998 level, will supply 
our AC Grant funds for school year 2000-2001.) The BIA request for 
fiscal year 2001 (for use in school year 2001-2002) will only meet 80 
percent of need. When 100 percent of these costs are not funded, we are 
again forced to use funds that are intended to provide classroom 
instruction for students.
    More and more schools are converting to tribal operation each year, 
but not one dollar of additional funding has been provided to support 
their administrative costs. This severely threatens the continuing 
viability of existing contract and grant schools.
    We implore your Committee to recognize that tribal schools' needs 
for administrative costs are just as great as those of other tribally-
operated BIA and IHS programs. Please provide $57.9 million to fully 
fund AC Grants in fiscal year 2001.

                               CONCLUSION

    All of us at Black Mesa thank you for your attention to these basic 
requests. While they represent a drop in the federal budget bucket, 
these dollars will have a dramatic effect on the day to day function of 
our school and the education of future generations in our community. We 
thank you for your ongoing work in support of Indian education, and 
look forward to working with you in the years to come to assure that 
our students have a learning environment that will empower them in 
achieving their highest aspirations.
    Thank you very much for your support.
                                 ______
                                 

  Prepared Statement of the Greasewood Springs Community School, Inc.

    Mr. Chairman and Members of the Committee: The Greasewood Springs 
Community School, located on the Navajo reservation, serves the 
educational needs of 349 students from kindergarten through grade 
eight. Since July 1, 1996, our school has been operated by a local 
Board of Directors through a Grant from the Bureau of Indian Affairs 
pursuant to the Tribally Controlled Schools Act, Public Law 100-297. I 
would like to take this opportunity to commend the Administration for 
its proposed increases for Indian programs within the fiscal year 2001 
budget. However, in the area of Indian education, a great deal more 
needs to be done simply to address widely acknowledged shortfalls in 
the areas of Administrative Cost Grants, Facilities Operations and 
Maintenance, Student Transportation, and Indian School Equalization 
Program funding. Specifically, we request the following funding levels 
within the BIA Office of Indian Education Policy:
  --$57.9 million for Administrative Cost Grants;
  --$352.2 million for the ISEP Formula program;
  --$42.2 million for Student Transportation;
  --$57.9 million for Facilities Operations and $57 million for 
        Facilities Maintenance, as well as an exploration of the 
        reasons for shifting maintenance funds out of the school 
        operations budget and language to protect these funds from BIA 
        skimming.

                       ADMINISTRATIVE COST GRANTS

    AC Grants provide funds to tribes or tribal organizations for 
school operations in lieu of contract support. They are designed to 
enable tribes and tribal organizations to operate contract or grant 
schools without reducing direct program services to students. Tribes 
are provided funds for related administrative overhead services and 
operations which are necessary to meet the requirements of law and 
prudent management. When 100 percent of our costs are not funded, we 
are forced to use critically-needed dollars which should be used to 
provide classroom instruction to students.
    For school year 2001-2002, the BIA projects that 133 schools will 
be operated under contract or grant status. However, the requested 
increase from the Administration would only cover 80 percent of the 
need for Administrative Cost Grants. This is an unconscionable 
violation of Federal law.
    In this year's budget request, a great deal of emphasis is placed 
on alleviating the shortfalls for Contract Support within BIA and IHS, 
but there is hardly a mention of the need for increased funding for 
Administrative Cost Grants. AC Grant funding has been frozen at $42.16 
million for three years, despite the fact that dozens of additional 
tribes have contracted to take on school operations. The requested 
increase of approximately $4 million does not even cover the increase 
in schools requiring these funds, let alone begin to address the 
chronic acknowledged shortfall from the need identified by formula for 
Administrative Cost Grants.
    Furthermore, the budget retains the current appropriations language 
which places a ``cap'' on the amount of BIA funds that can be spent on 
AC Grants to the amount appropriated. This language is designed to 
overturn the Interior Department's legal obligation to pay AC Grants to 
contract and grant schools at 100 percent of the amount determined 
through a statutory formula. We strongly urge that the Subcommittee 
reject this language.

                 FACILITIES OPERATIONS AND MAINTENANCE

    Facilities Maintenance Line Item.--The Facilities Operations and 
Maintenance account was separated into two line items in the fiscal 
year 2000 budget, a decision that the BIA says was based on a February 
1998 Interior Department report on facilities maintenance issues. But 
in the BIA proposed budget for fiscal year 2001, the newly separated 
line item for Facilities Maintenance has been shifted into the budget 
for Facilities Improvement and Repair (FI&R). FI&R funds are 
distributed on a project-by-project, one-time basis rather than by 
formula as O&M funds are currently distributed. We hope that before 
accepting this shift your Committee will make an inquiry into BIA's 
reasons for shifting this account, and will make a critical accounting 
of what if any beneficial results will be obtained by this move. If 
this move will in any way change the formula for distributing these 
funds to schools or will reduce the desperately needed funds which 
schools receive under the current formula, we ask that you reject it. 
Any reduction in the already inadequate formula distributions for the 
accounts that used to comprise facilities operations and maintenance 
would be devastating for contract and grant schools.
    Operations and Maintenance Funding.--At present, the formula 
distributions for O&M are grossly inadequate, often insufficient to 
cover even basic utilities, let alone basic maintenance. We ask that 
funding for Facilities Operations and Facilities Maintenance be 
increased to $57.9 million and $57 million, respectively, in order to 
provide sufficient funding for BIA-funded schools to properly maintain 
the Federal facilities we operate. Adequate formula funding for 
everyday upkeep of schools is a critical element in assuring that 
schools will last longer and remain safe for students. There are an 
absurd number of BIA-funded schools in desperate need of new school 
construction at present, partially as a direct result of chronic under-
funding of basic maintenance at existing school facilities. Congress 
can save a great deal of money in the long run by investing sensibly in 
basic maintenance today.
    OIEP ``Skimming''.--A number of Bureau-funded schools have begun to 
receive communications from the BIA's Education Line Officers in their 
area instructing that a percentage of their Program Administration 
funds will be kept by the BIA for purposes of oversight and technical 
assistance. This runs counter to the entire principle of self-
governance and deals a devastating blow to schools that are already 
struggling to stretch inadequate O&M dollars to meet their basic needs. 
The BIA already reserves funds for these purposes, and it is 
indefensible that the OIEP has authorized ELOs to skim further funds 
from the bare-bones funding that BIA-funded schools receive for 
operations and maintenance expenses. We ask that the Committee include 
language in the fiscal year 2001 budget to disallow such ``skimming'' 
of scarce school resources.

                   INDIAN SCHOOL EQUALIZATION PROGRAM

    The ISEP program, which provides basic instructional funding for 
students in BIA-funded schools, remains under-funded in the proposed 
fiscal year 2001 budget. Under the proposal, ISEP would be funded at 
$333.3 million, resulting in a Weighted Student Unit (WSU) of 
approximately $3,685. As you know, this level is far below similar 
expenditures for students in every other school system in the U.S. 
Unless additional ISEP funding is provided, our educational program 
will suffer and our students will remain at an inexcusable 
disadvantage.
    Our students need to know that they are just as important as other 
kids in the U.S., and that their education is just as important to 
Congress as the education of students in other school systems. We ask 
that you take advantage of the focus on education within the BIA budget 
to finally do something about this terrible short-shifting of Indian 
students. We support the National Indian Education Association (NIEA) 
recommendation of at least $352.2 million for the ISEP Formula program 
in fiscal year 2001, which would yield a WSU of approximately $4,000 
per unit.

                         STUDENT TRANSPORTATION

    The BIA's budget justification estimates that, given a likely 
increase of approximately 600,000 in school bus mileage in school year 
2001-2002, the $38.2 million requested by the Administration for school 
transportation will allow a payment rate to schools of $2.30 per mile. 
This is still far below the national average of $2.92 reported for 
public schools for school year 1993-1994, a figure which is likely much 
higher today. The discrepancy between funding for student 
transportation and the actual cost to schools widens every year, 
forcing many to dip into their education funds to cover unavoidable 
transportation costs.
    Our reservation has primitive road conditions, with our buses 
covering 253 unpaved and 289 paved miles every day. We are in dire need 
of four-wheel-drive buses to enable us to get students to school and 
back home safely. We are perpetually short of adequate bus drivers 
under the current level of transportation funding, which leads to 
transportation problems for many students.
    Our transportation budget is hit especially hard during the winter 
months, when bad road conditions cause our buses to break down on a 
regular basis. We lack a garage or repair facility to deal with these 
breakdowns, causing small repairs to require time-consuming and 
expensive maintenance trips. For example, every single tire repair must 
be taken to Holbrook, more than 50 miles away. In addition, the lack of 
a diesel fuel pump at the school forces us to pay extremely high prices 
for fuel at the Greasewood Trading Post, the closest fuel outlet.

                               CONCLUSION

    Mr. Chairman and Members of the Committee, thank you for 
considering these requests and for your attention to the welfare of 
Indian children at the Greasewood Community School. We have appreciated 
your support over the years, particularly in the fiscal year 1998 
fulfillment a promise made by the BIA over a decade ago for 
construction of a new gymnasium at our school. We are nearing 
completion in construction of the new gym, and our students look 
forward to putting it to good use. The administration, school board, 
teachers, and students of Greasewood Springs Community School thank you 
for your assistance.
                                 ______
                                 

       Prepared Statement of the Ramah Navajo School Board, Inc.

    Thank you for this opportunity to submit testimony for the record 
regarding the fiscal year 2001 Bureau of Indian Affairs education 
budget. We are very pleased with the emphasis that has been placed on 
Indian education in the proposed fiscal year 2001 budget. This focus is 
long overdue and represents an important step toward addressing the 
critical construction needs of Bureau-funded schools. But despite this 
emphasis, some areas of critical concern to the educational program in 
these schools have been overlooked in the proposed budget. Our 
testimony demonstrates the need for the following changes to the budget 
for BIA Office of Indian Education Programs:
  --$57.9 million for Facilities Operations and $57 million for 
        Facilities Maintenance, an exploration of the reasons for 
        shifting maintenance funds out of the school operations budget, 
        and language to protect these funds from BIA skimming;
  --funding to meet 100 percent of the need for Administrative Cost 
        Grants;
  --at least $352.2 million for the ISEP Formula program in fiscal year 
        2001;
  --student transportation funding at approximately $42.2 million.
    Like most Bureau-funded schools, we find ourselves caught in an 
annual catch-22: with every element of our budgets from the Indian 
School Equalization Program to Facilities Maintenance funded far below 
actual need, something has to give. We have no choice but to pay our 
utility bills. We have no choice but to fuel and maintain the vehicles 
that transport students to and from school. Often we have no choice but 
to address immediate facilities crises that spring up in physical 
plants that suffer from years of delay in necessary maintenance. 
Unfortunately, it is the students who ultimately pay the difference out 
of their already inadequate education funding. As we discuss below, the 
proposed budget does not address several critical, chronic budget 
shortfalls that are affecting the quality of Indian education.
    These shortfalls should not be allowed to continue for another 
year. You hold the power to make an incredible difference in the 
educational opportunities afforded our kids. We look forward to working 
with you to forge an Indian education budget that provides true 
educational opportunity for Indian youth as well as viable mechanisms 
for tribes to exercise self-determination in school operations.

                 FACILITIES MAINTENANCE AND OPERATIONS

    Facilities Maintenance.--Despite objections from many schools, the 
Facilities Operation and Maintenance line item was split into two parts 
last year. But in the BIA proposed budget for fiscal year 2001, the 
newly separated line item for Facilities Maintenance has been shifted 
into the budget for Facilities Improvement and Repair (FI&R). We are 
deeply alarmed by this shift, as FI&R funds are distributed on a 
project-by-project, one-time basis rather than by formula as O&M funds 
are currently distributed.
    The formula distributions for O&M are already alarmingly 
inadequate, often insufficient to cover even basic utilities, let alone 
basic maintenance. Any reduction in the already inadequate formula 
distributions for the accounts that used to comprise facilities 
operations and maintenance would be devastating for contract and grant 
schools. Adequate formula funding for everyday upkeep of schools is a 
critical element in assuring that schools will last longer and remain 
safe for students.
    We ask that you request a thorough explanation for this shift from 
the BIA, and an accounting of what if any beneficial results will be 
obtained by this move. If this move will merely result in more BIA 
bureaucratic red tape, we ask that you reject it. Please insist that 
Facilities Maintenance remain in the School Operations budget, and 
provide sufficient funding for BIA-funded schools to properly maintain 
the Federal facilities we operate. Please increase Facilities 
Operations to $57.9 million and Facilities Maintenance to $57 million 
in order to fully address the needs identified by the formula.
    OIEP ``Skimming'' of O&M funds.--We recently received a 
communication from the Education Line Officer from the BIA's Southern 
Pueblos Agency requesting that we set aside 13 percent of our Program 
Administration funds ``to allow (the line officer) to--assure 
compliance to all code and other requirements that must be met for 
facility Management Operations. This will allow (the line officer) to 
travel to these locations when necessary and on a routine basis to do 
inspections for safety compliances (sic) and other regulatory 
requirements.'' This request was made in response to a memo from OIEP's 
head office instructing that the ELOs may use their discretion in 
withholding funds for providing ``oversight and technical assistance''. 
In our view, this flies in the face of the self-determination policy 
and serves to deepen the financial crisis faced by Bureau-funded 
schools. We ask that the Committee include language in the fiscal year 
2001 budget to disallow such ``skimming'' of scarce school resources.

                       ADMINISTRATIVE COST GRANTS

    Administrative Cost Grant funding has been held at the $42.2 
million level for three years. Despite increasing awareness of the 
importance of adequate contract support and an initiative to increase 
contract support funding in other areas of the proposed budget, 
Administrative Cost Grants received an increase of only $4 million in 
the request, for total proposed funding of $46.3 million. This is 
actually less than last year's request. According to the BIA's budget 
justification materials, this will address only 80 percent of the need 
for Administrative Cost Grants. With the possibility of new schools 
converting to grant status, shortfalls in funding for Administrative 
Cost Grants could get even worse in fiscal year 2001 if Congress does 
not significantly increase this funding level.
    We believe that it is unreasonable to ask that schools operate with 
less than 100 percent of acknowledged need for Administrative Cost 
Grants.

                  INDIAN STUDENT EQUALIZATION PROGRAM

    We are dismayed to see that the ISEP program, which provides basic 
instructional funding for students in BIA-funded schools, remains 
underfunded in the proposed fiscal year 2001 budget. Under the 
proposal, ISEP would be funded at $333.3 million, resulting in a 
Weighted Student Unit (WSU) of approximately $3,685. As you know, this 
level is woefully inadequate when compared with similar expenditures 
for students in any other school system in the U.S. Unless additional 
ISEP funding is provided, we will continue to lose our best teachers to 
salary freezes or teacher layoffs, and our students will suffer 
decreased instruction hours and inadequate instructional materials. 
There is no reason that the discrepancy between funding for BIA schools 
and Department of Defense or public schools should be accepted as a 
given.
    We ask that you take advantage of the focus on education within the 
BIA budget to finally do something about this terrible short-shifting 
of Indian students. We support the National Indian Education 
Association (NIEA) recommendation of at least $352.2 million for the 
ISEP Formula program in fiscal year 2001, which would yield a WSU of 
approximately $4,000 per unit.

                             TRANSPORTATION

    In the 1999-2000 school year the Bureau-funded transportation rate 
was $2.26 per mile, still far short of the nationwide average of $2.92 
that was reported for public schools five years earlier. Under the 
proposed budget, transportation would be funded at $38.3 million, an 
increase of approximately $2 million from the fiscal year 2000 enacted 
level. With wear and tear and repair costs well above average due to 
the remote locations and inadequate infrastructure of tribal 
communities, we believe this request would fall short of addressing the 
actual cost of student transportation for schools like ours.
    Despite the shortfalls in ISEP funding which we have described, the 
Ramah Navajo School Board, Inc., Pine Hill School has been forced to 
use $100,000 to $150,000 of its annual ISEP funding to cover the 
discrepancy between funding and actual costs for its transportation 
program in recent years. This should not be a trade-off that schools 
are forced to make. We ask that you increase the BIA budget for student 
transportation to a level that can at least support a per-mile rate 
equivalent to the last computed national average of $2.92 per mile, 
which the NIEA estimates would require at least $42.2 million.
                                 ______
                                 

    Prepared Statement of the Lukachukai Community School Board of 
                            Education, Inc.

    Mr. Chairman and Members of the Subcommittee: My name is Phillip 
Belone. I am the Executive Director of the Lukachukai Community School 
Board of Education, Inc. (LCBE, Inc.), which oversees a BIA-funded 
school serving 400 students from grades K through 8 in our area of the 
Navajo Reservation. On behalf of the Lukachukai Community Board of 
Education, I thank you for this opportunity to appear before you 
regarding the fiscal year 2001 budget.
    We wish to highlight several aspects of the President's request in 
the area of School Operations for which we believe that additional 
funds or different funding mechanisms are needed. Particularly, we hope 
that your Committee will expand upon the President's request for 
funding for new school construction in Indian Country, so that the full 
backlog of pressing school construction needs, including the dire need 
for new facilities at Lukachukai, may finally be addressed.
    Facilities Construction Needs at Lukachukai. School Facilities.--We 
commend the Bureau of Indian Affairs (BIA) for requesting funds to 
construct the first six of the schools included on its most recent new 
school construction priority list. This request would fund the three 
schools that have waited on the list for construction since 1993, as 
well as three of the 10 new schools on the list. The Committee should 
act favorably on this request at a minimum, and would be well within 
reason to seek funding for additional schools beyond the BIA request. 
Further delay seems unconscionable given the extend of acknowledged 
need in this area--we should not wait until the current generation of 
students are parents themselves before addressing the terrible 
condition of Indian Country's schools. Behind this short list wait 
dozens of schools like our own with pressing facilities needs that have 
yet to even be considered. We believe there is no room for years of 
delay when the health and safety of young people is at stake.
    The structures and utility systems of the existing school 
facilities at Lukachukai are in extremely poor condition. While most 
educational facilities are built to last for only thirty years, the 
newest of our facilities are over thirty-six years old. Our facilities 
are not in compliance with disabilities accessibility codes. Our 
parking lot accommodates only 18 cars for a school with a staff of 86, 
and lacks lighting of any kind. Our limited space forces us to load 
students into school buses on the main road. The school's fire alarm 
system is outdated and rings in only one section of the building. The 
existing waterlines are completely rusted and dispense orange-colored 
water from water fountains, forcing us to import bottled water for 
student and staff consumption. Last March, severe winds blew off the 
Kitchen, Residential Hall, and Gymnasium roofs. The repair and 
maintenance of the roofs cost $140,000 and resulted in two weeks of 
school closure.
    High-density archaeological and burial sites on the existing school 
grounds make construction to update or expand existing facilities 
extremely difficult to undertake. Nevertheless, severe overcrowding at 
our school and our low ranking on the list for new school construction 
have pushed us to explore renovating the four 1914 native sandstone 
classroom buildings on our campus that have been condemned by the BIA. 
We are projecting that it will take approximately three to five years 
just to get this project through the bureaucratic maze of BIA, tribal, 
and historic preservation requirements.
    Research has demonstrated that poor facilities such as ours 
distract significantly from the educational program of a school, and we 
believe that our students deserve better in their formative years. To 
address the health, safety, and educational risks posed by these 
deteriorating facilities as well as the school's inevitable expansion 
needs, the Board of Education for Lukachukai School proposes to 
construct a new grant school on 44.28 acres of land on the former 
Lukachukai airstrip in Lukachukai, Arizona.\1\ This facility would 
serve 450 youths from kindergarten through eighth grade from 
Lukachukai, Round Rock and Tsaile/Wheatfields Chapters. The land is 
currently used for grazing purposes and has been withdrawn form that 
use for the construction of the proposed school.
---------------------------------------------------------------------------
    \1\ The new campus would consist of classrooms and administration 
buildings, a residential hall, gymnasium, playground, basketball court 
and football field, parking lot, bus garage, traditional hogan, 
greenhouse, cafeteria, and staff housing.
---------------------------------------------------------------------------
    We have conducted archaeological, environmental, and cultural 
resources inventories of the proposed site, and have found that no new 
impacts would be imposed on wildlife, vegetation, cultural resources, 
or socioeconomic factors. The proposed new grant school at Lukachukai 
is project ready and should receive high priority ranking on the Bureau 
of Indian Affairs Priority List for new school construction. But to our 
dismay, we are ranked 66th on the list at this time.
    Unfinished BIA renovation project at Lukachukai.--Some of our 
immediate needs for classroom space could be alleviated if the BIA 
would complete renovation of a large building on our campus (formerly 
used as a dormitory) that was begun several years ago but never 
completed. This building has sat in its partially renovated state since 
1992. The work needed to be done to make it suitable for occupancy 
includes installation of floors, ceilings, restrooms and electrical 
fixtures. We estimate this work could be accomplished for under 
$200,000. It is a waste for this building to sit unfinished and 
unoccupied, particularly since BIA has already devoted substantial 
Federal dollars to the renovation.
    Staff Housing Improvement and Repair.--The Lukachukai Community 
Board of Education has 47 housing units for 85 employees, all of which 
contain asbestos in the floor tile and tile mastic. Of these, three 
units have been vacated due to facilities problems and all must be 
renovated to meet minimum safety requirements and to provide adequate 
protection from the elements in winter months. Because of these 
conditions we ask that new staff housing be considered as part of the 
new school construction application, including 10 to 15 new units to 
address overcrowding and replacement of the 47 existing unsafe units.
    Facilities Operation and Maintenance.--Despite objections from many 
schools, the Facilities Operation and Maintenance line item was split 
into two parts last year. But in the BIA proposed budget for fiscal 
year 2001, the newly separated line item for Facilities Maintenance has 
disappeared, reportedly merged into the budget for Facilities 
Improvement and Repair (FI&R). We are deeply alarmed by this shift, as 
FI&R funds are not distributed by formula to schools but are doled out 
on a project-by-project, one-time basis.
    Any reduction in the already inadequate formula distributions for 
the accounts that used to comprise facilities operations and 
maintenance would be devastating for contract and grant schools. 
Facilities Operations and Facilities Maintenance have been consistently 
underfunded for Bureau-funded schools, with the previous combined line 
item often barely covering utilities costs for schools. Most of our 
buildings at Lukachukai are nearly 40 years old and contain asbestos. 
Because we have never received adequate Operations and Maintenance 
funding, they will continue to deteriorate rapidly and soon will need 
replacement. Adequate formula funding for everyday upkeep of schools is 
a critical element in assuring that schools will last longer and remain 
safe for students.
    We hope that you will ask the BIA to explain why the facilities 
maintenance line item was removed from the school operations budget and 
what beneficial results will be obtained by this move. If this move 
will merely result in more BIA bureaucratic red tape, we ask that you 
reject it. Please insist that Facilities Maintenance remain in the 
School Operations budget, and provide sufficient funding for BIA-funded 
schools to properly maintain the Federal facilities we operate. Please 
increase both Facilities Operations and Facilities Maintenance funding 
by at least one-third in order to fully address the needs identified by 
the formula.
    Administrative Cost Grants.--Administrative Cost Grant funding has 
been held at the $42.2 million level for three years. The Navajo Area 
School Board Association (NASBA) and BIA schools in the Navajo Area 
have developed an education plan to convert 50 schools to contract or 
grant status by the year 2003. The Lukachukai Community Board of 
Education fully supports this plan, but we fail to see how it will be 
possible to take over these education functions while the ``pie'' for 
Administrative Cost Grants remains inadequate to meet the needs of even 
the existing contract and grant schools.
    Despite an initiative to increase contract support funding in other 
areas of the proposed budget, Administrative Cost Grants received an 
increase of only $4 million in the request, for total proposed funding 
of $46.3 million. This is actually a reduction from last year's budget 
request of $47.7 million, which was not approved. Present funding 
fulfills only 84 percent of the need for Administrative Cost Grants. 
The request for fiscal year 2001 is projected to cover only 80 percent 
of the need. With the possibility of new schools converting to grant 
status, shortfalls in funding for Administrative Cost Grants could get 
even worse in fiscal year 2001 if Congress does not significantly 
increase this funding level.
    Student Transportation.--Lukachukai is located in the foothills of 
the Chuska Mountains, elevation 7000 ft, with students spread among 
three Navajo chapters over a radius of 20 miles. Access to our 
community is primarily via dirt roads. During the winter months, these 
roads become extremely muddy and icy, forming deep ruts that stay 
frozen for months. These treacherous conditions place a great deal of 
wear and tear on our school buses and other school vehicles, most of 
which are old and in poor condition. The closest bus maintenance and 
service location is a 250-mile round trip.
    In the 1999-2000 school year the Bureau-funded transportation rate 
was $2.26 per mile, still far short of the nationwide average of $2.92 
that was reported for public schools five years earlier. Under the 
proposed budget, transportation would be funded at $38.3 million, an 
increase of approximately $2 million from the fiscal year 2000 enacted 
level. With wear and tear and repair costs well above average due to 
our location and GSA rental and mileage rates escalating at a rapid 
rate, we believe this request would fall short of addressing the actual 
cost of student transportation for schools like ours.
    If BIA transportation reimbursement rates continue to lag behind 
actual costs for student transportation in fiscal year 2001, we will be 
forced to continue to use a distressing 28-29 percent of our classroom 
funds to supplement our transportation budget. This shortchanges our 
students and forces us to stretch our extremely limited education 
dollars even further. We ask that you increase the BIA budget for 
student transportation to a level that can at least support a per-mile 
rate equivalent to the last computed national average of $2.92 per 
mile, which the NIEA estimates would require at least $42.2 million.
    Indian Student Equalization Program (ISEP).--The ISEP program, 
which provides basic instructional funding for students in BIA-funded 
schools, has been consistently underfunded. The proposed fiscal year 
2001 funding level of $333.3 million would result in a Weighted Student 
Unit (WSU) of approximately $3,685. As you know, this level is woefully 
inadequate when compared with similar expenditures for students in any 
other school system in the U.S. Unless additional ISEP funding is 
provided, we will continue to face a large turnover of qualified and 
experienced teachers, decreased instruction hours, teacher layoffs, and 
teacher salary freezes.
    We support the National Indian Education Association (NIEA) 
recommendation of at least $352.2 million for the ISEP Formula program 
in fiscal year 2001, which would yield a WSU of approximately $4,000 
per unit. By funding ISEP at this level Congress could come closer to 
offering real educational opportunities to Indian students that are 
more comparable to those enjoyed by other children in this country.

                               CONCLUSION

    We thank you for your support for Indian Education programs and of 
the Lukachukai Community Board of Education, Inc. We hope that this 
testimony will prove useful to your efforts to craft a fair and 
reasonable budget for BIA education programs. We would be pleased to 
provide you with any additional information about our school and our 
priorities and concerns, and we look forward to working with you over 
the coming years to assure that every Indian child gets the education 
they need and deserve. Thank you.
                                 ______
                                 

  Prepared Statement of the Alamo-Navajo School Board, Navajo Nation, 
                         Magdalena, New Mexico

    Mr. Chairman and Members of the Committee: My name is Burton 
Apache. I am President of the Alamo-Navajo School Board, a tribal 
organization of the Navajo Nation.
    While called a ``School Board'', our organization does much more 
than run a BIA-funded school. Our 10-square mile reservation is 
isolated in south-central New Mexico, 250 miles from the Big Navajo 
Reservation. Because of our remote location, the Navajo Nation and its 
political subdivision, the Alamo Chapter, authorize the School Board to 
administer the education, health care, road maintenance, job training, 
Head Start and other community programs that serve our nearly 2,000 
Navajo people. On an annual basis, we operate over $9 million of 
Federal and state supported programs.

                          SUMMARY OF REQUESTS

    Obtain further details about BIA proposed re-location of school 
facilities maintenance funds into the Construction/Facilities 
Improvement & Repair account
    Fund school facilities maintenance at $57 million
    Fund school facilities operations at $55.6 million as requested by 
BIA
    Fund Administrative Cost Grants at $57.9 million
    We support the budget request for Education Facilities Improvement 
& Repair
    Provide $150,000 for a replacement fire truck for the Alamo Navajo 
Reservation

                         BIA SCHOOL OPERATIONS

Facilities operations and maintenance funding
    We are concerned about the BIA's proposed alterations in the 
structure of school facilities funding. Last year BIA asked and 
Congress agreed to separate the single ``school facilities operation 
and maintenance'' account into two--``facilities operation'' and 
``facilities maintenance''. There was no advance consultation with 
tribal and school officials about this change (as required by law), and 
little explanation of its objective in the budget justification.
    Now in the fiscal year 2001 budget, BIA proposes a more dramatic 
structural change. It seeks to move the entire amount for ``school 
facilities maintenance''--$27 million--from the Operation of Indian 
Programs into Construction--specifically, to the ``Facilities 
Improvement and Repair'' (FI&R) line item. The budget materials 
released so far by the Bureau provide no explanation of the objectives 
or ramifications of this proposal.
    The 185 BIA-funded schools rely on facilities operation and 
maintenance funding to support their routine operational needs (such as 
the cost of utilities and janitors) and on-going maintenance needs (for 
boilers and building systems, water and sewer systems, etc.) for an 
enormous inventory of federally-owned buildings. These run the gamut of 
schools, dorms, administrative offices and gyms to bus garages and 
repair shops, storage units, fire stations, and utility systems.
    As directed by Congress, BIA developed the so-called ``FACCOM'' 
formula to distribute facilities O&M funds to the 185 schools in the 
system. While the Congressionally-supplied funding has fallen one-third 
below the amount needed to fund the FACCOM formula, at least the 
schools could expect to be equally treated in the formula distribution 
of the funds made available.
    The attempted move of ``school facilities maintenance'' funds to 
the FI&R line in the Construction account is of concern for several 
reasons:
    (1) It could severely limit the ability of local school boards to 
develop their facilities budgets to prudently respond to their local 
circumstances. With combined facilities operation and maintenance 
funds, we can apportion our funds to meet our most pressing needs--such 
as paying our electricity, heating and water bills and janitor 
salaries. Sometimes this means that some facilities maintenance needs 
have to be put off. If, however, the facilities maintenance functions 
are moved from the ``Operation of Indian Programs'' account to the 
``Construction'' account as BIA proposes, our ability to make needed 
budget apportionment decisions at the local level would be limited 
solely because of this structural change in the organization of the BIA 
budget.
    (2) The BIA budget justification does not indicate whether the 
Congressionally-ordered formula-based distribution of facilities 
maintenance funding would continue. Funding for maintenance is already 
dangerously low. If the school system were to lose some $27 million 
from the amount available for formula distribution, school boards would 
not have the ability to do even routine maintenance; this would 
jeopardize the government's investment in these facilities and the 
well-being of the students and staff who occupy them.
    (3) FI&R funds are distributed on a project-by-project basis, not 
by formula. Therefore, we can see no rational reason why BIA would want 
to combine funding for routine maintenance with funding for one-time 
projects (such as major renovations and repairs, asbestos removal, 
etc.) The purposes of the two funding line items are entirely 
different. If, however, they are combined into one account, BIA will 
make the sole decision as to how they are spent. If formula 
distribution is not used any semblance of equality between schools will 
be destroyed. And it will be difficult, if not impossible, for Congress 
to adequately supervise the expenditure of these funds.
    (4) BIA bureaucrats would control the flow of funding to schools 
and decide what the money would be spent for rather than having these 
decisions made at the local level where school authorities know 
precisely what their building needs are. BIA is already this year 
taking steps to control facilities budgets. In January, more than 3 
months after the fiscal year began, BIA told some schools that no 
facilities funding would be released until an acceptable ``annual work 
plan'' was provided. In effect, they are holding these funds 
``hostage''. They are imposing an unauthorized requirement on schools 
in order to force them to do things the ``BIA way'' if they want their 
funds for the year. We fear this inefficient and irrational top-down 
control will only increase if the proposed structural change in the 
budget is permitted.
    BIA has for years ``skimmed'' considerable funding off the top of 
the facilities O&M funds, further reducing the amount made available to 
the individual schools. These funds are used to pay BIA staff and 
support roads and other projects at BIA's discretion, without any input 
or agreement from the schools whose formula funds were ``skimmed'' and 
without any direction from Congress.
    As we reported in our fiscal year 1999 budget testimony, an 
internal draft of the budget justification for that year admitted that 
even a $77 million appropriation (the amount requested that year for 
facilities O&M) would not meet more than 68 percent of need and would, 
at best, enable a major portion of schools to operate ``at a bare 
minimum of need.'' This admission was deleted from the final 
justification sent to Congress so you did not get to read it. 
Meanwhile, our facilities costs--especially utilities and heating oil--
continue to out-pace both budget requests and appropriations.
    Any reduction in the already inadequate formula distributions for 
the accounts that used to comprise facilities operations and 
maintenance would be devastating for all schools in the system.
    Please require that the BIA first comply with the law requiring 
consultation with tribes and school officials before you agree to 
consider their budget restructuring. We and you need to know what 
objectives BIA hopes to achieve and whether those objectives have 
beneficial results. If this move will merely result in more centralized 
control and bureaucratic red tape, it should be rejected..
    We hope you will retain school facilities maintenance funding in 
the School Operations budget, and assure that all appropriated funds 
are distributed by the formula. We also ask you to provide sufficient 
funding for BIA-funded schools to properly maintain the Federal 
facilities we operate. Please increase the Facilities Maintenance 
funding to $57 million in order to fully address the maintenance needs 
identified by the FACCOM formula.
Administrative cost grants
    Last year, Congress focused considerable attention on the 
``contract support'' funding needs for tribally operated BIA and IHS 
programs and provided commendable increases in funding for contract 
support. But not one dollar more was supplied for Administrative Cost 
Grants--the schools' equivalent of contract support costs. In fact, the 
appropriation for AC Grant has been frozen at the same level for three 
consecutive years.
    As a result, in the current school year, we are receiving only 84 
percent of the amount dictated by the statutory formula for our 
administrative needs. That percentage will drop to 81 percent next 
school year. (Under the ``forward funding'' system, the fiscal year 
2000 appropriation, frozen at the fiscal year 1998 level, will supply 
our AC Grant funds for school year 2000-2001.) The BIA request for 
fiscal year 2001 (for use in school year 2001-2002) will only meet 80 
percent of need. When 100 percent of these costs are not funded, we are 
again forced to use funds that are intended to provide classroom 
instruction for students.
    We implore the Congress to recognize that tribal schools' needs for 
administrative costs are just as great as those of other tribally-
operated BIA and IHS programs. Please provide $57.9 million to fully 
fund AC Grants in fiscal year 2001.
    More and more schools are converting to tribal operation each year, 
but not one dollar of additional funding has been provided to support 
their administrative costs. This severely threatens the continuing 
viability of existing contract and grant schools.
    The budget also keeps the current appropriations rider that caps 
the amount of BIA funds that can be used for AC grants to the amount 
appropriated. This language is intended to overturn a 1997 decision by 
the Interior Board of Contract Appeals that said that the BIA violated 
the law by failing to pay the Alamo Navajo School Board and the 
Miccosukee Tribal School the full amount of AC grant that was required 
by Federal law. We initiated this suit because the BIA underpaid our AC 
grant by more than $386,000 over a four-year period.
    We ask that you delete the proposal to extend the current cap for 
another year and instead fully fund AC grants at 100 percent of need, 
as required under the authorizing statute.
School facilities improvement & repair
    We applaud the BIA for the larger budget request for school FI&R 
projects, but we would point out that the budget request figure of 
$171.2 million is somewhat inflated because BIA has transferred the 
school facilities maintenance activity and funding into the FI&R line 
item:
  --$27.8 million of fiscal year 2000 appropriations for school 
        facilities maintenance has be ``moved'' to the FI&R line item 
        and is included in the ``2000 enacted to date'' amount of $67.8 
        million (the actual fiscal year 2000 appropriation for FI&R was 
        $40 million); and
  --$37.8 million of the fiscal year 2001 FI&R budget request is 
        identified for school facilities maintenance (which we hope 
        will continue to be distributed to all schools under the 
        existing formula).
    Thus, the actual amount requested for FI&R projects at schools is 
$133.4 million, a laudable increase over the fiscal year 2000 
appropriation of $40 million for these projects.
    Alamo enthusiastically supports this requested increase. We are 
well aware that there is a tremendous need for FI&R projects throughout 
the BIA school system. At Alamo alone, our backlog of identified FI&R 
needs is $1.5 million. Some of the work we need done includes 
replacement of the school HVAC system, replacement of water heating 
units and roof repairs.

                              FIRE SAFETY

    The Alamo Reservation, geographically the size of the District of 
Columbia, has only one fire truck. This vehicle is more than a quarter 
of a century old, and carries only 500 gallons of water. It might be 
laughable were it not the sole means of fire protection for $25 million 
in Federal facilities and more than 1,000 homes. We again urgently 
request the Committee's assistance in obtaining a new fire truck for 
the Alamo Reservation.
    In its Construction budget (Public Safety and Justice/Fire 
Protection), the BIA requests funding to purchase new fire trucks for 
three locations. We hoped that Alamo Navajo would make the list, but we 
did not. Our need for a new fire truck is critical.
    We are puzzled that the Bureau's estimate for each fire truck to be 
purchased in fiscal year 2000 is $170,000 (BIA Budget at p. 275), while 
its estimate cost per truck in fiscal year 2001 is $160,000 (BIA Budget 
at p. 280). It seems unlikely the per-truck cost would decrease.
    Alamo asks the Subcommittee to add us to the list of locations that 
would receive a new fire truck and fire safety equipment in fiscal year 
2001. If Alamo Navajo does the purchasing itself, we probably could 
obtain what we need for approximately $150,000, somewhat less than 
either of the BIA's per-truck cost estimates.
                                 ______
                                 

      Prepared Statement of the Pinon Community School Board, Inc.

    Thank you for this opportunity to submit testimony regarding the 
fiscal year 2001 Bureau of Indian Affairs education budget. We are 
pleased with the long-overdue emphasis that has been placed on Indian 
programs in the proposed fiscal year 2001 budget. But despite this 
emphasis, some areas of critical concern to the educational program in 
Bureau-funded schools have been overlooked in the proposed budget. In 
our testimony, we request the following programmatic changes and 
funding increases for the BIA's Office of Indian Education Policy:
  --$57.9 million for Administrative Cost Grants;
  --$360 million for the ISEP Formula program;
  --$50 million for Student Transportation;
  --$20.6 million for Early Childhood Development;
  --$126.1 million for New School Construction;
  --$57 million for Facilities Operations and $57 million for 
        Facilities Maintenance, an exploration of the reasons for 
        shifting maintenance funds out of the school operations budget, 
        and language to protect these funds from BIA skimming.

                       ADMINISTRATIVE COST GRANTS

    Administrative Cost Grant funding has been held at the $42.2 
million level for three years, despite ever-increasing numbers of 
schools converting to grant status. The BIA's 2001 budget justification 
admits that even the Administration's proposed $4 million increase 
would only cover eighty percent of the amount that the Federal 
Government is required to be providing to schools for Administrative 
Cost Grants. The effect of this ongoing shortfall is simply devastating 
in our school.
    We do not understand how this gap between Federal obligations and 
actual appropriations can be allowed to widen further, despite 
increasing awareness of the importance of adequate contract support and 
an initiative to increase contract support funding in other areas of 
the proposed budget. The Administration's request of $46.3 million is 
actually less than last year's request. This unconscionable 
underfunding represents a de facto abandonment of the Federal 
Government's self-determination policy. How can tribes even consider 
taking on school operations when the administrative costs associated 
with operating the schools for the Federal Government will only be 
funded at 80 percent of the need?
    We believe that it is unreasonable to ask that schools operate with 
less than 100 percent of the acknowledged need for Administrative Cost 
Grants. We ask that at least $57.9 million be appropriated to address 
this critical Federal obligation. We also ask that you reject the BIA's 
proposal to continue the current appropriations language which places a 
``cap'' on the amount of BIA funds that can be spent on AC Grants to 
the amount appropriated for the year. This language subverts the 
Interior Department's legal obligation to pay AC Grants to contract and 
grant schools at 100 percent of the amount determined by the statutory 
formula.
    Finally, we ask that no new schools be added to the overstrained 
budget in this area until the Federal Government fulfills its 
commitment to fund Administrative Cost Grants at 100 percent of its 
obligation for existing schools. Schools should not be converted to 
grant status only for their new operators to find themselves all but 
doomed to failure as a result of inadequate funding.

                 FACILITIES MAINTENANCE AND OPERATIONS

    OIEP ``Skimming'' of O&M funds.--We recently received a 
communication from the Education Line Officer for the Chinle Agency 
informing us that four percent of our Operations & Maintenance funds 
will be withheld for ``oversight and technical assistance''. This 
effort to ``skim'' off of our O&M funds will further diminish our 
already desperately inadequate Operations and Maintenance formula 
distributions. In addition, the agency has requested that we ``submit a 
written Budget Plan and Annual Work Plan for the said funds before 
distribution is made''. We feel that this is an outrageous and improper 
reassertion of BIA control over our school, creating unnecessary 
paperwork for funding that is obviously critical to our school and 
needs no justification. We ask that the Committee include strong 
language in the fiscal year 2001 budget to disallow such ``skimming'' 
of scarce school resources appropriated by Congress, and we ask that 
the BIA be discouraged from requiring more bureaucratic work to justify 
receipt of funds that Congress has appropriated.
    Facilities Maintenance.--The formula distributions for O&M are 
alarmingly inadequate, often insufficient to cover even basic 
utilities, let alone basic maintenance. As directed by Congress, BIA 
developed the so-called ``FACCOM'' formula to distribute facilities O&M 
funds to the 185 schools in the system, but funding for this area has 
fallen one-third below the amount needed to fund the formula.
    Despite objections from many schools, the Facilities Operation and 
Maintenance line item was split into two parts last year. But in the 
BIA proposed budget for fiscal year 2001, the newly separated line item 
for Facilities Maintenance has been shifted into the budget for 
Facilities Improvement and Repair (FI&R). We are very concerned by this 
shift, as FI&R funds are distributed on a project-by-project, one-time 
basis rather than by formula as O&M funds are currently distributed. 
Any reduction in the already inadequate formula distributions for the 
accounts that used to comprise facilities operations and maintenance 
would be devastating for contract and grant schools. Adequate formula 
funding for everyday upkeep of schools is a critical element in 
assuring that schools will last longer and remain safe for students.
    We ask that you request a thorough explanation for this shift from 
the BIA, and an accounting of what if any beneficial results will be 
obtained by this move. If this move will merely result in more BIA 
bureaucratic red tape, we ask that you reject it. Please insist that 
Facilities Maintenance remain in the School Operations budget, and 
provide sufficient funding for BIA-funded schools to properly maintain 
the Federal facilities we operate. Please increase both Facilities 
Maintenance and Facilities Operation funding to $57 million each to 
address the needs identified by the FACCOM formula.

                  INDIAN STUDENT EQUALIZATION PROGRAM

    The ISEP program, which provides basic instructional funding for 
students in BIA-funded schools, remains underfunded in the proposed 
fiscal year 2001 budget. Under the proposal, ISEP would be funded at 
$333.3 million, resulting in a Weighted Student Unit (WSU) of 
approximately $3,685 in school year 2001-2002. As you know, this level 
is far below similar expenditures for students in public schools and 
Department of Defense schools. Unless additional ISEP funding is 
provided, we will continue to lose our best teachers to salary freezes 
or teacher layoffs, and our students will suffer decreased instruction 
hours and inadequate instructional materials. We ask that you take 
advantage of the focus on education within the BIA budget to finally do 
something about this discrepancy. We ask that Congress fund the ISEP 
Formula program at $360 million in fiscal year 2001, which would yield 
a WSU of approximately $4,000 per unit.

                             TRANSPORTATION

    In the 1999-2000 school year the Bureau-funded transportation rate 
was $2.26 per mile, still far short of the nationwide average of $2.92 
that was reported for public schools five years earlier. Under the 
proposed budget, transportation would be funded at $38.3 million, an 
increase of approximately $2 million from the fiscal year 2000 enacted 
level. With wear and tear and repair costs well above average due to 
the remote locations and inadequate infrastructure of tribal 
communities, we believe this request would fall short of addressing the 
actual cost of student transportation for schools like ours. We ask 
that you increase the BIA budget for student transportation to a level 
that can at least support a per-mile rate equivalent to the last 
computed national average of $2.92 per mile, which we estimate would 
require at least $50 million.

                      EARLY CHILDHOOD DEVELOPMENT

    We strongly support the President's request for $14.95 million in 
increased funding for Early Childhood Development, of which $6.8 
million would be dedicated to doubling the number of FACE sites in 
Indian Country and $8.2 million would be used to initiate the 
Therapeutic Residential Model at six pilot sites.
    FACE (Families and Children Education).--Research has demonstrated 
that each dollar spent on early childhood and family literacy programs 
comes back six fold in savings on remediation, welfare, and teen 
pregnancy. FACE is not only an innovative program, but a wise Federal 
investment. We are preparing to assume a FACE program here at Pinon 
Community School, and we hope that you will assure that this effort to 
invest in our future becomes a reality by meeting the Administration's 
request in this area.
    Therapeutic Residential Model.--We strongly support the 
Administration's proposal to implement the Therapeutic Residential 
Model at six pilot sites. The program as proposed would represent a 
similarly wise investment in addressing the special needs of young 
people in BIA schools. The Centers for Disease Control report that 
American Indian students attending BIA schools are at very high risk 
for problems associated with substance abuse, depression, poverty, 
neglect, homelessness, and physical abuse. We believe that this program 
would serve students at Pinon well, and we hope to be considered as a 
future site for implementing this model program.

                           PROGRAM EXPANSION

    We urge the Subcommittee to lift the current moratorium barring 
schools from offering instruction to grades other than those that were 
approved by the Secretary as of October 1, 1995. We would like to 
expand our programs to include a K-6 grade program, and have been 
unable to do so as a result of this moratorium. We believe that schools 
should be empowered to make decisions about grade expansion where it is 
warranted to address the needs of students in their area, as well as 
geographic and other factors that may make such expansions advisable 
for a community.

                        NEW SCHOOL CONSTRUCTION

    We strongly support the Administration's request of $126.1 million 
for new school construction for fiscal year 2001. While this may seem 
to be a steep increase to stomach in a tight budget year, it is an 
absolute minimum step toward addressing the shameful backlog of school 
construction needs in Indian Country. Many dozens of schools with 
facilities that are unfit or even unsafe await new construction, and at 
the rate that Congress has been funding this area, the current 
generation of students will be grandparents before many of these 
crumbling facilities are replaced. It is time for concerted action to 
address this backlog of need.
    While we believe that new, creative means by which to approach this 
massive need are well warranted at this time, we are concerned that the 
School Bond Initiative contained in the President's request would not 
be guaranteed by the Federal government. It would be very difficult for 
poor tribes to make any significant contribution of tribal revenues to 
pay back bond principal. The fact that these bonds would not be 
guaranteed by the U.S. would make it very difficult for tribes without 
a good bond rating to find buyers for their bonds. Some tribes may not 
even have a bond rating. Because of this, we ask that the President's 
$126.1 million request be dedicated entirely to direct school 
construction at this time until an improved bonding proposal can be 
generated.

                               CONCLUSION

    Thank you for your attention to these concerns. We realize that you 
have a difficult job before you, and that your allocations for this 
year are extremely limited. However, the needs discussed in our 
testimony are not pie in the sky-they are very real, concrete needs for 
the day to day function of our schools, the health and safety of our 
students, and the development of our future leaders. We feel very 
strongly that it is time to put aside the politics of budget crunching 
and live up to the Federal commitment to educate Indian children. We 
thank you for your efforts to support this end.
                                 ______
                                 

                Prepared Statement of the Navajo Nation

    The Navajo Nation welcomes this opportunity to support the proposed 
bipartisan federal fiscal year 2001 budget that acknowledges critical 
needs in Indian Country from health care to education to economic 
development. The recommended Executive Branch fiscal year 2001 budget 
is commendable as a first step in bridging the disparity between Indian 
communities and the rest of the United States.
    The Navajo Nation commends the BIA and IHS for being strong 
advocates of Indian Self-Determination. However, the Navajo Nation 
challenges the BIA to go beyond providing basic services and look 
toward developing strong economies.
    The traditional ``Indian funding'' within the Department of the 
Interior budget does little to compliment the bold economic development 
initiatives elsewhere within the fiscal year 2001 budget. 
Understandably, this Subcommittee oversees Interior appropriations, yet 
the Navajo Nation concerns are comprehensive with respect to other 
federal Departments' budgets. The Navajo Nation agrees with Congress in 
that Indian Self-Determination is inextricable from economic 
development. ``The Congress declares that a major national goal of the 
United States is to provide the quantity and quality of educational 
services and opportunities which will permit Indian children to compete 
and excel in the life areas of their choice, and to achieve a measure 
of self-determination essential to their social and economic being.'' 
25 U.S.C. Section 450a(c).
    The 17.5 million-acre Navajo reservation presents many challenges 
in providing access to services that are otherwise readily available to 
most Americans such as water, electricity and telecommunications. 
Further, there are only 21 grocery stores, 42 restaurants and or fast 
food facilities, 13 hotels, 6 banks and 77 gasoline convenience stores 
to serve a population of approximately 231,000 Navajos. Many Navajos 
have no option but to travel hundreds of miles to off-reservation 
grocers, automobile dealers, clothing retailers and banking 
institutions. With these challenges in mind, the Navajo Nation Branch 
Chiefs identified economic development as one of eight priorities for 
the next three years. However, in order to attain economic development 
there must be infrastructure.

                             INFRASTRUCTURE

    The Navajo Nation is all too familiar with the challenge of 
attracting businesses to an economic environment that has little or no 
infrastructure. Each month several businesses explore the possibility 
of locating to the Navajo Nation before realizing the obstacles of 
inadequately paved roads and the lack of electricity, water, 
telecommunication services, not to mention police and fire protection.

Roads
    The Navajo Nation currently has 6,184 miles of roads within the 
BIA's Indian Reservation Roads (IRR) program. Of this amount, 1,373 
miles are paved with 4,811 miles, or 76 percent, of the roads being 
unimproved dirt roads. The Department of Transportation and BIA 
administer the IRR program. The Navajo Nation supports the proposed 
budget in the amount of $349 million for the IRR program, an increase 
of $117 million over fiscal year 2000. This funding will provide road 
and bridge construction in Indian Country. The Navajo Nation 
additionally supports the proposed budget for the road and bridge 
maintenance program within the BIA at $32 million, an increase of $6 
million over fiscal year 2000.

Water
    There is a tremendous need for water and sanitation services within 
the Navajo Nation. Under the IHS, there is a proposed sanitation 
construction funding of $96.6 million for fiscal year 2001 for Indian 
Country. The Navajo Nation commends this proposal to help address part 
of the backlog of sanitation construction needs, commonly known as the 
BEMAR.

IHS--Facilities
    With respect to the budget proposal of the Indian Health Service 
(IHS), Department of Health and Human Services, the Navajo Nation fully 
supports the $2.2 billion for health services and $349.4 million for 
facilities requested for fiscal year 2001. These amounts partially 
reflect the Navajo Nation's recommendations and input provided to IHS 
during last year's budget development process.
    Specifically, we support the $40 million requested for the 
construction of the Fort Defiance Hospital ($38,715,000) in Fort 
Defiance, Arizona and the design of the staff quarters ($1,400,000). 
The current facility in Fort Defiance was built in 1938 and its user-
population surpasses the current bed capacity and level of resources. 
It's estimated that the Fort Defiance Service Unit is equal to, or 
comparable in size to the entire Oklahoma Service Units.
    The Navajo Nation is concerned with the fact that neither of the 
Navajo health centers in Red Mesa and Pinon, Arizona was considered for 
fiscal year 2001 funding. These health care facilities are needed to 
address the Navajo Nation's rural health problems. The Navajo Nation 
also requests the Subcommittee to continue to support those projects 
identified on the IHS Facilities Construction List for fiscal year 2001 
and beyond.

Law Enforcement
    The Navajo Nation supports the full funding of $156 million for law 
enforcement for Indian Country, an increase of $18 million over fiscal 
year 2000. This funding would tremendously help address needs for the 
Navajo Nation, provided these funding increases are distributed based 
on need.
    No comprehensive plan or formal assessment has been developed 
between the BIA and the Navajo Nation to properly address funding 
standards and methodologies associated with crimes. There is a ratio of 
0.9 police officers per 1,000 population for the Navajo Nation. The 
Navajo ratio is dangerously below the necessary minimum rural-setting 
ratio of 3 officers per 1,000 population. Based on this comparison, the 
Navajo Nation lacks 402 commissioned personnel.

Justice Systems
    The Navajo Nation continues to be concerned with the lack of 
adequate funding for Indian nation justice systems. The fiscal year 
2001 budget proposes a mere increase of $1.5 million for all Indian 
judicial systems under the Indian Self-Determination Act while 
proposing $15 million for undefined Justice Department ``Tribal Court 
Program'' competitive grants. Instead the Navajo Nation strongly 
recommends that the $15 million be appropriated for strengthening 
Indian judicial systems.
    The federal ``tribal court enhancement'' initiative began in 1988, 
and the Navajo Nation committed a large amount of resources to get the 
Indian Tribal Justice Act of 1993 passed. To date, the Navajo Nation 
has not received any of the proposed benefits of the Act including 
adequate base funding. Therefore, we ask the Subcommittee to refocus on 
providing adequate funding for the day to day needs of our courts.

                          ECONOMIC DEVELOPMENT

    Unfortunately, the BIA's fiscal year 2001 budget does not propose 
any funding for economic development. The Navajo Nation commends other 
federal Department budgets for addressing the needs in this area. 
Specifically, the Department of Commerce proposes $49 million for its 
Economic Development Administration to assist with technology, economic 
and business development in Indian communities. In addition, the 
Community Development Financial Institution proposes a first time $5 
million set-aside for Native American tribes to establish training and 
technical assistance programs which would focus on eliminating barriers 
to capital access. In the fiscal year 2001 budget, an additional $2 
million has been requested within the Community Development Block 
Grants program to establish a Native American Economic Development 
Access Center that will link over 12 federal agencies so that existing 
expertise can be accessed through a toll-free number. The Navajo Nation 
supports the Small Business Administration's proposed $4.5 million that 
would create Small Business Development Centers to provide professional 
and technical assistance to Indian businesses.
    These innovative programs are a step in the right direction. The 
Navajo Nation suggests the Subcommittee direct BIA to begin exploring 

WAYS TO COMPLIMENT THE ECONOMIC INITIATIVES OF OTHER DEPARTMENTS.
                               EDUCATION

Construction
    The Navajo Nation strongly urges this Committee to support the 
BIA's request of $126 million for BIA Replacement School Construction 
for fiscal year 2001. The Navajo Nation appreciates the level of 
commitment the Bureau has provided to education and we hope the 
Subcommittee will support the Bureau's recommendation of $126 million 
as three of the six schools targeted for replacement serve Navajo 
students. Nearly 40 percent of the BIA schools (69 of 185 schools) are 
located on or near the Navajo Nation and the Navajo student population 
amounts to approximately 45 percent of the total BIA student 
population. The $126 million included in the School Construction 
Program will provide funds for Tuba City Boarding School, Baca/Thoreau 
Elementary and Wingate Elementary.
    In addition, $171 million is requested for Facilities Improvement 
and Repair (FIR) of schools. Many of the projects slated for FIR funds 
will affect the education of Navajo children. The combined total of 
over $300 million identified above is unprecedented and will go a long 
way towards reducing the backlog which exceeds $800 million nationwide.
    Assistant Secretary Gover's commitment to improving the educational 
facilities across Indian Country is fully supported by the Navajo 
Nation, including the Education Committee of the Navajo Nation Council, 
the Navajo Area School Board Association, the Association of Navajo 
Community Controlled School Board and the Native American Grant School 
Association. In this respect and in response to the Senate Committee on 
Appropriations recommendation to the BIA to establish a demonstration 
project to allow tribes with schools on the replacement list to cost-
share construction costs, the Navajo Nation requests this Committee to 
work closely with the BIA to carry out the recommendations highlighted 
in S. Rpt. 106-99, and support the efforts of the Navajo Preparatory 
School. The Navajo Nation also supports the written and verbal 
testimony submitted to the Subcommittee by the Alamo and Lukachukai 
schools for fiscal year 2001

Adult Care Rehabilitation
    The Navajo Nation also supports the $1 million request for Adult 
Care Facility Rehabilitation to improve four long-term adult care 
facilities on the Navajo Nation as budgeted in the Human Services 
portion of the Tribal Priority Allocations. Approximately, 350 Navajos, 
and their families will greatly benefit from this appropriation. Upon 
rehabilitation, these facilities will be able to access State Medicare 
and Medicaid funds. These facilities presently do not meet standards to 
be eligible for those funds.

Tribal Education Departments
    The Improving America's School Act of 1994 authorizes 
appropriations for Tribal Education Departments through the U.S. 
Department of Education and the Department of Interior. The Navajo 
Nation recommends this appropriation be funded. Tribal Education 
Departments would advance Self-Determination by allowing tribes to 
control and maintain educational standards, policies, curriculum, 
certification, and funding.

                                HOUSING

    The BIA's Housing Improvement Program (HIP) is slated to receive 
$31.8 million, an increase of $16.2 million. This funding presents a 
unique opportunity for Navajo individuals to access capital without 
being penalized by the TPA distribution methodology. The HIP funding is 
distributed based on eligibility of individuals. The Navajo Nation 
strongly encourages full funding of the HIP as it demonstrates 
equitable distribution of funding.

                             GRANT FUNDING

    The Navajo Nation utilizes grant funding for a majority of its 
health, social services and justice programs. This funding is currently 
distributed through a competitive mechanism, which is inconsistent with 
the Federal Government's trust obligations. The Navajo Nation 
recommends the fiscal year 2001 funding for basic services to the 
Navajo people be based on trust principles, not create an antagonistic 
environment among the competing tribes.
    Consistent with the Navajo Nation's position on TPA distribution 
methodology, all said funding should be allocated on the basis of 
tribal population, caseloads, number of personnel, the size of the 
areas served, and like factors.
                                 ______
                                 

Prepared Statement of the Blackfeet Tribe, Blackfeet Indian Reservation

    Mr. Chairman and Distinguished Committee Members: My name is 
William Old Chief, Chairman of the Blackfeet Tribe, government of the 
Blackfeet Indian Reservation, Montana. I would like to respectfully 
thank you for the opportunity to present written testimony to the 
Senate Committee on Appropriations Interior Subcommittee. I am 
requesting appropriation funding for the Blackfeet Tribe, funds shall 
be directed through the Department of the Interior, Bureau of Indian 
Affairs (BIA), Wildlife and Parks, Blackfeet Tribe, for the following 
items. Listed by priority, they are: $6,800,000. to construct a Trout 
Fish Hatchery facility; $300,000. annual 638 Self-Determination 
contract for hatchery operations; $100,000. addendum to the existing 
Blackfeet Fish and Wildlife Public Law 93-638 Self-Determination 
Contract which is currently funded at $100,000 annually, the addendum 
will total $200,000. annually; $80,000. addendum to the existing 
Blackfeet Threatened and Endangered Species Program Public Law 93-638 
Self-Determination contract, which is currently funded at $120,000 
annually, the addendum will total $200,000 annually; $600,000 5 year, 
Public Law 93-638 Self-determination contract for St Mary Bull Trout 
Study Project; $145,000 annual Public Law 93-638 Self-determination 
contract for Bull Trout/Westslope Cutthroat Supplementation Program. 
Department of Interior, Bureau of Indian Affairs (BIA), Water 
Resources, Blackfeet Tribe for the following item: $22 million. St 
Mary, Milk River Irrigation Project, Public Law 93-638 Self-
determination contract for system modifications.
    The Blackfeet Indian Reservation (BIR) is located in central 
Montana and shares borders with Glacier National Park to the West and 
Canada to the North. The BIR land base encompasses 1.5 million acres of 
forest, range, irrigated crop and farm lands. The Blackfeet Tribe 
consists of approximately 15,000 members, of which 8,500 members reside 
on the reservation. Non-Tribal residents of the reservation number 
approximately 2,500 individuals.
    The BIR recreational fisheries habitat and resource is extensive 
and provides an integral role within the structure of the natural 
resource. The assemblage of BIR aquatic wetlands consist of 19,668 
acres of glaciated pothole basins that range in size of less than an 
acre to lakes of more than 2,000 acres. Approximately 35 lakes still in 
a Pre-Columbus state provide 13 square miles of blue ribbon trout 
habitat.
    The Blackfeet Tribe has identified the need for a Trout Fish 
Hatchery on the Blackfeet Indian Reservation, and has initiated inter-
agency cooperative measures for planning, development and construction 
of a facility. The hatchery requirement stems from an effort to secure 
the integrity of the Tribal Fisheries resource and provide for its 
future growth potential. The establishment of a resident hatchery will 
offer the Tribe a multiple of opportune economic advancements, and 
foster associative socio-economic interests and productively promote 
the commercial expansion of Tribal and Non-Tribal private businesses.
    The Blackfeet Tribal lake fisheries have historically produced 
trophy trout in impressive numbers and has been said to be the fly 
fishermen's best kept secret in the Northwest. The revenue generated 
through sales of Tribal fishing permits is substantial and is an 
important source of income for the Tribe. The Tribal fishery benefits 
many private enterprises locally and supports business in the 
surrounding Montana rural communities. Revenue from permit sales help 
meet the expense of conservation law enforcement and fisheries 
management. In the arena of a stressed reservation economy the revenue 
generated by the Tribal fisheries is significant and if jeopardized 
will irreparably damage the economic interest of the Tribe.
    Trout stocking for the Tribal lakes has been conducted annually by 
the U.S. Fish and Wildlife Service, and for many years the Tribe has 
enjoyed the various benefits derived from this trust responsibility. 
The Tribe deems the stocking program to be successful in many economic 
categories, but has grown strongly concerned by recent USFWS changes in 
policy direction and reductions in appropriations for Federal 
hatcheries. Over time, policy and priority restructuring has had the 
effect of a disturbing decline in stocking rates which has raised alarm 
over the integrity of the Tribal fisheries. Any further reductions will 
have negative impacts creating a serious situation for the Tribe. A 
depleted fishery is a serious situation, which lends justification to 
expedite the necessary acquisition a Tribal Hatchery.
    The Blackfeet Tribe has worked cooperatively for five years with 
the U.S. Fish and Wildlife Service and the Bureau of Reclamation to 
complete preliminary requirements for the hatchery site. Interior 
agency technical assistance has enabled the Tribe to ensure the best 
facility design for current fish culture practices and assure 
environmental and biologic quality control. The hatchery facility 
design will ensure quality production and maintain species integrity. 
The Tribe shall utilize a three phase production approach. Phase one 
shall include the engineering and design details to conform to 
production requirements. Phase two for construction shall be defined on 
the basis of phase one. Phase three shall involve operational OMB 
performance to achieve progressional development. The parameters and 
requirements for phase one have been logistically defined. Phase one 
will require a design to refine and document a final product that will 
allow the Tribe to shift to phase two and phase three. The Hatchery 
will have a 50 year operational capability, and all production shall be 
exclusively used to support closed lake systems in Indian Country. In 
addition, as the hatchery matures production capacity shall have the 
future potential to provide Fish to the other qualified Federally 
recognized Tribes residing in Montana.
    The Blackfeet have typically been regarded in terms of the Tribes 
special relationship with the buffalo, to be included, all fish and 
wildlife species were honored with equal respect and spiritual 
reverence. Specifically, the Tribal use of fish has a significant 
spiritual role where consumption of fish is used at the commencement of 
ceremonies. In addition, the advent of western society has placed 
subsistence burdens on the people of the Tribe since the late 1880's. 
To offset imposed adversity the Tribe has incorporated fish more 
frequently into daily diets, and like other western societal 
introductions, fish have evolved to portray an active culturally 
important role to the society structure. Today, within the reservations 
stressed economy the Tribe has a substantial vested interest in the 
procurement of the best stewardship for the Tribal fisheries.
    The Blackfeet Tribe Blackfeet Fish and Wildlife Department (BFWD), 
receives an annual Public Law 93-638 contract for the purpose of 
achieving fish and wildlife conservation management for purposes that 
include law enforcement, management operations, project work, and 
administrative support. The Tribe enjoys ever increasing fish and 
wildlife resource opportunities. This expansion generates new 
responsibilities and requires additional funding to support essential 
operational management needs. The Tribe takes great pride in the 
success that past funding has allowed. Part of that success is made 
possible and is demonstrated by the Tribes' well established fish and 
wildlife conservation code. To meet future resource responsibilities 
with competence and credibility the Tribe must attend to enlarge 
management capabilities. Funding to meet these natural resource 
requirements would empower the Tribe to self-sufficiently administer 
new incursions of responsibility.
    The BIR provides extensive habitat for a wide variety of fish and 
wildlife species. Many species are listed within the Endangered Species 
Act or are species of concern. The BFWD must provide the protection 
aspect of management for these ESA species. Big and small game species 
including nongame species proliferate on the BIR. Fish and wildlife 
fauna include: Grizzly Bears, Black Bears, Grey Wolves, Elk, Moose, 
Whitetail and Mule Deer, Mountain Goat, Mountain Lion, Big Horn Sheep, 
Antelope, Bald and Golden eagles, Osprey, Piping plovers, Ferruginous 
Hawk, Northern Goshhawk Harlequin Ducks, Trumpeter Swans, Whooping 
Crane, Lynx, Swift Fox, Red Fox, Bull Trout, Westslope Cutthroat Trout, 
Beavers, Otters, all members of the weasel family, and coyotes. The 
BIR's pothole system plays a very important role for waterfowl and 
migratory birds. The BFWD responsibility is for the management of all 
species within 1.5 million acres of habitat, additional funding would 
work directly to adequately secure that interest.
    The Blackfeet Threatened and Endangered Species (TES) program is 
one of several programs within the BFWD. Initially the duty of the TES 
program was to conduct research on grizzly bears and grey wolves on the 
BIR. TES responsibilities have expanded out of necessity to encompass 
more strident management efforts. The current mission of the TES 
program is to gather information on the habits and distribution of 
grizzly bears, wolves, and other federally threatened and endangered 
wildlife species or species of special concern that occur on the BIR, 
to assist in their management, and to develop plans for future 
management of those species. The goals of the program include the 
following: (1) to provide information to resource managers that will 
enable them to avoid or lessen negative impacts to threatened or 
endangered species as they conduct their respective management 
activities, (2) to provide training, education, and employment 
opportunities to Tribal members in the field of wildlife biology, and 
(3) to assist BIR residents in the management of nuisance or 
depredating grizzly bears or wolves. The TES program works equitably 
and cooperatively with Federal, State, and Tribal agencies to manage 
all threatened and endangered species.
    TES current level of funding is not adequate to maintain quality of 
service or meet federal mandates. Unlike Federal and State agencies 
Indian Tribes are not eligible for funding under section (6) of the 
Endangered Species Act. Much of the equipment is 10 years old and needs 
replacement. Costs for operations have increased while contract budget 
has remained the same. Grizzly Bear and wolf populations are increasing 
on the BIR and require more management effort. More wildlife species 
are being listed as threatened or endangered, requiring attention. The 
TES mission dictates additional human resources and support equipment 
to meet increasing demands and facilitate Tribal Self-Determination.
    The St Mary Bull Trout Study Project has been conducted in 
cooperation with the Blackfeet Tribe, U.S. Fish and Wildlife Service, 
Bureau of Reclamation, Glacier National Park, Alberta provincial 
government, and the Blood Tribe of Alberta. The study is entering its 
third year. Annually, the project is threatened by unavailable funds. 
All participants recognize the unique secular habitat conditions that 
exist within the St Mary drainage. Due to the undeveloped nature of 
large portions of the Blackfeet Indian Reservation and adjoining 
Glacier National Park nearly all necessary habitat requirements for 
recovery and sustainability are intact. The St Mary/Milk River 
Irrigation Project remains as the primary limiting factor. The study 
continues to collect data to monitor and identify parameters to assist 
recovery plans. The Tribe considers the probability of recovery of the 
Bull Trout in the St Mary drainage to have a high degree of success. 
The project area is unencumbered, experiencing very limited agriculture 
or industrial development use, with sparse residential populations, the 
St Mary Bull Trout situation is a recipe for success unlike anywhere 
else. Funding to procure the best research and management is vital to 
avoid a missed opportunity. A five year project appropriation is 
adequate to complete investigations.
    The St Mary/Milk River Irrigation Project includes water delivered 
from the St Mary River Drainage to the Milk River Drainage. The overall 
structure is dilapidated after nearly one hundred years since its 
construction. The system of water works negatively impacts the 
sustainability of the (ESA) Threatened Bull Trout and ESA candidate 
Westslope Cutthroat Trout. Renovation and reconstruction of key system 
elements would alleviate impacts on Bull Trout and reduce insufficient 
operation. Funding will allow work on four central structures; 
Modifications to the dam outlet will allow necessary ESA/NEPA instream 
flows and reduce the likelihood of 100 year rainfall event disasters; 
Replacement of the headworks to the canal system with adequate fish 
screens will prevent unnecessary Bull Trout mortalities and obstruct 
introduction of Bull Trout in the Milk River where it is a non-native 
species; Replacement of the St Mary Diversion Dam with an incorporated 
fish ladder will allow fish passage during critical Bull Trout 
Migration; Installation of a liner in the canal to reduce water seepage 
loss and increase St Mary water capacity; Engineering, planning, and 
development will be required for all structure work. The Tribe believes 
that without these improvements the Bull Trout will not be able to 
recover, and federal restrictions will be in effect for perpetuity, 
impeding advancements of Tribal interests.
    The Blackfeet Bull Trout/Westslope Cutthroat Supplementation 
Program, is the Tribes effort to work cooperatively to implement USFWS 
policy objectives which orient management towards native endemic 
species in Stream Systems. The Bull Trout and Westslope are native 
endemic species in the BIR streams. The Tribe will rely on the USFWS 
Federal trust responsibility for technical assistance in all stream 
fisheries management considerations. The BIR has 900 miles of streams 
and envisions the establishment of endemic species as a benefit to the 
Tribes economy and ensure cultural use for future generations to enjoy.
    The Blackfeet Tribe will continue to meet challenges in the best 
interest of the fish and wildlife resource with your help. The 
commitment demonstrated by the appropriation Committee strongly 
confirms a sincere pledge to promote self-sufficient efforts and foster 
realization of tangible measures towards Self-Determination.
                                 ______
                                 

                       Bureau of Land Management

        Prepared Statement of the Izaak Walton League of America

    Dear Senators Gorton and Byrd: On behalf of the Izaak Walton League 
of America and our 50,000 members and supporters nationwide, I am 
writing to submit written testimony for the record regarding the fiscal 
year 2001 Department of the Interior and Related Agencies 
Appropriations bill. As a threshold matter, the League expresses its 
genuine appreciation for the Subcommittee's efforts during the past 
several years to secure additional funding for a variety of worthwhile 
programs. The stewardship of the nation's natural resources and the 
protection of its environmental quality not only provide incalculable 
benefits the current generation of Americans, but also insures a 
prosperous future for generations yet to come.
    The Subcommittee has, as always, a daunting challenge in allocating 
federal dollars among a variety of worthwhile programs. In general, we 
strongly encourage the Subcommittee to fund each of the natural 
resource management agencies under its purview at least to the level 
recommended in the Administration's fiscal year 1901 Budget Request. At 
the same time, we feel it appropriate to highlight several federal 
programs that are especially deserving of full or increased funding 
levels:

                     U.S. FISH AND WILDLIFE SERVICE

    National Wildlife Refuge System (NWRS) Operations and 
Maintenance.--The 93 million-acre NWRS, the only system of federal 
lands established specifically to conserve fish and wildlife resources, 
has suffered immensely from decades of deficient funding. However, 
during the last two years, the Subcommittee has provided much needed 
increases for addressing the maintenance backlog on the 516 refuges 
within the system. In order for the Service to continue its efforts 
toward eliminating the maintenance backlog, begin to effectively 
address backlogged operations projects, as well as meet the new 
requirements of the National Wildlife Refuge System Improvement Act, it 
is imperative that the Subcommittee continues to provide substantial 
funding increases for the NWRS. Consistent with the funding levels 
proposed by the Cooperative Alliance for Refuge Enhancement (C.A.R.E.), 
the League recommends $297 million for Operations and $69 million for 
Maintenance, for a total of $366 million (an $84 million increase above 
the Administration's fiscal year 1901 Budget Request).
    State Non-Game Wildlife Grants Fund.--The League wholeheartedly 
supports the administration's request for $100 million to fund a new 
grants program for states, tribes and U.S. Territories to utilize for 
wildlife management activities, education and recreation related to 
non-game species. In recent years, state fish and wildlife agencies 
have found it necessary to spend substantial time, manpower and money 
performing biological assessments of impacts to non-game fish and 
wildlife from proposed activities in order to comply with a variety of 
federal environmental laws. The International Association of Fish and 
Wildlife Agencies estimates that non-game fish and wildlife needs 
amount to approximately $1 billion nationwide. Currently, however, less 
than $100 million is specifically directed toward state non-game 
management programs. Non-game fish and wildlife, which comprise 85 
percent of the species that exist in the U.S., play critical, though 
often poorly understood, roles in the complex ecosystems upon which all 
species depend. Moreover, it is far less difficult and expensive to 
prevent a species from declining than to attempt recovering it after it 
has become listed as a federally threatened or endangered species.

                       BUREAU OF LAND MANAGEMENT

    Wildlife & Fisheries and Threatened & Endangered Species.--The 264 
million acres managed by BLM supports a diverse array of fish and 
wildlife, including more than 250 species listed or proposed for 
listing under the Endangered Species Act. Unfortunately, staffing and 
funding shortfalls have severely impaired the ability of the BLM to 
restore, protect and enhance the fish and wildlife resources under its 
care. The League believes the President's request of $26.7 million for 
Wildlife, $14.1 million for Fisheries and $23.7 million for Threatened 
and Endangered Species is insufficient for the agency to meet its fish 
and wildlife management responsibilities (a mere $9.2 million increase 
above fiscal year 1900 enacted funding levels). Therefore, we urge the 
Subcommittee to provide additional funding for BLM's Wildlife, 
Fisheries and T & E Species accounts beyond that requested by the 
Administration.
    Range Management.--Monitoring of grazing operations on public lands 
managed by the BLM continues to be a critically important, yet woefully 
underfunded, agency responsibility. Increased funding in range 
management will enable BLM to provide enhanced stewardship of rangeland 
and to reduce adverse impacts of livestock grazing operations on 
sensitive riparian and aquatic ecosystems. We urge the Subcommittee to 
fund the BLM Range Management activity at a level above the $72.8 
million requested by the President's in fiscal year 1901 in order to 
provide at least $6 million for expanding the agency's rangeland 
monitoring program.

        U.S. DEPARTMENT OF AGRICULTURE, NATIONAL FOREST SERVICE

    Wildlife and Fisheries Habitat Management.--The Forest Service is 
charged with managing some of the most ecologically diverse and 
important fish and wildlife habitat in the nation. Unfortunately, the 
Forest Service has often been under-funded in areas unrelated to 
commodity production, significantly hampering the agency's ability to 
meet its multiple use mandate. In recent years, however, there has been 
an increasing emphasis on funding natural resource stewardship programs 
in recognition of the necessity to promote healthy forest ecosystems 
and the growing economic importance of recreational use of the National 
Forest System. The proposed new budget structure for the Forest 
Service, however, presents us with a great deal of difficulty in 
expressing support for particular programs and subsequently, tracking 
the expenditure of those funds. The League typically has supported and 
continues to support robust funding levels for the agency's Wildlife 
and Fisheries Habitat Management, which is now rolled into the 
Ecosystem Conservation line item. We ask the Subcommittee to provide at 
least $140 million for Wildlife and Fisheries Habitat Management for 
fiscal year 1901.
    Inventory and Monitoring.--The League urges the Subcommittee to 
fund the Inventory and Monitoring program (now included in the 
Ecosystem Assessment and Planning line item) above the administration-
requested level by $6 million (for a total of $199 million) in order to 
enhance and expand rangeland monitoring on the National Forests. 
Rangelands on the National Forests not only provide forage for 
livestock, but also support a diverse array of wildlife species. 
Unfortunately, however, roughly one-quarter of the 93 million acres of 
Forest Service rangeland is not in proper functioning condition and the 
condition of another 46-percent is practically unknown.
    Forest Legacy Program.--The Forest Legacy Program (FLP) is a 
federal program created in 1990 and extended under the provisions of 
the 1996 Food Security Act (``Farm Bill'') to provide funding for 
efforts to protect the long-term integrity of the nation's non-
industrial private forestlands. The primary objective of the program is 
to identify environmentally important forestlands that are threatened 
by present or future conversion to non-forest uses and to protect them 
from conversion. For example, the FLP provides funds to States to 
acquire forested properties or to purchase conservation easements on 
forested lands at fair market value from interested landowners. 
Typically, Congress has appropriated less than ten percent of the 
funding needed to address identified project opportunities. This 
pattern of annual funding level is simply insufficient to allow for 
maximum realization of the program's potential conservation benefit. 
Accordingly, the League strongly supports the requested funding level 
of $60 million in fiscal year 1901.

                   LAND AND WATER CONSERVATION FUND:

    Although generally considered a landmark piece of natural resource 
legislation, the promise of the Land and Water Conservation Fund (LWCF) 
has been largely unfulfilled during the past two decades. Multi-billion 
dollar paper balances for the fund are meaningless, as inadequate 
annual appropriations have prevented federal and state acquisition of 
ecologically significant lands and allowed vital fish and wildlife 
habitat to be lost forever. Full funding of the LWCF at the $900 
million authorized level is essential for local, state and Federal 
Government agencies to protect natural resources and provide the full 
range of outdoor recreational opportunities that many Americans expect 
and all Americans deserve.
    Although it should go without saying, the League also urges the 
Subcommittee to vigorously resist any efforts to attach legislative 
riders to the fiscal year 1901 Interior Appropriations bill. The 
American public has grown increasingly frustrated with this deceptive 
practice and given the complications associated with the appropriations 
process during the last few years, it would be unwise and inappropriate 
to allow it to reoccur.
    In closing, I wish to thank you for your thoughtful consideration 
of these views. As the appropriations process moves forward, the League 
looks forward to working with you and your staff to insure conservation 
of the nation's natural resources and preservation of our outdoor 
heritage. If you have any questions or require additional information, 
please contact me at (301) 548-0150, ext. 225.
                                 ______
                                 

             Prepared Statement of the Calpine Corporation

     GEOTHERMAL POWER PLANT DEVELOPMENT IN THE GLASS MOUNTAIN AREA

    Mr. Chairman and Members of the Subcommittee. My name is Joseph 
Ronan, and I am Vice President of Calpine Corporation. With me today is 
Dr. L.R. Lawrence, Jr, President of Bob Lawrence & Associates, a 
consulting firm which supports us in Washington, DC. Calpine is the 
nation's largest generator of electric power from geothermal resources. 
We are also leading the nation in new, natural gas fueled electric 
power plants. We are proud of our role in providing the cleanest, most 
efficient electric power available from both fossil and renewable 
resources, using the finest, most efficient, cleanest, state of the art 
generation technology available.
    We come before you today to discuss a significant problem which 
poses a substantial and needless threat to our nation's environment. 
We, and our geothermal colleagues CalEnergy Corporation, are presently 
attempting to develop just under 100 Megawatts of geothermal electric 
power in the Klamath/Modoc Forests in accordance with the National 
Forest Plan and all associated, applicable laws. We have been involved 
in the project for a number of years now, following all necessary legal 
requirements; however, we have presently encountered an extra-ordinary 
obstruction by the Forest Service which is causing the unnecessary 
emission of many thousands of tons, per year, of nitrogen oxides, 
sulfur dioxide, and carbon. Specifically, from the EIA Annual Energy 
Outlook 1999, Electric Generation in 1997 was 3192 Billion Kilowatt 
Hours of Electricity, responsible for 532.4 Million Metric Tons of 
carbon emitted, 12.31 Million Short Tons of Sulfur Dioxide emitted, and 
5.89 Million Short Tons of Nitrogen Oxides emitted. Using these numbers 
as a reference, the impact of the 100 Megawatts of geothermal 
generation to be implemented at Glass Mountain, assuming 8000 hours per 
year of operation at full capacity, would be annual emissions savings 
of about 133,000 metric tons of carbon, 3,080 short tons of Sulfur 
Dioxide, and 1,470 short tons of Nitrogen Oxides. In other words, each 
year that implementation of our geothermal power plants is delayed 
causes the unnecessary emission of these amounts of pollutants that our 
geothermal power would, otherwise, offset.
    According to the National Renewable Energy Laboratory, a nominal 
carbon removal rate from the atmosphere by an acre of trees is 2.77 
metric tons of carbon per year. Trees remove neither Sulfur Dioxide nor 
Nitrogen Oxides from the atmosphere. Therefore, the atmospheric benefit 
of the 100 MW of geothermal power is the equivalent of 48,014 acres of 
trees in terms of atmospheric carbon removal. The geothermal power 
offsets substantial quantities of nitrogen oxides and sulfur dioxide, 
on which trees have no effect at all. Therefore, one year of delay of 
geothermal power plant implementation is the equivalent of the 
destruction of 48,014 acres of forest, not including the sulfur dioxide 
and nitrogen oxides effects.
    Calpine owns geothermal leases issued by the BLM for utilization of 
geothermal steam resources within federal lands in the Glass Mountain 
Known Geothermal Resource Area (KGRA) in Northern California. To 
utilize these resources, Calpine seeks to construct and operate a 
geothermal power plant, well field, and a transmission line, known as 
the Fourmile Hill Geothermal Development Project (Project). The Forest 
Service (FS) administers the surface of the lands that Calpine seeks to 
use for the Project, which is located within the Klamath and Modoc 
National Forests.
    The proposed geothermal facilities are in a broad landscape area 
encompassing the Glass Mountain KGRA, known as the Medicine Lake 
Highlands which surround Medicine Lake. This area contains paved roads, 
a campground, cabins, a boat ramp, and an active pumice mine. Motor 
boat use for water skiing, fishing and other pursuits occurs regularly 
on Medicine Lake. Extensive logging has occurred in the area. Needless 
to say, it is not a ``pristine'' area.
    On October 2, 1998, the FS and BLM, as joint lead agencies under 
the National Environmental Policy Act (NEPA), published a final 
Environmental Impact Statement (EIS) to address the environmental 
impacts associated with issuing permits for the Project. In addition, 
we and our geothermal colleagues, CalEnergy, invested over $180,000 in 
an ethnographic study, carefully coordinated with the Forest Service, 
to ensure that we would not desecrate any historic or traditional 
Native American cultural or religious sites. However, after more than 
18 months of delay, the FS and BLM have not yet issued a Record of 
Decision (ROD) authorizing the required permits.
    The leases now owned by Calpine were originally issued by the BLM, 
consistent with federal law and policy on geothermal leasing, and in 
cooperation with the FS to predecessor lessees, between 1981 and 1988. 
The agencies then prepared environmental assessments (EAs) and 
supplemental documents for issuance of the leases, and identified 
resource protection measures in relation to potential development, 
production, and utilization at that time. The EAs identified the 
Medicine Lake Highlands as an area used by Native Americans for 
cultural and religious practices, but no surface occupancy restrictions 
were required in the leases. The EAs determined that consultation would 
be an appropriate mitigation measure to reduce potential conflicts.
    In 1994, Calpine completed drilling a temperature core hole well at 
the location of the proposed Fourmile Hill power plant. In 1995, 
Calpine submitted a Plan of Operations to BLM for an exploration well 
drilling project at the current development Project location. The 
exploration project encompassed the leases and five well pads and 
related roads which are part of the proposed current development 
Project. An EA for the exploration project was issued in December 1995, 
addressing, among other issues, potential impacts and mitigation 
measures for cultural resources and Native American concerns. The 
exploration project was approved by the BLM and FS in April 1996, with 
a finding of no significant impact on the environment (FONSI).
    In 1996, Calpine submitted to the FS and BLM a proposal to develop 
the Project on its geothermal leases. The Calpine 49.9 MW power plant 
and well field area would be located about three miles northwest of 
Medicine Lake, within the Glass Mountain KGRA on Calpine's Federal 
geothermal leases CACA 21924 and CACA 21926.
    The formal process for preparing an EIS for the Project began in 
June 1996. The Bonneville Power Administration (``BPA''), which is 
expected to purchase the electricity produced by the Project, was a 
cooperating agency in completion of the EIS. The EIS also served as an 
environmental impact report (``EIR'') for state and local agency 
authorizations and for compliance with the California Environmental 
Quality Act (``CEQA''). Environmental groups which have supported the 
project in writing include the Center for Energy Efficiency and 
Renewable Technology (CEERT), Renewable Northwest Project, Natural 
Resources Defense Council, Northwest Energy Coalition, Northwest 
Environmental Associates, and the Citizens' Utility Board of Oregon.
    Meetings with affected tribal groups between October 1995 and April 
1996 indicated concerns about impacts on spiritual/religious use of the 
area and cultural resource sites. These concerns were addressed 
throughout the EIS process. During the EIS and ethnographic study 
process, the lead agencies and/or the ethnographer met and consulted 
with the affected tribes at least 19 times. The final EIS includes 
mitigation measures that reflect Calpine's ability and intent to 
complete the Project in a manner that will minimize its impact on 
traditional cultural values of tribes with interests in the area as 
well as other public resources and uses.
    The final EIS documents the low overall level of environmental 
impacts of the Project. The powerplant itself is not large and will not 
be visible from Medicine Lake or any other key areas. Similarly, the 
well drill pads and related facilities occupy little surface area and 
present limited visual impact.
Calpine Agreements with Tribes and Tribal Bands
    Calpine has directly pursued consultation and agreement with the 
various interested tribes to resolve Native American concerns regarding 
the Project. Calpine completed an agreement with the Shasta and Upper 
Klamath River Canyon Tribes in April 1999 and with the Klamath Tribes 
in November 1999. The Hewise Pit River Band agreed to support the 
Project in June 1999 and assisted Calpine in discussions with several 
of the other Pit River Bands from the Alturas area. These agreements 
provide for protection of Native American cultural sites and burial 
grounds, the hiring of tribal monitors during construction, Native 
American sensitivity classes for the Project workforce, preferential 
hiring for project construction and operation, job training and 
scholarships. Calpine is also discussing with the Tribes the 
establishment of a fund from a portion of the Project cash flows to 
provide scholarships and grants for cultural and educational 
activities. The fund would be independently managed and available to 
all Native Americans in the area, including those who oppose the 
Project. As a result of these and other efforts during and after the 
EIS process, the majority of the tribal groups in the area now support 
the Project. These Native Americans--the Klamath Tribes, the Shasta and 
Upper Klamath River Canyon Tribes and the Hewise Band of the Pit River 
Tribe--understand that Calpine will complete the Project in a manner 
that will protect their traditional cultural uses. They recognize the 
employment and other economic benefits of the Project, the 
environmentally responsible production of energy that the geothermal 
project represents, and the serious and substantial measures that 
Calpine is taking to accommodate cultural resources and other concerns. 
This is reflected in several letters in favor of the Project. A single 
group, the Pit River Bands from the area around Burney, California 
(some 35 miles away from the project site), remain the principal 
Project opponents, and have been hostile to attempts to open a dialogue 
with them. We respectfully suggest that, while all views on such issues 
deserve consideration, this group represents a distinct minority of the 
Native Americans which may be affected by the Project.
    It is wrong, unreasonable, and substantially environmentally 
harmful for the FS and the BLM to withhold Record of Decision (ROD) 
approval of the project.
    Congress and the Council on Environmental Quality (``CEQ'') have 
not required universal time limits for completion of an EIS and 
issuance of a ROD. However, NEPA and its implementing regulations 
clearly embody a policy against delay. As stated in CEQ NEPA guidance, 
``even large complex energy projects would require only about 12 months 
for the completion of the entire EIS process.'' Under NEPA procedures, 
the FS and BLM were otherwise free to issue ROD approval of the Project 
no later than 30 days after the October 2, 1998 publication of notice 
of the availability of the final EIS. Instead, over 18 months has 
passed since publication of the final EIS. There is no justification 
for this FS and BLM delay in ROD approval.
    In 1998, Calpine was awarded a $20.8 million incentive payment from 
the California Energy Commission (CEC) New Renewable Resources Account 
to assist the Project's economics during its first 5 years of 
operation. ROD delay has already caused Calpine to lose the first year 
of incentive funding for the Project, totaling nearly $4 million. 
Calpine faces the threat of losing over $4 million in second year CEC 
funding from impacts on the lease drilling and development schedule if 
a ROD is not issued in the Spring of this year. Continued delay in ROD 
approval threatens the geothermal energy development needs identified 
in the Geothermal Steam Act and by BPA in carrying out its statutory 
mandates. Employment and other economic benefits for the communities 
and tribes in the Project area are also at risk as well as the 
environment.
    Calpine requires a decision approving this Project prior to 
proceeding with further exploratory well drilling and other investments 
and actions critical to Project and lease development. If the drilling 
and related actions are not performed during the upcoming spring and 
summer operating season at the Project site, the Project development 
schedule will slip yet another year with all attendant, negative, 
environmental and societal impacts.
    Therefore, Mr. Chairman, we respectfully request that you and the 
Subcommittee exert whatever authority you deem proper to enable ROD 
approval of this project immediately so that our country and its 
environment may benefit from this exceptionally important development. 
We thank you for your attention to this matter.
                                 ______
                                 

     Prepared Statement of the Pelican Island Preservation Society

    I am Walter O. Stieglitz from Micco, Florida. I am the President of 
the Pelican Island Preservation Society, a group of 80 highly dedicated 
volunteers united to support and protect the Pelican Island National 
Wildlife Refuge.
    The Pelican Island Refuge is in trouble and urgently needs the help 
of the Congress! When tiny Pelican Island, the Nation's first national 
wildlife refuge, was established in 1903 it had a staff of one. Today, 
the refuge contains over 5,000 acres and is managed as a complex with 
the nearby Archie Carr National Wildlife Refuge. The refuge has become 
urban in nature and is severely threatened by development. Management 
demands have multiplied many fold yet the complex still has a staff of 
one! Despite its great historical significance, the refuge has no 
public use facilities and is not even close to meeting its full 
potential. It is also totally lacking in administrative and maintenance 
facilities.
    In addition to its historical significance, Pelican Island Refuge 
is unique for the important fish and wildlife habitat it provides. The 
Indian River Lagoon, of which the refuge is a part, and its associated 
wetlands, islands and mangroves form a major ecological system that 
supports a tremendous diversity of subtropical and temperate plants and 
animals. According to the Florida Marine Resources Council, the Lagoon 
has more species of plants and animals than any other estuary in the 
United States. The refuge provides habitat for 11 listed threatened and 
endangered species. In addition, several State listed Species of 
Special Concern are found on the refuge.
    The refuge's greatest threat from development lies on its east side 
where an ongoing project to protect a 300 acre buffer area is centered. 
Up to this point 107 acres have been acquired. We wish to thank the 
Congress for appropriating a total of $6.5 million over fiscal years 
1999 and 2000 which, along with a $900,000 donation from the private 
sector, have enabled the acquisition of the 107 acres. The $6.3 million 
requested in fiscal year 2001 is urgently needed to acquire an 
additional 85 acres of strategically located lands (please see attached 
map). Willing sellers are available. The lands in question are on the 
barrier island and are highly sought after by development interests. 
Unless quick action is taken these lands will be lost forever and the 
integrity of the refuge will be threatened. We could see condominiums 
on the shoreline within \1/4\ mile of Pelican Island itself.
    The Pelican Island Refuge is badly in need of public use 
facilities. The Fish and Wildlife Service and Indian River County have 
jointly planned low impact facilities to be located on the barrier 
island portion of the refuge. These facilities will be cost shared by 
the county and the Service; however, the Service's share has not been 
funded. Because of its unique location, with easy access from major 
highways, the potential for refuge visitation is in the hundreds of 
thousands. In order to accommodate this level of visitation a 
moderately scaled visitor center is badly needed to provide information 
about the refuge as well as administrative facilities for refuge staff. 
The ideal location for this facility is the historic Kroegel Homestead 
in Sebastian. A center on this site would also provide environmental 
education opportunities for thousands of students in northern Indian 
River County and southern Brevard County. The Service has requested 
$530,000 in fiscal year 2001 to cover planning and engineering costs 
for a visitor center and we urge the Committee to support this amount. 
Ideally, funding for construction would be appropriated in fiscal year 
2002 to ensure that the center would be completed by Pelican Island's 
100th birthday on March 14, 2003.
    If the Pelican Island/Archie Carr refuge complex is to ever reach 
its full potential additional personnel must be assigned and operations 
and maintenance (O&M) funding increased substantially. To supplement 
the existing single employee, 3 additional PFT personnel are needed 
now. Completion of the visitor center and other facilities will require 
an additional 3 PFT employees. The need is to increase the current O&M 
funding of $83,000 to $400,000 in fiscal year 2001. By 2003 O&M funding 
should be increased to the $900,000 level.
    We wish to express our sincere appreciation to your Committee and 
the Congress for their providing $6.5 million over the last two fiscal 
years for acquisition of critically threatened lands at Pelican Island. 
We urge you to appropriate the full amount requested by the Fish and 
Wildlife Service in fiscal year 2001 for land acquisition ($6.3 
million) and construction planning ($530,000). We also ask that you 
consider an add on for O&M funding in the amount of $317,000 and the 
provision of an additional three permanent full time positions.
    There is very strong local support for the refuge and its 
development. In addition, 11 friends of refuge groups with over 2,500 
members, and scattered across the U.S., have endorsed the enclosed plan 
for the refuge.
    Thank you again for your past support and for the opportunity to 
provide input on the critical needs of our first national wildlife 
refuge.
                                 ______
                                 

        Prepared Statement of the Wildlife Management Institute

    Chairman Gorton, the Wildlife Management Institute, founded in 
1911, is a non-profit organization staffed by experienced resource 
management professionals dedicated to improving the management of 
wildlife and wildlife habitat.
    Funding and Staffing for Wildlife and Endangered Species 
Programs.--We at the Institute are very concerned about the lack of 
funding for the Bureau of Land Management, particularly its wildlife 
and Endangered Species programs. We are concerned that the President's 
requests for the Wildlife ($26.653 million and 244 full time employees) 
and the Threatened and Endangered Species Programs ($23.672 million and 
230 full time employees) are inadequate to meet the severe wildlife 
habitat problems existing on BLM lands, as evidenced by the large 
number of listed species, candidate species, and species proposed for 
listing under the Endangered Species Act.
    Nearly 100 species on BLM lands are already listed or proposed for 
listing under the Endangered Species Act. Several others are on the 
verge of being listed, including the sage grouse (petitioned), the 
lesser prairie chicken (warranted, but precluded), Columbian sharp-
tailed grouse (petitioned), and the black-tailed prairie dog 
(warranted, but precluded). An appropriate investment in habitat 
conservation for sensitive species should yield enormous savings by 
averting future listings and the usually restrictive actions on land 
use that follow.
    To prevent future listings, the agency has identified two habitats 
for large-scale, 5-year restoration programs: sagebrush in the 
Intermountain West and the short and mixed-grass prairie in Montana, 
North and South Dakota, Wyoming, Colorado and New Mexico.
    More than 70 million acres of sagebrush have disappeared because of 
past management practices and, more recently, severe wildfires that 
burned 1.7 million acres. This habitat is home for sage grouse, 
Columbian sharp-tailed grouse, gray partridge, California and mountain 
quail, chukar, mule deer, pronghorn antelope, and Rocky Mountain and 
California bighorn sheep. About 80 percent of the remaining sage grouse 
habitat is on BLM lands and a listing will greatly affect how this land 
will be used and managed in the future.
    Much of the short and mixed grass prairie has been converted to 
agricultural lands. The BLM manages some of the last remaining unbroken 
prairie in the United States, which is home to more than five listed or 
potentially listed species, including the black-tailed prairie dog, 
blackfooted ferret, lesser prairie chicken, and the piping plover.
    These two initiatives also provide an opportunity for the BLM to 
proactively and comprehensively become involved in conserving a variety 
of birds species through active involvement in the North American Bird 
Conservation Initiative (NABCI). Coordination of federal land-
management agency plans and on-the-ground work are two of the most 
important parts of this interagency, multiple partner effort. The 
agency's conservation of riparian areas has been a true success for 
declining and listed birds. Sagebrush and grasslands habitats are 
equally important in addressing declines in bird populations before 
they reach a crisis.
    We commend the Bureau of Land Management for developing long-range 
plans targeting these two large-scale habitat types. The agency has 
identified specific projects from the field and has built in 
accountability to determine whether the identified projects are being 
completed and whether they are improving habitat for the sage grouse, 
lesser prairie chicken, and many other wildlife species.
    Unfortunately for whatever reason, these two projects are 
dramatically underfunded in the agency's fiscal year 2001 budget 
request. In fiscal year 2001 alone, the Bureau identified $2 million in 
sagebrush projects that will remain unfunded. Most important is mapping 
and inventory to ground-truth GIS mapping efforts and beginning the 
inventory of all priority species in the sagebrush ecosystem through an 
interagency program. Applied research is needed to determine habitat 
relationships and the effects of disturbances from wildfire, mining 
activities, rangeland treatments, invasive plants, and disease. Other 
projects that will follow include reducing wildfire fuels, improving 
watershed and riparian areas, controlling invasive weeds, as well as 
specific wildlife and fish habitat projects.
    The prairie grasslands projects on BLM lands need an additional $2 
million in fiscal year 2001. The most immediate critical need is for an 
inventory of existing habitat and species at risk on BLM managed lands. 
Another $1 million is needed for applied research (1) to determine the 
consequences of habitat changes from land uses and lack of fire, oil 
and gas development, and other mineral extraction; (2) to control 
invasive species; (3) to develop techniques for restoring native 
grasslands; and (4) to determine the effects of habitat on plague in 
black-tailed prairie dogs. Once this is done, out-year projects include 
burning native grassland communities, improving riparian areas, 
controlling invasive species, such as leafy spurge, spotted knapweed, 
Canadian thistle, and purple loosestrife in wetland areas.
    Lastly, we are concerned that the agency is overly conservative in 
its FTE ceilings, particularly in the number of biologists of all 
categories. With the large number of species at risk in the western 
United States, staffing should be increased to address this ongoing 
problem. Currently, there is about one biologist per million acres of 
land. This is assuming that the distribution of biologists is uniform 
across all States, which it is not. With the large number of species at 
risk in the western United States, staffing should be increased to 
address this ongoing problem. We also suggest that BLM be asked to 
identify the agency's needs for specific problem species and habitats.
    Western Wyoming Gas Development.--One area of particular concern is 
the sage grouse population in southwestern Wyoming where extensive 
development of new oil and gas fields is planned. Thousands of new 
wells with attendant roads, pipelines, and other facilities are planned 
in sagebrush habitat from Green River to Pinedale. In combination with 
other types of habitat loss, this new development could result in the 
listing of sage grouse. We are concerned that environmental assessments 
do not adequately address habitat for sage grouse and other wildlife. 
In the Pinedale area, Sublette antelope and mule deer populations have 
declined, and hunting seasons have been shortened as a result. Loss of 
preferred habitat may slow or prevent their recovery.
    A specific dilemma not addressed in the BLM budget is lack of 
monitoring for wildlife and other renewable resources as a foundation 
for major land-use decisions. Proposed gas development on the Pinedale 
Anticline will, according to a recent BLM Draft EIS, have major impacts 
on large mule deer and antelope herds, one of the largest remaining 
sage grouse flocks, and Class I trout streams. These impacts will 
likely last more than 50 years.
    To manage for these adverse impacts, the BLM suggests that 
monitoring will occur, yet they acknowledge in the Draft EIS that 
baseline monitoring called for in the existing Resource Management Plan 
has never been done because of lack of resources. We do not see this 
addressed in the BLM budget and request that it be included. Further, 
the BLM budget does not address mitigation of the impacts acknowledged 
in these decision documents. Active management to help get these herds, 
flocks, and streams through the long development period and 
comprehensive monitoring are needed if BLM is to discharge its 
stewardship responsibilities. These needs for staff and funds should be 
addressed in the fiscal year 2001 agency appropriations. Furthermore, 
these needs should be factored into future budget requests.
    Revision of Old Plans.--We support the agencies request for an 
additional $19 million and 108 full time employees in the fiscal year 
2001 budget to revise land-use planning documents. According to a 
recent report to Congress on Land Use Planning for Sustainable Resource 
Decisions, the BLM's land-use planning documents are woefully out of 
date. To quote this document, ``Of the 162 plans BLM currently uses to 
guide resource management on over 264 million acres of public lands, 
only 13 percent can be considered current to today's needs. The other 
plans are varying stages of decline and will continue to degenerate in 
usability as they continue to age . . . as they age, the more suspect 
they become and the credibility of the BLM's management effort comes 
into question as well, opening the door for costly litigation.'' We 
agree with this statement and are appalled that the agency has waited 
so long to rectify this problem.
    Riparian Management.--We support the Bureau's 2001 request for 
riparian management ($26.653 million); however, we are concerned this 
amount is inadequate. The BLM has completed an inventory of most of its 
riparian areas, and about half are in need of immediate action to 
prevent them from further deterioration. Riparian areas are not only 
important for fish, they are important for wildlife. In the desert 
Southwest, for example, stream banks are oases for wildlife and a 
birdwatcher's paradise. In the Great Basin, sage grouse, elk, deer, and 
many other species are dependent on riparian areas.
    Control of Wild Horses and Burros.--We support the Administration's 
request for the Wild Horse and Burro Program. The agency estimates that 
by next year it will have 50,600 more animals than the land can 
sustain. Overpopulation of these herds has severely affected range 
habitat and riparian areas and increases the risk that sage grouse and 
other special status species will be listed. We support the increased 
funding of $9 million as a wise investment in land stewardship.
    Challenge Cost Share.--We support the BLM's Challenge Cost Share 
Program and the $3 million request for this program; however, any 
amount earmarked for Challenge Cost Share should also be a budget add-
on. We are concerned about the earmark for the National Fish and 
Wildlife Foundation of $1.4 million. This should be an add on to the 
current wildlife subactivity rather than an earmark. The BLM has such a 
lean budget that earmarks for specific programs under past budgets have 
caused distortion in the agency's programs.
    Seeking Common Ground.--Seeking Common Ground was established to 
lessen conflicts between livestock and wildlife by improving range 
habitat and increasing the availability of water. Seeking Common Ground 
is an ideal example of local people solving local problems on federal 
and private land in the national interest. All projects approved for 
funding under Seeking Common Ground must be cooperative projects 
between federal and state agencies, ranchers, and non-governmental 
organizations, such as the Rocky Mountain Elk Foundation. So far, more 
than 800,000 acres of big game range has been improved.
    An estimated $600,000 is needed for these projects, equally divided 
between the U.S. Forest Service and the Bureau of Land Management. In 
the past, the BLM has taken the funding for this program from other 
underfunded programs. This program should be funded with add-on moneys 
to avoid distortions within the agency's other wildlife and range 
programs.
    In conclusion, we are very concerned about funding for the BLM, 
particularly its wildlife and Endangered Species programs. Under the 
Federal Land Policy and Management Act, the BLM has the responsibility 
for managing habitat for all wildlife--a responsibility equal to that 
of managing a vast amount of the nation's mineral estate. It appears 
that the President's budget request is inadequate to meet this agency's 
obligations to the nation.
    Mr. Chairman, we would be pleased to work with you, the Committee, 
and staff to provide further documentation and to help avert a future 
wildlife crisis on much of the nation's public land. The current state 
of BLM lands affects all interest groups from ranchers, 
environmentalists, sportsmen and sportswomen to fishers, miners, and 
developers. If listings are to be averted, efforts to recover habitat 
on these lands will require a unified approach widely supported by 
these and other groups. If I or the Wildlife Management Institute can 
be of any assistance in this endeavor, please let me know.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    Dear Chairman Gorton: Support for fiscal year 2001 Federal Funding 
of $5.2 Million for the Department of the Interior--Bureau of Land 
Management's Salinity Control Program
    Your support and leadership are needed in securing adequate fiscal 
year 2001 funding for the Department of the Interior with respect to 
the federal/state Colorado River Basin Salinity Control Program. This 
program is carried out as a part of ecosystem and watershed management 
pursuant to the Colorado River Basin Salinity Control Act and the Clean 
Water Act.
    As you are aware, the Bureau of Land Management (BLM) is the 
largest landowner in the Colorado River Basin. Much of the lands that 
are controlled and managed by the BLM are heavily laden with salt. Past 
management practices have led to man-induced and accelerated erosional 
processes from which soil and rocks, heavily laden with salt have been 
deposited in various stream beds or flood plains. As a result of this 
disposition, salt is dissolved into the River System causing water 
quality problems downstream.
    Congress has charged federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity measures available. In keeping with the 
Congressional mandate to maximize the cost-effectiveness of the 
salinity control program, the Colorado River Board is requesting that 
Congress appropriate and the administration allocate adequate funds to 
support the BLM's portion of the Colorado River Basin Salinity Control 
Program.
    The President's proposed budget has included $39,011,000 in BLM's 
budget for Management of Land and Resources--Soil, Water and Air 
Management. The Colorado River Board of California, the state agency 
charged with protecting California's interests and rights in the water 
and power resources of the Colorado River System, formally requests 
that Congress appropriate $5,200,000 of these funds for the Colorado 
River Basin salinity control activities as recommended by the Colorado 
River Basin Salinity Control Forum. The Honorable Slade Gorton March 
16, 2000 Page California's Colorado River water users are presently 
suffering economic damages estimated at about $750 million per year due 
to the river's salinity. The potential impact of failing to move 
forward with the Plan of Implementation for salinity control would be 
to permit these damages in the Lower Basin to reach an estimated $1.25 
billion annually by the year 2015. The Colorado River is, and will 
continue to be, a major and vital water resource to the 17 million 
residents of southern California. Preservation of its quality through 
an effective Salinity Control Program will avoid the additional 
economic damages to river users in California.
    The Board greatly appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance and 
leadership in securing adequate funding for this vital program.
                                 ______
                                 

  Prepared Statement of the Partnership for the National Trails System

    The Partnership for the National Trails System appreciates your 
support over the past several years, through operations funding and 
earmarked Challenge Cost Share funds, for the national scenic and 
historic trails administered by the National Park Service. We 
especially appreciate the substantial increase in funding you provided 
for the Trail of Tears and the first funding for the Potomac Heritage 
Trail in fiscal year 2000. We also appreciate your allocation of funds 
to support the trails administered and managed by the Forest Service. 
To continue the progress that you have fostered the Partnership 
requests that you provide annual operations funding for each of the 20 
national scenic and historic trails for fiscal year 2001 through these 
appropriations:
  --National Park Service.--$6.735 million for the administration of 15 
        trails and for coordination of the long-distance trails program 
        by the Washington Park Service office.
  --USDA Forest Service.--$1.99 million to administer four trails and 
        $550,000 for portions of 10 trails managed through agreements 
        with the Park Service and Bureau of Land Management; $1.1 
        million for Continental Divide Trail construction, $250,000 for 
        Florida Trail construction and $500,000 for Pacific Crest Trail 
        construction.
  --Bureau of Land Management.--$280,000 for administration of the 
        Iditarod National Historic Trail and $1.01 million for the 
        portions of 10 trails managed through agreements with the Park 
        Service and Forest Service; $1.95 million to complete 
        construction of the National Historic Trails Interpretive 
        Center in Casper, Wyoming.
    We ask that you increase the appropriation by $2.35 million for the 
National Park Service Challenge Cost Share Program and continue to 
earmark one-third of those funds (approximately $1,350,000) for the 15 
national scenic and historic trails it administers.
    We ask that you appropriate $650,000 to the National Park Service 
National Center for Recreation and Conservation to support an 
interagency pilot project to develop a consistent system-wide 
Geographic Information System (GIS) for the National Trails System.
    We ask that you appropriate from the Land and Water Conservation 
Fund $5 million for acquisition of lands by the USDA Forest Service to 
protect the scenic quality and continuity of the Pacific Crest National 
Scenic Trail, $5 million for acquisition of land for the Florida 
National Scenic Trail, $1 million for acquisition of lands by the 
Bureau of Land Management to protect the scenic quality of the Pacific 
Crest National Scenic Trail, and $1.6 million to the National Park 
Service to acquire the site for the authorized interpretive center for 
the Ice Age National Scenic Trail.
    We also ask that you appropriate from the Land and Water 
Conservation Fund $2 million to the State of Wisconsin to match state 
funds available for acquisition of land for the Ice Age National Scenic 
Trail and $500,000 each to the States of Michigan and New York to match 
funds available for acquisition of lands for the North Country National 
Scenic Trail.
    The $650,000 we request for GIS will fund the first year of a 5 
year interagency effort to develop a consistent Geographic Information 
System for all 20 national scenic and historic trails. This pilot 
project will build upon work already underway on the Ice Age, 
Appalachian, Florida, Oregon, California, Mormon Pioneer and Pony 
Express Trails to develop consistent procedures for gathering, storing 
and mapping information that can be applied across the National Trails 
System. The consistency of the system will allow trail managers and 
users to share reliable information across nearly 40,000 miles of 
trails spanning 44 States, hundreds of governmental jurisdictions and 
thousands of ownership parcels. A consistent system-wide GIS will aid 
agency managers and citizen volunteers in monitoring, protecting and 
managing thousands of significant cultural resource sites, occurrences 
of threatened or endangered species, bridges, signs and other 
attributes of these trails.
    Of the $6.735 million we request for the National Park Service, 
$1.16 million will finally provide significant operational support for 
6 of the trails that have received little funding. Annual operations 
funding for the Anza, Overmountain Victory, Natchez Trace, California, 
Mormon Pioneer, and Pony Express Trails ranges from $26,00 to $78,000 
and averages about $56,000, barely enough money to pay for a federal 
trail coordinator with little left for projects that nurture the trail. 
The funds we request will provide full-time management for each of 
these trails and support projects, such as marking and interpreting 
sites along the Juan Bautista de Anza Trail through the heart of 
California's largest communities, mobilizing local citizen groups and 
government agencies.
    Along the Natchez Trace Parkway and in the southern Appalachian 
mountains small dedicated organizations are patiently knitting together 
segments of the Natchez Trace and Overmountain Victory Trails so that 
someday hikers will be able to retrace the steps of citizen soldiers of 
the Revolutionary War and returning Mississippi River boatmen of the 
last century. The additional funding we request will quicken the pace 
of these efforts by strengthening the capacity for planning and 
organizing citizen-led trail making projects.
    The $577,000 increase we request for the interagency Salt Lake City 
Trails office will enable the Park Service to better support 
collaborative management with the Bureau of Land Management and the 
Forest Service of four national historic trails that stretch 11,000 
miles and extend across 11 States. With these funds the three agencies, 
working closely with citizen organizations, will revise the feasibility 
studies for the Oregon and California Trails, produce trail map 
brochures for the California and Pony Express Trails, and expand the 
GIS for all four trails. Another collaborative project, involving state 
departments of transportation, will begin to mark the auto tour routes 
for all four trails across 11 States.
    All of these trails are amazingly complicated undertakings, none 
more so than the 4,000 mile North Country Trail. With more than 600 
miles of Trail across 7 national forests in 5 States there is good 
reason for close collaboration between the Park Service and Forest 
Service to ensure consistent management that provides high quality 
experiences for hikers. Limited budgets for both agencies have severely 
hampered their ability to practice this effective management procedure. 
The $546,000 we request will give them that ability for the first time 
while also providing greater support for the trail building led by the 
North Country Trail Association, hastening the day when our nation's 
longest national scenic trail will be fully opened for use.
    The Ice Age Park & Trail Foundation has pioneered in using a 
Geographic Information System (GIS) to map and record the many natural 
and cultural resources comprising the 1200 mile Ice Age Trail. This 
work has been supported by private and Park Service funding and 
equipment and office space provided by the Wisconsin Department of 
Natural Resources. The $631,000 we request will enable the Park Service 
to expand this GIS capability to more efficiently plan resource 
protection, trail construction and maintenance to correct unsafe 
conditions and better mark the Trail for users. The funds will also 
provide assistance to the Foundation to better equip, train and support 
the volunteers who build and maintain the Ice Age Trail.
    It is equally important that the national scenic and national 
historic trails administered or managed by the United States Forest 
Service and the Bureau of Land Management receive similar budgetary 
recognition as America's Congressionally designated premier trails. 
Annual operations funding for these trails distinct from the general 
recreation program appropriations for these two agencies is essential 
to insure that these trails receive appropriate priority in annual work 
plans.
    Recognizing the special responsibility for administering three 
national scenic trails and one national historic trail, the Chief of 
the Forest Service recommended that $1 million be used for those trails 
in fiscal year 1995. As you have done for several years, consistent 
operations funding should be provided annually for these trails. We ask 
you to appropriate $1.99 million as a separate budget item specifically 
for the Continental Divide, Florida and Pacific Crest National Scenic 
Trails and the Nez Perce National Historic Trail. Recognizing the on-
the-ground management responsibility the Forest Service has for 838 
miles of the Appalachian Trail, more than 600 miles of the North 
Country Trail, and sections of the Ice Age, Lewis & Clark, California, 
Iditarod, Oregon, Overmountain Victory, Pony Express and Santa Fe 
trails, we ask you to appropriate $555,000 specifically for these 
trails.
    Administration of four national trails, two more than 1000 miles 
long and two over 2000 miles long, each crossing many management 
jurisdictions, is a complex endeavor. Each of these long trails passes 
through tens or hundreds of thousands of acres of land with great 
variations in topography, plant, animal and human communities. Each 
trail encompasses cultural and natural resources requiring sensitive 
management. As management endeavors they are comparable in scale and 
needs to the national forests, yet the Forest Service does not 
administer them as distinct entities with annual reliable budgets. 
These Congressionally authorized trails should be administered as 
distinct entities with appropriate supervision by the Forest Service. 
We ask that you provide the funding and direction to do so. Here are 
several examples of what can be accomplished.
    Work is underway, supported by funds you provided for fiscal year 
1999 and fiscal year 2000, to close several major gaps in the Florida 
National Scenic Trail. The Florida Trail Association can now build 
Trail across Eglin Air Force Base in the Ocala National Forest and 
along the Suwannee River, adding about 100 miles to the completed 
Florida Trail. The Partnership requests that you provide an additional 
$250,000 for fiscal year 2001 to the Forest Service for trail 
construction on these and other segments of the Florida Trail.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction projects needed to complete the Trail. To 
continue new trail construction, begun with fiscal year 1998 funding, 
we ask that you appropriate $700,000 to plan 211 miles of new trail and 
$1.1 million to build or reconstruct 200 miles of the Continental 
Divide Trail in fiscal year 2001.
    Nearly 300 miles of the Pacific Crest Trail, an original component 
of the National Trails System, is located on 227 narrow easements 
across private land. The Pacific Crest Trail Association has surveyed 
them and identified numerous encroachments that degrade the scenic 
quality of the PCT, as well as sections of the Trail located on the 
edge of dangerous highways. A full-time multi-regional Forest Service 
Trail Administrator is needed to better monitor these easements and 
manage the 2,650 mile Pacific Crest Trail in a consistent manner across 
and near 24 national forests, six national parks, four Bureau of Land 
Management resource areas and several state and county parks. We 
request $600,000 for the Forest Service to administer the Pacific Crest 
Trail for fiscal year 2001. We ask that you direct the Forest Service 
to use these funds to provide a full-time multi-regional Trail 
Administrator and a dedicated lands team that can work with the Pacific 
Crest Trail Association and the Park Service National Trail Land 
Resources Program Center to begin to acquire safe and scenic corridor 
and provide consistent, collaborative public/private management for the 
Pacific Crest Trail.
    While the Bureau of Land Management has administrative authority 
for just the Iditarod National Historic Trail, it has on-the-ground 
management responsibility for 568 miles of two scenic trails and 3,590 
miles of eight historic trails administered by the National Park 
Service and U.S. Forest Service. However, the Bureau of Land Management 
budget does not reflect this responsibility; the agency receives no 
funding specifically for these trails. To correct this oversight you 
directed funds to these trails for fiscal year 1999. We ask that you 
continue to provide this guidance by appropriating $280,000 for fiscal 
year 2001 earmarked as a separate budget item for administration of the 
Iditarod National Historic Trail and $1,009,000 for management of the 
portions of the 10 other trails under the care of the Bureau of Land 
Management. We urge you to appropriate the $41.944 million requested 
for ``Recreation Resource Management'' to fully-fund programs and 
projects benefitting trails.
    The Land and Water Conservation Fund provides the essential means 
to protect critical resources of the national scenic and historic 
trails. There are many important historical sites and critical 
stretches of these trails that remain unprotected and vulnerable to 
destruction or loss for public use. We request that you appropriate the 
$900 million authorized to be spent annually from the Land and Water 
Conservation Fund.
    The Partnership requests that you appropriate from the Land and 
Water Conservation Fund $5 million for acquisition of lands by the 
United States Forest Service to protect the scenic quality and 
continuity of the Pacific Crest National Scenic Trail and $5 million to 
connect sections of the Florida National Scenic Trail on the national 
forests in Florida and St. Marks Wildlife Refuge. We also request $1 
million for the Bureau of Land Management to acquire lands to protect 
the scenic quality of the Pacific Crest National Scenic Trail in 
California, and $1.6 million for the National Park Service to acquire 
the site for the authorized interpretive center for the Ice Age 
National Scenic Trail.
    The National Trails System Act encourages states to assist in the 
conservation of the resources and development of the national scenic 
and historic trails. Florida and Wisconsin have committed millions of 
dollars to help conserve the resources of the Florida and Ice Age 
National Scenic Trails, respectively. Michigan, Minnesota, New York and 
Wisconsin have funding programs, predicated on matching funds, that can 
help acquire lands for the North Country National Scenic Trail. The 
Partnership asks that you provide grants from the Land and Water 
Conservation Fund to assist and encourage Wisconsin in acquiring land 
for the Ice Age Trail and Michigan and New York in acquiring land for 
the North Country Trail.
    The essential funding requests to support these trails are detailed 
in Attachment #3.
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it. They combine 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The commitment of the private trail organizations toward the 
success of these partnerships as the means for making these trails 
grows even as Congress' support for the trails has grown. In 1999 the 
trail organizations channeled 553,905 hours of documented volunteer 
labor valued at $7,422,326 to help sustain the national scenic and 
historic trails. This is a 10 percent increase over the volunteer labor 
reported for 1998. The trail organizations also directly applied 
private sector contributions of $5,780,340 to benefit the trails, an 
increase of $1.4 million over the money contributed in 1998. These 
contributions are documented in Attachment #1.
    The earmarked Challenge Cost Share funds have significantly 
increased the activity along the trails administered by the National 
Park Service. For fiscal year 1999 14 of the 15 trails have reported 
using $640,790 provided by Congress to fund 72 projects with a total 
value of $1,810,670. The $1,169,880 provided by trail organizations and 
state and local government agencies to support these projects 
represents a 1.8:1 match to the Federal investment. Some projects that 
have been completed with this funding are detailed in Attachment #2.
    The Challenge Cost Share approach is one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership supports the Administration's $2.35 million increase in 
Challenge Cost Share funding as a wise investment of public money that 
will generate public benefits many times greater than the appropriation 
made. We ask that you continue to direct a portion of those funds 
specifically toward the national scenic and historic trails to continue 
the steady progress underway to make these trails fully available for 
public enjoyment.

ATTACHMENT 1.--CONTRIBUTIONS MADE IN 1999 TO SUPPORT THE NATIONAL TRAILS
       SYSTEM BY NATIONAL SCENIC AND HISTORIC TRAIL ORGANIZATIONS
------------------------------------------------------------------------
                                               ESTIMATED
                                  VOLUNTEER     VALUE OF     FINANCIAL
          ORGANIZATION              HOURS      VOLUNTEER   CONTRIBUTIONS
                                                 LABOR
------------------------------------------------------------------------
Appalachian Trail Conference...      181,521   $2,432,381    $3,262,500
Continental Divide Trail           \1\ 1,500       20,100  .............
 Society.......................
Continental Divide Trail          \1\ 36,000      482,400   \1\ 443,000
 Alliance......................
Florida Trail Association......       43,618      584,481       123,500
Ice Age Park & Trail Foundation       60,015      804,201       644,784
Iditarod Trail Committee.......   \1\ 16,800      225,120    \1\ 75,000
Heritage Trails/Amigos De Anza    \1\ 15,640      209,576  .............
 Juan Bautista De Anza Trail...
Anza Trail Coalition of Arizona        1,318       17,661  .............
Lewis & Clark Trail Heritage          27,660      179,185       168,116
 Foundation....................
Mormon Trails Association......        4,540       60,836         3,305
Iowa Mormon Trails Association.        4,300       57,620         4,000
Natchez Trace Trail Conference.   \1\ 12,800       37,520    \1\ 10,000
National Pony Express                  1,740       23,316    \1\ 14,000
 Association...................
Pony Express Trail Association.        2,430       57,051        13,518
Nez Perce Trail Foundation.....      \1\ 595        7,973         1,642
North Country Trail Association       24,476      327,978       127,777
Oregon-California Trails          \1\ 28,500      381,900       173,100
 Association...................
Overmountain Victory Trail             9,144      122,530         2,573
 Association...................
Pacific Crest Trail Association   \1\ 30,000      402,000       284,925
Potomac Heritage Partnership...    \1\ 7,800      104,520       340,600
Santa Fe Trail Association.....   \1\ 16,300      218,420        61,000
Trail of Tears Association.....       37,208      498,587        37,000
                                ----------------------------------------
      Total....................      553,905    7,422,326     5,780,340
------------------------------------------------------------------------
\1\ Estimate.

ATTACHMENT 2.--1999 NATIONAL PARK SERVICE CHALLENGE COST SHARE PROJECTS 
               ON THE NATIONAL SCENIC AND HISTORIC TRAILS

    Reports document 72 Challenge Cost Share projects undertaken during 
fiscal year 1999 valued at $1,810,670 on 14 of the 15 national scenic 
and historic trails administered by the National Park Service. Projects 
include:
    Trail design and construction.--Construction of several segments of 
the North Country Trail in Michigan and Wisconsin;
    Trail heads and parking facilities.--Informational kiosks and trail 
registers for the North Country Trail in New York; two trailheads, one 
with accessible parking for disabled users, on the Ice Age Trail;
    Bridges, boardwalks and shelters constructed.--Bridges on the 
Appalachian, Natchez Trace, and North Country Trails; boardwalks on the 
Appalachian and North Country Trails; shelters on the North Country 
Trail in New York and Pennsylvania and on the Appalachian Trail in 
North Carolina;
    Trail mapping and marking.--Mapping of the North Country Trail, 
initial work to develop a GIS database for the Santa Fe Trail and to 
produce maps available over the Internet for the Juan Bautista de Anza 
Trail; trail marking on the North Country Trail in Wisconsin, on the 
Lewis & Clark Trail in Montana and all known expedition campsites along 
the Snake and Columbia Rivers in Washington, and auto tour routes for 
the Oregon, California, Mormon Pioneer and Pony Express Trails through 
Nebraska;
    Interpretive signing installed.--Wayside exhibits for the Ice Age 
Trail in Dane County and at the Devils Lake State Park Unit of the Ice 
Age National Scientific Reserve, for the Oregon and California Trails 
at City of Rocks in Idaho, for the Lewis & Clark Trail at Fort Osage, 
Missouri and in North Dakota;
    Exhibits and brochures developed.--Museum exhibits for the Juan 
Bautista de Anza Trail in Tucson, Arizona and Monterey County, 
California; state trail brochures for the North Country Trail; 
interpretive brochure for the Lewis & Clark Trail in Montana;
    Natural resource management/Landscape restorations.--Prairie/
grassland restorations on the Ice Age Trail with Dane County Parks 
Department; natural diversity inventories along the Appalachian Trail 
in New York and New Jersey;
    Information services and educational events.--Development of a 
trail slide show and chapter operations manuals for the North Country 
Trail Association; development of a WWWeb page for the Dallas County 
section of the Selma-to-Montgomery Trail and an audio cassette tour 
program explaining the 20 mile portage route around the Great Falls of 
the Missouri River and interpretive programs at Fort Mandan, North 
Dakota and Fort Clatsop, Oregon on the Lewis & Clark Trail; wagon train 
commemorating 150th Anniversary of the California Trail;
    Funding supported regional skills training workshops for 
volunteers, development of an interpretive plan, sanitation research 
and development of guidelines for backcountry outhouses along the 
Appalachian Trail. Funding supported organizational development 
training for the North Country Trail Association. Funding also 
supported development of a trailwide stewardship plan for the Lewis & 
Clark Trail and other preparations for the approaching Bicentennial of 
the Corps of Discovery Expedition.

    ATTACHMENT 3.--PARTNERSHIP FOR THE NATIONAL TRAILS SYSTEM FISCAL YEAR 2001 APPROPRIATIONS REQUEST FOR THE
                                             NATIONAL TRAILS SYSTEM
----------------------------------------------------------------------------------------------------------------
                                                                  FISCAL YEAR
                                  FISCAL YEAR     FISCAL YEAR        2001        PROJECT/PROGRAMS POSSIBLE WITH
         AGENCY/TRAIL            2000 APPROP.     2001 ADMIN.     PARTNERSHIP           INCREASED FUNDING
                                                    REQUEST         REQUEST
----------------------------------------------------------------------------------------------------------------
PARK SERVICE:
    Appalachian...............        $886,000        $894,000        $894,000  Law enforcement and resource
                                                                                 management by NPS Park staff
                                                                                 and support of volunteer-based
                                                                                 trail and land management;
    Natchez Trace.............          26,000          26,000         151,000  Planning, guidance & support for
                                                                                 trail development projects with
                                                                                 NTTC;
    California................          61,000          61,000         334,000  Interagency collaboration to
                                                                                 produce trail brochure, install
                                                                                 Trail markers & interpretive
                                                                                 waysides, revise feasibility
                                                                                 study and increase GIS data for
                                                                                 Trail;
    Ice Age...................         341,000         346,000         631,000  Trail corridor planning and GIS
                                                                                 mapping; Support for Trail
                                                                                 construction, maintenance and
                                                                                 resource management by IAP&TF
                                                                                 and local agencies;
    Juan Bautista de Anza.....          77,000         187,000         187,000  Guidance and coordination of
                                                                                 Trail site protection,
                                                                                 interpretation & development
                                                                                 projects with local agencies &
                                                                                 organizations;
    Lewis & Clark.............       1,174,000       1,640,000       1,640,000  Planning, coordination & support
                                                                                 for local Bicentennial
                                                                                 projects;
    Mormon Pioneer............          78,000          78,000         131,000  Coordinate interpretive exhibits
                                                                                 and route marking with 12
                                                                                 states for 4 trails;
    North Country.............         226,000         227,000         546,000  Management consistency through
                                                                                 closer collaboration with
                                                                                 Forest Service; Trail route
                                                                                 planning and mapping; Support
                                                                                 for NCTA trail making projects;
    Oregon....................         111,000         115,000         208,000  Interagency collaboration to
                                                                                 revise feasibility study,
                                                                                 interpret auto tour routes and
                                                                                 critical sites like South Pass
                                                                                 and expand GIS database;
    Overmountain Victory......          36,000          36,000         136,000  Fulltime trail administration by
                                                                                 NPS; new route signs and
                                                                                 interpretive exhibits;
    Pony Express..............          61,000          61,000         219,000  Interagency collaboration to
                                                                                 produce trail brochure, install
                                                                                 Trail markers & interpretive
                                                                                 way sides, and increase GIS
                                                                                 data for Trail;
    Potomac Heritage..........         150,000         150,000         250,000  Assistance to local agencies and
                                                                                 organizations for trail
                                                                                 planning and educational
                                                                                 projects;
    Santa Fe..................     \1\ 481,000         493,000         680,000  Coordinate systematic cultural
                                                                                 resource management and
                                                                                 interpretive program;
    Selma to Montgomery.......         100,000         261,000         261,000  Comprehensive management plan
                                                                                 developed and trail
                                                                                 interpretation begun in
                                                                                 collaboration with citizen
                                                                                 support organizations & local
                                                                                 agencies;
    Trail of Tears............         249,000         249,000         249,000  Survey, protection &
                                                                                 interpretation of critical
                                                                                 Trail sites with TOTA;
NTS-Washington Office.........         217,000         218,000         218,000  Program coordination and special
                                                                                 projects funding;
                               ------------------------------------------------
      Total...................       4,274,000       5,042,000       6,735,000
                               ================================================
Challenge Cost Share..........       1,991,000   \2\ 4,333,000        \1/3\ of  Challenge cost share grants for
                                                                 appropriation   trail projects;
Interagency GIS Pilot Project.     \3\ 200,000  ..............         650,000  Development of GIS for National
                                                                                 Trails System starting with Ice
                                                                                 Age, Florida, Appalachian,
                                                                                 Oregon-California, Mormon
                                                                                 Pioneer & Pony Express Trails;
BLM:
    Iditarod Trail............  ..............  ..............         280,000  Coordination and support for
                                                                                 collaborative management with
                                                                                 other Federal agencies,
                                                                                 Iditarod Trail organizations
                                                                                 and State of Alaska; bridges
                                                                                 and cabins;
    Continental Divide, Oregon  ..............  ..............       1,009,000  California Trail resource
     Pacific Crest,                                                              inventories in Wyoming and
     California, Anza, Lewis &                                                   California; Lewis & Clark
     Clark, Mormon Pioneer,                                                      Bicentennial preparations in
     Santa Fe, Nez Perce &                                                       Idaho and Montana; Archaeology
     Pony Express Trails.                                                        at Little Sandy and Dry Sandy
                                                                                 Pony Express Stations, WY;
                                                                                 Interpretive exhibits for Anza
                                                                                 Trail at Painted Rock, AZ;
                                                                                 Marking 230 miles of
                                                                                 Continental Divide Trail in
                                                                                 Wyoming and 120 miles of Pony
                                                                                 Express Trail in Nevada;
                                                                                 Pacific Crest Trail maintenance
                                                                                 in CA; Interagency management
                                                                                 collaboration;
                               ------------------------------------------------
      Total...................  ..............  ..............       1,289,000
                               ================================================
Iditarod Trail................  ..............         385,000         385,000  Feasibility study for Iditarod
                                                                                 Trail Interpretive/visitor
                                                                                 Center
Historic Trails Center........       2,600,000  ..............       1,950,700  Complete construction of
                                                                                 National Historic Trails
                                                                                 Interpretive Center in Casper,
                                                                                 Wyoming
FOREST SERVICE:
    Continental Divide........         235,000  ..............         935,000  Assumption of full
    Florida...................         150,000  ..............         250,000   administrative responsibility
    Pacific Rest..............         410,000  ..............         600,000   and leadership for consistent
    Nez Perce Trains..........         205,000  ..............         205,000   interagency collaboration for
                                                     1,000,000                   each trail; support for
                                                                                 ongoing, consistent management
                                                                                 with trail organization and
                                                                                 local agency partners; trail
                                                                                 brochures, signs, project
                                                                                 planning etc. $700,000 for
                                                                                 planning new sections of CDT,
                                                                                 $500,000 for full time
                                                                                 Administrator & land
                                                                                 acquisition team for PCT;
    AT, NCT, IAT, IDT, CAT,            350,000         350,000         550,000  Improved trail maintenance,
     L&CT, OT, OVT, PXT, SFT.                                                    marking, interpretation,
                                                                                 archaeological studies,
                                                                                 historic site protection and
                                                                                 trailhead facilities for trail
                                                                                 segments in National Forests;
                                                                                 Liaison for collaborative
                                                                                 management of North Country
                                                                                 Trail with National Park
                                                                                 Service;
    Continental Divide Trail..         462,000  ..............       1,100,000  Trail construction projects
                                                                                 along the Continental Divide
                                                                                 Trail;
    Florida Trail.............         231,000  ..............         250,000  Trail construction projects in
                                                                                 Eglin Air Force Base, Ocala
                                                                                 National Forest, Cross Florida
                                                                                 Greenway and along Suwannee
                                                                                 River;
    Pacific Crest Trail.......  ..............  ..............         500,000  Trail construction: new bridges
                                                                                 and trail relocations in
                                                                                 Regions 5 & 6;
                               ------------------------------------------------
      Total...................       2,043,000       1,350,000       4,390,000
                               ================================================
Nat. Forest System Trail            20,445,000      20,000,000      40,000,000  Trail maintenance throughout the
 Maintenance.                                                                    National Forest System.
Nat. Forest System Trail            29,582,000      31,000,000      31,000,000  New trail construction and trail
 Construction.                                                                   re-construction throughout the
                                                                                 National Forest System.
LWCF grant Continental Divide          700,000  ..............         150,000  USDA-Forest Service enabled to
 Trail.                                                                          acquire lands in Colorado and
                                                                                 New Mexico to establish new
                                                                                 sections of the Continental
                                                                                 Divide Trail;
LWCF grant Pacific Crest Trail       1,500,000  ..............       5,000,000  USDA-Forest Service enabled to
                                                                                 acquire lands in southern
                                                                                 California, Oregon and southern
                                                                                 Washington to preserve the
                                                                                 continuity and scenic integrity
                                                                                 of the Pacific Crest Trail;
LWCF grant Pacific Crest Trail  ..............  ..............       1,000,000  BLM enabled to acquire lands in
                                                                                 California to preserve the
                                                                                 continuity and scenic integrity
                                                                                 of the Pacific Crest Trail;
LWCF grant Florida Trail......  ..............  ..............       5,000,000  USDA-Forest Service enabled to
                                                                                 acquire lands to protect 23
                                                                                 miles of threatened Florida
                                                                                 Trail corridor and connect
                                                                                 trail segments across private
                                                                                 land between National Forests,
                                                                                 St. Marks Wildlife Refuge &
                                                                                 Eglin Air Base;
LWCF grant Ice Age Trail--           2,000,000  ..............       2,000,000  Provide assistance to State of
 Wisconsin \4\.                                                                  Wisconsin to protect threatened
                                                                                 Ice Age Trail corridor and
                                                                                 connect trail segments across
                                                                                 private land in Dane, Columbia,
                                                                                 Portage, Washington and Waupaca
                                                                                 Counties;
LWCF grant Ice Age Trail......  ..............  ..............       1,600,000  NPS enabled to purchase site for
                                                                                 interpretive center authorized
                                                                                 for the Ice Age Trail;
LWCF grants North Country
 Trail:
    Michigan \5\..............  ..............  ..............         500,000  Provide assistance to States of
    New York \5\..............  ..............  ..............         500,000   Michigan and New York to
    Wisconsin.................         500,000  ..............  ..............   protect threatened North
                                                                                 Country Trail corridor and
                                                                                 connect trail segments across
                                                                                 private land.
                               ------------------------------------------------
      Total...................       4,700,000  ..............      15,750,000
----------------------------------------------------------------------------------------------------------------
\1\ Includes $247,000 for operations of Santa Fe Park Service office, not related to the Santa Fe Trail.
\2\ Administration request does not allocate any funds for the National Trails System. The Congressional earmark
  is needed to accomplish this.
\3\ Congressional earmark within existing Park Service operations funding.
\4\ This would be a grant to the State of Wisconsin to be matched at least 1:1.
\5\ These would be grants to the States of Michigan and New York to be matched at least 1:1.

                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This Statement is submitted in support of appropriations for the 
Bureau of Land Management's Colorado River Basin salinity control 
program activities. Adequate funding needs to be appropriated to BLM 
for fiscal year 2001 for Colorado River salinity control activities. An 
amount of $800,000 is requested for specific marking for projects for 
the Colorado River Basin Salinity Control Program, and $5.2 million is 
requested in the Soil, and Air Management subactivity of the Management 
of Lands and Renewable Resources budget line item for Bureau of Land 
Management Activities in the Colorado River Basin which will assist in 
controlling salinity from public lands.

                               STATEMENT

    The Colorado River Basin Salinity Control Forum, of which I am a 
member, is comprised of representatives of the seven Colorado River 
Basin States and has examined all of the features needed to control the 
salinity of the Colorado River. Because of the budgeting process 
utilized by the Bureau of Land Management, I can only presume that 
there are adequate dollars in the President's budget to proceed with 
water quality protection programs needed in the Colorado River Basin to 
ensure that excess amounts of salts are not contributed to the river 
system.
    The Bureau of Land Management is the largest land owner in the 
Colorado River Basin and much of the lands that are controlled and 
managed by the Bureau of Land Management are heavily laden with salt. 
When salt-laden soils erode, silt is carried along for some distances 
and ultimately settles in streambeds, reservoirs or flood plains. The 
salts are dissolved and remain in the river system causing water 
quality problems downstream, affecting the quality of water used from 
the Colorado River by the Lower Basin States and the Republic of 
Mexico. Activities of the Bureau of Land Management under its Soil, 
Water and Air Management subactivity of the Management of Lands and 
Renewable Resources budget line item assist in controlling salinity 
contributed to the Colorado River system from public lands.
    The Colorado River Basin salinity control program has been adopted 
by the seven Basin States and approved by the EPA as a part of each 
State's water quality standards. Water delivered to Mexico in the 
Colorado River is subject to Minute 242 of the U.S. treaty with Mexico, 
which sets limits on the salinity of water. By far the greatest portion 
of the naturally occurring salt load in the Colorado River Basin 
originates on federally owned or administered lands.
    I believe that the Federal Government has a major and important 
responsibility with respect to controlling salt discharge from public 
lands and the Congress has charged the federal agencies with proceeding 
with programs to control the salinity of the Colorado River Basin with 
a strong mandate to seek out the most cost-effective solutions. It has 
been determined that the Bureau of Land Management's rangeland 
improvement programs can lead to some of the most cost-effective 
salinity control measures available. In addition, these programs are 
environmentally acceptable, will prevent erosion, increase grazing 
opportunities and dependable stream run-off, and enhance wildlife 
habitat.
    The Forum believes that $5.2 million needs to be spent in fiscal 
year 2001 by the Bureau of Land Management for activities under the 
Soil, Water and Air Management subactivity of the budget line item 
titled Management of Lands and Renewable Resources. The Forum is 
particularly concerned that the line item titled Management of Lands 
and Renewable Resources is adequately funded to include the $5.2 
million. Also, the Forum requests that an additional amount of $800,000 
be marked specifically for projects for the Colorado River Basin 
Salinity Control Program. I would very much appreciate any favorable 
consideration that you may be able to give to these requests. I fully 
support the statement of the Colorado River Basin Salinity Control 
Forum in support of appropriations for the Bureau of Land Management 
for Colorado River Salinity Control Programs submitted by Jack Barnett, 
the Forum's Executive Director.
    BLM has not had a history of adequately reporting its efforts, the 
associated expenditures and its accomplishments with respect to 
Colorado River salinity control. There is a bill that has passed the 
Senate and is now before the House which will require the BLM to report 
its program for salinity control to the Congress. The Forum supports 
this requirement. Also, the Forum believes that although it is 
commendable for the administration to formulate a budget that focuses 
on ecosystems and watershed management, it is essential that funds be 
targeted on specific subactivities and the results of those 
expenditures reported; this is necessary for accountability and for the 
effectiveness of the use of the funds. The Forum requests that the 
Committee require accounting, perhaps through CPRA, by the Bureau of 
Land Management in such a way that the results of their salinity 
control activities in connection with expenditures of funds can be 
reviewed and measured. I fully support the Forum's position concerning 
the accounting and reporting of salinity control activities by the 
Bureau of Land Management.
                                 ______
                                 

Prepared Statement of the Colorado River Basin Salinity Control Program

    This testimony supports fiscal year 2001 appropriations for the 
Bureau of Land Management (BLM) to accomplish Colorado River Basin 
Salinity Control activities and requests Congressional Direction to the 
BLM to expend $5,200,000 on measures to reduce salinity concentrations 
in the waters of the Colorado River System. We request that $800,000 of 
the Management of Lands and Renewable Resources line-item be marked for 
the Colorado River Basin Salinity Control Program as has been the 
direction to the BLM from the Committee in past years.
    This testimony supports fiscal year 2001 funding for the Bureau of 
Land Management (BLM) to carry out Colorado River Basin salinity 
control activities. You will soon receive testimony from the Colorado 
River Basin Salinity Control Forum (Forum) on behalf of the seven 
Colorado River Basin States that is being submitted by the Forum's 
Executive Director, Jack Barnett. The State of Wyoming concurs in the 
fiscal year 2001 funding request and justification statements for BLM 
funding set forth in the Forum's testimony.
    The State of Wyoming is one of the seven member states represented 
on the Forum and the Colorado River Basin Salinity Control Advisory 
Council. The Council was created by Section 204 of the 1974 Colorado 
River Basin Salinity Control Act, Public Law 93-320, and like the 
Forum, is composed of gubernatorial representatives of the seven 
Colorado River Basin States. Both the Council and Forum serve important 
liaison roles among the seven States, the Secretaries of the Interior 
and Agriculture and the Administrator of the Environmental Protection 
Agency (EPA). The Council is directed by statute to advise these 
federal officials on the progress of the federal/state cost-shared, 
basin-wide salinity control programs, and annually recommends to the 
Federal agencies what level of funding it believes is required to allow 
the Program to meet its objective of assuring continuing compliance 
with the basin-wide water quality standards.
    The Council met in October, 1999 and developed funding 
recommendations for fiscal years 2001 and 2002 needed for reducing the 
salt loading into the Colorado River System. Based on analyses made by 
the Bureau of Reclamation and the Forum and after conferring with BLM 
agency officials, the Council recommends that the BLM expend $5,200,000 
in fiscal year 2001 to accomplish activities that BLM either has 
underway or should initiate in order to further control the 
concentrations of salinity of the Colorado River. It is particularly 
important that the BLM's line-item for Management of Lands and 
Renewable Resources be adequately funded. We request that $800,000 from 
this line-item be marked for the Colorado River Basin Salinity Control 
Program as has been the direction to the BLM from the Committee in past 
years.
    Section 203(b) of the Colorado River Basin Salinity Control Act as 
amended directs the Secretary of the Interior to develop a 
comprehensive program for minimizing salt contributions to the Colorado 
River from lands administered by the Bureau of Land Management. This is 
important, and appropriate, as the BLM is the largest manager of land 
in the Colorado River Basin (53 million acres of public lands in the 
Colorado River Basin above Yuma, Arizona) and because salt loading 
reductions on BLM-managed rangelands can be done more economically than 
some of the methods available to and projects being implemented by the 
Bureau of Reclamation and the Department of Agriculture.
    The Council and Forum recognize the major role that the BLM can 
have in the Colorado River Basin salinity control effort if more 
attention, effort and focus by the BLM is brought to bear on 
controlling salt discharges from the federal lands it manages. Great 
opportunity exists to decrease salt loading from BLM-managed lands to 
the river system. The Secretary of the Interior is directed by the 
Colorado River Basin Salinity Control Act to give preference to those 
salinity control efforts which reduce salinity at the least cost per 
unit of salinity reduction, e.g. in the most cost-effective manner. The 
Forum and Council have aggressively urged, and will continue to 
encourage, the BLM to identify, plan and develop additional projects 
that will remove, or prevent the loading of, a greater tonnage of salts 
from the River system.
    The State of Wyoming wishes to emphasize the statement found in the 
Forum's testimony that while we are not opposed to BLM's budgetary 
process of focusing on ecosystem and watershed management, it remains 
essential that the expenditure of funds be directed to specific sub-
activities; and further, that accounting for expenditures be done to 
allow oversight on how the funds were used, what resources were 
benefited and which natural resource concerns were addressed. Wyoming 
and the other member states of the Forum have been frustrated by BLM's 
identification of where funds are allocated without identifying what 
purposes the funding will serve or how those funds will be used to 
accomplish specific activities, objectives and benefits. The same 
difficulty exists with regard to the subsequent accounting for how 
allocated funds have been expended. The BLM remains unable at the 
present time to indicate how much money it is spending or where it is 
being spent to achieve salinity control benefits. For this reason, the 
Forum expressed in its testimony a strong desire to have the Congress 
direct the BLM to implement accounting practices to enable the Basin 
States to understand how much money this agency is allocating, and what 
results are being obtained, in carrying out its mandate for 
implementing a comprehensive program to minimize salt contributions 
from lands it administers.
    Thank you for your consideration of the State of Wyoming's views, 
and those of the Colorado River Basin Salinity Control Forum, as you 
carry out the important appropriation work of this Committee.
                                 ______
                                 

   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    Chairman Gorton and Members of the Subcommittee: The Metropolitan 
Water District of Southern California (MWD) appreciates the opportunity 
to submit testimony regarding the U.S. Department of the Interior's 
fiscal year 2001 budget, for the Hearing on Natural Resources, Energy 
and Other Programs. MWD supports the President's request of $39.011 
million for the Bureau of Land Management's (BLM) Soil, Water, and Air 
Management subactivity contained within the Land Resources activity of 
the Management of Land and Resources appropriation. BLM intends to use 
a portion of the funds for watershed and water quality restoration in 
selected priority watersheds with a specific focus on the Colorado 
River Basin and other areas. MWD requests that Congress allocate $5.2 
million of these funds for BLM's activities that control salt 
contributions from the lands it manages. MWD urges the Subcommittee to 
specifically mark $800,000 for the Colorado River salinity control 
program to focus BLM's efforts in this regard. MWD supports the 
President's request of $39.275 million for the Geological Survey's 
Water Data Collection/Management subactivity contained within the Water 
Resources Investigations activity of the Surveys, Investigations, and 
Research appropriation. MWD urges the continued funding of the Colorado 
River system component of the National Stream Quality Accounting 
Network (NASQAN) Program as proposed by the Geological Survey to the 
Colorado River Basin Salinity Control Advisory Council in October 1999. 
In addition MWD requests funding for recreation facilities at the 
Diamond Valley Lake, located in Riverside County, California. The 
amount requested in fiscal year 2001 is $14 million.

                              INTRODUCTION

    MWD is a public agency created in 1928 to meet supplemental water 
demands of those people living in what is now portions of a six-county 
region of southern California. Today, the region served by MWD includes 
more than 16 million people living on the coastal plain between Ventura 
and the international boundary with Mexico. It is an area larger than 
the State of Connecticut and, if it were a separate nation, would rank 
in the top ten economies of the world. Included in our region are more 
than 225 cities and unincorporated areas in the counties of Los 
Angeles, Orange, San Diego, Riverside, San Bernardino, and Ventura. We 
provide more than half the water consumed in our 5,200-square-mile 
service area. MWD's water supplies come from the Colorado River via the 
district's Colorado River Aqueduct and from northern California via the 
State Water Project's California Aqueduct. The Colorado River continues 
to meet more than one-half of these supplemental water needs, and MWD 
is vitally concerned that the quality of this irreplaceable water 
supply be maintained.
    The Colorado River is a significant component of the regional water 
supply and its relatively high salinity causes significant economic 
impacts on water customers in MWD's service area, as well as throughout 
the Lower Colorado River Basin. MWD and the Bureau of Reclamation 
completed a Salinity Management Study for Southern California in 1999. 
The first phase of the study concluded that the high salinity from the 
Colorado River causes significant impacts to residential, industrial 
and agricultural water users. Furthermore, high salinity adversely 
affects the region's progressive water recycling programs, and is 
contributing to an adverse salt buildup through infiltration into 
Southern California's irreplaceable groundwater basins.
    In April 1999, MWD's Board of Directors authorized implementation 
of a comprehensive Action Plan to carry out MWD's policy for management 
of salinity. The Action Plan focuses on reducing salinity 
concentrations in Southern California's water supplies through 
collaborative actions with pertinent agencies, recognizing that an 
effective solution requires a regional commitment. Based on a 1988 
study, Reclamation estimated that water users in the Lower Basin were 
experiencing in excess of $750 million in annual impacts from salinity 
levels in the river in 1995, and that impacts would progressively 
increase with continued agricultural and urban development upstream of 
California's points of diversion. As part of the Salinity Management 
Study, the economic impacts have been refined for MWD's service area 
and have been submitted to Reclamation for its use in updating its 
Lower Basin estimate. Droughts will cause spikes in salinity levels 
that will be highly disruptive to Southern California water management 
and commerce. The Colorado River salinity control program has proven to 
be a very cost-effective approach to help to mitigate the impacts of 
higher salinity. Continued federal funding of the program is essential.
    The Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin states' 
salinity control efforts, issued its 1999 Review, Water Quality 
Standards for Salinity, Colorado River System (1999 Review) in June 
1999. The 1999 Review found that additional salinity control was 
necessary beginning in 1994 to meet the numeric criteria in the water 
quality standards adopted by the seven Colorado River Basin states and 
approved by the U.S. Environmental Protection Agency, with normal water 
supply conditions. It is essential that implementation of BLM's 
salinity control program be accelerated to permit the numeric criteria 
to be met again under average annual long-term water supply conditions, 
making up the shortfall.

                       BUREAU OF LAND MANAGEMENT

    The 1984 amendments to the Colorado River Basin Salinity Control 
Act (Act), direct the Secretary of the Interior to develop a 
comprehensive program to minimize salt contributions to the Colorado 
River from federally owned lands administered by the BLM. The $5.2 
million level of funding which MWD recommends for BLM's continued 
participation in activities that control salt contributions from BLM 
managed lands is necessary to meet the salinity control activities 
schedule that seeks to maintain the water quality standards. The Forum 
supports this level of funding. Use of these funds would be for 
immediate implementation of salinity control measures through 
improvements in rangeland management. MWD urges the Subcommittee to 
specifically mark $800,000 for the Colorado River salinity control 
program to provide BLM direction as to its intent.
    Due to geological conditions, the land within the Colorado River 
Basin is composed largely of soils heavily laden with salts. Large 
portions of these lands are federally owned, and are managed by the BLM 
for a variety of uses: recreation; road building and transportation; 
oil, gas and mineral exploration and production; and most 
significantly, grazing. As a result, man has induced and accelerated 
the natural erosion processes. When such soils and rocks heavily laden 
with salt are eroded, much of the resulting silt is carried along in 
the Colorado River and its tributaries--sometimes for long distances. 
Ultimately, the silt settles in the streambed or on the flood plain. 
The salts, however, are dissolved in the water and remain in the 
stream, appearing in the water supplies of downstream users. The 
accumulative nature of these salts causes more severe water quality 
impacts the farther downstream each succeeding use occurs.
    The rangeland management programs of the BLM have demonstrated that 
they can bring about some of the most cost-effective salinity control 
actions available. In concert with reducing unnecessary salt addition 
to this important water supply source, these actions are ecosystem 
oriented as they are designed to prevent erosion, enhance wildlife 
habitats, and increase grazing opportunities. The BLM has studied 
hundreds of watersheds in the States of Colorado, Utah, and Wyoming as 
potential sites for implementation, and has selected several locations 
where promising control measures could be implemented within a very 
short timeframe. Such measures are projected to have an early 
beneficial impact on the salinity of Colorado River water received by 
downstream users.
    MWD believes it is essential that your Subcommittee support the 
allocation of the recommended funding of $5.2 million for the BLM's 
activities on Colorado River salinity control for fiscal year 2001. 
Your assistance and support to ensure continued funding of the Colorado 
River salinity control program now and in the future will continue the 
progress already achieved by this model of intergovernmental 
cooperation.

                           GEOLOGICAL SURVEY

    The Geological Survey's National Stream Quality Accounting Network 
(NASQAN) program monitors the water quality of large rivers in four of 
the nation's largest river basins-including the Colorado. Last October, 
the Geological Survey reported to the Colorado River Basin Salinity 
Control Advisory Council (Advisory Council), that it was proposing a 
modified Program beginning in fiscal year 2001 for the Colorado River 
NASQAN program. The objectives reported are to: provide an ongoing 
characterization of the concentrations and flux of sediment and 
selected chemicals, determine the contributions of subbasin source 
materials, and determine changes and trends in selected chemicals in 
the Colorado River system. In the Colorado River Basin, the Geological 
Survey has collected water samples at eight sites through the NASQAN 
program: the Colorado River near: (1) Cisco, (2) at Lees Ferry, (3) 
above Diamond Creek, (4) below Hoover Dam, (5) above Imperial Dam, and 
(6) at the Northerly International Boundary, and (7) the Green River at 
Green River, and (8) the San Juan River near Bluff. Samples collected 
have been analyzed for suspended sediment concentrations, and 
concentrations of dissolved and selected total nutrients, dissolved and 
suspended organic carbon, dissolved and suspended trace elements, and 
dissolved pesticides and major ions.
    MWD supports the continuation of the Colorado River NASQAN Program 
as proposed by the Geological Survey to the Advisory Council. MWD urges 
your Subcommittee to support the President's budget request of $39.275 
million for the Water Data Collection/Management subactivity contained 
within the Water Resources Investigations activity of the Surveys, 
Investigations, and Research appropriation. Continued gathering of 
specific conductivity data is necessary for determining the salt load 
of the Colorado River system. Continued monitoring and analysis of the 
salt load is needed to determine whether or not the numeric criteria 
contained in the EPA approved water quality standards for salinity will 
be exceeded. In addition, MWD requests that the NASQAN program include 
monitoring and analysis for gross alpha radioactivity and uranium at 
the eight sites on the Colorado River system. This is necessary to 
monitor the impact of the uranium mill tailings near Moab, Utah on the 
Colorado River.

                          DIAMOND VALLEY LAKE

    With the recent completion of Diamond Valley Lake as a major water 
storage facility for 16 million people, the public's requirement for 
recreational facilities will need local, state and federal support. At 
the present time, MWD is working with local communities to secure 
funding for $58 million to be allocated for purposes of constructing 
and maintaining a major trail system for pedestrian and unmotorized 
vehicles in the surrounding areas; along with a Western Center Museum 
for archaeological and paleontological discoveries. The proposed 
federal cost share recommended by MWD is $14 million for fiscal year 
2001.
                                 ______
                                 

  Prepared Statement of the Yukon River Drainage Fisheries Association


                                ABSTRACT

    The Yukon River Drainage Fisheries Association (YRDFA) requests a 
reauthorization of an appropriation to operate a public information and 
education campaign concerning the U.S./Canada Yukon River salmon treaty 
negotiations and the operations of the Yukon River Panel. YRDFA seeks a 
reauthorization of $100,000 in base level funding plus an additional 
$50,000. Funds would be transferred from the U.S. Fish & Wildlife 
Service to the YRDFA through a Cooperative Agreement entered into under 
the authority of the Fish and Wildlife Coordination Act [16 USC 661-667 
(e) (1970)].

                              INTRODUCTION

    Since 1985 the U.S. and Canada have engaged in annual negotiations 
to conclude a long-term treaty for the management of chinook and fall 
chum that spawn in Canada. During the 1990s there were informal 
agreements on harvest targets and spawning escapements and from 
February 1995 through March 1998, a formal Interim Agreement was in 
place between the two countries. During the 1990s, with the exception 
of the unforeseen salmon crash of 1998, spawning escapements were 
steadily being built back up to agreed-upon levels.
    While management cooperation between the two countries has had some 
success, there is a serious need to improve public information and 
education concerning U.S./Canada Yukon salmon issues to the 15,000 
rural residents living in the 42 different Yukon villages in Alaska. 
All of these villages are extremely isolated, accessible only by small 
plane or riverboat. There are no daily newspapers, limited and poor TV 
reception and only a few scattered public radio stations.
    It is these rural villagers who will be the most affected by an 
eventual treaty with Canada. Salmon, including Canadian-origin chinook 
and fall chum stocks, are the backbone of both their traditional 
subsistence fishery and their small commercial fishery. Decisions 
concerning Canadian-origin stocks have major impacts on how many salmon 
each family may harvest and how much fishing income a commercial 
fisherman might earn. These fishermen must not only be fully informed 
about the ongoing process but must be able to communicate with and 
provide feedback to the U.S. delegation negotiation team (a.k.a, the 
U.S. section of the Yukon River Panel and its Advisory Committee as 
well as agency personnel of the U.S. Fish & Wildlife Service, the U.S. 
Department of State and the Alaska Department of Fish & Game.
    Unless the residents and fishermen of the Yukon River understand 
the costs and benefits of the Panel process and a future proposed 
treaty with Canada, it will be very difficult for United States Panel 
members and negotiators to move forward on negotiations. Without 
adequate public information and participation mistrust will build 
between the rank-and-file and the people who represent them.
    a u.s./canada yukon river salmon information & education program
    In 1998 and in 1999, the U.S. Fish & Wildlife Service has, at the 
direction of the U.S. section of the Panel and the negotiation 
delegation, entered into cooperative agreements with YRDFA in the 
amounts of $10,000 and $25,000, respectively, to assist the agencies in 
educating the public about the ongoing negotiations with Canada. Funds 
were utilized to pay for an annual 4-day fishermen's meeting and for 
informational newsletters distributed to nearly 3,000 recipients. In 
the fiscal year 2000 budget Congress authorized a $100,000 
appropriation to YRDFA for the program. With this appropriation YRDFA 
sponsored a 4-day meeting in March 2000 and plans to organize 3 one-day 
meetings as well as publish 4 newsletters.
    For fiscal year 2001 the YRDFA would use the funds to expand its 
comprehensive public information & education program in consultation 
with the U.S. Fish & Wildlife Service and the Alaska Department of Fish 
& Game. Potential activities include:
    Bi-monthly newsletter and periodic mailings distributed to:
  --1,500 subsistence salmon fishing households
  --950 commercial salmon fishing permit holders
  --100 contacts in state and federal agencies
  --42 ANCSA village corporations
  --42 IRA/Traditional village councils
  --12 salmon processing/smoking operations
  --8 media outlets
  --15-minute radio programs distributed on Alaska Public Radio Network 
        Fishermen's meetings in selected villages in the lower, middle 
        and upper Yukon
    Through such a comprehensive effort the fishermen and women of the 
Yukon will be fully informed and involved in working with the Yukon 
River Panel and the various agencies in charting the future of the 
Yukon River.
    Anticipated annual expenditures of a fully funded Information & 
Education Program are as follows:

YRDFA staff support...........................................   $50,000
Fishermen's Meetings (travel & per diem)......................    60,000
Radio programs (contractual)..................................    16,000
Newsletters (production & distribution).......................    24,000

The Yukon River Drainage Fisheries Association (YRDFA)
    The Yukon River Drainage Fisheries Association was formed in 1990 
to unite lower river and upper river commercial and subsistence 
fishermen of the Yukon River and its tributaries within Alaska. As such 
it represents Yup'ik Eskimo, Athabaskan Indians and white homesteaders. 
It is governed by a 16-member Board of Directors with seats apportioned 
according to the six (6) commercial fishing management districts of the 
Yukon, the coastal villages, the Koyukuk River tributary and the Yukon 
Flats. A primary goal of the YRDFA is to seek consensus solutions to 
the various management, conservation and allocation issues on this vast 
and complex river system.
    The YRDFA hosts a 4-day Annual Meeting in a different village each 
year and publishes an occasional newsletter. The Association also 
sponsors ad hoc village meetings concerning local and subregional 
issues. It works on a regular basis with biologists of the Alaska 
Department of Fish & Game and the United States Fish & Wildlife Service 
to craft management plans that help to assure sustained yield of 
various stocks while meeting subsistence harvest needs and providing 
for commercial harvests. YRDFA then presents these consensus plans for 
formal regulatory approval by the Alaska State Board of Fisheries.
    The YRDFA is the only organization that works with and unites all 
the diverse fishermen on the river. It knows the best ways to 
communicate with and foster the participation of these fishermen.
    Thank you for this opportunity to submit written testimony.
                                 ______
                                 

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    This testimony is in support of funding for the Bureau of Land 
Management for activities that assist the Colorado River Basin Salinity 
Control Program. The Bureau of Land Management (BLM) budget, as 
proposed by the Administration, supports ecosystems and watershed 
management. The activities needed to control salts being contributed 
from the BLM lands are a part of ecosystem and watershed management. 
Because the budgeting process lumps all activities together, we can 
only presume that there are adequate dollars in the President's budget 
to move ahead with the water quality enhancement and protection 
programs needed in the Colorado River drainage to ensure that salts in 
excess amounts are not contributed to the river system. Our analysis 
indicates that the Bureau of Land Management needs to specifically 
target the expenditure of funds in the amount of $5,200,000 for 
activities that help control salt contributions from BLM managed lands 
in the Colorado River Basin in fiscal year 2001. The Forum simply 
supports the President's Budget because we presume, but cannot discern, 
that adequate funds will be expended on this needed water quality 
effort.
    Although the Forum has not been able to determine from limited 
budget documents how appropriated funds will be spent, we are much 
encouraged by recent efforts by the Bureau of Land Management. A 
salinity coordinator for the basinwide program has been selected. 
Salinity coordinators in each of the state offices have been 
identified. There has been a meeting to help coordinate a basinwide 
effort that involved the basinwide salinity coordinator and the state 
representatives. The Bureau of Land Management should move to identify 
salinity control goals under the Government Performances and Results 
Act (GPRA) and report to Congress each year its accomplishments. The 
Forum is receiving more meaningful reports from BLM representatives 
than previously. The success of the Bureau of Land Management in 
controlling erosion and, hence, salt contributions to the Colorado 
River and its tributaries is essential to the success of the Colorado 
River Basin Salinity Control Program and the adherence to water quality 
standards that have been adopted by the seven Colorado River Basin 
states and approved by the Environmental Protection Agency. The Forum 
submits this testimony in support of adequate funding so that the 
Bureau of Land Management programs can move ahead at a pace that is 
needed to meet these water quality standards.

                                OVERVIEW

    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through a minute of the International Boundary and Water 
Commission, to Mexico with respect to the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly legislated Clean Water Act. Initially, the Secretary of the 
Interior and the Bureau of Reclamation were given the lead federal role 
by the Congress. This testimony is in support of funding for a portion 
of the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while keeping 
the Secretary of the Interior as lead coordinator for Colorado River 
Basin salinity control efforts, also gave new salinity control 
responsibilities to the Department of Agriculture, and to a sister 
agency of the Bureau of Reclamation--the Bureau of Land Management. 
Congress has charged the Administration with implementing the most 
cost-effective program practicable (measured in dollars per ton of salt 
removed). The Basin states are strongly supportive of that concept, in 
addition to proceeding to implement their own salinity control efforts 
in the Colorado River Basin.
    Since the Congressional mandates of nearly two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. Reclamation recognizes that the damages to United States' water 
users alone may soon be approaching $1 billion per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of the program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every three years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities at or below 
the levels measured in the river system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations measured at Imperial, and below Parker, and 
Hoover Dams in 1972 have been identified as the numeric criteria. The 
plan necessary for controlling salinity has been captioned the ``plan 
of implementation.'' The 1999 Review of water quality standards 
includes an updated plan of implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed to plan. If 
adequate funds are not appropriated, state and federal agencies 
involved are in agreement that the numeric criteria will be exceeded 
and damage from the high salt levels in the water will be even more 
widespread in the United States.

                             JUSTIFICATION

    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the Bureau of Land Management is heavily laden with salt. Past 
management practices, which include the use of lands for recreation; 
for road building and transportation; and for oil, gas, and mineral 
exploration have led to man-induced and accelerated erosional 
processes. When soil and rocks heavily laden with salt erode, the silt 
is carried along for some distance and ultimately settles in the 
streambed or flood plain. The salts, however, are dissolved and remain 
in the river system causing water quality problems downstream.
    The Forum believes that the federal government has a major and 
important responsibility with respect to controlling pick-up of salt 
from public lands. Congress charged federal agencies, including the 
BLM, to proceed with measures to control the salinity of the Colorado 
River, with a strong mandate to seek out the most cost-effective 
options. It has been determined that BLM's rangeland improvement 
programs can lead to some of the most cost-effective salinity control 
measures available. These salinity control measures may be more cost-
effective than some now being considered for implementation by the 
Bureau of Reclamation and by the Department of Agriculture. They are 
very environmentally acceptable, as they will prevent erosion, increase 
grazing opportunities, increase dependable stream runoffs, and enhance 
wildlife habitats.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of federal and state agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the Congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the Bureau of Land Management's portion of the Colorado River 
salinity control program as set forth in the adopted plan of 
implementation.
    BLM has not had a history of adequately reporting its efforts, the 
associated expenditures and its accomplishments with respect to 
Colorado River salinity control. There is a bill that has passed the 
Senate and is now before the House which will require the BLM to report 
its program for salinity control to the Congress. The Forum supports 
this requirement.

             DETAILS CONCERNING THE REQUESTED APPROPRIATION

    After conferring with BLM officials, the Forum believes there needs 
to be spent in fiscal year 2000, by the Bureau of Land Management, 
$5,200,000 for salinity control. We are particularly concerned that the 
appropriation titled Management of Lands and Renewable Resources is 
adequately funded. The Forum also requests that a specific amount, 
$800,000, be marked for the Colorado River Basin Salinity Control 
Program as has been the direction from the Committee in the past.
    The Forum believes that although it is commendable for the 
administration to formulate a budget that focuses on ecosystems and 
watershed management, it is essential that funds be targeted on 
specific subactivities and the results of those expenditures be 
reported; this is necessary for accountability and for the 
effectiveness of the use of the funds. The Forum requests that the 
Committee require accounting, perhaps through GPRA, by the Bureau of 
Land Management in such a way that the results of their salinity 
control activities in connection with the expenditures of funds can be 
reviewed and measured.
                                 ______
                                 

     Prepared Statement of the Archie Carr National Wildlife Refuge

    Dear Subcommittee, The U.S. Fish and Wildlife Service (Department 
of Interior) is currently requesting $6 million for land acquisition in 
the Archie Carr National Wildlife Refuge (ACNWR) in the fiscal year 
2001 budget. I urge you to appropriate these badly needed funds in 
order to fulfill the 1989 U.S. Congressional mandate to establish and 
complete the refuge. The refuge is located in Brevard and Indian River 
Counties on the southeast coast of Florida. Thousands of people have 
worked for years to make the Archie Carr National Wildlife Refuge a 
reality. Without these funds lands within the refuge will continue to 
be sold and developed as private homes and commercial establishments. 
Once these beach front parcels within the refuge are developed it will 
make the overall management of the refuge increasingly difficult while 
also decreasing the quantity and quality of the beachfront sea turtle 
nesting habitat the refuge was designed to protect.
  --The importance of the Archie Carr Refuge can not be understated. 
        The ACNWR is this nations only refuge dedicated to the 
        protection of sea turtles. The coastal lands within the refuge 
        are home to the most important loggerhead sea turtle nesting 
        beaches in the western hemisphere and the most important 
        nesting beaches for green sea turtles in the continental United 
        States. Over 90 percent of all sea turtle nesting in the North 
        America occurs in Florida and the ACNWR encompasses the most 
        important nesting beaches in that state.
  --According to the USFWS's 1996 Status Review of Sea Turtles Listed 
        Under the Endangered Species Act, ``The major U.S. nesting area 
        for Loggerhead sea turtles is in eastern Florida, which may be 
        the second-most important worldwide nesting concentration. 
        Within this subregion, the greatest density of nesting activity 
        occurs in south Brevard County'' (the ACNWR).
  --Because of the highly migratory nature of these animals, the 
        protection of Florida's nesting beaches is internationally 
        significant. After hatching on Florida's beaches they travel 
        throughout the Caribbean, the Mediterranean, and the Atlantic 
        Ocean in search of food.
  --Sea turtles often take up to 30 years to reach their sexual 
        maturity. Then, after plying the world's oceans, they have a 
        remarkable ability and requirement to return to their natal 
        beaches they emerged from as hatchlings several decades 
        earlier. These giant turtles require undeveloped, unarmored, 
        quiet and dark beaches in order to nest successfully in 
        significant numbers.
  --There is substantial acreage within the refuge that still must be 
        purchased in order to be able to effectively and efficiently 
        manage the refuge and ensure protection of the nation's most 
        important sea turtle nesting beaches. The refuge is currently 
        only about 60 percent complete.
  --All unprotected lands in the refuge and buffering the refuge are in 
        imminent threat of development. Additionally, land values 
        continue to increase rapidly along the Florida coast. It is 
        only prudent to aggressively purchase lands as they become 
        available, if the refuge is to be completed. The refuge area is 
        currently dotted with ``For Sale'' signs.
  --State and local governments and private foundations have committed 
        more than their fair share of direct funds and staff support 
        for land acquisition surrounding and within the congressionally 
        dedicated refuge. This remarkable and unique partnership is a 
        testament to the state and local support for the refuge and the 
        need to protect the ecological integrity of this barrier island 
        ecosystem (see enclosed resolutions from Brevard and Indian 
        River Counties). The Federal Government has a commitment and a 
        responsibility to more aggressively support this partnership 
        effort. To date the Federal Government has contributed less 
        than 20 percent of the total amount that has been spent on 
        buying these critical beachfront and adjacent upland 
        properties.
    Because of the considerable funding provided by local and state 
government and private foundations, which now greatly exceeds dollars 
expended for land acquisition by the federal government, substantial 
amounts of land buffering the 4 core areas of the refuge have been 
purchased. Funding from non-federal sources has peaked and is now 
declining significantly. While this wonderful partnership has gone a 
long way to securing the lands surrounding the refuge, it is critical 
that the federal government recognize its full responsibility to 
continue the funding for and purchase of lands within the Archie Carr 
National Wildlife Refuge boundaries.
    For the last two years the U.S. Congress has not provided any 
additional funding for land acquisition in the Carr Refuge. The current 
$6 million budget request would go entirely to the purchase of critical 
beachfront habitat in the refuge. It is worth noting that by protecting 
these refuge lands for sea turtles and their nesting habitat we are 
also protecting the fragile coastline from increased potential for 
erosion that often results from coastal development, thereby ensuring 
that these beaches will also be available to the public.
    I hope you will work with your colleagues in the House and Senate 
to ensure at least $6 million in funding in fiscal year 2001 for land 
acquisition in the Archie Carr National Wildlife Refuge.
                                 ______
                                 

    Prepared Statement of the Coachella Valley Mountains Conservancy

    As Mayor of Palm Desert, California, and the City's representative 
on the Governing Board of the Coachella Valley Mountains Conservancy, I 
appreciate this opportunity to submit testimony in support of a $1 
million appropriation to the Bureau of Land Management for acquisitions 
in the Santa Rosa Mountains National Scenic Area.
    I have some great news to share with you. Then I'll get to the 
asking for money part. The great news is that the voters in California 
have passed a major park and open space bond measure, from which the 
Conservancy will receive $5 million for acquisition. In addition, we 
are optimistic that additional funds will be forthcoming for 
acquisition by the state through the Wildlife Conservation Board. And, 
to sweeten the pot a little more, my city has committed another $1.3 
million to acquire land at the toe of slope of the Santa Rosa 
Mountains.
    The mountains rise with breathtaking steepness from the floor of 
the Sonoran desert in southeastern California to an alpine environment 
atop San Jacinto Peak at 10,800 feet. The endangered peninsular bighorn 
sheep and four other endangered species inhabit these mountains. 
Cultural resources from Native American village sites to rock art and 
ceremonial sites abound. Palm oases dot the landscape and hidden 
waterfalls reward those who follow some of the more rugged trails. The 
Scenic Area is of great importance to the Coachella Valley's economy, 
and hundreds of thousands of people who come to the desert each year 
for vacation enjoy our mountains, and, in so doing, contribute to the 
local economy. For all these reasons, my colleagues and I at the city, 
the Conservancy, the BLM, the Friends of the Desert Mountains, the 
Building Industry Association, and the residents of the valley are 
strongly committed to protecting the Santa Rosa Mountains National 
Scenic Area for posterity.
    Since the National Scenic Area was designated in 1990, BLM, the 
state, the Coachella Valley cities, the County of Riverside, the Agua 
Caliente Band of Cahuilla Indians, and local non-profits have 
cooperated in an acquisition program that has protected more than 
17,000 acres. While prior to 1990 the state was doing the heavy lifting 
in land acquisition, since 1990 BLM has been the biggest contributor to 
the acquisition program, although collectively the local entities, the 
Conservancy, and the Tribe have come very close to matching BLMs 
efforts.
    Now, we're ready to shift gears. For several decades, we've been 
running a marathon to protect the mountains. We've been pretty 
successful, though not 100 percent so, at staying ahead of the threats 
to the mountains. With the passage of Proposition 12 in California, the 
listing of the peninsular bighorn sheep as endangered, the progress on 
completing the Coachella Valley Multiple Species Habitat Conservation 
Plan, Congresswoman Bono's bill to designate the Santa Rosa and San 
Jacinto Mountains as a National Monument, and the dramatic upswing in 
development pressure in the valley and the accompanying enhanced 
recognition that we are in a race against time to conserve this natural 
and national treasure, we are ready to start the race for the finish 
line. With more state funds available, and cities like Palm Desert, and 
the Agua Caliente Band stepping forward, this local, state, and federal 
partnership can kick into high gear for the next few years and win this 
race to protect the irreplaceable.
    The Coachella Valley will be experiencing very rapid growth in the 
next 5 to 10 years, and the pressures on the mountains will be 
escalating. We need to step up the pace of acquisitions, and we're in a 
position to do that with the highest level of local, state, and federal 
partnership yet. It's vital that the Federal Government remains a 
strong partner. That's why I urge you to support the $1 million 
appropriation to BLM for the Santa Rosa Mountains National Scenic Area, 
as proposed in the Presidents budget.
    Years from now, any one of our grandchildren or great 
grandchildren, or even their great grandchildren could be taking a hike 
in the Santa Rosa Mountains on a fine spring day, enjoying the palm 
oases, the wildflowers, a hidden waterfall, the dramatic views of 
snowcapped peaks, and the sheer solitude of these mountains, so close 
and yet so far from the hectic bustle of our everyday urban world. It 
won't really matter whether he or she knows that we did our job today 
and conserved lands like this for all time; it will matter 
tremendously, however, that she or he can be there and savor the beauty 
and tranquility of these mountains.
                                 ______
                                 

    Prepared Statement of the Valley Floor Habitat Conservation Plan

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior Appropriations Bill for fiscal year 2001.
    First, the Coalition supports the Department of Interior's budget 
request for the Cooperative Endangered Species Conservation Fund--
especially funding for HCP land acquisition.
    Second, the Coalition urges the Subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President.
    Third, the Coalition requests that the Appropriations Subcommittee 
earmark $1 million to the Kern County program to be used for purposes 
of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to 
implement the KCVFHCP, which is in the final stages of development and 
expected to be completed by the beginning of calendar 2001. In 1997 the 
U.S. Fish and Wildlife Service allocated $500,000 of federal Endangered 
Species Act Section 6 funds to assist in program implementation. The 
California State Government has authorized $1 million to augment the 
federal funds. In order to secure the $6 million total necessary for 
full implementation of the plan, we will require $2.25 million for 
fiscal year 2001 and $2.25 million for fiscal year 2002.
    The Coalition requests that the Subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and urgency support this request.
    Kern County's program is unique from other regions in the nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 13 wildlife 
species and 14 plant species listed as threatened or endangered under 
federal law. The potential for conflict with the federal ESA is great 
in Kern County because of the extensive agricultural and oil and gas 
production activities that occur. Since Kern County is the top oil 
producing county in the nation and one of the leading agricultural 
counties, potential conflicts with the ESA and their resolution through 
a proactive conservation program has significant national importance.
    In recognition of the conflicts posed to economic growth by federal 
and state endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the U.S. Fish and Wildlife Service, 
Bureau of Land Management, California Energy Commission, California 
Division of Oil and Gas and Geothermal Resources, California Department 
of Fish and Game and Kern County. The participating agencies agreed to 
develop a unified conservation strategy with the goal of providing a 
streamlined and consistent process of complying with State and federal 
endangered species laws, yet at the same time allow important industry 
activities such as oil and gas, agricultural, ranching, water 
conveyance and other industry activities to continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
Federal, state and local government agencies, as well as the oil and 
gas industry, agricultural, utilities and environmental groups.
    Kem County's Valley Floor Habitat Conservation Plan (KCVFHCP) is 
one of the largest and most diverse endangered species conservation 
programs under development in the nation encompassing over 3,110 square 
miles. The program represents a departure from traditional endangered 
species conservation programs which utilize prohibitory controls to 
assure conservation of species habitat. Instead, it is based on an 
incentive-based system of selling or trading habitat credits in an open 
market. This innovative approach, for the first time, provides 
landowners with real incentives and more importantly, the ability to 
choose how best to manage their own private property. The KCVFHCP is in 
the final stages of development and is scheduled to be completed in 
2001. The HCP document and an Environmental Impact Statement will 
shortly be released, and the Implementing Agreement with the wildlife 
agencies is being developed.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas and 
agricultural industries have contributed funding, time and other 
resources toward developing the KCVFHCP. The KCVFHCP program will be 
completed in early 2001, provided there is the necessary federal 
funding for the acquisition of habitat to mitigate for agricultural and 
oil and gas operations and development. Additional funding is critical 
to completing the HCP. This is one of the final steps necessary to 
implement the conservation strategy. Because of the extensive private, 
local and state government financial support that went into the 
development of this program, federal participation in program 
implementation will demonstrate that the burden of ESA compliance is 
not being placed exclusively on private property owners. Program 
funding will also contribute to eventual species recovery.

                         PROGRAM FUNDING NEEDS

    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $4.5 million (augments the $1.5 million in 
state and federal funding received in 1997) that could be funded in 
increments over the first several years of the program. A breakdown of 
the purpose and amount of this funding is as follows:
Long Term Fallow Land Issue
    Agricultural practices and the variable availability of water have 
resulted in situations where substantial amounts of cultivated farm 
land are placed in a fallow state. If the fallow state persists for 
several years, endangered species can re-colonize some of these lands 
(currently estimated at 5,000-10,000 acres) and create potential ESA 
compliance problems when the land is returned to agricultural 
production. Many farmers are forced to unnecessarily disc fallow lands 
to prevent endangered species re-colonization.
    The KCVFHCP has devised a strategy that includes the purchase and 
set aside of approximately 3,000 acres of endangered species habitat to 
mitigate for species loss resulting from reuse of long-term fallow 
agricultural lands. The program strategy allocates $3.0 million for 
acquisition and perpetual maintenance of species reserve areas. With 
this strategy, farmers would no longer have to be concerned about ESA 
violations when fallow land is reused. Furthermore, the regulatory 
incentive to disc fallow lands would be substantially reduced, and 
foster efforts to increase the temporary endangered species habitat 
benefits of long-term fallow lands.

Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3.0 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area,
    Together the $6.0 million required for the agriculture and oil 
field strategies would provide a method to satisfy the programs' 
endangered species conservation goals, while also providing for 
continued economic growth of Kern County's oil and agricultural 
industries. Protected species would benefit from a comprehensive long-
term program that creates permanent habitat pressures.
    Numerous industries, in concert with the State of California and 
local government entities, are attempting to do their part, and we come 
to the appropriations process to request assistance in obtaining a fair 
federal share of financial support for this important effort. This 
unique cooperative partnership involving state and local government, as 
well as private industry, has contributed substantial funds to date, to 
assist in the development of this program.
    The California Industry and Government Coalition appreciates the 
Subcommittee's consideration of this request for a fiscal year 2001 
appropriation to support implementation of this significant program.
                                 ______
                                 

    Prepared Statement of the National Association of Conservation 
                               Districts

    The National Association of Conservation Districts is the 
nonprofit, nongovernment organization that represents the nation's 
3,000 conservation districts and more than 16,000 men and women who 
serve on their governing boards. Established under state law, 
conservation districts are local units of state government charged with 
carrying out programs for the protection and management of natural 
resources at the local level. Conservation districts work with nearly 
two-and-half million cooperating landowners and operators each year and 
provide assistance in managing and protecting nearly 70 percent of the 
private land in the contiguous United States.

                             FOREST SERVICE

    Conservation districts are key partners with both the Forest 
Service and state foresters in carrying out programs to promote the 
health and productivity of the nation's private forestlands--both urban 
and rural--and related economies. With the nation's growing dependence 
on goods and services derived from these lands, the role of private 
forestlands, both nonindustrial and commercial, is becoming 
increasingly important.
    State, local and tribal governments, and private individuals and 
organizations, own nearly two-thirds of forestland in the U.S. These 
nonfederal lands are managed by millions of individual owners with 
diverse goals and objectives. Thus, it is important that the Forest 
Service, through its cooperative programs, provide for a coordinated 
approach in maintaining the health of our nation's forests so that they 
continue to produce the many values desired by the American people.
    Recent comprehensive reports indicate that critical trends are 
emerging on this vast landscape, which, taken together, raise important 
concerns for the nation. We believe there are crucial national 
interests at stake. The State and Private Forestry programs of the 
Forest Service are designed to address these issues by providing 
technical and financial assistance to promote voluntary stewardship and 
use of state and private forestlands. Although conservation districts' 
funding recommendations propose modest increases for these programs, 
even these levels are not nearly adequate to meet the challenges facing 
the nation.
    To provide needed surveys and technical assistance for insect and 
disease suppression programs on both federal and cooperative land, 
conservation districts recommend funding Cooperative Lands Forest 
Health Management at $28.0 million for fiscal year 2001. This level is 
necessary to provide adequate cost-share and technical assistance 
needed by forestland owners in all phases of forest health.
    Rural fire protection is a critical component of our present forest 
management program. As our population continues to expand into rural 
America, the urban/rural interface continues to grow in terms of fire 
danger. While states and their political subdivisions have primary 
responsibility for basic fire protection, the Cooperative Lands Fire 
Management Program ensures sharing fire protection for cost-effective 
operations. To assist states in protecting nonfederal wild lands and 
rural areas from wildfire, we recommend funding this program at $40.0 
million for fiscal year 2001. This level of funding is the minimum 
amount needed to train and equip rural volunteer fire departments to 
help fight the increasing number of wildfires on private lands.
    The programs and partnerships of Cooperative Forestry provide a 
vital link between federal resource management expertise and private 
land managers' needs for technical and financial assistance to properly 
manage and protect private forestlands. Bringing together both 
traditional and nontraditional interests from the public and private 
sectors, the Forest Stewardship Program seeks to enable the nearly 10 
million nonindustrial private forestland (NIPF) owners--who own 44 
percent of the nation's forestland--better manage and use their forest 
resources. Every state in the nation has a State Stewardship Committee 
that includes representatives from the fish and wildlife, conservation 
and recreation communities. Every state has also developed and is 
implementing a comprehensive management program that, in the long run, 
will ensure that millions of acres of nonindustrial, private 
forestlands are managed under stewardship plans. The Forest Stewardship 
Program, cost-shared with the states, provides high quality technical 
and stewardship planning assistance. The resulting plans enable 
landowners to manage their lands for multiple uses, while maintaining a 
robust forest ecosystem. The number of landowners requesting assistance 
constantly outstrips the ability to provide assistance. We recommend an 
increase of funding to $50.0 million for fiscal year 2001.
    The Stewardship Incentives Program (SIP) is a companion to the 
Forest Stewardship Program and provides cost-share assistance to help 
private landowners implement multi-resource management practices. SIP's 
intent is to help landowners establish resource management practices 
that are not covered by other incentive programs. In fiscal year 1998, 
these practices were implemented on nearly 200,000 acres of forestland. 
SIP was not funded in fiscal years 1999 and 2000. To provide needed 
assistance to forestland owners, conservation districts recommend this 
program be restored in fiscal year 2001 and funded at $25 million.
    Urban and community forestry programs have become increasingly 
important as American population demographics have shifted. Trees and 
forests provide many important benefits and are a vital component of 
healthy urban and suburban ecosystems. In the summer, trees help cool 
the urban ``heat island,'' resulting in tremendous energy and cost 
savings--some sources estimate up to $2 billion each year. Trees also 
help reduce air pollution, retard polluted runoff and provide 
psychological benefits for residents. The Urban and Community Forestry 
Program provides the leadership, in cooperation with states, for 
improving and expanding urban forest ecosystems in the nation's 45,000 
towns and cities where 80 percent of our population resides.
    The program also provides leadership for state of the art 
technology and grants to urban areas to improve their quality of life 
through tree planting, maintenance and urban tree protection actions. 
More than 8,000 communities and 7,000 volunteer organizations 
participate in the program with requests for assistance exceeding 
program capacity by a factor of eight. Conservation districts recommend 
funding for Urban and Community Forestry at $50.0 million for fiscal 
year 2001.
    The Forestry Legacy Program is intended to conserve environmentally 
important forests under threat of conversion to nonforest uses. From 
1978 to 1994, private forestland tracts of 10 acres or less increased 
from 11 million to 16.6 million acres. A well funded Forest Legacy 
Program, through which landowners sell development rights while 
retaining other rights in private ownership, can help prevent the 
fragmentation of our forestlands. It operates on a willing seller-
willing buyer concept. Conservation districts support the Forest Legacy 
Program at a funding level of $50.0 million for fiscal year 2001.
    Economic Action Programs, begun in 1992, benefit the 72 percent of 
all counties in the nation that are rural. Of those, 70 percent are 
highly dependent on natural-resource-based earnings that are often 
directly associated with public lands activities. This collection of 
targeted programs--Economic Recovery, Rural Development and Forest 
Product Conservation and Recycling--develop the business and community 
knowledge necessary to sustain a locally driven natural-resource-based 
economy. Conservation districts believe it is entirely appropriate for 
the Federal Government to catalyze local problem-solving actions and 
recommend $25 million for Economic Action Programs for fiscal year 
2001.
    Conservation districts recognize that if the forestlands held in 
private ownership, which presently produce 80 percent of our timber 
supplies, are going to remain healthy and productive, we must be 
willing to invest for long-term gains. Upward-bound population demands 
reinforce the critical role Cooperative Forestry plays, not only in 
rural America, but also for all our communities.

                     U.S. FISH AND WILDLIFE SERVICE

    The Partners for Fish and Wildlife Program offers technical and 
financial assistance to private landowners to voluntarily restore 
wetlands and other fish and wildlife habitats on their land. The 
program emphasizes the reestablishment of native vegetation and 
ecological communities for the benefit of fish and wildlife while 
meeting the needs and desires of private landowners.
    Since 1987, The U.S. Fish and Wildlife Service's Partners for Fish 
and Wildlife Program (PFWP) has worked with more than 21,557 landowners 
to restore 464,816 acres of wetlands, 447,953 acres of native prairie, 
grassland, and other upland habitats 2,769 miles of riparian and in-
stream aquatic habitat. In fiscal year 1999, PFWP engaged nearly 2,300 
private landowners to help restore fish and wildlife habitats on more 
than 4,056 distinct sites, including 55,646 acres of wetlands, 106,222 
acres of native prairie and grassland, 739 miles of riparian and in-
stream aquatic habitat. 8,571 acres of other trust species habitats.
    No other Interior Department program is more effective in bringing 
together private landowners, conservation districts, and the Federal 
Government to address environmental issues. More than 2,000 landowners 
are on waiting lists for assistance under the Partners for Fish and 
Wildlife Program. Conservation districts recommend raising the funding 
level for Partners for Fish and Wildlife to $32 million in fiscal year 
2001 to meet the needs of landowners and fish and wildlife on 
nonfederal lands.
    The National Wildlife Refuge Fund was created to fully fund 
``payments in lieu of taxes'' (PILT). These payments were designed to 
offset revenue lost by localities when refuge acquisition results in 
land being removed from tax rolls. A funding level of $20 million is 
needed to fund agreed-to levels of PILT.

                         BUREAU OF RECLAMATION

    The U.S. Bureau of Reclamation (Reclamation) is the lead federal 
agency for supplying water to agricultural producers in the seventeen 
Western states. Reclamation initiated a Water Conservation Field 
Services Program (WCFSP) in 1997 to encourage the efficient use of 
water on federal projects, assist water districts develop and implement 
effective water conservation plans, and complement and support other 
federal, state, and local conservation program efforts. Working through 
local irrigation districts, Reclamation's WCFSP is designed to provide 
technical and financial assistance in conservation planning, 
conservation education, demonstration of innovative conservation 
technologies, and implementation of effective conservation measures. In 
concept, Reclamation's WCFSP, and the assistance opportunities it 
provides to Western water districts and others, is, in many ways, 
modeled after the on-farm success of incentive-based conservation 
programs pioneered by local conservation districts, and their federal 
technical partner, the Natural Resources Conservation Service (NRCS).
    In 1998, Reclamation, NACD, the National Association of State 
Conservation Agencies and the Natural Resources Conservation Service 
initiated a ``Bridging-the-Headgate'' conservation partnership to 
promote collaboration through the WCFSP, and create new opportunities 
for working together between traditional ``on-farm'' and ``off-farm'' 
conservation assistance programs throughout the seventeen Western 
states. The initiative's purpose, in short, is to find ways to work 
together on the common goal of efficient water management. To support 
this initiative, conservation districts recommend funding the WCFSP at 
$16.282 million in fiscal year 2001.

                       BUREAU OF LAND MANAGEMENT

    Last year, at the urging of NACD and others, the Interior and 
Related Agencies Appropriations Act expanded the use of the Forest 
Ecosystem Health and Recovery Fund (FEHRF) within the Bureau of Land 
Management (BLM) to include forestry activities such as forest release 
from competing vegetation, density control treatments and forest health 
monitoring. This, combined with increased funding for prescribed 
burning, has tremendous potential for maintaining and enhancing fish 
and wildlife habitat, supporting species diversity, and producing other 
multiple forest benefits.
    In spite of the availability of funding under FEHRF for projects, 
BLM lacks the personnel necessary to plan and administer projects 
authorized under last year's congressional action. Conservation 
districts have witnessed a steady 65 percent decline in the BLM 
forestry management budget since 1981. Adjusted for inflation over the 
same period, the entire Management of Lands and Resources Budget has 
declined 10 percent. Conservation districts believe that BLM needs to 
increase its forest management expertise to take advantage of FEHRF and 
refocus its efforts on forest restoration. Conservation districts 
recommend earmarking $1.6 million to support the equivalent of 24 
forestry positions to plan and administer forest health improvement 
activities under FEHRF.

                         OTHER RELATED AGENCIES

    In 1977, Congress enacted the Surface Mining Control and 
Reclamation Act (SMCRA) to regulate the mining industry and to address 
the problem of abandoned mine sites--those sites mined before 1977. At 
the time of its enactment, there were more than one million acres of 
abandoned sites. In addition to prohibiting companies from abandoning 
mined sites, SMCRA also required coal companies to reclaim the lands 
after mining. SMCRA also requires that all active mining operations pay 
a tax on each ton of coal they produce; at a rate of 35 cents per ton 
for surface mined coal and 15 cents per ton for deep mined coal. The 
funds collected from this coal production tax goes into the Abandoned 
Mine Reclamation Fund and are intended to be used to finance the 
reclamation of abandoned coal mine sites.
    The Rural Abandoned Mine Program (RAMP), administered by the USDA 
Natural Resources Conservation Service (NRCS), addresses health, safety 
and environmental hazards created by abandoned mine lands. These 
hazards, which include dangerous highwalls, contaminated water, severe 
erosion and sedimentation, dangerous mine openings and abandoned 
structures, are problems in many areas with abandoned mine lands. Over 
the past 20 years, only about 40 percent of these lands have been 
reclaimed.
    RAMP has a proven track record in cleaning up hazards and pollution 
from abandoned mine lands. It also improves rural economies by 
stimulating job creation. A portion of the funds from the Abandoned 
Mine Reclamation Fund (AMRF) are to be transferred to NRCS to help 
defray the costs associated with mined land reclamation activities. 
Although the portion of the AMRF targeted for RAMP stands at $250 
million, no funds have been transferred in the past 4 years.
    Conservation districts strongly support appropriating fully 100 
percent of the fees collected from current mining activities for mine 
land reclamation programs. We recommend funding RAMP at a minimum level 
of $25 million in fiscal 2001.
    Additional detailed recommendations are found in the attached 
chart.
    I appreciate the opportunity to share our funding recommendations 
for the natural resource programs of the Department of the Interior and 
related agencies.

  FISCAL YEAR 2001 RECOMMENDED APPROPRIATIONS FOR SELECTED NATURAL RESOURCES PROGRAMS ADMINISTERED BY THE U.S.
                                 DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal Year 2000         Fiscal Year 2001
                                                               -------------------------------------------------
                                                                 Admin.     NACD     Enacted   Admin.     NACD
----------------------------------------------------------------------------------------------------------------
U.S. Department of Agriculture Forest Service:
    State and Private Forestry:
        Cooperative Lands Forest Health Management............    21.400    28.000    21.850    21.118    28.000
        Cooperative Lands Fire Management.....................  ........    40.000    28.010    32.504    40.000
        Forest Stewardship....................................    28.830    43.000    29.430    29.407    50.000
        Urban & Community Forestry............................    39.540    43.000    31.300    39.471    50.000
        Stewardship Incentives Program........................    15.000    20.000  ........     3.250    25.000
        Watershed Initiative..................................  ........  ........  ........  ........    20.000
        Smart Growth Loans....................................    10.000    10.000  ........     6.000    10.000
        Economic Action Programs..............................    16.305    25.000    20.119    17.267    25.000
        Forest Legacy.........................................    50.012    50.012    30.000    59.768    50.000
    National Forest System:
        Wildlife & Fisheries Habitat Manage-  ment............   123.800   124.000   100.376   135.542   135.542
        Rangeland Management..................................    65.000    65.000    57.050    72.494    72.494
        Soil, Water & Air Management..........................    67.000    67.000    56.097    69.371    69.371
U.S. Department of the Interior Fish and Wildlife Service:
    Partners for Fish and Wildlife............................    21.017    29.770    27.157    31.838    31.838
    National Wildlife Refuge Fund.............................    18.776    11.100    19.311    18.798    20.000
    Coastal Program...........................................     8.811     8.811     8.771     8.665     9.000
    National Fish & Wildlife Foundation.......................     7.000     7.210     6.724     6.724     7.210
    North American Wetlands Conservation Fund.................    15.000    15.450    15.943    31.000    31.000
U.S. Department of the Interior Bureau of Reclamation: Water      14.086    15.000     9.600    16.282    16.282
 Conservation Field Services..................................
U.S. Department of the Interior Bureau of Land Management:
    Soil, Water and Air.......................................    32.000    32.000    33.256  ........    35.256
    Range Management..........................................    67.000    67.000    66.667  ........    68.000
    Range Improvements........................................    10.000    10.300    10.000  ........    10.300
    Wildlife & Fisheries Habitat..............................    35.000    35.000    36.538  ........    37.000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
              Prepared Statement of Trout Unlimited, Inc.

    On behalf of over 117,000 TU members, we appreciate the efforts of 
this Subcommittee to fund many federal programs that protect and 
restore trout and salmon resources. As we look to the fiscal year 2001 
Interior bill, we encourage you to support the following programs, many 
of which leverage non-federal funding. Trout Unlimited believes these 
programs represent sound investments in the health of aquatic 
resources. We also ask for your help in stopping harmful riders that 
undercut the very gains in resource conservation that are achieved by 
programs funded in your bill.

                     U.S. FISH AND WILDLIFE SERVICE

Whirling Disease Research.--$2 million
    TU strongly urges the Subcommittee to restore the $1 million cut 
proposed by the Administration for whirling disease research. Over the 
past three years, Congress has provided the FWS $2 million per year for 
whirling disease research and other fish health work. Whirling disease 
remains among the greatest threats to the health of wild trout 
fisheries in the U.S. TU particularly supports the National Partnership 
(the primary target of the Administration's proposed cut), which has 
awarded more than $920,000 in competitive grants to support research 
and leveraged over $880,000 in matching funds.

Partners for Fish and Wildlife.--$33 million
    Stewardship on private land--people restoring and protecting 
streams, wetlands, prairies, and wildlife habitat--is the best long-
term solution for many conservation problems. The Partners for Fish and 
Wildlife Program provides financial and technical assistance for those 
voluntary efforts. This is a very popular and cost effective program. 
Last year it was unable to meet all the requests for assistance made, 
despite 40 percent of costs coming from non-FWS sources.
Coastal Program.--$8.7 million

Anadromous fish management program.--$8.7 million
    Trout Unlimited supports these two programs which directly aid 
Atlantic salmon restoration.

National Fish and Wildlife Foundation (NFWF).--$8 million
    Trout Unlimited requests an $8 million allocation for the 
Foundation's work with the FWS. We have worked closely with the 
Foundation on a variety of projects around the nation that have been 
beneficial to aquatic resources. The Foundation's hallmark is its 
leveraging of other funding sources and its effective use of 
partnerships to accomplish conservation objectives. A good example is 
the funding it provides in Maine aimed at improving riparian habitats 
on key Atlantic salmon restoration rivers. This type of work is 
essential for restoring Atlantic salmon.

                         NATIONAL PARK SERVICE

Rivers, Trails and Conservation Assistance Program.--$12 million
    Building on the base increase last year, Trout Unlimited strongly 
supports additional funding for this invaluable community-led NPS 
program. We encourage you to view $12 million of funding for RTCA as 
worthy investment in communities. RTCA's staff excels at increasing 
local investment, securing foundation grants and garnering business 
support for community projects. This program is a model for how the 
Federal Government can successfully cooperate with communities. This 
small, effective program yields big benefits to communities nationwide, 
provides them with essential technical assistance and protects valuable 
fish habitat.

Elwha River Restoration.--$31 million
    We urge you to including funding for the Elwha River Ecosystem 
Restoration at the $31 million level in the President's budget request. 
This funding will pay for the removal of the Elwha Dam on Washington's 
Olympic Peninsula. Adequate funding is critical to continued 
implementation of the 1992 Elwha Act, and to honor the treaty rights 
guaranteed to the Elwha Klallam people and 3 other Indian tribes. 
Restoration of the Elwha River may be the single greatest immediate 
opportunity for successful salmon restoration anywhere in the Pacific 
Northwest.

                          U.S. FOREST SERVICE

Fisheries Management Programs
Inland Fisheries.--$28 million

Anadromous Fisheries.--$30 million
    Trout Unlimited is grateful for your past support of the Forest 
Service fisheries programs, as more than half of the nation's trout and 
salmon habitat lies within Forest Service land boundaries. This program 
includes the Inland Fisheries Management Program, which protects and 
restores fish habitat of inland species such as trout, bass, and 
walleye; and the Anadromous Fisheries Management Program, which 
protects and restores fish habitat primarily for Pacific and Atlantic 
salmon.

Road Decommissioning.--$18 million
    TU recommends $18 million in fiscal year 2001 for road 
decommissioning and obliteration, as poorly maintained forest roads 
contribute to erosion and degradation of otherwise valuable wild fish 
habitat.

                       BUREAU OF LAND MANAGEMENT

Fisheries and Riparian Management Program.--$38 million
    Trout Unlimited supports the Administration's requests for funding 
the BLM fisheries program at $14 million and the Riparian program at 
$24 million. BLM manages some of the most valuable trout and salmon 
habitats in the west, but also faces some major riparian restoration 
challenges. Lack of fisheries biologists and other resource 
professional is a major problem for the BLM as it tries to protect and 
restore aquatic habitat. The modest increases requested by the 
Administration will help to keep BLM moving forward on conserving its 
aquatic resources.

Land and Water Conservation Fund.--$900 million
    Trout Unlimited strongly supports full, permanent funding for the 
LWCF. Encroaching development, jeopardizing water quality, open space 
and critical habitat for threatened and endangered species threaten 
environmentally sensitive lands across the country. Fully funding the 
LWCF will help preserve these lands. As part LWCF funding, we request 
$500,000 to purchase 177 acres on Whittlesey Creek, Wisconsin and 
funding to acquire Silsey Creek, Michigan on Lake Superior, which 
support coaster brook trout.

                        U.S. GEOLOGICAL SERVICE

Streamgage Monitoring Program.--$25 million increase
    The USGS is the nation's premier source of information about the 
life's blood of rivers, water. The streamgage-monitoring program 
provides absolutely critical information needed to help reduce the $3 
billion per year losses from flooding. But it also provides absolutely 
critical information needed to assess and restore the health of rivers. 
Providing more and better streamgaging data is a cost-effective way to 
reduce flood loss and provides added conservation benefits--a win-win 
for appropriations. Yet the streamgaging network has been greatly 
reduced in the last decade. We believe the Administration's request 
does not begin to address the need. Therefore we request an increase of 
$25 million.

Columbia River Aquatic Resource Program.--$4 million increase
    Trout Unlimited supports the Administration's request for a $4 
million increase for the Biological Resources Division's program on 
Columbia River Aquatic Resources.

Biological Research & Monitoring.--$1 million increase
    Trout Unlimited requests this increase to develop immunologic 
detection systems for infectious salmon anemia (Atlantic salmon) and 
diagnostic tools to address whirling disease.

Community Federal Information Partnership.--$30 million
    Trout Unlimited supports the Administration's request for a 
substantial investment in cross-cutting agency research programs that 
enable communities to make informed decisions by using the most 
accurate biological, hydrological, and geologic data about their 
natural resources. We are especially interested in the $2 million 
increase in funding to increase Water Information Delivery through 
watershed based mapping and the request for an increase of $4 million 
to expand of Gap Analysis Program to include invertebrates and fresh 
water aquatic environments.

                        OFFICE OF SURFACE MINING

Appalachian Clean Streams Initiative.--$12 million
    Trout Unlimited requests a funding level of $12 million for this 
restoration program under the Office of Surface Mining. Acid runoff and 
drainage from abandoned coal mines have destroyed over 7500 miles of 
streams, primarily in Appalachia. ACSI targets streams that need 
immediate clean up where there is active local support for restoration 
projects. A watershed-based partnership program, ACSI gives grassroots 
organizations, federal and state agencies, and local residents' full 
participation in the restoration process.

                               HYDROPOWER

Fish and Wildlife Service.--$11 million
National Park Service.--$2.0 million
Bureau of Land Management.--$2 million increase
Bureau of Indian Affairs.--$3 million

    A large number of FERC licensed hydropower projects are in the 
process of being relicensed, with more on their way. Relicensing is a 
once-in-a-lifetime opportunity to balance the energy needs of the 
country, the economic desires of private hydropower project owners, and 
the conservation of river resources. In order for the relicensing 
process to work efficiently and fairly, and to achieve the best 
results, the resource agencies participating in relicensing must have 
the financial resources to do their job. The NPS does a particularly 
good job in helping Trout Unlimited chapters across the country 
participate in watershed protection projects, on rivers scheduled for 
hydropower relicensing. These projects rehabilitate stream flows 
artificially controlled by hydropower dams by returning natural flows 
to otherwise pristine rivers, allowing for natural spawning of wild 
fish like Atlantic salmon and shad. The demand for assistance from the 
Park Service for these projects has increased substantially, and we 
request additional funding.
    Trout Unlimited is a national fisheries group dedicated to the 
conservation, protection and restoration of our nation's trout and 
salmon resources, and the watersheds that sustain those resources. We 
appreciate your support of these programs in the past and urge you to 
increase funding so these programs can work to their full potential to 
restore and protect fisheries resources across the United States. Thank 
you for the opportunity to present our recommendations to the 
subcommittee.
                                 ______
                                 
            Prepared Statement of the Ornithological Council

    The Ornithological Council submits the following written testimony 
regarding the fiscal year 2001 funding for the following agencies: U.S. 
Geological Survey, U.S. Fish and Wildlife Service, and USDA Forest 
Service. The Ornithological Council consists of ten leading scientific 
ornithological societies--the American Ornithologists' Union, 
Association of Field Ornithologists, Secc'on Mexicana Consejo 
Internac'onal para la Preservacion de las Aves (CIPAMEX), Cooper 
Ornithological Society, Pacific Seabird Group, Raptor Research 
Foundation, Society of Canadian Ornithologists, Society of Caribbean 
Ornithology, Waterbird Society, and Wilson Ornithological Society--that 
together have a membership of nearly 6,500 ornithologists. It is our 
mission to provide scientific information about birds to legislators, 
regulatory agencies, industry decision makers, conservation 
organizations and others, and to promote the use of that scientific 
information in the making of policies that affect birds and the science 
of ornithology.
    We appreciate the opportunity to submit this written testimony to 
the Senate Appropriations Subcommittee on Interior and Related 
Agencies.
    The Ornithological Council supports the administration's request 
for the U.S. Geological Survey of $895.4 million, including the 
requested of $82 million, and in particular, the requested 13.6 percent 
increase for the Biological Resources Division (BRD). Particular 
programs that we feel are especially worthy of additional support in at 
least the requested amount are:
  --DOI Science Support--$13 million
  --Place-based Studies--$1.3 million
  --Community/Federal Information Partnership--$30 million, including 
        $8 million to BRD for expansion of the Gap Analysis Program, 
        the National Biological Information Infrastructure, and 
        cooperative programs with state agencies and local communities
  --BRD--$700,000 to achieve full staffing for the Cooperative Research 
        Units Other Department of the Interior requests that are 
        particularly well-justified are:
  --U.S. Fish and Wildlife Service Office of Migratory Bird 
        Management--$1 million for migratory bird management and 
        conservation
  --U.S. Fish and Wildlife Service Office of International Affairs--
        $1.3 million for neotropical migratory bird management and 
        conservation We also support the Department of Agriculture's 
        request for the Forest Service, and particularly:
  --USDA Forest Service Forest and Rangeland Research Program--$13.314 
        million In addition, we recommend allocations above the 
        administration's request as follows:
  --USGS BRD--$15 million/year for three years, to be allocated to the 
        Science Centers
  --USFWS--$10 million for migratory bird management
  --USDA Forest Service--$7 million for additional full time employees 
        and research funding

                          FUNDING FOR THE USGS

New funding for the DOI Science Support and Place-based Studies 
        programs

    USGS has developed two multidisciplinary programs that are designed 
to meet the research needs of the DOI land and resource management 
agencies--Place-based Studies, for which an additional $3.8 million is 
requested and the DOI Science Priorities Program, for which an 
additional $9.5 million is requested. The Place-based Studies program 
is particularly worthwhile, as it helps to correct unforeseen problems 
that occurred when the research biologists were removed from the 
agencies to form what was then known as the National Biological Survey. 
Land managers, some with little or no scientific training, have 
difficulty identifying research priorities and interpreting scientific 
data made available to them by BRD researchers. Place-based Studies not 
only puts biologists back into this critical role, but also brings 
hydrologists, mappers, and geologists to these same public lands, 
where, as a team, they help managers identify the research needs of a 
public land unit and develop an appropriate research program. At 
present, the areas under study are the San Francisco Bay/Delta, South 
Florida, the Chesapeake Bay, the Platte River, the Greater Yellowstone 
area, the Mojave Desert, the Great Lakes, and the Salton Sea. The DOI 
Science Priorities program is also deserving of funding, as it would 
fund research identified by the DOI agencies as their highest research 
priorities. The seven projects identified are national in scope and, 
like Place-based Studies, would be addressed by multidisciplinary teams 
from all four divisions of USGS. We encourage the Congress to fund this 
scientifically-sound approach to developing the information needed to 
address these pressing problems of natural resource management.

Community/Federal Information Partnerships (C/FIP)
    Land use planning is a central function of local and state 
agencies, which need information collection and interpretation for 
their planning efforts.These partnerships are needed in all 50 states, 
to give the state and local partners the information and tools needed 
for land use planning and resource management. We support the requested 
increase of $30 million for this program. Two exceptionally critical 
components of C/FIP are the Gap Analysis Program and the National 
Biological Information Infrastructure.

Gap Analysis (GAP)
    GAP provides regional assessments of the conservation status of 
native vertebrate species and natural land cover types and to 
facilitate the application of this information to land management 
activities. The information is made available to land managers and 
planners at the federal, state, and local levels. It has proved to be 
an invaluable planning tool. The requested increase would allow GAP to 
expand to include invertebrate species and aquatic habitats--including 
our valuable wetlands and other waters.
National Biological Information Infrastructure (NBII)
    There is an astonishing amount of biological data generated by 
federal, state, and private researchers, but it must be managed and 
made accessible to resource managers. BRD is providing much-needed 
leadership in the organization and delivery of information to resource 
managers through the NBII. Private conservation organizations, 
academicians, and others can share their information through this 
system. NBII could be of use to industry, education, policy makers, and 
management agencies. We therefore support the requested increase of $4 
million for NBII.

Cooperative Research Units
    The Cooperative Research Units have proven to be extremely 
effective at addressing the information needs of BRD state partners. We 
support the proposed increase of $700,000, which will bring existing 
CRUs up to full staffing for the first time.

Biological Resources Division
    We would like to again call the Committee's attention to the need 
for funding for the BRD Science Centers, where the all biological 
research for the Department of Interior land and natural resource 
management agencies is actually conducted. It is becoming increasing 
difficult for BRD to conduct biological research because the Science 
Centers do not have adequate base funding. The BRD budget declined from 
a peak of $161 million in fiscal year 1994 to a low of $139 million in 
fiscal year 1996. The fiscal year 2001 request of $182 million is, 
therefore, just approaching the fiscal year 1994 level (adjusted for 
inflation at 3 percent per year). This inadequate funding has resulted 
in a deterioration of the capacity of the BRD Science Centers to 
conduct the research assigned to those Centers.
    The DOI natural resource and land management agencies have 
substantial research backlogs and new research needs that are not met 
because of the chronic shortfall in BRD funding. For instance, the 
Bureau of Land Management's wildlife and Endangered Species Programs 
have recognized that nearly 100 species on BLM lands are already listed 
or proposed for listing under the Endangered Species Act. Several 
others are on the verge of being listed. An appropriate investment in 
habitat conservation for sensitive species should yield enormous 
savings by averting future listings and the usually restrictive actions 
on land use that follow. To prevent future listings, the agency has 
identified two habitats for large-scale, 5-year restoration programs: 
sagebrush in the Intermountain West and the short and mixed-grass 
prairie in Montana, North and South Dakota, Wyoming, Colorado and New 
Mexico. For fiscal year 2001, BLM identified $2 million in sagebrush 
projects that will remain unfunded. Most important is mapping and 
inventory to ground-truth GIS mapping efforts and beginning the 
inventory of all priority species in the sagebrush ecosystem. Applied 
research is needed to determine habitat relationships and the effects 
of disturbances from wildfire, mining activities, rangeland treatments, 
invasive plants, and disease. The most immediate critical need is for 
an inventory of existing habitat and species at risk on BLM managed 
lands. Another $1 million is needed for applied research (1) to 
determine the consequences of habitat changes from land uses and lack 
of fire, oil and gas development, and other mineral extraction; (2) to 
control invasive species; (3) to develop techniques for restoring 
native grasslands; and (4) to determine the effects of habitat on 
plague in black-tailed prairie dogs.

Funding BRD at more than the requested level
    The Ornithological Council supports the fiscal year 2001 Budget 
Request for BRD, and in fact encourages the Committee to consider 
appropriating $15 million more than was requested. An increase of $15 
million per year, over the next three years, should bring BRD back to 
the fiscal year 1994 enacted level, adjusted for inflation, by fiscal 
year 2003. All or substantially all of this money should be directed to 
the base funding of the Science Centers.

  U.S. FISH AND WILDLIFE SERVICE, OFFICE OF MIGRATORY BIRD MANAGEMENT 
                                 (MBMO)

    The Ornithological Council supports the requested $1 million 
increase for migratory bird management, but notes that it is not nearly 
adequate to meet the monitoring and management needs for the 836 
species of birds for which the U.S. Fish and Wildlife Service has legal 
responsibility. The information needs for migratory bird management far 
exceed the amount requested by the administration The true need is in 
the range of $50-60 million over a period of several years. We 
recommend that MBMO funding be increased by an additional $10 million 
above the requested increase.

    U.S. FISH AND WILDLIFE SERVICE, OFFICE OF INTERNATIONAL AFFAIRS

    The Office of International Affairs is highly effective, but 
little-known in the United States. It has implemented a number of 
programs that have achieved an extraordinary level of conservation with 
relatively little funding, particularly because it focuses on training 
graduate students, local resource managers, providing technical 
literature, and promoting environmental education. We strongly support 
the request for an additional $5.131 million for its International 
Conservation Program, and, in particular, for the additional $1.3 
million for Neotropical Migratory Bird Conservation. These funds are 
leveraged with a 3:1 match of funds and in-kind services and will 
provide training for conservation organizations, protected area 
managers, and others throughout Central and South America.

       USDA FOREST SERVICE FOREST AND RANGELAND RESEARCH PROGRAM

    We are particularly concerned about the ability of the USDA Forest 
Service to conduct the research needed to maintain healthy forests--for 
wildlife, watershed protection, recreation, and timber resources. The 
administration's requested increase of $13.3 million for FS research 
(exclusive of economic research) for fiscal year 2002 covers four 
categories: vegetation management and protection; wildlife, fisheries, 
watersheds and air; resource valuation and use; and inventory and 
monitoring. The research budget has been flat for the past two years 
and under the proposed fiscal year 2001 budget, would remain flat. More 
than half the 6 percent requested increase represents uncontrollables.
    It is easier to understand the implications of this research budget 
by looking at the magnitude of the research that is needed for the 192 
million acres managed by the FS. Southern forests are being destroyed 
by a non-native invasive insect known as the woolly adelgid, introduced 
fungi are also devastating the forests, many birds of the grasslands 
are declining at a precipitous rate, the ability of the forests to hold 
carbon and protect rivers and streams is becoming increasingly 
critical, recreational demands are increasing by leaps and bounds. The 
Forest Service has a laudable Land Bird Conservation Program, which 
identifies research as one of six key strategies, yet there are only a 
handful of ornithologists in the Forest Service. The five research 
stations and one experimental station have a herculean task that they 
must meet with staffing levels that do not approach that needed. For 
instance, of the 151 researchers at the Southern Research Station, only 
seven are wildlife biologists. There is one hydrologist. Two scientists 
study forest health issues and two others study plant pathology. (Nine 
are in the social sciences and economics; approximately 60 are involved 
in forest inventory and forestry research). In the Pacific Northwest, 
there are 11 wildlife biologists, 5 fisheries biologists, 4 
entomologists, and 5 ecologists (along with 25 forestry researchers and 
6 economists). Nationally, there are 550 scientists in the Forest 
Service; of these, only 39 study vertebrates (mammals, birds, turtles, 
reptiles) and nearly half are forestry researchers concerned primarily 
with timber yield. The Forest Service has identified $60.4 million in 
unfunded research needs.
    If the proposed Forest Management Planning regulations are made 
final, the FS scientists will have a substantially heavier burden, for 
those regulations call for significant input from the FS researchers.
    For these reasons, we recommend that the Congress increase funding 
for the Forest Service Forest and Rangeland Research Program by at 
least 10 percent ($21.8 million) over fiscal year 2000 enacted.
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States

    We appreciate the opportunity to provide testimony to the Interior 
and Related Agencies Subcommittee on several funding items of great 
importance to The Humane Society of the United States (HSUS) and its 
7.3 million supporters nationwide. As the largest animal protection 
organization in the country, we urge the Committee to address these 
priority issues in the fiscal year 2001 budget.
       law enforcement division of the fish and wildlife service
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. New technology is 
essential if law enforcement is to have any hope of effectively 
enforcing the nation's endangered species trade laws. For that reason, 
The HSUS strongly supports the Administration's request of $52 million 
for U.S. Fish and Wildlife Service Law Enforcement Operations and 
Maintenance, an increase of $12.6 million. Of that amount, $1.8 million 
is specifically requested for the Clark R. Bavin Wildlife Forensics 
Laboratory. In addition to the Administration's request, The HSUS asks 
that additional funds be appropriated as necessary to address the 
burgeoning trade in bear parts.

RHINO & TIGER CONSERVATION ACT, AFRICAN ELEPHANT CONSERVATION ACT, AND 
                    ASIAN ELEPHANT CONSERVATION ACT

    The HSUS supports the Administration's request of $1 million for 
each of three crucial foreign endangered species programs: The Rhino 
and Tiger Conservation Act, The African Elephant Conservation Act, and 
The Asian Elephant Conservation Act. The HSUS is very concerned about 
previous incidents and future opportunities for funds from these 
conservation programs to be allocated to promote trophy hunting, trade 
in animal parts, and other consumptive uses C including live capture 
for trade, captive breeding, and entertainment to meet the demand of 
the public display industry C under the guise of conservation for these 
endangered animals.

        WILD HORSE AND BURRO PROGRAM/FERTILITY CONTROL RESEARCH

    Wild horses and burros are a public trust greatly beloved by the 
American people. Consequently, we strongly believe that the Bureau of 
Land Management (BLM) should be given the direction and resources it 
needs to assure the health and prosperity of wild horse and burro herds 
and the public lands they inhabit. During the last two years, under the 
tenure of the Wild Horse and Burro Advisory Board (for which The HSUS 
was privileged to provide a representative), the BLM has made important 
progress. There was very significant improvement in the management and 
administration of the Adopt-a-Horse-or-Burro Program, in the 
exploration of alternative methods for improving the marketing and 
adoptability of horses, and in the development of strategies for 
improving the management of wild horses and burros on the range.
    One of the Advisory Board's most important sets of recommendations 
asked the BLM to develop strategies for setting and attaining 
appropriate management levels on all herd management areas. The fruit 
of these recommendations is the ``Strategy to Achieve Healthy 
Rangelands and Viable Herds,'' incorporated into the BLM's 
``Restoration of Threatened Watersheds'' initiative. This initiative 
requests a funding increase of $9 million per year above current 
funding levels for each of the next four years to allow the removal of 
additional (mostly older) horses from the range. With this funding, the 
BLM believes it can reach appropriate management levels on all herd 
management areas.
    With some trepidation, The HSUS supports this funding increase. At 
this time, we see no other way out of the bind in which the BLM Wild 
Horse and Burro Program finds itself. Past mismanagement and the 
tendency of the adoption program to drive on-the-range management have 
led to damage to some parts of the range, and produced an unhealthy 
predominance of aging horses in many wild herds. Importantly, the 
initiative should help restore a healthy age balance, reversing the 
effects of past policies of selectively removing younger animals for 
adoption. But our support for what could be a massive reduction in the 
number of wild horses on the range rests on several conditions. First, 
there must be thorough NEPA review of livestock grazing permits on 
public lands, so that range deterioration associated with livestock 
grazing can be stopped, and wild horses and burros not be falsely and 
fruitlessly blamed for harm to the range caused by livestock. Second, 
the BLM must justify all removals of horses or burros with current 
monitoring data, as the law requires. Third, the BLM should protect the 
viability of small, isolated populations of wild horses and burros, 
increasing forage allocation to horses and burros or expanding herd 
management areas if neccessary. Finally, the BLM should revisit its 
decisions to exclude horses or burros from historically occupied herd 
areas, and consider reestablishing herds where current conditions allow 
it. More generally, we recommend that the BLM:
  --Fully implement all recommendations of the Advisory Board;
  --Assure the public a voice in wild horse management decisions by 
        limiting its use of the ``full force and effect'' regulations 
        to true emergencies; and
  --Use qualified volunteers when possible, to enhance the system for 
        screening potential adopters, perform more post-adoption 
        compliance checks, and investigate what factors lead to 
        successful, long-term adoptions.
    Regarding fertility control, since 1992, the BLM has funded 
research on the use of immunocontraceptives to help control wild horse 
populations. As a result of that investment, a management tool is 
almost in hand: there is now a usable, one-shot immunocontraceptive 
vaccine that prevents pregnancy in wild horses for one year. BLM models 
indicate that, while the current vaccine is helpful, management use of 
a one-shot vaccine that prevents pregnancy for two years will 
significantly reduce both program costs and stress on horses by 
reducing the frequency of round-ups and reducing the number of horses 
that must enter the adoption program. Testing of a one-shot, two-year 
vaccine began in November 1999, and a research assistance agreement 
with BLM is in place to complete the study. We urge the Committee to 
specifically provide the Biological Resources Division of the USGS 
(which now administers this research) with the $200,000 needed to 
complete the study, so that BLM will have this vital management tool. 
The HSUS looks forward to continuing to work with the BLM on all these 
issues.

            ANIMAL CONTROL INITIATIVE ON NATIVE RESERVATIONS

    The HSUS urges the Committee to designate $750,000 of the Bureau of 
Indian Affairs' Law Enforcement Initiative (or some other account the 
Committee deems appropriate) for a project to improve animal control 
services on several Native American reservations where public health 
and safety are currently jeopardized by the lack of such services. Over 
the last decade, some Native American Nations have developed animal 
control programs and ordinances, but their struggling programs are 
severely underfunded. Other Native American Nations have no animal 
control programs at all. Poor and non-existent animal control programs 
pose not only serious problems for the animals on reservations, but 
also immediate public health and safety threats to the human residents.
    Dog bites have become a serious hazard, particularly for children. 
More than 4.7 million individuals are bitten by dogs each year in the 
United States, leading to injuries and transmission of rabies and other 
diseases. The problem is particularly acute in Native American Nations. 
A 1996 report by Navajo Nation Animal Control stated that,``in 1990, 
the Indian Health Service announced that approximately 2,000 
individuals were treated for dog bites'' on that reservation. A 
fatality associated with a dog attack occurred last year on the 
Blackfeet reservation, and dog attacks on other reservations have led 
to severe injuries and death for children and adults over the past 
several years.
    Recognizing this problem, The HSUS has begun providing direct 
services to several Native Nations. Since 1991, HSUS has worked with 
the Navajo Nation, and during 1999, HSUS worked with local animal 
control agencies to deliver basic humane services, including spaying/
neutering and vaccinations, to more than a dozen reservations in 
Montana, North Dakota, South Dakota, and California, providing over 50 
days of clinics. In 2000, HSUS hopes to expand its program to provide 
some assistance to more than 15 reservations in Montana, North Dakota, 
South Dakota, California, Washington, Alaska, Oregon, Idaho, New 
Mexico, Arizona, Colorado, and Utah.
    However, to address the full range of public health issues 
associated with free-roaming, proliferating, and unvaccinated canine 
populations on Native lands, and to do so in a way that will achieve 
long term results rather than just providing stopgap aid, federal 
assistance is needed. The funding requested would help several Native 
Nations begin to establish their own effective animal control programs. 
The proposed initiative would include training (workshops for animal 
control personnel about safe animal capture, handling, and 
vaccinations); animal sterilization and other veterinary services; 
humane education (instruction on how to deal with roaming animals, 
proper animal care, and responsible pet ownership); and grants to 
Native Nation animal control agencies for facilities improvement or 
construction. The requested funding could be allocated as follows:
  --$200,000 to provide ``mobile clinic'' services throughout the 
        Nations for spaying/neutering and vaccinations. This amount 
        would cover at least 75 days of scheduled clinics, including a 
        $200/day honorarium for 3 veterinarians. This honorarium is 
        necessary to recruit local veterinarians who could then be 
        called upon for annual follow-up services.
  --$380,000 to help establish animal control programs and facilities. 
        Less than 10 percent of western Native Nations have formalized 
        animal control programs, and even fewer have animal control 
        facilities. This funding would be used to train Native 
        personnel in safe animal capture and handling, humane 
        euthanasia, and how to run an effective shelter. It would also 
        be used to assist communities in developing effective animal 
        control laws and humane education programs for schoolchildren, 
        as well as to develop and print Native American directed 
        educational materials on bite prevention and proper animal 
        care. And it could help reservations begin building or 
        improving their animal care facilities.
  --$100,000 to provide proper equipment for animal control personnel, 
        including gloves, nets, cat boxes, leashes, and portable cages, 
        and for the spay/neuter clinics, including a portable 
        anaesthesia machine, spay packs, surgery tables, instrument 
        stands, syringes, needles, pharmaceuticals, and other medical 
        supplies.
  --$70,000 to hire two full time Native Nation coordinators, who would 
        work exclusively on animal care issues affecting the 
        reservations and ensure that the program was running smoothly.
    This initiative would go a long way toward addressing serious 
public health and safety problems associated with animal control on 
reservations, in a way that is humane and effective on a long-term 
basis. The HSUS appreciates the acknowledgment of these problems in the 
fiscal year 2000 Senate Committee Report and Conference Report, and 
also in the President's justifications accompanying his proposed budget 
for fiscal year 2001. We urge the Committee to make this much-needed 
modest investment.

                 TRAPPING ON NATIONAL WILDLIFE REFUGES

    Last year, the House approved an amendment, offered by 
Appropriations Committee member Sam Farr, to bar the use of tax dollars 
to administer or promote the use of steel-jawed leghold traps or neck 
snares for commerce or recreation on units of the National Wildlife 
Refuge System. The amendment allowed the use of these traps for the 
purposes of research, subsistence, conservation, or facilities 
protection. The House approved this measure by a bipartisan vote of 
259-166, with a majority of the members of the House Subcommittee on 
Interior Appropriations favoring the amendment. Unfortunately, the 
Senate rejected an identical amendment offered by Senator Robert 
Torricelli, and the Conferees chose not to include any restrictions on 
trapping in the fiscal year 2000 Interior Appropriations Act.
    The House approval came in spite of Interior Department opposition, 
which was later recanted as the Administration more closely considered 
the actual reach of the amendment. Interior Secretary Bruce Babbitt 
indicated, in a July 26th letter to Senator Torricelli, ``After careful 
consideration, I can advise you that your amendment would not impact 
the ability of the U.S. Fish and Wildlife Service to manage refuges 
under the Organic Act of 1997.'' Similarly, F&WS Director Jamie 
Rappaport Clark stated in an October 1, 1999 letter to Representative 
Farr that, ``we conclude that the amendment will not impair the mission 
of the National Wildlife Refuge System or individual refuge purposes. 
Your amendment will eliminate the use of leghold traps within National 
Wildlife Refuges when the use of those traps has no specifically 
identified wildlife management, facility protection or public safety 
purpose C i.e., purely recreational or commercial trapping.''
    We urge the Committee to incorporate the language of last year's 
Torricelli/Farr amendment in the fiscal year 2001 Interior 
Appropriations Act. It is a sensible, humane, and narrowly crafted 
provision. According to a June 1997 report to the Congress, ``Mammal 
Trapping within the National Wildlife Refuge System: 1992-1996,'' the 
Fish and Wildlife Service administered 487 trapping programs on 281 
refuges; thus, more than half of the nation's 520 refuges permit some 
trapping. According to the report, ``[e]ighty-five percent of the 
mammal trapping programs on refuges were conducted primarily for 
wildlife and facilities management reasons. The remaining 15 percent 
occurred primarily to provide recreational, commercial, or subsistence 
opportunities to the public.'' The Torricelli/Farr amendment would not 
have an impact on the wildlife and facilities management programs or 
the subsistence programs. Thus, the amendment would affect less than 15 
percent of the trapping programs on the refuges.
    The American Veterinary Medical Association, the American Animal 
Hospital Association, and the World Veterinary Organization have all 
declared leghold traps to be ``inhumane.'' These traps are designed to 
slam closed and grip tightly an animal's leg or other body part. 
Lacerations, broken bones, joint dislocations and gangrene can result. 
Additional injuries result as the animal struggles to free itself, 
sometimes chewing off a leg or breaking teeth from biting the metal 
trap. Animals caught in leghold traps sometimes die from dehydration, 
starvation, exposure to the elements, or predators. An animal may 
suffer misery for several days before a trapper returns to check a 
trap. These traps are as indiscriminate as they are inhumane. Any 
animal unlucky enough to stumble across a trap will be victimized by 
it. In addition to catching ``target'' animals, traps catch non-target, 
or ``trash,'' animals, such as family pets, eagles, and other protected 
species. A number of studies conducted by professionals from management 
agencies reveal that for every target animal caught in a steel-jawed 
leghold trap, there are from one to ten non-target animals caught. This 
is an unacceptable level of by-catch.
    National Wildlife Refuges should not allow commercial and 
recreational trapping with inhumane traps. Refuges are the only 
category of lands specifically set aside for the protection and benefit 
of wildlife. If we can't protect wildlife from commercial exploitation 
by cruel means on National Wildlife Refuges, where can we provide 
protection for these creatures? Voters in Arizona, California, 
Colorado, and Massachusetts have approved ballot measures to ban 
leghold traps. New Jersey and Florida have also banned the use of these 
traps, and many other states have severe restrictions on their use, 
including Connecticut and Rhode Island. Citizens are now gathering 
signatures in Oregon and Washington to place measures on November 2000 
ballots to restrict these devices. A May 1999 national poll conducted 
by Peter Hart Research Associates, Inc., revealed that 84 percent of 
respondents oppose the use of steel-jawed leghold traps on National 
Wildlife Refuges. There are dozens of wildlife refuges in Arizona, 
California, Colorado, Massachusetts, New Jersey, and Florida. There 
have been no adverse impacts on those refuges from the statewide bans.
    The Torricelli/Farr amendment would not bar trapping on refuges. 
Other traps, including foot snares, Conibears, and box and cage traps, 
could be used for any purpose consistent with law and regulation on the 
refuges. The Torricelli/Farr amendment would not forbid the use of 
steel traps or neck snares. It would ban those two devices just for 
commercial and recreational purposes. We urge your favorable 
consideration of this language for fiscal year 2001.
    Again, we appreciate the opportunity to share our views and 
priorities for the Interior and Related Agencies Appropriation Act of 
fiscal year 2001. We hope the Committee will be able to accommodate 
these funding requests to address some very pressing problems affecting 
millions of animals in the United States. Thank you for your 
consideration.
                                 ______
                                 

           Prepared Statement of the Frontera Audubon Society

    Frontera Audubon Society requests appropriation of $5 million from 
the Land and Water Conservation Fund (LWCF) in fiscal year 2001 for 
purchase of lands by the U.S. Fish and Wildlife Service for the Lower 
Rio Grande Valley National Wildlife Refuge in Texas.
    The Lower Rio Grande Valley is America's biological treasurehouse--
containing greater biological diversity than any similar-sized area of 
the country.
    This richness stems from the Valley's location and variety of 
ecosystems. The Valley lies farther south than any other parts of the 
country than Hawaii and the southern tip of Florida. It sits at the 
junction of four climatic zones--western desert, northern temperate, 
coastal, and tropical. The result is a mingling of the animals and 
plants from all those regions. The biodiversity is further enhanced by 
the joining of two major migratory bird flyways.
    There are 465 bird species that reside in or migrate through the 
Valley--half of all bird species found in the United States. Sixty of 
these birds live nowhere else in the country. Also living in the Valley 
are more than 200 species of mammals, reptiles, amphibians, and fish, 
as well as 300 species of butterflies, and 1,200 species of plants. In 
fact, more species make their home in the Lower Rio Grande Valley than 
in any other similar-sized area of the country.
    Twenty years ago, visionaries including then-Representative Kika de 
la Garza recognized the importance of protecting this biological 
treasure. They decided to create a ``wildlife corridor'' that would 
protect an estimated 250,000 acres--owned by a variety of public and 
private entities and laid out so that wildlife could travel among the 
protected plots to utilize the various habitats that they need.
    The keystone of this network of protected areas is the Lower Rio 
Grande National Wildlife Refuge. It makes up more than half of the 
planned total protected area. And by protecting vital strips along the 
river and its tributaries, and connecting otherwise isolated pockets of 
habitat, it provides the ``corridors'' that link habitats ranging from 
the thorn and riparian forests in Starr County to the wetlands of the 
coast.
    For twenty years, Frontera Audubon Society has asked the Congress 
to fund land acquisition for the Lower Rio Grande NWR--and the Congress 
has responded. Currently, the Refuge has acquired 86,246 of its planned 
132,500--leaving 46,254 to be acquired. In the current fiscal year, 
Refuge staff should complete the purchase of approximately 5,000-6,000 
acres. (Because funds are available, the Refuge has signed purchase 
agreements with the owners; as appraisals are completed, the Refuge 
makes formal offers.) These purchases will bring the total area 
purchased to above 90,000 acres.
    Now is the time to press for rapid purchase of the remaining 40,000 
acres.
    The Refuge is positioned to continue acquisitions at a pace of 
approximately 5,000 acres per year. Refuge staff have discussed with 
willing sellers possible purchase of 48 additional tracts totalling 
21,566 acres--lands that meet the Refuge's biological and other 
criteria. These tracts include 5,684 of Loma Tidal Flats; 4,800 acres 
of Coastal Brush and Potholes; 220 acres of the unique Sabal Palm 
Forest; 5,182 of Mid-Valley Riparian Forest; 1,480 acres of Mid-Delta 
Thorn Forest; 1,100 acres of Woodland Potholes and Basins; 1,356 acres 
of Upper Valley Flood Forest; 980 acres of Ramadero; and 763 acres of 
Chihuahuan Thorn Forest. These wildlife lands are worth approximately 
$22 million.
    We are particularly pleased that the Refuge is actively buying 
acreage in the Coastal Brush and Potholes, Upper Valley Flood Forest, 
Chihuahuan Thorn Forest, and Ramaderos ecosystems. To date, obtaining 
examples of these unique habitats has lagged far behind goals laid out 
in the Refuge's Land Protection Plan. The Refuge recently obtained 
1,400 acres of Upper Valley Flood Forest, which include 12 miles of 
river front. Purchases in calendar year 2000 should include another 
1,000 acres of riparian woodland and 650 acres of Chihuahuan Thorn 
Forest. As already noted, Refuge staff are negotiating with owners of 
approximately 7,800 additional acres belonging to these previously 
neglected ecosystem types.
    By the beginning of fiscal year 2001, the Refuge will have 
exhausted available funds. If the Congress does not appropriate a 
reasonable sum--we suggest $5 million, land acquisition will virtually 
cease--again. Appropriation of $5 million for the Lower Rio Grande 
Valley National Wildlife Refuge will allow it to purchase approximately 
4,000 acres selected from among the tracts described here. Furthermore, 
negotiations, preparation of contracts, appraisals, and other work 
aimed at future purchases can only continue when Refuge staff have 
funds in hand.
    Completing the Refuge enjoys the support of many interest groups in 
the Valley because of the importance of nature tourism to the region's 
economy. Tourism is the third largest industry in Texas, worth more 
than $25 billion. Texas is the number one birding destination in the 
United States and the Lower Rio Grande Valley is one of three ``birding 
hotspots'' in the State. Most tourists now go to Brownsville, 
Harlingen, and McAllen; we anticipate that expansion of Refuge holdings 
in the Upper Valley Flood Forest, Ramadero, and Chihuahuan Thorn Forest 
ecosystem types can help to draw tourists to the western end of the 
region, Starr County, which offers interesting historic towns and 
buildings as well as these unique ecosystems and their associated bird 
life.
                                 ______
                                 

             Prepared Statement of the World Wildlife Fund

    Mr. Chairman and Members of the Subcommittee, on behalf of World 
Wildlife Fund (WWF), thank you for the opportunity to submit our views 
on the President's fiscal year 2001 budget for the Interior Department 
and the U.S. Forest Service (USFS). WWF strongly supports the 
Administration's request for increased funding of natural resources 
management and conservation programs.
    As the centerpiece of our Living Planet Campaign, WWF has 
identified endangered spaces, the world's most outstanding harbors of 
biological diversity, which we call the Global 200 ecoregions. Thirty-
two of 116 ecoregions located in North America were found by WWF 
scientists to be globally outstanding. See Ricketts, et al., 
Terrestrial Ecoregions of North America: A Conservation Assessment 
(1999). Five of these ecoregions have been targeted by WWF as immediate 
priorities for our own efforts: South Florida (Everglades and Keys); 
Southeastern Rivers and Streams; Chihuahuan Desert; Klamath-Siskiyou 
Forests; and the Bering Sea.
    In addition to endangered spaces, WWF is also working to conserve 
endangered species, particularly tigers, rhinos, giant pandas, and 
whales. Furthermore, WWF is working to address global threats to 
biodiversity. These include unsustainable logging; overfishing; climate 
change, and toxic chemicals.
    Through the Living Planet Campaign, WWF seeks to challenge 
governments, global institutions, business, and people everywhere to 
make conservation of threatened species and shrinking habitats a 
universal goal for the sake of future generations. This Subcommittee 
can help meet that challenge by approving the President's funding 
request for natural resources management and conservation.
    I will now turn to specific budget proposals that WWF believes are 
especially important to achieving our goal of leaving our children a 
living planet.

                       DEPARTMENT OF THE INTERIOR

Everglades Ecosystem Restoration
    The Everglades is one of the planet's only flooded grasslands--a 
rain-driven wetland that once flowed from Lake Okeechobee to Florida 
Bay. This River of Grass is also one of the country's most imperiled 
ecosystems, a globally outstanding ecoregion which scientists believe 
must be protected. By restoring the Everglades, we will be ensuring 
that there is water in sufficient quantity and quality to support life, 
human and wild, throughout South Florida and beyond.
    This is a critical time for the Everglades. With the completion of 
the Comprehensive Plan for Everglades Restoration by the U.S. Army 
Corps of Engineers last July, authorizing legislation for the 
Comprehensive Plan and its projects will be a high priority during this 
session of Congress.
    Accordingly, the Administration has requested $143.7 million for 
its fiscal year 2001 Everglades Interior budget, including $80 million 
for land acquisition. WWF believes this funding level is adequate given 
the Department's proposed fiscal year 2001 activities for the 
Everglades. We believe land acquisition continues to be among the most 
urgent priorities of the restoration plan. WWF also urges the 
Subcommittee to support the Administration's $30 million request for 
land acquisition in seven of South Florida's national wildlife refuges. 
We also urge the Subcommittee to approve the Administration's $47 
million request for matching-funds for the land acquisition program 
with the State of Florida. This important matching grant program will 
allow the Federal Government and the State of Florida to cost-share 
acquisitions necessary to implement the Everglades Restoration Plan. 
The Florida Legislature is expected to pass a funding bill this session 
to meet the state's commitment to restoration.

                     U.S. FISH AND WILDLIFE SERVICE

African Elephant, Asian Elephant and Rhino/Tiger Conservation Funds
    WWF supports the President's request for $1 million each for the 
African Elephant, Asian Elephant, Rhinoceros and Tiger Conservation 
Funds. Past funding has been of considerable help in arresting the 
decline of these animals and in encouraging local and international 
matching contributions from governments, non-governmental 
organizations, and others. However, additional funds are urgently 
needed for protected area conservation, anti-poaching efforts, 
monitoring populations, translocating animals, and mitigating human/
wildlife conflicts. Consequently, WWF urges you to fully fund the 
Administration's proposed increase to $1 million each for the three 
funds.

Endangered Species
    WWF strongly supports the President's $7 million increase in 
overall funding for endangered species programs for fiscal year 2001. 
In particular, WWF supports the $7 million increase for Endangered 
Species Act Section 7 consultations and Section 10 habitat conservation 
planning. These procedures have been successful at reconciling species 
conservation with development projects. At the same time, monitoring 
the impact of the incidental take of species resulting from such 
projects has been inadequate. Accordingly, WWF urges the Subcommittee 
to dedicate a large percentage of this budget increase to monitoring 
existing habitat conservation plans and Section 7 incidental take 
statements. Such monitoring is essential to ensure that incidental take 
does not appreciably reduce the likelihood of the survival and recovery 
of the affected species.
    WWF also supports the Administration's increasing emphasis on 
incentives for voluntary species conservation by private landowners, 
reflected in proposed increases for Safe Harbor agreements and a $5 
million request for the landowner incentive grant program. Providing 
incentives to the nation's private landowners to conserve endangered 
species and habitat is vitally important to successful endangered 
species conservation.
Law Enforcement
    WWF is very concerned about the budget crisis currently facing the 
U.S. Fish and Wildlife Service's Division of Law Enforcement. Though 
long recognized as a world leader in wildlife law enforcement, the 
division has not seen a significant budget increase in over 15 years. 
Because of chronic underfunding, the division presently can only 
support 303 agents and inspectors, more than 40 fewer than have been 
authorized. This disparity will only increase due to dozens of 
mandatory retirements in the next few years. Despite a funding and 
workforce shortfall, the division is now asked to enforce more statutes 
and regulations, and protect more species than ever before. Further, 
the division is increasingly called upon to provide enforcement 
training and forensics support by states and foreign governments in the 
global fight to protect endangered species.
    The Administration is seeking an increase of $12.6 million for law 
enforcement operations and management in fiscal year 2001, and $1.8 
million to update and expand its world-renowned forensics lab. WWF 
urges the Subcommittee to approve these critically important funding 
increases, to support the Division of Law Enforcement's efforts to 
pursue wildlife crime at home and lend its expertise abroad.
Environmental Contaminants
    WWF believes the U.S. Fish and Wildlife Service's Division of 
Environmental Contaminants (DEC) is woefully underfunded. At the 
proposed funding level of $10.3 million for fiscal year 2001, the 
program will not meet its objectives of investigating and assessing the 
effects of environmental contaminants on wildlife and maintaining a 
scientifically credible program through proper program support, 
training, and technical assistance.
    It is important to note that a large number of wildlife populations 
have been extirpated and currently many populations are severely 
affected by contaminants. Environmental contaminants have caused 
widespread feminization and demasculinization of male fish, birds, 
reptiles, and mammals; reproductive loss in populations of fish and 
bald eagles; inability of young animals to reach adulthood; rupturing 
thyroid glands in Great Lakes fish; immune suppression in birds and 
animals; and bird kills caused by legal pesticide use. At the current 
budget level, the DEC cannot possibly afford the technological advances 
that would allow it to deal with such immense threats. It is imperative 
that the DEC's budget be increased to enable it to adequately address 
these serious environmental problems.
    The importance of the DEC's work on environmental contaminants is 
increased even more by recent recommendations from a federal advisory 
Committee on screening and testing chemicals and by the National 
Academy of Sciences. In response to Congress's mandate for the U.S. 
Environmental Protection Agency (EPA) to establish a screening and 
testing program for hormone-disrupting chemicals by August 1999, the 
federal stakeholder advisory Committee (consisting of industry, 
environmental, and other representatives) reached strong consensus-
based conclusions on how such a program should be designed. The 
National Academy of Sciences, whose report on hormone disruptors cites 
substantial evidence of impacts on fish and wildlife, has endorsed 
these recommendations.
    In addition to EPA, which focuses on human health impacts of 
contaminants, the DEC has an essential role to play in providing 
information on exposures and effects in wildlife from such chemicals in 
the environment. However, unless the DEC is given the necessary 
resources, the impacts of contaminants on wildlife will not be 
adequately measured. At last year's budget hearings, Representative 
James Moran asked the U.S. Fish and Wildlife Service's witness about 
this issue. The official responded that the fiscal year 2000 budget 
proposal did not include any additional resources to address wildlife 
contaminants associated with endocrine disruptors. Unfortunately, this 
appears to be the case in fiscal year 2001 as well.
    Under its proposed budget of $10.3 million, the DEC cannot 
adequately respond to the increasing demands for investigation and 
public education. Even if its proposed budget were doubled, it would be 
inadequate. Other nations are taking the lead away from the United 
States in the field of wildlife toxicology. Indeed, without 
substantially increased funding, the DEC is unlikely to be able to 
comply with the requirements of the Government Performance and Results 
Act. WWF urges the Subcommittee to provide substantially increased 
funding for the DEC.

                          U.S. FOREST SERVICE

    WWF strongly supports the Administration's roadless area 
initiative. The USFS should not build new roads in roadless areas. 
Instead, it should invest in environmentally beneficial activities such 
as watershed restoration and maintenance of existing roads. The USFS 
indicates that it only receives about 20 percent of the funding it 
needs each year to maintain existing roads to federal safety and 
environmental standards. Road failures continue to be a major forest 
health problem on public lands and have contributed to slope 
destabilization and the degradation of fisheries, water quality. 
Accordingly, WWF supports the Administration's request for $129.5 
million for the national forest road system. WWF also supports 
increased funding for planning and monitoring because it provides 
critical information necessary to the implementation of the Northwest 
Forest Plan.
    WWF endorses the cooperative activities of the Forest Service 
through the activities of state and private forestry programs. Thus, we 
support the agency's Forest Stewardship, Stewardship Incentives, Forest 
Legacy, and Urban and Community Forestry programs. These highly-
regarded programs highlight for the public forestry operations and land 
protection principles that are based on sound stewardship. However, our 
experience suggests these programs are largely underfunded and will not 
be able to keep up with growing demand.
    WWF urges the Subcommittee to appropriate $80 million for the 
Forest Legacy program. The program has a proven track record of 
protecting environmentally significant privately owned forests from 
conversion to other uses through purchase of permanent conservation 
easements. For northern New England alone, the Northern Forest Alliance 
has identified tens of millions of dollars of specific, high priority 
Legacy projects that need funding.
    We strongly support the new mandate to carry out the USFS Forest 
Inventory and Analysis (FIA) updates on an annual basis, and we support 
full funding to carry them out effectively. The FIA is an important 
process that provides useful data to forest managers and 
conservationists.

                               CONCLUSION

    In closing, WWF urges you to approve the President's proposed 
fiscal year 2001 budget for these important natural resources 
management and conservation programs. In addition, WWF asks that you 
oppose any efforts to attach harmful riders weakening environmental 
protection to any appropriations measures this year.
                                 ______
                                 

            Prepared Statement of the Defenders of Wildlife

    On behalf of our more than 380,000 members and supporters Defenders 
thanks you for the opportunity to testify.

      LANDS LEGACY/LAND AND WATER CONSERVATION FUND (MULTI-AGENCY)

    Defenders urges full funding of the President's Lands Legacy 
Initiative, a total of approx. $971 million under the Subcommittee's 
jurisdiction.--$450 for federal LWCF (DOI/FS), $65 million for the 
Cooperative Endangered Species Fund (FWS); $150 million for state land 
acquisition grants (DOI); $50 million for state open space planning 
grants with the caveat discussed below under USGS (DOI); $60 million 
for Forest Legacy (FS); $40 million for Urban and Community Forestry 
(FS); $6 million for the smart growth revolving loan program (FS); $20 
million for Urban Parks and Recreation Recovery (NPS); $30 million for 
the North American Wetlands Conservation Fund (FWS); and $100 million 
for State Non-Game Wildlife Grants (FWS). We urge the Subcommittee to 
fund Lands Legacy at the requested level and to work with the Budget 
Committee to establish the new budget category proposed to dedicate and 
protect the total $1.4 billion level for Lands Legacy for future years. 
Broad support exists in Congress and across the nation for permanent 
funding for these programs at predictable levels, as evidenced by the 
array of permanent funding bills pending that have the combined support 
of hundreds of cosponsors. The Subcommittee has the opportunity to take 
the initiative and establish this critical new fund.
    We wish to highlight several components of Lands Legacy. First, the 
$450 million for federal land acquisition is needed to protect numerous 
areas in our Refuges, Forests, Parks, and BLM-managed special areas. 
Defenders will soon be completing a report that highlights the 
importance of using LWCF for biodiversity conservation; in it, based on 
scientific analysis, we will recommend funding of key projects in the 
President's budget that will contribute to the conservation of 
endangered ecosystems as identified in Defender's 1995 report, 
``Endangered Ecosystems: A Status Report on America's Vanishing Habitat 
and Wildlife.'' Second, the substantial increase in funding for the 
Cooperative Endangered Species Fund will give states badly needed 
resources to move forward with candidate conservation, recovery, and 
HCP efforts, and for land acquisition to support both HCPs and species 
recovery. Third, the new $100 million funding request for State Non-
Game Wildlife Grants is critically needed to provide some reliable 
funding for conservation of the roughly 90 percent of species that are 
neither hunted or fished nor federally listed as threatened or 
endangered. Annual state funding spent on conservation of non-game 
species is less than one-tenth the amount spent on hunted species. In 
funding the non-game program, we also strongly urge the Subcommittee to 
include report language stipulating that each state that has not 
already done so develop a plan for prioritizing fund expenditures that 
includes assessing species population status and distribution, habitats 
essential for their conservation, factors contributing to the decline 
of the identified species and habits, and actions to address these 
factors. These non-burdensome planning requirements are almost 
identical to those in the Fish and Wildlife Conservation Act of 1980, 
passed to conserve non-game species but never funded; such plans would 
be extremely cost-effective in providing a comprehensive blueprint for 
states to more strategically conserve biodiversity and avert new ESA 
listings. Several states (Florida and Oregon) have already completed 
plans.
    Defenders continues to strongly support Pima County's landmark 
Sonoran Desert Conservation Plan and related efforts, one of the 
largest and most complex multi-species conservation plans in the 
nation, and a model for funding under various components of Lands 
Legacy such as planning, easements, and state and federal land 
acquisition. A preliminary plan will be released this summer and an 
additional $2 million will be needed for fiscal year 2001 to continue 
and expedite the planning process. Integral to SDCP efforts is 
continued acquisition for Saguaro National Park West expansion 
(approved by Congress in 1994 without a funding source) and initial 
acquisition for Ironwood National Monument; $16 million is needed to 
complete Saguaro West acquisition and purchase conservation easements 
and $14.9 million is needed for initial Ironwood NM acquisition and 
easement purchase. We are extremely concerned that the Administration 
has not requested any fiscal year 2001 funding for Saguaro NP and 
Ironwood NM and urge funding for fiscal year 2001, particularly for 
biologically rich wildlife corridors and ancient ironwood forests 
threatened by development. Given that this is one of the fastest 
growing areas in the U.S., if not purchased soon, lands will no longer 
be available nor affordable.

                     U.S. FISH AND WILDLIFE SERVICE

    Endangered Species.--At the very least, Defenders urges full 
funding of the President's fiscal year 2001 $115.3 million request for 
the Fish and Wildlife Service's (FWS) four main endangered species 
accounts: Candidate Conservation ($8.4 million), Listing ($7.2 
million), Recovery ($55.3 million), Consultation ($39.4 million), and 
the ESA Landowner Incentive Program $5 million). We also urge full 
funding of the $65 million request for the Cooperative Endangered 
Species Fund, discussed under Lands Legacy (above).
    Defenders supports the increase for Candidate Conservation, but has 
serious concerns with the FWS implementation of this program. The 
increased money is needed for status surveys on approximately 265 
candidates, development of additional Candidate Conservation Agreements 
(CCAs) when appropriate, and necessary monitoring of CCAs and technical 
assistance to current partners to ensure biological improvement of 
covered species and reduction of threats. We cannot, however, support 
the continued use of these funds to illegally avoid listing species 
that clearly meet the ESA's criteria for listing. We also question FWS 
priorities in requesting over a million dollars more for Candidate 
Conservation than that requested for listing and critical habitat, 
given that the current resource needs for the latter two program 
elements is substantially greater than that of the former. FWS funding 
requests are clearly reflective of a fundamental and what we consider 
to be improper shifting of ESA program priorities. In its budget 
justification, FWS considers ``[m]aking listing species unnecessary'' 
as one of its three Endangered Species Program's priorities. Noticeably 
absent from that list, however, is the ESA's most fundamental and 
important provision--the listing of species determined to be endangered 
or threatened.
    The Listing increase is clearly needed but is inadequate to process 
listings on species requiring the Act's protection in fiscal year 2001, 
and to designate critical habitat for the nearly 90 percent of listed 
species that currently do not have it. The fact that FWS continues to 
operate under its Listing Priority Guidance, nearly 4 years after the 
listing moratorium was lifted, is the clearest indication that the 
agency is failing to request or receive enough money to process needed 
listing and critical habitat actions. We urge this Committee to 
appropriate funding for the listing and critical habitat program 
element that is commensurate with the substantial and growing backlog 
for these activities. We continue to oppose the Administration's 
request for statutory language to cap the listing program which is 
clearly an attempt to avoid having to comply with statutory mandates 
and court orders. The FWS should instead request an amount for listing 
and critical habitat that accurately reflects its workload.
    The Consultation increase will help address the growing Section 7 
consultation workload (more than 40,500 actions projected for fiscal 
year 2001 and annually thereafter) and continually expanding use of 
Habitat Conservation Plans (HCPs--more than 550 new and ongoing HCPs 
projected for fiscal year 2001) as well as provide some funding to 
ensure that both consultations and HCPs are based on sound science and 
subject to monitoring for effectiveness and compliance. While Defenders 
is not opposing funding for new HCPs, we continue to believe that the 
current FWS HCP process is fundamentally flawed and in need of 
regulatory modifications. The Administration has failed even to 
finalize its so-called 5-Point Plan which would make modest, 
nonregulatory changes to the HCP program. We urge this Subcommittee to 
include report language directing the Administration to remedy the 
numerous deficiencies in its HCP program and at a minimum to finalize 
its 5-Point Plan.
    The Recovery request will help address the backlog of more than 300 
species still without final recovery plans as well as recovery 
implementation and monitoring for the nearly 1300 listed species 
expected by the end of fiscal year 2001, a 42 percent increase just 
since 1995. Recovery is the goal of the Act yet recovery implementation 
continues to be critically underfunded. The following are Defenders' 
highest priories for specific recovery programs. To help restore the 
wolf to the northeast, $100,000 is needed for preparation of NE 
recovery plan and economic and other necessary feasibility studies. For 
needed efforts in the NE on recovery of lynx which has just been 
listed, $50,000 is necessary. For the successful red wolf program in 
North Carolina, $1 million will support continued captive propagation, 
monitoring, and reintroduction. FWS needs $1.2 million to ensure 
continued Mexican wolf restoration success, specifically to: provide a 
full-time biologist for the White Mountain Apache tribe; provide 
funding for biologists from AZ and NM Fish and Game Departments; 
increase law enforcement; and equipment to manage wolves in remote and 
difficult to access areas. For the Northern Rockies wolf recovery 
program, $1.325 million is needed for the FWS of which $600,000 will be 
passed through to the Nez Perce tribe, while an additional $220,000 
(NPS) will pay for management of the program in Yellowstone National 
Park. At least $380,000 is necessary for recovery efforts in WY, MT, SD 
and AZ for the endangered black-footed ferret, thought to be extinct in 
the wild except Defenders of Wildlife--Page for reintroduced 
populations. FWS will need $1.65 million in fiscal year 2001 to conduct 
critical research necessary to identify the cause of a precipitous 17 
percent decline in southern sea otter populations over the past 4 
years. Finally, for the grizzly recovery program which covers 30,000 
square miles in four states, $1.3 million is needed of which $400,000 
is for Bitterroot reintroduction (our highest priority), $550,000 is 
for the base program, $250,000 for an EIS on grizzly recovery in the 
North Cascades, and $100,000 for enhanced monitoring and nuisance bear 
work in the Northern Continental Divide ecosystem. Defenders has 
opposed attempts to derail the Bitterroot grizzly reintroduction in the 
last few years' appropriations bills and will work to ensure that 
$115,000 of the grizzly recovery budget will be will be used for 
finalization of the EIS, issuance of a ROD and final rule and creation 
of a citizen management Committee in fiscal year 2001.
    Migratory birds.--FWS is responsible for 58 game and 778 non-game 
migratory bird species protected under the Migratory Bird Treaty Act of 
1918. At the very least, we support the President's fiscal year 2001 
budget request of $22.8 million for critical activities such as 
conservation plan implementation, monitoring, and use of scientific 
information in designing management strategies. Twelve critical 
projects will be funded with increases including: development of the 
West Coast Seabird Conservation and Management Plan; strengthening of 
bird habitat and population evaluation teams; and integration of 
national objectives into refuge comprehensive plans.
    International Affairs.--Under General Administration, Defenders 
endorses the $11.4 million request for International Affairs which 
helps support U.S. international leadership in the conservation of 
wildlife and biodiversity, particularly through implementation of the 
Convention on International Trade in Endangered Species (CITES). We 
suggest an additional enhancement of $600,000 (split evenly between 
International Wildlife Trade and International Wildlife Conservation 
within that line item) for personnel and/or contracts to enable FWS to 
assist the CITES Parties in strengthening national legislation that 
implements CITES and improving wildlife law enforcement.
    National Wildlife Refuge System (NWRS) Operations and 
Maintenance.--We deeply appreciate the Subcommittee's strong support 
for the Refuge System and its leadership in providing critically needed 
increases. Defenders continues to be a proactive member of the 
Cooperative Alliance for Refuge Enhancement (CARE), a diverse coalition 
of 18 environmental, hunting, fishing, and recreation groups. CARE has 
again reviewed FWS expenditures and concluded that fiscal year 1999 
funds were used as intended, to reduce the overwhelming O&M backlog. 
Unfortunately, due to the magnitude and duration of the O&M funding 
deficit, continued increases will be needed to address the $953 million 
in operations needs and the $578 million maintenance backlog. FWS is 
currently working to separate its Refuge Operating Needs System into 
two tiers as directed by the Subcommittee last year with completion 
projected for June. The largest portion of Tier One is expected to be 
the minimum staffing needs estimated to require an additional 1400 full 
time employees. In its five year plan, CARE has identified a target O&M 
level of $495 million necessary to bring the Refuge System into a state 
of health by its 100th anniversary. An additional $85 million over the 
President's request is needed for fiscal year 2001 to keep pace with 
the CARE plan; of this $68 million should be focused on operations 
increases which have not kept pace with those for maintenance. These 
Operations increases are critically needed to carry out the 
requirements of the new National Wildlife Refuge System Improvement Act 
and to implement the FWS blueprint for strengthening the Refuge System, 
``Fulfilling The Promise--Visions for Wildlife, Habitat, People and 
Leadership.''
    Law Enforcement.--We urge a $5 million increase over the 
President's requested $52 million for Law Enforcement. The current 
budget does not cover the basic needs of existing staff which total 42 
fewer than authorized; pending retirements could reduce staff to 75 
percent of the authorized level by the end of fiscal year 2000. The $5 
million over request should be allocated as follows: $3 million and an 
additional 3 full time employees to bring the number of inspectors up 
to authorized strength and provide resources necessary to monitor 
increasing wildlife trade flows; and $2 million and an additional 3 
full time employees to increase the level of anti-poaching training, 
CITES enforcement workshops, and technical assistance to countries 
around the world. Over the years, Defenders has partnered with the FWS 
on law enforcement efforts by contributing nearly $100,000 in rewards 
to apprehend illegal killers of wolves, bears, eagles, and cormorants.

                          U.S. FOREST SERVICE

    In general, while Defenders does not pretend to be expert in 
improvements needed to address FS accountability problems, we have 
examined the proposed simplification of the FS budget structure and are 
concerned that tracking and oversight of funding for resource 
management needs will be more difficult. Major priorities for Defenders 
for fiscal year 2001 are again funding increases for two extremely 
important areas that support species conservation in the FS budget: 
research and habitat management for threatened, endangered, and 
sensitive (TE&S) species. Under Forest and Rangeland Research Wildlife, 
Fish, Water, and Air program, Defenders is concerned that the $43.8 
million requested will be inadequate to carry out needed efforts, 
particularly for TE&S research. The agency has identified $27 million 
in Wildlife, Fish, Water, and Air research opportunities that will go 
unfunded at this level, including critically needed work on forest 
carnivores (lynx, wolverine, marten, fisher), bats, plants, amphibians, 
mussels, and crayfish. This program continues to be so grossly 
underfunded that 70 percent of meager TE&S research funds are invested 
in fewer than 10 species or groups of species; of the 2500 sensitive 
species on FS lands, FS scientists are studying only 54. We therefore 
recommend a $10 million increase over the President's request for 
Wildlife, Fish, Water, and Air Research to be targeted at TE&S efforts. 
Given that the lynx has recently been listed, sound scientific 
information on this species is more crucial than ever. We opposed 
language initially included in the fiscal year 2000 Senate report that 
would have reduced funding for research and targeted it on forest and 
rangeland health and productivity and targeted Wildlife, Fish, Water, 
and Air research for deep cuts or termination. We will continue to 
oppose any similar efforts in the Senate this year. Defenders also 
strongly urges full funding of the President's requested $33.5 million 
for TE&S Habitat Management under the Fish and Wildlife Conservation 
program; however, even the request falls $67 million below identified 
need. Increases are critically needed to provide for key activities 
such as: recovery activities for listed species; conservation 
strategies and agreements for highest priority species where continued 
viability is of grave concern; and establishment of inventory and 
monitoring protocols for highest priority TE&S species.

                       BUREAU OF LAND MANAGEMENT

    Defenders strongly supports, at the very least, the requested 
levels in three important areas.--Wildlife and Fisheries Management 
($40.7 million), Threatened and Endangered Species Management ($23.6 
million), and Rangeland Management ($72.8 million). BLM manages some of 
the most ecologically diverse habitat in the U.S., including habitat 
for 241 listed, 46 proposed, 55 candidate and 1500 sensitive species. 
To pro-actively deal with final listing decisions expected soon on a 
number of proposed species as well as continued recovery efforts for 
listed species, BLM has selected for coordinated conservation efforts 
two critical ecosystems where habitat for many of these species 
overlaps: the sagebrush ecosystem affecting sage grouse, Columbian 
sharp-tailed grouse, Great Basin redband trout and Lahontan cutthroat 
trout; and the prairie grasslands ecosystem affecting black-tailed 
prairie dog, black-footed ferret, lesser prairie chicken, piping 
plover, swift fox and numerous other species. Increases in Wildlife and 
Fisheries Management and Threatened and Endangered Species Management 
will be crucial to these comprehensive ecosystem level initiatives; 
moreover, BLM has identified an additional $4 million in unmet needs 
for these two efforts even at the level requested. Finally, the request 
for Rangeland Management will support needed environmental reviews for 
expiring grazing permits; we opposed the rider in the fiscal year 2000 
bill allowing renewal of permits without reviews and will continue to 
oppose any such riders in the fiscal year 2001 bill.

          U.S. GEOLOGICAL SURVEY BIOLOGICAL RESOURCES DIVISION

    Defenders supports the President's fiscal year 2001 level of $158.8 
million for BRD, as well as increases under other USGS divisions for 
BRD related activities such as.--Amphibian research and monitoring; DOI 
science priorities; Livable Communities/Lands Legacy; Decision Support; 
Aquatic Systems-Columbia River; Place-Based Studies; Science Support; 
and Facilities. BRD increases are critically needed to allow important 
research to move forward on amphibians and other declining species like 
sage grouse and mountain plover; even at the fiscal year 2001 request 
level, funding will still be about $20 million below the fiscal year 
1994 level adjusted for inflation. We wish to note however, that while 
we support the increase for Livable Communities/Lands Legacy, we are 
concerned that all of the increase--even for matching grants to 
communities--seems to be focused on information collection, transfer, 
and delivery. Increases for efficient transfer of useful data and its 
integration into important on the ground conservation planning are 
needed; but we also believe that at least some portion of the matching 
grant funds should be available to communities for other important 
activities related to conservation and smart-growth planning. Defenders 
maintains its strong support for the Gap Analysis Program (GAP), a 
collaborative effort involving the states and multiple partners to map 
our nation's biological diversity and areas currently managed for its 
protection; increases requested will be used to expand the current 
program to include invertebrate species and aquatic environments.

                        BUREAU OF INDIAN AFFAIRS

    Defenders believes that increased funding should be provided for 
tribal conservation efforts on reservations. The Nez Perce Northern 
Rockies wolf program (under FWS) has been chronically underfunded (as 
evidenced by staffing and monitoring shortfalls) and two additional 
tribes, the Umatilla (OR) and White Mountain Apache (AZ) want to manage 
wolves in their areas. Defenders has contributed or secured funding for 
all three efforts, but federal funding is needed as well. In addition, 
the Blackfeet people need $125,000 through BIA for listed species 
management. Finally, with the determination that listing of the black-
tailed prairie dog was warranted but precluded, Northern Great Plains 
Indian tribes have united to work collaboratively on prairie 
conservation under the newly formed Inter-Tribal Prairie Ecosystem 
Restoration Consortium. Tribes have requested the following amounts for 
prairie conservation plans: Consortium Coordinator, $145,000; Northern 
Cheyenne tribe, $156,650; Pine Ridge, $98,580; Rosebud Sioux, $248,000; 
Crow Creek Sioux, $16,800; Lower Brule Sioux, $18,980; Fort Belknap, 
$100,000; Three Affiliated Tribes of the Fort Bethold Reservation, 
$37,250; Standing Rock Sioux, $93,600; and Crow Tribe, $100,000. The 
Cheyenne River Sioux have requested $8 million over the next 4 years to 
implement Phase II of their Prairie Management Plan at $2 million a 
year.

                 EVERGLADES RESTORATION (MULTI-AGENCY)

    Defenders urges full funding for Florida Everglades Watershed 
Restoration, a total of $143.8 million.--(FWS $37 million, NPS $97.5 
million, USGS $8.5 million, and BIA $0.4 million). These funds are 
vital for carrying out the first phases of the most ambitious and 
critical ecosystem restoration project in history. In July, the Army 
Corps of Engineers submitted to Congress its Comprehensive Plan to 
restore the Everglades, a successful collaboration between federal, 
state and local partners that truly represents an investment in the 
future of South Florida. Both Governor Jeb Bush and the Florida 
legislature have indicated that the State will deliver on its 
commitment to provide half the funding. We urge you to stay the course 
and fully fund this historic project, which has such unprecedented 
bipartisan and multi-agency support.
                                 ______
                                 

  Prepared Statement of the Yukon River Drainage Fisheries Association


                                ABSTRACT

    The Yukon River Drainage Fisheries Association (YRDFA) requests an 
appropriation to facilitate the participation of Yukon River village 
fishermen in the recently-imposed Federal subsistence fishery 
management process in Alaska. YRDFA seeks an appropriation of $100,000 
in fiscal year 2001 funding. Funds would be transferred from the U.S. 
Fish & Wildlife Service to the YRDFA through a Cooperative Agreement 
entered into under the authority of the Fish and Wildlife Coordination 
Act [16 USC 661-667 (e) (1970)] and Section 809 of the Alaska National 
Interest Lands Conservation Act of 1980.

                              INTRODUCTION

    Beginning in October 1, 1999 the Federal government through the 
U.S. Department of the Interior assumed authority in Alaska to provide 
for a rural subsistence priority in the use of fishery resources. This 
has lead to the imposition of a cumbersome regulatory structure on top 
of the existing state structure.
    The current State of Alaska regulatory system is structured as 
follows:
  --80 local Fish & Game Advisory Committees (12 of these are in the 
        Yukon River drainage) Members are elected by their communities. 
        Makes recommendations to Board of Fisheries.
  --Board of Fisheries (7-member board appointed by the Governor). Sets 
        regulations Regulatory proposals for a specific region such as 
        the Yukon are addressed every 3 years.
    The new Federal subsistence fishery management regulatory system is 
structured as follows:
  --10 Regional Subsistence Advisory Councils (3 of these have 
        jurisdiction over the Yukon River; the Yukon-Kuskokwim Delta 
        Council, the Western Interior Council and the Eastern Interior 
        Regional Council). The members of these councils are appointed 
        by the Secretary of the Interior. The opinions of these 
        councils on regulatory proposals and research projects are to 
        be given serious consideration by the Federal Subsistence 
        Board.
  --Federal Subsistence Board (composed of one representative each from 
        the National Park Service, Bureau of Indian Affairs, Fish & 
        Wildlife Service, Forest Service and the Bureau of Land 
        Management plus one subsistence user). Sets regulations for 
        subsistence fisheries and, if necessary to protect the rural 
        subsistence priority on Federal lands, overrides state fishery 
        management actions.
    While Federal subsistence management staff have made a good effort 
to get information to villagers and the regional councils have held 
some meetings in the villages there is a serious need to improve 
fishermen participation in the Federal rule-making and regulatory 
process.--There are more than 15,000 rural residents living in the 42 
different Yukon villages in Alaska. All of these villages are extremely 
isolated, accessible only by small plane or riverboat. There are no 
daily newspapers, limited and poor TV reception and only a few 
scattered public radio stations.
    Most of all fishermen need a chance to work directly with the 
regional councils in the formulation of research and regulatory 
proposals.--This can take the form of regional telephone conference 
calls followed by village-based workshops at the local level. Final 
consensus-building would be achieved through a 4-day Annual Fisheries 
Conference involving all 3 regional councils, the Board of Directors of 
the Yukon River Drainage Fisheries Association, chairman of the 12 
Yukon River State Fish & Game Advisory Councils and the public at 
large. Finally, rank-and-file fishermen need a chance to interact 
directly with the members of the Federal Subsistence Board who will set 
any final policy or regulations.
    Unless the residents and fishermen of the Yukon River understand 
how the new Federal subsistence management system works and most 
importantly has a chance to participate directly in that system it will 
be very difficult for Federal regulatory schemes to be accepted by the 
users themselves.--Without adequate public participation mistrust will 
build between the rank-and-file and the Regional Councils members who 
represent them and the Federal agency staff working in the subsistence 
management program.
    Since the Federal Government took over authority for subsistence 
fisheries management in October 1999 YRDFA staff has been in frequent 
consultation with both Federal staff and the three regional councils. 
YRDFA's resources are limited however and therefore we seek this 
funding for the following activities to improve the participation of 
village fishermen and women in the Federal decision-making process:

Travel costs for participation at meetings of 3 regional 
    councils with jurisdiction over Yukon River and meetings 
    of Federal Subsistence Board..............................   $40,000
Telephone conference calls between village representatives and 
    Federal subsistence fisheries management staff............    10,000
Annual Yukon River Fisheries Conference to facilitate dialogue 
    between 3 regional councils, state advisory committee 
    chairs, YRDFA and village fishermen and women.............    30,000
YRDFA staff support to organize meetings, calls and conference    20,000

    Through such a comprehensive effort the fishermen and women of the 
Yukon will be fully informed and involved in working with the Federal 
subsistence fishery management program.

         THE YUKON RIVER DRAINAGE FISHERIES ASSOCIATION (YRDFA)

    The Yukon River Drainage Fisheries Association was formed in 1990 
to unite lower river and upper river commercial and subsistence 
fishermen of the Yukon River and its tributaries within Alaska. As such 
it represents Yup'ik Eskimo, Athabaskan Indians and white homesteaders. 
It is governed by a 16-member Board of Directors with seats apportioned 
according to the six (6) commercial fishing management districts of the 
Yukon, the coastal villages, the Koyukuk River tributary and the Yukon 
Flats. A primary goal of the YRDFA is to seek consensus solutions to 
the various management, conservation and allocation issues on this vast 
and complex river system.
    The YRDFA hosts a 4-day Annual Meeting in a different village each 
year and publishes a quarterly newsletter. The Association also 
sponsors ad hoc village meetings concerning local and subregional 
issues. It works on a regular basis with biologists of the Alaska 
Department of Fish & Game and the United States Fish & Wildlife Service 
to craft management plans that help to assure sustained yield of 
various stocks while meeting subsistence harvest needs and providing 
for commercial harvests. YRDFA then presents these consensus plans for 
formal regulatory approval by the Alaska State Board of Fisheries. The 
YRDFA is the only organization that works with and unites all the 
diverse fishermen on the river. It knows the best ways to communicate 
with and foster the participation of these fishermen.
    Thank you for this opportunity to submit written testimony.
                                 ______
                                 

              Prepared Statement of Wood River Land Trust

    The Wood River Land Trust (WRLT) would like to submit this letter 
as written testimony regarding several programs funded under the fiscal 
year 2001 Interior and Related Agencies Appropriations bill. 
Specifically, we want to express our support for the USDA Forest 
Service's Forest Legacy Program, funding for the state grants program 
of the Land & Water Conservation Fund, and the requested appropriation 
for the North American Wetlands Conservation Act grants program.
    The WRLT uses voluntary methods to work with interested private 
landowners in central Idaho that wish to conserve their land in 
perpetuity. To date we have helped landowners protect over 2,300 acres 
of land in three counties. Federal funding for land conservation is 
critical in our efforts to advance voluntary land conservation. We ask 
that you consider appropriating the full amount requested by the 
Administration for these important programs that provide willing 
landowners with financial incentives to conserve their land.

                         FOREST LEGACY PROGRAM

    We respectfully request that you allocate $60 million for the USDA 
Forest Service's Forest Legacy Program. This program provides grants to 
states for the purchase of conservation easements on commercially 
important and/or environmentally sensitive private forestland.
    Idaho is currently working to become enrolled in this program. 
Funding it at this level will allow the state--in partnership with 
entities such as land trusts--to develop several projects that will 
protect important riparian forest areas as well as sustaining the 
private forest base for continued timber production.

          LAND & WATER CONSERVATION FUND STATE GRANTS PROGRAM

    We respectfully request that you allocate $150 million for the 
state grants program of the Land & Water Conservation Fund (LWCF). This 
program assists states and localities in protecting important 
recreational resources for their citizens. The required minimum 1-to-1 
match means that each federal dollar is highly leveraged, resulting in 
more conservation activities that benefit the quality of life for 
taxpayers.
    The LWCF state grants program has had a positive impact across the 
country. A specific example can be found right here in Blaine County. 
LWCF funds were instrumental in allowing the City of Ketchum, Idaho, to 
purchase and develop Atkinson Park--a popular recreation resource in 
the heart of Ketchum. The park provides the community with soccer and 
baseball fields, tennis courts, a playground, and a picnic area. Such 
amenities help to improve the quality of life for residents and were 
made possible through the LWCF state grants program. Increasing the 
program's funding will allow more such beneficial conservation 
successes to occur.
        north american wetlands conservation act grants program
    We respectfully request that you allocate $30 million for the North 
American Wetlands Conservation Act grants program. This program 
provides matching grants for the acquisition, improvement, and/or 
restoration of wetlands. It is designed to enhance and protect habitat 
for migrating waterfowl and promote these wildlife resources for the 
public's benefit.
    In Idaho, the program has been used for a wide array of purposes. 
In Teton County, the Teton Regional Land Trust is working with local, 
state, and federal agency personnel to purchase and protect critical 
wetlands on agricultural lands. Here in Blaine County, the WRLT intends 
to use the program to help restore a riparian area that will serve as 
community greenway situated in the heart of one of the most highly 
developed parts of the Sun Valley.
    I hope that you will fully fund the Administration's request for 
these important programs.
    Thank you for your consideration of our views.
                                 ______
                                 
       Prepared Statement of The American Association of Museums

    Mr. Chairman and members of the Subcommittee: I am Jason Hall, 
Director of Government and Public Affairs for the American Association 
of Museums, presenting written testimony on behalf of a consortium 
consisting of the American Association of Museums, the Association of 
American Universities and the Society for Historical Archaeology.
    As you know, Section 10 of the Native American Graves Protection 
and Repatriation Act (Public Law 101-601--``NAGPRA'') authorizes the 
Secretary of the Interior to ``make grants to Indian tribes and native 
Hawaiian organizations for the purpose of assisting such tribes and 
organizations in the repatriation of native American cultural items'' 
and to ``make grants to museums for the purpose of assisting the 
museums in conducting the inventories and identification required under 
sections 5 and 6.'' While we appreciate the Congress and the President 
agreed in the Interior bill to provide funding of $2.496 million for 
fiscal year 2000 to allow the statutorily-mandated repatriation process 
to proceed, we respectfully urge Congress to increase the appropriation 
to $4 million for fiscal year 2001. We present the following reasons in 
support of this request.
    As you are aware, NAGPRA is remedial legislation. Congress enacted 
the law in 1990 in large part to assure that Native American remains 
and funerary and other objects retained by the Federal Government and 
museum community are returned under the law to appropriate tribes and 
organizations for reburial or other appropriate treatment. As remedial 
legislation, NAGPRA will not remedy the problem Congress sought to 
resolve unless adequate dollars are appropriated so that tribes and 
museums can complete the repatriation process--which is now under way 
but which necessarily proceeds slowly in many cases because of 
essential museum-tribe consultation and other factors. Repatriation is 
a high priority of the museum and tribal communities, which do not have 
adequate funds to do the necessary work required by NAGPRA.
    Since repatriation is the subject of Federal legislation as well as 
regulations and administrative guidelines, the U.S. Government has a 
trust responsibility to Indian tribes and their members in the area of 
repatriation. This trust responsibility imposes strict, binding 
fiduciary standards on the conduct of executive agencies, here the 
National Park Service and the Department of the Interior, in its 
treatment of tribes in repatriation matters. Adequate funding for 
tribes, museums and universities in necessary to carry out the 
statutory mandates of Congress.
    At the same time, it is clear that the communities and sovereign 
Indian tribes represented by the consortium have been called upon to 
take a much increased role in implementing Public Law 101-601 in the 
past several years, as the mandated summaries and inventories of museum 
holdings were largely completed by museums and sent to the tribes in 
mid-November, 1993, and mid-November, 1995, respectively. Activity has 
intensified immensely in recent years and will continue to do so as the 
number of actual repatriations continues to increase. The consortium's 
testimony provides information on how the requirements of the law are 
creating significant costs for our communities and seeks your support 
for funding for the grant program authorized in the law, so that we can 
continue to comply with it in a timely and responsible way. Let me 
start by addressing in generic terms the needs of the museum community. 
In order to comply with Public Law 101-601, museums have to engage in 
activities falling into four categories: (1) preparation of 
inventories, in the case of human remains and associated funerary 
object, and written summaries, in the case of unassociated funerary 
objects, sacred objects and cultural patrimony; (2) notification and 
consultation with Native American groups and visitation by those groups 
to museum collections; (3) research to identify cultural affiliation of 
human remains and objects; and (4) repatriation.
    To prepare the inventories of human remains and funerary objects 
which were due by November 16, 1995, museums have needed to: physically 
locate every item within the museum's storerooms; locate and review 
existing records to compile information necessary to determine whether 
a funerary object is ``associated'' or not, and to determine the 
cultural affiliation of the objects; catalog any remains ad objects 
that are not catalogued; document (e.g., measure and photograph) and 
analyze the human remains and funerary objects; and compile an 
inventory of human remains and funerary objects containing the 
information required under Public Law 101-601, including cultural 
affiliation. The delay in promulgation of the final regulations, and 
the late start and low level of grant funding for repatriation grants 
to the tribes and museums, have slowed the process such that a 
significant number of museums were not able to prepare inventories by 
the November 16, 1995 deadline, despite timely and continuing good 
faith efforts, and had to appeal for extensions.
    With respect to unassociated funerary objects, sacred objects and 
cultural patrimony, museums were required to and did, prepare a written 
summary by November 16, 1993 rather than an itemized inventory of their 
collections. Nevertheless, many museums needed to undertake many tasks 
similar to those noted above in order to collect the required 
information. Throughout all of this, museums have needed to consult 
with native American tribes which might have an interest in the 
objects. The time and funds spent on consultation with Native American 
peoples varies according to the physical proximity of the museum to the 
particular group.
    Once the inventory and written summary are complete, the museum 
must identify the tribal representatives authorized to accept 
repatriable objects and formally notify those representatives. Tribal 
representatives must travel to the museums to examine the objects and 
consult with the museum. Remains and artifacts must be packed and 
shipped to the appropriate Native American group. During this process, 
disagreements may arise as to the disposition of items covered by 
Public Law 101-601, and these issues must be resolved.
    Let me turn to some specific cases. On December 6, 1995, the Senate 
Committee on Indian Affairs held an oversight hearing on the 
implementation of NAGPRA. Final NAGPRA regulations, with some sections 
still incomplete, were published two days prior to the hearing. Two 
years later, the Interior Department published an interim rule on one 
of those incomplete sections, the civil penalties section. But as of 
April 2000, there have been no final regulations issued on the three 
remaining sections (future applicability, culturally unidentifiable 
remains, and unclaimed items from Federal or tribal lands.)
    Representatives from the National Park Service, the NAGPRA Review 
Committee, three affected tribes, and a witness representing both the 
American Association of Museums and an affected museum, testified about 
compliance with the law. NPS witness Katherine Stevenson noted that the 
NPS had made 83 NAGPRA grant awards totaling $4.37 million since the 
beginning of the program, but that over that time, they had received 
337 grant proposal requests totaling nearly $30 million, and she 
conceded that the Interior Department's $2.3 million request for fiscal 
year 1996 did not meet the valid needs demonstrated in the grant 
applications from museums and the tribes. Since that 1995 testimony, 
the situation has remained much the same in terms of funding needs. As 
of April 2000, the NPS has been able to make 247 NAGPRA grant awards 
totaling $13.05 million since the beginning of the program, but during 
that time, it has received 660 grant proposals totaling more than 
$47.69 million, and funding has essentially been flat at $2.3 million, 
and more recently $2.5 million annually. The $2.5 million appropriation 
continues to fall short of valid needs.
    The witness representing museums, William Moynihan, President of 
the Milwaukee Public Museum, testified about the effort of his museum 
to comply with the law. He noted that the ``Milwaukee Public Museum 
will have committed well in excess of half a million dollars by 1997 to 
deal with the legislation. Existing staff in our Anthropology/History 
Section have been reallocated from their normal duties to NAGPRA-
related activities, a large team of volunteers assembled, and trained 
student interns and work-study students hired.'' He noted that the 
Museum has been collecting anthropological and archaeological materials 
for over 100 years, that included in the holdings are the remains of 
1,500 individuals, and that the collections are not computerized. 
Despite these difficulties, the museum had completed a physical 
inventory of over 22,000 Native American ethnographic objects, and a 
preliminary inventory of 50,000 archaeological objects; sent summaries 
to 572 tribes and native Alaskan and Hawaiian groups; followed up with 
hundreds of calls to tribes; and taken a variety of other actions to 
comply with the law.
    On a broader scale, we have results from the American Association 
of Museums' 1994 repatriation survey of 500 of its member institutions, 
including all of its natural history museums and a selected sample of 
its art and history museums. The survey response rate was 43.6 percent. 
Of those responding, 76 percent of the natural history museums, 43 
percent of the history museums and 23 percent of the art museums had 
Native American objects. Those respondents--a little more than 200--
alone had almost 3.5 million objects which fell into NAGPRA categories, 
and that does not include 15 responding natural history museums, 
including 3 large institutions, which could not give an estimate of 
their NAGPRA-related holdings. An overwhelming number of these 
institutions noted how lack of final regulations and of NAGPRA grant 
funding had hindered or prevented their repatriation efforts.
    Estimating aggregate costs is not possible from the survey data, 
given the great disparities in how institutions calculated their own 
costs. It is clear, however, that thousands of institutions across the 
country are affected to some degree by NAGPRA costs.
    The Native American community is also incurring major expenses in 
attempting to comply with the requirements and deadlines of NAGPRA. As 
you know, the repatriation process involves sacred items and, most 
importantly, human remains, not just artifacts. In this light we must 
approach the funding issues related to the Act. A 1994 repatriation 
survey done by the National Congress of American Indians indicated that 
some tribes had received hundreds of NAGPRA summaries from museums, and 
that the need for outside funding to hire experts to help them analyze 
these materials and subsequent NAGPRA inventory materials is virtually 
universal. From the dozens of responses to the survey, it is apparent 
that most tribes do not have the capacity to comply with the Act. For 
example, the Shingle Springs Rancheria/Miwok/Maidu tribe reported, 
``Our tribe has been well versed in the purpose and intent of NAGPRA. 
The response from museums (the sending out of surveys to the tribes at 
the November 1993 deadline) has been astounding. We have received over 
100 notices. However, we cannot respond or take advantage because of 
lack of funds.'' This tribe estimated its financial needs at 
approximately $35,830. And at the December 1995 Senate oversight 
hearing, Cecil Antone of the Gila River Indian Community noted that the 
Community had received over 150 letters from various museums and 
Federal agencies about the disposition of NAGPRA-related collections. 
The needs of the tribes vary depending on the number of responses they 
have received, their present and future ability to comply with the Act, 
and what, if any, experience their tribe has had with projects of this 
sort. In fact, tribal responses estimating funding needs ranged from 
``unknown'' to ``very much'' to ``$2 million.''
    In October 1990, the Congressional Budget Office estimated NAGPRA 
implementation costs to museums of $40 million and to tribes and native 
Hawaiian organizations of $5-10 million over 5 years, assuming that 
museums and Federal agencies hold between 100,000 and 200,000 Native 
American remains and that the cost to inventory and review each remain 
would be $50-150. Those estimates now appear to be very low in light of 
our experience since that time. As a result, viable tribal and museum 
request for grants continue to exceed available funds by a large 
margin. In addition, museums cannot repatriate to the tribes until 
appropriate notices go into the Federal Register, and there is 
currently a backlog of about 150 such notices at the NPS, about a 
year's worth, due to lack of staff to process them.
    In closing, let me add that while the museums and tribes must have 
this grant program funded simply to comply with the requirements of 
NAGPRA, it is also true that the grant program will accomplish far more 
than compliance. Museums and tribes have discovered that the exchange 
of data required under NAGPRA is yielding new information that helps us 
all. In the process of identifying sensitive cultural items, museums 
are learning much more about their entire collections. Delegations of 
elders and religious leaders have supplied valuable new insights about 
many objects in the repositories they have visited, and in turn they 
are discovering items of immense interest to their own tribes, the 
existence of which had been unknown in recent generations. Few items in 
these categories are being sought for repatriation; it is simply that 
access to the collections has led to much better mutual understanding 
and exchange of knowledge. While the repatriation process will 
eventually end as the transfer of materials is completed, the long-term 
relationship created between museums and tribes will continue.
    Thus, this funding will not just support expenses mandated by law. 
It is also an excellent investment that serves the public interest 
now--and will continue to pay dividends in the future--through more 
accurate and respectful exhibits and education programs that are the 
fruits of long-term collaborations.
    Finally, we respectfully urge you to keep in mind that we are 
talking in large part about the reburial of the remains of human 
beings, and that under a reasonable and dignified standard, such 
repatriation and reburial should occur with all due haste. Certainly 
the United States Government has acted urgently with due regard to 
repatriation of remains of American soldiers killed in foreign wars or 
missing in action. Native American repatriation and reburial should be 
treated with the same priority and dignity.
    The consortium appreciates this opportunity to testify on this 
issue.
                                 ______
                                 

                 Prepared Statement of Marietta College

            THE SLACK SPECIAL COLLECTION AT MARIETTA COLLEGE

    Dear Mr. Chairman and Members of the Subcommittee: On behalf of the 
Board of Directors of Marietta College and the State of Ohio, I would 
like to thank you for the opportunity to submit this testimony to the 
Public Witness Hearing Record regarding an endeavor to foster a 
partnership with the Federal Government to preserve and digitize a 
portion of the State of Ohio's tremendous archives, which are housed at 
Marietta College in southeast Ohio. We sincerely appreciate this 
Committee's attention to our request for a ``Saving America's 
Treasures'' or ``Millennium Program'' grant of $500,000 to maintain and 
digitally catalog the collection of documents at Marietta College.
    Because of its position in the oldest settlement in the Northwest 
Territory, at the confluence of the Ohio and Muskigum Rivers, Marietta 
College has been the recipient of a largess of unique historical 
materials over many years. The entire collection contains 35,000 books 
and 28,000 manuscripts, as well as maps, photographs, artwork and 
archives dating back to the second half of the 18th century. This 
collection, known as the Slack Research Collection, contains first-hand 
accounts of the settlement, expansion and development of southeastern 
Ohio from the arrival of the settlers of the Ohio Company of Associates 
in 1788 through the nineteenth century, as well as related incidents on 
the state level. While each collection is historically significant 
within itself, the collections, considered together, enhance and 
complement each other, providing researchers with a fascinating and 
informative view of life on a new frontier in a developing community 
and state.
    Among the individual collections are:
    The Manuscripts and Documents of the Ohio Company of Associates, 
which include the original book of minutes of the directors, the record 
book of deeds, the survey plats, and the field notes of surveyors. This 
collection is unique in that no other depository holds the information 
in these documents. The history of the Ohio Company is interwoven with 
that of the new nation; many of its members had been comrades-in-arms 
during the American Revolution, and through the opportunity for 
westward land, sought to recover from personal and financial woes 
caused by the war. The lessons of how events on a national level can 
affect life on the local level are evident in the struggles of the Ohio 
Company to gain the land on which to make their settlement. The Land 
Ordinance of 1785 and the later Northwest Ordinance of 1787, which 
provided for government in the Old Northwest, were crucial to the 
settlement of the Ohio Country.
    The Putnam Papers, which is a collection of 450 items of 
correspondence, documentation and memoranda of General Rufus Putnam, 
brigadier-general during the American Revolution, superintendent of the 
Ohio Company of Associates, and surveyor general. Included in the 
papers are correspondence from George Washington, Secretary of War and 
Revolutionary War General Henry Knox, and Secretary of the Treasury 
Albert Gallatin, among other notable figures of early America.
    The Charles Gates Dawes Collection contains documents signed by 
George Washington and Thomas Jefferson, as well as world-famous 
statesmen, artists, authors, kings and queens, musicians, philosophers, 
and scientists.
    The Rare Book Collections consist of a library of more than 19,000 
volumes of Americana, including published materials on the Northwest 
Territory and Ohio, Civil War, and Native Americans. The collection 
also contains volumes dating from 1489. Included are three incunabula, 
rare dictionaries, 19th century textbooks, and numbers of historical 
first editions, such as Newton's Opticks. Marietta College has been 
identified as the holder of 465 titles published before 1800.
    With the approaching bicentennial of the State of Ohio in 2003, it 
is important that these documents be preserved in a fashion that will 
allow the exhibit to travel and, through digitization, become available 
to researchers nationally. Sharing resources is a long-standing 
tradition with libraries. While collections have traditionally 
participated in this concept by mounting exhibitions, today's 
technology offers an excellent new method to share primary resources. 
By developing a searchable special collections web site, researchers 
could learn more about the resources held by the College, and the use 
of original documents could be incorporated into courses on a far 
greater scale than is currently possible. In addition to providing 
increased access to the materials in special collections, the web site 
would also provide an opportunity for students to learn new skills. For 
example, families seeking genealogical information on ancestors would 
no longer need to travel to Marietta to utilize the resources of the 
collection. Photographs from the Fischer and Hoag collections provide a 
visual of the Marietta area. Students could not only help with 
digitization of materials, but also be involved with the design of the 
web site and writing the commentary to accompany the images. Digital 
reformatting is an integrated preservation strategy that achieves the 
College's dual goals of preserving the collections and offering broad 
public access to at-risk materials. Marietta College's digitalization 
program will preserve the collections, both through converting and 
reducing the handling of fragile and vulnerable materials and by 
ensuring that the process of scanning is safe for the collections.
    The College has already begun much of the work with its own 
resources, but cannot undertake this endeavor on its own. The documents 
must be preserved by experts and the process will require many hours of 
work by College personnel to complete it within the time frame allowed 
by a Federal grant. In addition to the preservation and digitization of 
the documents, a suitable repository with appropriately regulated air 
quality and adequate shelving and storage is needed in order to 
preserve the collections for use by future generations. Along with the 
space for collections, adequate research areas and workspace would aid 
staff and patrons in utilizing the available resources.
    Mr. Chairman, as your Subcommittee deliberates funding requests 
from many qualified candidates seeking your assistance this year, I 
urge you to review and consider our request for a $500,000 ``Saving 
America's Treasures'' or ``Millennium Program'' grant to carry out just 
the first phase of preservation of Marietta College's exceptional 
collection. This undertaking is extremely important for its historical 
significance to the State of Ohio and to the nation, and the ensuing 
results will bring a distinction to Marietta enjoyed by few small 
colleges.
    Thank you.
                                 ______
                                 

           Prepared Statement of the American Hiking Society

                      TRAILS AND RELATED PROGRAMS

    Mr. Chairman and members of the Subcommittee, good afternoon. I am 
Mary Margaret Sloan and I represent American Hiking Society's more than 
10,000 members and the 500,000 members of our 130 affiliated 
organizations. American Hiking Society is a non-profit recreation-based 
conservation organization operating from Maryland for almost 30 years.
    My testimony today will focus on two points. First, federal land 
managers are struggling to keep up with the dramatic increase in trail 
use in America. The solution is not, I think, to just throw more money 
at the National Park Service, Bureau of Land Management and USDA Forest 
Service, but to couple directed increased funding with increased on-
the-ground trails coordinators and volunteer coordinators.
    Second, American Hiking urges you not to make the fee demonstration 
program a permanent one just yet. As a demonstration project, the 
program is not entirely a success. Last month, our board unanimously 
approved a policy supporting the fee demonstration program in concept 
but vigorously opposing making that program a permanent one unless and 
until the agencies redressed the problems our members are raising with 
the program. Our concerns with the program are three-fold: inconsistent 
implementation, agency accountability, and equity issues.

                             TRAILS FUNDING

    According to the 1995 National Survey on Recreation and the 
Environment, hiking and backpacking are the fastest growing forms of 
recreation. In 1995, 48 million Americans hiked and 15 million 
backpacked. Hiking increased by 93 percent from 1982 to 1995, and over 
70 percent of Americans walked for recreation in 1995. Despite these 
trends, federal funding for recreation on public lands has not kept 
pace with demand.
    Last fall, alarmed by low recreation budgets and increasing 
recreation on federal lands, American Hiking Society and ten other 
national non-motorized recreation organizations compiled the attached 
Recreation and Conservation Funding booklet. We urge Congress to think 
boldly about providing increased funding for America's natural heritage 
as we begin the 21st century. As the uses and the economics of public 
land shift from extractive industries to recreation, human-powered 
recreationists believe a similar shift is needed in the budgets of our 
land management agencies. We make the following recreation and 
conservation funding recommendations for fiscal year 2001:
USDA Forest Service:
  --Recreation Management: $270 million
  --Trail Maintenance: $40 million
  --Trail Construction/Re-Construction: $30 million
  --Wilderness Management: $50 million
  --Recreation Research: $12.5 million
National Park Service:
  --Rivers, Trails and Conservation Assistance program: $12 million
  --National Trails System: $7 million
  --Geographic Information System Network for National Trails: $650,000
  --Challenge Cost Share Program: 1/3 of total to National Trails 
        System
  --Recreation Research: $7.5 million
Bureau of Land Management:
  --Recreation Management: $50 million
  --Wilderness Management: $30 million
  --Visitor Safety on Public Lands: $42 million
Land and Water Conservation Fund--$900 million
  --Continental Divide National Scenic Trail: $150,000
  --Florida National Scenic Trail: $5 million
  --Ice Ace National Scenic Trail: $3.6 million
  --North Country National Scenic Trail: $1 million
  --Pacific Crest National Scenic Trail: $6 million
    I'd like to select out several of these requests and discuss them 
in greater detail. Geographic Information Systems (GIS) and Global 
Positioning Systems (GPS) can provide national scenic and historic 
trails with high-powered tools for managing their resources and 
integrating a wide variety of data sources. The need to maintain 
accurate cultural and natural resource information, and constantly 
changing land use or political boundaries poses problems for managing 
trails over long distances. These factors, together with development 
threats, such as the proliferation of telecommunication towers and 
continual urban sprawl, all suggest the need for accurate locational 
data, not only for the trails themselves, but all associated resources.
    Through GPS, trail staff and volunteers can map centerlines and 
associated resources from signs to trees, to nearby cultural resources. 
Once captured, trail specific data can be combined with additional map 
information through GIS to provide a complete picture of each trail. 
With an established and populated GIS application, trail agencies and 
staff can provide the necessary data to their partners and actively 
participate in the planning process, helping to better manage and 
protect all trail resources and landscapes.
    The National Park Service has conducted a needs assessment for the 
20 national scenic and historic trails and recommended the following: 
Map the trail centerlines; establish a GIS program for each trail and 
for the National Trails System office; define GIS trail applications; 
create GIS Trail Internet; implement these recommendations using an 
incremental approach of four trails per year. American Hiking Society 
strongly agrees with these recommendations.
    The recommendations should be implemented over five years. One of 
the four historic trails that pass through Salt Lake City, plus the Ice 
Age, Florida, and Appalachian National Scenic Trails, should be the 
first to implement these recommendations. Each subsequent year, four 
more trails will be added until all twenty trails of the National 
Trails System are on-line. At the end of five years the trails system 
would have a fully functioning GIS both at the trail and at the 
national level. The total five year cost is currently estimated at 
$5.655 million, with Year One costs (fiscal year 2001) at $650,000 for 
the National Park Service.
    We support an increased level of funding for two Forest Service 
trails programs--Trail Construction/Re-construction and Trail 
Maintenance. The agency is the largest recreation provider in the 
United States, managing 133,000 miles of trails. The current investment 
in Forest Service lands does not match the role recreation plays in the 
agency. Many facilities are poorly maintained and deteriorating and 
recreation staff shortages are severe.
    We are concerned, as well, that despite the increased emphasis that 
Chief Dombeck is placing on recreation through the FS' Natural Resource 
Agenda, that this conversation at the top is not translating to the 
ground. Very few national forest have even one full time trails 
coordinator. And despite the number of hiking and other recreation 
organizations that want to volunteer to build and maintain trails in 
national forests, very few forests have a volunteer coordinator. Last 
year, Congress passed a bill directing national wildlife refuges to 
institute a pilot project for volunteer coordinators at individual or a 
complex of geographically-related refuges. This could be a great model 
for the other land managing agencies.
    In the National Park Service budget, we strongly support increased 
funding for the 15 national scenic and historic trails administered by 
NPS. These include such national treasures as the Appalachian, North 
Country, and Pacific Crest National Scenic Trails as well as the Lewis 
and Clark, Pony Express, and Selma to Montgomery National Historic 
Trails. For most of the national scenic and historic trails, barely 
one-half of their congressionally authorized length and resources are 
protected and available for public use. Most offices are understaffed, 
hindering the ability of the agencies to properly administer and manage 
these 15 trails. Understaffing also hinders the abilities of the 
volunteer-based organizations to work with the federal agencies to 
complete these trails. Increased funding will enhance the volunteer 
partnerships so critical to the protection of these national treasures. 
In 1999, volunteer organizations contributed $5.8 million in financial 
resources and over 550,000 volunteer hours with an estimated labor 
value of $7.4 million. Congress should at least match the private 
contribution with $7 million of federal monies. American Hiking Society 
endorses the specific figures being submitted today by the Partnership 
for the National Trails System.
    One federal agency normally associated with land management, the 
National Park Service, is at the forefront of offering technical 
assistance to the states so that they can determine their futures for 
themselves. This is through the Rivers, Trails and Conservation 
Assistance program. I'll offer an example: RTCA played an integral role 
in the revival of Chattanooga, Tennessee, from a city in the early 
1980s that was economically depressed, polluted and losing its middle-
class, to what it is today-vibrant and connected by trails and green 
spaces. RTCA was approached in 1989 to help build a greenway along the 
20-mile Chicamauga Creek, then, at the invitation of Chattanooga city 
officials, it helped develop a greenways plan for the city and regional 
greenways plan for eight surrounding counties. Last year, the Committee 
increased RTCA's budget by one half million, and, on behalf of the 30 
member Rivers and Trails Coalition: thank you. The coalition requests 
an annual appropriation of $12 million for RTCA, and we urge you to 
signal your strong support for this program by appropriating that 
amount.
    The Bureau of Land Management manages 85 percent of the National 
Historic Trails System and requires sufficient funds to manage the 
rapidly expanding recreational use of public lands and protect the 
wealth of natural and cultural resources under its jurisdiction. We 
support increased funding for Recreation Management, primarily so the 
BLM can begin to address all-terrain recreational vehicle (ATV) usage. 
The BLM reports that approximately 40 percent of all BLM field offices 
have identified management of motorized recreation as a priority for 
recreation. Many offices are experiencing conflicts between ATV 
recreation and non-motorized uses as well as damage to resources 
resulting from the recreational use of motorized vehicles.
    Annual appropriations through Land and Water Conservation Fund has 
created the longest greenway in the world-the Appalachian National 
Scenic Trail. Now that the acquisition program for the AT is complete, 
we urge you to turn your support toward the remaining national scenic 
and historic trails, and label them as high priority projects under the 
LWCF. This year, American Hiking Society strongly supports LWCF funding 
for the Continental Divide, Florida, Ice Age, North Country and Pacific 
Crest National Scenic Trails, in the total amount of $15.75 million. 
This amount is almost exactly the figure Congress appropriated solely 
for the Appalachian Trail in fiscal year 1999.

                  RECREATION FEE DEMONSTRATION PROGRAM

    In March 2000, the American Hiking Society Board of Directors 
unanimously approved a policy that supported the recreation fee program 
in concept, but strongly opposed a permanent program because of on-the-
ground problems with implementation, agency accountability, equity 
issues, and on-going concerns about both administrative and 
congressional funding offsets. American Hiking does not oppose 
recreation fees per se. Entrance and user fees provide much needed 
revenue to agencies with severe budget shortages. Yet there are simply 
too many unanswered questions that raise concerns about the execution 
and efficacy of the Recreation Fee Demonstration Program (RFDP).
    The agencies manage and implement RFDP inconsistently. These 
inconsistencies pertain primarily to limited interagency coordination, 
confusing fee policies and multiple fees, limited innovation by NPS, 
and the varied policies for volunteers. For example, most regional and 
annual passes cover entrance fees only. In some parks, hikers must pay 
entrance fees plus backcountry impact fees for overnight visits. In 
other areas, backpackers using lands under different agency 
jurisdiction may have to pay trailhead parking fees, wilderness fees, 
park entrance fees, and backcountry fees. Also, volunteers contribute 
hundreds of thousands of hours in support of the national scenic and 
historic trails each year, yet the agencies do not uniformly recognize 
these contributions through fee discounts or annual passes.
    Equity concerns remain one of the primary causes of fee demo 
opposition. Equity issues pertain to the effects of fees on low-income 
populations, different recreation user groups, and non-commercial/non-
consumptive users versus commercial users of public lands. NPS claims 
that displacement of low-income populations is not a major issue, 
despite the fact that fee surveys focus on park visitors rather than 
potential visitors. The agencies also contend that the lowest income 
groups do not participate much in outdoor recreation to begin with and 
thus are not directly affected by RFDP. The agency responses to equity 
concerns are simplistic and do not fully address the effects of fees on 
individuals or households at the margin who may reduce or eliminate 
their recreation visits to public lands.
    Equity concerns regarding different user groups vary and survey 
results are equivocal. One example is the additional backcountry impact 
fees that backpackers pay at certain national parks (e.g. Olympic, 
Glacier), while frontcountry users pay no additional fees for utilizing 
extensive infrastructure (e.g. parking lots, visitor centers, etc.). 
Equity issues also surround fees charged to non-consumptive, non-
commercial users of public lands versus commercial interests or 
extractive industries such as logging, grazing, and mining.
    We applaud the Interior Appropriations Subcommittee for continuing 
to vigilantly oppose any appropriations offsets with fee revenues, and 
urge you to continue your vigilance both within your own ranks and 
within the federal agencies. But, until the program runs its course 
through the end date, Congress should not hastily authorize permanent 
RFDP status.

                               CONCLUSION

    On June 3, 2000, American Hiking Society will coordinate its 
seventh ``National Trails Day,'' the goal being to raise public 
awareness of and appreciation for trails and trail volunteers 
throughout the year. In 1999, over 1 million people participated in 
more than 3,000 National Trails Day events nationwide, and American 
Hiking expects an even greater turnout for National Trails Day 2000. 
Clearly, trails are important to Americans. By increasing the focus and 
funding of the recreational programs outlined in this testimony, we 
believe Congress will protect the American investment in outdoor 
recreation.
    Thank you for the opportunity to speak to you today. American 
Hiking Society's members and outdoorspeople nationwide appreciate the 
Subcommittee's support in the past and look forward to continued strong 
support.
                                 ______
                                 

Prepared Statement of the National Association for Equal Opportunity in 
                            Higher Education

    Mr. Chairman and distinguished Members of the Subcommittee, I am 
Dr. Henry Ponder, Chief Executive Officer and President of the National 
Association for Equal Opportunity in Higher Education (NAFEO). I want 
to thank you for allowing me to appear before you today as you consider 
funding priorities relevant to the fiscal year 2001 Interior 
Appropriations bill. In the time that I have, I would like to highlight 
many of the accomplishments of NAFEO as well as an initiative that we 
support and are looking to expand upon in the new millennium.
    NAFEO is the national umbrella organization representing the 
nation's 118 predominately and Historically Black Colleges and 
Universities (HBCUs). Our mission is to champion the interests of HBCUs 
through the executive, legislative and judicial branches of Federal and 
state Government and to articulate the need for a system of higher 
education where race, ethnicity, socio-economic status and previous 
educational attainment levels are not determinants of either the 
quantity or quality of higher education. The organization takes lead 
responsibility for the development and dissemination of public policy, 
programmatic efforts, and strategic and educational materials that: (1) 
enhance the role of HBCUs generally, and (2) promote minority student 
enrollment and attainment specifically. NAFEO is comprised of 
institutions of higher education that represent a broad spectrum of 
interests--public and private, large and small, urban and rural, 
liberal arts, agricultural, research, scientific and technology 
development. Of all of the HBCUs that belong to NAFEO, 46 percent are 
public and 54 percent are private. The organization's membership is 
comprised of 2-year and 4-year institutions, as well as schools that 
offer advanced and professional degrees.
    Since the organization's inception in 1969, NAFEO has played an 
indelible and pivotal role in expanding access to higher education for 
a community whose greatest resource can be classified as an 
underutilized reservoir of talent and ingenuity. NAFEO institutions 
historically are responsible for educating the vast majority of African 
Americans. Today, while NAFEO institutions enroll approximately 18 
percent of all African American college students, they confer about 40 
percent of all bachelors degrees awarded to African Americans 
nationally. In some disciplines, such as engineering and teacher 
education, the number is significantly higher. Moreover, these schools 
produce the largest number of African American baccalaureate recipients 
who eventually go on to receive doctorate degrees, especially in the 
sciences. They are situated in every quarter of the country: in 
fourteen Southern states, six Northern states, three Midwestern states, 
one Western state, the District of Columbia and the Virgin Islands.
    The National Historic Preservation Act has established a program to 
provide matching grants to the states and other entities for the 
preservation and protection of properties on the National Register. 
Under the Omnibus Parks and Public Lands Management (OPPLM) Act of 
1996, Congress authorized $29 million in funding for the restoration of 
historic properties at selected HBCUs. To date, $22.3 million has been 
appropriated for this purpose. Only those historic properties that are 
either on the National Register or have been determined eligible for 
listing on the National Register as a result of state historic 
preservation officer (SHPO) surveys are eligible for federal grant 
assistance under the National Historic Preservation Act or the OPPLM 
Act of 1996.
    In response to a request from Congress, the General Accounting 
Office (GAO) conducted a study of historic preservation needs at HBCUs 
entitled Historic Preservation: Cost to Restore Historic Properties at 
Historically Black Colleges and Universities (GAO/RCED-98-51, February 
1998). GAO concluded that 712 properties on the 103 HBCU campuses 
surveyed were in need of repairs or structural renovations. Of these 
712 properties, 672 (94.4 percent) are buildings, with the remainder 
being sites, structures or objects, such as smokestacks and courtyards. 
An estimated $755 million is needed to address these historic 
preservation needs. The report noted that approximately 8 percent of 
the total amount had already been set aside to pay the restoration 
costs for specific properties.
    The needs at many of the facilities consist of making the 
properties more accessible to people with disabilities, replacing leaky 
roofs, removing health threats such as asbestos and lead-based paint, 
or wiring for new technologies. It should be noted that in recognition 
of their historic and present importance, the Park Service in June of 
1998 listed all 103 HBCUs on the National Register of Historic Places. 
This action makes each of the properties identified by GAO eligible for 
historic preservation funding.
    The Department of Interior did note that the magnitude of the 
repair cost estimates reported by the schools is substantial in terms 
of the limited level of appropriations available from the Historic 
Preservation Fund for matching grants available to HBCUs pursuant to 
the OPPLM Act of 1996. Additionally, any funding for increased 
appropriations for grants to HBCUs in furtherance of this effort would 
be subject to authorization. As a result, there are budgetary 
limitations that must be addressed when considering the restoration of 
historic properties at these schools. For this reason, in addition to 
supporting the Administration's request of $7.2 million, the remaining 
authorized amount under OPPLM, NAFEO also requests report language 
supporting the development of a long-term strategy to address the 
findings in the above-mentioned report. It is our recommendation that 
this report be submitted to Congress no later than April 1, 2001 and 
that it have a detailed timeline about how the National Park Service 
plans to address these critical needs on all HBCU campuses in the 
future.
    In order for these institutions to be able to compete with larger, 
more heavily endowed schools, they need to preserve and renovate these 
historic facilities which are a part of American history, so they will 
have the infrastructure needed to meet the complex challenges of the 
new century, many of which are technology-based. Providing sufficient, 
long-term funding in the National Park Service's Historic Preservation 
Fund would enable a significant number of HBCUs to begin preservation 
activities on the most dilapidated campus facilities. Additional 
funding would be made available for new projects not currently listed 
in the 1996 Parks bill. Moreover, including the requested report 
language directing the Park Service to prepare a plan identifying a 
timeline and resources needed to address these critical preservation 
needs at HBCUs will ensure that attention is provided to all of the 
facilities identified in the GAO report and not a select few which were 
identified as being at risk over a decade ago.
    This concludes my statement for the record. Again, on behalf of the 
National Association for Equal Opportunity in Higher Education, I want 
to thank you for the opportunity to submit testimony to this 
subcommittee.
                                 ______
                                 

        Prepared Statement of the Center for Marine Conservation

    The Center for Marine Conservation requests that this statement be 
included in the hearing record for the fiscal year 2001 Interior 
Department Appropriations Bill. Specifically we recommend the Interior 
Subcommittee provide for the following funds to the Department of 
Interior: $12 million for land acquisition within the Archie Carr 
National Wildlife Refuge; full funding of the administration's request 
for Endangered Species Act activities, and $11 million to implement the 
southern sea otter recovery plan; $143.8 million for Everglades 
Watershed Restoration; and, $10 million for the Coral Reef initiative.
    The Center for Marine Conservation (CMC) is committed to protecting 
ocean environments and conserving the global abundance and diversity of 
marine life. Through science-based advocacy, research and public 
education, CMC promotes informed citizen participation to reverse the 
degradation of our oceans. CMC is a nonprofit conservation organization 
with 120,000 members with offices in Washington, DC, California, 
Florida Alaska, Virginia and Maine.
    The importance of the Department of the Interior to the protection 
of the Nation's living marine resources and marine ecosystems cannot be 
understated. Units of the National Park Service and the National 
Wildlife Refuge system, as well as territories administered by the 
Office of Insular Affairs contain critical coastal habitat for 
threatened and endangered species and invaluable marine ecosystems. We 
therefore make the following funding recommendations for the Interior 
Subcommittee's fiscal year 2001 appropriations bill.

                THE ARCHIE CARR NATIONAL WILDLIFE REFUGE

    CMC urges the Appropriations Committee to approve funding at or 
above the Administration's request of $6 million in fiscal year 2001, 
out of the Land and Water Conservation Fund, for the acquisition of 
vital sea turtle nesting habitat in the Archie Carr National Wildlife 
Refuge.
    The Carr Refuge is one of the most important nesting sites for 
threatened loggerhead sea turtles in the world. It is also the most 
significant area for endangered green turtles in North America, and an 
occasional nesting site for the largest and one of the most endangered 
of all sea turtles, the leatherback. Every summer, threatened female 
loggerheads lumber ashore the pristine beaches at Archie Carr laying 
their eggs at between 12,000-16,000 nests, while endangered green sea 
turtles lay eggs at several hundred nests. Of thousands of eggs laid, 
only a few last the 60-day incubation period to become hatchlings due 
to predators like raccoons, poachers and increasing shoreline erosion. 
Once they become hatchlings, artificial lighting from increasing 
coastal development may lead them astray from their journey to the 
water, and then they face natural predators. When and if they finally 
reach adulthood, sea turtles encounter mortality from fishing gear, 
over-exploitation, dredging machinery, oil slicks, plastic pollution 
and loss of suitable nesting sites due to extensive coastal 
development.
    Sea turtles face an uphill battle, but it is clear that continued 
survival of these ancient marine animals depends in large part on the 
number of nests females create during their short nesting season. To 
nest successfully, females need dark, undisturbed beachfront such as 
the coastline at the Archie Carr Refuge. To date, the Fish and Wildlife 
Service has only acquired 128 acres of the 516 acres designated for 
acquisition at the Carr Refuge, while coastal development is constantly 
encroaching on its boundaries. Unless Congress provides funds to buy 
this land, rapid coastal development, ensuing beach erosion and 
disruptive lighting will destroy nesting habitat, pushing these 
magnificent creatures closer to extinction.
    It is critical that the Archie Carr Wildlife Refuge receive 
generous funding in fiscal year 2001 for acquisition. Because the 
Refuge was not funded for the past two years, we strongly recommend 
that you provide $12 million for this critical habitat in fiscal year 
2001. Local and state governments have contributed over $80 million to 
purchase land within this federal wildlife refuge. However, the total 
Federal contribution to date is just over $13 million. It is time that 
the Federal Government makes a substantial investment to preserve a 
resource that is essential to the survival of sea turtles worldwide.
    We deeply appreciate the $2 million the Committee and Congress 
provided for the Carr refuge in fiscal year 1998. However, efforts to 
protect sea turtle habitat have been hampered because Congress did not 
fund the Refuge at all in fiscal years 1995, 1996, 1999 and 2000. At 
the same time, coastal development has been on the rise. Beachfront 
property along the east-central coast of Florida is becoming 
increasingly expensive and less available for purchase. If Congress 
waits too long there will be no more nesting habitat left to purchase 
and protect. We trust that the Committee recognizes the urgency of this 
situation and that you will fund the Carr Refuge at an amount in 
accordance with its global significance. At the very least we urge you 
to provide the Administration's budget request of $6 million for fiscal 
year 2001. We appreciate your consideration of sea turtle protection as 
you make Federal funding decisions this appropriations cycle.

                         ENDANGERED SPECIES ACT

    CMC supports the Administration's requested increases for 
Endangered Species Act activities within the U.S. Fish and Wildlife 
Service. We urge the Appropriations Committee to provide for the 
President's proposed increases and to approve $11 million to implement 
the southern sea otter recovery plan, including $3 million of dedicated 
funding for the implementation of the priority activities in the 
recovery plan.
    The southern sea otter was exploited to near extinction and listed 
as threatened under the Endangered Species Act in 1977. Although the 
population increased from the mid-1980's to mid-1990's, it has been in 
decline since 1995 at a rate of approximately 5 percent per year. The 
primary threats to the southern sea otter include habitat degradation--
from oil spills and other contaminants--and incidental and intentional 
take by entanglement in fishing gear and shooting. Because of the low 
numbers and limited range, this population is especially vulnerable to 
oil spills along the central California coast--a single spill could 
cause catastrophic declines posing the risk of extinction. In addition, 
contaminant levels may decrease resistance to disease and reduce 
reproductive rates, further hampering the population's ability to 
recover. Finally, food availability may be a limiting factor in 
population growth: both habitat destruction and fishery practices could 
be factors affecting prey abundance.
    To save the southern sea otter, its numbers and range must 
increase. It is vital that immediate actions be taken to implement 
recovery efforts. To make effective management decisions about this 
population, scientist must have access to the most current and complete 
information available on abundance and distribution, overall health, 
and factors that may be causing the decline or hindering recovery. 
Therefore, funds are needed to continue population surveys to determine 
size, rate of change, and distribution, and to conduct investigations 
of food web interactions and affects of possible food limitations. 
Funds are also needed to assess the health of the population and 
research the sources and levels of contaminants in sea otters and their 
habitat and how this might be contributing to the decline. Federal 
programs to monitor and enforce activities to eliminate intentional 
take, efforts to reduce incidental mortality due to commercial fishing, 
including funding for observers in coastal gillnet fisheries and 
investigations of how trap and pot fisheries are affecting the 
population must continue. Finally, it is important to provide 
sufficient resources to implement management and contingency/response 
plans to reduce the risk to these otters from oil spills.

                    EVERGLADES WATERSHED RESTORATION

    The Center for Marine Conservation also urges the Appropriations 
Committee to provide for the full $143.8 million requested by the 
Administration for Everglades Restoration within the Department of 
Interior budget. Of particular concern, to CMC is the health and 
protection of Florida Bay and the coral reef tract of the Florida Keys. 
These very important marine ecosystems are downstream of the Everglades 
and are dependent on the proper flow of clean water from the Everglades 
for their health and survival.

                         CORAL REEF PROTECTION

    We urge the Committee to provide the full funding for the 
Department of Interior's $10 million to support the critical needs and 
priority actions identified by the U.S. Coral Reef Task Force. To help 
ensure that they have resources needed for coral reef, and other living 
marine resource, research and protection we also urge the Committee to 
fully funding the Administration's request for the operating budgets of 
the National Parks, the U.S. Fish and Wildlife Refuges and the Office 
of Insular Affairs.
    The Department of Interior has tremendous responsibilities for 
protection of living marine resources through units of the National 
Park Service, Fish and Wildlife Service and U.S. territories under the 
responsibility of the Office of Insular Affairs. It is estimated that 
these bureaus have stewardship responsibilities for over 625,000 acres 
of coral reefs, and most of the Nation's estimated 4.2 million acres of 
coral reefs has yet to be mapped or assessed. It is for this reason 
that the President named the Secretary of Interior as the co-chair of 
the U.S. Coral Reef Task Force established under Executive Order 13089, 
signed at last the National Ocean Conference in 1998. Coral reefs are 
rightly known as ``rainforests of the sea'' are among the most complex 
and diverse ecosystems on earth. Coral reefs provide habitat to almost 
one third of marine fish species, serve as barriers to protect coastal 
areas and important to the tourist industries of many States and 
territories. Coral reefs also extremely fragile and are facing serious 
threats from overutilizaiton and pollution around the world and in U.S. 
waters, making the work of the Coral Reef Task Force and Department of 
Interior extremely important and worthy of the Administration's funding 
requests.
    Specifically we support: the $2.7 million requested for the Fish 
and Wildlife Service to increase protection, monitoring and site 
acquisitions; the $3.6 million requested for the National Park Service 
to improve management of special reef areas; the $3.2 million requested 
by the U.S. Geological Survey for research and mapping of coral reefs; 
and, the $500,000 requested by the Office of Insular Affairs to support 
territory coral reef initiatives.
    We appreciate the Appropriations Committee's consideration of our 
views.
                                 ______
                                 

         Prepared Statement of the City of Miami Beach, Florida

    Mr. Chairman and members of the Interior and Related Agencies 
Subcommittee:
    The city of Miami Beach, Florida, respectfully submits a community 
enhancement and parks/open space project for a discretionary fund set-
aside through the fiscal year 2001 Urban Parks Restoration and Recovery 
Program. The city-proposed set-aside of $15 million will be used toward 
the implementation of a citywide network of bicycle/pedestrian/greenway 
trails, known as the Atlantic Corridor Greenway Network, which will 
become natural extensions of the Municipal Parks System. The cost of 
implementing the network is $35 million, of which approximately $20 
million has already been funded by or awarded to local government. Only 
the $15 million requested herein remains unfunded.
    The Atlantic Corridor Greenway Network encompass the trails along 
the Atlantic Ocean and Indian Creek Waterway, and several inland trails 
that will provide direct access to the city parks, beaches and 
waterways, from the residential, entertainment, and tourist areas of 
the city. One such trail will span a residential causeway over Biscayne 
Bay and into downtown Miami, affording spectacular vistas of the 
downtown skyline, the seaport, and Miami Beach. A listing of the 
elements of the Greenway Network is provided as an exhibit to this 
testimony.
    This integrated network of Greenway Trails will snake its way along 
the city's parks, beaches, waterways, and other natural ecosystems, and 
will include rest areas, vistas areas, and water recreation areas, and 
interpretive signage throughout the Greenways, to provide enhanced 
heritage and eco-tourism amenities and recreational opportunities for 
trail users.
    The city of Miami Beach park's master plan places great emphasis on 
preserving and enhancing the Coastal Dune System, Native Vegetation and 
Sea Turtle Hatchery Program, as well as the creek and waterways natural 
environment and vegetation. Exotic species will be cleared and new 
native plantings are proposed for purposes of Dune and seawall 
stabilization, creation of a visual link from land to sea, and 
provision of a much needed sense of openness and security.
    Two of these greenway trails are presently funded and nearing 
construction--the North Beach Recreational Corridor Project/Phase One, 
and the Beachwalk Corridor in South Beach. The North Beach project 
begins at the North Shore Open Space Park, which, at 34.61 acres, is 
the largest park in Miami Beach and a highly treasured natural resource 
by the seashore. Reaching southward, this trail will go through Altos 
Del Mar, North Shore (Band Shell), and Allison Parks. The other 
project--the beachwalk trail will connect an existing Oceanfront 
Boardwalk, Collins Park, and the Cultural Arts Campus, to Lummus Park 
at Ocean Drive. Subsequently, the Beachwalk Trail will be extended 
further southward through Ocean Front Park and South Pointe Park, which 
affords spectacular views of the Atlantic Ocean as well as the Cruise-
ship Channel, and Miami.
    The Greenway Trails will allow for beachfront and marine access 
facilities, as well as improved access to local and regional transit 
stops. A listing of the elements of the Atlantic Greenway Network is 
provided as an exhibit to this testimony. We wish to emphasize that a 
$15 million fiscal year 2001 discretionary fund set-aside by the Urban 
Parks Restoration and Recovery Program is essential to the completion 
and interconnection of the Miami Beach-proposed Atlantic Corridor 
Greenway Network, to enhanced eco-tourism opportunities, and to an 
increased parks and trails cross-utilization by residents and visitors.
    Your consideration is sincerely appreciated.
                                 ______
                                 

      Prepared Statement of the Alachua County, Florida, Board of 
                             Commissioners

    Mr. Chairman: Thank you for allowing the Alachua County Board of 
Commissioners to submit written testimony before your Subcommittee 
regarding a major initiative for which the County seeks your support.
    Alachua County has embarked on a local land conservation program, 
which the County Commission has selected as one of its highest program 
priorities for 2000. A separate citizen-initiated referendum called 
Alachua County Forever is anticipated to raise $17 million from ad 
valorem property taxes to match federal and state land acquisition 
funds. The County's Land Conservation Advisory Committee (appointed in 
November, 1999) is finalizing a system to prioritize which local lands 
should be conserved, and is creating the tools to accomplish these 
goals. Eastern Alachua County has been included in the St. John's River 
American Heritage River designation, with three suggested projects. A 
number of eco-tourism and recreational opportunities are being pursued 
to capitalize on the County's protection of its natural areas. The 
County, in cooperation with the City of Gainesville, is actively 
seeking federal and state partnerships to achieve its land conservation 
goal of an emerald necklace comprising gems of conserved natural areas 
throughout this part of ``the Real Florida.''
    Land acquisition priorities.--Alachua County has five large-scale 
projects (5000+ acres) on Florida's Conservation and Recreation Lands 
(CARL) acquisition list. These include:
  --Paynes Prairie additions (a large freshwater wetland and watershed, 
        operated as a state preserve)
  --San Felasco Hammock additions (a mature hammock and sandhill 
        forest, with ravines)
  --Watermelon Pond (an upland sandhill and scrub forest with important 
        ephemeral wetlands)
  --Newnans Lake (a diverse flatwoods forest surrounding a lake with 
        declining water quality)
  --Lochloosa Forest (a flatwoods forest, largely in commercial 
        production surrounding two large lakes)
    Each of these CARL projects has outstanding land acquisition needs, 
with state matching money available from Florida Forever (formerly 
Preservation 2000). The lack of a local source of matching funds has 
hurt the ability of Alachua County's projects to compete favorably with 
other local governments which have local land conservation programs, so 
Federal matching funds (either grants or loans) would greatly assist in 
finishing the acquisition of these lands before development further 
fragment them. If the Alachua County Forever referendum passes in 
November 2000, the County will have a source of matching funds. Federal 
agencies could help by ``challenging'' the County with the promise of 
matching funds for projects of national significance, such as Paynes 
Prairie.
    For this initiative, the City of Gainesville and Alachua County 
have identified three project areas. The first is Newnans Lake, a large 
lake in a semi-wild setting with mysteriously increasing 
eutrophication, yet spectacular recreational and scenic resources. 
Specific projects requiring funding assistance include: investigations 
into water quality issues, remedying muck build-up (possibly through a 
draw-down or mechanical removal), land acquisition (including less-
than-fee opportunities with large forestry companies), a multi-user 
trail system circling the lake and connecting two existing rail-trails, 
and the designation and enhancement of an informal, but exceptional 
canoe trail connecting Newnans and Orange Lake down Prairie Creek and 
the River Styx. The St. Johns River Water Management District is a 
willing partner, having made substantial commitments in the past and 
with expressed interest in continuing to conserve the lands and waters 
of this area, while enhancing public access.
    The second project is to clean-up and mitigate Sweetwater Branch, 
and its impacts on Paynes Prairie (a National Natural Landmark) as well 
as the Floridan Aquifer. As one of the major watersheds flowing through 
eastern Gainesville, this creek has all the problems of urban 
stormwater and wastewater outfall into natural areas. While substantial 
funds have been received from federal sources for the Depot Stormwater 
Park, the cost of cleaning up this brownfield area is considerably more 
than the local governments can handle.
    The third project is to clean-up and mitigate impacts to Hogtown 
Creek, the major watershed in western Gainesville. The City and State 
have acquired over $3 million of property comprising the Hogtown Creek 
Greenway, however funds are needed for development of recreational 
trails, and for sedimentation control. We are seeking $10 million in 
federal support.
    We hope that the Subcommittee will find this critically important 
project worthy of your support.
    Thank you for your consideration.
                                 ______
                                 

         Prepared Statement of the City of Gainesville, Florida

    Mr. Chairman: On behalf of the City of Gainesville, Florida, I 
appreciate the opportunity to present this written testimony to you 
today. The City of Gainesville is seeking Federal funds in the fiscal 
year 2001 Appropriations bill to assist with our East Side Community 
Recreational Facility. This facility will provide for recreational and 
other programs and services to serve at-risk youth and their families 
and a substantial population of low-income citizens in the surrounding 
area.

             EAST SIDE COMMUNITY RECREATION CENTER PROJECT

    The City of Gainesville is seeking a funding strategy for a multi-
purpose community-based recreational facility on the east side of our 
city. The site for this project is in one of our highest poverty and 
minority-populated areas. Once completed, the center will provide a 
wide range of programs and opportunities to at-risk youth and their 
families. It will also provide needed facilities and services for the 
substantial population of low-income elderly in this area of our 
community, as well as to all our community.
    The demographics of the surrounding service area include the 
following statistics: (a) Population of approximately 12,000 residents 
living in 4,000 households, with a median family income of $14,708; (b) 
41.1 percent of the families have household incomes below the poverty 
level; (c) 25.3 percent requiring public assistance of some type, and 
(d) 84.2 percent of the citizens are African-American.
    This is a public/private initiative estimated to cost $2.5 million. 
Funding has been received or pledged in the amount of $1.5 million. The 
initiative is being led by a grassroots partnership of business 
leaders, community leaders, professionals and interested/concerned 
citizens who have organized themselves as the East Gainesville Park 
Development Group.
    The public agencies involved in this effort include the City of 
Gainesville, Alachua County, the School Board of Alachua County, and 
the University of Florida. So far, the project has received 
considerable financial support or pledges from the City, the County, 
and private individuals. The University of Florida has pledged to 
provide coaches and mentors. Additionally, the School Board of Alachua 
County has expressed an interest in this facility to help meet its own 
recreational facility shortfalls.
    The plan for this project is based on the need to provide 
recreational facilities for families and on the desire to provide our 
youth with such advantages as leadership skills, team participation 
skills, and computer skills as well as opportunities to participate in 
physical and mental exercise, arts and crafts, and social activities, 
and to receive mentoring and after school tutoring. The educational 
component will include after school tutoring sessions, computer, anger 
management, life skills, and teen parenting and pregnancy prevention 
classes. Parental involvement will be encouraged for all activities.
    The facility will be sited on a 36-acre parcel of land zoned for 
park use. The site amenities will include a multipurpose building 
(estimated at 6,500 square footage in area), serving as a learning 
resource center and community center. The facility will house the 
computer lab with computers promised by IBM, and rooms for after school 
homework and tutoring. Accommodations for indoor recreational and 
cultural programs will also be provided. The active outdoor amenities 
will include an interactive water fountain play area, playground and 
tot lot, picnic areas, two softball fields, two soccer/football fields, 
three basketball courts, \1/4\ mile track, \3/4\ mile jogging/fitness 
trail, \1/4\ mile interpretive nature boardwalk and a concession 
facility. The City of Gainesville will own and operate the park and 
improvements.
    In closing, Federal support is critical for this initiative. We 
respectfully request that the Subcommittee give our request every 
consideration throughout the fiscal year 2001 appropriations process.
                                 ______
                                 

       Prepared Statement of the Colonial Williamsburg Foundation

    Mr. Chairman and members of the Senate Appropriations Subcommittee 
on Interior and Related Agencies, I want to thank you for the 
opportunity to talk with you today concerning two proposals that we at 
Colonial Williamsburg are excited about and feel could help to re-
calibrate our national compass and engage future generations in a 
stimulating discussion about the basic principles of democratic 
government that have made this country a world leader.
    You may know Colonial Williamsburg as John D. Rockefeller, Jr.'s 
famous restored eighteenth century town. But the significance of this 
town goes far beyond the bricks and cobblestones. We are the nation's 
largest outdoor living museum. Our conservancy museums have one of the 
largest collections of eighteenth century Antiquities in the world. 
There are over 600 original and restored eighteenth century buildings 
in our 173 acre Historic Area. We also have a large and talented 
interpretive staff who can bring American history and the democratic 
principles of our forefathers to life in a fun and stimulating learning 
environment. Quite simply, Colonial Williamsburg is an educational 
institution. Its significance is both public and personal, educational 
and experimental. Its mission is to tell the story of a diverse group 
of people who fought to create a new community in a new land, based on 
new ideals.
    Our living history approach creates the environment of the past--a 
colonial town--and populates the streets, homes, and shops with 
costumed interpreters. Visitors can actually touch history. They can 
talk with tradesmen, ask them questions, and examine their crafts. They 
can sit as a local magistrate at the colonial county courthouse. They 
can eat a meal in an authentic eighteenth century colonial tavern, help 
make bricks for the foundation of a house, even engage in a political 
discussion with George Washington, Thomas Jefferson, or the royal 
governor. They hear the echoes of Patrick Henry's denunciation of the 
Stamp Act resonate throughout the halls of the Colonial Capitol. 
Visitors can literally immerse themselves in the past. The result is a 
dynamic method of history education that generates an excitement for 
learning about the ideas and principles upon which our democracy is 
based.
    Over three million people visit our site each year from all 50 
States and from many other countries. But our goal of fulfilling 
Jefferson's objective of an educated populace does not stop with just 
those guests who are able to visit Colonial Williamsburg in person.
    Colonial Williamsburg has long been the leader in providing 
distance learning with a variety of educational programming activities 
for over fifty years. Today, with the best technological communication 
resources at our command, we are able to reach millions of students and 
teachers throughout the country through broadcast, internet, 
interactive media and digital satellite. One of the results of these 
advances in technology is our award winning Electronic Filed Trips that 
allow students and teachers to ``visit'' Williamsburg via interactive 
television programs, while our www.history.org web site offers 
convenient access to our educational and research resources on the 
Internet.
    Our Electronic Field Trips provide a live, interactive format by 
Colonial Williamsburg to over one million registered students. These 
programs are also viewed by another three million students on a delayed 
basis courtesy of local PBS stations. We provide seven Electronic Field 
Trip programs each year. The programs deal with a variety of topics 
from methods of travel in the eighteenth century, to slavery, 
apprenticeships, and indentured servitude, to tradesmen rebuilding the 
houses and structures of Colonial Williamsburg. Schools that register 
for the program receive printed lesson plans, resource materials, 
internet activities, and other materials to prepare students during the 
month preceding the program. The program comes live into the classroom 
and registered students can phone in questions to interpretive staff 
who appear in the program segment. Over 30 other interpretive and 
research staff take calls, email, and internet messages and respond to 
the students. Material remains on our web site for 30 days after the 
program. During one of our most recent programs, over 1,300 calls from 
across the country were received.
    While we currently reach over four million students with these 
award-winning, state-of-the-art programs, we feel we have an obligation 
to help more schools and students meet national standards of learning. 
We have been informed that in schools using the Electronic Field Trips 
these scores have gone up. The programs address more than just history 
SOL's--they cover science, math, and other subjects as well.
    We would like to be able to offer our Electronic Field Trips, free 
of charge to an additional 10,000 schools across the country. This 
would mean reaching an additional five million students a year. We have 
already developed the facilities and the high tech programmatic 
infrastructure for these programs. We have proven how successful they 
can be in exciting and educating students. We believe that if we can 
reach these additional 10,000 schools, the programs will become self-
supporting. We believe we can convince these schools and others that 
the seven programs are worth $500 a year. As stewards of an important 
segment of our American heritage, we are asking for a one-time 
appropriation of $3 million to reach an additional five million 
students and to help students, teachers, and schools in all 50 States 
provide the type of state-of-the-art programs that teachers want and 
that will use twenty-first century technology to develop an 
understanding in the students of timeless eighteenth century 
principles.
    We want to expand our educational programs to many more areas and 
students across the country. The Electronic Field Trips offer 
stimulating, state-of-the-art, fun, yet challenging programs. They have 
allowed millions of students and teachers to learn and understand the 
events that have shaped the nation's history. They also ensure we keep 
alive John D. Rockefeller Jr.'s goal for Colonial Williamsburg ``that 
the future may learn from the past.''
    You may accuse me of bias, but I believe Mr. Rockefeller would be 
proud of our educational programs. He would also encourage us to do 
more with his vision in mind. The advent of the twenty-first century 
provides an appropriate time to reflect on America, the democratic 
values that have influenced representative government, and the legal 
principles that have always protected a free society. Indeed, the onset 
of the new century in an opportune time to focus on the History of 
America.
    Responding to the challenge to learn from the past and prepare new 
generations of American leaders, the College of William and Mary and 
Colonial Williamsburg, two of the most prestigious educational 
institutions in America and preeminent stewards of early American 
history, are collaborating to establish a unique and challenging 
residential program for scholarly historical research at Virginia's 
Colonial Capital. We are tentatively calling it the Institute of 
American History and Democracy.
    The goal of the institute will be to assist the nation in re-
calibrating its internal compass to enhance the understanding of 
college and high school students in our nation's historic journey and 
to encourage the ongoing review of America's founding principles. The 
Institute would be open to visiting undergraduates from colleges and 
universities across the United States and from the international 
community. Academic credit would be provided by the College of William 
and Mary.
    Joint William and Mary and Colonial Williamsburg faculty, as well 
as nationally-recognized historians would develop the curriculum and 
present the courses. Course topics would include early American 
history, constitutional history, governmental institutions, social 
history, military history, archeology, and museum-related fields.
    During the summer, this joint faculty would provide a similar 
program of courses for outstanding high school students from across the 
country. Summer high school students would be able to earn advance 
college credit for these courses. Colonial Williamsburg has been 
providing a similar program for teachers for the last ten years. Our 
Teacher Institutes have helped to avoid teacher burnout and have 
instead rekindled the passion for history and raised the teaching 
skills of those attending, several of whom have later been named 
teacher of the year in their States.
    Both Colonial Williamsburg and the College of William and Mary have 
developed some of this country's most advanced and interactive methods 
of education. College and high school students who attend the proposed 
Institute would become involved in interactive and hands-on learning 
experiences, as well as being exposed to extensive original research 
materials. These teaching methods along with state-of-the-art 
technology will engage the students and bring history alive. It is our 
hope that the curriculum developed for the Institute could also be 
adapted to our outreach capabilities and thereby made available to an 
even wider audience.
    We are seeking a one-time award of $5 million to cover the initial 
start-up costs for the Institute including curriculum development, 
staff training, program marketing, and facility modifications. Housing 
will be provided by Colonial Williamsburg at existing facilities. 
Classroom space will be provided by Colonial Williamsburg and the 
College of William and Mary at existing facilities. Once established, 
the program will be self-supporting through tuition and private 
donations.
    I should note that Colonial Williamsburg has never sought this type 
of Federal funding support before. We are seeking this assistance now 
because we believe these two programs will add significantly to future 
generations' understanding of basic democratic principles and will help 
to keep those principles alive and well for many generations to come. 
We want to help keep the ship of state pointed in the right direction 
by ensuring all of our citizens understand and can apply the basic 
principles and ideals of democracy that were established in this 
country in the late 1700's by the founders of our nation.
    Again, thank you for the opportunity to talk with you here today 
about what we believe are two very exciting proposals. We hope you will 
agree and will help us make them a reality.
                                 ______
                                 

Prepared Statement of the National Association of University Fisheries 
                         and Wildlife Programs

    The National Association of University Fisheries and Wildlife 
Programs (NAUFWP) provides this statement on the proposed fiscal year 
2001 appropriations for the U.S. Geological Survey (USGS), especially 
the Biological Resources Division (BRD), U.S. Department of Interior.
    Fifty-four universities dealing with natural resources share 
membership in the NAUFWP. They seek to advance the science and practice 
of fisheries and wildlife ecology and management, and enhance public 
understanding and multiple benefits from natural resources.
    The NAUFWP is pleased to see the proposed increase (13.6 percent) 
in funds for the BRD, including $700,000 for the Cooperative Fish and 
Wildlife Research Unit Program. This proposed overall increase for BRD 
is the first since fiscal year 1994. But because of past constrained 
budgets, the fiscal year 2001 budget proposal remains nearly 10 percent 
behind the rate of inflation between fiscal year 1994 and fiscal year 
2001. Nevertheless, the proposed increase is welcomed warmly after the 
recent trend of overall decreased funding.
    We are especially pleased to see continued attention devoted to 
filling all staff vacancies in the existing Cooperative Research Units 
and to providing some additional financial support for operations of 
this essential cooperative program. All of your past efforts to rebuild 
the staff and provide support for the program are deeply appreciated.
    As you and your Subcommittee members know, many activities carried 
out through the Cooperative Research Units generate essential 
information, facilitate outreach to the public, and yield graduates 
required to strengthen management of natural resources in the U.S., 
particularly by the state and federal agencies, as well as private 
interests. We believe this unique model of cooperative partnerships 
among Federal and state governments, universities and private 
interests, such as the Wildlife Management Institute, should continue 
to be supported firmly. Cooperative Units should be expanded to meet 
well-documented needs in the 13 states lacking Units and also in the 
three states having a Fishery Unit, but no Wildlife Unit.
    Another gratifying proposal calls for continuing studies to support 
Food And Drug Administration approvals and U.S. Environmental 
Protection Agency registrations of drugs and other chemicals for use in 
fish husbandry and management. BRD's Upper Midwest Environmental 
Science Center at La Crosse, Wisconsin is the only laboratory in the 
U.S. with facilities for this specialized research on chemicals needed 
in fish management. This important work will take another four years to 
provide compounds critical to federal, state and private fish hatchery 
programs.
    While the total BRD budget proposes a 13.6 percent increase, we 
have grave concern about the $3.8 million decrease being advanced in 
science programs and all Research and Science Centers to offset 
increases in operations (e.g. salaries, benefits, rent, and telephone). 
This proposed reduction will only further restrict the already 
financially constrained needed science programs at the Research and 
Science Centers. Adjustments are needed in handling these 
uncontrollable costs without further limiting the scientific work at 
these important Centers. Continued erosion of base funds for BRD's 
Research and Science Centers will limit expertise and capabilities 
substantially, at a time when greater production is needed from all 
Centers.
    Proposed increases in the USGS and BRD budgets seek to strengthen 
some partnership activities, beyond those carried out through the 
Cooperative Research Units. The $30 million USGS proposal, including $8 
million for BRD, will fund cooperative activities with state agencies, 
universities and others to collect and integrate essential ecological 
information into their respective information systems. We understand 
all of BRD's funds will go directly to these cooperating partners. The 
Gap Analysis Program and the National Biological Information 
Infrastructure are two projects that would be advanced through these 
funds. The NAUFWP supports this partnership and its funding at the 
requested level of $30 million for USGS, of which $8 million would be 
for BRD.
    The proposed increase for BRD of $2 million for amphibian research 
and monitoring, and $1 million for studies of fish and wildlife 
diseases is supported by the NAUFWP. Improved information on a number 
of diseases, including the deadly encephalitis-causing West Nile virus, 
avian vacuolar myelinopathy, and infectious salmon anemia, is needed to 
help develop better understanding of these threats and approaches to 
prevent their expansion and outbreaks. More information also is 
required to understand causes of widespread declines of amphibians.
    The following recommendations identify specific actions needed on 
BRD's and USGS's fiscal year 2001 budget:
  --That $700,000 be provided for the Cooperative Fish and Wildlife 
        Research Unit Program to fill all remaining vacant staff 
        positions and enhance operational support. This addition would 
        be instrumental in finally rounding out the Unit Program and 
        enable it to be more responsive to the pressing needs for 
        information and technical services.
  --That $775,000 be provided to continue the critical work to achieve 
        registration of drugs and other chemicals required in fish 
        husbandry and management. Congress should state that BRD is 
        expected to continue to fully fund this research for another 
        four years to complete the essential work at the Upper Midwest 
        Environmental Science Center.
  --That the proposed $3.8 million decrease in BRD's science programs 
        and all Research and Science Centers to offset increases in 
        operations be avoided. As stated earlier, it is recommended 
        that the adjustments in these uncontrollable costs be funded 
        without further limiting scientific work. Continued erosion of 
        base funds for the Research and Science Centers will further 
        limit expertise and research capabilities at a time when 
        greater production is needed from each Center.
  --That the proposed $30 million for USGS, including $8 million for 
        BRD, be provided to fund cooperative activities with state 
        agencies, universities and others to collect and integrate 
        essential ecological information into their respective 
        information systems.
  --That the proposed increases for BRD of $2 million for amphibian 
        research and monitoring, and $1 million for studies of fish and 
        wildlife diseases, be granted. Better understanding of these 
        threats, such as the West Nile virus which infected dozens of 
        people in 1999 and caused the death of seven, is needed. 
        Similarly, more information is required to understand causes of 
        widespread declines in certain amphibians.
    Please include this statement in the official record on the fiscal 
year 2001 appropriations for the Department of the Interior. Your 
positive response will be appreciated.
                                 ______
                                 

                    United States Geological Survey

   Prepared Statement of the National Institutes for Water Resources

    Mr. Chairman, I am Jon Bartholic, President of the National 
Institutes for Water Resources and Director of the Michigan Institute 
of Water Research at Michigan State University. This statement is in 
support of the Water Resources Research Act in the U.S. Geological 
Survey budget. We are requesting program support of $6.562 million in 
fiscal year 2001. This represents a $1.5 million increase over the 
fiscal year 2000 appropriation. Further, we support the fiscal year 
2001 USGS budget request, particularly expansion of the long-term 
monitoring network and expanded watershed planning and management 
products.
    Stresses on our water resources have never been greater. Our water 
resources are continually being impacted by human activities fueled by 
population growth. Agriculture, development, municipalities, industry, 
and innumerable additional human enterprises and activities must 
utilize and may potentially contaminate water resources. Complex water 
quantity and quality issues remain to be addressed by state and local 
government as well as the private sector. These include urban storm 
water discharges, salinization of irrigated lands, increasing municipal 
and industrial discharges, and non-point source runoff from agriculture 
and forestry. EPA data shows that 12.9 million acres of lakes and 
estuaries and 291,000 river and shoreline miles are impaired. By nearly 
any measure, these are rapidly expanding water quality and quantity 
problems for citizens, industry, and government.
    The framers of the 1964 Water Resources Research Act in their 
farsighted vision created legislation to establish and support a water 
resource research and technology transfer center in each state, 
territory, and the District of Columbia. The state institutes and their 
national network were deployed as part of a partnership to perform 
critical linking of federal and state agencies to local needs; 
integrating discipline research into meaningful knowledge; and 
facilitating the transfer of knowledge and expert assistance. This 
organization of state water resources research institutes now provides 
a strategically placed network to efficiently address the multiple and 
complex water resource problems of our Nation.
    Legislation reauthorizing this program for fiscal year 2001 through 
fiscal year 2005 has been introduced in the House by Representative 
Doolittle (H.R. 4132) and in the Senate by Senator Crapo (S. 2297). I 
understand the Senate Committee on Environment and Public Works is 
expected to mark up S. 2297 next week. The Resources Committee is 
likely to act in the near future.
    State institutes link with the university and government research 
community to tap into the knowledge being generated for addressing 
critical priority water needs. Since each institute enlists a state-
wide advisory Committee who represent Federal, state, public, 
industrial, agricultural, and local government, their activities remain 
focused on specific issues of local, state, and national importance.
    This program produces research of practical value to local 
government and water resources stakeholders. The focus provided by each 
institute's advisory Committee helps insure that their research address 
real world problems and that the research has an immediate audience 
available to utilize their findings. Research products are disseminated 
as part of the technology transfer function. As new knowledge is 
generated, there is a system in place to facilitate the transfer, 
adoption, and use of the new findings to better manage our water 
resources. Thus, the results and benefits from this program are 
effective and rapid.
    We are emphasizing research on water quality and quantity from a 
watershed approach to protect, manage, and effectively utilize our 
water resources. Institutes are assisting states in the process of 
developing total maximum daily loads (TMDL). Institute resources can 
help with TMDL modeling and the implementation of appropriate 
management practices. The institutes can also facilitate the 
development and implementation of watershed plans. This effort will aid 
in empowering communities to make wise land use decisions which will 
positively impact water quality and quantity. Working cooperatively 
with USGS, the institutes can assist local and regional community 
leaders in achieving sustainable growth. Through research and analysis, 
the institutes network can bring unbiased scientific observation and 
data to bear on complex issues related to land use and urban growth 
impacts on watersheds.
    Many institutes are currently involved in the development of 
decision support and resource management efforts. This is a priority 
area for USGS, a goal that can be achieved more efficiently through an 
integrated, synergistic partnership between the Survey and the national 
network. One of our strengths is that we have experience in assisting 
local units of government in developing and integrating base map data 
with geologic, biologic, hydrologic, soils, land cover, and social/
economic data for local land use planning that emphasizes 
sustainability.
    The focus of my discussion today has been on groundwater quality 
and watershed management, but other key research areas include water 
supply, biological sciences, climate and hydrological processes, 
engineering, and groundwater flow and transport.
    One measure of the program's success is the amount of additional 
revenue that the institutes generate. They attracted over $17 for every 
appropriated dollar with about $6 coming from other Federal funds and 
$11 coming from non-federal sources. Thus, a $5 million program was 
leveraged into over $71 million. Because each operates with different 
amounts of state and local funding, total revenues per institute range 
from approximately $200,000 to over $6.8 million. Revenues also include 
in-kind contributions made by state universities. None of the Federal 
appropriated funding is used to pay overhead costs.
    The program includes on-campus professional and academic training, 
and off-campus continuing education. Students receive professional 
training by participating in institute-sponsored research and 
information transfer projects. Seminars and specialized course work for 
graduate and undergraduate students are also sponsored. Over the past 
five years this program has been responsible for contributing to the 
education of 665 undergraduate students, 672 students pursuing masters 
degrees, and 311 doctoral candidates. This is the next generation of 
water scientists and engineers. During the same period, it has produced 
2750 research publications on water-related topics.
    On average, the institutes receive four or five proposals for each 
project selected for funding under the base state program funded 
through the USGS. Likewise, in the 1999 national competition for 
regional or interstate research grants, 70 proposals for approximately 
$8.2 million were received but only 10 proposals for $1 million could 
be funded. The number of proposals received demonstrates this program 
is uniquely positioned to tap the research capacity to meet expanding 
needs. This high level of interest continues to be reflected in this 
year's competition presently underway, proposals for over $14 million 
have been received, but the program is able to provide only $1 million 
to fund grants.
    The National Institutes for Water Resources requests an additional 
$1 million above the budget request for base grant or the Section 
104(b) program. These funds will be used to strengthen the research, 
collaboration, integration, and technology transfer activities. We are 
asking for a modest $0.5 million expansion of regional and interstate 
competition, also known as Section 104(g) grants. This funding will 
strengthen research for improving management options on a watershed 
basis to reduce nutrients, sediment, bacteria, toxins, and ecological 
degradation, plus enhance water use efficiency and conservation 
research.
    I want the Subcommittee to know that cooperation between the 
institutes and the Geological Survey has never been better. The 
leadership of the Survey recognizes there is a significant role for we 
have to play in meeting the Nation's water resources needs. For our 
part, we are looking forward to building on additional partnership 
opportunities with the Survey.
    Mr. Chairman, few people recognize the fact that the Geological 
Survey fosters much important scientific research. Frequently it is 
overshadowed by other Federal agencies that support science, such as 
the National Science Foundation, the National Institutes of Health, 
etc. However, the research the Survey supports in the natural sciences, 
particularly water science, is vital to our national well-being. I want 
you to know that the professional water science community appreciates 
the fact that this Subcommittee has helped to foster and advance the 
Survey's important scientific mission. We believe that mission merits 
significant growth at a time when Congress and the public are pursuing 
the commendable objective of doubling funding for our national 
scientific enterprise.
    The national network of state water resources research institutes 
supported by this program is strategically placed and effectively links 
research and outreach. It can use existing capacity in the academic 
community in partnership with government agencies and end users for 
meeting expanding needs. Achieving the potential for meeting critical 
water needs will require that existing appropriation levels be rapidly 
increased. The impact from this investment will be rapid with positive 
and far-reaching results.
    Thank you.
                                 ______
                                 

     Prepared Statement of the Weston Observatory of Boston College

    Mr. Chairman and members of the Subcommittee, as a Professor of 
Geophysics at Boston College and the Director of Boston College's 
Weston Observatory, I appreciate this opportunity to submit testimony 
on behalf of Weston Observatory in support of the National Earthquake 
Hazard Reduction Program (NEHRP). Weston Observatory is a seismological 
and geological observatory that is dedicated to the study of 
earthquakes and earthquake hazards in the northeastern United States. 
Weston Observatory's very successful earthquake monitoring and research 
program has been supported in the past and present by NEHRP funding, 
and future advancements in understanding the earthquake hazard and in 
stimulating earthquake hazard mitigation activities in the region 
depend critically on continued NEHRP support in the future. In this 
testimony I discuss several reasons why continued and expanded NEHRP 
funding will lead to improved safety from future earthquakes.
    In this testimony, I will briefly describe three reasons why 
increased NEHRP funding, particularly funding for the new Advanced 
National Seismic System, will lead to improved earthquake hazard 
mitigation, both in the northeastern U.S. where I work as well as 
throughout the rest of the country as a whole. The convergence of 
sophisticated new seismological analysis techniques, ever-better 
computer systems, and new seismic instrumentation along with the 
phenomenal growth of the Internet present an unprecedented opportunity 
to develop an Advanced National Seismic System that will provide the 
public with much better information on the potential for and perhaps 
even the prediction of future damaging earthquakes.

                  THE ADVANCED NATIONAL SEISMIC SYSTEM

    The Advanced National Seismic System, as described in U.S. 
Geological Survey Circular 1188, is designed to bring to seismology the 
level of seismic instrumentation and communications that is necessary 
to greatly advance our understanding of how and why earthquakes happen. 
Two aspects of the Advanced National Seismic System, if fully funded, 
are particularly important. First, it will have a much greater number 
of weak motion and strong motion seismic stations in the seismically 
active parts of the country than we have at present. Greatly increasing 
the number of seismic stations in places like the northeastern U.S. 
means that, for the first time, scientists will be able to locate 
earthquakes with pinpoint accuracy. High quality earthquake locations 
are essential if we are to learn which are the seismically active 
faults, something that is generally not known at present outside of a 
few States like California in the western U.S. A greater number of 
seismic stations in the northeast will make it much easier to develop 
automated systems to locate earthquakes and to provide that information 
to the public within seconds or a few minutes after an earthquake 
occurs. The present low number of seismic stations means that each 
earthquake in the region must be analyzed by hand before the best 
location and magnitude measurements are made. In many cases this can 
take more than an hour, frustrating the public and the media who have 
much other information at their disposal effectively instantaneously.
    A second important aspect of the Advanced National Seismic System 
is that the high speed of the system will enable seismologists to carry 
out research to develop rapid earthquake warning systems and perhaps 
even earthquake prediction systems. No longer are either scientists or 
the public satisfied just to know the location and magnitude of an 
earthquake. They expect immediate warning that an event is occurring or 
will occur. The rapid data communications system coupled with the large 
number of seismic stations of the Advanced National Seismic System will 
enable seismologists for the first time to conduct research to develop 
systems that can warn people of the coming of strong earthquake 
shaking. At present, only in California are there enough seismic 
stations that such early warning systems are feasible, but even there, 
much research and development must still be carried out to make such 
systems work with reliability. Likewise, short-term earthquake 
prediction schemes will work only if seismologists can both record 
signals that precede earthquakes and properly interpret those signals 
before the strong earthquake occurs. Scientists are still trying to 
understand what diagnostic signals precede earthquakes, and this 
requires high quality data from future earthquakes. Only after such 
signals have been recognized, can prediction schemes be designed and 
implemented.
    The funding for the Advanced National Seismic System is needed as 
soon as possible to begin meeting these goals. Funding levels for 
earthquake monitoring in many parts of the country, for instance in the 
northeastern U.S., have decreased over the past decade. This has 
decreased scientists' abilities to acquire important data for seismic 
hazard studies. For example, in 1988 a strong earthquake (magnitude 6) 
was centered in Quebec, north of Quebec City. Strong ground motion 
instruments, the type of instrumentation used to measure the ground 
shaking that is damaging to buildings, recorded this earthquake both in 
Canada and in the U.S. Those data have been very important to 
seismologists for determining how strong the ground shaking might be 
from future earthquakes. More such data are needed, since the 
instrumental records from one earthquake do not reflect the wide 
variety of earthquakes that can take place in the region. 
Unfortunately, today there would be no strong motion data in the 
northeastern U.S. if a similar earthquake occurs. Most of the strong 
motion stations operated in the northeastern U.S. in 1988 have been 
closed due to lack of operational costs. The Advanced National Seismic 
System is needed to reverse this situation and to provide new data on 
earthquakes that take place in the future.

       IMPACT OF NEHRP ON WESTON OBSERVATORY EARTHQUAKE RESEARCH

    Weston Observatory carries out earthquake monitoring and research 
on the causes and effects on earthquakes that take place in the 
northeastern U.S. and nearby Canada, and it has been engaged in this 
work for over 70 years. The seismic monitoring stations of the 
Observatory encompass seven northeastern States. All of the direct 
funding of the earthquake monitoring and research activities of the 
Weston Observatory in New England and vicinity has come from NEHRP 
through the U.S. Geological Survey. Some indirect support of the Weston 
Observatory effort has come from some of the States of the region, who 
have provided some manpower assistance for specific tasks as well as 
access to facilities and equipment. It is vital that NEHRP funding for 
Weston Observatory's earthquake monitoring and research operations 
continues for this important work to be carried on in the future.
    The NEHRP funding to Weston Observatory has been used not only to 
monitor the earthquake activity of the New England region but also to 
study the earthquakes that have been recorded. For example, the 
earthquakes at Amesbury, Massachusetts in January, 1999 have been used 
to learn more about the earthquake in 1727 that damaged northeastern 
Massachusetts and was felt over all of the New England States and to 
the southwest past Philadelphia. From comparisons of the January, 1999 
earthquakes with the reports from 1727, an earthquake epicenter for the 
1727 earthquake near Amesbury has been inferred. The magnitude of the 
1727 earthquake has been estimated as 5.6. Recent research on the 
possible ground shaking generated by the 1727 earthquake has indicated 
that the levels of ground shaking at the towns immediately surrounding 
the epicenter were probably greater than the seismic design levels in 
the modern Massachusetts building code. It is through the comparisons 
of modern earthquakes and older, historic earthquakes that we can 
understand how strong a region like New England will shake in future 
earthquakes. In turn, this information can be used to recommend 
improvements in the building codes of the region.
    Weston Observatory welcomes the opportunity to work with the U.S. 
Geological Survey and with other seismological institutions in the 
northeastern U.S. to develop and implement the Advanced National 
Seismic System. The new instrumentation, better data communications, 
and data archiving of the Advanced National Seismic System will provide 
Weston Observatory with vastly superior seismic data to study the 
earthquakes of New England and vicinity. Weston Observatory is 
particularly pleased that the U.S. Geological Survey report 
Requirements for an Advanced National Seismic System calls for a 
significant increase in the funding available for the operation of the 
system. It is imperative that NEHRP funding to Weston Observatory 
increase substantially over current levels to ensure that there are 
seismic experts available locally to oversee, analyze and study the 
local earthquake data from the region. It is the local scientists who 
best understand the past data from the region, who are best able to 
analyze the future data, and who have the best backgrounds to make 
important future discoveries about the seismic hazard of the region in 
which they live.
    It is also important to recognize that government officials in a 
region like New England as well as the general public rely on local 
experts for their information on earthquakes and how best to cope with 
them. For example, in December 1999 and January 2000 there was a series 
of minor felt earthquakes that took place in Maine and New Hampshire. 
The public was understandably concerned when so many earthquakes were 
felt over such a short period of time, and Weston Observatory handled 
numerous inquiries, both from the press and from private citizens, 
about this earthquake activity. The offices of emergency management in 
Maine and New Hampshire were also curious about the importance of this 
earthquake activity. Time and time again Weston Observatory has been 
the first place the people of New England look to for information about 
earthquakes and earthquake hazards in the region. Increased NEHRP 
funding for the Weston Observatory earthquake monitoring and research 
will enable the Observatory staff to better educate the people of New 
England about their earthquake hazards. From past experience, I can say 
that the more education of the public that is carried out, the more 
earthquake hazard mitigation measures that people will engage in.

                 NEHRP IS SEEN AS AN EFFECTIVE PROGRAM

    In my mind, one of the most important aspects of the NEHRP is that 
it is viewed by the general public as a program that has had a positive 
impact on reducing earthquake hazards throughout the country. Seismic 
design criteria in building codes throughout the country have improved 
steadily due to the efforts of NEHRP. The awareness of earthquakes in 
the seismically active parts of the country as well as the potential 
for future strong earthquakes has increased noticeably in many parts of 
the country. Educational programs about earthquakes and earthquake 
safety are no longer an afterthought; they are being included in an 
increasing way in schools throughout the country.
    The earthquake monitoring and the scientific research that have 
been carried out under NEHRP, particularly that funded through the U.S. 
Geological Survey, has been one of the primary reasons for the success 
of NEHRP. As a research scientist, I am struck over and over again by 
how new research results, especially research results that illustrate 
some new or previously unknown aspect of the earthquake threat, 
stimulate people to take action to minimize the effects of future 
earthquakes. People are much more likely to include seismic design in 
structures if they understand why that design is necessary. The 
availability of research results that the public can easily understand 
is especially important in this regard, and the world-wide web is 
providing an exciting new avenue through which scientists can present 
their information to the public.
    The implementation of the Advanced National Seismic System will 
provide an pportunity for NEHRP researchers like those at Weston 
Observatory to further raise the level of earthquake awareness in the 
region. Increasing the number of weak motion seismic stations (useful 
for earthquake locations and magnitude determinations) and strong 
motion seismic stations (important to collect data about damaging 
earthquake ground shaking) will undoubtedly uncover new information 
about heretofore unrecognized earthquake faults as well as a better 
understanding of earthquake zones already under study. If the public 
perceives that there is an increase of local research on the causes and 
effects of local earthquakes, they will respond with greater interest 
in the results of the research and with greater efforts to plan for the 
possibilities of future strong earthquakes.
    I am aware that the president's budget requests $2.6 million in new 
NEHRP funding for fiscal year 2001 to be used for the Advanced National 
Seismic System. I am pleased to see this effort to get this system off 
the ground, but I would urge your Committee to consider funding at 
least twice this level. It will take time and careful work by a number 
of dedicated scientists to establish the Advanced National Seismic 
System in a comprehensive and effective way. We need to get started 
now, before the next damaging earthquake strikes somewhere in the 
United States.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created 19 years ago by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for both the U.S. Fish 
and Wildlife Service and the U.S. Geological Survey.

                     U.S. FISH AND WILDLIFE SERVICE

    The U.S. Fish and Wildlife Service has important responsibilities 
in the Upper Mississippi River Basin, including land management and 
coordination with other federal, state, and local agencies on river-
related ecological issues. Yet Region 3 has been struggling to meet 
even the most basic needs in the region. The UMRBA strongly supports 
additional funding to enable the Fish and Wildlife Service to fulfill 
its responsibilities in the Upper Mississippi River Basin.
    Refuges and Wildlife.--The U.S. Fish and Wildlife Service 
administers 249,000 acres of land and water on the Mississippi River 
from the most northerly unit near Wabasha, Minnesota to the most 
southerly unit near Grafton, Illinois. This stretch of the river 
includes the Upper Mississippi River National Wildlife and Fish Refuge 
(NWFR), Trempealeau National Wildlife Refuge (NWR), Mark Twain NWR, and 
Clarence Cannon NWR. The existence of this extensive national refuge 
system is, in part, the reason that, in 1986, Congress designated the 
Upper Mississippi River System as a ``nationally significant ecosystem 
and a nationally significant commercial navigation system.''
    Under the President's fiscal year 2001 budget, the refuges on the 
Upper Mississippi River are expected to receive approximately $5 
million, including $3.164 million in base funding for operations. 
Despite the fact that the President's budget proposes an increase of 
more than $20 million for refuge operations, there is no scheduled 
fiscal year 2001 increase in base funding for the three refuges on the 
Upper Mississippi River. Of particular concern to the UMRBA is the fact 
that the refuges on the Upper Mississippi River have responsibility for 
the operation and maintenance (O&M) of projects that the Corps of 
Engineers constructs under the authority of the Environmental 
Management Program (EMP). The current annual O&M costs of these 
projects is about $330,000. If the refuge operations budget is not 
increased to accommodate EMP habitat projects, the future of the EMP, 
which Congress just reauthorized last year, will be in jeopardy. The 
Fish and Wildlife Service must be able to maintain its partnership role 
in planning EMP projects as well as operating and maintaining them once 
they are constructed. In addition, there is a critical need for 
additional personnel to address law enforcement, biological needs, 
floodplain forest management, environmental education, and other refuge 
management needs. For example, the Upper Mississippi River NWFR 
currently operates with only 33 full time equivalents (FTEs) even 
though the refuge Master Plan calls for 56 FTEs to properly manage this 
261-mile linear refuge. The UMRBA thus supports an increase in the 
refuge operations funding for the three refuges on the Upper 
Mississippi River.
    The UMRBA also supports the President's proposed increase of $8.8 
million for operational projects prioritized through the Refuge 
Operations Needs System (RONS). The UMR refuges are expected to receive 
$377,000 in RONS funding, a portion of which will be used on a one-time 
basis for operation of some EMP habitat projects. While this is an 
increase of $137,000 over fiscal year 2000 RONS funding, there are 
still over $15 million in needs.
    Under the Administration's fiscal year 2001 budget, the refuges on 
the upper river expect to receive $340,000 for annual maintenance 
funding and $1.118 million for backlog maintenance. The backlog funding 
for fiscal year 2001 is over twice what was provided last year. Yet it 
falls well below the $14 million maintenance backlog that must be 
addressed. The President's proposed increase in funding for the 
Maintenance Management System (MMS) is a step in the right direction.
    The UMRBA also supports the President's proposed increase in 
funding for land acquisition through the Land and Water Conservation 
Fund. The fiscal year 2001 budget includes $1 million to acquire 3,279 
acres from willing sellers for the Mark Twain NWR. However, a $2 
million shortfall will make it difficult to acquire currently available 
strategic and sizeable tracts. In addition, there are land acquisition 
needs (35,000 acres) for the Upper Mississippi River NWFR that require 
funding.
    Ecological Services.--Funding from the Ecological Services account 
supports the field offices in Rock Island, Illinois; the Twin Cities, 
Minnesota; and Marion, Illinois that provide most of the ecological 
services work on the Upper Mississippi River (UMR) and tributaries, 
including work on threatened and endangered species, environmental 
contaminants, and habitat conservation. Despite a five percent proposed 
increase in the Service's fiscal year 2001 Ecological Services budget, 
there is no scheduled increase for the Ecological Services program on 
the Upper Mississippi River. Funding in fiscal year 2001 is expected to 
be $428,000, which is the same amount allocated in fiscal year 2000.
    The UMRBA supports this base funding for Ecological Services 
offices on the UMR and urges Congress to provide additional funding for 
the following specific UMR efforts: $650,000 to support the Habitat 
Needs Assessment in cooperation with the U.S. Army Corps of Engineers; 
$300,000 to support water quality related studies; $1.5 million for 
habitat restoration in UMR watersheds; $500,000 to support mitigation 
activities associated with federal navigation and flood control 
projects; $400,000 for needs related to the Endangered Species Act; and 
$100,000 for administrative support of the Upper Mississippi River 
Conservation Committee.
    Fisheries.--Most of the Service's fish management on the Upper 
Mississippi River is conducted out of the La Crosse (WI), Columbia 
(MO), and Carterville (IL) Fisheries Resource Offices. Fish stocking is 
done from the National Fish Hatchery in Genoa, Wisconsin and fish 
health concerns are addressed by the Fish Health Center in Onalaska, 
Wisconsin.
    The UMRBA supports the important work done by these offices and 
thus supports the funding proposed for the Fisheries Account in fiscal 
year 2001. Approximately $853,000 in base funding is anticipated to be 
provided for fisheries work on the Upper Mississippi River in fiscal 
year 2001. In addition, $164,000 from the Maintenance Management System 
is proposed for deferred maintenance work at the Genoa Hatchery. 
However, there are many unmet needs remaining as identified in the 
Fishery Operations Needs System (FONS). Additional funds are needed for 
work on paddlefish, sturgeon, and aquatic nuisance species such as 
zebra mussels.

                         U.S. GEOLOGICAL SURVEY

    The President's budget request includes an $82.0 million, or 10 
percent, increase for the U.S. Geological Survey (USGS) in fiscal year 
2001. This would bring the USGS budget to $895.4 million. Despite the 
Administration's proposed increase for the important work of USGS, the 
budget still reflects difficult decisions and tradeoffs. As a partial 
offset for $86.1 million in program increases and $18.1 million for 
uncontrollable cost increases, the President has identified $22.2 
million in program reductions.
    Given these constraints, the states are particularly pleased with 
USGS' efforts to enhance coordination across its divisions. 
Interdisciplinary approaches among the divisions promise to make the 
most efficient, effective use of the Survey's considerable scientific 
expertise. Similarly, an agreement among the Interior Department's 
bureaus will foster the integrated scientific research and information 
needed to make sound land and resource decisions. There are several 
specific research and monitoring programs in the Water Resources 
Division (WRD) and Biological Resources Division (BRD) that are of 
particular interest to the UMRBA.
    Water Resources.--The Water Resources Investigations account 
includes an increase of $4.0 million to upgrade the USGS stream gaging 
network. The UMRBA strongly supports this proposed increase. The stream 
gaging network is an essential tool for flood and drought forecasting, 
navigation system management, water quality evaluation, recreational 
boating, and other activities. A November 1998 report to Congress 
identified critical gaging needs and Congress responded by providing a 
$2 million increase in fiscal year 2000. This was the first real 
increase in federal funding for stream gaging in over a decade. The 
President's $4.0 million fiscal year 2001 request would build on this 
increase. It would allow USGS to establish 25 new stream gaging 
stations, reactivate 25 former stations, and upgrade 100 existing 
stations. The upgrades would include ensuring that gages can withstand 
200-year floods, installing equipment for real-time data transmission, 
and improving the rating curves used to assess flood potential. In 
combination, the fiscal year 2000 and 2001 increases would support 17 
new or reactivated gaging stations in our five States, including one on 
the Mississippi River and several more on key tributaries. An enhanced 
national gaging network is vital to local, state, and Federal 
Government in protecting public health and safety. In particular, 
increased support for federally funded gages is imperative if the 
integrity of a national network is to be maintained over time.
    The UMRBA continues to support funding for the National Water 
Quality Assessment (NAWQA). NAWQA is designed to answer basic questions 
about the status and trends in the quality of our nation's ground and 
surface waters. The public expects and deserves answers to these 
questions. By assessing 59 study units on a rotating basis, NAWQA is 
providing the data needed for broad scale assessments and comparative 
analyses. National synthesis reports have already been produced on 
priority water quality issues, including pesticides and nutrients. 
Local, state, and federal water managers are also using the data to 
address more local concerns. Moreover, trends in individual study units 
will become apparent as the assessment process is renewed on its 10-
year cycle. The first study units, initiated in fiscal year 1991, are 
scheduled for reactivation beginning in fiscal year 2001. Among these 
first NAWQA units are Western Lake Michigan in Wisconsin and the Ozark 
Plateaus unit in Missouri. The Upper Illinois River Basin unit will be 
completing its first round of data collection next year. The Upper 
Mississippi River Basin's three other units (i.e., Upper Mississippi, 
Eastern Iowa, and Lower Illinois) will all be in the ``low intensity'' 
phase, awaiting reactivation in fiscal year 2004. The UMRBA urges 
Congress to provide the continued funding needed to implement the NAWQA 
protocol.
    In addition, the UMRBA supports the modest, but important, $2.3 
million increase proposed for the Federal/State Coop Water Program. The 
Coop Program is an essential tool in meeting state and local science 
needs. In 1999, cooperators matched every $1.00 in federal funds with 
$1.53, demonstrating the value they place on the program.
    Biological Resources.--The President's budget request includes an 
increase of $2.0 million for the USGS's portion of the National Plan 
for Amphibian Monitoring and Research. Amphibians are indicators of 
overall ecosystem health, and dramatic declines in the distribution and 
health of many amphibian species are cause for concern. Federal 
agencies are working cooperatively with state and university 
researchers to understand the status of these species and to 
investigate factors that may contribute to declining populations and 
increased incidence of malformations. The USGS is a key partner in this 
effort. Of the $2.0 million increase requested by the Administration, 
$500,000 would go to the WRD's Toxic Substances Hydrology Program to 
assess environmental contaminants that may influence amphibian health. 
BRD would receive $1.4 million for monitoring and trend analysis. The 
Upper Midwest Environmental Sciences Center (UMESC) would receive 
approximately $200,000 of the increase to support inventory and 
monitoring work on selected federal lands in the Upper Midwest, 
including refuges on the Upper Mississippi River. Some of the earliest 
work on amphibian decline was done in this region and our States have 
invested significant resources of their own investigating the problem. 
The UMRBA urges Congress to continue to provide USGS with the funds it 
needs to serve as an effective partner in this collaborative effort.
    The UMRBA also supports funding increases proposed for UMESC under 
the Interior Department's Ecosystem Monitoring Protocols category. 
UMESC would receive $100,000 for a survey of river mussels. The Fish 
and Wildlife Service and state resource agencies are struggling to 
preserve the river's remaining native mussels in the face of several 
threats, including the exotic zebra mussel. This survey work will 
provide important information about the health and distribution of 
riverine mussels. The President's budget proposal also includes a 
$95,000 increase for UMESC to conduct inventory and monitoring work as 
part of the Fish and Wildlife Service's comprehensive refuge planning 
effort. This information will help the Service manage the river's 
refuge system in a coordinated, holistic manner. As co-stewards of the 
river's resources, the states endorse both of these proposed funding 
increases for UMESC. Among the cuts identified by the Administration to 
offset uncontrollable cost increases is a $150,000 decrease at UMESC. 
This cut would primarily affect the Center's Upper Mississippi 
fisheries work, including main channel assessments and fish passage 
studies. The states favor restoration of these funds.
                                 ______
                                 

                           CULTURAL PROGRAMS

      Prepared Statement of the American Museum of Natural History

    The American Museum of Natural History is pleased to submit this 
statement in support of the Institute of Museum and Library Services.

              ABOUT THE AMERICAN MUSEUM OF NATURAL HISTORY

    Founded in 1869, the American Museum of Natural History [AMNH] is 
one of the nation's preeminent institutions for scientific research and 
public education. Throughout its history, the Museum has pursued its 
joint missions of science and education, of examining critical 
scientific issues and educating the public about them. It is renowned 
for its exhibitions and collections, which serve as a field guide to 
the entire planet and present a panorama of the world's cultures. 
Museum collections of some 32 million natural specimens and cultural 
artifacts provide an irreplaceable record of life on earth. Its 
explorers and scientists have pioneered discoveries and offered us new 
ways of looking at nature and human civilization. The Museum's power to 
interpret wide-ranging scientific discoveries and convey them 
imaginatively has inspired generations of visitors to its grand 
exhibition halls and educated its three million annual visitors--
500,000 of them schoolchildren--about the natural world and the 
vitality of human culture.
    Since 1887 the Museum has sponsored thousands of expeditions, 
sending scientists and explorers to every continent; currently more 
than 100 field projects are conducted each year, including ongoing 
research in such countries as Chile, China, Cuba, Madagascar, Mongolia, 
and New Guinea. Some of the most influential scientists of the 
twentieth century, including Margaret Mead, George Gaylord Simpson, Roy 
Chapman Andrews, and Ernst Mayr were either staff members of or 
affiliated with the Museum.
    Today more than 200 active Museum scientists with internationally 
recognized expertise, led by 47 curators, conduct laboratory and 
collections-based research programs as well as field work and training. 
Scientists in five divisions (Anthropology; Earth, Planetary, and Space 
Sciences; Invertebrate Zoology; Paleontology; and Vertebrate Zoology) 
are sequencing DNA and creating new computational tools to retrace the 
evolutionary tree, documenting changes in the environment, making new 
discoveries in the fossil record, and describing human culture in all 
its variety. The Museum also conducts graduate training programs in 
conjunction with a host of distinguished universities, supports 
doctoral and postdoctoral scientists with highly competitive 
fellowships, and offers talented undergraduates an opportunity to work 
with Museum scientists.
    In many ways, the AMNH is similar to a research university, with 
its scientific faculty from diverse fields such anthropology, earth and 
planetary sciences, astrophysics, and all branches of zoology. Yet the 
Museum is distinct in that its mission extends beyond research and 
training. Museum curators are also deeply engaged as exhibition and 
education advisors and as caretakers of the Museum's ever growing 
collections. They help to promote public understanding of science, of 
where we come from and where we may be headed.
    In exhibitions, which are among the Museum's most potent 
educational tools, AMNH scientific knowledge and discovery are 
translated into three dimensions. The Museum is proud to continue its 
tradition of creating some of the world's greatest scientific 
exhibitions. Last month, in one of the most exciting chapters in the 
Museum's long and distinguished history of advancing science and 
education, it opened the spectacular new Rose Center for Earth and 
Space. The Rose Center includes a newly rebuilt and updated Hayden 
Planetarium that allows visitors to journey among the stars and planets 
in our own and in other galaxies; and the Lewis B. and Dorothy Cullman 
Hall of the Universe, where interactive technology and participatory 
displays elucidate important astronomy and astrophysics principles. The 
adjoining Gottesman Hall of Planet Earth, which opened in 1999, 
explores the processes that determine how the Earth works; it in turn 
leads to the recently opened Hall of Biodiversity. Together, the new 
planetarium and halls provide visitors a seamless educational journey 
from the universe's beginnings to the formation and processes of Earth 
to the extraordinary diversity of life on our planet.
    The Museum's Education Department spearheads the AMNH's commitment 
to promoting public education, particularly in an informal setting. It 
builds on the Museum's unique resources to offer rich educational 
programming dedicated to increasing scientific literacy, to encouraging 
students to pursue science and museum careers, and to providing a forum 
for exploring the world's cultures. The Department targets its efforts 
particularly to New York City's diverse and often underserved 
communities and school districts, to those populations traditionally 
poorly served by schools, those underrepresented in science, and those 
for whom museums typically are not a welcoming destination.
    Each year hundreds of thousands of students, teachers, and schools 
participate in workshops, courses for college credit, and visits to the 
Museum. Annually, more than 500,000 students and teachers visit on 
school trips, prepared and supported by curriculum resources and 
workshops. For schools that cannot get to the Museum, Moveable Museums 
offer off-site access, free of charge. As well, Education Department 
lectures, field trips and workshops on subjects ranging from birding to 
earthquakes, gospel music to Native American culture, and Hudson River 
geology to gorilla conservation attract large audiences of adults, 
children, and families.
    In 1997 the Museum launched in partnership with NASA the National 
Center for Science Literacy, Education, and Technology to advance 
science literacy throughout the United States and to extend the 
Museum's educational reach and impact to a national audience, including 
local communities. In creating the National Center, the Museum and NASA 
recognized an opportunity to combine and leverage their incomparable 
resources, and through new technologies to bring learning and 
discovery, materials, and programs into homes, schools, museums, and 
community organizations around the nation.

        SUPPORT FOR THE INSTITUTE OF MUSEUM AND LIBRARY SERVICES

    The American Museum of Natural History supports the goals and 
accomplishments of the Institute of Museum and Library Services [IMLS]. 
The Museum's own collections of more than 32 million artifacts and 
specimens are considered to be the largest non-federal museum 
collection in America, and one of the largest and most significant 
biological collections in the world. Its Library houses one of the 
world's preeminent collections of natural history and anthropology 
materials. It shares IMLS commitments to increasing technological 
access to the nation's museum and library resources and to building 
partnerships to address community needs; and it urges increased 
investment in IMLS so as to advance public access to these vital 
educational institutions.

Scientific and Cultural Collections
    The cumulative result of 130 years of exploration, collecting, and 
research, the AMNH collections are a major scientific resource 
providing the foundation for the Museum's interrelated research, 
education, and exhibition missions. They often include endangered and 
extinct species as well as many of the only known ``type specimens,'' 
or examples of species by which all other finds are compared. Within 
the collections are many spectacular individual collections, including 
the world's most comprehensive collections of dinosaurs; fossil 
mammals; Northwest Coast and Siberian cultural artifacts; North 
American butterflies; spiders; Australian and Chinese amphibians; 
reptiles; fishes outside of their home countries; and one of the most 
important bird collections. Collections such as these are historical 
libraries of expertly identified examples of species and artifacts, 
associated with data about when and where they were collected. Such 
collections provide vital data for Museum scientists as well as more 
than 250 national and international visiting scientists each year. The 
collections are all located on-site to allow scientists' with ease of 
access.
    The Museum's halls of vertebrate evolution provide an excellent 
example of the relationship among science, collections, education, and 
exhibition. In these halls, visitors walk directly along a phylogenetic 
tree indicated by a pathway on the floor. At each branch in the tree, a 
visitor can stop and view fossils that exemplify sets of anatomical 
features that inform scientists about natural groups of organisms. The 
collections are also the source of the extraordinary ``Spectrum of 
Life'' exhibit in the new Hall of Biodiversity. This exhibit features 
more than 1,000 expertly mounted specimens from 28 scientific 
classifications; it is perhaps the world's most comprehensive display 
of the diversity and evolution of life. It includes interactive 
computer kiosks that visitors use to identify and interrelate organisms 
on evolutionary trees. The confluence of collections, evolutionary 
research, and beautiful exhibition makes these halls among the Museum's 
most compelling educational features.

Natural History Library
    The American Museum of Natural History is also home to the largest 
unified natural history library in the Western Hemisphere. In addition 
to supporting the work of the Museum's scientific staff, the Library 
serves the world's scientific and scholarly communities as well as 
students from the colleges and universities in the tri-state area and 
interested members of the public. Each year thousands of users visit 
the Library, and its staff answer more than 26,000 reference questions.
    The Library contains over 485,000 volumes, including pamphlets, 
reprints, books, journals, photos, several hundred films, and rare 
books dating to the fifteenth century. It also houses the Museum's 
astronomy collections, including the Perkins Library of more than 
35,000 volumes and the Bliss Collection of rare and ancient scientific 
instruments. The archives contain more than 1,900 linear feet of 
materials and 250 reels of microfilm. Additionally, the Library 
maintains approximately 1,000,000 photographic images documenting 
specimens and scientific work, 3,000 documentary films, and over 2,700 
art objects and memorabilia.
    Other highlights of the Library collection include over 300 
manuscript collections of notable naturalists and scientists; a unique 
collection of 13,000 rare books that spans over 500 years of scientific 
and expedition literature; and diaries and logs, including Captain 
James Cook's account of Australia (1783) and Charles Darwin's zoology 
of the voyage of ``H.M.S. Beagle'' (1839-43).

Preservation and Access
    By assuming stewardship of these irreplaceable Library scientific 
collections and Library collections, the Museum serves as custodian of 
one of the most important records of life on earth. And as steward and 
custodian, it places the highest possible priority on preservation and 
access, so that the collections will be protected and available for 
research, for exhibit, and for education for generations to come.
    The Library is engaged in a major pilot effort, with private 
foundation support, to digitize its holdings and link them to the 
scientific collections. This model project, illustrative of the 
digitization initiatives the IMLS supports, will help to pave the way 
in transforming access to and ways to use the Museum's resources. An 
expansion of the digitization project would dramatically increase 
access to them for researchers, students, teachers, and the general 
public.
    The Museum has also undertaken major efforts to improve storage, 
preservation, and access of its vast collections. This year Museum 
departments will move into a new nine-story Natural Science Building. 
This facility will significantly increase exhibition and collections 
storage space, with 30,000 sq. ft. of climate-controlled compact 
storage facilities for portions of the scientific collections, along 
with a digital imaging laboratory.
    The Anthropology Division is also nearing completion of a 25-year 
collection storage upgrade and related digitization project. Scheduled 
for completion in 2002, and with support from the National Endowment 
for the Humanities, this upgrade will ensure scholarly access to these 
vital and magnificent collections. The new digital image database and 
accompanying electronic catalog will facilitate access for staff, 
visiting scholars, and off-site researchers.

     BIOLOGICAL COLLECTION STORAGE UPGRADE AND DIGITIZATION PROJECT

    With the successful Anthropology storage upgrade and digitization 
project nearly complete, the Museum now turns its focus to critical 
improvement of other storage facilities and to digitizing the 
biological collections for upgraded preservation and wider access. The 
IMLS has a distinguished history of supporting cutting edge collection 
and technological practices. We do seek partnerships with IMLS that 
will allow us to provide leadership in collection practices and to 
serve as a national model in improving public access to museum and 
library resources through technology.

Technological Innovation for Greater Public Access
    Biological science at the Museum centers on expert documentation of 
species and investigation of their evolutionary and ecological 
relationships. The collections therefore provide essential baseline 
data for scientific inquiry. Due to the unparalleled interest in the 
Museum's biological collections and unwieldliness of the specimens, 
comprehensive digital imaging and electronic cataloging of many of 
these collections will allow the Museum readily to share our resources 
through technology with a national and international audience. We would 
like to develop a database, with a web front end for worldwide general 
audience access, to allow digitized specimens and field data to be 
searched across many fields (for instance, by locality or age). 
Detailed digital renderings would allow ready and safe access to often 
fragile archival material and allow off-site researchers and users to 
peruse the collection and strategically plan Museum visits. If using 
the database can help researchers to plan Museum visits, the 
productivity of those visits will be significantly enhanced.

Collection Storage Facilities
    Collections preservation and access are top Museum priorities. The 
Museum's collections are the heart and soul of our scientific research, 
permanent and temporary exhibitions, and education programs. Access to 
the collections allows undergraduate, graduate, post-graduate, and even 
high school students to conduct real research projects in intensive 
learning programs. As the collections grow, questions about how to 
curate them, including how to use limited physical storage space, 
arise. While many similar institutions house their collections 
separately from their faculty, the Museum is committed to keeping its 
scientists, educators and collections together by expanding on site. 
The new Natural Sciences Building, for example, can accommodate a 
substantial amount of new compact storage, including a unique super-
cold storage facility to allow for the preservation of tissue samples 
for future of DNA study.
    As these endeavors demonstrate, the American Museum of Natural 
History supports the important goals of IMLS to preserve and expand 
access to library and museum resources and to reach out to broad 
audiences and diverse communities.
                                 ______
                                 

       Prepared Statement of the American Association of Museums

    Chairman Gorton, Senator Byrd and members of the Subcommittee I am 
Edward H. Able, Jr. President and C.E.O. of the American Association of 
Museums (AAM), presenting written testimony on behalf of AAM in support 
of the fiscal year 2001 Budget requests for the Institute of Museum and 
Library Services, the National Endowment for the Humanities and the 
National Endowment for the Arts.
    For almost 35 years, the Federal cultural agencies have provided 
invaluable financial support to museums of every kind as they pursue 
their education mission to the public. While that support has declined 
significantly during the recent era of tight fiscal discipline, it has 
never faltered. We are, however, rapidly approaching the point of 
diminishing marginal utility. For example, we have heard from a variety 
of museums, including zoos, that despite their need for operating 
funds, they are no longer applying for IMLS General Operating Support 
(GOS) grants because the demand has become so great relative to the 
funding available that only a tiny percentage (currently 19 percent and 
falling) can be funded. As a result, an increasing number of museums 
both small and large are discouraged from even applying. General 
operating support funds, critical and fundamental to museum operations, 
are very difficult to obtain from foundations or corporations, who 
generally prefer to fund higher profile programs. A museum's ability to 
serve its community well stems from the health of the museum's most 
basic operations, operations that could be supported significantly by 
GOS funds.
    I strongly urge you to help reverse this downward trend by 
increasing funding for the Office of Museum Services (OMS) within the 
Institute of Museum and Library Services (IMLS) to $40 million for 
fiscal year 2001. This increase would accommodate both the president's 
budget request of $9.07 million for new technology and leadership 
initiatives and the museum community's request for $7.38 million for a 
much needed and overdue boost for core programs, such as GOS grants.
    In addition, I would encourage the Committee to fund the National 
Endowment for the Humanities (NEH) and the National Endowment for the 
Arts (NEA) at the levels requested in the President's budget--$150 
million each. As my time is very limited, I will simply mention the 
critical support the NEH and NEA provide museums and focus instead on 
one of the core missions of museums, namely education, and the 
importance to museums of GOS grants in carrying out that mission.
    The main reason for establishing the OMS--``to ease the financial 
burden borne by museums as a result of their increasing use by the 
public'' (Public Law 94-462, Title II, Museum Services Act)--has never 
been more true than today.
    Nine-tenths of museums believe that ``funding to meet basic 
commitments'' is a critical need for the coming years, with 70 percent 
ranking this issue first among their needs. Only 8 percent believe that 
the museum community has adequate resources to cope with critical 
issues in the near future--especially funding issues.
    While need has increased, the OMS has shrunk. Funding has dropped 
dramatically since fiscal year 1995, when it was $28.7 million, to 
today's level of $24.4 million. This has meant that the General 
Operating Support program was able to fund only 19 percent of 
applications in fiscal year 1999, down from 20 percent in fiscal year 
1998, and 26 percent in fiscal year 1995, despite outside peer 
reviewers determining that 59 percent of the grants were worthy of 
funding.
    The proposed $40 million is modest relative to the overall size of 
the federal budget and the demonstrated need. It has been estimated 
that funding all of the recommended applications would cost nearly $65 
million.
    One of the other hallmarks of GOS grants is their flexibility. 
While these awards cannot be used for construction or renovation, 
museums are free to use GOS money where each institution determines it 
is most needed to improve public service. An analysis of GOS reports 
done within the last three by IMLS showed that
  --88 percent of grantees said their grants helped to improve services 
        to visitors
  --77 percent said the grant helped to hire new staff
  --49 percent said the grant helped to conduct research for exhibition 
        and program development
    But most importantly, 94 percent of grantees said the grant 
improved their educational programs by helping to produce educational 
kits or traveling program materials; supporting lectures, symposia and 
workshops; expanding or enhancing existing exhibitions; initiating new 
exhibitions; and producing videos and publications.
    While education has long been central to the work of museums, in 
recent years it has moved to the forefront of their public service 
mission. This boom in museum education has in part been spurred on by 
two external factors:
    First is the changing nature of American education. Who teaches, 
what is taught, where teaching takes place and how teaching occurs are 
evolving dramatically in communities across America. New developments 
in educational theory are placing greater emphasis on participatory and 
out-of-school learning, which find a natural fit in the museum setting.
    The second external factor is the emergence of good empirical 
evidence showing that arts and culture can play a vital role in 
learning.
    In 1992, AAM issued a landmark policy report, entitled Excellence 
and Equity: Education and the Public Dimension of Museums, reaffirming 
museums' role in the education enterprise. To quote the report itself: 
``Museums have a vital place in a broad educational system that 
includes formal institutions such as universities, schools and 
professional training institutes and informal agents of socialization 
such as family, workplace and community. Museums have the capacity to 
contribute to formal and informal learning at every stage of life, from 
the education of children in preschool through secondary school to the 
continuing education of adults. They add a tangible dimension to 
learning that occurs in formal settings.''
    In 1997, IMLS reinforced the importance of museum education when it 
published ``True Needs, True Partners,'' an 80-page book that profiled 
museum-school partnerships and the results of a museum survey designed 
to collect specific information about the full range of educational 
activities that museums offer to the nation's schools.
    For the first time, museums and educational professionals had 
strong statistical information that confirmed museums and schools are 
working together to better educate students at all grade levels. The 
survey found that:
  --88 percent of the nearly 10,000 museums in the U.S. provide K-12 
        educational programming
  --At a minimum, museums in the U.S. spend $193 million annually on K-
        12 programming
  --The typical museum provides between 100 and 223 instructional hours 
        to students each year, with a low estimate of 3.9 million hours 
        collectively for all museums
  --Museums reported the substantial use of school curriculum standards 
        in shaping museum educational programs for a given subject; 
        survey results tallied 92 percent for math, 87 percent for 
        science, 76 percent for art and 72 percent for history
    Unless a museum is financially strong, however, it cannot fulfill 
its educational potential in a way that ensures broad public access and 
benefit. That is why OMS-GOS grants are so important.
    In a powerful example of the importance of GOS funds, particularly 
for small museums, I'll like to highlight the Wyck Association. The 
Wyck Association in Philadelphia, PA preserves an 18th century house, 
home to nine generations of one family. Wyck is a small museum, with a 
budget of under $200,000 annually. OMS-GOS funds have helped transform 
a once financially struggling historic site into a leader in the 
historic house community. GOS funds have helped the Wyck develop new 
educational programs targeted to at-risk city school children and new 
interpretation programs reflective of their audience and community, 
such as the ``Abolition Movement in Germantown'', or ``Family Life in 
the 1700 and 1800s.''
    In the words of the Wyck Association's Executive Director, John 
Groff, ``IMLS has consistently been the funding that has made the 
difference as we take the next leap forward in achieving our long-range 
goals. The general operating income has given us the encouragement and 
the financial edge to make our vision begin to come true.''
    One last point note about the Wyck: recently the Wyck sought 
funding from area foundations and individuals for a capital campaign. 
Proudly citing their IMLS awards as a ``seal of approval'' from their 
peers, the campaign surpassed its three-year goal in half that time. 
Why? Because peer-reviewed OMS grants assure state, local, and private 
funders that a museum has met high national standards and is worthy of 
their additional support. In fact, it has been estimated that for every 
$.50 of public money invested, museums generate an additional $1 in 
private support.
    The $40 million we are requesting is a modest but worthwhile 
investment that would significantly increase the ability of the agency 
to help more museums. And while most of those additional awards would 
be small grants, they would have a strong multiplier effect on private 
and state funds for the recipient museums, funds that will help museums 
further increase and enhance their services to local school systems and 
other community organizations.
    Before I close, let me say that I've focused a good deal of my time 
on GOS grants but OMS provides enormous support to the museum community 
above and beyond the GOS.
    Our country's museums house an enormous wealth of information--more 
than 700 million objects and associated documentation of our cultural, 
artistic, and scientific heritage. However, a museum at any one time 
has only approximately five to ten percent of its collection on 
exhibition, and access to objects in storage is necessarily restricted.
    Before the advent of the digital age, museums were only able to 
share their collections with the public in teaspoon amounts to on-site 
visitors. Now, however, museums are developing interactive exhibits and 
applying new technologies to increase their accessibility through the 
world wide web.
    Since 1998, IMLS has provided grants to state library agencies and 
to individual libraries for research, digitization and management of 
digital resources. And we have made great strides in U.S. libraries in 
terms of information access and navigation. To be effective partners 
with our library colleagues, it's critical that we make the same 
advances for museum collections, if we are to maximize their potential 
impact on the education of our youth.
    Recognizing this problem, Congress appropriated money last year to 
IMLS to begin establishing a museum program to build regional 
electronic networks, support networked museums through training and 
technical assistance, share best practices in the development of 
educational resources and implement and upgrade Internet access at 
museums. We support and applaud this action but it is not enough; the 
technological challenges faced by museums continue to escalate, and we 
need to do more.
    The President's budget calls for $7.136 million in OMS National 
Leadership Grants for Technology Advancement for museums. We strongly 
support this request and urge the Committee to continue its 
demonstrated leadership on this issue by fully funding this initiative 
and strengthening IMLS' role in providing much needed coordination and 
focus. This will greatly facilitate museums' efforts to improve their 
technological base increase public access to their collections and 
provide distance education programs
    Finally, I think it is important to emphasize that OMS, and IMLS in 
general, should not only be applauded for its effectiveness but its 
efficiency. With its staff of 20, OMS's total non-program costs--
including research--are only 6.3 percent of requested funding, less 
than its authorized cap of 10 percent. What this means is that over 93 
percent of all dollars go directly to museums.
    OMS is a valuable agency. It provides an invaluable service to the 
museum field, and through them the American people, at a minor cost to 
the taxpayers. It has had an extremely positive impact and can continue 
to do so with your help. I urge you once again to support funding for 
the Office of Museum Services (OMS) within the Institute of Museum and 
Library Services (IMLS) at $40 million and funding for the National 
Endowment for the Humanities (NEH) the National Endowment for the Arts 
(NEA) at the President's request level of $150 million.
                                 ______
                                 

          Prepared Statement of the City of Newark, New Jersey

    Mr. Chairman and members of the Subcommittee, thank you for giving 
us the opportunity to submit testimony about project under your 
jurisdiction that are critical to the people of Newark, New Jersey. 
Newark is truly at a crossroads: we are a City with all of the problems 
of many major urban centers, but we are also a City with vast 
potential. We have begun to turn the corner--there is a renewed 
vitality and sense of optimism in Newark.
    Vibrant revitalization is ongoing in our downtown. The successful 
opening of the acclaimed New Jersey Performing Arts Center (NJPAC) in 
1997--which includes a new public plaza open space; an adjacent 
waterfront development along the Passaic River--which is began 
construction by the U.S. Army Corps of Engineers late this year; a 
minor league baseball stadium where the Newark Bears began to play last 
summer; and a planned state of the art sports and entertainment 
complex, all are changing the face of Newark. But we know that the 
renaissance of our City cannot just happen in the downtown business and 
arts center; it must also include the residents and their neighborhoods 
in meaningful, substantive ways. The proposals for economic development 
activities outlined herein may be disparate, but they all relate to 
improvements in the quality of life for residents of and visitors to 
Newark.
    Newark is the largest City in New Jersey, with 275,221 residents in 
1990, and ranks sixty-third in the nation in population. Newark's 
twenty-four square miles of land makes it the smallest of the country's 
top one hundred cities, with the fifth highest population density in 
the nation. Much of our land is taken up by Newark International 
Airport, higher education and medical facilities, and other 
institutional uses, increasing the density of our actual ``livable'' 
space. The median family income, according to the 1990 Census, was only 
$25, 816--as opposed to $47,589 for the State--and our population is 5 
years younger than the State average. Twenty-nine percent of our 
population was under the age of 18, and 26 percent lived below the 
poverty line. For people living in these conditions, there are basic 
needs which must be met: the availability of open space and recreation 
areas, the availability of jobs, and the availability of an 
infrastructure which is conducive to the development of neighborhoods, 
business and industry.

                   URBAN PARK RESTORATION INITIATIVE

    Fundamental to the goal of bringing Newark back is the 
revitalization of its neighborhoods. Key to this improvement is the 
revitalization of municipal parks in some of our poorest and most 
densely populated areas, in full partnership with neighborhood 
residents and community based organizations. In fiscal year 2000 the 
VA/HUD Appropriations Subcommittee recognized the importance of this 
initiative by including a listing through the Economic Development 
Initiative for $300,000. In fiscal year 2001 the City is again 
requesting funds in the amount of $4 million for this important 
community investment project.
    The City of Newark is seeking the support of this Subcommittee to 
help to implement the City's overall strategy for park and neighborhood 
revitalization. Based on community partnerships and a sense of pride 
and ownership, the children of Newark will truly have the opportunity 
to be a part of the City's renaissance. Projects have been selected in 
each of the City's five wards, with specific strategies developed for 
each. The City of Newark will make every effort to match dollar for 
dollar federal support through its operating and capital budgets, 
staffing and in-kind services. Support is also expected from the 
private sector, including foundations, corporations and individuals.
    With federal support, the City's Department of Neighborhood and 
Recreational Services will embark on a community partnership for parks 
strategy, currently being tested in the largest municipal park, Jesse 
Allen Park. Signs will be posted in each park, and a local grassroots 
campaign with advertising will be coordinated to invite all 
neighborhoods surrounding each of the thirty-five small city parks to 
collaborate and make theirs a community park according to the 
established process. In each location, a ``Friends Of'' park 
association is being formed of citizens who live around the park, and 
anchoring community institutions, such as schools, the faith--based 
community, community development groups, and local agencies. Each 
association will be helped by the City to form a board, create by-laws, 
and become a 501c3 non-profit organization. Each group will be expected 
to get at least 10 percent of the surrounding neighborhood residents to 
join the association and donate at least one dollar, and will 
participate in joint orientation and training with peers from similar 
groups city-wide. The City will award additional funds for that 
particular park, which the ``Friends Of'' group will help to administer 
to execute improvements and create programming. It is anticipated that 
funding will be in the amount of $1,000 per acre of park, plus matching 
with various foundation and corporate partners who have expressed 
strong interest in aiding the resurgence of parks and neighborhoods.
    Federal support will be utilized to match municipal capital 
investment in improvements. The City administration will maintain its 
current efforts and services, such as lawn mowing, trash removal and 
basic landscaping. In addition, our comprehensive strategy will include 
support from other municipal departments. The Engineering Department 
will address capital needs. They will develop comprehensive physical 
plans and drawings for each park, to be compiled in consultation with 
the community group. In addition, the Police Department has pledged to 
create walk-ride units of officers who patrol in and between specific 
parks, train watch groups who undergo association training, and 
organize police youth and adult athletic leagues to compete in the 
parks. The Newark Public Information Office will coordinate the 
communications and media strategy, both for initial outreach and with 
each association in determining its own campaign direction and format.
    Specific municipal parks have been identified for participation in 
the demonstration project and unique strategies have been developed for 
each. For example:
  --Riverbank and Independence Park in the East Ward. These parks are 
        in the crowded Ironbound section, where the neighborhood has 
        very little open space. The City is working with local groups 
        to develop the designated park area near the Passaic River with 
        jogging trails, soccer fields, and new open space.
  --Jesse Allen Park in the Central Ward. This park is adjacent to one 
        school and near several others. It was recently the focus of 
        several discussions and meetings with community groups. It is 
        in the heart of the City's poorest area, and has been subject 
        to repeated vandalism. The City and the newly formed Jesse 
        Allen Park Association are working jointly to develop and 
        execute a plan that includes the refurbishment of ballfields, a 
        revitalized playground, a new concert area, and security 
        measures.
  --Kasberger Field in the North Ward. These playing fields and 
        recreation area are virtually hidden in the neighborhood in 
        North Newark. It has attracted the attention and interest of 
        many little league groups who want to help fix up the facility 
        for ongoing use. A security fence, lighting and better drainage 
        have been identified as vital needs.
  --Boylan Center and West End Park in the West Ward. Boylan is the 
        only City recreation Center in the West Ward, and West End is 
        the only municipal park. Both need landscaping, furniture and 
        signage to better serve their local area populations.
  --Mildred Helms Park and St. Peter's Recreation Center in the South 
        Ward. Mildred Helms is a long narrow park in the heart of a 
        dense residential neighborhood. It adjoins an elementary 
        school, but is littered with crack vials, debris and broken 
        glass, and has broken playground equipment. Despite this 
        condition, the area children play there daily, as it is the 
        only open space in the immediate area. This is a site where 
        neighborhood organizing will potentially enable substantial 
        change in the environment. St. Peter's is a complex including 
        basketball courts, a pool and a center building on the other 
        side of the ward. This facility, too, is in need of community 
        support to overcome chronic vandalism and return it to full 
        utilization.

                  THE NEWARK MUSEUM SCIENCE INITIATIVE

    The Newark Museum seeks $2.0 million to support its new Science 
Initiative Education. The City of Newark has committed $1.7 million 
dollars to date toward the preparatory collections care necessary to 
make this initiative possible. Additionally, The Museum is involved in 
a $5 million dollar operating endowment fund based upon a public/
private partnership to assure adequate on-going support, of which $1.2 
million has been raised to date. Research has shown that the ongoing 
maintenance cost of science galleries is several multiples of that of 
art galleries.
    The plan calls for the creation of a major permanent exhibition 
based upon its natural science collection. The exhibition, called 
Making Sense of the Natural World, will explore scientific phenomena 
through natural history specimens and live animals. Museum audiences 
will participate in mindful science learning through stimulating and 
engaging experiences that integrate the collections, Dreyfuss 
Planetarium and Mini Zoo. This gallery, along with the Museum's plan to 
institutionalize cohesive science education programs parallel to its 
distinguished art and culture programs, is the core of The Newark 
Museum Science Education Initiative.
    The cohesive science education at The Newark Museum will entail 
greater use and dissemination of their science gallery, planetarium and 
live animal resources, thus providing new learning opportunities for 
individuals, families, schools, and community organizations. This 
initiative also allows the Museum to safeguard the thousands of 
scientific specimens, so critical to its success, in proper housing 
both in the exhibition and in technologically advanced, environmentally 
appropriate behind-the-scenes storage.
    The Newark Museum is recognized as one of the nation's leading 
cultural institutions. It is located in Newark, New Jersey's largest 
city, and within Essex County, the State's most densely populated. The 
Museum's constituency is economically and ethnically diverse, 
reflecting the distinctive character of the city, northern New Jersey 
and the metropolitan region. In 1998, The Newark Museum served an 
audience of 462,000 children and adults.
    The Newark Museum's natural science collections of 74,000 specimens 
in the areas of geology, botany and biology are being utilized today in 
programs that allow for participatory and inquiry-driven experiences, 
to engage visitors in meaningful science learning. Science-related 
programs draw more visitors to The Newark Museum than any other 
offering, despite the fact that the science galleries have been closed 
for more than a decade. Realizing the opportunity to attract larger 
audiences and better serve Newark and New Jersey residents, the Museum 
has embarked on a new science initiative. It will enable the Museum to 
reopen the science galleries and builds upon the Museum's proven track 
record of excellence in interdisciplinary arts and humanities programs.
    The consideration of this proposal is deeply appreciated. Newark, 
New Jersey is looking forward to your support of this exciting project 
and its innovative partnership.
                                 ______
                                 

   Prepared Statement of the Association of Research Libraries, the 
    Council on Library and Information Resources, and the National 
                          Humanities Alliance


                              INTRODUCTION

    The Association of Research Libraries, the Council on Library and 
Information Resources, and the National Humanities Alliance, for the 
tenth consecutive year, have joined together to testify in support of 
the preservation and access activities of the National Endowment for 
the Humanities (NEH). We encourage the Interior and Related Agencies 
Subcommittee of the House Committee on Appropriations to approve the 
$150 million budget requested by the National Endowment for the 
Humanities, and with this testimony, we pay special attention to the 
$23,400,000 requested for preservation and access activities.

           INCREASED ACCESS MUST MEAN INCREASED PRESERVATION

    Every day, the media bombard us with news about what is available 
online. More and more households have Internet access, and an entire 
generation of Americans is growing up with computer skills; for many 
Americans, the Net is the first place to look for information. Both 
Congress and the White House are of one mind in advocating the use of 
Federal resources to ensure that the Net carries high-quality 
educational materials.
    Behind the rhetoric of easy access, however, lie tough issues about 
how we make educational and research materials available. The promise 
of access can be fulfilled only if we have been responsible custodians 
of our past. What have we preserved? And how do we ensure that the 
materials we would like to use in classrooms, libraries, regional 
historical centers--either digitized and shared on the Internet or made 
available in reading rooms--survive into the twenty-second century? The 
Endowment's Rediscovering America initiative is just one of many 
outreach programs that depend on easy access to the record of the past. 
Without the rich mix of primary source materials available to citizens, 
students, and researchers of all ages, such a program would founder. As 
the demand for access escalates, the need for preservation grows just 
as fast--or faster.

                       THE BRITTLE BOOKS PROGRAM

    In 1992, Merrily Taylor, the University Librarian at Brown 
University, hailed the success of the Brittle Books program to date and 
cited the NEH initiative as a model that had received wide attention 
around the globe. As she said then:

    ``The keys to its success are simple: A well developed initial 
plan; cooperation and collaboration by all this concerned, including 
research universities that have committed people, ideas, materials, and 
significant financial resources to make this national program; superior 
management by the Division of Preservation and Access and strong 
support for the program by the top NEH leadership; and most 
importantly-sustained funding to underpin the continuation and 
expansion of the program.''

    Eight years later, the collaboration between the library 
preservation community and the Endowment remains strong. However, it is 
unfortunate that the level of funding for the program has not remained 
as strong as it was in 1992. The problem is just as critical now as it 
was then, the need as great. It is only through coordination and cost 
sharing at the Federal level that we can secure future access to the 
contents of millions of crumbling books. Despite the advent of digital 
technology, the problem of preserving acidic books has not diminished 
since Congress initiated this far-sighted program in 1989.
    Looking back at the progress we have made, the Endowment's 
leadership in these preservation and access efforts looms large. 
Without the Congressional mandate given to NEH, it is impossible to 
imagine what would have happened to our humanities research 
collections. The leadership of NEH makes itself felt in three ways.
  --Standards.--NEH has taken the lead in helping libraries define 
        standards for cataloging filmed materials and assuring access 
        to them. Libraries that film must keep a master negative, a 
        print master, and a service copy. They must provide copies of 
        the film to other libraries at cost. In addition, the films 
        must be kept in controlled environments to extend their life.
  --Leverage.--Federal support means that hundreds of individual 
        preservation efforts aggregate into a large whole that 
        represents a mosaic of heritage assets.
  --Coordination.--Under NEH auspices, microfilming projects add to the 
        whole and do not duplicate other efforts. By encouraging 
        consortial arrangements, and through the grant review process 
        that involves scholars and librarians from all over the 
        country, NEH ensures that high-quality collections from every 
        type of library, archives, or historical society can become 
        part of what is, in effect, a national heritage collection, 
        easily accessible to citizens of all states and territories.

                        RECORDED SOUND HERITAGE

    We welcome NEH's Recorded Sound Initiative, which clearly marks the 
agency's intention to address preservation needs in a broadened 
context. As fragile as our print heritage is, that of our recorded 
musical history is even more so. Last year, the House expressed its 
concern that some of ``the musical heritage of the nation--as 
represented by early sound recordings--is irrevocably lost with each 
passing year'' and urged the Endowment to strengthen and expand its 
support of preservation efforts in this area. This year, NEH is asking 
for $1 million to help repositories preserve and make accessible their 
irreplaceable and fragile collections of traditional musical forms. It 
is hard to overstate the value of our musical heritage to researchers, 
creative musicians, and music lovers everywhere. Yet, that heritage 
exists on such fragile media as acetate discs, magnetic tapes in long-
obsolete formats, wire recordings, and wax cylinders. Musical 
recordings are at risk not only because the media on which they are 
stored are prone to damage and corruption, but also because the 
playback equipment is often out-of-date, hard to find, and very hard to 
keep in good working order. We need to stabilize these recordings and 
to create preservation copies to ensure their longevity. While many 
libraries and archives have valuable recordings, only a few have the 
infrastructure and funding to preserve their collections. This is an 
area where NEH can help coordinate the many activities that constitute 
preservation. A national effort is needed to identify where the 
recordings are, to ensure that they are properly described and made 
accessible through records that are standard, and that people searching 
for those voices from the past can find them. All these aspects of 
preservation and access can best be facilitated with the national 
leadership of NEH. Another benefit of preserving sound recordings is 
that, in the process, access is greatly increased.

                      REGIONAL PRESERVATION NEEDS

    Even as the Brittle Books program was started, it was recognized 
that many of the unique historical resources were housed in local and 
regional repositories. However, the preservation problem was so large 
and so immediate that large institutions were funded to handle a 
critical mass of the endangered materials.
    Advances in technology have made it possible for many smaller 
institutions to become involved in digitization projects that extend 
access. In talks with regional preservation specialists this year, we 
have heard many stories of how the interest in ``going digital'' has 
led many small repositories to address their preservation needs. What 
so often happens is that a library, archives, or small historical 
society invites one of the regional preservation centers to come in to 
look at the possibility of making its collections available digitally. 
In the course of the consultation, it becomes clear that the repository 
could benefit from assistance as its materials are in dire need of 
preservation. Many times these institutions have no preservation 
program and, in fact, have never assessed the needs of their 
collections. Now, through NEH's Extending the Reach program, these 
institutions--many for the first time--have the opportunity to secure 
funds for this critical first step in preserving collections and making 
them available.

                               CONCLUSION

    Enclosed is a copy of a recent publication, Preserving Research 
Collections; the efforts of NEH and its critically important programs 
are highlighted in this paper. Congress's support led to the 
development of a highly successful program focused on the preservation 
of our national heritage. There is now access to unique resources that 
have been preserved in libraries throughout the United States. We seek 
your support for NEH's Preservation and Access program, both ongoing 
activities in the Brittle Book Program as well a new initiative for 
sound recordings.
                                 ______
                                 

           Prepared Statement of the University of Washington

    Mr. Chairman and members of the Subcommittee: I am Michael 
Halleran, Divisional Dean of Arts and Humanities at the University of 
Washington. It is my pleasure to submit this testimony in support of 
the fiscal year 2001 budget request of $150 million for the National 
Endowment for the Humanities (NEH).
    This testimony is being submitted on behalf of the Association of 
American Universities, the National Association of State Universities 
and Land Grant Colleges, and the American Council on Education. Through 
their combined memberships, these associations represent all the public 
and private research universities in the country--institutions that 
educate large numbers of the nation's undergraduate and graduate 
students and conduct the bulk of the country's basic research and 
scholarship.
    The humanities represent the endless human attempt to understand 
our cultural world and our place in it. They encompass stories about 
our past and our present, and about the world of imagination. They form 
an ongoing dialogue about meaning and value. The humanities provide a 
framework for clear and critical thinking, an understanding and respect 
for history, and a knowledge and appreciation of our diverse cultures. 
They are the subjects--literature, history and philosophy--that have 
stood at the center of education for over 2,000 years. More than any 
other set of disciplines, the humanities embody the spirit of our 
civilization. We Americans are wondrously diverse. And our diversity is 
expressed, preserved and understood in the humanities.
    It is worthwhile to think of the humanities as our cultural 
capital. They are no less important than other forms of capital upon 
which our society relies. NEH funding helps us to understand and share 
with all our citizens this capital--our cultural heritage.
    The NEH has enjoyed bipartisan support throughout its 35-year 
history and has been the single most important source of support for 
humanistic endeavors in the United States. It makes possible a wide 
range of cultural endeavors that can only be achieved with help and 
encouragement from the Federal Government. Community colleges, state 
colleges, small private institutions and research universities all use 
NEH grants to preserve that national resource. Post-secondary 
institutions are in a fundamental and etymological sense conservative. 
That is, part of their mission is to conserve our culture. They 
conserve, interpret and transmit it to the next generations of 
Americans.
    The fiscal year 2001 budget request offers exciting opportunities 
and a balanced approach, increasing or initiating funding for a wide 
variety of programs and constituencies. Funding would be provided not 
only for programs aimed specifically toward universities or state 
humanities councils, but also for activities that offer opportunities 
for joint efforts, such as the new Regional Centers.
    The fiscal year 2001 NEH request of $150 million represents a 30 
percent increase over the current funding level, and, if approved, 
would make a huge impact. But even this level of support is still well 
below the $172 million the agency received in fiscal year 1995. In 
fact, the 36 percent reduction in the agency's budget in fiscal year 
1996 forced NEH to end many effective programs and cut its staff 
dramatically. The results of these cuts have been severe, and the 
effects lingering. Full funding of the fiscal year 2001 request would 
allow NEH to continue the rebuilding begun last year with the $5 
million dollar fiscal year 2000 increase. We remain very grateful for 
that increase.
    NEH investments make a major impact on the nation's college and 
university campuses. Most importantly, NEH on a federal level sponsors 
significant research projects at institutions of higher education, and 
supports faculty through fellowship programs. In fiscal year 2000, NEH 
expects to receive approximately 2,100 applications for fellowships and 
stipends and to make 306 awards (171 fellowships and 135 summer 
stipends). At the fiscal year 2001 request level, the program could 
support 180 fellowships and 135 summer stipends, a total of 315 awards.
    Moreover, in fiscal year 2001, NEH is proposing to increase the 
amount of full-year fellowships from $30,000 to $35,000, and the award 
amount for Summer Stipends from $4,000 to $4,500. It has been 10 years 
since these awards were last adjusted, and increases are badly needed. 
These increases are modest, representing less than the cumulative 
inflation during this period. I should also point out that these full-
year fellowships do not cover a professor's salary, but rather they are 
typically augmented by the scholar's home institution. The NEH funds 
thus serve as leverage for other funding and have a greater impact than 
the dollar amount might suggest.
    NEH is also requesting funds to begin a three-year initiative in 
support of Archaeological Research projects and to establish a new 
Travel to Research Sites program for humanities scholars. In the latter 
program, scholars would receive $1,500 stipends to defray some of the 
cost of traveling to research libraries and archives to consult 
humanities primary resource material.
    NEH investments also make a crucial difference on the nation's 
college and university campuses in the support of long-term projects 
that might otherwise be lost. Thanks to NEH underwriting, compelling 
work is proceeding on projects such as bibliographies, encyclopedias, 
dictionaries and critical editions that are of national significance, 
but that are unlikely to be funded by any other institution or state. 
Only an agency like NEH, with its federal funds, its broad vision, and 
its long-term commitment, can support these kinds of projects.
    I would like to speak briefly about an extraordinary project going 
on at the University of Washington that recently received significant 
three-year support from the NEH. In 1994, the British Library came into 
possession of twenty-nine very old and fragile birch bark scrolls that 
were covered in what seemed to be a form of Sanskrit, the language of 
ancient India. To assist them in deciphering these long forgotten 
texts, they called upon the world's expert in Indic epigraphy 
(interpreting the ancient writings of India), Richard Solomon of the 
University of Washington. Dr. Solomon was able to determine that these 
were the oldest writings ever found dealing with Buddhism. In other 
words, these were of extraordinary importance for understanding the 
early stages of one of the world's great religions. Many have compared 
this new discovery to that of the Dead Sea Scrolls, the writings of 
early Christian writers that transformed our understanding of the 
formative stages of Christianity. As some of you know may know, the 
Dead Sea Scrolls were embroiled in mystery and controversy and for 
decades scholars and lay persons alike were denied access to their 
contents. With the support of the NEH (and other organizations), Dr. 
Solomon and his team of scholars at the University of Washington have 
been able to devote much of their time to this fascinating and 
important project and are committed to early and wide promulgation of 
their discoveries. The first volume of their work has already been 
published; the second will be out later this year. Here too, the NEH 
support has attracted other funding and thus the agency's support has 
had a multiplying effect.
    Most of the major NEH projects, however, touch closer to our soil. 
Such projects include the preservation of the papers of George 
Washington, Frederick Douglass and Mark Twain and critical editions of 
our great philosophers, Charles Peirce, William James, John Dewey and 
George Santayana. Who has not watched (perhaps more than once) the 
celebrated film series on the Civil War? This would not have been made 
without NEH support. The seminars and exhibitions on the Constitution, 
celebrating our nation's foundational document, also were made possible 
through NEH support. All of these projects are important to the nation 
and to the world. Shepherding and nurturing endeavors of this scale and 
this magnitude--in essence, preserving our heritage--is the 
government's trust and must remain at the federal level.
    The fiscal year 1996 budget cut disproportionately affected many 
NEH national programs, including preservation activities. For example, 
approximately 20,000 fewer brittle books, as well as more than 230,000 
fewer pages of U.S. newspapers are now being preserved on microfilm 
each year, thus slowing the NEH's efforts to preserve and increase 
access to these important intellectual resources. The fiscal year 2001 
request would allow NEH to recover some of the lost ground and to 
initiate support for the digitization of historically significant 
collections held by museums, libraries, historical organizations, and 
archives, as well as undertake the preservation of recorded sound 
collections. The new digital technology can play a crucial role in 
helping us preserve our country's heritage.
    Another way in which NEH funding makes a critical difference is by 
fostering better teaching. Summer seminars and institutes are an 
important way to partner with schools and to enhance the education of 
our students. Each year, many colleges and universities host summer 
seminars for high school and college teachers, who spend six to eight 
weeks studying with leading scholars in their fields. These seminars 
provide an exhilarating boost to the participants, regenerate their 
enthusiasm and facilitate the transfer of new knowledge. It is one more 
way in which higher education can reach out to the schools and share 
our expertise and resources with all Americans.
    The fiscal year 2001 request would allow the Endowment to provide 
much-needed funding relief to the summer seminars and institutes. 
Increased funding would make possible 62 seminars and institutes for 
school and college teachers, significantly higher than the 49 awards 
that the agency made in fiscal year 1999. The increased number of 
seminars and institutes would provide educational opportunities for an 
estimated 575 college teachers and 615 K-12 teachers. The fiscal year 
2001 request would also allow NEH to expand the reach of seminars and 
institutes by providing small Humanities Teacher Leadership grants to 
approximately 75 participants to allow them to disseminate the results 
of their seminar or institute work to other teachers and schools.
    The seminars for K-12 teachers are particularly important. Richard 
L. McCormick, the President of the University of Washington, has been a 
leader in moving universities toward playing a greater role in K-12 
education. With our new Leadership Institute, under the direction of 
Rudy Crew, and many other smaller initiatives, the University of 
Washington is playing a greater role in the education of the K-12 
students. The NEH can help us--and many other institutions--fulfill 
this important part of our mission.
    We very much appreciate the Subcommittee's longstanding, bipartisan 
support for NEH, and urge the Subcommittee to support its $150 million 
fiscal year 2001 request. Thank you.
                                 ______
                                 

                             MISCELLANEOUS

 Prepared Statement of the California Industry and Government Central 
                    California Ozone Study Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2001 funding request of $750,000 
for CCOS as part of a Federal match for the $8.6 million already 
contributed by California State and local agencies and the private 
sector. This request consists of $250,000 from the Department of Energy 
(DOE), $250,000 from the National Park Service (NPS), and $250,000 from 
the Forest Service.
    Ozone and particulate matter standards in most of central 
California are frequently exceeded. In 2003, the U.S. Environmental 
Protection Agency (U.S. EPA) will require that California submit SIPs 
for the recently promulgated, national, 8-hour ozone standard. It is 
expected that such SIPs will be required for the San Francisco Bay 
Area, the Sacramento Valley, the San Joaquin Valley, and the Mountain 
Counties Air Basins. Photochemical air quality modeling will be 
necessary to prepare SIPs that are acceptable to the U.S. EPA.
    The Central California Ozone Study (CCOS) is designed to enable 
central California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program will be conducted in 
the summer of 2000 in conjunction with the California Regional 
PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study (CRPAQS), a major 
study of the origin, nature, and extent of excessive levels of fine 
particles in central California. CCOS includes an ozone field study, a 
deposition study, data analysis, modeling performance evaluations, and 
a retrospective look at previous SIP modeling. The CCOS study area 
extends over central and most of northern California. The goal of the 
CCOS is to understand better the nature of the ozone problem across the 
region, providing a strong scientific foundation for preparing the next 
round of State and Federal attainment plans. The study includes six 
main components:
  --Developing the design of the field study (task already underway)
  --Conducting an intensive field monitoring study, scheduled for June 
        1 to September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for the next ozone 
        attainment plans
    The CCOS is directed by Policy and Technical Committees consisting 
of representatives from Federal, State and local governments, as well 
as private industry. These Committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$8.6 million for the field study. In addition, CCOS sponsors will 
provide $4 million of in-kind support. The Policy Committee is 
continuing to seek additional funding ($9.0 million) for a future 
deposition study, data analysis, and modeling. California is an ideal 
natural laboratory for studies that address these issues, given the 
scale and diversity of the various ground surfaces in the region 
(crops, woodlands, forests, urban and suburban areas).
    There also exists a need to address national data gaps, and 
California should not bear the entire cost of the addressing these 
gaps. National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
will take place concurrently with the California Regional Particulate 
Matter Study--previously jointly funded through Federal, State, local 
and private sector funds. Thus, CCOS is timed to enable leveraging of 
the efforts for the particulate matter study. Some equipment and 
personnel can serve dual functions so that CCOS is very cost-effective. 
From a technical standpoint, carrying out both studies concurrently is 
a unique opportunity to address the integration of particulate matter 
and ozone control efforts. CCOS will also be cost-effective since it 
builds on other successful efforts including the 1990 San Joaquin 
Valley Ozone Study. To address these issues effectively requires 
federal assistance, and CCOS provides a mechanism by which California 
pays half the cost of work that the Federal Government should otherwise 
pursue.
    For fiscal year 2001, our Coalition is seeking funding of $250,000 
from the Department of Energy (DOE) Fossil Program. The California 
Energy Commission is a key participant, having contributed $3 million. 
Consistent with the recently signed memorandum of understanding between 
the California Energy Commission and the DOE, joint participation in 
the CCOS will result in: (1) enhanced public interest energy research-, 
development-, and demonstration programs; (2) increased competitiveness 
and economic prosperity in the United States; and (3) further 
protection of the environment through the efficient production, 
distribution and use of energy.
    The CCOS program coincides with DOE's initiative to develop the 
Federal Government's oil technology program. In fact, the oil industry 
in California has been working for several years with DOE to identify 
innovative partnerships and programs that address how changes in those 
sectors can cost-effectively reduce particulate matter and ozone-
related emissions. This approach will likely result in new ideas for 
technologies to improve oil recovery technologies, as well as improve 
environmental protection in oil production and processing operations. 
The overlap of CCOS and the California Regional Particulate Matter Air 
Quality Study provides a unique opportunity to perform research related 
to petroleum-based VOC and particulate matter emissions as well as 
methods to characterize these categories of emissions. The CCOS program 
will utilize modeling, instrumentation, and measurement to get results 
that can be used to better understand the impact of oil and gas 
exploration and production operations on air quality. CCOS program 
results might also be applied to identify the most efficient and cost-
effective methods of reducing emissions from oil and gas operations.
    The Department of Energy has been a key participant in many 
programs with the oil and agricultural sectors. By becoming a partner 
in this program, DOE will be furthering its own goals of ``Initiatives 
for Energy Security'' by aiding domestic oil producers to enhance their 
environmental compliance while reducing their costs. DOE will also be 
building upon an established and effective partnership between state 
and local governments, industry and institutional organizations.
    For fiscal year 2001, our Coalition is also seeking funding of 
$250,000 from the National Park Service (NPS) and $250,000 from the 
Forest Service. The National Park Service and Forest Service conduct 
prescribed burns that contribute to both ozone and particulate matter 
pollution. Prescribed burns are needed for forest health or to reduce 
fuel loads, and must be carefully managed to minimize public health and 
visibility impacts.
    Improving the fundamental science related to emissions, 
meteorological forecasting, and air quality modeling will help in 
designing effective smoke management programs. In addition, attainment 
of air quality standards is an important goal for protecting national 
parks and forests. Ozone damage to trees and vegetation in national 
parks and forests is well documented in California and nationwide. The 
National Park Service and Forest Service are key stakeholders relying 
on the success of SIPs in achieving the emissions reductions needed to 
attain air quality standards. The participants in the CCOS have been 
partners in regional study efforts addressing visibility and haze 
impacts on national parks and forests in the West. The results of this 
study will provide valuable information that will further those efforts 
on a regional basis.
    Scientists at the University of Nevada, Desert Research Institute 
(DRI) are the principal investigators for CCOS. To expedite research 
studies related to biomass burning and smoke management for CCOS, it is 
requested that funds provided by the National Park Service and Forest 
Service be allocated directly to DRI.
    Thank you very much your consideration of our requests.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alachua County, Florida, Board of Commissioners, prepared 
  statement......................................................   632
Alamo-Navajo School Board, Navajo Nation, Magdalena, New Mexico, 
  prepared statement.............................................   556
Alaska Native Health Board, prepared statement...................   528
American:
    Association of Museums, prepared statements................620, 648
    Dental Association, prepared statement.......................   445
    Hiking Society American Hiking Society, prepared statement...   625
    Indian Higher Education Consortium, prepared statement.......   453
    Museum of Natural History, prepared statement................   645
    Public Power Association, prepared statement.................   436
    Society of Mechanical Engineers, prepared statement..........   416
Archie Carr National Wildlife Refuge, prepared statement.........   593
Assiniboine and Sioux Tribes of the Fort Peck Indian Reservation, 
  prepared statement.............................................   484
Association of Research Libraries, prepared statement............   653
Auburn University, prepared statement............................   433

Babbitt, Hon. Bruce, Secretary of the Interior, Office of the 
  Secretary, Department of the Interior..........................   207
    Prepared statement...........................................   217
    Summary statement............................................   211
Bad River Band of Lake Superior Chippewa Indians, prepared 
  statement......................................................   482
Bennett, Hon. Robert F., U.S. Senator from Utah, opening 
  statements....................................................44, 210
Bering Sea Fishermen's Association, prepared statement...........   530
Biomass Energy Research Association, prepared statement..........   433
Black Mesa Community School, prepared statement..................   548
Blackfeet Tribe, Blackfeet Indian Reservation, prepared statement   565
Bristol Bay Area Health Corporation, prepared statement..........   532
Burns, Hon. Conrad, U.S. Senator from Montana, questions 
  submitted by.................................................128, 321
Business Council for Sustainable Energy, prepared statement......   395
Byrd, Hon. Robert C., U.S. Senator from West Virginia:
    Opening statements.....................................42, 210, 334
    Questions submitted by.................................25, 303, 391

California Industry and Government Central California Ozone Study 
  Coalition, prepared statement..................................   658
Calpine Corporation, prepared statement..........................   569
Center for Marine Conservation, prepared statement...............   629
Central Council of Tlingit and Haida Indians Tribes of Alaska, 
  prepared statement.............................................   457
Christie, Hon. Joe, Acting Director, Office of Indian Education 
  Programs, Bureau of Indian Affairs, Department of the Interior.   141
City of:
    Gainesville, Florida, prepared statement.....................   633
    Miami Beach, Florida, prepared statement.....................   632
    Newark, New Jersey, prepared statement.......................   651
Close Up Foundation, prepared statement..........................   540
Coachella Valley Mountains Conservancy, prepared statement.......   594
Coal Utilization Research Council, prepared statement............   413
Coalition for Health Funding, prepared statement.................   509
Colonial Williamsburg Foundation, prepared statement.............   634
Colorado River Basin Salinity Control Forum, prepared statement..   591
Colorado River:
    Basin Salinity Control Program, prepared statement...........   586
    Board of California, prepared statement......................   575
Confederated Tribes of:
    Grand Ronde Community of Oregon, prepared statement..........   511
    The Warm Springs Reservation of Oregon, prepared statement...   452
Consortium for:
    Fossil Fuel Liquefaction Science, prepared statement.........   429
        University of Utah, prepared statement...................   432
Council:
    For Chemical Research, prepared statement....................   399
    On Library and Information Resources, prepared statement.....   653
Craig, Hon. Larry, U.S. Senator from Idaho, opening statement....    46

DaimlerChrysler Corporation, prepared statement..................   424
Defenders of Wildlife, prepared statement........................   613
Detroit Diesel Corporation, prepared statement...................   441
Dombeck, Hon. Mike, Chief, Forest Service, Department of 
  Agriculture....................................................    39
    Letter from..................................................    76
    Prepared statement...........................................    69
    Summary statement............................................    67
Domenici, Hon. Pete V., U.S. Senator from New Mexico:
    Opening statement............................................    47
    Questions submitted by.................................26, 205, 313
Dorgan, Hon. Byron L., U.S. Senator from North Dakota:
    Opening statements.......................................2, 65, 155
    Prepared statement...........................................   155
    Questions submitted by.................................34, 134, 204

Electric Vehicle Association, prepared statement.................   402

Fond du Lac Band of Lake Superior Chippewa, prepared statement...   544
Ford Motor Company, prepared statement...........................   424
Frontera Audubon Society, prepared statement.....................   610
Furnish, Hon. James R., Deputy Chief, National Forest System, 
  Forest Service, Department of Agriculture......................    39

General:
    Electric Power Systems, prepared statement...................   419
    Motors Corporation, prepared statement.......................   424
Gilbert, Hon. David A., Budget Officer, Office of the Special 
  Trustee, Department of the Interior............................   141
Goerl, Hon. Vincette L., Chief Financial Officer, Deputy Chief, 
  Office of Finance, Forest Service, Department of Agriculture...    39
Gorton, Hon. Slade, U.S. Senator from Washington:
    Opening statements.............................1, 39, 141, 207, 333
    Prepared statements........................................143, 209
    Questions submitted by.......................17, 102, 182, 245, 361
Gover, Hon. Kevin, Assistant Secretary, Bureau of Indian Affairs, 
  Department of the Interior.....................................   141
    Prepared statement...........................................   161
    Questions submitted to................................182, 187, 204
    Summary statement............................................   157
Greasewood Springs Community School, Inc., prepared statement....   550
Great Lakes Indian Fish and Wildlife Commission, prepared 
  statement......................................................   486

Hartz, Hon. Gary J., Acting Director, Office of Public Health, 
  Indian Health Service, Department of Health and Human Services.     1
Haze, Hon. Pamela K., Deputy Director, Office of Budget, Office 
  of the Secretary, Bureau of Indian Affairs, Department of the 
  Interior.......................................................   141
Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  question submitted by...................................137, 317, 392
Humane Society of the United States, prepared statement..........   606
Hydrocarbon Technologies, Inc., prepared statement...............   400

Intertribal Timber Council, prepared statement...................   480
Izaak Walton League of America, prepared statement...............   567

Jamestown S'Klallam Tribe, prepared statement....................   496
Joslin Diabetes Center, prepared statement.......................   450

Ketchikan Indian Corporation, prepared statement.................   459
Kohl, Hon. Herb, U.S. Senator from Wisconsin:
    Opening statement............................................    44
    Questions submitted by.......................................    36

Lac du Flambeau Band of Lake Superior Chippewa Indians, prepared 
  statement......................................................   490
Leahy, Hon. Patrick J., U.S. Senator from Vermont:
    Opening statement............................................    46
    Questions submitted by.....................................138, 314
Lewis, Hon. Robert, Deputy Chief, Research and Development, 
  Forest Service, Department of Agriculture......................    39
Lincoln, Hon. Michel E., Deputy Director, Indian Health Service, 
  Department of Health and Human Services........................     1
Lower Elwha Klallam Tribe, prepared statement....................   449
Lukachukai Community School Board of Education, Inc., prepared 
  state- 
  ment...........................................................   554
Lummi Indian Nation, prepared statement..........................   502
Lyons, Hon. James, Under Secretary, Natural Resources and 
  Environment, Forest Service, Department of Agriculture.........    39
    Letter from..................................................    76
    Prepared statement...........................................    61
    Summary statement............................................    55

Manuel, Hon. Hilda A., Deputy Commissioner, Indian Affairs, 
  Bureau of Indian Affairs, Department of the Interior...........   141
Marietta College, prepared statement.............................   623
McDougal, Hon. Janice, Deputy Chief, State and Private Forestry, 
  Forest Service, Department of Agriculture......................    39
Metlakatla Indian Community, prepared statement..................   523
Metropolitan Water District of Southern California, prepared 
  statement......................................................   587

National:
    American Indian Court Judges Association, prepared statement.   507
    Association:
        For Equal Opportunity in Higher Education, prepared 
          statement..............................................   628
        For State Community Services Programs, prepared statement   439
        Of Conservation Districts, prepared statement............   597
        Of University Fisheries and Wildlife Programs, prepared 
          statement..............................................   636
    Corn Growers Association, prepared statement.................   406
    Humanities Alliance, prepared statement......................   653
    Indian Child Welfare Association, prepared statement.........   518
    Institutes for Water Resources, prepared statement...........   638
    Mining Association, prepared statement.......................   409
    Research Center for Coal and Energy, West Virginia 
      University, prepared statements..........................404, 431
Native American Fish & Wildlife Society, prepared statement......   512
Navajo Nation, prepared statement................................   562
New Mexico Interstate Stream Commission, prepared statement......   585
Nez Perce Tribal Executive Committee, prepared statement.........   534
Northwest Indian Fisheries Commission, prepared statement........   498

Ornithological Council, prepared statement.......................   603

Partnership for the National Trails System, prepared statement...   576
Pelican Island Preservation Society, prepared statement..........   572
Phillips, Hon. Randle, Deputy Chief, Programs and Legislation, 
  Forest Service, Department of Agriculture......................    39
Pinon Community School Board, Inc., prepared statement...........   559
Port Gamble S'Klallam Tribe, prepared statement..................   468

Quinault Indian Nation, prepared statement.......................   473
Ramah Navajo:
    Chapter, prepared statements...............................493, 521
    School Board, Inc., prepared statement.......................   552
Reid, Hon. Harry, U.S. Senator from Nevada, questions submitted 
  by.............................................................   138
Richardson, Hon. William, Secretary of Energy, Office of the 
  Secretary, Department of Energy................................   333
    Prepared statement...........................................   338
    Summary statement............................................   334
Rock Point Community School of the Navajo Nation, prepared 
  statement......................................................   526
Rough Rock Community School, prepared statement..................   538

Sauk-Suiattle Indian Tribe, prepared statement...................   504
School of Mineral Engineering, University of Alaska, Fairbanks, 
  prepared statement.............................................   408
Seminole Tribe of Florida, prepared statement....................   514
Smith, Hon. Kermit, Chief Medical Officer, Indian Health Service, 
  Department of Health and Human Services........................     1
Spokane Tribe of Indians, prepared statement.....................   475
Squaxin Island Tribe, prepared statement.........................   464
St. George Traditional Council of the Aleut Community of the 
  Pribilof Island of St. George, Alaska, prepared statement......   462
Standing Rock Sioux Tribe, prepared statement....................   516
State Teachers' Retirement System of California, prepared 
  statement......................................................   427
Stevens, Hon. Ted, U.S. Senator from Alaska, opening statements.43, 211
Stockbridge-Munsee Community Band of Mohican Indians, prepared 
  statement......................................................   471

Thompson, Hon. Thomas M., Principal Deputy Special Trustee for 
  American Indians, Office of the Special Trustee, Department of 
  the Interior...................................................   141
    Prepared statement...........................................   146
    Questions submitted to.......................................   182
    Summary statement............................................   144
Trezise, Hon. John D., Director of Budget, Office of the 
  Secretary, Department of the Interior..........................   207
Trout Unlimited, Inc., prepared statement........................   600
Trujillo, Hon. Michael H., M.D., M.P.H., M.S., Assistant Surgeon 
  General, Director, Indian Health Service, Department of Health 
  and Human Services.............................................     1
    Prepared statement...........................................     8
    Summary statement............................................     3

United Keetoowah Band of Cherokee Indians in Oklahoma, prepared 
  statement......................................................   466
University of:
    Pittsburgh, prepared statement...............................   432
    Washington, prepared statement...............................   655
Upper:
    Lake Pomo Rancheria, prepared statement......................   494
    Mississippi River Basin Association, prepared statement......   642
Urban Consortium Energy Task Force, prepared statement...........   421

Valley Floor Habitat Conservation Plan, prepared statement.......   595

Weston Observatory of Boston College, prepared statement.........   640
Wide Ruins Community School, prepared statement..................   543
Wildlife Management Institute, prepared statement................   573
Winnebago Tribe of Nebraska, prepared statement..................   448
Wood River Land Trust, prepared statement........................   620
World Wildlife Fund, prepared statement..........................   611
Yakama Nation Tribal Council, prepared statement.................   477
Yukon River Drainage Fisheries Association, prepared statements589, 618
Yurok Tribe, prepared statement..................................   443


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

                                                                   Page
Accountabilty:
    Actions......................................................    65
    Program and financial........................................    73
Additional committee questions...................................   102
Administration priorities, other.................................    63
Fire.............................................................   115
Forest planning/monitoring.......................................   108
GPRA.............................................................   117
Land health and sustainable communities..........................    70
Mt. St. Helen's National Volcanic Monument.......................   114
National initiatives.............................................   110
Natural resource agenda..........................................    70
President's budget:
    Other highlights of the......................................    74
    Priorities of the............................................    62
Research.........................................................   124
Survey/manage....................................................   106
Timber...........................................................   116

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

Additional committee questions...................................   361
Advance Gas Turbine System (ATS).................................   392
ASHRAE standards.................................................   385
Budget:
    Priorities...................................................   377
    Request......................................................   335
    The fiscal year 2001.........................................   340
Carbon sequestration.............................................   383
Coal:
    Research--vision 21..........................................   377
    Technology, clean.....................................343, 348, 350
Congressional guidance and earmarks..............................   371
Earmarks.......................................................346, 354
Economic regulation..............................................   344
Energy:
    Efficiency........................336, 340, 362, 365, 368, 369, 370
    Efficiency--21-CR............................................   384
    Information Administration........337, 344, 361, 364, 367, 369, 370
    Initiatives fiscal year 2001.................................   338
    Policy.......................................................   335
EPA on emissions rule making, coordination with................358, 360
Federal Energy:
    Management Program...........................................   386
    Technology Center as national lab............................   379
Fossil energy...................................349, 363, 366, 369, 370
    Research and development.....................................   341
Fuel cells.......................................................   380
Gas prices.......................................................   346
Government Performance and Results Act...........................   386
Inter-agency coordination........................................   372
International programs...........................................   372
Low Emission Boiler System (LEBS)................................   380
National Energy Technology Laboratory............................   352
Naval Petroleum Reserves and Oil Shale Reserves..................   343
Oil:
    Prices.......................................................   335
    Production...................................................   345
    Research.....................................................   374
PM 2.5 monitoring................................................   384
Price per gallon of gasoline last summer.........................   346
Radioactively contaminated scrap materials.......................   391
Regional heating oil reserve.....................................   375
Strategic Petroleum Reserve......................................   343
    Filling SPR with royalty oil.................................   375
    Oil swapps to fill SPR.......................................   376
Successes, recent................................................   361
Transportation research........................................360, 374
Turbines.........................................................   381
Vehicles, partnership for a new generation of....................   378

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                         Indian Health Service

Across-the-board reduction, fiscal year 2000.....................    33
Additional committee questions...................................    17
Assistant Secretary, elevation to................................    14
Budget, needs-based..............................................    20
Contract:
    Health Services..............................................    23
    Support costs................................................    11
        Funds, distribution of...................................    17
        Language, request for....................................    19
Diabetes initiatives.............................................    29
Facilities roundtable............................................    22
Fort Defiance hospital, Navajo Nation............................    27
Headquarters.....................................................    23
Health disparities...............................................    24
HIV/AIDS.........................................................    24
Inflation, medical...............................................    20
Joint:
    Demonstration Program........................................    36
    Venture Program..............................................    21
Medicare/Medicaid funds..........................................    25
Mental health services...........................................    32
New contracts/compacts, moratorium lifted on.....................    19
Per-capita funding, population growth, fixed costs...............     5
Population growth................................................    21
President's Budget, highlights of the............................     4
Rescissions:
    Fiscal year 2000.............................................    19
    Impact of....................................................    12
Sanitation facilities............................................    28
SIPI Dental Clinic in Albuquerque, closure of the................    26
Tribes and urban groups, partnership with........................     6

                       DEPARTMENT OF THE INTERIOR

                        Bureau of Indian Affairs

Additional committee questions...................................   182
Construction.....................................................   167
Contracts or Compacts, new.......................................   197
Department of Education, study with..............................   191
Education.................................................161, 173, 188
Employee awards..................................................   170
Fiscal year 2000 bill, section 127 of the........................   188
Government credit cards..........................................   198
GPRA questions...................................................   199
High Level Implementation Plan...................................   184
Housing:
    Assistance...................................................   199
    Improvement Program..........................................   175
        Funding distribution effect on Northwest Tribes..........   175
Indian affairs...................................................   170
Indian land:
    And water claim settlements and miscellaneous payments to 
      Indians....................................................   167
    Consolidation..............................................167, 194
        Pilot....................................................   168
Law enforcement................................................162, 194
National Academy of Public Administration......................163, 183
Non-recurring programs...........................................   166
Office moves.....................................................   195
Office of the Assistant Secretary, realignment of the............   197
Office Operations:
    Central......................................................   166
    Regional.....................................................   166
Probate backlog..................................................   184
Recurring programs, other........................................   165
Request, Office of Special Trustee fiscal year 2001..............   182
School:
    Construction...............................................177, 192
    Operations and Maintenance formula grants and Area/Agency 
      Technical Support funds, use of............................   191
Special programs and pooled overhead.............................   166
Tribal:
    Education departments........................................   191
    Priority allocations.......................................164, 196
    Support, other...............................................   163
Trust:
    Asset and Accounting Management System.......................   185
    Funds Accounting System......................................   186
    Improvements.................................................   163
    Principles...................................................   172

                        Office of the Secretary

Abandoned Mine Lands Program.....................................   297
Additional committee questions...................................   245
All-H papers.....................................................   242
Amphibian research...............................................   312
Audits...........................................................   289
Automation of land and mineral records...........................   276
Basic research functions.........................................   237
Biological Resources Division....................................   247
Bitterroot/Selway Grizzly reintroduction.........................   329
BLM/FS off-highway vehicle proposal..............................   330
Bragg v. Robertson...............................................   296
Budget overview..................................................   217
Bureau of:
    Indian Affairs...............................................   285
    Land Management............................................270, 310
        Employee dissatisfaction.................................   329
        Grazing permit renewals..................................   314
        Gun restrictions on lands..............................235, 326
        Morale problem in........................................   236
Caspian:
    Tern population at Rice Island and cooperative efforts with 
      the NMFS, update on the....................................   243
    Terns......................................................243, 283
CITES............................................................   328
Clean Water Action Plan..........................................   297
Coal bed methane.................................................   271
Cobell case......................................................   286
Combined Benefit Fund............................................   295
Commonwealth of the Northern Mariana Islands.....................   300
Compact:
    Impact.......................................................   297
    Of Free Association..........................................   299
Conservation plan, desert tortoise habitat.......................   225
Contract support costs...........................................   285
Coral Reef Initiative............................................   298
Counties, payments to............................................   304
Dam breaching....................................................   283
Damage assessment................................................   290
DOI employees, investigations of.................................   330
Dollars, Upper Missouri Land and Water Conservation..............   326
Duty to market...................................................   292
Embezzlement, alleged............................................   293
Endangered Species Act...........................................   279
Escalante Science Center funding.................................   224
Everglades.......................................................   248
    Land acquisition.............................................   241
Fish and Wildlife Service........................................   279
    Concerns.....................................................   320
    Reorganization...............................................   284
Forensic lab.....................................................   281
Franchise fees, NPS Fort Sumter tours............................   317
Funding, Natchez Trace Parkway...................................   228
Goose depredation................................................   281
Government:
    Issued credit cards, use of..................................   267
    Performance and Results Act..................................   255
Grazing permits..................................................   278
    Expiring.....................................................   244
Indian issues....................................................   213
Joint commissions, Connecticut River.............................   315
Lake Champlain Fish and Wildlife Resource Office.................   316
Land:
    Acquisition................................................253, 280
        And lands legacy.........................................   251
    Legacy.....................................................218, 303
        Initiative...............................................   300
        Legislation..............................................   237
        Program..................................................   215
    Management:
        Plans....................................................   273
        Research.................................................   245
Landsat 7........................................................   301
Law enforcement..................................................   303
Leave no trace...................................................   264
Lewis and Clark...........................................242, 247, 277
Maintenance backlog..............................................   216
Many glaciers hotel..............................................   234
Marsh-Billings-Rockefeller National Historical Park..............   316
Minerals Management Service......................................   291
Monument designations............................................   270
Mormon crickets..................................................   224
National:
    Conservation areas...........................................   234
    Conservation Training Center.................................   227
    Monument Designation.........................................   267
    Park Service...............................................278, 305
        Petroglyph Monument......................................   313
Natural resource damage assessment and restoration handbook......   289
Noxubee Wildlife Refuge..........................................   231
Office of:
    Insular Affairs..............................................   297
    Special Trustee and BIA......................................   286
    Surface Mining.............................................295, 309
    The Inspector General........................................   289
    The Solicitor................................................   286
    The Special Trustee..........................................   213
Offshore leases..................................................   292
Ohio River islands NWR staffing..................................   239
Oil valuation--recent court case.................................   291
Organization.....................................................   289
    Structure....................................................   286
OSM:
    Director Karpan..............................................   226
    Regulatory grants............................................   239
Performance awards...............................................   263
Port Angeles water supply........................................   244
Prior Service Trust Fund.........................................   300
Private sector, competition with the.............................   302
Program:
    Increase, fiscal year 2001...................................   288
    Management...................................................   290
Public lands, gun restrictions on................................   236
Real-time Hazards Initiative.....................................   301
Receipts, offsetting.............................................   291
Recreation Fee Demonstration Program...........................240, 254
Reengineering efforts............................................   293
Rescission, across-the-board.....................................   312
San Rafael Swell legislation.....................................   225
Sand and gravel..................................................   295
School construction..............................................   285
Shiloh Battlefield...............................................   231
Silvio O. Conte Education Center.................................   317
State:
    Grant program funding........................................   228
    Grants for non-game wildlife.................................   309
    Regulatory Program...........................................   296
Stewardship, investment, hope, the first Americans...............   217
Subsistence......................................................   280
Taking care of what we have......................................   220
Tobacco settlement...............................................   298
Trust reform.....................................................   286
U.S. Fish and Wildlife Service National Fish and Wildlife 
  Forensics Laboratory...........................................   282
U.S. Geological Survey...........................................   300
Upper Missouri.................................................232, 321
Vicksburg National Military Park.................................   230
West Virginia coal mine permitting process.......................   225
Wild Horse and Burro Program.....................................   274
Wildlife:
    Program, partners for........................................   314
    State grants, non-game.......................................   281
Working Capital Fund.............................................   313
Yellowstone:
    Bison in...................................................235, 325
    Snowmobiling in............................................234, 323

                     Office of the Special Trustee

Additional committee questions...................................   182
Budget:
    Overview, fiscal year 2001...................................   161
    Request, fiscal year 2001....................................   146
Cobell litigation................................................   150
Credit card misuse...............................................   151
Executive direction..............................................   147
Funding priorities...............................................   154
High Level Implementation Plan...................................   184
Indian Trust Management Reform Progress..........................   146
Land consolidation...............................................   147
Lease payments, Crow Reservation.................................   149
National Academy of Public Administration........................   183
National Archives fire...........................................   148
Probate backlog..................................................   184
Request, Office of Special Trustee fiscal year 2001..............   182
60 minutes special...............................................   148
TAAMS............................................................   148
Trust:
    Asset and Accounting Management System.....................148, 185
    Fund accounting..............................................   147
    Funds Accounting System (TFAS)...............................   186


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
